<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2000</title>
<body><pre>[Senate Hearing 106-381]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-381
 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2000

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2605/S. 1186

 AN ACT MAKING APPROPRIATIONS FOR ENERGY AND WATER DEVELOPMENT FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2000, AND FOR OTHER PURPOSES

                               __________

                         Department of Defense
                          Department of Energy
                       Department of the Interior
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations





                 U.S. GOVERNMENT PRINTING OFFICE
54-212 CC            WASHINGTON : 2000


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-060265-3



                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                 PETE V. DOMENICI, New Mexico Chairman
THAD COCHRAN, Mississippi            HARRY REID, Nevada
SLADE GORTON, Washington             ROBERT C. BYRD, West Virginia
MITCH McCONNELL, Kentucky            ERNEST F. HOLLINGS, South Carolina
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
CONRAD BURNS, Montana                HERB KOHL, Wisconsin
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
TED STEVENS, Alaska (ex officio)

                           Professional Staff

                             Alex W. Flint
                           W. David Gwaltney
                         Greg Daines (Minority)

                         Administrative Support

                           Lashawnda Leftwich



                            C O N T E N T S

                              ----------                              

                         Tuesday, March 9, 1999

                                                                   Page
Department of the Interior: Bureau of Reclamation................     1
Department of Defense--Civil: Department of the Army: Corps of 
  Engineers--Civil...............................................    63

                        Thursday, March 11, 1999

Department of Energy: Atomic Energy Defense and Nonproliferation 
  Programs.......................................................   193

                        Thursday, March 18, 1999

Department of Energy: Environmental Management and Civilian Waste 
  Management Program.............................................   269

                        Tuesday, April 13, 1999

Department of Energy:
    Office of Science............................................   383
    Office of Nuclear Energy, Science and Technology.............   383
    Office of Energy Efficiency and Renewable Energy.............   383

                       NONDEPARTMENTAL WITNESSES

California water resource development projects...................   525
Nationwide water resource organization...........................   599
New York and New Jersey water resource projects..................   612
Southeastern U.S. water resource development projects............   620
Ohio River Valley inland navigation projects.....................   651
Mississippi and Louisiana water resource projects................   656
Midwest U.S. water resource development projects.................   699
Upper Midwest water projects.....................................   729
Southwest U.S. water resource development projects...............   748
Pacific Northwest water resource projects........................   770
Department of Energy programs and activities.....................   790
California navigation and related projects.......................   850


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2000

                              ----------                              


                         TUESDAY, MARCH 9, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Cochran, Gorton, Bennett, 
Burns, Craig, Stevens, Reid, Kohl, and Dorgan.

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

STATEMENTS OF:
        PATRICIA BENEKE, ASSISTANT SECRETARY OF THE INTERIOR, WATER AND 
            SCIENCE
        ELUID MARTINEZ, COMMISSIONER, BUREAU OF RECLAMATION


                           opening statement


    Senator Domenici. The committee will please come to order.
    Patty, it's good to see you again.
    Today, we begin our hearings on the fiscal year 2000 budget 
for agencies and programs under the jurisdiction of the Energy 
and Water Development Subcommittee. This morning we have 
representatives from the Department of the Interior to review 
the funding requests of the Bureau of Reclamation. Following 
their testimony, we will hear from the Corps of Engineers. This 
continues our tradition of alternating the order of the Corps' 
and the Bureau's testimony each year in an effort to be fair to 
agencies and members who may be interested in one over the 
other.
    First, it is a pleasure to welcome Patty Beneke, Assistant 
Secretary of the Interior for Water and Science; and Eluid 
Martinez, Commissioner of the Bureau of Reclamation and a 
resident of the State of New Mexico. Eluid, it is nice to have 
you here.
    Mr. Martinez. Thank you, Mr. Chairman.
    Senator Domenici. Both of our witnesses appeared last year 
before the committee and are well known to both the staff and 
the committee members.


                             budget request


    The fiscal year 2000 budget request for the Bureau of 
Reclamation totals $856,600,000, compared to the appropriation 
of $780.5 million, an increase of $76 million over the current 
year. This includes an increase of $30 million over the 1999 
water and related resources; a $20 million increase for the 
CALFED restoration program, which totals $95 million for the 
year 2000; and a $14 million increase in the Central Valley 
Project Restoration Fund in California, for a total of $47.3 
million; and some smaller increases in other programs and 
activities.
    Our initial review indicates that there are no major 
changes or proposals put forth in the budget request of the 
administration for the Bureau of Reclamation for the year 2000.
    Now, having said that, since we have much to do this 
morning, I will say nothing further and yield to Senator Reid, 
our ranking member, for any comments that he may have.
    So, again, I welcome both of you. I welcome those in the 
audience, and clearly the Corps of Engineers will follow these 
witnesses.


                    statement of senator harry reid


    Senator Reid. Mr. Chairman, I appreciate very much your 
involvement, of course, as chair. I will follow your example 
and ask unanimous consent that my full statement be made part 
of the record.
    I would just comment that I am also a member of the 
authorizing committee, the Environment and Public Works 
Committee, and we are this morning having a hearing on 
something that we will have to fund at a later time. We are 
having the Corps of Engineers on the Water Resources 
Development Act. So, I am going to have to be excused at a 
later time to whip over there and make an appearance.
    The Bureau of Reclamation has had a significant history in 
the State of Nevada. The first ever Bureau of Reclamation 
project in the country was in Nevada, the Newlands Project, 
which for 70 years was fairly noncontroversial, but the last 20 
years has been very controversial. But the Bureau has always 
had a prominent place in that project.
    Also, of course, with the construction of Boulder, later to 
become the Hoover Dam, the Bureau of Reclamation was and has 
been heavily involved in that little city in the southern part 
of the State.
    Flood control projects which are becoming so important in 
the two metropolitan areas of Reno and Las Vegas, the Corps of 
Engineers is vitally involved. Hundreds of millions of dollars 
are being spent in those two areas to stop the loss of life and 
property.

                           prepared statement

    So, I look forward to this hearing and to working with 
these two agencies during the coming year.
    [The information follows:]

                Prepared Statement of Senator Harry Reid

    Mr. Chairman, I appreciate this hearing on the U.S. Army Corps of 
Engineers and the Bureau of Reclamation. Both the Corps and Bureau have 
played a vital role in the development of American water management 
infrastructure that is all too often overlooked. And unfortunately, 
given the numbers that I see in the Budget Request, the future role of 
the Bureau and Corps are now minimized in the perception of some in the 
administration.
    The need for water projects is not diminishing, indeed some may 
argue that the need is increasing, and yet some at Office of Management 
and Budget and elsewhere would like to dictate the course of the 
program by tightening the budget for surveys, studies and new 
construction. I think it is a perilous path to trod when we 
underestimate the economic, societal, and hydrological impacts of these 
water programs. This is why the communities at home so distinctly 
recognize these projects. And while it is derisively called a 
congressional pork program, we need not make any apologies for that 
because of the many benefits of these projects as water is managed 
throughout the nation.
    The Army Corps of Engineers has a history that dates back to the 
origins of the nation and I appreciate the vast function that the Corps 
has in the management of the nation's navigational waters. For example, 
this last week, I learned that half of New Orleans lives under sea 
level and without the maintenance of its levees and canals that city, 
indeed, most of the state of Louisiana would be under water. Around the 
nation, there are communities that rely on these flood control 
projects, from Reno to Las Cruces, New Mexico.
    There's no doubt that the work on the harbors and ports of the 
nation is essential to our trade and commerce. For instance, the ports 
of the nation move over 13.5 million tons of breakbulk cargo annually; 
which is an estimated $600 billion in international cargo generating 
over $150 billion in tax revenue. There are critical issues that we 
need to pursue further, and about which I will have specific questions, 
including the administration's continuing concern about the endless 
need of beach or shoreline erosion. Since Nevada is not on the 
shoreline, I do not have a parochial interest but a concern that 
commitment made to these states and communities cannot be washed away, 
pun intended.
    Additionally, the cooperative agreements that are being negotiated 
with non-federal sponsors are creating a mechanism that could create a 
very precarious financial condition for the Corps. The Chairman and I 
are working through that issue. I have discussed that issue with both 
the Assistant Secretary and General Fuhrman and I appreciate your 
perspectives.
    There are a number of projects that are now rectifying the mistakes 
of management of water resources and engineering approaches in such 
places as the Kissimmee River that feeds into the Florida Everglades 
and the Truckee River in Nevada. I think we need to assess the future 
commitment that rectifying these mistakes will require of us.
    The Bureau of Reclamation has recently celebrated its 150th 
anniversary. I congratulate the Bureau on its many achievements and 
stellar record. Many of the communities throughout the western United 
States were developed as a consequence of the Bureau of Reclamation's 
water management.
    As you are aware, there is some criticism that the bureau has been 
expanding its mission and activities. I am interested in your vision, 
Assistant Secretary and Commissioner, of the future of the Bureau and 
not just this fiscal year.
    I note that the Budget Request has $95 million for California Bay 
Delta Restoration which is bringing that request into line with the 
appropriations level, generally. That still is a significant amount of 
money that could be funding many multiple projects. I hope you will 
discuss the progress and measurable benchmarks of CALFED effort.
    Additionally, I would appreciate a discussion of the environmental 
restoration mission and its relationship to the reclamation management 
of water.

                      statement of patricia beneke

    Senator Domenici. Senator Bennett, would you like to 
comment?
    Senator Bennett. No.
    Senator Domenici. Thank you for coming to the hearing this 
morning.
    Patty, you are first. Patty Beneke.
    Ms. Beneke. Thank you very much, Mr. Chairman, members of 
the subcommittee. I am pleased to discuss the President's 
fiscal year 2000 budget request for the Bureau of Reclamation. 
Eluid Martinez, the Commissioner of the Bureau, is here today 
as well, and he will provide further detail with respect to the 
budget.
    I am going to be very brief this morning and summarize my 
testimony.
    As you stated, Mr. Chairman, the request for the Bureau of 
Reclamation totals $856.6 million. Of this amount, over $278 
million is requested for facility operations, maintenance, and 
rehabilitation. This is an increase of over $15 million from 
last fiscal year and reflects the fact that the Commissioner 
and I place a high priority on these projects.
    I also note that the budget request for the Department 
reflects the Administration's continued commitment to address 
natural resource issues by working in geographically based 
partnerships. These partnerships cross not only jurisdictional 
boundaries within the Federal Government, but also involve the 
States, tribes, local communities, and affected stakeholders. 
An example of one such partnership is the California Bay-Delta 
Program, and I would like to take just a few minutes to talk a 
little bit about that very important program.

                      california bay-delta program

    This is a tremendously important effort under which CALFED, 
comprised of 10 Federal agencies and 4 State agencies, is 
working with all interested stakeholders to develop a long-term 
solution to the many water resource issues presented in the San 
Francisco Bay-Delta region in California. This solution will 
address water supply reliability issues, levy stabilization 
which is key to flood protection, water quality, and restoring 
the health of the Bay-Delta region. The Bay-Delta itself 
provides drinking water to over two-thirds of the State of 
California and irrigation water to three-quarters of the 
Nation's fruit and vegetable crop. It is also a national 
resource in that it is the largest wetland estuary in the West.
    From our perspective at Interior, a key goal of the program 
is to provide greater certainty and reliability of supply to 
our many Central Valley Project contractors, as well as to 
resolve issues relating to the ecological health of the Bay-
Delta region.
    The President's fiscal year 2000 budget for the Bureau of 
Reclamation requests $95 million for Federal cost sharing for 
the program. Of this amount, $75 million would be used pursuant 
to the California Bay-Delta Environmental Enhancement Act 
passed by Congress a couple of years ago. These funds would 
build upon the restoration begun in fiscal year 1998 and 
continued in 1999 by monitoring prior projects and initiating 
and implementing new projects approved by CALFED and the 
Secretary. The remaining $20 million is requested for non-
ecosystem restoration activities, such as groundwater storage, 
water use efficiency, water quality, and watershed management.
    This request signals that the Administration has a 
commitment to funding all elements of the California Bay-Delta 
Program. We believe it is important to get this work underway.

                          central utah project

    Finally, this morning I would like to note that 
responsibility for overseeing the implementation of the Central 
Utah Project Completion Act rests with my office, and I would 
be pleased to answer any questions you might have on this 
topic, as well as any others.

                           prepared statement

    Again, thank you for the opportunity to testify. It is an 
honor and privilege to be here. With your permission, I would 
like to pass the baton on to Commissioner of Reclamation, Eluid 
Martinez, who will provide further details on the budget 
request.
    [The statement follows:]

                Prepared Statement of Patricia J. Beneke

    I am pleased to appear before this Subcommittee again as Assistant 
Secretary for Water & Science to testify in support of the President's 
fiscal year 2000 budget for the Bureau of Reclamation and the Central 
Utah Project.
    Eluid Martinez, the Commissioner of the Bureau of Reclamation is 
also appearing today. His testimony will address details of the fiscal 
year 2000 budget request for the Bureau of Reclamation. This morning I 
would like to highlight only one or two key elements in Reclamation's 
budget and also discuss the request for the Central Utah Project, for 
which my office is responsible. Ron Johnston, Program Director for the 
Central Utah Project (CUP) Completion Act Office is also with me today.
    Reclamation's fiscal year 2000 request will allow the timely and 
effective delivery of project benefits; ensure the reliability and 
operational readiness of Reclamation's dams, reservoirs, power plants, 
and distribution systems; and identify, plan, and implement dam safety 
corrective actions and site security improvements. Providing adequate 
funding for the operation, maintenance and rehabilitation of its 
facilities continues to be one of Reclamation's highest priorities, and 
its staff works closely with water users and other stakeholders to 
ensure that available funds are used effectively.
    The budget request for the Department of the Interior reflects the 
Department's and the Administration's continued commitment to address 
natural resource issues by working in geographically-based partnerships 
that cross not only the jurisdictional boundaries within the Federal 
government but also involve the States, Tribes, local communities and 
affected stakeholders. Solving natural resource problems is vital to 
the successful operation of Reclamation Projects.
    This approach is reflected in several initiatives in the 
Department's fiscal year 2000 budget. In South Florida, several Federal 
agencies are working closely with the State, Tribes, local communities 
and affected stakeholders to restore the Everglades. Because funding 
for another such vital effort, the multi-agency Bay-Delta Restoration 
Program, is included in the Bureau of Reclamation's budget request, I 
will discuss it in more detail this morning.
               california bay-delta ecosystem restoration
    The fiscal year 2000 budget proposes funding of $75 million for 
ecosystem restoration efforts that will build on the fiscal year 1998 
and fiscal year 1999 programs by monitoring prior projects and 
initiating and implementing new projects approved by CALFED and the 
Secretary. In addition, $20 million is requested for non-ecosystem 
restoration activities authorized under various current authorities, 
such as water use efficiency, water quality, groundwater storage, 
levees, conveyance, and watershed management that would be common to 
any version of the overall Bay-Delta Long-term Plan that is ultimately 
selected.
    Ecosystem Restoration funds are requested in an account within the 
Bureau of Reclamation and provided to participating agencies based upon 
the program recommended by CALFED and approved by the Secretary of the 
Interior in consultation with participating agencies. Participating 
agencies will work directly with and administer contracts with non-
Federal entities. Federal funds would be available in a manner 
consistent with the terms of the existing cost-sharing agreement and 
environmental review requirements. Also, CALFED is developing a 
comprehensive framework to provide a more reliable water supply for all 
uses, stabilize levees, and improve water quality. Restoring the health 
of the Bay-Delta ecosystem is central to meeting these objectives.
    Fiscal year 1998 was the first year that Federal agencies had funds 
for the Bay-Delta Program. During the year, Federal agencies made 
considerable progress in developing a project selection/approval 
process to assure that funds are being used for the highest priority 
ecosystem restoration projects and that all proposed and selected 
projects comply with Federal contract provisions. The process assures 
extensive public participation. By the end of the year, CALFED had 
recommended and the Secretary of the Interior had approved programs and 
projects to use all of the $85 million appropriated in fiscal year 
1998. Reclamation had contracts or agreements with other agencies 
obligating $73 million.
    CALFED is using the fiscal year 1999 funds expeditiously and on 
high priority activities. The Secretary has approved ecosystem 
restoration projects that would use $65 million of the $75 million 
appropriated in fiscal year 1999. CALFED currently has a request for 
proposals out to the public to solicit other ecosystem restoration 
projects that will be funded in fiscal year 1999 and fiscal year 2000.
    The Administration is submitting authorization language that would 
extend current spending authorization through 2003 to enable the 
ecosystem restoration program to be fully funded at the $430 million 
authorized by the California Bay-Delta Environmental Enhancement Act.
                         bureau of reclamation
    Aside from the request for the Bay-Delta Restoration initiative, 
the budget request for the Bureau of Reclamation totals $761.6 million, 
an increase of $30.2 million from the fiscal year 1999 level. The 
request includes adequate funding for operations, maintenance and 
rehabilitation, which continues to be a high priority for both the 
Commissioner and me. The request includes $71 million for the dam 
safety program, $27 million for the Central Arizona Project; $28.7 
million for the Colorado River Basin Salinity Control Program; $27 
million for the Garrison Diversion Unit; $31.5 million for Water 
Reclamation/Reuse projects; $125 million for the Central Valley 
Project; $47.3 million for the Central Valley Project Restoration Fund; 
$13 million for Columbia/Snake River Salmon Recovery and $15 million 
for Endangered Species Recovery in other river basins.
    Reclamation's water management mission places a greater emphasis on 
water conservation, recycling and reuse; developing partnerships with 
its customers, States and Tribes; finding ways to bring various 
interests together to address their water needs; good stewardship of 
Reclamation's facilities; and transferring title and operation of some 
facilities to local beneficiaries. All these changes have one goal--to 
meet the increasing water demands of the West while protecting the 
environment and the public's investment.
    The Reclamation budget request also includes the Annual Performance 
Plan required under the Government Performance and Results Act. This 
plan identifies the annual goals for fiscal year 2000 that support 
Reclamation's Strategic Plan.
                  central utah project completion act
    The Central Utah Project Completion Act provides for completion of 
the Central Utah Project (CUP) by the Central Utah Water Conservancy 
District. The Act also authorizes funding for fish, wildlife, and 
recreation mitigation and conservation; establishes the Utah 
Reclamation Mitigation and Conservation Commission to coordinate 
mitigation and conservation activities; and provides for the Ute Indian 
Rights Settlement.
    The Secretary is prohibited from delegating his responsibilities 
under the Act to the Bureau of Reclamation. As a result, responsibility 
for overseeing implementation of the Act rests with the Assistant 
Secretary for Water and Science. The Department has established a 
program coordination office in Provo, Utah, with a Program Director to 
provide oversight, review, and liaison with the District, the 
Commission, and the Ute Indian Tribe, and to assist in administering 
the responsibilities of the Secretary under the Act.
    The fiscal year 2000 request for the Central Utah Project 
Completion Account provides $39.4 million for use by the District, the 
Commission, and the Department to implement Titles II-IV of the Act, a 
decrease of $3.1 million from the fiscal year 1999 enacted level. The 
request includes $18.6 million for the District to initiate 
construction on the remaining segments of the Diamond Fork System; to 
complete construction of the Wasatch County Water Efficiency Project; 
to implement approved water conservation and water management 
improvement projects; to implement the groundwater recharge and 
conjunctive use program; to initiate construction of the Duchesne/
Strawberry diversion structures; and to continue development of 
planning and NEPA documents on facilities to deliver water in the Utah 
Lake drainage basin. No new funds are requested for the Uinta Basin 
facilities.
    The request also provides $12.0 million for use by the Commission 
for mitigation and conservation projects authorized in Title III of the 
Act, including fish hatchery improvements, construction of the Daniels 
Creek Pipeline, and for acquisition of habitat, access, and water 
rights along the Provo River and other key watersheds; and for 
completing other mitigation measures identified in Reclamation planning 
documents under Title II of the Act.
    Finally, the request includes funds for the Federal contribution to 
the principal of the Utah Reclamation Mitigation and Conservation 
Account ($5.0 million); for mitigation and conservation projects 
outside the State of Utah ($0.4 million); for modifications to Syar 
Tunnel that are necessary to meet the minimum instream flow 
requirements ($2.0 million); and for program administration ($1.3 
million).
    In addition to the request described above, the Bureau of Indian 
Affairs' budget includes $27.5 million for the Ute Indian Rights 
Settlement; and $5.0 million is included in the request for the Western 
Area Power Administration for its contribution to the Utah Reclamation 
Mitigation and Conservation Account.
    This completes my statement today. Again, thank you for providing 
me the opportunity to discuss with this subcommittee our fiscal year 
2000 requests. The Commissioner and I will be pleased to respond to 
your questions.

                     STATEMENT OF ELUID L. MARTINEZ

    Senator Domenici. Commissioner, we are glad to have you.
    Mr. Martinez. Good morning, Mr. Chairman, members of the 
subcommittee. I appreciate this opportunity to discuss the 
President's fiscal year 2000 budget with the subcommittee.
    I am sure all of you are aware of the history of the Bureau 
of Reclamation, and my written statement goes into that. I will 
summarize my statement and get to the issues as I view them.
    Our budget request is for $856.6 million, of which 
approximately $762 million is for ongoing Reclamation programs. 
Also included is $95 million for the California Bay-Delta 
Restoration account: $75 million for ecosystem restoration, and 
$20 million for our other activities.
    The $652.8 million requested in the Water and Related 
Resources account basically deals with our water resource and 
energy management programs, our wildlife and fish management 
programs, our land management programs, and our facility 
operation and maintenance. Also included in our request is 
$47.3 million for the Central Valley Project Restoration Fund, 
and $12.4 million for our loan program to continue five small 
loan projects, two of which will be completed this year. The 
balance is reflected in $49 million in our request for policy 
administration, which is a $2 million increase over the fiscal 
year enacted level.

                         safety of dams program

    Mr. Chairman, members of the subcommittee, our Safety of 
Dams program basically addresses the continuing safety and 
analysis of our structures. We place high priority on the 
safety of our dams. It funds adequately, I believe, the 
operation and maintenance of our facilities out West. It 
continues to move along some of our construction projects 
specifically dealing with waste water reuse and rural water 
distribution systems, probably not at the level that the 
project sponsors would wish, and includes some monies for some 
Indian water systems, including initiation of construction of 
the Gila portion of the Central Arizona Project.

                           prepared statement

    Generally, Mr. Chairman, that concludes my summary remarks. 
I will be glad to answer any specific questions you might have.
    Senator Domenici. Your statement will be made a part of the 
record, and yours, Ms. Beneke, will also be made a part of the 
record. I did not say that Senator Reid's was, but it will be.
    [The statement follows:]

              Prepared Statement of Hon. Eluid L. Martinez

    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to appear before the Subcommittee this morning to discuss 
the Bureau of Reclamation's fiscal year 2000 budget request.
    The Bureau of Reclamation has been in existence for 97 years, 
developing and managing water and related resources in the Western 
United States. Having constructed more than 600 dams and reservoirs, 
including such significant structures as Hoover and Grand Coulee Dams, 
Reclamation today is the largest water wholesaler in the country, 
bringing water resources to more than 31 million people and irrigating 
approximately 10 million acres of land. Reclamation is also the second 
largest producer of hydroelectric power in the nation and the fifth 
largest electric utility in the West. Reclamation's 58 powerplants 
annually provide more than 40 billion kilowatt-hours, generate nearly a 
billion dollars in power revenues, and produce enough electricity to 
serve six million homes.
    Today, the main focus of the Bureau of Reclamation is to provide 
improved water resources management. Reclamation programs include a 
broad range of water uses, such as domestic water supply, irrigation, 
Indian self-sufficiency, fish and wildlife protection, endangered 
species recovery, environmental restoration, and recreation. Since 
water is a scarce resource in the West, the budget proposes innovative 
strategies for addressing water resource issues, including water 
reclamation and reuse.
    For fiscal year 2000, the Bureau of Reclamation is requesting 
$856.6 million in new budget authority. This request includes $761.6 
million for Reclamation's traditional programs, an increase of $30.2 
million from the fiscal year 1999 level; and $95.0 million for the 
California Bay-Delta Ecosystem Restoration account, which is 
administered by Reclamation but funds activities in several Federal 
agencies, an increase of $20.0 million.
    Before moving into the more specific financial data, I'd like to 
discuss several programs and issues of interest.
                        annual performance plan
    The Government Performance and Results Act (GPRA) of 1993 requires 
annual performance plans beginning with fiscal year 1999 and annual 
performance reports beginning in March of 2000. Reclamation has made 
significant progress in implementing GPRA. Reclamation has begun 
submitting quarterly reports to the Department showing progress made in 
accomplishing the goals and indicators in the fiscal year 1999 
Performance Plan. Based on Reclamation's Strategic Plan, the fiscal 
year 2000 Annual Performance Plan has been developed to address the 
direction of key programmatic activities. This plan reflects the 
linkage between strategies and goals of the Strategic Plan, the annual 
performance goals and indicators, and the programmatic budget. Each 
performance goal is linked to program and financing activities and 
accounts as indicated in the tables provided with the Annual 
Performance Plan.
                               dam safety
    Reclamation's Dam Safety Program is critical to the management of 
risks associated with events, such as earthquakes, floods, etc., that 
could threaten the safety of Reclamation dams, and the downstream 
public, property, and natural resources near those structures. Ensuring 
the safety and reliability of Reclamation dams continues to be one of 
Reclamation's highest priorities. Approximately 50 percent of 
Reclamation's dams were built between the years 1900 and 1950 and 
approximately 90 percent of the dams were built before current state-
of-the-art design and construction practices. Aging dams, which lack 
state-of-the-art structural reliability features, place a greater 
reliance on ongoing risk management activities such as monitoring, 
examinations and, engineering analyses to assure safe performance of 
any dam. A strong Dam Safety Program must be maintained to identify 
quickly any adverse performance within Reclamation's inventory of aging 
dams and to carry out necessary corrective actions when unreasonable 
public risks are identified.
    Reclamation's fiscal year 2000 budget request includes $60.9 
million for the Safety of Dams Evaluation and Modification Program that 
provides for a variety of risk management activities pertaining to 
Reclamation's 362 high and significant hazard dams. Included in that 
amount are preconstruction and construction activities on up to 26 dams 
which may require modifications for safety reasons. Most notable are 
the activities at Yakima Project, Washington, and Casitas Dam, Ventura 
River Project, California, which have critical Safety of Dams issues 
that require modifications of significant cost and scope.
    In addition, $8.8 million is being requested to complete 
modifications on Bradbury Dam in California, Reservoir A Dam in Idaho, 
Pueblo Dam in Colorado, and for ongoing modifications at Horse Mesa Dam 
in Arizona. Modifications on Lost Creek Dam in Utah and Twin Buttes Dam 
in Texas are scheduled to be completed in fiscal year 1999 with no 
additional funding anticipated for fiscal year 2000. An additional $1.6 
million is included in the request for the Department of the Interior 
Dam Safety Program.
    It should be noted that Reclamation's fiscal year 1999 Dam Safety 
Program request was reduced by $8,787,000. As a result, Reclamation had 
to re-prioritize its Safety of Dams risk reduction activities in fiscal 
year 1999, and shift some activities and costs into fiscal year 2000. 
The reduction impaired Reclamation's ability to pursue more 
aggressively the necessary risk reduction actions at its dams. Current 
enacted funding and future requests will be managed to focus funding to 
the most critical Safety of Dams issues presently known to Reclamation. 
Funding the full fiscal year 2000 Dam Safety Program request is 
necessary to avoid any delays in eliminating risk reduction efforts 
needed for public safety.
    Now, I would like to focus on Reclamation's fiscal year 2000 Budget 
request by appropriation.
                      water and related resources
    The amount requested for the Water and Related Resources 
appropriation for fiscal year 2000, $652.8 million, is an increase of 
$10 million from the fiscal year 1999 enacted level of $642.8 million. 
This appropriation funds five program activities: Water and Energy 
Management and Development, Fish and Wildlife Management and 
Development, Land Management and Development, Facility Operations, and 
Facility Maintenance and Rehabilitation.
    The fiscal year 2000 Budget proposes $278.6 million for Facility 
Operations and Facility Maintenance and Rehabilitation, an increase of 
$15.6 million from the fiscal year 1999 enacted level. Reclamation 
places high priority on these activities, which ensure delivery of 
project benefits and protect the Federal investment and the public 
through the dam safety program, discussed above, and other measures.
    The request includes $27.3 million for the Central Arizona Project; 
$125.0 million for the Central Valley Project in California; $29.4 
million for the Mni Wiconi Project and $5 million for the Mid-Dakota 
Project in South Dakota; $27 million for the Garrison Project in North 
Dakota; and $3 million for the Animas-La Plata Project in Colorado and 
New Mexico.
    The fiscal year 2000 request of $31.5 million for water recycling 
includes funding for four projects that were authorized by the 104th 
Congress in 1996, plus continued funding for ongoing projects. The 
request includes $6.0 million for the four new starts: Calleguas 
Municipal Water District Recycling, Long Beach Area Water Reclamation 
and Reuse, North San Diego County Water Reclamation and Reuse, and 
Orange County Regional Water Reclamation Project. In addition, funds in 
the amount of $23.2 million will be used for ongoing California 
projects in Los Angeles, San Diego, San Gabriel and San Jose. The 
fiscal year 2000 request also includes $2.2 million for feasibility 
studies and research.
    The request also includes $7.3 million for Reclamation's Science 
and Technology Program. This funding is requested for development of 
new information and technologies that respond to and anticipate 
mission-related needs, and that provide for innovative management, 
development, and protection of water and related resources and 
associated values through cost-shared research and technology transfer.
                              loan program
    Funding of $12.4 million is requested to complete work on 2 loan 
projects: Chino Basin Desalination and Temescal Valley. Work will 
continue on three loan projects: Castroville Irrigation, Salinas Valley 
Water Reclamation, and San Sevaine Creek, all of which are located in 
California. In addition, $425,000 is requested for program 
administration.
                       policy and administration
    The $49 million requested supports Reclamation's centralized 
management functions. These functions include overall program and 
personnel policy management; equal employment opportunity management; 
safety and health management; budgetary policy formulation and 
execution; information resources management, property, and general 
services policy; public affairs activities; and organizational and 
management analysis.
                central valley project restoration fund
    The Restoration Fund request for fiscal year 2000 is $47.3 million. 
These funds are focused on four primary emphases: water acquisition for 
instream flows and refuges; refuge conveyance and refuge water 
wheeling; land retirement; and the Anadromous Fish Restoration Program. 
Efforts to provide for the doubling of the anadromous fish population 
are expected to be enhanced through increased emphasis on partnerships 
with local, state, and stakeholder involvement.
    The budget request includes a provision for the conversion of the 
CVP Restoration Fund to a permanent appropriation. This action would 
ensure that collections from project beneficiaries are available for 
their intended purpose and would improve project planning by both 
beneficiaries and managers.
               california bay-delta ecosystem restoration
    The fiscal year 2000 budget includes a request for $95 million to 
continue Federal cost-sharing in ecosystem restoration efforts in 
California's Bay-Delta. Although requested in a single account under 
Reclamation, the funds will be distributed among participating Federal 
agencies based upon the program recommended by CALFED, a consortium of 
Federal and State agencies with management and regulatory 
responsibilities in the Bay-Delta, and approved by the Secretary of the 
Interior.
    The fiscal year 2000 budget request provides details on how 
Reclamation intends to use the funds, including a summary of how the 
project selection process works. Participating agencies and the CALFED 
staff developed in fiscal year 1998 and fiscal year 1999 a program that 
covers habitat acquisition and restoration, improvements to fish 
screens and passage, and exotic species management. The fiscal year 
2000 budget proposes $75 million to build upon the efforts begun in 
1998 and continued in 1999 by monitoring prior projects, initiating, 
and implementing new projects approved by CALFED and the Secretary. In 
addition, $20 million is requested for non-ecosystem restoration 
activities that are in accord with the CALFED Bay-Delta Program, such 
as water use efficiency, water quality, groundwater storage, and 
watershed management.
    The Administration will submit authorization language that would 
extend current spending authorization through 2003 to enable the 
ecosystem restoration program to be fully funded at the $430 million 
authorized by the California Bay-Delta Environmental Enhancement Act.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared remarks. I would be happy to respond to any questions Members 
may have concerning the Reclamation program and our fiscal year 2000 
Budget request.

                   Truckee River Operating Agreement

    Senator Domenici. I am going to let you go first, Senator 
Reid, and then you, Senator Bennett.
    Senator Reid. I appreciate that very much, Mr. Chairman.
    Ms. Beneke, as you know the Truckee River Operating 
Agreement still has a few things that need to be done, and one 
item is the final environmental impact statement. I have worked 
with Bill Bettenberg for a number of years, who has been 
tremendously helpful in his work on this project.
    Because the environmental impact statement will be funded 
through the Bureau of Reclamation, I am wondering if you can 
assure this subcommittee that it will be given priority in 
regards to staff and funding so that we can get this done.
    Ms. Beneke. Senator, you certainly do have my assurances in 
this regard. We consider this to be a very important 
undertaking. We very much appreciate your leadership in helping 
us wend our way through the difficult issues and the important 
issues presented in that River basin.
    Senator Reid. I would hope also that rather than--I will 
not say waste, but rather than utilize the time and money for 
reeducating staff at your regional office in Denver, I would 
encourage you to use as much of the local resources as you can. 
I think it would add some continuity and I think in the long 
run save money. If you would take a look at that, that would be 
good.
    Ms. Beneke. I would be happy to, Senator.

                             desalinization

    Senator Reid. In regards to desalinization, the Bureau of 
Reclamation has had some responsibility for desalinization in 
the past. As you know, Senator Simon has even written a book on 
the problems of water in the world. It is called ``Tapping 
Out'', a very fine book that Senator Simon has recently 
published.
    While the Desalinization Act of 1996 has authorized up to 
$5 million a year for research and studies, or $20 million, the 
Bureau of Reclamation has requested less than $4 million since 
1997. Why is this?
    Mr. Martinez. Mr. Chairman, Senator, basically it is an 
economic issue. Given the priorities and the limited resources 
that we have in our budget, we have come up with a request for 
these amounts of money. I fully realize that Congress has added 
funding which has increased those amounts over the last 2 
years, but we continue to try to put as much money as we 
possibly can into that project.
    Senator Reid. As indicated in Secretary Beneke's statement, 
the direction of the Bureau of Reclamation has changed over the 
years. There was a time when there was a construction of, I 
think, some 600 dams that the Bureau of Reclamation has been 
involved in, and now the concern is more with water resource 
management.
    That being the case, I believe the Bureau should look very 
strongly at the Desalinization Act because it seems to me that 
that is the wave of the future. We have to look at new places 
for water, and I think one of the places that has some promise 
is brackish and salty water that we have around the country. 
Would you agree with that?
    Mr. Martinez. I would agree with that. I think the Bureau 
has a long history of working in this area. We have a desalting 
plant down in Yuma.
    Senator Reid. I understand that, Mr. Martinez. The problem 
with that is we are doing nothing new. The technology there is 
technology that was available 40 years ago.

                   reclamation role in desalinization

    What I would like you to do--and I will not take any more 
time of the subcommittee--I would like you to present to me and 
to the subcommittee your view as to what the future of the 
Bureau should be if you had the money that you needed in regard 
to desalinization.
    Mr. Martinez. I will be glad to do that.
    Senator Reid. Keep in mind the words that I used.
    Mr. Martinez. Correct.
    Senator Reid. I have a number of other questions, Mr. 
Chairman. I will submit those in writing.
    Senator Domenici. Thank you, Senator.
    [The information follows:]

                Desalination--Reclamation's Future Focus

                              introduction
    Reclamation has a long tradition of commitment to desalination, and 
particularly a tradition of being a leader in its development and 
application. Reclamation recognized early in the 1960's and 1970's the 
potential value of desalination to play a significant role in 
developing and managing the water resources in the western United 
States. Reclamation played a key role in testing the new desalination 
technologies as they were developed in the 1960's by the DOI Office of 
Saline Water, followed by the very early application on a large scale 
of membrane desalination at the Yuma Desalting Plant. These early 
commitments to the development and application of the desalination 
technologies has continued through our support of reimbursed 
involvement in desalination R&D in the Middle East, and more recently, 
our commitment through Title XVI<plus-minus> legislation to 
demonstration of new membrane technologies in water recycling 
applications.
    It is clear that future water resource management in the western 
United States will be more heavily dependent on innovative sources of 
water. Although the population continues to grow, fresh water sources 
remain constant. Therefore, to continue to meet the future water 
demands, Reclamation must be pro-active. Water conservation, water 
recycling, and desalination should all play roles in meeting future 
water demands, in addition to our existing conventional water resource 
capabilities.
    In consideration of meeting these future water demands, in 1989 
Reclamation began investigating the desalination research needs to 
reduce the costs of the technologies.\1\ This effort was accomplished 
through sponsorship of various workshops, seminars, and studies.\2\ \3\ 
\4\ \5\ \6\ \7\ \8\ In 1992, Reclamation initiated a small desalination 
R&D program, using cost- sharing and human resources from the private 
sector to leverage the program. Reclamation also constructed a high-
tech desalination laboratory, entitled the Water Quality Improvement 
Laboratory, on the grounds of the Yuma Desalting Plant. The purpose of 
this facility is to provide a testing ground for new desalination 
improvements as they develop.
---------------------------------------------------------------------------
    \1\ Emerging Desalting and Water Treatment Technologies for Water 
Resources Management, Bureau of Reclamation Summary Report, October 17-
19, Arizona, 1989.
    \2\ Research Needs for Upgrading Sub-Standard Water Supplies, 
Bureau of Reclamation Seminar Summary Report with National Water Supply 
Improvement Association, International Desalination Association 
Conference, Washington, D.C., 1991.
    \3\ Issues Associated with Large Scale Desalination Plants, Bureau 
of Reclamation Seminar Summary Report, National Water Supply 
Improvement Association Biennial Conference, Newport Beach, California, 
1992.
    \4\ Bessler, M.B., National Desalting and Water Treatment Needs 
Survey, Bureau of Reclamation, Desalination Research and Development 
Program Report #2, 1993.
    \5\ Buros, O.K., Desalting as an Environmentally Friendly Water 
Treatment Process, Bureau of Reclamation and American Desalting 
Association Workshop, Desalination Research and Development Program 
Report #13, 1994.
    \6\ Herbranson, L., S.H. Suemoto, Desalination Research--Current 
Needs and Approaches--A U.S. Perspective, Desalination, vol. 96, no. 1-
3, p 239-248, 1996.
    \7\ Martella, S., Water Reuse Research Needs Assessment Workshop, 
Desalination Research and Development Program Report #19, 1996.
    \8\ Buros, O.K., Research Opportunities at the Yuma Water Quality 
Improvement Center, sponsored with the American Desalting Association, 
Desalination Research and Development Program Report #25, 1997.
---------------------------------------------------------------------------
    When the Water Desalination and Research Act of 1996 (Act) was 
enacted, Reclamation developed an overall plan to meet the requisites 
of the Act based upon input from the desalination community. This plan 
is presently being implemented, albeit on a reduced scale as a result 
of existing budgetary demands within the agency and our need to stay 
within our budget allocations.
    Initially, the most significant role for desalination will be 
providing water resources along coastal areas, where populations are 
growing most rapidly and disposal of concentrate is most 
environmentally-friendly. Costs for desalinating water are continuing 
to drop significantly--the most recent contract for delivery of 
desalinated seawater to the City of Tampa, Florida, is $1.71/1000 
gallons ($557/acre ft)--which is within the abilities for many large 
communities to afford. For example, development of new water resources 
in the San Diego area from conventional means is estimated to cost 
$600-$700/acre ft. Using more desalinated resources along coastal areas 
will also provide less pressure on existing inland water resources.
    As outlined in the 1996 Act, R&D will play a significant role in 
continuing to lower the cost and acceptance of desalinated water in 
many communities. Our future efforts, if funding were available, would 
be largely based on the Research Program Plan developed for purposes of 
meeting the requisites of the Act. The following narrative outlines the 
specifics of our future direction and focus.
                         overall program goals
  --develop more cost-effective, technologically efficient, and 
        implementable means to desalinate water,
  --increase supplies of water for environmental restoration, and other 
        competing needs for the limited and often overextended 
        supplies,
  --provide additional cost effective alternatives for water managers, 
        regulators, and decision makers,
  --increase the ability of Native American, rural communities, and 
        others to economically treat their only source of water to 
        potable standards,
  --increase the ability of the United States desalting industry to 
        compete throughout the world, by fostering partnerships with 
        them to develop new and innovative technologies (patent rights 
        belong to the non-Federal partners for all non-Federal 
        applications),
  --develop methods to make desalting more efficient through promotion 
        of dual-use facilities, in which waste energy could be applied 
        to desalting water,
  --develop methods to ensure desalting technologies are 
        environmentally-friendly and when possible sustainable,
  --ensure regulations are appropriate for the application by working 
        with regulators to fully evaluate effects of concentrate 
        streams, capitalizing on the recovery of by-product streams, 
        and
  --maximize technology transfer to ensure full transfer of knowledge 
        and commercialization of technology.
    To meet these goals, Reclamation has outlined 10 technical/emphasis 
areas which comprehensively should be addressed, in order to make 
desalination a more affordable tool for water resource development and 
management in the future.
                        technical/emphasis areas
    The areas to be explored are listed and described below.
A. Membrane Process Research and Development Studies
    Research focuses on development of improvements in membrane 
processes for brackish and seawater desalting, and/or removal of 
specific contaminants. The research topics include: development of 
membranes with improved properties, development of membranes with 
increased resistance to chlorine, studies on adhesion of foulant 
materials to membrane surfaces, studies on membrane cleaning, including 
frequency and effectiveness, increase of rates of mass transfer at 
membrane surfaces, studies on pretreatment, and development of improved 
membrane-containing elements or stacks.
B. Thermal Process Research and Development Studies
    Research focuses on development of improvements in thermally driven 
desalting processes. Thermal processes are generally applied to 
seawater desalting due to the high energy investment. The research 
topics include: improvements and/or cost reductions in multi-stage 
flash distillation, multiple effect distillation, and vapor compression 
distillation; evaluation and development of methods to improve the heat 
economy of thermally driven desalting processes; investigation of 
methods to resolve pre- or post-treatment issues; and investigation of 
methods to reduce the formation of scale and corrosion.
C. Non-Traditional, and Alternative Desalination Process Research and 
        Studies
    Research focuses on investigation of innovative, non-traditional, 
or alternative desalination techniques, including the evaluation of the 
economics and thermodynamic efficiency of these processes. The ultimate 
goal being the development of technologies that are much more cost 
effective than conventional desalination processes. For specific remote 
sites, research of alternative technologies will be considered that 
significantly reduce the capital costs, and operations and maintenance 
of conventional technologies. The research topics include investigation 
of unique solar energy methods and applications, and development of 
new, innovative alternative desalination processes.
D. Water Recycling and Reuse
    Research and development studies support activities directed at 
innovative methods to treat municipal, industrial, or agricultural 
wastewaters. Projects also include solving specific problems related to 
specific reuse facilities, in order to improve the economics of overall 
operation and maintenance of existing or future facilities. Reclamation 
is presently co-funding the evaluation and construction of a number of 
water recycling projects through authorization under Public Law 102-
575, Title XVI. Research efforts in support of these projects will be 
of particular interest. The research topics include: investigate 
innovative methods to recycle and reuse municipal, agricultural, or 
industrial process water or waste waters; research studies to remove 
toxic substances from waste water streams, i.e., pesticides, heavy 
metals, radioactive elements, etc.; enhanced membrane characteristics 
for waste water treatment applications; development of low-cost 
treatment methods for high nitrate well waters from farm fertilization 
or livestock operations; development of tools to reduce the public's 
psychological stigmas associated with the reuse of water; developing 
on-line methods for detecting leakage of viruses in reuse facilities; 
and developing ``leak-proof'' recycling treatment technologies.
E. Ancillary and Economic Improvements (Dual-Use Facilities, By-
        Products Recovery, Cost Evaluations)
    This research task area is three-fold in its direction. First, the 
evaluation of opportunities to promote desalination development in 
combination with new or existing power facilities, in order to create a 
dual-purpose facility. Second, the evaluation of the economic and 
environmental benefits of recovering the byproducts of desalting 
processes. Third, the evaluation of cost to determine which desalting 
process is the most economically feasible for communities under 
different restrictions and localities, as well as economic sensitivity 
analyses of thermal and membrane systems. The research topics include: 
development of more efficient pumps, and energy recovery systems; 
studies on instrumentation and control of desalination systems; 
development of a method to recover commercially marketable minerals 
from a desalination process concentrate stream; and evaluation of the 
effect of feedwater quality and volume on a desalting plant design and 
concentrate disposal cost.
F. Concentrate Issues
    Research focuses on the various problems related to concentrate 
disposal, and develops innovative techniques to reduce concentrate 
disposal costs and impacts on the environment. The research topics 
include: concentrate disposal systems development; methods to recover 
by-products; salinity modeling and toxicity analysis of concentrate 
discharges to the environment; and wetlands and other non-conventional 
disposal methods. Additional efforts are also directed towards the 
collection of concentrate disposal information that may assist in the 
future development of regulations.
G. Testing of Laboratory Scale and Pilot Systems
    The work involves the design, construction, and testing of pilot-
scale systems. Testing of laboratory and pilot systems is generally 
done as a result of previous successful research studies conducted in 
Areas A through F, above.
H. Partnerships
    This work involves collaborative research efforts between 
Reclamation's program and that of other water research organizations 
outside the government. This provides access to new funding partners, 
to organized groups that need desalination technologies, to highly 
qualified research advisory boards, to the most recent research 
findings, and to new networks of highly qualified researchers. Past 
work has included partnerships with the American Water Works Research 
Foundation, the National Water Research Institute, and two of the 
National Science Foundation Engineering Research Centers.
I. Technology Transfer
    Technology transfer is key to making the program a success. 
Reclamation has a very ambitious technology transfer effort which 
exploits electronic access of information, as well as more traditional 
means of providing access to all information gained in the research 
program. The Program continues to seek new innovative opportunities to 
provide technology transfer to assist other researchers, private 
industry, academia, municipalities, and small and Native American 
communities. The technology transfer effort includes: an Internet 
website, electronic access to Requests for Proposals, newsletters, 
informational brochures and leaflets, free hard-copy publications of 
all final research reports, videos, technical manuals, presentations at 
technical conferences, yearly workshops, peer reviews, and electronic 
databases.
J. Design, Construction, and Testing of Plants and Modules 
        (Demonstration and Development Projects)
    This technical area has not been funded in the past. The Act 
envisioned funding for demonstration and development to begin the third 
year following the first appropriations for research and studies. The 
Authorization Act requires a report to Congress in fiscal year 1999, 
with recommendations on which projects to further evaluate and 
implement based upon the most successful research findings from the 
Program's research and studies, successful pilot plant research carried 
out by others, and significant input from users and purveyors of 
desalination technology. The type of work involved could include: 
preliminary design studies, detailed design, construction and testing, 
demonstration of by-products recovery, and economic surveys. For future 
years, this area will require significant resources in order to meet 
the intent of the Act.

                 statement of senator robert f. bennett

    Senator Domenici. Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.
    I want to take a minute to thank both the Assistant 
Secretary and the Commissioner for their assistance to our 
State in the last year. Water is the most precious commodity in 
the West. We used to have a saying, ``It's better to be head of 
the ditch than head of the Church.'' [Laughter.]
    Given the reputation we have for the power of the Church in 
Utah, that is a pretty strong statement.
    We have had a lot of cooperation from the Bureau of 
Reclamation, and we recognize this and we want to thank you for 
it. We have good people in Utah from the Bureau. My only 
message to you is leave them there. Do not keep transferring 
them in and out. We have had a good experience.

                             red butte dam

    We have had to call on the Bureau for some input and 
assistance, and you have always been very helpful. Most 
specifically, we had to have an appraisal of the old Army dam 
above Fort Douglas called Red Butte Dam. The Army insisted it 
was not worth very much, and they were a little surprised when 
they found out how much you thought it was worth, or more 
importantly, how much you thought it would take to bring it up 
to the level whereby the Army could have safely disposed of it. 
We are having that fight with the Army in another subcommittee 
as to where we get that money. But these are over and above 
your normal activities and we are very grateful to you for your 
assistance.
    I am glad we were able to help OMB find religion on the 
issue of Dutch John and work that out.

                          central utah project

    Now, I want to quickly reinforce--this will come as no 
surprise to anyone--what some of my priorities are. I was glad 
to hear you, Ms. Beneke, talk about the Central Utah Project. 
The legislative effort for that began some 40 plus years ago 
with my father. I hope the project will be completed before one 
of my grandchildren is elected to the Senate. [Laughter.]

                        salinity control program

    If we can get that one moving along.
    I want to put the Bureau on notice that I recognize that we 
will eventually have to raise the funding level on the salinity 
control program. When that time comes, I will introduce 
legislation to do so, and I hope that the chairman and other 
members of this committee will join me.

                     title xvi water reuse program

    I remain committed to the title 16 water reuse program. I 
will work with the committee to ensure that it is properly and 
adequately funded this year. I know we had a little 
disagreement last year over the interpretations of the formula 
with respect to the Tooele Project. I am glad we were able to 
work that out.
    Now, I also look forward to providing some additional 
funding to a very interesting project that is ongoing near St. 
George where the Bureau, the USGS, and the Water Conservancy 
District are conducting a study on water recharge in the Navajo 
sandstone.
    So, those are all of my parochial items, and I have to get 
them on the record.

                          lake powell draining

    Now, I do want to make one other comment which affects not 
only my State but those from neighboring States. I am sure 
Senator Reid of Nevada has a number of constituents who are 
involved with Lake Powell. Senator Craig has indicated that he 
has vacationed at Lake Powell.
    And I hope the administration will hold firm in its 
position that the Sierra Club's idea of draining Lake Powell is 
absurd. I almost hesitated to raise it today lest I give the 
proposal validity. But I understand that the Sierra Club and 
others in the environmental community have now pegged this as 
their number one fund raising activity. They have raised 
millions of dollars trying to tell us how to handle Utah 
wilderness, and now they want to raise millions more telling us 
to get rid of the dam at Lake Powell.
    I will just share with you this experience that I had over 
the weekend. I found myself in an airport, not an unusual 
situation for Senators, and my flight was delayed, which is 
also not an unusual situation for Senators. I picked up one of 
the free newspapers that was sitting there called the Earth 
Times in order to have something to read while I waited for the 
equipment to show up.
    There was a lead editorial that caught my eye, and it was 
attacking the Green Party in Germany. I thought this is a 
little unusual for the Earth Times to be attacking the Green 
Party. The burden of the editorial was that the Green Party 
was, in fact, going to add to pollution and to upset the Kyoto 
Accords because they were demanding the dismantling of all of 
the nuclear plants in Europe. And the editorial said that may 
be well and good because we all hate nuclear plants, but if you 
dismantle all the nuclear plants, you are going to have to 
replace the power somewhere and it will be coal-fired plants 
that will upset the Kyoto Accords. Therefore, we ought to 
swallow hard and leave the available source of power in place.
    You know, that applies to Glen Canyon Dam and Lake Powell, 
because it currently supplies recreation to 3 million visitors 
and power to half a million homes. I remember during the debate 
when the dam was being built, the Sierra Club came in and 
opposed it. Ultimately they made a deal to accept it, which 
they now say is one of their biggest mistakes. But their 
argument was that that power was not needed. They said, we have 
got plenty of energy in this country. The time will never, ever 
come when we have an energy shortage, and to build a dam to 
provide excess energy at a time when we have too much is really 
foolish. But if the time should ever come, if in fact we should 
ever need that energy, clearly we do not need to build the dam 
because there at Kaparowitz there is plenty of coal and we 
could burn all the coal in Kaparowitz to provide the power and 
not have to worry about the dam. Now, everybody who knows 
anything about environmental issues in Utah knows how 
enthusiastic the Sierra Club now is about burning coal at 
Kaparowitz.
    So, taking a cue from the lead editorial in the Earth 
Times, I tell you leave the dam in place, provide the power, 
and let the 3 million visitors continue to enjoy their 
experience in southern Utah.
    I have nothing further, Mr. Chairman.
    Senator Domenici. Thank you very much, Senator Bennett.
    Senator Craig?
    Senator Craig. Thank you very much, Mr. Chairman.
    I had the privilege of visiting with these folks last week 
before the Energy and Natural Resources Committee, and it was 
at that time, Mr. Chairman, that we discussed issues pertinent 
to their budget and to my State of Idaho. So, with that, what I 
had said last week I will just simply underline this week as 
being important to our State, especially the Fremont-Madison 
Irrigation District exchange that is coming on board now as an 
opportunity, certainly along with what we are doing and what 
the Bureau of Reclamation is doing in cooperation with all the 
other agencies in the Snake-Columbia system to find additional 
waters for the purposes of fish mitigation in the Snake and 
Columbia system.
    All I can say is proceed with caution. Do not dewater the 
State of Idaho. We spent the last 100 years cooperating with 
the Bureau of Reclamation and others to build water facilities 
in our State to make it bloom. We are not about to start 
dewatering the State and return it to a desert environment.
    And, yes, I enjoy Lake Powell. [Laughter.]
    Thank you very much, Senator.
    Senator Domenici. Are you finished?
    Senator Craig. I am.
    Senator Domenici. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you.
    I also had an opportunity last week to visit briefly with 
the Commissioner and the Secretary on a number of issues.
    Let me just ask a couple of brief questions, if I might.
    I regret I was delayed. I had a group in my office that I 
could not escape from. I have read your testimony and 
appreciate all that you do.

                          dakota resources act

    As you know, one of the issues that we will deal with this 
year is the change in the authorization of Dakota Water 
Resources Act. You have included an amount of money in this 
year's budget, I believe $27 million for the Garrison project, 
under the Dakota Water Resources Act. We face the problem that 
many States out in our region face, of water development needs 
that are quite critical.
    Let me just show you a couple of samples of water that I 
thought you would find interesting. This is from Keith and Ann 
Anderson's house in Scranton, North Dakota. This looks like the 
coffee that Senator Domenici drinks in the morning. Maybe yours 
is stronger than this.
    Senator Domenici. Yes.
    Senator Dorgan. And this is Leonard Jacobs' farm water. 
This is from Reeder, North Dakota, just south of where I grew 
up.
    Senator Reid. A lot of iron in that water.
    Senator Dorgan. Well, there is a lot of something in that 
water.
    Senator Domenici. That is potable water?
    Senator Dorgan. That is the water they used to have on 
their farm.
    Now, that has changed, and here is what Leonard Jacobs has 
now, and it comes, as the Secretary and Commissioner know, 
because the Southwest Pipeline, which came through the 
appropriation of these water projects, has transferred this 
kind of water to these farmsteads in southwestern North Dakota.
    Senator Reid. You could not drink that, could you?
    Senator Dorgan. Well, I could not.
    Senator Bennett. Maybe with a blindfold.
    Senator Dorgan. But the fact is we have a lot of 
communities with very unhealthy water, and that is one of the 
advantages of being able to move water from the Missouri River 
behind the dam through the State into areas that have terrible 
water quality, refreshing that opportunity with good quality 
water.
    I just wanted to show you the results of what we are doing 
together and to ask you your assessment of our ability to work 
together on this reauthorization this year because that is the 
key to future funding. Can you just give me a comment on that?
    Ms. Beneke. Well, Senator, as we have discussed in the 
past, we are committed to working with you on this important 
project. I have a real appreciation for what it means to your 
home State. I actually hail from the central part of the 
country myself and am familiar with rural communities. I also 
got to drink my share of well water when growing up. So, I do 
have an appreciation for what it means. And we very much want 
to work with you this year.

                      mr&i needs of indian tribes

    Senator Dorgan. One of the other issues that is a problem 
for us is the funding priorities that were outlined in the 1986 
Reformulation Act was meeting the MR&I needs of the Indian 
tribes. The tribes have reached their funding ceilings which 
has been a problem, and we are trying to identify additional 
resources for them. I mentioned some of these farmsteads and 
the critical water needs, but you are well aware, I know, of 
the needs on the Indian reservations. And I hope that we could 
work with you, Madam Secretary, and also the Commissioner on 
those issues.

                  red river vally water needs studies

    One final question. The Bureau of Reclamation has been 
studying the water development and management needs of the Red 
River Valley now for the past year. Can you give us the status 
of those studies, tell us where you are, and what we might 
expect?
    Mr. Martinez. I do not have that information in front of 
me, but I understand two of the studies are complete. The third 
study is ongoing. One was a needs assessment study, and the 
other one is on the particular projects that might deliver the 
water that is needed. I will get that answer for the record.
    Senator Dorgan. I appreciate that, and I hope you can 
continue to make that a top priority, because the results of 
those studies will help us on this reformulation prospect and 
the timing is very important.
    Mr. Martinez. Yes, Mr. Dorgan.
    Senator Dorgan. Let me again, Mr. Chairman, thank the 
Secretary and the Commissioner. You work in a tough area with 
unlimited wants and limited resources, and I appreciate the 
work you do. Mr. Chairman, thank you.
    Senator Domenici. Thank you very much.
    [The information follows:]

                  Red River Valley Water Need Studies

    The Phase IA Needs Assessment has been completed and the Phase IB 
Instream Flow report will be finalized by the end of March 1999. 
Reclamation has been working closely with State and local interests to 
obtain their views and recommendations.
    Reclamation's work is coordinated with a steering committee, which 
is comprised of representatives of the North Dakota State Water 
Commission, North Dakota State Health Department, the Garrison 
Diversion Conservancy District, Fargo, Grand Forks, Moorehead, rural 
water systems, and the environmental community.
    Initial alternatives to meet the municipal, rural, and industrial 
water needs of the Red River Valley have been formulated. A working 
draft of the Phase 2 (Alternatives Analysis) report was forwarded to 
the Steering Committee prior to our March 30 meeting. It is expected 
that more meetings may be needed to assure that the views and interests 
of the State and local interests are fully considered prior to 
distribution of the public review draft.

                             safety of dams

    Senator Domenici. Let me ask a couple general questions 
first. Commissioner, you indicated that one of your big 
responsibilities is to see to it that the structures that you 
manage and supervise are safe.
    Mr. Martinez. That is correct.
    Senator Domenici. Now, if I were to say to you, give us 
proof that they are safe, what would you give us?
    Mr. Martinez. When I became Commissioner of Reclamation, I 
was concerned about our Dam Safety Program and the safety of 
our structures, and I empaneled five experts from outside the 
Bureau of Reclamation to review our program and our facilities. 
The report was quite favorable. I have implemented quite a few 
of their recommendations.
    Senator Domenici. So, since we would like very much never 
to be shocked by having a dam failure--and we have you up here 
every year to talk with us--what could you give us for the 
record indicating that? Could you put some things in the record 
here within the next couple of weeks indicating why the 
Department of the Interior, Bureau of Reclamation says it has 
safe structures and is doing what they ought to do?
    Mr. Martinez. Well, yes, I can, but I will not sit up here 
and say that I do not guarantee that----
    Senator Domenici. Oh, no, no.
    Mr. Martinez [continuing]. We might not lose a structure 
some day because of an earthquake and so forth. But I think 
that we have a very effective program and will continue to put 
our resources in that program with your assistance. And I will 
provide that information to you.
    Senator Domenici. Would you, please? I just mean that I 
think we have a responsibility as an oversight entity to get 
this information in the record so that we are going along with 
you in that regard.
    [The information follows:]

                           Dam Safety Program

    Reclamation cannot guarantee that there will be no dam failures. 
However, Reclamation diligently strives to have a strong Dam Safety 
Program to manage the risks associated with dams in order to keep that 
chance of dam failure as low as reasonably possible.
    In 1997, the Commissioner tasked an independent team of dam safety 
professionals to review Reclamation's dam safety practices to identify 
best practices already in place and to make recommendations for 
improvements. The peer review concluded that Reclamation has a strong 
dam safety program and made recommendations for further improvements. 
Thirty-three peer review findings have already been addressed. The 
twelve remaining findings are under review and scheduled to be 
addressed during 1999.
    Program improvements that have been implemented as a result of the 
peer review findings and Reclamation's own internal initiatives that 
received peer review endorsement include:
    1. The appointment of a Dam Safety Officer to provide independent 
advisory and guidance for achieving program vigilance.
    2. The procurement of a standing review board of independent dam 
safety consultants to review program practices that have occurred on 
individual dams.
    3. Annual dam safety meetings to review dam safety issues and 
actions on each dam with Reclamation management.
    4. The updating of Emergency Action Plans for each dam and 
exercising the plans with downstream communities.
    5. Enhancements to the facility review, performance monitoring, and 
engineering analysis activities in order to more reliably identify and 
manage dam safety issues.
    The fiscal year 2000 budget request includes these program 
improvements intended to continue a strong Dam Safety Program. The 
fiscal year 2000 budget request also includes funding for modifications 
to reduce the risk of dam failure on dams having identified critical 
dam safety issues; such as Keechelus Dam, Yakima Project, Washington; 
and Casitas Dam, Ventura River Project, California which require 
modifications of significant cost and scope.
    In order to continue to fund Safety of Dams modifications in the 
future, additional legislation will be needed to increase the 
authorization ceiling provided under the 1984 Safety of Dams Act 
Amendment. Current estimates indicate that sufficient ceiling remains 
to fund necessary modifications and associated ongoing commitments 
represented by the fiscal year 2000 request. However, projections 
indicate that the total cost for new modifications identified for 
fiscal year 2001 could begin to exhaust the remaining ceiling.

                           drought assistance

    Senator Domenici. Now, let me change to a situation that is 
evolving in the Southwest, but is almost upon us in New Mexico. 
The dread word of ``drought'' is just--all you have to do is 
fly into New Mexico and you think you are approaching the 
desert, although we are not a desert State. Drought is the kind 
of disaster that is very difficult for the people, because it 
does not occur overnight. It sort of creeps upon you, and it is 
creeping upon our State. I do not know if it is on others too.
    What are you doing with reference to the drought, for 
drought for a State like ours which has very little water?
    Mr. Martinez. Mr. Chairman, if you recall in 1996, through 
your assistance, we had some funding to work under our drought 
assistance program. Since then we have been working with the 
southwestern States to help in their water planning process. As 
a matter of fact, we have given the State of New Mexico two 
grants. They have put in place a planning process on how to 
respond to drought. So, we have been working in that area.
    You are correct that we expect droughts in the American 
Southwest this summer. Our budget will reflect a request for 
drought money. This budget was put together before conditions 
that came up this year. We have, I believe, about $100,000 left 
in our budget from prior appropriations. I understand I have 
some reprogramming authority, but the requests that are being 
made today are probably going to exceed our ability to respond 
if we do have a drought situation in the American Southwest 
this year.
    Senator Domenici. Before we mark up our bill, I wonder if 
it would be possible for you to gather up the resources through 
your information and some statements to us with reference to 
what kind of authority you might need and what kind of changes 
that might occur. Could you do that for us?
    Mr. Martinez. Yes, Mr. Chairman. I think the authority is 
in place. What we would need would be the financial resources.
    Senator Domenici. All right, and can you give us some idea 
later what that might be?
    Mr. Martinez. I will provide that for the record.
    Senator Domenici. I appreciate it.
    [The information follows:]

                            Drought Funding

    Reclamation is currently experiencing drought conditions in several 
of its Southwestern states mostly due to below normal rainfall. While 
some areas are less severe than others, there is a real need to provide 
emergency assistance and relief. In the past, up to $30 million has 
been appropriated to the Bureau for drought emergency assistance. In 
fiscal year 1999 carryover funds of $673,754 will be insufficient to 
provide the necessary drought relief to the Southwest. The fiscal year 
2000 President's budget includes $500,000 for the Drought Emergency 
Assistance program. However, we would like to work with the Committees 
to discuss funding levels that would be needed to address the drought 
emergency situations that now exist and those that are developing.

                             desalinization

    Senator Domenici. With reference to desalinization, I am 
fully aware that Senator Simon got an authorization bill 
through and a little bit of money, but I think what has 
happened to desalinization is that it is spread all over, even 
though it is a very small program. I am just wondering if it is 
not exclusively the Department of the Interior's mission. Is 
there some way to focus the money, and if the Bureau of 
Reclamation is the right place to do that. Would you have any 
thoughts on that, Patty?
    Ms. Beneke. Senator, I think that we should take a look at 
the program. We, of course, want to make sure that we are 
getting the maximum benefit for every research dollar we put 
into it. Reclamation does have a lot of expertise in this area, 
and I guess my off-the-cuff reaction would be that it is an 
appropriate place for the program to be lodged. But we would be 
happy to work with the subcommittee and incorporate any ideas 
you might have regarding how we can----
    Senator Reid. Would the chairman yield? Also, I have asked 
Commissioner Martinez to submit to us his view as to what 
should happen to the program. Also, if you would, give us an 
idea of what is happening with desalinization any place else in 
Government. I think it is something we need to take a look at. 
On a mini-level, it is kind of like global warming. We have a 
lot of people doing a little bit of nothing, and we need to 
gather them all together, and maybe one organization can do 
more than spread out the way it has been.
    Mr. Martinez. Mr. Chairman, if I may respond to that. I 
think the research in this particular area is very crucial, 
especially in New Mexico. We have large groundwater aquifers 
that have impaired water quality. The issue is the economic 
cost of treating that water, and I think that in the future 
that has great promise.
    I would agree that there are probably programs across the 
Federal Government that could be consolidated and made more 
efficient.
    Senator Reid. You will let us know.
    Mr. Martinez. Yes, sir.
    Senator Domenici. So, now we understand, based on Senator 
Reid's inquiry, Madam Secretary, you are going to go through 
the Government and break out for us where any desalinization 
research money is. Is that correct?
    Ms. Beneke. Yes. We will do our best to make a review of 
that.
    Senator Domenici. And if you need our help, we would be 
glad to ask the Director of OMB to do that with you if you 
want. You can do it on your own. If you need our help, we will 
ask him.
    Ms. Beneke. Thank you very much.
    Senator Domenici. I concur that with water shortages in the 
Southwest, it is rather dismal that the research has still not 
made a major breakthrough for our country. We have not funded 
it well enough, and if we put some our talented people on it, 
we are going to find some way to fix this, I am sure.
    [The information follows:]

             Desalination Funding in the Federal Government

                              introduction
    The Bureau of Reclamation has a major role among the federal 
agencies in desalination research, development, and demonstration. 
Other agencies use and adapt the technologies to meet their missions. 
Many years ago it was recognized that a potential existed within the 
federal government for duplication of this effort. As a result, the 
Bureau of Reclamation and the U.S. Army Tank-Automotive Research, 
Development, and Engineering Center created the Interagency Consortium 
for Desalination and Membrane Separation Research in 1992.\1\ Since 
that time, the Consortium has met yearly to discuss individual projects 
being carried out by the agencies and the future directions of their 
programs.
---------------------------------------------------------------------------
    \1\ Bagwell, T.H., M.K. Price, The Interagency Consortium for 
Desalination and Membrane Separation Research, Desalination, vol.99, 
no.2-3, p 195-199, 1994.
    Price, M.K., The Various Programs in Membrane Water Treatment 
Research Provide and Insight to Areas Where Further Innovation is 
Needed, The 1996 Fourteenth Annual Membrane Technology/Separations 
Planning Conference, Business Communications Co., Inc., Newton, MA, 
1996.
---------------------------------------------------------------------------
    The Consortium members work together to establish a communications 
network that has the following benefits:
  --Prevent federal duplication of efforts,
  --Pool limited federal research funding and other resources to obtain 
        common goals,
  --Identify future research needs, and
  --Allow for discussion of new technologies with other experts in the 
        field.
    Within the past year, the Army has worked with Reclamation and the 
Navy in its' procurement of new technologies. Reclamation has assisted 
National Institute of Standards and Technology (NIST) in the selection 
of proposals for their Advanced Technology Program. NIST also designed 
their membrane research program not to overlap with Reclamation and 
specifically excluded water treatment applications. The other agencies 
have provided advice and information to Reclamation to assist in the 
formulation and management of the Desalination Research and Development 
Program.
          desalination funding in federal government agencies
    The table below indicates the level of funding for desalination 
technologies within the federal government. The information in the 
table is based on a recent telephone survey of agency program offices. 
Several themes became evident as this information was collected. First, 
the military is spending the most money. Second, the work being done in 
the other agencies is very mission specific. For instance, the Army's 
mission is to provide safe drinking water for troops in the field. This 
is done by using commercial desalting technologies and making them 
deployable, light weight, mobile, self-powered, rugged, and able to 
treat all waters. The Navy is responsible for providing shipboard water 
and wastewater treatment starting with commercially available 
technologies. The EPA develops regulations and they generally test and 
demonstrate technologies related to the enforcement of the regulations. 
This also involves testing commercial products. Currently, they are 
doing no desalination work. The Department of Energy's laboratories are 
looking at environmental remediation and waste management technologies. 
Their work is related but not directly supportive of desalination 
technologies. The one agency that could have a large impact on the 
sustainability of advanced water treatment, National Renewable Energy 
Laboratory, has no funding to combine desalination with renewable 
energy at this time. A third theme came from several of the agencies. 
They look to Reclamation's program for development of desalination 
innovations, since the other agencies' work consists of engineering 
modifications to commercially available desalination products. Fourth, 
the cost of developing new desalination technologies does not come 
cheaply. For instance, the Defense Advanced Research Projects Agency is 
funding three projects to develop a handheld desalination device. Each 
of these contracts cost $500,000.
                                summary
    While many federal agencies outside the Defense Department apply 
desalting technologies in carrying out their missions, they are 
dependent upon what is available commercially. Reclamation's 
desalination research and development program is the only federal 
program devoted to reducing the costs of desalination through research, 
studies, development, and demonstration. Reclamation's program benefits 
not only the federal agencies in carrying out their mission, but also 
the public who need additional supplies of clean water.

       DESALINATION FUNDING BY FEDERAL AGENCY IN FISCAL YEAR 1999
------------------------------------------------------------------------
                                     Fiscal year
              Agency                 1999 desal       Example projects
                                       funding
------------------------------------------------------------------------
Defense:
    Army \2\.....................        $370,000  SIBR contract for
                                                    handheld desal
                                                    device.
                                        1,100,000  Lightweight tactical
                                                    water purification
                                                    system development
                                                    125 gallon per hour.
                                          120,000  Parts/support for
                                                    older desal systems.
                                        1,800,000  Complete development
                                                    of 1,200 gallon per
                                                    hour tactical water
                                                    purification system.
                                          900,000  Cost reduction
                                                    studies of existing
                                                    desal systems.
                                        1,500,000  Work with Navy on new
                                                    desal and wastewater
                                                    treatment and reuse
                                                    systems.
    Corps of Engineers \3\.......  ..............  .....................
    Defense Advanced Research           1,500,000  Three contracts for
     Projects Agency \2\.                           handheld desal
                                                    devices under
                                                    mesoscopic
                                                    equipment.
    Navy--Marine Corps \4\.......  ..............  Do support work for
                                                    Army.
    Navy--ships \5\..............   \6\ 1,000,000  Application of
                                                    current technologies
                                                    to shipboard use.
Commerce:
    Advanced Technology Program    ..............  Specifically excludes
     \7\.                                           water research.
    U.S./Israel Science and               ( \6\ )  Past work has
     Technology Commission \8\.                     included $3,000,000
                                                    for Enhanced
                                                    Seawater Desal,
                                                    project complete.
EPA \9\..........................  ..............  .....................
Energy:
    Argonne \10\.................  ..............  .....................
    Livermore \11\...............  ..............  Past work has
                                                    included capacitive
                                                    deionization desal
                                                    research.
    Nat Renewable Energy Lab \12\  ..............  .....................
Interior:
    USGS \13\....................  ..............  Use commercially
                                                    available products.
    National Park Service \14\...  ..............  Use commercially
                                                    available products.
BOR..............................       2,360,000  .....................
CDC and NIH \15\.................  ..............  Use commercially
                                                    available products.
NASA \16\........................  ..............  .....................
                                  ----------------
      TOTAL......................      10,650,000
------------------------------------------------------------------------
\2\ Personal communication with Jay Dusenbury, TARDEC, Army, Michigan.
\3\ Personal communication with Steve Maloney, Corps of Engineers,
  Illinois.
\4\ Personal communication with Mark Silbernagel, Naval Facilities
  Engineering Service Center, California.
\5\ Personal communication with Ivan Caplan, Naval Surface Warfare
  Center.
\6\ Estimate.
\7\ Personal communication with John Pellegrino, NIST, Colorado.
\8\ Personal communication with Duane Lee, Parsons Engineering, working
  under contract to Commerce.
\9\ Personal communication with Steve Clark, EPA Washington; Jeff Adams
  EPA Drinking Water Research, Ohio; Tom Sorg, Marc Parrotta, and Bob
  Bartian.
\10\ Personal communication with James Frank, Argonne National
  Laboratory.
\11\ Personal communication with Jeff Richardson, Livermore National
  Laboratory.
\12\ Personal communication with John Anderson, National Renewable
  Energy Laboratory.
\13\ Personal communication with Yousif Kharaka, USGS, California.
\14\ Personal communication with Craig Patterson, NPS, Colorado.
\15\ Personal communication with Anita Highsmith, consultant, previously
  with NIH, Georgia.
\16\ Waiting for response from NASA.

                         san juan river project

    Senator Domenici. I'm going to go through five or six New 
Mexico projects quickly. The San Juan River-Gallup, Mount 
Taylor pipelines which are trying to bring water to Navajo 
country and to the City of Gallup. We have been funding the 
proposed San Juan River project for quite some time, 
Commissioner.
    Mr. Martinez. That is correct.
    Senator Domenici. They are back before us--the Navajo 
Nation is and the City of Gallup--asking for some additional 
funding. I guess they have a new idea. The new approach is 
different than the one we funded 10 years ago and we did not 
get anywhere. I am very concerned. I am wondering what your 
thoughts would be about us having the Navajo Nation and the 
City of Gallup and the Bureau of Reclamation enter into an 
agreement that would say what we are doing and what the parties 
will do in the event it becomes feasible. I am kind of 
concerned that people change this plan so much. It seems like 
all we are doing is funding planning, and now we have yet 
another plan. So, could you comment on that?
    Mr. Martinez. Yes, Mr. Chairman. My briefing also indicates 
that this has been being planned since the 1970's.
    Senator Domenici. You got it.
    Mr. Martinez. I commit to you to personally get involved in 
this issue and put together a proposal for you that will make 
some sense as to where we head in the future.
    Senator Domenici. Well, I want you to know that I intend to 
write a letter--and I will send a copy of it to you--to both 
the entities in New Mexico suggesting that I do not think we 
ought to fund it anymore, unless we have an agreement up front 
as to what we are trying to do.
    Mr. Martinez. That is correct.
    Senator Domenici. And they would then agree to be bound by 
it. I just cannot see some more money unless that is going to 
happen.

                        indian water settlements

    Let me talk a minute generally about Indian water 
settlements. This is one of the potential jobs you have in the 
future that could get very big to be an integral part of the 
Indian water settlements, if they occur. Is that correct?
    Mr. Martinez. Yes. We are engaged in providing technical 
support to the Federal negotiating committees, as well as 
building some projects as a result of water rights settlement 
acts enacted by Congress. And I see a role for the Bureau of 
Reclamation in this area.
    Senator Domenici. We have a Taos Indian settlement brewing. 
Could you just give us a brief update on that?
    Mr. Martinez. Yes. We are involved. We had a $2 million 
appropriation in this year's budget under the Upper Rio Grande 
project for the Bureau of Reclamation that will be used for 
drilling some wells. I am advised that the project sponsors 
might be looking for some additional resources to do some 
modeling studies that result from the information gained from 
drilling these wells.

                      bay-delta ecosystem funding

    Senator Domenici. It has been hinted that the role of the 
Bureau of Reclamation is changing rather dramatically. I think 
that is the understatement of the world. If the Bureau of 
Reclamation was doing what it has always done, its budget would 
be a much smaller this year. But you have been assigned some 
new responsibilities. As a consequence, I believe we have some 
pretty serious oversight responsibilities with reference to 
that new role. You are now doing very large environmental 
projects and wetlands projects, which I have no objection to at 
all, but I want to go through a few of these very quickly, if I 
could.
    What is the total level of funding being requested by the 
Bureau for the ecosystem related activities in the Bay-Delta 
region? How much is being requested for other agencies within 
the Department of the Interior and Government-wide for these 
type of activities? And could you provide us with a crosswalk 
for the record which shows the 2000 funding requests for 
ecosystem related work in the Bay-Delta by agency?
    Ms. Beneke. We can certainly provide the crosswalk for you, 
Mr. Chairman. The total request for the ecosystem restoration 
program in the Bay-Delta is $75 million, which is the same 
amount as was actually appropriated for fiscal year 1999.
    Senator Domenici. And you will tell us how much is 
elsewhere in Government, if you can.
    Ms. Beneke. Yes. I can do that. The California Bay-Delta 
Environmental Enhancement Act that was passed by Congress--I 
think it was late 1996--authorized the Secretary of the 
Interior to select projects for this purpose. So, the program 
is lodged within the Interior Department at this time and the 
Bureau of Reclamation.
    [The information follows:]

                      Bay-Delta Funding by Agency

    Fiscal year 2000 funding for ecosystem related work in the Bay-
Delta by agency has not been determined by CALFED at this time. Funding 
provided to the Bureau of Reclamation for activities in support of the 
CALFED/Bay-Delta program include three accounts as follows:

U.S. Bureau of Reclamation..............................    $117,192,000
    California Bay-Delta Ecosystem......................      75,000,000
    Water and Related Resources.........................      16,317,000
    CVP Restoration Fund................................      32,246,000

    The CALFED Bay-Delta programs builds on numerous Federal and State 
programs addressing water management, conservation and water quality, 
as well as aquatic species and habitat conservation. Other Department 
of the Interior agencies supporting the CALFED effort are the U.S. Fish 
and Wildlife Service and the U.S. Geological Survey. In addition to 
their routine operation of refuges and habitat management, the U.S. 
Fish and Wildlife Service requested $2.1 million in fiscal year 2000 to 
provide technical assistance for activities supporting the conservation 
and recovery of migratory birds, sensitive, threatened and endangered 
species, and other trust species in the Bay-Delta watershed. They also 
participate in the CALFED program for habitat restoration in areas such 
as planning, assistance, review, and permitting and implementation. The 
U.S. Geological Survey request includes an estimated $3.5 million for a 
variety of studies covering water resources, wetlands, contaminants and 
salinity, and biological research that will contribute to solutions to 
the problems in the Bay-Delta.
    Agencies outside of the Department of the Interior provide CALFED/
Bay-Delta support as follows: The Environmental Protection Agency 
anticipates that significant funding in Clean Water Act and Safe 
Drinking Water Act program grants provided to California could be used 
for the water quality portion of this program. They are currently 
involved in the development of wetlands and drainage management 
projects throughout the Delta and its tributaries. The Natural 
Resources Conservation Service plans to provide funds to Resource 
Conservation Districts for riparian, watershed, agriculture water run-
off, and other ecosystem restoration activities in the Delta. The 
National Marine Fisheries Service requested $1.4 million in their 
appropriation to support a number of relatively small ecosystem related 
studies in the Delta. And the U.S. Army Corps of Engineers anticipates 
funding approximately $12.4 million in fiscal year 2000 for ecosystem 
restoration projects along the Sacramento River that include levee 
rehabilitation, flood control projects, and restoration of seasonal and 
permanent wetlands.

                 calfed appropriations and expenditures

    Senator Domenici. Now, let us move on to CALFED for a 
moment. Now, of the $160 million appropriated to date for 
CALFED, how much has been obligated and expended?
    Ms. Beneke. Well, in fiscal year 1998, there was $85 
million appropriated. Of the $85 million, all of it has been 
allocated to either programs or projects. $73 million has been 
obligated.
    Senator Domenici. How much?
    Ms. Beneke. $73 million.
    Senator Domenici. Thank you.
    Ms. Beneke. By that I mean that it is either under contract 
with a third party or under an agreement with another agency to 
implement a program or projects.
    For fiscal year 1999, $75 million was appropriated. $64 
million of this has been allocated to projects or programs. We 
go through a fairly extensive project selection process, a 
public process. There is stakeholder participation. There is an 
integration panel that reviews these projects to make certain 
that they are consistent and coordinated with our other 
authorities and spending. There are technical screens that are 
undertaken, and then the Secretary approves the projects.
    At any rate, $75 million was appropriated, and $64 million 
has been allocated to projects or programs. None of this has 
yet been obligated, but we are working on our interagency 
agreements and on our contracts as we speak, and we feel fully 
confident that it will be obligated by the end of the fiscal 
year.
    The expenditure rate is much lower, but I would encourage 
the subcommittee to focus on our obligation rate.
    There are some reasons that our expenditures are lower, Mr. 
Chairman. For one thing, most of these projects are done on a 
3- to 5-year contract basis and we do not prepay the contracts. 
So, we do not expend the money as quickly as we otherwise 
might.
    In addition, CALFED typically has the funding for the 
entire project in place before the project starts. We have all 
the money up front before we engage in our 3- to 5-year time 
horizon for these projects.
    At any rate, the current amount that has actually been 
expended to date is $6.4 million of our 1998 appropriations. 
But again, I would hope that the subcommittee would be looking 
more closely at our obligation rate.
    Senator Reid. Mr. Chairman, if I could just interrupt, and 
I apologize. I would like to apologize to Dr. Westphal and 
Lieutenant General Ballard for not being able to be present 
during their testimony. I indicated to you earlier that I would 
like to submit my questions in writing on the Corps of 
Engineers, and with your permission, I will do that.
    Senator Domenici. It will be done.

                          calfed expenditures

    I am sorry to keep going, but some of these have to be 
asked.
    Would you state the amount of expenditures out of this $160 
million appropriated again please?
    Ms. Beneke. To date it is $6.4 million, sir.
    Senator Domenici. $6.4 million.
    And you suggest that we should not be concerned about that 
low level of expenditure?
    Ms. Beneke. Well, I am suggesting that there are some good 
reasons for it. The first fiscal year that we received 
appropriated funds for this project was 1998, and there was 
some start-up time associated with getting our project 
selection process in place. As a manager I think that taking 
some time to get this process in place and do it right was the 
prudent thing to do. We are talking about large sums of money. 
We want to be very responsible about how we administer them.
    So, again, we do not prepay our contracts. There was start-
up time associated with getting this program underway. We have 
it up and running now. We think it is running smoothly. Again, 
I would encourage the subcommittee to focus more on our rate of 
obligation rather than the actual dollars that have gone out 
the door.
    Senator Domenici. Well, I just want to give you my version. 
Frankly, we have a very tight budget in every area. The 
chairman of the Appropriations Committee has been greatly 
concerned--he is sitting here--whether we have enough money to 
allocate among the subcommittees to get our job done this year.
    When you have $160 million obligated to a program that was 
declared to be somewhat of an emergency, a very high priority 
and you have spent $6.4 million, it seems to me we have picked 
out a program in government to advance fund in a very different 
way than we do many other things: just put $160 million out 
there and say whenever you get ready to use it, you use it. I 
would almost think that sooner or later we are going to ask you 
to give us a schedule of what is it you are going to use this 
for. If we are just out there fishing around for projects, then 
we have just opened a door to projects that nobody else gets in 
this country. Other projects do not get that opportunity.
    Ms. Beneke. Well, I appreciate the concern that you are 
raising, sir, but I do want to assure you that the projects 
have been selected. We have 171 projects that have been funded 
either through these funds or in cooperation with the State or 
other non-Federal partners. There are specific projects 
selected, specific projects that are underway, specific 
projects that have been contracted for, and we think that they 
are very important to the overall progress that we can make in 
this program.
    Senator Domenici. Does the new Governor of California 
support the ecosystem restoration activities as currently 
structured and the non-ecosystem components proposed for the 
2000 budget, including water supply, storage, and conveyance?
    Ms. Beneke. We have been working very closely with Governor 
Gray Davis and his new team. Last year, Secretary Babbitt made 
a personal commitment to making progress on this program. We 
had partnered very closely with Governor Wilson. We feel fully 
confident that Gray Davis and his team are supportive of this 
request, and we will continue our good partnership with the 
State of California.
    Senator Domenici. The answer, however, is they do not yet 
do that. They are not yet supporting it.
    Ms. Beneke. Oh, no. I am confident that they do support it, 
sir.

               bureauwide operation and maintenance costs

    Senator Domenici. I just have three more. The conference 
report on the 1998 energy and water appropriations bill asked 
the Bureau to prepare a report on the operation and maintenance 
costs of its projects. The committee requested the report 
because of expressed concerns related to how the O&M costs were 
being allocated by these projects, the declining level of 
operation and maintenance funding for traditional water supply 
and distribution related work, concerns that Reclamation's 
overhead expenses may be excessive, and the lack of opportunity 
of stakeholders to have input into the formulation of the 
budget recommendations. The report was completed and provided 
to the Committee last September, for which we are grateful.

               stakeholders' input into budget priorities

    What has the Bureau done to afford the stakeholders an 
opportunity to have input into the budget needs and priorities 
since you gave us that report? Can the Bureau benefit from this 
increased openness? Do you expect to learn new ways and 
approaches that could improve efficiency and thereby reduce O&M 
costs?
    Mr. Martinez. Mr. Chairman, I have put out a memorandum, a 
letter, a directive to our regional directors and area managers 
to engage our customers in the budget formulation process and 
how we do our O&M. We have been doing some of that across the 
West, but not in all places. I would expect that we would 
improve both in how we do our work and how much it takes to do 
our work.

                   staffing levels for o&m activities

    Senator Domenici. Well, let me just have one last word in 
that regard and give you an example. The O&M cost report 
indicates that the Bureau of Reclamation is continuing efforts 
to control costs by reducing staffing. However, the Family Farm 
Alliance has provided information indicating that the San Luis 
and Delta-Mendoto Water Authority was able to accomplish 
operation and maintenance work with 85 regular full-time 
employees compared to 120 Reclamation employees.
    Does Reclamation have procedures to periodically review and 
assess manpower being used to accomplish O&M activities, and 
have you reviewed situations like this one that I have just 
talked about?
    Mr. Martinez. I have not personally reviewed any of those, 
but given the constraints on our budget, we review our needs 
and our resources. There are some places we could probably 
improve. In particular, I draw to your attention the concerns 
raised by the irrigation district where we met with them on a 
one-to-one basis and reduced costs.
    I think there is room for improvement. We operate, I 
believe, 89 major projects across the West. Some of them are 
probably doing a good job. Some places, I think, we could stand 
some improvement, and we are moving in that direction.
    Senator Domenici. That is all the questions I had.
    The two Senators who arrived, do you want to question the 
Bureau or were you here for the Corps? Go ahead, Senator Burns.

                       statement of senator burns

    Senator Burns. Thank you very much.
    How are the kids? Are the kids all right?
    Ms. Beneke. Fine, thank you, sir.
    Senator Burns. I have to ask her that every time I see her.
    I thank you for coming today and thank you, Mr. Chairman. I 
just have a couple of questions and I have a statement, if I 
may be allowed to put it in the record.
    Senator Domenici. The questions will be made part of the 
record.
    Senator Burns. I am concerned about the $161 million and 
you have only allocated about $6.4 million. Yet, I understand 
we are experiencing some cost overruns in some of my State. You 
have shifted those costs to the water users, the farmers and 
ranchers in those areas, and I am concerned about that.

                 yellowstone river flooding conditions

    This past weekend I was up in Yellowstone Park, and we were 
up in the mountains. We have got a lot of snow this year. Now, 
that only means one thing: It has all got to come down and it 
is very fluid. Of course, the lower Yellowstone River is my 
concern again. We went through this process before at 
Yellowtail Dam, and I would just like to hear your comments on 
steps that should be taken now on the inventory. I know it 
could all come at once or it could come all summer. We cannot 
control the weather end of this thing, but I am just wondering, 
are there any plans being made right now to deal with the 
snowpack?
    It is a wonderful problem. New Mexico is in a drought. I 
wish I could ship some water to Senator Domenici.
    Mr. Martinez. Mr. Chairman, Senator, we have starkly varied 
conditions across the West. On the Pecos River in New Mexico, 
we have 18 percent of normal water flow projected for this 
year, while in the Pacific Northwest and other places we have 
over 250 percent.
    However, our flood operations are in full gear in those 
areas where we expect a runoff to make sure that we do 
everything to minimize a flooding potential. So, we have 
learned from past experiences and hopefully we will do a better 
job as we move along.
    Senator Burns. I am really concerned about this, because I 
will tell you we went through that flood a few years ago, and 
it was just the result of water management out of Yellowtail 
Dam. At the high time when it was coming down to Yellowstone, 
you made a big release out of Yellowtail on the Big Horn River. 
That flows into the Yellowstone River. I will tell you right 
now if it looks like that we have not really managed that water 
and we have similar flooding this year, there is going to be a 
bounty on you because it will be a sorry situation.

                      reclamation grazing permits

    Now, another question. I am getting a little confused about 
the Bureau's main purpose here. I see you are dealing with 
grazing permits now?
    Mr. Martinez. Well, we have lands that were withdrawn from 
Bureau of Reclamation projects across the West. On some of 
those lands, we do have grazing leases and manage our lands.
    Senator Burns. Does that not traditionally fall into BLM? I 
do not think you folks are range managers.
    Mr. Martinez. And I would agree with you.
    Senator Burns. Well, then do something about it. Give it 
back to the BLM or something.
    Mr. Martinez. I will look into that.
    Senator Burns. Yes, just do that.

                           glendive, montana

    Mr. Commissioner, we have some projects in Montana that are 
paid off and they have requested transfer. One of them in 
particular is the Intake Division Dam near Glendive, Montana. 
What is the problem there? How come we are not making that 
transfer?
    Mr. Martinez. Well, I am not aware of that particular 
request. Basically, what we do is when a project sponsor 
requests transfer, we engage and hopefully move toward 
completion. But let me tell you, in the last 3 years we have 
not had too much success, and hopefully we will have some 
success with some of these issues.
    Senator Burns. What is the main problem?
    Mr. Martinez. Well, among the problems is occasional 
opposition from even the local folks as to whether or not a 
project should be transferred valuation, and NEPA studies that 
have to be completed. It is just not as easy as saying we can 
transfer overnight. Then, of course, we have to bring each 
transfer before Congress because ultimately you have to make 
that decision. Those are Federal properties and Congress has to 
act on them, but we will move forward, engage the project 
sponsors, and see if we can bring that proposal before 
Congress.
    Senator Burns. You do not own the land. You just own the 
water. Now they want to take control of their own project. It 
is already paid out, so why are we not making the transfer?
    Mr. Martinez. Because by Federal law, the Federal 
Government owns those facilities even though they have paid out 
their percentage of the costs. So, in order for those transfers 
to occur, it has to be through an act of Congress.
    Senator Burns. Well, Congress will act.
    Do you have to do a NEPA before you make that transfer?
    Mr. Martinez. Yes.
    Senator Burns. Well, that is all I have. Thank you very 
much.
    But now, on the CALFED expenditures, I am clearly concerned 
about the obligation of $161 million and expenditure of just $6 
million.
    Senator Domenici. $6 million.
    Senator Burns. Expended $6 million. Then we go around and 
we look for little projects to do, and run into cost over-runs 
and won't transfer ownership of these projects when they should 
be transferred. You can understand my concern.
    I would like to remind you, now is the time to start 
planning for that lower yellowstone, though, because we got a 
lot of water.
    Thank you, Mr. Chairman.
    Senator Domenici. Thank you very much.
    Did you have any further comments, either of you? Yes, 
Madam Secretary.

                  status of spending on calfed program

    Ms. Beneke. I am hoping that the record is clear on the 
exact status of the spending on the Bay-Delta ecosystem 
program. We have $149 million of the $160 million allocated to 
specific projects or programs. We have $73 million obligated of 
the $85 million fiscal year 1998 funds. I would also like to 
note that we are a year and a half into this program. We have 
the mechanism in place to go ahead and expend these funds, and 
I am anticipating that our obligation rate and expenditure rate 
will pick up considerably for the next several months.
    Senator Burns. Would you supply the committee with a list 
of those projects?
    Ms. Beneke. Yes. I would be glad to do that.
    Senator Domenici. I think we have them, but let us check 
and see. I think we do.
    [The information follows:]

                                  BAY-DELTA ECOSYSTEM RESTORATION APPROPRIATION
----------------------------------------------------------------------------------------------------------------
                                                                                      Funding         Funding
                                                                                   Allocated in    Allocated in
           Funding Category/Projects                         Agency                 fiscal year     fiscal year
                                                                                       1998            1999
----------------------------------------------------------------------------------------------------------------
Woodbridge Fish Screen........................  USBR............................           1,575
Richter Brothers Screen.......................  USBR............................              49  ..............
Boeger Brothers Screen........................  USBR............................              15  ..............
Small Diversion Fish Screens Program \1\......  NRCS............................             900  ..............
      Fish Screen Improvements................  ................................          $2,539  ..............
Anderson-Cottonwood Irrigation District (ACID)  USBR............................             325  ..............
 Screen.
Fish Passage Program..........................  USBR............................           8,000  ..............
    ACID Fish Passage & Fish Screen             ................................             860  ..............
     Improvement Project, Phase II.
    Anadromous Fish Passage at Clough Dam on    ................................           1,280  ..............
     Mill Creek.
    Fish Passage Improvement Project at the     ................................             341  ..............
     Red Bluff Diversion Dam.
    Steelhead & Chinook Salmon Fish Passage     ................................             178  ..............
     Barrier Remediation at Guadalupe River...
    Cosumnes River Salmonid Barrier Program...  ................................             188  ..............
    Boeger Family Farms Fish Screen, Phase III  ................................             140  ..............
     (Construction).
    Hastings Tract Fish Screen, Phase II        ................................             271  ..............
     (Construction).
    City of Sacramento Fish Screen Replacement  ................................             655  ..............
     Project, Phase II.
    American Basin Fish Screen & Habitat        ................................             200  ..............
     Improvement Project.
    Stanislaus River Channel Restoration......  ................................           1,038  ..............
    Tuolumne River Setback Levees.............  ................................             655  ..............
    Battle Creek..............................  ................................             395  ..............
    Fish Passage Program Remaining Balance \1\  ................................           1,799  ..............
ACID Fish Passage Improvement Project, Phase    USBR............................  ..............           5,253
 III.
Battle Creek Salmon and Steelhead Restoration   USBR............................  ..............          28,000
 Project.
Lower Butte Creek Project, Phase II...........  USBR............................  ..............             775
      Fish Passage Improvements...............  ................................           8,325          34,028
San Joaquin Floodplain Acquisition and          USFWS...........................          10,647
 Riparian Restoration.
Bear Creek Floodplain Restoration               USFWS...........................             334  ..............
 Demonstration Project.
Napa River Wetlands Acquisition...............  USBR............................           1,000  ..............
Cache Slough Habitat Enhancement..............  USBR............................              85  ..............
Regional Wetlands Goals Project...............  USEPA...........................              76  ..............
Cosumnes River Floodplain Acquisition.........  USBR............................           3,500  ..............
Prospect Island...............................  USCOE...........................           2,000  ..............
McCormack-Williamson Tract Acquisition........  USFWS...........................  ..............           5,250
McCormack-Williamson Tract's Wildlife-friendly  USFWS...........................  ..............             860
 Levee Management Project.....................
Habitat Restoration/Flood Control Bypasses      USCOE...........................           1,200  ..............
 Program \1\.
Floodplain Restoration/Habitat Restoration on   USFWS...........................          14,000           2,700
 Existing Conservation Lands Program..........
    Butte Creek Acquisition...................  ................................             125  ..............
    Lower Mill Creek Riparian Restoration.....  ................................              30  ..............
    Grayson River Ranch Perpetual Easement and  ................................             732  ..............
     Restoration.
    Hill Slough West Habitat Demonstration      ................................             200  ..............
     Project.
    Rhode Island Floodplain Management and      ................................              25  ..............
     Habitat Restoration.
    Nelson Slough Wildlife Area Restoration     ................................             256  ..............
     Demonstration Project.
    Merced River Salmon Habitat Enhancement,    ................................           2,433  ..............
     Phase III.
    Stone Lakes National Wildlife Refuge Land   ................................           1,900  ..............
     Acquisitions.
    Petaluma Marsh Expansion Project--Marin     ................................             352  ..............
     County.
    South Napa River Wetlands Acquisition and   ................................             431  ..............
     Restoration.
    Lower Clear Creek Floodway Restoration....  ................................           3,560  ..............
    Fern-Headreach Tidal Perennial Aquatic and  ................................             425  ..............
     Shaded River Aquatic Conservation........
    Benicia Waterfront Marsh Restoration......  ................................              59  ..............
    Floodplain Acquisition, Management, and     ................................           1,000  ..............
     Monitoring on the Sacramento River.......
    Cosumnes River Acquisition Restoration,     ................................             750  ..............
     Planning and Demonstration...............
    Deer and Mill Creeks Acquisition and        ................................           1,000  ..............
     Enhancement.
    Lower San Joaquin River Floodplain          ................................             722             396
     Protection and Restoration Project.......
    Biological Restoration and Monitoring in    ................................  ..............             773
     the Suisun Marsh/North San Francisco Bay
     Ecological Zone..........................
    South Napa River Tidal Slough and           ................................  ..............           1,455
     Floodplain Restoration Project.
    Butte Creek Riparian Restoration            ................................  ..............              76
     Demonstration.
      Habitat Restoration In Floodplains and    ................................          32,842           8,810
       Marshes.
Liberty Island Acquisition....................  USFWS...........................           8,577  ..............
Sedimentation Movement, and Availability and    USGS............................           1,047  ..............
 Monitoring in the Delta.
Tuolumne River Mining Reach Restoration         USFWS...........................  ..............           3,332
 Project No. 2--MJ Ruddy Segment..............
Merced River Salmon Habitat Enhancement, Phase  USBR............................  ..............           1,633
 I: Robinson/Gallo Project, Ratzlaff Reach
 Site.........................................
Tuolumne River Special Run Pool (SRP) 10        USBR............................  ..............             165
 Restoration.
Preliminary Design and Engineering--Lower       USBR............................  ..............             130
 Western Stone Restoration Site, Merced River.
      River Channel Changes...................  ................................           9,624           5,260
Environmental Water Acquisition Program \2\...  USBR............................          14,500  ..............
                                               -----------------------------------------------------------------
      Improved Instream Flows.................  ................................          14,500  ..............
Assessment of Organic Matter in the Habitat     USGS............................           1,400  ..............
 and Its Relationship to the Food Chain.......
Evaluation of Selenium Sources, Levels, and     USGS............................           1,589  ..............
 Consequences in the  Delta...................
Bacterial Treatment of Selenium in the Panoche  USBR............................           1,149  ..............
 Drainage.
Sand and Salt Creek Watershed Project.........  USBR............................             599  ..............
Integrated Pest Management in Suisun Bay        USBR............................             266  ..............
 Program.
Assessment of Ecological and Human Health       USBR............................  ..............           3,800
 Impacts of Mercury in the Bay-Delta Watershed
      Water Quality and Temperature             ................................           5,003           3,800
       Improvement.
Exotic Species Control Program................  USFWS...........................           1,250  ..............
                                               -----------------------------------------------------------------
      Introduced and Undesirable Species        ................................           1,250  ..............
       Control.
Evaluation of Tagging Data....................  USBR............................             625  ..............
      Improved Fish Management and Hatchery     ................................             625  ..............
       Operations.
Watershed Improvement/Sediment Stabilization    USFS............................             371  ..............
 on Deer, Mill and Antelope Creeks............
Watershed Restoration Planning Program........  USEPA...........................           1,550           1,310
    Petaluma River Watershed Restoration......  ................................             220  ..............
    Cottonwood Creek Watershed Group Formation  ................................             161  ..............
    Battle Creek Watershed Stewardship........  ................................             145  ..............
    Local Watershed Stewardship Steelhead       ................................              48  ..............
     Trout Plan.
    Cold Water Fisheries and Water Quality      ................................             200  ..............
     Element.
    Merced River Corridor Restoration Plan....  ................................             300  ..............
    South Yuba River Coordinated Watershed      ................................             264  ..............
     Management Plan.
    Watershed Restoration Strategy for the      ................................             212              32
     Yolo Bypass.
    Proposal to Develop Local Watershed         ................................  ..............             159
     Stewardship Plan for the Lower Mokelumne
     River....................................
    Union School Slough Watershed Improvement.  ................................  ..............             636
    American River Integrated Watershed         ................................  ..............             221
     Stewardship Strategy.
    Sulphur Creek Coordinated Resource          ................................  ..............              24
     Management Planning Group.
    Lower Putah Creek Watershed Stewardship...  ................................  ..............             100
    Alhambra Creek Watershed CRMP.............  ................................  ..............             138
Butte Creek Watershed Road Survey.............  USFWS...........................             294  ..............
Inventory of Forest Road Systems--Cat Creek     USFS............................              38  ..............
 Watershed.
Floodplain Easement--Lower Tuolumne and San     NRCS............................  ..............           1,545
 Joaquin Rivers.
      Watershed Management....................  ................................           2,253           2,855
          EPA Contribution....................  ................................  ..............             910
          Bay-Delta Account...................  ................................           2,253           1,945
Integrated Phasing Strategy (CALFED Program     USBR............................           1,647           3,200
 Staff).
Coordinated Permitting (CALFED Program Staff).  USBR............................             282  ..............
Development of a Watershed Management Program   USBR............................             184  ..............
 (CALFED Program Staff).......................
Comprehensive and Coordinated Monitoring        USBR............................           1,157  ..............
 Assessment and Research Program (CCMARP).....
Bay-Delta Education Program...................  USBR............................             300             120
    San Joaquin Valley's ``Salmonids in the     ................................               3  ..............
     Classroom'' Program Enhancement..........
    Traveling Film Festival/Heron Booth/Video   ................................              54  ..............
     Archive.
    Environmental Agriculture Conferences and   ................................              28  ..............
     Field Tours.
    Sacramento River Headwaters to the Ocean,   ................................              50  ..............
     Public Information and Education.........
    Discover the Flyway.......................  ................................              49  ..............
    The Butte Creek Watershed Educational       ................................              33  ..............
     Workshops and Field Tours Series.........
    Bay-Delta Environmental Restoration         ................................              40  ..............
     Education Program.
    The Virtual Science Center and Hands-on     ................................              42  ..............
     Learning Programs.
    Water Hyacinth Education Program..........  ................................               1              10
    Water Challenge 2010......................  ................................  ..............              65
    Tuolumne River Natural Resources Program..  ................................  ..............              45
Special Support Programs (CALFED Program        USBR............................  ..............           1,751
 Staff).
Prospect Island Monitoring Project............  USCOE...........................  ..............             915
      Monitoring, Permit Coordination, and      ................................           3,570           5,986
       Other Special Support.
Restoration Reserve...........................  USBR............................           3,319           3,750
Technical Review and Quality Control Program..  USBR............................             850             750
Administrative Support Program................  USBR............................             850             750
      Miscellaneous Expenses/Administration...  ................................           4,469           5,000
Pending April 16, 1999 due date of the Public   ................................  ..............          10,171
 Solicitation Process.
Less EPA Contribution (Watershed Management     ................................  ..............            -910
 Category).
      GRAND TOTAL ALLOCATED (Bay-Delta          ................................          85,000          75,000
       Account).
----------------------------------------------------------------------------------------------------------------
\1\ Program is included in the Public Solicitation Process issued on February 16, 1999 with a project submittal
  due date of April 16, 1999. Project selection is expected to be complete by June 30, 1999.
\2\ CALFED is currently working the Stakeholder community to develop this program.


    Ms. Beneke. It is a very important program in California.
    Senator Domenici. When I raised the issue, I just wonder if 
we started too fast. That is all I am wondering about.
    Ms. Beneke. Sir, I would also say that Congress authorized 
$143.3 million in annual appropriations for this program. We 
have come in with a request this year of $75 million, which we 
think is well tailored to what we can expend and what the need 
is. We are going to be sending up a request to extend the 
authorization for this program, and we will be working with the 
authorizing committees on that as well.

                     new mexico drought conditions

    Senator Domenici. I would like to make one last observation 
directed to the Department and, in particular, the 
Commissioner. I am pleased that I have six Senators here.
    My State is on the verge of a drought. The Commissioner has 
just expressed a concern about one river in our State. It is 
not as drastic, but every river is having enormous problems in 
terms of the source of water that normally flows down the 
rivers.
    We have a budding problem with reference to the endangered 
species law that is very, very serious. It has to do with a 
minnow on our biggest river system. It has been declared an 
endangered species, and it is entirely possible that we cannot 
maintain the flow in the river for the minnow, which is a 
latecomer to the water needs of that river basin, having just 
been adjudicated, whereas we have had all kinds of other users 
lined up who are entitled to water, including large cities like 
Albuquerque who bought much of the water that is coming down 
the river.
    We may very well be asked here in Congress to do something 
to alleviate this situation unless the managers of the river 
system can accommodate the traditional users who already have 
claims, the cities who own the water, and a minnow that has 
just recently, as I indicated, made claim to our waters.
    We have a similar one in the second largest water system, 
another minnow, the same claim, in a drought era in a desert 
State. I just leave that with you.
    Senator Burns. Do you want some grizzly bears?

                     Additional committee questions

    Senator Domenici. Well, what we need is we need some common 
sense, but that is the problem.
    Thank you both very, very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Domenici

              san juan river-gallup, mount taylor pipeline
    The Committee has been funding the San Juan-Gallup, Mount Taylor 
Pipeline study effort for the past two years. Last year, the Bureau of 
Reclamation entered into a Memorandum of Agreement to undertake a 
feasibility study of a water supply pipeline from Mount Taylor mine for 
additional water supplies in the area. The Committee understood that 
the Bureau had sufficient funding available in fiscal year 1999 to 
complete the study, but provided additional funding to insure there 
were no delays or funding constraints.
    Question. What is the status of this study which will confirm the 
quantity and quality of water that might be available from the Mount 
Taylor mine?
    Answer. We have completed an appraisal study of the requirements 
for treatment and delivery of water through a pipeline from Mt. Taylor 
to Gallup, Acoma Pueblo, and Laguna Pueblo. A separate preliminary 
study has been done by John Shomaker & Associates for the City of 
Gallup on the quantity of water available. Shomaker's preliminary 
estimate is that 4,000 acre feet of water could be produced from the 
Mt. Taylor Mine for about 40 years. We estimate the pipeline and 
treatment plant would cost $35-$40 million to build and a preliminary 
estimate of $2-$2.5 million annually for operation and maintenance. No 
special environmental or cultural resource issues have been identified. 
However, disposal of selenium at the water treatment plant is a concern 
and a high cost for documentation and mitigation of archaeological 
sites should be anticipated due to high density of known sites in the 
area.
    Question. Will the study be completed in fiscal year 1999 as 
planned? If not, why? Has the Bureau established a firm schedule to 
complete the determination of quantity and quality?
    Answer. No, at this point Reclamation has not initiated feasibility 
studies. None of the local sponsors are able to provide cost-sharing 
contributions to take the studies to the feasibility stage. Reclamation 
has proposed entering into a Memorandum of Agreement with the city of 
Gallup, and the Acoma and Laguna Pueblos, under which Reclamation would 
contract with the Pueblos under the authority of the Indian Self-
Determination Act of Public Law 93-638 to accomplish some of the needed 
studies. These contracts would not require cost sharing. We have 
proposed two major studies to be completed under these contracts. The 
first are detailed hydrologic studies including groundwater modeling to 
provide a firmer estimate of the quantity of water available and to 
identify and quantify potential impacts on other parts of the 
hydrologic system such as springs, streams, and other aquifers. The 
second is the development of a legal framework for cooperation of the 
sponsors to plan, implement, and operate the project. Substantial 
questions related to water rights and allocation of project water need 
to be addressed before the project could be built. To date, the 
proposed agreement has not been accepted and signed by all the 
sponsors.
               san juan gallup-navajo water supply study
    The San Juan Gallup-Navajo Water Supply feasibility study has been 
on-going for several years. The Committee provided $150,000 for the 
current year for the Bureau of Reclamation to complete the feasibility 
study and initiate NEPA compliance activities.
    Question. What is the status of this study?
    Answer. Reclamation and the study partners will complete a planning 
status report and environmental analysis during fiscal year 1999. The 
report will present the preferred plan and alternatives considered by 
the study partners and identify significant environmental issues that 
would be addressed during the National Environmental Policy Act 
process. Consultation under Section 7 of the Endangered Species Act 
will be initiated with respect to the endangered fish in the San Juan 
River by the Bureau of Indian Affairs during fiscal year 1999.
    Question. How much funding is included in the fiscal year 2000 
budget request to continue the study effort?
    Answer. No funding has been requested for fiscal year 2000.
    Question. Is this level of funding sufficient to keep the study on 
schedule?
    Answer. No. Additional funding of $300,000 would be needed in 
fiscal year 2000 to keep this project moving forward. These funds would 
allow the NEPA process to move forward and allow data to be collected 
to refine the project plan. The additional capability shown was not 
included in the President's budget. The Department does not support the 
addition of funds for any project that would result in the reduction of 
funding for programs or projects included in the budget request.
    Question. Has the Bureau established a firm schedule to complete 
the San Juan Gallup-Navajo Water Supply study effort?
    Answer. No. Due to the uncertainty of funding a firm schedule has 
not been completed. The planning status report and environmental 
assessment will be completed during fiscal year 1999. If funding is 
available, necessary data could be collected and a Feasibility Report/
Environmental Statement could be completed by the end of 2001. In order 
for the project to move to implementation, additional construction 
authorization and funding would also be required.
                  taos indian water rights settlement
    The Committee provided $2 million in the current fiscal year for 
the Bureau of Reclamation to initiate and complete a confirmatory well 
drilling program of the deep aquifer which was a critical element of 
the Taos Indian Water Rights Settlement Agreement.
    Question. What is the current status of your efforts to undertake 
this important work?
    Answer. An environmental assessment, which typically takes 3-5 
months, is in progress and is scheduled to be completed late in April 
of this year. Depending upon the results of the assessment, drilling 
could commence after the environmental assessment is done.
    Question. Will the proposed work be completed in fiscal year 1999 
as directed, if not, why? Is additional funding needed in fiscal year 
2000? If so, what is the Bureau's funding capability?
    Answer. No, the work cannot be completed in fiscal year 1999 
because of the size and depth of the seven wells. It will take about 
two months to complete each well even with some 24-hour per day 
drilling. Completion of the drilling is anticipated in late spring or 
summer of 2000.
    The current funding capability estimate for fiscal year 2000 is 
$700,000. This includes all required NEPA activities, contact 
administration, modeling reports, and consultant fees. This estimate is 
based on the assumption that the drilling has been completed, and a 
recommendation to proceed has been made.
    ute reservoir pipeline project, curry and roosevelt counties, nm
    The Conference Agreement for fiscal year 1999 included $200,000 for 
the Bureau of Reclamation to begin feasibility studies of the Curry and 
Roosevelt counties portion of the Ute Reservoir Pipeline project.
    Question. How does the Bureau of Reclamation plan to proceed with 
this work in fiscal year 1999?
    Answer. The Ute Water Commission is working on a plan of study for 
this work which will include feasibility planning and environmental 
compliance for the Curry and Roosevelt Counties phased portions of the 
Ute Pipeline project. Reclamation plans on modifying the existing 
Cooperative Agreement to include this work once we receive and agree on 
the scope of work.
    Question. How much funding is requested in your fiscal year 2000 
budget to continue this work?
    Answer. No funding was requested for this work in fiscal year 2000.
    Question. Now, $300,000 was provided in fiscal year 1998 for the 
Quay County portion of the project. What is the status of the Quay 
County studies?
    Answer. On June 24, 1998, Reclamation entered into a Cooperative 
Agreement with the Eastern Plains Council of Governments (COG). This 
obligated funds in the amount of $285,000 to the COG, which includes 
$15,000 to administer the contract. The additional $15,000 was set 
aside to pay Reclamation administrative costs.
    In September of 1998, a contract was entered into between the COG 
and Smith Engineering to prepare a Special Report (to be completed in 
June 1999) which would provide enough information for the local 
sponsors to solicit financing for final design and construction either 
from private or public entities. This effort differs from past efforts 
as it provided for project phasing, which allows the Quay County 
portion to be built first, and subsequent phasing would provide for 
final project completion.
                upper rio grande basin water management
    The Upper Rio Grande Basin water operation model has been under 
development for several years with funding that has been appropriated 
by this Committee.
    Question. Am I correct that the development of the model is about 
to be completed? Is there any additional model development which will 
not be completed in fiscal year 1999 for which funding will be required 
in fiscal year 2000? If so, does the Bureau have sufficient funding 
requested in fiscal year 2000 to carry out any additional development 
work that may be needed? How much funding over and above the budget 
request is needed to complete the development work?
    Answer. The first fully linked upper-basin model, operating from 
Colorado to Fort Quitman, Texas is scheduled to be completed in fiscal 
year 2000. However, this ``backbone water operations model'' will lack 
necessary refinements required to satisfy planning and NEPA 
applications in some reaches of the river. These necessary refinements 
are expected to continue into fiscal year 2004 as various water 
management and operational issues surface in the basin requiring the 
detail of a planning model. Several water issues in the basin are 
currently showing a need for accelerated application of the planning 
model. Acceleration of the model refinement would require enhanced 
funding from various partnership sources. Currently, the model is being 
developed using funding from several sources and partners. Reclamation 
has requested $345,000 for model development in fiscal year 2000 but 
could apply an additional $250,000 toward accelerated model refinement. 
The additional capability shown was not included in the President's 
budget. The Department does not support the addition of funds for any 
project that would result in the reduction of funding for programs or 
projects included in the budget request.
    Question. How do you envision using this operational model as a 
management tool?
    Answer. The model can be thought of in terms of three modular 
components: First, a real-time hydrologic daily decision support system 
linked to a real time monitoring network. Second, a water accounting 
and water operations model used for analysis and documentation of daily 
flood control and project water delivery operations; and, third, a 
basin-wide hydrological planning model used for evaluating impacts of 
long range water management and water development scenarios. There is 
already a well defined need for all three model components.
    Question. Now, funding is included in the budget to begin work with 
the Regional Water Planning Assembly to undertake ``grass-roots water 
planning efforts for the Middle Rio Grande Valley''. Can you explain 
what the Bureau has in mind, what the total cost of the effort is 
expected to be, and how long you expect to fund this effort? What is 
the make-up to the Regional Water Planning Assembly?
    Answer. In fiscal year 2000, $50,000 is requested for coordination 
with the Regional Water Planning Assembly and minor technical support. 
An additional $78,000 is estimated to be needed for work through fiscal 
year 2002. The Regional Planning Assembly is a grass roots organization 
which came into existence at the request of the New Mexico Governor and 
State Engineer to address basin-wide water resource issues. The mission 
of this group is to formulate a regional water plan funded by the New 
Mexico Interstate Stream Commission. The group includes representatives 
from every water interest sector in the Middle Rio Grande Valley. This 
includes farming, municipal, environmental, rural organizations as well 
as water management agencies at the local, state, and federal level.
        reclamation recreation management program--title xxviii
    Congress provided $2 million for the current fiscal year for the 
Bureau of Reclamation to more fully participate in a cost-shared 
program with the State of New Mexico for recreation facility 
improvements under Title XXVIII of the Reclamation Projects 
Authorization and Adjustments Act. The funding was provided because the 
Committee understood that the State of New Mexico had been financing 
recreation improvements unilaterally and that an imbalance existed in 
the allocation of funding through this program.
    Question. Do you expect any problems in carrying out this program 
as authorized and intended by the Committee? Specifically, how is the 
Bureau using the $2 million provided for improvements at recreation 
facilities in New Mexico?
    Answer. We will have no problem in carrying out this program. Most 
of the funding will be used to rehabilitate recreation facilities at 
Elephant Butte and Navajo State Parks. Funds will also be used for 
facilities at Caballo, Heron, El Vado, Sumner, Percha and Leasburg 
State Parks.
                            animas-la plata
    Congress has appropriated $3 million or more annually for the past 
several years for the Bureau of Reclamation to continue data 
collection, analysis and other activities related to the Animas-La 
Plata project. The fiscal year 2000 budget again includes $3 million 
for similar activities.
    Question. What has been the total level of funding appropriated for 
this project over the past 5 years, and how much has actually been 
spent on the project?
    Answer. The total amount appropriated for Animas-La Plata for the 
period fiscal year 1995 through fiscal year 1999 was $34.8 million. 
Reclamation applied a total of $4.8 million of underfinancing to this 
project during the period. Therefore, the net allotments for the past 5 
years totaled $30 million. The total amount spent on the Project from 
fiscal year 1995 through February 1999 was about $20.2 million.
    Question. How much funding is available for expenditure in fiscal 
year 1999 from prior year balances? How much of the total funding 
available does the Bureau expect to spend in fiscal year 1999?
    Answer. At the beginning of fiscal year 1999, $9.5 million was 
available to expend from prior year balances. If the fiscal year 1999 
allotment of $0.5 million is added, then $10.0 million is available to 
expend in fiscal year 1999. The initial fiscal year 1999 estimate for 
expenditures was approximately $3.0 million. With the anticipated new 
environmental evaluations discussed below, additional expenditures are 
expected. The magnitude of those expenditures is currently being 
evaluated.
    Question. Now the budget justification seems to indicate that the 
Department has selected a Proposal for Animas-La Plata. The 
justification uses terms such as ``the Department of the Interior's 
Proposal'', the ``Administration Proposal'', and ``refining the 
Proposal''. Please explain what is meant by ``Proposal''. Has the 
Department of the Interior selected a ``project'' alternative as 
directed by Congress? Specifically, how will the funding requested for 
fiscal year 2000 be used?
    Answer. On August 11, 1998, the Secretary of the Interior presented 
an Administration Proposal to build a down-sized version of Animas-La 
Plata to implement the Colorado Ute water rights settlement, which 
would also include a nonstructural element as part of the settlement 
implementation. Then on January 4, 1999, a Notice of Intent (NOI) was 
published in the Federal Register announcing the intent to prepare a 
Draft Supplemental Environmental Impact Statement for the Animas-La 
Plata Project pursuant to the National Environmental Policy Act (NEPA) 
of 1969, as amended. The Draft Statement would evaluate the 
environmental impacts of the Administration Proposal and several other 
alternatives. Pending public input, Reclamation intends that the 
Administration Proposal and each of the alternatives described in the 
NOI undergo an environmental impact analysis beginning with a threshold 
assessment of the alternative's capability to accomplish the project's 
purpose fiscal year 2000 funding would be used to conduct a major 
portion of the NEPA process identified in the NOI. Current plans are to 
use contracts under the Indian Self-Determination Act authority of 
Public Law 93-638 with both Colorado Ute Indian Tribes to conduct this 
work.
    Question. Last year, you testified that the analysis of 
alternatives would be completed in 3-6 months. Has the analysis of 
alternatives been completed as you testified? If not, why?
    Answer. Reclamation conducted an appraisal-level analysis on the 
two alternatives resulting from the Romer/Schoettler Process. Prior to 
its finalization, the Secretary of the Interior announced an 
Administration Proposal incorporating portions of those two 
alternatives. All information and data developed as part of the Romer/
Schoettler Process, as well as previously completed environmental 
studies, are being utilized and incorporated into the present Draft 
Supplemental EIS effort.
    Question. Why should the Congress appropriate any further funding 
for this project for fiscal year 2000?
    Answer. The Administration is committed to implementing a water 
rights settlement for the Colorado Ute Tribes. We anticipate increased 
costs to accelerate NEPA compliance work and will seek authority to 
immediately initiate activities to implement the selected alternatives.
                salton sea, california research project
    For the past several years, funding has been provided for the 
Salton Sea research project in California to investigate increasing 
salinity, other water quality issues, and rising surface levels which 
are flooding developed areas and wildlife habitat. The Bureau of 
Reclamation, and other Federal and State agencies are engaged in an 
effort to identify and evaluate possibilities for improving the 
conditions of the sea, a program of additional planning, research, and 
environmental impact analysis.
    Question. First, tell the Committee why the Bureau of Reclamation 
is involved in this effort?
    Answer. The Salton Sea as we know it today was created in 1905-07, 
when the flooding Colorado River broke through a temporary diversion 
works and flowed into the Salton Sink for nearly 15 months before it 
was diverted back to the river channel. Soon after, the Sea began to 
decrease as the flow of new water was discontinued prior to the 
creation of irrigated agriculture. In 1942, the All-American Canal 
began carrying Colorado River water to the Imperial and Coachella 
Valleys which flank the Salton Sea and thus the Sea began to receive an 
annual inflow of water created from the agricultural drainage. 
Reclamation was the Federal partner in the development of this 
diversion system.
    The Bureau of Reclamation studies directed towards managing the 
salinity of the Salton Sea date back to the 1960's, when Reclamation 
and the California Department of Water Resources performed a joint 
appraisal evaluation of possible alternatives. Title XI of Public Law 
102-575, the Salton Sea Research Project Act, directed the Secretary of 
the Interior, acting through Reclamation, to conduct a research 
project. Most recently, Congress in 1998 passed the Salton Sea 
Reclamation Project Act, Public Law 105-372, which directed the 
Secretary of the Interior, acting through Reclamation, to conduct an 
Environmental Impact Statement/California Environmental Impact Report 
feasibility study to reclaim the Sea, and specifically named the Bureau 
of Reclamation as lead agency on these efforts.
    Question. Setting aside the action of the Secretary of the Interior 
designating the Bureau of Reclamation as the lead agency in the 
Department, is there a direct connection to your traditional missions 
and responsibilities?
    Answer. There is a direct connection to Reclamation's traditional 
mission and responsibilities in this project. The two irrigation 
districts that contribute agricultural drainage to the Salton Sea are 
both Reclamation projects built through a partnership with the Federal 
government. As with most of our projects, if the operation of the 
project adversely affects the local environment then Reclamation can be 
involved in developing solutions to the problems.
    Question. How much funding has been provided for this effort across 
all Federal government agencies in fiscal year 1998 and fiscal year 
1999, and how much is requested for fiscal year 2000? How much funding 
are State and other non-Federal agencies providing for fiscal year 1999 
and 2000?
    Answer. The following table presents the Federal funding being used 
to perform the various activities associated with the Salton Sea.
Bureau of Reclamation
    Fiscal year 1998--$2,000,000 (Includes $400,000 enacted and 
$1,600,000 fund transfer and reprogramming).
    Fiscal year 1999--$400,000 (Enacted).
    Fiscal year 2000--$1,000,000 (Requested).
U.S. Environmental Protection Agency
    Fiscal year 1998--$5,875,000 (Enacted).
    Fiscal year 1999--$13,400,000 (Enacted).
    Fiscal year 2000--(None Requested).
U.S. Fish and Wildlife Service
    Fiscal year 1998--$1,000,000 (Enacted).
    Fiscal year 1999--$1,000,000 (Enacted).
    Fiscal year 2000--$1,000,000 (Requested).
U.S. Geological Survey
    Provides limited scientific expertise and personnel support.
    The State and other local non-Federal agencies have made or will 
make available a total of $3,784,100 for work in fiscal year 1999 and 
fiscal year 2000.
    Question. What is the total estimated cost of the effort to 
complete the feasibility design, and the technical and biological 
impact analysis work necessary for the preparation of feasibility 
report and environmental compliance documents?
    Answer. The current estimated cost of the feasibility study is 
$4.85 million. Reclamation is providing 50 percent of the total costs 
of the study which is being matched by a non-Federal cost sharing 
partner. The non-Federal cost sharing partner is the Salton Sea 
Authority, a Joint Power Authority established under the laws of the 
State of California.
    Question. Has a firm schedule, which establishes critical 
milestones, been established for this work? If so, could you provide it 
for the record?
    Answer. The Department of the Interior and Reclamation understand 
that January 1, 2000, is a firm date for a report to Congress. The 
following schedule is being followed to prepare the report and 
documents for this project.
    November 12, 1998--Salton Sea Alternatives Final Pre-appraisal 
Report--Engineering information on Salinity and Water Surface 
Elevation.
    February 15, 1999--Scoping Report on Public Meetings Held in July 
and October 1998.
    March 15, 1999--Draft Report, Screening Analysis of Initial 
Restoration Alternatives.
    April 30, 1999--Draft Appraisal Report on Proposed Alternatives.
    May-June 1999--Initial Reports from Baseline Science work being 
performed with submittal to the Science Subcommittee, Salton Sea 
Authority, and Reclamation.
    September 1, 1999--Draft Environmental Impact Statement/Planning 
Report, California Environmental Impact Report.
    January 1, 2000--Final Environmental Impact Statement/Planning 
Report, California Environmental Impact Report to Congress.
    Question. Is it realistic to believe that the Bureau of Reclamation 
can complete the feasibility report and associated National 
Environmental Protection Act documentation by January 1, 2000 when this 
work is only 9 percent complete?
    Answer. A report will be made available with proposed action 
alternatives for consideration by Congress by January 1, 2000. 
Reclamation will be able to provide an analysis of the alternatives for 
feasibility economics and costs on phase one, but not a complete 
feasibility-level engineering design for all phases. It is envisioned 
that the preferred project may be proposed using a phased approach to 
addressing the ecological issues of the Sea. The final Environmental 
Impact Statement/Planning Report will then include at least 
feasibility-level designs and cost estimates of phase one and 
appraisal-level designs and cost estimates for the other features.
    Question. The fiscal year 2000 justification material indicates 
that a portion of the $2 million budget request is to ``initiate 
specific design work on the preferred alternative course of action 
coming out of the feasibility report and supporting environmental 
compliance documents''. How much of the budget request is for specific 
design work on the preferred alternative, and why is this work being 
proposed prior to completion of the feasibility report and project 
authorization?
    Answer. Of the $2,000,000 total program in fiscal year 2000, 
$1,000,000 is non-Federal cost-sharing. When the fiscal year 2000 
Budget Justification was prepared, the funding proposed was based on an 
aggressive schedule that assumed that authorization by Congress would 
occur quickly and initiation of designs could occur shortly after 
Congressional decision within the same fiscal year. However, since then 
it is envisioned that the preferred project may be proposed using a 
phased approach to addressing the ecological issues of the Sea. The 
final Environmental Impact Statement/Planning Report will then include 
at least feasibility-level designs and cost estimates of phase one and 
appraisal-level designs and cost estimates for the other features. The 
funds originally identified in fiscal year 2000 to collect initial 
design data are now expected to be needed to complete feasibility 
designs for other phases of the preferred plan.
          california bay-delta ecosystem restoration (calfed)
    The budget request for fiscal year 2000 is $95 million, the last 
year appropriations are authorized. However, the Administration has 
proposed legislative language to extend the current spending 
authorization through 2003 in order that the full $430 million 
authorized currently will be funded. In addition to the funding 
provided under the CALFED program, funding is provided for similar 
restoration work in the Bay-Delta area through the Bureau of 
Reclamation's Central Valley Project Restoration Fund, the Bureau's 
Water and Related Resources funding account; and other Federal 
agencies.
    The programmatic environmental impact statement and a report 
describing the preferred alternative to address the issues related to 
the restoration program, including the possibility of new water supply 
options, is long overdue. Yet, the budget for fiscal year 2000 proposes 
expanding current activities by beginning the planning and 
implementation additional activities without reaching agreement on 
critical issues such as additional water supply, storage and 
conveyance, which are important to other water users principally those 
in the agricultural and development communities.
    Question. When Secretary Babbitt released the revised CALFED Phase 
II Report he indicated that additional issues remained to be worked 
out. What are these additional issues that need to be resolved? When 
will a final revised Phase II Report be issued, and a preferred 
alternative selected?
    Answer. The major issue referred to by the Secretary involved the 
water supply reliability element of the CALFED program, more 
specifically, the treatment of new storage facilities. CALFED agencies 
are continuing to refine the CALFED program, including the water 
management strategy and how to finance the program. CALFED has received 
the largest number of public comments on the use of water conservation 
as a tool to reduce demand versus the support for construction of new 
facilities, particularly surface storage. The schedule calls for CALFED 
to issue a supplemental draft environmental impact statement containing 
a preferred alternative and a Phase II Report in June 1999, and the 
final EIS/EIR in the spring of 2000.
    Question. Some have suggested that reoperation of existing non-
Federal power facilities could provide significant additional water 
supplies needed to solve environmental and other water supply issues. 
What can you tell us about this idea? Is it a creditable suggestion, 
and would the Department of the Interior support such an approach?
    Answer. The reoperation of existing non-Federal power facilities 
could provide additional water for water users and the environment at 
high priority times and places. CALFED has proposed taking a 
comprehensive analysis of existing non-Federal hydropower projects in 
California as part of the proposed Integrated Storage Investigation. 
Interior, other Federal agencies, and the State generally support 
undertaking the Integrated Storage Investigation analysis and are 
currently refining the scope of work.
    Question. Under the CALFED agreement, the State of California is to 
share the costs of activities undertaken. Describe the cost-sharing 
arrangement with the State of California. If you consider Reclamation's 
appropriation of $160 million, what is the corresponding required level 
of State and non-Federal cost-sharing, and how much has actually been 
provided?
    Answer. The cost-share agreement between the Federal and State 
governments calls for equal sharing of ecosystem restoration costs over 
the period of ecosystem restoration activities. With the passage of 
Proposition 204, California voters provided $60 million in 1997 and 
another $390 million will become available when the State certifies the 
Final Programmatic Environmental Statement/EIS/EIR (similar to the 
Federal Record of Decision). Based on Proposition 204 and the $430 
million authorized by the Bay-Delta Environmental and Water Security 
Act, the Federal and State governments have made approximately equal 
commitments to Bay-Delta ecosystem restoration. As of September 30, 
1998 CALFED reports that the State had provided $55 million in 
Proposition 204 and other funds for approved Bay-Delta ecosystem 
restoration projects. Funding the $75 million ecosystem restoration 
request and extending the Bay-Delta Act is important to maintaining the 
Federal commitment.
    Question. Now the budget request for fiscal year 2000 proposed $20 
million to begin work on Phase II, non-ecosystem components. Is Phase 
II work specifically authorized? What is the justification for 
undertaking Phase II work in the absence of a final Programmatic 
Environmental Impact Statement and Preferred Alternative? Is there wide 
spread agreement and support for proceeding with this work? Is the 
State ready to cost-share in this work? What is the position of the new 
governor on proceeding with this work?
    Answer. The non-ecosystem work under Phase II that is contemplated 
for the $20 million is authorized by a wide range of existing 
authorities applicable to the Federal CALFED agencies. For example, 
those authorities include the Flood Control Act of 1950, Section 205; 
Reclamation Reform Act, Sections 210(1) and (c); Clean Water Act of 
1948, and additional authorities contained in Public Law 102-575, 
Central Valley Project Improvement Act (CVPIA).
    Undertaking work on non-ecosystem Phase II projects prior to 
completion of the programmatic environmental statement is appropriate 
because these are certain actions that will be needed for any 
alternative selected, and those actions can be taken consistent with 
the restrictions in the proposed fiscal year 2000 Bay-Delta 
appropriations language. CALFED anticipates completing its EIS/EIR 
during fiscal year 2000. We are requesting fiscal year 2000 funds to be 
ready to start these projects in a timely manner. Significant support 
exists for resolution of issues in the Bay-Delta. State agencies and 
California stakeholders endorse the activities that will be undertaken. 
Governor Gray Davis indicated strong support for the CALFED/Bay-Delta 
Program in his inaugural address. The draft EIS/EIR will describe the 
cost-share obligations of Federal and State government, as well as 
others, to finance implementation of the CALFED Bay-Delta Program.
                    managing competing water demands
    Because of concerns of the Senate authorizing committee, language 
was included in last years report directing the Bureau of Reclamation 
not to use funds to complete evaluations of current practices in each 
of the Area Offices to find ways to more effectively manage competing 
demands for water.
    Question. Have you complied with this directive? If not, explain 
why?
    Answer. Yes. Reclamation has complied with this directive. 
Reclamation also removed two performance goals referring to this 
activity from the fiscal year 1999 Annual Performance Plan.
                    operation and maintenance costs
    The Conference Report on the fiscal year 1998 Energy and Water 
Appropriations Bill asked the Bureau of Reclamation to prepare a report 
on the operation and maintenance costs of it's projects. The Committees 
requested the report because of expressed concerns related to how O&M 
costs were being allocated by project purpose, the declining level of 
operation and maintenance funding for traditional water supply and 
distribution related work, concerns that Reclamation's overhead 
expenses may be excessive, and the lack of opportunity of stakeholders 
to have input into the formulation of the Bureau's budget 
recommendations. The report was completed and provided to the Committee 
last September.
    Question. What has the Bureau done to afford stakeholders an 
opportunity to have input into the budget needs and priorities?
    Answer. Reclamation has been working for several years with many of 
our water and power customers in the formulation of the operation and 
maintenance (O&M) program, for our multipurpose projects. As an 
expansion of current efforts, and in response to language contained in 
the statement of the Managers accompanying the Conference Report for 
the fiscal year 1998 Energy and Water Appropriations Bill, the 
Commissioner issued a memorandum in September 1998 which directed the 
Regional Directors and Area Mangers to redouble their efforts to insure 
customers who are interested are given the opportunity to provide input 
into the formulation of project O&M programs. For Reclamation, this 
will continue to be an ongoing activity.
    Question. Can the Bureau benefit from this increased openness?
    Answer. Reclamation, our customers, and the general public have 
benefited and learned from the increased openness. We encourage 
customer feedback and believe the increased openness gives the 
customers the opportunity to realize how serious and committed 
Reclamation is to Project O&M.
    Question. Do you expect to learn new ways and approaches that could 
improve efficiencies and, thereby reduce O&M costs?
    Answer. Our efforts to benchmark the power program has been a 
worthwhile activity in that it has already identified areas where we 
compared very favorably with the hydroelectric industry. Reclamation 
will use benchmarking in the future to identify new ways and approaches 
to improve efficiency and ultimately reduce costs.
    Question. Now there is continuing concern that the Bureau of 
Reclamation is placing increasing emphasis and funding on non-
traditional activities such as wetland creation and wildlife habitat 
enhancement, to name a few, at the expense of traditional operation and 
maintenance activities necessary to meet contractual water supply 
obligations. If you look just at the traditional O&M activities related 
to contractual water supply and distribution requirements, how does the 
fiscal year 2000 budget request of the Bureau compare to the fiscal 
year 1999 budget request?
    Answer. Reclamation undertakes environmental mitigation and 
enhancement activities only to the extent, and in the manner, 
authorized by Congress. These efforts are done in cooperation with the 
Fish and Wildlife Service, state game and fish agencies our water users 
and the public. Furthermore, nearly all of the environmental work which 
we undertake is necessitated by the regulatory requirements of such 
laws as the Endangered Species Act and the Clean Water Act, which 
requirements must be met if we are to continue to deliver the water and 
power benefits for which Reclamation projects have been authorized. We 
do not fund environmental work at the expense of project operation and 
maintenance. To the contrary, we fund such work so that we can continue 
to meet our contractual obligations to deliver water and power to our 
customers.
    Our environmental activities, including compliance with regulatory 
laws, are generally funded under different fund activities than are 
traditional project operation and maintenance activities. Reclamation's 
fiscal year 1999 and fiscal year 2000 budgets in the Facility Operation 
and Facility Maintenance and Rehabilitation, show increases in funding 
for both activities of $8.0 million and $7.5 million respectively. We 
believe that the increase reflects Reclamation's commitment to continue 
to meet its traditional contractual obligations for water and power 
supply in an effective and efficient manner.
    Question. The O&M Cost Report indicates that the Bureau of 
Reclamation is continuing efforts to control costs by reducing 
staffing. However, the Family Farm Alliance has provided information 
indicating that the San Luis and Delta-Mendota Water Authority was able 
to accomplish certain operation and maintenance work with 85 regular 
full time employees compared to 120 Reclamation employees.
    Answer. The Family Farm Alliance number of 120 is incorrect. 
According to Reclamation records, 72 federal employees performed 
subject operation and maintenance work.
    Question. Does Reclamation have procedures in place to periodically 
review and assess the manpower being used to accomplish O&M activities?
    Answer. Reclamation reviews and assesses staffing needs for O&M 
activities on a regular basis and we consider this activity an 
important one.
    Question. Have you reviewed situations like this with the objective 
of applying new approaches and methods instituted by non-Federal 
entities at other Reclamation projects?
    Answer. Reclamation always seeks ways to learn new approaches at 
one project and apply it to other projects Reclamation-wide as 
appropriate. We would also welcome the opportunity to benchmark our 
water program with others having similar facilities as we have in our 
power program.
    Question. Turning to indirect costs related to O&M projects, your 
Report indicates that 62 of 89 projects experienced overhead costs in 
excess of 20 percent in 1-2 years over 5 fiscal years of the analysis. 
How does this 20 percent level compare to other Federal agencies and 
non-Federal entities operation and maintenance overhead costs?
    Answer. As noted in the report at page 31, three of Reclamation's 
89 projects had overhead rates in excess of 20 percent in one or more 
of the five fiscal years in question based upon the definition of 
``overhead costs'' used in the report. As was further noted on page 32, 
if Project General Expense costs were added to overhead costs, the 
total of which is referred to in the report as ``indirect costs,'' then 
62 projects would have had ``indirect cost rates'' in excess of 20 
percent in at least one of the five years in question.
    In our opinion, it is not possible to compare the overhead rates 
shown in our report to the ``overhead rates'' of other Federal agencies 
or non-Federal entities. This is due to the fact, as the report notes 
at page 5, that: (1) the term ``overhead'' is not used in budget 
documents submitted to Congress nor is it defined in the official 
Statement of Federal Financial Accounting Standards, and (2) the 
private sector does not use a uniform, commonly accepted approach as to 
what is included in overhead. As a result, practices vary widely across 
federal agencies as well as the private sector as to what costs are 
accounted for and labeled as overhead costs and as to how overhead 
rates are computed. Furthermore, what some federal agencies call 
``overhead rates'' are actually just estimated service charges that may 
bear little direct relationship to actual costs incurred. Consequently, 
one cannot compare stated overhead rates between federal agencies, or 
between federal agencies and private firms, without first ensuring that 
each entity involved has classified exactly the same types of costs as 
overhead costs.
    Question. In your judgement, what is an acceptable level of 
indirect costs for a project?
    Answer. The level of administrative services and support functions, 
the costs of which are ``indirect costs,'' required to support the 
operation and maintenance of a project will vary from project to 
project because each project is authorized in a different manner. 
Depending on contractual arrangements we have with the individual 
authorized projects, these costs may vary, and do. Thus, what is 
acceptable for one project may not be acceptable at another. 
Reclamation does its best to be equitable in assessing indirect costs 
in a cost conscious, business-like manner.
    Question. What is Reclamation doing to identify those programs and 
activities that have indirect costs in excess of what would be 
expected?
    Answer. As addressed in the O&M Cost Report (see Chapter 6), 
Reclamation has taken a number of steps over the past few years to 
reduce the costs of its centralized administrative services and of its 
regional administrative services. For example, in the Management 
Services Office (MSO) in Denver, which provides the majority of 
Reclamation's centralized administrative services, the administrative 
staff has been reduced from 434 to 286 from fiscal year 1994 to 1997, a 
reduction of approximately 35 percent. This was also accompanied by a 
reduction in office space, telephones, and utilities. As a result, the 
MSO has reduced its own internal indirect costs by 35 percent.
    Under the Chief Financial Officer, a council of Reclamation 
managers reviews all indirect budgets for both consistency and 
reductions. Programs are discussed and line managers make decisions on 
those indirect costs needed for effective operations.
    Reclamation has also instituted standard processes for reviewing 
Reclamation-wide business processes and systems. This process has 
resulted in cost savings through common business practices, careful 
scrutiny of what administrative computer systems are essential for 
efficient operations, and bulk buying of software. For example, 
Reclamation was able to save $5.3 million over three years by 
purchasing one bureau-wide Oracle license instead of site licenses.
    In another case, we were able to replace multiple timekeeping 
systems with one. The report recites other cost reduction measures in 
the regional offices which have been taken.
    Reclamation also continues to review overhead costs charged to a 
project on a project-by-project basis to ensure that these costs are 
properly accounted and charged, and make corrections, as necessary. We 
are also taking a look at reimbursable O&M costs and assessments that 
impact the project.
    Question. I believe that in the past, the Bureau of Reclamation has 
indicated that there was around $75 million of deferred maintenance 
work. What is your current estimate of deferred maintenance work?
    Answer. In our Financial Statement for fiscal year 1998 we reported 
about $12 million in deferred maintenance on our ``reserved works'' in 
accordance with the requirements of the Statement of Federal Financial 
Accounting Standards No. 6. The reported number reflects the 
redefinition of deferred maintenance under the new standard and is 
consistent with the reporting for reserved works, which is O&M'd by 
Reclamation. ``Reserved works'' are project facilities which 
Reclamation operates and maintains with its own personnel, as opposed 
to ``transferred works'' which are project facilities operated and 
maintained by Reclamation's water and power customers at their own 
expense pursuant to contracts with Reclamation.
    Question. How much of the work is important to efficient and 
effective operation of essential operational facilities and structures?
    Answer. Reclamation does not defer any ``critical'' maintenance 
which is needed to protect public safety and to ensure the delivery of 
water and power to its contractors. Furthermore, none of this deferred 
maintenance will have adverse impacts to the efficient and effective 
operation of our facilities and structures at this time. However, if 
these maintenance items are not eventually funded, this could result in 
less than optimally efficient operations over time.
    Question. How does the Bureau of Reclamation plan to address the 
backlog of deferred maintenance in future years?
    Answer. Reclamation continues to prioritize its maintenance 
activities to ensure that the highest priority work is completed in a 
timely manner. Should any deferred maintenance item become, for some 
reason, critical maintenance, it will be given priority and 
accomplished immediately. We also continue to look for direct funding 
arrangements with our contractors so that there will be sufficient 
funding, when coupled with appropriated dollars, to ensure that 
Reclamation does not accumulate a ``backlog'' of ever growing deferred 
maintenance.
    Question. Do future budget planning targets accommodate increased 
funding for reducing the backlog?
    Answer. Reclamation believes it has adequate funding to prevent 
deferred maintenance from significantly increasing in the future.
                           dam safety program
               initiate safety of dams corrective actions
    The fiscal year 1999 Energy and Water Appropriations Bill, while 
reducing Reclamation's budget request for the Dam Safety Program, 
provided a sizable increase over the 1998 appropriation. The funding 
request for fiscal year 2000 again reflects a significant increase over 
the previous year appropriation.
    Question. Have you experienced or do you anticipate any major 
problems in carrying out the program with the funding provided for the 
current fiscal year, particularly in Initiate Safety of Dams Corrective 
Actions activities?
    Answer. Congress reduced the fiscal year 1999 Dam Safety Program 
request by $8,787,000. As a result, Reclamation rescheduled Safety of 
Dams activities and costs into fiscal year 2000. At this time, we 
anticipate being able to carry out the restructured fiscal year 1999 
program with the funding provided.
    However, shifting activities from fiscal year 1999 into fiscal year 
2000 impacts the flexibility to aggressively pursue risk reduction 
actions at Reclamation dams in fiscal year 2000. Keechelus Dam, Yakima 
Project, Washington, and Casitas Dam, Ventura River Project, California 
have critical Safety of Dams issues that require modifications of 
significant cost and scope. Current enacted funding and requests will 
be managed to focus funding to these dams and critical Safety of Dams 
issues at other dams. Funding at the President's Request level for the 
fiscal year 2000 Dam Safety Program is needed to avoid delaying 
critical public risk reduction efforts.
                   safety evaluation of existing dams
    Question. What accounts for the increase from $14.2 million in 
fiscal year 1999 to $17 million requested in fiscal year 2000 for the 
Safety Evaluation of Existing Dams activities?
    Answer. Ensuring the safety and reliability of Reclamation dams is 
one of the agency's highest priorities. In 1997, the Commissioner 
tasked an independent team of dam safety professionals to review 
Reclamation's dam safety practices to identify best practices already 
in place and make recommendations for improvements. As a result of 
recommendations from the peer review team and Reclamation's own 
internal initiatives endorsed by the peer review team, more focus and 
vigilance has been directed at key activities such as examinations of 
dams, dam performance monitoring, and engineering analyses of dams to 
reliably define and manage risks across Reclamation's inventory of 362 
dams. These activities are conducted under the Safety Evaluation of 
Existing Dams and are primarily responsible for the requested increase 
from $14.2 million in fiscal year 1999 to $17 million in fiscal year 
2000.
                        initiate safety of dams
    Question. Now the funding request for fiscal year 2000 for the 
Initiate Safety of Dams Corrective Actions program is $42.7 million, an 
increase of $10.4 million over the amount provided for the current 
fiscal year. What accounts for this large increase?
    Answer. The fiscal year 2000 request of $42.7 million does not 
represent a large increase when compared to the original fiscal year 
1999 request. Reclamation's request for fiscal year 1999 was $41.25 
million, which Congress reduced by $8,787,000. One of the reasons for a 
comparable request in fiscal year 2000, is that modifications of 
significant cost and scope are required at Keechelus Dam, Yakima 
Project, Washington, and Casitas Dam, Ventura River Project, 
California, which have critical Safety of Dams issues. In addition, 
modifications activities are planned to reduce risks for identified 
safety issues at six other dams.
    Initiate Safety of Dams Corrective Actions is a portfolio request 
for the planned Safety of Dams modifications not currently underway. 
After these Safety of Dams projects are formulated and submitted to 
Congress through the modification report process required by the Safety 
of Dams Act, funds and future requests are transferred from ISCA to a 
specific project line item. As these transfers occur, ISCA is lowered a 
corresponding amount which often creates the appearance that prior year 
ISCA funding is lower than current requests.
    As a result, a true comparison of Safety of Dams funding levels 
between fiscal years is only achieved by combining the funding for ISCA 
with the funding for Safety of Dams modifications currently underway. 
Modifications are currently underway at Bradbury, Horse Mesa, Lost 
Creek, Twin Buttes, Pueblo, and Reservoir A Dams which total $10 
million enacted in fiscal year 1999 and $8.8 million requested in 
fiscal year 2000. When these ongoing projects are combined with ISCA, 
enacted fiscal year 1999 Reclamation Safety of Dams funding totals 
$42.46 million. Prior to the Congressional reduction the fiscal year 
1999 total was $51.25 million. The total Safety of Dams request for 
fiscal year 2000 is $51.56 million which consist of the $42.7 million 
in ISCA and the $8.8 million for the ongoing modifications.
    The level of funding necessary to carry out an effective dam safety 
program to reduce risk to the public varies from year to year, and 
depends on the specific dams for which deficiencies have been 
identified as needing modification. The fiscal year 2000 request is 
substantially below the $87.8 million funding level provided in fiscal 
year 1996. Large scale modifications were ongoing at Theodore Roosevelt 
Dam and Bartlett Dam in Arizona and the initiation of the modification 
work at Twin Buttes Dam in Texas began that year. While most projects 
are not of this magnitude, this represents the wide variation in 
funding that may be needed from year to year.
                               pueblo dam
    Question. The Committee has received information from the Family 
Farm Alliance which indicates that the Bureau of Reclamation's 
administration and non-construction costs for the Pueblo Dam, Safety of 
Dams repair project (design, engineering, oversight, construction 
management, etc.) adds around 50 percent to the cost of this 
construction project. By comparison, the private sector standards use 
15-20 percent as a reasonable factor to administer a construction 
project of this type. Does a 50 percent factor to administer a Bureau 
construction project seem reasonable to you?
    Answer. We believe that a 50 percent non-contract costs for a dam 
safety project may be reasonable. We do not believe that it is 
appropriate for Reclamation's performance on critical public safety 
issues to be measured on the basis of non-contract to contract costs. 
Reclamation's primary responsibility is to ensure the safety of the 
public downstream of the dam, and we believe that the public and the 
water users are best served by obtaining the lowest total project cost 
which also provides the necessary public risk reduction and the 
assurance of continued long term, verifiable performance of the 
structure.
    Reclamation's experience has shown that total project costs can 
generally be reduced through rigorous project investigations, planning, 
and design, or ``non-contract'' costs. The Pueblo Dam Safety of Dams 
modification project provides an excellent example of this effort. 
Through extensive design effort, Reclamation reduced the cost of the 
proposed repairs by $8 million or 36 percent. Since the cost of the 
contract for construction was appreciably reduced, the ratio of 
administration and non-construction costs to construction contractor 
costs has correspondingly increased. During project formulation and 
design, Reclamation consulted extensively with an Independent 
Consulting Panel of dam design experts. The Panel originally 
recommended a totally ``active resistance'' solution which had an 
estimated construction cost of $22 million. Through significant study 
and design efforts, Reclamation formulated a more cost-effective 
alternative at $14 million that both met design requirements and was 
acceptable to the Panel. Also, during final design, a hydraulic model 
study was completed on the design of the modified spillway. This study 
resulted in changes to the design of the spillway energy dissipation 
structure and resulted in contract savings estimated at $2 million. The 
cost of the model study was less than $100,000.
    These are two examples of reasonable non-contract expenditures 
resulting in significant cost savings. Although both efforts resulted 
in increased non-contract costs and increased the calculated percentage 
of non-contract costs to contract costs, they also resulted in far 
greater reductions in the total project costs. Public trust, safety 
issues, and Federal Guidelines for Dam Safety require significant 
quality control and designer oversight throughout the duration of the 
project, which cannot be compromised.
    Question. Is it unreasonable to think that the Bureau of 
Reclamation should be able to conform to the same 15-20 percent 
standard of the private sector?
    Answer. Reclamation is not aware of any study or private sector 
standard that establishes a 15 to 20 percent range for activities 
similar to the administration and non-construction activities for the 
modification work at Pueblo Dam. Neither is Reclamation aware of any 
private sector entity that performs all of the functions included in 
the calculated 50 percent factor. Reclamation's 50 percent non-contract 
figure cited in the Family Farm Alliance information includes all 
project costs from early investigations through the completion of 
construction and refilling the modified facility, not simply the 
construction administration costs. The non-contract costs--which are 
costs not directly paid to the construction contractor--for Safety of 
Dams modifications include all costs for project activities related to 
Reclamation's roles as owner, operator, and regulatory agency for 
Pueblo Dam. These activities include planning and project formulation, 
field investigations and data collection, environmental compliance, 
securing Executive Branch and Congressional approval and funding for 
the project, extensive coordination of project activities with the 
water users associated with the facility, including an independent 
review of specifications by the water user's consultant, negotiation of 
appropriate repayment contracts, final design, development of drawings 
and specifications, procurement, construction management, quality 
control, construction contract administration, design and construction 
documentation, and monitoring of the modified facility during first 
filling as well as independent consultant review of all project 
activities. We believe that Reclamation's activities and associated 
costs are appropriate in addressing the critical public safety issues 
at Pueblo Dam.
    Reclamation believes that the average private sector project 
management fee percentage cited in the Family Farm Alliance information 
does not include costs for project management activities such as field 
investigations, planning level studies; securing approval and funding 
for the project, the development of repayment studies for project 
repayment, which are required by the Reclamation Safety of Dams Act; 
quality control during construction; dam safety regulatory agency costs 
and fees; dam owner contract administration, oversight and review 
activities; verification of adequate performance during first filling 
of the modified dam; and the independent consultant panel's review of 
project activities.
    Question. What factors would cause the Bureau's construction 
management costs to be so much above the private sector?
    Answer. Reclamation believes that a comprehensive cost comparison 
that includes costs for all activities on a similar project would 
indicate that private sector costs would be comparable to Reclamation's 
for similar activities. Reclamation attempts to construct the most cost 
effective and reliable modification considering total project costs. 
One factor that could make it ``appear'' that Reclamation's 
construction management costs are high, based on percentages, compared 
to the private sector, is our decision to construct the least cost 
technically acceptable alternative to modify a dam. The decision at 
Pueblo Dam was to use a ``state of the art'' construction material 
referred to as Roller Compacted Concrete in a technically challenging 
manner. This decision resulted in the lowest ``total'' project costs. 
The use of RCC resulted in extremely low construction costs. However, 
it required extraordinary construction management activities to ensure 
flaws were not introduced during construction of the modifications. 
Failure of Pueblo Dam would endanger more than 14,000 lives. 
Reclamation views it as critical that we ensure the design intent is 
met by the modifications that are constructed.
    Question. Is this common in other Safety of Dams work or other 
construction projects Reclamation wide?
    Answer. Reclamation has estimated the total non-contract costs for 
the activities outlined above to be approximately $8.8 million or about 
34 percent of the total project cost and 52 percent of the contract 
cost. This is in line with the range of non-contract costs for other 
Reclamation dam safety modifications as identified through a 1995 audit 
by the Office of the Inspector General. The audit found that 
Reclamation's non-contract costs ranged from 41 percent to 60 percent 
of contract costs for five projects of similar size to Pueblo Dam under 
construction at the time of the audit.
    Question. Does the Bureau of Reclamation have procedures in place 
to ensure these types of indirect costs are held to a minimum, and that 
activities which exceed a set standard are highlighted for management 
attention at the Area, Regional or Headquarters level?
    Answer. Reclamation utilizes a Project Management Team to 
administer and oversee all activities related to the planning, design, 
and construction of dam safety modifications. This includes development 
and monitoring of project schedules and costs. All significant issues 
related to the project are communicated to the Area Manager, Regional 
Director and the Chief of the Dam Safety Office for decision and 
appropriate action. Reclamation believes that the Project Management 
Team provides a cost-effective means of ensuring an appropriate level 
of project oversight and organizational review when addressing critical 
public safety issues under the Safety of Dams program.
                          year 2000 compliance
    In testimony last year and in the budget justification for fiscal 
year 2000, you indicate an on-going effort to address the issue of 
embedded microchips in equipment throughout the Bureau of Reclamation.
    Question. What was the outcome of the inventory of embedded 
microchips, which I believe was to be completed last summer? What types 
of equipment were found deficient and were any of those mission 
sensitive? What is your schedule to have all mission critical systems 
and devices with embedded microchips compliant?
    Answer. We have conducted and essentially completed an inventory of 
all embedded microchip, or EMC, systems and devices, about half of 
which are considered mission critical. Our most important systems are 
Supervisory Control and Data Acquisition, or SCADA, controls which 
control automatic operations of power generation and water delivery. 
SCADA systems include software, EMC devices, and telecommunications 
equipment.
    Reclamation is confirming completion and accuracy of the inventory 
of telecommunication components, EMC devices, computer applications, 
computer hardware and peripherals, commercial off-the-shelf software, 
and other types of computer applications. This inventory is estimated 
to be 98 percent complete. Mission critical equipment and systems are 
being tested according to a standard checklist that involves removing 
equipment from service, ensuring backup systems are in place, setting 
dates, observing the equipment as the date rolls over, restoring the 
present date and time, ensuring proper operation, and returning the 
equipment to service. Testing has shown that most equipment and systems 
are Y2K compliant. Over 80 percent of mission critical EMC's are 
compliant. Non-compliant mission critical equipment is being 
remediated. Most tests have been performed by Reclamation personnel and 
a few contractors. Independent verification has been performed by 
Reclamation personnel who were not involved in original testing, often 
from other facilities. Contractors have been used in the Pacific 
Northwest and Great Plains Regions. No Y2K problems were experienced 
during the changeover from 1998 to 1999, and no problems are expected 
on other dates. However, Y2K testing and planning efforts will address 
the following critical dates: April 9, 1999 (99th day of 99); September 
9, 1999 (9/9/99); December 31, 1999 to January 1, 2000; and February 28 
to February 29, 2000 (Leap Year). Although, we may find additional EMC 
devices that require testing, our plan is to have all currently 
identified EMC devices tested and remediated where necessary by June 
30, 1999.
    Question. Does the Bureau of Reclamation have a plan in place to 
correct the problem? What is the estimated cost to correct the problem? 
Is sufficient funding being requested in fiscal year 2000 to take care 
of the important work?
    Answer. Beginning in March 1997, Reclamation undertook an 
aggressive effort to identify and correct potential Y2K related system 
deficiencies. Many of these systems directly support Reclamation's 
ability to generate power and regulate water.
    Electrical Power Systems.--Reclamation is working closely with the 
Power Marketing Administrations (PMA's) and the North American Electric 
Reliability Council (NERC) to assure that potential failure of certain 
computer systems on January 1, 2000, does not result in the collapse of 
the electric grid. Reclamation is currently verifying its inventory of 
embedded microchips in its power control and operating systems and is 
taking steps to renovate any noncompliant devices, conduct independent 
validation and verification testing, certify all embedded chips as Y2K 
compliant, and prepare contingency plans to counter any unforseen 
circumstances. In addition, Reclamation is working with the PMA's, 
NERC, and the regional Western Systems Coordinating Council (WSCC) in 
the Y2K system-wide exercises scheduled for April and September. These 
exercises are to verify the integrity and the operational preparedness 
of the interconnected power system.
    Utilities.--Letters have been sent and meetings held with partners, 
utilities, and electric reliability councils, such as the Western Area 
Power Administration, the Bonneville Power Administration, and the 
Western Systems Coordinating Council to address Y2K power system 
vulnerability.
    Coordination with External Partners and Clients.--Reclamation has 
contacted its water and power partners and customers, i.e., water 
companies, irrigation districts, water districts, and Native American 
tribes. Several entities have stated that they have been aggressively 
working to ensure their equipment and systems function properly for the 
upcoming critical dates. In many cases, we have received inventory 
information and in others we were requested to assist in assessing and 
completing Y2K readiness activities.
    Contingency Planning.--Reclamation contingency planning includes 
equipment-specific plans; facility-level plans; and power operation, 
water, and dam safety contingency plans. The plans reference continuity 
of operations, emergency action plans, standing operation procedures, 
and use of additional staff. The plans also address critical disruption 
periods, and we are continuing to prepare for logistical support.
    Estimated Cost Summary.--The total estimated cost (not including 
labor) for Y2K related activities for fiscal year 1997 through 
completion is $10.4 million. We believe that all major work will be 
completed with fiscal year 1999 funding.
    Question. Now the Bureau of Reclamation had identified 63 computer 
systems which were not Year 2000 compliant. How many of those systems 
are mission critical and what is the status of bringing them into 
compliance?
    Answer. Reclamation identified 16 mission-critical applications 
from the original 63 applications inventoried. All 16 are complete and 
implemented. All but three of the remaining 47 non-mission critical 
systems are complete, and they are scheduled for completion by March 
31, 1999. This includes testing and implementation. Newly acquired/
developed systems/applications are being tested prior to 
implementation.
    Question. Are you on schedule to have all computers identified as 
non-Y2K compliant corrected prior to the year 2000?
    Answer. Yes, Reclamation's computer system infrastructure will be 
Y2K ready. It consists of the following:
    Mainframe Systems.--The only BOR mainframe is at the Denver 
Administrative Service Center (DASC). The mainframe and its associated 
applications/systems are specific to the administration (payroll, 
personnel, and financial areas of business) of DOI's bureaus and other 
DASC clients, and have no impact on power and energy production. The 
systems have been tested and are Y2K compliant. (It should be noted 
that the DASC will be transferred to the Department of the Interior's 
National Business Center in April 1999).
    Office Systems.--Normal replacement procedures will ensure that all 
essential personal computers will be upgraded or replaced. All local 
area networks have been tested; required upgrades to software and 
hardware will be completed by March 31, 1999. Reclamation's Hewlett-
Packard minicomputers have been successfully tested and certified 
compliant. The wide area network has been tested and is Y2K compliant.
                      cvp, american river division
               nimbus fish hatchery interpretive facility
    Question. The budget request for Facility Operations includes funds 
to begin efforts in support of the Nimbus Fish Hatchery Interpretative 
Facility. Why does the Bureau consider this to be priority work which 
must be undertaken in fiscal year 2000?
    Answer. The Bureau of Reclamation is responsible for salmon and 
steelhead mitigation on the American River. The fish hatchery is 
located on the American River directly downstream from Lake Natoma and 
Nimbus Dam, approximately 15 miles from Sacramento. As part of the 
mitigation at the fish hatchery, which is operated by the California 
Department of Fish and Game, Reclamation is supporting a visitor 
facility to educate the public on the life cycle of the fish and the 
uses and benefits of the Central Valley Project. It is important for 
the public to understand the link between CVP project operations and 
measures to improve the anadromous fish health. Currently the facility 
is being staffed with volunteers, however, the public is coming to the 
hatchery in greater numbers every year and the workload has become too 
great to be adequately handled by volunteers.
    Question. How much of the $10.1 million requested for Facility 
Operations is for this work, and how, specifically, will the funds be 
used?
    Answer. Approximately $65,000 of the $10.1 million requested is for 
this work. The funds will be used by the California Department of Fish 
and Game to hire dedicated staff for the visitor facility. This project 
will consist of displays and interpretative specialists telling the 
story of the fish and the Central Valley Project. Information given out 
will consist of educational material on the salmon and steelhead, 
exhibits of their life cycle, enhanced viewing facilities, and guided 
tours of the hatchery.
                        central arizona project
    Question. The budget request includes $2.8 million to construct 
remaining recreational enhancement activities at Lake Pleasant Regional 
Park in Arizona. Have the Bureau of Reclamation and all interested 
parties agreed to the scope of the recreational development to be 
undertaken and to a cost sharing agreement as appropriate?
    Answer. The Bureau of Reclamation and Maricopa County agreed to the 
scope of recreational development under the Lake Pleasant Regional Park 
Master Plan, approved by Reclamation on March 10, 1995. Cost sharing 
with Maricopa County was committed to under the Recreational Management 
Agreement dated June 29, 1990. The Recreational Management Agreement 
delineates replacement and enhancement obligations of Reclamation, as 
well as long-term management roles for Reclamation and Maricopa County. 
The major replacement items will be completed in fiscal year 1999. The 
agreement contains an $8 million Federal enhancement ceiling which is 
subject to indexing, of which $2.8 million remains. The enhancement 
obligation includes a 50 percent cost share obligation with Maricopa 
County. The remaining recreational development as identified in the 
Lake Pleasant Regional Park Master Plan includes group and family 
campground areas, picnic sites, boat launching facilities, improved 
public access, environmental education support, and public safety.
                          yuma desalting plant
    Question. The budget request includes $3 million to begin a long-
term program to replace deteriorated membrane elements or look at a 
water banking program with the Basin states to offset the need to 
recover drainage water. Why is the Bureau exploring such options? Was a 
detailed analysis of a broad range of options undertaken? Why were 
these two approaches selected for possible funding in fiscal year 2000? 
What is the total estimated cost of the two budgeted options and over 
what period of time?
    Answer. Under Title I of the 1974 Colorado River Basin Salinity 
Control Act, during what is called the ``interim period,'' which is 
defined as that period of time when all of California's water contracts 
for Colorado River water can be met, savings from lining of the 
Coachella Canal of 132,000 acre-feet per year are used to offset pumped 
drainage return flows from Wellton-Mohawk that are diverted around 
Morelos Dam via the Bypass Drain and thus are not delivered to Mexico 
as part of their annual Colorado River water entitlement. Also, any 
time flood control releases are made from Hoover Dam, any accrued 
obligation to replace drainage water from Wellton-Mohawk that has been 
bypassed around Morelos Dam is automatically terminated.
    Once the interim period ends, which will occur when sufficient 
Colorado River system water is not available to meet all of 
California's needs for Colorado River water, California begins to get 
credit for the savings that resulted from lining the Coachella Canal 
and the United States must provide an alternative source for replacing 
the drainage return flows from Wellton-Mohawk. The United States has 
two ways in which it could meet this obligation: one is to operate the 
Yuma Desalting Plant to improve the quality of drainage water from 
Wellton-Mohawk so it can be delivered to Mexico as part of its annual 
Colorado River water entitlement; and another is to find a replacement 
source to offset the drainage water being bypassed around Morelos Dam.
    Reclamation has been actively looking at alternatives to operating 
the Yuma Desalting Plant for a number of years. We have considered a 
range of alternatives and after considering such factors as costs, ease 
of implementation and institutional constraints, we have concluded that 
water banking is an approach warranting serious consideration at this 
time. Under this approach, we would divert surplus Colorado River 
water, since reservoirs are completely full and likely to spill, store 
the water in underground aquifers in Arizona or California, and recover 
the water in future years when it is needed to meet our obligation 
under the Salinity Control Act. This would be done in close 
consultation with the Colorado River Basin States and Tribes.
    As a minimum, Reclamation would like to bank enough water to offset 
drainage return flows from Wellton-Mohawk for a period of at least 2 
years, or to offset the reject stream from the Yuma Desalting Plant for 
several years should the plant be operated.
    We are reasonably certain that a water banking program can be 
implemented and are planning to utilize all of the $3 million requested 
in fiscal year 2000 for this program. However, if surplus water is not 
available, or we cannot successfully negotiate a banking agreement, we 
could alternatively use this funding for membrane replacement.
    We currently have enough membranes to operate the Yuma Desalting 
Plant at full capacity for 1 year. After each year of operation we 
would have to replace approximately 20 percent of the membranes to 
maintain full plant capacity. As long as we have at least 2 years 
advance notice that the Yuma Desalting Plant will have to be operated, 
we can award a contract to allow manufacture for replacement of 20 
percent of the membranes each year to maintain the plant's ability to 
operate at full capacity.
    The total cost of replacement membranes for the entire plant is 
estimated to be $15 million, which if spread out over a 5-year period, 
because 20 percent of the membranes need replacement each year, the 
annual cost of membrane replacement would amount to $3 million per year 
to keep the plant operating at full capacity.
    Question. What does it cost annually to keep the Yuma Desalting 
Plant in a standby status?
    Answer. The total Title 1 budget submitted for fiscal year 2000 is 
$13,092,000. Within this budget, the annual cost to keep the Yuma 
Desalting Plant in ready-reserve standby status (meaning the plant 
could be put into full operation with 1 year's notice) is estimated to 
be approximately $1.5 million. The additional Title 1 funding is 
required for other activities such as operation and maintenance of the 
242 wellfield; operation and maintenance of the Bypass Drain; water 
banking; research; and other Title 1 activities.
    Question. Is shut down of the facility an option? If not, why?
    Answer. Reclamation does not believe that shut down of the facility 
is a currently viable option. First, a long-term replacement source for 
the Wellton-Mohawk drainage water has not been found to date, so the 
facility may have to be operated to meet our obligation to replace 
Wellton-Mohawk drainage water. The facility may also be needed for 
salinity control for water delivered to Mexico at the Northerly 
International Boundary at some time in the future. The facility is 
being considered as part of several options for a long-term solution to 
reducing the salinity of flows delivered to Mexico at the Southerly 
International Boundary with Mexico. Studies to improve the salinity of 
flows at the southern boundary are ongoing in response to a complaint 
from the Mexican government about the quality of water being delivered. 
Also, Reclamation is actively searching for potential non-Federal 
paying customers interested in product water from the facility.
                 long beach water reclamation and reuse
    Question. The Long Beach Area Water Reclamation Project is a 
proposed Title XVI new start for fiscal year 2000. It consists of two 
elements: the Alamitos Barrier Reclaimed Water project and the City of 
Long Beach Recycled Water System Expansion project. The first element 
is a tertiary treatment and reinjection system, and the second is 
expansion of an existing distribution system. Are these two projects 
separable?
    Answer. The expansion of the City of Long Beach Water Department 
Recycled Water Program will increase the use of reclaimed water for 
greenbelt irrigation and industrial purposes from the current 5,200 
acre-feet per year to 12,000 acre-feet per year. The Alamitos Barrier 
Project will further increase the use of reclaimed water to 22,000 
acre-feet per year.
    As we understand it, these project components are closely related 
and probably cannot be separated. In order for reclaimed water to be 
used for the sea water intrusion barrier, the City of Long Beach must 
first complete the expansion of the distribution system. These new 
pipelines must be sized to meet the needs of both the City's irrigation 
system and the sea water intrusion barrier injection system. This will 
require close and continuous cooperation of both operating entities. In 
addition, since both components are treated as a single project, the 
Federal share of total funding cannot exceed $20.0 million.
    Question. What is the importance in the Federal government 
participating in construction of a local distribution system?
    Answer. The Long Beach area is heavily dependent on imported water, 
either from the Colorado River or the San Francisco Bay/Delta in 
northern California. Both water sources have significant Federal and 
Reclamation investment in numerous water supply facilities. For every 
acre-foot of water reclaimed by the Long Beach project, a like amount 
will not have to be imported, thus helping California live within its 
4.4 million acre-foot allocation of Colorado River water and also 
reducing the water demand on the environmentally sensitive San 
Francisco-Sacramento-San Joaquin Bay/Delta.
    Congress recognized the importance in the Federal government 
participation in the construction of a local distribution system in 
Long Beach when it passed the Reclamation Recycling and Water 
Conservation Act of 1996 (Public Law 104-266), which amended Title XVI 
of Public Law 102-575, the Reclamation Wastewater and Groundwater Study 
and Facilities Act of 1992. This legislation authorized the Secretary 
of the Interior to provide up to 25 percent of the total cost of the 
Long Beach Area Water Reclamation and Reuse Project. This project has 
numerous environmental enhancement, water supply, and economic benefits 
that are of National importance. In providing the authority to make 
financial assistance available to the local project sponsors, Congress 
recognized that, without such Federal participation, this Title XVI 
project would likely not be implemented due to its relatively high cost 
and the current availability of cheaper imported water supplies.
    Each project component will be reclaiming and reusing wastewater 
that is currently being discharged to the San Gabriel River just a few 
miles inland from the Pacific Ocean. Reductions in wastewater 
discharges to the ocean have a positive impact on the environment. In 
addition, in keeping with the intent of Title XVI as amended, these 
project components will:
    (1)reduce, postpone, or eliminate development of new or expanded 
water supplies,
    (2) reduce or eliminate the use of existing diversions from natural 
watercourses or withdrawals from aquifers, and
    (3) reduce the demand on existing Federal water supply facilities.
    Because of the dependence on imported water, the project area is 
subject to water shortages due to the occurrence of drought, both 
locally and in far distant river basins. In addition, water shortages 
could occur following a major earthquake which could severely damage 
the two main aqueducts that convey water to the project area. These 
project components will help to assure a local water supply that will 
be reliable during droughts and earthquakes, thus helping to sustain a 
growing economic base that is of local, regional and National 
importance.
                           yuma area projects
    Question. The budget justification indicated that $22.1 million, an 
increase of $4.2 million over the amount appropriated for the current 
fiscal year will be allocated for work. What has necessitated the 
allocation of these additional funds, and where will this funding come 
from?
    Answer. As a result of the 1993 Gila River flood, 10,000,000 cubic 
yards of sediment was deposited in a 15-mile reach of the lower 
Colorado River, near Yuma, Arizona. The sediment created both domestic 
and international problems; the domestic problem being the high 
probability of flooding in and around the city of Yuma, and the 
international problem being extreme sediment transportation into 
Mexico's canal system. The $22.1 million in the fiscal year 1999 Yuma 
Area Projects, Facility Maintenance activity includes $4.2 million in 
carryover funding that was for sediment removal work originally 
scheduled in the fiscal year 1998 Yuma Area Projects Facility 
Maintenance activity, but was delayed because sites to deposit the 
dredged sediment could not be found.
    Question. What accounts for the sizable reduction in program level 
from $26.9 million in fiscal year 1999 to a level of $15.6 million for 
fiscal year 2000?
    Answer. The $26.9 million total fiscal year 1999 Yuma Area Projects 
program includes $4.6 million in fiscal year 1998 carryover funds, and 
an additional $7.1 million in the Facility Maintenance activity to 
finish the sediment removal in the riverbed. The $15.6 million total 
fiscal year 2000 request reflects the return to a normal ongoing Yuma 
Area Projects program, resulting in the sizable reduction in program 
level.
    Question. What is the backlog of essential maintenance and 
rehabilitation for the Yuma Area Projects?
    Answer. None of the Yuma Area Projects list of maintenance and 
rehabilitation work items is so essential that adverse effects to the 
efficient and effective operation of critical facilities and structures 
would occur in fiscal year 2000. The Yuma Area Projects list is 
prioritized so that under normal river conditions, adverse effects will 
not occur over the short term. The Yuma Area Projects list includes the 
replacement of heavy equipment, and repair of the Main Outlet Drain and 
the Main Outlet Drain Extension channels that are connected to, and 
convey Wellton-Mohawk drainage system return flows to the Gulf of 
California. Both the Main Outlet Drain and Main Outlet Drain Extension 
channels were damaged as a result of the 1993 Gila River flood.
            emergency planning and disaster response program
    Question. The budget for fiscal year 2000 proposed a new item 
called the Emergency Planning and Disaster Response program and 
includes a funding request of $360,000. Why has a separate program been 
created for these activities?
    Answer. While it is a new budget line item, it is not a new 
program. The title ``Emergency Planning and Disaster Response Program'' 
covers three distinct ongoing program activities for Disaster Response 
and for Continuity of Operations. These ongoing activities were 
previously funded under the Dam Safety Program. Because of increased 
emphasis on emergency preparedness, a separate Facilities Operation 
line item has been identified in the request for fiscal year 2000.
    Question. How have these activities been funded in the past?
    Answer. To date, all three of these activities have been funded 
through the Dam Safety Program.
    Question. What does the Bureau expect the average annual funding 
requirement to be in future years?
    Answer. Since the funds requested for all three of these activities 
are for program management, the expectation is that the funding level 
should remain about the same.
    Question. Please provide for the record the legislative language 
which authorized appropriations for this program.
    Answer. Public Law 93-288, ``Robert T. Stafford Disaster Relief and 
Emergency Assistance Act'', as amended, Section 101.(b) states that:

          ``It is the intent of Congress, by this Act, to provide an 
        orderly and continuing means of assistance by the Federal 
        government to State and local governments in carrying out their 
        responsibilities to alleviate the suffering and damage which 
        result from such [see Section 101.(a)] disasters by--(1) 
        revising and broadening the scope of existing disaster relief 
        programs; (3) achieving greater coordination and responsiveness 
        of disaster preparedness and relief programs; (6) providing 
        Federal assistance programs for both public and private losses 
        sustained in disasters.''

    Section 201.(a) states that:

          ``The President is authorized to establish a program of 
        disaster preparedness that utilizes services of all appropriate 
        agencies and includes--(1) preparation of disaster preparedness 
        plans for mitigation, warning, emergency operations, 
        rehabilitation, and recovery;''

    Section 303 states that:

          ``The President shall form emergency support teams of Federal 
        personnel to be deployed in an area affected by a major 
        disaster or emergency. Such emergency support teams shall 
        assist the Federal coordinating officer in carrying out his 
        responsibilities pursuant to this Act. Upon request of the 
        President, the head of any Federal agency is directed to detail 
        to temporary duty with the emergency support teams on either a 
        reimbursable or nonreimbursable basis, as is determined 
        necessary by the President, such personnel within the 
        administrative jurisdiction of the head of the Federal agency 
        as the President may need or believe to be useful for carrying 
        out the functions of the emergency support teams, each such 
        detail to be without loss of seniority, pay, or other employee 
        status''.

    See also Section 402, Public Law 84-99, Flood Control and Coastal 
Emergencies, which directs the Army Corps of Engineers in how it will 
conduct its response to flood emergencies.
    For Continuity of Operations, the authorization is found in the 
National Security Act of 1947, Public Law 93-288, ``Robert T. Stafford 
Disaster Relief and Emergency Assistance Act'', as amended. Title VI of 
the Law is titled ``Emergency Preparedness'' and its purpose is,

          ``to provide a system of emergency preparedness for the 
        protection of life and property in the United States from 
        hazards and to vest responsibility for emergency preparedness 
        jointly in the Federal government and the States and their 
        political subdivisions. The Federal government shall provide 
        necessary direction, coordination, and guidance, and shall 
        provide necessary assistance, as authorized in this title so 
        that a comprehensive emergency preparedness system exists for 
        all hazards.''

    In October of last year President Clinton signed a major policy 
directive (PDD 67) requiring all Federal departments and agencies to 
have ``viable continuity of operations capability'' by October 21, 
1999. Presidential Decision Directive 67 states that:

          ``in the face of current and future dangers, it remains the 
        policy of the United States to have in place a comprehensive 
        and effective program to ensure survival of our constitutional 
        form of government and continuity of essential Federal 
        functions under all circumstances.''

    It also states that,

          ``As a baseline of preparedness and a foundation for the 
        Continuity of Government, all Federal departments and agencies, 
        including the Executive Office of the President, shall have in 
        place viable Continuity of Operations capability.''

    Question. What is the rationale for including the request under 
Bureauwide programs and not under Policy and Administration?
    Answer. All three activities that make up the Emergency Planning 
and Disaster Response Program are Bureau- wide in scope and impact. 
They are not particularly policy-oriented or administrative in nature. 
They are directly associated with continued operation of our 
facilities. The activities are critical for Reclamation operations 
during emergencies and incidents. As a result, the most appropriate 
request is considered to be a separate line item identified to the 
Congress under the Facilities Operation program activities.
             title xvi water reclamation and reuse program
    Question. The budget justification for the $2.2 million requested 
for the Title XVI Water Reclamation and Reuse Program includes language 
which indicates that the requested funds ``may also fund initiation of 
construction for specific water reclamation and reuse projects that 
have been determined to be both feasible and of high priority of 
Federal investment.'' Is the intent of this language to allow the 
Bureau to begin construction of a project when specific funding for 
initiation has not been approved by the Congress?
    Answer. The statement `` * * * may also fund initiation of 
construction for specific water reclamation and reuse projects that 
have been determined to be both feasible and of high priority of (for) 
Federal investment'' is a general statement about the overall program 
that would only apply if funds were specifically requested for 
construction and included in the section of the budget justification 
for the Title XVI Water Reclamation and Reuse Program entitled ``Work 
Proposed for fiscal year 2000''. No funds under this line item will be 
used for construction activities in fiscal year 2000. Funding requests 
for construction of water recycling projects in fiscal year 2000 are 
described on a project-by-project basis elsewhere in the budget 
justification document.
    Question. What is the rationale and authorization for such a 
provision?
    Answer. There is no intent to expend funds for construction 
activities on projects for which Congress has not provided funding. The 
President's request for $2.214 million is intended to be used to 
conduct feasibility studies on authorized projects and research on 
treatment technologies applicable to municipal, industrial and domestic 
wastewater and impaired ground and surface water as specified in the 
Reclamation Wastewater and Groundwater Study and Facilities Act of 
1992.
                                 ______
                                 

                  Questions Submitted by Senator Burns

                    montana safety of dams projects
    Question. Based upon your testimony to the Senate Committee on 
Energy and Natural Resources on March 3, you stated that ensuring dam 
safety and reliability of Reclamation dams continues to be a top 
priority. In your testimony you further explain that half of 
Reclamation dams were built during the first half of this century with 
outdated practices. I am concerned about this situation given the 
number of Reclamation dams in Montana and their deteriorating 
conditions. What are your plans to address this growing problem in 
Montana?
    Answer. The age of a dam does not necessarily mean the dam is 
unsafe or deteriorating. Continued safe performance is and remains a 
priority of the agency regardless of the age of the dam. Reclamation 
relies on a strong dam safety program to provide ongoing monitoring, 
inspections, and evaluations to readily identify issues and risks. 
Inspections range from at-least-monthly examinations by operating 
personnel, annual inspections performed by Area Office personnel, and 
periodic inspections performed by Regional Office engineering staff; to 
comprehensive examinations of all features of the dam and engineering 
evaluation of the design and performance of the dam in comparison to 
state-of-the-art criteria at least once every six years. When issues or 
conditions are identified that represent unreasonable public safety 
risks, the Safety of Dams program strives to implement cost-effective 
corrective actions in an expeditious manner.
    Question. How much funding is needed in fiscal year 2000 to restore 
the deteriorating dams in Montana?
    Answer. Reclamation's inspection program provides for timely 
maintenance and repair of dams to ensure that they are safe. The fiscal 
year 2000 Dam Safety Program request includes funding for ongoing 
activities for 15 Reclamation facilities in the State of Montana. 
However, there is only dam in Montana proposed for repair in fiscal 
year 2000. That is under the Initiate Safety of Dams Corrective Actions 
Program, where $1,500,000 is requested to start planned modifications 
to Willow Creek Dam, Sun River Project. A modification report will be 
transmitted to Congress for this project this year. Modifications will 
address issues related to internal erosion due to seepage and 
structural stability during earthquakes.
    In addition to the work being conducted in fiscal year 2000, let me 
note that modifications have been completed on the following dams in 
Montana: Como Dam, Bitterroot Project; Pishkun Dikes, Sun River 
Project; Clark Canyon Dam, East Bench Unit, Pick-Sloan Missouri Basin 
Program; Lake Sherburne Dam, Milk River Project; Gibson Dam, Sun River 
Project; Tiber Dam, Lower Marias Unit, Pick-Sloan Missouri Basin 
Program; Helena Valley Dam, Helena Valley Unit, Pick-Sloan Missouri 
Basin Program; and Phase I modifications to Willow Creek Dam to repair 
a large void discovered in the dam in 1996. Additional issues are 
currently being evaluated at Gibson Dam and Como Dam.
       lower yellowstone title transfer--intake diversionary dam
    Question. As I mentioned in this hearing, I have some concerns 
about the Bureau's progress to transfer completed water projects to 
local water districts, specifically the transfer of the Intake 
Diversionary Dam. I understand this transfer is not complete even 
though it has been completed for a number of years. Why is it taking so 
long to accomplish this transfer?
    Answer. On February 2, 1999, Commissioner Eluid Martinez of the 
Bureau of Reclamation testified to the House of Representatives 
Committee on Resources, Subcommittee on Water and Power. He stated it 
is important to understand the legal requirements involved with title 
transfer. Title does not automatically transfer when the district 
repays its construction obligation. Operation and maintenance 
responsibilities can be transferred to water users of Reclamation 
projects under Reclamation law, but this does not give them title to 
the facilities. Section 6 of the Reclamation Act 1902 provides that 
title to the facilities ``shall remain in the Government until 
otherwise provided by Congress,'' under 32 Stat. 389; 43 U.S.C. section 
491. Also, Commissioner Martinez testified that the process needs to be 
open and inclusive of all stakeholders. There must also be compliance 
with the National Environmental Policy Act. The processes that are 
required under this Act ensure that the public has ample opportunity to 
participate in the process and have their concerns identified and 
addressed. Reclamation has been working with the Lower Yellowstone 
Board of Control to address specific items in accordance with 
Reclamation's Title Transfer Framework. Work to date includes a 
cultural resource survey of the entire Lower Yellowstone Project, a 
realty report for all Reclamation lands, and several seasons of 
fisheries data collection. Reclamation, in conjunction with the Montana 
Department of Fish Wildlife and Parks, the U.S. Fish and Wildlife 
Service and the U.S. Geological Survey, has been studying fish passage 
and entrainment issues associated with the Intake Diversion Dam and 
Lower Yellowstone Main Canal. Reclamation has provided funding for 
baseline data collection. The fourth and final year of fisheries data 
collection will be completed by October 1999. Although this work has 
taken several years to complete, the information is needed to fulfill 
policies in Reclamation's Title Transfer Framework and NEPA 
requirements, and will be used to support future progress.
    Question. What is left to be done to complete the transfer?
    Answer. Under the Reclamation Title Transfer Framework document, an 
agreement between Lower Yellowstone Board of Control and Reclamation 
needs to be developed that outlines what is required to complete 
transfer. Examples of the items that would be included under the 
agreement are the costs associated with completion of the realty work 
items, NEPA, and National Historic Preservation Act. The agreement 
would include discussion of schedule and assignment of roles and 
responsibilities to accomplish the work items. After execution of the 
agreement, the Title Transfer Framework document and NEPA require 
public scoping meetings to be held in the project area to gain input 
from local stake holders and provide feedback on issues.
    Question. What are your plans to complete this transfer?
    Answer. As previously stated, Reclamation is working with the LYBOC 
to develop an agreement outlining specific tasks, a schedule, cost 
estimates, and assignment of responsibilities. Reclamation and the 
LYBOC have developed a good working relationship and both parties are 
working toward completing the tasks necessary under the Title Transfer 
Framework.
    Question. What, if any, Congressional actions are needed to 
complete this transfer?
    Answer. The enacting legislation for this project did not include a 
provision for title transfer upon payout of the capital expenditures, 
therefore an act of Congress would be required to transfer title. We 
would be happy to assist in congressional efforts, if requested.
                             cost overruns
    Question. I understand the Bureau is experiencing cost overruns and 
that these added costs are adversely impacting farmers and rangers \1\ 
since you have shifted these costs onto them. Why is this happening and 
what measures are you doing to minimize cost overruns in these 
projects?
---------------------------------------------------------------------------
    \1\ Question was received with reference to farmers and rangers. We 
assume the reference should be farmers and ranchers.
---------------------------------------------------------------------------
    Answer. Reclamation projects in Montana were constructed during the 
period of about 1905 to 1970. In some cases, the costs to operate and 
maintain the facilities have increased due to extraordinary maintenance 
work (maintenance work which is of relatively high cost and of a 
specific duration and does not reoccur from year to year) that we have 
had to perform in recent years to insure integrity of the facilities. 
The extraordinary maintenance work is required to ensure that the 
facilities continue to provide authorized project benefits. In some 
cases, the estimates we provided to the irrigation districts (who are 
responsible for paying a percentage of the multipurpose operation and 
maintenance costs) varied from the actual cost to perform the work. 
Previously, as additional work items were identified, we did not always 
update the estimates at appropriate intervals and provide this 
information to the districts in sufficient time to allow them to budget 
for their share of the costs. The additional work performed was 
necessary to provide an adequate level of maintenance. In the past 
year, we have taken steps to improve the accuracy of these estimates 
and have a process in place to exchange information with the Irrigation 
Districts on an ongoing basis and to inform them of any anticipated 
increases in costs as soon as they are identified. Along this line, 
Reclamation is doing its best to provide more realistic cost estimates, 
find cheaper ways to do the work, and anticipate all of the work that 
would be reimbursed by the users.
    In conformance with the Commissioner's memorandum dated September 
18, 1998, we are committed to involving the irrigation districts in 
program formulation. We are and will continue to provide cost estimates 
and priorities for those parts of projects where our customers share in 
the responsibility or pay a portion of the costs. For Montana, these 
include the irrigation districts on the Milk River and irrigation 
districts benefiting from Pick-Sloan Canyon Ferry Unit. We meet 
annually with irrigation districts on the Milk River project to receive 
input on budget formulation. We have begun annual meetings with 
irrigation districts on the Pick-Sloan Canyon Ferry Unit to receive 
their input regarding budget formulation. In addition, we have 
committed to providing semiannual reports on the status of our costs.
    Question. Also, what alternatives have you considered to minimize 
adverse financial impacts on local irrigators?
    Answer. We have reviewed the costs associated with operation and 
maintenance program activities that we perform on an ongoing basis, 
which we refer to as our base O&M program. We are working toward cost 
containment for the base O&M program and attempting to limit increases 
for these activities to what would normally be expected to adjust for 
inflation. We have developed long-range O&M program plans that forecast 
major cost items for extraordinary maintenance. This information is 
provided to irrigation districts on an annual basis to provide as much 
lead time as possible for them to make financial adjustments and create 
reserve funds to pay their share of the costs before the work is 
performed and the costs incurred. We have also provided the irrigation 
districts with information on how to obtain State grants as a source of 
funding for their share of the reimbursable costs associated with the 
operation and maintenance of Reclamation projects.

Memorandum From the United States Department of the Interior, Bureau of 
                     Reclamation, Washington, D.C.

In Reply Refer To: EC-100, SEP 24, 1998
To: Regional Director, PN, MP, LO, UC, GP, Attention: PN-1000, MP-100, 
        LC-1000, UC-100, GP-1000
    Director, Program Analysis Attention: D-5000
    All Area Managers and Program Managers
From: Eluid L. Martinez, Commissioner
Subject: Directive for Customer Involvement in Operations and 
        Maintenance (O&M) Program Formulation

    The House Report 105-190 on the Energy and Water Development 
Appropriations Bill, 1998 states, in part

          ``The Committee strongly encourages the Bureau of Reclamation 
        to create new opportunities for water and power contractors to 
        participate in the review and development of O&M budget 
        priorities for their respective Bureau of Reclamation 
        projects.''

    The Statement of the Managers accompanying the Fiscal Year 1998 
Conference Report for the Energy and Water Development Appropriations 
Bill reiterated the support of the Conference Committee for this 
provision.
    Customer involvement assists in our effort to deliver quality 
services in the most efficient and economic manner. We have been 
working closely with many of our customers and customer organizations 
(i.e. water and power contractors) for several years in the formulation 
of the O&M program. We need to continue with activities that are 
responsive and helpful.
    In response to the Committees' encouragement and as an expansion of 
current efforts, I am establishing this customer involvement directive 
for use by Regional Directors and their managers with program 
responsibilities. This directive is to be used in working with 
customers who are interested in the development and implementation of 
the O&M program.
    Managers will:
    1. Contact customers to determine their level of interest and 
desired participation in program formulation.
    2. Provide interested customers with O&M programs, cost estimates 
and priorities for those parts of projects in which the customers share 
in responsibility or pay a portion of the cost. The focus will be on 
the budget being formulated in the Region (Budget Year +2). However, 
additional information may also be provided to serve as a bridge to 
Budget Year +2. The total package of information may cover four years 
including the prior year actual expenditures, current year program, the 
President's budget for the next fiscal year (Budget Year), and the 
Budget Year +2 projections. This information should be provided to the 
customers during the August to September time frame. Using fiscal year 
1998 as an example, the information would cover fiscal year 1997 actual 
expenditures, fiscal year 1998 program, fiscal year 1999 President's 
budget, and program projections for the fiscal year 2001 budget year. 
The fiscal year 2000 budget would be in embargo status, therefore 
unavailable (see table below as further reference). As part of the 
process, managers should be prepared to explain shifts from projected 
expenditures to actual expenditures for the prior year.

             REFERENCE FOR AUGUST/SEPTEMBER 1998 TIME FRAME
------------------------------------------------------------------------
                                                            Budget
           Fiscal year                Time period      nomenclature and
                                                       status reference
------------------------------------------------------------------------
1997............................  10-1-96/9-30-97...  Prior Year--
                                                       Completed
                                                       (Actuals).
1998............................  10-1-97/9-3-98....  Current Year--
                                                       Program being
                                                       carried out.
1999............................  10-1-98/9-30-99...  Budget Year--
                                                       Pending in
                                                       Congress.
2000............................  10-1-99/9-30-00...  Budget Year +1--
                                                       Under review
                                                       within Department
                                                       and OMB
                                                       (embargoed).
2001............................  10-1-00/9-30-01...  Budget Year +2--
                                                       Under development
                                                       within Region.
------------------------------------------------------------------------

    3. Provide interested customers the opportunity within a reasonable 
time frame (a minimum of 15 working days) to review and comment on work 
plans and cost estimates. Managers will provide responses either 
written or oral, as appropriate, to customers that address their 
comments.
    4. Notify interested customers of any changes in the work plans or 
cost estimates after the Regional budget deliberations (For example: 
the Regional deliberations on the fiscal year 2001 budget normally take 
place between October 1998 and January 1999) and before the Budget 
Review Committee (BRC) Regional meetings (2001 BRC Regional meetings 
normally occur in March 1999).
    5. Honor executive branch guidelines on non-disclosure of budget 
materials after the Regional budget deliberations and until the 
Presidents Budget goes to the Congress (for the fiscal year 2001 budget 
this will be in February of 2000).
    6. Review budget information with the customers, as requested, 
after the Congress receives the President's budget so that there is an 
understanding of Reclamation's proposed budget.
    The Director of Program Analysis is directed to incorporate this 
memorandum into the Reclamation Manual. In order to determine whether 
this directive is overly burdensome for Reclamation managers and also 
to determine whether it is meeting our customer's needs it will be 
reviewed after a full cycle of implementation, presumably in the Spring 
of 2002. In the interim there may be a need to adapt schedules 
contained herein to meet local circumstances. Although requiring an 
additional commitment of time for some managers, I believe this will 
provide our customers with a meaningful opportunity to comment on O&M 
activities that affect them.
                yellowtail dam & bighorn lake operations
    As I mentioned at the hearing, the snowpack around Yellowtail Dam 
area is high this winter. People downstream of Yellowtail experienced 
massive flooding two years ago. They believe it was created by the 
Bureau's release of water from Yellowtail Dam.
    Question. What are the Bureau's plans to avoid flooding this year 
due to releases from Yellowtail Dam?
    Answer. As is the case with other Reclamation reservoirs with an 
authorized flood control purpose, the Army Corps of Engineers has the 
ultimate responsibility for all flood control operations of Bighorn 
Lake Yellowtail Dam. The amount of storage provided within the lake and 
the flood control afforded are determined by the Corps of Engineers' 
flood operating criteria for that particular reservoir. All flood 
control operations are closely and jointly coordinated between the 
Corps of Engineers and Reclamation.
    Yellowtail Dam and Bighorn Lake, in conjunction with Boysen and 
Buffalo Bill Reservoirs, played a major role in providing flood control 
along the Bighorn, Yellowstone and Missouri Rivers during the 1997 
runoff. Storage within and releases from these reservoirs were 
coordinated closely with instructions issued by the Corps of Engineers' 
in accordance with operating criteria for Bighorn Lake. Without the 
control provided by these reservoirs, the flooding along the 
Yellowstone River downstream of the mouth of the Bighorn River would 
have been much more severe. The Bighorn River Basin comprises about one 
half of the Yellowstone River drainage basin above the mouth of the 
Bighorn River. River flow of the Yellowstone River above the mouth of 
the Bighorn River is unregulated. Therefore, Reclamation is unable to 
provide flood protection against this unregulated flow. During 1997, 
flows in the Bighorn River were maintained within safe river channel 
capacity at all times.
    The Bureau of Reclamation is closely monitoring snowpack and is 
continually revising and updating monthly operating plans for Bighorn 
Lake. Snowpack in the Bighorn Basin is currently 113 percent of normal 
on March 15, nearly 20 percent lower than experienced in record water 
year 1997. Currently storage in Bighorn Lake has been evacuated about 
28.5 feet below the top of the joint-use pool. Plans are to continue 
evacuating storage to about 32.0 feet below the top of the joint-use 
pool by the end of March. As projected in the March plan and based on 
normal spring precipitation, this will provide adequate storage to 
store the snowmelt runoff without making large releases that may cause 
downstream flooding. Reclamation will continue to work with the Corps 
of Engineers, Federal Emergency Management Agency, and State and local 
constituents to provide information on operations plans for Yellowtail 
Dam.
    Question. What does the Bureau plan to do this spring to inform 
folks downstream from the mouth of the Bighorn River about water 
releases from Yellowtail Dam?
    Answer. Reclamation is responsible for monitoring the conditions of 
Yellowtail Dam and Bighorn Reservoir, as well as monitoring weather 
conditions upstream of the dam, that could result in the need to make 
large releases from the Dam. Reclamation is also responsible for 
providing notification of all significant incidents occurring at 
Yellowtail Dam to various Federal, State, and local authorities 
downstream of the Dam. This includes all affected downstream County 
Disaster & Emergency Services and law enforcement dispatch centers, 
Montana DES, and the National Weather Service, which is Federally 
mandated to issue flood watches and warnings. Additionally, Reclamation 
is responsible for providing notification to the National Park Service, 
Crow Tribe, and Bureau of Indian Affairs, as each of these agencies are 
also integrally involved with the operations of the Dam. Local 
authorities are responsible for notifying the public at risk, advising 
the public on safe evacuation routes, and where to go for safe shelter. 
It is not within Reclamation's authority or responsibility to directly 
carry out warning and evacuation of the impacted public from large 
operational releases.
    The Bureau of Reclamation continues to closely monitor snowpack and 
continually revise and update monthly operating plans for Bighorn Lake. 
These operating plans include projected operations of Yellowtail Dam 
and Bighorn Lake and are distributed to key members of the Yellowstone 
River Task Force. The Task Force is encouraged to contact Reclamation 
about any concerns or questions they may have regarding these operating 
plans.
    Daily information about the water levels in Bighorn Lake and 
streamflows in the Yellowstone and Bighorn River Basins is also 
available on the Bureau of Reclamation's Great Plains WEB site at 
address /www.gp.usbr.gov/.
    Question. What sort of early warning system have been or will be 
set up?
    Answer. All Reclamation dams are required to conform to agency 
policy established for emergency management. This policy and its 
implementation provides for the safety of the public during potential 
emergency incidents, including high releases, at these dams. Each dam 
has an Emergency Action Plan that describes what actions, including 
notification of local disaster and emergency management personnel, will 
take place during periods of emergency. These plans are exercised on a 
regular basis. Local, state, and other Federal organizations who might 
be involved in potential emergencies are encouraged to participate in 
the exercises and drills.
    Reclamation's Emergency Management Policy requires that Emergency 
Action Plans be developed and implemented at all significant and high 
hazard dams, including Yellowtail Dam. The EAP must contain initiating 
conditions for hydrologic (flooding) as well as nonhydrologic events, 
which trigger specific Reclamation response procedures and 
notifications to effected downstream agencies. Initiating conditions 
are typically established at levels that provide as much advance 
notification of significant incidents to local officials as 
practicable. EAPs must also contain descriptions of available 
communication capabilities, descriptions of potentially affected areas 
in the flood plain, flood inundation maps where appropriate, and tables 
showing floodwave travel times and other pertinent information that may 
be needed by local emergency management officials.
    On March 11, Reclamation met with County and State Disaster and 
Emergency Service officials, Bureau of Indian Affairs, Crow Tribe, 
National Weather Service and the National Park Service to plan an 
exercise to test the Emergency Action Plans for Yellowtail Dam and 
Yellowtail Afterbay Dam. The exercise is scheduled to be conducted on 
May 20, 1999. The DES staff is responsible for immediately contacting 
residents along the Bighorn and Yellowstone Rivers of any potential 
dangers that may result from downstream flooding. Yellowtail Dam is 
monitored 24 hours a day by the Casper Control Center to ensure 
downstream officials get advance notification, should a problem occur.
    Reclamation will continue to monitor daily snowpack and snowmelt 
runoff in the Bighorn River Basin and maintain close contact with the 
National Weather Service. The NWS will provide Reclamation with daily 
river forecasts based upon current hydrologic and forecasted climatic 
conditions. In addition to monitoring the mountain snowpack conditions, 
Reclamation will continue to utilize existing satellite telemetered 
gaging stations to monitor river conditions upstream and downstream of 
Yellowtail Dam and Bighorn Lake. As hydrologic and climatic conditions 
change, sudden changes may be required in reservoir and river 
operations. Reclamation will issue press releases to inform citizens 
living along the Yellowstone River of these operational changes.
    Question. Why hasn't the Bureau considered a stream flow monitoring 
device to ensure the safety of the downstream citizens and private 
property?
    Answer. On March 25, 1998, personnel from the Bureau of Reclamation 
attended a meeting with several citizens who live along the Yellowstone 
River near Hysham, Montana. Many people who attended the meeting 
believed installing another stream gaging station equipped with 
satellite telemetry along the Yellowstone River near Custer, Montana 
would improve the operations and management of Yellowtail Dam and 
Bighorn Lake.
    Reclamation currently utilizes data collected at 8 existing 
satellite telemetered river gaging stations located along the 
Yellowstone River from Corwin Springs, Montana to Sidney, Montana. 
Reclamation currently believes the data collected at these sites are 
adequate for monitoring river flows under most conditions and 
installing an additional station near Custer, upstream of the mouth of 
the Bighorn River, is not required to support the operations at 
Yellowtail Dam and Bighorn Lake. However, after the record water year 
of 1997, Reclamation provided funds for installing satellite telemetry 
at the stream gaging station located near Forsyth. Reclamation 
investigated the costs to install another satellite telemetered gaging 
station near Custer. It was determined costs to renovate and reactivate 
this site would cost $24,000. In addition to this cost, annual 
maintenance costs were estimated to vary from $6,000 for a seasonal 
station or $9,850 for an annual station.
    Reclamation has informed the Task Force that we are willing to 
provide funds in the amount of $7,500 for the installation of the 
satellite telemetry equipment. However no other resources have been 
identified to fund the remaining costs.
             land management and fish & wildlife activities
    Question. I am getting concerned about the Bureau's growing 
activities into land management and fish and wildlife activities such 
as issuing grazing permits and conducting fish restoration projects. 
Have you considered shifting these responsibilities to more established 
Federal agencies who are more experienced and staffed to work on these 
activities such as the Bureau of Land Management and Fish & Wildlife 
Service. Wouldn't such a reinvention of governmental responsibilities 
allow you to refocus your limited resource toward the more well-
established missions of the Bureau--to develop, manage, and protect 
water resources for power generation and recreation.
    Answer. The development of water projects by Reclamation required 
inclusion of lands necessary for operation of the projects. These lands 
were either withdrawn from settlement, sale, location of minerals, or 
entry under the general land laws or acquired for project purposes by 
purchase, condemnation, or donation by private landowners. Although 
these lands were withdrawn or acquired for Reclamation project 
purposes, the Secretary of the Interior was granted broad authority to 
allow use of the lands for incidental purposes, including grazing. 
Therefore, grazing is not a new activity; Reclamation has had these 
land management responsibilities since its inception and has a great 
deal of experience in implementing and managing these lease agreements. 
Where it is more efficient and appropriate to do so, we enter into 
agreements with other Federal agencies such as the Bureau of Land 
Management, Fish and Wildlife Service, or Forest Service to manage 
lands under our jurisdiction. Withdrawn lands that are no longer needed 
for project purposes are recommended for relinquishment and revocation 
to Bureau of Land Management or Forest Service jurisdiction.
    Reclamation's fish restoration activities have been undertaken in 
response to specific Reclamation project authorizations as well as 
congressional legislation such as the Endangered Species and the Fish 
and Wildlife Coordination Acts. We coordinate these activities with the 
Fish and Wildlife Service, state wildlife agencies and our water and 
power users. We must meet the requirements of such legislation in order 
to meet our contractual obligations to deliver the water and power 
benefits to authorized Reclamation We agree that our resources are 
limited, but solving fishery problems is vital for Reclamation's 
continuing mission to manage, develop, and protect water and related 
resources in an environmentally and economically sound manner.
                                 ______
                                 

                  Question Submitted by Senator Craig

                       snake river plain aquifer
    Question. The Snake River Plain Aquifer is the lifeblood of 
Southern Idaho. Its health is important to everyone that lives there, 
from the farmer who irrigates the food we eat to the mother who gives a 
glass of water to her child. It is also vital to Idaho's thriving 
aquaculture industry, which produces the vast majority of the nation's 
trout. Concerns have been raised about diminishing spring discharges. 
What is the Bureau of Reclamation's position on using excess flows in 
the Snake River to recharge the aquifer?
    Answer. The Bureau of Reclamation is participating in a 
demonstration project that will quantify and document the benefits and 
impacts of recharge projects in the Snake River Plain Aquifer. This 
project is a cooperative venture with the State of Idaho to investigate 
the feasibility of using managed aquifer recharge as an effective tool 
for conjunctive (ground water/surface water) water resource management 
in the Snake River Plain. Reclamation's contribution to the effort is 
to allow use of a canal for delivery of the water to the recharge site. 
This project should provide answers to many questions about the 
feasibility of using managed recharge as a tool for slowing, or 
stabilizing, the decline of the aquifer, thus providing more consistent 
flows downstream near the Thousand Springs area. This is especially 
critical during periods of drought.
                                 ______
                                 

                 Questions Submitted by Senator Dorgan

                        garrison diversion unit
    The Garrison Diversion Project is the key to water development in 
North Dakota and water development is the key to economic development 
in our semi-arid state.
    Question. Can you tell the Committee how this year's budget request 
will generally help North Dakota advance water development?
    Answer. The fiscal year 2000 request will be used to continue 
development of Indian irrigation facilities on the Standing Rock 
Reservation; to provide grant funds to continue State municipal, rural, 
and industrial (MR&I) water supply system development; to provide 
minimum maintenance to assure reliability of completed facilities still 
in construction status and operate the supply system for freshening 
flows; to continue mitigation activities associated with meeting refuge 
compatibility; to continue planning activities associated with a water 
supply to the Red River Valley; to provide flood control at Jamestown 
Dam and continue to operate, maintain, and replace facilities; and for 
construction and planning activities associated with recreation 
facilities. Reclamation will continue working with three Indian 
reservations in Garrison Diversion Unit (GDU) to operate, maintain, and 
replace existing MR&I water treatment and distribution facilities, and 
provide technical assistance and oversight for planning activities to 
meet reservation-wide needs.
    Question. Would you agree that completing work on the Southwest 
Pipeline, doing further work on the Northwest Area Waters Supply, and 
moving to Phase 2 on Indian MR&I mean that thousands of North Dakotans 
without reliable supplies of clean water will finally have access to 
the kind of water most of us take for granted?
    Answer. These types of projects have been successful in providing 
reliable, safe drinking water to thousands of people throughout the 
state whose previous supplies have been unreliable or have not met safe 
drinking water standards.
    Question. One of the funding priorities in the 1986 Garrison 
Reformulation Act was meeting the Municipal, Residential and Industrial 
water needs of Indian tribes in North Dakota. The tribes again have 
reached their funding ceilings which prompted the Congress to add 
funding to the last two appropriations bills. Can you assure the 
Subcommittee that the Bureau is prepared to work with us in raising the 
ceilings and identifying additional resources--in the range of $3 
million--to meet critical MR&I needs on the reservation?
    Answer. Reclamation has allocated funding to continue Indian MR&I 
planning and construction activities in each of the past two years in 
which the appropriation ceiling has been raised, fiscal year 1998 and 
fiscal year 1999. If the ceiling is raised again in fiscal year 2000, 
we anticipate that additional funds would be allocated to continue 
these ongoing activities.
    Question. Do you concur that Tribes in North Dakota have some of 
the poorest quality water in the nation and the Bureau has validated 
over $200 million in Indian MR&I needs?
    Answer. Studies have documented that the Indian reservations in 
North Dakota have significant domestic water supply problems. Studies 
commissioned for the Standing Rock, Fort Berthold, and Spirit Lake 
Indian Reservations have estimated that an additional $220,000,000 
could be required to complete facilities to meet all the reservation-
wide needs. In addition, it is estimated that another $20,000,000 may 
be required to meet the domestic water supply needs on the Turtle 
Mountain Chippewa Indian Reservation. Reclamation is initiating a needs 
assessment study in fiscal year 1999 through the Native American 
Affairs Program to refine the needs of the Turtle Mountain Chippewa 
Tribe.
    Question. All but 11 of North Dakota's counties are losing 
population as farm communities face unparalleled problems from low 
prices, Canadian grain imports, severe weather disasters, among other 
factors. The MR&I program has helped breathe new economic life into 
communities across the state. Can you comment on the specific social 
and economic benefits of such projects as the Southwest Pipeline in 
bringing clean, dependable water supplies to towns in our state?
    Answer. The benefits associated with improved water quality can 
include better tasting water, water that does not corrode pipes and 
appliances, improved health, or some other improvement in lifestyle. 
Therefore, an improved water supply can help a rural area remain 
economically viable.
    Question. Several North Dakota communities have had been using 
tobacco-colored water or been in violation of Clean Water standards--
through no fault of their own. Can you confirm how many ND communities 
have been able to comply with Clean Drinking Water standards as a 
result of Garrison projects?
    Answer. In preparing our response to this question, we consulted 
with the North Dakota State Water Commission (SWC) who administers the 
GDU MR&I State Grant Program. The SWC provided Reclamation with a 
spreadsheet, dated November 17, 1998, that summarizes the status of all 
projects that have submitted applications under this program. The SWC 
and the Garrison Diversion Conservancy District prioritize each of the 
projects that submit applications. One of the most important 
prioritization criteria is water quality, particularly documentation 
that existing water supplies are violating Safe Drinking Water 
standards. Based on SWC information, since the program began in 1986, 
the State has received 132 applications for water supply funding 
assistance, and 32 highest priority projects have been completed. 
Another 43 projects are in various stages of planning, design, and 
construction.
    Question. As you know, the Bureau of Reclamation has been studying 
the water development and management needs of the Red River Valley for 
the past year. Can you apprise the Committee of the status of these 
studies?
    Answer. The Phase IA Needs Assessment has been completed. Initial 
alternatives to meet the municipal, rural, and industrial water needs 
of the Red River Valley have been formulated. A working draft of the 
Phase 2 (alternatives Analysis) report will be forwarded to the 
Steering committee prior to our March 30th meeting. Phase IB Instream 
Flow report will be finalized by the end of March 1999, and the results 
will be incorporated into the Alternatives Analysis.
    Question. Has the Bureau worked closely with the ND State Water 
Commission, local communities and other interested parties to obtain 
their views and recommendations?
    Answer. The Bureau has been working closely with State and local 
interests to obtain their views and recommendations. It is expected 
that more meetings may be needed to assure that the views and interests 
of the State and local interests are fully considered prior to 
distribution of the public review draft. The Bureau's work is 
coordinated with a steering committee which is comprised of 
representatives of the ND State Water Commission, ND State Health 
Department, the Garrison Diversion Conservancy District, Fargo, Grand 
Forks, Moorehead, rural water systems, and the environmental community.
    Question. Can you please assure the Subcommittee that the Bureau 
will make these studies a top priority and work closely with ND 
agencies and groups?
    Answer. Completion of this study is a priority.
                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

STATEMENT OF DR. JOSEPH W. WESTPHAL, ASSISTANT 
            SECRETARY OF THE ARMY FOR CIVIL WORKS
ACCOMPANIED BY:
        LT. GEN. JOE N. BALLARD, CHIEF OF ENGINEERS
        MAJ. GEN. RUSSELL L. FUHRMAN, DIRECTOR OF CIVIL WORKS

    Senator Domenici. Would the Corps of Engineers witnesses, 
General Ballard, Dr. Westphal, and any supporting witnesses 
come forward please?
    Thank you very much. Can we have order in the back of the 
room? If you would like to carry on conversations, could you do 
it in the hall please? Thank you very much.
    Dr. Westphal, it is good to see you. General Ballard, 
General Fuhrman its always a pleasure. And on the end----
    General Fuhrman. That is Fred Caver, sir. He is our budget 
and programs person.
    Senator Domenici. All right. Nice to have you with us. Yes, 
he is the budget man?
    General Fuhrman. Yes, sir.
    Senator Domenici. Dr. Westphal, we extend an especially 
warm welcome to you since this is your first appearance before 
the committee.
    The environment is certainly better this year than it was 
last year when we faced a very difficult budget from the 
administration where water projects were underfunded. Then we 
were expected to meet the demands of water projects in the 
country, and through the goodness of the chairman of the full 
committee, they gave us money from some other subcommittee for 
the water projects that the President did not fund.
    The Administration have gotten the message this year and 
the budget looks much better with reference to what you must do 
to complete your projects and maintain schedules for ongoing 
work. We hope to be able to meet those responsibilities within 
the President's budget.
    We have many Senators who want to be heard, so that is the 
extent of my statement. Unless somebody has an urgent, urgent 
statement, I would like to proceed to have the witnesses----

                      statement of senator stevens

    Senator Stevens. Could I just make one statement and ask a 
question? I want to go to another hearing.
    Senator Domenici. Absolutely.
    Senator Stevens. Good morning, General Ballard and Dr. 
Westphal.
    Dr. Westphal. Good morning, sir.
    General Ballard. Good morning, sir.
    Senator Stevens. I am here to state to you that we do 
appreciate the work that you do in Alaska. You are really 
involved in a number of important military projects. I 
discussed that with Colonel John yesterday.
    Our problem now is that we have, as you know, half the 
coastline of the United States, 55,000 miles of coastline, and 
our future development really is dependent upon our being able 
to get modern facilities there for the village areas in 
particular.

                     project cost sharing problems

    As we face this period of higher and higher costs of 
construction, one of the great problems that I face is how to 
deal with the local cost sharing formula that is involved with 
the Corps. These are areas that have no tax base at all, are 
primarily dependent upon the Federal Government, and are not 
very well represented in the State government because of the 
one man/one vote concept. We have an area the size of Texas 
that has one State representative.
    Now, when you look at it in terms of trying to get cost 
sharing for those areas, for the facilities they need to 
develop--I hate to use that word--the modern infrastructure for 
the next century, we just cannot deal with this cost sharing 
formula that has been worked out. I would like to know if you 
would be willing to sit down with us and see if we can find 
some way to justify--I take it it would take an Act of Congress 
to change your current formula. Is your current formula not 
based in law rather than regulation?
    Dr. Westphal. Yes, sir.
    Senator Stevens. Well, I have got to find some way to 
relieve some of these places of the burden of cost sharing 
where there is no tax base.
    Dr. Westphal. Well, Mr. Chairman, I think we need to work 
with you on developing some ability to pay mechanisms that 
might help these communities. The Chief and I are committed 
to--in fact, we have been talking about doing something about 
this issue nationwide, because there are communities all over 
the country that really in some cases absolutely cannot make 
the local match, yet they are in danger of flooding or they 
desperately need some infrastructure help. So, we are committed 
to finding ways in which we can help those communities either 
by adapting ability to pay provisions or simply coming to 
Congress and looking at some other vehicles for doing that for 
those particular communities in need. We will certainly be 
willing to work with you and members of your staff.
    Senator Stevens. Well, we worked it out once. The City of 
Buckland--I do not know if you are familiar with that little 
city. It has a sewage lagoon. That lagoon just happens to be in 
the center of the village. Over the years the waste water has 
gone directly into the lagoon in the middle of the village. 
Thanks to you, we now have an infrastructure demonstration 
project. You have a lot of flexibility on those demonstration 
projects.
    I am thinking of looking to this committee or to some 
committee to help us redefine what we can do in these areas 
where there is no potential for a local match. Most of us here 
had something to do with State government. I know I did in the 
State legislature. They have very little chance of getting a 
bill through the State legislature to give them an increased 
percentage of their local matched funds for projects that will 
enable them to compete with another area of the State.
    So, it is something that I would hope we would get some 
attention to, and I would look forward to working with you if 
you will do that for me.
    Dr. Westphal. We will, yes, sir.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Senator Domenici. Thank you. Senator Stevens, we are aware 
of your problem and of some rural counties in the continental 
United States that actually have similar problems. We will try 
to work on that with your staff.
    Senator Stevens. Thank you.
    Senator Domenici. Would you please proceed, Dr. Westphal.

                  STATEMENT OF DR. JOSEPH W. WESTPHAL

    Dr. Westphal. Thank you, Mr. Chairman. It is an honor to be 
here to testify before this esteemed subcommittee, Mr. 
Chairman, and to testify and present to you the President's 
civil works budget for the 21st century. I think it is a good 
budget, Mr. Chairman.
    Accompanying me, as you mentioned earlier, is Lieutenant 
General Joe Ballard, who is the Chief of Engineers; and Major 
General Russ Fuhrman, who is the Director of Civil Works; and 
Mr. Fred Caver, who is the Chief, Programs Management Division 
for the Directorate of Civil Works.
    For just a second, Mr. Chairman, on a personal note, I just 
want to say how delighted I am to be here, the first time 
testifying before you. I began my professional career in 
Washington working for the House Budget Committee the year that 
you became chairman of the Senate Budget Committee. Of course, 
I am delighted to be here with my former boss and mentor, 
Senator Thad Cochran. It is a great opportunity to defend and 
to support a very strong program for civil works this year.
    Let me begin by noting that large differences between the 
administration's budget proposal last year and what you 
appropriated in both fiscal year 1998 and fiscal year 1999 are 
now reconciled in the fiscal year 2000 budget I am about to 
discuss.
    Mr. Chairman, I am just going to summarize a few points 
here in the interest of time and ask that my full testimony be 
made part of the record.

                             budget themes

    The President has consistently stressed two major themes 
that I think are particularly important to the way we should 
formulate and implement a civil works policy. First, policy 
must be based on building strong partnerships with our States 
and local communities, as well as with other sister Federal 
agencies. And second, we must strive to help our economy grow 
and prosper by combining sound infrastructure management and 
development with environmental protection and ecosystem 
restoration. I believe our program excels in both of these 
mandates and that the budget we present today reflects their 
importance and priority.
    I am pleased to say that funding in the President's fiscal 
year 2000 budget supports a strong civil works program. It is 
consistent with levels enacted by Congress in recent years and 
with the President's overall domestic priorities, his 
commitment to a balanced budget, and his goal of protecting 
Social Security and meeting the challenges of the 21st century.

                            budget overview

    The President's budget for the civil works program for the 
year 2000 includes $3.9 billion for the discretionary program, 
comparable to the amount appropriated for the program in fiscal 
year 1999 and significantly above last year's budget. With 
cost-sharing contributions by our partners, the non-Federal 
sponsors, plus other funding, the fiscal year 2000 program will 
total about $4.2 billion. In fiscal year 2000, we will be 
asking non-Federal sponsors to contribute over $251 million as 
their cost share of projects throughout the Nation. They are 
our partners in this program and we are committed to a very 
responsive and timely allocation of resources to meet their 
efforts. I look forward to working with both houses of Congress 
to meet the challenges of this partnership.
    I would like to point out that the fiscal year 2000 budget 
for the civil works operation and maintenance general program 
is $1.84 billion. This level of funding is very strong, 
demonstrating the administration's commitment to maintaining 
our existing infrastructure, much of which is aging and 
requires greater upkeep.
    Funding for the construction general program is $1.24 
billion, a significant increase from last year's request.
    On new investments, the fiscal year 2000 budget for the 
Army civil works program provides a strong program of new work, 
including 1 new survey, 19 new construction projects, 5 
operation and maintenance new starts, and 6 new plant 
replacement and improvement program major acquisitions, and the 
Challenge 21 program.

                   water resource development process

    I also want to emphasize our commitment to water resources 
development and the biennial authorization cycle. A strong 
water resources development program is a sound investment in 
our Nation's economic future and environmental stability. 
Communities across the country benefit from water resources 
projects to reduce flood damages, compete more efficiently in 
world trade, provide needed water and power, provide 
recreational opportunities, and protect and restore our rich 
aquatic resources.
    In this regard, we will work with Congress to complete a 
water resources development act in 1999, building on the 
progress that we made last fall on the proposed 1998 bill. 
Further, it would put us in a better position to address new 
policy and project needs in a WRDA 2000 bill that will include 
such important initiatives as the restoration of the 
Everglades.

                          harbor services fund

    A key component of the President's 2000 budget for the Army 
civil works program is the proposal for a new harbor services 
user fee. This proposal will provide a reliable source of 
funding for important navigation needs, including construction, 
operation, and maintenance. It results in significantly greater 
funding for these port and harbor activities. The President's 
budget for fiscal year 2000 includes $951 million to be derived 
from the Harbor Services Fund, an overall increase of $382 
million over the President's fiscal year 1999 budget for harbor 
related activities. This level of funding will allow us to 
proceed at an optimal rate on nearly all operation and 
maintenance and construction activities related to ports and 
harbors, using funds contributed by the users.
    The user fees will generate funds sufficient to pay the 
Department of the Army's annual cost of developing, operating, 
and maintaining the Nation's ports. The legislative proposal 
will make the total amount of user fees collected pursuant to 
this proposed legislation in one year, available the next 
fiscal year for appropriations.
    We are coming to completion on the details of this proposal 
and discussions with stakeholders and comments from interested 
groups. A final proposal will come to you in the next few 
weeks, Mr. Chairman.
    The administration is also committed to the traditional 
mission areas of improving our navigation and transportation 
system, protecting our local communities from flood damages and 
other disasters and maintaining and improving hydropower 
facilities across the country.

                         environmental programs

    In addition, the protection and the restoration of the 
environment is an important and integral part of the civil 
works mission portfolio. The President has strongly advocated 
linking economic growth and protection of the environment. To 
help meet this objective, we will support projects that feature 
strong economic benefits, as well as incorporate environmental 
restoration and enhancement. Of course, individual 
environmental restoration projects are also an important part 
of the civil works mission.
    An example of a program that will integrate the 
environmental concerns into more traditional civil works 
missions is our Challenge 21 program, the riverine ecosystem 
restoration and flood hazard mitigation initiative. Like last 
year, this year's budget includes $25 million to begin the 
Challenge 21 program. It is designed to accomplish both flood 
hazard mitigation and ecosystem restoration and emphasizes 
nonstructural measures as a means of accomplishing these 
objectives.

                           regulatory program

    The fiscal year 2000 budget for the civil works regulatory 
program is $117 million, an increase of $11 million over the 
enacted level in fiscal year 1999 funding. In this program we 
are proud that we not only protect our vital aquatic resources, 
but we try to help people within the law to find 
environmentally sustainable solutions to their problems. In 
fiscal year 1998, the regulatory program authorized 90,000 
activities in writing, the most of any year, and nearly 95 
percent of all actions were authorized in less than 60 days. 
This budget will ensure that this level of service is 
maintained and improved, even with an increasing volume of 
work.
    In summary, the President's fiscal year 2000 budget for the 
civil works program is a good one. It demonstrates a commitment 
to civil works missions with strong support for all programs, a 
plan to solve the constitutional problem with the existing 
harbor maintenance tax, an especially strong program of new 
construction, a firm commitment to maintaining existing water 
resources management infrastructure and increased application 
of civil works program expertise to environmental protection 
and restoration.
    Mr. Chairman, I am delighted to be here with the Chief of 
Engineers. We have had an excellent working relationship since 
I took over this job. We are true partners in this process, 
along with the Director of Civil Works, in making sure that we 
address the interests of your constituents and the feasibility 
of moving this program forward at a very good pace in the 
future.

                           prepared statement

    With that, Mr. Chairman, I end my remarks and I thank the 
committee for the opportunity to testify today.
    [The statement follows:]

              Prepared Statement of Dr. Joseph W. Westphal

                              introduction
    It is an honor and a pleasure to testify before this esteemed 
subcommittee of the Appropriations Committee and to present to you, 
President Clinton's first Civil Works budget for the 21st Century. It 
is a good budget.
    Accompanying me are Lieutenant General Joe N. Ballard, Chief of 
Engineers; Major General Russell L. Fuhrman, Director of Civil Works; 
and Mr. Thomas F. Caver, Jr., Chief Programs Management Division, 
Directorate of Civil Works.
    Let me begin by noting that the large differences between the 
Administration's budget proposal last year and what you appropriated in 
both fiscal year 1998 and fiscal year 1999 are now reconciled in the 
fiscal year 2000 budget I am about to outline.
    The President has consistently stressed two major themes that I 
think are particularly important to the way we should formulate and 
implement Civil Works policy. First, it must be based on building 
strong partnerships with our states and local communities as well as 
among our sister federal agencies. Second, we must strive to help our 
economy grow and prosper by combining sound infrastructure management 
and development with environmental protection and ecosystem 
restoration. I believe our program excels in both of these mandates and 
that the budget I will present today reflects their importance and 
priority.
    I am pleased to say that funding in the President's fiscal year 
2000 Budget supports a strong Civil Works Program. It is consistent 
with levels enacted by Congress in recent years, and with the 
President's overall domestic priorities, his commitment to a balanced 
budget, and his goal of protecting Social Security and meeting the 
challenges of the 21 Century.
    My statement covers the following subjects:
  --the fiscal year 2000 Civil Works Program Budget,
  --Water Resources Development Acts of 1999 and 2000,
  --GPRA and Civil Works Program Performance,
  --the Harbor Services Fund Proposal,
  --the Economy and Environment,
  --New Investments, and
  --Highlights of the fiscal year 2000 Continuing Program.
              fiscal year 2000 civil works program budget
    The President's budget for the Civil Works Program for fiscal year 
2000 includes $3.9 billion for the discretionary program, comparable to 
the amount appropriated for the program in fiscal year 1999, and 
significantly above last year's budget request. Details are presented 
in Table A.
    The Administration appreciates the significant commitments made by 
our partners, the non-federal sponsors who cost-share studies and 
projects of the Civil Works Program. These commitments demonstrate the 
value of the program to the sponsors. With cost- sharing contributions 
and other funding, total funding for the fiscal year 2000 program is 
$4.2 billion. In fiscal year 2000, we will be asking non-Federal 
sponsors to contribute over $251 million as their cost share of 
projects throughout the nation. They are our partners in this program 
and we are committed to a very responsive and timely allocation of 
resources to meet their efforts. I look forward to working with both 
Houses of Congress to meeting the challenges of this partnership.
           water resources development acts of 1999 and 2000
    I also want to emphasize our commitment to water resources 
development and the biennial authorization cycle. A strong water 
resources development program is a sound investment in our Nation's 
economic future and environmental stability. Communities across the 
country benefit from water resource projects to reduce flood damages, 
compete more efficiently in world trade, provide needed water and 
power, and protect and restore our rich aquatic resources. In this 
regard, we will work with the 3 Congress to complete a Water Resources 
Development Act (WRDA) in 1999--building on the progress that we made 
last fall on the proposed WRDA 98.
    As you know, the Army, on behalf of the Administration, submitted 
to Congress a WRDA proposal in 1998. This formed the basis for the 
Senate version of WRDA 98 that included important Administration policy 
initiatives such as our Challenge 21 program. We hope that, based on 
our bill, and the work of the authorizing Committees, we can come to 
closure on a responsible WRDA 99 early this year that includes 
important policy initiatives and vital projects, while recognizing the 
continuing budget constraints. Further, it would put us in a better 
position to address new policy and project needs in a WRDA 2000 bill 
that will include such important initiatives as the restoration of the 
Everglades.
                    civil works program performance
    The Government Performance and Results Act of 1993 (GPRA) requires 
that the Army Corps of Engineers show how improvements in its business 
processes impact the quality and delivery of our products and services 
to the Nation.
    The Corps is improving its business processes by streamlining 
decision document review procedures, eliminating duplication of 
functions at different levels; intensively monitoring policy review to 
reduce review times; extending the use of standardized project 
cooperation agreements; continuing to strengthen partnerships with 
local sponsors; and intensively managing program execution, for more 
efficient and timely production and greater customer satisfaction. In 
particular, the Chief of Engineers has developed a process to 
streamline project planning and I look forward to working with him on 
this.
    The Corps is currently implementing the first annual performance 
plan required by GPRA on its fiscal year 1999 program. The Corps is 
testing an initial set of results-oriented program performance measures 
to assess the benefits of process improvements made at the project 
level. The Corps will evaluate the initial set of results-oriented 
program performance measures during fiscal year 1999 program execution 
and will extend successful applications of the measures into the fiscal 
year 2000 program and continue to develop improved performance measures 
in the future.
                     harbor services fund proposal
    A key component of the President's fiscal year 2000 Budget for the 
Army Civil Works program is the proposal for a new Harbor Services Fund 
and Harbor Services User Fee. This proposal will provide a reliable 
source of funding for important navigation needs 4 including 
construction, operation, and maintenance. It results in significantly 
greater funding for these port and harbor activities. The President's 
Budget for fiscal year 2000 includes $951 million to be derived from 
the Harbor Services Fund, an overall increase of $382 million over the 
President's fiscal year 1999 Budget for harbor related activities. This 
level of funding will allow us to proceed at an optimal rate on nearly 
all operation and maintenance and construction activities related to 
ports and harbors, using funds contributed by the users.
    In March 1998, the U. S. Supreme Court ruled that the Harbor 
Maintenance Tax (HMT) was unconstitutional, as applied to exports. In 
that ruling, the Court concluded that the HMT, which imposed a charge 
based on the value of the commercial cargo being shipped, constituted a 
tax on goods in export transit and therefore violated the Export Clause 
of the Constitution. Because of this ruling, the HMT stopped being 
collected on exports on April 25, 1998. The new Harbor Services User 
Fee being proposed avoids the constitutional infirmities of the HMT. 
The assessment is a user fee, not a tax: it fairly approximates the 
harbor benefits and services vessels in each vessel category receive 
through port use. It is not imposed based on the cargo of a vessel.
    The user fees will generate funds sufficient to pay the Department 
of the Army's annual costs of developing, operating, and maintaining 
the Nation's ports. The legislative proposal will make the total amount 
of the user fees collected pursuant to this proposed legislation in one 
year available the next fiscal year for appropriation to fund the 
projected total annual expenditures of the Department of the Army for 
harbor development, operation, and maintenance.
    Thus, this proposal will address all of the biggest problems 
associated with the existing Harbor Maintenance Tax and Trust Fund 
(HMTF). First, we will stop collections on imports, domestic shippers, 
and passengers collected under the existing Harbor Maintenance Tax, 
eliminating the uncertainties involved with our foreign trading 
partners.
    Second, we would institute a new fee mechanism based on vessel type 
linking the fee with the level of service provided to certain types of 
vessels, which will meet the Supreme Court's test for 
constitutionality. Those fees would be placed in the new Harbor 
Services Fund, along with remaining balances from the old HMTF. A 
portion of those balances will be used to fund the program in the first 
year, fiscal year 2000.
    And third, the proposal will directly link the amount of fees 
collected with the funds appropriated, thus avoiding a build up 
balances in the Harbor Services Fund. For budget purposes, the user 
fees will be treated as offsetting collections.
    We are coming to completion on details of the proposal in light of 
discussions and comments from interested groups. We plan to present a 
legislative proposal to 5 Congress in the near future. Our plan is to 
pursue the HSF legislative proposal separately from WRDA 99.
                      economy and the environment
    The Administration is committed to the traditional mission areas of 
improving our navigation and transportation system, protection of our 
local communities from flood damages and other disasters, and 
maintaining and improving hydropower facilities across the country. In 
addition, the protection and restoration of the environment is an 
important and integral part of the Civil Works mission portfolio. The 
President has strongly advocated linking economic growth with 
protection of the environment. To help meet this objective, we will 
support projects that feature strong economic benefits, as well as 
projects that incorporate environmental restoration and enhancement. Of 
course, individual environmental restoration projects are also an 
important part of the Civil Works mission.
    An example of a program that will integrate environmental concerns 
into more traditional Civil Works missions is our Challenge 21: 
Riverine Ecosystem Restoration and Flood Hazard Mitigation Initiative. 
Like last year, this year's budget includes $25 M to begin the 
Challenge 21 program. It is designed to accomplish both flood hazard 
mitigation and ecosystem restoration and emphasizes nonstructural 
measures as a means to accomplish these objectives. Challenge 21 was 
proposed for authorization last year, and came close to becoming a 
reality in the proposed Water Resources Development Act of 1998. In 
fact, the Senate version of WRDA 1998 included a Challenge 21 program. 
We will continue to work with Congress to pass this much-needed 
legislation. The key to this program is that it will be implemented at 
the request of local communities and not imposed as a solution by the 
Federal government. To date, over 50 communities have expressed 
interest in participating in Challenge 21.
    Environmental programs make up about 18 percent of the fiscal year 
2000 Army Civil Works budget, and are integrated into all of the major 
areas of work. Some environmental programs of note are in the following 
areas. There is $100 million in construction funding for the Columbia 
River Fish Mitigation program in the Pacific Northwest. There is $129 
million in overall funding for the ongoing effort in south Florida to 
restore, preserve and protect the Everglades. We have also budgeted $14 
million to fund our ongoing environmental restoration continuing 
authorities programs (Section 204, the Beneficial Uses of Dredged 
Materials program, Section 206, the Aquatic Ecosystem Restoration 
program, and Section 1135 Project Modifications for Improvements of the 
Environment). This funding will allow us to implement projects to 
create and restore aquatic habitats and to modify Civil Works projects 
to improve the environment.
    The Formerly Utilized Sites Remedial Action Program, FUSRAP, is an 
environmental 6 cleanup program that was transferred by Congress from 
the Department of Energy to the Army Civil Works program in the fiscal 
year 1998 Appropriations Act. We are continuing the smooth 
implementation of needed clean-up of contaminated sites, with no 
slippage of the program during the transition from DOE to the Civil 
Works program. In fact, we have exceeded the DOE schedules for the 
Middlesex, Maywood, and Wayne sites in New Jersey, and surpassed DOE's 
planned quantities of soil removed and disposed. This year's budget 
includes $150 million for this program, an increase of $10 million over 
the past two years. This will help improve the rate of cleanup for the 
sites.
                            new investments
    The fiscal year 2000 Budget for the Army Civil Works program 
provides a strong program of new work. Details are presented in Table 
B.
    Our program of new work includes one new survey and 19 new 
construction projects, 5 new operation and maintenance new starts, and 
6 new Plant Replacement and Improvement Program (PRIP) major 
acquisitions, and the Challenge 21 program.
    The Budget includes $80 million in fiscal year 2000 for the new 
investments in the construction account, including $55 million for new 
construction starts and $25 million for Challenge 21. Capital costs for 
these new investments total $1.8 billion. Of that, $1.3 billion will be 
provided by the federal government. The balance, covering costs of 
lands, easements, rights-of-way, and relocations, will be financed 
directly by non-federal sponsors.
    The 19 new construction projects include:
  --5 for commercial navigation,
  --3 for flood damage reduction,
  --2 for environmental restoration,
  --7 for major rehabilitation, and
  --2 for dam safety assurance.
         highlights of the fiscal year 2000 continuing program
                   operation and maintenance, general
    The fiscal year 2000 Budget for the Civil Works Operation and 
Maintenance, General (O&M) Program is $1.84 billion. This level of 
funding is very strong, demonstrating the Administration's commitment 
to maintaining our existing infrastructure, much of which is aging and 
requires greater upkeep. Of the $1.84 billion, $693 million would be 
for port 7 and harbor activities, derived from the proposed HSF, 
including $75 million to maintain small boat harbors, important to the 
economies of local communities. In addition, operation and maintenance 
of hydropower facilities in the Pacific Northwest will be financed by a 
transfer of approximately $107 million from the Bonneville Power 
Administration, pursuant to an agreement signed two years ago.
    The budget also provides $226 million to continue the operation and 
maintenance of recreation areas at Civil Works projects.
                         construction, general
    The fiscal year 2000 Budget for the Civil Works Construction, 
General Program is $1.24 billion, of which $1.16 billion is for the 
continuing program. Of the total, $258 million would be for port and 
harbor construction projects derived from the Harbor Services Fund, 
allowing port related projects to proceed at optimal rates. This will 
enhance the competitiveness of our Nation's ports and harbors.
    Following are highlights of the Continuing Program.
    South Florida Ecosystem Restoration.--The Everglades is an 
ecosystem of international importance. It is also one that has 
dramatically deteriorated since the turn of the century. It is very 
important that we aggressively continue the work that we have underway 
to start the process of restoring this treasure that is so important to 
the Nation. Construction funding for these projects is $110 million for 
restoration of the Everglades and South Florida Ecosystem, a major 
environmental activity to which we are strongly committed. This amount 
includes $49 million for the Central and Southern Florida project to 
continue construction work at West Palm Beach Canal, South Dade County, 
and manatee pass-through gates, as well as planning, engineering and 
design work on the Comprehensive Restoration Plan, also known as the 
``Restudy''; $40 million to continue construction on the Kissimmee 
River Restoration project; and $21 million for critical restoration 
projects authorized under the Everglades and South Florida Ecosystem 
Restoration program.
    Pacific Northwest Salmon.--The budget includes $100 million for 
Corps construction activities associated with the Columbia River Fish 
Mitigation project at 8 Corps dams on the Columbia and Snake rivers and 
to continue the mitigation analysis which evaluates additional measures 
to increase fish survival at those dams. This includes $59 million for 
studies of surface bypass facilities, drawdown of Lower Snake 
Reservoirs, John Day drawdown and hatchery mitigation, turbine passage, 
gas abatement, adult passage, and Lower Columbia configuration.
    Montgomery Point Lock and Dam.--The budget includes $20 million for 
the Montgomery Point Lock and Dam project on the McClellan-Kerr 
Arkansas River Navigation System to continue construction of the lock 
and dam. The project is programmed to be financed entirely from the 
Construction account.
    Kentucky Lock and Dam, Kentucky.--The budget includes $7.75 million 
for the Kentucky Lock and Dam project on the Tennessee River to 
continue detailed design of the new lock and to relocate the Tennessee 
Valley Authority's power transmission towers at the project site. The 
addition of a new lock will greatly reduce delays at the existing lock 
which is too small to handle modern 15 barge tows without 2 lockages.
    Olmsted Locks and Dam, Illinois and Kentucky.--The budget includes 
$28.6 million to continue construction of 2 new locks on the Ohio River 
near Olmsted, Illinois , to replace Locks 52 and 53 which are over 60 
years old. Virtually all waterway traffic moving between the Ohio and 
Mississippi Rivers passes through the project area, and both of the 
existing locks have temporary lock chambers that are inefficient. 
Projected increases in waterway traffic demands in combination with the 
limited capacity of the existing locks will result in increased lockage 
delays without the new locks.
    New York and New Jersey Harbors, New York and New Jersey.--The 
budget includes $60 million for the Kill Van Kull and Newark Bay, New 
York and New Jersey, project to continue construction of the deepening 
of 5 miles of Kill Van Kull channels and 3 miles of Newark Bay channels 
from 40 to 45 feet. The deeper project will accommodate larger, fully 
loaded, more modern containerships. The budget also includes $2 million 
for the New York Harbor and Adjacent Channels, Port Jersey Channel, New 
Jersey, project. Deepening Port Jersey channel from 35 feet to 41 feet 
will accommodate larger, deeper draft, cargo ships.
    Los Angles County Drainage Area, California.--The budget includes 
$30 million for up grading the existing system, raising channel walls 
and converting the trapezoidal channel to a rectangular channel, and 
bridge modifications. These improvements would protect residential, 
commercial, and industrial properties in Long Beach by accommodating 
the increased runoff resulting from urbanization over the past 40 
years.
    Southeast Louisiana.--The budget includes $47 million to continue 
construction activities for the Southeast Louisiana project including 
Canal 3, Suburban Canal, Elmwood Canal, Railroad Canal, Whitney 
Barataria Pumping Station in Jefferson Parish, and Napoleon Avenue 
Canal, Dwyer Road Pumping Station, and Broad Street Pumping Station in 
Orleans Parish.
    Continuing Authorities Program.--The budget includes $57 million 
for a full program of continuing and new work under the 9 activities in 
the Continuing Authorities Program. This amount includes $2.5 million 
for beach erosion control projects (Section 103), $8.5 million for 
emergency streambank and shoreline protection projects (Section 14), 
$26.9 million for flood damage reduction projects (Section 205), $0.5 
million for navigation mitigation projects (Section 111), $4.5 million 
for navigation projects (Section 107), $0.1 million for snagging and 
clearing projects (Section 208), $4.5 million for aquatic ecosystem 
restoration (Section 206), $8.5 million for project modifications for 
improvement of the environment (Section 1135), and $1 million for 
beneficial uses of dredged material (Section 204).
                         general investigations
    The Budget for the Civil Works General Investigations (GI) Program 
is $135 million. While this is a lower level than usual, it is a key 
element of our plan to stabilize the Civil Works budget in the future. 
The study program feeds the pipeline of construction work. There is a 
large amount of construction work already waiting for funding--far more 
than the funds we can reasonably expect in the future. This budget cuts 
back on project study funding, in order to reduce the backlog of 
potential construction projects that are beyond our capacity to budget 
within a reasonable time frame. Once the backlog of costly projects is 
reduced, then we would be able to resume funding for studies at a 
higher level.
    We believe that cutting back on study funding on a temporary basis 
is the right thing to do for our local sponsors, who expect timely 
construction of projects, once studies are completed and the projects 
are authorized.
                           regulatory program
    The fiscal year 2000 Budget for the Civil Works Regulatory Program 
is $117 million, an increase of $11 million over the enacted level of 
fiscal year 1999 funding. This will ensure that we continue to provide 
for effective and equitable regulation of the Nation's waters, 
including wetlands. Through the Regulatory Program the Corps is 
committed to serving the public in a fair and reasonable manner while 
protecting the aquatic environment, as required by laws and 
regulations. In fiscal year 1998, the Regulatory Program authorized 
90,000 activities in writing, the most in any year, and nearly 95 
percent of all actions were authorized in less than 60 days.
    One of the goals of the Corps is to help people find solutions to 
their problems. In this program, we are proud that we not only protect 
our vital aquatic resources, but we try to 10 help people, within the 
law, to find environmentally sustainable solutions to their problems. 
This budget will ensure that this level of service is maintained and 
improved, even with an increasing volume of work. The proposed increase 
would also enable the Corps to broaden its partnerships with States and 
local communities through watershed planning efforts.
    We will also continue to pursue important initiatives as part of 
the Regulatory Program. For example, under the Regulatory Program, we 
are also active in the preparation of Special Area Management Plans 
(SAMPs) to address development in environmentally sensitive areas. With 
the amount included in the President's Budget, we will establish a full 
administrative appeals process that will allow the public to challenge 
permit decisions and jurisdiction determinations without costly, time-
consuming litigation.
    Again this year, we are proposing a reasonable increase in the 
permit application fees for commercial applicants as a means to offset 
a portion of the costs of the Regulatory Program. We are prepared to 
work closely with this Committee and the public to ensure that any 
revisions that we may adopt are reasonable.
                               conclusion
    In summary, the President's fiscal year 2000 budget for the Army 
Civil Works Program is a good one. It demonstrates a commitment to 
Civil Works missions, with strong support for all programs, a plan to 
solve the constitutional problem with the existing Harbor Maintenance 
Tax, an especially strong program of new construction, a firm 
commitment to maintaining existing water resource management 
infrastructure, and increased application of Civil Works Program 
expertise to environmental protection and restoration.
    Thank you Mr. Chairman; Members of the Subcommittee. This concludes 
my statement.

                                  TABLE A--DEPARTMENT OF THE ARMY--CORPS OF ENGINEERS CIVIL WORKS--FISCAL YEAR 2000 DIRECT PROGRAM--PRESIDENT'S PROGRAM FUNDING
                                                                                    [In thousands of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                    Fund
                                          ------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Special                                   Trust                        General
                 Program                  -------------------------------------------------------------------------------------------------------------                     Trust--
                                                                      Permit                 Coastal                                                    Transfer--Bnnvll  Rivers and     Total
                                              Harbor      Permanent  applctn.    Rcrtn.     wetlands     Harbor     Inland   Ultimate \4\  Initial \5\   Power Admnstrtn    harbors
                                           services \1\  apprprtns.  fees \2\   user fees  rstrtn \3\    mntnnc    waterway                                                cntrbtns
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
COMBINED (discretionary and mandatory):
    DEFENSE: Formerly Utilized Sites       ............  ..........  ........  ..........  ..........  ..........  ........      150,000       150,000  ................  ..........     150,000
     Remedial Action Program.............
    DOMESTIC:
        General Investigations...........  ............  ..........  ........  ..........  ..........  ..........  ........      135,000       135,000  ................      39,827     174,827
        Construction, General............      257,700   ..........  ........  ..........  ..........  ..........    55,000      927,200     1,239,900  ................     156,786   1,396,686
        Operation and Maintenance,             692,900   ..........  ........      35,700  ..........  ..........  ........    1,107,300     1,835,900        107,000          8,055   1,950,955
         General.........................
        Flood Control, Mississippi River   ............  ..........  ........  ..........  ..........  ..........  ........      280,000       280,000  ................      45,673     325,673
         and Tributaries Pro-  ject......
        Regulatory Program...............  ............  ..........     7,000  ..........  ..........  ..........  ........      117,000       117,000  ................  ..........     117,000
        General Expenses.................  ............  ..........  ........  ..........  ..........  ..........  ........      148,000       148,000  ................  ..........     148,000
        Flood Control and Coastal          ............  ..........  ........  ..........  ..........  ..........  ........  ............  ...........  ................  ..........  ..........
         Emergencies.....................
        Revolving Fund...................  ............  ..........  ........  ..........  ..........  ..........  ........  ............  ...........  ................  ..........  ..........
        Coastal Wetlands Restoration.....  ............  ..........  ........  ..........      54,180  ..........  ........  ............  ...........  ................         800      10,800
        Permanent Appropriations.........       18,576   ..........  ........  ..........  ..........  ..........  ........  ............  ...........  ................  ..........      18,576
                                          ------------------------------------------------------------------------------------------------------------------------------------------------------
    ALL..................................      950,600      18,576      7,000      35,700      54,180  ..........    55,000    2,864,500     3,905,800        107,000        251,141   4,292,517
DISCRETIONARY............................  ............  ..........  ........  ..........  ..........  ..........  ........    2,864,500     2,864,500  ................  ..........   2,864,500
MANDATORY................................      950,600      18,576      7,000      35,700      54,180  ..........    55,000  ............    1,041,300        107,000        251,141  1,428,017
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Proposed special fund to replace Harbor Maintenance Trust Fund.
\2\ Proposed fees for processing permit applications, to be paid to General Fund receipt account, not available to Corps.
\3\ Total for interagency task force; Corps' piece of $10 million is reflected under Total.
\4\ Net direct Congressional appropriation after reimbursement from mandatory Special and Trust funds, as applicable.
\5\ Direct Congressional appropriation. The total for all accounts comes from the General Fund, initially. Ultimately, it is reimbursed from mandatory accounts in the amount shown opposite
  Mandatory.


   TABLE B--DEPARTMENT OF THE ARMY--CORPS OF ENGINEERS CIVIL WORKS--FISCAL YEAR 2000 DIRECT PROGRAM--PRESIDENT'S NEW STARTS AND OTHER NEW WORK PROGRAM
                                                                         FUNDING
                                                                 [Dollars in thousands]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                 FUNDING
                                               ---------------------------------------------------------------------------------------------------------
                                                                     First cost                                          Budget year
           ACCOUNT/CATEGORY             Number ---------------------------------------------------------------------------------------------------------
                                                                      Federa;                                              Federa;
                                                   Total   ----------------------------- Nonfederal     Total   ----------------------------- Nonfederal
                                                                GF      HSF     IWTF                                 GF      HSF     IWTF
--------------------------------------------------------------------------------------------------------------------------------------------------------
        GENERAL INVESTIGATIONS
 
Surveys: Santa Inez River, CA........        1        $100        $100  ...  ..........  ..........        $100        $100  ...  ..........  ..........
 
        CONSTRUCTION, GENERAL
 
Projects:
    Regular:
        Environmental:
            Cheyenne River Sioux             1     108,000     108,000  ...  ..........  ..........       2,000       2,000  ...  ..........  ..........
             Tribe, Lower Brule
             Sioux, ND...............
            Willamette River                 1      70,600      70,600  ...  ..........  ..........       1,700       1,700  ...  ..........  ..........
             Temperature Control, OR.
        Flood Protection:
            Arecibo River, PR........        1      23,100      12,500  ...  ..........     $10,600       8,742       2,500  ...  ..........      $6,242
            Grand Forks, ND--East            1     350,250     175,900  ...  ..........     174,350      30,600      10,000  ...  ..........      20,600
             Grand Forks, MN.........
            Napa River, CA...........        1     182,000      91,000  ...  ..........      91,000      42,528       4,500  ...  ..........      38,028
        Navigation:
            Baltimore Harbor and             1      14,035      10,530  ...  ..........       3,505      13,083       9,578  ...  ..........       3,505
             Channels, MD, Brewerton
             Channel.................
            Kikiaola Small Boat              1       5,653       4,997  ...  ..........         656         185          75  ...  ..........         110
             Harbor, Kauai, HI.......
            Neches River and                 1      55,860      41,895  ...  ..........      13,965       5,661       2,000  ...  ..........       3,661
             Tributaries Saltwater
             Barrier, TX.............
            Port Fourchon, LA........        1       4,930       2,557  ...  ..........       2,373       4,557       2,184  ...  ..........       2,373
            Santa Barbara Harbor, CA.        1       6,700       5,360  ...  ..........       1,340       6,300       4,960  ...  ..........       1,340
                                      ------------------------------------------------------------------------------------------------------------------
              All (Regular Projects).       10     821,128     523,339  ...  ..........     297,789     115,356      39,497  ...  ..........      75,859
    Major Rehabilitation:
        Cape Cod Canal Railroad              1      30,500      30,500  ...  ..........  ..........       5,000       5,000  ...  ..........  ..........
         Bridge, MA..................
        John H. Kerr Powerhouse, VA &        1      59,600      59,600  ...  ..........  ..........       1,400       1,400  ...  ..........  ..........
         NC..........................
        Lock and Dam 12, Mississippi         1      15,500       7,750  ...      $7,750  ..........       2,600       1,300  ...      $1,300  ..........
         River, IA...................
        Lock and Dam 24, Part 2,             1      38,400      19,200  ...      19,200  ..........       1,200         600  ...         600  ..........
         Mississippi River, IL & MO..
        London Locks and Dam, Kanawha        1      20,300      10,150  ...      10,150  ..........         600  ..........  ...         600  ..........
         River, WV...................
        Patoka Lake, IN..............        1       7,200       7,200  ...  ..........  ..........       2,000       2,000  ...  ..........  ..........
        Walter F. George Powerhouse          1      37,000      37,000  ...  ..........  ..........         750         750  ...  ..........  ..........
         and Dam, AL & GA............
                                      ------------------------------------------------------------------------------------------------------------------
          All (Major Rehabilitation          7     208,500     171,400  ...      37,100  ..........      13,550      11,050  ...       2,500  ..........
           Projects).................
    Dam Safety Assurance:
        Bluestone Lake, WV...........        1     107,300     107,300  ...  ..........  ..........         750         750  ...  ..........  ..........
        Success Dam, CA..............        1      30,900      30,900  ...  ..........  ..........       1,250       1,250  ...  ..........  ..........
                                      ------------------------------------------------------------------------------------------------------------------
          All (Dam Safety Assurance          2     138,200     138,200  ...  ..........  ..........       2,000       2,000  ...  ..........  ..........
           Projects).................
                                      ------------------------------------------------------------------------------------------------------------------
          All (Projects).............       19   1,167,828     832,939  ...      37,100     297,789     130,906      52,547  ...       2,500      75,859
    Program: Riverine Ecosystem              1     654,000     425,000  ...  ..........     229,000      35,000      25,000  ...  ..........      10,000
     Restoration and Flood Hazard
     Mitigation Program..............
                                      ------------------------------------------------------------------------------------------------------------------
      All (Projects and Program).....       20   1,821,828   1,257,939  ...      37,100     526,789     165,906      77,547  ...       2,500      85,859
 
  OPERATION AND MAINTENANCE, GENERAL
Dredge Wheeler Ready Reserve \1\.....        1  ..........  ..........  ...  ..........  ..........      12,450      12,450  ...  ..........  ..........
Management Tools for Operation and           1       2,265       2,265  ...  ..........  ..........         975         975  ...  ..........  ..........
 Management..........................
National Dam Security Program \1\....        1  ..........  ..........  ...  ..........  ..........          20          20  ...  ..........  ..........
Wetlands Functional Assessment               1       7,398       7,398  ...  ..........  ..........       1,000       1,000  ...  ..........  ..........
 Methodology.........................
Zebra Mussel Research Program........        1      13,378      13,378  ...  ..........  ..........       1,500       1,500  ...  ..........  ..........
                                      ------------------------------------------------------------------------------------------------------------------
      All (Remaining Items)..........        5      23,041      23,041  ...  ..........  ..........      15,945      15,945  ...  ..........  ..........
 
            REVOLVING FUND
 
Plant Replacement and Improvement
 Program (PRIP) Major Acquisitions
 \2\
    Towboat RAYMOND C. PECK                  1       5,500       5,500  ...  ..........  ..........       5,160       5,160  ...  ..........  ..........
     Replacement.....................
    Fuel Oil Barge Replacement.......        1       1,495       1,495  ...  ..........  ..........       1,390       1,390  ...  ..........  ..........
    Survey Boat GRANADA Replacement..        1       1,533       1,533  ...  ..........  ..........       1,285       1,285  ...  ..........  ..........
    Derrickboat NO. 6 Replacement....        1         775         775  ...  ..........  ..........         660         660  ...  ..........  ..........
    PANAMA CITY Crane Barge                  1       6,400       6,400  ...  ..........  ..........         125         125  ...  ..........  ..........
     Replacement.....................
    Survey Boat GATLIN Replacement...        1       1,800       1,800  ...  ..........  ..........       1,550       1,550  ...  ..........  ..........
                                      ------------------------------------------------------------------------------------------------------------------
      All (PRIP Major Acquisitions)..        6      17,503      17,503  ...  ..........  ..........      10,170      10,170  ...  ..........  ..........
                                      ------------------------------------------------------------------------------------------------------------------
      ALL............................       32   1,862,472   1,298,583  ...      37,100     526,789     192,121     103,762  ...       2,500     85,859
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2000 funding reflects annual requirement.
\2\ Funding is available from the Revolving Fund.


   TABLE C--DEPARTMENT OF THE ARMY--CORPS OF ENGINEERS CIVIL WORKS--FISCAL YEAR 2000 TOTAL (DIRECT AND REIMBURSED) PROGRAM--PRESIDENT'S ENVIRONMENTAL
                                                                     PROGRAM FUNDING
                                                                [In thousands of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                             Fiscal year
                                            ------------------------------------------------------------------------------------------------------------
                  Category                                    Appropriation                                       Budget 2000 account
                                            ------------------------------------------------------------------------------------------------------------
                                                1996        1997         1998        1999         All         GI          C,G        O&M,G      Others
--------------------------------------------------------------------------------------------------------------------------------------------------------
DIRECT PROGRAM:
    DISCRETIONARY PROGRAM:
        STUDY AND PROJECT SPECIFIC
         ACTIVITIES:
            MITIGATION.....................     156,010     177,515      128,933     156,840     148,769       3,887     141,516  ..........       3,366
            RESTORATION....................     105,752      74,031      181,516      82,289     138,940      15,584      97,154      10,702      15,500
            PROTECTION.....................      79,450      90,594      126,875      81,852      86,319         459       3,909      74,044       7,907
            CLEANUP........................      12,020       3,458          317         540  ..........  ..........  ..........  ..........  ..........
            COMPLIANCE.....................       9,864         360          395       2,480       1,327         304         468  ..........         555
                                            ------------------------------------------------------------------------------------------------------------
              ALL (Study and Project            363,096     345,958      438,036     324,001     375,355      20,234     243,047      84,746      27,328
               Specific Activities)........
        PROGRAMMATIC ACTIVITIES:
            1AQUATIC PLANT CONTROL.........       4,000       2,000        5,000       3,000       3,000  ..........       3,000  ..........  ..........
            AQUATIC ECOSYSTEM RESTORATION    ..........  ..........        6,000      11,200       4,500  ..........       4,500  ..........  ..........
             (SEC 206).....................
            BENEFICIAL USES OF DREDGED            2,500       1,500        2,000         350       1,000  ..........       1,000  ..........  ..........
             MATERIAL (SEC 204)............
            DREDGING OPERATIONS AND          ..........       1,500        4,000       5,000       8,000  ..........  ..........       8,000  ..........
             ENVIRONMENTAL RESEARCH (DOER).
            ENVIRONMENTAL DATA STUDIES.....  ..........         100          100         100         100         100  ..........  ..........  ..........
            ENVIRONMENTAL INFRASTRUCTURE...  ..........  ..........        5,000  ..........  ..........  ..........  ..........  ..........  ..........
            ENVIRONMENTAL REVIEW GUIDE FOR   ..........  ..........  ...........  ..........  ..........  ..........  ..........  ..........  ..........
             OPERATIONS (ERGO).............
            FORMERLY UTILIZED SIRTES         ..........  ..........  \1\ 162,718     140,000     150,000  ..........  ..........  ..........     150,000
             REMEDIAL ACTION PROGRAM
             (FUSRAP)......................
            GREAT LAKES REMEDIAL ACTION             500         500          500         500  ..........  ..........  ..........  ..........  ..........
             PROGRAM (SEC 401).............
            HAZARDOUS WASTE SITE                  3,500  ..........  ...........  ..........  ..........  ..........  ..........  ..........  ..........
             RESTORATION INITIATIVE........
            NATIONAL RECREATION MANAGEMENT   ..........  ..........  ...........       1,000  ..........  ..........  ..........  ..........  ..........
             SUPPORT (NRMS)................
            NATURAL RESOURCES TECHNICAL      ..........  ..........          700  ..........  ..........  ..........  ..........  ..........  ..........
             SUPPORT (NRTS)................
            OIL SPILL RESEARCH PROGRAM.....         850  ..........  ...........  ..........  ..........  ..........  ..........  ..........  ..........
            POLLUTION PREVENTION PROGRAM...       5,000  ..........  ...........  ..........  ..........  ..........  ..........  ..........  ..........
            PROJECT MODIFICATION FOR             10,850      17,000       21,175      11,000       8,500  ..........       8,500  ..........  ..........
             IMPROVEMENT OF THE ENVIRONMENT
             (SEC 1135)....................
            REGULATORY PROGRAM.............     101,000     101,000      106,000     106,000     117,000  ..........  ..........  ..........     117,000
            RESEARCH AND DEVELOPMENT.......       8,331      10,399       17,450      19,450      18,000       4,500       3,000      10,500  ..........
            RIVERINE ECOSYSTEM RESTORATION   ..........  ..........  ...........  ..........      25,000  ..........      25,000  ..........  ..........
             AND FLOOD HAZARD MITIGATION...
            WETLAND AND AQUATIC HABITAT           2,500  ..........  ...........  ..........  ..........  ..........  ..........  ..........  ..........
             CREATION......................
            WETLANDS FUNCTIONAL ASSESSMENT   ..........  ..........  ...........  ..........       1,000  ..........  ..........       1,000  ..........
             METHODOLOGY...................
            ZEBRA MUSSEL RESEARCH PROGRAM..  ..........  ..........  ...........       1,500       1,500  ..........  ..........       1,500  ..........
                                            ------------------------------------------------------------------------------------------------------------
              ALL (Programmatic Activities)     135,031     131,999      325,643     296,100     334,600       4,600      42,000      21,000     267,000
                                            ------------------------------------------------------------------------------------------------------------
              ALL (Study and Project            498,127     477,957      763,679     620,101     709,955      24,834     285,047     105,746     294,328
               Specific and Programmatic
               Activities).................
    MANDATORY PROGRAM: COASTAL WETLANDS          35,000      43,000       44,000      10,000      10,000  ..........  ..........  ..........      10,000
     PLANNING, PROTECTION, AND RESTORATION.
                                            ------------------------------------------------------------------------------------------------------------
      ALL (Discretionary and Mandatory          533,127     520,957      807,679     630,101     719,955      24,834     285,047     105,746     304,328
       Programs)...........................
REIMBURSED PROGRAM (SUPPORT FOR OTHERS):
    EPA SUPERFUND..........................     250,000     250,000      300,000     250,000     250,000  ..........  ..........  ..........     250,000
    DEPARTMENT OF ENERGY...................      31,000      20,000       22,000       2,000  ..........  ..........  ..........  ..........
    OTHER GOVERNMENTAL AGENCIES............      65,000      45,000       35,000      11,000       8,000  ..........  ..........  ..........       8,000
                                            ------------------------------------------------------------------------------------------------------------
      ALL (Reimbursed Program).............     346,000     315,000      357,000     263,000     258,000  ..........  ..........  ..........     258,000
      ALL (Direct and Reimbursed Programs).     879,127     835,957    1,164,679     893,101     977,955      24,834     285,047     105,746    562,328
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes $22,718 in unpaid balance transferred from Department of Energy.

                      statement of joe n. ballard

    Senator Domenici. Thank you very much, Mr. Secretary.
    With the committee's indulgence, we will have General 
Ballard testify, and then we will inquire. General Ballard, it 
is nice to have you here.
    General Ballard. Thank you very much, Mr. Chairman and 
members of the subcommittee. I am pleased to be testifying on 
the President's fiscal year 2000 budget for the civil works 
program. I am again honored to be appearing before you again as 
Chief of Engineers.
    Today the Corps' civil works program is strong and highly 
productive, and I thank you for your great support for this 
critical program that is really an investment in our Nation's 
future. This budget request is, I believe, more constructive 
than the one presented a year ago, setting the stage for an 
effective dialogue with the Congress on appropriate funding 
levels.
    Mr. Chairman, with your permission, I will now summarize my 
complete statement and submit that statement for the record. My 
summary covers four topics: transformation of the Corps, the 
civil works program execution, the FUSRAP program, and some 
selected civil works issues.
    Mr. Chairman, I would like to begin with a short discussion 
of what is happening inside of the Corps. We are very proud of 
what we have accomplished, and there is still much more to 
come. Several years ago, we developed a vision and a strategic 
management process. Our intent was to transform the Corps into 
an organization ready to take on the challenges of the 21st 
century.
    In the last 2 years, we have----
    Senator Domenici. General, could you excuse me just one 
moment?
    General Ballard. Yes.
    Senator Domenici. Would one of you take my place while I go 
to the Commerce, Justice appropriations? Senator Bennett, would 
you chair? I will be back shortly.
    Senator Bennett. Yes.
    Senator Domenici. Thank you very much.
    Thank you, General.
    General Ballard. Yes, sir.

                   efficiency and responsive measures

    I will continue, sir. In the last 2 years, we have worked 
diligently to become more client focused, dramatically changing 
our internal processes to become more responsive and cost 
efficient, and to take advantage of changes in technology. Now, 
a lot of time and energy was invested up front, and we are now 
beginning to see the payoff. Time does not permit me to get 
into very much depth, but I would like to give you a few 
snapshots of our progress.

                           project management

    In the area of project management, we have fully 
implemented the project management concept providing our 
clients one point of contact and responsibility for Corps 
projects and programs. This has greatly enhanced our 
relationship with our clients, and at the same time, it 
integrated the resources of the organization to focus on 
quality projects delivered on time and within budget.
    In the past, we forced our customers to understand our 
internal organization and navigate the different stovepipes, 
doing their own coordination. Now our customers will go to 
their supporting districts who have the responsibility to 
deliver whatever is needed, accomplishing all coordination and 
integration seamlessly and transparently.
    We are relooking our entire planning process from the time 
a project is identified until the project cost-sharing 
agreement is signed. This area has been particularly 
frustrating for our clients and for us. The process simply 
takes too long. It is too bureaucratic and too costly. We have 
approved for implementation the recommendation of a process 
action team to streamline the process, to minimize the burden 
on local sponsors, and delegate most of the approval and 
execution authority to divisions and districts, thus expediting 
agreements. We have also made significant changes to our 
continuing authorities program to simplify, expedite, and make 
it more user friendly. And these efforts are only the 
beginning.
    We are reevaluating our organization at every level. Over 
the past few years, our General Expense staffing has declined 
from 1,368 in fiscal year 1996 to 1,181 in fiscal year 1999. 
Now, that is a 14-percent reduction at the same time we have 
had an increase in workload. As you know, we have reduced the 
number of divisions from 11 to 8 and continue our downsizing of 
division staffs. We are also reducing headquarters staffing. By 
Washington standards, we were already a lean headquarters 
before we started this process, at less than 2 percent of the 
total work force.
    I could go on about changes inside of the Corps. I hope 
that this will give you some insight into a much larger process 
that will continue to accelerate over the next few years.
    Now, let me turn now to some ongoing execution of our civil 
works program.

                           program execution

    Efficient and responsive execution continue to be a very 
important priority of the Secretary and mine. In fiscal year 
1998, we increased our expenditure execution by $400 million 
over what has been a flat execution of about $3.7 billion for 
each of the preceding 3 years. In fiscal year 1999, we have 
scheduled an additional $500 million in expenditures, meaning 
that we will have increased the Corps' capacity by $900 million 
in just 2 years, while maintaining the quality and the 
professional standards that have marked our work for many 
years.
    But in spite of that record, I am not yet satisfied with 
our execution rate. We will continue to examine and evaluate 
ways to expedite our projects from start to finish.

                             fusrap program

    I would like to report on our progress in the FUSRAP 
program. We have accomplished our first two priorities in the 
FUSRAP program, following transfer of execution from the 
Department of Energy. We have maintained the anticipated 
schedule during the transition period and have put a number of 
cost saving measures in place.
    In fiscal year 1999, we expect to complete remedial action 
at 2 sites and to accomplish work on schedule for 19 other 
sites.
    The highest priority actions are those to remove potential 
risks to the health of the environment. Budget funding will 
enable completion of remedial action at 3 sites and continued 
work at 16 others. At the current rate of funding, we should 
complete all of our sites by the year 2010. This program is a 
real success story. I am very proud of our contribution to the 
Nation and our track record on this program.
    As in any large and complex program, there are a few areas 
that need some attention, so let me highlight a few that may be 
of some interest.

                           regulatory program

    In the regulatory funding and appeals, this is an area that 
we are really struggling with. Our funding level to date has 
only been enough to provide the most basic level of permit 
review and response to the public. Trying to meet your intent, 
we are implementing a limited appeals process this year. The 
proposed funding level for next year will permit us to 
implement the complete regulatory appeals process.

                   operation and maintenance program

    In the area of operation and maintenance, the O&M level of 
funding proposed for this year is for the first time adequate 
to meet our current O&M needs. However, we have a large backlog 
of maintenance and repair for our infrastructure. During this 
year, O&M will be an area of significant focus for us. We will 
look at every single area for ways to reduce our operating 
costs, accomplish needed maintenance and repair and improve our 
services.

                        general expense account

    On the subject of GE funding, earlier in my statement I 
extolled our progress in reducing division and headquarters 
staff. We have made great progress in this area, but I do not 
believe we can go any lower. Since 1991, we have reduced GE 
staffing levels by almost 33 percent. I am convinced that we 
must hold at the current staffing level to provide for program 
direction and oversight, for which you and the public rely on 
us.
    Mr. Chairman, in conclusion, the President's budget for the 
Corps of Engineers is a good one. Using our strategic 
management process, we will continue to find ways to reduce our 
costs and improve our level of responsiveness to the public and 
our clients. Meanwhile, we will do our very best to execute the 
civil works program for maximum benefit to the Nation.

                           prepared statement

    Thank you, Mr. Chairman and members of the committee. This 
concludes our statement, and we are now ready to take your 
questions.
    [The statement follows:]

                  Prepared Statement of Joe N. Ballard

                              introduction
    I am pleased to be testifying on the President's fiscal year 2000 
(fiscal year 2000) Budget for the Civil Works Program, and am honored 
to be appearing before you again as Chief of Engineers.
    Today, the Civil Works Program is strong, balanced, and highly 
productive. I look forward to your continued partnership in this fine 
program, so broadly beneficial to our Nation.
    My statement covers seven topics:
  --Fiscal year 2000 Civil Works Program Budget,
  --Program Execution and Outlook,
  --Restructuring,
  --Improvement of Business Operations,
  --Corps of Engineers Financial Management System,
  --Corps Vision, and
  --Headquarters Relocation Planning.
              fiscal year 2000 civil works program budget
                              introduction
    This is a good budget. New fiscal year 2000 funding for the Civil 
Works Program, including the Direct and Reimbursed programs, is 
expected to approach $5.10 billion.
    The Direct Program is formulated by the federal government and 
funded through appropriations of discretionary and mandatory amounts 
directly to the Corps. Funding for this program totals $4.29 billion. 
Discretionary amounts total $3.91 billion, including defense and 
domestic program components of $150 million and $3.76 billion, 
respectively. The defense component is for the Formerly Utilized Sites 
Remedial Action Program (FUSRAP), transferred from the Department of 
Energy to the Corps by Congress in the Energy and Water Development 
Appropriations Act, 1998.
    The Reimbursed Program is formulated, under provisions of law, by 
the Corps in collaboration with other federal agencies, State and local 
governments, and other nations. It is funded in either of two ways: 
from discretionary amounts of the Direct Program, initially, and, 
ultimately, through reimbursement by the ordering agencies, 
governments, and nations; or by advance payments by the agencies, 
governments, and nations. Funding for this program is projected to be 
$800 million.
    Direct Program
                                overview
    The proposed fiscal year 2000 Civil Works Direct Program budget 
reflects the Administration's commitment to continued sound development 
and management of the Nation's water resources, to which the Corps has 
been dedicated for over 200 years. It provides for continued efficient 
operation of the Nation's navigation, flood protection, and other water 
resource management infrastructure, fair regulation of the Nation's 
wetlands, and restoration of the Nation's important environmental 
resources, such as the Florida Everglades. It provides for initiation 
of a new program to restore riverine ecosystems while mitigating flood 
hazards for communities. Additionally, it is supported by a proposal to 
establish a Harbor Services User Fee (HSUF) and Harbor Services Fund 
(HSF) to fund the federal share of construction cost, as well as 
operation and maintenance of our harbors and ports. Lastly, it is 
consistent with the President's overall domestic priorities and 
continued commitment to a balanced budget. The budget provides for 
continued funding of nearly all studies and projects underway, 
including many started in fiscal year 1999. It also provides for 
funding of new starts under the General Investigations (GI), 
Construction, General, (CG), and Operation and Maintenance, General 
(O&M) programs, and the Plant Replacement and Improvement Program 
(PRIP) of the Revolving Fund.
    The new start program includes 1 new reconnaissance study. 
Additionally, 27 preconstruction engineering and design studies, 
following cost-shared feasibility studies, are being funded for the 
first time.
    The new start program also includes new construction projects and 
one new program. The projects include 19 specifically authorized by 
Congress and an undetermined number generally authorized under the 
Continuing Authorities Program (CAP). The specifically authorized 
projects include 10 regular construction projects, 7 major 
rehabilitation projects, and 2 dam safety assurance projects. The 
regular construction projects include 5 for navigation, 3 for flood 
control, and 2 for environmental improvement. The new program is the 
Riverine Ecosystem Restoration and Flood Hazard Mitigation Program, 
also known as ``Challenge 21.''
    Additionally, the new start program includes 5 new operation and 
maintenance items and 6 new PRIP major acquisitions construction 
projects.
                              new funding
    As shown in the table at the end of this statement, the fiscal year 
2000 budget includes $3.91 billion in ``Discretionary and Related 
Mandatory'' funding being requested through the fiscal year 2000 Energy 
and Water Development Appropriations Act. All amounts shown under this 
heading are appropriated from the General Fund; however, amounts shown 
under the CG and O&M accounts opposite the names of other funds are 
ultimately reimbursed from those other funds. Accordingly, $1.04 
billion, or 27 percent, of the amount requested would be offset with 
dedicated funding from the HSF ($951 million), Inland Waterway Trust 
Fund (IWTF) ($55 million), and Special Recreation User Fees (SRUF) Fund 
($36 million). Funding for the GI, CG, and Flood Control, Mississippi 
River and Tributaries (FC, MR&T) Programs, in which new study and 
construction starts are common, totals $1.65 billion. Of this, $80 
million, or 5.0 percent, is provided to fund the new study and 
construction starts mentioned above, including Challenge 21.
    In addition, as shown in the table, the budget includes $387 
million in ``Mandatory, Only,'' funding to be made available under 
existing law. This includes $251 million from the Rivers and Harbors 
Contributions Trust Fund (R&HCTF), representing nonfederal costsharing 
contributions paid under 5 programs (the GI; CG; O&M; FC,MR&T Project; 
4 and CWPPR Project programs). It also includes $107 million to be 
transferred from the Bonneville Power Administration (BPA) for 
operation and maintenance of the Corps' hydropower generation 
facilities in the Pacific Northwest.
Comparison with Fiscal Year 1999 Funding
    As shown in the table, new direct funding for the fiscal year 2000 
budget is $83 million less than initial appropriations for fiscal year 
1999.
    Discretionary and related mandatory funding is $54 million less 
than, or 99 percent of, last year's initial appropriations. It was 
increased for three accounts, unchanged for two, and decreased for 
three others. Accounts increased include FUSRAP (107 percent), O&M (111 
percent), and the Regulatory Program (110 percent); unchanged include 
GE and FC&CE; and decreased include GI (83 percent), CG (87 percent), 
and FC,MR&T (87 percent).
    New mandatory, only, funding is $28 million less than, or 93 
percent of, last year's appropriations, largely because of decreased 
R&HCTF costsharing contributions.
    Outlays of discretionary funding for fiscal year 2000 are expected 
to be about $218 million less than for fiscal year 1999, commensurate 
with the reduction in funding.
Net New Funding
    Of the $4.29 billion in total new direct funding, $1.43 billion, or 
33 percent, would come from 9 sources other than Treasury's General 
Fund, yielding net new funding not specifically collected for the 
program of $2.96 billion. These sources--8 existing and 1 proposed--
include 5 special and 3 trust funds, and 1 transfer. The largest 
amounts would come from the proposed HSF ($951 million, including $258 
million for the CG and $693 million for the O&M programs). Sizeable 
amounts would also come from the IWTF ($55 million) and SRUF Fund ($36 
million). The balance of $387 million would come from the 6 mandatory, 
only, sources.
    We are also proposing changes to the fees collected under the 
Regulatory Program. These fees would be transferred to a General Fund 
receipt account and would be unavailable to the Corps. The collections 
are now projected to be $7 million in fiscal year 2000 and, annually, 
thereafter. We have scaled back this initiative considerably, and 
anticipate collecting only about half as much as we had proposed 
previously. Although unavailable to the Corps for its use, the 
collections would reduce net federal costs.
Highlights
    The budget provides for essentially ``flat'' annual funding for the 
5-year program at the fiscal year 2000 level, which is 99 percent of 
fiscal year 1999 initial appropriations. Moreover, it provides 
essentially flat annual funding by individual program for the 5-year 
program. Generally, work completion schedules will be shortened 
somewhat from those presented last year. A notable exception is that 
schedules of the GI Program will be lengthened somewhat.
    Proposed funding for the GI Program is 90 percent of fiscal year 
1999 budgeted funding. The rationale for this is that studies lead to 
construction projects of which there is already a large backlog due to 
competing funding priorities. Given outyear funding ceilings based on 
these priorities, reduction of this large backlog will be possible only 
over several years. In light of this, limiting the number of new start 
studies and setting priorities among ongoing ones appears advisable, 
for the time being. However, in that programmatic activities such as 
floodplain management, planning assistance, and international water 
studies provide important grass-roots support to local communities in 
solving their water resource problems, they were funded at 
approximately fiscal year 1999 appropriation levels.
    The proposed HSF will replace the Harbor Maintenance Trust Fund 
(HMTF). The HMTF was funded with an ad valorem tax on freight shipped 
through the Nation's harbors and ports. This tax was determined to be 
unconstitutional, as applied to exports, by the U. S. Supreme Court. 
The HSF will be funded with fees collected from commercial users of the 
harbors and ports, the rationale being that beneficiaries should be 
responsible for costs. The fees will be based on the values of benefits 
that users receive from services provided, and will be sufficient to 
cover federal costs of harbor and port construction, operation, and 
maintenance. The rates of the fees will vary based on types and 
carrying capacities of vessels involved. The proposal will enable 
nearly all construction, operation, and maintenance of harbors and 
ports to proceed on optimal schedules.
    Proposed fiscal year 2000 funding for the CG Program is 154 percent 
of fiscal year 1999 budgeted funding. Much of the increase is due to 
dedicated funding from the proposed new HSF. This dedicated funding 
covers 100 percent of costs of harbor and port construction. Because of 
this, completion schedules for 28 harbor and port development projects 
have been optimized. This will enable accomplishing more work sooner, 
thereby producing navigation benefits and resultant cost savings 
sooner. In addition, completion schedules for 9 high priority projects 
for mitigation, ecosystem restoration, and other purposes have been 
optimized. On the other hand, completion schedules for flood damage 
reduction, inland waterway, and shore protection projects are somewhat 
constrained.
    Proposed fiscal year 2000 funding for the O&M Program is 115 
percent of fiscal year 1999 budgeted funding. All 6 of this increase is 
due to dedicated funding from the HSF which will cover 100 percent of 
costs of harbor and port operation and maintenance. The increase in 
funding will help improve current services.
                           reimbursed program
    Through the Interagency and Intergovernmental Support Program we 
help other agencies and governments with timely, cost-effective 
implementation of their programs, while maintaining and enhancing 
capabilities for execution of our Civil Works Direct Program and 
Military Program missions. Other agencies look to us for help with 
engineering and construction management because of our vast experience 
and capabilities, enabling us to do the work better, faster, and 
cheaper.
    We provide reimbursable support for about 60 other federal agencies 
and several State and local governments through help with 
environmental, engineering, and construction management work. Total 
reimbursement for such work in fiscal year 2000 is projected to be $800 
million. The largest share--nearly $250 million--is expected from the 
Environmental Protection Agency (EPA) for cleanup of wastes at numerous 
sites under its Superfund program. 98 percent of Reimbursed Program 
funding is provided by federal agencies.
                                staffing
    Total staffing for the Civil Works Program for fiscal year 2000 is 
24,734 FTEs. This reflects a reduction of 462 FTEs from the fiscal year 
1999 total. Of the total, 23,584 FTEs are for the Direct Program and 
1,150 FTEs are for the Reimbursed Program. Total staffing is allocated 
90.6 percent to districts, 4.9 percent to laboratories and other 
separate field operating agencies, 2.7 percent to division offices, and 
1.8 percent to headquarters.
                     program execution and outlook
                              introduction
    Efficient and responsive execution of the program that Congress 
made appropriations for continues to be a very important priority of 
mine as Chief of Engineers. In fiscal year 1998, we increased our 
expenditure execution by $400 million over what had been a flat 
execution of about $3.7 billion for each of the preceding three years. 
In fiscal year 1999, we have 7 scheduled an additional $500 million in 
expenditures, meaning we will have increased the Corps' capacity by 
$900 million in two years concurrent with maintaining the quality and 
professional standards that have marked our work for years.
            formerly utilized sites remedial action program
    As I testified last year, we accomplished our first two priorities 
in executing FUSRAP following transfer of execution responsibilities 
from the Department of Energy. We kept the anticipated schedule during 
the transition period, and implemented numerous cost saving measures. 
We also completed our assessment of the program and provided a report 
of our finding to you.
    We are working to finalize a Memorandum of Understanding with DOE 
defining our respective roles and responsibilities, as directed by 
Congress.
    During fiscal year 1999, we expect to complete remedial action at 2 
sites and to accomplish work on schedule for 19 others.
    The President's Budget includes $150 million in new funding for 
FUSRAP, reflecting current priorities for remedial action. We are 
giving highest priority to proceeding in a way that will reduce 
potential risks to health and the environment. To improve the overall 
efficiency of the program, we also have assigned a priority to 
activities and sites that can be completed in the short-term--within 
the next fiscal year or two. Budget funding will enable completion of 
remedial action at 3 sites and continuing work at 16 others.
    I am very proud of our contribution to the Nation as a result of 
our effort on this program.
                         general investigations
    Scheduled report production for the program in fiscal year 1998 
included 83 reconnaissance and 26 feasibility reports. We completed 78 
and 28, respectively.
    The National Research Council recently completed an independent 
assessment of our Civil Works project development process. While 
concluding that the overall length and cost of the planning process are 
reasonable in light of the many considerations involved, the 
preliminary report includes some recommendations in the interest of 
shortening it. These recommendations include that we seek conditional 
authorizations 8 and reduce gaps between work phases. Additional 
recommendations include our using a watershed or estuarial region as 
the basic planning unit, studying a sample of flood control projects to 
evaluate whether non-structural alternatives have been adequately 
considered, and revising the Principles and Guidelines to incorporate 
contemporary analytical techniques and public values. Presently, we are 
evaluating these recommendations.
    The President's Budget includes $135 million in new funding for the 
GI Program, including $100 thousand for one new start reconnaissance 
study. The outlook for program workload is healthy. We are striving 
continually to enhance our performance during these times of limited 
resources.
                         construction, general
    In fiscal year 1998, we scheduled CG Program expenditures totaling 
$1.3 billion, and actually expended $1.24 billion.
    In fiscal year 1999, $1.54 billion is scheduled for expenditure. 
Our districts and divisions are aggressively seeking opportunities to 
accomplish work on funded projects. At the end of January, expenditures 
were on schedule at $342 million. Typically, once Spring arrives and 
construction operations come up to speed nationwide, the rate of 
expenditure will begin a steady climb that continues through the end of 
the fiscal year.
    The President's Budget includes $1.24 billion in new funding for 
the CG Program. Included in this amount is $80 million for initiation 
of 19 new start projects and one new program initiative for Riverine 
Ecosystem Restoration and Flood Hazard Mitigation. The balance of $1.16 
billion includes $1.04 billion for specifically authorized continuing 
projects and $125 million for remaining items, including projects under 
several continuing authorities programs.
    Over 25 percent of the budget request will be offset by $313 
million in dedicated funding from the proposed HSF ($258 million) and 
the IWTF ($55 million).
                  operation and maintenance, general:
    The O&M Program covers operation and maintenance of the Corps' 
water resource management infrastructure. More specifically, the 
program provides for operation, 9 including monitoring and study, and 
maintenance, including dredging and repair, as applicable, of 25,000 
miles of waterways, 238 navigation locks, 926 harbors, 383 dams and 
reservoir projects, 75 hydroelectric power projects, and recreation 
facilities for 380 million visits per year. This infrastructure, 
benefitting navigation, flood damage reduction, hydropower generation, 
recreation and the environment, contributes significantly to the 
economic and environmental health of the Nation.
    Fiscal year 1998 funding for the program included $1.74 billion in 
initial appropriation, plus $105 million in an emergency supplemental 
appropriation for repair of Corps projects impacted by storms primarily 
in California and along the Gulf Coast. In fiscal year 1998, we 
completed consolidation of O&M fiscal management activities into our 
Programs Management Division to simplify and streamline fiscal 
operations.
    The initial fiscal year 1999 O&M appropriation was $1.65 billion. 
Also, in fiscal year 1999, for the first time, BPA began funding 
operation and maintenance of hydropower facilities in the Pacific 
Northwest directly, thereby eliminating need for Corps appropriations 
for this work. BPA will transfer $106 million to the Corps for the work 
in fiscal year 1999. Total funding for the O&M Program from these two 
sources is $1.76 billion, or 1 percent more than the initial fiscal 
year 1998 amount. In addition, the program received a $100 million 
emergency supplemental appropriation for repair of storm damage to 
navigation facilities in the Southeast and, again, along the Gulf 
Coast, particularly from Hurricane Georges.
    The President's Budget includes $1.84 billion in new funding for 
the O&M Program. In addition, BPA will provide $107 million. 
Accordingly, total initial funding is $1.94 billion, or 11 percent more 
than in fiscal year 1999. This increase will be used to maintain and 
repair our aging infrastructure. For years, because of budget 
constraints, we have deferred work not critical to project operation 
during the budget year, thereby building our backlog of desired 
maintenance work. Eventually, after repeated deferrals, facilities 
become deteriorated to the extent that repair must be done to avoid 
serious failure. We continue to search for and implement more cost-
effective ways to accomplish our stewardship with limited resources. We 
are determined keep this infrastructure in condition to provide the 
products and services so essential to sustaining our national 
prosperity.
    Nearly 40 percent of the budget request will be offset by $729 
million in dedicated funding from the proposed HSF ($693 million) and 
the SRUF Fund ($36 million).
                            general expenses
    The General Expenses (GE) Program provides for executive direction 
and management of the Civil Works program by the headquarters and 8 
division offices. It also provides for support of executive direction 
and management by 4 field operating activities. Funding for the program 
is allocated approximately 70 percent for labor; 24 percent for fixed 
costs such as rent, utilities, communications, and contractual 
services; and 6 percent for discretionary costs, such as travel, 
training, supplies and materials.
    Together, headquarters and division offices provide executive 
direction and management for the Civil Works program. They are funded 
from appropriations for the GE Program, for which the President's 
Budget includes $148 million in new funding. This supports staffing of 
1,142 FTEs, reduced from 1,177 FTEs in fiscal year 1999. This staffing 
represents only 4.6 percent of the total Civil Works Program workforce. 
Headquarters staffing of 437 FTEs represents less than 2 percent of the 
total workforce.
    During the past 10 years, GE Program staffing has been reduced by 
one-third. It will continue to decline through fiscal year 2002 to 
about 1,050 FTEs. Despite inflation and cost increases in personnel 
compensation and benefits, we continue to look at ways to streamline 
and economize, although we may have few opportunities left. Personnel 
reductions, reorganizations, and other efficiency measures allow our 
request to remain at $148 million for the third consecutive year.
    I am keenly aware of expectations of the Committee and the American 
public that the Corps get the job done right at least cost. Executive 
direction and management under this program plays a key role in 
developing ways to meet these expectations. We appreciate your strong 
support for this program, so important to continued high performance of 
the Civil Works Program.
                             restructuring
                              introduction
    We continue to restructure our organization with a view to 
achieving greater efficiency and effectiveness in the resourcing, 
planning, design, and execution of our Civil Works and Military 
Programs. I would like to update you on continued progress in the 
restructuring of our organization through consolidation, streamlining, 
and downsizing of 11 our headquarters, divisions, and the emergency 
operations organization.
                              headquarters
Resource Management Consolidation
    Last year I achieved my goal of establishing a full-service Deputy 
Chief of Staff, Resource Management, at Corps headquarters. Before 
consolidation, resource management functions were fragmented throughout 
the headquarters. This was inefficient and diminished our ability to 
plan, program, budget and manage use of our total resources. Now, our 
financial data collection and maintenance and oversight of corporate 
resources are consolidated into the Resource Management Directorate. 
All financial and staffing data are now generated in this Directorate. 
This enables me to get integrated information on all resource matters 
of the Command.
Staffing
    We have been reducing staffing of Corps headquarters as well as of 
the 4 field support activities. We expect that headquarters staffing 
will be about 90 percent of the fiscal year 1997 level in fiscal year 
2000, and only 81.5 percent of the fiscal year 1997 level by fiscal 
year 2002. Staffing of the 4 support activities has already been 
reduced to 83 percent of the fiscal year 1997 level, and is projected 
to be further reduced to 78.5 percent of the fiscal year 1997 level by 
fiscal year 2002.
                               divisions
Regional Business Centers
    In February 1998, I approved establishment of each division office 
as a Regional Business Center (RBC) with a view to getting divisions 
and their districts to operate as single business entities in the 
interest of efficiency and effectiveness. Implementation of this plan 
required dramatic changes in business style and organizational 
cultures. Our efforts at this have been very productive. This year the 
division Regional Management Boards (RMBs) have all reviewed the same 
budgeting and accounting 12 practices for the purpose of achieving 
Corps-wide consistency and standardization. The RMBs also significantly 
improved vertical and horizontal communications within their regions 
and established a Corps-wide forum for sharing lessons learned and 
enhancing the RBC concept. This year, I expect that the RMBs will 
identify optimal business practices for the region, most efficient 
organizations for each district, and initiatives to maximize the use of 
regional resources.
Resource Management Consolidation
    Management of corporate resources within one office at all levels 
is critical to efficient, effective, full-service operations. 
Accordingly, in November 1998, I directed divisions to consolidate all 
facets of operations regarding resources within their Resource 
Management Offices, much as we have done at headquarters. Consolidation 
is now complete.
Staffing
    As reported last year we have completed restructuring our 
divisions, from 11 to 8, to provide a more efficient and effective 
organization. We expect that staffing for the 8 divisions will be about 
84 percent of the fiscal year 1997 level in fiscal year 2000, and about 
77 percent of the fiscal year 1997 level by fiscal year 2002.
                   emergency operations organization
    In July 1997, we began implementation of our ``Readiness 2000 
Initiative'' to transform our readiness group into a corporate team 
sharing planning responsibilities and response capabilities, and to 
organize and manage emergency operations resources through a national 
strategy. The goal is to provide for rapid set-up of effective response 
organizations and immediate initiation of emergency contracting and 
other critical services for impacted communities. The program provides 
for establishing and training teams in each of our 37 districts for 46 
specific emergency response missions, and supporting these teams with a 
``deployable tactical operations system'' (DTOS), including 24 
vehicles, 2 transportable systems, and 37 ``fly away'' equipment 
packages.
    To date, we have established all 46 teams and formally trained 24 
of them. We have 13 also purchased roughly 50 percent of the DTOS. 
Although not fully implemented, the program has already significantly 
improved our overall readiness and response capability. This was 
evident following Hurricane Bonnie and Georges last Fall. We spent 
substantially less time setting up for and commencing effective 
emergency operations in the disaster areas of these storms.
    We plan to train another 18 teams in fiscal year 1999, and retrain 
the 24 already trained based on lessons learned. The balance of the 
DTOS is scheduled for delivery by June, in time for the upcoming 
hurricane season. Once the program is fully implemented, we will be 
able dispatch our nation-wide resource of highly-trained personnel and 
state-of-the-art DTOS to any area where our presence is required in 
support of emergency activities of federal, State and local agencies.
                   improvement in business operations
                              introduction
    We continue to improve our business operations through 
implementation of better regulations, systems, processes, and practices 
in the interest of more efficient and effective execution of our Civil 
Works and Military Programs. I would like to update you on continued 
progress at this in strategic planning, project management, and our 
small business program.
                           strategic planning
    For the Corps to continue to fulfill its role in serving the Army 
and the Nation we must continually look out beyond current initiatives 
and anticipate what changes will be needed next. Working from our 
Corps-wide Vision we are developing the strategic management processes 
that will guide the Corps of the future.
    Our first initiatives were aimed at quickly identifying things we 
needed to improve right away. Headquarters and Division Campaign Plans, 
and District Operations Plans were the result of these initiatives. 
Next, we started the more deliberate work of identifying where the 
Corps needs to focus efforts for additional change. We have now merged 
the quick-start initiatives and the deliberate analysis into an 
integrated ongoing strategic management process led by the senior 
officers and civilians in my Headquarters who compose our newly 
established Strategic Management Board.
                           project management
New Regulation
    A year ago, I issued a new Programs and Project Management 
Regulation which revolutionizes the way we conduct our work. This 
regulation established a Project Management Business Process for 
accomplishing our activities. This change is making the Corps far more 
customer focused than in the past, with an orientation toward project 
rather than process. Through a number of initiatives, I am continuing 
this revolution by removing Corps headquarters from the business of 
managing projects on a day-to-day basis, and delegating more execution 
responsibility and accountability to the field.
Planning Process
    We are relooking our entire planning process from the time a 
project is identified until the PCA is signed. I have approved, for 
implementation, the recommendations of a Process Action Team to 
streamline the process, minimize burdens on local sponsors, and 
delegate much of the approval and execution authority to divisions and 
districts, thus expediting agreements. We are undertaking immediate, 
near-term, and long-term measures to address the recommendations. These 
steps should simplify and expedite project negotiations, strengthening 
our partnership with nonfederal sponsors in execution of our Civil 
Works Program, to the benefit of the Nation.
Continuing Authorities Program
    Late last year, on recognizing that our Continuing Authorities 
Program (CAP) was not performing at full potential, we established a 
Process Action Team to review the process and make recommendations for 
change to improve execution. Presently, we are working to implement the 
team's recommendation that we effect a uniform and streamlined process 
for all 9 CAP authorities. The recommendation envisions changes in 
current regulations and guidance to: vest approval authority for all 
CAP matters in 15 divisions; allocate most of appropriated funding for 
CAP to divisions, vesting authority for financial management in 
divisions; and develop and provide model PCAs especially for the CAP. 
These steps should breath new life into the CAP, promoting maximum 
performance of this very important part of our Civil Works Program, to 
the considerable benefit of the Nation. We are also recommended 
statutory changes to standardize costsharing and project cost limits.
                         small business program
    I am committed to ensuring that small businesses have the 
opportunity to participate in our procurements and that we provide the 
training and counseling to help them succeed. I have put this program 
on the front burner for two reasons. First, it's the policy of our 
government to assist qualified small businesses in obtaining and 
executing procurement contracts. But, beyond policy, it makes strategic 
business sense to promote competition and develop businesses to insure 
a broad base of capable suppliers. I consider the Small Business 
Program mission vital to the Nation's economic prosperity.
    The Corps of Engineers exceeded all expectations in the Small 
Business Program for fiscal year 1998. We led all other Army Commands 
in prime contract awards to small businesses, small disadvantaged 
businesses, and woman-owned small businesses. The Corps of Engineers 
accounted for one third of Army's prime contract awards to small 
businesses, small disadvantaged businesses, and woman-owned small 
businesses.
    We maintain a strong outreach program to promote participation of 
small disadvantaged business in our procurements, and counsel them on 
how to do business with us. We have made contracting with women and 
minorities a priority. This past December we hosted our second Annual 
Small Business Conference. The conference focused on engineering, 
construction, environmental, and research and development activities of 
the Army Corps of Engineers. It provided a forum for direct exchange of 
information and ideas between our commanders and small business 
leaders.
    An example of our success in partnering with small businesses is 
the recent recovery effort in Puerto Rico following Hurricane Georges. 
Our commanders were committed to promoting small business participation 
in the recovery, and, in turn, the small business involved gave 
outstanding support. I commend them both.
                   government performance and results
    The Government Performance and Results Act of 1993 (GPRA) requires 
that we show how improvements in our business processes, and efforts to 
balance scarce budgetary resources between operation and maintenance 
and new investments, ultimately impact delivery of our products and 
services to the Nation.
    The already effected and proposed improvements in our business 
processes and practices, discussed elsewhere in this statement, have 
already resulted and in, and will continue to result in, more efficient 
and timely production of our Civil Works Program products, less burden 
on local sponsors who participate in the production through financial 
support and otherwise, greater capability to be responsive to the water 
resource management needs of the Nation, and greater customer 
satisfaction.
    Until recently, benefits of these process improvements could be 
shown only at the project level, and not the program level. Likewise, 
we could show the impacts of alternative funding on program services 
levels, and the timing of program results at the project level; but not 
the program level. Now, we are testing an initial set of results- 
oriented performance measures for demonstrating the contributions of 
internal process improvements and impacts of different levels of 
funding for programs. Our goal is to comply with GPRA in development of 
a comprehensive set of results-oriented program performance measures. 
We are discussing these measures with OMB.
             corps of engineers financial management system
    In March 1998 we completed the process of deploying the Corps of 
Engineers Financial Management System (CEFMS) to all 61 locations (63 
databases). Project and program managers can now benefit from accurate/
timely financial information.
    We have begun to modernize CEFMS by moving it into a Graphical User 
Interface (GUI) environment. This will take advantage of Internet 
browser technology to enable modern application processing, improve 
usability of the system, and reduce future operations and support 
costs. Deployment of the CEFMS GUI version is scheduled for fiscal year 
2000.
    In December 1998 CEFMS was certified in Army's Y2K (year 2000) 
database as compliant with requirements for operating in Y2K. The US 
Army Audit Agency has completed an independent review of our test 
results and, based on a draft report, will 17 confirm that CEFMS is Y2K 
compliant.
    The rest of our systems will be Y2K compliant by the end of this 
month. As a result, our business operations will continue into the new 
century without a hitch. I am proud of this accomplishment.
                              corps vision
    Finally, Mr. Chairman, each year I brief you on the status of the 
Corps Vision. It remains as I showed you last year:
    The U. S. Army Corps of Engineers is:
  --the world's premier engineering organization, trained and ready to 
        provide support any time, any place.
  --a full-spectrum engineer force of high quality, dedicated soldiers 
        and civilians:
      --a vital part of the Army;
      --the engineer team of choice--responding to our Nation's needs 
        in peace and war; and
      --a values-based organization--respected, responsive, and 
        reliable
  --changing today to meet tomorrow's challenges!
    This Vision is the foundation of all of our strategic planning, 
restructuring, and process improvements already accomplished, or to be 
accomplished near- and long-term. Improvements discussed elsewhere in 
this statement are a direct result of this Vision. As mentioned, we now 
have an integrated ongoing strategic management process overseen by the 
newly formed Strategic Management Board, led by the senior officers and 
civilians in headquarters. Through this process and this board our 
Vision will endure to the continued significant benefit to the Corps, 
Army, and Nation.
                               conclusion
    The President's Budget for the Corps of Engineers is a good one. 
However, we must continue to find ways to reduce our costs and shift 
more of those remaining to direct 18 beneficiaries of our services. 
Meanwhile, we will do our very best to execute the Civil Works Program 
for maximum benefit to the Nation.
    Our Vision commits us to dramatic improvement in performance and 
customer satisfaction within available resources, with a goal of making 
revolutionary, not evolutionary, improvements in our processes and 
products--continually maximizing actual and potential values of our 
organization to the Civil Works Program, the Army, and the Nation.
    Thank you Mr. Chairman and Members of the Committee. This concludes 
my statement.

DEPARTMENT OF THE ARMY--CORPS OF ENGINEERS CIVIL WORKS--FISCAL YEAR 2000
                             DIRECT PROGRAM
           [New obligation authority in thousands of dollars]
------------------------------------------------------------------------
                                                Fiscal year
                                  --------------------------------------
      Source/program/account         Initial appropriation      Budget
                                  --------------------------------------
                                       1998         1999         2000
------------------------------------------------------------------------
APPROPRIATION:
    Discretionary and Related
     Mandatory:
        Defense: Formerly              140,000      140,000      150,000
         Utilized Sites Remedial
         Action Program (FUSRAP).
        Domestic: General              156,804      161,747      135,000
         Investigations..........
        Construction, General:
            General Fund.........    1,394,167    1,353,372      927,200
            Harbor Maintenance     ...........        3,255  ...........
             Trust Fund..........
            Harbor Services Fund.  ...........  ...........      257,700
            Inland Waterway Trust       79,206       73,258       55,000
             Fund................
                                  --------------------------------------
              Total..............    1,473,373    1,429,885    1,239,900
        Operation and
         Maintenance, General:
            General Fund.........    1,209,137    1,617,551    1,107,300
            Harbor Maintenance         496,900  ...........  ...........
             Trust Fund..........
            Harbor Services Fund.  ...........  ...........      692,900
            Special Recreation          33,988       35,701       35,700
             User Fees Fund......
                                  --------------------------------------
              Total..............    1,740,025    1,653,252    1,835,900
        Flood Control,                 296,212      321,149      280,000
         Mississippi River and
         Tributaries.............
        Regulatory Program.......      106,000      106,000      117,000
        General Expenses.........      148,000      148,000      148,000
        Flood Control and Coastal        4,000  ...........  ...........
         Emergencies.............
                                  --------------------------------------
          Total (Domestic).......    3,924,414    3,820,033    3,755,800
                                  --------------------------------------
          Total (Defense and         4,064,414    3,960,033    3,905,800
           Domestic).............
                                  ======================================
    Mandatory, Only:
        Permanent Appropriations.       14,627       18,098       18,576
        Coastal Wetlands
         Restoration Trust Fund:
            Corps................       10,000       10,000       10,000
            Others (excluded)....       37,541       38,300       44,180
                                  --------------------------------------
              Total..............       47,541       48,300       54,180
        Rivers and Harbors             262,274      280,896      251,141
         Contributions...........
        Bonneville Power           ...........      106,000      107,000
         Administration..........
        Washington Aqueduct             24,000       22,000  ...........
         (borrowing authority, ex-
           cluded)...............
                                  --------------------------------------
            Total................      286,901      414,994      386,717
                                  --------------------------------------
            TOTAL (Discretionary     4,351,315    4,375,027    4,292,517
             and Mandatory)......
------------------------------------------------------------------------

                      statement of senator bennett

    Senator Bennett [presiding]. Thank you very much. We 
appreciate your being here.
    There are some who think you should get hazard pay for the 
times you appear before this committee. You have an unthankful 
task in some of the responsibilities you assume, but we agree 
that your work is of the utmost importance in protecting the 
water resources.
    I would like to make the same comment to you gentlemen that 
I made to the previous panel with respect to the Army Corps 
personnel in Utah. They are very capable and very thorough in 
their duties and take their responsibilities very seriously. We 
have had differences of opinion with them from time to time, 
but we have enjoyed working with them and recognize the 
seriousness with which they approach their tasks.
    Now, I want to reiterate my support for a few minor 
projects we have worked on together, again as was the case with 
the last panel, to get this in and on the record so that you 
understand how seriously I take them.

          upper jordan river restoration, section 206, project

    The progress on the restoration of the upper Jordan River 
is going well. The environmental restoration project has been 
completed. Plans and specifications for the project have been 
initiated, and we think we will be ready to proceed with 
construction in 2001.
    Salt Lake County has worked closely with EPA and the Corps 
and the Interior Department to properly manage water resources 
on a watershed basis. Pollution from non-point sources is 
still, of course, a matter of concern, and channel restoration 
of the upper Jordan River is a critical factor in reducing non-
point source pollution. We need about $1 million to complete 
the plans and specifications, as well as an exemption from the 
800 cfs flow requirement required for Federal participation in 
urban flood control. We hope to discuss those things with you.
    Now, the Belco dispute. Again, this is a parochial issue. 
It is matter that concerns me. It is an ongoing contract 
dispute between a contractor in Utah and the Corps office in 
Jackson, Wyoming. I know that my staff has communicated with 
you on this issue. It has resulted in a suit against the Corps 
being filed in Federal court over an alleged breach of 
contract.
    I am not taking a position one way or the other. That would 
not be appropriate for a Senator with respect to something 
where there is a legal action pending. I want to ensure, 
however, as every Senator does, that my constituents are 
treated fairly, and based on a limited review, I have the 
feeling that that has not been the case here. I would hope we 
could avoid litigation.
    I have found in some other situations that sitting down in 
my office in the next couple of weeks with the contractor and 
your staff to see if something cannot be worked out might be a 
worthwhile activity. I am willing to do that. If nothing comes 
out of it, then the lawsuit goes forward, but we will at least 
have tried.
    General, would you be open to such a suggestion, or has the 
matter gone so far that you are not willing to talk about it in 
that kind of a setting?
    General Ballard. Well, I am very much aware of this 
particular lawsuit, Senator, and share your concern about doing 
what is fair both for your constituent and the Federal 
Government. At the current time, as you know, we are reviewing 
the status of that case in the office of my General Counsel. 
What I would like to do--and I have not had a chance to discuss 
this case in detail with him. So, prior to agreeing to come and 
meet with you, I would like some time to review the case and 
then provide you an answer to your question about our 
willingness to meet.
    I think it is important that we do whatever it takes to 
make sure that we seek a fair solution, and if the case has not 
gone so far that it would not be inappropriate to meet, I would 
be willing to do that.
    Senator Bennett. Unlike a super majority of the Senate, I 
am not a lawyer.
    General Ballard. Yes, sir.
    Senator Bennett. So, I would try to act as the honest 
arbiter here to see if the two sides can get together. I am not 
anxious to see the legal bills go up either for the Federal 
Government or for the contractor. So, I am available to perform 
that function if you think it would be useful. If not, I 
understand that you must protect your rights and I respect you 
for that.
    General Ballard. Well, I share your concerns, sir, and I 
promise we will get back to you in the next day or so.
    Senator Bennett. Okay.

                           regulatory program

    Now, I have some real concerns regarding the administrative 
appeals process related to your regulatory functions. Putting 
it directly, I am concerned that the Corps has not implemented 
the administrative appeals program despite the instruction of 
both the President and the Congress. I will not go into it 
here, but I have a rather strong statement that I will submit 
for the record, as well as several questions that I will submit 
to you in the expectation that the Corps will answer in detail.
    Senator Bennett. I will be working with my colleagues to 
raise awareness of the need for a workable appeals process that 
is fair to the landowners. We provided the Corps with resources 
and instructions in the past which unfortunately in my view 
have been ignored, and I will be more than willing to provide 
the Corps with some more explicit legislative direction as to 
how to implement this. I would hope that Chairman Domenici 
would back me in this effort, but all of that will become clear 
when I file my statement and give you my questions.
    Those are the only issues that I was ready to raise.
    Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman.
    Generals, Dr. Westphal, thank you for being with us today.
    Let me echo what the Senator from Utah has said about the 
quality of staff and the working relationships we have. They 
are good and we appreciate them in Idaho. That is always 
valuable dialogue for both me and my staff with all of you 
folks as we work on some of these important issues.

                        snake river dam removal

    I have before me a press release from the Walla Walla 
district office of the Army Corps on March 5 denouncing a 
release coming out of the Sierra Club on March 4. The Sierra 
Club release tried to depict preliminary findings in what is 
known as the DREW study as supporting the notion that removing 
the four lower Snake dams would be advantageous to the economy 
of the Pacific Northwest region.
    Thank you for quickly correcting this inaccurate 
information. It is critically important that we have accurate 
facts. We are watching with an eagle eye the EIS you are all 
involved in to make sure that it is science and not politics. 
Let me very clearly admonish you, though I do not think it is 
necessary. Please do not get involved in the politics of this 
issue or you will destroy your credibility. Stay with the 
science and stay with the engineering facts that you deal with 
so well.
    You can see the loaded nature of this issue by the 
silliness of the Sierra Club release. Headlines: DREW Finds 
Huge Economic Benefits from Partial Removal of Four Lower Snake 
Dams. Wishful thinking on their part to stymie and destroy the 
growth in the economy of the region. No question about it. And 
yet, the science is not even in to suggest that breaching dams 
will save these endangered species of salmonoids that we are 
talking about.
    So, we are awaiting your studies. They will be important to 
the overall character of how we develop a mitigation plan for 
those fish, and it is going to be critical to the region. As 
you heard me say--you were here when I was talking with the 
Bureau of Reclamation--we have spent the last 80 or 90 years 
taking an arid State like Idaho and watering it and making it 
habitable not only for species of plants and animals, but the 
human species, and I do not want to see it dewatered in the 
name of a single species when science would lead us to a 
different, and I hope, better course.
    I noted there is an item in the Corps budget for 
engineering activities directed at the dams and fish passage on 
the Snake-Columbia Rivers. Could you supply for the record how 
much money is in this budget for planning, design, or 
construction of such things as dam modification, surface 
collectors, irrigation project changes, or other activities for 
salmon recovery?
    Dr. Westphal. We will do that.
    General Ballard. Yes, sir.
    Senator Craig. If you would please. And then please be 
specific as to how the money is being requested for each of the 
activities. I think that would be very helpful to us.
    Is there anything being done through the fiscal year 2000 
budget to address the CASPIAN tern issue on Rice Island at the 
mouth of the Columbia? I am recommending you go out and buy 
some coyotes or foxes and put them on that island. [Laughter.]
    [The information follows:]

                           COLUMBIA RIVER FISH MITIGATION, IDAHO, OREGON & WASHINGTON
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal year 2000
                                                                 -----------------------------------------------
                         Subproject/item                                           Engineering &
                                                                     Planning         design       Construction
----------------------------------------------------------------------------------------------------------------
Ice Harbor:
    Auxiliary Water Supply......................................  ..............             350  ..............
    Anadromous Fish Evaluation Program (AFEP)...................  ..............              60  ..............
Lower Monumental:
    Auxiliary Water Supply......................................  ..............             350  ..............
    Adult Passive Integrated Transponder Facilities.............  ..............             100  ..............
    End Bay Deflectors..........................................  ..............  ..............              10
Little Goose:
    Auxiliary Water Supply......................................  ..............             350  ..............
    Extended Screen Barrier Screen Mods.........................  ..............             310           1,200
    Trash Boom..................................................  ..............             550           3,460
    Adult Passive Integrated Transponder Facilities.............  ..............             110  ..............
Lower Granite:
    Auxiliary Water Supply......................................  ..............             350  ..............
    Juvenile Bypass Facility Improvements.......................  ..............             970  ..............
    Extended Screens Barrier Screen Mods........................  ..............             310           1,200
    Barges Moorage Cells........................................  ..............             250              80
McNary:
    Fish Ladder Exit Mods.......................................  ..............  ..............             890
    Cylindrical De-water Test...................................  ..............             110           1,190
    Orifice Shelters............................................  ..............              15             765
    Extended Screens Barrier Screens Mods.......................  ..............             250           3,290
    Replace Gates/Stoplogs......................................  ..............             180           2,770
    Adult Passive Integrated Transponder Facilities.............  ..............             110  ..............
John Day:
    Extended Screen Barrier Screen..............................  ..............           2,310           4,770
    Smolt Monitoring facility...................................  ..............             100           1,080
    End Bay Deflectors..........................................  ..............             205           1,565
The Dalles:
    Auxiliary Water Supply......................................  ..............           1,120  ..............
    Adult Channel Dewatering....................................  ..............             730  ..............
Bonneville:
    Bonneville 1st Downstream Migrant & Outfall Facilities......  ..............           3,530             600
    Bonneville 2nd Downstream Migrant & Outfall Facilities......  ..............             570           3,210
    Bonneville 2nd Gatewell Debris..............................  ..............             380             800
Mitigation Analysis:
    Walla Walla District Study Activities \1\
        Turbine Study...........................................           1,450  ..............  ..............
        Ice Harbor Separator Evaluation.........................             890  ..............  ..............
        Gas Abatement Study.....................................             475  ..............  ..............
        Snake River Feasibility Study...........................             890  ..............  ..............
        Fish Ladder Temp Evaluation.............................             710  ..............  ..............
        Fallback Study Ice Harbor/McNary........................             710  ..............  ..............
        Lower Granite Surface Bypass Collection.................           8,260  ..............  ..............
        Multiple Bypass (AFEP)..................................             770  ..............  ..............
        Estuary PIT Recovery (AFEP).............................             770  ..............  ..............
        Gas Fastrack............................................           2,960  ..............  ..............
    Portland District Study Activities \1\
        Lower Columbia Feasibility Study........................           5,900  ..............  ..............
        Gas Abatement Study.....................................             950  ..............  ..............
        Turbine Survival Program................................           2,900  ..............  ..............
        Bonneville Surface Bypass...............................          12,390  ..............  ..............
        Bonneville 1st Fish Guidance Efficiency.................           2,360  ..............  ..............
        Bonneville Flat Plate Passive...........................              60  ..............  ..............
        Integrated Transponder Facilities Bonneville Adult                   590  ..............  ..............
         Fallback...............................................
        Bonneville 2nd Fish Guidance Efficiency.................           1,770  ..............  ..............
        The Dalles Surface Bypass...............................           2,920  ..............  ..............
        The Dalles Spillway Survival............................           2,720  ..............  ..............
        Powerhouse Surface Bypass...............................             590  ..............  ..............
        Spillway Surface Bypass.................................           1,770  ..............  ..............
        John Day 24 Hour Spill Test.............................           2,950  ..............  ..............
        John Day Mitigation Relocation to Ringold Hatchery......             180  ..............  ..............
        Lower Columbia Adult Measures...........................           2,360  ..............  ..............
        Gas Fastrack............................................             975  ..............  ..............
        Adult Passive Integrated Transponder Facilities.........             180  ..............  ..............
                                                                 -----------------------------------------------
          Total Planning Activities.............................          59,450          13,670          26,880
----------------------------------------------------------------------------------------------------------------
Note: Columbia River Fish Mitigation Project Fiscal Year 2000 Budget Request--$100,000,000.
 
\1\ Some of the study activities for the Mitigation Analysis subproject require engineering, design, and
  construction of prototype facilities. If this is so, the cost for this engineering, design, and construction
  is included in the Planning column.

                              caspian tern

    Senator Craig. Other than that, no.
    Dr. Westphal. I will let General Fuhrman answer this, but I 
think we do have a project to move the Caspian----
    General Fuhrman. We are looking at that in conjunction with 
other agencies as an----
    Senator Craig. But you are a player in that, are you not, 
General?
    General Fuhrman. Yes, we are. We certainly are.
    Senator Gorton. How about some cats?
    Senator Craig. Let the record show that the Senator from 
Idaho is not totally off base here. [Laughter.]
    Senator Burns. How about some wolves?
    Senator Craig. Well, we could be a supplier there is no 
question.
    But it is important that we see what you are doing there 
and how much you are a player. That is important that we 
resolve that issue, for the sake of the young salmon.

                    ports of clarkston and lewiston

    Is there sufficient O&M budget money for dredge work needed 
on the ports of Clarkston and Lewiston in your current budget, 
do you think? I am talking about the ongoing necessary works to 
keep those channels open.
    General Fuhrman. Senator, yes, there is.
    Senator Craig. Thank you.
    Dr. Westphal. Mr. Chairman, Senator Craig, if I could just 
mention one thing----
    Senator Craig. Excuse me, Doctor.
    Dr. Westphal. I am sorry. I just wanted to mention to you 
that I took a trip to the Northwest late last year. In fact, I 
think I spoke with Senator Gorton while I was on that trip. I 
was at Bonneville at the time. I went to the Lower Snake and 
viewed all the projects there with the Corps. It was a very 
short trip and I did not have a chance to really talk to local 
folks, so I just basically talked to the Corps.
    But we are definitely working this whole process, which is, 
as you know, a very, very lengthy and difficult process in a 
way, as carefully as we can, and we are trying to be as 
responsible as we can in responding to the scientific 
information that is required to make these decisions. But the 
release of that information is just a very small piece of the 
overall EIS that is about to come out, hopefully by September 
of this year, and that is why we responded that way. We think 
that in the end we will have a good study that we can stand 
behind.
    Senator Craig. Well, I certainly hope that is the case. You 
saw with your tour out there what I think is a tremendously 
proud legacy and one that we ought to be trying to enhance and 
perfect. And yes, it has problems and one of our problems is 
developing a mitigation plan to try to save these species of 
fish. But it should not be one that we run from at all because 
it has afforded the Pacific Northwest some tremendous assets 
that I am certainly proud of. That is why I am as strident as I 
am with organizations that try to recreate the region in their 
own image for political purposes and ignore the science.
    Thank you.

                       devils lake, north dakota

    Senator Bennett. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, I will be very brief. I do 
want to thank Dr. Westphal, General Ballard, General Fuhrman, 
and Mr. Caver. I must confess that I used to think that dealing 
with the Corps of Engineers was like dealing with pre-
democratic Eastern European countries, except Romania's 
Ceauescu was easier to deal with. [Laughter.]
    But I have changed my mind. We have gone through some 
significant disasters, the Grand Forks and Devils Lake 
flooding, and the Corps of Engineers has been of invaluable 
assistance to us and has spent a lot of time and a lot of 
effort trying to help us get through these tough times. So, I 
deeply appreciate your commitment to help.
    Dr. Westphal, you have worked with us closely on both 
Devils Lake and Grand Forks. I want to just mention to you--
members of the subcommittee will be tired of hearing this but 
Devils Lake is continuing to rise. The Senator from Utah, 
Senator Bennett, once offered pumps that they bought apparently 
for the Great Salt Lake and did not use. The problem is that if 
you use pumps, you would have to find a place to pump the 
water. This is not a region where there is an empty pail. So, 
we cannot transfer one region's problem to cause a problem in 
another region in our State. That is the difficulty.
    But we are working through a range of issues, including the 
design of an outlet and a series of other matters. I want to 
impress upon you once again the urgency that I know you 
understand. That lake is expected to rise again this summer. It 
is the most vexing thing in the world to us. It is one of only 
two closed basins in America. The other is the Great Salt Lake. 
It is a flood that comes and stays unlike most other things 
that we deal with. Most floods we deal with are river floods 
where we see a house floating down a raging river someplace and 
then the flood is over and the river subsides. That is not what 
is happening to us in this basin.
    We had a meeting with the Governor and legislative leaders 
and others in Bismarck last Friday talking about the time line 
and other issues, but I would just ask again how you see the 
time line on the Devil's Lake outlet and if you have enough 
resources--I expect you do--committed to this in order to try 
to reach a conclusion on it.
    Dr. Westphal. We have the resources, and the last update I 
had is a little bit dated. It is the end of last year when I 
asked for an update on where we were with the studies. The 
Corps at the District level was incorporating some new data 
into the analysis to try to look at the regional impacts. But 
since then I have not had an update, unless General Fuhrman has 
one. So, let me just say that I will get you an update on when 
we expect to have a report on that.
    Senator Dorgan. I would appreciate that.
    General Fuhrman. Just to add to that, as you are well 
aware, Senator, we are continuing to look at alternatives, 
along with the local sponsors, and hope to have an update to 
Congress by the last of April.
    [The information follows:]

                           Devils Lake Outlet

    The time line for completion of the Devils Lake outlet will be 
addressed in the Interim Report to Congress and is dependent on the 
alternatives evaluated and eventual direction provided. Once there is a 
recommended course of action, additional funding resources of at least 
$5M would be required to initiate and complete plans and specifications 
for approved actions.

                            grand forks, nd

    Senator Dorgan. One other question on the Grand Forks dike. 
The President requested $10 million I believe in his 2000 
budget request. Does this adequately reflect the capability of 
the Corps for the initial construction on the permanent levy in 
the coming fiscal year?
    Dr. Westphal. Yes, that does.
    General Fuhrman. Yes.
    Senator Dorgan. If additional funds would become necessary, 
I assume that the Corps would seek a reprogramming or some 
other approach?
    Dr. Westphal. Yes.
    General Fuhrman. Yes, we would.
    Senator Dorgan. Well, I am not usually so reasonable or so 
agreeable, but I must say that my experience both with the 
previous panel, and also with the Corps of Engineers the last 
few years, has been really quite a remarkable experience. They 
have men and women in the field who work day and night and have 
put a lot on the line for those of us in North Dakota who have 
been threatened by these flooding crises, and I want to say 
thanks to a lot of people who work down in the bowels of your 
agency and who do some awfully good work.
    Dr. Westphal. Thank you, Senator.
    Senator Dorgan. Mr. Chairman, I would like to be able to 
submit a couple of additional questions for the record.
    Senator Bennett. Without objection.
    Senator Dorgan. Thank you very much.

                           yellowtail dam, mt

    Senator Bennett. Senator Burns.
    Senator Burns. We can handle most of your problem up there. 
We will just declare all North Dakota wilderness. We will ship 
our wolves over there. I am just trying to get rid of some 
wolves.
    Senator Dorgan. What is that fellow's name? [Laughter.]
    Senator Burns. Up in our State, just so the people in this 
room understand my previous comment, you cannot touch these 
protected wolves. There is a pack of 10 that is laying 200 
yards off of a guy's barn. He is trying to calve and he 
estimates that he has lost 30 calves and 25 cows, and he cannot 
do anything to stop the wolves. All you can do is watch them 
wolves carry your calf crop off, and you get pretty excited.
    I think I want to raise one issue again, the Yellowtail 
Dam. I think you have some joint responsibilities on the 
Yellowtail with the Bureau of Reclamation on flood control and 
water release. I would suggest that you start the dialogue now 
between the Bureau of Reclamation, because we have a tremendous 
snowpack this year, General, and I fear for that.

               regulatory administrative appeals process

    I am also concerned, General Ballard, in your appeals 
process, that you have got the rules written for those permits 
that were denied, the denied permits, and you are sort of 
shying away from the jurisdictional part of that language of 
the law. I will tell you we have more problems with the 
jurisdictional end of this situation on wetlands, that problem, 
than we do any other part. So, I would suggest to take the 
language of the law and implement it where you have the most 
problems, and I think most of it is in jurisdiction.
    I can tell you that the Corps has really overstepped its 
bounds in some areas in the wetlands. It is not contiguous to 
impaired waters or to navigable streams or anything like that.
    So, those are the only things that I want to--other than 
that, we have got a lot of work to do on the Missouri that is 
above the Yellowstone, and we want to do that. We are losing 
land every day along the Missouri between Culbertson and 
Williston and we should deal with that. Of course, there again 
that has to do with Fort Peck.
    I am also very interested in working with you as far as the 
Fort Peck interpretive center and those kinds of things, and we 
will work our way through that.
    But you have done some good work up there and we appreciate 
that, but those are the areas that concern me most. I would 
start that dialogue with the Bureau of Reclamation, though, 
because we have a tremendous snowpack this year.
    And thank you for coming, and thank you, Mr. Chairman.
    Senator Bennett. Senator Kohl?

                            lafarge lake, wi

    Senator Kohl. Thank you, Senator Bennett.
    Gentlemen, good to see you here.
    Dr. Westphal. Thank you, Senator.
    Senator Kohl. I would like to ask a series of questions on 
the La Farge Lake deauthorization project.
    The Water Resource Development Act of 1996 deauthorized the 
flood control project at La Farge. The Army Corps of Engineers 
was instructed to transfer the 9,000 acres acquired during the 
1960's and 1970's to the State of Wisconsin and the Department 
of the Interior to be held in trust for the Hochunk Nation.
    Also, as part of the flood control project, the Corps of 
Engineers was given jurisdiction over the relocation and 
maintenance of State highway 131 and a few of the county 
highways.
    Three questions. Number one, when will the land transfer 
project deauthorization and completion of remaining project 
features be accomplished?
    General Fuhrman. I will take that one, Senator. Currently 
field documentation of historic cultural resource protection, 
site safety, environmental remediation of abandoned farm sites 
and wells and real estate activities, all of which need to be 
accomplished prior to the land transfer, are fully funded and 
are on track to be completed by 30 September of this year.
    Senator Kohl. Thank you.
    Will the Corps be including a request for funding to 
implement section 361 in future presidential budgets?
    Dr. Westphal. Well, while we cannot really commit today to 
what we are going to include in the 2001 budget, since we have 
yet to even begin developing that, I will tell you that we will 
proceed on this project as expeditiously as we can, and if we 
need to, we will make an effort to fund what is required. I 
will work with you and your staff to do that.
    Senator Kohl. I do appreciate that.
    One last question. Does the Corps agree that the Wisconsin 
Department of Transportation is in the best position to conduct 
the road relocation, and if so, when will the Corps be 
completing the necessary contractual arrangements with the 
State of Wisconsin on this issue?
    General Fuhrman. Senator, we believe that the Wisconsin 
Department of Transportation has the necessary expertise to do 
an excellent job at accomplishing the highway work that is 
needed and identified out there. We are currently reviewing 
that to determine what types of authorities we have to allow us 
to work with the Department, and we will be working closely 
with you to resolve that issue.
    Senator Kohl. Did I get a clear answer on that? Not as 
clear as I would like.
    General Fuhrman. Well, there is an authorities issue here 
in our ability to grant money to the State, and we will need to 
work with the Congress on that piece of it.
    Senator Kohl. I thank you, and I thank you, Senator 
Bennett.
    Senator Bennett. Thank you.

            mississippi river and tributaries budget request

    Senator Cochran.
    Senator Cochran. Mr. Chairman, it is a pleasure for me to 
be here today to welcome our witnesses. It is my first 
opportunity to congratulate publicly my friend, Dr. Joe 
Westphal, on his service as Assistant Secretary of the Army.
    In looking at the budget request, I noticed that for the 
Mississippi River and Tributaries project, in which I am very 
interested, the President has requested a total of $280 million 
for this next fiscal year. This is the same as the request for 
the current fiscal year.
    Congress reviewed that request last year and found it to be 
woefully inadequate in terms of the capability of the Corps for 
that project and also to protect lives and property in the 
region. So, the amount for fiscal year 1999 was increased to 
$323.6 million, which we hope will go a long way toward getting 
us back on schedule and on track with many of the programs in 
the Mississippi River and Tributaries project.
    My question is--and General Ballard or whoever you suggest 
should answer this--I understand that this is still short of 
the Corps' capability for these activities. I wonder if, for 
the record, you could give us the figure, the dollar amount, 
that the Corps has within its capability for projects within 
the Mississippi River and Tributaries program.
    General Ballard. I think that figure, Senator, is about 
$350 million.
    Dr. Westphal. $350 million.
    Senator Cochran. Which means that if the Congress 
appropriated that amount and the President would sign the bill, 
you could use that money efficiently and effectively to carry 
out the authority that has already been granted to the Corps on 
those projects. Is that correct?
    General Ballard. That is correct, Senator.
    Senator Cochran. I know that some of these projects have 
controversies surrounding them, and I know you are trying to 
deal with those and involve the public. I have been in 
Mississippi on occasions when meetings have been held. We have 
tried to encourage those who have opinions on these to come 
forward. Sometimes they overdo it, but the fact is we are 
trying to make sure that these projects are sensitive to 
environmental concerns, to the needs of production agriculture, 
the people who live in the area, and it is a very, very big 
challenge.
    This is a project that was authorized a long time ago. It 
continues to be short of funds and behind schedule, and a lot 
of people are suffering because of that. We hope that the Corps 
will give added impetus to the work being done in that region 
of the country.
    I notice in the other parts of the budget there are some 
increases being requested, and this is not one of them. I am 
disappointed in that. I hope we can work with you in this 
committee to try to deal with the challenge of meeting our 
responsibilities to the people in that area of the country.
    Dr. Westphal. Yes, sir.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Burns [presiding]. I guess the chairman ran away.
    Senator Cochran. You are it. [Laughter.]
    Senator Burns. The Senator from Washington.

                       columbia and snake rivers

    Senator Gorton. General Ballard, a year or so ago, we had a 
meeting that was very unpleasant and unhappy for both of us in 
my office about a recreation study carried out by the Walla 
Walla office. Because I remember that and I suspect you do as 
well and do not like unhappy meetings like that, I cannot do 
anything but start my comments off by saying in how positive a 
way you responded. I am still not sure I like much about the 
new survey, but it is much improved over the old one.
    More important than that, however, were the comments that 
Senator Craig made, that when some portions of its results were 
leaked and were put out in a distorted fashion, that you 
stepped forward and said that this was highly misleading and 
that you are going to wait until you have finished with what 
you have done and are going to try to come up with an as 
objective set of answers as you possibly can. That is in the 
finest traditions of the Corps. Having started out unhappily, I 
wanted to tell you how very positively I respond to that kind 
of work on your behalf. It was absolutely first rate.
    General Ballard. Thank you very much, Senator. I do 
remember our meeting and your words are very complimentary. I 
commit to you my continued support as we try to work these 
issues together.
    Senator Gorton. Good.

                      john day dam drawdown study

    Now, I do want to state, again following the same 
philosophy that Senator Craig did, my unhappiness--my 
opposition to two elements in this budget. I have supported 
both the studies that are taking place with respect to the 
Snake River dams and phase one of the John Day studies. I have 
done so in spite of the fact that many of my constituents and 
many on the other side of the river have lobbied me not to 
allow you even to have undertaken those initial studies because 
they feel that any draw-down on John Day and any destruction of 
the Snake River dams would be so overwhelmingly damaging to 
them. My response has been that I did not think that we could 
be against undertaking such studies and that, in fact, that I 
thought they would end up showing the value of those dams.
    Nevertheless, I have to tell you that to ask for money, 
even on a contingent basis, for a second phase of a study when 
you have not completed phase one of the study, and when 
obviously there has been no opportunity for the people of the 
area to respond to phase one, seems to me to be highly 
premature. I am not telling you that at this point that under 
any and all circumstances I would oppose a phase two, although 
it is a lot of money over a considerable period of time, but I 
certainly do want to tell you that I will oppose authorizing it 
or appropriating money even on a contingent basis now before we 
have seen phase one, not only we have seen phase one, but even 
more importantly the people of the area have seen phase one.
    And the McNary study falls in exactly the same category.
    I think we need an opportunity for the people of 
Washington, Oregon, Idaho, and Montana, for that matter, to 
respond to what we are already doing before we take additional 
steps. So, I want to make it clear that I am going to try to 
see to it that those appropriations are not made this year 
without necessarily saying that there are not further studies 
that are appropriate at some time in the future.
    Having said that and having said that you have done so many 
things so well, I do want to ask a question of you now on a 
different subject.

      bonneville dam and the dalles dam powerhouse rehabilitation

    Major rehabilitation efforts have been authorized on the 
Bonneville Dam and on the Dalles Dam, but the requests from the 
administration for powerhouse improvements seem to be 
significantly less than what you could actually use in the year 
2000 by a margin of less than $11 million to more than $16 
million. The Bonneville work that sometime ago was slated to be 
completed in the year 2003 is likely not to be completed until 
the year 2008. Obviously, that drives up costs with the 
contractors that you are working with and power generation 
capability of the dams diminishes as the houses age.
    Why do we not have a request for the amount of money that 
you can efficiently and effectively spend on the Dalles and 
Bonneville for the year 2000?
    General Fuhrman. The amount that we can effectively use is 
$3.3 million, sir.
    Senator Gorton. That is for the Dalles.
    General Fuhrman. Yes.
    Senator Gorton. And Bonneville?
    General Fuhrman. I will have to provide that for the 
record, sir.
    [The information follows:]

     Bonneville Powerhouse Phase II, Oregon and Washington (Major 
                            Rehabilitation)

    The fiscal year 2000 amount that we can effectively use for Major 
Rehabilitation at Bonneville is $16.3 million.

                            Drawdown studies

    Senator Gorton. Okay, this is the kind of question that you 
are probably better off answering in writing than directly to 
me in any event.
    I simply want to echo what Senator Craig said. You were 
asked to undertake studies at a certain level, come up with 
engineering feasibility, come up with a number of other 
answers. The determination as to what to do about the results 
of those studies, of course, is a policy determination for 
Congress and recommendations by the President of the United 
States. I just echo what Senator Craig said. I have no reason 
to think that you are not doing this objectively and without 
political considerations in mind, and I simply encourage you to 
keep moving in that direction.
    The Assistant Secretary, in his conversation with me, 
earlier emphasized that as well, and I include him so far in 
the compliments.
    General Fuhrman. Thank you.
    Dr. Westphal. Thank you.
    Senator, I am not 100 percent sure on this, but I believe 
that perhaps one of the reasons that you see funding in there 
for the phase two is that we start the budgeting process so 
early in the previous year and we did not know when the phase 
one EIS feasibility study would be completed. We thought it 
would be completed early, that the NEIMS part of the process 
would be done earlier. In fact, we expected something at the 
beginning of the year. I believe probably that is the reason 
that we went into that proposed----
    Senator Gorton. One of you said September.
    Dr. Westphal. Now it is pushed back to September.
    Senator Gorton. Now it is December.
    General Fuhrman. For that particular John Day phase one 
study, it is due to Congress in December, Senator.
    Senator Gorton. December, okay.
    Mr. Chairman, I thank you very much. That is all I have.

                       credits and reimbursements

    Senator Domenici [presiding]. Thanks for your patience in 
waiting so long.
    Let me talk with you a minute, General. At the last year's 
hearing, I believe the Corps estimated that there was potential 
for around $800 million of unfunded liabilities over the next 
several years for potential reimbursements, credits, and other 
payments for work that has been authorized to be undertaken.
    Could you update the committee on this situation? Do you 
believe this is a big problem? Is it not possible that the 
types of financing arrangements could consume very large 
portions of the construction budget if we are not careful? And 
what are the potential impacts or pitfalls with this kind of 
funding?
    General Ballard. Mr. Chairman, as a way of updating, we are 
looking at credits and potential reimbursement in an amount 
that is approaching roughly $950 million, so a growth of about 
$150 million from what we were forecasting for last year. That 
represents some 46 projects that are both approved, pending or 
in the cue in some fashion or other. Now, all of those that are 
not approved will have to be coordinated with the Congress.
    My concern is that as this amount continues to grow, there 
is some potential that the Corps could end up becoming a grant 
agency in some of our districts. That possibility is there.
    But I am more concerned about the potential loss of 
technical talent and capability within the districts as we 
migrate more toward a grant or a pass-through organization. 
This moves us away from the intent of Congress when the Corps 
of Engineers program was first developed, and that was to have 
a trained cadre of engineers and scientists available to 
respond to a national emergency. So, that is where my concern 
is as this program continues to grow.
    Senator Domenici. Dr. Westphal, you are aware that the 
committee in the conference report on the 1998 energy and water 
appropriations bill placed certain restrictions on the approval 
of reimbursement agreements, acceptance of advanced funds and 
other arrangements, because of our concerns related to the 
potential out-year budget impacts. Now, obviously, the General 
is concerned about what that would do if it became very big.
    Do you feel that the conditions we imposed were reasonable? 
What suggestions do you have which would allow some of these 
financing mechanisms to be used, but still would have some 
reasonable limitation in terms of the overall effect?
    Dr. Westphal. Mr. Chairman, first let me say I echo the 
Chief's concerns about this. I do believe that your concerns 
are justifiable and I do think that there is a need for us to 
work together to come to some understanding on how to deal with 
these demands in the future. It is obvious that we want to try 
to help projects move faster and we want to help constituents 
get the work done in a more rapid fashion perhaps, but it is 
turning out to be a system that in large part is only used by 
those communities and sponsors that have the cost share money 
available, and so other opportunities are not available to 
other communities.
    So, we hope to work with you on some resolution. I do not 
know what that would be today. I think obviously it is the 
prerogative of Congress to make that decision. It has an effect 
on the balance between the appropriators and the authorizers. 
It has an effect on the balance of power within the Congress 
and outside the Congress. I think it is an important decision 
that I would be willing to work with you on, whether it is 
setting caps on the amount of money that we are allowed to go 
through or simply making some determination as to the type of 
project that can be allowed to go forth under a reimbursement.
    Senator Domenici. We look forward to working with you 
technically how we could word it and what would be a reasonable 
limitation. I think we ought to start thinking about it. Maybe 
we can be ready in a couple of months when we are ready to mark 
up and see what we could put in the appropriations bill.

                            new study starts

    While we praise the budget with reference to it having a 
higher funding level requested over last year and not being so 
difficult to try to implement up here on the Hill, I note that 
you only have one new study start included in the 2000 budget. 
Why is this and what makes that one study, the Santa Ynez River 
study in California, so special that it was singled out over 
all others that the Corps has requested to OMB? Did you not 
have about 100 with studies eligible to be initiated?
    Dr. Westphal. We originally recommended 90, sir.
    Senator Domenici. All right. So, 90 that you recommended 
and 1 got funded. I wonder why it got funded. Does anybody 
know?
    Dr. Westphal. Well, the President's budget was working 
under also very significant caps as he tried to provide a 
balanced budget to Congress, one that does not use the surplus, 
uses the surplus for Social Security purposes. Under those 
caps, we had to make some determinations about where we felt 
there was the greatest need to move the program forward. In 
that regard, the O&M part of the budget, taking care of the 
tremendous need that there is out there for maintenance of our 
aged infrastructure, was a higher priority.
    We also felt that we do have a backlog of projects that we 
need to move----
    Senator Domenici. Wait now. I understand all that. Frankly, 
I would like you to provide for the record the 90 and tell us 
how much you requested for each. A lot of them are very small.
    Dr. Westphal. We can do that.
    [The information follows:]

            GENERAL INVESTIGATIONS FISCAL YEAR 2000 REQUESTS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                               Prim. capability
                                     -----------------------------------
             Study name                                         Fiscal
                                               State           year 2000
------------------------------------------------------------------------
BARROW COASTAL STORM DAMAGE           AK....................          80
 REDUCTION, AK--Shoreline protection
 for the threatened public
 facilities at Barrow, AK...........
CHANDALAR RIVER WATERSHED STUDY, AK-- AK....................          80
 Environmental protection for the
 watershed in conjunction with
 navigation and flood protection
 measures...........................
CHESTER CREEK WATERSHED STUDY, AK--   AK....................         100
 Environmental restoration measures
 for Chester Creek..................
GASTINEAU CHANNEL, JUNEAU, AK--       AK....................         100
 Channel accessibility for current
 vessel spectrum requirements.......
SKAGWAY HARBOR, AK--Harbor depth and  AK....................         100
 size for current and projected
 vessel needs.......................
THORNE BAY HARBOR, AK--Potential for  AK....................         100
 new and expanded harbors at both
 North and South Thorne Bay.........
SOUTHWEST ARKANSAS, AR--              AR....................         100
 Environmental restoration of the
 Corps reservoirs (Millwood,
 Dequeen, Dierks and Gillham Lakes)
 in Little River basin..............
RIO SALADO OESTE, SALT RIVER, AZ--    AZ....................         100
 Restoration of riparian habitat and
 water quality in the city of
 Phoenix, AZ........................
SEDONA, AZ--Flood damage prevention   AZ....................         100
 for Coconino and Yavapi Counties
 and the City of Sedona, AZ.........
KERN RIVER VALLEY (ISABELLA LAKE),    CA....................         100
 CA--Comprehensive review of project
 operations for environmental
 measures...........................
KLAMATH RIVER, ECOSYSTEM              CA....................         100
 RESTORATION, CA--Environmental
 restoration measures for anadromous
 fish and ripariam habitat..........
PAJARO RIVER WATERSHED, CA--Flood     CA....................         100
 damage prevention and environmental
 restoration for 1,300 sq. mi. of
 central California.................
SAN JACINTO RIVER, CA--Flood damage   CA....................         100
 prevention and environmental
 enhancement opportunities in the
 San Jacinto Watershed..............
SANTA CLARA COUNTY SHORELINE, CA--    CA....................         100
 Flood damage prevention in low
 lying areas of Santa Clara County..
WILLIAM G. STONE LOCK, CA             CA....................         200
 (Feasibility)--Review justification
 of lock operations for commercial
 navigation.........................
OAK CREEK, FLORENCE, CO--Flood        CO....................         100
 damage prevention for the city of
 Florence, CO.
CHESAPEAKE & DELAWARE CANAL, ENV      DE....................         100
 REST, DE &--Environmental
 restoration including habitat
 restoration through the beneficial
 use of dredged material............
MID DELAWARE RIVER BASIN              DE....................         100
 COMPREHENSIVE STUDY--Environmental
 restoration and flood damage
 prevention including dredged
 material disposal..................
HILLSBOROUGH RIVER BASIN, FL--Flood   FL....................         100
 damage prevention and environmental
 restoration through Temple Terrace,
 Sulphur Springs and Tampa, FL......
MILE POINT, FLORIDA--Erosion along    FL....................         100
 the north bank of the St. Johns
 river in Duval County, Florida.....
LONG ISLAND, MARSH, AND JOHNS         GA....................         100
 CREEKS, GA--Comprehensive watershed
 master plan for parts of
 metropolitan Atlanta, GA...........
SAVANNAH HARBOR TIDEGATE, GA--        GA....................         100
 Tidegate Federal maintenance versus
 transfer to non-Federal entity.....
UTOY, SANDY & PROCTOR CREEKS, GA--    GA....................         100
 Environmental restoration and flood
 damage prevention for central
 Fulton Co., GA and metropolitan
 Atlanta............................
HILO HARBOR NAVIGATION IMPROVEMENTS,  HI....................          80
 HI--Modification or expansion of
 existing harbor....................
KAWAIHAE DEEP DRAFT HARBOR            HI....................          80
 MODIFICATIONS, HI--Modifications to
 existing harbor....................
NAVIGATION IMPROVEMENTS, HONOLOLU     HI....................         120
 DISTRICT--Harbor size and
 configurations for the Commonwealth
 of the Northern Mariana Islands....
SOUTHEAST ILLINOIS, IL--Ecosystem     IL....................         100
 restoration in the area of two
 Corps constructed projects
 (Harrisburg Local Protection and
 Saline River Channelization).......
METROPOLITAN REGION OF INDIANAPOLIS,  IN....................         100
 IN--Flood damage prevention
 including the center of Marion
 County, Indiana and metropolitan
 Indianapolis.......................
ARKANSAS RIVER CHANNEL STUDY, KS--    KS....................         100
 Environmental restoration and flood
 damage prevention of the Arkansas
 River and adjacent lands from the
 Colorado-Kansas state line to the
 vicinity of Great Bend, KS.........
BANKLICK CREEK BASIN, KY--Flood       KY....................         100
 damage prevention for Kenton
 county, KY.
EAGLE CREEK RIVER BASIN, KY--Flood    KY....................         100
 damage prevention for communities
 of Carroll county, KY..............
GREEN RIVER HEADWATERS WATERSHED,     KY....................         100
 KY--Ecosystem restoration through
 the modification to the operation
 of two existing Corps projects.....
METROPOLITAN REGION OF LOUISVILLE,    KY....................         100
 KY ECOS--Ecosystem restoration
 along the Ohio River and
 tributaries including wetlands
 creation...........................
TRADEWATER RIVER WATERSHED ECOSYSTEM  KY....................         100
 RESTORATIONS--Ecosystem restoration
 of west central Kentucky including
 Christian, Hopkins, Caldwell,
 Webster Crittenden and Union
 Counties...........................
ST. BERNARD PARISH, LA--Flood damage  LA....................         100
 prevention for the St. Bernard
 Parish,  LA........................
CHARLES RIVER WATERSHED RESTORATION,  MA....................         100
 MA--Environmental restoration for
 the watershed portions of
 Middlesex, Suffolk, Norfolk, and
 Worcester counties, MA.............
COASTAL MASSACHUSETTS ECOSYSTEM       MA....................         100
 RESTORATION, MA--Ecosystem
 restoration including dredge
 material disposal and coastal
 wetlands...........................
NANTICOKE RIVER BASIN, MD & DE--      MD....................         100
 Environmental restoration including
 watershed planning, wetland
 restoration, and beneficial uses of
 dredged material...................
REDWOOD RIVER BASIN, MN--             MN....................         100
 Environmental restoration and flood
 damage prevention for Redwood
 county in the vicinity of Marshall,
 MN.................................
BIG FIVE LEVEE SYSTEM, MO--Flood      MO....................         100
 damage prevention for Union and
 Alexander counties, Illinois.......
MONROE COUNTY, MO--Flood damage       MO....................         100
 prevention for Monroe County,
 Illinois...........................
PRAIRIE DU ROCHER (IFC), MO--Flood    MO....................         100
 damage prevention for Randolph
 County, Illinois...................
BROAD RIVER BASIN, NC & SC--          NC....................         100
 Environmental restoration and flood
 damage prevention for portions of
 18 counties in both North and South
 Carolina...........................
CAPE FEAR RIVER LOCKS & DAMS, NC--    NC....................         100
 Review operation of locks and dam
 for disposition and/or
 environmental restoration..........
CURRITUCK SOUND, NC--Environmental    NC....................         100
 restoration in Currituck and Dare
 counties in the northeastern part
 of North Carolina..................
VERDIGRE CREEK AT VERDIGRE, NE--      NE....................          90
 Flood damage prevention for the
 Village of Verdigre, NE............
SHREWSBURY RIVER & TRIBUTARIES, NJ--  NJ....................         100
 Flood damage prevention and
 environmental restoration in
 Monmouth County, New Jersey........
CIMARRON RIVER AND TRIBUTARIES, NM,   NM....................         100
 OK, CO, & KS--Ecosystem restoration
 and flood damage prevention of the
 Cimarron River basin...............
RATON, NM--Flood damage prevention    NM....................         100
 for city of Raton, NM..............
GREAT CHAZY RIVER BASIN &             NY....................         100
 TRIBUTARIES, NY--Flood damage
 prevention and environmental
 restoration for the communities of
 Champlin, Mooers Forks, Ellenburg,
 and Ellenburg Depot................
HUDSON & MOHAWK RIVERS AT WATERFORD,  NY....................         100
 NY--Flood damage prevention and
 environmental restoration for
 Waterford, New York................
MOHAWK RIVER BASIN, NY--Flood damage  NY....................         100
 prevention for Oneida, Herkimer,
 Schoharie, Greene, and Montgomery
 Counties, New York.................
SARANAC RIVER BASIN & TRIBUTARIES,    NY....................         100
 NY--Flood damage prevention and
 environmental restoration for the
 communities of Plattsburgh and
 Morrisonville......................
BIG DARBY CREEK BASIN, OH--           OH....................         100
 Environmental restoration in the
 central part of Ohio within the
 counties of Pickway, Franklin,
 Madison, Union, Logan, Champaign,
 and Clark counties.................
METROPOLITAN REGION OF CINCINNATI,    OH....................         100
 BUTLER CT--Flood damage prevention
 and ecosystem restoration in
 southwestern Ohio..................
METROPOLITAN REGION OF CINCINNATI,    OH....................         100
 OH & KY--Ecosystem restoration for
 Hamilton and Clermont Counties in
 Ohio and Boone, Campbell, and
 Kenton Counties in Kentucky........
ILLINOIS RIVER BASIN, OK--Ecosystem   OK....................         100
 restoration integrating the
 Tenkiller Ferry Lake hydropower
 operations with overall basin plan,
 including land management..........
OPTIMA LAKE, OK--Optimize lake usage  OK....................         100
LOWER COLUMBIA RIVER, OR & WA--       OR....................         100
 Comprehensive long range approach
 to the Ecosystem restoration for
 the Lower Columbia River...........
UMATILLA RIVER, OR--Environmental     OR....................         100
 restoration on the Umatilla Indian
 reserva-  tion.....................
ALLEGHENY RIVER NAVIGATION, PA--      PA....................         100
 Develop optimum future plan for
 river locks and dams to include
 current operation, closure and
 disposition........................
CHRISTINA RIVER WATERSHED, PA, MD, &  PA....................         100
 DE--Environmental restoration and
 flood damage prevention in Chester,
 Delaware, and Lancaster Counties,
 PA; New Castle Co., DE; and Cecil
 Co., MD............................
RIO BAYAMON AT BAYAMON, PR--Flood     PR....................         100
 damage prevention at Rio Bayamon,
 Puerto Rico, ten miles west of San
 Juan...............................
RIO NIGUA AT ARROYO, PR--Flood        PR....................         100
 damage prevention for the southeast
 part of Puerto Rico, Arroyo........
PENNINGTON COUNTY & VICINITY, SD--    SD....................          90
 Flood damage prevention for
 Pennington County, South Dakota,
 including Rapid City...............
BUFFALO BAYOU & TRIBUTARIES, TX--     TX....................         100
 Flood damage prevention and
 environmental restoration for the
 Houston, TX channel extending from
 the Houston Ship Channel upstream
 to Barker Dam......................
GALVESTON BEACH EROSION, TX--Prevent  TX....................         100
 or mitigate shore damages
 attributable to the Federal
 navigation works...................
GULF INTRACOASTAL WATERWAY--BRAZOS    TX....................         100
 RIVER, TX--Modification of
 floodgate configuration to reduce
 traffic accidents and delays.......
GULF INTRACOASTAL WATERWAY--COLORADO  TX....................         100
 RIVER, TX--Modification to the
 Colorado River Locks to reduce
 traffic accidents and delays.......
GULF INTRACOASTAL WATERWAY--SABINE    TX....................         100
 RIVER, TX--Review navigational
 needs and environmental restoration
 (Sabine River to High Island, TX)..
LOWER BRAZOS RIVER, TX--Flood damage  TX....................         100
 prevention for the Texas counties
 of; Brazoria, Fort Bend, Austin and
 Waller.............................
LOWER GUDALUPE & SAN ANTONIO RIVERS,  TX....................         100
 TX--Flood damage prevention and
 environmental restoration for
 potions of Calhoun, Dewitt,
 Gonzales, and Victoria counties....
UPPER GUADALUPE & SAN ANTONIO RIVER   TX....................         100
 BASINS, TX--Ecosystem restoration
 and flood damage reduction within
 the south-central part of Texas....
CLINCH RIVER WATERSHED, VA--          VA....................         100
 Environmental restoration and flood
 damage reduction in southwest
 Virginia and includes the
 communities of Raven, Richlands,
 Doran, and Dante...................
JOHN H. KERR RESERVOIR, VA & NC--     VA....................         100
 Flood damage prevention and
 environmental restoration of north-
 central North Carolina and south-
 central Virginia...................
LOWER RAPPAHANNOCK RIVER BASIN, VA--  VA....................         100
 Environmental restoration for a ten
 county area east of Richmond and
 south of Washington, DC............
LYNNHAVEN RIVER BASIN, VA--           VA....................         100
 Environmental restoration including
 wetland restoration on the south
 shore of the Chesapeake Bay........
OMPOMPANOOSUC RIVER, VT--             VT....................         100
 Environmental restoration in east
 central Vermont....................
MOUNT ST. HELENS ENV RESTORATION,     WA....................         100
 WA--Environmental restoration of
 wetlands, riverine, riparian, and
 upland habitats lost or altered due
 to the Mt. St. Helens eruption.....
NEW CREEK WATERSHED, WV--             WV....................         100
 Environmental restoration and flood
 damage prevention in Mineral and
 Grant Counties, West Virginia......
------------------------------------------------------------------------

                          santa ynez, ca study

    Senator Domenici. So, I understand budgeting and caps. I 
appreciate your reminding me, but do not worry about it.
    What I want to know is why the only one to be chosen was 
this Santa----
    Dr. Westphal. Santa Ynez?
    Senator Domenici. Ynez. Yes, gee, I should know that. Ynez.
    Dr. Westphal. Santa Ynez, right.
    Well, it was a model project that had elements of flood 
protection, good environmental restoration. It was a good study 
that was well supported by its cost share sponsors. It was a 
good model project and it was determined to be one that we 
could support.
    Senator Domenici. Well, my guess is that it has some 
unusual support within the administration. [Laughter.]
    You know, you would be better off if you just said it.
    In any event, would you please tell us in detail why it is 
so great since you are here defending it. Give it to us in 
writing.
    Dr. Westphal. Yes, sir.
    [The information follows:]

                               Santa Ynez

    The selection was based upon a combination of factors including: 
flood threat, potential economic viability of a recommended plan, 
environmental impacts, and the support and likelihood of non-Federal 
participation for the implementation of a solution.

                          harbor services fund

    Senator Domenici. I have nothing against it. Obviously, I 
do not know much about it. I could hardly pronounce its name. 
So, I have no prejudices or bias.
    Now, while we said the budget looked better, there is 
something in it that is kind of difficult because, as the 
President has done in a number of appropriations, he does not 
break the caps, because he gets some receipts, some new taxes 
or new revenues, and he puts that in the appropriations bill. 
Obviously that offsets the spending. So, if you wondering what 
is the big magic about breaking the caps but not breaking them, 
it is this kind of thing.
    In this budget, you have a very large amount of money for a 
Harbor Services Trust Fund, almost $1 billion, $900 million. 
Probably part of that is old taxes, old revenues, but what 
portion of it would levy new burdens on somebody or some entity 
to pay taxes or fees?
    Dr. Westphal. It is a fee proposed on the vessel carriers. 
It is a user fee. It would collect about $1 billion, $951 
million, and that is the amount that we project to expend on 
the maintenance, dredging, and construction side on the 
navigation projects. So, we are attempting to collect only the 
amount that would be required to spend every year to develop 
and maintain these ports.
    Senator Domenici. Yes. Well, I guess what I need to know 
is--maybe your budget man could tell me--in this new trust fund 
how much of that is from residual old user fees or old taxes?
    General Fuhrman. About $600 million of that would be 
equivalent to what came out of the existing Harbor Maintenance 
Trust Fund, and the new piece of that would be about $300 
million, which is designated toward the new construction.
    Senator Domenici. If we did nothing and did not even create 
this Harbor Services Fund, there is about $600 million coming 
in. If the appropriations process chose to put in the bill, it 
pays for $600 million of this $900 million, meaning somewhere 
between $250 million and $300 million is new. Now, can somebody 
explain to me where the $300 million new in fees come from? Not 
the old ones. Nobody is complaining about those. They already 
exist. We do not want to bother a sleeping dog.
    I happen to be the first one to pass one of those, in case 
you are wondering. The first tax for the user fees came up in a 
little committee I was on 26 years ago. I almost got thrown out 
of the Senate for it. [Laughter.]
    Everybody wondered what the hell a New Mexican had to do 
with asking southern States to pay a little fee for the lock 
and dam. But it passed eventually. So, it is in there, that 
diesel tax. It has gone up since then.
    Now, what is the new one? What is the new stuff? Does 
anybody know?
    Dr. Westphal. If I understand your question--and maybe I am 
not understanding exactly, but there is about $1 billion in the 
existing fund. The proposal is to repeal that existing fund and 
transfer the balances over to the new fund and make those 
balances available for appropriations.
    Senator Domenici. Now, let me start over. There is $250 
million for construction that is currently not authorized. Does 
this budget propose that we raise the money for that from new 
source of revenue?
    Dr. Westphal. From the harbor services user fee.
    Senator Domenici. Is that new?
    Dr. Westphal. Well, it is a proposed fee that Congress 
would have to approve.
    Senator Domenici. I guess I would like to just know, how 
much are we going to raise fees and on whom to make this trust 
fund as solvent as you want it to fit your budget, $250 million 
worth. Who is going to pay that?
    General Fuhrman. Currently we have the Harbor Maintenance 
Trust Fund which is funded by a tax, and that is used for 
maintenance and repair. That is generating about $600 million a 
year for operations and maintenance. That would be done away 
with and a new fee structure established for a user fee that 
would generate $950 million a year, of which about $300 million 
would be used for new construction and the remainder would be 
used for the same thing the old harbor maintenance trust fund 
was used for, which was maintenance.
    Senator Domenici. So, somebody has to be able to tell us of 
this $950 million--I understand what you are saying--how much 
resembles, looks like, is very close to what we are currently 
doing, what we are going to do under a new trust fund, and how 
much would be new? Where would the new money come from that we 
are getting? Can you do that for me? If you cannot do it today, 
you can do it in a report to me, or how can you do that?
    Dr. Westphal. Typically we need about $900 million. We want 
to be able to raise that amount of money with the use of the 
new fee to not have any carryover balances, essentially be able 
for you to appropriate what we collect in the fee annually and 
put in the fund.
    Senator Domenici. I understand.
    Dr. Westphal. Now, this first year, since you do not have 
the proposal yet--the proposal is coming in a few weeks--if you 
approve the harbor services fee proposal, we will not have 
enough money in the new fund to fund fully the $1 billion. We 
will have to be able to transfer the monies from the existing 
fund to the new fund to be able to do that.
    Senator Domenici. The fund never paid for new construction, 
but it is going to pay for new construction under the new 
proposal.
    Dr. Westphal. Right.
    Senator Domenici. So, it is a bigger fund with a bigger 
purpose.
    General Fuhrman. Yes, sir. New construction up to this 
point in time has been paid out of general revenues.
    Senator Domenici. Now, obviously, when you increase the 
size of the trust fund on the receipt side so that you will 
have more money to spend, you have got to tax somebody that is 
not being taxed now, and that is what I would like to get. Now, 
maybe it is not ready yet.
    Dr. Westphal. Well, no, the harbor maintenance tax was 
found unconstitutional last year by the Supreme Court--the 
portion of that tax at least that was levied on exports. That 
tax was being levied on the commodities. So, with that, we had 
to basically only collect the import side of that. On the 
import side, we have got problems with GATT and some of our 
trading partners in Europe who are challenging the import side 
of that fee.
    So, our plan that we are going to submit to Congress is to 
repeal the entire harbor maintenance tax and replace it with a 
harbor services user fee, which essentially would shift from a 
tax on the commodities to a fee on the vessel carrier, so on 
the carriers of those commodities; in other words, relating the 
fee to the services we provide to the ships as they enter the 
channels and enter the ports and make that fee equivalent to 
the work we have to do to maintain the ports and maintain their 
accessibility nationwide.

                   support for the harbor service fee

    Senator Domenici. There is an argument against this that 
will be made obviously that the whole Nation benefits, not just 
those from a system of harbors and inland waterways and the 
like. But is there general agreement and support within the 
shipping community for this approach that the administration is 
talking about?
    Dr. Westphal. Well, Senator, when I first came on board, we 
had a proposal ready to go, and I did some vetting of that 
proposal with various stakeholders. There was very little, if 
any, support for it at the time. We had some difficulty 
defending the proposal, to be honest with you. So we sent that 
proposal back to our analysts and our folks that had put it 
together to work up some of the recommendations and concerns of 
the stakeholders. We spent almost 6 to 7 months doing that.
    Today, we have a proposal that is now currently being 
vetted with the other Federal agencies that I think is a much 
more acceptable proposal. I think that it will get a fair 
assessment from stakeholders. It may still be opposed by some, 
but essentially I think we have addressed many of their 
concerns and it is a much more defensible proposal. We hope to 
be able to bring it to you within the next few weeks after we 
go through that interagency process.
    Senator Domenici. So, the acceptability of that and the 
ability of us to count it in the budget is going to be very 
important as to whether you have a good program or not a good 
program. So, we are right back or we might be. If Congress says 
we are not going to do this thing, then we are very short in 
terms of having enough money to do this.
    Dr. Westphal. It will affect approximately about $300 
million roughly for the construction side on the navigation 
part of the budget. Yes, sir.

                         administrative appeals

    Senator Domenici. Now, just two questions about the 
regulatory program, administrative appeals. The conference 
report in 1998 stated, ``The conferees expect that the increase 
provided over the amount appropriated in fiscal year 1997 will 
be used to begin implementation of an administrative appeals 
process for the Corps of Engineers Regulatory Program.'' The 
Energy and Water Subcommittee of the House and Senate both 
stated their concern for implementing this process again in 
1999.
    Have you complied with the directions of Congress, and if 
you have not, why not?
    Dr. Westphal. Well, Mr. Chairman, I have to be honest and 
say, no, we have not complied with it in the sense that it has 
taken us much longer to develop the rule and to put it together 
and get it ready to go to the Federal Register. The rule on the 
denial part is at the Federal Register today as we speak. But 
it has taken much longer than you and the committee wanted us 
to take on that.
    On the jurisdictional determination, the rule is also ready 
to go forward, and we believe that with the added funds that we 
have proposed in the budget this year, we will be able to 
implement that part of the rule once it gets vetted through the 
Federal Register process.
    Senator Domenici. So, the expectation that we had was that 
the Corps would implement both an administrative appeals 
process and the jurisdiction determination appeals process. So, 
what is the timetable for implementing those processes and 
procedures now?
    Dr. Westphal. I probably have to get back to you 
specifically on the dates, but the rule is now in the Federal 
Register on the denial part, and the other, the jurisdictional 
part, is getting ready to go anytime now. So, I do not recall 
if it is a 30-day or 60-day period for response to the rule, 
and then there is the final draft that has to be submitted 
later in the summer. So, I am hoping that by the end of this 
year we will be able to say we are implementing the rule.
    General Fuhrman. With regard to the denial piece, Senator, 
that is essentially in effect as soon as it hits the Federal 
Register. So, any permit actions that take place out there 
after that are subject to the appeals process for that.
    Senator Domenici. Well, Congress has specifically earmarked 
or provided $5 million for the Corps to implement the 
administrative appeals process for 1998 and for 1999. In light 
of the fact that you have not implemented the appeals process, 
how were these funds used and why did you not take appropriate 
action to initiate and fund the administrative appeals process 
pending the rules? How was the money used? Was it used, that $5 
million?
    General Fuhrman. Yes, sir. Last year you appropriated $106 
million to us, which was $5 million over the previous year's 
appropriation of $101 million. Our budget in the regulatory 
business is primarily personnel. Some 80 to 90 percent of that 
is personnel, some 900 people spread throughout the country, 
some 90,000 actions each year.
    And we have worked hard at moving forward in trying to 
satisfy the report language of the Congress in implementing 
these rules. We decided to do it in a phased fashion, given the 
resources that we had to move forward with. From my 
perspective, our folks out there are very dedicated. The folks 
out there have done a good job of trying to reach that goal.
    Senator Domenici. So, you used it to maintain the quality 
of your staff.
    General Fuhrman. The quality of the program, sir.
    General Ballard. Not only the quality of the program, but 
Senator, as you know, we had a tremendous backlog and so we 
used quite a bit of that money to work the backlog off and to 
maintain the quality of the staff.

                       level deferred maintenance

    Senator Domenici. I have only three remaining questions and 
they will not take long. General Ballard and General Fuhrman, 
what is the level of deferred critical maintenance work in the 
civil works program, and does it concern you? Can you give the 
committee an example of the type of work which falls into this 
category of critical deferred maintenance and what the impacts 
would be on project operations or efficiencies if this failed 
to occur?
    General Ballard. Sir, we are looking at a backlog of 
deferred maintenance of about $1.6 billion. It is a concern of 
ours if we are to maintain those critical infrastructures that 
we have out there. This particular budget is a good budget and 
will put a curb to some of that growth, but it does not address 
the fact that we still have back there some $1.6 billion.
    I would ask General Fuhrman to read you some of those 
examples.
    General Fuhrman. I will submit a summary for the record, 
Senator, but just a couple of examples, for instance, to 
replace two miter gates at the Gulf Intercoastal Waterway. It 
is a $3 million cost. Concrete repairs at one of our upper 
Mississippi River locks, about $600,000. Repair structural 
elements at several of our other locks, another $4.4 million.
    [The information follows:]

       Operation and Maintenance--Backlog of Deferred Maintenance

                         [Dollars in Thousands]

        Work Category                                           Estimate

Additional Operations And Investigations To Optimize 
    Project Effectiveness...............................        $109,781
Construction And Maintenance Of Dredged Material 
    Disposal Facilities For Navigation..................          26,952
Dredging................................................         294,850
Environmental Compliance................................          13,073
Maintenance and Development Of Recreation Facilities, 
    Visitor Centers, Operating Equipment, Etc...........         190,023
Maintenance Of Dams, Reservoirs, Structures, Service 
    Facilities, Equipment, Etc.--Flood Damage Reduction.         132,046
Maintenance of Hydropower Projects......................          96,960
Maintenance Of Locks, Dams, Reservoirs, Service 
    Facilities, Equipment, Etc. For Navigation..........         714,029
Maintenance Of Natural Resources Facilities Including 
    Fish And Wildlife...................................          12,983
Mitigation Of Archeological And Cultural Resources......          14,110
Real Estate Activities, Including Claims, Audits, 
    Encroachments, Etc..................................          22,421
Remaining O&M Funded Major Rehabilitations For 
    Navigation..........................................             252
Water Management Equipment..............................           1,537
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................       1,629,017

                           project conditions

    Senator Domenici. What is the condition that we are talking 
about here that makes these critical? What is wrong?
    General Fuhrman. Very close to failing in the next several 
years, and we need to get in and fix it now. It is not a safety 
issue right now, but has the potential to be a safety issue in 
the very near term.
    General Ballard. And we have similar problems, Senator, in 
powerplants and all of the infrastructure that we own. As you 
know, we have some structures that are well over 100 years old, 
and they are in a sad state of repair and we need to do 
something about it.
    Senator Domenici. Well, let me tell you, every year when we 
go through the individual budgets up here, I bite my lip and 
get more and more concerned. The President of the United States 
goes on national television and tells America how great we are 
and says I need 81 new programs, and we have got a backlog of 
projects that may fail on us causing significant economic 
impact to the country. It seems like it is better to announce 
that you have got something new for everyone than to do what 
you are obligated to do.
    I cannot find $1.6 billion. I cannot find $300 million or 
$400 million to get it started. They did not give us enough of 
a budget, and the Congress is not going to invent this money. 
It all comes out of the same pot.
    So, I wish I could remember these when I have to go debate 
and talk about all these new programs. We could probably add up 
things that line agencies of the Federal Government submitted 
as projects they need, and it probably exceeds all the new 
money for new programs. But just to repeat myself, it is not 
very politically sexy to get up there and say we need $1.6 
billion in the State of the Union for water projects to fix 
locks and dams that are going to fall apart.
    You do not have anything to do with that. That is above 
your pay grade too, except you can fight for it. I hope you 
did. Did you submit these requests for these deferred 
maintenance stuff in your budget process?
    Dr. Westphal. Yes, I did.

                               dam safety

    Senator Domenici. Now, the same question that I asked with 
reference to dam structure safety of the Bureau of Reclamation. 
Can you submit for the record a summary of what processes and 
procedures you used to end up being able to tell this 
committee, as I assume you will, that the dams that you are in 
control of and manage, et cetera are in good shape and there is 
no imminent danger, unless it is something untoward, of 
failures? Can you submit that to us in writing?
    General Fuhrman. Yes, we can, sir.
    Senator Domenici. Is that a true statement that you would 
answer in some way similar to what I just stated?
    General Fuhrman. Yes, sir. We have a very effective dam 
safety program and consider it one of our most important pieces 
of business.
    [The information follows:]

                 Corps of Engineers Dam Safety Program

    The Corps of Engineers has a very effective dam safety program and 
consider it one of our most important pieces of business. The Army 
Corps of Engineers actively manages our dams to ensure that the risks 
to the public are minimized. We have no dams which are known to present 
an imminent danger to the public.
    Our dam safety program was established and has been maintained to 
be in compliance with the Federal Guidelines for Dam Safety. We are an 
active member of the Interagency Committee on Dam Safety (ICODS)--a 
group of Federal officials who exchange information and ideas on dam 
safety and work to foster interstate cooperation; and the National Dam 
Safety Review Board--which provides a forum to elevate dam safety 
issues of National importance.
    Each Corps District has a senior engineering official designated as 
the Dam Safety Officer. It is the Dam Safety Officer's responsibility 
to ensure the proper operation, maintenance, and funding for all of the 
dams under his or her control. Each Dam Safety Officer has the proper 
technical expertise available either on staff, by contract, or from 
other Corps Districts, to safely operate, maintain and assess our dams.
    Our formal programs which help us to ensure dam safety include the 
following:
    Operations and Maintenance Program.--Under this program, we fund 
our day-to-day work on our dams, including smaller repairs and some 
emergency repairs. The staff who operate and maintain our dams, are our 
everyday eyes and ears who keep an eye on the condition and performance 
of their project. This program also funds our monitoring 
instrumentation, which allows us to monitor and evaluate the 
performance and safety of our dams under all loading conditions and 
provides data on project behavior for application to future evaluation 
and designs.
    Formal Periodic Inspection Program.--Our PI program requires a 
thorough inspection and continuing technical evaluation of each dam on 
a 5-year cycle (or more often). This program allows us to uncover 
problems with our structures that are not readily apparent during day-
to-day surveillance.
    Dam Safety Assurance Program.--Our DSAP provides us with a 
mechanism to evaluate and remediate dam safety concerns related to 
earthquakes, flood capacity, and changes in the state-of-the-art. 
design and construction criteria.
    Major Rehabilitation Program.--Under this program, we fund larger, 
long-duration construction projects which improve the long-term 
reliability or functionality of a dam.
    And finally, each dam which, due to its location, could pose a 
potential risk to life or of serious property damage, has an Emergency 
Action Plan (EAP) which provides procedures to ensure that proper 
actions are taken during a highly unlikely event of a dam safety 
situation beyond our control. An EAP includes procedures for 
identifying and evaluating emergency situations, guidance for emergency 
operations and potential repairs, and notification of affected parties 
concerning existing and potential emergencies.
    In summary, we continue to make dam safety a priority in the Corps 
of Engineers. Our aging inventory of dams will require our continued 
commitment to uphold our dam safety obligation to the American people.

                     acequias irrigation system, nm

    Senator Domenici. Back to two things in my State. The 
Acequias irrigation system, which is a very special historic 
system being preserved for both utilization and historic 
purposes. We expressed concerns about the progress being made 
in this irrigation system rehabilitation in my State. In 
addition, the committee expressed the expectation that the 
Corps would strengthen its communication and coordination 
efforts with the State and local interests. What can you report 
to the committee in this regard?
    Dr. Westphal. Well, I think I will let General Fuhrman give 
you the details, but I think we have made some really good 
progress in this area.
    Senator Domenici. General Fuhrman.
    General Fuhrman. As you remember, Senator, before we were 
going at these piecemeal with requiring an annual supplement to 
project cooperation agreements [PCA's] between the Corps and 
the State of New Mexico. I am happy to report that now we have 
moved beyond that and have established programmatic PCA's with 
the State and we are in the process of initiating the 
programmatic NEPA so that these projects can move forward under 
those umbrella agreements.
    Senator Domenici. So, if that reaches fruition, that means 
we will not be doing one project at a time with all the delays, 
but will be qualifying a system.
    General Fuhrman. Yes, sir.
    Senator Domenici. Thank you very much.

                 upper rio grande water operation model

    The Upper Rio Grande water operations model in New Mexico. 
The committee requested a report, in consultation with the 
Bureau, on the progress and plans to complete the Upper Rio 
Grande water operations model. What is the status of this 
report?
    General Fuhrman. That is scheduled for completion in fiscal 
year 2000. We are happy to report that the testing to date has 
been very successful in that model. It is looking good.

                     Additional committee questions

    Senator Domenici. Thank you very much, we have some 
additional questions that you can answer for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Domenici

                            program overview
    Question. Does the increased budget request of the fiscal year 1999 
request reflect a change in the Administration's attitude toward your 
entire program or just parts of it?
    Answer. This budget request reflects the Administration's concern 
for the preservation of the Nation's infrastructure and environmental 
values. Further, it recognizes the importance of the Nation's ports and 
harbors to America's place in the global economy.
    Question. As and example, how does your budget request treat flood 
control and inland navigation waterway projects compared to last year? 
How much more would these projects cost the taxpayer based on the 
budgeted completion schedules than they would if funded at an efficient 
rate or schedule?
    Answer. The fiscal year 2000 budget request for flood control and 
inland navigation projects is substantially better than last year 
although it does not fund these projects at optimum schedules. For 
fiscal year 1999, the budget request for flood control and inland 
navigation projects was $497,000,000; for fiscal year 2000, the budget 
request for these projects totals $785,000,000. It is not possible to 
conduct a definitive analysis of the delay costs because so many 
assumptions about the future are required, and many of these decisions 
have not yet been made. Let it suffice to say there are costs 
associated with inflation and costs associated with inefficiencies.
    Question. General Ballard, how are completion schedules impacted 
based on the budget request compared to the Corps' most efficient 
schedule?
    Answer. Generally, 28 port development projects and activities are 
funded to meet optimum completion schedules in accordance with the 
proposed Harbor Services User Fee which will cover all construction 
costs. Amounts for 165 flood damage reduction, inland waterways, and 
shore protection projects and activities which rely on general tax 
revenues to finance their construction costs are constrained to a level 
that is about two-thirds of what is needed to maintain optimum 
completion schedules. In addition, 9 high priority projects for 
mitigation, ecosystem restoration, and other purposes are funded to 
meet optimum completion schedules. Specifically, completion dates for 
136 projects and activities would be unchanged from the fiscal year 
2000 budget and completion dates for 66 projects and activities would 
be moved up if projects and activities were funded on their most 
efficient schedules. The average change in the completion dates for 
affected projects would be 5 months.
    Question. What was your request to OMB for the construction 
program, and generally, how would completion schedules be impacted if 
projects were funded at the level requested of OMB?
    Answer. The Army recommended a fiscal year 2000 construction 
program to OMB that totaled $1.815 billion. This program was based on 
completing projects on their most efficient schedules and the impacts 
would be the same those noted previously. This amount was later reduced 
to $1.725 billion after enactment of appropriations for fiscal year 
1999.
    Question. Dr. Westphal, you have indicated that `` * * * the plan 
is to stabilize the Civil Works budget in the future'' by reducing the 
General Investigations program of the Corps of Engineers. You have also 
correctly noted that the study program is the pipeline that feeds the 
Corps' construction effort. What do you mean by ``stabilize'' the 
Corps' budget? Given past history with substantially underfunded budget 
requests, why isn't this another effort to put the Corps of Engineers 
out of business by turning off the ``spigot'' of work that feed the 
construction program?
    Answer. There is a large buildup of ongoing work in this part of 
the Corps program. When you compare the eventual large, future 
construction requirements that these projects will incur with the tight 
budgetary ceilings that we are subject to in the outyears, it is 
prudent to slow down continuing projects and severely limit the number 
of new starts in the General Investigations account, for the time 
being. The nationwide activities such as the floodplain management, 
planning assistance and international water study efforts, provide for 
important, grass roots level support for helping local areas with their 
water resource problems and, therefore, were generally kept at the 
fiscal year 1999 appropriations level funding.
    Question. Dr. Westphal, in a recent statement before the Water 
Resources Subcommittee of the House Transportation and Infrastructure 
Committee you said, ``Once the backlog of costly projects is worked 
down somewhat, then we expect to resume funding for studies at a higher 
level.'' Now this sound strangely similar to statements a few years 
back related to the Bureau of Reclamation's program, when the Secretary 
of the Interior indicated that new construction work would be suspended 
for a few years in order to work off some of their backlog and then 
resume funding at higher levels. Yet, we never seemed to get back to 
some of the traditional work of the Bureau, but have now gotten heavily 
involved in environmental enhancement and other work that is not part 
of the Reclamation mission. What can you tell this subcommittee that 
will lessen our concerns about the future of the Corps' Civil Works 
program, realizing that you and the current Administration will not be 
around if the Corps program is adversely impacted by this approach?
    Answer. My plan is definitely not to go out of the design and 
construction business. The Corps Civil Works mission is very much in 
the business of addressing, evaluating and solving the nations water 
resource infrastructure problems. But this year is still a difficult 
one from the standpoint of the current budgetary situation and choices 
must be made. Consequently, while the program presented is a good one, 
particularly from the Operation & Maintenance and construction 
standpoint, including 20 new construction starts, this is achieved by 
holding back on several items, one of which is General Investigations 
and the outyear commitments that it can create. We need a pause in the 
study program in order to put a sizeable dent in the number of projects 
currently in the construction pipeline. I hope, if all goes well with 
the Corps program in 2000 as well as with the economy and the budget in 
general, that we can resume a higher new start program in the outyears.
                          harbor services fund
    Question. A key component of the President's Budget is a 
legislative proposal to replace the existing Harbor Maintenance Trust 
Fund with a New Harbor Services Fund which would fund the annual 
maintenance and construction requirements for deep draft harbors around 
the country. While maintenance has been accomplished through this sort 
of financing for many years, expanding the program to include 
construction is a step which creates some inequities and imbalances in 
the overall water resources program nationwide.
    For example, the fiscal year 2000 budget for the Corps of Engineers 
would ``fully fund'' the annual needs for deepening deep draft harbors 
at the expense of other activities which again are underfunded and have 
completion schedules that are stretched out.
    Dr. Westphal, what is the rationale for extending the availability 
of the Harbor Services Fund to include construction of deeper 
navigation channels? Why wasn't construction authority provided as part 
of the Harbor Maintenance Trust Fund? What is wrong with the present 
way funding is provided through the general fund of the Treasury for 
deepening projects? What would be the impact if this financing 
mechanism was not approved?
    Answer. The Harbor Services Fund would provide the funds necessary 
to pursue improvements of deep draft ports and channels at the optimum 
level, that is, with no delays due to funding constraints. This 
translates into more work accomplished in less time. The revenue 
targets for the Harbor Services User Fee were calculated to allow this 
to happen without the accrual of large surpluses. Who are the winners? 
The ports, the shippers, the economy.
    Extending the authority of the Harbor Maintenance Trust Fund to 
include construction would not be productive. The Supreme Court ruled 
the Harbor Maintenance Tax unconstitutional on exports in March 1998. 
The tax is still being collected on imports and domestic goods. 
However, a replacement needs to be addressed in a timely manner since 
the tax on imports is under scrutiny as the European Union claims that 
it violates articles of the General Agreement on Tariffs and Trade 
(GATT). While the Administration wants to abolish the tax, it also 
wants to offer an alternative, equitable funding mechanism at the same 
time. That mechanism is the proposed Harbor Services User Fee.
    The realities of the Federal Budget process necessitate looking for 
innovative, equitable ways to ensure funds are available to produce the 
navigation benefits that accrue to ports and shippers. It is good for 
the Nation's business to get navigation benefits on line as quickly as 
we can and at the least cost possible. To do this, a funding source 
other than the General Fund is needed. The Harbor Services User Fee 
will ensure the Army has the resources necessary to meet the growing 
demands of the Nation's ports.
    Because the collection of the Harbor Services User Fee will be 
credited to the Operation and Maintenance, General, and Construction, 
General, accounts as offsetting receipts, the lack of the fee would 
constrain obligation authority within the discretionary caps of the 
Budget Enforcement Act. Under such a constrained program, project work 
likely would not be funded at capability levels, which is what the use 
of the Harbor Services Fund would do. The greatest impacts would be in 
the construction program as project schedules would have to be 
stretched out over time in order to keep total budget authority within 
the discretionary ceilings of the Budget Enforcement Act.
    Question. Since the Nation as a whole benefits from a sound system 
of ports and channels, why should the cost of building and maintaining 
them be placed solely on shippers?
    Answer. While it is true that the Nation's economy benefits from a 
healthy port system, it is also true that our economy allows 
individuals to profit from their industries. User fees charged by the 
Federal Government, for whatever reason, are based on the long-
established principle that those who benefit from a government-provided 
service may be required to help pay for it. Vessel owners and operators 
are the beneficiaries of the port improvement, operation and 
maintenance activities of the Federal Government. They are good at what 
they do and profit from it. Therefore, it is only fitting that they 
contribute financially to a developed, reliable, safe U.S. port system.
    Another reason for a Harbor Services User Fee addresses an even 
more basic economic issue: the allocation of scarce resources. The 
realities of the Federal Budget process necessitate looking for 
innovative, equitable ways to ensure funds are available to produce the 
navigation benefits that accrue to shippers. It is also good business 
practice to get benefits on line as quickly as we can and at the least 
cost possible. To do this, a funding source other than the General Fund 
is needed. The Harbor Services User Fee will ensure the Army has the 
resources necessary to meet the growing demands of the Nation's ports.
    Question. Is there general agreement and support within the 
shipping community with the approach of the Administration has put 
forth related to the Harbor Services Fund?
    Answer. I believe they are still thinking very hard about the 
proposal. The shippers would pay the users fee and the ports are 
concerned about competitiveness. Last year, I conducted several 
outreach sessions with port representatives and listened carefully to 
their concerns. We have been working the key issues very hard to draft 
a proposal which reaps navigation benefits without placing an 
unreasonable financial burden on the shippers.
    Question. General Ballard, do you perceive any problems with 
financing the construction deepening of ports through this type of 
arrangement? Do you think that this approach will adversely impact the 
construction program? How about the fiscal year 2000 budget request, 
are there any impacts as a result of this proposal, in your judgement?
    Answer. I do not see a problem with financing port deepening 
construction projects from the Harbor Services Fund if legislation is 
enacted to allow this arrangement. It will be similar to the manner in 
which port maintenance requirements have been met in prior years, and 
will provide a reliable funding source so that port deepening projects 
could proceed on their most efficient construction schedules. However, 
non-Federal sponsors of other types of projects will very likely not be 
pleased with this proposal because most other projects which rely on 
general tax revenues to finance their construction will proceed on 
constrained schedules. This situation has created two groups projects 
that are treated differently from one another in the fiscal year 2000 
budget request. It may adversely impact the construction program as the 
groups compete for scarce resources.
    Question. Have any projects had to be delayed or under-funded in 
order to accommodate the port deepening construction? What will these 
delays mean in terms of increased costs and delayed benefits?
    Answer. As I indicated previously, 28 port development projects and 
activities that would be funded from the Harbor Services Fund are 
included in the fiscal year 2000 budget request to meet optimum 
completion schedules. Amounts for 165 flood damage reduction, inland 
waterways, and shore protection projects and activities which rely on 
general tax revenues to finance their construction costs are 
constrained to a level that is about two-thirds of what is needed to 
maintain optimum completion schedules. In addition, 9 high priority 
projects for mitigation, ecosystem restoration, and other purposes are 
funded to meet optimum completion schedules. It is not possible to 
conduct a definitive analysis of the delay costs and delayed benefits 
because so many assumptions about the future are required, and many of 
these decisions have not yet been made. Let it suffice to say there are 
costs associated with inflation, costs associated with inefficiencies, 
and costs associated with forgone benefits.
          fully funded projects budgeted for fiscal year 2000
    Question. General Ballard, could you provide for the record a list 
of all projects that are included in the budget which are ``fully 
funded'' at or near the optimum rate for fiscal year 2000?
    Answer. Yes, I will provide such a list for the record.

                        FISCAL YEAR 2000 ``FULLY FUNDED'' CONSTRUCTION, GENERAL PROJECTS
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                          2000
                   DIV                                  ST                          PROJECT              BUDGET
----------------------------------------------------------------------------------------------------------------
PO.......................................  AK..........................  CHIGNIK AK..................      4,357
PO.......................................  AK..........................  COOK INLET, AK..............        500
PO.......................................  AK..........................  KAKE HARBOR, AK.............      2,568
PO.......................................  AK..........................  ST. PAUL HARBOR, AK.........        500
SA.......................................  AL..........................  MOBILE HARBOR, AL...........        700
SP.......................................  CA..........................  GUADALUPE RIVER, CA.........      5,000
SP.......................................  CA..........................  HUMBOLDT HARBOR AND BAY, CA.      3,200
SP.......................................  CA..........................  LOS ANGELES HARBOR CA.......      9,785
SP.......................................  CA..........................  SANTA BARBARA HARBOR, CA....      4,960
SA.......................................  FL..........................  CANAVERAL HARBOR DEEPENING,         830
                                                                          FL.
SA.......................................  FL..........................  CANAVERAL HARBOR, FL........      2,750
SA.......................................  FL..........................  CENTRAL AND SOUTHERN             52,300
                                                                          FLORIDA, FL.
SA.......................................  FL..........................  EVERGLADES AND SOUTH FLORIDA     21,100
                                                                          ECOSYSTEM RESTORATION, FL.
SA.......................................  FL..........................  KISSIMMEE RIVER, FL.........     39,800
SA.......................................  FL..........................  MANATEE HARBOR, FL..........      4,700
SA.......................................  FL..........................  MIAMI HARBOR CHANNEL, FL....     15,000
PO.......................................  HI..........................  KIKIAOLA SMALL BOAT HARBOR,          75
                                                                          KAUAI, HI.
PO.......................................  HI..........................  MAALAEA HARBOR, MAUI, HI....        272
LR.......................................  IL..........................  CHICAGO SHORELINE, IL.......      7,629
MV.......................................  LA..........................  PORT FOURCHON, LA...........      2,184
NA.......................................  MA..........................  BOSTON HARBOR, MA...........      1,000
NA.......................................  MD..........................  BALTIMORE HARBOR AND              9,578
                                                                          CHANNELS (BREWERTON
                                                                          CHANNEL), MD.
SA.......................................  MS..........................  PASCAGOULA HARBOR, MS.......      7,792
SA.......................................  NC..........................  WILMINGTON HARBOR NC........     18,300
MV.......................................  ND..........................  DEVILS LAKE ND..............     10,000
NA.......................................  NJ..........................  DELAWARE RIVER MAIN CHANNEL,     16,500
                                                                          NJ, PA & DE.
NA.......................................  NJ..........................  NEW YORK HARBOR & ADJACENT        2,000
                                                                          CHNLS, PORT JERSEY CHNL, NJ.
NA.......................................  NY..........................  KILL VAN KULL AND NEWARK BAY     60,000
                                                                          CHANNEL, NY & NJ.
NA.......................................  PA..........................  WYOMING VALLEY, PA (LEVEE        20,000
                                                                          RAISING).
SA.......................................  PR..........................  SAN JUAN HARBOR, PR.........      8,000
SA.......................................  SC..........................  CHARLESTON HARBOR, SC.......     37,284
SW.......................................  TX..........................  CHANNEL TO VICTORIA, TX.....      8,700
SW.......................................  TX..........................  HOUSTON--GALVESTON               60,000
                                                                          NAVIGATION CHANNELS TX.
NA.......................................  VA..........................  NORFOLK HARBOR AND CHANNELS         550
                                                                          (DEEPENING), VA.
NW.......................................  WA..........................  COLUMBIA RIVER FISH             100,000
                                                                          MITIGATION, WA, OR & ID.
XX.......................................  XX..........................  DREDGED MATERIAL DISPOSAL        20,000
                                                                          FACILITIES PROGRAM.
XX.......................................  XX..........................  RIVERINE ECOSYSTEM               25,000
                                                                          RESTORATION AND FLOOD
                                                                          HAZARD MITIGATION.
----------------------------------------------------------------------------------------------------------------

               fiscal year 2000 construction capabilities
    Question. Also, could you provide for the record a list which shows 
the Corp's construction capability, how the funds would be used, and 
how much the schedule could be advanced with the additional funding?
    Answer. Yes, I will provide the requested list for the record.

                                               FISCAL YEAR 2000 FUNDING CAPABILITIES CONSTRUCTION PROJECTS
                                                                 (Amounts in Thousands)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                             Amounts
Congressional                                Estimated     included in        Study
  Districts     Project and State    Type    Fed, IWTF,    President's     capability              Purpose of additional capability              Amount
                                            & HMTF cost      budget
--------------------------------------------------------------------------------------------------------------------------------------------------------
           ALABAMA:
        AL 1   BLACK WARRIOR     (N)           18,900       3,000 (C)       3,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                AND TOMBIGBEE
                RIVERS,
                VICINITY OF
                JACKSON, AL
        AL 1   MOBILE HARBOR,    (N)          305,568         700 (C)         700 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                AL
        AL 2   WALTER F GEORGE   (MP)          37,000        750 (MR)        750 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
        GA 2    POWERHOUSE AND
                DAM, AL & GA
                (MAJOR REHAB)
        AL 2   WALTER F GEORGE   (MP)          30,800      3,600 (MR)      3,600 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
        GA 2    POWERPLANT, AL
                & GA (MAJOR
                REHAB)
           ALASKA:
               ALASKA            (E)           25,000             (C)      13,911 (C)  COMPLETE BUCKLAND CONSTRUCTION......................     $8,911
                ENVIRONMENTAL                                                          INITIATE NOME CONSTRUCTION..........................      5,000
                INFRASTRUCTURE,                                                        NOTE: THE ADMINISTRATION HAS IDENTIFIED ECONOMIC AND/
                AK                                                                      OR POLICY CONCERNS.
                                                                                                                                            ------------
                   s                                                                     s                                                      13,911
       AK AL   BETHEL BANK       (FC)      \1\ 18,031             (C)             (C)  FULLY FUNDED........................................  .........
                STABILIZATION,
                AK
               CHIGNIK HARBOR,   (N)        \1\ 5,589       4,357 (C)       4,357 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                AK
       AK AL   COOK INLET, AK    (N)        \1\ 9,450         500 (C)       2,178 (C)  ADVANCE CONSTRUCTION BY 1 YEAR......................  .........
       AK AL   DILLINGHAM        (FC)       \1\ 3,277             (C)             (C)  FULLY FUNDED........................................  .........
                EMERGENCY BANK                                                         NOTE: THE ADMINISTRATION HAS IDENTIFIED ECONOMIC AND/
                STABILIZATION,                                                          OR POLICY CONCERNS.
                AK
       AK AL   HOMER SPIT STORM  (FC)       \1\ 6,600             (C)             (C)  FULLY FUNDED........................................  .........
                DAMAGE
                REDUCTION, AK
       AK AL   KAKE HARBOR, AK   (N)       \1\ 18,000       2,568 (C)       2,568 (C)  NO ADDITIONAL REQUIREMENT...........................
               ST PAUL HARBOR,   (N)       \1\ 14,349         500 (C)       2,500 (C)  ADVANCE COMPLETION OF CONTRACT # 1 BY 6 MO AND            2,000
                AK                                                                      INITIATE CONTRACT # 2.
           ARIZONA:
        AZ 6   CLIFTON, AZ       (FC)      \1\ 16,100         645 (C)         645 (C)  COMPLETE PROJECT....................................  .........
     AZ 2, 5   NOGALES WASH, AZ  (FC)         \1\ 523             (C)         180 (C)  CONSTRUCT FLOODWARNING SYSTEM.......................  .........
     AZ 2, 5   RILLITO RIVER,    (FC)      \1\ 28,600             (C)       2,643 (C)  COMPLETE PROJECT....................................  .........
                AZ
           ARKANSAS:
        AR 2   ARKANSAS RIVER,   (FC)         \1\ 418             (C)             (C)  FULLY FUNDED........................................  .........
                TUCKER CREEK,
                AR
     AR 2, 3   DARDANELLE LOCK   (MP)      \1\ 29,700     11,964 (MR)     11,964 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
                AND DAM
                POWERHOUSE, AR
                (MAJOR REHAB)
AR 1, 2, 3, 4  MCCLELLAN--KERR   (N)      \1\ 632,500       3,080 (C)       3,500 (C)  CONTINUE EVALUATION STUDIES OF CUT-OFF STRUCTURE            420
     OK 2, 3   ARKANSAS RIVER                                                           EROSION.
               NAVIGATION
                SYSTEM, AR & OK
     AR 1, 4   MONTGOMERY POINT  (N)      \1\ 242,000      20,000 (C)      45,000 (C)  ADVANCE COMPLETION OF PROJECT ONE YEAR..............     25,000
                LOCK AND DAM,
                AR
        AR 4   OUACHITA AND      (N)      \1\ 261,000             (C)             (C)  LACK OF LOCAL COOPERATION...........................  .........
  LA 3, 4, 5    BLACK RIVERS,
                AR & LA
        AR 3   OZARK             (MP)          44,700            (MR)        500 (MR)  INITIATE REDESIGN OF EXISTING FIVE TURBINES.........        500
                (POWERHOUSE),
                AR (MAJOR
                REHAB)
     AR 2, 4   PLUM BAYOU LEVEE  (FC)           1,700             (C)       1,000 (C)  INITIATE CONSTRUCTION OF PROJECT....................      1,000
                SYSTEM,                                                                NOTE: THE ADMINISTRATION'S REVIEW RIVER LEVEES, AR
                ARKANSAS                                                                OF THIS PROJECT HAS IDENTIFIED ECONOMIC AND/OR
                                                                                        POLICY CONCERNS.
    AR 3, 4,   RED RIVER         (N)      \1\ 120,262             (C)       4,000 (C)  CONTINUE CONSTRUCTION CONTRACTS FOR BLACK LAKE,           2,600
        LA 4    EMERGENCY BANK                                                          PLEASANT VALLEY AND HUNTERS ISLAND.
                PROTECTION, AR                                                         INITIATE DESIGN BOIS D'ARC REVETMENT................      1,000
                & LA                                                                   CONSTRUCTION MANAGEMENT REVETMENT...................        400
                                                                                       NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                                                                                                                                            ------------
                   s                                                                     s                                                       4,000
           CALIFORNIA:
  CA 3, 4, 5   AMERICAN RIVER    (FC)      \1\ 28,510       4,000 (C)       4,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
          11    WATERSHED
                (NATOMAS), CA
  CA 3, 4, 5   AMERICAN RIVER    (FC)      \1\ 47,600      17,000 (C)      17,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
          11    WATERSHED, CA
        CA 3   CACHE CREEK       (FC)      \1\ 15,740             (C)             (C)  FULLY FUNDED........................................  .........
                SETTLING BASIN,
                CA
        CA 6   CORTE MADERA      (FC)          21,700         500 (C)         500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                CREEK, CA
 CA 13,15,16   COYOTE AND        (FC)      \1\ 55,735             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                BERRYESSA
                CREEKS, CA
        CA 1   CRESCENT CITY     (N)            1,446             (C)             (C)  FULLY FUNDED........................................  .........
                HARBOR, CA
    CA 15,16   GUADALUPE RIVER,  (FC)      \1\ 78,500       5,000 (C)       5,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                CA
        CA 1   HUMBOLDT HARBOR   (N)           12,300       3,200 (C)       3,200 (C)  COMPLETE PROJECT....................................  .........
                AND BAY, CA
  CA 21, 22,   LOS ANGELES       (FC)     \1\ 150,000      30,000 (C)      50,000 (C)  INITIATE RELOCATION OF UPRR-COMPTON CREEK BRIDGE....     20,000
 23, 24, 25,    COUNTY DRAINAGE                                                        ADVANCE COMPLETION BY 12 MONTHS.....................
 26, 27, 28,    AREA, CA
 29, 30, 31,
 32, 33, 34,
 37, 38, 39,
          42
 1CA 32, 36,   LOS ANGELES       (N)      \1\ 116,200       9,785 (C)       9,785 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
      38, 42    HARBOR, CA
 CA 2, 3, 5,   LOWER SACRAMENTO  (FC)       \1\ 4,660       2,317 (C)       2,317 (C)  COMPLETE PROJECT....................................  .........
       7, 11    AREA LEVEE
                RECONSTRUCTION,
                 CA
     CA 2, 3   MARYSVILLE/YUBA   (FC)      \1\ 32,260         300 (C)         300 (C)  COMPLETE PROJECT....................................  .........
                CITY LEVEE
                RECONSTRUCTION,
                CA
   CA 18, 19   MERCED COUNTY     (FC)      \1\ 91,800         500 (C)         500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                STREAMS, CA
 CA 2, 3, 5,   MID-VALLEY AREA   (FC)      \1\ 14,900       4,000 (C)       4,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
       7, 11    LEVEE
                RECONSTRUCTION,
                CA
        CA 1   NAPA RIVER, CA    (FC)          91,000       4,500 (C)       4,500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
CA 4, 11, 18   NEW MELONES       (MP)     \1\ 402,000             (C)             (C)  FULLY FUNDED........................................  .........
                LAKE, CA
       CA 43   NORCO BLUFFS,     (FC)           5,580             (C)             (C)  FULLY FUNDED........................................  .........
                SANTA ANA
                RIVER, CA
   CA 36, 38   PORT OF LONG      (N)       \1\ 19,800             (C)             (C)  FULLY FUNDED........................................  .........
                BEACH
                (DEEPENING), CA
 CA 2, 3, 5,   SACRAMENTO RIVER  (FC)     \1\ 179,900       7,000 (C)       7,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
       7, 11    BANK PROTECTION
                PROJECT, CA
        CA 3   SACRAMENTO RIVER  (N)       \1\ 24,900             (C)             (C)  COST SHARING AND FINANCING BY LOCAL INTERESTS ARE
                DEEPWATER SHIP                                                          UNAVAILABLE.
                CHANNEL, CA
 CA 2, 3, 5,   SACRAMENTO RIVER  (FC)      \1\ 76,322             (C)             (C)  FULLY FUNDED........................................  .........
       7, 11    FLOOD CONTROL
                PROJECT, CA
                (DEF CORR)
     CA 2, 3   SACRAMENTO        (FC)      \1\ 16,550       3,000 (C)       6,000 (C)  ADVANCE PROJECT COMPLETION 6 MONTHS.................  .........
                RIVER, GLENN-
                COLUSA
                IRRIGATION
                DISTRICT, CA
     CA 3, 5   SACRAMENTO URBAN  (FC)      \1\ 28,215             (C)             (C)  FULLY FUNDED........................................  .........
                AREA LEVEE
                RECONSTRUCTION,
                 CA
CA 3, 7, 10,   SAN FRANCISCO     (N)      \1\ 172,250             (C)             (C)  LACK OF ADEQUATE LOCAL SUPPORT......................  .........
          11    BAY TO
                STOCKTON, CA
   CA 15, 17   SAN LORENZO       (FC)      \1\ 13,230       4,800 (C)       4,800 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                RIVER, CA
       CA 48   SAN LUIS REY      (FC)      \1\ 61,100             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                RIVER, CA
  CA 39, 40,   SANTA ANA RIVER   (FC)     \1\ 896,000      20,000 (C)      28,000 (C)  INITIATE CONSTRUCTION PRADO DAM.....................      5,000
 41, 42, 43,    MAINSTEM, CA                                                           INITIATE K-RAT MITIGATION...........................      3,000
 44, 45, 46,
          47
                                                                                                                                            ------------
                   s                                                                     s                                                       8,000
       CA 22   SANTA BARBARA     (N)        \1\ 5,360       4,960 (C)       4,960 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                HARBOR, CA
       CA 29   SANTA MONICA      (N)        \1\ 4,660             (C)             (C)  FULLY FUNDED........................................  .........
                BREAKWATER, CA
       CA 23   ANTA PAULA        (FC)      \1\ 36,000      14,800 (C)      16,195 (C)  COMPLETE PROJECT....................................  .........
                CREEK, CA
       CA 49   SILVER STRAND     (BE)          15,300             (C)         351 (C)  COMPLETE GRR........................................        351
                SHORELINE,                                                             NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                IMPERIAL BEACH,                                                         HAS IDENTIFIED POLICY CONCERNS.
                CA
       CA 20   SUCCESS DAM,      (FC)          30,900      1,250 (DS)      1,250 (DS)  NO ADDITIONAL REQUIREMENT...........................  .........
                TULE RIVER, CA
                (DAM SAFETY)
   CA 45, 47   SURFSIDE--SUNSET  (BE)          43,200             (C)         400 (C)  INITIATE ENGINEERING & DESIGN FOR PERIODIC                  400
                -NEWPORT BEACH,                                                         NOURISHMENT.
                CA
     CA 2, 3   UPPER SACRAMENTO  (FC)       \5\ 5,640       3,055 (C)       3,055 (C)  COMPLETE PROJECT....................................  .........
                AREA LEVEE
                RECONSTRUCTION,
                 CA
       CA 10   WALNUT CREEK, CA  (FC)      \1\ 71,930             (C)             (C)  FULLY FUNDED........................................  .........
        CA 3   WEST SACRAMENTO,  (FC)      \1\ 24,700       7,700 (C)       7,700 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                CA
        CA 7   WILDCAT AND SAN   (FC)      \1\ 20,200             (C)             (C)  FULLY FUNDED........................................  .........
                PABLO CREEKS,
                CA
        CA 3   YOLO BASIN        (E)       \1\ 12,145             (C)             (C)  FULLY FUNDED........................................  .........
                WETLANDS,
                SACRAMENTO
                RIVER, CA
           COLORADO:
        CO 3   ALAMOSA, CO       (FC)       \1\ 5,552             (C)             (C)  FULLY FUNDED........................................  .........
           CONNECTICUT:
        CT 3   FAULKNERS         (FC)           4,500             (C)         582 (C)  COMPLETE PROJECT....................................  .........
                ISLAND, CT                                                             NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
           DELAWARE:
       DE AL   DELAWARE COAST    (BE)      \1\ 11,800         259 (C)         259 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                PROTECTION, DE
       DE AL   DELAWARE COAST-   (BE)          46,090             (C)         325 (C)  INITIATE CONSTRUCTION THE ADMINISTRATION'S REVIEW OF  .........
                REHOBOTH TO                                                             THIS PROJECT HAS IDENTIFIED POLICY CONCERNS.
                DEWEY BCH, DE
           DISTRICT OF
            COLUMBIA:
               AQUATIC           .......       49,000       4,500 (C)       6,000 (C)  FULLY FUND PROGRAM..................................  .........
                ECOSYSTEM
                RESTORATION
                (SECTION 206
               AQUATIC PLANT     .......       32,000       3,000 (C)       5,000 (C)  FULLY FUND PROGRAM..................................  .........
                CONTROL
               BEACH EROSION     .......       27,600       2,500 (C)       4,000 (C)  FULLY FUND PROGRAM..................................  .........
                CONTROL
                PROJECTS
                (SECTION 103
               BENEFICIAL USES   .......       10,200       1,000 (C)       2,000 (C)  FULLY FUND PROGRAM..................................  .........
                OF DREDGED
                MATERIAL
                (SECTION  204)
               DREDGED MATERIAL  .......      248,255      20,000 (C)      20,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                DISPOSAL
                FACILITIES
                PROGRAM
               EMERGENCY         .......      100,000       8,500 (C)      13,000 (C)  FULLY FUND PROGRAM..................................  .........
                STREAMBANK
                PROTECTION
                PROJECTS
                (SECTION 14)
               EMPLOYEES         .......      214,197      19,554 (C)      19,554 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                COMPENSATION
               FLOOD CONTROL     .......      295,500      26,900 (C)      35,000 (C)  FULLY FUND PROGRAM..................................  .........
                PROJECTS
                (SECTION 205)
               INLAND WATERWAYS  .......          750          45 (C)          45 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                USERS BOARD--
                BOARD EXPENSE
               INLAND WATERWAYS  .......        2,220         185 (C)         185 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                USERS BOARD--
                CORPS EXPENSE
               MITIGATION OF     .......        5,100         500 (C)         500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                SHORE DAMAGES
                (SECTION 111)
               MODIFICATIONS     .......      126,475       8,500 (C)      12,000 (C)  FULLY FUND PROGRAM..................................  .........
                FOR IMPROVEMENT
                OF ENVIRONMENT
                (SECTION 1135)
               NAVIGATION        .......       52,509       4,500 (C)       7,000 (C)  FULLY FUND PROGRAM..................................  .........
                PROJECTS
                (SECTION 107)
               RIVERINE          .......      925,000      25,000 (C)      25,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                ECOSYSTEM
                RESTORATION AND
                FLOOD HAZARD
                MITIGATION
               SNAGGING AND      .......        1,100         100 (C)         500 (C)  FULLY FUND PROGRAM..................................  .........
                CLEARING
                PROJECTS
                (SECTION 208)
           FLORIDA:
       FL 15   BREVARD COUNTY,   (BE)         154,000             (C)       1,000 (C)  INITIATE NOURISHMENT................................  .........
                FL                                                                     NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED POLICY CONCERNS.
   FL 11, 15   CANAVERAL HARBOR  (N)            6,600         830 (C)         830 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                DEEPENING, FL
   FL 11, 15   CANAVERAL         (N)          124,470       2,750 (C)       2,750 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                HARBOR, FL
       FL 13   CEDAR HAMMOCK     (FC)          11,600             (C)         238 (C)  INITIATE PROJECT....................................  .........
                (WARES CREEK)
 FL 5, 6, 8,   CENTRAL AND       (FC)       2,586,300      52,300 (C)      52,300 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
 10, 11, 12,    SOUTHERN
 13, 14, 15,    FLORIDA, FL
 16, 17, 18,
 19, 20, 21,
      22, 23
   FL 18, 22   DADE COUNTY, FL   (BE)         163,300       2,000 (C)       4,000 (C)  COMPLETE RENOURISHMENT OF BAL HARBOUR, AWARD TEST     .........
                                                                                        BEACH FILL CONTRACT.
FL 7, 8, 12,   EVERGLADES AND    (E)           75,000      21,100 (C)      21,100 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
 14, 16, 17,    SOUTH FLORIDA
 18, 19, 20,    ECOSYSTEM
      21, 22    RESTORATION, FL
       FL 12   FORT PIERCE       (BE)          28,000             (C)         500 (C)  CONTINU PROJECT.....................................  .........
                BEACH, FLO                                                             NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED POLICY CONCERNS.
       FL 11   INDIAN RIVER      (BE)     ...........             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                COUNTY, FL
FL 3, 4, 11,   INTRACOASTAL      (N)            1,085             (C)         400 (C)  INITIATE PROJECT....................................  .........
 12, 14, 15,    WATERWAY, PALM
 16, 17, 18,    BEACH COUNTY,
  19, 22, 23    FL
        AL 2   JIM WOODRUFF      (MP)          35,600      6,000 (MR)      6,000 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
        FL 2    LOCK AND DAM
        GA 2    POWERHOUSE, FL
                & GA (MAJOR
                REHAB)
FL 5, 8, 10,   KISSIMMEE RIVER,  (E)          243,500      39,800 (C)      39,800 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
11,12,15, 16    FL
       FL 22   LAKE WORTH INLET  (N)            4,500             (C)       1,000 (C)  INITIATE PROJECT....................................  .........
                SAND TRANSFER
                PLANT
       FL 14   LEE COUNTY, FL    (BE)           8,900             (C)         185 (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                (REIMBURSEMENT)
       FL 13   MANATEE HARBOR,   (N)           19,885       4,700 (C)       4,700 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                FL
FL 10, 12, 16  MARTIN COUNTY,    (BE)          25,600             (C)         213 (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                FL
   FL 18, 22   MIAMI HARBOR      (N)           47,566      15,000 (C)      15,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                CHANNEL, FL
        FL 4   PALM VALLEY       (N)           18,700       3,000 (C)       5,000 (C)  ADVANCE PROJECT COMPLETION 1 YEAR...................  .........
                BRIDGE, FL
        FL 1   PANAMA CITY       (BE)          22,905             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........
                BEACHES, FL
     FL 8, 9   PINELLAS COUNTY,  (BE)         144,600       2,000 (C)       3,476 (C)  RENOURISH SAND KEY & TREASURE ISLAND................  .........
                FL
        FL 4   ST. JOHNS COUNTY  (BE)         153,400             (C)         300 (C)  COMPLETE DESIGN.....................................  .........
                (ST. AUGUSTINE                                                         NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                BEACHES), FL                                                            HAS IDENTIFIED POLICY CONCERNS.
       FL 11   TAMPA HARBOR--    (N)            6,932             (C)       1,000 (C)  INITIATE PROJECT....................................  .........
                BIG BEND
           GEORGIA:
        GA 9   BUFORD            (MP)          32,900      3,650 (MR)      3,650 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
                POWERHOUSE, GA
                (MAJOR REHAB)
       GA 11   HARTWELL LAKE     (MP)      \1\ 20,800      1,500 (MR)      1,500 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
        SC 3    POWERHOUSE, GA
                & SC (MAJOR
                REHAB)
        GA 1   LOWER SAVANNAH    (N)        \1\ 3,196             (C)         200 (C)  INITIATE PROJECT....................................  .........
        SC 2    RIVER BASIN, GA
                & SC
       GA 10   RICHARD B         (MP)     \1\ 618,100       8,500 (C)       8,500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
        SC 3    RUSSELL DAM AND
                LAKE, GA & SC
       GA 10   THURMOND LAKE     (MP)      \1\ 69,700      8,000 (MR)      8,000 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
        SC 3    POWERHOUSE, GA
                & SC (MAJOR
                REHAB)
        GA 1   TYBEE ISLAND, GA  (BE)      \1\ 17,244             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
           HAWAII:
        HI 2   IAO STREAM FLOOD  (FC)      \1\ 14,297         219 (C)         340 (C)  ADVANCE COMPLETION OF GENERAL DESIGN MEMORANDUM BY 6  .........
                CONTROL, MAUI,                                                          MONTHS.
                HI (DEF CORR)
        HI 2   KIKIAOLA SMALL    (N)        \1\ 4,997          75 (C)          75 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                BOAT HARBOR,
                KAUAI, HI
        HI 2   MAALAEA HARBOR,   (N)       \1\ 11,329         272 (C)         272 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                MAUI, HI
           ILLINOIS:
   IL 12, 20   ALTON TO GALE     (FC)         109,018             (C)             (C)  COST SHARING AND FINANCING BY LOCAL INTERESTS ARE     .........
        MO 8    ORGANIZED LEVEE                                                         UNLIKELY.
                DISTRICT, IL &
                MO (DEF CORR)
       IL 12   CHAIN OF ROCKS    (N)       \1\ 24,500       1,600 (C)       2,200 (C)  COMPLETE PLACEMENT OF RIPRAP IN IN DRAINAGE DITCH           600
                CANAL,                                                                  ADVANCES PROJECT COMPLETION BY THREE MONTHS.
                MISSISSIPPI
                RIVER, IL (DEF
                CORR)
       IL 13   CHICAGO SANITARY  (E)        \1\ 2,000         100 (C)         600 (C)  COMPLETE DESIGN AND INITIATE CONSTRUCTION OF PHASE          500
                AND SHIP CANAL                                                          II.
                DISPERSAL
                BARRIER, IL
 IL 1, 2, 5,   CHICAGO           (BE)     \1\ 169,100       7,629 (C)      18,629 (C)  ADVANCE CONSTRUCTION REACH 2 (IRVING TO BELMONT)....      2,000
        7, 9    SHORELINE, IL                                                          ADVANCE CONSTRUCTION REACH 4 (I-55 TO 30TH  ST).....      1,300
                                                                                       ADVANCE CONSTRUCTION REACH 4 (33RD ST TO 37TH ST)...
                                                                                       INITIATE CONSTRUCTION REACH 4 (37TH ST TO 43RD ST)..      4,000
                                                                                       CONSTRUCTION MANAGEMENT.............................      3,000
                                                                                                                                                   700
                                                                                                                                            ------------
                   s                                                                     s                                                      11,000
IL 8, 10, 12   DES PLAINES       (FC)       \1\ 2,200             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                WETLANDS
                DEMONSTRATION
                PROJECT, IL
       IL 12   EAST ST LOUIS &   (FC)           1,369             (C)         488 (C)  COMPLETE GENERAL REEVALUATION REPORT................        488
                VICINITY                                                               NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                (INTERIOR FLOOD                                                         HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                CONTROL), IL
       IL 12   EAST ST LOUIS,    (FC)      \1\ 32,335       2,000 (C)       2,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                IL
       IL 20   LOCK AND DAM 24   (N)       \1\ 25,000      3,844 (MR)      3,844 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
        MO 9    PART 1, MISS
                RIVER, IL & MO
                (MAJOR REHAB)
       IL 20   LOCK AND DAM 24   (N)       \1\ 38,400      1,200 (MR)      1,200 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
        MO 9    PART 2, MISS
                RIVER, IL & MO
                (MAJOR REHAB)
       IL 20   LOCK AND DAM 25,  (N)       \1\ 25,900      4,456 (MR)      4,456 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
        MO 9    MISSISSIPPI
                RIVER, IL & MO
                (MAJOR REHAB)
       IL 16   LOVES PARK, IL    (FC)      \1\ 22,500       3,888 (C)       3,888 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
 IL 1, 2, 3,   MCCOOK AND        (FC)     \1\ 490,000       2,500 (C)       4,500 (C)  ADVANCE COMPLETION OF GROUNDWATER PROTECTION SYSTEM.  .........
 4, 5, 6, 7,    THORNTON
8, 9, 10, 13    RESERVOIRS, IL
   IL 12, 20   MELVIN PRICE      (N)      \1\ 740,700       2,900 (C)       4,000 (C)  ADVANCE CONTRACT FOR PUBLIC ACCESS FACILITIES BY 36       1,100
        MO 2    LOCK AND DAM,                                                           MONTHS SUBJECT TO COMPLETION OF 215 AGREEMENT.
                IL &  MO
   IL 12, 20   MELVIN PRICE      (N)      \1\ 215,000             (C)             (C)  FULLY FUNDED........................................  .........
        MO 2    LOCK AND DAM,
                SECOND LOCK, IL
                & MO
IL 9, 10, 11   NORTH BRANCH      (FC)      \1\ 21,735             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                CHICAGO RIVER,
                IL
 IL 3, 5, 6,   O'HARE            (FC)      \1\ 31,377             (C)             (C)  FULLY FUNDED........................................  .........
 8, 9,10, 13    RESERVOIR, IL
       IL 19   OLMSTED LOCKS     (N)      \1\ 1,020,0      28,634 (C)      51,000 (C)  ADVANCE PROJECT COMPLETION BY 12 MONTHS.............     22,366
        KY 1    AND DAM, OHIO                      00
                RIVER, IL & KY
 IA 1, 2, 3,   UPPER MISS RVR    (E)      \1\ 242,862      18,955 (C)      18,955 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
        4, 5    SYSTEM ENV MGMT
  IL 16, 17,    PROGRAM, IL,
      18, 20    IA, MO, MN & WI
 MN 1, 2, 3,
     4, 5, 6
 MO 1, 2, 4,
     6, 8, 9
 WI 1, 2, 3,
 4, 5, 6, 7,
        8, 9
           INDIANA:
        IN 4   FORT WAYNE        (FC)      \1\ 37,021       4,000 (C)       4,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                METROPOLITAN
                AREA, IN
        IN 1   INDIANA           (BE)     \1\ 184,000             (C)          40 (C)  CONTINUE MONITORING PROGRAM.........................         40
                SHORELINE                                                              NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                EROSION, IN                                                             HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
    IN 9, 10   INDIANAPOLIS      (FC)      \1\ 39,975             (C)      10,991 (C)  CONTINUE PROJECT....................................     10,991
                CENTRAL                                                                NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                WATERFRONT,                                                             HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                WHITE RIVER, IN
 IN 6, 7, 10   INDIANAPOLIS,     (FC)      \1\ 11,837             (C)       1,588 (C)  INITIATE CONSTRUCTION...............................      1,588
                WHITE RIVER
                (NORTH), IN
        IN 1   LAKE GEORGE,      (FC)        \1\6,000             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                HOBART, IN
        IN 1   LITTLE CALUMET    (FC)     \1\ 131,618       3,900 (C)       9,400 (C)  ADVANCE CONSTRUCTION ON STAGE IV-1..................      3,600
                RIVER, IN                                                              COMPLETE BURR STREET LEVEE..........................        500
                                                                                       INITIATE PUMP STATION 1A............................      1,000
                                                                                       CONSTRUCTION MANAGEMENT.............................        400
                                                                                                                                            ------------
                   s                                                                     s                                                       5,500
     IN 8, 9   NEW HARMONY, IN   (FC)       \1\ 2,455             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                                                                                       NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
        IN 9   OHIO RIVER        (N)       \1\ 18,000             (C)         500 (C)  INITIATE PROJECT....................................        500
                (GREENWAY                                                              NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                CORRIDOR), IN                                                           HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
     IN 8, 9   OHIO RIVER FLOOD  (FC)       \1\ 4,378             (C)       1,318 (C)  COMPLETE PROJECT....................................      1,318
                PROTECTION, IN                                                         NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
     IN 8, 9   PATOKA LAKE, IN   (FC)       \1\ 7,200      2,000 (MR)      3,500 (MR)  ADVANCE PROJECT COMPLETION THREE MONTHS.............      1,500
                (MAJOR REHAB)
           IOWA:
  IA 3, 4, 5   DES MOINES        (FC)      \1\ 28,000             (C)       6,600 (C)  AWARD LUMP-SUM CONTRACT FOR RED ROCK TRAILS, SEG          4,550
                RECREATION                                                              IVB;.
                RIVER AND                                                              CONTINUE P,E&D FOR 11 PROJECTS;.....................      1,430
                GREENBELT, IA                                                          CONTINUE SUPERVISON AND INSPECTION..................        370
                                                                                       CONTINUE PROGRAM MGT. AND ADVISORY COMMITTEE                250
                                                                                        ACTIVITIES.
                                                                                       NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                                                                                                                                            ------------
                   s                                                                     s                                                       6,600
               LOCK AND DAM 12,  (N)       \1\ 15,500      2,600 (MR)      2,600 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
                MISSISSIPPI
                RIVER, IA
                (MAJOR REHAB)
        IA 1   LOCK AND DAM 14,  (N)       \1\ 20,000      4,092 (MR)      4,092 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
       IL 17    MISSISSIPPI
                RIVER, IA
                (MAJOR REHAB)
     IA 4, 5   MISSOURI RIVER    (E)       \1\ 81,400       5,000 (C)      10,000 (C)  ADVANCE COMPLETION OF CONSTRUCTION AT VARIOUS SITES   .........
     KS 2, 3    FISH AND                                                                BY SIX MONTHS. ADVANCE PROJECT COMPLETION BY SIX
 MO 1, 2, 4,    WILDLIFE                                                                MONTHS.
     5, 6, 9    MITIGATION, IA,
  NE 1, 2, 3    NE, KS & MO
     IA 4, 5   MISSOURI RIVER    (FC)     \1\ 139,193       3,000 (C)       3,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
     KS 2, 3    LEVEE SYSTEM,
 MO 1, 2, 4,    IA, NE, KS & MO
     5, 6, 9
  NE 1, 2, 3
        IA 1   MUSCATINE         (FC)       \1\ 6,820       2,500 (C)       2,500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                ISLAND, IA
        IA 5   PERRY CREEK, IA   (FC)      \1\ 42,580       9,500 (C)       9,500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
     IA 3, 4   RED ROCK DAM AND  (FC)      \1\ 44,500             (C)         400 (C)  CONTINUE REAL ESTATE ACQUISITION ACTIVITIES.........        400
                LAKE RED ROCK,                                                         NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                IA                                                                      HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
        IA 4   WEST DES MOINES,  (FC)      \1\ 12,996             (C)             (C)  FULLY FUNDED........................................  .........
                DES MOINES, IA
           KANSAS:
        KS 4   ARKANSAS CITY,    (FC)      \1\ 27,400       4,300 (C)       4,300 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                KS
        KS 4   WINFIELD, KS      (FC)       \1\ 6,600         154 (C)         154 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
           KENTUCKY:
        KY 1   BARKLEY DAM AND   (MP)     \1\ 159,799       1,450 (C)       2,750 (C)  ADVANCE PROJECT COMPLETION 12 MONTHS................      1,300
     TN 7, 8    LAKE BARKLEY,
                KY & TN
        KY 5   DEWEY LAKE, KY    (FC)      \1\ 13,700      2,500 (DS)      4,900 (DS)  ADVANCE PROJECT COMPLETION BY 12 MONTHS.............      2,400
                (DAM SAFETY)
     AL 4, 5   KENTUCKY LOCK     (N)      \1\ 533,000       7,750 (C)      15,000 (C)  ADVANCE PROJECT COMPLETION 9 MONTHS.................      7,250
     KY 1, 5    AND DAM,
        MS 1    TENNESSEE
 TN 2, 3, 4,    RIVER, KY
  5, 6, 7, 8
        IN 9   MCALPINE LOCKS    (N)      \1\ 268,000       2,800 (C)      10,800 (C)  ADVANCE AWARD OF PHASE I LOCK CONSTRUCTION 24             8,000
        KY 3    AND DAM, OHIO                                                           MONTHS; AWARD BOAT MOORING CONTRACT; ADVANCE
                RIVER, KY & IN                                                          PROJECT COMPLETION BY 24 MONTHS.
     KY 3, 4   METROPOLITAN      (FC)      \1\ 12,115       3,251 (C)       3,251 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                LOUISVILLE,
                POND CREEK, KY
        KY 5   SALYERSVILLE, KY  (FC)       \1\ 8,630             (C)             (C)  FULLY FUNDED........................................  .........
     KY 4, 5   SOUTHERN AND      (E)       \1\ 10,000             (C)       2,000 (C)  INCREASE COMMUNITY PARTICIPATION IN PROGRAM.........  .........
                EASTERN
                KENTUCKY
     KY 2, 6   TAYLORSVILLE      (FC)      \1\ 92,980             (C)             (C)  FULLY FUNDED EXCEPT FOR UNPROGRAMMED RECREATION       .........
                LAKE, KY                                                                FACILITIES.
           LOUISIANA:
     LA 5, 6   ALOHA--RIGOLETTE  (FC)       \1\ 7,078         581 (C)         581 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                , LA
  LA 1, 4, 6   COMITE RIVER, LA  (FC)      \1\ 82,700       4,000 (C)       4,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
        LA 3   GRAND ISLE AND    (FC)      \1\ 36,547             (C)             (C)  ENGINEERING AND DESIGN WILL CONTINUE WITH AVAILABLE
                VICINITY, LA                                                            FUNDS.
  LA 1, 2, 3   INNER HARBOR      (N)      \1\ 533,000      13,000 (C)      15,900 (C)  INITIATE DEMOLITION OF EASTSIDE BUSINESS............        500
                NAVIGATION                                                             ADVANCE ENGINEERING AND DESIGN......................      2,400
                CANAL LOCK, LA
                                                                                                                                            ------------
                   s                                                                     s                                                       2,900
  LA 1, 2, 3   LAKE              (FC)     \1\ 520,000      11,887 (C)      27,046 (C)  PARALLEL PROTECTION:
                PONTCHARTRAIN                                                            COMPLETE LONDON, SIMON-LONDON.....................        151
                AND VICINITY,                                                            COMPLETE GENTILLY.................................        383
                LA (HURRICANE                                                            COMPLETE ORLEANS, PHASE 1C........................      1,200
                PROTECTION)                                                              COMPLETE LONDON PUMPING STATION # 4...............      3,320
                                                                                         COMPLETE LONDON PUMPING STATION # 3...............      6,150
                                                                                         INITIATE ORLEANS PHASE 1B LEE & LONDON............        100
                                                                                         INITIATE MIRABEAU AND FILMORE.....................      2,516
                                                                                         CONTINUE ENGINEERING AND DESIGN AND CONSTRUCTION        1,339
                                                                                        MANAGMENT.
                                                                                         NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                                                                                                                                            ------------
                                                                                                                                                15,159
     LA 1, 2   LAKE              (E)       \1\ 22,800             (C)         500 (C)  COMPLETE PROJECT....................................  .........
                PONTCHARTRAIN                                                          NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                STORMWATER                                                              HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                DISCHARGE, LA
     LA 2, 3   LAROSE TO GOLDEN  (FC)      \1\ 80,000       2,000 (C)       2,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                MEADOW, LA
                (HURRICANE
                PROTECTION)
 LA 1, 2, 3,   MISSISSIPPI       (N)      \1\ 171,000       1,500 (C)       1,500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
        4, 6    RIVER SHIP
                CHANNEL, GULF
                TO BATON ROUGE,
                LA
  LA 1, 2, 3   NEW ORLEANS TO    (FC)     \1\ 171,000       1,400 (C)       2,000 (C)  ADVANCE INITIATION OF ONE CONSTRUCTION CONTRACT BY          600
                VENICE, LA                                                              12 MONTHS.
                (HURRICANE
                PROTEC-  TION)
  LA 4, 5, 6   OUACHITA RIVER    (FC)          29,500             (C)       3,300 (C)  INITIATE CONTINUING CONTRACTS FOR LEVEE ITEM 2,           3,300
                LEVEES, LA                                                              GRAVEL SURFACING FOR MONROE TO SANDY BAYOU AND
                                                                                        INITIATE P&S FOR ITEM 3.
                                                                                       NOTE: THE ADMINISTRATIOIN'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
        LA 3   PORT FOURCHON,    (N)            2,557       2,184 (C)       2,184 (C)  COMPLETE PROJECT....................................  .........
                LA
     AR 3, 4   RED RIVER BELOW   (FC)      \1\ 83,069             (C)         600 (C)  INITIATE CONTINUING CONTRACTS TO CONSTRUCT LEVEE            400
     LA 4, 5    DENISON DAM,                                                            ITEMS 5 & 9A.
        TX 1    LA, AR & TX                                                            INITIATE DESIGN OF LEVEE ITEM 6.....................        100
                                                                                       CONSTRUCTION MANAGEMENT.............................        100
                                                                                       NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                                                                                                                                            ------------
                   s                                                                     s                                                         600
  LA 4, 5, 6   RED RIVER         (N)        1,895,691      21,113 (C)      23,613 (C)  ACCELERATE INITIATION:
                WATERWAY,                                                                COGNAC REINFORCEMENT DIKES........................      1,250
                MISSISSIPPI                                                              POISSON ACS.......................................      1,000
                RIVER TO                                                                 CONSTRUCTION MANAGEMENT...........................        250
                SHREVEPORT, LA
                                                                                                                                            ------------
                   s                                                                     s                                                       2,500
     LA 1, 2   SOUTHEAST         (FC)     \1\ 374,000      47,066 (C)     100,000 (C)  JEFFERSON PARISH:
                LOUISIANA, LA                                                            COMPLETE 17 CONTRACTS.............................     28,448
                                                                                         CONTINUE 7 CONTRACTS..............................      4,230
                                                                                         ENGINEERING AND DESIGN............................         50
                                                                                         SUPERVISION AND ADMINISTRATION....................      4,386
                                                                                       ORLEANS PARISH:
                                                                                         COMPLETE 2 CONTRACTS..............................      6,463
                                                                                         CONTINUE 4 CONTRACTS..............................      8,154
                                                                                         SUPERVISION AND ADMINISTRATION....................      1,203
                                                                                                                                            ------------
                   s                                                                     s                                                      52,934
  LA 1, 2, 3   WEST BANK         (FC)         192,000       7,000 (C)      15,070 (C)  WESTWEGO TO HARVEY CANAL AREA:
                VICINITY OF NEW                                                          ADVANCE INITIATION OF REACH 3 STRUCTURES (MT              852
                ORLEANS, LA                                                             KENNEDY/AMES/OAK COVE FLOODWALLS) CONTRACT BY 6
                                                                                        MONTHS.
                                                                                         ADVANCE INITIATION OF ESTELLE PUMPING STATION TO          283
                                                                                        LP&L 2ND LIFT CONTRACT BY 7 YEARS.
                                                                                       WEST OF ALGIERS:
                                                                                         ADVANCE INITIAION OF ALGIERS LOCK TO BELLE CHASSE       1,606
                                                                                        HWY (ORLEANS LEVEE # 9) BY 8 YEARS.
                                                                                         ADVANCE INITIATION OF ALGIERS LOCK TO BELLE CHASSE      3,804
                                                                                        HWY TO CUTOFF (PLAQ LEVEE # 8) BY 8 YEARS.
                                                                                       EAST OF ALGIERS:
                                                                                         ADVANCE INITIAION OF ALGIERS LOCK TO BELLE CHASSE         387
                                                                                        HWY TO HERO LEVEE (PLAQ LEVEE # 11) BY 8 YEARS.
                                                                                         ADVANCE INITIATION OF ALGIERS LOCK TO BELLE CHASSE        500
                                                                                        HWY (ORLEANS LEVEE # 12) BY 9 YEARS.
                                                                                       LAKE CATAOUATCHE AREA: ADVANCE ENGINEERING AND              638
                                                                                        DESIGN.
                                                                                                                                            ------------
                   s                                                                     s                                                       8,070
           MAINE:
        ME 2   ST JOHN RIVER I-  (FC)           3,432             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                C DEMO PROJECT
           MARYLAND:
       DC DE   ANACOSTIA RIVER   (E)           12,000       4,031 (C)       4,031 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
  MD 4, 5, 8    AND
                TRIBUTARIES, MD
                & DC
        MD 1   ASSATEAGUE        (BE)      \1\ 16,900             (C)       6,200 (C)  INITIATE CONSTRUCTION...............................  .........
                ISLAND, MD
        MD 1   ATLANTIC COAST    (BE)     \1\ 270,300         200 (C)         200 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                OF MARYLAND, MD
MD 1, 2, 3, 4  BALTIMORE HARBOR  (N)           44,521       9,578 (C)       9,578 (C)  COMPLETE PROJECT....................................  .........
        VA 1    AND CHANNELS
                (BREWERTON
                CHANNEL), MD
        MD 1   CHESAPEAKE BAY    (E)       \1\ 10,000             (C)         210 (C)  DESIGN WORK ON SMITH ISLAND WSTWTR TREATMENT PL. &    .........
        VA 1    ENVIRONMENTAL                                                           NORFOLK DIST. PROJ.
                PROGRAM, MD, VA                                                        NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                & PA                                                                    HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
        MD 1   CHESAPEAKE BAY    (E)            2,500         559 (C)         559 (C)  COMPLETE PROJECT....................................  .........
                OYSTER
                RECOVERY, MD
        MD 6   CUMBERLAND, MD    (FC)      \1\ 27,584             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
        WV 1    AND RIDGELEY,                                                          NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                WV                                                                      HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
       VA 11   NEABSCO CREEK,    .......    \1\ 1,125             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                VA
        MD 1   POPLAR ISLAND,    (E)      \1\ 320,000       9,502 (C)      16,000 (C)  INITIATE FIRST DREDGED MATERIAL PLACEMENT PROJECT...  .........
                MD
           MASSACHUSETTS:
 MA 8, 9, 10   BOSTON HARBOR,    (N)       \1\ 12,150       1,000 (C)       1,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                MA
       MA 10   CAPE COD CANAL    (N)       \1\ 30,500      5,000 (MR)      5,000 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
                RAILROAD
                BRIDGE, MA
                (MAJOR REHAB)
        MA 2   HODGES VILLAGE    (FC)      \1\ 18,600      3,257 (MR)      3,257 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
                DAM, MA (MAJOR
                REHAB)
        MA 7   REVERE BEACH, MA  (BE)           6,825             (C)             (C)  PERIODIC NOURISHMENT NOT CURRENTLY REQUIRED.........  .........
        MA 7   ROUGHANS POINT,   (FC)       \1\ 8,000             (C)             (C)  FULLY FUNDED........................................  .........
                REVERE, MA
    MA 9, 10   TOWN BROOK,       (FC)      \1\ 30,600       1,500 (C)       1,500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                QUINCY AND
                BRAINTREE, MA
           MICHIGAN:
        MI 1   GREAT LAKES       (N)       \1\ 11,254             (C)         500 (C)  INITIATE CONSTRUCTION UPPER ST MARYS RIVER (VIDAL           500
        MN 8    CONNECTING                                                              SHOALS). CHANNEL DEEPENING.
        WI 7    CHANNELS AND
                HARBORS, MI,
                MN, & WI
           MINNESOTA:
        MN 2   CHASKA, MN        (FC)      \1\ 30,397             (C)             (C)  FULLY FUNDED........................................  .........
        MN 1   LOCK AND DAM 3,   (N)       \1\ 15,400      3,200 (MR)      5,000 (MR)  ADVANCE PROJECT COMPLETION 6 MONTHS.................  .........
                MISSISSIPPI
                RIVER, MN
                (MAJOR REHAB)
        MN 2   MARSHALL, MN      (FC)       \1\ 7,850       2,275 (C)       3,275 (C)  ADVANCE PROJECT COMPLETION 9 MONTHS.................  .........
        MN 8   PINE RIVER DAM,   (N)        \1\ 9,820      3,390 (DS)      3,390 (DS)  NO ADDITIONAL REQUIREMENT...........................  .........
                CROSS LAKE, MN
                (DAM SAFETY)
        MN 1   ROCHESTER, MN     (FC)      \1\ 67,210             (C)             (C)  FULLY FUNDED........................................  .........
        MN 6   STILLWATER, MN    (BE)       \1\ 8,700             (C)       1,158 (C)  COMPLETE STAGE 2 CONSTRUCTION.......................  .........
                                                                                       NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
           MISSISSIPPI:
        LA 1   EAST PEARL,       (E)        \1\ 4,000             (C)             (C)  FULLY FUNDED........................................  .........
MS 2, 3, 4, 5   WALKIAH BLUFF--
                BG155
        MS 5   JACKSON COUNTY    (FC)          10,000             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                INDUSTRIAL
                WATER SUPPLY,
                MS
        MS 4   NATCHEZ BLUFF,    (FC)      \1\ 13,039             (C)         500 (C)  CONTINUING CONSTRUCTION OF MADISON STREET TO STATE          500
                MS                                                                      STREET.
                                                                                       NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
        MS 5   PASCAGOULA        (N)           39,041       7,792 (C)       7,792 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                HARBOR, MS
  AL 1, 4, 7   TENNESSEE--TOMBI  (N)           91,800             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
  MS 1, 3, 5    GBEE WATERWAY
                WILDLIFE
                MITIGATION, AL
                & MS
        MS 5   WOLF AND JORDAN   (N)            2,943             (C)       1,000 (C)  INITIATE PROJECT....................................  .........
                RIVERS MS
           MISSOURI:
        MO 5   BLUE RIVER        (FC)     \1\ 211,000      13,700 (C)      13,700 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                CHANNEL, KANSAS
                CITY, MO
        MO 8   CAPE GIRARDEAU,   (FC)      \1\ 36,293       1,900 (C)       1,900 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                JACKSON, MO
        MO 9   LONG BRANCH       (FC)          20,288             (C)             (C)  FULLY FUNDED EXCEPT FOR UNPROGRAMMED RECREATION       .........
                LAKE, MO                                                                FACILITIES.
        MO 2   MERAMEC RIVER     (FC)      \1\ 28,030       3,500 (C)       3,500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                BASIN, VALLEY
                PARK LEVEE, MO
   IL 12, 20   MISS RIVER BTWN   (N)       \1\274,000       3,000 (C)       4,650 (C)  ADVANCE INITIATION OF THE CHESTER REACH CONTRACT BY         600
  MO 1, 3, 8    THE OHIO AND MO                                                         SEVEN MONTHS.
                RIVERS (REG                                                            INITIATE AND COMPLETE PLANS AND SPECIFICATIONS FOR          450
                WORKS), MO & IL                                                         DEVILS ISLAND AND ELIZA PT/GREENFIELD (PH 2).
                                                                                       INITIATE PLANS AND SPECIFICATIONS FOR IVORY LANDING.        100
                                                                                       CONTINUE REGIONAL ENGINEERING AND ENVIRONMENTAL             250
                                                                                        GEOSPATIAL INFORMATION SYSTEM (REEGIS).
                                                                                       CONTINUE ESSENTIAL DATA COLLECTION ADVANCE PROJECT          250
                                                                                        COMPLETION BY 6 MONTHS.
                                                                                                                                            ------------
                   s                                                                     s                                                       1,650
     MO 3, 8   STE GENEVIEVE,    (FC)      \1\ 36,100       7,000 (C)      10,000 (C)  ADVANCE COMPLETION OF PUMP STATION/GRAVITY DRAIN BY       1,000
                MO                                                                      6 MONTHS.
                                                                                       ADVANCE COMPLETION OF LEVEE/DITCHING/GRADING              2,000
                                                                                        CONTRACT BY 12 MONTHS. ADVANCE PROJECT COMPLETION
                                                                                        BY 4 MTHS.
                                                                                                                                            ------------
                   s                                                                     s                                                       3,000
        AR 3   TABLE ROCK LAKE,  (MP)      \1\ 60,200     13,000 (DS)     13,000 (DS)  NO ADDITIONAL REQUIREMENT...........................  .........
        MO 7    MO & AR (DAM
                SAFETY)
           MONTANA:
       MT AL   FLATHEAD RIVER,   (FC)              90             (C)             (C)  FULLY FUNDED........................................  .........
                MT
           NEBRASKA:
        NE 1   MISSOURI          (FC)      \1\ 21,000         300 (C)         300 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
       SD AL    NATIONAL
                RECREATIONAL
                RIVER, NE & SD
     NE 1, 3   WOOD RIVER,       (FC)      \1\ 10,000         100 (C)         100 (C)  NO ADDITIONAL REQUIREMENT...........................
                GRAND ISLAND,
                NE
           NEVADA:
     NV 1, 2   TROPICANA AND     (FC)     \1\ 208,500      20,100 (C)      35,000 (C)  COMPLETE CONSTRUCTION OF LOWER FLA-MINGO DIVERSION       14,900
                FLAMINGO                                                                CHANNEL AND INITIATE AND COMPLETE CONSTRUCTION OF F-
                WASHES, NV                                                              1 DEBRIS BASIN ADVANCE PROJECT COMPLETION 12 MONTHS.
       NJ 13   ARTHUR KILL       (N)          216,000             (C)             (C)  PROJECT REQUIRES REAUTHORIZATION....................  .........
       NY 13    CHANNEL,
                HOWLAND HOOK
                MARINE
                TERMINAL, NY &
                NJ
     NJ 2, 3   BRIGANTINE TO     (FC)         329,000             (C)       7,000 (C)  INITIATE CONSTRUCTION...............................  .........
                GREAT EGG                                                              NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                (ABSECON)                                                               HAS IDENTIFIED POLICY CONCERNS.
        NJ 2   CAPE MAY INLET    (BE)      \1\ 87,700       1,700 (C)       1,700 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                TO LOWER
                TOWNSHIP, NJ
       DE AL   DELAWARE RIVER    (N)      \1\ 214,000      16,500 (C)      16,500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
 NJ 1, 2, 4,    MAIN CHANNEL,
   5, 12, 13    NJ, PA & DE
 PA 1, 2, 3,
7, 8, 10, 15
        NJ 2   GREAT EGG HARBOR  (BE)     \1\ 358,800         419 (C)         419 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                INLET AND PECK
                BEACH, NJ
        NJ 9   HACKENSACK        (FC)          12,500             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                MEADOWLANDS, NJ                                                        NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONERNS.
NJ 5, 8, 10,   JOSEPH G MINISH   (FC)          33,705             (C)       8,000 (C)  CONTINUE CONSTRUCTION.NOTE: THE ADMINISTRATION'S
      11, 13    HISTORIC                                                                REVIEW OF THIS PROJECT HAS IDENTIFIED ECONOMIC AND/
                WATERFRONT                                                              OR POLICY CONCERNS.
                PARK,NJ
   NJ 10, 13   LIBERTY STATE     (FC)          19,150             (C)             (C)  FULLY FUNDED........................................  .........
                PARK LEVEE AND
                SEAWALL, NJ
     NJ 5, 8   MOLLY ANN'S       (FC)      \1\ 20,600             (C)             (C)  FULLY FUNDED........................................  .........
                BROOK AT
                HALEDON,
                PROSPECT PARK
                AND PATERSON,
                NJ
       NJ 13   NEW YORK HARBOR   (N)           72,100       2,000 (C)       2,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                & ADJACENT
                CHANNELS, PORT
                JERSEY CHANNEL,
                NJ
       NJ 11   PASSAIC RIVER     (FC)          18,300       1,800 (C)       1,800 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                PRESERVATION OF
                NATURAL STORAGE
                AREAS, NJ
        NJ 5   RAMAPO AND        (FC)           6,530             (C)             (C)  COST SHARING AND FINANCING BY LOCAL INTERESTS ARE     .........
       NY 22    MAHWAH RIVERS,                                                          UNAVAILABLE.
                MAHWAH, NJ AND
                SUFFERN, NY
     NJ 5, 8   RAMAPO RIVER AT   (FC)      \1\ 11,240       1,300 (C)       1,300 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                OAKLAND, NJ
     NJ 3, 6   RARITAN BAY AND   (BE)          30,000             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                SANDY HOOK BAY,                                                        NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                NJ                                                                      HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
 NJ 6, 7, 12   RARITAN RIVER     (FC)     \1\ 286,000       1,000 (C)       1,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                BASIN, GREEN
                BROOK SUB-
                BASIN, NJ
     NJ 3, 6   SANDY HOOK TO     (BE)     \1\ 979,000       9,000 (C)       9,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                BARNEGAT INLET,
                NJ
           NEW MEXICO:
        NM 3   ABIQUIU DAM       (FC)       \1\ 7,000             (C)             (C)  FULLY FUNDED........................................  .........
                EMERGENCY
                GATES, NM
  NM 1, 2, 3   ACEQUIAS          (FC)      \1\ 66,000       1,500 (C)       1,500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                IRRIGATION
                SYSTEM, NM
        NM 2   ALAMOGORDO, NM    (FC)      \1\ 41,400         700 (C)         700 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
        NM 3   GALISTEO DAM, NM  (FC)       \1\ 3,990            (DS)            (DS)  FULLY FUNDED........................................  .........
                (DAM SAFETY)
        NM 2   LAS CRUCES, NM    (FC)       \1\ 6,600       2,400 (C)       2,400 (C)  COMPLETE PROJECT....................................  .........
     NM 1, 3   MIDDLE RIO        (FC)      \1\ 46,800         600 (C)         600 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                GRANDE FLOOD
                PROTECTION,
                BERNALILLO TO
                BELEN, NM
        NM 2   RIO GRANDE        (FC)      \1\ 62,300         600 (C)         600 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                FLOODWAY, SAN
                ACACIA TO
                BOSQUE DEL
                APACHE, NM
        NM 2   TWO RIVERS DAM,   (FC)       \1\ 1,932            (DS)            (DS)  FULLY FUNDED........................................  .........
                NM (DAM SAFETY)
           NEW YORK:
    NY 9, 13   ATLANTIC COAST    (BE)      \1\ 91,000         300 (C)         300 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                OF NYC,
                ROCKAWAY INLET
                TO NORTON
                POINT, NY
NY 6, 10, 16   EAST ROCKAWAY     (BE)      \1\ 63,000       3,320 (C)       3,320 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                INLET TO
                ROCKAWAY INLET
                AND JAMAICA
                BAY, NY
     NY 1, 2   FIRE ISLAND       (BE)     \1\ 532,000       3,000 (C)       3,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                INLET TO JONES
                INLET, NY
        NY 1   FIRE ISLAND       (BE)     \1\ 571,400       3,250 (C)       3,750 (C)  INITIATE CONSTRUCTION OF WEST OF SHINNECOCK INLET     .........
                INLET TO                                                                ELEMENT.
                MONTAUK POINT,                                                         NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                NY                                                                      HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERN'S.
       NY 22   HUDSON RIVER, NY  (N)           12,000             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                (NEW YORK CITY                                                         NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                TO WATERFORD-                                                           HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                ATHENS CHANNEL)
    NJ 7, 10   KILL VAN KULL     (N)      \1\ 823,300      60,000 (C)      60,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
   NY 13, 14    AND NEWARK BAY
                CHANNEL, NY &
                NJ
  NY 3, 4, 5   LONG BEACH        (BE)         239,500             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                ISLAND, NY
        NY 1   MORICHES INLET,   (N)        \1\ 9,100             (C)             (C)  FULLY FUNDED........................................  .........
                NY
NY 8, 18, 23,  NEW YORK CITY     (E)           22,500             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
          26    WATERSHED, NY                                                          NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND /OR POLICY CONCERNS.
 NJ 6, 9, 13   NEW YORK HARBOR   (N)      \1\ 131,661             (C)             (C)  FULLY FUNDED........................................  .........
NY 7, 8, 11,    COLLECTION AND
 12, 13, 14,    REMOVAL OF
          15    DRIFT, NY & NJ
       NY 25   NEW YORK STATE    (N)        \1\ 8,000             (C)       4,200 (C)  REIMBURSE PROJECTS COMPLETED BY NYS BARGE CANAL CORP      4,200
                CANAL SYSTEM,                                                          NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                NY                                                                      HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
       NY 26   NORTH             (FC)       \1\ 3,194             (C)             (C)  FULLY FUNDED........................................  .........
                ELLENVILLE, NY
                (DEF CORR)
       NY 25   ONONDAGA LAKE     (FC)       \1\ 4,000             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                STORM WATER
                DISCHARGE, NY
   NY 16, 18   ORCHARD BEACH,    (BE)           5,200             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                NY                                                                     NOTE: THE ADMINISTRATION'S REVIEW OF THIS STUDY HAS
                                                                                        IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
        NY 1   SHINNECOCK        (N)       \1\ 16,900             (C)             (C)  FULLY FUNDED........................................  .........
                INLET, NY
   NY 17, 18   YONKERS, NY (DEF  (FC)      \1\ 13,529             (C)             (C)  FULLY FUNDED........................................  .........
                CORR)
           NORTH CAROLINA:
        NC 3   AIWW,             (N)           70,700       7,000 (C)       7,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                REPLACEMENT OF
                FEDERAL HIGHWAY
                BRIDGES, NC
        NC 4   B EVERETT JORDAN  (FC)         147,557             (C)             (C)  FULLY FUNDED........................................  .........
                DAM AND LAKE,
                NC
        NC 7   BRUNSWICK COUNTY  (BE)          73,800             (C)         200 (C)  INITIATE CONSTRUCTION...............................  .........
                BEACHES, NC--                                                          NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                OCEAN ISLE                                                              HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                BEACH PORTION
        NC 7   CAROLINA BEACH    (BE)         163,780             (C)             (C)  PERIODIC NOURISHMENT NOT CURRENTLY REQUIRED.........  .........
                AND VICINITY,
                NC
     NC 2, 4   FALLS LAKE, NC    (FC)         183,000             (C)             (C)  FULLY FUNDED........................................  .........
        NC 8   HAMLET CITY       (FC)           3,200             (C)             (C)  FULLY FUNDED........................................  .........
                LAKE, NC
        NC 7   WILMINGTON        (N)          247,100      18,300 (C)      18,300 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                HARBOR, NC
        NC 7   WRIGHTSVILLE      (BE)          25,200             (C)             (C)  PERIODIC NOURISHMENT NOT CURRENTLY REQUIRED.........  .........
                BEACH, NC
           NORTH DAKOTA:
       ND AL   BUFORD-TRENTON    (FC)      \1\ 40,000       5,000 (C)      10,000 (C)  ACQUIRE ADDITIONAL EASEMENTS FROM WILLING SELL-  ERS      5,000
                IRRIGATION
                DISTRICT LAND
                ACQUISITION, ND
       ND AL   DEVILS LAKE       (FC)      \1\ 29,000      10,000 (C)      10,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                EMERGENCY
                OUTLET, ND
       ND AL   FT YATES BRIDGE,  (MP)          40,577             (C)             (C)  CURRENT FUNDS ARE ADAQUATE MAJOR ACTIVITIES ON THIS   .........
                ND                                                                      PROJECT HAVE CURTAILED PENDING EXECUTION OF A MOA
                                                                                        WITH THE STANDING ROCK SIOUX TRIBE.
       ND AL   GARRISON DAM AND  (MP)      \1\ 37,000      6,500 (MR)      6,500 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
                POWER PLANT, ND
                (MAJOR REHAB)
        MN 7   GRAND FORKS, ND-- (FC)     \1\ 175,900      10,000 (C)      10,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
       ND AL    EAST GRAND
                FORKS, MN
       ND AL   HOMME LAKE, ND    (FC)      \1\ 16,000      3,000 (DS)      3,000 (DS)  NO ADDITIONAL REQUIREMENT...........................  .........
                (DAM SAFE-  TY)
       ND AL   LAKE ASHTABULA    (FC)      \1\ 14,700            (DS)            (DS)  FULLY FUNDED........................................  .........
                AND BALDHILL
                DAM, ND (DAM
                SAFETY)
       ND AL   LAKE ASHTABULA    (FC)       \1\ 7,800        500 (MR)      1,535 (MR)  ADVANCE PROJECT COMPLETION 12 MONTHS................  .........
                AND BALDHILL
                DAM, ND (MAJOR
                REHAB)
       ND AL   SHEYENNE RIVER,   (FC)      \1\ 30,610             (C)       1,700 (C)  INITIATE CONSTRUCTION OF BALDHILL DAM POOL RAISE      .........
                ND                                                                      SEPERABLE ELEMENT.
       ND AL   SOURIS RIVER, ND  (FC)     \1\ 101,387             (C)             (C)  FULLY FUNDED........................................  .........
           OHIO:
   OH 16, 18   BEACH CITY LAKE,  (FC)       \1\ 3,500      1,400 (DS)      1,400 (DS)  NO ADDITIONAL REQUIREMENT...........................  .........
                MUSKINGUM RIVER
                LAKES, OH (DAM
                SAFETY)
     OH 3, 6   HOLES CREEK,      (FC)       \1\ 3,896             (C)             (C)  FULLY FUNDED........................................  .........
                WEST
                CARROLLTON, OH
OH 13, 17, 19  LOWER GIRARD      (FC)       \1\ 1,593             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
        PA 4    LAKE, OH
        OH 9   MAUMEE BAY STATE  (BE)       \1\ 8,317             (C)             (C)  PERIODIC NOURISHMENT NOT CURRENTLY REQUIRED.........  .........
                PARK, OH
     OH 1, 2   METROPOLITAN      (FC)      \1\ 13,035       2,266 (C)       4,000 (C)  ADVANCE PROJECT COMPLETION BY 6 MONTHS..............      1,734
                REGION OF
                CINCINNATI,
                DUCK CREEK, OH
     OH 1, 2   MILL CREEK, OH    (FC)     \1\ 163,000         915 (C)         915 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
    OH 12,15   WEST COLUMBUS,    (FC)      \1\ 91,700       8,000 (C)      16,000 (C)  ADVANCE PROJECT COMPLETION BY 12 MONTHS.............      8,000
                OH
           OKLAHOMA:
     OK 1, 2   MINGO CREEK,      (FC)          75,400             (C)             (C)  FULLY FUNDED........................................  .........
                TULSA, OK
        TX 4   RED RIVER         (N)          \1\ 400             (C)         275 (C)  CONTINUE SEDIMENTATION STUDY........................        275
                EMERGENGY BANK                                                         NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                PROTECTION, AR                                                          HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                & LA
     OK 1, 2   SKIATOOK LAKE,    (FC)       \1\ 9,800        500 (DS)        500 (DS)  NO ADDITIONAL REQUIREMENT...........................  .........
                OK (DAM SAFETY)
        OK 2   TENKILLER FERRY   (MP)      \1\ 37,900      6,800 (DS)      6,800 (DS)  NO ADDITIONAL REQUIREMENT...........................  .........
                LAKE, OK (DAM
                SAFETY)
           OREGON:
        ID 1   BONNEVILLE        (N)      \1\ 336,298             (C)             (C)  FULLY FUNDED........................................  .........
       MT AL    NAVIGATION
OR 1, 2, 3, 5   LOCK, OR & WA
WA 3, 4, 5, 6
     OR 2, 3   BONNEVILLE        (MP)      \1\ 24,267            (MR)            (MR)  FULLY FUNDED........................................  .........
        WA 4    POWERHOUSE
                PHASE I, OR &
                WA (MAJOR
                REHAB)
     OR 2, 3   BONNEVILLE        (MP)     \1\ 104,600     10,800 (MR)     16,300 (MR)  ADVANCE PROJECT COMPLETION ONE YEAR (1) FROM              5,500
        WA 4    POWERHOUSE                                                              SEPTEMBER 2009 TO SEPTEMBER 2008.
                PHASE II, OR &
                WA (MAJOR
                REHAB)
     OR 2, 3   BONNEVILLE        (MP)     \1\ 678,707             (C)             (C)  FULLY FUNDED........................................  .........
        WA 4    SECOND
                POWERHOUSE, OR
                & WA
     OR 2, 3   COLUMBIA RIVER    (MP)      \1\ 73,966       6,368 (C)       6,368 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
     WA 3, 4    TREATY FISHING
                ACCESS SITES,
                OR & WA
        OR 1   COLUMBIA RIVER,   (N)          \1\ 150             (C)             (C)  FULLY FUNDED........................................  .........
                SEAFARERS
                MEMORIAL,
                HAMMOND, OR
        OR 2   ELK CREEK LAKE,   (FC)         174,000         500 (C)       7,000 (C)  ACCOMPLISH PASSIVE FISH PASSAGE CORRIDOR IN FISCAL        6,500
                OR                                                                      YEAR 2000.
     OR 1, 3   LOWER COLUMBIA    (FC)          28,000         262 (C)         617 (C)  PREPARE PLANS AND SPECIFICATIONS FOR BARLOW POINT            90
        WA 3    RIVER BASIN                                                             SITE.
                BANK                                                                   PREPARE P&S FOR COLUMBIA SLOUGH SITE................        100
                PROTECTION, OR                                                         PREPARE DECISION DOCUMENT ON OTHER SITES............        165
                & WA
                                                                                                                                            ------------
                   s                                                                     s                                                         355
OR 1, 3, 4, 5  WILLAMETTE RIVER  (FC)          33,300             (C)         118 (C)  PROVIDE DESIGN, PREPARE PLANS AND SPECIFICATIONS,           118
                BASIN BANK                                                              AND CONSTRUCT THE SHADY DELL SITE.
                PROTECTION, OR
        OR 4   WILLAMETTE RIVER  (FC)      \1\ 70,600       1,700 (C)       3,500 (C)  INITIATE DIVERSION WORK.............................        500
                TEMPERATURE                                                            COMPLETE P & S FOR INTAKE TOWER.....................      1,000
                CONTROL, OR                                                            GATE FABRICATION....................................        300
                                                                                                                                            ------------
                   s                                                                     s                                                       1,800
           PENNSYLVANIA:
        PA 9   BROAD TOP         (FC)       \1\ 5,500             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                REGION, PA                                                             NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJEC HAS
                                                                                        IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
        PA 3   GLEN FOERD, PA    (FC)       \1\ 1,110             (C)             (C)  FULLY FUNDED........................................  .........
       PA 12   JOHNSTOWN, PA     (FC)      \1\ 32,664      6,800 (MR)      6,800 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
                (MAJOR REHAB)
       PA 10   LACKAWANNA        (FC)       \1\ 9,839             (C)             (C)  FULLY FUNDED........................................  .........
                RIVER,
                OLYPHANT, PA
       PA 10   LACKAWANNA        (FC)      \1\ 47,575             (C)             (C)  FULLY FUNDED........................................  .........
                RIVER,
                SCRANTON, PA
   PA 18, 20   LOCKS AND DAMS    (N)      \1\ 705,000      21,600 (C)      53,078 (C)  ADVANCE PROJECT COMPLETION BY 12 MONTHS.............     31,478
                2, 3 AND 4,
                MONONGAHELA
                RIVER,  PA
       PA 21   PRESQUE ISLE      (BE)      \1\ 58,085         520 (C)         520 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                PENINSULA, PA
                (PERMANENT)
       PA 14   SAW MILL RUN,     (FC)      \1\ 10,575       3,500 (C)       3,500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                PITTSBURGH, PA
               SCHUYLKILL RIVER  (FC)           2,700             (C)       2,625 (C)  CONTINUE CONSTRUCTION...............................  .........
                PARK,                                                                  NOTE: THE ADMINISTRATION'S REVIEW PA OF THIS PROJECT
                PHILADELPHIA,                                                           HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                PA
       PA 12   SOUTH CENTRAL PA  (E)       \1\ 36,750             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                ENVIRONMENTAL                                                          NOTE: THE ADMINISTRATIONS REVIEW OF THIS PROJECT HAS
                IMPROVEMENT,                                                            IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                PA
PA 9, 10, 12   SOUTH CENTRAL PA  (E)       \1\ 44,650             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                ENVIRONMENTAL                                                          NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                IMPROVEMENT,                                                            HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                PA
        PA 3   SOUTHEASTERN      (FC)          25,000             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                ENV. ASSIS.                                                            NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                EAST CENTRAL                                                            HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                INCINERATOR
                SITE
        PA 6   SUNBURY, PA       (FC)      \1\ 18,063             (C)             (C)  LACK OF LOCAL COOPERATION...........................  .........
       PA 11   SUSQUEHANNA       (E)        \1\ 2,000             (C)             (C)  LACK OF LOCAL COOPERATION...........................  .........
                RIVER, PA
       PA 12   WEST VIRGINIA     (FC)      \1\ 12,000             (C)       2,000 (C)  CONTINUE DPR FOR WV PROJECTS........................      2,000
        WV 1    AND                                                                    NOTE: THE ADMINISTRATIONS REVIEW OF THIS PROJECT HAS
                PENNSYLVANIA                                                            IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                FLOOD CONTROL,
                PA & WV
       PA 10   WILLIAMSPORT, PA  (FC)      \1\ 13,190             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
       PA 11   WYOMING VALLEY,   (FC)     \1\ 108,300      20,000 (C)      20,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                PA (LEVEE
                RAISING)
           PUERTO RICO:
       PR DE   ARECIBO RIVER,    (FC)          12,500       2,500 (C)       2,500 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                PR
       PR DE   PORTUGUES AND     (FC)         430,300       5,434 (C)       5,434 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                BUCANA RIVERS,
                PR
       PR DE   RIO DE LA PLATA,  (FC)          63,300       1,000 (C)       3,000 (C)  INITIATE CONTRACT FOR FLOOD PROTECTION WORKS FROM     .........
                PR                                                                      RIVER MOUTH TO DORADO ADVANCE PROJECT COMPLETION 6
                                                                                        MONTHS.
       PR DE   RIO GRANDE DE     (FC)         138,300             (C)         500 (C)  INITIATE PROJECT....................................  .........
                LOIZA, PR
       PR DE   RIO PUERTO        (FC)         321,000       9,566 (C)       9,566 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                NUEVO, PR
       PR DE   SAN JUAN HARBOR,  (N)           24,100       8,000 (C)       8,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                PR
           RHODE ISLAND:
        RI 1   ALLENDALE DAM,    (FC)             300             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                RI                                                                     NOTE: THE ADMINSTRATION'S REVIEW OF THIS PROJECT HAS
                                                                                        IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
        RI 2   NARRAGANSETT      (N)            1,425             (C)             (C)  COST SHARING AND FINANCING BY LOCAL INTERESTS ARE     .........
                TOWN BEACH,                                                             UNAVAILABLE.
                NARRAGANSETT,
                RI
        RI 2   QUONSET POINT-    (FC)           2,400             (C)             (C)  FULLY FUNDED........................................  .........
                DAVISVILLE, RI
     RI 1, 2   SEEKONK RIVER,    (N)          \1\ 700             (C)             (C)  FULLY FUNDED........................................  .........
                PROVIDENCE, RI
           SOUTH CAROLINA:
        SC 1   CHARLESTON        (N)           98,444      37,284 (C)      37,284 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                HARBOR, SC
                (DEEPENING &
                WIDENING)
        SC 1   FOLLY BEACH, SC   (BE)          98,689             (C)             (C)  PERIODIC NOURISHMENT NOT CURRENTLY REQUIRED.........  .........
        SC 1   MYRTLE BEACH, SC  (BE)         140,535             (C)             (C)  PERIODIC NOURISHMENT NOT CURRENTLY REQUIRED.........  .........
           SOUTH DAKOTA:
       SD AL   BIG SIOUX RIVER,  (FC)          27,975             (C)         150 (C)  COMPLETE OPTIMIZATION STUDY, CHUTE/STILLING BASIN           150
                SIOUX FALLS, SD                                                         DESIGN, AND P&S.
       SD AL   CHEYENNE RIVER    (E)          108,000       2,000 (C)       3,000 (C)  ACCELERATE REAL ESTATE ACTIVITIES...................      1,000
                SIOUX TRIBE,
                LOWER BRULE
                SIOUX, SD
       SD AL   PIERRE, SD        (MP)         100,000      10,000 (C)      10,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
           TENNESSEE:
        TN 6   BLACK FOX,        (E)        \1\ 6,817             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                MURFREE AND
                OAKLANDS
                SPRINGS
                WETLANDS, TN
        TN 3   EAST RIDGE,       (FC)      \1\ 18,750             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                HAMILTON CO.,TN
        TN 3   TENNESSEE RIVER,  (FC)       \1\ 6,669             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                HAMILTON
                COUNTY, TN
           TEXAS:
TX 7, 18, 22,  BRAYS BAYOU,      (FC)     \1\ 293,010       9,800 (C)       9,800 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
          25    HOUSTON, TX
       TX 14   CHANNEL TO        (N)       \1\ 26,820       8,700 (C)       8,700 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                VICTORIA, TX
TX 9, 22, 25   CLEAR CREEK, TX   (FC)      \1\ 75,830       3,200 (C)       3,200 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
     TX 7, 8   CYPRESS CREEK,    (FC)       \1\ 9,848             (C)       4,569 (C)  INITIATE & COMPLETE CONSTRUCTION....................      4,569
                HOUSTON, TX
TX 5, 24, 26,  DALLAS FLOODWAY   (FC)         112,150             (C)             (C)  PROJECT REQUIRES ADDITIONAL AUTHORIZATION...........  .........
          30    EXTENSION,
                TRINITY RIVER
                PROJECT, TX
       TX 16   EL PASO, TX       (FC)     \1\ 116,300       6,200 (C)       6,200 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
   TX 11, 14   GIWW, ARANSAS     (N)       \1\ 20,660       9,000 (C)       9,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                NATIONAL
                WILDLIFE
                REFUGE, TX
TX 8, 9, 18,   HOUSTON--GALVEST  (N)      \1\ 415,543      60,000 (C)      60,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
      25, 29    ON NAVIGATION
                CHANNELS, TX
TX 6, 24, 26   JOE POOL LAKE,    (FC)     \1\ 227,000             (C)      26,700 (C)  REIMBURSE JUDGEMENT FUND............................     26,700
                TX
       TX 13   MCGRATH CREEK,    (FC)          11,050             (C)             (C)  FULLY FUNDED........................................  .........
                WICHITA FALLS,
                TX
 TX 2, 9, 11   NECHES RIVER AND  (N)       \1\ 41,895       2,000 (C)       2,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                TRIBUTARIES
                SALTWATER
                BARRIER, TX
AR 1, 2, 3, 4  RED RIVER BASIN   (FC)      \1\ 88,422             (C)       2,100 (C)  CONTINUE PROJECT....................................  .........
     LA 4, 5    CHLORIDE                                                               NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
OK 2, 3, 4, 6   CONTROL, TX &                                                           HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
TX 1, 4, 13,    OK
  17, 19, 26
     AR 1, 2   RED RIVER         (FC)     \1\ 318,600             (C)       5,500 (C)  CONTINUE PROJECT....................................      5,500
        LA 5    WATERWAY, TX,                                                          NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
        OK 3    AR, OK, LA                                                              HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
     TX 1, 4    (INDEX AR TO
                DENISON DAM, TX
  TX 20, 21,   SAN ANTONIO       (FC)     \1\ 153,100         610 (C)         610 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
      23, 28    CHANNEL
                IMPROVEMENT, TX
  TX 18, 22,   SIMS BAYOU,       (FC)     \1\ 214,320      18,300 (C)      18,300 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
      25, 29    HOUSTON, TX
     TX 2, 9   WALLISVILLE       (N)       \1\ 78,000             (C)       4,756 (C)  COMPLETE PROJECT....................................      4,756
                LAKE, TX                                                               NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
           UTAH:
        UT 2   LITTLE DELL       (FC)      \1\ 41,215             (C)             (C)  FULLY FUNDED........................................  .........
                LAKE, UT
        UT 2   UPPER JORDAN      (FC)       \1\ 9,660             (C)             (C)  FULLY FUNDED........................................  .........
                RIVER, UT
           VIRGINIA:
        VA 4   AIWW, BRIDGE AT   (N)       \1\ 23,100       3,000 (C)       5,000 (C)  ADVANCE PROJECT COMPLETION BY 24 MONTHS.............  .........
                GREAT BRIDGE,
                VA
        VA 6   JAMES R OLIN      (FC)      \1\ 34,800             (C)             (C)  FULLY FUNDED........................................  .........
                FLOOD CONTROL
                PROJECT, VA
        VA 5   JOHN H KERR DAM   (MP)          59,600      1,400 (MR)      1,400 (MR)  NO ADDITIONAL REQUIREMENT...........................  .........
                AND RESERVOIR,
                VA & NC (MAJOR
                REHAB)
        VA 5   LYNCHBURG, VA     (FC)          20,000             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                (COMBINED SEWER                                                        NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                OVERFLOW)                                                               HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
  VA 1, 2, 4   NORFOLK HARBOR    (N)      \1\ 137,496         550 (C)         550 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                AND CHANNELS
                (DEEPENING), VA
     VA 3, 7   RICHMOND          (FC)           8,100             (C)             (C)  FULLY FUNDED........................................  .........
                FILTRATION
                PLANT, VA
        VA 7   RICHMOND LOCAL    (FC)         105,153             (C)             (C)  FULLY FUNDED........................................  .........
                PROTECTION
                PROJECT, VA
     VA 3, 7   RICHMOND, VA      (FC)          20,000             (C)      10,000 (C)  CONTINUE CONSTRUCTION OF RETENTION TUNNEL...........  .........
                (COMBINED SEWER                                                        NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                OVERFLOW)                                                               HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
        VA 6   ROANOKE RIVER     (FC)          28,800       1,197 (C)       1,197 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                UPPER BASIN,
                HEADWATERS
                AREA, VA
        VA 2   VIRGINIA BEACH,   (BE)     \1\ 247,300             (C)      26,600 (C)  CONTINUE CONSTRUCTION...............................  .........
                VA (HURRICANE                                                          NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                PROTECTION)                                                             HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
        VA 2   VIRGINIA BEACH,   (BE)      \1\ 27,658             (C)       1,400 (C)  CONTINUE PROJECT....................................  .........
                VA                                                                     NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                (REIMBURSEMENT)                                                         HAS IDENTIFIED POLICY CONCERNS.
           WASHINGTON:
        ID 1   COLUMBIA RIVER    (E)        1,376,330     100,000 (C)     100,000 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
        OR 2    FISH
     WA 4, 5    MITIGATION, WA,
                OR & ID
     WA 3, 6   GRAYS HARBOR, WA  (N)           18,507             (C)         450 (C)  COMPLETE FINAL CRAB MITIGATION AND CLOSE OUT THE      .........
                                                                                        PROJECT.
     ID 1, 2   LOWER SNAKE       (E)          232,000       1,300 (C)       1,800 (C)  PROVIDE ADDITIONAL WILDLIFE LAND DEVELOPMENT........        500
        OR 2    RIVER FISH &
     WA 4, 5    WILDLIFE
                COMPENSATION,
                WA, OR & ID
     WA 3, 4   MT ST HELENS      (FC)         195,800         540 (C)         540 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                SEDIMENT
                CONTROL, WA
     WA 8, 9   MUD MOUNTAIN      (FC)          68,717            (DS)            (DS)  FULLY FUNDED........................................  .........
                DAM, WA (DAM
                SAFETY)
        OR 2   THE DALLES        (MP)      \1\ 94,000      2,300 (MR)      3,300 (MR)  PROCURE WINDINGS....................................      1,000
        WA 4    POWERHOUSE
                (UNITS 1-14, WA
                & OR (MAJOR
                REHAB)
           WEST VIRGINIA:
        WV 3   BLUESTONE LAKE,   (FC)     \1\ 107,300        750 (DS)      4,200 (DS)  ADVANCE PROJECT COMPLETION BY 12 MONTHS.............      3,450
                WV (DAM SAFETY)
        WV 3   GREENBRIER RIVER  (FC)      \1\ 12,000             (C)       1,000 (C)  CONTINUE DETAILED DESIGN............................      1,000
                BASIN, WV                                                              NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
     KY 4, 5   LEVISA AND TUG    (FC)     \1\ 1,837,8       5,400 (C)      23,100 (C)  CONTINUE LOWER MINGO CO, WV N/S.....................      1,300
        VA 9    FORKS AND UPPER                    41                                  CONTINUE PIKE CO, KY N/S............................      1,100
        WV 3    CUMBERLAND                                                             CONTINUE MARTIN CO, KY, N/S.........................        900
                RIVER, WV, VA &                                                        CONTINUE UPPER MINGO CO, WV N/S.....................        600
                KY                                                                     CONTINUE WAYNE CO, WV N/S...........................        300
                                                                                       CONTINUE MCDOWELL CO, WV N/S........................      2,200
                                                                                       CONTINUE BUCHANAN CO, VA DPR........................        800
                                                                                       INITIATE PIKE CO, KY TRIB DPR.......................        500
                                                                                       CONTINUE HARLAN, KY.................................      1,500
                                                                                       CONTINUE MIDDLESBOROUGH, KY.........................      5,000
                                                                                       CONTINUE CLOVER FORK, KY N/S........................      3,000
                                                                                       INIT PLAN--3QTR--TOWN OF MARTIN,KY..................        500
                                                                                       N/S: THE ADMINISTRATION'S REVIEW OF THIS PROJECT HAS
                                                                                        IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                                                                                                                                            ------------
                   s                                                                     s                                                      17,700
        WV 2   LONDON LOCKS AND  (N)       \1\ 20,300        600 (MR)      1,400 (MR)  ADVANCE PROJECT COMPLETION BY 12 MONTHS.............        800
                DAM, KANAWHA
                RIVER, WV
                (MAJOR REHAB)
        WV 2   MARMET LOCK,      (N)      \1\ 294,000       9,800 (C)      11,350 (C)  ADVANCE PROJECT COMPLETION BY 6 MONTHS..............      1,550
                KANAWHA RIVER,
                WV
        WV 2   MOOREFIELD, WV    (FC)      \1\ 20,494             (C)             (C)  FULLY FUNDED........................................  .........
        WV 2   PETERSBURG, WV    (FC)      \1\ 19,711             (C)             (C)  FULLY FUNDED........................................  .........
        OH 6   ROBERT C BYRD     (N)      \1\ 363,474       7,150 (C)       9,300 (C)  COMPLETE BANK STABILIZATION.........................      2,150
     WV 2, 3    LOCKS AND DAM,
                OHIO RIVER, WV
                & OH
        WV 3   SOUTHERN WV       (E)       \1\ 20,000             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                ENVIRONMENTAL
                INFRASTRUCTURE
                PROGRAM, WV
        WV 2   STONEWALL         (FC)     \1\ 231,000             (C)             (C)  FULLY FUNDED EXCEPT FOR UNPROGRAMMED RECREATION       .........
                JACKSON LAKE,                                                           FACILITIES.
                WV
        WV 1   TYGART LAKE, WV   (FC)       \1\ 7,500      2,900 (DS)      2,900 (DS)  NO ADDITIONAL REQUIREMENT...........................  .........
                (DAM SAFETY)
        PA 9   WEST VIRGINIA     (FC)       \1\ 4,000             (C)             (C)  PROJECT WILL CONTINUE WITH AVAILABLE FUNDS..........  .........
                AND                                                                    NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                PENNSYLVANIA                                                            HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                FLOOD CONTROL,
                WV & PA
        WV 2   WINFIELD LOCKS    (N)      \1\ 227,400       1,400 (C)       3,200 (C)  ADVANCE PROJECT COMPLETION BY 24 MONTHS.............      1,800
                AND DAM,
                KANAWHA RIVER,
                WV
           WISCONSIN:
        WI 3   LAFARGE LAKE &    (FC)      \1\ 17,000             (C)       3,000 (C)  CONTINUE ACTIVITIES IN SUPPORT OF PROJECT LAND        .........
                CHANNEL IMPRV,                                                          TRANSFER AND DEAUTHORIZATION.
                WI 1962 ACT                                                            NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
        WI 2   PORTAGE, WI       (FC)       \1\ 7,666             (C)             (C)  FULLY FUNDED........................................  .........
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
           NOTE: ALTHOUGH PROJECT AND STUDY CAPABILITIES REFLECT THE READINESS OF THE WORK FOR ACCOMPLISHMENT, THEY ARE IN COMPETITION FOR AVAILABLE
             FUNDS AND MANPOWER ARMY-WIDE IN THIS CONTEXT, THE FISCAL YEAR 2000 CAPABILITY AMOUNTS SHOWN CONSIDER EACH PROJECT OR STUDY BY ITSELF
             WITHOUT REFERENCE TO THE REST OF THE PROGRAM. HOWEVER, IT IS EMPHASIZED THAT THE TOTAL AMOUNT PROPOSED FOR THE ARMY'S CIVIL WORKS PROGRAM
             IN THE PRESIDENT'S BUDGET FOR FISCAL YEAR 2000 IS THE APPROPRIATE AMOUNT CONSISTENT WITH THE ADMINISTRATION'S ASSESSMENT OF NATIONAL
             PRIORITIES FOR FEDERAL INVESTMENTS. IN ADDITION, THE TOTAL AMOUNT PROPOSED FOR THE ARMY'S CIVIL WORKS PROGRAM IN THE PRESIDENT'S BUDGET IS
             THE MAXIMUM THAT CAN BE EFFICIENTLY AND EFFECTIVELY USED. THEREFORE, WHILE WE COULD UTILIZE ADDITIONAL FUNDS ON INDIVIDUAL PROJECTS AND
             STUDIES, OFFSETTING REDUCTIONS WOULD BE REQUIRED IN ORDER TO MAINTAIN OUR OVERALL BUDGETARY OBJECTIVES.
 
           \1\ COST ESTIMATE INCLUDES AN ALLOWANCE FOR INFLATION THROUGH THE CONSTRUCTION PERIOD.

                       reimbursements and credits
    Question. General Ballard, what you have done to manage non-Federal 
sponsor requests to perform work for credit or reimbursement or to 
advance funds for projects?
    Answer. In the past, we have entertained all requests to perform 
creditable or reimbursable work or advance funds if we had the 
authority and the request was consistent with the project schedule and 
other decisions on budget and appropriations. However, because of the 
growth in interest in these arrangements, we will review the program 
and will consider establishing criteria to limit the impact of such 
arrangements on the program. Also, our policy is that before 
negotiating an agreement involving non-Federal work or advanced funds 
that could require possible future Federal appropriations we will 
coordinate the request within the Administration and with the 
Appropriations' Committees.
                 general expenses appropriation request
    Question. General Ballard or General Fuhrman, the budget request 
for fiscal year 2000 includes $148 million for executive direction and 
management functions of the Corps of Engineers. Is this level of 
funding adequate to manage the Civil Works program?
    Answer. The General Expenses funding level has remained at the $148 
million level for the last two fiscal years as the headquarters and 
division offices have undergone several restructuring and downsizing 
initiatives. These initiatives included a review and realignment of 
roles and missions to eliminate duplication, remove operating 
functions, reduce the number of division offices, and reorganize 
internally. These efforts were taken to make the most efficient use of 
the reduced workforce while still providing the executive direction and 
management needed to accomplish the civil works mission and be 
responsive to our customers.
    This reduced workforce has permitted us to maintain an appropriate 
level of executive direction and management with a constant $148 
million budget. However, as we approach our target manpower level, 
staffing reductions begin to taper off and it no longer is possible to 
absorb the increased costs of salaries, operations, and inflation. 
Nonetheless, we continue to look at ways to get our job done in the 
best manner possible at the lowest cost.
    Question. The General Expenses program has been held constant for 
the past several years. What impact has this had on your program, 
especially your ability to attract and retain talent needed to manage 
the program?
    Answer. I am very concerned about maintaining the technical and 
managerial expertise of the workforce, especially in the division 
offices and the headquarters. The problem is that when we cut staff to 
fit dollar ceilings not all the reductions are in the right job 
disciplines. To correct these imbalances, we then have to step up 
recruitment and, when we fill those positions, our costs of moving 
people to the jobs goes up. This puts more pressure on the General 
Expenses account so that we have to cut more staff to stay within our 
budget. You can see the predicament which is being driven by trying to 
manage a people-intensive account with a negative-growth budget. I call 
it a negative-growth budget because, although it's a flat budget in 
real dollars, the purchasing power is less than the prior year's.
    Question. What actions have you taken to streamline or bring about 
efficiencies required to maintain your Executive Direction and 
Management at this level?
    Answer. The Corps of Engineers has taken significant steps to 
reduce costs and increase efficiency. In compliance with Congressional 
direction, we reduced the number of divisions from 11 to 8 in fiscal 
year 1997. While reducing the number of divisions, we have reduced the 
number of positions funded by the General Expense account. The total 
number of positions to be funded from the General Expenses account in 
fiscal year 2000 is 1,142 which is 35 below the fiscal year 1999 level, 
and 226 below the number we had with 11 divisions in fiscal year 1996. 
Of the fiscal year 1996-2000 reduction, 56 percent comes from the 
division offices while the remaining 44 percent is from the 
headquarters and support activities.
    While we have reduced staff in accordance with the Federal 
Workforce Restructuring Act of 1994, our General Expenses staffing 
levels have been reduced by one-third from fiscal year 1990 to fiscal 
year 1999 and about one-third of this reduction has come in the last 3 
fiscal years. We have seen the division office staffing go from 950 in 
fiscal year 1990 to 584 in fiscal year 1999 while the headquarters has 
gone from 608 to 453 during this period. These reductions have 
permitted us to maintain an appropriate level of ED&M with a constant 
$148 million budget.
    Question. Your statement identifies business process improvements 
you are currently undertaking in an effort to hold down executive 
direction expenses. Given these process improvements, will it be 
possible to further reduce your General Expenses budget?
    Answer. We continue to look at ways to get our job done in the best 
manner possible at the lowest cost. I have undertaken a comprehensive 
review of the headquarters operating budget this year to assure we are 
staffed appropriately, and that we only incur expenses for essential 
goods and services. However, as we approach our target manpower level, 
staffing reductions begin to taper and it no longer is possible to 
absorb the increased costs of salaries, operations, and inflation.
    The executive direction and management activities performed by the 
headquarters and division offices plays a key role in providing 
guidance and oversight to our vital civil works mission. We will 
continue to work this issue and would greatly appreciate the support of 
the Appropriations Committees as we guide our Civil Works program into 
the next millenium.
    Question. What is the justification for maintaining extra offices 
in Chicago and Omaha?
    Answer. The regional offices in Chicago and Omaha are the remnants 
of the two division offices that we have closed and merged with the 
Great Lakes and Ohio River Division and the Northwestern Division 
respectively. Since our division office restructuring in fiscal year 
1997, we have been steadily reducing the staffs of each of these 
combined offices, taking into consideration the well-being of our 
workforce. The Great Lakes and Ohio River Division office and the 
Northwestern Division office have had their General Expenses staffing 
levels reduced by a total of 50 full-time equivalents, or FTE, between 
fiscal year 1997 and fiscal year 1999. We are continuing with our plan 
to size these two division offices in accordance with our standard 
sizing of all division offices. This will result in these two division 
offices being staffed at approximately 75 FTE each, or 150 combined. I 
intend, however, to continue to maintain a very small presence in 
Chicago in order to support our international team efforts with Canada 
through the International Joint Commission (IJC).
               regulatory program--administrative appeals
    Question. The Conference Report on the fiscal year 1998 Energy and 
Water Appropriations Act stated, ``The conferees expect that the 
increase provided over the amount appropriated in fiscal year 1997 will 
be used to begin implementation of an administrative appeals process 
for the Corps of Engineers Regulatory Program.'' The Energy and Water 
subcommittees of the House and Senate both stated their concern for 
implementing this process again in the fiscal year 1999 report. Have 
you complied with the directions of the Congress? If not, why not?
    Answer. We have complied with the Congressional direction in the 
Committee report language as best as we could, consistent with our 
commitment to protect aquatic resources as required by law and to 
provide fair and responsive services to the public. The final 
regulation for appeals of permit denials and conditions was published 
in the Federal Register on 9 March 1999, with an effective date of 6 
August 1999. The process for the appeals of jurisdiction determinations 
is more complex and labor intensive. With the levels of funding for the 
Regulatory Program in recent years and the increase in the number of 
permit applications, we have not been able to start up this part of the 
appeals process without compromising our services to the public. We 
could not implement it within the below-budget appropriations in fiscal 
year 1998 and fiscal year 1999 without adversely impacting our services 
to the public. Consequently, the President's Budget again requests an 
appropriation of $5 million to implement the appeals process for 
jurisdiction determinations.
    Question. Now the expectation was that the Corps would implement 
both the administrative appeals process and the jurisdiction 
determination appeals process. What are your plans and timetable for 
implementing the procedures?
    Answer. Based on our budget request, the timetable for the full 
appeals process would be as follows:
Permit Denials and Conditions
    March 9, 1999. Final regulation published in the Federal Register. 
Permit applicants are being notified that they may submit appeals of 
district decisions regarding their applications. Division offices are 
in the process of filling appeals officer positions and conducting 
training.
    August 6, 1999. Effective date for the appeals process to begin. 
Division appeals officers review the appeals submitted by the public 
and render decisions.
Jurisdiction Determinations (Fast-track Implementation)
    Initiation of Action.--Once funding is provided, the Corps could 
begin the process of interagency coordination and approval by ASA(CW) 
quickly.
    First 150 days.--This period would be used to complete interagency 
coordination and approval by ASA(CW) and OMB. The final regulation 
would be published in Federal once approvals are received. The 
additional appeals officers required for this part of the appeals 
process would be hired and trained.
    Tenth month after initiation.--Effective date when we would begin 
reviewing appeals submitted by the public. (If the Corps began 
interagency coordination in, let's say, September/October 1999, the 
effective date would be extended by about 3 months to the June/July 
2000 time frame).
    Question. The Congress specifically earmarked or provided $5 
million for the Corps to implement the administrative appeals process 
in fiscal year 1998 and fiscal year 1999. In light of the fact that you 
have not implemented the administrative appeals process, how were these 
funds used? Why didn't you take appropriate actions to initiate and 
fund the administrative appeals process?
    Answer. The Appropriations Committee report language stated the 
intentions of the Committee to have a full appeals process implemented. 
However, the appropriations the Corps received in the fiscal years you 
mention were below the President's budget requests which would have 
provided for the full appeals process without sacrificing services to 
the public. At 90,000 permit actions in fiscal year 1998, workload is 
at an all time high. More citizens depend on our responsiveness to 
their permit applications than the number that would use the appeals 
process. Therefore, most of the Regulatory funds in these years was 
prudently used to continue providing timely, equitable services to the 
public. In fiscal year 1999, we were able to set aside some funds for 
the appeals of permit denials and conditions which will become 
effective on August 6, 1999.
    Question. I believe the Corps has indicated that they will 
implement only a partial administrative appeals process for permits 
denied. This means that property owners who disagree with the Corps on 
jurisdiction determinations will still have to spend an extended period 
of time in the permitting process before having the ability to 
challenge the decision in court. Please explain your justification for 
the Corps' decision to focus both its regulatory efforts and increased 
budget on a program already subjected to direct judicial review, and 
how do you believe this to be a fair and equitable process?
    Answer. A wetland delineation does not restrict an applicant from 
doing anything. He or she simply has to apply for a permit if the 
activity is in a wetland. If the permit is disapproved, or approved 
with certain conditions, then the applicant can challenge the 
delineation. The Corps performance goal is to process permit actions 
within 60 days and the most recent analyses of performance data showed 
that this goal is achieved 95 percent of the time. Everyone agrees that 
the appeals process is less expensive and less time consuming than 
litigation. Our experience has been that most applicants within the 
local Corps district office are satisfied with a fair hearing, even if 
they do not get the result they want. We want the permit process to be 
fair and equitable to our citizens and we do not believe that 
litigation is the best way to resolve differences. While we have 
supported the implementation of administrative appeals, the problem has 
been the affordability of a full appeals process and its impacts on the 
other parts of the Regulatory Program. To have dedicated $5 million 
from our already austere program for the full process would have meant 
shortages of regulatory personnel in the districts. This would have 
meant a noticeable reduction in our responsiveness.
    Question. The Conference Report on the fiscal year 1999 bill 
indicated that implementation of an administrative appeals process for 
only permit denials is unacceptable. Why has the Corps recently again 
insisted that it will only implement a program that addresses permit 
denials and that it needs more money to implement a full program, 
against the expressed instructions of the Congress?
    Answer. The Army's position is to support Committee report language 
as fully and as best as we can, within the resources provided in 
appropriation acts. However, the appropriations we received in the 
fiscal years you mention were well below the President's budget 
requests. To have dedicated $5 million from our already austere program 
for the full process would have meant shortages of regulatory personnel 
in the districts. The public would suffer because, with fewer team 
members to process permit applications, backlogs would grow and private 
citizens and businesspersons would have to wait longer to receive a 
permit. Given the limited funding and the number of people impacted by 
the permit program vs. the number who would benefit from an appeals 
program, we believed that a phased implementation would work best for 
the program and the public.
                   mississippi river and tributaries
    Question. General Ballard, I'm informed that the MR&T flood control 
system cannot pass the project design flood, or even a recurrence of 
the flood that actually accrued in 1927. Is the budget request for the 
MR&T project sufficient to make meaningful progress in addressing the 
flood control needs along the Mississippi River and tributaries, in 
your judgment?
    Answer. While the budget request for the Mississippi River and 
Tributaries project would allow work to proceed on all projects, albeit 
not on optimal schedules, the development of the budget required 
difficult trade-offs. It does not reflect the full level of capability 
within the Mississippi River and Tributaries project.
    Question. Are you concerned that the budget request is not 
sufficient to address this critical situation?
    Answer. Until critical work is completed on the Mississippi River 
and the Atchafalaya River, the entire lower valley remains at risk from 
major flood events. Because I am concerned, I have exercised my full 
authority to assure that the most critical work within the Mississippi 
River and Tributaries project receives a funding priority.
    Question. What risk does not having the ability to pass the project 
or near project flood pose to the region and the Nation?
    Answer. Through the Army Corps of Engineers, the Federal Government 
has made major investments over the past 70 years to reduce the risk of 
a recurrence of the level of flood damages experienced during the 1927 
Flood. As a result of these Federal investments, the risk of failure 
has been diminishing with each passing year. However, if the project 
flood or a near project flood were to occur, because the project is not 
yet complete and because of the increased development throughout the 
valley since 1927, we would experience major damage on a large scale. 
If large areas of the 35,457 square mile alluvial floodplain were 
flooded, life and property would be threatened; and interruption to 
highway, rail, and interstate commerce would result. Both agricultural 
and industrial interests would be adversely affected and would require 
a significant time to recover.
    Question. General Ballard, do you believe that the amount requested 
for fiscal year 2000 for the MR&T project is adequate to address the 
flood control, navigation, and environmental problems and opportunities 
facing the lower Mississippi Valley?
    Answer. No, sir. In my opinion, adequate progress in solving these 
problems and meeting needs within the Lower Mississippi Valley would 
require a larger program in fiscal year 2000.
    Question. General Ballard, what is the Corps' capability for the 
MR&T project in fiscal year 2000?
    Answer. The Corps capability for fiscal year 2000 for the 
Mississippi River and Tributaries project is $350 million.
    Question. How much do you think is needed to make adequate progress 
toward completion of this extremely important work?
    Answer. An appropriation of $350 million would be needed to 
maintain optimal schedules.
    Question. Please provide for the record a list which shows the 
Corps' capability for studies, construction and operations and 
maintenance for fiscal year 2000.
    Answer. Yes, sir. I will provide for the record the fiscal year 
2000 capabilities for the Mississippi River and Tributaries Project.

                                          FISCAL YEAR 2000 FUNDING CAPABILITIES MISSISSIPPI RIVER & TRIBUTARIES
                                                                 (Amounts in Thousands)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                             Amounts
Congressional                                Estimated     included in        Study
  Districts      Study and State     Type     Federal      President's     capability              Purpose of additional capability              Amount
                                                cost         budget
--------------------------------------------------------------------------------------------------------------------------------------------------------
            AUTHORIZED STUDIES
 
           ARKANSAS:
               COLLECTION AND    .......          725             365             365  NO ADDITIONAL REQUIREMENT...........................  .........
                STUDY OF BASIC
                DATA
        AR 4   SOUTHEAST         (COM)          4,495  ..............           1,200  CONTINUE FEASIBILITY STUDY..........................     $1,200
                ARKANSAS, AR                                                           NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
 
              PRECONSTRUCTION
              ENGINEERING AND
                  DESIGN
 
           ARKANSAS:
  AR 1, 2, 4   BAYOU METO        (FC)          12,000           1,767           5,000  ADVANCE COMPLETION OF PED 24 MONTHS.................      3,233
                BASIN, AR
  AR 1, 2, 4   GRAND PRAIRIE     (FC)          11,584  ..............  ..............  FULLY FUNDED........................................  .........
                REGION, AR
                (SEPERABLE
                ELEMENT)
 
               CONSTRUCTION
                 PROJECTS
 
           ARKANSAS:
        AR 1   CACHE RIVER       (FC)         155,000             (C)             (C)  LACK OF LOCAL COOPERATION...........................  .........
                BASIN, AR
  AR 1, 2, 4   CHANNEL           (FC)       3,667,000      37,685 (C)      43,165 (C)  COMPLETE TENN/WILLOW MS LA..........................      1,100
       IL 19    IMPROVEMENT,                                                           COMPLETE YUCATAN LA.................................      1,000
        KY 1    AR, IL, KY, LA,                                                        COMPLETE WARFIELD MS................................      1,500
 LA 1, 2, 3,    MS, MO &  TN                                                           COMPLETE VAUCLUSE AR................................      1,000
  4, 5, 6, 7                                                                           INITIATE WOLF ISLAND BAR KY ADVANCE PROJECT                 880
     MO 8, 9                                                                            COMPLETION BY 2 MO.
 MS 1, 2, 3,
        4, 5
  TN 7, 8, 9
                                                                                                                                            ------------
                                                                                                                                                 5,480
        AR 1   EIGHT MILE        (FC)       \1\ 9,000         700 (C)         700 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                CREEK, AR
  AR 1, 2, 4   GRAND PRAIRIE     (FC)     \1\ 245,350      21,900 (C)      21,900 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                REGION, AR
        AR 1   HELENA AND        (FC)       \1\ 8,370       2,190 (C)       2,190 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                VICINITY, AR
        AR 1   HELENA HARBOR,    (N)           32,156             (C)             (C)  FULLY FUNDED........................................  .........
                PHILLIPS
                COUNTY, AR
  AR 1, 2, 4   MISSISSIPPI       (FC)       1,995,000      23,250 (C)      35,750 (C)  ADVANCE COMMERCE BIRDS PT LEVEE GRADE RAISE MO......      1,000
       IL 19    RIVER LEVEES,                                                          ADVANCE WILSON PT PT LOOKOUT LA ITEM 489 R..........      1,000
        KY 1    AR, IL, KY, LA,                                                        ADVANCE CAROLINA VALEWOOD MS ITEM 502-L.............      1,000
 LA 1, 2, 3,    MS, MO & TN                                                            ADVANCE VALEWOOD CARLISLE MS IT 496L................      2,200
  4, 5, 6, 7                                                                           ADVANCE STATELINE WILSON PT LA ITEM 503-R...........      1,000
     MO 8, 9                                                                           ADVANCE WILSON PT PT LOOKOUT LA ITEM 487-R..........        300
 MS 1, 2, 3,                                                                           ADVANCE CARVILLE MARCHAND LA........................        500
        4, 5                                                                           ADVANCE ALHAMBRA HOHEN SOLMS LA.....................        300
  TN 7, 8, 9                                                                           ADVANCE HOHEN SOLMS MODESTE LA......................        700
                                                                                       ADVANCE REVEILLE PT PLEASANT LA.....................        500
                                                                                       ADVANCE DRINKWATER MO PUMP STATION..................      1,000
                                                                                       INITIATE BLUE LAKE AR...............................      1,000
                                                                                       INITIATE CAIRO IL ITEM 2............................        500
                                                                                       INITIATE ISLAND 8, KY...............................      1,000
                                                                                       INITIATE ABOVE CAIRO IL ITEM 1 ADVANCE PROJECT              500
                                                                                        COMPLETION 6 MONTHS.
                                                                                                                                            ------------
                                                                                                                                                12,500
        AR 1   ST FRANCIS        (FC)     \1\ 387,000       4,350 (C)       4,850 (C)  ADVANCE COMPLETION OF CHANNEL IMPROVEMENTS AT MAIN &        500
        MO 8    BASIN, AR & MO                                                          DITCH 2, ITEM 2, MO BY 9 MONTHS.
        AR 4   TENSAS BASIN--    (FC)     \1\ 475,336       8,930 (C)       9,930 (C)  SEE BELOW...........................................  .........
  LA 4, 5, 6    OVERALL
               TENSAS BASIN,     (FC)        (94,280)         (0) (C)         (0) (C)  LACK OF ADEQUATE LOCAL SUPPORT......................  .........
                BOEUF TENSAS
                LESS TENSAS R
               TENSAS BASIN,     (FC)        (96,230)         (0) (C)         (0) (C)  PROJECT COMPLETE....................................  .........
                LAKE CHICOT
                PUMPING PLANT
               TENSAS COCODRIE   (FC)        (56,466)         (0) (C)         (0) (C)  COMPLETED PROJECT...................................  .........
                PUMPING PLANT
               TENSAS RIVER      (FC)        (42,600)         (0) (C)         (0) (C)  LACK OF ADEQUATE LOCAL SUPPORT......................  .........
        AR 1   WHITEMAN'S        (FC)       \1\ 3,300             (C)             (C)  FULLY FUNDED........................................  .........
                CREEK, AR
 
               OPERATION AND
                MAINTENANCE
 
           ARKANSAS:
               CHANNEL           (FC)     ...........          55,876          66,676  ....................................................  .........
                IMPROVEMENT,
                AR, IL, KY, LA,
                MS, MO &  TN
  AR 1, 2, 4   CHANNEL           (FC)     ...........        (17,046)        (20,046)  DREDGE ADDITIONAL 4,000,000 CY ON MISSISSIPPI RIVER       3,000
        KY 1    IMPROVEMENT,                                                            BUDGET AMT IS FOR 110 DAYS; 5 YR AVERAGE IS 184
 LA 1, 2, 3,    DREDGING, AR,                                                           DAYS; CAPABILITY WOULD ALLOW FOR AN ADDITIONAL 70
  4, 5, 6, 7    IL, KY, LA, MS,                                                         DREDGING DAYS.
        MO 8    MO & TN
MS 1, 2, 3, 4
  TN 6, 7, 8
  AR 1, 2, 4   CHANNEL           (FC)     ...........        (38,830)        (46,630)  STABILIZE BANK TO PROTECT SHORELINE.................      7,400
        KY 1    IMPROVEMENT,                                                           STONE REPAIRS TO REVETMENTS AND DIKS................        400
 LA 1, 2, 3,    RVT & DIKES,
  4, 5, 6, 7    AR, IL, KY, LA,
     MO 8, 9    MS, MO, TN
 MS 1, 2, 3,
        4, 5
  TN 6, 7, 8
                                                                                                                                            ------------
                                                                                                                                                 7,800
        AR 1   HELENA HARBOR,    (N)      ...........             284             484  DREDGE HARBOR ADDITIONAL 200,000 CY BUDGET AMT IS           200
                PHILLIPS                                                                FOR 9 DAYS; 5 YR AVG IS 12 DAYS; CAPABILITY WOULD
                COUNTY, AR                                                              ALLOW FOR AN ADDITIONAL 6 DREDGING DAYS.
               INSPECTION OF     (FC)     ...........             443             443  ....................................................  .........
                COMPLETED
                WORKS, AR
        AR 4   LOWER ARKANSAS    (FC)     ...........              66              66  NO ADDITIONAL REQUIREMENT...........................  .........
                RIVER, NORTH
                BANK, AR
        AR 4   LOWER ARKANSAS    (FC)     ...........             108             108  NO ADDITIONAL REQUIREMENT...........................  .........
                RIVER, SOUTH
                BANK, AR
  AR 1, 2, 4   MISSISSIPPI       (FC)     ...........           3,736           4,686  REPLACE DOLPHIN, GOOSE POND IL......................        150
       IL 19    RIVER LEVEES,                                                          RESTORE SLOPE, WEST MEMPHIS AR......................        500
        KY 1    AR, IL, KY, LA,                                                        RESTORE SLOPE, JOINER AR............................        100
 LA 1, 2, 3,    MS, MO & TN                                                            REPLACE CULVERT NEW MADRID MO.......................        200
  4, 5, 6, 7
     MO 8, 9
 MS 1, 2, 3,
        4, 5
  TN 7, 8, 9
                                                                                                                                            ------------
                                                                                                                                                   950
        AR 1   ST FRANCIS        (FC)     ...........           6,300           9,550  CLEANOUT CHANNEL AT HIGHWAY 90, AR & MO.............      2,400
        MO 8    BASIN, AR & MO                                                         CLEANOUT CHANNEL, DITCH 251 UPPER, MO...............        250
                                                                                       CLEAR CHANNEL, BIG SLOUGH & MAYO DITCHES, AR........        300
                                                                                       CLEANOUT CHANNEL, DITCH 9, LAKE CITY, AR............        100
                                                                                       AERIAL BRUSH CONTROL ON VARIOUS CHANNELS............        200
                                                                                                                                            ------------
                                                                                                                                                 3,250
        AR 4   TENSAS BASIN,     (FC)     ...........           2,344           2,344  NO ADDITIONAL REQUIREMENT...........................  .........
        LA 5    BOEUF AND
                TENSAS RIVERS,
                AR & LA
     AR 1, 2   WHITE RIVER       (FC)     ...........             964             964  NO ADDITIONAL REQUIREMENT...........................  .........
                BACKWATER, AR
 
            AUTHORIZED STUDIES
 
           ILLINOIS:
       IL 12   MISSISSIPPI       (FDP)        \1\ 100              30              30  NO ADDITIONAL REQUIREMENT...........................  .........
        MO 8    RIVER,
                ALEXANDER
                COUNTY, IL AND
                SCOTT COUNTY,
                MO
 
               OPERATION AND
                MAINTENANCE
 
           ILLINOIS:
               INSPECTION OF     (FC)     ...........              45              45  ....................................................  .........
                COMPLETED
                WORKS, IL
 
               CONSTRUCTION
                 PROJECTS
 
           KENTUCKY:
        KY 1   HICKMAN BLUFF,    (FC)      \1\ 19,810             (C)             (C)  FULLY FUNDED........................................  .........
                KY
 
               OPERATION AND
                MAINTENANCE
 
           KENTUCKY:
               INSPECTION OF     (FC)     ...........              25              25  ....................................................  .........
                COMPLETED
                WORKS, KY
        KY 1   LAKE NO 9         (FC)     ...........  ..............  ..............  PERIODIC MAITNENANCE OF PUMPING PLANT NOT CURRENTLY   .........
        TN 8    PUMPING PLANT,                                                          REQUIRED.
                KY
 
            AUTHORIZED STUDIES
 
           LOUISIANA:
LA 3, 5, 6, 7  ALEXANDRIA, LA    (FDP)          3,150             700             700  NO ADDITIONAL REQUIREMENT...........................  .........
                TO THE GULF OF
                MEXICO
        LA 6   DONALDSONVILLE    (FDP)          3,500             250             250  NO ADDITIONAL REQUIREMENT...........................  .........
                TO THE GULF, LA
        LA 5   SPRING BAYOU,     (SPE)            100  ..............             100  INITIATE RECONNAISSANCE PHASE OF STUDY..............  .........
                LOUISIANA
        LA 6   WEST BATON ROUGE  (SPE)          2,100  ..............             100  INITIATE RECONNAISSANCE PHASE OF STUDY..............  .........
                PARISH, LA
 
              PRECONSTRUCTION
              ENGINEERING AND
                  DESIGN
 
           LOUISIANA:
        LA 6   LA STATE PEN      (FC)             424  ..............  ..............  FULLY FUNDED........................................  .........
                LEVEE
LA 3, 5, 6, 7  MORGANZA, LA TO   (FC)           2,025             700             700  NO ADDITIONAL REQUIREMENT...........................  .........
                THE GULF OF
                MEXICO
 
               CONSTRUCTION
                 PROJECTS
 
           LOUISIANA:
 LA 3, 4, 5,   ATCHAFALAYA       (FC)     \1\ 185,000       7,500 (C)       8,000 (C)  ADVANCE LAND ACQUISITION ADVANCE PROJECT COMPLETION         500
        6, 7    BASIN, FLOODWAY                                                         9 MONTHS.
                SYSTEM, LA
 LA 3, 4, 5,   ATCHAFALAYA       (FC)     \1\ 1,720,0      19,750 (C)      23,750 (C)  ADVANCE BAYOU YOKELY PUMPING STATION 9 YEARS........      2,000
        6, 7    BASIN, LA                          00                                  INITIATE LEVEE ENLARGEMENT CONTRACT, 2ND LIFT--ITEMS      2,000
                                                                                        W46 & W52.
                                                                                                                                            ------------
                                                                                                                                                 4,000
        LA 6   LOUISIANA STATE   (FC)          19,500       3,000 (C)       9,000 (C)  ADVANCE LEVEE UPSTREAM CAMP C 12 MONTHS--CONTRACT #       2,200
                PENITENTIARY                                                            1.                                                       2,200
                LEVEE, LA                                                              ADVANCE LEVEE UPSTREAM CAMP C CONT 2 12 MONTHS--          1,600
                                                                                        CONTRACT # 2.
                                                                                       ADVANCE DRAINAGE STRUCTURE CONTRACT 6 MONTHS ADVANCE
                                                                                        PROJECT COMPLETION 1 YEAR.
                                                                                                                                            ------------
                                                                                                                                                 6,000
  LA 1, 2, 3   MISSISSIPPI AND   (FC)      \1\ 66,900         100 (C)         100 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
        MS 5    LOUISIANA
                ESTUARINE
                AREAS, LA & MS
        LA 3   MISSISSIPPI       (FC)      \1\ 99,200      10,400 (C)      11,884 (C)  ADVANCE BURLINGTON NORTHERN RR CONTRACT 6 MONTHS....        706
                DELTA REGION,                                                          ADVANCE DIVERSION STURCTURE CONTRACT 6 MONTHS.......        778
                LA
                                                                                                                                            ------------
                                                                                                                                                 1,484
               TENSAS BASIN,     (FC)       (166,900)     (8,930) (C)     (9,930) (C)  ADVANCE AWARD ITEM 1C...............................        469
                RED RIVER                                                              ADVANCE AWARD ITEM 1D...............................        375
                BACKWATER, LA                                                          PURCHASE LANDS......................................        156
                                                                                       NO IMPACT ON PROJECT COMPLETION.....................
                                                                                                                                            ------------
                                                                                                                                                 1,000
 
               OPERATION AND
                MAINTENANCE
 
           LOUISIANA:
 LA 3, 4, 5,   ATCHAFALAYA       (FC)     ...........             644           1,702  REFOREST FOR HABITAT REQUIREMENTS AND FULLY FUND            143
        6, 7    BASIN, FLOODWAY                                                         EXISTING CONTRACT.
                SYSTEM, LA                                                             REPAIR INTERIOR ROADS AND CONSTRUCT NEW TRAILS......        276
                                                                                       PROCURE SUPPLIES AND EQUIPMENT FOR PEST AND FOREST          354
                                                                                        MANAGEMENT.
                                                                                       CONSTRUCT ACCESS POINTS TO LANDS AND PROVIDE SAFETY         285
                                                                                        & HANDICAPPED FEATURES TO FACILITIES.
                                                                                                                                            ------------
                                                                                                                                                 1,058
 LA 3, 4, 5,   ATCHAFALAYA       (FC)     ...........          10,560          14,925  REPLACE GUIDEWALL AT BERWICK LOCK...................        500
        6, 7    BASIN, LA                                                              REPLACE SOUTHWEST GUIDEWALL AT BAYOU BOEUF LOCK.....      1,750
                                                                                       REPLACE SOUTHWEST GUIDEWALL AT SORREL LOCK..........        525
                                                                                       REPLACE NORTHWEST GUIDEWALL AT BAYOU SORREL  LOCK...      1,170
                                                                                       REPAIR WEST CHAMBER GUIDEWALL AT BAYOU SORREL LOCK..
                                                                                                                                                   420
                                                                                                                                            ------------
                                                                                                                                                 4,365
LA 4, 5, 6, 7  BATON ROUGE       (N)      ...........             157             157  NO ADDITIONAL REQUIREMENT...........................  .........
                HARBOR, DEVIL
                SWAMP, LA
LA 4, 5, 6, 7  BAYOU COCODRIE    (FC)     ...........             101             101  NO ADDITIONAL REQUIREMENT...........................  .........
                AND
                TRIBUTARIES, LA
  LA 1, 2, 3   BONNET CARRE, LA  (FC)     ...........           1,068           1,068  NO ADDITIONAL REQUIREMENT...........................  .........
               INSPECTION OF     (FC)     ...........             373             373  ....................................................  .........
                COMPLETED
                WORKS, LA
  LA 4, 5, 6   LOWER RED RIVER,  (FC)     ...........              84           3,034  INITIATE CONSTRUCTION OF BAYOU RAPIDES REPLACEMENT        2,950
                SOUTH BANK                                                              STRUCTURE.
                LEVEES, LA
  AR 1, 2, 4   MAPPING           (FC)     ...........           1,117           1,117  NO ADDITIONAL REQUIREMENT...........................  .........
        KY 1
 LA 1, 2, 3,
  4, 5, 6, 7
     MO 8, 9
MS 1, 2, 3, 4
  TN 7, 8, 9
        LA 3   MISSISSIPPI       (FC)     ...........             436             591  OPERATION OF DAVIS POND PUMPING STATION.............        155
                DELTA REGION,
                LA
LA 3, 5, 6, 7  OLD RIVER, LA     (FC)     ...........           4,027           8,110  ACQUIRE EXHIBITS FOR VISITOR CENTER.................      1,208
                                                                                       REPLACE ELECTRICAL WIRING AT OLD RIVER LOCK.........        150
                                                                                       CONSTRUCT NEW SHOP BUILDING AT THE OLD RIVER COMPLEX        700
                                                                                       SAND BLAST AND PAINT GANTRY CRANE...................
                                                                                       REPLACE CREOSOTE NEEDLES AT THE OVERBANK STRUCTURE..        430
                                                                                       REPLACE MITER GATES AT OLD RIVER LOCK...............        250
 
                                                                                                                                                 1,345
                                                                                                                                            ------------
                                                                                                                                                 4,083
        AR 4   TENSAS BASIN,     (FC)     ...........           2,927           2,927  NO ADDITIONAL REQUIREMENT RIVER BACKWATER, LA.......  .........
        LA 5    RED
 
               CONSTRUCTION
                 PROJECTS
 
           MISSISSIPPI:
        MS 1   HORN LAKE CREEK   (FC)       \1\ 3,120             (C)             (C)  FULLY FUNDED........................................  .........
        TN 9    & TRIBUTARIES
                (INCL COW PEN
                CREEK), MS & TN
     MS 1, 2   YAZOO BASIN--     (FC)       1,740,246      24,279 (C)      40,985 (C)  ....................................................  .........
                OVERALL
               YAZOO BASIN,      (FC)        (38,954)         (0) (C)         (0) (C)  FUNDED AS PART OF TRIBUTARIES ASCALMORE-TIPPO-OPOS    .........
                                                                                        SUM, MS.
               YAZOO BASIN,      (FC)        (18,505)         (0) (C)         (0) (C)  COST SHARING AND FINANCING BY LOCAL.................  .........
                BACKWATER--ROCK
                Y INTEREST IS
                UNAVAILABLE
                BAYOU AREA, MS
               YAZOO BASIN,      (FC)       (254,491)        (20) (C)        (20) (C)  FUNDED AS PART OF THE YAZOO ACKWATER UNIT...........  .........
                BACKWATER LESS
                ROCKY BAYOU, MS
               YAZOO BASIN,      (FC)        (97,840)       (500) (C)     (1,000) (C)  ADVANCE DESIGN ON YAZOO REFORMULATED PLAN NO IMPACT         500
                BACKWATER PUMP,                                                         ON COMPLETION OF UNIT.
                MS
               YAZOO BASIN, BIG  (FC)       (109,383)     (3,915) (C)     (4,415) (C)  PURCHASE MITIGATION LANDS SUNFLOWER RIVER, MS.......        500
               YAZOO BASIN,      (FC)       (161,439)         (0) (C)         (0) (C)  COMPLETED WORK......................................
                COMPLETED
                UNITS, MS
               YAZOO BASIN,      (FC)       (244,284)     (6,294) (C)    (20,000) (C)  INITIATE & COMPLETE:................................
                DEMONSTRATION                                                            1--FLOODWATER RETARDING STRUCTURE.................      1,363
                EROSION                                                                  11--RISER PIPE CONTRACTS..........................      2,777
                CONTROL,  MS                                                             3--BANK STAB ITEMS................................        962
                                                                                         4--BOX CULVERT CONTRACTS..........................        616
                                                                                         6--LOW DROP CONTRACTS.............................      1,102
                                                                                         REAL ESTATE ACQUISITION, MONITORING, E&D AND S&A..      6,886
                                                                                       NOTE: THE ADMINISTRATION'S REVIEW OF THIS PROJECT
                                                                                        HAS IDENTIFIED ECONOMIC AND/OR POLICY CONCERNS.
                                                                                                                                            ------------
                                                                                                                                                13,706
               YAZOO BASIN,      (FC)         (7,511)         (0) (C)         (0) (C)  FULLY FUNDED........................................  .........
                F&WL MITIGATION
                LANDS, MS
               YAZOO BASIN,      (FC)       (194,431)        (20) (C)        (20) (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                MAIN STEM, MS
               YAZOO BASIN,      (FC)        (32,408)     (1,570) (C)     (1,570) (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                REFORMULATION
                UNIT, MS
               YAZOO BASIN,      (FC)       (243,000)       (340) (C)       (340) (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                TRIBUTARIES, MS
               YAZOO BASIN,      (FC)       (338,000)    (11,620) (C)    (13,620) (C)  ACCELERATE CONST CHANNEL ITEM 4.....................      1,000
                UPPER YAZOO                                                            PURCHASE MITIGATION LANDS NO IMPACT ON PROJECT            1,000
                PROJECTS, MS                                                            COMPLETION.
                                                                                                                                            ------------
                                                                                                                                                 2,000
 
               OPERATION AND
                MAINTENANCE
 
           MISSISSIPPI:
        MS 2   GREENVILLE        (N)      ...........             333             333  NO ADDITIONAL REQUIREMENT...........................  .........
                HARBOR, MS
               INSPECTION OF     (FC)     ...........             193             193  ....................................................  .........
                COMPLETED
                WORKS, MS
        MS 2   VICKSBURG         (N)      ...........             199             199  NO ADDITIONAL REQUIREMENT...........................  .........
                HARBOR, MS
        MS 1   YAZOO BASIN,      (FC)     ...........           3,265           4,865  REPAIR INTAKE STRUCTURE & TOE DRAIN SYSTEM..........        800
                ARKABUTLA LAKE,                                                        REPLACE UNDERGROUND ELECTRICAL SYSTEMS..............        800
                MS
                                                                                                                                            ------------
                                                                                                                                                 1,600
        MS 2   YAZOO BASIN, BIG  (FC)     ...........             209           4,709  CONTINUE CONSTRUCTION OF BOGUE PHALIA...............      4,500
                SUNFLOWER
                RIVER, MS
        MS 1   YAZOO BASIN,      (FC)     ...........           3,214           4,354  REPAIR OUTLET STRUCTURE & EMERGENCY SPILLWAY........        500
                ENID LAKE, MS                                                          REPLACE UNDERGROUND ELECTRICAL SYSTEMS..............        640
                                                                                                                                            ------------
                                                                                                                                                 1,140
        MS 2   YAZOO BASIN,      (FC)     ...........             946             946  NO ADDITIONAL REQUIREMENT...........................  .........
                GREENWOOD, MS
        MS 1   YAZOO BASIN,      (FC)     ...........           4,280           6,580  REPAIR DAM BERM DRAINAGE SYSTEM.....................        800
                GRENADA LAKE,                                                          REPAIR & RESURFACE ACCESS ROADS.....................      1,500
                MS
                                                                                                                                            ------------
                                                                                                                                                 2,300
     MS 1, 2   YAZOO BASIN,      (FC)     ...........           1,059           1,059  NO ADDITIONAL REQUIREMENT...........................  .........
                MAIN STEM, MS
        MS 1   YAZOO BASIN,      (FC)     ...........           4,334           5,534  REPAIR OUTLET STRUCTURE AND TOE DRAIN SYSTEM........      1,200
                SARDIS LAKE, MS
     MS 1, 2   YAZOO BASIN,      (FC)     ...........           1,269           1,269  NO ADDITIONAL REQUIREMENT...........................  .........
                TRIBUTARIES, MS
     MS 3, 4   YAZOO BASIN,      (FC)     ...........             493             493  NO ADDITIONAL REQUIREMENT...........................  .........
                WILL M
                WHITTINGTON AUX
                CHAN, MS
  MS 1, 2, 3   YAZOO BASIN,      (FC)     ...........             560             560  NO ADDITIONAL REQUIREMENT...........................  .........
                YAZOO BACKWATER
                AREA, MS
        MS 3   YAZOO BASIN,      (FC)     ...........             846             846  NO ADDITIONAL REQUIREMENT...........................  .........
                YAZOO CITY, MS
 
               CONSTRUCTION
                 PROJECTS
 
           MISSOURI:
        MO 8   ST JOHNS BAYOU    (FC)      \1\ 58,800       7,800 (C)       9,800 (C)  ADVANCE COMPLETION OF NEW MADRID PUMPING STATION 12       2,000
                AND NEW MADRID                                                          MONTHS.
                FLOODWAY, MO
 
               OPERATION AND
                MAINTENANCE
 
           MISSOURI:
               INSPECTION OF     (FC)     ...........             202             202  ....................................................  .........
                COMPLETED
                WORKS, MO
        MO 8   WAPPAPELLO LAKE,  (FC)     ...........           3,500           7,705  COMPLETE HIGHWAY D3 RELOCATIONS.....................        880
                MO                                                                     INITIATE CONTRACT FOR HIGHWAY D4 RELOCATION.........      2,975
                                                                                       OVERLAY ASPHALT GREENVILLE DAY USE AREA.............        100
                                                                                       MANTAIN NON-REC ROAD BELOW THE DAM..................        150
                                                                                       REPAIR HOLIDAY LANDING ENTRANCE FORSAFETY...........        100
                                                                                                                                            ------------
                                                                                                                                                 4,205
 
            AUTHORIZED STUDIES
 
           TENNESSEE:
        MS 1   MEMPHIS METRO     (COM)          2,075             675             675  NO ADDITIONAL REQUIREMENT...........................  .........
  TN 7, 8, 9    AREA, TN & MS
 
              PRECONSTRUCTION
              ENGINEERING AND
                  DESIGN
 
           TENNESSEE:
        KY 1   REELFOOT LAKE,    (FC)             750             318             318  NO ADDITIONAL REQUIREMENT...........................  .........
        TN 8    TN & KY
  TN 7, 8, 9   WOLF RIVER,       (FC)             579             525             525  NO ADDITIONAL REQUIREMENT...........................  .........
                MEMPHIS, TN
 
               CONSTRUCTION
                 PROJECTS
 
           TENNESSEE:
        TN 9   NONCONNAH CREEK-- (FC)      \1\ 18,400       2,500 (C)       2,500 (C)  ....................................................  .........
                OVERALL, TN &
                MS
        TN 9   NONCONNAH CREEK,  (FC)       \1\ (131)         (0) (C)         (0) (C)  LACK OF RECENT EXPRESSION OF LOCAL INTEREST.........  .........
                ENVIRONMENTAL
                ENHANCEMENT, TN
                & MS
        TN 9   NONCONNAH CREEK,  (FC)     \1\ (17,941     (2,500) (C)     (2,500) (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                FLOOD CONTROL                      1)
                FEATURE, TN &
                MS
        TN 9   NONCONNAH CREEK,  (FC)       \1\ (328)         (0) (C)         (0) (C)  LACK OF RECENT EXPRESSION OF LOCAL INTEREST.........  .........
                RECREATION
                FACILITIES, TN
                &  MS
     TN 7, 8   WEST TENNESSEE    (FC)     \1\ 143,000       2,398 (C)       2,398 (C)  NO ADDITIONAL REQUIREMENT...........................  .........
                TRIBUTARIES, TN
 
               OPERATION AND
                MAINTENANCE
 
           TENNESSEE:
               INSPECTION OF     (FC)     ...........             113             113  ....................................................  .........
                COMPLETED
                WORKS, TN
        TN 9   MEMPHIS HARBOR,   (N)      ...........             800           1,400  DREDGE HARBOR ADDITIONAL 800,000 CY BUDGET AMT IS           600
                MCKELLAR LAKE,                                                          FOR 27 DAYS; 5 YR AVG IS FOR 42 DAYS; CAPABILITY
                TN                                                                      WOULD ALLOW AN ADDITIONAL 20 DREDGING DAYS.
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
           NOTE: ALTHOUGH PROJECT AND STUDY CAPABILITIES REFLECT THE READINESS OF THE WORK FOR ACCOMPLISHMENT, THEY ARE IN COMPETITION FOR AVAILABLE
             FUNDS AND MANPOWER ARMY-WIDE IN THIS CONTEXT, THE FISCAL YEAR 2000 CAPABILITY AMOUNTS SHOWN CONSIDER EACH PROJECT OR STUDY BY ITSELF
             WITHOUT REFERENCE TO THE REST OF THE PROGRAM. HOWEVER, IT IS EMPHASIZED THAT THE TOTAL AMOUNT PROPOSED FOR THE ARMY'S CIVIL WORKS PROGRAM
             IN THE PRESIDENT'S BUDGET FOR FISCAL YEAR 2000 IS THE APPROPRIATE AMOUNT CONSISTENT WITH THE ADMINISTRATION'S ASSESSMENT OF NATIONAL
             PRIORITIES FOR FEDERAL INVESTMENTS. IN ADDITION, THE TOTAL AMOUNT PROPOSED FOR THE ARMY'S CIVIL WORKS PROGRAM IN THE PRESIDENT'S BUDGET IS
             THE MAXIMUM THAT CAN BE EFFICIENTLY AND EFFECTIVELY USED. THEREFORE, WHILE WE COULD UTILIZE ADDITIONAL FUNDS ON INDIVIDUAL PROJECTS AND
             STUDIES, OFFSETTING REDUCTIONS WOULD BE REQUIRED IN ORDER TO MAINTAIN OUR OVERALL BUDGETAR OBJECTIVES.
           BUDGET AND CAPABILITY AMOUNTS REFLECT FEDERAL FUNDS, EXCEPT FOR PROJECTS WITH COSTS ALLOCATED TO NAVIGATION, FOR WHICH THE AMOUNTS INCLUDE
             NON-FEDERAL FUNDING FROM THE INLAND WATERWAYS & HARBO MAINTENANCE TRUST FUNDS.
           \1\ COST ESTIMATE INCLUDES AN ALLOWANCE FOR INFLATION THROUGH THE CONSTRUCTION PERIOD.

                operation and maintenance budget request
    Question. Does this budget provide the funds necessary to 
adequately operate and maintain the project and to respond to the 
Corps' many challenges in this environmentally sensitive area?
    Answer. The budget maintains the operations portion at current 
funding level. We have funded the most critical maintenance in fiscal 
year 2000. However, repeated reductions in the maintenance program 
could delay, slow down or defer channel surveys, repair of levee 
slides, repair of equipment, maintenance of flood control, navigation, 
and salinity control structures, and maintenance of recreation 
facilities. Reductions would also cause adverse impacts on commercial 
navigation and related industries and local, regional, national, and 
international commerce.
            formerly utilized sites remedial action program
    Question. Briefly, describe for the Committee the differences in 
the Department of Energy's proposed accelerated clean up plan for the 
FUSRAP program. How does the Corps' overall project costs and schedules 
compare to the DOE accelerated cleanup plan?
    Answer. In June 1997, the Department of Energy (DOE) developed a 
draft accelerated cleanup plan, which showed that FUSRAP could be 
completed in 2002. To achieve that completion schedule, the accelerated 
plan limited the scope of the program, principally by proposing that 
hazardous wastes at the Niagara Falls Storage Site remain on site and 
by proposing to clean up the St. Louis sites to a restricted use 
industrial standard rather than industrial use. The draft accelerated 
cleanup plan also was based on an estimate of the requirement at the 
Luckey site which, it has since been established, greatly 
underestimated the quantities requiring remediation. In addition, DOE 
estimates did not include any requirement for remediating contaminated 
ground water. Further, DOE's completion date of 2002 for the draft 
accelerated cleanup plan was premised on an annual funding level of 
$182 million per year. The Corps received only $140 million in fiscal 
year 1998 and in fiscal year 1999, and has been allocated a ceiling of 
$150 million a year, starting in fiscal year 2000, to complete FUSRAP. 
We estimate that at this funding level, with a remaining requirement of 
$1.1 billion, it will require until at least 2010 to complete the 
program. The review of cost estimates, by site, which the Corps 
completed during the 3rd quarter fiscal year 1998 confirmed that our 
costs to complete are comparable to DOE's proposed accelerated cleanup 
plan, when adjustments are made to compensate for the scope 
differences. The Corps has also built new cost estimates from the 
bottom up to validate our initial assessment in the Report to Congress. 
These estimates fall within the range provided in the Report to 
Congress.
    Question. General Ballard, the Congress has directed DOE and the 
Corps to enter into a Memorandum of Understanding to carry out the 
program and to eliminate any misunderstandings that may exist between 
the two agencies as to the roles and responsibilities related to the 
FUSRAP cleanup program? What is the status of the MOU and when do you 
expect to have it finalized? What are the remaining sticking points in 
working out a final MOU?
    Answer. The Corps and DOE have entered final negotiations regarding 
the MOU. I anticipate that the final agreement will be signed shortly. 
All major issues have been resolved.
    Question. Last year you indicated that the execution of the program 
was not being hampered by your lack of regulatory authority, or the 
lack of an MOU with DOE. Is this still true? Please explain.
    Answer. It is still true that our execution of the program has not 
been adversely impacted by our lack of regulatory authority under the 
Atomic Energy Act or the lack of a memorandum of understanding with the 
Department of Energy. As I testified last year, we believe that the 
Comprehensive Environmental Response, Compensation, and Liability Act, 
as amended, provides sufficient authority for the Corps to execute 
FUSRAP. In addition, language in the Energy and Water Development 
Appropriations Act, 1999, clarifies Corps cleanup responsibilities 
under FUSRAP.
    Question. The Corps has been in charge of the FUSRAP cleanup effort 
for about 18 months. Update the Committee on the Corps' progress, 
particularly in maintaining cost and schedules since the Corps took 
over the program. What are the most significant issues or problems you 
now face in maintaining the momentum of the cleanup program? How does 
your fiscal year 1998 performance compare to that which DOE had planned 
to execute?
    Answer. During fiscal year 1998, the Corps succeeded in maintaining 
or improving on the schedules which it inherited when responsibility 
for executing the program was transferred to the Corps. In a few cases, 
the Corps developed slightly different schedules based on local 
community involvement and optimizing available resources. We are in the 
process of adjusting our schedules based upon our current funding 
limitations.
    Question. In your report to Congress last March, you indicated that 
your assessment of the program would allow the Corps to complete 16 of 
the sites transferred to you by 2002 with the remaining being completed 
by 2006. Is that assessment still valid? Can you provide a more 
definitive schedule and cost to complete the program?
    Answer. That report provided technical capability without regard to 
any fund constraints. We still believe that with funding to support 
optimal schedules we could complete the remaining sites by 2006. In 
order to do so, however, we would require an appropriation in fiscal 
year 2000 of $264,000,000, in fiscal year 2001 of $217,500,000, in 
fiscal year 2002 of $187,500,000, in fiscal year 2003 of $187,000,000, 
in fiscal year 2004 of $376,500,000, in fiscal year 2005 of 
$82,500,000, and in fiscal year 2006 of $22,000,000.
    Question. What success is the Corps having in establishing clean up 
standards at the various sites left to be addressed?
    Answer. Each site has a set of circumstances unique to that 
individual site, and requires considerable coordination with 
stakeholders and regulators to establish the cleanup criteria. During 
fiscal year 1998 the Corps completed two Records of Decisions 
documenting final cleanup standards. We also completed documentation, 
Engineering Evaluation/Cost Analysis (EE/CA), to carry out interim 
removal actions at five sites. Interim removal actions also require the 
determination of an appropriate cleanup criteria. I believe that we 
have been successful in establishing cleanup criteria which will permit 
us to complete cleanup within the estimated range provided in the 
Report to Congress.
    Question. Since some sites are being completed, what is the process 
for transferring those sites off of the government's books? Is this a 
problem between you and DOE, if so, what is being done to resolve the 
differences between the two agencies? Who will be responsible for long 
term monitoring and site control once cleanup has been completed?
    Answer. The Corps and DOE are in agreement that the Corps would be 
responsible for site surveillance and maintenance during the first two 
years following completion of remedial activities, while DOE will be 
responsible for site surveillance and maintenance after the first two 
years and for the long term. DOE will retain accountability for real 
property during remediation and will be responsible for disposing of 
government owned sites. Now that the broader issues have been resolved, 
the Corps and DOE will develop specific procedures for documenting that 
the cleanup at a site is complete.
    Question. Now, just recently, DOE informed the Corps that an 
additional area, the Dayton sites, is eligible for inclusion in the 
FUSRAP effort. What can you tell the Committee about the potential cost 
impact of the Dayton sites on the annual funding level for FUSRAP? How 
many other additional sites are there that could be eligible for the 
FUSRAP, and how will this additional cleanup requirement impact future 
budgets?
    Answer. At present I am unable to estimate the potential cost 
impact of the Dayton sites. I have requested that our Great Lakes and 
Ohio River Division develop a preliminary cost estimate based on 
sampling data currently available, including information developed by 
DOE in the late 1940's and by the Ohio Environmental Protection Agency 
(OEPA) just last year. We are aware of 18 potential new sites which 
then Secretary of Energy Frederico Pena referenced in his letter to 
Secretary of Defense Cohen around the same time when transfer of 
Program execution to the Corps became effective. We have made no 
attempt to estimate the potential impact of these sites on future 
requirements.
                           program execution
    Question. General Ballard, your statement indicates that the Corps' 
expenditure performance in fiscal year 1998 increased by $400 million. 
How do you account for this increase?
    Answer. Senator, my commanders focused on execution. It is vital 
that they carry out the work that you and the rest of the Congress have 
assigned us. In fiscal year 1998 we had the added work of the FUSRAP 
program and we had a substantial increase in expenditures for the 
Construction, General program. A number of large projects are well into 
their construction cycles thereby generating large expenditures.
    Question. You also indicate that you expect to have another 
improvement in performance in fiscal year 1999. How will you accomplish 
this increase?
    Answer. The majority of the increase will come in the construction 
and maintenance programs. I have made it a top priority of mine to 
execute the program that you have assigned us. It is then a top 
priority of the Division Commanders and they are pressing hard to 
accomplish the projects. In the operation and maintenance program there 
is identified work that can and should be accomplished that will 
require the expenditure of all available funds, about $150 million more 
than fiscal year 1998.
    In the construction program the divisions have laid out schedules 
that will result in expenditures of almost $300 million more than 
fiscal year 1998. My Commanders are continuing to seek ways to improve 
their performance even more. The projects have been funded and we will 
see that they are implemented to serve their intended purpose.
    Question. What is the estimated level of unobligated carryover 
balances into fiscal year 2000 that you don't expect to utilize, and 
what is the reason for this level of carryover balance?
    Answer. We have an estimated unobligated carryover of $724 million 
in direct appropriations into fiscal year 2000. The majority of the 
carryover falls into two appropriations, Construction, General (CG) and 
Flood Control and Coastal Emergencies (FCCE) appropriations. The 
estimated unobligated Construction, General carryover is $447 million. 
Most of this carryover is due to one or more of several reasons. The 
most significant of these reasons are overly optimistic scheduling, 
design delays, environmental problems, problems with local sponsor 
financing, lack of local sponsor, delays in real estate acquisition, 
insufficient authorization, sponsor requested protracted schedule, 
fully funded multiyear projects, and contractor delays. Much of the 
carryover is associated with projects that have had appropriations in 
statutory language, which cannot be reprogrammed for use on other 
projects when delays occur. Most of the funds appropriated to the FCCE 
account are from emergency supplemental appropriations acts. The 
current balance represents carryover of funds appropriated in the 
fiscal year 1997 emergency supplemental appropriations act. This 
balance has been used to fund the emergency preparedness program in 
fiscal year 1999 and will be used to fund that program in fiscal year 
2000.

   Army Corps of Engineers (Civil Works) Fiscal Year 1999 Projected 
                         Unobligated Carryover

                         [Dollars in Millions]

                                                               SCHEDULED
        DIRECT APPROPRIATIONS                                  CARRYOVER

General Investigations........................................        37
Construction, General.........................................       408
Operation & Maintenance, General..............................        70
FC, Mississippi River & Tributaries...........................        12
Regulatory Program............................................         4
General Expenses..............................................        11
Flood Control & Coastal Emergencies...........................       177
FUSRAP........................................................         5
                    --------------------------------------------------------------
                    ____________________________________________________

      TOTAL...................................................       724

    Question. General Ballard and General Fuhrman, what is the level of 
deferred critical maintenance work in the civil works program?
    Answer. The backlog of deferred maintenance items is currently 
estimated at $1.6 billion.
    Question. Is this of concern to you?
    Answer. This is of major concern to me. In addition to our mission 
as the nation's water resources problem solvers, we are responsible for 
maintaining a very complex and diversified system of harbors, 
reservoirs, hydropower facilities, locks and dams. So far, we have 
managed to keep our aging infrastructure operating safely with minimal 
down time. When maintenance is put off, it may not be noticed the first 
year, but deterioration worsens with the continued exposure of project 
features to the elements and normal usage. Eventually, conditions can 
no longer be ignored and remedial action is necessary.
    Question. Can you give the Committee an example of the type of work 
which falls into the category of critical deferred maintenance and what 
impacts would be on project operations or efficiencies if failure 
occurred?
    Answer. Some of our deferred work packages are as follows (a) 
replacement of deteriorated miter gates at the Port Allen lock--if the 
old gate sticks or breaks loose, the facility would be shut down; (b) 
additional rip rap to bolster the Jackson Levees--failure to reinforce 
weakened areas could result in a breach and extensive flooding; (c) 
flushing the Los Angeles River subdrain system--a blocked system causes 
excessive hydrostatic pressure on the concrete structure and possible 
failure; (d) repair spillway gates and upgrade overhead crane at 
Millers Ferry Lock and Dam--inoperable spillway gates threaten the 
integrity of the entire embankment and the old crane is becoming 
increasingly difficult and unsafe to operate; and (e) concrete 
guidewall repairs on Okeechobee Waterway--defective guidewalls can 
result in navigation traffic congestion and possible damages to 
transiting vessels which could, in-turn, damage the lock structure, 
causing a shut down.
    Question. Has the Corps evaluated the problem and developed a plan 
to address the issue?
    Answer. I have asked each of the Corps Division Commanders to 
personally evaluate his backlog situation and present to me a plan for 
coming to grips with the issue. The backlog of deferred maintenance is 
very dynamic in nature. As certain previously-deferred items become 
critical, they are included in the budget or addressed with available 
funds during the year of execution. By establishing a goal of expending 
all of available O&M funds during the fiscal year managers at all 
levels have been put on notice to take advantage of any available funds 
for the purpose of reducing the backlog. Our fiscal year 2000 budget 
includes some work that had been previously deferred, but at the same 
time, new items have been added to the list. Although the backlog has 
grown, the fiscal year 2000 budget request reflects a more favorable 
balance between those work items added and those taken off the list.
                         south pacific division
                 acequias irrigation system, new mexico
    Question. Last year, the Committee expressed concerns about the 
progress being made on the Acequias Irrigation system rehabilitation 
project in my State of New Mexico. In addition, the Committee express 
the expectation that the Corps would strengthen its communication and 
coordination efforts with State and local interests. What can you 
report to the Committee in this regard?
    Answer. The Corps has made significant progress in the last year in 
streamlining our processes and strengthening coordination effort with 
local stakeholders. First, with approval of the amended Project 
Cooperation Agreement on March 8, 1999, we will no longer require 
annual review and approval of this agreement by the Corps and our local 
sponsor, the New Mexico Interstate Stream Commission. Second, the 
amended agreement incorporates Section 215 crediting/reimbursement 
provisions allowing the sponsor to design and build projects and 
receive credit for this work toward project cost sharing. Third, the 
amended agreement provides for 100 percent Federal funding of 
``reconnaissance'' level studies of individual Acequia projects. 
Finally, our environmental procedures are being streamlined through 
preparation of a programmatic environmental impact statement in the Rio 
Chama Basin. The Fish and Wildlife Service has prepared a draft 
Coordination Act Report for the basin as well. We expect these changes 
to accelerate project construction in the near future.
          upper rio grande water operations model, new mexico
    Question. The Committee requested a report, in consultation with 
the Bureau of Reclamation, on the Corps' progress and plans to complete 
the Upper Rio Grande Water Operations Model in New Mexico. What is the 
status of that report?
    Answer. The report has been drafted and forwarded to our Washington 
level headquarters. It will be forwarded to the Army and, subsequently, 
to the Committee shortly.
    Question. Funding was provided by the Congress for the current year 
to award a construction contract on the Dushore, Sullivan County 
Pennsylvania small project. What is the status of and schedule for 
completing plans and specifications, and awarding the construction 
contract of the project?
    Answer. Following completion of a feasibility study for this 
project at Loyalsock Creek, Borough of Dushore, Sullivan County, 
Pennsylvania, in March 2001, the Corps of Engineers is scheduled to 
initiate plans and specifications and these would be completed in 
December 2001. A construction contract award is set for March 2002.
                     technical centers of expertise
    Question. General Ballard, I have some question regarding a recent 
policy directive you issued, which restructured the project approval 
process for Technical Center of Expertise (TCX), and its specific 
effects on the St. Louis TCX, the Center of Photogrammetric Mapping.
    I understand, and I believe you are aware, General Ballard, that 
the St. Louis Center received its TCX designation in 1995 in 
recognition for the unique specialized expertise it had developed in 
the area of photogrammetry, Geographic Information Systems (GIS), 
Global Positioning Systems, civil engineering and remote sensing, among 
others. Due to its expertise, the Center has developed a large non-COE 
customer base and heavy workload, with a vast majority of these 
projects short term and in the $50,000 to $150,000 range--which is 
relatively small. Furthermore, almost 100 percent of the project work 
is contracted out to the private sector, allowing for a significant 
amount of firms to grow and prosper around this work.
    General Ballard, as you are also aware, recently the Corps 
restructured the process by which a Technical Center of Expertise can 
do work for customers outside of its particular District. Is it now 
necessary for the [St. Louis District Photogrammetric Mapping Technical 
Center of Expertise] to receive approval from both Corps HQ as well as 
the district in which the work is to be done, whether or not the work 
is to be done in support of assigned Corps missions or for non-COE 
customers? Is all this correct?
    Answer. It is not necessary for a Center of Expertise (CX) to 
obtain Headquarters approval to work for customers outside its 
particular district. However, the Corps recently introduced a 
requirement that there be coordination between division offices before 
an activity, including a CX, in one division performs work outside the 
geographical boundaries of that division. The Corps established this 
requirement to ensure that division commanders would have complete 
responsibility for the flow of work within their geographic area of 
responsibility. This is central to the Corps regional business center 
concept which we have established to maximize our organization's 
effectiveness and efficiency in delivering services to our customers.
    Question. Is it true that the nature of most of the projects, which 
the St. Louis Center undertakes on behalf of non-COE clients, require a 
high level of technical understanding as well as a rapid response 
capability?
    Answer. Much of the facility engineering and natural resources 
photogrammetric mapping performed by the St. Louis District requires 
highly skilled technical expertise; in many case a rapid response is 
also required.
    Question. Is this same level of expertise available elsewhere 
within the Corps? If so, why was St. Louis designated a TCX in 1995 and 
labeled the Center for Photogrammetric Mapping?
    Answer. The St. Louis District was designated as a Technical Center 
of Expertise in 1995 because of its superior combination of technical 
expertise, project management experience, and contracting capability in 
photogrammetric mapping. Under revised regulatory guidance, which 
eliminated the Technical Center of Expertise classification, the 
technical expertise of Photogrammetric Mapping Center has been 
recognized through its listing on the Directory of Expertise (DX). 
However, some other districts also have the technical expertise in 
photogrammetric mapping and contracting experience sufficient to meet 
many requirements.
    Question. Has the restructuring of the approval process had a 
negative effect on the ability of the Center for Photogrammetric 
Mapping to respond rapidly, which, in the past, outside clients have 
come to both expect and depend upon.
    Answer. There have been some instances in which the requirement to 
coordinate with another division in order to do work outside the 
assigned geographical boundaries has caused delays in initiating aerial 
mapping photography for customers. They can reasonably be expected to 
diminish as Corps activities, including the CX, become familiar with 
the new procedures, and develop and implement measures to streamline 
the coordination process.
    Question. Is it not true that, since implementation of the 
restructuring, the project load of the St. Louis TCX has dropped off, 
as clients have sought and found alternative contracting avenues 
besides the Corps, such as the US Geological Survey and the Tennessee 
Valley Authority, which are not restricted by a lengthy and 
unpredictable approval process?
    Answer. I am aware that there have been specific instances when 
other activities have sought and found alternative contracting avenues 
besides the Corps, such as the US Geological Survey and the Tennessee 
Valley Authority, as a result of the requirement that the CX coordinate 
with another division in order to do work outside the geographical 
boundaries of its division.
    Question. Do you believe that, as a result of a possible loss of 
work, the inflow of funds will substantially decrease, thus restricting 
the ability of the [St. Louis District] Center for Photogrammetric 
Mapping to continually build upon its resource base and not even 
increase, but maintain its technical edge?
    Answer. I believe that the Photogrammetric Mapping Center may 
experience some loss of workload in the short term as a result of our 
requirement that use of the CX be coordinated across division 
boundaries. However I am confident that over the long term, as a result 
of providing superior service and streamlined approval procedures, the 
TCX will be able to maintain a workload which will sustain the current 
level of technical expertise.
    Question. Hasn't this restructuring that you have ordered--
protracted response process, decreased workload and diminished level of 
expertise--directly conflicted with the Corps strategic mission of 
becoming more streamlined and responsive to non-COE clients, also known 
as the ``Support for Others'' program?
    Answer. While there have been delays in the processing of requests 
for photogrammetric mapping support by the CX, I believe that the 
number and length of these delays will decrease as Corps activities, 
including the CX, become familiar with the new procedures and develop 
and implement measures to streamline the coordination process. 
Furthermore, I believe that, on balance, the Corps regional business 
center concept will maximize our organization's effectiveness and 
efficiency in delivering services to our customer.
    Question. Is it correct that by taking the simple step of 
reclassifying the St. Louis District Center for Photogrammetric Mapping 
from a Directory of Expertise to a Mandatory Center of Expertise, the 
Center would be recognized as possessing unique technical expertise and 
management skills, and thus be allowed to perform work for others 
without the restricting additional layers of review?
    Answer. The St. Louis District's Photogrammetric Mapping Center has 
previously been recognized as possessing unique technical expertise and 
management skills through its listing on the Directory of Expertise 
(DX). I fully expect this listing to be renewed. However, performing 
work for others outside the Mississippi Valley Division's geographical 
area of responsibility, without prior coordination with the division 
having responsibility for the area where the work is located, would be 
inconsistent with the regional business center concept.
    Question. Is it not true that an internal Corps review of this 
reclassification of St. Louis District] has indeed already been 
conducted, with no adverse impact found on either the Corps or the 
private sector?
    Answer. The Corps initial Approval Request Report for a Mandatory 
Center of Expertise designation for St. Louis District did not identify 
any adverse impacts on either the Corps or the private sector. What was 
decisive in this case, however, was the inconsistency of the MCX 
designation with the concept of regional business process centers.
    Question. Is it not also true that the reclassification process was 
in its final stages as early as last November, receiving all of the 
required civilian signatures and half of those needed from military 
personnel?
    Answer. There were differing opinions on my staff. That is not 
uncommon. However, after weighing the pros and cons of the 
alternatives, as presented by my staff, I decided that the best course 
was not to designate the St. Louis District as a Mandatory Center of 
Expertise.
    Question. Why did this process come to a complete standstill?
    Answer. The process did not come to a complete standstill. However, 
because of the differing opinions on my staff, the process took longer 
than might originally have been anticipated.
    Question. The inability of the Corps leadership to reclassify the 
St. Louis Center as a Mandatory Center of Expertise will clearly have 
an adverse impact upon not only the Center, but all photogrammetric and 
GIS activities that the Corps undertakes. Efficiency will be reduced, 
increased personnel will be required and costs will rise--do you 
believe that the Corps has sufficient resources and manpower available 
to handle these increased costs and personnel?
    Answer. Although there may be some initial impacts on the St. Louis 
District's photogrammetric mapping program, I do not believe that there 
will be a long term adverse impact on the St. Louis District nor an 
adverse impact on the Corps as a whole. On balance, I believe that our 
regional business center concept will increase our efficiency and 
effectiveness in serving our customers.
                                 ______
                                 

                 Questions Submitted by Senator Cochran

                   mississippi river and tributaries
    Question. The budget request for the Mississippi River and 
Tributaries program remains at $280 million, the same amount requested 
for fiscal year 1999. What is the Corps capability for this program?
    Answer. The Corps capability for the Mississippi River and 
Tributaries program is $350 million.
    Question. Is there a funding level for this account which will 
obviate the need for earmarks, while allowing work to continue on 
priority projects?
    Answer. The President's budget for the Mississippi River and 
Tributaries program in fiscal year 2000 is $280 million. The budget 
would allow work to proceed on all projects, albeit not on optimal 
schedules.
                        mississippi river levees
    Question. What is the status of the ongoing work to address 
deficiencies on the mainline Mississippi River levees?
    Answer. Construction continues on the Mississippi River Mainline 
Levee and Berm Enlargement project, to bring the levees up to grade and 
otherwise assure the capability of the levee system to successfully 
pass the project flood. A Supplemental Environmental Impact Statement 
was completed and a Record of Decision was signed on 5 October 1998. 
Construction of most work items scheduled to commence in fiscal year 
1997 and fiscal year 1998 has proceeded during preparation of the 
Supplemental Environmental Impact Statement and is either complete or 
nearing completion. The Corps expects to award the next two 
construction contracts in May and June 1999, for work items located in 
Missouri and Mississippi. These work items represent levee enlargements 
for the purpose of eliminating levee grade deficiencies at critical 
reaches of the levee system. On 4 December 1998, EARTHJUSTICE Legal 
Defense Fund, Inc., challenged the adequacy of the Supplemental 
Environmental Impact Statement.
    A hearing is tentatively scheduled for late May 1999. The Corps is 
proceeding with planned fiscal year 1999 work, neither expediting nor 
delaying work due to the litigation.
                          natchez, mississippi
    Question. What is the status of work to address erosion on the 
bluffs in and around the city of Natchez, Mississippi?
    Answer. A portion of the top priority reach, Area 3, Clifton 
Avenue, was constructed in 1997 by the Natural Resource Conservation 
Service under its Emergency Watershed Protection Program. Construction 
of the remainder of Area 3 is presently underway by the Corps of 
Engineers and scheduled for completion later this year. A Project 
Cooperation Agreement was executed in March 1998 and the construction 
contract awarded in June 1998. Preparation of a Project Cooperation 
Agreement amendment, supporting documents, and design covering the next 
priority reach, Area 4, Madison Street to State Street, is currently 
underway, and every effort is being made to accelerate activities to 
award a construction contract for Area 4 this fiscal year.
    Question. How much funding is needed within the existing 
authorization?
    Answer. Sir, through fiscal year 1999, $12,500,000 has been 
appropriated. The total additional amount considered necessary to fully 
fund the remaining authorized work is $7,049,000. This includes funding 
the remaining work on Area 4, Madison Street to State Street at a cost 
of $3,769,000; and the remaining two authorized reaches--Area 6, Bluff 
above Silver Street, $1,110,000 and Area 7, Bluff above Natchez Under-
the-Hill, $2,170,000.
    Question. What work needs additional authorization?
    Answer. Sir, additional authorization would be required for the 
Corps to construct additional features sought by the local sponsor, 
which are: bluff stabilization measures in Area 1, Weymouth Hall, Area 
2, Between Weymouth Hall; and Park Street; and Area 8, D.A. Biglane 
Street. Bluff stabilization for Area 5, Silver Street has been 
accomplished by the city, and no additional work or authorization is 
required for this area.
    Question. What is the estimated cost of this work?
    Answer. The estimated cost of construction for Areas 1, 2 and 8 is 
$13,935,000. This would increase the total first cost of the authorized 
project from $26,065,000 to $40,000,000. The estimated Federal cost 
would be approximately $30,000,000 and the estimated non-Federal cost 
would be approximately $10,000,000.
                      jackson county, mississippi
    Question. What is the status of the Jackson County, Mississippi, 
water supply project?
    Answer. Sir, the non-Federal sponsor, Jackson County, Mississippi, 
is preparing the construction plans and specifications which are 
scheduled for completion in April 1999. The Project Cooperation 
Agreement is scheduled to be signed in July 1999. The construction 
contract is scheduled for award in November 1999, with completion in 
January 2001.
    Question. How much funding is needed within the existing 
authorization?
    Answer. Sir, the existing funding authorization is $10,000,000. We 
have received $9,200,000 to date through Congressional Adds. Therefore, 
an additional $800,000 is needed to fulfill the existing authorization.
    Question. What work needs additional authorization?
    Answer. Sir, the project calls for expansion of the Jackson County 
industrial water supply system in segments based on funding 
availability. Jackson County has already constructed a portion of the 
total project and desires to use Corps funding in the construction of 
the remaining project.
    Question. What is the estimated cost of this work?
    Answer. Sir, the estimated cost of this work is $5,000,000.
            coastal environmental impact study, mississippi
    Question. It is my understanding that the Corps has undertaken a 
coastal environmental impact study for the Gulf Coast of Mississippi. 
What is the purpose and scope of this study?
    Answer. Sir, The Mississippi Gulf Coast has been developed by the 
casino industry at a greater rate than was envisioned by either the 
State of Mississippi or the Federal agencies when Mississippi first 
allowed gaming on navigable waters. As a result, existing casinos have 
developed most of the coastline previously used for commercial and 
industrial facilities. New casino applicants must obtain Department of 
the Army permits to build in environmentally sensitive areas in 
Harrison and Hancock Counties, MS. Additionally, other large projects 
such as malls and subdivisions are also being proposed to locate in 
these same sensitive areas. We believe it is necessary and timely to 
undertake a Coastal Environmental Impact Statement (CEIS) to determine 
the likelihood and number of additional casinos locating on the 
Mississippi Gulf Coast in the future, estimate the numbers of other 
large-scale projects, and do a broad study of the environmental 
consequences of these future casinos and projects. The scope of the 
CEIS is expected to encompass the coastline of Harrison and Hancock 
Counties, and extend landward about one mile north of Interstate 10.
    Question. What is the estimated cost of this study?
    Answer. Sir, The estimated cost of this study is approximately 
$750,000.
    Question. Is the necessary funding included in the President's 
budget?
    Answer. Sir, the Regulatory Program fiscal year 2000 Budget request 
includes $325,000, which is sufficient to continue this study effort.
    Question. What is the schedule of work for this study?
    Answer. Sir, the study will be initiated in June 1999, and is 
scheduled for completion in September 2001.
                     demonstration erosion control
    Question. Please provide a summary of all ongoing Demonstration 
Erosion Control (DEC) projects in Mississippi. Please include total 
estimated cost of each and funding to date.
    Answer. The total estimated cost of ongoing work in the Black Creek 
Watershed is $3,495,000 of which $1,398,000 has been provided for work 
on 1 riser pipe, 1 floodwater retarding structure and 2 bank 
stabilization items.
    The total estimated cost of ongoing work in the Hurricane-Wolfe 
Watershed is $375,000, of which $351,000 has been provided for work on 
15 riser pipes.
    The total estimated cost of ongoing work in the Coldwater River 
Watershed is $1,879,000, of which $1,094,000 has been provided for work 
on 2 low drop structures, 3 box culvert, and 1 bank stabilization.
    The total estimated cost of ongoing work in the Abiaca Creek 
Watershed is $2,308,000, of which $441,000 has been provided for work 
on 1 levee and 1 riser pipe.
    The total estimated cost of ongoing work in the Batupan Bogue 
Watershed is $2,615,000, of which $2,226,000 has been provided for work 
on 2 low drop structures, and 3 bank stabilizations.
    The total estimated cost of ongoing work in the Cane--Mussacuna 
Watershed is $439,000, of which $189,000 has been provided for work on 
1 low drop structure.
    The total estimated cost of ongoing work in the Hotophia Creek 
Watershed is $350,000, of which $325,000 has been provided for work on 
1 low drop structure.
    The total estimated cost of ongoing work in the Otoucalofa Creek 
Watershed is $1,876,000, of which $951,000 has been provided for work 
on 1 channel improvement, 1 riser pipe, 1 low drop structure, and 1 box 
culvert.
    The total estimated cost of ongoing work in the Yalobusha River 
Watershed is $1,755,000, of which $1,618,000 has been provided for work 
on 2 riser pipes, 2 low drop structures, and 3 box culvert.
    The total estimated cost of ongoing work in the Toby Tubby Creek 
Watershed is $2,527,000, of which $275,000 has been provided for work 
on 1 floodwater retarding structure, and 1 bank stabilization.
    Additionally, $5,000,000 has been provided for engineering and 
design, construction management, data collection and monitoring 
activities, and approximately $850,000 has been provided for lands and 
relocation activities which will be expended throughout these 
watersheds.
    In summary, work with an estimated total cost of $26,469,000 has 
been initiated in ten watersheds. Of the total cost, $14,718,000 has 
been provided through fiscal year 1999 with a balance to complete of 
$11,751,000. The fiscal year 2000 budget request of $6,294,000 will 
allow completion of all contracts scheduled for award in fiscal year 
1999. The budget does not, however, propose to continue the program and 
does not include funding for additional contracts in fiscal year 2000 
or beyond.
    Question. Please also provide a list of all DEC watersheds.
    Answer. A list of the authorized watersheds in the Demonstration 
Erosion Control project include: Black Creek; Hurricane-Wolfe; 
Coldwater River; Abiaca Creek; Batupan Bogue; Cane-Mussacuna; Hickahala 
Creek; Hotophia Creek; Long Creek; Otoucalofa Creek; Yalobusha River; 
Pelucia Creek; Toby Tubby Creek; Burney Branch; Sherman Creek; and Town 
Creek.
                                 ______
                                 

                 Questions Submitted by Senator Bennett

               regulatory program--administrative appeal
    Question. Why hasn't the Corps done as Congress and the President 
instructed by creating an appeals program that allows for 
jurisdictional challenges?
    Answer. The President's budget for the last two years has included 
funding requests for the Regulatory Program that provided for the full 
appeals program. However, the appropriations for these years have been 
significantly below the requests. The Corps has difficulty maintaining 
its staffing levels in the districts to cover the basic program 
services. At the appropriations levels enacted, the Corps could not 
implement the full appeals program without making significant 
reductions to the basic services. The Corps has worked hard to improve 
its regulatory services to the public and does not want those services 
to be degraded.
    Question. What has the Corps done with the monies (both fiscal year 
1998 and fiscal year 1999) that were specifically earmarked, at the 
request of the Corps, for the implementation of the administrative 
appeals process?
    Answer. The Army budgeted for the administrative appeals process in 
fiscal year 1998 and fiscal year 1999 but did not request that the 
funds be earmarked. The Appropriations Committee report language stated 
the intentions of the Committee to have a full appeals process 
implemented. However, the appropriations we received in the fiscal 
years you mention were well below the President's budget requests which 
would have funded the full appeals process without sacrificing services 
to the public. More citizens depend on our responsiveness to their 
permit applications than the number that would use the appeals process.
    The Regulatory Program is a labor-intensive program and, as such, 
requires a 2-3 percent increase in funds each year just to maintain 
staffing levels. Most of the Regulatory funds in these years was 
prudently used to maintain staffing levels of the districts in order to 
continue providing timely, equitable services to the public. In fiscal 
year 1999, we have been able to set aside some funds for the appeals of 
permit denials and conditions which will become effective on August 6, 
1999.
    Question. One of the purposes of the 1993 wetlands plan is that the 
regulatory program must be efficient, fair, flexible and predictable, 
and must be administered in a manner that avoids unnecessary impacts 
upon private property and the regulated public. The administrative 
appeal was designed to ``increase fairness in the wetlands permitting 
process.'' Yet the Corps has implemented an appeals program that is 
opposed by the regulated community and only increases the burden on 
private property owners. Why has the Corps implemented an appeals 
program that contradicts the Presidents instructions?
    Answer. The Corps has heard from members of the regulated community 
that they are pleased we have an appeals process for permit denials and 
conditions going into effect this year. Many in the development 
community wish we had gone further and adopted the appeals process for 
jurisdictional determinations as well. However, at five times the cost 
of appeals of denials and conditions, the cost of jurisdictional 
appeals has not made its implementation feasible.
    The President's budget requests have included the funds for a full 
appeals process and they have been specific as to the costs required to 
fund it. These requests also included funds to maintain current staff 
in order to ensure other services do not decline. In the fiscal year 
1998 appropriation, there was a program increase equivalent to the cost 
of the appeals program, but no funds were provided to cover the labor 
cost increases needed to maintain the rest of the regulatory program. 
After three years of level funding at $101 million, the program was 
unable to maintain its staffing level and even today the districts have 
many vacancies. We believe that we would have unfairly sacrificed the 
basic services of the program (e.g., timely decisions and protection of 
the environment) and reversed the progress made to improve these 
services if we had set aside $5 million for jurisdictional appeals that 
would benefit fewer members of the public.
    Question. In fiscal year 1997, the Corps acted on 65,138 Section 
404 permit applications. Out of those, there were only 28 individual 
permit denials. As the Corps has most recently indicated that it plans 
to only implement a partial administrative appeals process for only 
permit denials, the Corps appears prepared to spend about $180,000 per 
permit denial. Meanwhile, property owners who disagree with the Corps 
over their jurisdictional determinations will still have to spend over 
a year in the permitting process before having ability to challenge the 
decision in court. Please justify the Corps decision to focus both its 
regulatory efforts and increased budget on a program already subjected 
to direct judicial review and how you believe this to be a fair an 
equitable process.
    Answer. While we have supported the implementation of 
administrative appeals, the problem has been the affordability of a 
full appeals process and its impacts on the other parts of the 
Regulatory Program. Our cost estimate for appeals of permit denials and 
conditions is $1 million per year. The cost to implement a 
jurisdictional appeals process is estimated to be $5 million. To have 
dedicated $5 million from an already austere program for the full 
process would have meant shortages of regulatory personnel in the 
districts. This would have meant cutting back on other services. The 
program impacts a sizable segment of the public through its permit and 
enforcement-resolution programs. While everyone recognizes the 
advantages of jurisdictional appeals, it does not make sense to cut 
basic services in order to spend money on an activity which would 
benefit a much smaller group.
    A wetland delineation does not restrict an applicant from using his 
or her property. He or she has to apply for a permit if the activity is 
in a wetland. The Corps' performance goal is to evaluate permit actions 
within 60 days, and the most recent analysis or performance data showed 
that this goal is achieved 95 percent of the time. If the permit is 
disapproved, or approved with certain conditions, then the applicant 
can bring a lawsuit against the Corps to challenge the delineation. In 
addition to 31 permit denials in fiscal year 1997, there also were 
5,000 permits issued that were subject to conditions. These will be 
subject to the existing appeals process.
    Everyone agrees that the appeals process is less expensive and less 
time consuming than litigation. The Corps' experience has been that 
most applicants are satisfied with a fair hearing in the local Corps 
district office, even if they do not get the result they want. We want 
the permit process to be fair and equitable to our citizens and we do 
not believe that litigation is the best way to resolve most 
differences.
    Question. As indicated in the 1999 Conference Report, the 
implementation of an administrative appeals process for only permit 
denials is unacceptable. Furthermore, the Conference Report language 
directs the Corps to demonstrate its progress in implementing a full 
administrative appeal process when it requests its fiscal year 2000 
budget. Why has the Corps recently insisted that it will only implement 
a program that addresses permit denials and stated publicly that it 
needs more money to implement a full program, against the express 
instructions of Congress?
    Answer. The Army's position is to support Committee report language 
as fully and as best as we can, within the resources provided in 
appropriation acts. However, the appropriations we received in recent 
years were well below the President's budget requests. To have 
dedicated $5 million from our already austere program for the full 
process would have meant shortages of regulatory personnel in the 
districts. The public would suffer because, with fewer team members to 
evaluate permit applications, backlogs would grow and private citizens 
and businesspersons would have to wait longer to receive a permit. The 
permit program serves more citizens than would the appeals program so 
we decided that a phased implementation would work best for the program 
and the public. We believe that we would be doing the Nation a 
disservice by drastically curtailing or eliminating the other program 
activities in order to implement fully the administrative appeals 
program.
    We have complied with the Congressional direction in the Committee 
report language as best as we could, consistent with our commitment to 
provide fair and responsive services to the public. The final 
regulation for appeals of permit denials and conditions was published 
in the Federal Register on March 9, 1999, with an effective date of 
August 6, 1999. Permit denials and conditions made on or after March 9, 
1999 are subject to this appeals process. The August implementation is 
necessary to recruit and train the appeals staff.
    The process for the appeals of jurisdiction determinations is more 
complex and labor intensive. With the levels of funding for the 
Regulatory Program in recent years, the Corps has been unable to start 
up this part of the appeals process without compromising its services 
to the public. However, the Corps is making progress on drafting a 
jurisdictional appeals regulation and should be able to implement 
appeals of jurisdictional determinations in early fiscal year 2000 if 
the requested funds are appropriated.
                                 ______
                                 

                      Questions Submitted by Burns

                           regulatory program
    Question. I am concerned about the Army Corps of Engineers new 
final rule on administrative appeals to Section 404 permits as 
published in the March 9 Federal Register. As I recall, the President, 
in his Wetlands Plan of 1993, directed the Army Corps of Engineers to 
establish an administrative appeals process for Section 404 permits. 
However, I understand that the final rule on administrative appeals 
will deal only with appeals of denied Section 404 permits, not appeals 
of jurisdictional determinations. Lacking this later provision disturbs 
me especially since Congress rejected this notion last year of not 
allowing the public to appeal jurisdictional determinations of the 
Corps. Why do you insist on not allowing such appeals when you stated 
in your March 10 testimony that you allow these types of appeals with 
the fiscal year 2000 budget?
    Answer. The President's fiscal year 2000 budget request for the 
Regulatory Program includes funds for implementation of an appeals 
program for jurisdiction determinations. It would be implemented by a 
separate regulation published in the Federal Register. In fiscal year 
1999, the Corps is implementing a system for appeals of permit denials 
and conditions within the appropriation of $106 million.
    The Corps has worked very hard to improve its services to the 
public and run a program that is fair to landowners and commercial 
developers while still protecting wetlands. If the Corps were to go 
ahead with jurisdiction appeals in fiscal year 1999 at the current 
funding level, many basic permit evaluation and related services would 
have to be reduced to cover the costs of jurisdiction appeals. I would 
not like to see these services degraded. An appeals process for 
jurisdiction determinations is another step in the right direction, but 
the Corps needs the resources to implement it without sacrificing the 
basic services which the public expects and deserves.
    Question. You recall Congress's strong language in the fiscal year 
1999 appropriations to the Corps that not including appeals for 
jurisdictional disputes was unacceptable and that the Corps needed to 
demonstrate its progress to implement a ``full administrative appeals 
process'' with its fiscal year 2000 Budget request. You also remember 
that $5 million was provided in fiscal year 1999 to implement this 
administrative appeals process. Given this guidance along with the $5 
million provided, why should not Congress rescind these funds given 
your new final rule?
    Answer. The Corps is drafting regulations for the jurisdiction 
appeals which we hope to have completed this year for implementation in 
fiscal year 2000. As I stated earlier, appeals of permit denials and 
conditions will begin this year. The fiscal year 1999 appropriation was 
the same amount as the fiscal year 1998 appropriation and both were 
well below the requested amounts. The Regulatory Program has been 
struggling to cover basic services for several years because 
appropriations have not kept pace with the increasing program demands 
and costs. The fiscal year 1998 increase of $5 million, the only 
increase since fiscal year 1995, was used to cover basic labor-related 
costs such as salaries, training of regulatory personnel, and travel to 
permit sites. Overall staffing had declined due to three years without 
a budget increase. The population that will benefit from the appeals 
program is small compared to the general public who depend upon the 
Corps for permit evaluations, enforcement and resolution.
    Question. If you believe lack of funding is part of the problem to 
administer an appeals program for jurisdictional disputes, why haven't 
you raised program fees to generate additional funds? What has been 
done with the money previously allocated by Congress to begin 
implementing a jurisdictional appeals process?
    Answer. The President's budget includes proposed appropriations 
language concerning regulatory permit fees. The Corps has not changed 
its fee structure since 1977. The proposal in the President's budget 
would authorize the Secretary of the Army to pursue reasonable changes 
that the Corps would adopt following notice and comment rulemaking. The 
objective is to consider changes that would make the fees more 
equitable and reduce the net Federal costs associated with the 
Regulatory program. Under the proposal, the revenues would be credited 
as offsetting collections, not added to the Regulatory Program account.
    The fiscal year 1998 appropriation of $106 million was an increase 
of $5 million over the previous appropriations that had been held to 
$101 million in fiscal year 1995, 1996, and 1997, all of which were 
well below the President's requests. Most of the increase was used to 
cover labor costs, including filling vacancies in the districts. As a 
result of the level funding during these years, the Corps lost some 
district staff and basic program services were being affected.
    Because of the constrained funding, the Corps was not able to fully 
satisfy the Appropriations Committee report language regarding 
administrative appeals. In fiscal year 1998, however, the Corps did 
begin steps to implement the program for appeals of permit denials and 
conditions, at an annual cost of $1 million. To have dedicated $5 
million for the full appeals process would have had too severe an 
impact on the basic services.
    Question. You are familiar with the recent decision by the U.S. 
Court of Appeals for the 4th Circuit in U.S. v. Wilson. In that case 
the court found invalid the Corps/EPA rule which asserts federal 
jurisdiction over an isolated wetland--a wetland not directly connected 
or adjacent to interstate waters--on the basis that degradation of the 
wetland could affect interstate commerce. The court required the 
existence of an actual effect on interstate commerce before the Corps 
could claim jurisdiction over the wetland. However, the Corps chose to 
apply the court's holding only within the five states that comprise the 
4th circuit: Maryland, Virginia, West Virginia, North Carolina and 
South Carolina. The result is a federal regulatory program that is 
broader in 45 states and narrower in 5 states. How do you justify this 
uneven federal jurisdiction? Why not apply the court's holding 
throughout the nation? What is wrong with requiring a finding of an 
actual connection to interstate commerce before the federal government 
regulates private land?
    Answer. While we agree that all states should be regulated 
consistently, we do not agree with the court holding in the Wilson 
case. We are currently considering issuing a regulation to clarify the 
Clean Water Act jurisdiction for isolated wetlands that would be 
applicable nationwide. The Fourth Circuit decision is only required to 
be applied within the Fourth Circuit. In this regard, we have issued 
interim guidance within the Fourth Circuit to comply with the court's 
decision while we develop the national regulation. While documenting an 
actual connection to interstate commerce would be possible in almost 
all cases, this approach would result in substantial delays and 
unnecessary work for the Corps and permit applicants.
    Question. I understand the Corps has recently proposed to severely 
restrict the use of streamlined permits for minor projects--so-called 
nationwide permits--in wetlands near ``impaired'' waters, in ``critical 
resource'' waters and wetlands, and in the 100-year flood plain. This 
proposal is likely to halt many projects that are minor and routine, 
but nonetheless important to public and private entities alike. Can you 
tell me how much of the United States is in the 100-year flood plain?
    Answer. The Corps estimates that approximately 8 percent of the 
land area in the continental United States is within the 100-year flood 
plain.
    Question. How much of the 100-year flood plain is federal 
jurisdictional wetlands?
    Answer. The Corps estimates that approximately 35 percent of the 
100-year flood plain consists of wetlands that are subject to Section 
404 of the Clean Water Act.
    Question. How much of the wetlands within the 100-year flood plain 
are affected by authorizations under the nationwide permit program?
    Answer. Nearly all of the 30 current nationwide permits that 
authorize Section 404 activities could be used to authorize discharges 
into wetlands within the 100-year floodplain. While all of the wetlands 
in the 100-year floodplain could be affected by the NWP program, most 
wetlands in the 100-year floodplain would not be affected by any 
specific NWP authorization. During 1997, for example, 21,176 acres of 
non-tidal wetlands were filled under general permit authorizations, 
including NWP authorizations. Many of these non-tidal wetlands are 
outside of the 100-year floodplain. We estimate that there are 
approximately 55,000,000 acres of wetlands in the 100-year floodplain. 
Therefore, only a small proportion of the wetlands in the 100-year 
floodplain are filled as a result of activities authorized by 
nationwide permits.
    Question. What is the effect on flood control of the activities 
authorized by nationwide permits in wetlands in the 100-year flood 
plain?
    Answer. Activities that result in permanent, above-grade wetland 
fills in the 100-year flood plain will decrease the flood-holding 
capacity of that floodplain. Unless that loss of flood-holding capacity 
is mitigated, that 100-year flood plain will increase in area, 
resulting in the flooding of a wider area during 100-year storm events
    Question. How does this proposal square with Congress' intent 
expressed in 1977 when it provided authority to allow nationwide 
permits and that the nationwide permits program was to be an integral 
part of the Section 404 regulatory program?
    Answer. The proposal to prohibit the use of certain NWPs to 
authorize permanent, above-grade wetland fills in the 100-year flood 
plain is not contrary to the Congressional intent of 1977, because only 
certain activities would be subject to this prohibition. Congress also 
indicated that the NWPs were for activities that have minimal 
individual and cumulative effects. This proposal will help ensure that 
this standard is met. Some activities in the 100-year flood plain could 
be authorized by other NWPs.
    It is important to note that NWPs are optional permits. If the 
landowner cannot comply with all conditions of the NWP, then he or she 
can apply for authorization through the individual permit process, or 
request authorization through a regional general permit, if such a 
permit is available for the proposed activity. We are considering ways 
to maximize protection of the 100-year flood plain capacity while not 
unnecessarily restricting use of NWPs.
    Question. According to the Corps' own data, in fiscal year 1997 
under the nationwide permits program, about 16,000 acres were permitted 
across the country--about 320 per state. In return, the Corps required 
the restoration of 28,600 acres as mitigation for the authorized 
impacts--about 572 per state. As a result, isn't there a net gain of 
12,600 acres nationwide under the nationwide permits program--about 252 
acres per state?
    Answer. The data in your question is cited in the July 1, 1998, 
Federal Register notice that contains the proposed NWPs to replace NWP 
26. The figures, however, are for activities authorized by the Corps 
through the standard permit process. For general permits, including 
NWPs and regional general permits issued by Corps district offices, the 
Corps required approximately 24,800 acres of compensatory mitigation 
(including the restoration, creation, enhancement, and preservation of 
aquatic resources) for approximately 21,400 acres of waters of the 
United States lost due to activities authorized by general permits. The 
net gain from activities authorized by NWPs and regional general 
permits during 1997 was 3,400 acres. Since the Corps databases combine 
impacts and mitigation figures for both NWPs and regional general 
permits, the Corps cannot separate how much of the wetland losses and 
gains are due to NWP activities. Also, some of the mitigation was for 
preservation of existing wetlands.
    Question. If there is this kind of gain of wetlands, rather than 
loss, why are the restrictions proposed by the Administration 
necessary?
    Answer. Each year we spend over $7 billion for flood damages. As a 
matter of policy we do not believe that we should encourage development 
of our flood plains. The purpose of the proposed flood plain 
restriction is to address concerns about public health and safety by 
reducing the loss of life and property caused by flooding, safeguarding 
sources of drinking water supplies, and protecting and restoring the 
natural functions of the Nation's flood plains. It is important to note 
that, although there is some wetland gain as a result of activities 
authorized by general permits, wetland gain is not necessarily 
providing additional flood-holding capacity or reducing flood hazards. 
For example, wetland restoration, creation, or enhancement activities 
required for wetland losses in the 100-year flood plain that are 
authorized by general permits may be conducted off-site and outside the 
100-year flood plain.
    Question. According to the Corps' own data, mining activities under 
the new proposed nationwide permit for mining activities will impact 
145 acres of wetlands nationally, or 2.90 per state. If this is not a 
minimal impact, what is? Why is it necessary to further restrict the 
use of the proposed nationwide permit for mining activities?
    Answer. Mining activities affect more than wetlands. These 
activities can have substantial adverse effects on streams and 
economically important fish species, such as endangered salmon, that 
inhabit those streams.
    Question. With respect to ``impaired waters,'' which is not defined 
in the Administration's proposal, how many waters will be designated as 
``impaired,'' and thereby off-limits to use of the streamlined 
nationwide permits under this proposal?
    Answer. Based on data in a report published by the Environmental 
Protection Agency in 1996, approximately 252,000 river miles, 6.55 
million acres of lakes, ponds, and reservoirs, 4,730 shoreline miles of 
the Great Lakes, and 11,155 square miles of estuarine waters in the 
United States are considered ``impaired. `` According to this report, 
few states have developed criteria to determine if the loss of wetlands 
is the cause of the waters being designated as impaired. As for the NWP 
restriction, the Corps is considering using the State lists, which are 
produced in accordance with Section 303(d) of the Clean Water Act, to 
determine which waters are impaired. The sources of impairment subject 
to the NWP restriction include nutrients, organic enrichment resulting 
in low dissolved oxygen concentration in the water column, 
sedimentation and siltation, habitat alteration, suspended solids, flow 
alteration, turbidity, or the loss of wetlands. We are considering 
allowing the NWPs to authorize activities in impaired bodies of water, 
provided the authorized activity, plus any required mitigation, results 
in net improvement of the aquatic ecosystem of the impaired water.
    According to this 1996 report, approximately 124,902 river miles 
are impaired due to siltation, 97,147 river miles are impaired due to 
nutrients, 69,391 river miles are impaired due to oxygen-depleting 
substances, 48,573 river miles are impaired due to habitat alterations, 
and 48,573 river miles are impaired due to suspended solids. For lakes, 
ponds, and reservoirs, approximately 3.36 million acres are impaired 
due to nutrients, 1.68 million acres are impaired due to siltation, 
1.34 million acres are impaired due to oxygen-depleting substances, and 
840,000 acres are impaired due to suspended solids. Approximately 311 
shoreline miles of the Great Lakes are impaired due to nutrients and 
311 shoreline miles of the Great Lakes are impaired due to oxygen-
depleting substances. For estuaries, approximately 6,340 acres are 
impaired due to nutrients, approximately 3,458 acres are impaired due 
to oxygen-depleting substances, and 1,729 acres are impaired due to 
habitat alterations.
    Question. Recent reports indicate that the Corps is about to 
release a final rule establishing an administrative appeals process 
within which to appeal decisions by the Corps. However, the reports 
quote John Studt, Chief of the Corps Headquarters Regulatory Branch, as 
acknowledging that the appeals process will not allow an appeal of the 
Corps determination that one's land is ``wetlands'' subject to the 
Corps jurisdiction. I'm concerned about that because right now I 
understand that in order to challenge assertion of jurisdiction by the 
Corps, the Corps requires a landowner to apply for a permit to use his 
land, and only if the permit is denied can the landowner go to federal 
court to challenge not only the permit denial, but the original 
determination by the Corps that the land is a wetland. I'm also 
concerned that the Corps is ignoring specific directions of the Senate 
Appropriations Committee. The Committee provided funding for an 
administrative appeals process for fiscal year 1998. The report 
accompanying the Energy and Water Appropriations bill for fiscal year 
1999, S. Rep. 105-206, states that the committee supports 
implementation of an administrative appeals process ``including appeals 
related to jurisdictional determinations'' (p. 76). My question is, 
given these specific concerns and directives by the Senate, is the 
Corps going to issue an appeals process that includes appeal of 
determinations that a persons land is wetlands? And if not, why not?
    Answer. Appeals of permit denials and conditions will begin in 
fiscal year 1999. The President's fiscal year 2000 budget request 
includes funding for a full appeals process that includes jurisdiction 
determinations. The appeals process for jurisdiction determinations 
will follow, once the necessary funding is available. We want to 
implement this initiative and urge Congress to provide this funding in 
fiscal year 2000.
                                 ______
                                 

                  Questions Submitted by Senator Craig

               regulatory program--administrative appeals
    Question. What has the Corps done with the monies (both fiscal year 
1998 and fiscal year 1999) that were specifically earmarked, at the 
request of the Corps, for the implementation of the administrative 
appeals process?
    Answer. The Army budgeted for the administrative appeals process in 
fiscal year 1998 and fiscal year 1999 but did not request that the 
funds be earmarked. The Appropriations Committee report language stated 
the intentions of the Committee to have a full appeals process 
implemented. However, the appropriations we received in the fiscal 
years you mention were well below the President's budget requests which 
would have funded the full appeals process without sacrificing services 
to the public. More citizens depend on our responsiveness to their 
permit applications than the number that would use the appeals process.
    The Regulatory Program is a labor-intensive program and, as such, 
requires a 2-3 percent increase in funds each year just to maintain 
staffing levels. Most of the Regulatory funds in these years was 
prudently used to maintain staffing levels of the districts in order to 
continue providing timely, equitable services to the public. In fiscal 
year 1999, we have been able to set aside some funds for the appeals of 
permit denials and conditions which will become effective on August 6, 
1999.
    Question. In fiscal year 1997, the Corps acted on 65,138 Section 
404 permit applications. Out of those, there were only 28 individual 
permit denials. As the Corps has most recently indicated that it plans 
to only implement a partial administrative appeals process for only 
permit denials, the Corps appears prepared to spend about $180,000 per 
permit denial. Meanwhile, property owners who disagree with the Corps 
over their jurisdiction determinations will still have to spend over a 
year in the permitting process before having the ability to challenge 
the decision in court. Please explain your justification for the Corps' 
decision to focus both its regulatory efforts and increased budget on a 
program already subjected to direct judicial review, and how do you 
believe this to be a fair and equitable process?
    Answer. While we have supported the implementation of 
administrative appeals, the problem has been the affordability of a 
full appeals process and its impacts on the other parts of the 
Regulatory Program. Our cost estimate for appeals of permit denials and 
conditions is $1 million per year. The cost to implement a 
jurisdictional appeals process is estimated to be $5 million. To have 
dedicated $5 million from an already austere program for the full 
process would have meant shortages of regulatory personnel in the 
districts. This would have meant cutting back on other services. The 
program impacts a sizable segment of the public through its permit and 
enforcement-resolution programs. While everyone recognizes the 
advantages of jurisdictional appeals, it does not make sense to cut 
basic services in order to spend money on an activity which would 
benefit a much smaller group.
    A wetland delineation does not restrict an applicant from using his 
or her property. He or she simply has to apply for a permit if the 
activity is in a wetland. The Corps' performance goal is to evaluate 
permit actions within 60 days, and the most recent analysis or 
performance data showed that this goal is achieved 95 percent of the 
time. If the permit is disapproved, or approved with certain 
conditions, then the applicant can bring a lawsuit against the Corps to 
challenge the delineation. In addition to 31 permit denials in fiscal 
year 1997, there also were 5,000 permits issued that were subject to 
conditions. These will be subject to the existing appeals process.
    Everyone agrees that the appeals process is less expensive and less 
time consuming than litigation. The Corps' experience has been that 
most applicants are satisfied with a fair hearing in the local Corps 
district office, even if they do not get the result they want. We want 
the permit process to be fair and equitable to our citizens and we do 
not believe that litigation is the best way to resolve most 
differences.
    Question. As indicated in the 1999 Conference Report, the 
implementation of an administrative appeals process for only permit 
denials is unacceptable. Furthermore, the Conference Report language 
directs the Corps to demonstrate its progress in implementing a full 
administrative appeals process when it requests its fiscal year 2000 
budget. Why has the Corps recently again insisted that it will only 
implement a program that addresses permit denials and that it needs 
more money to implement a full program, against the expressed 
instructions of the Congress?
    Answer. The Army's position is to support Committee report language 
as fully and as best as we can, within the resources provided in 
appropriation acts. However, the appropriations we received in recent 
years were well below the President's budget requests. To have 
dedicated $5 million from our already austere program for the full 
process would have meant shortages of regulatory personnel in the 
districts. The public would suffer because, with fewer team members to 
evaluate permit applications, backlogs would grow and private citizens 
and businesspersons would have to wait longer to receive a permit. The 
permit program serves more citizens than would the appeals program so 
we decided that a phased implementation would work best for the program 
and the public. We believe that we would be doing the Nation a 
disservice by drastically curtailing or eliminating the other program 
activities in order to implement fully the administrative appeals 
program.
    We have complied with the Congressional direction in the Committee 
report language as best as we could, consistent with our commitment to 
provide fair and responsive services to the public. The final 
regulation for appeals of permit denials and conditions was published 
in the Federal Register on March 9, 1999, with an effective date of 
August 6, 1999. The process for the appeals of jurisdiction 
determinations is more complex and labor intensive. With the levels of 
funding for the Regulatory Program in recent years, we have not been 
able to start up this part of the appeals process without compromising 
our services to the public.
                               milo creek
    Question. Milo Creek flows under the communities of Kellogg and 
Wardner, Idaho. During a rain on snow event in May of 1997, the creek 
jumped its banks and burst through the city streets and yards. Raw 
sewage ran down the streets and backed up into one home running through 
its pipes and flowed out of the roof of the home. The situation is even 
more complicated because the area lies within the Bunker Hill Superfund 
site. The water running through the streets contained high levels of 
heavy metals. The blood lead levels obtained for 1998 showed an 
increase in children's levels in the direct area of the Milo Creek 
project. The communities and the State chose Alternative D of the Corps 
Reconnaissance Report Phase of 1995 for reconstruction and Phase I of 
the project has been completed and they are going to bid for Phase II. 
The COE has reviewed and commented on the Phase I and is awaiting bids 
for Phase II. However, the COE has not financially participated in the 
project. The communities are currently short of funds and with the high 
snow pack (150 percent of normal) they are expecting another flooding 
situation. If the project can't be completed this year, the potential 
for additional health and environmental related damages is likely to 
occur.
    As the COE has been committed to the Milo Creek project through 
their studies, can you apply the money that has been held for the Milo 
Creek project and use the money for the Phase II portion of the 
project?
    Answer. There are no Corps funds being held for the Milo Creek 
project. Also, the Corps has no authority to apply funds to continue 
the construction of the State's project. The Corps conducted a 
reconnaissance level study under its Section 205 authority to determine 
if a viable solution existed that would solve the flooding problems. 
While this study was favorable, it was only to recommend more detailed 
feasibility studies. Following the flooding of 1997, local officials 
decided not to continue with the more detailed study but focus on 
addressing the immediate problems. This resulted in implementation of a 
project by the State of Idaho.
    The Corps could continue the project under the Section 205 program 
if a local sponsor is willing to participate in continuing the planning 
and design phases of the project, which could lead to the Corps funding 
the Federal share of construction.
                             libby dam, mt
    Question. My office has been working with the landowners in 
Boundary County, Idaho. They have been experiencing ongoing 
difficulties with the operation of the Libby Dam in Montana. When the 
dam was built it was to be managed for flood control, power management 
and recreation. Since that time the government has added management for 
the Kootenai River sturgeon and salmon. The down river landowners have 
experienced serious erosion because of water flows coming from the dam.
    The levels of the river are kept higher year long allowing for 
seepage to occur along the river causing additional erosion and crop 
loss. This comes about from sturgeon requiring a higher flow during the 
months of June and July, and salmon requiring faster water during 
August.
    As the requirements for Endangered Species affect the management of 
the river, can you provide relief for the landowners during the rest of 
the year to allow their land to `dry out' prior to the onset of these 
faster flows by adjusting river levels? Can the levels and flows be 
maintained year round to protect agriculture from damages and erosion?
    Answer. We regulate Libby Dam for flood control within our overall 
operational constraints. The only time the land can `dry out' is 
usually the latter part of March and early April. The flood control 
operation of Libby Dam requires releasing water during the fall and 
winter to assure that the reservoir has adequate flood storage space at 
the onset of spring runoff. In years of higher than normal snowpack, 
like 1996, 1997 and 1999, the Kootenai River is generally high from 
November until March. Depending upon how large the snow pack is in a 
given year, April may be the only opportunity to reduce flow in the 
spring.
    Regarding the levels and flows, operation of the Libby project is 
constrained in large part because of the Corps of Engineers' commitment 
to implement actions consistent with the Biological Opinions in place 
under requirements of the Endangered Species Act. Current periods of 
low flow may be from September through November. In a wet winter, flow 
will be high from December through March, when April becomes the only 
opportunity to reduce flow.
                                 ______
                                 

                  Questions Submitted by Senator Reid

             construction, general--continuing authorities
    Question. In your statement, Dr. Westphal, you request $1.24 
billion for the Construction General Program. Is this funding for new 
studies under the Continuing Authorities Program or completion of 
projects already in construction?
    Answer. The $1.24 billion request for Construction, General 
includes $57 million for the Continuing Authorities Program. This 
amount is sufficient to allow a balanced program of study, design and 
construction, including both continuation of projects underway and new 
starts.
    Question. You mention only one new ``survey''. I'm assuming this is 
a reconnaissance study. I understand that there may be a backlog in the 
General Investigation Program, has there been a decrease in requests 
from local agencies and interests for new surveys?
    Answer. The fiscal year 2000 budget request includes $100,000 for 
one new start reconnaissance section 905b analysis. The new start 
surveys are being constrained to allow the backlog of projects 
approaching construction to be reduced. The number of requests for new 
start surveys has not decreased.
                          harbor services fund
    Question. In your statement, Mr. Secretary, you state that you will 
be pursuing Harbor Services Fund legislation separately from WRDA 99. 
When do you propose to send it to Congress?
    Answer. I plan to send the legislative proposal to Congress in 
April.
                          challenge 21 program
    Question. Do you have any projects being considered under the new 
Challenge 21 program anticipated in Water Resources Development Act of 
1999?
    Answer. More than 50 potential sponsors of Challenge 21 projects 
have been identified. However, none has been formally selected yet. 
Regarding WRDA 99, it is not our intent to budget for specific 
Challenge 21 projects, but rather to treat this as a program in which 
projects would be proposed and funded throughout the year.
    Question. Do you have a selection criteria established for projects 
that will
    be considered under this program?
    Answer. Basically, all floodplains are eligible for the Challenge 
21 initiative. Candidate projects must show the potential to both 
reduce flooding and restore riverine ecosystems. Priority will go to 
projects with strong local support and potential to include other 
Federal, non-Federal, and non-profit agencies in implementation of the 
project. More specific selection criteria will be established when 
funds are appropriated.
    Question. You do not mention the Project Cooperation Agreements and 
reimbursement issue in your statement, but I would like to know whether 
you see this as a problem with future financing of projects? Without 
closure in the Congressional committees regarding this issue, should 
negotiations continue on Project cooperation Agreements with 
reimbursement as a component with non- Federal entities?
    Answer. Yes, reimbursements could become a problem in the future if 
the amount continues to grow each year. There is a potential that the 
Corps could become a primarily a grant agency in some districts with 
large reimbursable type projects. We are concerned about the potential 
loss of technical expertise within districts as the number of 
reimbursement type projects increases. We want to work with Congress to 
resolve this problem, but it is the prerogative of Congress to make the 
decision on whether or not to continue to undertake such projects. Our 
current practice is not to begin negotiation of an agreement involving 
non-Federal work or advanced funds that could require possible future 
Federal appropriations until we have coordinated the request within the 
Administration and with the Appropriations Committees.
    Question. In your statement, you say that you have fully 
implemented the Project Management concept and are streamlining the 
planning process to ensure completion of studies within budget and on 
schedule. Is your agency prepared to delegate the responsibility and 
authority to Division/District levels so that steps can be taken to 
fulfill this commitment?
    Answer. We have model feasibility cost sharing agreements, which if 
signed without deviation, require no review at higher level in the 
Corps. If the sponsor requests deviations from the model, the agreement 
does require additional review.
    Improving our project delivery process is an ongoing concern of 
mine. Over the past several years we initiated a number of process 
improvements to reduce the time required to take a project through the 
planning, design, and construction process. We will continue to improve 
and refine our process in the future but there is only so much that can 
be done within the current authorization/appropriation process. A 
recent review of our process by the National Research Council 
determined that `` * * * the Corps project planning procedures are 
generally sound and not excessively lengthy when compared to private 
sector planning studies.'' There are, however, areas where the Congress 
can help us further streamline the process. I am prepared to work with 
you to further expedite and improve our project delivery process.
    Question. In your statement, you mention that changes to the 
Continuing Authorities Program recommended by a process action team 
will be implemented. Currently, sponsors are not required to provide 
cash until the construction phases of a project. How will your changes 
affect small jurisdictions (Nevada) with limited funds for upfront 
contribution?
    Answer. Under the traditional Continuing Authorities Program, after 
the first $100,000, sponsors currently provide 50 percent of the cost 
of the feasibility study at the time of the feasibility study. Under 
the environmental authorities, S.1135 and S.206, the total study cost 
is Federally funded and then cost-shared at the time of construction. 
The current proposal would create a single project development process 
that captures some elements of each existing process. Cost-sharing 
would be initiated during planning on all projects; however, it would 
be at the more favorable construction cost-sharing percentage for all 
authorities. This will create a simpler and more equitable process for 
all sponsors under all authorities. We believe that local sponsors who 
have provided 50 percent of the feasibility cost for S.205 small flood 
control projects in the past would be satisfied with this proposed 
change.
           restructuring of headquarters and division offices
    Question. In your statement, you reference the reorganization of 
Headquarters and Division offices. You mention a staff reduction of 14 
percent from fiscal year 1996 to fiscal year 1999. Why is the General 
Expenses budget request the same as last year?
    Answer. The executive direction and management of the Civil Works 
program, performed by the headquarters and division offices, plays a 
key role in providing oversight and direction to our important civil 
works mission. Staff reductions have permitted us to maintain an 
appropriate level of executive direction and management with a constant 
$148 million budget from fiscal year 1998 to fiscal year 2000. Since 
General Expenses is a labor-intensive account which requires personnel 
cuts to absorb cost growth, this flat budget requires us to absorb 
inflation, pay increases, and extraordinary expenses within the 
operating base. The projected fiscal year 2000 inflation of about 3 
percent plus the 4.4 percent in pay increases translates to 
approximately $5.3 million of cost increases being absorbed.
                       regulatory appeals process
    Question. In your statement, you recognize the struggle regarding 
the Regulatory appeals process. You have requested an increase of $11 
million. How will the increase in funding be used to remedy the 
problems with the appeals process? Will you be adding staff to your 
Regulatory field offices in order to process applications in a timely 
manner?
    Answer. Of the $11 million increase in the President's budget, $3 
million is for labor cost increases and filling vacancies in the 
district offices, and $5 million is for implementation of the appeals 
process for jurisdiction determinations. Even without an appeals 
process, the Corps must maintain staffing levels in the districts to 
evaluate permit applications in a timely manner. This is the purpose of 
the additional $3 million.
    Additional staff will be needed, however, to process administrative 
appeals for jurisdictional determinations. For appeals of permit 
denials and conditions, which is being implemented this year, each 
division office will have an appeals officer. More appeals officers 
will be added, perhaps in the districts, to handle the appeals process 
for jurisdiction determinations. Just as the Corps is committed to 
evaluating permit applications in a timely manner, it plans to do the 
same for appeals.
                     lower las vegas wash wetlands
    Question. In Las Vegas there is an area known as the Lower Las 
Vegas Wash Wetlands. The area feeds directly into Lake Mead and 
therefore is significant to the ecology of the region. There are 
significant water quality issues such as erosion and perchlorate 
contamination in the Wash. Unfortunately, the Corps has budgeted only 
$100,000 for this key environmental project. Could you give me a status 
update on this project?
    Answer. Our final reconnaissance report was completed in June 1998. 
We have been working with the non-Federal sponsor, Clark County 
Department of Parks and Recreation, to develop and finalize the project 
study plan. The sponsor has been trying to identify a funding source 
for its cost sharing of the feasibility study for several months and is 
presently working with the Nevada Water Agency to secure the necessary 
non-Federal funds. Although we have currently scheduled the feasibility 
study to begin in August 1999, there remains a high level of 
uncertainty regarding the source of non-Federal funds.
    Question. Since there is a Lake Mead Water Quality Forum that 
constitutes 21 members of the federal, state and local agencies, the 
meetings of which are periodically attended by the Bureau of 
Reclamation and Corps of Engineers, couldn't this project be a model of 
the National Research Council recommendation regarding watersheds as 
the basic planning unit?
    Answer. Yes, the Lake Mead Water Quality Forum could be a model of 
the National Research Council recommendation regarding watersheds as 
the basic planning unit. The Lower Las Vegas Wash feasibility study 
will focus on habitat restoration opportunities in the watershed. 
Habitat restoration represents a specific component of the water 
quality focus of the Lake Mead Water Quality Forum. Since the Clark 
County Department of Parks and Recreation is a member of the Lake Mead 
Water Quality Forum, there may be information that would be beneficial 
to our study and theirs.
    Question. The Water Quality Forum is moving toward the finalization 
of proposals which they will be presenting my staff. Will the Corps be 
able or willing to coordinate with the Forum as proposals are finalized 
at the local level?
    Answer. Yes, we will review and evaluate the proposals of the Lake 
Mead Water Quality Forum to determine whether or not any of the 
proposals could be pursued under existing Corps authorities.
                                 ______
                                 

                  Questions Submitted by Senator Byrd

    Question. Mr. Chairman, the President's fiscal year 2000 budget 
request for the Corps of Engineers of $3.9 billion in new budget 
authority is, generally speaking, much better than his budget request 
for fiscal year 1999, but the request is still below the level enacted 
for fiscal year 1999. While I am heartened that the Corps is receiving 
some support from the Administration for its programs and projects, I 
am concerned about the Corps; ability to carry out its critical 
mission. These are difficult budget times, despite all of the media 
hype about the projected budget surpluses, yet the Corps provides 
crucial services to the nation in the areas of navigation assistance 
flood mitigation, recreation opportunities, and power generation. I 
look forward to working with the Chairman and Ranking Member and other 
members of the Subcommittee to ensure that sufficient funds are made 
available for the Corps to continue its projects and programs.
    In reviewing the specifics of the budget request for the Corps, I 
note that the request proposes a decrease of 27 million in general 
investigations and that this decrease will result in (1) less funds for 
navigation, flood damage prevention and shoreline protection studies, 
(2) reduced support for preconstruction engineering and design, (3) 
lower levels of flood plain management, and (4) a decrease in research 
and development.
    Will these proposed program decreases for general investigations 
have a negative impact on the long-term health of our economy, our 
ability to protect communities from the ravages of floodwaters, or on 
our quality of life?
    Answer. No. I do not believe that the proposed program decreases 
will have a negative impact on the long term health of our economy. We 
will continue to address the flood damage reduction needs of the 
nation's communities. Let me assure you that the Army Civil Works 
mission continues to very much be in the business of addressing, 
evaluating and solving the nation's water resource infrastructure 
problems. We are simply proposing a pause in the new study start 
program for the Corps this year in order to catch our breath and at 
least put a sizeable dent in the number of projects currently in the 
construction pipeline. I hope, if all goes well with the Corps program 
in 2000 as well as with the economy and the budget in general, that we 
can resume a higher new start program in the outyears.
    I also note some major decreases are proposed in the construction 
account for locks and dams, for local protection projects, for beach 
erosion control projects, and for dam safety assurance projects.
    Question. Will these program decreases proposed for construction 
projects have a negative impact in the short term on our economy and on 
flood protection?
    Answer. The proposed fiscal year 2000 construction program 
generally does not fund flood protection projects at their optimum 
schedules and these projects would not be completed as expeditiously as 
possible. In this context, there could be a negative impact on the 
economy of an affected locality if flood protection were not in place 
when a flood occurred.
    Question. Won't the proposed construction decreases have the effect 
of postponing the completion of many projects, delaying the benefits 
that will be realized from their completion?
    Answer. About 66 projects included in the President's budget would 
be affected by the funding levels proposed for the fiscal year 2000 
construction program. These projects would be delayed an average of 5 
months from their optimum schedules. It is not possible to conduct a 
definitive analysis of the delayed benefits because so many assumptions 
about the future are required, and many of these decisions have not yet 
been made. Let it suffice to say there are costs associated with 
forgone benefits.
    Question. Does the Corps of Engineers have construction 
capabilities above the level proposed in the President's budget 
request? What level of construction funding did the Corps include in 
its request to the Office of Management and Budget?
    Answer. Yes, the Corps has construction capabilities that 
individually total about $2 billion. However, these capabilities 
consider each project by itself without reference to the rest of the 
program. The Army initially recommended a fiscal year 2000 program to 
OMB that totaled $1.815 billion. This amount was later reduced to 
$1.725 after enactment of appropriations for fiscal year 1999.
             environmental projects and aquatic ecosystems
    Question. While most activities of the construction account are 
proposed for decreases relative to the fiscal year 1999 funding level, 
two areas would receive modest increases: environmental projects and 
work involving aquatic ecosystems. While these increases are quite 
small, it seems noteworthy that while most construction activities are 
slated for decreases, these two are proposed for increases. What work 
is slated to be accomplished by the new funds recommended for 
environmental projects and aquatic ecosystems?
    Answer. Although the request for fiscal year 2000 for the Section 
1135 and Section 206 programs is $5.7 million greater than the request 
for fiscal year 1999, it is actually $7.2 million less than was 
appropriated for fiscal year 1999. The fiscal year 2000 request of $13 
million is just $1.2 million more than we expended last year in fiscal 
year 1998. The $13 million will allow us to pursue a balanced program 
of work, including continuation of over 300 projects underway, 
coordination with local sponsors seeking new projects and initiation of 
new projects.
    Question. Does the President's budget request propose to increase 
funding for environmental activities at the expense of navigation, 
flood mitigation and control, and dam safety?
    Answer. For the fiscal year 2000 budget, 28 port development 
projects and activities are funded to meet optimum completion schedules 
in accordance with the proposed Harbor Services User Fee which will 
cover all construction costs. Amounts for 165 flood damage reduction, 
inland waterways, and shore protection projects and activities which 
rely on general tax revenues to finance their construction costs are 
constrained to a level that is about two-thirds of what is needed to 
maintain optimum completion schedules. The completion schedules for 
these projects is similar to the completion schedules prepared for the 
fiscal year 1999 budget. In addition, 9 high priority projects for 
mitigation, ecosystem restoration, and other purposes are funded to 
meet optimum completion schedules.
                              o&m increase
    Question. What types of needs and costs will be covered by the five 
percent increase for operation and maintenance.
    Answer. While providing for the operation and maintenance of the 
Corps projects at justifiable levels of service in all of the five O&M 
business processes, (navigation, flood damage reduction, hydropower, 
recreation, and environmental stewardship) it better enables us to 
extend the useful life of our aging infrastructure.
    Question. Does the proposed increase cover all of your anticipated 
increases for operations and maintenance?
    Answer. As I mentioned, we can continue to safely operate and 
maintain our projects, however over the years budgetary limitations 
have resulted in a buildup of unfunded maintenance work items. Since 
that buildup has grown to be over $1.6 billion, we cannot conceivably 
cover all of that work in one year. The increase has helped us to 
address some items which had been previously deferred while minimizing 
the number of new items to be added to the backlog.
                      impact of 2000 funding level
    Question. What types of needs and costs will be covered by the ten 
percent increase for the Regulatory Program?
    Answer. The President's budget requests $117 million which is $11 
million more than the fiscal year 1999 appropriation. The funds would 
be used as follows:
    Administrative Appeals Process.--Allows applicants to contest 
regulatory decisions without going to court. In fiscal year 1999, the 
Corps will be implementing appeals of permit denials and conditions. 
The appeals process for jurisdiction determinations would be 
implemented with $5 million in the fiscal year 2000 budget request.
    Maintaining Program Performance.--About $3 million is required to 
cover ordinary manpower cost increases and inflation. This is essential 
to allow filling of vacancies so program performance does not decline. 
At 90,000 permit actions in fiscal year 1998, workload is at an all-
time high. The fact that there was no funding increase from fiscal year 
1998 to fiscal year 1999 has meant staff vacancies in the districts 
cannot be filled this year.
    Watershed Management Efforts and related area studies.--About $2.5 
million in new funding would allow additional special studies of 
sensitive areas with intensive developmental pressures. Study products 
help predict permit impacts in a more comprehensive manner than is 
possible on a permit-by-permit basis. Individual future projects can 
then be evaluated much more efficiently and expeditiously, and some 
management plans can result in shared regulatory responsibilities with 
state and local governments, reducing duplication and delays.
    Wetland Delineator Certification Program.--The Corps is developing 
a national program for the training and certification of non-federal 
individuals as certified wetlands delineators. Final implementation has 
not occurred because of funding constraints; Start-up costs for full 
implementation in all districts is approximately $500,000.
    Question. Why is this increase needed for the for the Regulatory 
Program?
    Answer. Because the Regulatory Program is a people-intensive 
program, the requested funds will continue the Corps commitment to 
serve the public in a fair and reasonable manner while ensuring the 
protection of the aquatic environment required by laws and regulations. 
In fiscal year 1998, the Corps authorized 90,000 activities in writing. 
With the number of permit activities increasing by at least 5,000 each 
year, the President's budget request will ensure that this level of 
service is maintained.
    The Corps also will continue to pursue important initiatives. 
Regional and nationwide general permits increase cooperation with state 
and local governments and help streamline the regulatory process. The 
Corps will establish an administrative appeals process for jurisdiction 
determinations which, in addition to the appeals of permit denials and 
conditions to be implemented this year, will allow the public to 
challenge regulatory decisions without costly, time-consuming 
litigation.
    Question. Why is this increase needed for the for the Regulatory 
Program?
    Answer. Because the Regulatory Program is a people-intensive 
program, the requested funds will continue the Corps commitment to 
serve the public in a fair and reasonable manner while ensuring the 
protection of the aquatic environment required by laws and regulations. 
In fiscal year 1998, the Corps authorized 90,000 activities in writing. 
With the number of permit activities increasing by at least 5,000 each 
year, the President's budget request will ensure that this level of 
service is maintained. The Corps also will continue to pursue important 
initiatives. Regional and nationwide general permits increase 
cooperation with state and local governments and help streamline the 
regulatory process. The Corps will establish an administrative appeals 
process for jurisdiction determinations which, in addition to the 
appeals of permit denials and conditions to be implemented this year, 
will allow the public to challenge regulatory decisions without costly, 
time-consuming litigation.
                          marmet locks and dam
    Question. Congress provided $6,500,000 last year for land 
acquisition, detailed engineering, and design work associated with a 
major lock replacement program at Marmet Lock and Dam along the Kanawha 
River. The President's fiscal year 2000 budget request for the project 
is $9,800,000. The Marmet Lock and Dam is a major navigational 
structure, responsible for moving millions of tons of cargo to and from 
West Virginia every year. This major lock replacement project will help 
maintain and increase the efficient flow of commerce.
    Last year the Corps estimated that is would need to buy about 250 
properties for this project. How many have been purchased to date, and 
how many do you anticipate having purchased by the close of fiscal year 
2000?
    Answer. We have purchased approximately 35 properties so far, and 
we will have purchased approximately 110 properties by the end of 
fiscal year 2000.
    Question. When do you anticipate that the land acquisition for the 
project will be complete? When do you anticipate that the land 
acquisition will be sufficiently far enough along that you can begin 
construction?
    Answer. The land acquisition will take through fiscal year 2002 to 
complete. We will have completed sufficient land acquisition and design 
by the end of fiscal year 2001 to initiate construction of the lock in 
fiscal year 2002.
    Question. How much money will be needed beyond fiscal year 2000 to 
complete the project? What work will remain to be done?
    Answer. An additional $264,200,000 is needed beyond fiscal year 
2000 for continued engineering and design of the lock and appurtenant 
features, acquisition of the 140 remaining properties, and construction 
of the lock.
    Question. Are there additional Corps capabilities at Marmet for 
fiscal year 2000 above those identified in the President's budget?
    Answer. The Corps has the capability, subject to the qualifying 
language, to use an additional $1,550,000 to advance engineering and 
design and land acquisition. This would accelerate project completion 
by approximately six months.
    Senator Byrd. Gentlemen, I am encouraged that the President's 
budget for fiscal year 2000 includes support for this project for the 
inland navigation system. Marmet has a strong benefit/cost ratio 
because of the substantial value of the coal, chemicals, and other 
products shipped along the Kanawha River and the Ohio system. While the 
budget request indicates an increased level of support by the 
Administration for this project, I would remind the Corps that many 
people are affected by this project--not just those whose lives and 
homes are being disrupted by the construction, but also all of the 
people whose work depends upon the locks, the shipping, and the 
products that go through Marmet. Therefore, it is incumbent upon all of 
us to help move this project forward as efficiently as we can to avoid 
any unnecessary delays.
                   greenbrier basin flood protection
    Question. The Greenbrier Basin of eastern West Virginia is one of 
the prettiest parts of the State and one prone to extensive flooding. 
The Water Resources Development Act of 1996 authorized the Corps to 
implement local protection plans to help mitigate damage from future 
flooding. The fiscal year 1997 Energy and Water Development 
Appropriations Act provided $500,000 for the design and implementation 
of a flood warning system in the Greenbrier basin.
    Has the Corps reached an agreement with the City of Marlinton on a 
local protection plan? Have the details of the plan been worked out and 
agreed to among the participants?
    Answer. The Corps has been working with the City of Marlinton, and 
has generally come to an agreement for a plan of protection. The local 
protection plan includes a levee down the front side of Marlinton that 
borders the Greenbrier River and a secondary levee along the Riverside 
area of town. For the remaining flood protection, two alternatives are 
presently under consideration. One involves the extension of the levee 
upstream along Knapps Creek, the other would be for construction of the 
Knapps Creek diversion channel.
    Question. Has a local sponsor been identified for the non-Federal 
part of the local protection plan? What is the non-Federal cost? What 
is the total cost?
    Answer. The City of Marlinton has expressed an interest in being 
the local sponsor. The total project cost is estimated to be 
approximately $54,700,000. The city qualifies for a reduction in its 
cost share to 14 percent based on ability-to-pay provisions. The non-
Federal share would be approximately $7,700,000; however, the city may 
need other assistance to provide this amount. The Federal share would 
be approximately $47,000,000; however, in accordance with Section 574 
of the Water Resources Development Act of 1996, the amount authorized 
to be appropriated for the Greenbrier River Basin project is limited to 
$12,000,000.
    Question. What activities are currently being conducted on the 
Marlinton local protection plan?
    Answer. The Corps is finalizing the design, conducting field 
investigations, and evaluating the feasibility of the two alternatives 
in the Knapp Creek area.
    Question. What capabilities does the Corps anticipate for fiscal 
year 2000 for the Marlinton local protection plan?
    Answer. The Corps capability for the Marlinton local protection 
project, an element of the Greenbrier River Basin project, is 
$1,000,000, subject to the qualifying language. If provided, these 
funds would be used for continuing the Marlinton detailed project 
report.
    Question. What is the status of the flood warning system for the 
Greenbrier basin?
    Answer. The system was installed in 1997 and 1998, within the 18 
months specified in the 1997 Energy and Water Development 
Appropriations Act. The system is operational. The Project Cooperation 
Agreement was modified so that an additional stream gage could be 
installed this spring at Renick, West Virginia.
    Question. How much will it cost to maintain the flood warning 
system once it is fully operational?
    Answer. It will cost approximately $32,400 per year to operate the 
rain gages, including the Renick gage. The State of West Virginia is 
the project sponsor.
    Question. What future construction and operational needs are 
required for the flood warning system?
    Answer. Installation of the gage at Renick will complete the flood 
warning system.
    Question. How many stream gages and how many rain gages are 
included in the flood warning system?
    Answer. The system includes 6 stream gages, including the gage at 
Renick, and a number of rain gages operated by the National Weather 
Service.
    Question. What is the relationship between the Corps and the 
National Weather Service with regards to the warning system?
    Answer. The National Weather Service assisted in the installation 
of the computer work stations at the stream gages and operates the rain 
gages. The U.S. Geological Survey also has assisted with installing the 
housing for the stream gages.
            west virginia tug fork flood protection projects
    Question. For fiscal year 1999 Congress provided $11.35 million to 
continue work on flood protection projects in southern West Virginia 
along the Tug Fork and its tributaries as part of the multi-state 
Section 202 project. While the President's request includes $5.4 
million for Levisa and Tug Fork projects for fiscal year 2000, all of 
these funds are slated for other States.
    In fiscal year 1999 for the Section 202 Levisa and Tug Fork project 
area in West Virginia, $4,500,000 was appropriated to initiate the 
McDowell County project and $1,475,000 for the Upper Mingo County 
project that specifically included the Mingo County tributary areas. I 
understand that both project reports have been completed, yet as of 
today, the Corps has yet to execute project agreements for either area. 
What accounts for this substantial delay?
    Answer. For McDowell County there was an unresolved issue over the 
level of design detail in the report necessary for proposed ring 
levees. Subsequent to submittal of the report, there has been 
consideration given to a plan involving Federal participation in the 
consolidation of local schools in lieu of constructing ring levees for 
the schools. This assessment of plan details and examination of 
authorities also has contributed to delays in completion of the report 
review and execution of an agreement. The report is expected to be 
approved in April 1999, and execution of the PCA within 90 days after 
report approval. For the Upper Mingo County tributaries area, it took 
five months to resolve project issues and obtain approval of the 
supplemental report. The supplemental report was approved on March 1, 
1999, and the supplement to the Project Cooperation Agreement is under 
review.
    Question. What activities will remain to be done beyond fiscal year 
1999 in lower Mingo County and what is the cost of the remaining 
effort? Does the Corps have capabilities in lower Mingo County in 
fiscal year 2000?
    Answer. Non-structural flood damage reduction, including measures 
such as elevating structures, demolishing and replacing structures, and 
structure-specific ringwalls, would continue beyond fiscal year 1999 if 
funds were provided. The remaining cost is $7,000,000. The Corps 
capability, subject to the qualifying language, for fiscal year 2000 is 
$1,300,000.
    Question. What activities will remain to be completed beyond fiscal 
year 1999 in upper Mingo County along the Tug Fork and its tributaries 
and what is the cost of the remaining effort? Does the Corps have 
capabilities in upper Mingo County in fiscal year 2000?
    Answer. Non-structural flood damage reduction measures would 
continue beyond fiscal year 1999 if funds were provided. The remaining 
cost is $18,200,000. The Corps capability, subject to the qualifying 
language, for fiscal year 2000 is $600,000.
    Question. What activities will remain to be done beyond fiscal year 
1999 in McDowell County, West Virginia and what is the cost of the 
remaining effort? Does the Corps have capabilities in McDowell County 
in fiscal year 2000?
    Answer. Non-structural flood damage reduction measures would 
continue beyond fiscal year 1999 if funds were provided. The remaining 
cost is $148,800,000. The Corps capability, subject to the qualifying 
language, for fiscal year 2000 is $2,200,000.
    Question. What activities will remain to be completed beyond fiscal 
year 1999 in Wayne County and what is the cost of the remaining effort? 
Does the Corps have capabilities in Wayne County in fiscal year 2000?
    Answer. Non-structural flood damage reduction measures would 
continue beyond fiscal year 1999 if funds were provided. The remaining 
cost is $6,000,000. The Corps capability, subject to the qualifying 
language, for fiscal year 2000 is $300,000.
    Floods have repeatedly devastated many counties in West Virginia, 
including those that are part of the Tug Fork basin. The Section 202 
project provides important protection to communities and livelihoods. 
Each of these project areas has local sponsors to fund the non-Federal 
portion of the project. I look forward to working with the subcommittee 
to make further progress on providing flood protection for the West 
Virginia parts of Section 202.
                          wheeling riverfront
    Question. Wheeling, West Virginia, is in the midst of a major 
preservation and rehabilitation project to protect and enhance its 
cultural and commercial resources in its central business district. I 
understand that the Corps has had discussions in the past with the 
Wheeling National Heritage Area about how joint efforts along the 
Wheeling Riverfront could be arranged and about what capabilities the 
Corps might have in participating in this project. This is an important 
project and I believe the Corps might have some expertise that would be 
useful in this effort.
    What would be the first step toward involving the Corps more 
closely with the revitalization efforts, underway in Wheeling?
    Answer. Since the Wheeling waterfront project is recreational in 
nature, and since recreation projects have historically been assigned a 
low budgetary priority, Corps involvement would not occur unless 
Congress added funds for the project. If Congress did so, the Corps 
could conduct a reconnaissance study to determine what role the Corps 
could play in the future development of the Wheeling Riverfront 
project.
    Question. What resources would be needed by the Corps in order for 
it to actively participate in the Wheeling Riverfront project?
    Answer. The normal cost of a reconnaissance study is $100,000.
    Question. What legislation, if any, would be required to authorize 
the Corps' participation?
    Answer. A Committee study resolution provides the authority for the 
Corps to study opportunities for urban waterfront development along the 
Ohio River. This authority extends to design. The project is on the 
pool of Hannibal Lock and Dam, West Virginia and Ohio. Section 4 of the 
1944 Flood Control Act, as amended, provides the authority for the 
Corps of Engineers to participate in the addition of recreation 
facilities on Corps lands at Corps projects. However, additional 
authorization in law would be required for the Corps to participate in 
recreation development on non-Corps lands.
    Question. What unit of the Corps would have the lead in this 
participation?
    Answer. Wheeling is within the geographic boundaries of the 
Pittsburgh District, which would be the lead District. If necessary, 
resources from other Corps offices could be made available to assist in 
this project.
    Question. What would be the cost-share requirements for the 
project?
    Answer. A reconnaissance study to determine the Federal interest in 
future Corps involvement would be 100 percent Federally financed. The 
feasibility phase, if applicable, would be cost shared 50 percent 
Federal and 50 percent non-Federal under a Feasibility Cost Sharing 
Agreement. Design would be financed 75 percent Federal and 25 percent 
non-Federal under a Design Agreement. Project construction costs would 
be cost shared 50 percent Federal and 50 percent non-Federal. Design 
costs would be folded into project construction costs, and the non-
Federal sponsor would contribute the other 25 percent of design costs 
in the first year of construction. The non-Federal sponsor for the 
feasibility, design, and construction phases must be a unit of 
government. Funds provided by another Federal agency may be used for 
the non-Federal share if such use is authorized in law.
    Question. What types of capabilities might the Corps be able to 
bring into the Wheeling Riverfront project (including the Ohio River 
front area and the mouth of Wheeling Creek where it enters the Ohio 
River)?
    Answer. The Corps has extensive capabilities in recreation master 
planning, environmental assessment, facilities engineering and design, 
and construction management that could be used in development of this 
project.
             west virginia statewide flood protection plan
    Question. In 1998, the Corps signed an agreement with the West 
Virginia Soil Conservation Agency to conduct a comprehensive study of 
the chronic flood problems that devastate West Virginia, to be 
conducted on a 50/50 cost share basis.
    How long will the study take to complete?
    Answer. The cost sharing agreement for the second and last phase of 
the study is scheduled for execution in May 1999 and the study is 
scheduled for completion in July 2001.
    Question. What will the study do?
    Answer. The study will develop a comprehensive strategy for 
addressing flooding problems throughout West Virginia, concentrating on 
unmet flood control needs, especially in high-priority areas of the 
state where chronic flooding occurs.
    Question. What will the study provide?
    Answer. The study will provide a statewide flood damage assessment, 
identification of existing flood control shortfalls, assessment of 
existing Federal and state flood protection programs, formulation of 
flood protection and floodplain management program improvements, 
assessment of non-Federal financing capability, identification of 
financing needs for investment in flood protection, development of a 
long-term investment strategy for the state, and a detailed report on a 
statewide flood warning system.
    Question. What has been appropriated by the Federal Government to 
date for this project?
    Answer. Appropriations for the West Virginia Statewide Plan total 
$950,000 through fiscal year 1999.
    Question. What additional Federal resources are needed for this 
project?
    Answer. No additional funds are required to complete the study.
    Question. What level of support (funding and in-kind services) has 
been provided by the non-Federal cooperator?
    Answer. $50,000 was used for a reconnaissance-level investigation 
at Federal expense. The feasibility study cost is $1,800,000 and will 
be cost shared 50 percent Federal and 50 percent non-Federal in two 
phases. For Phase I, the West Virginia Soil Conservation Agency, which 
is the study sponsor, provided $213,600 in cash and $62,000 in in-kind 
services. The cost sharing agreement for Phase II is scheduled for 
execution in May 1999. Details of cash contributions and in-kind 
services for Phase II are being identified by the study sponsor at this 
time.
    Question. What is the current status of the project?
    Answer. Several work tasks identified in the project study plan 
currently are underway. The Corps and the National Resources 
Conservation Service are updating statewide flood damage data and 
information on flood control projects in the state that are either 
completed, under construction, or in various planning stages. The Corps 
and the West Virginia Soil Conservation Agency are arranging the 
initial meeting of the Flood Mitigation Task Force, which is a part of 
the Statewide Plan process, and are developing the schedule for a 
series of workshop meetings to be held across the state to solicit 
citizen and local government input into the planning process. The 
workshop meetings are likely to begin in early May.
                      robert c. byrd locks and dam
    Question. A major project was authorized in 1986 at Gallipolis, 
West Virginia, to improve the lock system of the Robert C. Byrd Locks 
and Dam. This project is making great progress, but I understand that 
several years worth of work remain. The President's budget request for 
fiscal year 2000 includes $7.15 million for this project.
    What is the total cost of the project and how much funding is 
needed beyond fiscal year 1999?
    Answer. The total project cost is $373,000,000. The project's 
balance to complete after fiscal year 1999 is $16,278,000.
    Question. What is the status of the on-site mitigation work?
    Answer. The on-site mitigation construction contract, which was 
awarded in September 1997, is 35 percent complete, with completion 
scheduled for December 2001. This effort consists of construction of a 
50-acre wetland area and fish rearing ponds.
    Question. What plans are there for providing fishing access to the 
Ohio River at the Locks and Dam?
    Answer. Fishing access on the West Virginia bank of the Ohio River 
is complete. A fishing access site at the abutment on the Ohio side of 
the river will be constructed in 2001.
    Question. What has been your relationship with the West Virginia 
Division of Natural Resources on this project?
    Answer. The Corps has established a very good working relationship 
with the West Virginia Division of Natural Resources (WVDNR). They have 
actively participated in the design of the mitigation features for this 
project and they participate in all partnering sessions for the 
mitigation work. The on-site mitigation contract includes a system of 
fish rearing ponds. Upon completion of this contract, the WVDNR will 
assume operation and maintenance of this area as its primary fish 
hatchery in West Virginia.
    Question. What additional capabilities does the Corps have for 
fiscal year 2000 beyond those identified in the President's budget 
request for work on this project? If funding is provided, how much will 
the project completion be accelerated by these additional capabilities?
    Answer. In addition to the fiscal year 2000 budget request of 
$7,150,000, the Corps has additional capability, subject to the 
qualifying language, of $2,150,000, which would advance project 
completion by one year.
                          winfield lock & dam
    Question. The Winfield Lock Replacement project has completed all 
of phase I and most of phase II-A. The new lock chamber at Winfield is 
capable of handling 11 jumbo barges at one time and can speed barge 
traffic through the lock in less than 45 minutes. While much of the 
construction has been completed, work remains on site protection and 
clean-up, onsite environmental mitigation, and post-project efforts 
involving the National Guard. The President's fiscal year 2000 budget 
request includes $1.4 million for this project.
    What is the status of the transfer of two buildings to the National 
Guard?
    Answer. A License Agreement was sent in March 1999 to the West 
Virginia National Guard for signature. This agreement will permit the 
Guard to use the buildings until the final transfer is accomplished 
next year.
    Question. What is the status of the bank erosion work?
    Answer. Bank erosion corrective actions were initiated in January 
1999 and are scheduled to be completed by mid-summer 1999.
    Question. What additional capabilities does the Corps have in 
fiscal year 2000 for the project above those already identified in the 
President's budget request? By what length of time would these 
additional capabilities accelerate the completion of the project?
    Answer. In addition to the fiscal year 2000 budget request of 
$1,400,000, the Corps has additional capability, subject to the 
qualifying language, of $1,800,000 that would advance completion by two 
years.
                       bluestone drift and debris
    Question. Drift and debris periodically accumulate behind Bluestone 
dam. This accumulation of drift and debris has been identified as a 
significant problem. Following a study authorized in the Water 
Resources Development Act of 1992, the Corps identified a preferred 
plan for managing the drift and debris. For fiscal year 1999, $420,000 
was appropriated to finalize the construction design for handling the 
drift and debris and for continued development of a public awareness 
program.
    What benefits will be derived from the completion of the drift and 
debris project?
    Answer. Completion of construction of the multi-level intake 
structure would prevent accumulation of drift and debris during periods 
of high inflow to the project and reduce the accumulation of drift and 
debris pileups on the National Park Service property at Sandstone 
Falls.
    Question. What operational changes will occur as a result of the 
completion of the drift and debris project?
    Answer. Completion of the multi-level intake structure would not 
require any operational changes to the project.
    Question. What group is covering the non-Federal costs of the 
project?
    Answer. The current and prospective drift and debris management 
program associated with the project has four components, namely 
construction of the multi-level intake structure at the project, 
acquisition of debris removal equipment, the public awareness program, 
and cleanup of debris downstream on National Park Service lands. The 
Corps could construct the multi-level intake structure and acquire 
equipment as part of project operation and maintenance at full Federal 
expense. The Corps, the National Park Service, the West Virginia 
Division of Environmental Protection, and other non-Federal interests 
are participating in the public awareness program. The Corps 
participation is part of project operation and maintenance. The 
downstream cleanup currently is financed by the National Park Service 
and the West Virginia Division of Environmental Protection. If non-
Federal cost sharing in the construction of the intake structure or 
Corps cost sharing in the downstream cleanup were authorized, the West 
Virginia Division of Environmental Protection would be the cost sharing 
sponsor.
    Question. What additional Congressional legislation will be 
required to implement the preferred plan?
    Answer. No authority is required for the Corps to construct the 
multi-level intake structure, acquire equipment, or continue to 
participate in public awareness efforts. Legislation would be required 
for the Corps to participate in the downstream cleanup.
                      bluestone dam safety project
    Question. What risks are currently posed by the Bluestone Dam to 
the communities and environments below the dam?
    Answer. Under current design criteria, the probable maximum flood 
is estimated to overtop the existing dam by 13 feet. Dam failure would 
cause catastrophic flooding along the Greenbrier, New, Gauley, Kanawha, 
and Elk Rivers, including the metropolitan area and heavily 
industrialized capital city of Charleston, West Virginia. This would 
place more than 115,000 persons at risk, with property damages in 
excess of $6,500,000,000.
    Question. What level of flooding would cause the dam to fail 
catastrophically? How likely that such a level of flooding might occur? 
How likely is it that the dam will catastrophically fail in the next 50 
years? In the next 100 years?
    Answer. The dam would be in danger of failing if pool levels 
approaching the top of the existing dam were to occur. This flood 
level, known as the 500 year flood event, has a 0.2 percent chance of 
occurring in any year, a 10 percent chance of occurring at least once 
in the next 50 years, and an 18 percent chance of occurring at least 
once in the next 100 years.
    Question. What operational changes would take place as a result of 
the completion of the dam safety project?
    Answer. Daily operations of the project would not change. For 
catastrophic floods approaching a probable maximum flood level, the six 
hydropower penstocks would be used to provide additional discharge 
capacity. Once activated, the penstocks would remain open until pool 
levels return to normal and the penstock bulkheads could be restored. 
Use of the penstocks does not increase downstream damage; however, the 
time required for pool levels to return to normal could delay the start 
of cleanup efforts by several days.
    Question. What are the benefits that might be associated with 
combining the dam safety project and the drift and debris project?
    Answer. The main benefit attributed to a combined effort would be 
that a single structure could be built for the resident engineer's 
office that would serve both construction efforts. It is possible that 
the two efforts could be constructed under a single contract.
    Question. Could the drift and debris project precede the dam safety 
project? What additional costs and risks might this impose?
    Answer. The drift and debris project could precede the dam safety 
project. However, there are increased risks to life and property 
associated with any delay in initiating the dam safety project.
                         island creek at logan
    Question. The Water Resources Development Act of 1986 authorized a 
non-structural (local protection plan) project combined with some 
channel improvements for Island Creek at Logan. This area experienced 
major flooding in 1957, 1963, 1974, and 1977. The Corps completed 
studies in 1993 and recommended a plan of action that would provide 
significant flooding reductions and have a positive benefit-cost ratio 
of 1.34. $1.5 million in Federal funds have been spent on the project, 
but activity stopped in fiscal year 1994 because the Logan County 
Commission, the local sponsor, was unable to provide the non-Federal 
share of the project implementation costs. Last year, the State of West 
Virginia agreed to provide funds to assist the Logan County Commission 
in sponsoring the project.
    Have any Federal construction funds been spent on this project?
    Answer. No Federal construction funds have been spent to date.
    Question. With the local sponsor now able to provide the non-
Federal cost share, are more general investigation funds needed for 
completing studies or are only construction funds needed to implement 
the plan of action?
    Answer. $25,000 in General Investigation funds have been 
reprogrammed to review plan formulation and conduct an economic update 
of the project benefits. In fiscal year 2000, the Corps has a 
capability, subject to the qualifying language, of $500,000 in General 
Investigations funding to develop a project management plan and 
complete a General Reevaluation Report. The Corps could complete 
preconstruction engineering and design in fiscal year 2001.
    Question. What can the Corps do to re-initiate this project?
    Answer. The Corps recently reprogrammed $25,000 to review plan 
formulation and conduct an economic update of the project benefits to 
reaffirm the Federal interest in further study and project 
implementation.
                          london lock and dam
    Question. The fiscal year 2000 budget request includes $600,000 to 
initiate construction of the London Lock and Dam rehabilitation 
project. This project would replace the upper guard wall and extend the 
lock chamber. The rehabilitation project is needed to avoid any future 
lockage delays on the Kanawha River at London, where traffic exceeded 8 
million tons in 1995.
    What is the total cost of the project?
    Answer. The total cost of the project is $20,300,000.
    Question. When is it scheduled to be completed?
    Answer. The project is scheduled for completion in September 2004, 
subject to receipt of funding to initiate the project construction in 
fiscal year 2000.
    Question. Is any Congressional action other than appropriations 
required for the project?
    Answer. No additional Congressional action is necessary to proceed 
with the project.
    Question. Does the Corps have additional capabilities for fiscal 
year 2000 that would accelerate the completion of this project were 
funds available?
    Answer. In addition to the fiscal year 2000 budget request of 
$600,000, the Corps has additional capability, subject to the 
qualifying language, of $800,000, which would advance completion by one 
year.
                            lower mud river
    Question. The Lower Mud River project, authorized by Section 580 of 
the 1996 Water Resources Development Act, was originally a Department 
of Agriculture project. Its purpose is to mitigate the repeated 
flooding events that have caused extensive damage to the city of 
Milton, West Virginia.
    What is the status of the limited reevaluation report being 
conducted by the Corps on the earlier Department of Agriculture study?
    Answer. The Corps is preparing to enter into a design agreement 
with the West Virginia Soil Conservation Agency to cost share work on 
the Limited Reevaluation Report. It is anticipated that the agreement 
will be signed in May 1999 and the report will be completed in December 
1999.
    Question. What group is the non-Federal sponsor for the 
reevaluation and what funds have they provided for the reevaluation?
    Answer. The West Virginia Soil Conservation Agency will serve as 
the non-Federal sponsor for the reevaluation report. It will provide 
required cost shared funds at the time of execution of the design 
agreement.
    Question. What capabilities does the Corps have for fiscal year 
2000 to move forward with the Lower Mud River project? What funding 
would be required?
    Answer. In fiscal year 2000, the Corps has the capability, subject 
to the qualifying language, of $1,000,000 to continue preconstruction 
engineering and design under the General Investigations appropriation.
                         cooperative agreements
    Question. I understand that the Corps has developed model 
cooperation agreements with ``cookie cutter'' language intended to 
expedite the review and approval process, yet review and approval still 
takes many months. This type of delay costs valuable time, may 
negatively impact the economy, and could increase risks for communities 
and businesses from flooding and transportation uncertainties. At what 
level within the Corps are project cooperation agreements approved?
    Answer. Project cooperation agreements are approved at the 
Washington level unless there is an approved model agreement for that 
particular type of project. If there is an approved model and the 
district does not deviate from the model, then approval is delegated to 
the division or district commander. Except for the Continuing 
Authorities Program, my office approves all agreements not in 
accordance with an approved model.
    Question. Is it the intention of the Corps to eventually delegate 
approval for all project cooperation agreements to the district level 
or lower?
    Answer. While delegation of approval of Project Cooperation 
Agreements was considered, it is not the intention of the Army to 
delegate the approval of these important agreements, except where model 
agreements are in place and followed. The Army considers these 
agreements to be important policy documents laying out the respective 
responsibilities and commitments of both the project sponsor and the 
Federal Government. Moreover, once signed, such agreements bind the 
Government just as they bind the non-Federal sponsor. We intend to work 
with the Corps to identify and put into practice changes in the 
requirements and review process to improve the efficiency with which 
agreements can be reviewed and approved.
    Question. What is the status of the implementation of the project 
cooperation agreement ``cookie cutter'' language?
    Answer. I strongly encourage the efforts of the Corps to develop as 
many model agreements as possible. The approval of more types of model 
agreements, along with options appropriate to specific situations, will 
help to expedite the negotiation process with the sponsor and minimize 
the number of agreements that must come to the Washington level because 
they are not in accordance with law or Army policy. The Corps has 
developed, and I have approved, the use of over 35 model agreements. 
The Corps is currently working an additional five potential models and 
is in the process of identifying what other models are needed to 
support further delegation of project cooperation agreements to the 
division or district commanders. In addition to the development of 
additional model agreements, opportunities are being investigated to 
simplify and expedite the Washington level approval process.
                                 ______
                                 

                 Questions Submitted by Senator Murray

                 columbia river fish mitigation project
    Question. In the Conference Report to the Energy and Water 
Development Appropriations Act for fiscal year 1998 (H. Rept. 105-271), 
the conferees requested the Northwest Power Planning Council, with the 
assistance from the Independent Scientific Advisory Board (ISAB), to 
review the Corps' major fish mitigation capital construction activities 
in the Columbia River Basin. The Power Planning Council divided the 
review into three phases. The first two reports were submitted to the 
Committees in July 1998 and January 1999. The final report is due next 
month.
    Answer. One area reviewed by the ISAB was the Corps' work to 
develop surface bypass/collection facilities at Lower Granite Dam and 
other mainstem projects. The Power Planning Council concurred with the 
ISAB's findings that surface collection continues to show promise and 
should continue to be pursued by the Corps.
    Question. How much of your fiscal year 2000 request is allocated to 
developing and testing surface bypass and surface spill technologies? 
Also please identify which projects are involved in this work, and what 
level of funding is proposed for each.
    Answer. Approximately $35 million is requested for surface bypass 
development and related spill effectiveness and survival evaluations. 
In addition, $5.9 million is requested to continue the `fast track' gas 
abatement efforts which may improve spill conditions for juvenile 
passage. Surface bypass work will be carried out at Lower Granite for 
$8.26 million, at John Day for $5.31 million, at The Dalles for $5.64 
million and at Bonneville for $15.3 million.
    Question. In its first report, the ISAB recommended that the Corps 
pursue surface bypass technologies at John Day Dam instead of extended 
length screens. Please explain how the Corps is implementing this 
recommendation.
    Answer. The Corps is investigating surface bypass at the powerhouse 
through use of existing skeleton bays and funding in fiscal year 2000 
would be used to initiate plans and specifications for construction of 
the surface bypass prototype facility. At the spillway, fiscal year 
2000 work would include testing an overflow weir and initiating a 
Feature Design Memorandum for a raised spillway bays crest, subject to 
preliminary analysis in fiscal year 1999.
    The ISAB has concluded that the subject of adult passage at 
Columbia and Snake River dams has not been adequately dealt with. The 
scientists believe that the Corps' planned activities relating to 
adults are supportable, but probably not sufficient to ensure that 
adult spawning migrations are unimpeded and completed with minimal 
mortality induced passage.
    Question. It is my understanding that only about 9 percent of the 
Corps' fiscal year 2000 budget request is proposed for adult passage 
activities. Do you intend to reexamine this allocation in light of the 
ISAB's findings that more needs to be done for adults?
    Answer. Yes. The ISAB report on adult measures did not identify 
specific passage measures in addition to those underway. However, the 
Corps is presently coordinating with regional interests to determine 
what additional passage improvements should be pursued. Results of this 
coordination may lead to redirection of funds within the budget 
request.
    Question. What additional measures to assist adults will you 
consider?
    Answer. We are looking at both facility improvements and additional 
studies to better understand the critical areas of uncertainty, for 
improved adult fish passage at Corps of Engineers dams. The facility 
improvements include additional backup auxiliary water supply systems, 
automated fishway control systems, replacement/upgrade of diffuser 
gratings and valves, refurbishing/upgrade of fishway entrances and 
weirs, upgrade of fishway staff gauges, and rebuilding fishwater pumps. 
Additional study areas, developed in coordination with regional salmon 
managers, include: relation of adult fallback at dams to specific 
project operations and impacts on fish survival and reproductive 
success; causes of delay in fishways; identification of factors causing 
unaccountable losses of adults; quantification of straying and the 
impact on survival; effects of water quality on migration and survival; 
evaluation of kelt (spawned-out steelhead) passage and survival, and 
improvement of dam count accuracy.
    The ISAB's review has provided useful recommendations on a variety 
of activities including extended length screens, gas abatement 
activities, surface bypass systems, adult passage, and other items.
    Question. How will the Corps ensure that these recommendations are 
given full consideration in the development of future budgets for the 
program?
    Answer. The Corps intends to seek regional recommendations 
regarding how the findings of the ISAB and the Northwest Power Planning 
Council can be implemented in the Columbia River Fish Mitigation 
Project. This is consistent with language in House Report 105-271 which 
states `Upon completion of the review, the Corps of Engineers shall 
seek regional recommendations, as provided by the Bonneville Power 
Administration Fish and Wildlife Budget Memorandum of Agreement dated 
September 16, 1996, on implementing the recommendations contained in 
the review.' The Corps intends to seek the recommendations primarily 
through coordination in existing forums such as the regional System 
Configuration Team. Results of this coordination will be reflected in 
future budget requests for the Columbia River Fish Mitigation Project.
 bonneville and the dalles powerhouse projects replace generating units
    Question. Two construction projects in the Corps' fiscal year 2000 
justification are the rehabilitation of generating units at the 
Bonneville Powerhouse and The Dalles Powerhouse. The original 
completion date, at least for the Bonneville Powerhouse project, was 
2002. It seems unlikely that under the current funding levels that the 
completion date can be met, and the date will more likely be around 
2008 or 2009.
    Is the request of $10,800,000 for fiscal year 2000 for the 
Bonneville Powerhouse enough to maintain the original schedule for 
completion?
    Answer. No, it is not.
    Question. What level of appropriations would be required over the 
next three fiscal years in order to meet the original schedule?
    Answer. For Bonneville, at this point, the original schedule cannot 
be met. Due to requirements of the project biological opinion, units 
can only be completed one at a time, with short duration overlaps. 
Funding at the following levels would advance project completion by 1 
to 2 years: fiscal year 2000 $16.3 million, fiscal year 2001 $11.4 
million, and fiscal year 2002 $10.1 million. For The Dalles, it is 
unlikely the original programmed schedule for completion in fiscal year 
2005 can be regained at this point. Funding levels estimated at $12 to 
$15 million per year beginning in fiscal year 2001 would advance 
project completion by 1 to 2 years.
    Question. If you had greater funding for these projects, what work 
would you prioritize?
    Answer. Work is already prioritized within each project according 
to greatest need and to maximize work efficiency. Greater funding for 
these projects would allow earlier completion of the project by 
accelerating the work.
    Question. What are the implications of not maintaining the original 
schedule in terms of the overall costs of the project, risk of failure 
of the units, and lost efficiency?
    Answer. At Bonneville, not maintaining the original schedule will 
increase somewhat the project cost and risk of failure of the 
generating units, and will delay the expected increase in unit 
efficiency of four to six percent.
    At The Dalles, the original rehabilitation program (Units 1-14) 
included only 9 generator rewinds, since 5 had already been repaired 
under the O&M program. Since initial funding commenced in 1997, two 
additional generators have been rewound, both due to failure. Delays, 
for any reason, increase the risk that additional generating units will 
fail, thus increasing costs for repair, lost power revenues due to 
unscheduled unit outage and reduced plant availability. Loss of an 
estimated 4 percent increase in unit efficiency also results from delay 
of turbine blade replacement. In addition, total project costs increase 
due to out-year inflation as project completion is stretched out.
    Question. What are the impacts in relation to the survival of fish 
during passage?
    Answer. For both Bonneville and The Dalles, past studies indicate 
that the survival of juvenile fish increases with increased turbine 
efficiency. In addition, the shape of the new turbine hub, blades and 
discharge ring have been redesigned at Bonneville to reduce potential 
injury to migrating juveniles that travel through the turbines. If we 
can complete installation earlier, increased juvenile fish survival 
rates should be realized.
                                 ______
                                 

                 Questions Submitted by Senator Dorgan

                           devils lake dikes
    Question. The Corps is currently completing the third phase of 
levee protection for the City of Devils Lake, North Dakota. What is the 
status of the current project to raise the Devils Lake levee (to TOL 
1457 feet)?
    Answer. Sir, the earth work and the riprap to top of levee 1452 are 
substantially complete and the levee protection for the city to top of 
levee 1457 will be complete by September 1999. Three of the five 
pumping stations associated with the levee are complete and 
operational. The remaining two are under construction and will be 
operational this summer.
    Question. I am pleased to learn that the major construction work on 
the dike is complete even though the more costly aspects of the 
project, installing pumps and rockwork, remains to be completed.
    Congress has approved a three-phase increase in the dikes in recent 
years. If the Corps had not proceeded with the diking on an emergency 
basis, can you tell the Subcommittee what the consequences would have 
been?
    Answer. Without the levee protecting the City of Devils Lake, 
approximately one-third of the city, including much of the airport, 
would be in the lake. Wave action from the lake would have destroyed 
additional homes and businesses. Portions of Highways 19, 20, and 2 
running through the city would be under water as well. The rest of the 
city would have remained vulnerable to future lake level rises. We are 
also continuing to take emergency actions, when necessary, for other 
communities and Tribal structures threatened by the rising lake levels. 
Even with these efforts, Devils Lake continues to cause about 
$25,000,000 in damages for every additional foot of rise.
    Question. Indeed, we would have had a full-fledged disaster on our 
hands. As it is, we still face enormous problems and that is why we 
need to proceed with a comprehensive flood fighting strategy that 
includes an outlet for Devils Lake.
    Pursuant to the direction of Congress, the Corps is developing a 
report to Congress on the Devils Lake outlet. What is the schedule for 
completing the draft interim report to Congress on the Devils Lake 
outlet?
    Answer. The draft interim report will be completed by the end of 
April 1999. The report will detail various alternatives to manage the 
rising lake.
    Question. May I note for the benefit of the Chairman and my 
colleagues that this report will be made soon and should give us ample 
time for review before we proceed with the mark-up of next year's 
appropriations bill.
    This outlet plan has been a challenging undertaking since it 
involves a chronic flood that has come and stayed for over five years. 
Can the Corps please describe to the Subcommittee some of the promising 
aspects of the plan which may help to solve this perplexing problem of 
chronic flooding?
    Answer. The Corps is looking into alternatives that would bring 
fresh water to the outlet. The fresh water would be captured prior to 
its entering Devils Lake and mixing with the more saline water 
currently in the lake. The fresh water reduces or eliminates impacts to 
downstream water quality. By eliminating the water quality problem, the 
full capacity of the pump station could be used much of the time, 
thereby increasing the effectiveness of the outlet at reducing the lake 
level and avoiding damages. Pumping would still be restricted to stay 
within the capacity of the Sheyenne River. The Corps is also looking at 
staging construction and using trigger elevations to determine when to 
build portions of the outlet plan. This would cause portions of the 
outlet to be built only when they are needed, improving the cost 
effectiveness of the plan.
    Question. Some have suggested that we could use nearby lakes to 
syphon off some water from Devils Lake on an interim basis. Is there a 
plan which would provide some relatively quick means of containing 
rising water?
    Answer. A controlled gravity channel to the Stump Lakes could be 
effective as an interim emergency measure to slow the rise of Devils 
Lake. The Stump Lake plan could be designed and constructed much 
quicker than the outlet to the Sheyenne River. It also helps manage the 
water within the basin, reducing any outside concerns; although there 
are concerns that would have to be addressed, including impacts to a 
Federal wildlife refuge.
    Senator Byrd. I want to thank the Corps for its cooperation with 
the State of North Dakota and the Devils Lake Region and to encourage 
continued efforts to find workable interim and long-term solutions for 
this critical problem.
                           grand forks dikes
    Question. I understand that there may have been some slippage in 
the construction timetable for completing the Grand Forks dikes--from 
2005 to 2007. What is the current schedule for completion of the Grand 
Forks Flood Protection Project?
    Answer. The scheduled completion for the Grand Forks--East Grand 
Forks project has slipped from fiscal year 2006 to fiscal year 2007 due 
to constrained budget ceilings assigned to our overall construction 
program. The completion date based on the constrained budget ceilings 
is December 2006, a twelve month delay. However, note that this project 
was funded at the full capability in the Budget year, fiscal year 2000.
    Question. What is causing the delays in this critical project?
    Answer. The scheduled completion for the Grand Forks--East Grand 
Forks project has slipped from fiscal year 2006 to fiscal year 2007 due 
to constrained budget ceilings in the outyears. Nationwide, many worthy 
water resource projects compete for a limited amount of annual budget 
ceiling. In order to fund as many projects as possible, most projects 
are funded at a less than optimal level, causing schedules to be 
stretched out; this was the case for the Grand Forks--East Grand Forks 
project.
    Question. Do I understand that the capability of the Corps would be 
to complete the project in 2005?
    Answer. If sufficient funding resources are made available, we 
could complete construction of the Grand Forks--East Grand Forks 
project by December 2005, which is fiscal year 2006.
    Question. I understand that the Corps submitted a reprogramming 
request of $1.1 million for Grand Forks flood control for fiscal year 
1999. Can you tell the Subcommittee the status of this request?
    Answer. Yes sir, the additional $1.1 million requested for the 
Grand Forks, North Dakota--East Grand Forks, Minnesota project was 
received on 16 March 1999.

                          subcommittee recess

    Senator Domenici. We will be back in session 9:30, Thursday 
for a hearing with the Department of Energy.
    [Whereupon, at 12 noon, Tuesday, March 9, the subcommittee 
was recessed, to reconvene at 9:30 a.m., Thursday, March 11.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2000

                              ----------                              


                        THURSDAY, MARCH 11, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:39 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Cochran, Craig, Reid, and 
Dorgan.

                          DEPARTMENT OF ENERGY

          Atomic Energy Defense and Nonproliferation Programs

STATEMENT OF DR. VICTOR H. REIS, ASSISTANT SECRETARY, 
            OFFICE OF DEFENSE PROGRAMS
ACCOMPANIED BY:
        ROSE E. GOTTEMOELLER, DIRECTOR, OFFICE OF NONPROLIFERATION AND 
            NATIONAL SECURITY
        LAURA S.H. HOLGATE, DIRECTOR, OFFICE OF FISSILE MATERIALS 
            DISPOSITION

                           OPENING STATEMENT

    Senator Domenici. First let me, without elaborating, just 
apologize for being late. It was unavoidable on my part, and I 
am sorry. Senator Reid, you had to waste time waiting for me.
    Senator Reid. I had a chance to read my newspaper. I am 
doing fine.
    Senator Domenici. Thank you for coming. This morning, the 
subcommittee will consider the fiscal year 2000 budget request 
for the Department of Energy's defense, nonproliferation, and 
materials disposition programs. Combined, these programs 
account for $5.5 billion of the $18.3 billion requested for the 
Department and are the core of DOE's national security 
function.
    That is a very slight decrease from the current level, 
because of the $200 million provided in 1999 to implement a 
plutonium disposition accord with Russia.
    These programs together are the backbone of our strategic 
nuclear deterrent. On the one hand, we do see the threat to our 
Nation posed by others' weapons of mass destruction, and on the 
other hand maintaining our deterrence against the threat that 
remains. We are considering the programs together because they 
are interrelated. If, for example, in the coming decade when we 
make rapid progress with disposition of plutonium and uranium 
in Russia and our ability to verify our potential adversary's 
stockpile levels we may be able to reduce our nuclear stockpile 
substantially. Conversely, a lack of progress in these areas 
would prevent us from pursuing stockpile reductions.
    We will begin today with Dr. Reis to review the request for 
the Defense Programs, then go to Ms. Gottemoeller, who is 
currently the Director of the Office of Nonproliferation--and 
we are very proud to have you there. She has been nominated to 
this position, and I hope she will be there soon in an official 
capacity--and then we will finish with Ms. Holgate, Director of 
the Office of Fissile Materials Disposition, and we are glad to 
have you also.
    Let me first place a few accolades in the record with 
reference to you, Dr. Reis. Frankly, it has been something very 
solid and beneficial to our nuclear deterrent that you head 
this part of the Department of Energy. I commend and 
congratulate you for the diligent efforts that you have made 
with reference to stockpile stewardship, a new kind of 
stewardship in an era of transition, and it looks like from the 
science standpoint it is working quite well. There is a great 
enthusiasm in the nuclear laboratories for this kind of 
science, which is taking place, since underground nuclear tests 
have been banned in the United States.
    Senator Reid.

                    STATEMENT OF SENATOR HARRY REID

    Senator Reid. Senator Domenici, I appreciate you mentioning 
Dr. Reis. I was going to say a few words about him. I think 
that the American public does not know what public servants do. 
The work that is done by these three individuals, of which Dr. 
Reis is the one that I know certainly the best, having worked 
with him for these many years, makes our civilization such as 
it is.
    The difference between our having a safe, reliable nuclear 
stockpile or not having one is work that we do on this 
subcommittee, and we rely on you for results. I personally 
appreciate all the time and effort and I am glad that you have 
chosen, with your great academic background and your experience 
in the private sector, to stay in public service, because as I 
said, the American public does not realize the importance of 
your job, but Senator Domenici and I do, our staffs, and we can 
say no more than that.
    Mr. Chairman, the stockpile stewardship and management 
program is being adopted by a policy which the nuclear arsenal 
would be maintained. There were numerous discussions by many in 
the administration and here in Congress regarding the minimum 
amount needed, and I am pleased to see the budget request is at 
that level which we have talked about for a number of years, 
$4.5 billion.
    Now there have been questions about what the needs of the 
program are. We are going to talk about that today, the 
National Ignition Facility, Dual Access Radiographic 
Hydrodynamic Test Facility, and others that are essential to 
the verification, and safety and reliability of the nuclear 
arsenal.
    But as I see it, there are two convincing arguments 
applying to the rationale for these investments and others. 
Science must be comprehensive to keep the verification 
credible. The laboratories consisting of experts to coordinate 
with the Department have to come together on these projects.
    Now, the question is, what is the future of both the 
science and the credibility and the verification and 
reliability? At this point, from our perspective the question 
for the future rests on whether the labs and the tests at the 
Nevada Test Site will be functioning as active partners in the 
validation of the science of the Stockpile Stewardship program.
    What we saw in the President's budget did not make me 
happy, but I have recently been given information that 
indicates a serious effort to better integrate the Nevada Test 
Site into the stockpile stewardship and management program, and 
so that is one of the things that we will be watching.
    I note the Chiles Commission has reported that of all the 
centers necessary to maintain confidence without testing, the 
Nevada Test Site has the highest average age of personnel. 
Consequently, either by retirement or death, expertise is 
leaving the Nevada Test Site at an extremely rapid rate.
    So Dr. Reis, I recommend that you repeat the success at the 
National Labs at the Test Site with the implementation of a 
similar program that will attract and maintain highly motivated 
and skilled personnel who could effectively turn their energies 
to the resumption of testing or whatever else is necessary to 
maintain the safety and reliability of our arsenal.
    The magnet that attracts an enduring workforce, without 
which the test ban treaty becomes somewhat meaningless as far 
as I am concerned, is a new technically challenging program 
that has a front line role in the safety and reliability of the 
arsenal.
    So I look forward, as I indicated, to working with you and 
this subcommittee will look forward to getting our bill to the 
floor as rapidly as possible.
    Thank you, Mr. Chairman.

                    statement of dr. victor h. reis

    Senator Domenici. Thank you, Senator Reid.
    Dr. Reis, you may proceed.
    Dr. Reis. Thank you, and thank you, Senator Domenici and 
Senator Reid for your kind remarks about my service. One of the 
gratifying parts of that, of course, is working with people 
like yourselves and your staffs, and that makes it all 
worthwhile.
    Senator Domenici. Thank you.
    Dr. Reis. I have a relatively short oral statement, and 
with your permission I will submit my full statement for the 
record.
    Senator Domenici. It will be incorporated.

              meeting the stockpile stewardship challenge

    Dr. Reis. Mr. Chairman, Senator Reid, the challenge of 
stockpile stewardship is to maintain the safety, reliability, 
and performance of the current U.S. nuclear weapons 
indefinitely without underground nuclear explosive tests. This 
is indeed a major challenge.
    We are asked to maintain forever an incredibly complex 
device no larger than a desk filled with exotic radioactive 
materials that must create, albeit it briefly, temperatures and 
pressures only seen in nature at the center of stars, do it 
without integrating nuclear tests and without any reduction in 
extraordinarily high standards of safety and reliability and, 
while we are at it, downsize the industrial complex that 
supports this enterprise by a factor of two, and start up 
critical new manufacturing processes.
    We must do this with an industrial system that was 
structured to turn over new designs every 15 years and for 
which nuclear explosive testing was the major tool for 
demonstrating success. We must meet this challenge, restructure 
the complex, and do most of it within the next 5 to 10 years, 
while the current weapons are still within the design life and 
the designers, production and test folks are still active.
    Mr. Chairman, it has been over 10 years since new weapons 
production stopped and over 6 years since the last underground 
nuclear test, and I would claim we are meeting the challenge. 
We have certified the stockpile as safe and reliable 3 years 
running. The major elements of the program are in place, and 
the budgets are projected to be stable in the outyears. While 
there is still much to do, it is fair to say that the road 
ahead is reasonably well-mapped and what remains is to but 
integrate the pieces and to stay the course.
    In short, I believe that all of the many external reviews 
have concurred that Stockpile Stewardship is a successful 
program. Why do I say that? First of all, there is a compelling 
national mission. Despite the end of the Cold War, nuclear 
weapons play a leading role in the Nation's policy of strategic 
deterrence.
    Strategic deterrence is the bedrock of all of our national 
security efforts. At the same time, the maintenance of a safe, 
secure, and reliable nuclear force underpins our arms control 
efforts. It is as described in the Presidential Commission for 
Ratification of the Comprehensive Test Ban Treaty of ``supreme 
national interest.'' That goal acts as the one and only beacon 
for the Defense Programs and the weapons complex.

                   lab missions flow from stewardship

    Stewardship provides an enormous technical and scientific 
challenge to the DOE's nuclear weapons laboratories, Los 
Alamos, Livermore, Sandia National Laboratories, which are 
designed to respond to big national technical challenges. They 
work best in such an environment as, indeed, do the folks at 
the Nevada Test Site.
    In a few short years, Stockpile Stewardship has become what 
is probably the world's largest single-purpose scientific 
program. Our industrial partners have built by far the world's 
largest computers and those computers are solving real problems 
throughout the complex.
    Subcritical experiments, hydro testing, laser pulse power, 
and a variety of other experimental facilities are helping to 
validate codes and bring the necessary understanding to provide 
confidence in the stockpile now and in the future. I think it 
is fair to say that the labs are working together with the 
other parts of the nuclear weapons complex, industry, and 
academia better than ever. Other lab missions flow from 
stewardship, not compete with it.

               production complex response to stewardship

    Stockpile stewardship has likewise changed the rest of the 
complex. With the end of the Cold War, there is no new 
requirement for nuclear weapons production, though there 
remains a requirement to return to production, if so ordered.
    The most obvious part of this change has been the 
downsizing of the physical plant, the ending of production at 
Rocky Flats, Pinellas, and Mound, and the shifting of 
responsibilities, equipment, and people to other parts of the 
complex.
    As the stewardship requirements have become better 
understood, the production complex--Oak Ridge Y-12, Kansas 
City, Pantex and Savannah River have--has fully responsive to 
the stewardship mission.
    This new production activity is driven by recognizing that 
if the stockpile is to remain viable forever, and that is the 
mission, then every part of every weapon must sooner or later 
be replaced and certified. This means that every part must be 
thought of as a limited life component, and there is a premium 
for knowing when a part must be replaced, and there is a 
premium for developing and certifying new, efficient, safe, and 
environmentally friendly production processes.
    All of this is embedded in the Stockpile Life Extension 
Program, SLEP. The first W87 life extension unit will be 
delivered to the Air Force this May. SLEP will drive production 
in the complex no less than certification, but it must be part 
of an integrated whole. That integrated whole must fit within a 
relatively fixed budget. That is why we are continuing to look 
hard at consolidating the production plant management into a 
single contract.

                           tritium production

    The last programmatic element I will mention is tritium, 
the ultimate limited life component. When I came to DOE some 5 
years ago, the new source for tritium was a headline item. What 
would the new source be and where would it be located?
    Last December, Secretary Richardson announced that we will 
buy irradiation services from the Tennessee Valley Authority 
[TVA], and the accelerator production of tritium will be a 
back-up. Negotiations with TVA based on the Economy Act are 
essentially complete.
    Mr. Chairman, this is the fifth defense program's budget 
that has revolved around Stockpile Stewardship. We have a clear 
goal. We have the people and elements of the program in place. 
We have demonstrated success across a wide variety of 
stewardship tasks. We have a budgetary commitment. The task is 
now to complete the integration of the Defense Program complex 
and to stay the course.

                           prepared statement

    With your continued support, we will continue to meet the 
challenge of maintaining the nuclear weapons stockpile, a 
supreme national interest.
    Thank you very much.
    [The statement follows:]

                  Prepared Statement of Victor H. Reis

    Mr. Chairman and distinguished members of the Committee, thank you 
for the opportunity to testify on the Department of Energy's fiscal 
year 2000 Defense Programs budget request of approximately $4.5 billion 
for the Stockpile Stewardship Program. This budget continues support 
for critical initiatives begun during the past five years that are 
creating and using the new tools and technologies needed for science 
based stewardship. These tools and technologies are necessary as we 
seek to maintain a high level of confidence in the safety and 
reliability of the U.S. nuclear weapons stockpile without nuclear 
testing.
    It has been nearly 10 years since we have manufactured a new 
nuclear weapon and over six years since the last underground nuclear 
test. Our confidence in the safety and reliability of the current 
stockpile remains high. The third annual certification of the nuclear 
weapons stockpile was transmitted to the President by the Secretaries 
of Energy and Defense on December 22, 1998. It states that the 
stockpile is safe and reliable and that there is no need to conduct an 
underground nuclear test at this time.
    The Stockpile Stewardship Program faces formidable challenges: 
continue to maintain an aging stockpile; restructure and modernize the 
weapons complex; and, retain the capability to resume nuclear testing 
and meet production requirements appropriate to future national 
security needs. The Department is meeting these challenges and is 
confident of its abilities to maintain the stockpile without testing.
    We have laid out a plan--weapon by weapon, part by part, that 
addresses the tasks required to maintain the stockpile over the next 
ten years, and beyond. We have support on this program from the 
Department of Defense, and the Administration has committed to funding 
this program and all its parts. And, we have a back up. The President, 
as one of the safeguards under which this nation would enter into the 
Comprehensive Test Ban Treaty (CTBT) requires us to maintain the Nevada 
Test Site in a state of readiness should there ever be circumstances in 
which we would return to testing. The successful subcritical and other 
experiments conducted there bear evidence that the Nevada Test Site 
remains a ``can do'' operation. There is a joint DOD/DOE review of the 
entire test readiness program for the 2001 budget process.
    Another Presidential safeguard under the CTBT requires us to 
maintain the vitality of the nuclear weapons laboratories--Los Alamos 
(LANL), Lawrence Livermore (LLNL) and Sandia. History tells us that 
great laboratories need great missions like the Manhattan and Apollo 
projects. The enthusiasm and vigor with which our laboratories are 
embracing the Stockpile Stewardship Program bear witness that it too is 
a great mission. The program is attracting the kinds of people drawn to 
the challenge of solving tough issues of national importance.
    Although we continue to plan and refine the Stockpile Stewardship 
Program, it is already working. We have modified the B61 bomb and have 
seen it enter the stockpile to replace the aged B53 bomb. We are 
constructing new experimental facilities and tools--the National 
Ignition Facility (NIF), the Dual-Axis Radiographic Hydrodynamic Test 
Facility (DARHT), and Atlas--and our computation program has developed 
the world's fastest supercomputers. By using stewardship tools, we have 
solved some problems that in the past would have most likely required 
nuclear testing. We have done literally hundreds of experiments with 
existing facilities that increase our understanding of nuclear weapons. 
We have safely dismantled over eleven thousand nuclear weapons since 
1991, and have produced numerous parts, on time, while continuing to 
downsize the production complex.
             stockpile stewardship interagency coordination
    A key element of the Stockpile Stewardship Program's continued 
success is an effective corporate level strategic planning process. I 
am pleased to advise you that we are on schedule to transmit the fiscal 
year 2000 Stockpile Stewardship Plan (SSP), also called ``The Green 
Book'' to the Congress by mid-March. In the development of the SSP, we 
rely heavily on the Department of Defense, the National Security 
Council staff, the Office of Science and Technology Policy, the OMB, 
and other senior policy officials in the ``nuclear community'' to help 
ensure that we are on the right track. The feedback we have received on 
this year's Plan is very favorable. In fact, I was recently informed in 
a letter from the Commander in Chief of the U.S. Strategic Command, 
Admiral Richard Mies, that this Plan reflects a strong commitment by 
DOE to solicit and address the concerns of the nuclear weapons 
community.
    During 1998, the Nuclear Weapons Council (NWC) formed joint DOE/DOD 
teams to review four major areas of the Stockpile Stewardship Program: 
tritium, the Accelerated Strategic Computing Initiative (ASCI), the 
National Ignition Facility (NIF), and pit production. The Nuclear 
Weapons Council concluded that these joint DOE/DOD team efforts were 
worthwhile, generating alternative options and validating DOD 
requirements and DOE plans. The NWC found that tritium, NIF and ASCI 
programs were on-track. The NIF program integration was identified as a 
potential concern by the NWC which we are addressing now. The NWC 
further examined the management and oversight cost controls of ASCI 
software development in more detail and found that the proper project 
cost and schedule controls are in place. After reviewing the DOE pit 
production plan and alternatives for larger and smaller production 
capacities developed by the joint DOE/DOD team, the NWC decided that 
the current DOE plan is a prudent approach. The NWC approved DOE's pit 
manufacturing strategy and will monitor the development of long-term 
plans. This strategy for pit manufacturing will be detailed in our 
response to the fiscal year 1999 National Defense Authorization Act and 
submitted to Congress shortly.
    To better retain U.S. nuclear capabilities, we have been working 
closely with the Commission on Maintaining U.S. Nuclear Weapons 
Expertise, better known as the Chiles Commission. As you know, Congress 
tasked the Commission with developing a plan for recruiting and 
retaining scientific, engineering, and technical personnel that the 
Commission deems are needed, across the nuclear weapons complex over 
the long term, to maintain a safe and reliable nuclear weapons 
stockpile without nuclear testing.
                  how stockpile stewardship is working
    For the benefit of new Committee members, I will briefly summarize 
the Stockpile Stewardship process and the challenges it now faces 
before I go into a more detailed discussion of program elements. Each 
year representative samples of each type of weapon are returned to 
Pantex from the active forces and are disassembled, examined, tested, 
and analyzed for defects, much as you would go for an annual physical 
or take your car into your local automobile mechanic. If any defects 
are found, their effect on reliability and safety is assessed. If that 
effect is deemed significant, the defective part is remanufactured and 
replacedand a nuclear weapon has about as many parts as a modern 
automobile. Like the battery or spark plugs in your car, some parts, 
for example, neutron generators and gas reservoirs, require replacement 
at regular intervals. Other parts of a nuclear weapon are made from 
radioactive materials which decay such as plutonium, enriched uranium 
and tritium; and as they decay, may change both their own properties 
and the properties of other materials within the weapon.
    Remanufacturing replacement parts sounds simple, but subsequent to 
the time that many of the current weapons in the stockpile were 
originally manufactured, some of our production plants have been closed 
and manufacturing processes, techniques and standards have changed. 
General Motors does not build cars the same way it did 40 years ago. 
Everyone is more health and safety conscious and more concerned about 
waste. Today, replacement parts require even tighter production 
controls than the extraordinarily rigid standards under which the 
original parts were designed and manufactured. A nuclear weapon, less 
than the size of a small desk, has enough explosive power to completely 
destroy a modern city, and yet it must be able to survive extraordinary 
accidents with less than a one-in-a-million chance of exploding. New 
industrial materials and new manufacturing processes make it hard to 
get exact replacement parts for an old car or appliance. Yet, we must 
produce replacements with modern material and processes that will still 
maintain weapons safety and reliability.
    As our stockpile weapons age we expect more parts to become 
defective--just as with our automobiles. Because new warheads have not 
been produced since 1989, we cannot replace old weapons with new ones. 
In addition, our weapons designers with nuclear testing experience are 
also aging. In about ten years, most of them will have retired. This 
means that as our newest system, the W88, reaches the end of its 
original design life in 2014, and we may no longer have anyone with the 
necessary job experience to perform underground testing of nuclear 
weapons. Similarly, the engineers and technicians who originally 
produced even this newest weapon may also be gone. It is this time 
factor that is critical to the success of the Stockpile Stewardship 
Program.
    Since we cannot do a complete underground test of a nuclear 
explosion, we can divide the explosion sequence into each of its parts, 
then test and analyze each of these separately, much as you would test 
the ignition system, the cooling system, and the brakes on your car. We 
plan to put all the data together into a computer and develop 
simulations to see if the resulting performance is within 
specification. Each part of the simulation must predict the results of 
each of the separate tests, and where they exist, the results must be 
consistent with data from previous underground nuclear tests. We have 
already begun this process.
               stockpile life extension and surveillance
    We are working closely with the DOD to finalize detailed plans to 
extend the lifetime of each weapon system in the stockpile. The 
Stockpile Life Extension Program (SLEP) is DOE's planning framework for 
a proactive management of system maintenance activities. Under SLEP, 
options are developed to address potential refurbishment actions. These 
options address correcting known problems, preventing foreseeable 
problems, and improving safety and use control. These life extension 
options allow the Department and DOD to anticipate and plan for future 
resource requirements such as workforce, skill mix, equipment, and 
facilities.
    These requirements provide the framework for stockpile 
refurbishment workload and stockpile research and development 
activities at our laboratories and provide guidance for our production 
plants in the design and certification of replacement components, 
validation of new materials, and development and certification of new 
manufacturing processes. The cycle is continuous and is closely 
integrated. Data and information from our surveillance programs and 
from the hundreds of experiments and simulations being performed to 
help identify which parts of a weapon are aging gracefully and which 
parts present current and potential future problems.
    Stockpile surveillance has been a major element of the U.S. nuclear 
weapons program ever since the first weapons were put into service. 
Approximately 100 stockpile weapons are thoroughly examined each year. 
The results provide data not only for assessing the current safety and 
reliability of the stockpile, but also for developing predictive models 
and age-focused diagnostics required to anticipate weapons 
refurbishment requirements.
    The technologies and methods, as well as a fundamental 
understanding of materials properties and weapons science, to 
significantly improve detection and predictive capabilities are being 
developed in the Enhanced Surveillance Program (ESP). An aging 
mechanism in a stockpile high explosive was identified through the ESP, 
ultimately concluding that the changes actually improved the stability 
of the explosive. This assessment is permitting the reuse of the high 
explosive during the W87 life extension program, thus avoiding 
significant costs. We have also embarked on a novel strategy to 
accelerate the aging process in plutonium. The capability to predict 
the lifetime of components made from plutonium will permit us to more 
accurately identify when pit replacements are needed and when facility 
investments must be made in order to support pit replacement.
    Dual revalidation is designed to provide a baseline assessment of 
the condition of weapons in our aging stockpile. Two teams, one from 
the laboratory that originally designed and developed a weapon and the 
second from the other weapons laboratory, are performing in-depth 
evaluations of the weapon's ability to meet revalidated military 
requirements. The W76 is the first weapon to be reviewed. Each team has 
performed at least one system hydrotest on the W76, and they have 
collaborated on a Shipboard Vibration Test. The review of the W76 will 
be completed in December 1999. The dual revalidation peer review 
program not only baselines the weapon system, but also provides an 
excellent opportunity for experienced designers to pass their skills on 
to the next generation of scientists and engineers.
                       manufacturing capabilities
    Manufacturing continues to play a critical role in the Stockpile 
Stewardship Program. During fiscal year 1998, almost 1,000 Limited Life 
Components (LLCs) were produced. Plans call for the production of over 
1,300 LLCs in fiscal year 1999. These product deliveries signal the 
successful transfer of production activities from plants which have 
been closed. The weapons complex is also performing major refurbishment 
actions on several weapon types, including the B83, B61, and the W87. 
In December 1998, the Y-12 plant at Oak Ridge completed and shipped to 
Pantex the first refurbished component for the life extension program 
of the W87 under our Stockpile Life Extension Program. Earlier this 
month, the first deliveries of electronic and mechanical parts for the 
W87 life extension were shipped to Pantex from the Kansas City plant. 
The first W87 life extension unit will be assembled at Pantex by the 
end of this month with the first group of units due for delivery to the 
Air Force in May. This is considered a major milestone in meeting a DOE 
commitment made to the Air Force.
    The Advanced Manufacturing Design and Production Technologies 
Initiative (ADAPT) is providing the manufacturing complex with advanced 
capabilities for: designing, developing, and certifying components and 
systems; and for producing, assembling, and delivering the components 
and systems products. ADAPT is radically changing how DOE supports the 
nuclear weapons stockpile by infusing new product and process 
technologies, and by adopting state-of-the-art business and engineering 
practices. Our production complex must take advantage of modern 
manufacturing techniques. As an example, a secure communications and 
data network was established among the production plants and 
laboratories which is facilitating rapid interchange of design and 
manufacturing information related to the W87 life extension program. In 
the future, this will serve as the backbone of a modern simulation 
product realization environment. The network is already reducing the 
time needed to produce classified parts, in some instances up to 90 
percent.
    We remain committed to maintaining a robust and world-class 
microelectronics capability at Sandia National Laboratories. This 
effort will allow us to both develop and exploit emerging technologies 
that show great promise for miniaturizing weapon components and 
improving their reliability and for maintaining a critical capability 
in radiation- hardened electronics needed to address the threat 
environments of the future.
    Toward that end, in December 1998, the Department of Energy and 
Intel Corp. announced that Intel Corp. will provide a no-fee license 
for its Pentium processor design to Sandia National Laboratories for 
the development of custom-made radiation-hardened microprocessors for 
use in United States satellite, space vehicles, and defense systems. 
The agreement will save U.S. taxpayers hundreds of millions of dollars 
in microprocessor design costs and provide the federal government with 
a ten-fold increase in processing power over the highest performing 
existing technology. Radiation hardening ``immunizes'' systems and 
applications from ionizing radiation, such as cosmic rays, which affect 
the reliability of conventional electronics. Prototypes of the custom 
chips will be fabricated and tested at Sandia's Microelectronics 
Development Laboratory. While our production workload is certainly far 
smaller than in the past, the demands on our manufacturing processes 
have actually increased. Let me explain what I mean. We now know how 
critical baseline data is to stockpile certification in the absence of 
underground testing. Understanding how parts change over time involves 
comparing old and new parts. In the past, our production facilities 
built components with a primary focus on staying within design and 
process specifications. However, we have learned that seemingly 
insignificant variations in products or processes at the time of 
manufacture can often be the key to component lifetime and hence to 
weapon performance.
    Thus, we have significantly expanded the amount and type of 
baseline data, critical to modeling, collected during production. We 
now record much more than just the product specifications. We collect 
information on the physical and chemical properties of individual parts 
as well as the constituent raw materials. New parts receive significant 
analysis using new technologies and characterization tools covering the 
full scale from the microscopic to macroscopic level. Processes are 
also being re-instrumented to capture key parameters during production. 
All information is collected in readily accessible databases. The 
future of certification relies, in part, on our ability to accurately 
record the condition of parts as they were built. These investments in 
baselining tools and technologies will continue across the complex with 
future life extension activities.
    We are continuing to right-size and modernize our production 
complex for the 21st Century. The Stockpile Management Restructuring 
Initiative (SMRI) is the first step and includes the tritium facilities 
at the Savannah River Site; uranium machining, recycling and storage 
facilities at the Oak Ridge Y-12 Plant; assembly and high explosive 
fabrication facilities at the Pantex Plant; and non-nuclear production 
facilities for electronic, electro-optical devices, plastic and 
machined parts at the Kansas City Plant.
    A pit production capability is being reestablished at the Los 
Alamos National Laboratory, a capability the DOE has not had since the 
closure of the Rocky Flats Plant in 1989. A W88 first development unit 
pit was successfully produced last year and by 2001, the first pit for 
stockpile use will be produced. By 2007, LANL will have a limited 
capability to manufacture replacement pits for the units destroyed 
during surveillance activities.
    The final phase of a five year process to resume enriched uranium 
operations at the Oak Ridge Y-12 Plant will be completed in fiscal year 
1999. The Kansas City Plant has now been qualified for the production 
of tritium gas reservoirs for the W76, W78 and W80 warheads and Sandia 
National Laboratories will soon have a new production facility on-line 
for neutron generators and will deliver almost 300 units in fiscal year 
2000.
    In November 1998, the Heartland supercomputer, one of the largest 
and most powerful computer systems operating in a North American 
manufacturing facility was installed at the Kansas City Plant. This 
system is quickly becoming a key asset in solving production problems 
by simulating production processes with some of the same software that 
is used in engineering and physics simulation on weapon systems and 
which would previously have required very expensive prototypes. For 
example, the Heartland supercomputer has been used to evaluate new 
forge weld designs on such products as the W87 reservoir transfer tube, 
to determine process parameters for filling electronic systems with 
foam for structural integrity, and to evaluate soldering techniques in 
the radar systems for the B83 and B61.
    In addition, over 1,000 nuclear warheads were safely dismantled at 
the Pantex Plant in fiscal year 1998, approximately 275 dismantlements 
will be completed in fiscal year 1999, and 375 dismantlements are 
planned for fiscal year 2000. The decrease in quantity after fiscal 
year 1998 does not reflect a decrease in workload because the systems 
remaining to be dismantled involve more complicated procedures and 
therefore, require additional time and resources. Dismantlements 
resulting from the nation's response to START I, however, will 
essentially be completed by fiscal year 2001.
    In December 1998, Secretary Richardson announced that a review of 
the management structure throughout the DOE would be conducted. Until 
this review is completed, no decision will be made on the Department's 
proposal to consolidate contracts at our defense weapon production 
facilities. Under this concept, the management and operating contract 
for the Kansas City Plant in Kansas City, Missouri, the Y-12 Plant in 
Oak Ridge, Tennessee, and the Pantex Plant in Amarillo, Texas, would be 
consolidated into a single contract to improve programmatic performance 
and integration.
                                tritium
    Current policy requires the Department to develop a new tritium 
production source by about fiscal year 2005 to support a START I 
nuclear stockpile with a five-year reserve, and to maintain the ability 
to ``hedge'' to a START I level even if the START II Treaty enters into 
force. Tritium, which decays fairly rapidly, has not been produced in 
the U.S. since 1988 and defense requirements have been met by the 
recycling of tritium from dismantled weapons. Secretary Richardson 
announced on December 22, 1998, a decision to use existing light water 
reactors as the primary source of tritium production. He designated the 
Tennessee Valley Authority's Watts Bar and Sequoyah reactors as the 
preferred facilities. Consistent with the Department's dual track 
strategy, the Secretary designated the linear accelerator as the back 
up technology for tritium production. As such, the Department will 
complete engineering development and preliminary design for the 
Accelerator Production of Tritium (APT). The Secretary stated that the 
use of existing TVA reactors was preferred because this alternative 
uses proven technology, offers the best deal for taxpayers, has the 
most flexibility to meet present and future tritium requirements, and 
is most consistent with U.S. arms reduction goals. An interagency 
agreement with TVA under the Economy Act on an as-needed, pay-as-you-
go, cost basis is nearing completion and will result in operating costs 
being as low as possible for the production of tritium.
    The Secretary of Defense publicly endorsed the Secretary's tritium 
production decision, and the Chairman of Nuclear Regulatory Commission 
(NRC) has made a commitment that the NRC will expeditiously review 
requests for regulatory approvals associated with the use of tritium-
producing fuel rods in NRC-licensed reactors. The production of tritium 
at TVA facilities is expected to begin in 2003. The tritium gas will be 
extracted from the rods at the Tritium Extraction Facility (TEF) at the 
Savannah River Site. Construction of the TEF will begin in fiscal year 
2000 and will be completed in time to support stockpile tritium 
requirements.
    During the three years since the Record of Decision on the 
Environmental Impact Statement for Tritium Supply and Recycling, the 
projects for both dual-track options were subjected to numerous reviews 
by independent groups of experts. Regulatory oversight was provided by 
the Defense Nuclear Facilities Safety Board and the U.S. Nuclear 
Regulatory Commission (NRC) in appropriate areas. A review of 
nonproliferation aspects was provided by an interagency review group.
                         experimental programs
    It is at the DOE's Los Alamos, Sandia, and Lawrence Livermore 
National Laboratories and at the Nevada Test Site that the science base 
of the Stockpile Stewardship Program is developed. Experimentation is 
how, in the absence of nuclear testing, we divide the physics of the 
explosive sequence into each of its parts, and analyze each separately. 
Information that we have from the production and surveillance 
activities described previously, helps us to focus our experimental 
work. Information that we have from over 1,000 U.S. nuclear tests also 
tell us what we don't know and where we need to fill in gaps in our 
knowledge through experiment and observation.
    Hundreds of experiments, large and small, are performed each year 
in support of Stockpile Stewardship. Subcritical experiments performed 
at the Nevada Test Site have received considerable publicity. The sixth 
subcritical experiment, Clarinet, took place on February 9, 1999. This 
experiment was the second of three planned for fiscal year 1999. Two 
subcritical experiments are planned for fiscal year 2000 and additional 
subcritical experiments are being considered.
    Subcritical experiments provide empirical data on the high pressure 
behavior of plutonium; realistically benchmarking data on the dynamic, 
non-nuclear behavior of components in today's stockpile; analyzing the 
effects of remanufacturing techniques; understanding the effects of 
aging materials; and addressing other technical issues. Information 
from these experiments will be key to qualifying the pit production 
capability at Los Alamos National Laboratory (LANL), as well as 
certifying the performance of weapons which will contain the 
replacement pits. These experiments also contribute significantly to 
the maintenance of the critical infrastructure and educational base of 
skilled personnel at the Nevada Test Site. In addition to helping us 
understand the effects of aging on plutonium, these experiments are key 
to our test readiness program. Subcritical experiments are consistent 
with the safeguards under which the President has recommended 
ratification of the Comprehensive Test Ban Treaty (CTBT).
    We do a good job of investigating the first part of the nuclear 
explosion; that is, the implosion of the plutonium pit by high 
explosive, with non-nuclear experiments. We can measure a number of 
important features by taking x-ray pictures during critical parts of 
the experiment. We can then compare these pictures with calculations 
and with previous data from the more than 1,000 underground nuclear 
tests and 14,000 surveillance tests. During fiscal year 1998, we 
conducted some 50 non-nuclear hydrotests at the Pulsed High Energy 
Radiographic Machine Emitting X-rays (PHERMEX) and the Flash X-Ray 
(FXR) machine facilities at LANL and Lawrence Livermore National 
Laboratory (LLNL). We will do approximately the same number in fiscal 
year 1999 and in fiscal year 2000. In addition, we plan to conduct 
approximately 150 less complex experiments per year aimed at 
understanding and answering questions about high-explosives behavior 
and explosive effects on materials.
    Experiments using the Los Alamos Neutron Science Center (LANSCE) 
are investigating proton radiography, a new technique in which proton 
beams from a linear accelerator are used directly in a novel approach 
to hydrodynamics-radiography that, if successful, could provide 
additional information to our process of certifying pits. This 
technique is one of the candidate technologies being considered to make 
detailed, three-dimensional ``motion pictures'' of the implosion 
process. Smaller-scale dynamic proton radiography experiments have 
already been performed at LANSCE to address important certification 
issues (e.g., cold high-explosives performance), paving the way for 
validation of advanced explosives simulation models.
    This year we will be conducting a series of measurements at the 
Brookhaven National Laboratory as a next step in evaluating protons for 
weapon radiography. Such technology could be used in an advanced 
hydrotest facility. Accelerator experiments are also being used to 
probe basic properties of weapons materials that have a direct bearing 
on the functional lifetime, hydrodynamic behavior, nuclear performance, 
aging and corrosion of weapons materials and components. Based on these 
experiments, data can be extracted on equation of state, strength, 
microstructure, and aging properties of weapons materials.
    In the area of inertial confinement fusion (ICF), the Department is 
conducting an aggressive research program to support the stockpile. In 
order to transfer resources to the National Ignition Facility project, 
the Nova laser at LLNL is scheduled for shutdown in 1999. Program 
emphasis will shift to the Omega laser at the University of Rochester. 
About 1,300 shots are planned for Omega in fiscal year 2000. A major 
activity at Omega in fiscal year 1999-2000 will be installation and 
operation of a cryogenic target handling system in preparation for 
deuterium-tritium cryogenic fuel implosion experiments.
    In 1998, the Z-pulsed power facility at Sandia National 
Laboratories achieved a record x-ray energy and temperature levels. In 
1999 and 2000, we plan to conduct about 160 shots in Z in the areas of 
weapons effects, weapons physics and NIF ignition. The major activity 
in Z over the next two years will be the installation of the Beamlet 
laser from Lawrence Livermore National Laboratory which will be used as 
a diagnostic on Z. This diagnostic will enhance investigations in all 
areas. The ICF program is implementing a detailed multi-laboratory 
national ignition plan to achieve ignition and to address other 
stewardship issues during NIF operations.
    These, and other experimental facilities that are on line or under 
construction, are expected to give us a set of tools sufficient to 
investigate and understand anticipated problems in the stockpile. 
Whenever feasible, the goal is to obtain data experimentally by more 
than one method in order to improve our confidence in the associated 
physics models being used in the advanced Accelerated Strategic 
Computing Initiative (ASCI) simulation codes.
               progress on major experimental facilities
    Construction is well underway for three major facilities that are 
essential to the long-term success of the Stockpile Stewardship 
Program--the National Ignition Facility (NIF), the Dual-Axis 
Radiographic Hydrodynamic Test Facility (DARHT), and Atlas. NIF, the 
world's largest laser, will enable our scientists to generate 
conditions of temperature and pressure approaching those that occur in 
nuclear weapons. Demonstrations of how aged or changed materials could 
behave under these unique conditions will provide data essential to 
test the validity of computer based predictions. The NIF building is 
about 47 percent completed. The siding and roofing were completed in 
November 1998. A major event this summer will be the installation of 
the target chamber. The first NIF experiments are planned to begin in 
October 2001 using eight of 192 laser beams. The NIF is expected to be 
completed on schedule in October 2003, and on budget at $1.2 billion.
    We continue making good progress in completing the DARHT facility. 
This facility will examine the shape and size of an imploding pit model 
from two different directions with greatly improved radiographic 
resolution. DARHT will also demonstrate a capability of multi-pulsing 
to obtain pictures at more than one point in the implosion process. 
Construction of the facility to house the x-ray machines was completed 
and the first arm of the facility, using a single pulse accelerator, 
will be operational with experiments scheduled to begin this summer. 
Design and prototyping of the second arm is well underway and this 
multi-pulse machine is scheduled for completion in fiscal year 2002.
    The Atlas pulsed power facility is under construction at LANL. The 
design of Atlas is complete, the large and long-lead procurements have 
been placed, and the assembly of the first segment of the machine is 
underway. The Atlas facility is scheduled to be completed and commence 
operations in 2000. Atlas will provide an improved capability to 
conduct hydrodynamic experiments for assessment of secondary assemblies 
in nuclear weapons.
                       simulation and computation
    The Accelerated Strategic Computing Initiative (ASCI) is developing 
the high-performance computational modeling and numerical simulation 
capabilities necessary to integrate theory, existing data, and new 
experimental data to predict results that can be verified and 
validated. The ASCI program, a collaborative effort between the 
Government and U.S. industry, is developing the world's fastest, most 
powerful computational and advanced simulation and modeling 
capabilities. These advanced supercomputers are needed to complete the 
shift from nuclear test-based methods to science-based methods and to 
assess and certify the safety, security, and reliability of the 
stockpile without underground nuclear testing.
    Advanced computational capabilities that include application codes, 
computing platforms, and various tools and techniques, are being 
developed under ASCI and incorporated into ongoing stockpile 
computational activities. This technology is being developed at about 
twice the rate of commercial computing speed and power advances. ASCI 
has been highly successful in meeting its milestones and providing 
effective new tools to support stockpile stewardship. Information 
developed from other elements of the Stockpile Stewardship Program, 
such as NIF and our subcritical experiments, will provide the basic 
physics models and data for ASCI simulations.
    At the end of fiscal year 1998, ASCI unveiled its second generation 
of computing systems. Two major systems capable of running in excess of 
three trillion operations per second (3 teraops) peak speed were 
delivered ahead of schedule and within budget. Blue Pacific, developed 
by IBM, is located at LLNL, and Blue Mountain, developed by Silicon 
Graphics, Inc., is located at LANL. These systems are each 15,000 times 
faster and have roughly 80,000 times the memory of the average personal 
desktop computer. On February 12, 1998, the Department announced the 
selection of IBM to partner with ASCI on the Option White 10 teraops 
supercomputer to be located at LLNL. Building upon the experience and 
knowledge gained with the 3 teraops Blue Mountain system, LANL will 
conduct a procurement for a computational system that will achieve a 
peak performance level of 30 teraops by mid-year 2001. And the 
Department's first generation, Option Red Intel computer system, 
installed at Sandia National Laboratories in 1996, with a peak speed of 
1.8 trillion operations per second is now operating in production mode.
    The unprecedented computational power of ASCI is also being made 
available to selected groups in the university community through the 
Academic Strategic Alliances Program. In 1997, the Department awarded 
contracts to five major U.S. universities--Stanford University, 
California Institute of Technology, the University of Chicago, the 
University of Utah and the University of Illinois. The work of the 
university teams will be of similar difficulty and complexity to that 
needed for Stockpile Stewardship and provide another benchmark by which 
we can assess the accuracy of our own work. These projects are expected 
to lead to major advances in computer simulation technologies as well 
as to discoveries in basic and applied science; areas important to 
ASCI, the broader Stockpile Stewardship Program, and other application 
areas. Applications being developed and run by the university teams are 
unclassified and deal with significant non-defense scientific, economic 
and social priorities.
    We are already utilizing the capabilities of the newly installed 
ASCI platforms to support assessment of the stockpile. Specifically, we 
have run the highest resolution safety simulation of a stockpile 
weapon, and we have run a 3-dimensional simulation that will help 
explain a ``mystery'' from the nuclear test archives, that is relevant 
to our current program. We have run simulations to support the 
certifications of the B61 modification and the W76 neutron generator. 
These simulations would not have been possible without the capability 
provided by the ASCI platforms performing at the teraops level. 
However, in order to simulate a 3-dimensional full-system weapon and 
its performance as defined by nuclear weapons designers, scientists, 
and engineers at DOE national laboratories, we must scale the current 
capability to the 100 teraops level by 2004.
    The fiscal year 2000 request for the ASCI and Computations program 
operating budget, which totals $543 million, is about 12 percent higher 
than the fiscal year 1999 request. In addition, $114 million for 
simulation activities that previously were part of the ASCI program 
plan and $36 million for construction projects to house ASCI computers 
is requested. The fiscal year 2000 request is in line with planned 
increases resulting from advances in code development work and with 
simulations that necessitate additional memory, storage, and networking 
capability. It continues the momentum in both hardware development and 
acquisition to obtain computers capable of sustained operations of 100 
teraops level by 2004. It also permits building 3-D computer codes, 
which in conjunction with the other experimental programs such as 
inertial confinement fusion, are aimed at providing the required levels 
of fidelity in weapons simulations.
    Two new computational initiatives begun in fiscal year 1999 will 
continue in fiscal year 2000. The Distributed Computing at a Distance 
(DisCom2 ) project develops key computing and communications 
technologies that will enable DP laboratories and plants to apply high-
end computing across thousands of miles, to meet the urgent design, 
analysis, and engineering needs of Stockpile Stewardship. The Numerical 
Environment for Weapons Simulations (NEWS) will create data exploration 
super corridors at the weapons laboratories to support large-scale data 
analysis for researchers and weapons assessment teams.
    nuclear emergency response and technology partnerships programs
    There are two other elements that exist across the weapons complex 
that play a role in maintaining the leading edge expertise of our 
people and program. Defense Programs funds DOE's nuclear emergency 
response programs which primarily consist of engineers, scientists, and 
other technical personnel from the three weapons laboratories, 
production facilities, and other DOE management and operating 
contractors. This program provides a technical response capability for 
any type of radiological or nuclear accident or incident including 
radiological releases, U.S. nuclear weapons accidents, or a malevolent 
event involving a nuclear device or radiological dispersal device. A 
robust exercise schedule provides challenging scenarios for all 
radiological emergency response assets in order to maintain and verify 
departmental readiness to meet our mandated responsibilities in 
conjunction with a wide range of interagency programs (e.g. Defense 
Threat Reduction Agency, Federal Emergency Management Agency, FBI, 
etc.). These scenarios include overseas nuclear weapons accident 
exercises, field training exercises, multi-agency resolution of nuclear 
terrorism crises, response to transportation accidents and commercial 
nuclear reactor accidents.
    The DP Technology Partnership Program, which has been restructured 
to directly support Stockpile Stewardship, represents an important 
investment in the future. The private sector has technical leadership 
in many areas critical to weapons activities and the Technology 
Partnership Program initiates effective collaborations between the 
laboratories and industry that strengthen all Stockpile Stewardship 
Program components. It is a difficult task, but we already have 
success. For example, Sandia and a world class commercial electronics 
supplier of radio frequency (RF) products are partnering to develop a 
replacement arming, fusing and firing system for the W76/Mk4. This 
project will develop the capability for procuring war reserve RF 
components from a state-of-the-art, tailored, low-cost, low-volume, 
high- reliability manufacturing process. In addition, LANL is working 
with a provider of highly advanced, ultra-short pulse laser technology 
to develop sophisticated devices that will give LANL an entirely new 
capability to non-destructively inspect and measure the interior of a 
pit with extremely high resolution.
                          program integration
    You have heard about how, over the last several years the 
Stewardship program has successfully set in motion a series of 
initiatives to ensure high confidence in the safety and reliability of 
the nuclear weapons stockpile without nuclear testing or traditional 
new weapon development. Core technical capabilities have been fostered 
and facility milestones have been established to strengthen a strong 
science-based foundation for Stewardship. Construction of facilities 
like DARHT, NIF, and Atlas is now underway to provide state-of-the-art 
experimental facilities for pursuing fundamental weapons physics 
understanding. The subcritical experiments at NTS return extremely 
valuable data on the dynamic materials behavior of explosively driven 
plutonium. The ASCI program has successfully delivered world-class 
computational power and has focused and paced the development of 
simulation-based predictive capability that is required to integrate 
the scientific knowledge derived through ongoing experimental and 
theoretical program efforts. A Stockpile Life Extension (SLEP) program 
has formalized a disciplined process for introducing needed changes to 
the enduring nuclear weapons stockpile to address age-related risk. The 
time has now come to direct attention on a focused approach toward 
integrating and synchronizing the various ``tools'' of the Stewardship 
``toolkit'' to more effectively achieve strategic program objectives; 
namely, by methodically applying science in a timely way to confidently 
manage life extension in the nuclear weapon stockpile.
    In the fall of 1998, I chartered a Program Integration Task Force 
comprised of senior managers of the nuclear weapons laboratories and 
production plants, as well as the appropriate headquarters personnel 
with stewardship management responsibilities. The Task Force provided 
recommendations for: (a) taking the next steps toward more effective 
integration of science with stockpile deliverables; (b) providing more 
overall coherence among all program elements; and (c) identifying a 
basis for system-wide planning of program and budget.
    The Task Force reported back to me in late November 1998. One of 
its main recommendations was to eliminate the organizational interface 
between the core stewardship R&D program, and the ASCI and stockpile 
computing program. This imperative was driven by the urgent need to 
accelerate integration of experimental data with the major three-
dimensional weapons computer applications codes under development. In 
validating these codes, an improved predictive capability, derived from 
enhanced physics understanding of weapon performance and safety issues, 
could be more confidently applied in meeting critical certification 
milestones associated with stockpile life-extension modifications. As a 
result of this consolidation, the weapons science activities of the new 
organization could be more coherently managed at the interface with 
stockpile manufacturing and production activities.
    The Task Force also emphasized the imperative for Headquarters to 
vigilantly manage the program balance at the science/production 
interface. Its suggestion was to apply a risk management approach in 
making programmatic tradeoffs between resources and deliverable 
schedules. The principle is fairly simple: weapons science activities 
not well integrated with stockpile deliverables would, in time, lose 
focus and drift away from relevancy and strategic objectives linked to 
the continued certification of weapon performance, safety, and 
reliability. On the other hand, any weapons production without the 
active integration of science through rigorous certification would 
eventually result in the inevitable loss of confidence without nuclear 
testing, thus losing nuclear deterrence for the Nation. Balancing these 
two major efforts under the stewardship ``umbrella'' will demand a more 
keen attention to enterprise-wide planning and budgeting, always 
governed by the principle that budget requirements should reflect an 
integrated set of program objectives.
    In December of 1998, I took action on these Task Force 
recommendations by integrating the Stewardship science program under a 
new organization, the Office of Research, Development, and Simulation. 
This office is now actively pursuing program integration by working 
with the nuclear weapons laboratories and Nevada Test Site to jointly 
identify and begin planning a set of ``weapons technology campaigns''. 
A ``campaign'' is defined as a major technical effort that focuses 
resources on developing a critical enabling technology to support 
confident certification.
    A compelling weapons science or technology issue that demands a 
measurable enhancement in predictive capability will drive each 
campaign. Thus, each campaign will be designed to integrate 
experiments, simulation, and weapon-system assessments. Campaigns will 
be focused on achievable goals and identifiable end states for the 2004 
time frame. The three laboratories and NTS will join in a common, 
complementary effort to define appropriate technology milestones. 
Technical efforts will be designed to exploit the current experimental 
and computational infrastructure to the maximum extent feasible, while 
integrating new capabilities as they become available. Collectively, 
the campaigns will be aimed at enhancing certification in the 2004 time 
frame, when about half of our nuclear-test-experienced weapon designers 
will have retired. By aggressively pursuing these integrating 
campaigns, we expect to successfully meet the challenges of the next 
decade.
    Campaigns will result in a clearer set of program expectations tied 
to needs and priorities. This in turn will result in our ability to 
articulate our deliverables and budget requirements far more precisely 
and far more measurably than has been done in the past. Ultimately, I 
believe, this will result in a better understanding of what the public 
is buying for the funds provided. I am convinced that it will also 
provide, in the future, a clearer and more demonstrable model for 
addressing what can not be provided at a given level of resources.
                               conclusion
    These are but a selection of the broad range of on-going planned 
Stockpile Stewardship Program activities. Let me reemphasize that the 
current stockpile is well tested and well understood. The designers and 
engineers who built our existing weapons are still available and are 
still active. Indeed they are the ones who are creating the Stockpile 
Stewardship Program. They are the ones who are working on the stockpile 
now, and are helping to train their successors. We are mindful, 
however, that the clock is ticking on both the design life spans of the 
weapons, and the career spans of test-experienced designers, engineers, 
and production experts. We have an unprecedented, but time sensitive, 
challenge to put in place both the tools and the people that will carry 
us beyond test-based expertise to science-based expertise for the 
future.
    If supported appropriately, I believe the Stockpile Stewardship 
Program can indefinitely maintain a safe and reliable stockpile without 
the need to conduct nuclear testing. I know of no other national 
security issue that is more important for our Nation today and for the 
next millennium.

                   statement of rose e. gottemoeller

    Senator Domenici. Thank you.
    Ms. Gottemoeller, would you proceed with your testimony? 
Your written remarks will be made a part of the record. If you 
would abbreviate your oral remarks, and we will wait on the 
questions till all three witnesses have testified, then we will 
proceed.
    Ms. Gottemoeller. Yes, Mr. Chairman. I would like to have 
my remarks entered into the record. Thank you for the 
opportunity to appear before this committee and discuss our 
fiscal year 2000 budget request.
    In my oral remarks, I would really like to hit a few of my 
office's planned activities as highlights for fiscal year 2000. 
The President has identified weapons of mass destruction 
proliferation as a national emergency, and I am proud of the 
role that DOE and my office play in responding to that 
emergency.

          material protection, control and accounting [mpc&a]

    Our total request for fiscal year 2000 is $747.3 million, 
representing an 11 percent increase over our fiscal year 1999 
appropriation. This increase reflects the growing threat to 
U.S. security in both international and domestic arenas. Russia 
is at the top of our priority list. Through our Material 
Protection, Control and Accounting, or MPC&A program, we are 
helping Russia secure its nuclear weapons nuclear materials and 
reduce the risk that these materials will be diverted to the 
weapons in rogue regimes or terrorist organizations.
    This has been a highly successful effort which has expanded 
to include 55 facilities throughout the former Soviet Union. To 
date, we have completed upgrades on 30 metric tons of material 
and have improved the security of some 400 tons, metric tons, 
in total. We are working now at virtually every site we know of 
that contains weapons--usable nuclear materials in the former 
Soviet Union, including the major sites in the Russian defense 
complex.
    We still have much work to do, since we know that the 
Russians have at least 650 tons of nuclear material not in 
weapons and in need of upgraded protection, but we have 
developed the goodwill and the structure needed to efficiently 
pursue the security of the remaining stocks of nuclear 
materials.
    Senator Domenici. Might I ask, why do you say 650 tons? Do 
you accumulate all kinds, rather than telling us what each one 
is?
    Ms. Gottemoeller. Yes, sir. That is an accumulation of 
plutonium as well as highly enriched uranium. It is the 
planning number that we use, although we know from our 
interactions with our Russian colleagues that the number may be 
larger than that.
    Senator Domenici. Okay. Go ahead.
    Ms. Gottemoeller. We are requesting $145 million for this 
effort in fiscal year 2000. Our efforts in the area of Russian 
military security are made possible in large part because DOE's 
role and my office's role is important in setting the 
international standard for the production of nuclear materials 
and facilities here in the United States.

 initiatives for proliferation prevention and nuclear cities initiative

    I would now like to turn to the other side of the Russian 
proliferation problem, the brain drain. Our Initiatives for 
Proliferation Prevention programs and our newly launched 
Nuclear Cities Initiative are working to address the complex 
issues in this arena. I know much has been said and written 
recently on these efforts, but I would like to say this. We 
have through the initiatives for proliferation prevention 
successfully kept thousands, at last count over 5,900, former 
Soviet weapons experts at home and out of weapons work in rogue 
States, terrorist groups, and criminal organizations.
    As the General Accounting Office recommended, we need to do 
a better job of ensuring more money gets to Russia. We also 
need to redouble our efforts to achieve commercial success with 
these projects. However, the overall goal, as GAO actually 
acknowledged, of keeping these experts at home is succeeding.

                      international nuclear safety

    Elsewhere in our Russia-related activities, I am pleased to 
report that my office has successfully completed integrating 
the Department's Office of International Nuclear Safety into 
our structure. There is a natural synergy between the nuclear 
safety work and my office's more traditional missions. We are 
making excellent progress in improving the safety of Soviet 
reactors, including improving Soviet safety diagnosis and 
response training, pursuing the installation of safety 
equipment, and establishing regional nuclear safety training 
centers.
    Moreover, our efforts to aid the closing of the Chernobyl 
complex continue and, indeed, are intensifying in fiscal year 
2000. While we work to counter threats abroad to our national 
security, we are stepping up our security efforts here at home. 
The threats to domestic safety and security are more diverse 
than ever and, at the direction of President Clinton and 
Secretary Richardson, we are moving smartly to address these 
concerns.

                    chemical and biological weapons

    The Department, through my office, is rapidly pursuing the 
President's call to improve our chemical and biological 
detection and identification capabilities. For our chem-bio 
initiative we are requesting a 70-percent increase from $19 to 
$32 million in fiscal year 2000.
    The prime goal of these efforts is to provide first 
responders with portable, fast, and accurate tools to detect 
and ID chemical and biological agents. With one anthrax hoax in 
the United States every day, the ability to detect hoaxes and, 
in the worst case, confirm the use of chemical or biological 
agents is vital to reducing the effect of such events. Our 
investment in this area is leveraging the already strong 
expertise residing in the national laboratory system, 
especially those in the fields of chemistry and biology.
    In addition to our CBW detection work, other important 
technical advances are being pursued in our arms control 
research and development area. The tools being developed 
through this office will improve our ability to detect 
proliferant activities in other countries and increase our 
confidence in the verifiability of international agreements 
such as the comprehensive test ban treaty.

                           domestic security

    Now, sir, I would like to turn to our domestic security 
missions, which are equally important and challenging. Our 
Office of Security Affairs continues its vital role in 
protecting classified information and the security of the DOE 
complex overall. This has been another frequently discussed 
topic in recent months, but I would like to say this. Our 
mission requires us to remain accountable to the American 
public. To do this, we must effectively balance two equally 
essential missions, protecting classified information to 
prevent others from using it to harm U.S. interests, and 
keeping secret only that information which needs to be 
protected.
    To meet these goals, the Department is working aggressively 
to review materials before they're released to ensure the 
absence of restricted or formerly restricted data as Congress 
has required. At the same time, we are working to comply with 
President Clinton's executive order to declassify documents 
that no longer require protection.

                          emergency management

    The last program I would like to mention is one that gets 
few headlines but allows me and my colleagues in the DOE 
leadership to get to sleep at night, from time to time anyway. 
This is the Office of Emergency Management, which is also 
operated out of my office 24 hours a day, 7 days a week, 365 
days a year. Our staff is ready to respond to any of a wide 
variety of possible events that would affect our national 
security and safety, and the overall performance of the DOE 
complex.

                           prepared statement

    There are many additional programs in our office, and time 
does not allow for as complete a listing as I would like to do, 
but I will be happy to answer any of your questions.
    Thank you, Mr. Chairman.
    [The statement follows:]

               Prepared Statement of Rose E. Gottemoeller

                              introduction
    Thank you, Mr. Chairman and members of this Committee, for the 
opportunity to appear before you today to present this statement for 
the record on the Department of Energy's fiscal year 2000 budget 
request for the Office of Nonproliferation and National Security (NN). 
The Department of Energy generally, and the Office I head specifically, 
have received extremely strong support from this committee. I'd like to 
thank you for that support and say that I look forward to working with 
you in the future as we work to address some of our nation's most 
important and critical challenges.
    It has been stated many times, but it bears repeating: The world we 
face today is vastly changed from the one we lived in during the cold 
war. The challenges we face are more varied and less predictable. None 
of the threats we face is more serious than the proliferation of 
weapons of mass destruction to rogue states and, even more worrisome, 
terrorist organizations. The President has declared the threat of 
weapons of mass destruction (WMD) proliferation to constitute a 
``national emergency'' and I am proud of the role the Department of 
Energy, and my Office in particular, is playing in responding to that 
emergency.
    Within the Department, the Office of Nonproliferation and National 
Security is unique in the range of our contributions to national 
security. The Office is responsible for national security missions in 
both domestic and international settings. In Russia, DOE employees and 
laboratory experts are on the ground and actively working to improve 
the security of hundreds of tons of plutonium and highly enriched 
uranium at dozens of facilities. We are also working with thousands of 
former Soviet Union weapons scientists to provide them with non-weapons 
jobs and prevent them from straying into work with countries of 
proliferation concern. Here at home, we are accelerating our efforts to 
harness the skills of the national laboratories to meet the growing 
threats of chemical and biological weapons and the very serious risk 
that such weapons will be used on U.S. territory. In addition, my staff 
is ensuring the protection of U.S. nuclear materials and of DOE sites. 
At the same time, we must balance the critical job of protecting this 
nation's nuclear secrets, with meeting our obligation to declassify 
appropriate documents to ensure our accountability to the American 
people.
                    fiscal year 2000 budget request
    The Office's fiscal year 2000 budget request is $747.3 million, 
representing an 11 percent increase over our fiscal year 1999 
appropriation. This increase reflects the ever growing challenges our 
nation faces in the international, as well as domestic arenas. While I 
won't, in my prepared remarks, go into detail on all of our programs, I 
would like to highlight for you some of our main projects and some 
areas of proposed expansion in 2000.
              material protection, control and accounting
    First, I will turn to the situation in Russia. The members of this 
committee are keenly aware of the importance Russia plays in our 
overall nonproliferation strategy. For several years, we have been 
building up a legacy of trust and personal relationships that has 
allowed us to cooperatively pursue security upgrades throughout the 
Russian nuclear complex. The importance of this work, carried out under 
our Material Protection, Control and Accounting (MPC&A) program, cannot 
be overstated. Our programs have been key to international efforts to 
prevent the acquisition of nuclear weapons by terrorists or would-be 
nuclear states. In this goal, we have made considerable progress, but 
we have recognized that the task before us is much greater than we 
understood when this program began in 1994. Russia's economic collapse 
in August has forced us to re-evaluate our methods and priorities and 
brought, from the Russians themselves, a renewed sense of urgency to 
our cooperation. This now includes an increased awareness of the 
``insider threat'' of nuclear materials diversion and an understanding 
that the size, and geographic scope of the nuclear enterprise is larger 
than had been appreciated in 1994.
    With this background, over half of our proposed budget increase 
would be dedicated to our Office of Arms Control and Nonproliferation, 
which implements our Russian nuclear security efforts. The Russian 
MPC&A program would receive $145 million, which represents a $5 million 
increase over last year but an almost $40 million increase over our 
original baseline. This effort includes a long-range plan that will 
continue beyond our original completion date of 2002. Our extended 
deadline reflects one simple fact--the job of securing nuclear 
materials is a much harder and a larger endeavor than anyone--including 
Russia--understood when our program began. While we will have completed 
upgrades on the number of sites originally included in our program 
plan, designed in 1994, we have secured Russian agreement to cooperate 
on more than two dozen facilities that we didn't even know existed when 
the program began. In addition, in order to limit the program's overall 
requirements, we are venturing for the first time into the long-overdue 
area of ``materials consolidation.'' The Russians themselves have 
finally realized the risks associated with maintaining such a far flung 
nuclear complex. Our cooperative consolidation efforts will help reduce 
the number of facilities housing nuclear materials, thereby reducing 
the strain on the Russian system and the long-term MPC&A requirements--
including our own.
    A word, if I may, about the absolutely incredible men and women who 
have been working on this problem night and day for the past several 
years. The image of the civil servant and government bureaucrat has 
been impugned for years in our society. I know that the members of this 
committee are well aware that the average civil servant is motivated 
and hardworking, but I have been struck since I became director of NN 
by the absolute dedication of our MPC&A task force and the almost 
superhuman level of their efforts. Their travel includes some of the 
most remote and least hospitable locations in the world, spending weeks 
away from family and basic comforts and making repeated trips to such 
locations in order to facilitate and complete their assignments. The 
work load for the average MPC&A Task Force member is extreme, as we had 
sought to limit the task force size to one appropriate for a limited 
duration project. This is an issue that we are examining extremely 
closely at the present time, in the expectation that the team will 
become larger and longer range in its organizational outlook.
    Our ability to address Russian nuclear security concerns comes in 
large part from NN's responsibilities at home for the protection of 
nuclear materials. These include directing a rigorous safeguards and 
security program for the entire Department of Energy complex to ensure 
the demonstrated security of our own nuclear materials. Our work in 
Russia has benefitted greatly from our direct expertise in the 
protection of materials and facilities here at home, and from the 
knowledge that our efforts and accomplishments set the international 
standard for the protection of nuclear materials.
    While we still have considerable work in ahead of us to upgrade 
security around Russian nuclear materials, we are also striving to 
address other sources of proliferation risk and concern in the former 
Soviet Union. We consider our work at nuclear sites to be the first 
line of defense against the proliferation of nuclear weapons. The 
second line of defense is the internal borders of Russia, and helping 
to ensure that any stolen or misappropriated materials cannot leave the 
country. Our Second Line of Defense program has already installed 
nuclear material detectors at the main international airport in Moscow 
and at the Caspian seaport of Astrakhan. We have identified 22 
additional border crossings that for tactical or strategic reasons 
warrant the installation of similar equipment. This is yet another 
example of how a relatively small investment can help protect ourselves 
and our friends against the greatest of threats.
   initiatives for proliferation prevention/nuclear cities initiative
    Another critical component of our nonproliferation efforts in the 
former Soviet Union is our effort to engage and orchestrate alternative 
employment for underemployed and unemployed ex-Soviet weapons 
scientists. Through our Initiatives for Proliferation Prevention 
program, we have worked with over 170 institutes and sponsored 
collaborative scientific efforts with over 4000 ex-Soviet nuclear, 
chemical and biological weapons experts. This work has helped keep 
these experts in Russia and the Newly Independent States, as opposed to 
selling their know how to rogue regimes, criminal groups or terrorist 
organizations.
    We are embarking on a much more comprehensive enterprise which also 
seeks to develop alternative, non-weapons jobs for weapons scientists, 
this time as part of our Nuclear Cities Initiative. The ten closed 
nuclear cities in Russia are the jewels in the Russian nuclear crown. 
We are pleased that Russia is finally taking steps to reassess and 
restructure their nuclear complex and has approached us about helping 
to develop new jobs for weapons scientists who will lose their defense 
work as weapons facilities close. We are approaching this endeavor with 
a mixture of commitment and pragmatism, realizing that such efforts 
will take time. But the goals of keeping the Russian weapons scientists 
at home, and helping to reduce the size of the Russian nuclear 
infrastructure, contribute directly to U.S. security.
    The Department of Energy, and my Office in particular, has taken 
note of the concerns expressed in the General Accounting Office's 
recent report on our Initiatives for Proliferation Prevention program. 
We are working aggressively to implement their recommendations and 
believe that adoption of their comments will greatly improve what is 
already a successful enterprise. These include a strengthened review 
process to further ensure non IPP projects have dual-use benefits for 
Russian military programs and an increased effort to provide a greater 
percentage of resources to Russian and NIS scientists.
              international nuclear safety and cooperation
    Elsewhere in the former Soviet nuclear complex, NN is now actively 
engaged in the area of international nuclear safety. The transfer of 
the Department's international nuclear safety activities into NN is now 
complete and has gone extremely well. There is a very strong natural 
connection between various Russian and NIS activities within NN's 
already existing projects and the nuclear safety initiatives. We 
continue to make excellent progress in improving the safety to Soviet-
designed nuclear reactors and establishing self-sustaining nuclear 
safety infrastructures. We are addressing the most serious risks at 
these reactors by improving the plants' physical operating conditions, 
installing safety equipment, developing improved safety procedures, 
establishing regional centers for training reactor personnel, and 
conducting in-depth safety assessments of the operating plants.
                      national security challenges
    Our work in Russia, as important as it is, must not and does not 
distract our attention from our critical and considerable domestic 
activities. The changed situation abroad is matched by a changing 
picture at home. The President highlighted his concerns about new 
domestic threats in January at a National Academy of Sciences event in 
which he stated that ``The enemies of peace realize they cannot defeat 
us with traditional military means. So they are working on two new 
forms of assault: cyber attacks on our critical computer systems, and 
attacks with weapons of mass destruction--chemical, biological, 
potentially even nuclear weapons. We must be ready--ready if our 
adversaries try to use computers to disable power grids, banking, 
communications and transportation networks, police, fire and health 
services--or military assets.''
    President Clinton, and his entire national security team, are 
increasingly concerned about these threats. We are, at the President's 
direction, making concerted and coordinated efforts to meet these 
growing challenges. Let me explain what DOE and NN are doing in this 
area.
                    chemical and biological threats
    Among the Secretary's top priorities is responding to the growing 
threat of chemical and biological (CBW) attacks inside the United 
States. The Department of Energy, drawing upon the diverse and 
extensive expertise of the national laboratories, has extraordinary 
assets in the fields of biology and chemistry, pursued for both the 
pure and applied scientific value. With relatively modest sums of 
money, the Department is seeking to leverage these skills and 
experience to improve our ability to detect and identify biological and 
chemical agents.
    To pursue this work, we are requesting a total of $32 million, 
which is a $13 million or 70 percent increase over our 1999 
appropriations. The focus of these efforts is to better equip first 
responders with the tools to identify and categorize chemical and 
biological agents. The tools we seek to develop must be portable, fast, 
accurate and simple, so that they can be put to immediate use in the 
field, serving to protect the American public from hoaxes or, worse, 
actual attacks.
    Again, Mr. Chairman, defining the challenge is as simple as 
answering it is complex. There is, on average, one anthrax threat in 
the United States every day. In January, the shortcomings of our 
current capabilities were made glaringly clear, when an anthrax threat 
was directed at the 7th floor of the Department of State. While this, 
fortunately, turned out to be a hoax, we need to do better in fielding 
smart systems capable of detecting potential WMD agents. Today, there 
are no simple, portable and reliable detection and identification tools 
for biological agents available to those officials who are assigned the 
role of getting to the scene of a CBW attack first. Delays in assessing 
the credibility and severity of specific incidents create confusion, 
waste resources, and, in the event of a real attack, costs lives. In 
sum, our limited abilities in this area actually increase the 
``terror'' effect of such attacks or hoaxes, thus inviting additional 
events. The sooner we can field the types of portable detection 
equipment we are working on, the sooner we will be able to deter and 
reduce the number of such attacks.
    There are questions raised from time to time about why involve the 
Department of Energy--whose weapons expertise is focused in the nuclear 
arena. To be direct, DOE and its laboratories have a broad range of 
ongoing programs in biological and chemical areas which provide it with 
a unique set of skills to apply to this problem. Although originally 
developed in the service of our primary nuclear mission, these world-
class capabilities can be leveraged for critical chemical and 
biological detection work. Programs such as the human genome mapping 
project or chemical spill remediation efforts are also being drawn upon 
to better protect our citizens against the most insidious of attacks.
                        research and development
    The larger part of our research and development program, for which 
we are requesting $221 million in total, is dedicated to other ground 
breaking and vital efforts to improve our national security. Within the 
NN office, our Research and Development activities are working to 
ensure the early detection of proliferation-related activities and to 
improve our ability to verify existing or planned international 
treaties. While I cannot discuss in open session some of our work, we 
are pursuing a number of important avenues which will help detect, with 
increasing reliability, efforts to produce and refine nuclear 
materials, as well as new and better ways to detect and characterize 
nuclear tests and activities contrary to international norms or U.S. 
security interests.
                      declassification initiative
    I would also like to highlight additional areas of work here at 
home. Within our Office of Security Affairs, we continue the critical 
effort to declassify hundreds of millions of pages of archived 
information while ensuring the appropriate protection of classified 
information. The Secretary and my entire Office are committed to 
meeting the goals of the President`s executive order on 
declassification while, at the same time, ensuring that Restricted and 
Formerly Restricted Data are not inadvertently released. Some might see 
these two responsibilities as conflicting, but I do not. They are not 
only compatible, but mutually supportive. Our requirement to remain 
accountable to the American public by avoiding excessive secrecy, while 
at the same time ensuring the vigilant protection of our nation's 
nuclear information are part of the same goal--ensuring the security 
and freedom for the American public, and fulfilling our public trust. 
We must protect the nation from the threat of nuclear terrorism as well 
as the danger of excessive secrecy. Both are critical to meeting our 
obligations as public servants and I am confident in our ability--given 
continued support--to achieve these goals.
                           emergency response
    Even as we prepare to address the risk of attack here at home, 
including our CBW detection efforts and our domestic security work, we 
are constantly preparing for how to respond should an emergency 
develop. The Office of Emergency Response is a critical resource for 
the Department and the United States Government as a whole. This 
extensive communications network and dedicated staff are vital assets, 
and enable the Department's leadership to receive and process updates 
and help manage the response to a large variety of contingencies. These 
include environmental concerns associated with the management of DOE 
sites, to the more extreme cases of attack or sabotage. As with the 
other offices within my responsibility, I have been extremely impressed 
with the professionalism and dedication of the staff within this 
program office. Their efforts help reduce the likelihood of a crisis 
and enable us to reduce the consequences, should one arise. Their 
efforts are generally underappreciated in the eye of the public, 
largely due to their skill and success in their jobs.
                               conclusion
    I would like to end where I began, and thank the Chairman and the 
entire Committee for their support for the Department and my Office as 
we address the nation's critical national security missions. I look 
forward to our continued work together. Thank you.

                    statement of laura s.h. holgate

    Senator Domenici. Thank you very much, Ms. Gottemoeller.
    Ms. Holgate, will you proceed with your testimony, and your 
prepared remarks will be made a part of the record.
    Ms. Holgate. Thank you, Mr. Chairman, Senator Reid, members 
of the committee. I am pleased to appear before you today to 
discuss the Department of Energy's fiscal year 2000 budget for 
fissile materials disposition.
    The Office of Fissile Materials Disposition's principal 
focus is on disposing of inventories of surplus U.S. weapons--
usable plutonium, and highly enriched uranium, as well as 
providing technical support for and ultimately implementing 
Administration efforts to obtain reciprocal disposition of 
surplus Russian plutonium.
    These disposition activities, along with other 
administration efforts aimed at dismantling weapons delivery 
systems, securing nuclear materials and preventing the spread 
of nuclear weapons knowledge, are part of the Administration's 
overall strategy to reduce the threat from weapons of mass 
destruction.
    A recent New York Times editorial stated that nothing would 
do more to protect American security in the decades ahead than 
ensuring that Russia's immense stockpile of nuclear weapons and 
materials is diminished. That, members of the committee, is our 
goal.

                    fiscal year 2000 budget request

    The fiscal year 2000 budget request for these activities is 
$200 million, an increase of $32 million over the fiscal year 
1999 comparable amount. The increase in fiscal year 2000 will 
allow the Department to continue detailed design of the pit 
disassembly and conversion facility and the MOX fuel 
fabrication facility, as well as begin design of the 
immobilization and processing facility, key elements of the 
United States hybrid plutonium disposition strategy involving 
immobilization and burning of mixed oxide [MOX] fuel in 
existing, domestic reactors.
    This budget request will also allow the program to continue 
testing the pit disassembly and conversion prototype at the Los 
Alamos National Laboratory, to establish a technical baseline 
for the ceramic immobilization plant process, conduct fuel 
qualification, continue MOX fuel facility license activities, 
initiate a MOX lead test assembly program, and conduct a 
repository analysis associated with disposition technologies.
    The $160 million out of the fiscal year 2000 budget request 
is allocated for these elements, required to dispose of 50 tons 
of excess U.S. plutonium.
    Proceeding with planned design, development, and licensing 
is important, because it strengthens the U.S. negotiating 
position with Russia and sends a strong message that the United 
States is serious about reciprocal plutonium disposition. A 
decision to stop or significantly slow the design effort would 
result in demobilization of the disposition facility design 
teams, loss of continuity, and increased costs.
    The United States, however, will not begin construction of 
new facilities for disposition of U.S. plutonium unless there 
is significant progress on plans for plutonium disposition in 
Russia. This is necessary to avoid putting the United States at 
a strategic disadvantage in future negotiations with Russia as 
well as to avoid large scale expenditure of funds until they 
are required.

                    u.s.-russia plutonium agreement

    With regard to progress with Russia on plutonium 
disposition, important foundations have been laid in the last 
year. In July 1998, Vice President Gore and former Russian 
Prime Minister Kiriyenko signed a Scientific and Technical 
Cooperation Agreement. The agreement provides for conducting 
tests and demonstrations of technologies needed to dispose of 
surplus weapons plutonium in Russia, including plutonium 
conversion and nondestructive assay, burning mixed oxide fuel 
in reactors, and immobilization of waste.
    This work is needed to build trust and cooperation and will 
add to the technical knowledge base, confirm the viability of 
certain technologies, and demonstrate the technologies that 
might be employed for disposition of surplus Russian plutonium.
    The program's fiscal year 2000 budget includes $24.9 
million to implement this agreement and to carry out other 
activities in support of the plutonium disposition in Russia as 
part of the President's Expanded Threat Reduction Initiative.
    At the Moscow summit in September 1998, President Clinton 
and President Yeltsin signed a Joint Statement of Principles. 
This statement committed the two countries to seek to conclude 
a bilateral plutonium disposition agreement as soon as 
possible. This bilateral agreement will specify the 
technological approach and schedules to be followed by each 
country, the types of facilities to be constructed in Russia, 
and commitments with respect to the support of these activities 
in Russia.
    Negotiations on this agreement are underway, and in initial 
conversations with Russian counterparts we feel significant 
commonality of vision on the content, structure, and timing of 
this agreement.
    The United States delegation is led by the Department of 
State, with key negotiation and technical support being 
provided by my office. I believe that an agreement can be 
concluded this year to enable plutonium disposition to proceed 
in both countries.
    Once this agreement is in place, the U.S. and Russia would 
each proceed with parallel programs with comparable rates of 
disposition. In Russia, the program will require the design, 
construction, and operation of facilities to convert weapons 
plutonium metal into oxide powder and to fabricate MOX fuel, as 
well as to modify Russian reactors to permit MOX utilization.
    The estimated annual capacity of existing Russian reactors 
is 2 metric tons of MOX fuel per year. The U.S. goal is to 
increase this rate of disposition in Russia of Russian material 
to no less than 5 metric tons per year, for the expansion of 
the plutonium conversion and MOX fabrication facilities, and 
the identification and utilization of additional reactor 
capacity, whether inside or outside Russia, to consume MOX fuel 
fabricated from plutonium withdrawn from Russian weapons.

         fiscal year 1999 emergency supplemental appropriation

    The Department intends to assist Russia to implement this 
bilateral agreement initially through the emergency 
appropriation of $200 million provided in fiscal year 1999. 
This dramatic gesture has been instrumental in the Russians' 
current cooperative approach in this negotiation. This funding 
will be expended in the Russian Federation over a 2- to 3-year 
period following completion of the agreement.
    A detailed budget justification and obligation plan will be 
submitted to Congress once the strategies are defined as part 
of the negotiations progress. This funding is likely to be 
utilized primarily to begin to create a MOX infrastructure in 
Russia.
    The $200 million will not cover the entire cost of 
implementing this agreement. Russia will need to contribute 
some resources, and the Administration plans to seek support 
for a portion of this program from the international community, 
both the private and public sector. If, however, the program 
requires additional future appropriations, the administration 
will consider such needs in the course of its normal budget 
process.

            gas u.s.-russian reactor technology development

    The fiscal year 1999 Energy and Water Development Act 
provided an earmark of $5 million for joint U.S.-Russian 
development of gas reactor technology called for the Russian 
Federation to provide a matching contribution of $3 million in 
either comparable funds or contributions in-kind. This level of 
funding should be adequate to cover gas reactor technology R&D 
efforts in fiscal years 1999 and 2000.
    In closing, the Fissile Material Disposition Program has 
come a long way in building the domestic and international 
consensus necessary to begin disposing of surplus highly 
enriched uranium and plutonium. Along the way, the program has 
led U.S. efforts not only to identify a hybrid strategy for 
disposing of surplus weapons plutonium, but also to begin 
implementation of this strategy. Technology development, tests, 
and demonstrations are ongoing, and a prototype pit disassembly 
and conversion system successfully began operations at the Los 
Alamos National Laboratory in November.
    DOE is about to announce a major contract award for MOX 
fuel fabrication and irradiation services, and Title I design 
will soon begin for two of the three disposition facilities. 
Negotiations have recently begun with Russia aimed at achieving 
a bilateral agreement for plutonium disposition.
    Now is the time for the United States to continue this 
important mission by sending a clear signal to the world 
community that we are intent on finishing this job. Returning 
to the words of the New York Times editorial, the modest amount 
of money needed to achieve these goals now could save 
Washington many billions of dollars in the future to deal with 
the Russian nuclear threat.
    Thank you.
    [The statement follows:]

                Prepared Statement of Laura S.H. Holgate

                              introduction
    Mr. Chairman and members of the Committee, I am pleased to appear 
before you to discuss the Department of Energy's fiscal year 2000 
budget request for Fissile Materials Disposition.
    With the end of the Cold War, hundreds of tons of weapons plutonium 
and highly enriched uranium have become surplus to defense needs in 
both the U.S. and Russia. Continued downsizing of nuclear weapons 
stockpiles and implementation of arms reduction agreements are expected 
to result in further weapons dismantlements and increases in stockpiles 
of surplus weapons materials. Denying a potential proliferator access 
to these materials is the principal barrier to acquiring a nuclear 
weapons capability. Given the current political instability and 
worsening economic conditions prevailing in Russia, there is a very 
real threat that nuclear weapons materials could be stolen or diverted 
into the hands of terrorists or non-nuclear nations. These materials 
could be readily fabricated into crude nuclear weapons for use not only 
against other nations but also in the U.S. against Americans.
    Within the Department of Energy, the Office of Fissile Materials 
Disposition's principal focus is on disposing of inventories of surplus 
U.S. weapons-usable plutonium and highly enriched uranium as well as 
providing technical support for and ultimately implementation of 
Administration efforts to obtain reciprocal disposition of surplus 
Russian plutonium. These disposition activities--along with other 
Administration efforts aimed at dismantling weapons delivery systems, 
securing nuclear materials, and preventing the spread of nuclear 
weapons knowledge--are part of the Administration's strategy to reduce 
the threat from weapons of mass destruction.
    The fiscal year 2000 budget request for these activities is $200 
million, an increase of $32.5 million over the fiscal year 1999 
comparable amount. The increase in fiscal year 2000 is primarily to 
allow the program to begin design of a key U.S. plutonium disposition 
facility to immobilize surplus non-pit plutonium, procure lead test 
assembly equipment required for mixed oxide (MOX) fuel irradiation 
tests, and hire the field staff necessary to oversee plutonium 
disposition facility design activities at the selected DOE site. The 
sections that follow describe the current and planned activities and 
requested funding for the Department's fissile materials disposition 
activities.
                 surplus plutonium disposition summary
    The Program's efforts in fiscal years 1999 and 2000 will focus on 
implementing the Administration's hybrid strategy for plutonium 
disposition. This strategy calls for immobilizing surplus weapons 
plutonium in ceramic surrounded by vitrified high level radioactive 
waste and burning surplus plutonium as mixed oxide fuel in existing, 
domestic commercial reactors. Both approaches render the surplus 
plutonium as inaccessible and unattractive for retrieval and weapons 
use as the plutonium remaining in spent fuel from commercial reactors.
    DOE is pursuing both disposition technologies because they provide 
important insurance against unexpected difficulties with the 
implementation of either technology by itself and they help ensure an 
early start for this important task. This hybrid strategy also provides 
the United States with flexibility and leverage in negotiating with 
Russia and our allies on the critical task of reducing Russian excess 
weapons plutonium. While the proposed immobilization technology would 
be expected to make the weapons plutonium difficult for terrorists or 
third world countries to use in weapons, the Russians have repeatedly 
expressed concern that the U.S. immobilization approach would not 
destroy plutonium and would leave it available for possible re-use in 
weapons, thus reversing the disarmament process. Moreover, there is 
reason to believe that if the U.S. implements only immobilization, 
Russia will continue to store, rather than eliminate, its stockpile of 
surplus weapons plutonium.
    The Program is conducting necessary technology development and 
demonstrations, completing site-specific environmental analyses, 
designing three disposition facilities, and providing key negotiation 
and technical support for efforts to attain a bilateral agreement for 
the disposition of surplus Russian plutonium.
    Proceeding with planned design, development and licensing is 
important because it strengthens the U.S. negotiating position and 
sends a strong message to the Russians that the U.S. is serious about 
reciprocal plutonium disposition. A decision to stop or significantly 
slow the design effort would result in demobilization of the 
disposition facility design teams, loss of continuity and increased 
costs. Since the licensing of the MOX fuel fabrication plant and use of 
MOX fuels in reactors is dependent upon a foundation of design and 
technical analysis, failure to proceed with the resulting technical 
program will significantly lengthen the critical licensing path.
                     pit disassembly and conversion
    The United States has declared 50 metric tons of plutonium as 
surplus to national defense needs. Approximately two-thirds of this 
amount is either in the form of classified nuclear weapons components 
called ``pits'' or clean plutonium metal. Before weapons plutonium from 
pits can be disposed of, it must first be removed from pit form and 
converted to an unclassified oxide form suitable for disposition and 
international inspection. The Department plans to use the Advanced 
Recovery and Integrated Extraction System (ARIES) process, a low-waste, 
modular pyro-chemical process, to convert the pits and plutonium metal 
to plutonium oxide. ARIES is being developed jointly by the Los Alamos 
National Laboratory and the Lawrence Livermore National Laboratory. 
Sandia National Laboratories is developing robotics for the system.
    In November 1998, DOE began operation of an integrated pit 
disassembly and conversion prototype which utilizes the ARIES process 
at DOE's Los Alamos National Laboratory. This demonstration, which 
involves dismantling up to 250 pits over a two to three year period, 
will provide important information for designing and operating a full-
scale Pit Disassembly and Conversion Facility.
    The fiscal year 2000 budget request seeks funding to continue 
testing of the integrated prototype system at Los Alamos. Funding is 
also being sought to complete Title I & begin Title II design of a 
full-scale Pit Disassembly and Conversion Facility. Contingent on 
significant progress on Russian plans for plutonium disposition, as 
well as successful testing of the prototype, a full-scale facility, 
capable of processing thousands of pits per year, could be operational 
in fiscal year 2005.
                             immobilization
    Approximately one-third of the 50 tons of surplus U.S. plutonium is 
in the form of impure metal, oxides and reactor fuel which are 
unsuitable for MOX use without extensive purification. To dispose of 
this material, as well as to provide an alternate disposition pathway 
should the MOX/reactor approach prove impossible to implement, the 
Department is focusing on a ``can-in-canister'' approach for 
immobilization. Under this approach, feed materials would be converted 
to oxide which would be mixed with ceramic material to form disks. The 
disks would be stacked and sealed into steel cans which would be 
arrayed within large canisters into which vitrified high-level waste 
would be poured. The radioactive waste barrier increases the 
proliferation resistance of the immobilized plutonium. The can-in-
canister approach would make use of a high level waste vitrification 
facility such as currently exists at Savannah River or is planned to be 
built at the Hanford Site. Subsequently, the canisters would be 
disposed of in a geologic repository.
    While the United States has experience with immobilizing high level 
wastes, the technological aspects of how to immobilize weapons 
plutonium on an industrial scale need to be resolvedFiscal year 2000 
efforts will be aimed at resolving technological issues associated with 
impurities in the surplus plutonium forms, developing and demonstrating 
production-scale processes and equipment, and conducting the necessary 
verification testing of the preferred can-in-canister approach in order 
to be confident that it can be successful in a timely and cost-
effective manner.
    The fiscal year 2000 budget request also seeks funding to begin 
Title I design of an Immobilization and Processing Facility. Contingent 
on significant progress on Russian plans for plutonium disposition, as 
well as successful development and refinement of the immobilization 
process, a full-scale facility could be operational in fiscal year 
2006.
         mixed oxide fuel fabrication and irradiation services
    The other half of the hybrid disposition strategy involves 
irradiating MOX fuel in existing, domestic reactors. While MOX fuel is 
used in Western Europe on an industrial scale, the principal 
uncertainty in the U.S. involves the required cost and business 
arrangements. Because the Department doesn't own the reactors needed to 
irradiate the MOX fuel or a MOX fuel fabrication plant, DOE is 
conducting a competitive procurement to acquire the services of an 
industry consortium to design, construct and operate a MOX fuel 
fabrication facility; to irradiate the MOX fuel produced in that 
facility in existing, domestic, commercial reactors; and to deactivate 
the fuel fabrication facility at the end of the disposition mission. 
This approach would maximize private sector participation by teaming 
fuel designers and fabricators, architect & engineering firms, 
construction firms, and reactor operators. Under this arrangement the 
consortium will have full responsibility for construction and operation 
of the fuel fabrication facility as well as modification and operation 
of the reactors in which the fuel will be used.
    The MOX Fuel Fabrication Facility would be designed, constructed, 
and operated by a private sector consortium at an existing DOE site. 
The facility would be government-owned and operated solely for the 
disposition of surplus U.S. plutonium. The government would retain the 
right to terminate operation of the fuel fabrication facility, either 
at the completion of the plutonium disposition mission or earlier, if 
required. The facility will be regulated and licensed by the Nuclear 
Regulatory Commission (NRC). In the case of operating reactors, the 
reactor owners would retain their inherent responsibility for operating 
their reactors safely in accordance with their NRC licenses.
    The procurement was initiated in May 1998. Following analysis of 
three separate proposals, DOE expects to award a contract this month to 
an industrial consortium to start fuel fabrication facility design, 
licensing, reactor analysis, and fuel qualification.
    The fiscal year 2000 budget request will fund process development 
for MOX fuel fabrication, procurement of lead test assembly equipment 
for irradiation tests of the MOX fuel, as well as completion of Title I 
and initiation of Title II design of a MOX Fuel Fabrication Facility. 
Contingent on significant progress on Russian plans for plutonium 
disposition, as well as successful completion of design and licensing 
efforts, a full-scale facility could be operational in fiscal year 
2007.
                     russian plutonium disposition
    The next two to three years will be a crucial period in U.S. 
Russian relations concerning the disposition of surplus weapons 
plutonium. Proceeding with U.S. long lead-time activities leading up to 
construction is necessary to maintain momentum and pressure on Russia 
for a plutonium disposition agreement, and serves as a sign to private 
industry, the public and the world community that the U.S. is serious 
about disposing of stockpiles of surplus weapons plutonium. The United 
States is proceeding with research, design and licensing activities for 
disposing of surplus U.S. plutonium but will not begin construction of 
new facilities for disposition of U.S. plutonium (Pit Disassembly and 
Conversion Facility, Immobilization and Associated Processing Facility, 
and Mixed Oxide Fuel Fabrication Facility) unless there is significant 
progress on plans for plutonium disposition in Russia. Completing 
design is necessary to avoid putting the United States at a strategic 
disadvantage in future negotiations with Russia as well as to avoid the 
large-scale expenditure of funds until necessary.
    At the Moscow Summit in September 1998, President Clinton and 
President Yeltsin signed a Joint Statement of Principles for Management 
and Disposition of Plutonium Designated as No Longer Required for 
Defense Purposes. The Statement committed the two countries to seek to 
conclude a Bilateral Plutonium Disposition Agreement. The Bilateral 
Agreement would specify the technological approach and schedules to be 
followed by each country, the types of facilities to be constructed in 
Russia, and commitments with respect to the financing of these 
activities in Russia.
    Negotiations are underway, and initial conversations with Russian 
counterparts reveal significant commonality of vision on the content, 
structure, and timing of this agreement. The U.S. delegation is led by 
the Department of State with key negotiation and technical support 
being provided by the Department of Energy. The Russian delegation is 
led by the Ministry of Atomic Energy (MINATOM), supported by the 
Ministry of Foreign Affairs. I believe that an agreement can be 
concluded this year to enable plutonium disposition to proceed in both 
countries.
    Once the Agreement is in place, the U.S. and Russia would each 
proceed with parallel programs with comparable, although not 
necessarily identical, rates of disposition. In Russia, this program 
would require the design, construction, and operation of facilities to 
convert weapons plutonium metal into non-weapons form and to fabricate 
MOX fuel, as well as to modify Russian reactors to permit MOX 
utilization. The estimated annual capacity of existing Russian reactors 
(7 VVER-1000 reactors and 1 BN-600 reactor) is two metric tons per 
year. The U.S. goal is to increase this rate of plutonium disposition 
in Russia to five metric tons per year through the expansion of the 
plutonium conversion and MOX fabrication facilities and the 
identification and utilization of additional reactor capacity (whether 
inside or outside Russia) to consume MOX fuel fabricated from plutonium 
withdrawn from Russian weapons.
    The Department intends to assist Russia to implement this Bilateral 
Agreement initially through the emergency appropriation of $200 million 
provided in fiscal year 1999. This funding will be expended in the 
Russian Federation over a two- to three-year period following 
completion of the United States/Russian agreement. A detailed budget 
justification and obligation plan will be submitted to Congress once 
strategies are defined as negotiations progress. Although the United 
States and Russia have not yet agreed on rates, techniques, or 
facilities for plutonium disposition, this funding will likely be 
utilized to begin to create a MOX infrastructure in Russia. The $200 
million will not cover the entire cost of implementing the agreement. 
Russia will need to contribute some resources, and the Administration 
plans to seek financing for a portion of this program from the 
international community, both the private and public sectors. If, 
however, the program requires future appropriations, the Administration 
will consider such needs in the course of its normal budget process.
                            work with russia
    In July 1998, Vice President Gore and the former Russian Prime 
Minister Kiriyenko signed a Scientific and Technical Cooperation 
Agreement. The Agreement provides for conducting tests and 
demonstrations (up to and including pilot-scale tests and 
demonstrations) of technologies needed to dispose of surplus weapons 
plutonium including plutonium conversion and nondestructive assay, 
burning mixed oxide (MOX) fuel in reactors, and immobilization. This 
work is needed to build trust and cooperation and will add to the 
technical knowledge base, confirm the viability of certain 
technologies, and demonstrate the technologies that might be employed 
for disposition of surplus Russian plutonium.
    The fiscal year 1999 Energy and Water Development Appropriation 
earmark of $5 million for joint U.S.-Russian development of gas reactor 
technology called for the Russian Federation to provide a matching 
contribution of $3 million in either comparable funds or contributions-
in-kind. This level of funding should be adequate to cover gas reactor 
technology research and development efforts in the fiscal year 1999-
2000 timeframe.
    The portion of the fiscal year 2000 budget to be allocated towards 
cooperation with Russia is $24.9 million. This funding will allow the 
Department to continue a series of collaborative disposition efforts 
which include analyses and small-scale tests and demonstrations of 
plutonium disposition technologies, and fund efforts in the United 
States to implement a United States/Russian accord for disposition of 
excess weapons plutonium in Russia. These activities are part of the 
President's Expanded Threat Reduction Initiative.
      budget request summary for plutonium disposition activities
    In summary, the portion of the fiscal year 2000 budget to be 
allocated towards plutonium disposition activities (pit disassembly and 
conversion; immobilization; MOX fuel fabrication and irradiation 
services; and work with Russia) is $177.0 million. This funding will 
allow the Department to continue detailed design of the Pit Disassembly 
and Conversion Facility and the MOX Fuel Fabrication Facility; begin 
design of the Immobilization and Processing Facility; continue testing 
of the pit disassembly and conversion prototype; establish the 
technical baseline for ceramic immobilization plant process; conduct 
fuel qualification, continue MOX fuel facility licensing activities, 
initiate a MOX lead test assembly program; and conduct repository 
analyses associated with disposition technologies. The fiscal year 2000 
budget for U.S. plutonium disposition activities represents an increase 
of $22.3 million over fiscal year 1999. This increase is due to the 
start of Title I design for the Immobilization and Processing Facility 
($21.8 million), and Title II design for the Pit Disassembly and 
Conversion Facility ($8.7 million), procurement of lead test equipment 
for the MOX fuel approach ($7.5 million). This increase is partially 
offset by decreases in MOX Fuel Fabrication Facility design and other 
activities (-$15.7 million).
                  highly enriched uranium disposition
    In fiscal year 1999 and fiscal year 2000, the program will continue 
to focus on implementing the Department's July 1996 Record of Decision 
to disposition as much as possible of the surplus highly enriched 
uranium (HEU) by down-blending it with other uranium to make low 
enriched uranium which is commercially usable as power reactor fuel. 
This approach advances U.S. nonproliferation goals, reduces storage and 
security costs, and provides revenues to the Treasury from the 
commercial sale of these surplus assets over time. The remaining 
surplus HEU, originally determined to be unsuitable for commercial use, 
is to be down-blended and disposed of as waste.
    To date, about 174 metric tons (MT) of HEU have been declared 
excess to national security needs. Because of the various forms of HEU 
and the availability dates from weapons dismantlement and site cleanup 
operations, down blending will take place over an extended period of 
time. Title to 63 MT of HEU has been transferred to the United States 
Enrichment Corporation (USEC). Thirteen MT was transferred to USEC and 
has been down-blended pursuant to the Energy Policy Act of 1992. An 
additional 50 MT is being shipped over the next six years (4 MT to 
date) pursuant to the USEC Privatization Act. An additional 33-40 MT of 
off-specification HEU material, not saleable on the open market, is 
expected to be transferred to the Tennessee Valley Authority (TVA) for 
use in its reactors over the period between 2001 and 2006. DOE is 
preparing plans for disposition of the remaining surplus HEU.
    The portion of the fiscal year 2000 budget for surplus uranium 
disposition activities is $5.8 million. This funding will allow the 
Department to facilitate and implement disposition of surplus highly 
enriched uranium, including off-specification HEU.
                    surplus fissile material storage
    In January 1997, the Department issued a Record of Decision 
regarding the storage of all weapons-usable fissile materials and the 
disposition of surplus plutonium. The Department will reduce the number 
of sites where plutonium is stored through a combination of storage and 
disposition alternatives. Under this decision, DOE began shipping 
surplus plutonium pits from Rocky Flats to Pantex in April 1997 and 
will complete the shipments in fiscal year 1999. Stabilized and 
separated non-pit plutonium from Rocky Flats will be moved to Savannah 
River (after certain conditions are met). Storage of surplus plutonium 
at other sites will continue, pending disposition. Highly enriched 
uranium will continue to be consolidated and stored at the Oak Ridge Y-
12 Plant, pending disposition.
    In August 1998, the Department issued an amended Record of Decision 
to remove all surplus non-pit plutonium from Rocky Flats by 2002, in 
accordance with the Department's June 1998 Accelerated Closure Pilot 
Project that calls for closing the site by 2006. The plan calls for the 
Department to transfer surplus non-pit plutonium from Rocky Flats to 
Savannah River for storage in a modified Building 105-K.
    The portion of the fiscal year 2000 budget to be allocated towards 
storage of surplus fissile materials is $4.3 million. This funding will 
allow the Department to begin operation of an upgraded storage area for 
surplus plutonium pits at Pantex. The increase of $3.4 million from 
fiscal year 1999 reflects a shift in Program emphasis from analysis of 
storage and transportation issues required during the construction 
phase to operation of the upgraded area. Design and construction of 
upgrades for surplus pit materials will be funded from fiscal year 1997 
carryover balances.
                 core technologies and nepa compliance
    The Department is currently preparing an Environmental Impact 
Statement to help determine the site(s) where surplus weapons plutonium 
disposition activities will take place. Four sites (Hanford, Idaho 
National Engineering and Environmental Laboratory, Pantex and Savannah 
River) are being considered for constructing and operating key 
disposition facilities.
    On December 22, 1998, Secretary Richardson selected the Savannah 
River Site as the preferred site for building and operating the Pit 
Disassembly and Conversion Facility. Savannah River was selected 
because the site has extensive experience with plutonium processing. In 
addition, locating the pit disassembly facility with other existing and 
planned facilities at the site might provide some savings in 
infrastructure.
    Previously, the Department named Savannah River as the preferred 
site for two other key disposition facilities--the Mixed Oxide (MOX) 
Fuel Fabrication Facility and the Immobilization and Processing 
Facility. Subsequent to the release of the Environmental Impact 
Statement later this year, final site selection will be made in the 
Record of Decision to follow shortly thereafter.
    The portion of the fiscal year 2000 budget for Core Technologies 
and NEPA is $5.6 million. This funding will provide crosscutting 
technologies and program integration activities.
                           program direction
    Program Direction provides the overall management, oversight, 
staffing, and administrative support necessary to carry out the Fissile 
Materials Disposition Program. The portion of the fiscal year 2000 
budget for Program Direction is $7.3 million and represents an increase 
of $2.7 million over fiscal year 1999. This increase is for seven 
additional full-time equivalents (FTEs) over the fiscal year 1999 FTE 
level for field oversight and project management for the design of 
three plutonium disposition facilities. The increase also includes 
funding for FTEs funded with prior year balances in fiscal year 1999 
and movement of support service activities into Program Direction from 
Core Technologies and NEPA in accordance with Congressional direction. 
The $7.3 million level for Program Direction continues to represent a 
modest 3.7 percent of the total Fissile Materials Disposition Program 
budget request.
                               conclusion
    This Fissile Materials Disposition Program has come a long way in 
building the domestic and international consensus necessary to begin 
disposing of surplus highly enriched uranium and plutonium. Along the 
way, the Program has led U.S. efforts not only to identify a hybrid 
strategy for disposing of surplus weapons plutonium, but also to begin 
implementation of this hybrid strategy. Technology process development, 
tests, and demonstrations are ongoing and a prototype pit disassembly 
and conversion system successfully began operations at the Los Alamos 
National Laboratory in November. DOE is about to announce a major 
contract award for MOX fuel fabrication and irradiation services and 
Title I design will soon begin for two of the three disposition 
facilities. Negotiations have recently begun with Russia aimed at 
achieving a bilateral agreement for plutonium disposition. Now is the 
time for the United States to continue this important mission by 
sending a clear signal to the world community that we are intent on 
finishing the job. It is an investment in our future well worth making.

                    surplus nuclear materials threat

    Senator Domenici. We are going to proceed with questions, 
and if any Senator has a time schedule I would yield to them.
    Ms. Holgate, I would like to hear you when I ask questions 
be able to explain this threat related to surplus nuclear 
materials, and what we are doing without having to quote the 
New York Times, so would you be thinking about that?
    Ms. Holgate. Certainly, sir.
    Senator Domenici. I would appreciate it. Not that they 
should not be quoted, but I would think you ought to have some 
other sources beyond the New York Times as to the importance of 
this program.

               stockpile safety reliability, and security

    I suggest that we go one round quickly. Dr. Reis, for the 
record, is the nuclear weapons stockpile safe, reliable, and 
secure?
    Dr. Reis. Yes, it is, Senator.
    Senator Domenici. Do you have confidence that the weapons 
in the stockpile can and will perform as designed?
    Dr. Reis. Yes, I do.
    Senator Domenici. Do you have concurrence in those 
conclusions from the laboratory directors at the three nuclear 
laboratories?
    Dr. Reis. Yes, we do, Senator. We sent a letter to the 
President, and I assume he will send the letter and the 
materials along with that up to Congress very, very shortly 
indicating just those facts, including not just the laboratory 
directors, but the Commander-in-Chief of the United States 
Strategic Command as well.

                 critical needs not addressed in budget

    Senator Domenici. Are there any critical needs with 
reference to the Stockpile Stewardship program, that program 
upon which we predicate the safety and reliability and security 
of the weapons, not addressed in the budget because of a lack 
of budgetary resources?
    Dr. Reis. We feel the budget is responsibly addressing the 
stockpile right now, sir.
    Senator Domenici. If the defense side of this budget were 
to be cut substantially, could that change the answer to the 
three questions you have just given?
    Dr. Reis. It certainly could.
    Senator Domenici. Will you be prepared during the budget 
and appropriation process to respond in that regard?
    Dr. Reis. I would be glad to do so.

              chiles commission report and recommendations

    Senator Domenici. The Chiles Commission report for just a 
moment, we will move to it first. Are you familiar with the 
report and, if so, can you review briefly the findings and 
recommendations?
    Dr. Reis. Yes, sir. I have a copy of the report right here, 
and we have been through those recommendations with Admiral 
Chiles, who briefed myself, Under Secretary Moniz, and the 
Secretary.
    They listed basically some 12 recommendations. I will not 
go through all of them now. In the briefing that they gave to 
the Secretary----
    Senator Domenici. Just generally tell us, what they were 
concerned about?
    Dr. Reis. This was--as you recall, a congressionally 
mandated commission that was to look at the personnel policies, 
will we have enough people in the long term to support the 
Stockpile Stewardship program. It was specifically oriented 
toward the people, the personnel policies, and the level of 
expertise at the laboratories, at the plants, and in the 
Federal structure.
    What they discovered was, and we concur that we have some 
considerable amount of work to do. All is not well at any of 
those facilities, we have got some plans in place, but it is 
important to move aggressively to ensure that we have those 
people in the future when the time comes.

             balance of production plants and labs funding

    Senator Domenici. Let me move now to two different 
budgetary percentages, first the budget request, about 7.5 
percent increase in the stockpile stewardship. At the same 
time, it includes a 4-percent reduction of stockpile 
management. Does this cause any problems in carrying out the 
program with the labs and the production plants?
    Dr. Reis. Senator, every year we have to go through and 
balance very carefully the plants and the laboratories and that 
is not an easy judgment to make. People can differ in terms of 
those numbers, but we believe those are the best numbers right 
now.

                     nuclear power plants in russia

    Senator Domenici. I will save this series of questions for 
you until after the other Senators have inquired. I will just 
ask one question each of the other two witnesses.
    Ms. Gottemoeller, could you tell me how many nuclear power 
plants in Russia are of the type and model at Chernobyl?
    Ms. Gottemoeller. The Chernobyl style reactors are RBMK 
reactors, sir. I do not have that exact number at my finger 
tips, so I will have to provide that for the record.
    Senator Domenici. Are there some?
    Ms. Gottemoeller. Absolutely, sir, yes.
    [The information follows:]

                             RBMK Reactors

    There are currently 14 operational RBMK reactors. This includes 11 
in Russia, 2 in Lithuania and the 1 remaining operational Chernobyl 
unit in Ukraine.

                 y2k impact on chernobyl-type reactors

    Senator Domenici. Might I just ask, we are helping to make 
these reactors safer, and working with them on technological 
advances and improvements. But I read with some concern that 
Y2K may have a very big impact on Chernobyl-type reactors. Are 
we aware of that, and is that any of our concern at this point?
    Ms. Gottemoeller. Sir, we have actually had a very 
productive seminar in cooperation with the IAEA, the 
International Atomic Energy Agency in Vienna. We have also had 
two workshops in Moscow. We have gone to Moscow and sat down 
with the power plant industry and, in fact, there are some 
considerable concerns, many of which are associated with the 
stability of the power grid serving the reactors.
    There is quite a bit of concern that should there be a Y2K 
problem with regard to the electricity flow into the power 
reactors, the RBMK types as well as the other types, that it 
could lead to a serious accident, and so that has been a 
concern to us, and we have proposed to the Congress a 
reprogramming request to work quickly with the Russians on some 
programs to lay out the steps that they have to take within the 
next 9 months in order to resolve these problems. We think that 
they can be resolved, but they need to pay some attention to 
them.
    Senator Domenici. Now, we granted your reprogramming, but 
the House has denied it twice. What was the reason for denying 
the Y2K programming?
    Ms. Gottemoeller. My understanding, sir, is that there was 
a concern with regard to a hardware request. That is, we had 
hoped to perhaps supply some emergency generators for the power 
plants in case there should be a power failure of the kind I 
described a few moments ago.
    As a matter of fact, we have been able to respond to their 
concerns by really refocusing our request on the very important 
prioritization planning work that has to be done. In other 
words, we have removed the request for hardware from the 
reprogramming request, and we hope that that will deal with the 
concerns that have been expressed by the House.
    Senator Domenici. I misstated. We had not granted the 
reprogramming, but they denied it before we had a chance. We 
are prepared to, but all we got was a denial from the other 
body. We will work with you when you are ready on our side.
    Ms. Gottemoeller. Thank you very much.

                    u.s.-russian plutonium agreement

    Senator Domenici. One question now of Ms. Holgate. This 
$200 million that we have provided, set aside for 
implementation of the U.S.-Russian plutonium agreement, why 
isn't this just foreign aid to Russia that we are throwing down 
a rat hole, helping the Russians with their nuclear development 
by giving them money? How do you explain that?
    Ms. Holgate. Well, first of all, sir, let me thank you 
personally for your role in providing that additional funding.
    Senator Domenici. Obviously, I do not believe what I just 
said.
    Ms. Holgate. I understand. Nor do I, sir. One of the key 
reasons that it is not simply throwing money down a rat hole, 
is that it is in pursuit, specifically, of U.S. national 
security interests.
    The other reason is that the Department does not intend to 
implement that funding through writing a check to Boris Yeltsin 
or Minister Adamov. It will be implemented through a series of 
contracts, most likely with U.S. contractors, in achieving 
deliverables and providing goods and services in Russia in an 
auditable, reliable fashion. As we work out the details of what 
needs to be done in Russia, we will be coming to you with a 
detailed budget proposal on how we will do that.
    The achievements of the work that will be accomplished with 
those funds contributes directly to our national security 
interests by reducing the threat associated with these 
materials. Russia, as you know, is one of the most likely 
sources of loose nuclear material, given the enormous volume 
that they have there, and access to the material is really the 
final barrier to the development of a rogue nation with nuclear 
capabilities.
    Senator Domenici. Without divulging anything that is 
classified, how many bombs could this plutonium that we are 
going to dispose of that is Russian, how many bombs could it be 
used to make if it is not disposed of?
    Ms. Holgate. Tens of thousands, sir.
    Senator Domenici. So the starting point for your answer is, 
this will eliminate the potential for 10,000 or more Soviet 
nuclear weapons to use this plutonium as a part of their 
fabrication, correct?
    Ms. Holgate. Yes, sir.
    Senator Domenici. Senator Reid.

                         stockpile y2k concerns

    Senator Reid. Thank you, Mr. Chairman.
    Now, Dr. Reis, Senator Domenici asked Ms. Gottemoeller 
about Y2K, and we have here a report from GAO that just came 
out, and in this they say among other things resolving the year 
2000 computing problem is the most pervasive time-critical risk 
facing Government today. Unless adequate actions are taken, key 
Federal operations, national defense it mentions could be 
seriously disrupted.
    Tell us how you look at this Y2K, with all the many 
sensitive programs over which this subcommittee and you have 
jurisdiction.
    Dr. Reis. Senator, we take Y2K very, very seriously. We 
have looked in detail at all the weapons themselves, all of the 
support systems, and the certification process. We provided the 
appropriate oversight to ensure the work is correct. All of 
those systems, all of the strategic systems are, in fact, Y2K-
compliant--the weapons themselves and the support systems. The 
last time I looked at this there was only one, if you will, 
mission critical system that had not been certified. This is a 
pay system, and a badging system at Sandia.
    It is certainly critical to people at Sandia that they get 
paid properly, but we are literally working basically at that 
level. Not only have we reviewed it, but we gave that review to 
the Nuclear Weapons Council. The Strategic Command has also 
reviewed their systems, so we are quite confident from a Y2K 
perspective that the strategic forces and their supporting 
systems that we have to deal with are compliant with Y2K.

                    explosive testing contamination

    Senator Reid. Your written and oral testimony refers to a 
combination of experiments and computer simulations to 
demonstrate safety and reliability in our stockpile. Many of 
the experiments require violent explosions involving nuclear 
materials. I understand that explosive testing has resulted in 
some contamination of certain areas at the laboratories. Would 
you describe this contamination?
    Dr. Reis. Senator, I will have to get back to you on the 
details on that for the record.
    [The information follows:]

             Contamination Resulting From Explosive Testing

    Explosive testing at the Los Alamos and Lawrence Livermore National 
Laboratories has resulted in the release of depleted uranium, 
beryllium, lead and copper into the immediate vicinity of the test 
location. The air, surface water, groundwater and soil at the sites are 
regularly monitored by the laboratories and reported to State and 
Federal agencies; sample concentrations for these contaminants remain 
below applicable Federal, State, and DOE standards for all 
environmental media.
    In addition, as a result of explosive testing at the Lawrence 
Livermore National Laboratory experimental test site, in a remote area 
some 40 miles from the laboratory and population centers, tritium 
contamination of on-site groundwater exceeds Federal drinking water 
standards. Wells have been established between the contaminated areas 
and the site boundary to monitor tritium migration to ensure protection 
of the water supply. The measured migration data, along with the local 
geological structure known to exist and the inherent radioactive decay 
rate of tritium, are used to project contamination levels at the site 
boundary. There has never been, nor is there projected to be, a tritium 
contamination level at the site boundary that approaches the Federal 
drinking water standard. Water supplies are anticipated to remain 
unharmed.

                       maintaining test readiness

    Senator Reid. You are going to continue these very 
important experiments, is that not true?
    Dr. Reis. That is correct.
    Senator Reid. How do you intend to demonstrate our 
continuing ability to resume testing?
    Dr. Reis. Senator, we have looked at the Test Site, a 
number of areas, a number of activities that will maintain that 
capability. I think the one most vital is the continued and 
very aggressive series of subcritical experiments that we are 
working with plutonium and high explosive.
    On those tests, of course, we do not have a nuclear 
explosion, but from a safety perspective, from procedures 
perspective, you go through many of the same things that one 
would do on a full scale nuclear test. We are maintaining the 
diagnostics facilities as well.
    One of the things I was specifically concerned about, just 
for that question, is we have asked the Department of Defense 
this year to review our test readiness programs to give us an 
independent look at just how well we are doing on those. We 
feel comfortable, but we would like to have a broader look at 
that, and they will be looking at that specific area in detail 
over the next year.

                  attract and maintain skilled workers

    Senator Reid. You refer to the task, and in my opening 
statement I talked about the Chiles Commission, and Senator 
Domenici talked about the Chiles Commission, and their report 
is that the skills at the Nevada Test Site are in serious 
jeopardy because the workforce there is nearing retirement, and 
similar problems at the weapons labs to make sure that we 
attract and maintain the highest caliber of scientist, which we 
have had for the last 40-plus years.
    What is your plan to attract and retain the skills 
necessary to maintain these capabilities at the laboratories 
and the Nevada Test Site?
    Dr. Reis. The Chiles Commission also made some significant 
recommendations on how to do that, and again, I concur with 
those recommendations. They start off by suggesting that both 
the Administration and Congress must maintain a national 
commitment.
    The type of people who go to work at the Test Site, who go 
to work at the laboratories, who go to work at these plants, 
these are not people who are necessarily interested in just 
making a buck for their day. They are really interested in 
supporting their country's efforts. They are interested in 
working on technical challenges, and that means that we have to 
demonstrate to them that we have that commitment, and we have 
the budgets, and we have the support that continue to go along 
with that over time.
    So the first thing is to again maintain that commitment, 
and part of that, if you will, is to say that we support the 
programs that basically make that happen.
    They are also attracted not just by the challenge of the 
job, but by the ability of having the facilities available to 
work on, and that also means that we have to support those. We 
have to support the facilities themselves.
    In addition to which, certainly for the laboratories, and 
again for many of the other establishments is, we have to make 
the connections. Through the alliance program and through other 
things within the universities we get those people in the 
universities familiar with what we are doing, working on 
similar programs, so one could recruit the right sorts of 
people. Some of those programs are in place and are working 
very, very well.
    I think what the commission said, we ought to be doing more 
of that, and I certainly concur that we will have to be doing 
more of that.
    Senator Reid. Spread throughout the laboratories and the 
Nevada Test Site, there are some of the finest scientists in 
the world, Ph.D's in all kinds of scientific backgrounds. That 
is what we are talking about, maintaining these people in our 
defense capabilities, as compared to them going off and working 
in the private sector some place, is that not right?
    Dr. Reis. That is correct.

                   nuclear emergency response program

    Senator Reid. The nuclear emergency response program has 
undergone major revisions over the past few years. I continue 
to hear concerns that these changes may have diminished our 
response capabilities. These concerns need to be specifically 
and effectively allayed. How does the Department organize its 
lines of responsibility and funding for the emergency response 
program and, second, do you think this is the right 
organizational structure?
    Dr. Reis. I believe we have a very good organizational 
structure right now. I believe the nuclear emergency support 
teams that we support within the Defense Programs continues to 
get high marks. I believe in terms of their ability to respond 
to emergencies it is integrated with the emergency response, 
the communications, the day-to-day emergency response work that 
Ms. Gottemoeller discussed.
    These are always complex issues in terms of how one 
organizes it, because the broader emergency response of the 
Department has to do with a lot more than just the nuclear 
responses. As well, there is chemical, biological responses. 
There is just all sorts of different types of things which, as 
Ms. Gottemoeller said, they are duty 365 days a year, 24 hours 
a day.
    I think the specifics of the nuclear emergency response 
teams that we are dealing with is embedded within that overall 
organizational structure.

                     emergency response capability

    Senator Reid. Do you think we need to undertake a study to 
establish our ability to respond to the variety of emergency 
situations that could occur, or do you think we are okay as is?
    Dr. Reis. Do you want to try on that one?
    Ms. Gottemoeller. Sir, with regard to the emergency 
response capability in the Department, it is quite broad-
ranging. I agree with Dr. Reis on that.
    The complex is a very complicated structure with many 
different kinds of missions being undertaken, clearly, and it 
is, I think, very important to ensure that whatever approach we 
take to the organization of emergency response that it be 
highly integrated throughout the Department, and that the major 
operational programs, Defense Programs and our other major 
operational programs be intimately involved in the 
implementation of emergency response.
    So I think that there is room for improvement in the way 
emergency response is organized in the Department. I speak with 
my hat on as the person responsible, as I said earlier, for 
overall emergency management in the Department. I think it is 
worth a look, but I would like to underscore very firmly that 
emergency response, wherever and however the necessity for it 
arises, must be very, very well-integrated with the other 
programs.

                initiatives for proliferation prevention

    Senator Reid. As I indicated when I was complimenting Dr. 
Reis, you also have a knowledge of Russian language, is that 
true?
    Ms. Gottemoeller. Yes, sir.
    Senator Reid. I think that is worth a comment. That is one 
of your main responsibilities, and I am sure it makes it a lot 
easier with your having the Russian language capabilities, and 
I am sure that is an understatement.
    One last line of questioning, Mr. Chairman, then I will 
stop.
    In your opinion, how effectively can you prevent our 
proliferation and prevention vessels from delivering dual use 
benefits to the Russian military programs?
    Ms. Gottemoeller. Sir, this is an issue which we take 
extremely seriously inside the initiatives for proliferation 
prevention program and, in fact, since 1997, when a new 
management team took over the IPP program, we have redoubled 
our efforts to ensure that project proposals that come in do 
not have a dual use aspect to them. They are reviewed by 
multiple layers in the interagency, including the intelligence 
community here in Washington. They are reviewed by our 
scientists at the labs, who are also tied into the overall 
interagency governmental review process.
    We are extraordinarily serious about this aspect. We want 
to ensure that the work that is done is valuable in its 
scientific importance but also, of course, keeps scientists at 
work at their lab benches and not wandering off to Iran or 
North Korea, but equally important is the necessity that these 
projects and this program do not serve the development of 
military capability on the Russian side.

                           nuclear smuggling

    Senator Reid. I applaud your efforts to interdict nuclear 
smuggling at important border crossings, but I have to 
acknowledge that we have not been very successful as a country 
in preventing illegal entry into the United States, and so I am 
really a little concerned about what efforts, based on how 
unsuccessful we have been, what efforts have the Russians 
mounted to provide border security against the smuggling of 
nuclear materials at points other than formal border crossings 
and at formal border crossings?
    Ms. Gottemoeller. I will say a few words to begin with, 
Senator, about our second line of defense program.
    Our material protection control and our accounting program 
is the first line of defense, and I would like to underscore 
that that is I think really the first way that we prevent 
smuggling of nuclear materials by ensuring that the facilities 
themselves are under the best possible safety and security, 
that we have good fences, that we have effective guard forces 
and good locks on the doors. That is the first way that we 
prevent nuclear smuggling from taking place.
    We have also, through a very effective working relationship 
with the Russian customs service, just in the last year begun 
our second line of defense program where we work with the 
Russian customs service to put up nuclear detection devices at 
the most vulnerable and high volume border crossing points.
    Senator Domenici was with us this past summer when we 
opened up the first of such border crossing protection points 
at Sheryemetyevo-1 Airport. They are extremely, I think, 
effective where they operate. They are at very high intensity 
sites. For example, the other point we opened up this summer 
was at Astrakhan seaport on the Caspian Sea, where there is a 
very high level of shipping traffic to Iran, so we are choosing 
very high priority places to put these nuclear detection 
devices, in addition to which, though, we have found that we 
have to layer basically these programs, and there are programs 
across the U.S. Government.
    I do not want to say that the DOE is doing all the work in 
that regard. For example, there is a great deal of work that 
the Department of Defense is doing in working with the non-
Russian Newly Independent States in order to improve their 
border patrols and border controls overall, and so we work very 
closely and pay attention to integrating the work that we do 
with the work in other U.S. Government agencies and in other 
agencies of the Russian Government as well.
    Senator Reid. Thank you, Mr. Chairman.
    Senator Domenici. Thank you. Senator Reid, I failed to 
mention in response to your opening remarks, when you spoke of 
the extreme age of the scientists at the test site, and some of 
your other thoughts with reference to maintaining it, that I am 
going to work with you to see what we can do, and talk 
generally about it. We are now looking with your staff and with 
others at some specific things.
    Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman, and 
panelists, we appreciate your being here this morning. I will 
make a brief comment before I ask questions specific to the 
interest in my State at the INEEL and Argonne Laboratory West, 
because oftentimes when you think of them, I will tell you that 
DOE weapons and defense labs do not necessarily jump to your 
mind compared to New Mexico and Nevada and other places.
    We have had a proud history at the site dealing with the 
country's naval nuclear propulsion program, and Idaho and the 
Navy have effectively and safely managed Navy spent fuel for 
decades.
    Unfortunately, as we know, in Russia naval fuel has not 
been managed as carefully. The Defense Department's cooperative 
threat reduction program is beginning to address Russia's spent 
naval fuel. The INEEL and Argonne West have the experience to 
provide valuable technical assistance on this problem, and I 
would like to see a commitment from all of you to bring DOE's 
experiences into the project rather than to have DOD reinvent 
the wheel.
    We are all squeezing budgets at this time and squeezing 
them hard, and my guess is there is a wealth of experience and 
knowledge already out there that could be of great assistance, 
as an example, and we mentioned the Caspian Sea just a moment 
ago, and the shipping traffic there.
    As an example of this experience base, Argonne West is 
working in Kazakhstan on storage of spent nuclear fuel at a 
breeder reactor on the shores of the Caspian Sea. The 
Kazakhstan Government has decided to shut the reactor down 
permanently, but some safety upgrades will be required first to 
fire protection systems, et cetera. Argonne has experienced 
people and a proven track record in Kazakhstan to see that this 
work is done quickly and efficiently.
    Another issue we need to address is the continued 
production of plutonium in Russia at its BN-600 fast breeder 
reactor. Some people may not realize that at the same time we 
are trying to enter into agreements with Russia to dispose of 
its surplus stocks of plutonium, Russia is continuing to make 
plutonium.
    Argonne West again has the experience to convert fast 
breeder reactors, because they did it in EBR-2 in Idaho. We 
need to use this expertise that we already have at our national 
labs to assist the Russians, who face similar problems.
    The budget for nuclear energy work at Argonne is cut by $20 
million in the President's request, and that would mean the 
laying off of about 250 workers. It really does not make sense 
to me that we lay off skilled workforce when their skills could 
be applied to pressing global nuclear safety issues, so it is 
with that in mind, Mr. Chairman that I will only ask a couple 
of questions, and then I will come back for more so that we can 
share equitably in this time.

                      environmental surety program

    Dr. Reis, as DOE facilities are retired from use and become 
part of DOE's cleanup program, I think it is important that we 
leave the facilities in a condition which minimizes the amount 
of waste we will have to clean up later. The INEEL has been 
assisting the defense sites in meeting this challenge for the 
last 2 years through the defense environmental surety program.
    By all accounts, and from letters of endorsement received 
from defense production sites, DOE's environmental surety 
program was a very successful and cost-effective program. My 
question to you, why was this program zeroed out in the fiscal 
year 2000 budget?
    Dr. Reis. Senator Craig, while we did zero it out from a 
headquarters perspective effective with the implementation of 
the fiscal year 1999 budget, what we have done is turned the 
responsibility over to the folks at the Los Alamos National 
Laboratory. I agree with you that it has been a successful and 
cost-effective program, but on any budget you basically have to 
make decisions. If the folks who are on the ground who have to 
do that environmental cleanup, which are the people at Los 
Alamos, feel that it continues to be a successful program, I 
have no doubt that it will continue to get funded.
    Senator Craig. But it is not in the budget now.
    Dr. Reis. It is not in the budget right now, that is 
correct.
    Senator Craig. So for fiscal year 2000, if the President's 
budget came into place, we would assume this program would not 
exist.
    Dr. Reis. No, I do not think that is true at all. If the 
folks at Los Alamos, who again are the people on the ground, 
decide this still is the best way to handle the job, it will 
get funded.
    Senator Craig. Do we know the status of that at this 
moment?
    Dr. Reis. We are still working on that, Senator Craig.

                      environmental safety center

    Senator Craig. Well, we will still work on it with you, 
then.
    Ms. Gottemoeller, at your confirmation hearing last fall 
you talked about DOE's plans to establish the joint U.S.-
Russian international center for environmental safety to work 
on international nuclear cleanup issues. Some of this work was 
to be administered by the INEEL and Argonne West. Can you tell 
us where DOE is with respect to getting a signed agreement with 
the Russians and initiating this program?
    Ms. Gottemoeller. Yes, sir. I am actually very happy to be 
able to report progress to you since we last spoke on this 
matter last fall. The establishment of the Environmental Safety 
Center will be a centerpiece of the upcoming Gore-Primakov 
Commission meeting in 2 weeks time, and the statement 
establishing the center we actually expect to be signed by the 
Vice President and the prime minister, so it is a go, sir.
    Senator Craig. Excellent. Congratulations.
    Ms. Gottemoeller. Thank you, sir. We are looking forward to 
having INEEL closely involved in it.

                     russian naval fuel assistance

    Senator Craig. My next question in on Russian naval fuel 
assistance, and this may be for any witness here. Much of 
Russia's naval spent fuel is sitting in their idled submarines, 
we are told, and they do not really have the resources to deal 
with it.
    In Idaho, the Navy has been safely managing U.S. naval 
spent fuel for decades, as we all know. Idaho's personnel have 
a lot of experience on this issue. Would any of the witnesses 
care to respond with ways we might more cooperatively work on 
the Russian submarine fuel issue to get it into a safer storage 
condition?
    Ms. Gottemoeller. Senator, if I may take a crack at that, 
we at DOE already have a very fast-moving material protection 
control and accounting program to deal with fresh fuel from the 
Russian submarine program, and that is in both the northern 
fleet area and the Far East.
    It has been very fast-moving. The Russian Navy has really 
put a number of intense schedules on us, because particularly 
in the far north, of course, we have a very short construction 
period to work with, but we have been able to work very quickly 
to get that fresh fuel under better, safer, and more secure 
conditions.
    We are currently on both the U.S. interagency basis and in 
discussions with the Russians considering how to move on to the 
broader range of problems that you address. DOD already has its 
successful efforts underway under the cooperative threat 
reduction program to dispose of the Russian strategic strike 
submarines, the SSBN's, and now we are considering what steps 
we should take and what priorities we should set in dealing 
with the broader question of naval spent fuel and submarine 
disposition.
    So this, too, will be a subject for the Gore-Primakov 
Commission meeting coming up in several weeks time, but I 
wanted to assure you that not only are we engaged very actively 
in interagency discussions on this, but also we are beginning 
to engage with the Russians on this.
    Senator Craig. So you mentioned a type of submarine. I 
assume that will be decommissioned and ultimately cut up, and 
therefore those are some of the subs that have that spent fuel 
in them. You will obviously have to deal with the fuel at that 
time.
    Ms. Gottemoeller. Exactly, sir. The program that the CTR 
program has undertaken to cut up the SSBN's, they already have 
embraced in that an entire complex of activities to address the 
spent fuel problem. The same kind of program would have to be 
worked out with regard to the attack submarines, the so-called 
SSN's and the cruise missile submarines, the SSGN's.
    I would like to point out, however, that in examining this 
issue we do believe that it will be a very large task to 
undertake and quite expensive, and so we believe that this 
particular set of projects will be ripe for the involvement of 
the international community, and that is an explicit part of 
what we have been planning under the expanded threat reduction 
initiative, President Clinton's new initiative in this regard.
    Senator Craig. I was just going to say, surely we were 
going to seek a shared burden there.
    Ms. Gottemoeller. Yes, sir, indeed, and I think that there 
will be other countries who are interested in participating.

                        russian breeder reactors

    Senator Craig. Mr. Chairman, let me do one more question, 
if I could, and then I would turn to our other colleagues here.
    Even as we work cooperatively with the Russians on 
disposing of excessive weapons plutonium, Russia's fast breeder 
reactors are producing plutonium. That is an accurate 
statement, is it not?
    Ms. Gottemoeller. Yes, sir.
    Senator Craig. In Idaho----
    Senator Domenici. What was that, sir?
    Senator Craig. As we are working with the Russians to get 
rid of weapons plutonium, we still have Russian reactors 
producing plutonium. That seems to be a bit of a contradiction, 
but it appears to be the case.
    In Idaho we have experience in converting the breeding 
blanket on the EBR-2 reactor to stainless steel and making 
other fuel alterations to reduce plutonium production. Would 
any witnesses care to respond to how DOE could use the EBR-2 
experience in collaboration with the Russians and Kazakhstan to 
alter their breeder reactors? Is there any thought in mind 
there?
    Ms. Holgate. Yes, sir. I had the pleasure of meeting with 
some of the scientists from Argonne West to discuss this very 
issue within the last couple of weeks. We have an active R&D 
program underway in Russia to work on converting that BN-600 
reactor to use MOX fuel, and a key element of that will be 
removing the breeder blankets that actually create the 
plutonium, and I am convinced that there is a cooperative role 
for Argonne West's experience as we move forward with the 
Russians on that project.
    Senator Craig. These reactors I assume would be converted 
to energy production. Is that the intent with the MOX fuel?
    Ms. Holgate. Yes, sir. There is only one of them.
    Senator Craig. There is only one?
    Ms. Holgate. Only one BN-600.
    Senator Craig. Thank you.
    Thank you, Mr. Chairman.
    Senator Domenici. Thank you.
    Senator Cochran.

                     sufficiency of budget request

    Senator Cochran. Mr. Chairman, Thank you.
    Dr. Reis, you responded to the chairman's question about 
whether or not the amount requested in this budget is going to 
be sufficient to ensure the safety and reliability of the U.S. 
nuclear weapons stockpile, and you answered in the affirmative.
    I tried to remember our hearing last year when we talked 
about this program that was being put in place and using 
simulation and other processes as substitutes for testing of 
our nuclear weapons, and I thought I remembered at that hearing 
that you said, or some other witness said that it would require 
$5 billion a year to fund this stockpile stewardship program, 
and I am curious what has changed to make the request of $4.5 
billion, $500 million less, sufficient.
    Dr. Reis. Senator, I do not recall saying $5 billion. We 
could look back at the record. As long as I am the 
administration witness, I would support the President's budget, 
or I basically would not be here, and I have been through three 
administrations now.
    Another witness might have said $5 billion, and I think 
there is no question it is a question of relative confidence. 
If the Senate, or if the Congress suggests that we could use 
more in certain areas, I would certainly not object to that one 
bit. Last year we asked for--$4.5 billion, and the Congress 
only gave us $4.3 billion, so there is clearly different 
adjustments in terms of how much money you can spend on this.
    It is a matter (a) of confidence, and (b) getting through--
dealing with other priorities within the Administration. You 
have heard some of these other priorities which are very 
important today, and again the Congress also has other 
priorities.
    So I believe that the budget we have put forward to you is 
sufficient to answer the question, are we confident in our 
ability to support the stockpile now and support the stockpile 
in the future.

                     comprehensive test ban treaty

    Senator Cochran. Will the ratification of the comprehensive 
test ban treaty change any of the plans that you have underway 
for this program?
    Dr. Reis. No, sir. In fact, the whole idea of Stockpile 
Stewardship was to project ahead toward that time when the 
Comprehensive Test Ban treaty was ratified and was in place, 
and so we are building as a basic assumption that it will 
occur.
    I will add that in order for us to maintain confidence 
after that treaty is ratified, we would have to maintain the 
support for this program for the indefinite future.

                  aging nuclear scientists of concern

    Senator Cochran. There was something in your prepared 
remarks that got my attention, that the age of our nuclear 
weapons scientists, those who are familiar with the weapons and 
are capable of building a weapon, is such that by the year 2014 
most of them are going to be gone. We will not have anybody 
around who knows how to build a nuclear weapon if we had to, or 
if we wanted to. Why is that a concern?
    Dr. Reis. Clearly that is a concern because we may have to 
build again. The pace of the program, the reason we are moving 
ahead on the simulations, the reason we are moving ahead on the 
experiments is to get those new people in place to certify the 
stockpile while the people who have actually had the testing 
experience are there to help us. Let me tell you and tell the 
American people that those weapons are safe and the program we 
have in place is the right program. So far, so good, but we 
have to stay the course and keep moving in that direction.
    Senator Cochran. On the question of proliferation, I was 
pleased to hear the work that is being done in Russia to try to 
improve the capacity there for controlling exports of weapons-
grade material and other devices.
    Do you get involved at all in missile proliferation issues 
as well, because that is so closely connected with nuclear 
weapons.
    Ms. Gottemoeller. Senator, actually the Department as you 
know focuses really on the warheads and on the fissile material 
and so no, I do not become directly involved in matters to do 
with missile proliferation.

                concern about russian assistance to iran

    Senator Cochran. There has been some concern about Russian 
assistance to Iran in building a nuclear reactor down there. 
Why does Iran need a nuclear reactor, with all of its oil 
reserves and other energy resources? What is the purpose of 
building a nuclear reactor, other than to produce weapons-grade 
material?
    Ms. Gottemoeller. Sir, that is a question we ask ourselves 
every day, and it is a very good question I think.
    We have, as you know, imposed sanctions on three Russian 
entities just since January this year, two of which we are 
concerned are engaged in nuclear cooperation with Iran, and so 
we have been very much focused on that question and very 
concerned about it, and have been very direct with the Russian 
Government in expressing our concerns, and in conveying the 
necessity that they move rapidly to resolve these concerns and 
ensure that there is not cooperation going forward with the 
Iranian reactor program outside that which was agreed 
bilaterally with the Russian side regarding the Bushier 
reactor.
    Senator Cochran. To your knowledge, have these sanctions 
had any effect on Russian business or institute activity?
    Ms. Gottemoeller. Sir, I know the Russian Government is 
paying close attention. I was in Moscow 2 weeks ago with Deputy 
Secretary of State Strobe Talbott. We have gotten their 
attention, there is no question about it, but there is a team 
in Moscow even today talking again with them about these 
issues, so there is no question in my mind that the Russian 
Government is very focused on trying to resolve our concerns. 
We are just going to have to see what happens.
    But again, this is an issue that has consistently been 
raised at the highest level in our Government, and I know it 
will be an issue in 2 weeks time at the Gore-Primakov 
Commission meeting.
    Senator Domenici. Senator, would you yield on that?
    Senator Cochran. Yes.
    Senator Domenici. Let me just say to you, and for the 
record I indicated in my opening remarks about the only thing 
that Russia has going with America that is yielding any 
resources to Russia are energy programs. We do not have an 
economic program of assistance. We would be kind of foolish to 
be putting money into that, and they know from this Senator 
that we have to appropriate most of that in this committee.
    They know that the Iranian situation could cause any of 
these programs to be canceled just because the United States 
Congress could feel, as you have expressed to me, a grave 
concern that while we are doing this they are having their 
games with Iran, and I think in the last 4 or 5 months there is 
evidence that has been raised to higher and higher levels, and 
they now know it, and they have made some statements which 
would indicate they cannot fool us any more, that something is 
really happening. They still question the scope of what they 
are doing, but nonetheless I think your line of questions is 
very, very important.

                                start ii

    Senator Cochran. In your visit recently to Russia, were you 
able to get a sense for what the intention of the duma might be 
toward ratification of START II, and do you continue to feel 
that that is an important initiative for our Government to 
continue to press with the Russians?
    Ms. Gottemoeller. Yes, Senator, I think it is absolutely an 
important initiative for us to press with the Russians, because 
START II will be an important aspect, I think, not only of 
further strategic arms reductions with the Russians but it 
also--you know, frankly, the Russians I think realize, 
particularly those professionals in the ministry of defense, 
that they have a tremendous budget burden to bear if they are 
expected to keep their force levels up to START I numbers, so 
within the ministry of defense, and I am convinced within the 
Government as a whole, there is a recognition of the importance 
of getting START II ratified.
    Now, in the last couple of weeks we have seen, particularly 
in the media, but we have seen reference to the fact that there 
are those in the duma who also realize that it is time to begin 
to move to get this agreement ratified. Even, I noticed in the 
press last week, Mr. Zhirinovsky has spoken up now and said 
that it is time to move forward and get the START II treaty 
ratified, so we continue to be hopeful that in fact they will 
move and get it ratified, and then we can move forward and 
begin with a negotiation of the START III agreement.

                 status of nuclear power plant in cuba

    Senator Cochran. In connection with the nuclear power 
program in Russia, we know that because of the Chernobyl 
incident there are causes for concern about the integrity of 
the reactors. At one point it was a worry here that in Cuba 
they were going to build some Chernobyl-type reactors. What is 
the status of that situation in Cuba, and do we have any threat 
to safety and security of people in Florida or elsewhere in the 
United States because of their nuclear power program in Cuba?
    Ms. Gottemoeller. Senator, indeed the Russians, the Soviets 
before them and the Russians have been cooperating to build a 
nuclear power plant in Cuba. That project is currently dormant, 
however, because the Russians, as you know, are suffering 
severe economic problems and so are the Cubans, and so in terms 
of that program being an active project, it simply is not so at 
the present time according to our observations.
    However, I would like to assure you that we keep a very 
close eye on that project in case it becomes active again.
    Senator Cochran. Thank you.
    Senator Domenici. I am sorry it has taken so long, Senator 
Dorgan. Now you can have as long as you like.

                           tritium production

    Senator Dorgan. I will be brief, Mr. Chairman. Let me thank 
all of you. This is frankly an area that I have not spent much 
time thinking about or discussing or studying.
    Dr. Reis, your testimony is very interesting in giving us, 
at least giving me a description of what stockpile stewardship 
means. One part of your testimony, I would like to just ask a 
brief question about, is the production of tritium. I 
understand its role with respect to a nuclear weapon. What I do 
not understand is where this comes from.
    I understand the decay requires it to be refreshed from 
time-to-time, and you are suggesting in your statement that we 
have not produced tritium since 1988, or whatever, and we, 
therefore, must begin going back into production. What is 
tritium?
    Dr. Reis. Tritium is an isotope of hydrogen, and when you 
get--I will not get into the physics of it, but it has two 
neutrons in addition to the proton and the electron going 
around, and so it is a special isotope of hydrogen, and it is 
not found in nature. You have to make it, and the fact that it 
has those extra neutrons, that gets involved in the fusion 
process and also helps particularly in the fission process 
itself.
    I would say it is like STP for your car, or something like 
that. It is a product that really is designed to make this 
whole nuclear weapon go. It is key to the whole hydrogen bomb 
approach, and is found in all our nuclear weapons, and as far 
as we know found in all the current modern nuclear weapons of 
all the nuclear weapons states.

                    cooperative efforts with russia

    Senator Dorgan. Thank you very much. Let me ask a question 
about the issues that Ms. Holgate and Ms. Gottemoeller 
discussed. I have not been to Russia, regrettably, but I 
understand, their economy is in decay; in collapse. They have 
chaos virtually everywhere you look because they do not have 
the resources to do the things that they really need to be 
doing.
    We are encouraging them under our arms control agreements 
to destroy weapons and destroy delivery systems, with some 
success. I think the Nunn-Lugar expenditures and other 
approaches have been remarkably successful.
    We are also involved in the disposition of fissile 
material, ours and theirs, hopefully, and then also working 
very hard on nonproliferation issues. Included in that is the 
closed cities initiative.
    One of the things that I have been interested in is the 
role of food in all of this. I want to ask just a general 
question. As you know, we produce an enormous amount of food in 
North Dakota, and Idaho, and some in New Mexico, and we produce 
grains far in excess of what we can use. My understanding is 
there is a desperate need for that, overseas even in Russia, 
and I am wondering if in the context of what we are doing with 
nonproliferation, with the destructions of weapons systems and 
delivery systems, whether there is a role either with respect 
to incentives or barter using food.
    We use food in PL-480, we use it in GSP credits and so on, 
but is there an additional role that we might evaluate here in 
the context of all the things we are trying to do to encourage 
the Russians to move in the right direction at a time when they 
do not have enough food? Food, of course, is one of the 
requisites for living and stability.
    So let me ask Ms. Gottemoeller if you would respond to 
that.
    Ms. Gottemoeller. Thank you, Senator. As you know, food 
assistance is in general a very important part of our 
cooperative efforts with Russia and has played a vital role in 
the crisis that has emerged since the August crash of the 
ruble, and so both historically and at the current stage it is 
an important, very important part of our overall relationship 
with Russia.
    With regard to the very interesting idea that you have 
raised, we have already begun working together with your staff 
to evaluate the idea. My staff met with yours last week once, 
and I understand they will be meeting again today, and so I 
think it is an idea well worth exploring, and we really look 
forward to working with you on it.
    Senator Dorgan. I appreciate that. This is one of the ideas 
that I have shared with Senator Craig, who I think also may 
have some interest in it.
    I ask the question not to do anything other than enhance 
the kinds of subjects we are talking about. I happen to think 
that of all the issues we deal with in the world today, the 
proliferation of nuclear weapons and weapons of mass 
destruction and their delivery systems represent the one area 
that has the potential of seriously threatening us, our 
children, and our grandchildren, and the future of this world.
    The work that you are doing and the work we are doing as a 
country to establish a priority in these areas is absolutely 
essential for our survival, and my hope is that we are able to 
see a START III and see continued reductions in nuclear weapons 
and delivery systems.
    I hope all of that can be remarkably successful, but the 
discussion about Iran and North Korea and missile tests, the 
efforts in the black market to achieve materials to produce 
nuclear weapons, all of these things are very frightening and 
very scary, and that is why the work that you all are doing is 
very important, and that is why funding for that work is so 
important as well.
    Mr. Chairman, I have more, but I will be meeting with the 
witnesses as I become more familiar with these areas. You have 
had the advantage of spending a lot of time in this area and 
have done wonderful work. I thank the representatives from the 
agency.
    Senator Domenici. Well, Senator, the 5 years since the 
beginning of the Stockpile Stewardship as an alternative to 
underground testing, I have been the chairman of the committee 
for those 5 years, and I am very fortunate in that I have 
become acquainted with and am kind of proud of this program, 
and I do my best not only here but with the administration to 
keep their budget up.
    I was part of getting them to go up to the $4.5 billion 
level without any question, and those who are familiar with it 
know that.
    Dr. Reis. Without any question, Senator.

                     russian plutonium disposition

    Senator Domenici. And also with reference to the plutonium 
disposition, which I think you quickly caught on to, it is 
very, very important in terms of the disarmament, a major 
international disarmament approach, but it is difficult. I 
mean, there is no question they have different motives, 
different goals, et cetera, than we do.
    I want to ask Ms. Holgate, Senator Craig raised the issue 
of--what he said, it is kind of ironic that in the fast breeder 
reactors they are producing plutonium and we are trying to get 
rid of 50 tons of their weapons-grade pit-formed plutonium. I 
know that some of these reactors do produce plutonium, but are 
they processing plutonium so that it can be used in weapons?
    Ms. Holgate. Not that I am aware of, sir.
    Senator Domenici. So there is a difference. That plutonium 
that is coming out of those reactors, something has to happen 
to that.
    Ms. Holgate. That is correct.
    Senator Domenici. And what we are talking about is pure 
plutonium for weapons that has already been processed and is in 
the kind of forms that were part of the nuclear weapons.
    Ms. Holgate. That is correct, sir.
    Senator Craig. Mr. Chairman, you are absolutely right. My 
intent was not to do that. My intent was to suggest that we 
could assist them in converting these reactors to breed less 
plutonium and we have the talent and the skill to do that.

             progress with russia on plutonium disposition

    Senator Domenici. Senator, one of the anomalies that exists 
right now that makes it very difficult for this agreement with 
the Russians with reference to the disposition of plutonium to 
occur is that they actually believe this pure plutonium is a 
very, very valuable legacy, not a legacy for military use, but 
a legacy for civilian use in breeder reactors, because it is a 
great fuel for breeder reactors, and they have dreams of 
building the second and third generation of breeder reactors.
    In fact, we are either fortunate or unfortunate, depending 
on how you look at it, to have the head of the Russian nuclear 
agency and an expert in this idea of coming forth with another 
generation that would use this plutonium, which caused them not 
to want to destroy it. On the other hand, I think we are 
struggling here with the concept of just keeping some kind of 
improved light water reactor, the next generation of that 
alive, and not a third and fourth generation breeder reactor, 
and that is causing some very difficult times in terms of the 
negotiating. It is a difficult concept, bridging.
    Let me say to you, Ms. Holgate, I do not want to overstate 
the case of the urgency of getting an agreement signed and 
putting some of this money to actual use, but you know that I 
was instrumental in pushing to put a time limit in that 
communique you spoke of. In fact, it says we will be on the way 
in 6 months.
    I do not know the exact words, but it has a 6-month time 
frame in there, and now I am telling you from a practical 
standpoint how important it is, because there it sits, and it 
has only been there since the supplemental of when, September, 
when did we do it, or October, and the House in trying to find 
money to cover a new supplemental is already contemplating 
using $125 million of it. I thought $100 million yesterday when 
I spoke to your negotiators. It is $125 million, or, I am 
sorry, $150 million. It is going up every day. They will have 
some more supplementals and they will use the entire $200 
million as an offset.
    So I think it is vitally important that we show some 
progress and that the Russians understand this is not going to 
sit around there for very long, and they have got to respond to 
money, because they desperately need it.
    Ms. Holgate. I could not agree more, sir, and believe me, I 
am reminding our State Department colleagues of the importance 
of that on virtually an hourly basis.

                       production of new weapons

    Senator Domenici. Well, I do want to say, since the 
Department of Energy has all the expertise, in my opinion, and 
talent, it is with great reluctance that I have sat by and 
watched the State Department of the United States take over 
these negotiations, but that is a bigger issue than me. I mean, 
that is an executive issue that I guess I could fix it by 
saying they cannot in a bill, but I would not do that.
    But they have now guaranteed me that they have the best 
negotiator that they have ever had on these kinds of matters. I 
have met him. I just hope he is not a typical State Department 
negotiator, because they deal in eons in terms of 
relationships, and this one will not last that long.
    Let me ask a question regarding the production of new 
weapons. In my State and in various parts of the country where 
we have groups that are against stockpile stewardship and our 
laboratories spending the money they are spending, which you 
were just asked, is it enough. They are saying it is too much, 
but they are also saying we are making new nuclear weapons, new 
nuclear bombs.
    Now, are we currently producing or planning to produce any 
new nuclear weapons, and when did we last produce a new nuclear 
weapon?
    Dr. Reis. There are no current plans whatsoever to produce 
new nuclear weapons. The last one produced was in 1989.
    Senator Domenici. Now, I am certain that those very same 
people and groups do not believe you, and do not believe me.
    Dr. Reis. I am under oath. [Laughter.]
    Senator Domenici. Well, frankly, I just want to repeat that 
everything I can determine the Department is not engaged in any 
clandestine efforts to produce nuclear weapons, they are not 
being produced, and we have not produced them in quite some 
time.
    Dr. Reis. That is correct, Senator.

                     reestablishing pit production

    Senator Domenici. Now, sometimes the opponents say, well, 
you are producing, you are getting ready to produce pits, which 
are an integral part of the American, as we name it, the pits 
of an American nuclear weapon, and you are getting ready to 
have a facility in Los Alamos that could produce 20 pits by the 
year 2007, and they construe that to be making bombs, new 
bombs.
    Now, the truth of the matter is, the Stockpile Stewardship 
Program is aimed, as you indicated, at determining each and 
every part of the nuclear weapon, and whether it still has 
integrity in it, and whether it still has life and can do its 
job, and the pit production, when we get there, it is to have 
some spare pits for replacement purposes. Is that correct?
    Dr. Reis. That is correct. As you know, every year we take 
apart weapons in the stockpile. We take apart approximately 11 
of each weapon type, bring them back from the stockpile, take 
them apart, and one of those from each type are, if you will, 
destructively tested, where we take the pit, and we look at its 
characteristics. We look at it under microscopes, electron 
microscopes. We go through all the forensics that we need to.
    That pit is no longer useful, so when we have to replace 
those and put those back in the stockpile, we have to put a new 
pit in the weapon. We did make some spares when we made those 
production pits. Those spares will be running out in a 
relatively short period of time, and so we need a new system, a 
new factory, if you will, to put those pits together.
    We have closed the Rocky Flats, where we made those pits in 
the past. It is completely closed, and no intention of opening 
it, so we have to replace the pits we are currently using for 
those surveillance programs.

                           gao report on ipp

    Senator Domenici. Let me move to Ms. Gottemoeller. The GAO 
has issued a report on one of the programs that is aimed at 
trying to keep Russian scientists with the kind of expertise 
that we are talking about here in Russia, rather than having 
them as a commodity for barter or sale in the world.
    That report indicates that scientists who receive support 
from the IPP program may work on dual use technologies, or may 
even continue to work on weapons technology when they are not 
working in the IPP projects. How do you respond to that 
complaint?
    Ms. Gottemoeller. Well, Senator, if I may, I would like to 
divide my answer into two parts. First of all, as I indicated 
earlier, we are very, very serious about ensuring that projects 
that are undertaken in the IPP program do not in fact 
contribute in a dual use mode or in a nuclear mode to the 
development of new capability in the Russian military 
establishment, and we are very serious about that.
    We make every effort through our review processes, 
including through very serious review processes involving the 
intelligence community, to bring all information to bear in 
order to ensure that there is no such aspect to any of our IPP 
projects.
    I would like to point out, though, that with regard to the 
nuclear weapons scientists, Russia is still a very important 
nuclear weapons State under the NPT, and they have the same 
stockpile stewardship concerns that we have. In other words, 
they need to continue to maintain the safety and the security 
of their very large nuclear arsenal, so essentially it is 
important for their nuclear scientists to continue to work in 
their stockpile stewardship program, and that is a very 
important aspect that we support for our own national security, 
because we want to ensure that their nuclear stockpile remains 
safe and secure.
    However, with regard to the chemical and biological 
scientists, the problem is easier because chemical and 
biological weapons have been outlawed by international law, and 
so we really have an easier problem there in terms of 
delineating exactly what those scientists may and may not work 
on.
    With regard to the nuclear programs it is a little bit more 
complex, but I am confident that we can ensure that the 
scientists are not contributing to new Russian nuclear 
capability.

                 russia's production of nuclear weapons

    Senator Domenici. I would say, and you correct me if I am 
wrong, that the Russians could not honestly answer that they 
are not producing new nuclear weapons, because they do that, 
right? They still are producing them, is that correct?
    Ms. Gottemoeller. Sir, their approach to stockpile 
stewardship is----
    Senator Domenici. I am going to get to that in a minute. 
Just answer my question.
    Ms. Gottemoeller. They are producing, yes.
    Senator Domenici. The point of that, however, is that we 
chose a path at a juncture in our nuclear weapons history to go 
with very complicated weapons that we thought were far 
superior, difficult to put together, and we try to maintain 
them and keep them for long periods of time, which is what we 
are preserving, that kind of weapon.
    Ms. Gottemoeller. Yes, sir.
    Senator Domenici. They made a decision to go with a much 
easier design that does not have as long lasting qualities and 
is--in some cases the parts are more robust. They replenish 
those frequently, as compared to us doing it rather 
infrequently, and us indicating now we are not going to 
replenish them as a weapon at all, and so they must do that to 
keep their stockpile up even if they were engaged in a 
stewardship program, is that correct?
    Ms. Gottemoeller. That is correct, sir. They employ a 
remanufacturing approach.
    Senator Domenici. Remanufacturing of the weapon?
    Ms. Gottemoeller. Yes.
    Senator Domenici. And we are engaged in pieces that we are 
going to replace to keep it solid. We need a huge inventory of 
new things to make sure we are doing that right. We need big 
computers. They may not. They might like to have them, but they 
may not need them to keep theirs going in a remanufactured 
mode.
    I do want to say that I am very pleased with the work you 
are doing, and I did all I could to get your rank moved up. I 
think when you are over there negotiating with the Russians in 
the capacity that you are, you ought to have the right title, 
and I hope we can work on that again and get it working in the 
committee and see what we can do to raise your title to what it 
ought to be.
    Ms. Gottemoeller. Thank you very much, Senator. I very much 
appreciated your support throughout. You have been a great 
help.

                       new construction projects

    Senator Domenici. With reference to the construction of new 
buildings, Dr. Reis, there are three new construction starts in 
your stockpile stewardship program. The evidence before you and 
before us from the independent project review submitted to 
Congress gives a mixed picture of DOE's readiness to initiate 
new construction projects.
    What actions have you taken to ensure that projects are 
thoroughly reviewed for mission needs, the scope, costs, and 
schedules are firm and clearly established, and that quality 
project management personnel are in place at the labs within 
DOE?
    Dr. Reis. Well, Senator, I think I agree with you that our 
record in terms of new construction projects is mixed. Some we 
do very well, and some we have done less than very well, to say 
the least.
    The Department has put together a detailed review by 
external reviewers. We have initiated our own processes as 
well, working particularly with John Browne, the Director out 
at Los Alamos where we have a particular concern. In addition, 
Dr. Bishop, Bill Bishop, our program manager for the 
accelerated production of tritium, which is one program that 
was on time and on budget and Dr. Bishop has gotten a special 
assignment, if you will, to go through and assure ourselves 
that we are moving in the right direction on construction 
projects.
    There are others--the National Ignition Facility, which is 
probably the largest, most complex program being done in the 
Nation is on time, on schedule, and has put in place right from 
the start some of the very best program management that we know 
available.
    So we are trying to, if you will, use a lessons learned 
approach as well. Those things that are doing well are going to 
help those things that are not doing so well.
    Senator Domenici. Thank you.
    Senator Craig.

                       nuclear cities initiative

    Senator Craig. Just one last question, and I guess it is 
really more of a comment than a question. Senator Dorgan 
referenced the nuclear cities initiative that Secretary 
Richardson has developed with the closed weapon cities of the 
Soviet Union, and I see that initially the teams are between 
Russian cities and DOE weapons labs.
    I guess my comment would be that it would be my hope that 
after the initial teams have been in place for a while, that 
maybe DOE would consider opening this initiative to nonweapons 
labs.
    Once again, I think we have an opportunity to contribute 
here, and would like to do that, and I know certainly folks at 
my lab would very much like to.
    Ms. Gottemoeller. If I may comment, Senator, we already 
have that door open, and very much want to have the 
participation not only of the weapons labs but of the 
nonweapons labs as well, and frankly I think one of the very 
important areas that we can work on that will involve INEEL is 
with reference to the Environmental Safety Center.
    The Russians have some interesting technologies that we 
have seen coming out of their nuclear complex, out of their 
nuclear cities which can provide some important help for them 
in their cleanup arena, and I expect that the Environmental 
Safety Center will be able to work with them to help to develop 
some of those technologies and perhaps commercialize them 
beyond Russia, so I really see an important role for INEEL in 
that regard.
    Senator Craig. Great. Thank you.
    Mr. Chairman, thank you.
    Senator Domenici. Senator Cochran.

                           domestic security

    Senator Cochran. Mr. Chairman, I feel constrained to ask 
about the so-called lapse in security that we have been reading 
about in the press, the fact that we have had secrets or 
classified information about our nuclear weapons program fall 
into the hands of other countries, particularly China in this 
situation, that we have had reported.
    Have there been changes implemented now to fully protect 
the security of our classified information with respect to our 
nuclear weapons program?
    Dr. Reis. Let me take that one, and perhaps Ms. 
Gottemoeller would like to comment.
    We have had significant changes, and we have had those 
changes occurring over some years. I think Secretary Richardson 
has been particularly aggressive in that regard, but when this 
program, or this issue first came up some years ago both the 
Department and the other parts of the national security 
establishment were made aware, and we have begun compensatory 
actions right from the start.
    Senator Cochran. Can you assure us that the information 
that we have classified and restricted is being safeguarded by 
new procedures that are being monitored carefully and enforced 
to protect the Nation's security interest?
    Dr. Reis. We are doing everything we can in that regard, 
Senator Cochran.
    Do you want to add to that?
    Ms. Gottemoeller. Senator Cochran, perhaps I would just add 
a few details. Secretary Pena, and after Secretary Richardson, 
and Dr. Reis referred to the very energetic way in which 
Secretary Richardson has tackled this problem, but the 
implementation of Presidential Decision Directive 61 has been 
taken very seriously over the last 6 months by now two 
Secretaries, it has resulted in a senior FBI individual, Mr. Ed 
Curran, coming over and taking over the counterintelligence 
operations at DOE, working very closely with the labs. He has 
helped to bring in some very experienced FBI specialists to 
work with the laboratories and with the lab directors to 
improve their counterintelligence performance.
    We have also doubled and then redoubled the budget for 
counterintelligence, beginning with $7 million and now up to 
$31 million over the past year, so we are moving in that 
regard, and you were referring to some of the security 
procedures. That has been an area that has received an enormous 
amount of attention, and we are really strengthening security 
procedures, including incorporating the use of polygraphs in 
certain circumstances.
    So, I think that there is a great deal of attention to this 
set of problems now, and I think that we have a path forward. 
We have to continue working it very hard, but we do have a path 
forward.
    Senator Cochran. Thank you very much.

                        chinese nuclear weapons

    Senator Domenici. Dr. Reis, I want to join in a way with 
Senator Cochran, who expressed concerns. Obviously, we will all 
be hearing more about what has happened over the last years 
with reference to China.
    I wonder, Dr. Reis, from another vantage point, you know, 
we know so much about the Russian nuclear stockpile, and the 
SALT negotiations have yielded a great deal in terms of where 
we ought to be and where we are moving, and what has dawned on 
me of late is that I have not heard anything about 
relationships between the United States and China regarding 
their nuclear stockpile, nor have I heard any assessment in any 
committees about how serious it is, and I think we ought to 
look at that, too.
    We are so busy now worrying about Russia, and Russia is in 
an economic doldrum from which they may not spring forth with 
any economic vitality for a long time. But China is not in that 
condition, and China seems to be producing a lot of nuclear 
weapons, and they are not even loath, Senator Cochran, to 
putting them in parades. They just run their nuclear weapons 
down the streets and roads in parades.
    So there is a lot know about them, but I think maybe we 
ought to consider asking somebody to brief us, or some 
committee, maybe yours, on the status of the Chinese nuclear 
weapons situation, because it is getting more and more serious, 
and we do not seem to be--other than now we are worried about 
how they got it, we do not seem to be talking about how serious 
it is.
    Maybe you have in your subcommittee, when you are talking 
about antimissiles. Has there been some assessment of China in 
that?
    Dr. Reis. Senator, I would encourage you to do so. I think 
we obviously cannot discuss this here. I think there are people 
in the laboratories who have, I think, as fine a knowledge as 
there is on that subject.
    As you point out, we certainly do not know the same amount 
that we know about other nations' weapons, but I think we have 
the ability to give you, or to answer those questions about 
what we know and what we do not know. There are certainly 
experts at the laboratories who I am sure would be available to 
give you their candid views on what the status is in China.

                     Additional committee questions

    Senator Domenici. Could you answer our submitted questions 
within 2 weeks?
    Dr. Reis. Absolutely.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Domenici

               condition of the nuclear weapons stockpile
    Question. Dr. Reis, is the nuclear weapons stockpile safe, reliable 
and secure?
    Answer. Yes. The Secretaries of Energy and Defense have completed 
the third annual certification and transmitted it to the President. It 
states that the nuclear weapons stockpile is safe and reliable and no 
underground nuclear testing is required at this time.
    Question. Do you have confidence that the weapons in the stockpile 
can and will perform as designed?
    Answer. Yes. Based on the detailed analysis conducted during the 
annual certification process, I am confident that the stockpile will 
perform as designed.
    Question. Are there any critical needs not addressed in the budget 
request because of lack of budgetary resources? If so, please explain.
    Answer. No. The budget request for Defense Programs is sufficient 
to address all critical needs. We have considered carefully both the 
long-term and short-term needs of the Stockpile Stewardship program, 
and believe that we have presented a balanced program within the $4.5 
billion funding envelope.
                     funding for weapons activities
    Question. Will the budget request before the committee allow DOE to 
meet all the DOD annual weapon alterations, modifications, and 
surveillance schedules? If not, explain what they are and why they are 
not of sufficient priority that they are not included in the 
Department's budget request?
    Answer. The budget request does not allow DOE to meet DOD's targets 
for annual weapon alterations, modifications, and surveillance 
schedules. Although the highest priority requirements are met in our 
budget request, some workload related to alterations, modifications, 
and surveillance has been stretched out. This includes: Pantex workload 
to support full stockpile surveillance efforts on the W80, W62, B83 and 
W88; Y-12 plant workload activities for surveillance test assemblies 
for the W87, W88, and B61; Kansas City Plant workload for the B61-7 
common radar alteration; and Sandia workload for surveillance test 
assemblies for the B61 alterations, and for Gas Transfer Systems for 
the W62, B83, and W87. The changes were necessary to balance near-term 
stockpile requirements with long-term stockpile stewardship needs. 
While these deferred activities are important, they will not have a 
direct impact on the safety or reliability of the stockpile for fiscal 
year 2000.
                        chiles commission report
    Question. In response to a provision in the National Defense 
Authorization of 1997, the Commission on Maintaining United States 
Nuclear Weapon Expertise (the so called Chiles Commission) has 
submitted their final report and recommendations on recruiting and 
retaining the critical technical and scientific workforce needed to 
support and maintain over the long term a safe and reliable nuclear 
weapons stockpile in the absence of underground nuclear testing. First, 
are you familiar with the report, and if so, can you review briefly the 
Commission's findings and recommendations?
    Answer. Yes, I am familiar with the report. The Commission's report 
contains 12 findings and 12 specific recommendations for action to be 
taken by the DOE, the Congress, the Administration, DOE national 
laboratories, and production plants. These recommendations emphasize 
competitive recruiting and retention practices, management and 
structural reforms, and long-term stability and oversight issues.
    Question. Does DOE agree with the findings and recommendations? 
Does this cause you alarm or concern?
    Answer. The Commission was comprised of individuals with knowledge 
of the Stockpile Stewardship Program. Their findings and 
recommendations are sound and I find no reason to be either alarmed or 
concerned. The Commission ``found a great deal that was healthy in the 
nuclear weapons complex with many trends moving in the right 
direction'' and that ``the nuclear weapons program is not in crisis, 
but additional steps are needed now.'' I commend the Commission for its 
thoroughness and willingness to report their findings and 
recommendations in an objective manner.
    Question. How does DOE plan to respond to the Commission's 
recommendations?
    Answer. The Commission's recommendations call for actions not only 
by DOE but by the Congress, the Administration, and the DOE 
laboratories and production plants. The Department's response to the 
Chiles Commission report will encompass a number of actions beginning 
with a request to DOE Defense Program lab and plant directors for data 
regarding critical skills and newly hired employees. This information 
will help us to corporately assess whether current hiring trends will 
maintain critical technical positions.
    Question. Now, one of the Commission's recommendations was that the 
DOE establish and implement, on a priority basis, plans for 
replenishing essential technical workforce needs in critical skills 
which will erode significantly over the next few years. How does the 
Department plan to proceed with this recommendation?
    Answer. To proceed with the Commission's recommendation to 
replenish the essential technical workforce, we have requested a 
listing of critical skills from all DOE Defense Program laboratory and 
plant directors to include: the number of people to be hired in these 
critical skill areas during fiscal year 1999; the number hired as of 
April 1, 1999; the projected number to be hired for the remainder of 
fiscal year 1999 and for fiscal year 2000 consistent with current 
budgets; and, an assessment of the number of new hires on the 
demographics in the critical skill areas. The data from the labs and 
plants will enable us to assess whether current and projected hiring is 
sufficient to ensure that critical skill areas are not eroding over 
time. By the end of fiscal year 2000, new hires in critical skill areas 
should begin to lower the average age of the technical and scientific 
workforce in the nuclear weapons program.
                         stockpile stewardship
    Question. Overall, the budget request for Stockpile Stewardship 
increases by $160 million or 7.5 percent over the fiscal year 1999 
appropriation of $2.126 billion for a total of $2.286 billion requested 
for fiscal year 2000. Major increases are being requested for the core 
stockpile stewardship program, construction of new facilities to 
support the stockpile stewardship effort, and the Accelerated Strategic 
Computing Initiative (ASCI).
    I note that the budget request projects a 7.5 percent increase for 
Stockpile Stewardship and at the same time includes a 4 percent 
reduction for Stockpile Management. Does this cause any problems in 
carrying out an integrated program with the Labs and the production 
plants?
    Answer. This does not cause any significant problems in carrying 
out an integrated program with the labs and production plants. The 
budget must balance many legitimate but competing requirements within a 
finite resource envelope. I believe that the budget request submitted 
to Congress reflects the appropriate balancing of priorities.
    Question. Why has Defense Programs allocated such significant 
increases in the Stockpile Stewardship program and apparently reduced 
the Stockpile Management program?
    Answer. The increases in the Stockpile Stewardship program are 
primarily driven by the planned growth in the Accelerated Strategic 
Computing Initiative program itself, and increases to support its 
integration into the ongoing science and engineering programs. This 
integration will allow these programs to more effectively support the 
long-term needs of the stockpile, both at the labs and at the plants, 
particularly through support to the Stockpile Life Extension Program, 
the Enhanced Surveillance Program, and the Advanced Manufacturing 
Design and Production Technologies initiatives.
    The reduction in the Stockpile Management program reflects reduced 
dismantlement requirements; completion of one time costs associated 
with the restart of enriched uranium operations at Y-12; and completion 
of congressionally directed infrastructure improvements at the plants.
    Question. The approach in the past has been to have an integrated 
program between the weapon labs stockpile stewardship and the 
production plants stockpile management effort. How does this budget 
unify and integrate the laboratories and the production complex?
    Answer. We continue to have a closely integrated program that 
balances near and longer term needs of the stockpile. Ongoing 
maintenance and evaluation of the current stockpile ensures the near-
term viability of the stockpile, while investments in science today 
will provide the technologies and tools necessary to conduct 
maintenance and evaluation of the enduring, long term stockpile. 
Examples of this integration are found in the Accelerated Strategic 
Computing Initiative, the Enhanced Surveillance Program, the Advanced 
Design and Production Technologies initiative, and Stockpile Life 
Extension Programs.
    Question. Dr. Reis, the Department has been spending over $2.0 
billion annually to develop the scientific base, the Stockpile 
Stewardship effort, to replace the capabilities lost when the United 
States made the decision to stop underground nuclear weapons testing. 
How much has been spent to date in developing this scientific and 
analytical capability?
    Answer. We have invested about $2 billion annually, on average, in 
these scientific and analytical capabilities since the initiation of 
the Stockpile Stewardship Program in 1996, for a total of about $10 
billion through fiscal year 2000. This represents roughly half of 
Defense Programs' funding for this period.
    Question. When will the Department be able to say with confidence 
that the Stockpile Stewardship program is capable of replacing the 
underground testing program? Can you give the committee any examples of 
how the scientific capability of Stockpile Stewardship program has 
already contributed to solving real problems in the current stockpile?
    Answer. Stockpile Stewardship is working now. While it has been 
more than six years since the last nuclear test, we have successfully 
addressed several problems with existing warheads by using a 
combination of computer analysis, archived test and manufacturing data, 
and most importantly, the collective judgment of the two weapon design 
laboratories. This success, using the experimental and testing tools 
available today, provides confidence that even more powerful computing 
and testing tools being developed will allow us to solve future 
stockpile problems without nuclear testing. By annually certifying the 
safety and reliability of the stockpile, the DOE confirms that 
Stockpile Stewardship can be relied on now and in the future. We have 
successfully completed the process three times, and the fourth annual 
certification process is underway. The third certification was provided 
to the President by the Secretaries of Energy and Defense on December 
22, 1998.
    The scientific capability of the Stockpile Stewardship Program is 
solving real problems in the current stockpile. Observations from our 
surveillance program have led to questions which have been resolved 
through the combined application of our advanced computational codes 
and laboratory experiments. The success in providing B61-11 
certification relied heavily on the scientific capability of the 
Stockpile Stewardship program. New capabilities developed since the 
start of the Stewardship program, such as proton radiography, have 
provided scientific contributions to certification. Complex chemistry 
models of high-explosive binder materials, benchmarked by proton 
radiography experiments, have provided us estimates of the service 
lifetime of our high explosives enabling us to make some decisions 
regarding stockpile refurbishment schedules.
    Question. Is the Department of Defense confident that the Stockpile 
Stewardship program is capable of addressing the nuclear weapons 
stockpile security, safety and reliability needs and issues?
    Answer. I cannot speak for the Department of Defense, however, the 
Department of Energy has maintained an active dialog with the 
Department of Defense regarding our Stockpile Stewardship Program since 
the program was established at the direction of the President as part 
of his decision to extend the moratorium on underground nuclear 
testing. Our Stockpile Stewardship Program Plan which outlines the 
steps necessary to ensure that the enduring U.S. nuclear stockpile 
continues to remain safe and reliable for the foreseeable future in the 
absence of underground nuclear testing has been reviewed and approved 
each year by the Department of Defense. The Secretaries of Defense and 
Energy have recently concluded their third annual stockpile 
certification to the President affirming that there is no need to 
conduct an underground nuclear test to resolve any safety or 
reliability problem in the stockpile.
                       national ignition facility
    Question. The budget request for fiscal year 2000 includes $248 
million for the National Ignition Facility (NIF) which is a major 
element of the Stockpile Stewardship effort fiscal year 1999 was the 
peak year for construction funding, and the budget request for fiscal 
year 2000 maintains the fiscal year 2003 completion schedule. The 
project remains within the estimated $1.1 billion cost estimate.
    Dr. Reis, how important is the NIF to the success of Stockpile 
Stewardship and maintaining the nuclear deterrent?
    Answer. The National Ignition Facility (NIF) is essential for the 
success of the science-based Stockpile Stewardship program. It will 
enable us to conduct weapon physics experiments and measurements 
important to primaries and secondaries at temperatures and densities 
close to those occurring in nuclear weapons detonation. The NIF will 
examine the effects of specific age-related changes and other nuclear 
component modifications on weapon performance. The fusion ignition 
mission will test many of the same skills used in analyzing nuclear 
weapon performance and NIF will test simulation codes developed under 
the Accelerated Strategic Computing Initiative (ASCI).
    As the world's premier laser facility, NIF will attract the highest 
quality scientists for work in high energy density science and weapons 
physics. It will provide an excellent tool for recruiting and training 
the next generation of scientists for the Stockpile Stewardship 
Program.
    Question. Now, I understand that DOE plans to use the first several 
beam lines of NIF to address nuclear weapons stockpile issues prior to 
actual completion of the entire facility in fiscal year 2003, is that 
correct? Explain the importance in using NIF as early as possible and 
how this will contribute to the overall success of not only the NIF 
project, but also to the Stockpile Stewardship Program as well.
    Answer. The size and complexity of NIF and the scientific precision 
needed to achieve ignition, make it important to gain detailed 
understanding of the laser performance at NIF as soon as possible. For 
non-ignition weapons science, we would like to get the results of 
selected higher energy experiments as soon as possible. In particular 
there are a number of important tests that could significantly aid 
development and testing of the computer simulations in ASCI. Therefore, 
the NIF project plans to provide the infrastructure on a schedule that 
allows for experiments to be done before the completion of the 
construction in 2003.
    NIF will be about fifty times more energetic than present 
facilities, such as the Omega laser at the University of Rochester. 
Even the first several beam lines of NIF will have significantly more 
power and energy than present facilities. This higher power and energy 
of these beam lines will allow experiments on stockpile specific 
issues, hydrodynamics, radiation physics, and material properties to 
expand into new parameter regimes not presently attainable. The NIF 
Weapons and Ignition planning groups have developed proposed campaigns, 
which exploit partial NIF operation during the startup and testing 
process and better prepare NIF scientists for full-power NIF 
operations. Early experimental utilization of NIF will also improve NIF 
maintenance, startup and operating procedures.
    Question. Now, the budget justification implies that there is a 
shortfall in funding for NIF which puts the ignition at risk, delays 
the initiation of the cryogenic handling system, and provides only 
minimal development of target diagnostics and experimental equipment. 
If NIF is as important to the national security as you say and setting 
aside budget constraints, how do you explain the lack of budget support 
to these elements of NIF? What impact does this shortfall have on DOE's 
fiscal year 2001 initial use of NIF and the fiscal year 2003 project 
completion schedule?
    Answer. The fiscal year 2003 project completion schedule is not at 
risk, nor is the ultimate technical objective of achieving ignition. 
However, there is a potential delay from the schedule established in 
1996 in the start of new program activities on the cryogenic target 
system that is required for ignition experiments as well as a potential 
delay in development of selected NIF diagnostics. The delays have no 
impact on completion of the NIF construction project, but could delay 
achieving ignition by as much as one year. Experiments using the first 
eight laser beams are still expected to begin in fiscal year 2001 and 
will result in obtaining significant data for ignition, weapons 
physics, and laser startup, but collection of some specific 
experimental data may be delayed due to the potential diagnostic 
delays. We are working to improve the integration of our experimental, 
computational and stockpile workload to better meet stockpile 
certification needs. In that process, we are developing options that 
could mitigate or eliminate the potential delays in the diagnostics and 
cryogenic target system for NIF should that prove to be a higher 
priority than other activities within the ICF or Core Stockpile 
Stewardship lines of the budget.
    Question. The budget request includes $5.9 million in operating 
funds to support the NIF Project. Is this sufficient to support the 
hiring and training of scientists needed to meet DOE Program goals once 
initial operation of NIF begins and the project is fully operational in 
fiscal year 2003?
    Answer. The $5.9 million budget request in operating funds for NIF 
is contained within the Other Project Cost (OPC) portion of the Total 
Project Cost (TPC) for the NIF Project and is not used for the purposes 
of funding the operations or staffing of NIF. The OPC funding request 
is to provide for project funded activities such as required 
environmental and safety documentation and startup planning. The hiring 
and training of scientists needed to achieve the NIF mission is funded 
by the national ICF and weapon science programs. In the present plan, 
the staffing requirements for first use of NIF are adequately funded in 
the program operations budget.
    Question. What impact does the budget request have on the schedule 
for proving ignition from laser fusion?
    Answer. We plan to prove ignition with the indirect drive approach 
as expeditiously as possible. When we submitted last year's budget, we 
projected that ignition experiments would begin in early fiscal year 
2006. At the time this year's budget was submitted, we projected a 
delay of up to one year in the start of ignition experiments due to 
unavailability of the cryogenic target handling system and some 
diagnostics. We have been studying options that may mitigate or 
eliminate these potential delays.
                      advanced driver development
    Question. Over the past several years, scientists at Sandia Lab 
have made major advances in pulsed power accelerators using the Z 
facility. Yet, the fiscal year 2000 budget before the committee 
requests no funding to continue important advanced driver development. 
Other than budget constraints, what is the rationale for this drastic 
action?
    Answer. Development of pulsed power accelerator technology such as 
that used at the Z-facility, is funded in fiscal year 1999 and fiscal 
year 2000 within the Inertial Confinement Fusion budget. The Sandia 
pulsed power program has achieved outstanding success at the Z facility 
and continues to set performance records in x-ray output, and in power 
level and temperature. The Department's fiscal year 2000 budget request 
at Sandia also reflects the completion of the installation of the 
important Z/Beamlet backlighter Z facility. The Z facility will be used 
for experiments contributing to stockpile evaluations and for research 
to understand the potential of reaching fusion conditions with z-
pinches. A review by the National Academy of Sciences will begin within 
a few months to evaluate the scientific and technical credibility of 
obtaining fusion with the z-pinch approach.
    Consistent with Congressional direction, the Advanced Driver 
Development budget category under the ICF Program supports only the 
development of high average power lasers and should not be confused 
with funding for advanced pulsed power. No funding is requested for the 
Advanced Driver Development budget category in fiscal year 2000.
    Question. Does DOE plan to accomplish this work in other parts of 
the Inertial Fusion program?
    Answer. The Department's strategy in the near-term is to fully 
exploit the Z facility for Stockpile Stewardship needs. Development of 
advanced pulsed power accelerator technology depends on continued 
progress in Z-pinch physics, validation of fusion ignition on the 
National Ignition Facility, as well as a consensus on mission need. Any 
decision to proceed with another fusion facility within the Stewardship 
program would have to consider the value of additional fusion 
capability balanced against other program needs.
    Question. What impact will this action have on the goals of 
inertial fusion energy and future defense program needs?
    Answer. The continuance of the Defense Programs pulsed power 
program enables the United States to retain world leadership in this 
rapidly advancing technology. The Z accelerator at Sandia has already 
been used for some Stockpile Stewardship program applications. Pursuing 
inertial fusion for defense applications advances inertial fusion 
energy because the two applications have many areas in common. However, 
substantial additional technology development is required for inertial 
fusion energy, including a reliable high-repetition rate driver and a 
target-driver standoff concepts. The Department intends to use laser, 
pulsed-power, and other facilities to advance its capability in 
inertial fusion for defense and energy applications. The great 
challenge of obtaining inertial fusion and the complexity of applying 
this capability for defense and energy interests dictates the need for 
expert judgments in evaluating development paths. The Department needs 
both steady technical progress and scientific reviews to guide its 
fusion development decisions. The present programs are balancing these 
factors.
    Question. How important is the work undertaken in the Advanced 
Driver Program to attracting and retaining scientists in DOE's 
stewardship program?
    Answer. The Z-pinch drivers are being applied to DOE's stewardship 
program today and this work is a factor in attracting and retaining 
scientists. These experiments are attracting experimentalists and 
theorists throughout the nuclear weapons community, including Los 
Alamos and Lawrence Livermore National Laboratories. These scientists 
are using and advancing their skills to design and field experiments at 
the Z facility that validate large simulation codes--skills which are 
required for a successful stewardship program. The excitement and 
satisfaction level of these scientists is high. As a result, the 
laboratories are attracting some of the best new scientists in the 
field to participate in these experiments, particularly in the 
disciplines of shock physics and radiation transport--both key areas of 
expertise in nuclear weapons science. Other areas of Stewardship 
activity are similarly vibrant and important. The Z-pinch success is a 
useful, but not a dominant factor in attracting and retaining 
scientists for Stewardship.
                    funding for stockpile management
    Question. The stockpile management program supports the enduring 
stockpile by assuring the availability of adequate supplies of tritium; 
provides safe and secure storage of nuclear materials and components to 
prevent proliferation; provides the ability to respond to potential or 
real weapons incidents or accidents, and the capability to respond to 
evolving nuclear terrorist threats; and provides a flexible 
infrastructure capable of supporting changing stockpile size.
    The goals of the program are to: provide high confidence in the 
safety, reliability and performance of the enduring stockpile without 
nuclear testing; ensure the effectiveness of the U.S. nuclear 
deterrent; and provide the ability to resume underground nuclear 
testing and reconstitute nuclear weapons production capacities should 
national security demand them in the future.
    The total budget request for Stockpile Management is $1.998 
billion, a reduction of $48 million below the current year funding 
level. However, the details reflect a significant reduction in the 
dismantlement of retired nuclear weapons (down 36 percent or $23 
million); and the core stockpile management program (down 4 percent or 
$68 million).
    Dr. Reis, does the reduction in the Stockpile Management program 
concern you?
    Answer. I would be concerned with the safety and reliability of the 
stockpile at any funding level. It is my job to be concerned. That 
said, the budget request for Stockpile Management is sufficient to 
address all critical needs.
    Question. What will be the adverse impacts resulting from the 
reductions in various elements of the Stockpile Management Program?
    Answer. To manage within the Stockpile Management Program budget, 
we have reduced funding for the dismantlement program which may be 
reflected in a reduced workforce. Our goal is to manage employment 
level reductions through attrition as much as possible.
    Question. Which elements have been reduced to the point to give you 
major concern? Please explain why.
    Answer. Again, as I have said, I would be concerned with the safety 
and reliability of the stockpile at any funding level. Among my current 
concerns are that we renegotiated several of the workload commitments 
to the Air Force and Navy. None of these adjustments will reduce the 
safety or reliability of the stockpile. These renegotiations will, 
however, continue to push out work into later years. Secondly, we must 
work to develop a multi-year budgeted modernization program at the 
plants. We do not have all of the manufacturing capabilities that are 
critical to extending the life of the nuclear weapons stockpile. We 
plan to start to reestablish these capabilities as part of an 
integrated plant modernization program in the fiscal year 2001 budget. 
Lastly, we are concerned with maintaining plant critical skills as we 
continue to experience manpower reductions. A large majority of the 
current workforce will be of retirement age within the next few years. 
This is the labor force that has the experience of building nuclear 
weapons. It is critical that we undertake our Stockpile Life Extension 
Program while this labor force who knows how to build weapons is still 
available. This problem is exacerbated by the fact that manpower 
reductions have made it difficult to retain junior level people to gain 
these skills for future requirements and to attract new personnel. The 
Commission on Maintaining United States Nuclear Weapons Expertise 
recognizes the problem and made various suggestions including 
incentives to retain personnel at retirement and attract new personnel.
                   reestablishment of pit production
    Question. Over the past several years, DOE has been working to 
reestablish plutonium pit manufacturing at Los Alamos to replace pits 
destructively tested in the surveillance program and to replace pits in 
the future should surveillance indicate a problem with a pit. This is a 
critical element of DOE's production complex reorganization.
    Could you update the committee on DOE's efforts to reestablish pit 
production at Los Alamos? Are you still on schedule to achieve an 
annual production capacity of 20 pits by 2007?
    Answer. The DOE is on schedule to deliver a certified W88 warhead 
to the stockpile in fiscal year 2001 which is required to achieve a 
manufacturing capacity of 20 pits per year by fiscal year 2007.
    Currently, we are manufacturing development units to refine the 
processes to be used in production. Two development units have been 
completed and a third is scheduled for assembly in the near future. 
Manufacture of development units will continue into the beginning of 
fiscal year 2000. Once the processes, tooling, and qualification 
infrastructure are fully in place (much of which is being accomplished 
in fiscal year 1999), manufacture of qualification units will begin in 
fiscal year 2000. Qualification testing (to insure processes, 
procedures, and tooling can meet the consistency and product 
reliability of manufacturing and design specifications) will then be 
initiated. Achieving the capacity of manufacturing 20 pits per year in 
a reliable and sustained manner will require additional manufacturing 
equipment and facility improvements to both the plutonium facility and 
supporting facilities.
    Question. Have you been able to produce a certifiable pit? What 
problems or issues remain to be resolved in order to achieve 
certification?
    Answer. We are scheduled to produce a certifiable W88 pit in fiscal 
year 2001. Currently, there are no specific problems or issues with 
regard to certification, but much remains to be done. A number of 
qualification, engineering, and physics tests must be conducted to 
achieve certification.
    Currently, we are manufacturing development units to refine the 
processes to be used in production. Manufacture of development units 
will continue into the beginning of fiscal year 2000. Once the 
processes, tooling, and qualification infrastructure are fully in place 
(much of which is being accomplished in fiscal year 1999), manufacture 
of qualification units will begin in fiscal year 2000. At this time 
qualification testing (to insure processes, procedures, and tooling can 
meet the consistency and product reliability of manufacturing and 
design specifications) will be initiated. Engineering and physics 
testing will continue to confirm that performance of the newly 
manufactured pits are equivalent to those currently in the stockpile.
    Question. How does the budget request for fiscal year 2000 advance 
your efforts to reestablish this capability, and does the budget 
request maintain the 2007 date for producing DOE's goal of 20 pits per 
year?
    Answer. The budget request for fiscal year 2000 enables DOE to 
continue to reestablish a pit manufacturing capability and to conduct 
qualification, engineering, and physics tests required to certify newly 
manufactured pits for entry into the nuclear weapons stockpile and to 
establish a 20 pits per year capacity by 2007.
    On the manufacturing side, the budget request allows continued 
development of processes, tooling, and procedures necessary to 
manufacture the pits, and actual manufacture of W88 qualification pits. 
The budget also supports replacement of older laboratory equipment with 
new equipment required to manufacture twenty pits per year.
    For certification, the budget request provides funds for 
qualification, engineering, and physics tests to continue. In fiscal 
year 2000, qualification testing (to insure processes, procedures, and 
tooling can meet the consistency and product reliability of 
manufacturing and design specifications) will be initiated. Engineering 
and physics testing begun in fiscal year 1999 will continue.
                           tritium production
    Question. In December of last year, the Secretary of Energy 
selected the commercial light water reactors for tritium production, 
and designated the linear accelerator as ``backup'' technology if 
needed sometime in the future. What was the basis of the Secretary's 
decision to select the commercial light water reactor? What major 
hurdles remain that could slow down or derail the use of commercial 
light water reactors as a tritium source?
    Answer. After spending a great deal of time considering the 
alternatives, the Secretary determined that the use of Tennessee Valley 
Authority reactors offers the lowest technical and schedule risk, and 
the lowest cost of the options under consideration. At the same time, 
the Secretary designated TVA's existing Watts Bar and Sequoyah reactors 
as the preferred facilities for tritium production rather than 
investing in the completion of TVA's unfinished Bellefonte Unit 1 
reactor. The use of existing reactors offers unique advantages over any 
other tritium supply option including significantly lower investment 
costs and potentially the lowest life cycle cost. It is the only option 
that avoids a large capital expenditure on a major new weapons facility 
at a time when we are pursuing further arms reductions. It is the only 
option that allows us to proceed on a pay-as-you-go basis, allowing the 
Department to buy only what it needs. Because TVA has agreed to a cost-
based Economy Act transaction, the annual costs will be low, 
particularly so if the options are not exercised and the reactors 
remain in a stand-by mode.
    Assuming that adequate funding is provided and Congress places no 
additional restrictions on the project, there are no ``major hurdles'' 
that would slow or derail the project.
    Question. Now, I understand that the NRC must provide regulatory 
approval in order to use a commercial reactor for tritium production, 
is that correct? What is the date that you must have NRC approval in 
order to meet the 2005 availability date of tritium? Have the DOE and 
NRC established firm schedules and major milestones to meet DOE's need 
date?
    Answer. The NRC must approve amendments to the facility operating 
licenses for Watts Bar and the Sequoyah reactors in order for them to 
use the burnable absorber rods designed by DOE, rather than the 
standard burnable absorbers used. TVA must obtain NRC approval for 
these license amendments in time to insert the tritium-producing 
burnable absorber rods into the Watts Bar reactor core in early fiscal 
year 2004 and into the core of one of the Sequoyah reactors a few 
months later.
    DOE and TVA estimate that the application for license amendments 
for Watts Bar and Sequoyah will be completed and submitted to the NRC 
about 14 months from now, about the middle of calendar year 2000. The 
NRC Chairman has committed that the agency will expeditiously review 
these license amendment applications. DOE and TVA expect, 
conservatively, that by the middle of 2002 the NRC will be in a 
position to act favorably upon the amendment requests. That expectation 
is based upon an assessment of the activities that are involved in the 
review and approval of license amendments by the NRC including the 
confirmatory demonstration just completed at the Watts Bar facility.
    Question. I believe the Secretary stated that the commercial light 
water reactor was the most consistent with U.S. arms reduction goals. 
Can you explain why the Department believes this to be the case? Does 
the Administration believe that the commercial light water reactor 
option is also best suited to meet U.S. nonproliferation goals, and if 
so, why?
    Answer. On balance the Administration believes that the commercial 
light water reactor (CLWR) option is best suited to meet U.S. 
nonproliferation goals. The CLWR option entails the use of a civilian 
reactor to produce material for use in nuclear weapons, departing from 
the long-standing principle of maintaining a distinction between U.S. 
civil and military activities. Such distinction, however, is not 
mandated by law with respect to tritium production or by treaty; there 
have been many past exceptions involving dual-use facilities; and a 
number of factors will mitigate the impact on U.S. nonproliferation 
efforts.
    These mitigating factors include the fact that the reactor to be 
used for tritium production belongs to TVA, a U.S. government 
instrumentality with a long history of supporting U.S. defense needs; 
the fact that the reactor could remain eligible for (and be compliant 
with) International Atomic Energy Agency (IAEA) inspections; and the 
fact that implementation of this option could be delayed until 
necessitated by tritium demand, which could be reduced through 
additional arms control treaties.
    The accelerator option does not transgress the civil/military 
dichotomy, but it could not follow possible future reductions in 
tritium requirements as efficiently. The substantial early investment 
in an accelerator specifically built for military purposes, moreover, 
could be seen as building up U.S. nuclear weapon production 
capabilities at a time when the U.S. is seeking to reassure non-nuclear 
weapon states that it is committed to nuclear arms reductions. This 
could weaken U.S. bargaining positions in such fora as the 2000 Non-
Proliferation Treaty Review Conference.
    Question. What are the Department's plans for an orderly close out 
of the accelerator, including associated target design, tritium 
separation and balance of plant design? What is DOE's funding profile 
to complete this work?
    Answer. In accordance with Presidential guidance and in keeping 
with the Department's commitment to have a backup technology, DOE will 
complete the development and demonstration work and the preliminary 
design of the APT plant. All of the components mentioned are included 
in that work. The project will provide a final report to the Department 
with all of the technical information and the preliminary design that 
will allow the Department to finish the design and build a plant should 
that ever be required.
    This effort will require $88 million in fiscal year 2000 and a 
total of $172 million between fiscal year 2000 and fiscal year 2002, at 
which time the project will be completed. The current profile (pending 
completion of a detailed re-planning), with fiscal year 1999 as a 
reference, is shown in the table below.

              ACCELERATOR PRODUCTION OF TRITIUM FUNDING FOR FISCAL YEAR 1999 THRU FISCAL YEAR 2002
                                         [Escalated dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal year
                                                            ----------------------------------------------------
                                                                                                      2000-2002
                                                               1999      2000      2001      2002       Total
----------------------------------------------------------------------------------------------------------------
Operating..................................................       $85       $57       $35       $23         $115
Capital....................................................        20        31        26  ........           57
                                                            ----------------------------------------------------
      Total APT............................................       105        88        61        23          172
----------------------------------------------------------------------------------------------------------------

                       independent project review
    Question. Over the past few years, the committee has been working 
with the House Energy and Water Subcommittee and the Department to 
establish an independent project review process for capital 
acquisitions by DOE. The committees felt that this was necessary 
because of major cost overruns and changes in a project scopes which 
have resulted to significant schedule delays and increased projects 
costs. Over the past several months, DOE has been completing and 
transmitting to the Congress independent project reviews which assess 
the readiness of particular projects to proceed to construction. These 
reports have indicated varying states of readiness at the Labs to begin 
construction of projects funded in prior years.
    The budget request for fiscal year 2000 includes 3 new construction 
starts for the Stockpile Stewardship program and 1 new start under Non-
proliferation and Verification R&D.
    Dr. Reis, the fiscal year 2000 budget includes funding for 3 new 
construction starts under Stockpile Stewardship. The evidence from the 
independent project reviews submitted to the Congress gives a mixed 
picture of DOE readiness to initiate project construction. What actions 
have you taken to insure that projects are thoroughly reviewed for 
missions needs; that scope, costs and schedules are firm and clearly 
established; and that quality project management personnel are in place 
at the Labs and within DOE?
    Answer. We have instituted measures to ensure that the three new 
construction starts for Stockpile Stewardship are thoroughly reviewed 
to confirm that they are ready to proceed. External Independent Reviews 
on site have already been scheduled for the three new projects in the 
fiscal year 2000 budget request. These reviews will focus on mission 
need and project cost, schedule and scope baselines.
    We are planning preparatory readiness reviews for each project that 
will be led by DP staff with project management expertise who are 
independent of line managers, and include members from the U.S. Army 
Corps of Engineers, other agencies, and contractors with cost and 
management expertise. These reviews identify areas needing improvement, 
and ensure that the projects are ready for the external assessments, 
including mission need and scope, cost and schedule baselines.
    We are in the process of placing experienced project management 
personnel in place at the labs and within DP for these and other 
projects. A survey of the qualifications of all project management 
personnel is under way to support that process. In addition, DP will 
work with the Department on its recently proposed certification program 
and related training for project managers.
    Question. Now there have been significant problems at Los Alamos in 
the past related to establishing firm project scopes, and keeping 
projects on schedule. Specifically, what has or is being done at Los 
Alamos to strengthen their construction oversight and project 
management practices?
    Answer. Defense Programs has made significant efforts to strengthen 
construction oversight and project management at Los Alamos. The 
Department and the Los Alamos National Laboratory (LANL) conducted a 
construction projects management assessment in 1997 and concluded that 
there was a need for better project baselines, management, and control 
systems. Bases on this assessment, the Department and LANL developed an 
Action Plan to management construction projects. In July 1997, the 
Nuclear Construction Project Office was established at the Albuquerque 
Operations Office to provide a single field line management 
organization to provide management and oversight of stockpile 
management projects at LANL.
    Formal agreements between the Department and LANL are completed on 
each project to define their respective roles, responsibilities and 
accountability; the project baselines and management systems that will 
be employed during project execution; and the specific programmatic 
objectives that must be met by each project. A more rigorous and formal 
project authorization system has also been put into place providing 
improved funds control, definition of project deliverables, and 
supporting documentation. This enables management to ensure that 
appropriate resources are in place to support construction project 
activities
    An integrated review process has been developed which ensures 
program, project, and safety objectives are quantified and achieved 
through technical review and decision processes. Integration between 
program and construction project activities is supported by plans that 
integrate programmatic work with equipment installations and 
construction activities.
    Question. One of the new construction starts is a new $106 million 
Strategic Computing Complex at Los Alamos. When will the Independent 
Project Review be completed for this project? What specific actions 
will you take to ensure this project is managed to critical schedules, 
and that cost management is critically reviewed?
    Answer. The independent assessment for the Strategic Computing 
Complex is scheduled to begin on April 12, 1999, with a final report to 
Congress by the end of May, 1999, although some slippage may occur due 
to other ongoing reviews. Additionally, a readiness review for the 
Strategic Computing Complex will begin on March 29, 1999, and will be 
completed before the independent assessment begins.
    In terms of project management, Defense Programs has revised the 
way construction projects are managed. These revisions are based upon 
critical analysis of the program and utilize many of the attributes 
that have been successfully employed in projects such as the National 
Ignition Facility. Key changes include the creation of small project 
teams with clear, unambiguous roles, responsibilities, and appropriate 
authority to execute the projects; organizational changes to ensure 
senior management monitoring of the baselines; and an interim 
qualification of all project management team members.
    Los Alamos National Laboratory has taken additional steps to 
improve the management of this project by hiring a professional 
construction project management firm to assist them in the oversight of 
the ``design and build'' contractor. They have also hired a 
professional engineering firm to assist them in their reviews of 
mechanical systems. The addition of these two external groups will 
significantly enhance the strength of the Laboratory's management team 
on this project.
      chemistry and metallurgical research (cmr) building upgrade
    Question. The Department has been struggling with upgrades to the 
CMR building at Los Alamos for many years. This facility, built in the 
1950s, undertakes important analytical work related to plutonium, 
uranium, and other alloys and materials in support of the weapons 
program. The project has been plagued with constant scope changes, cost 
increases and significant schedule delays. The Department has had a 
difficult time determining how to proceed with the project which has 
been suspended for the past few years in an effort to determine firm 
baselines of scope and costs for the CMR facility upgrade project.
    Explain the Department's decision and plans for the CMR building at 
Los Alamos. Why was the decision made to proceed with upgrades of the 
existing facility, which was constructed in the 1950s and sits on an 
earthquake fault, instead of constructing a new facility?
    Answer. In 1988, the Special Nuclear Materials Laboratory (SNML) 
project (88-D-105) was authorized to replace the CMR Building to 
support continued weapons production and certification. In 1991, the 
long term mission of the SNML became uncertain as weapons production 
ceased and there was uncertainty relative to the amount of work 
involving plutonium material which CMR would be required to support in 
the coming years. Therefore the Department decided not to proceed with 
construction of the SNML, but provide interim upgrades to the CMR. 
These upgrades were initiated in 1992 and later designated as Phase 1. 
In addition, studies were conducted to determine further upgrades 
required for continued long-term operations (later designated Phase 2). 
In 1995, the Department opted to initiate Phase 2 of the CMR Upgrades, 
bringing the Total Estimated Cost for the entire project to $174.1M, 
and cancel the SNML project.
    It has only been in the past year that ongoing geologic studies 
have revealed the presence of a seismic fault running under the North 
side of the CMR facility. Because of the geologic information, the 
project has been refocused on completing only those upgrades necessary 
to maintain safe and reliable operations in the facility through fiscal 
year 2010. The Department is examining the activities at CMR to 
determine where these activities should be conducted in the future.
    Question. How important is the CMR facility to the defense mission 
of DOE? What role will this facility play in carrying out the defense 
mission of DOE?
    Answer. The capabilities of CMR are essential to DOE's defense 
mission. The CMR facility is the only laboratory facility with full 
capability for performing analytical chemistry and materials science 
for special nuclear materials. The CMR is critical to the Stockpile 
Stewardship Program in pit surveillance, pit manufacturing, stockpile 
lifetime extension, and nuclear weapons certification. Analyses 
performed at CMR assure that specifications for plutonium are met in 
pit production and pit surveillance.
    Question. How do you plan to use the $18 million requested for 
fiscal year 2000?
    Answer. The fiscal year 2000 budget request provides $18 million 
for completion of facility upgrades necessary to meet the safety and 
regulatory requirements for continued CMR operations. These 
requirements, and their scheduled implementation, have been formally 
defined and prescribed by the approved CMR safety authorization basis--
the Basis for Interim Operations. These high priority safety upgrades 
are necessary to reduce CMR operational risks to the public and workers 
in the near-term, and to operate the CMR facility safely through fiscal 
year 2010. To meet the safety and regulatory requirements, the majority 
of the safety upgrades have been initiated in fiscal year 1999, and 
fiscal year 2000 funding will allow the design and construction of 
these upgrades to continue. If these upgrades are not completed as 
scheduled, the CMR facility operations will be severely curtailed or 
suspended.
    Question. What steps and actions has the Department taken at the 
field and headquarters level to ensure that the project does not 
experience further scope changes and costs increase once work proceeds?
    Answer. In the spring of 1997 the Department initiated an in-depth 
review of project management issues at the Los Alamos National 
Laboratory (LANL) as they related to the stand down of the CMR Upgrades 
Project. The review identified root causes, contributing factors, and, 
when put into place, corrective actions that will address systemic 
institutional performance problems and as well as construction project 
deficiencies. An external independent assessment was also conducted in 
August 1998 and a number of findings and recommendations were made, 
which again reflected the issues previously identified in 1997.
    While corrective actions have been initiated on the basis of both 
institutional and project-specific issues, both the DOE and LANL have 
taken other actions to assure control over project scope, schedule, and 
cost. Significant organizational changes have occurred to put senior 
management focus on corrective measures and to assure project 
accountability. Technical expertise has been expanded both within the 
project and within engineering support offices. Procedures and other 
management tools have also been improved to increase project control. 
All findings and recommendations from previous assessments/reviews, 
including the two mentioned above, have been captured as part of an 
Action Plan (AP). The AP details both the institutional and project-
specific correction actions to be taken to address the findings and 
recommendations. The AP is being used to establish baselines for 
several stockpile management construction projects and to strengthen 
project management oversight of milestones and cost. Project baselines 
and stronger oversight will enable management to ensure that 
appropriate resources are in place to support construction project 
activities. In addition, the Stockpile Management program established 
the Nuclear Construction Projects Office (NCPO) at Albuquerque to 
integrate and strengthen oversight of all the program projects at Los 
Alamos. Staffing was increased and roles and responsibilities were 
clarified between the NCPO, Los Alamos Area Office, and LANL.
                        idaho operations office
    Question. I notice that funding for the Idaho Operations Office is 
being reduced significantly below the fiscal year 1999 funding level? 
Why is this?
    Answer. In fiscal year 2000, support will continue for the 
Radiological Assistance Program of approximately $400 thousand per 
year. The DP tasks supported by the Idaho National Engineering and 
Environmental Laboratory under the umbrella of the Idaho Surety Program 
will either be completed in fiscal year 1999 or have been refocused 
into areas outside of Idaho's expertise. This is the case with the task 
supporting the Advanced Design and Production Technologies initiative, 
the program has refocused its priorities from modeling efforts to the 
development of processes and tools specifically required to support the 
Stockpile Life Extension Program.
                       use of prior year balances
    Question. Last year there was sizeable controversy regarding the 
expected level of unobligated balances within the Weapons Activities 
budget. If I recall correctly, the House reduced the program by several 
hundred million dollars based on information developed by GAO on 
projected levels of unobligated funding.
    Could you review for the committee last year's situation and update 
us on where the program ended up as it relates to unobligated balances? 
How did the balances carried over into fiscal year 1999 actually 
compare to GAO's estimate and Defense Programs' estimates?
    Answer. Last year, reports from the authorizing and appropriations 
committees specified that Defense Programs should use prior year 
balances, ranging from a low of $50 million to a high of $341 million, 
to offset the need for new budget authority to fund the fiscal year 
1999 program. The final appropriation directed that the fiscal year 
1999 program be financed using $4.4 billion in new budget authority and 
$82.5 million in prior year balances.
    The controversy arose because the information developed by the GAO 
and provided to the committees differed significantly from DP's 
analysis. GAO reported to the committees that DP would have up to 
$340.7 million in ``excess'' balances at the end of fiscal year 1998, 
while DP's estimates indicated that little or no excess uncosted 
balances were expected, and $49.4 million for unobligated balances. The 
actual end-of-year unobligated balances for direct programs in the 
Weapons Activities account were $46.6 million.
    Question. Now, the final appropriations bill used some $82.5 
million of prior year balances to finance the fiscal year 1999 budget. 
Were these balances available? If the balances were not available, what 
adjustments were you forced to make?
    Answer. No. There was not $82.5 million in excess prior year 
balances available to finance the fiscal year 1999 budget. We plan to 
obligate $4.447 billion in fiscal year 1999, which includes $28.6 
million for program scope justified and approved in prior years but 
delayed until fiscal year 1999. The balance, $4.418 billion, represents 
obligations for new workscope composed of $4.4 billion in new 
appropriations, and $18 million in prior year balances.
    In an effort to implement the guidance in the appropriation, which 
directed that fiscal year 1999 activities be funded using $4.4 billion 
in new budget authority and $82.5 million in prior year balances, 
Defense Programs undertook a rigorous process to examine all prior year 
balances reported at the end of fiscal year 1998. Since overall ending 
fiscal year 1998 uncosted balances for Defense Programs were well below 
the Department's goal for operations and maintenance activities, there 
was little flexibility to use these funds against fiscal year 1999 
requirements. Only about $18 million was available from unobligated and 
uncosted balances to be redirected without unacceptable impact to 
ongoing program activities. Therefore, we will only execute program 
level that falls $64 million below the level outlined in the conference 
report accompanying the 1999 appropriation.
    Question. If I understand your budget, you were forced to make some 
$64 million in program reductions because there was only a little over 
$18 million of prior year balances available. How was the $64 million 
reduction allocated by specific activity, and did this result in any 
adverse impacts?
    Answer. To arrive at the current program and site allocations, we 
accommodated first all congressional direction contained in the 
appropriation and authorization bills and reports on fiscal year 1999 
programmatic and site funding, and then assessed the reduction 
proportionally to each Defense Programs decision unit. Much of the 
reduction has been accommodated by small slips to work schedules, 
procurements and maintenance with no significant adverse impacts.
     office of counterintelligence fiscal year 2000 budget request
    Question. The fiscal year 2000 budget request for the Office of 
Counterintelligence requests funding of $18.6 million with another 
$12.6 million in additional funding to come from the national 
laboratories from other Defense programs to be spent by the Office of 
Counterintelligence. Why did you find it necessary to ``tax'' other 
programs for additional funds?
    Answer. The Counterintelligence (CN) program for fiscal year 2000 
is a $31.2 million program. All of the $31.2 million will be under the 
management purview of the Office of Counterintelligence. However, it is 
composed of two pieces. The first is direct funding of $18.6 million 
which is for costs primarily related to central counterintelligence 
activities. The second portion, $12.6 million, is not a tax rather it 
is an estimate of the activities the laboratories will need to fund to 
better cover their counterintelligence responsibilities under the 
direction of the Office of Counterintelligence.
    Question. Specifically, where will the $12.6 million come from? 
Provide for the record a list by site of how the $12.6 million will be 
assessed.
    Answer. The funds will come from the laboratories that need to make 
additional expenditures to cover their counterintelligence 
responsibilities. This includes primarily the three weapons 
laboratories, but some additional expenditures will be required at 
other laboratories as needs for enhancements in counterintelligence are 
identified. The character of the improvements necessary will dictate 
whether these costs to be borne by the laboratory are from direct 
program funding or from overhead. The counterintelligence program is 
sending a team out to the laboratories in April and one of their 
responsibilities will be to get an estimate by site and activity of the 
expenditures necessary. When the information is complete, we will 
provide it to the Committee.
                        presidential initiative
    Question. Ms. Gottemoeller, three years ago, I considered the 
programs you oversee to be critical to U.S. national security. What I 
have come to realize since the collapse of the Russian economy, since 
the IMF and the World Bank have pulled out, and now that Yelsin's power 
is in serious question, is that your programs are the centerpiece of 
U.S.-Russian relations. I've met with the President's national security 
staff to discuss the President's Russia initiative, and I agree 
something has to be done since Russia cannot fulfill its obligations 
under many of our bilateral agreements. But I only see a few very small 
increases in your programs. Can you tell me how the President's 
initiative affects the programs you oversee?
    Answer. The President's initiative is a positive step for the 
programs I oversee. His five year plan provides additional resources to 
what I consider to be one of the United States' top national security 
threats: nuclear proliferation.
    In the area of nuclear security in Russia and the Newly Independent 
States, the President's Expanded Threat Reduction Initiative will keep 
the Materials Protection, Control, and Accounting (MPC&A) Program's 
budget at a more sustained level than previously planned and will help 
to provide a more vigorous level of effort during the next five years 
of the program's implementation. The President's Russia initiative 
provides the MPC&A program with funds to address the expanding mission, 
including work at additional Russian navy and civilian sites with 
weapons usable nuclear material; emergency measures and long term 
operations efforts; and nuclear material consolidation. The President's 
initiative will provide top level support for these measures and enable 
the MPC&A program to undertake these new, key projects to improve 
nuclear materials security and simplify the nuclear materials problem 
in Russia.
    Other key programs affected by the President's initiative are the 
Initiatives for Proliferation Prevention (IPP) and the Nuclear Cities 
Initiative (NCI) programs. The President's initiative foresees 
providing funding support at the $30 million level annually for each 
program through 2004. Each is integral to the initiative and promotes 
the initiative's objectives. The two programs, while both addressing 
nonproliferation in the former Soviet Union, are complementary, but 
different. Let me explain the two programs in more detail.
    IPP addresses chemical, biological, and nuclear nonproliferation 
issues in Russia, Ukraine, Kazakhstan and Belarus. It seeks to prevent 
the drain of expertise from former Soviet weapons of mass destruction 
institutes to countries of proliferation concern by engaging scientists 
and engineers working at those institutes in cooperative projects with 
DOE National Laboratories. The purpose of these projects is to verify 
technical feasibility and identify Newly Independent States (NIS) 
technologies for commercialization in partnership with U.S. companies. 
The hallmark of the IPP program in the NIS is the scientist-to-
scientist interface, which is enabled through firm, fixed-price 
contracts between the NIS laboratories and the DOE National 
Laboratories. These contracts assure stringent oversight of the 
projects at the NIS institutes. In addition, the project proposals 
themselves are reviewed by the U.S. Government interagency community 
for dual-use and policy concerns. For projects where technical 
feasibility is verified and demonstrated, the project is moved to a 
second stage, a three-way partnership involving a U.S. industry 
partner, a DOE National Laboratory, and an NIS institute. Finally, 
through the development of free-standing businesses or product lines, 
long-term economic outcomes, in terms of royalties and jobs, are 
created for the NIS scientists and engineers involved. IPP has funded 
over 400 projects in total, of which 84 are cost-shared with U.S. 
industry. Several of the IPP projects have reached the point of full 
commercialization.
    The NCI focuses on job creation for scientists and technicians who 
are being shed from the Russian nuclear weapons complex as a result of 
downsizing. It is taking place in the ten closed nuclear cities of 
Russia, starting with just three--Snezhinsk, Zheleznogorsk, and Sarov. 
Extension to other closed cities, planned for the second year, will be 
guided by lessons learned during the first year of engagement at the 
first three cities. These were chosen because IPP, and before that, the 
DOE lab-to-lab program, had engaged extensively with these cities and 
developed contacts. While IPP operates in the institutes of the closed 
cities, NCI operates in the more open municipal areas, engaging the 
new, post-Soviet political and civic leadership and encouraging the 
development of the non-weapons economy. In these areas, its efforts 
include such measures as infrastructure development, creation of low 
capital requirement businesses, and business/entrepreneurship training. 
NCI has only recently been authorized to obligate funding, and so the 
first NCI activities are now being funded in the three closed cities.
          materials protection control and accounting (mpc&a)
    Question. You know that I have had some very serious concerns about 
the management of some of your programs; Materials Protection and IPP 
in particular. I know you have made changes, and those programs now 
report directly to you. I understand that the number of sites that need 
to be secured is much higher than the original estimate. How long do 
you think this program will need to continue?
    Answer. The Materials Protection, Control and Accounting program 
based its original completion date on data contained in the 1995 Joint 
Atomic Energy and Intelligence Committee (JAEIC) Report. The report 
identified 80-100 buildings in the Former Soviet with weapons grade 
nuclear material which required rapid upgrades. The program determined 
that upgrading these 80-100 buildings would require a sustained effort 
through 2002. However, since the 1995 JAEIC Report, the program has 
greatly expanded due to improved knowledge of and access to sites and 
buildings containing weapons usable nuclear materials. To date, the 
program has identified approximately 400 buildings requiring upgrades 
at 55 sites. We also have expanded the work with the Russian Federation 
Navy to include all sites with fresh nuclear fuel and naval spent fuel 
of proliferation concern. Our initial planning did not project such 
excellent cooperation with or access to so much of the Russian Naval 
complex. Also, economic and political uncertainties in Russia during 
1998 made security of the nuclear material more difficult and have 
slowed some work.
    While the harsh Russian economic conditions have increased the risk 
of theft of nuclear materials, it also has created new opportunities to 
address proliferation risks. For example, the program is initiating a 
material consolidation program to simplify the nuclear security problem 
by moving material into fewer buildings at fewer sites. Prior to this 
crisis, this innovative approach would have been less likely to be 
supported by the Ministry of Atomic Energy (MINATOM). The recent 
violent acts at MINATOM and Russian Naval nuclear installations have 
promoted a more proactive approach by the Russian Federation to reduce 
the size of the problem. We are now actively working with the Russian 
Federation to develop a strategy to consolidate nuclear material into 
fewer buildings at fewer sites.
    Today, the program is still on track to complete rapid upgrades at 
100 of the most vulnerable buildings by the 2002 targeted date. 
However, in light of the expanded work, we are currently updating the 
plan. Our new estimate of 400 buildings requiring upgrades will likely 
be adjusted downward if we are able to undertake a vigorous 
consolidation effort with the Russians, which we fully expect at this 
time. Thus, as we develop our new work plan, we are necessarily 
factoring in some uncertainties. The President's Expanded Threat 
Reduction Initiative shows the program extending through fiscal year 
2004, but work may be required beyond that time. We will keep you 
informed as our new work plan develops.
    Question. Russia has now offered to work with us to consolidate the 
nuclear material in Russia. Have we reached an agreement on that 
proposal?
    Answer. Material consolidation is a new element to the Material 
Protection, Control, and Accounting Program and is under discussion 
currently. We are exploring opportunities with the Russian Federation 
to consolidate nuclear material into fewer buildings at fewer sites to 
simplify the nuclear security task and also possible blend down of some 
of the excess highly enriched uranium to low enriched uranium. At this 
time, we have not finalized the proposal, but we are working with the 
Russian Federation Ministry of Atomic Energy to develop a strategy and 
a proposal that will work towards consolidating nuclear material in the 
near future.
    Question. Do we know how much material the Materials Protection 
program has secured?
    Answer. The Materials Protection, Control, and Accounting Program 
is improving the security on approximately 400 metric tons of weapons 
usable nuclear material by installing initial rapid upgrades, such as 
delay barriers, access control and portal monitors. Of this amount, we 
have completed the installation of fully integrated material 
protection, control and accounting systems for approximately 30 metric 
tons.
    Question. I also am aware of the conflict between some of your 
managers and the leadership of the labs over the Materials Protection 
program. Both sides make good points, but are you aware of that problem 
and are you taking steps to resolve it?
    Answer. Our MPC&A program was originally established as a temporary 
task force, but work in Russia has proven to be much bigger, tougher 
and longer-term than anyone would have expected when we began in 1994. 
The Russian economy has not improved, and in fact has gotten worse. The 
size and geographic span of the Russian nuclear material storage 
complex is greater than anyone in the United States knew. I took steps, 
as Director of our Office of Nonproliferation and National Security, to 
establish a more permanent management structure for our nuclear 
security operations in Russia and the MPC&A Task Force. Now the MPC&A 
Task Force is reporting to me directly, and I have brought on board a 
senior State Department official to advise me and the Department on new 
approaches to manage the MPC&A program and other Russian programs. I 
expect these changes will dramatically improve the oversight and 
implementation of this extremely important program and provide for a 
more efficiently and effectively managed effort. Our goal is to further 
increase the successes and effectiveness of the MPC&A program in Russia 
through this change.
      gao report on initiatives for proliferation prevention (ipp)
    Question. Ms. Gottemoeller, the GAO has issued a report critical of 
the IPP program. How do you respond to the complaint that Russian 
scientists who receive support from the IPP program may work on dual-
use technologies or may even continue to work on weapons technologies 
when they are not working on IPP projects?
    Answer. The Department and General Accounting Office (GAO) do not 
agree on this issue. GAO claims that some Initiatives for Proliferation 
Prevention (IPP) projects support the development of ``dual-use'' 
technology that may enhance Russian military capabilities. The cases 
cited by GAO provided no direct aid to Russia's military or weapons of 
mass destruction programs. Moreover, DOE has been extremely concerned 
about this issue and reinforced the existing review process in the mid-
1997 time frame. This reinforcement enhanced interagency participation 
in the review process, to screen out potential ``dual-use'' projects--
especially in the areas of chemical and biological weapons. 
Nevertheless, we have implemented GAO's recommendations to further 
strengthen the review process.
    IPP is not subsidizing Russian weapons activities, as GAO contends, 
because each project is designed to produce non- defense products and 
results in one or more specific deliverable. The deliverables are 
reviewed by a U.S. laboratory principal investigator who verifies that 
these meet the original terms of contract requirements. We take this 
oversight very seriously. DOE scientists spent the equivalent of ten 
man-years in the NIS in fiscal year 1998 alone, ensuring that IPP 
projects were being properly conducted, according to firm, fixed-price 
contracts. Time spent by Russian scientists on these non- defense IPP 
contracts is time that they cannot spend working on Russian weapons 
projects--or on weapons of mass destruction programs for third parties.
    We know that senior Russian weapons scientists are devoting time to 
their IPP projects, because we are receiving work products, reports, 
equipment prototypes, and other deliverables that reflect their project 
work. Moreover, in many cases IPP program money is the only actual 
payment scientists are receiving, thus making IPP work more attractive 
to Russian participants than non-paid defense-related assignments.
    The involvement of DOE laboratory personnel with that of NIS 
scientists and engineers provides assurance that old reports and data 
from archives are not sent in as new deliverables. The direct interface 
with DOE personnel also helps ensure that IPP funds are being spent on 
IPP projects and are not diverted to other purposes at the recipient 
institutes.
    The fundamental goal of the IPP program is to keep NIS weapons 
specialists working in their home countries, rather than selling their 
services to foreign states or organizations of proliferation concern. 
At virtually all Russian weapons institutes, salaries are going unpaid 
for months. These scientists and those formerly employed at the 
institutes are the proper targets of the IPP program, because these are 
the individuals who are most likely to be tempted to sell their 
services abroad.
    GAO also raised the possibility that 19 chemical and biological 
projects had not received necessary interagency review. It has recently 
been verified by review of IPP documents and records that these 19 
projects had received necessary interagency review before their 
approval. In addition to this, the remaining IPP chemical and 
biological projects (for a total of 30) have been rechecked to assure 
that necessary interagency reviews are underway and should be completed 
by April 15, 1999.
             initiatives for proliferation prevention (ipp)
    Question. I am interested in the GAO's finding that most of the IPP 
funds are spent at our labs and not in Russia. Would you provide to the 
Committee a break-down of the how much of the funds appropriated for 
Materials Protection and IPP is spent in the U.S. and how is spent in 
Russia?
    Answer. IPP expenditures in the United States have been high 
because of the involvement of the DOE National Laboratories--an 
involvement that is one of the core strengths of the IPP program and 
one that is mandated in the legislation founding the initiative. It is 
the close involvement of DOE National Laboratory scientists and 
engineers in the IPP projects that assures that the work done and the 
deliverables received, under firm, fixed-price contracts, are receiving 
stringent oversight. The principal investigators monitor each contract, 
collaborate with the NIS scientists and engineers, working jointly on a 
given project, participate in selecting an industry partner in the 
U.S., arrange the Cooperative Research and Development Agreements 
(CRADA) with the industrial partner, and then monitor the CRADAs. 
Often, joint publications and joint inventions result from these 
collaborative efforts.
    This crucial involvement of DOE laboratory personnel provides 
confidence that NIS scientists and engineers are not submitting old 
reports and data from their files as new deliverables. The hands-on 
involvement of DOE personnel also helps to safeguard that IPP funds are 
being spent on IPP projects and are not sidetracked for other 
activities at the recipient institutes. In fiscal year 1998 alone, IPP 
principal investigators from the laboratories spent the equivalent of 
nearly 10 man-years at facilities in the NIS ensuring that IPP projects 
were being done properly and in compliance with contract requirements. 
(It should be noted that although these days were worked in the NIS, 
the travel funds were counted as being spent in the United States, an 
accounting artifact that does not provide a full picture of resources 
devoted to work in the NIS).
    Another factor affecting the proportion of IPP funds expended in 
the United States is that IPP provides important support for other U.S. 
government programs. For example, since International Science and 
Technology Center (ISTC) funds cannot be spent in the United States, 
IPP funds are used for work at U.S. National Laboratories in support of 
ISTC work in Russia. Over the life of the Program, six IPP projects 
worth approximately $950,000 were funded in direct support to ISTC 
projects. In addition, IPP has been funding nearly $500,000 in ISTC 
salaries on an annual basis. IPP has also provided continued indirect 
support to ISTC from National Laboratory overheads and other related 
sources. DOE lab scientists are listed as `collaborators' on 238 ISTC 
projects and perform a number of activities which can include proposal 
review, review of reports and performance of hands-on research. 
Indirect support duties also include performance as program 
`coordinators' for ISTC projects for which at least partial 
compensation is received.
    Despite these factors, however, the IPP program is implementing 
changes to increase the commercial emphasis of IPP projects and to 
raise the overall proportion of project funds sent to the NIS to well 
above 50 percent. Our goal is 60 percent. This will be accomplished by 
requiring that each laboratory place more of its IPP project dollars on 
U.S. industry cost-shared projects, to which U.S. industry is 
contributing resources, as opposed to technology demonstration and 
feasibility projects not involving U.S. industry. For these U.S.-
industry cost-share projects, an increased share of funding will go to 
the NIS. In addition, on-going technology demonstration projects that 
are not meeting project milestones or have only a slight chance of 
commercialization will be canceled and the funds made available for 
more commercially promising projects. As an aggregate, these measures 
will result in an increasing commercial emphasis, more U.S. industry 
cost-share and participation, and a greater percentage of overall IPP 
funds going to the NIS.
    For fiscal year 1997 Initiatives for Proliferation Prevention (IPP) 
appropriated funds, the DOE National Laboratories allocated $12.4 
million to the Newly Independent States (NIS). They allocated $15.5 
million to laboratory-related activities. This amounts to 44.4 percent 
of IPP project dollars allocated to NIS contracts in fiscal year 1997.
    For fiscal year 1998 appropriated funds, the allocation percentage 
to NIS contracts is projected to be 48 percent as new contracts are 
finalized. The current distribution reflects that the DOE National 
Laboratories have allocated $6.7 million or 28.2 percent to the NIS and 
$17.0 million or 81.8 percent of funds is committed to laboratory-
related activities. As contract negotiations with NIS institutes are 
completed and costing of funds under the new contracts can begin, the 
NIS expenditures are anticipated to rise to as high as 48 percent, 
allocating a 52 percent portion in the National Laboratories.
    It is also the IPP program goal to increase the number of Thrust 
Two projects, which involve a cost-sharing with U.S. industry, as a 
percentage of overall projects underway. This will contribute, in a 
positive way, to increasing the flow of funds to the NIS partners.
    For the Materials Protection, Control and Accounting (MPC&A) 
Program, during fiscal year 1996 and fiscal year 1997, as the program 
was getting established and U.S. coordination costs were higher, the 
MPC&A program spent $107.7 million on U.S. laboratory labor and travel 
and $56.3 million on upgrades at FSU facilities, including FSU labor 
and MPC&A equipment installed at FSU facilities (this equipment was 
from FSU and Western commercial vendors). This broke down to about 66 
percent and 34 percent, respectively.
    Since fiscal year 1998 through January 1999, the MPC&A program 
costs were $100.7 million for U.S. laboratory labor and travel and $90 
million for FSU labor and MPC&A equipment. These costs amount to around 
53 percent and 47 percent, respectively. This trend is heading toward 
lower U.S. laboratory costs as the MPC&A program engages in more 
efficient management.
    It must be stressed that much of the laboratory travel associated 
with both the MPC&A and IPP programs is carried out in Russia and the 
NIS, overseeing or performing project work in inhospitable or even 
hazardous environments. Without the travel of laboratory specialists to 
these difficult and remote locations, MPC&A and IPP project work would 
not be possible.
                    nuclear cities initiatives (nci)
    Question. This year's Defense Authorization Act required a report 
on the Nuclear Cities Initiative which we have received--but it is very 
vague. Will you submit to the Committee a more detailed report so we 
can understand basic issues about the Nuclear Cities Initiative such 
as; who will serve as the United States executive agent for this 
program, where the money will be spent, or what the money will be spent 
on?
    Answer. The Department will be happy to provide ongoing status 
reports of progress under the Nuclear Cities Initiative (NCI) to the 
Committee. The Nuclear Cities Initiative has progressed considerably 
since the December report that DOE submitted to the Congress.
    DOE serves as the U.S. Executive Agent for Nuclear Cities 
Initiative on behalf of the U.S. Government.
    As reported to the Gore-Primakov Commission in March 1999, 
important initial projects are being launched in each of the three 
initial target cities, Sarov, Snezhinsk and Zheleznogorsk. Highlights 
of the current status and plans are:
    Working groups have visited each of these three cities and 
identified promising projects. One of the primary aims of the mutual 
effort will be to establish a business friendly infrastructure within 
the cities. As a start, in 1999, almost $2 million in funding will be 
devoted to upgrading the telecommunications systems and to establishing 
business development centers to promote market-based economic activity 
within each community.
    In Snezhinsk (Chelyabinsk-70), a pharmaceutical packaging project 
has been identified for joint work, leveraging resources to support 
this important activity to benefit public health and welfare. In 
Zheleznogorsk (Krasnoyarsk-26), the U.S. working group team has just 
completed its evaluation. The Silicon of Siberia project, which alone 
could result in the creation of 500 jobs over four years, will be one 
target of joint development, with other smaller projects currently 
being identified.
    Progress in the six short months since the NCI Agreement was signed 
has been impressive and both U.S. and Russian participants look forward 
to building a foundation of cooperation that will lead to sustainable 
job creation in the closed nuclear cities.
                        status of russian talks
    Question. Ms. Holgate, Deputy Secretary Moniz, Deputy Secretary 
Holum, and you briefed me in some detail on this yesterday but, for the 
record, would you summarize the status of the talks with Russia?
    Answer. The negotiations are underway. Initial conversations with 
Russian counterparts, particularly in February, reveal substantial 
common ground on a number of substantive elements as well as on the 
structure and urgency of this agreement. The U.S. delegation is led by 
the Department of State with key support being provided by the 
Department of Energy. The Russian delegation is led by the Ministry of 
Atomic Energy (MINATOM), supported by the Ministry of Foreign Affairs. 
I believe that an agreement can be concluded this year to enable 
plutonium disposition to proceed in both countries.
                   parallel u.s. and russia programs
    Question. Congress directed in last year's Act that ``the United 
States should not proceed unilaterally to dispose of excess plutonium 
without parallel progress on the Russian side.'' The budget request 
states that the Administration will not construct new facilities for 
disposition of U.S. plutonium unless there is significant progress on 
plans for plutonium disposition in Russia. When the Administration says 
``significant progress,'' is that consistent with the Congressional 
requirement for an agreement to be in place?
    Answer. Yes. The United States will not unilaterally dispose of its 
surplus plutonium without parallel progress on the Russian side. The 
Department's fiscal year 2000 budget request for fissile materials 
disposition seeks funding to proceed with the up-front research, 
design, licensing and fuel qualification activities. Proceeding with 
these long lead-time activities is necessary to maintain momentum and 
pressure on Russia for a plutonium disposition agreement, and serves as 
a sign to private industry, the public and the world community that the 
U.S. is serious about disposing of stockpiles of surplus weapons 
plutonium. The United States will not begin construction of new 
facilities for the disposition of U.S. plutonium unless there is 
significant progress with Russia on plans for the disposition of 
surplus Russian plutonium. A comprehensive bilateral agreement would 
certainly represent ``significant progress.''
    Question. Your budget request for fiscal year 2000 includes funds 
to complete Title I and Title II design of the pit disassembly and 
conversion facility and to procure some long-lead equipment. You are 
also on the verge of issuing a contract this year with a fuel 
fabricator and utility team to fabricate and burn MOX fuel. It seems to 
me that Russia is years behind in that regard. Are you getting in front 
of Russia, and how do you plan to deal with a slow-down if the Russian 
program does not proceed quickly?
    Answer. I do not believe the United States is getting out in front 
of the Russians on this matter. Russia is currently conducting 
feasibility studies on various technical alternatives for converting 
plutonium metal to plutonium oxide, suitable for fabrication into mixed 
oxide (MOX) fuel. Following a decision by Russia, we can proceed with 
design of a full-scale Russian plutonium conversion facility. On the 
U.S. side, once we have a contract in place, we too can proceed with 
the design of the full-scale plutonium conversion facility. The 
contract for MOX fuel fabrication and irradiation services is written 
so as to allow changing the output of the MOX plant to allow for 
parallel progress with Russia.
    The U.S. contract for MOX fuel fabrication and irradiation services 
was awarded on March 22, 1999. We needed to award this contract in 
order to select and obtain commitments on which reactors would be used. 
Among other things, the first phase of this contract will include 
design of the fuel fabrication facility. Without the facility design 
and the identification of reactors, we would be unable to move forward 
with the licensing requirements for the fabrication facility and the 
reactors. Russia, on the other hand, already knows which reactors will 
be used for plutonium disposition and they have begun work on fuel 
qualification. Russia is working on a conceptual design of a MOX fuel 
fabrication facility with the French. Our Technical Cooperation 
Agreement gives us a key mechanism to keep Russian research and 
development moving ahead during the process of negotiating a 
comprehensive bilateral agreement.
    Question. Is the procurement of that long-lead equipment consistent 
with the commitment to proceed in parallel with Russia?
    Answer. Yes. In order to obtain the necessary equipment design 
information for review and use, the architect-engineer must procure the 
long-lead equipment early in the design phase, before the facility 
design is complete. However, no equipment manufacturing would begin 
unless there is significant progress with Russia on plans for plutonium 
disposition. Should significant progress be delayed, equipment vendors 
would not be authorized to fabricate hardware.
                         definition of 50 tons
    Question. Russian Minister Adamov has complained to me that the 50 
tons of plutonium the United States plans to disposition of is not all 
weapons grade. I understand that initially we will work with Russia to 
dispose of equal amounts of each country's plutonium, but, over the 
long run, Russia has a great deal more plutonium that the U.S. How are 
we going to achieve parity over the long run?
    Answer. You are correct in your understanding that under the 
bilateral agreement currently envisioned, the United States and Russia 
will likely dispose of equal amounts of plutonium and that Russia is 
believed to have a great deal more plutonium than does the United 
States. Parity in remaining plutonium stockpiles is intended to be 
addressed as part of the broader strategic arms reduction process 
(START).
    Question. Would you provide for the record a list of what plutonium 
each country possesses--in the case of Russia it will be our best 
estimate--and a list of what plutonium each side has proposed to 
dispose of?
    Answer. As specified in the DOE publication, Plutonium: The First 
50 Years (DOE/DP-0137, February 1996), the current U.S. plutonium 
inventory is 99.5 metric tons (MT). The U.S. inventory is composed of 
85.0 MT of weapons grade (less than 7 percent Pu240), 13.2 MT of fuel 
grade (more than 7 percent and less than 19 percent Pu240), and 1.3 MT 
of reactor grade (more than 19 percent Pu240). Of the 85 MT of weapons 
grade plutonium, 38.2 MT have been declared excess to national security 
needs. In addition, the Department of Energy considers 14.3 metric tons 
of non-weapons-grade plutonium to be surplus.
    The DOE publication, Materials Protection, Control, and Accounting 
(MPC&A) Program Strategic Plan (January 1998), states that experts 
believe that the former Soviet Union produced more than 150 MT of 
plutonium. In September 1997, Russian President Yeltsin announced a 
decision to remove gradually from military nuclear programs, up to 50 
metric tons of plutonium which has become available through the nuclear 
disarmament process. Thus far, Russia has provided no further breakout 
of this material.
                         mox vs. vitrification
    Question. Ms. Holgate, your program proposes to dispose of excess 
U.S. plutonium in two ways: burn it in reactors as MOX fuel or mix it 
with a ceramic, place that material in a steel can and surround the 
steel can with vitrified high-level waste. It seems to me that it will 
be relatively easy to recover the plutonium stored in steel cans, 
especially as the radioactivity of the waste around it decreases--
something that will occur fairly rapidly. Have you determined that the 
steel can storage technique meets the spent fuel standard?
    Answer. The Department is focusing on this ``can-in-canister'' 
approach for plutonium immobilization. Under this approach, plutonium 
feed materials would be converted to oxide which would be mixed with 
material to form ceramic disks. The disks would be stacked and sealed 
into steel cans which would be arrayed within large canisters into 
which vitrified high-level waste would be poured. The radioactive waste 
barrier increases the proliferation resistance of the immobilized 
plutonium. Subsequently, the canisters would be disposed of in a 
geologic repository. The Department believes that this ``can-in-
canister'' immobilization approach meets the spent fuel standard in 
which the surplus plutonium is made as inaccessible and unattractive 
for retrieval and weapons use as the plutonium remaining in spent fuel 
from commercial reactors. Nonetheless, DOE has asked the National 
Academy of Sciences to examine the degree to which both U.S. 
disposition technologies meet the spent fuel standard. The National 
Academy of Sciences assessment is expected to be completed this summer.
    Question. Would you be comfortable with China or North Korea 
disposing of plutonium using the steel can approach?
    Answer. As a practical matter, a nuclear weapons state such as the 
United States, Russia or China has the technology to recover separated 
plutonium from either spent MOX fuel or the immobilized waste form. The 
real question that needs to be asked, however, is whether it is 
practical for a nuclear weapons state to do so in light of more readily 
available alternatives, which are cheaper and easier. Given this fact, 
the United States would be comfortable with Russia or China disposing 
of their surplus plutonium through immobilization and subsequent 
disposal in a geologic repository. North Korea, however, is not a 
recognized nuclear weapons state and is believed to lack key technology 
and readily available stockpiles of plutonium with which to readily 
fabricate nuclear weapons. As a result, under no circumstances would 
the U.S. be comfortable with North Korea disposing of surplus plutonium 
in this manner, should such material be available.
                                schedule
    Question. Ms. Holgate, your program proposes to actually begin 
burning up U.S. plutonium in 2007. When do you plan to complete the 
disposition of all 50 tons of excess U.S. plutonium?
    Answer. Assuming the U.S. and Russia complete a plutonium 
disposition agreement later this year, the United States could dispose 
of its 50 metric tons of plutonium by 2022. This assumes a peak 
disposition rate of 5 metric tons of plutonium per year, with the 
ability to accelerate this rate should parallel progress be achievable 
in Russia.
    Question. How did you decide what an acceptable schedule would be?
    Answer. The schedule is an aggressive one based on a number of 
factors including technical considerations, cost, infrastructure and 
Russian considerations. However, given the current political 
instability and worsening economic conditions prevailing in Russia and 
the very real threat that surplus plutonium could be stolen or diverted 
into the hands of terrorists or non-nuclear nations, I feel that the 
aggressive schedule is warranted.
                           canadian reactors
    Question. I've been intrigued by the idea proposed a number of 
years ago to burn U.S. and Russian weapons-derived plutonium in 
reactors in Canada. Do you still plan to fabricate fuel for Canadian 
reactors, and when might we ship that fuel to Canada?
    Answer. Yes. A joint U.S.-Russian non-proliferation experiment is 
planned to be conducted this summer in Canada to demonstrate the 
feasibility of disposing of excess weapons plutonium by using it in 
mixed oxide (MOX) fuel in CANDU reactors. The Los Alamos National 
Laboratory has fabricated eight small fuel pins containing 119 grams of 
plutonium from dismantled U.S. weapons for the United States part of 
the experiment. The Russian Federation's Bochvar Institute is preparing 
to fabricate a similar amount of fuel from Russian plutonium. In the 
experiment, a Canadian test reactor will simultaneously irradiate these 
small quantities of MOX reactor fuel.
    DOE believes there is adequate interest and reactor capacity 
available within the United States to dispose of all excess U.S. 
plutonium. There may, however, be a need for additional reactor 
capacity to augment Russia's capability to dispose of its plutonium in 
reactors.
                                 ______
                                 

                  Questions Submitted by Senator Craig

                      nonproliferation technology
    Question. Secretary Richardson recently challenged all DOE national 
laboratories to ``identify technical breakthroughs which will 
revolutionize our proliferation detection capabilities.'' Do you plan 
to increase your support of research and development at non-defense 
laboratories so that the full capabilities of the DOE laboratories can 
get to work on meeting this important challenge?
    Answer. The Nonproliferation and Verification Research and 
Development (R&D) Program will continue to support R&D at both defense 
and non-defense laboratories to utilize the full capabilities of the 
DOE laboratories. In fiscal year 2000, Chemical and Biological 
Nonproliferation has been identified as the highest priority growth 
area with a budget request for this program of $31.2M, an increase of 
almost 70 percent over the fiscal year 1999 budget of $18.5M.
    In preparation for an expanded fiscal year 2000 budget the Chemical 
and Biological Nonproliferation Program invited all DOE National 
Laboratories to participate in a call for proposals. Technology gaps in 
our current program as well as on-going projects that could be 
accelerated into fielded capabilities through the infusion of 
additional R&D funding were the targets of this solicitation. 
Laboratories were encouraged to team with both academia and industry 
where technical expertise was needed and where systems were maturing 
towards implementation.
    Both new proposals and ongoing research and development projects 
will undergo a rigorous two-step peer review which will be conducted 
this Spring. The peer review panel will consist of technical experts 
and end-users from other government agencies, industry and academia.
    Funding decisions will be made on the basis of this peer review 
process which will focus upon the work's potential impact and 
advancement over current state of the art capabilities, the scientific 
and technical quality of the work, and finally the program management 
and technology implementation plan. It is expected that some of this 
important work will be conducted at the DOE's non-defense laboratories 
to meet our proliferation detection challenges.
                           russian navy fleet
    Question. I understand that the current U.S. program to dismantle 
Russian ballistic missile submarines is only addressing a fraction of 
the total number of inactive Russian submarines. The fuel for these 
submarines could present an environmental threat if not dealt with. Do 
you agree that these submarines pose a threat? Would you support an 
accelerated program to defuel all of the Russian submarines?
    Answer. Yes, I agree that the possibility of an environmental 
threat is present if dismantlement is not handled properly; we are also 
concerned about possible nuclear safety and security threats. We are 
coordinating through an interagency process to develop a strategy to 
deal with this very important issue. We will keep you informed of our 
progress.
                      kazakhstan bn-350 activities
    Question. I understood Argonne-West is conducting a very successful 
program to secure the spent fuel and blanket assemblies from the BN-350 
reactor in Kazakhstan. I also understand that Kazakstan has decided to 
shut down the BN-350 permanently. Experience in Idaho with the 
Experimental Breeder Reactor-II could be used to assist Kazakhstan in 
fire protection and handling of the radioactive sodium. Do you have 
plans for helping to resolve these concerns and assist the shutdown of 
the BN-350 reactor?
    Answer. The Department of Energy intends to assist Kazakhstan with 
the safe shutdown of the BN-350 reactor. In this effort, we plan to 
work closely with the International Atomic Energy Agency, the 
Government of Kazakhstan, and other countries with experience in sodium 
cooled reactor technology. We plan to place particular emphasis on 
safety issues, including sodium fire protection and sodium draining. 
Due to its experience with the operation and shutdown of the 
experimental Breeder Reactor-II, Argonne National Laboratory-West is 
playing and will continue to play a large role in our work to improve 
safety and to assist in the shutdown of the BN-350.
                       nuclear cities initiative
    Question. The Mayor of Idaho Falls has expressed interest in 
establishing a sister cities arrangement with the Russian city of 
Ozersk and supporting the work of ANL and INEEL in that city. What is 
your position on the mayor's proposal and on opening up the Nuclear 
Cities Initiative to DOE's non-weapons labs?
    Answer. The NCI Program has already been cooperating with Idaho 
Falls. Through the Energy Communities Alliance Annual Conference, NCI 
brought together the Mayor of Idaho Falls, Linda Milan, and the Mayor 
of Ozersk, Sergey Cherishov, to discuss economic development 
strategies. Additionally, NCI staff introduced the Russian and American 
mayors to the Director of Sister Cities International, Alexander Gorev, 
to promote their cooperation. And finally, NCI program staff has 
requested Sister Cities International to permit both Idaho Falls, ID, 
and Richland, WA, to pair with Ozersk in a new ``Sister Cities'' 
relationship.
    The Department supports the participation of the non-weapons 
laboratories in the Nuclear Cities Initiative (NCI). Currently, the 
Savannah River Site and the Pacific Northwest National Laboratory have 
significant roles assigned under the NCI. For example, the Savannah 
River Site teams with Los Alamos National Laboratory in heading the 
Sarov City Working Group. Pacific Northwest National Laboratory is 
teamed with Lawrence Livermore National laboratory in the program 
efforts at Snezhinsk. The Oak Ridge Site and Sandia National 
Laboratories are teamed in the Zheleznogorsk Working Group. Argonne 
National Laboratory was recently tasked with the development of a new 
medical isotopes functional working group under NCI.
                             bn-600 reactor
    Question. Russia's BN-600 reactor still incorporates a breeding 
blanket that produces about 450 kilograms of weapons-grade plutonium 
per year. Does the Administration plan to propose the conversion of the 
BN-600 blanket and the use of MOX fuel in the BN-600 as part of its 
plan to spend the $200 million emergency appropriation for Russian 
plutonium disposition provided by Congress?
    Answer. The government of Japan recently announced its intention to 
provide funding for the conversion of the Russian BN-600 breeder 
reactor for operation as a plutonium burner. The Department of Energy 
intends to cooperate with the Russian Ministry of Atomic Energy 
(MINATOM) and the Japanese government on issues associated with the 
conversion and the related funding.

                          subcommittee recess

    Senator Domenici. Okay. We look forward to that. We stand 
in recess.
    [Whereupon, at 11:45 a.m., Thursday, March 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2000

                              ----------                              


                        THURSDAY, MARCH 18, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, the 
Dirksen Senate Office Building, Hon. Pete V. Domenici 
(chairman) presiding.
    Present: Senators Domenici, Gorton, Craig, Reid, and 
Murray.
    Also present: Senators Campbell and Allard.

                          DEPARTMENT OF ENERGY

    Environmental Management and Civilian Waste Management Programs

STATEMENTS OF:
        JAMES M. OWENDOFF, ACTING ASSISTANT SECRETARY FOR ENVIRONMENTAL 
            MANAGEMENT
        LAKE H. BARRETT, ACTING DIRECTOR, OFFICE OF CIVILIAN 
            RADIOACTIVE WASTE MANAGEMENT

                           OPENING STATEMENT

    Senator Domenici. The hearing will please come to order. I 
know Senator Reid is not here, but he will arrive shortly. I 
apologize, but I can only be here until 10:15, because I am 
finishing the budget markup upstairs in another room. So I 
would like to get started and keep my remarks to a minimum, in 
order to get on with testimony of our witnesses.
    We welcome the presence of Senator Campbell, who, while not 
being on the subcommittee, has asked, as he did last year, if 
he could come here and ask some questions about Rocky Flats. We 
will be glad to let you do that, Senator.
    This morning we review the budget request of the Department 
of Energy's Environmental Management Program, and the Civilian 
Radioactive Waste Management Program, otherwise known as the 
Yucca Mountain program.
    I want to welcome the witnesses here today, Mr. James 
Owendoff, Acting Assistant Secretary, Office of Environmental 
Management; and Mr. Lake Barrett, Acting Director of the Office 
of Civilian Radioactive Waste Management.
    Gentlemen, we have a busy schedule today in the Senate, and 
I ask that you be as brief as possible in summarizing your 
prepared statements, as you know they will be thoroughly read 
by the subcommittee. Without objection, right at the offset, 
your full prepared statements are going to be made part of the 
hearing record.
    Before I turn to Senator Reid, who will be along shortly, I 
want to mention one item of particular interest to Senator Reid 
and me, and that is the accelerator transmutation of waste. We 
included in last year's act $4 million to develop a road map 
for accelerated transportation of waste technology.
    The Department has made a great deal of progress in 
developing that road map, and I hope to come back to that issue 
at a hearing in April specifically for that purpose.
    Having said that, I wonder if, Senator Campbell, would you 
like to----
    Senator Campbell. Perhaps just a brief comment.
    Senator Domenici. Please.

              STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Thanks for letting me sit with this 
subcommittee. I am a member of the full committee as well. 
Because of Rocky Flats, I have a very, very keen interest in 
this, and I am very pleased to see the administration has 
requested $657 million to continue the cleanup. I might tell 
you, Mr. Chairman, the sooner we get that cleaned up, we will 
be able to perhaps supply more money to WIPP, which is in your 
state.
    One thing I am concerned about is a proposal by the 
administration that we build some temporary tent structures to 
house it until this lawsuit is handled in New Mexico. I think I 
should tell my friends here that are going to be testifying, 
that is absolutely unacceptable. Our communities will go nuts 
if we tell them we are going to store any kind of waste in 
temporary tents, because their feeling, of course, is that once 
it is stored there in tents, it is just going to stay there, 
and we will not really make a concentrated effort to get it 
cleaned up.
    Last year, as you probably know, we did get an additional 
$30 million through the budget here in the Senate to accelerate 
that cleanup, but it has not been going as fast as some of us 
would like it. I am sure you are aware of that, and I would 
hope, as I am going to ask Secretary Richardson this afternoon, 
at Interior appropriations, to try and prioritize that. He has 
said that he will come out and take a look at that himself, as 
Hazel O'Leary has done, and a few others have done.
    Unfortunately, in the past, they come out for the photo 
ops, and then they don't make a concentrated effort to get the 
cleanup done. I think Secretary Richardson, since he is from 
New Mexico, and is very keenly aware of the problem in New 
Mexico and Colorado, will prioritize it, and I would hope that 
you would, too. Thank you, Mr. Chairman. I will ask some 
questions at the appropriate time.
    Senator Domenici. Senator Reid, since I have to leave at 
10:15 to finish the budget markup, I started----
    Senator Reid. I am glad you did.
    Senator Domenici [continuing]. In your absence.
    I think both of you know that we are involved in activities 
in the Department of Energy that are vitally important and can 
have significant impacts on the budget of the Department of 
Energy, because of very expensive programs. I might say in the 
presence of Senator Campbell that the one object of cleanup 
that is going along with some sense of urgency, and some real 
goals that are being accomplished, is the Rocky Flats. It is a 
shining star and we hope it will stay on track.
    We want to fund it and get it done. It seems like at the 
other cleanup sites, we are no further ahead today than we were 
10 years ago, that is just my editorial comment, but Rocky 
Flats is doing very well.
    So let us proceed. If you would proceed at this point, we 
would be delighted to hear your testimony, Mr. Owendoff.

                     statement of james m. owendoff

    Mr. Owendoff. Mr. Chairman, and members of the committee, 
thank you for this opportunity to appear before you to discuss 
the Department of Energy's Environmental Management program and 
our fiscal year 2000 budget request. I would like to cover 
several subjects in my brief oral statement.
    First, I will mention some significant progress we have 
made, as well as some of the challenges we face. Second, I will 
describe our budget request for fiscal year 2000.

                       program goals and progress

    As you know, the Environmental Management program is 
responsible for managing and cleaning up the environmental 
legacy of over 50 years of production of nuclear weapons and 
government nuclear energy projects. Cleaning up environmental 
contamination is just one part of our program. In addition, we 
are responsible for the safety and security of more than 25 
metric tons of weapons-useable plutonium, over 2,000 tons of 
intensively radioactive spent nuclear fuel, and for storing, 
treating, and disposing millions of cubic meters of radioactive 
waste.
    Clearly, this is a big job. To bring some closure to this 
program we have set a goal of cleaning up as many sites as 
possible by the end of 2006. By closing sites early, we reduce 
the hazards facing the public and our workers, concentrate our 
resources on cleaning up sites, rather than overhead costs 
necessary to keep a site open, and thereby lowering the long-
term cost to the taxpayers.
    We have set very ambitious goals for closing, by the end of 
2006, the Rocky Flats site in Colorado, and the Mound and 
Fernald sites in Ohio. Our plans for closing these sites assume 
a stable funding stream, but a stable funding stream is not 
enough. Our ability to reach these goals will also require the 
creative use of the facilities and technical personnel at other 
sites.
    A cooperative strategy of integration across the complex is 
imperative. Such a strategy requires dedicated efforts by DOE, 
contractors, regulators, Native Americans, local governments, 
and other stakeholders to succeed.
    We are making progress toward our goal, as evidenced by 
some of the recent accomplishments. When we came before you at 
this time last year we had 53 sites requiring active cleanup. 
During this past year we reduced that number to 48, and we 
planned to complete cleanup at six more sites by the end of 
fiscal year 2000.
    With the completion of the remaining last two sites last 
year we completed surface cleanup at all 22 uranium mill 
tailings sites, as well as more than 5,300 contaminated 
properties in the vicinity of those sites. We have made real 
progress in reducing risks and mortgages at our large sites, 
where cleanup will continue past 2006.

                           hanford activities

    For example, in fiscal year 1998 we completed deactivation 
of the N-reactor complex, the last of nine reactors, at the 
Hanford site, and the B-plant, a plutonium processing facility 
at Hanford. In both cases we reduced annual surveillance and 
maintenance costs from $20 million to less than $1 million.
    Our past investments in technology development are now 
making significant demonstrable contributions. In the past year 
alone we demonstrated 40 technologies to reduce risks and/or 
costs of cleanup projects, and our sites used new technologies 
in 108 instances.

                     waste isolation pilot project

    We have made significant steps toward beginning the 
operations at the Waste Isolation Pilot Plant in New Mexico, 
where we intend to dispose of our transuranic waste. In May 
1998, the Environmental Protection Agency certified that WIPP 
met disposal standards, and in June 1998, the Defense Nuclear 
Facilities Safety Board concluded that WIPP could be operated 
safely.
    We expect to begin shipments of non-mixed transuranic waste 
to WIPP, assuming pending litigation is favorably resolved. We 
are also working with the state to obtain a permit that will 
allow us to ship mixed waste.

                    fiscal year 2000 budget request

    Turning to our request for fiscal year 2000, we are 
requesting $5.7 billion in traditional budget authority, $100 
million more than was appropriated for the current fiscal year. 
We are also requesting $228 million in budget authority to 
support privatization projects. This budget will support 
accelerated cleanup and closure, the deployment of new 
technologies, and progress in treating and disposing of nuclear 
waste, including shipments to WIPP.
    The request also supports closure of Rocky Flats. We have 
developed a baseline defining the critical path for closing in 
2010, and have identified opportunities to accelerate closure 
to achieve the goal of closing the site by the end of 2006.
    In the fiscal year 2000 budget request, we have given 
priority to our high-risk problems, such as stabilizing and 
ensuring the security of plutonium, stabilizing high-level 
waste tanks, and ensuring the safe storage of spent nuclear 
fuel, including the foreign research reactor spent nuclear 
fuel, with highly enriched uranium, that we are bringing back 
to the United States to reduce worldwide nuclear proliferation 
risks. We intend to meet our statutory and regulatory 
requirements, as well as our obligations under compliance 
agreements, with state and federal agencies.
    We will continue to ensure that our cleanup projects are 
well managed and use the taxpayers dollars most efficiently. 
All of our cleanup work is organized into projects. You can see 
the projects and the associated performance measures in our 
budget request, which is organized by project, as requested in 
last year's appropriations bill.
    We are also taking a number of actions to improve our 
project management performance. We are conducting external 
independent project assessments and enhancing our federal staff 
capability to independently review our projects, and we 
continue to improve our contracting methods to provide our 
contractors with the right incentives and penalties for good or 
poor performance.
    In conclusion, our fiscal year 2000 request will enable us 
to reduce our risks, meet legal obligations, and continue to 
work toward our goal of completing as much cleanup as possible 
by 2006. We would like to continue to work cooperatively with 
Congress to meet these goals.
    I also ask for the committee's consideration of the $53 
million reprogramming request that we have submitted for the 
operation of the high-level waste tanks for the fiscal year 
1999 budget. I want to apologize for the untimely submission of 
that request. It was in no way intended to preclude an 
appropriate review by the Congress of that request.

                           prepared statement

    As we indicated to the committee staff, we are also 
finalizing a reprogramming request for the Savannah River site 
in South Carolina and expect to submit that request in the next 
several weeks.
    Thank you, Mr. Chairman. I am pleased to answer any 
questions asked.
    Senator Domenici. Thank you very much.
    [The statement follows:]

                Prepared Statement of James M. Owendoff

    Mr. Chairman, and Members of the Subcommittee, I appreciate this 
opportunity to appear before you to discuss the Department of Energy's 
Environmental Management (EM) program and its fiscal year 2000 budget 
request.
    During this past year, the Department has made a significant amount 
of progress both in cleaning up sites and in operating a truly 
performance-based management system. Our budget request for fiscal year 
2000 provides $5.7 billion in traditional budget authority, allowing us 
to continue progress towards our cleanup goals. The request also 
includes $228 million in budget authority to support privatization 
projects.
    The commitments based on this budget will be accelerated cleanup 
and closure, deployment of new technologies, and progress in treating 
and disposing of legacy nuclear waste. We have set very ambitious goals 
for closing several sites by the year 2006, including the Rocky Flats 
Site in Colorado, and the Mound and Fernald Sites in Ohio. We also plan 
to complete cleanup at the Weldon Spring Site in Missouri, our sites in 
California and various other locations by that date. Consequently, we 
are eager to continue working with Congress to focus funding on 
cleaning up and closing sites.
    The EM budget also reflects our expectation that we will begin 
shipments of transuranic waste to the Waste Isolation Pilot Plant 
(WIPP) this year and our intent to support and increase shipments in 
fiscal year 2000. The U.S. Environmental Protection Agency (EPA) 
certified WIPP for disposal of radioactive waste in May of 1998. We 
hope to make our first shipments this year if pending litigation is 
resolved favorably, a crucial step forward in providing for the 
permanent disposal of a portion of the Department's long-lived 
radioactive waste and the accelerated closure of sites like Rocky 
Flats.
                              introduction
    Before discussing our fiscal year 2000 budget request, I would like 
to provide an overview of our program and some of our accomplishments 
in the past year. We continue to work towards the goal we have 
established to clean up as many of the remaining contaminated sites as 
possible by 2006, safely and cost-effectively. Indeed, when we came 
before you at this time last year, we had 53 sites requiring active 
cleanup. Having completed cleanup at three sites, with transfer of 
another two sites to the State of North Dakota at its request, that 
number is now reduced to 48, and will decrease by six more sites by the 
end of fiscal year 2000. By working towards our goal for accelerated 
cleanup, we not only reduce the hazards presently facing our workforce 
and the public, but also reduce the long-term financial burden on the 
taxpayer. For every year that a site remains open because cleanup has 
not been completed, we are paying a ``mortgage'' of overhead costs for 
activities such as site security, facility operations, personnel, and 
safety. The fiscal year 2000 budget request is now fully structured to 
emphasize site closure and project completion.
          a. meeting the challenge of the environmental legacy
    The EM program is responsible for managing and cleaning up the 
environmental legacy of the nation's nuclear weapons and government 
nuclear energy projects. Beginning with World War II, DOE and its 
predecessor agencies developed the largest government-owned industry in 
the United States, responsible for nuclear weapons research, 
development, testing, and production as well as a variety of other 
nuclear-related research projects. When most nuclear weapons production 
operations ceased in 1989, DOE established the Office of Environmental 
Management to address the environmental legacy of nuclear weapons 
production and other nuclear-related programs. Our responsibilities 
include facilities and sites in 30 states and one territory which 
encompass about 2.1 million acres--an area equal to that of Rhode 
Island and Delaware combined.
    Although EM is often referred to as the ``cleanup program,'' this 
term can be misleading if it is interpreted to compare EM's program to 
EPA's Superfund program or the environmental restoration program at the 
Department of Defense. In addition to these ``standard'' cleanup duties 
at DOE sites, EM is also responsible for the world's largest nuclear 
stewardship program, which maintains the safety and security of more 
than 25 metric tons of weapons-usable plutonium and over two thousand 
tons of intensely radioactive spent nuclear fuel, and for carrying out 
critical nuclear non-proliferation programs.
    Completing the cleanup of the legacy from nuclear weapons 
production will allow the Department to focus on its science, security, 
and energy missions and will fulfill commitments to communities and, 
where appropriate, return lands and facilities to the communities for 
reuse.
    Finally, it is important to note that the nature of much of the 
waste handled by DOE is fundamentally different from most chemical 
waste cleanup programs, since radioactive waste cannot be broken down 
into constituent elements, but instead requires isolation from the 
environment through treatment and/or disposal while it decays. Because 
of the frequently long-lived radioactive nature of the 36 million cubic 
meters of waste (containing about one billion curies of radioactivity), 
we can treat it, stabilize it, contain it, isolate it and monitor it, 
but we cannot destroy it with currently available technology.
     b. accomplishments and progress--cleaning up and closing sites
    I am pleased to report that our program has produced substantial 
cleanup results at contaminated nuclear facilities around the country. 
For example:
    Since 1989, we have completed necessary cleanup actions at nearly 
half (about 4,100) of individual waste sites (known as ``release 
sites'') out of a total inventory of 9,700 release sites.
    We completed surface cleanups of all 22 large uranium mill tailings 
sites as well as more than 5,300 ``vicinity properties,'' including 
elementary schools and homes. This project included remediation of over 
40 million cubic yards of contaminated soil and material, a volume that 
would cover a football field with a mound of dirt four miles high. We 
are now monitoring low-level ground water contamination at some mill 
tailings sites, with active remediation planned at three sites.
    We have made significant steps toward beginning transuranic waste 
disposal operations at the Waste Isolation Pilot Plant (WIPP) in New 
Mexico--we received certification from the U.S. Environmental 
Protection Agency in May 1998 that WIPP met disposal standards and 
notification in June 1998 from the Defense Nuclear Facilities Safety 
Board that WIPP can be operated safely.
    We successfully operated two high-level waste vitrification 
facilities in South Carolina and New York, where last year we converted 
nearly 2,500 cubic meters of waste into 331 canisters of ``glass logs'' 
ready for disposal. The first phase of the high-level waste 
vitrification campaign at the West Valley, New York facility was 
completed in fiscal year 1998, under budget and ahead of schedule, and 
we are now vitrifying the tank heels.
    The Department awarded the second part of ``Phase 1'' of a 
``privatization'' contract, covering the extended design of new 
facilities for the treatment of a portion of the high-level waste in 
the tanks at the Hanford Site in Washington.
    We finished connecting community drinking water hookups surrounding 
Brookhaven National Laboratory in New York. We have sponsored more than 
1,500 hookups for off-site residences from fiscal year 1996 through 
fiscal year 1998 to ensure that residents' drinking water supply 
remains unaffected during long-term ground water cleanup.
    In support of non-proliferation goals, we have now completed a 
total of eight shipments of spent nuclear fuel from foreign research 
reactors from fifteen countries, including Chile, South Korea, and 
Columbia. Seven shipments have been received at the Savannah River Site 
in South Carolina and, in fiscal year 1998, the first shipment to the 
Idaho National Engineering and Environment Laboratory was completed.
    We completed ``closure'' of a second high-level waste tank at the 
Savannah River Site in South Carolina. After removing waste, the tank 
was backfilled using an innovative grout to immobilize residual 
radionuclides.
    We disposed of 30,000 cubic meters of low-level waste and 10,000 
cubic meters of mixed low-level waste in fiscal year 1998 alone.
    At Rocky Flats, we stabilized or repackaged about 5,000 kilograms 
of plutonium-bearing residues in fiscal year 1998. In addition, Rocky 
Flats staff drained acid plutonium liquids from two 2 liquid-piping 
systems in Building 771 and then removed the pipes.
    We demonstrated 40 alternative technology systems and made 42 
systems ready for implementation with cost and engineering performance 
information.
    Field operations' use of new technologies that can reduce cleanup 
cost and schedules is gaining momentum. EM has verified the first-time 
use of alternative technologies at a site in 108 instances at cleanup 
projects throughout the DOE complex in fiscal year 1998.
    We continue to use pollution prevention techniques to reduce our 
overall costs. In fiscal year 1998 alone, DOE sites completed over 700 
pollution prevention projects, avoiding the generation of 45,000 cubic 
meters and saving an estimated $155 million.
    We continued our financial management improvements: at the end of 
fiscal year 1998, our uncosted balances were lower than the established 
benchmark for the third year in a row.
    We are proud of our accomplishments, but also realize that 
completing our daunting task will require accelerated cleanup and 
greater efficiency if we are to succeed at the level of funding 
requested in the year fiscal year 2000.
 the fiscal year 2000 request reflects the evolution of the em program
    We have been giving priority to high risk problems such as 
stabilizing and ensuring the security of plutonium, stabilizing tanks 
containing high-level radioactive waste, and ensuring the safe storage 
of spent nuclear fuel, including foreign research reactor fuel in 
support of non-proliferation goals. We are working to accelerate 
cleanup and reduce ``mortgages,'' and have aligned our budgeting and 
management systems to support this goal. We are integrating waste and 
materials management across the DOE complex to support closure of sites 
like Rocky Flats and to improve the efficiency of our operations. We 
also know that successful cleanup requires investing in developing and 
deploying more effective technologies; without successful investments 
in innovative technologies, the cost and technical challenges would 
make long-term success impossible. Finally, we have found that 
performing good technical work is not enough. Getting the job done 
requires cooperation with regulators and other stakeholders. We have 
supported effective public participation through continued 
relationships with states and site-specific and national advisory 
boards, as well as funding for Indian tribes potentially affected by 
our activities.
    The fiscal year 2000 request of $5.7 billion, $100 million more 
than the level appropriated in fiscal year 1999, reflects our effort to 
maintain a stable program that provides sufficient resources to meet 
our multiple demands of risk reduction, compliance and mortgage 
reduction.
                         a. management reforms
    In last year's presentation to you, we described a number of 
changes in the way EM manages its work to better reflect our focus on 
completion and closure and to provide better accountability to program 
managers, Congress, and our stakeholders. The reforms begun in fiscal 
year 1998 and fiscal year 1999 have now been institutionalized and are 
more fully integrated across the different components of the program.
1. Taking a Project-Based Approach to Cleanup
    The EM program has made great strides over the last several years 
in organizing the work that must be accomplished to complete the 
cleanup of the weapons complex into ``projects.'' These projects have 
end-state goals and contain schedules and life cycle costs for 
achieving those goals. This ``projectizing'' of the work has resulted 
in increased site ownership and accountability and improved cost-
effectiveness in planning and conducting our work. We recognize, 
however, that improvements are needed, for example, in the way the 
projects are structured and in the underlying baseline data defining 
schedules and life-cycle cost to complete each project. We are actively 
working to improve the quality of data by implementing a more formal 
system to control and document changes to the project baselines, and 
are also pursuing various strategies to validate the baselines. To 
determine if these efforts have been effective, the Secretary has 
requested that the Office of the Inspector General review some 
representative projects in July, and report back on additional 
improvements that may be needed. Through such efforts, we expect to see 
data quality improve with each subsequent update.
    With more than 350 projects of the scope and complexity of those 
facing EM, it is critical that we clearly define what we are trying to 
accomplish, how and when we are going to accomplish it, and at what 
cost; and that we are applying sound project management practices. To 
improve our project management performance, EM is developing the 
capability to conduct in-house independent reviews of projects to 
examine their cost, schedule, and technical baseline, as well as other 
parameters of good project management. Our reviews use experts within 
DOE and in external organizations with nationally-recognized expertise 
in project management. EM has conducted independent reviews of three 
privatization projects--the Hanford Tank Waste Remediation System, the 
Oak Ridge Transuranic Waste Treatment project, and the Carlsbad 
Transuranic Waste Transportation Project--and a review of alternatives 
to the In-Tank Precipitation process at the Savannah River Site. In 
addition, the Office of Field Management has conducted a number of 
baseline reviews, as directed by report language accompanying the 
Energy and Water Development Appropriations Act of fiscal year 1998. We 
are using the recommendations from these reviews to improve the 
management of our projects.
2. Restructuring the Budget
    In fiscal year 1999, we established a new budget structure to align 
with our goals of accelerated cleanup and to support project-based 
management of our work, allowing us to more closely track costs and 
performance at a project level. The fiscal year 2000 budget request 
continues that structure, but is now built from the ground up, one 
project at a time, with costs, schedules and expectations for 
performance identified for each project. Congress supported this change 
to ``projectizing'' our work in last year's budget request and directed 
EM to prepare its fiscal year 2000 budget request based on individual 
projects, an approach we fully support.
    The budget and management structure is based on our vision of 
completing cleanup at as many sites as possible by the year 2006. These 
accounts--in both the defense and non-defense portions of the budget--
are:
  --Site Closure Account.--Includes funding for sites for which the EM 
        program has established a goal of completing its cleanup 
        mission by the end of fiscal year 2006. After EM's cleanup 
        mission is complete at these sites, no further Departmental 
        mission is envisioned, except for limited long-term 
        surveillance and maintenance, and the sites will be available 
        for some alternative use;
  --Site/Project Completion Account.--Funds cleanup projects 
        anticipated to be completed by fiscal year 2006 that are 
        located at sites or facilities where a DOE mission (e.g., 
        weapons research/production or scientific research) will 
        continue beyond 2006;
  --Post 2006 Completion Account.--Funds projects and site cleanup that 
        are too technically complicated and expensive to be completed 
        by 2006 and includes treatment of high-level wastes and cleanup 
        of large intensely contaminated ``canyon'' buildings.
3. Measuring--and Managing--Performance
    In accordance with the Government Performance and Results Act, EM 
has moved aggressively to develop and implement a performance-based 
budget that measures tangible, on-the-ground accomplishments to 
demonstrate results for the resources provided. EM has established 
Corporate Performance Measures that demonstrate environmental cleanup 
progress and provide a balanced approach to assessing effectiveness and 
efficiency. The fiscal year 2000 budget request provides quantitative 
performance goals at the project level for these Corporate Measures. By 
combining this project data at the Operations/Field Office level, we 
have established Management Commitments that are being used to review 
and evaluate quantitatively performance in the field.
    We began developing the current performance measurement system in 
fiscal year 1994 when EM became a pilot program under the Government 
Performance and Results Act. We have continually refined the system and 
have made significant progress in incorporating the requirements and 
spirit of the Act into our management system. The measures we have 
established--quantities of waste disposed, release sites completed, 
nuclear materials stabilized, facilities deactivated and 
decommissioned--represent tangible progress, not just paper progress, 
that link to our cleanup goals. The performance measurement system is 
increasingly integrated from top to bottom--from the EM Program level 
across the complex to the project level in the field. The accuracy and 
consistency of the data have improved from year to year and, as 
reliability improves, the determination of the field and the Program to 
meet their performance commitments increases as well. We are now 
working to improve our life-cycle quantity estimates so that they can 
be used to set near-term performance goals.
                 b. progress toward completing cleanup
    By focusing on completing cleanup at most of our sites by 2006, we 
expect to substantially reduce life-cycle costs. We have made 
substantial progress towards this vision. We are completing site 
cleanups: in fiscal year 1998, EM completed surface cleanups at all 
uranium mill tailings sites with the completion of the last two of the 
22 originally designated sites. EM is scheduled to complete its work at 
another three sites in fiscal year 1999, specifically Sandia National 
Laboratory in California, Ames Laboratory in Iowa, and Princeton Plasma 
Physics Laboratory in New Jersey; and this fiscal year 2000 budget 
request provides funds for completion of another three sites--Argonne 
National Laboratory-West in Idaho, the General Atomics site in 
California, and the Battelle Columbus-King Avenue site, in Ohio.
    We are making progress toward reaching our closure goals at Rocky 
Flats and other closure sites. Rocky Flats has defined the critical 
path for closing in fiscal year 2010 and is now revising this 
``baseline'' to reflect a closure goal of 2006. This fiscal year 2010 
baseline identifies a number of opportunities to accelerate closure and 
achieve the fiscal year 2006 goal, such as accelerating off-site 
shipments of plutonium residues and metals and oxides by two years and 
decommissioning facilities more efficiently. The accelerated closure 
goal is obviously aggressive, and we have a lot of challenges ahead--
including beginning operations at WIPP to allow for the disposal of 
Rocky Flats transuranic waste. However, we are committed to making our 
best efforts, and the fiscal year 2000 budget request supports the 
current baseline and activities already identified as necessary to meet 
the fiscal year 2006 goal. For example, the fiscal year 2000 request 
provides for shipments of plutonium-bearing materials to Savannah River 
Site for temporary storage. It also includes decommissioning of the 
Building 779 cluster, a former plutonium production facility, by June 
2000, constituting not only an acceleration of the schedule for this 
specific project, but also providing an opportunity to examine 
technologies to accelerate the overall schedule for decommissioning, 
useful for other projects at Rocky Flats and throughout the DOE 
complex.
    We continue on track at the Mound and Fernald sites in Ohio, with a 
goal of turning over as many of the facilities at the sites as possible 
to the communities for private use. In fiscal year 1998, for example, 
the Department executed a sales agreement with the Miamisburg Mound 
Community Improvement Corporation for transfer of facilities and 
structures at the Mound Site, documenting our commitment to completing 
work at the site. We are seeing progress at our sites funded from the 
Non-Defense account as well: in fiscal year 1998, we completed the 
primary vitrification campaign of the high-level waste at the West 
Valley Demonstration Project ahead of schedule, and have begun the 
vitrification of high-level waste tank heels which will continue 
through fiscal year 2001.
    We are also making progress at our larger sites, where cleanup will 
continue beyond 2006, in completing projects and reducing the mortgage 
and the ``footprint'' of the cleanup task. For example, we completed 
deactivation of N-Reactor in fiscal year 1998, the last of nine 
production reactors at the Hanford Site in Washington. This involved 
the deactivation of 86 facilities and the removal of 33 grouted 
``monoliths'' containing most of N-Reactor's high-dose materials. 
Completing the deactivation at N-Reactor reduced overhead costs of 
safely maintaining the facility from about $20 million to $500,000 a 
year. In addition, C-Reactor was placed in safe storage, with the 
result that inspection requirements can be reduced from every one to 
every five years, and with an annual surveillance and maintenance 
savings of $190,000.
    After completing active cleanup, the Federal Government will be 
obligated to maintain some controls at many sites to monitor, maintain, 
and provide information on the stabilized and contained residual 
contamination. These activities are necessary to ensure the continuing 
integrity of the cleanup and the protection of public health and 
safety. Such long-term stewardship will include passive or active 
controls and, often, treatment of groundwater over a long period of 
time. The extent of long-term stewardship required at a particular site 
will depend on the remedy and resulting end-state developed in 
consultation among DOE and other representatives of the Administration, 
Congress, Tribal Nations, representatives of regulatory agencies 
including state and local authorities, representatives of non-
governmental organizations, and interested members of the public. The 
Department is committed to meeting its obligations to provide long-term 
stewardship of these sites.
    Funding for long-term stewardship is managed through various 
organizations, including (1) the Grand Junction Office, which funds 
long-term surveillance and maintenance at closed uranium mill tailings 
sites and several former nuclear weapons sites, such as the Pinellas 
Site, as well as closed experimental reactors; (2) the Nevada 
Operations Office, which funds long-term surveillance and maintenance 
for former nuclear explosion sites, located in Alaska, Colorado, 
Mississippi, New Mexico and Nevada; and (3) individual DOE Operations 
Offices, where cleanup of some areas has been completed but other 
activities continue. We are currently preparing a study on long-term 
stewardship, pursuant to the settlement of a lawsuit on the 
Programmatic Environmental Impact Statement (NRDC v. Richardson). We 
expect to complete the study by December 2000.
                       c. science and technology
    The EM Program has made significant changes in the way our science 
and technology program conducts its business of providing new or 
improved cleanup solutions. No longer solely a developer of cleanup 
technologies, this program has extended its role to provide the full 
range of science and technology resources and capabilities that are 
needed to deliver and support fully developed, deployable solutions to 
DOE's cleanup and long-term environmental stewardship problems--from 
basic research through development, demonstration, deployment and 
technical assistance. We are also enhancing the membership of our Focus 
Areas--the teams that address DOE's five major environmental problems--
to include a lead national laboratory for each team to complement 
talent already on the teams. It is our intent that these teams of the 
Nation's best available environmental scientists will serve as 
``centers of expertise'' to provide the broadened services assumed by 
this program.
    More than 500 site-identified environmental problems need new 
technological solutions if we are to meet EM cleanup goals. Over 80 
percent of these problems are categorized as high and medium priority. 
To provide sound advanced planning and a well executed strategy to 
ensure we are making the best possible science and technology 
investments to meet these needs, we have recently developed three 
complementary products: an EM R&D Program Plan that ``maps'' 
investments in solutions to our cleanup needs, a Strategic Plan for the 
Office of Science and Technology (OST) to administer these investment 
plans, and an OST Management Plan that delineates improved business 
processes. These new plans provide a fully integrated approach that 
ensures our science and technology activities are planned and managed 
in an interactive, coordinated and participatory relationship with EM 
cleanup project managers and stakeholders.
    The request of $230.5 million in fiscal year 2000 support science 
and technology activities that:
  --meet the highest priority cleanup project needs
  --reduce the cost of EM's costliest cleanup projects
  --reduce technology risk
  --accelerate and increase technology deployment by bridging the gap 
        between development and use
    EM's past investments in science and technology are already making 
important cleanup contributions. Let me offer some examples:
    During fiscal year 1998, innovative technologies made an 
increasingly important contribution in cleanup actions at the sites. 
For instance:
  --The Savannah River Site used an improved in-tank grouting process 
        to seal the second of 24 high-level waste tanks that must be 
        emptied and sealed with grout to trap the residual waste and 
        strengthen tank integrity.
  --The Borehole Miner, which was adapted from the mining industry and 
        uses a water jet to mobilize waste for pumping, was used at Oak 
        Ridge to remove sludge and saltcake from underground storage, 
        successfully transferring 95 percent of the waste from five 
        hydrofracture tanks. This technology provides access to 
        previously inaccessible areas.
    We now have several technologies to treat mixed waste, including 
polymer macroencapsulation. Waste from over 20 sites has been treated 
using this process, where solid waste is encased in a non-leaching 
plastic monolith suitable for disposal.
    We are now able to safely perform tasks in extremely hazardous 
environments using remotely operated robotic equipment, such as the 
``Houdini vehicle.'' The Houdini can be inserted through 24-inch 
openings into radioactive tanks and then opened into a four-by-five 
foot mini-bulldozer, complete with a plow blade, manipulator and remote 
cameras to perform various tasks. The Houdini provides access to the 
interior of the tank, which was previously inaccessible.
    During fiscal year 1998, 40 technologies that meet needs identified 
by site personnel were demonstrated. All of these technologies reduce 
risk and/or costs associated with cleanup or provide technical 
solutions that did not previously exist. Another 42 alternative 
technologies were made available for implementation in cleanup projects 
during fiscal year 1998. Valuable cost and engineering performance data 
are available for all of our technologies as they are made available 
for implementation. Many other new technologies are currently in late 
stages of development and will be ready for use in time to contribute 
to our accelerated cleanup goals.
    We are also seeing significant success in moving beneficial 
technologies out into the field through the Technology Deployment 
Initiative (now known as Accelerated Site Technology Deployment), begun 
in fiscal year 1998. In fiscal year 1998, we initiated 14 
competitively-selected projects, resulting in 13 deployments by the 
year's end, and another 42 projects were selected for possible funding 
in fiscal year 1999. In our fiscal year 2000 budget request, deployment 
assistance activities are an integral part of the work performed by the 
Focus Areas, rather than a separately budgeted activity.
    Our Environmental Management Science Program (EMSP), which is 
managed in partnership with DOE's Office of Science and operates in 
tandem with the Focus Areas, is EM's assurance that basic scientific 
knowledge is advanced to support the development of cutting-edge 
environmental technologies. This program is proving to be a 
programmatic and management success for DOE's cleanup effort. The 
National Academy of Sciences has given EMSP high marks, and it was 
recognized with the Vice President's ``Hammer Award'' in 1998 for the 
innovative management approaches it is using. Research sponsored by 
EMSP is providing some significant technical results. For example, 
researchers at the University of Washington are genetically engineering 
a natural soil bacterium with high resistance to radiation into a 
natural detoxifier for complex mixed wastes. The efforts may yield an 
inexpensive, effective bioremediation of contaminated sites.
    In fiscal year 1998, we awarded 33 3-year EMSP grants in two areas 
to respond to EM technology needs: decontamination and decommissioning, 
and high-level radioactive waste. During fiscal year 1999, we have 
issued Request for Proposals solicitations for vadose zone, subsurface 
contamination research, and research on the biological effects of 
exposure to low doses of ionizing radiation.
             d. complex-wide integration to support cleanup
    Critical to our success in closing sites and accelerating our work 
is integrating the way the Department manages its waste and materials 
by making the best use of the unique capabilities at DOE sites to 
address cleanup problems. This means taking a corporate view of EM's 
work and sharing information and resources across sites. Our 
integration initiative is seeking to consolidate treatment, storage and 
disposal facilities where it makes good sense; apply innovative 
technologies at multiple sites; eliminate redundant facilities and use 
available capacity rather than construct new facilities; and apply 
lessons-learned and site successes complex-wide.
    We have made significant progress in the past year in building the 
information base and the institutional structure to support and 
encourage integration. For example, we now have complex-wide data on 
waste and material inventories, both current and projected, and on 
their disposition pathways. Cross-site teams are identifying and 
evaluating integration opportunities, such as the consolidation of 
small quantities of transuranic waste currently being stored at small 
sites such as Battelle Columbus in Ohio and Energy Technology 
Engineering Center in California. These efforts will provide the 
technical basis and focal point for working with local communities and 
regulators, as well as within the Department, on integration proposals.
    We have several key initiatives to facilitate closure by moving 
materials to other sites for interim storage, with requested funds 
supporting the necessary activities in both the receiving and the 
sending sites. For example, the Department has been consolidating 
storage of certain special nuclear materials, such as plutonium. 
Plutonium weapons components from the Rocky Flats Site for example, 
have been shipped to the Los Alamos National Laboratory in New Mexico 
or to the Pantex Plant in Texas, an action that is now complete. This 
consolidation has allowed the Department to greatly reduce the cost of 
maintaining security for the remaining plutonium materials at the Rocky 
Flats Site.
    Second, the Department has proposed shipping certain plutonium 
metals and oxides (non-pit plutonium) from the Rocky Flats Site to the 
Savannah River Site in South Carolina. The Savannah River Site is in 
the process of modifying the K Area facilities to store this excess 
plutonium, consistent with a recently issued decision made in 
accordance with the National Environmental Policy Act.
    Third, the Department is seeking to share facilities with 
comparable capabilities to avoid duplication in treating and disposing 
of similar wastes. We have been conducting extensive technical analyses 
and working with state representatives and with other stakeholders to 
address both technical and non-technical issues. In fiscal year 1999 we 
expect to make decisions based on the Waste Management Programmatic 
Environmental Impact Statement that will further clarify the number of 
low-level and mixed low-level waste treatment and disposal facilities 
that will be needed for DOE's wastes. These decisions are likely to 
result in some consolidation of waste disposal as well as development 
of capabilities that do not currently exist, capabilities that are 
needed to support closure of sites.
    Finally, the Waste Isolation Pilot Plant (WIPP) in New Mexico 
provides one of the most compelling examples of shipping nuclear waste 
to greatly reduce costs and risks. Currently a large amount of 
transuranic waste is being stored at about two dozen sites around the 
United States. In many cases, this waste has been stored for decades 
with no place to go for disposal. Beginning disposal operations at WIPP 
will allow the Department to reduce the number of sites where this type 
of waste is stored and is critical to the closure of sites such as 
Rocky Flats, where the site cannot be cleaned up and closed unless the 
transuranic waste is disposed of. We have made significant steps toward 
beginning disposal operations, but still need to resolve outstanding 
litigation and permitting issues so that disposal operations can begin. 
Our ability to meet waste management commitments in other states--most 
notably in Idaho and Colorado--is dependent on beginning operations.
                               conclusion
    The EM program has a vision for completing cleanup at most sites by 
2006. Focusing on this goal will not only accelerate risk reduction, 
but will result in substantial cost reductions that can be applied to 
cleanup at other sites. Realizing this vision will require a sustained 
national commitment. We understand that this is attainable only with an 
enormous amount of work and with the Department working cooperatively 
with Congress.

                               Appendix A

                 summary of the fiscal year 2000 budget
    The total fiscal year 2000 budget request for the Department of 
Energy's Environmental Management Program is $5.7 billion in 
traditional budget authority and $228 million of privatization funding. 
The fiscal year 2000 appropriation will fund cleanup at sites in 
twenty-two states across the Nation. Five sites receive two-thirds of 
Environmental Management funding--Savannah River Site in South 
Carolina, Hanford Site in Washington, Rocky Flats in Colorado, Idaho 
National Engineering and Environment Laboratory in Idaho, and Oak Ridge 
Reservation in Tennessee. This section describes progress and 
highlights from the fiscal year 2000 budget request for the major 
Environmental Management sites and other selected sites.
    Tables 1 and 2 summarize our fiscal year 2000 request, organized by 
the five primary appropriation accounts and by Operations/Field Office 
and Site, respectively.
    Our fiscal year 2000 budget proposal provides details on each 
project, including performance measures, which we use to hold managers 
accountable, and expect to be held accountable by Congress. We would 
like to summarize the budget request and some major activities for 
several sites:
    1. Savannah River Site, South Carolina;
    2. Hanford, Washington;
    3. Rocky Flats Environmental Technology Site, Colorado;
    4. Idaho National Engineering and Environmental Laboratory, Idaho;
    5. Oak Ridge Reservation, Tennessee;
    6. Fernald Environmental Management Project, Ohio;
    7. Waste Isolation Pilot Project, New Mexico;
    8. Los Alamos, New Mexico;
    9. West Valley Demonstration Project, New York;
    10. Wiamisburg Environmental Management Project (Mound Site);
    11. Weldon Spring Site Remedial Action Project, Missouri;
    12. Nevada Test Site, Nevada;
    13. Brookhaven National Laboratory, New York;
    14. California Sites.

                     TABLE 1.--ENVIRONMENTAL MANAGEMENT FISCAL YEAR 2000 BUDGET REQUEST \1\
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                        Defense
           Program Account             Facilities   Defense EM     Def. EM      Non-Def     UE D&D      Total
                                        Closure                 Privatization      EM        Fund
----------------------------------------------------------------------------------------------------------------
Site Closure........................   $1,054,492  ...........  .............   $211,146  .........   $1,265,638
Site/Project Completion.............  ...........     $980,919  .............    100,866  .........    1,081,785
Post 2006 Completion................  ...........    2,513,548  .............     18,922  .........    2,532,470
UE D&D Fund.........................  ...........  ...........  .............  .........   $240,198      240,198
Program Direction...................  ...........      349,409  .............  .........  .........      349,409
Science & Technology................  ...........      230,500  .............  .........  .........      230,500
                                     ---------------------------------------------------------------------------
      Subtotal, Traditional Budget      1,054,492    4,074,376  .............    330,934    240,198    5,700,000
       Authority....................
Privatization.......................  ...........  ...........     $228,000    .........  .........      228,000
                                     ---------------------------------------------------------------------------
      Total EM request..............    1,054,492    4,074,376      228,000      330,934    240,198    5,928,000
----------------------------------------------------------------------------------------------------------------
\1\ Does not include $420,000 payment to the Uranium Enrichment Decontamination and Decommissioning Fund,
  requested in the Defense appropriation, Post-2006 Completion account.


               TABLE 2.--ENVIRONMENTAL MANAGEMENT FISCAL YEAR 2000 BUDGET REQUEST--FUNDING BY SITE
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                     Fiscal year
                                                                    --------------------------------------------
                                                                          1998           1999           2000
                                                                     appropriation  appropriation  congressional
                                                                         total          total      request total
----------------------------------------------------------------------------------------------------------------
Albuquerque operations office:
    Albuquerque Operations Office..................................       18,120          8,080           5,550
    Grand Junction.................................................       14,015          7,163           8,500
    Kansas City Plant..............................................        3,513          1,756           1,100
    Los Alamos Nat. Lab............................................      131,315         81,574         110,834
    Lovelace-BERI..................................................          789            478             481
    Maxey Flats....................................................        8,000          1,200           1,200
    Monticello.....................................................       25,558         34,250          22,000
    Pantex Plant...................................................       23,243         11,299          15,000
    Pinellas.......................................................        2,318          2,797           5,500
    Sandia National Laboratory.....................................       48,368         27,260          19,435
    UMTRA Ground Water Sites.......................................        5,559          5,902          13,000
    UMTRA Surface Sites............................................       35,936         20,782    .............
                                                                    --------------------------------------------
      Subtotal.....................................................      316,734        202,541         202,600
Carlsbad area office: Waste Isolation Pilot Plant..................      173,700        185,404         186,404
Chicago operations office:
    Ames Laboratory................................................          363            306             260
    Argonne Nat. Lab.--East........................................       15,921         18,170          19,761
    Argonne Nat. Lab.--West........................................        3,630          1,142             809
    Brookhaven National Lab........................................       26,137         30,001          29,553
    Chicago Operations.............................................          435          1,101             644
    Princeton Plasma Physics Lab...................................        3,290          3,343           3,073
                                                                    --------------------------------------------
      Subtotal.....................................................       49,776         54,063          54,100
Idaho operations office: INEEL.....................................      415,556        435,642         409,422
Nevada operations office:
    Amchitka.......................................................          848            765             592
    Central NTS/Project Shoal......................................        1,858          4,160           4,969
    Gasbuggy/Gnome Coach...........................................          235             66             278
    Nevada Test Site...............................................       64,985         73,045          76,673
    Rio Blanco/Rulison.............................................          160             75           2,669
    Salmon Site....................................................          832          1,970             126
                                                                    --------------------------------------------
      Subtotal.....................................................       68,918         80,081          85,307
Ohio field office:
    Ashtabula......................................................       14,637         15,405          15,405
    Columbus.......................................................       12,567         12,125          16,134
    Fernald........................................................      258,700        274,002         280,589
    Miamisburg.....................................................       86,622         88,949          93,353
    Ohio Field Office..............................................  .............           94              94
    West Valley....................................................      113,746        107,353         107,353
                                                                    --------------------------------------------
      Subtotal.....................................................      486,272        497,928         512,928
Oakland operations office:
    Energy Technology Engineering Center...........................       17,625         16,494          17,398
    General Atomics................................................        4,280          2,030           1,100
    General Electric...............................................  .............          313             500
    Lab. for Energy-Related Health.................................        6,802          4,389           3,863
    Lawrence Berkeley Nat. Lab.....................................        9,265         10,668          11,098
    Lawrence Livermore Lab.........................................       54,210         49,214          49,891
    Oakland Operations Office......................................        2,279          2,700           1,100
    Separations Process Res. Unit..................................  .............  .............           500
    Stanford Linear Accelerator Center.............................        1,006          1,000           1,400
                                                                    --------------------------------------------
      Subtotal.....................................................       95,467         86,808          86,850
Oak Ridge operations office:
    Oak Ridge National Lab.........................................       49,439         59,677          57,805
    Oak Ridge Offsites.............................................       53,131         22,516          23,839
    Oak Ridge Operations Office....................................        5,027          8,809          10,930
    Oak Ridge Reservation..........................................      290,340        275,957         310,987
    Paducah Gaseous Diffusion Plant................................       39,582         35,983          37,500
    Portsmouth Gaseous Diffusion Plant.............................       43,053         35,119          37,500
    Weldon Spring \1\..............................................       66,686         63,500          52,000
                                                                    --------------------------------------------
      Subtotal.....................................................      547,258        501,561         530,561
Rocky Flats field office:
    Rocky Flats Environmental Tech Site............................      611,303        638,397         637,132
    Rocky Flats Field Office.......................................       20,797         18,803          20,078
                                                                    --------------------------------------------
      Subtotal.....................................................      632,100        657,200         657,210
Richland operations office:
    Hanford........................................................      906,861        953,001       1,028,280
    Richland Operations Office.....................................       44,536         45,491          36,831
                                                                    --------------------------------------------
      Subtotal.....................................................      951,397        998,492       1,065,111
Savannah River operations office:
    Savannah River Ops Office......................................       28,117         33,157          30,280
    Savannah River Site............................................    1,099,806      1,181,789       1,192,220
                                                                    --------------------------------------------
      Subtotal.....................................................    1,127,923      1,214,946       1,222,500
Other:
    Multi-Site Programs............................................      113,053         85,542          77,098
    Program Direction..............................................      345,000        337,073         349,409
    Science & Technology...........................................      269,213        243,156         230,500
    Ur/Th Reimbursement............................................       40,000         30,000          30,000
                                                                    --------------------------------------------
      Subtotal.....................................................      767,266        695,771         687,007
      EM Subtotal:                                                     5,632,367      5,610,437       5,700,000
          FFTF (trans to NE in fiscal year 1999)...................       41,727    .............  .............
          Y2K Supplemental Appropriation...........................  .............       13,840    .............
          Use of Uncosted Balances.................................      (11,253)       (20,658)   .............
      Total, traditional budget authority..........................    5,662,841      5,603,619       5,700,000
          Privatization............................................      200,000        228,357         228,000
                                                                    --------------------------------------------
      EM total.....................................................    5,862,841      5,831,976      5,928,000
----------------------------------------------------------------------------------------------------------------
\1\ It is the intent of the Environmental Management Program to fund the Weldon Spring Site Remedial Action
  Project at a program level of $63.5 million. The Program will work to identify sources for this important
  activity.

Savannah River Site, South Carolina Fiscal Year 2000 Request

                             [In thousands]

Defense, Site/Project Completion..............................  $397,636
Defense, Post-2006............................................   824,864
                    --------------------------------------------------------------
                    ____________________________________________________

      Total................................................... 1,222,500

    The Savannah River Site continues its work to stabilize legacy 
nuclear materials and spent fuel from both the Savannah River Site and 
other sites across the complex, including plutonium residues and other 
plutonium-bearing materials from the Rocky Flats Site in Colorado. This 
work is critical both in resolving health and safety concerns about 
these radioactive materials, now in liquid or unstable forms unsuitable 
for long-term storage, and in supporting closure goals at Rocky Flats. 
In July 1997, the Secretary approved the operation of both the F-Canyon 
and H-Canyon, for the stabilization of ``at-risk'' nuclear materials. 
By the end of fiscal year 1998, these canyons had stabilized 3,500 
gallon of Pu-242 solutions, 80,000 gallons of Pu-239 solutions, 16,000 
corroding targets, and 144 canisters of failed or declad spent nuclear 
fuel. We expect to complete activities in the F-Canyon by fiscal year 
2002 and in the H-Canyon in fiscal year 2005.
    We are not requesting funding for the Actinide Packaging and 
Storage Facility (APSF) in fiscal year 2000. In light of the recent 
decision by the Department identifying Savannah River Site as the 
preferred location for new missions related to excess plutonium 
disposition, we have decided to temporarily suspend work on this 
facility until we can reevaluate the facility's overall requirements to 
ensure, for example, that the facility is properly sized and integrated 
with other facilities, given these new missions. We are, however, 
continuing modification of facilities in the K-Area and, pending 
completion of the appropriate NEPA analysis, will be ready to receive 
surplus plutonium-bearing materials from Rocky Flats in January 2000, 
supporting the accelerated closure of that site.
    Much of the EM work at the Savannah River Site that will be 
completed after fiscal year 2006 involves management of approximately 
34 million gallons of high-level waste in tanks, including vitrifying 
waste for final disposal and removing waste from storage tanks so the 
tanks can be closed. While this is a long-term project, we have made 
significant progress. In fiscal year 1998, the Savannah River Site 
workers closed another storage tank in the tank farm, removing waste 
and backfilling with grout, and produced 250 canisters of vitrified 
waste in the Defense Waste Processing Facility (DWPF), 50 canisters 
above their fiscal year 1998 target goal. As of first of March, we had 
a total of 588 canisters of vitrified waste in storage, or 11 percent 
of the total amount that needs to be produced.
    Our goal for production of canisters in fiscal year 2000, however, 
is lower. The budget request supports production of only 100 canisters 
at DWPF, primarily because of the need to devote resources to 
developing an alternative to the In-Tank Precipitation (ITP) facility 
that was to pre-treat certain wastes. ITP operations were terminated in 
January 1998 because we were unable to successfully pre-treat the waste 
and limit the levels of benzene generation in the tanks to a safe and 
manageable levels. We undertook a systems engineering analysis to 
evaluate all possible alternatives, which was reviewed by a panel of 
independent experts. Based on the review, we are pursuing three 
options, with a final selection of a technical approach expected in 
late fiscal year 2000.
    The fiscal year 2000 budget request continues support for receipt 
and storage at the Savannah River Site of spent nuclear fuel from 
domestic and foreign research reactors in support of national and 
international non-proliferation goals. In fiscal year 2000, we expected 
to receive 67 casks of spent nuclear fuel from foreign and domestic 
sources and safely store them at the Savannah River Site's basins. We 
will also continue to treat and reduce our legacy of mixed and low-
level waste at the site through continued operation of the Consolidated 
Incinerator Facility.
    We will also continue the cleanup of contaminated release sites and 
contaminated ground water plumes at the Savannah River Site. In fiscal 
year 2000, we will complete remediation of six release sites and 
operate eight ground water remediation systems.
    Finally, scientists and engineers at the Savannah River Site have 
been collaborating to develop a cost-effective path forward for some of 
the spent fuel through research and development of new technologies. 
This work is helping to address one of our most daunting problems: how 
to manage spent nuclear fuel and other nuclear materials without 
chemical separations. Our investments in the Alternative Technology 
Program has shown progress. An Environmental Impact Statement 
identifying the ``melt-and-dilute'' process as the preferred 
alternative to prepare aluminum-based spent nuclear fuel for geologic 
disposal was issued in December 1998, and a final decision is expected 
in April 1999. The fiscal year 2000 budget contains funds for the 
design of a new facility to implement this treatment process. As other 
countries begin to address similar problems, these new U.S.-born 
technologies will be available to help.

Hanford Site, Washington Fiscal Year 2000 Request

                             [In thousands]

Defense, Site/Project Completion..............................  $376,296
Defense, Post-2006............................................   687,397
Non-defense, Site/Project Completion..........................     1,418
Defense, Privatization........................................   106,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total................................................... 1,171,111

    The Hanford Site in Washington remains perhaps our greatest cleanup 
challenge. Originally carved out of 560-square mile site in a broad 
curve in the Columbia River during World War II, the Hanford site is 
home to the largest variety of environmental hazards in the former 
nuclear weapons complex, including large amounts of spent nuclear fuel, 
unstable weapons-grade plutonium, 177 underground high level 
radioactive waste tanks, and more than a hundred square miles of 
contaminated ground water. It is important not to lose site of the 
successes and accomplishments that have occurred despite the serious 
remaining challenges. We believe that our fiscal year 2000 budget 
request for Hanford addresses the requirements for continued cleanup 
progress. The Hanford budget is requested largely (65 percent) through 
the Post-2006 Completion Account and the Project/Site Completion 
Account (35 percent).
    One of the extraordinary success stories at Hanford during the past 
year was the success deactivation of the N-reactor complex, resulting 
in an annual mortgage cost reduction from $20 million to $500,000. This 
required:
  --deactivation of 86 facilities in the N-reactor area;
  --removal and treatment of more than a million gallons of 
        contaminated water;
  --removal of nearly 5,000 cubic feet of contaminated sediment; and
  --retrieval and repackaging of 350 pounds of fuel fragments.
    The reactor complex is now in a low-cost ``surveillance and 
maintenance'' mode, pending final disposition, perhaps decades from 
now.
    In fiscal year 1998, we also completed the deactivation of the B 
Plant, one of Hanford's original World War II plutonium processing 
facilities, 4 years ahead of schedule and $100 million under budget. 
The deactivation reduced surveillance and maintenance costs at the 
Plant from $20 million to less than $1 million a year. Deactivation 
involved the disposal of 45,000 gallons of bulk hazardous chemicals, 
the transfer of 23,000 gallon of neutralized acid waste to the tank 
farms, and the removal and disposal of 10,000 ft<SUP>3</SUP> of 
radioactive waste and equipment. The B plant deactivation also required 
the successful decoupling of the adjoining Waste Encapsulation and 
Storage Facility (WESF), which shared operating systems with B Plant. 
WESF stores highly radioactive cesium and strontium capsules and must 
continue to operate until the capsules can be dispositioned.
    The 177 underground tanks storing over 54 million gallons of highly 
radioactive waste remains one of the biggest challenges at the Hanford 
site. We have made significant progress in reducing the hazard of leaks 
from single-shelled tanks: to date, we have stabilized 64 tanks that 
have or are suspected of leaking by transferring free liquids to non-
leaking double shelled tanks. Only three ``potential leakers'' remain 
to be stabilized, which will be completed following a mutually-agreed 
upon schedule negotiated with the State in fiscal year 1999.
    The Department is pursuing a privatization approach for obtaining 
treatment for the tank waste which, in Phase I, would provide treatment 
for at least 10 percent of the waste and 20 to 25 percent of the 
radioactivity in the tanks. In August 1998, we signed a contract with 
BNFL, Inc. that allowed for an initial 24-month period to enable the 
contractor to develop more of the design for the treatment facility and 
to obtain financing and submit a fixed price bid. In fiscal year 2000, 
the Department will decide whether to authorize BNFL to proceed to 
construction and operation, based on an evaluation of whether the 
proposal represents the best value for the taxpayer.
    Following Congressional direction in the Strom Thurmond National 
Defense Authorization Act for Fiscal Year 1999, the Department has 
established the Office of River Protection which will manage all 
aspects of our efforts to store, retrieve, treat, immobilize, and 
dispose of the high level waste from the tank farms. The Department has 
prepared an Integrated Management Plan, provided to Congress in January 
1999, which includes 27 new positions out of total of 109 positions 
that will staff the Office. The 27 positions have been advertised. In 
addition, we are proceeding expeditiously with the appointment of a 
manager for the Office of River Protection.
    We are continuing to dispose of contaminated soil and debris from 
environmental restoration operations at Hanford in the Environmental 
Restoration Disposal Facility (ERDF). Since opening two year ago, the 
Department has disposed of more than a million cubic meters of waste in 
the ERDF.
    We recently restarted stabilization operations for surplus 
plutonium stored in the Plutonium Finishing Plant. This is a critical 
step in the deactivation of the Plutonium Finishing Plant, which will 
substantially reduce risk and mortgage costs at Hanford.
    The Department also completed ``cocooning'' the C-reactor, one of 
the eight original reactor along the Columbia River. By deactivating 
and stabilizing the reactors in this manner, the department will be 
able to maintain the reactor in a safe and low cost status until final 
disposition is performed in 75 years.
    Despite some setbacks, we are moving forward with the long-term 
goal of cleaning up the Hanford site and making it available for 
community reuse or conservation based on a community involvement 
process appropriate to the large scale of the operation. For example, 
we are now evaluating issues associated with transferring the Wahluke 
Slope along the Columbia River in a manner that is protective of the 
river and responsive to community needs.
    Our fiscal year 2000 budget request supports a number of 
commitments, including:
  --A total of 14 waste site remediations are scheduled for completion 
        in the 100 Area, and 2 more in the 300 Area, with 228,252 
        m<SUP>3</SUP> (302,366 tons) of soil removed, in addition to 
        the completion of backfill of 10 waste sites.
  --Complete closure of cells 1 and 2 in Environmental Restoration 
        Disposal Facility. Additionally 142,181 m<SUP>3</SUP> (314,400 
        tons) of soil will be disposed.
  --Implement Integrated Groundwater/Vadose Zone science and technology 
        roadmap to support site assessment and remediation and system 
        assessment capability development.
  --Waste Management activities include preparing about 130 
        m<SUP>3</SUP> of transuranic waste for shipment to WIPP; 
        initiating disposal of about 2,500 m<SUP>3</SUP> of mixed low-
        level waste; disposing of 3,800 m<SUP>3</SUP> of low-level 
        waste; and reducing about one million gallons of liquids in the 
        high level waste tanks through the Evaporator.
  --Complete fuel retrieval, drying, transport and storage system 
        testing to support commencement of fuel removal from the K-West 
        basin in early fiscal year 2001.
  --Continue stabilization of 160 liters of plutonium bearing 
        solutions, and about 238 containers of plutonium metals and 
        oxides. Commence stabilization of about 600 kilograms of 
        plutonium bearing residues and plutonium bearing polycube 
        materials.

Rocky Flats Environmental Technology Site, Colorado Fiscal Year 2000 
Request

                             [In thousands]

Defense Site Closure..........................................  $657,210

    Almost two-thirds (62 percent) of the Defense Closure Account 
request supports accelerated cleanup at the Rocky Flats Site, a 
facility located 16 miles northwest of Denver, Colorado. The site was 
used to shape plutonium and uranium weapons components and for other 
defense-related production work. The cleanup poses significant 
challenges because of the large amounts of plutonium and other 
compounds remaining in tanks and production lines in facilities, the 
significant volumes of hazardous and radioactive wastes stored 
throughout the site, and widespread contamination of soils, sediments, 
and groundwater.
    The Rocky Flats Site is one of the featured prototypes, and 
certainly the largest site, for our goal of accelerating site cleanup 
and closure by 2006. There are many challenges facing this project, but 
we are confident that by remaining focused on our goal we can produce 
substantial savings and provide dramatic risk reduction sooner then 
previously expected. Our current baseline is to complete cleanup and 
closure by 2010. The General Accounting Office is now assessing the 
status and obstacles to accelerated closure and is expected to report 
its results this Spring. The site contractor is still developing its 
baseline for accelerated closure. The accelerated closure baseline will 
be submitted to DOE in May 1999, and DOE is expected to complete its 
validation of the baseline in December 1999. Based on that revised and 
validated baseline, we expect to be able to describe in detail what is 
required to close the site by 2006 and provide our level of confidence 
in our ability to close by 2006. Whatever the result, we have clearly 
come a long way since the previous contractor estimated a few years ago 
that it would take $30 billion and 30 years to complete cleanup at 
Rocky Flats.
    The key ingredient for closing Rocky Flats is being able to move 
nuclear materials and waste off of the site. Making progress in this 
critical area requires not only preparing the materials and waste for 
shipment, but also making sure that the receiving sites are ready. For 
example, there are approximately 40,000 kilograms of plutonium residues 
that need to be packaged and sent to WIPP. We are currently modifying a 
facility to provide temporary storage. However, unless WIPP opens soon, 
we will need to provide further alternative storage for those residues; 
the fiscal year 2000 budget request for Rocky Flats does not include 
funds to construct such a storage facility. In sum, there are six sites 
in six states to which we need to ship waste and materials from Rocky 
Flats. In some cases we have already begun shipments, such as the 
dozens of truckloads of waste that have been already been shipped to 
Envirocare in Utah.
    The Department has clearly made enormous progress both in reducing 
risks at the site, and in greatly improving our management plans for 
cleanup and closure. Approximately 5 metric tons of plutonium residues 
were stabilized and/or repackaged in fiscal year 1998, and we expect to 
stabilize or repackage 32 metric tons in fiscal year 1999. By the end 
of fiscal year 1999, all pits and weapons-grade uranium will be shipped 
from Rocky Flats to other receiver sites, and about 99 percent of the 
residues are projected to be ready for shipment to WIPP or to Savannah 
River Site. We are making progress on demolishing buildings at Rocky 
Flats, not only reducing risks but also reducing mortgage costs 
required to maintain those excess buildings: all remaining glove boxes 
will be removed from Building 779 by the end of fiscal year 1999, and 
Building 729--part of the Building 779 cluster--will be completely 
demolished.
    The fiscal year 1999 appropriation and fiscal year 2000 budget 
request for Rocky Flats ($657 million each year) fund the activities we 
have already identified as necessary for accelerated closure. If our 
fiscal year 2000 request for Rocky Flats is fully funded, we are 
committed to producing the following results:
  --Demolishing the B-779 cluster of buildings, the first plutonium 
        operations buildings in the world decontaminated and turned to 
        rubble.
  --Ship more than 14,000 cubic meters of radioactive waste off site 
        for disposal.
  --Process more than 60 metric tons of plutonium residues preparing 
        for safe disposition.
  --Bring on-line a new plutonium packaging system and package 500 cans 
        of plutonium.
  --Ship plutonium metals and oxides to the K-Area at the Savannah 
        River Site beginning in January 2000, pending completion of 
        NEPA requirements.
    The progress at Rocky Flats is also demonstrating the success of 
the Department's performance-based, integrating contractor strategy. 
Because award fees are based on meeting specific performance and safety 
goals, the contractor has a strong incentive to make progress on 
cleanup.
    We understand the importance of continuing to seek ways to 
accelerate cleanup at Rocky Flats to reduce risk and long-term costs. 
We also understand the vital role of accelerated site closure to the 
community where commercial and residential development along the 
Denver-Boulder corridor has reached nearly to the fence line of Rocky 
Flats.

Idaho National Engineering and Environment Laboratory, Idaho Fiscal Year 
2000 Request

                             [In thousands]

Defense, Site/Project Completion..............................  $108,961
Defense, Post-2006............................................   291,253
Non-defense, Site/Project Completion..........................     9,208
Defense, Privatization........................................   115,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   524,422

    The fiscal year 2000 budget request for the Idaho National 
Engineering and Environmental Laboratory (INEEL) supports the receipt 
and safe interim storage of spent nuclear fuel, including Navy fuel and 
domestic and foreign research fuel; the storage and treatment of high 
level waste in 11 underground tanks; the cleanup of 43 ``release 
sites'', or contaminated areas, and 11 surplus facilities; and the 
management of legacy waste, including transuranic waste to be shipped 
to WIPP. Many of the critical activities at the site are subject to the 
Settlement Agreement signed with the Governor of Idaho in 1995, which 
would result in the suspension of shipments of spent nuclear fuel to 
INEEL if milestones are not met.
    One of the most complex challenges at INEEL is the remediation of 
buried wastes, such as remediation of the Radioactive Waste Management 
Complex, of which the Pit 9 site, a burial pit containing about 250,000 
cubic feet of radioactive waste, is a part. The Pit 9 project is now 
being conducted by the Management and Operating (M&O) contractor under 
an alternative approach supported by the state and EPA regulators 
following termination of the previous subcontractor. We began stage 1, 
the subsurface investigation, in October 1998, and have met all 
regulatory milestones to date. The Pit 9 cleanup was one of our first 
attempts at fixed-price contracting for a large and technically complex 
project, and both the Department and the contractor learned hard 
lessons from the experience. We are applying those lessons in other 
projects at the site and across the DOE complex.
    INEEL plays a key role in providing safe storage and management of 
spent nuclear fuel, in support of the Administration's non-
proliferation goals. INEEL received its first shipment of foreign 
research reactor fuel in fiscal year 1998 and will continue to receive 
shipments in fiscal year 1999 and 2000. INEEL is actively improving 
storage conditions at the site, transferring fuel from wet to dry 
storage, or from aging facilities to modern, state-of-the-art 
facilities. For example, we are storing spent nuclear fuel and core 
debris from the Three Mile Island incident at the INEEL Test Area North 
and will begin moving the fuel from wet storage into dry storage at the 
end of this month. The Department has issued a request-for-proposal in 
a privatization initiative to procure a new facility for dry storage of 
other fuel, which will be licensed by the Nuclear Regulatory 
Commission. The fiscal year 2000 budget request includes $5 million for 
this project in the privatization account.
    A significant portion of the INEEL budget request supports the 
management of high level waste. INEEL has about 1.4 million gallons of 
liquid sodium-bearing waste stored in 11 underground tanks, and about 
135,000 cubic feet of calcined waste in temporary storage. In the near-
term, we will continue to calcine the liquid, a process that converts 
the liquid waste into dry, granular material resembling laundry 
detergent; calcined waste is easier to store and is greatly reduced in 
volume. However, the calcining facility will be placed in standby mode 
on April 30, 1999, as required by the State, until an environmentally 
safe and economic path forward for the liquid and calcined waste can be 
identified. Development of an Environmental Impact Statement for the 
high-level waste alternatives is underway and expected to be finalized 
in fiscal year 2000.
    We continue our efforts to characterize and prepare transuranic 
waste for shipment to WIPP and to develop the Advanced Mixed Waste 
Treatment Project, a privatization project that will provide treatment 
for transuranic and alpha mixed low-level waste (waste that contains 
long-lived radionuclides at levels below those of transuranic waste). 
We are, however, in jeopardy of missing a milestone in the Settlement 
Agreement that requires that we initiate shipment of INEEL transuranic 
waste out of Idaho by April 30, 1999, because of the delay in opening 
WIPP. The Department considers compliance with the Agreement a top 
priority and is working to resolve this issue.
    INEEL now operates under the sponsorship of the EM program. As part 
of the long-range effort both to further the development of and 
capitalize on INEEL's core competencies, INEEL leads a major 
integration effort that uses a systems engineering approach to refine 
EM waste, spent nuclear fuel, and nuclear disposition baselines. The EM 
integration initiative evaluates cross-site and cross-program 
opportunities for efficiencies and cost reductions to streamline 
cleanup.
    Finally, the M&O contract for INEEL expires at the end of September 
of this year. Contract proposals are due in this month and the contract 
will be awarded in June 1999, providing for a three-month transition 
period. The current contractor, Lockheed Martin Idaho Technologies 
Company, has decided not to compete for the contract, so there will be 
a new contractor at the site in October. We will work to ensure a 
smooth transition that maintains continuity of the projects and 
schedules.

Oak Ridge Reservation, Tennessee Fiscal Year 2000 Request

                             [In thousands]

Defense, Post-2006............................................  $264,561
Non-defense, Post-2006........................................     3,802
UE D&D Fund...................................................   135,198
Defense, Privatization........................................    32,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   435,561

    The Oak Ridge Reservation is comprised of three facilities--the Y-
12 Plant, the East Tennessee Technology Park (ETTP) (formerly the K-25 
uranium enrichment facility), and the Oak Ridge National Laboratory 
(ORNL). Funding for almost all environmental management activities at 
Oak Ridge is included in the Defense, Post-2006 Completion Account, 
with funding for the cleanup of ETTP coming from both this account and 
the Uranium Enrichment Decontamination and Decommissioning Fund. In the 
fiscal year 2000, we are requesting that funding for some projects 
previously funded in the Non-Defense Account be provided in the Defense 
Account. We believe that consolidating funding under one account will 
provide more managerial integrity and may reduce indirect and overhead 
charges compared to funding these projects from multiple accounts.
    The Department continues its efforts to reindustrialize facilities 
in Oak Ridge, particularly at ETTP. The primary goal is to clean up 
ETTP as quickly and as safely as possible so that the presence of DOE 
and its contractors can essentially end, and the site can be reborn as 
an industrial park. As of November 1998, about 790,000 cubic feet of 
space has been leased to 43 private companies. In some cases, the 
Department has conducted cleanup of the building and, in other cases, 
the private company is undertaking the cleanup. Overall, we estimate 
$179 million in savings in life-cycle costs the Department would 
otherwise have to spend cleaning up or maintaining these surplus 
facilities. The Department is now in the process of developing a 
consistent DOE-wide policy for assuring that the health and safety of 
private industry workers at ETTP and other leased facilities are 
protected. In this way we will be better able to move ahead with more 
confidence in our path forward for this important program.
    The fiscal year 2000 request continues support for the 
decommissioning of the Molten Salt Reactor Experiment at ORNL. This 
experimental nuclear reactor was designed to use a fuel of highly-
reactive uranium-233 blended with a molten salt coolant. After 4\1/2\ 
years of operation, the reactor was shut down in December 1969. The EM 
program has begun to make substantial progress, with input from the 
National Academy of Sciences, in stabilizing this reactor. For example, 
the EM program has installed and continues operation of a system to 
remove reactive gases from the reactor tanks until the fuel salt can be 
removed. In fiscal year 2000, we plan to complete fabrication and 
testing of the uranium conversion equipment and complete planning and 
design of the fuel salt removal process.
    We have completed cleanup of the fourth of eight highly radioactive 
waste storage tanks, called the ``Gunite Tanks,'' at ORNL and have 
started work on the next tank, expected to be completed six months 
ahead of schedule. The tanks were built in 1943 and were used for waste 
from chemical separations (reprocessing) operations until the late 
1970's. The tanks vary in size, with some having a capacity of 170,000 
gallons (approximately the size of a 4-bedroom house). The estimated 
cost of the project is now $80 million, less than half the original 
estimate of $200 million. A key factor in the accelerated schedule has 
been the development of a variety of remote technologies, such as the 
``Houdini'' vehicle and a robotic arm that provide access to the tank 
interior, which have allowed work to proceed on two tanks 
simultaneously, rather than sequentially as initially planned.
    The Toxic Substances Control Act (TSCA) incinerator at Oak Ridge, 
permitted by the State to treat mixed radioactive and hazardous wastes 
regulated by the Resource Conservation and Recovery Act and by EPA to 
treat PCB-contaminated wastes regulated under TSCA, offers unique 
capability within the DOE system. In addition to treating wastes 
generated by Oak Ridge facilities, the TSCA incinerator has also been 
used to treat wastes from other sites in the DOE complex, providing a 
cost-effective and integrated approach to managing these wastes. 
However, in February 1998 and again in February 1999, the Governor of 
Tennessee rejected the annual burn plans for the incinerator proposed 
by the Department, shutting off use of the incinerator for wastes 
generated at DOE sites other than those managed by the Oak Ridge 
Operations Office. The Governor cited equity concerns, including the 
lack of DOE sites available for disposal of waste from Oak Ridge and 
the adequacy of funding levels for environmental management at Oak 
Ridge, as well as the overall commitment of the Federal Government to 
the Oak Ridge site. The Department has assured the State leaders of our 
firm commitment to the site and is working to resolve State concerns.

Fernald Environmental Management Project, Ohio Fiscal Year 2000 Request

                             [In thousands]

Defense Site Closure..........................................  $280,589

    The cleanup activities at Fernald Environmental Management Project 
account for more than $280 million, or 27 percent of the funding in the 
Defense Site Closure Account. The Fernald te, encompassing 
approximately 1,050 acres near Cincinnati, produced uranium for nuclear 
weapons from 1951 to the end of Cold War in 1989. Nearly forty years of 
uranium production for nuclear weapons left the Fernald Site with soil 
and groundwater contamination, a large backlog of wastes, including 
some unstable liquids, as well as stored nuclear materials such as 
depleted and enriched uranium. Several years of cleanup progress have 
included stabilization of liquid uranium solutions, off-site shipment 
of low-level waste, and deactivation, decontamination and demolition of 
several large industrial buildings at Fernald. The current baseline 
calls for cleanup to be completed by fiscal year 2008, but the 
Department is seeking enhanced efficiencies to complete work by fiscal 
year 2006. Groundwater remediation and long-term institutional controls 
will be necessary after active cleanup is completed.
    Last year we reported to you that we were beginning to dispose of 
waste in an on-site disposal cell. Site personnel realized that such a 
disposal cell would be required for some waste to keep disposal costs 
attainable, and the community realized constructing it at the Fernald 
site would be more equitable than demanding that all wastes be disposed 
of off-site in other states. I am pleased to report that we are 
successfully filling the first and second section of this disposal 
cell. We are now constructing a liner for section three. The 
availability of this on-site disposal cell is enabling us to accelerate 
disposal of contaminated soil and debris resulting from cleanup and 
building demolition.
    We also reported last year that we were expecting to begin 
excavating, treating, and shipping radioactive residue from the Waste 
Pits to an off-site disposal facility. We began excavation and loading 
of that material into railcars in February of this year and expect to 
begin shipments by rail for disposal in the April/May time frame.
    Finally, Fernald personnel have continued the process of razing 
deactivated and decontaminated industrial buildings. They completed 
demolition of 5 of the 11 major facility complexes (Plants 1, 4, 7, 9 
and the Boiler Plant), resulting in outyear reductions in mortgage and 
landlord costs.

Waste Isolation Pilot Plant, New Mexico Fiscal Year 2000 Request

                             [In thousands]

Defense, Post 2006 Completion.................................  $186,404

    The Department is requesting funding at essentially the same 
funding level as appropriated in fiscal year 1999 for the Waste 
Isolation Pilot Plant (WIPP) in New Mexico.
    Opening and operating WIPP is a key element of the Department's 
strategy to provide for the permanent disposal of a portion of the 
Department's stored long-lived radioactive waste. Currently a large 
amount of transuranic waste (more than 100,000 cubic meters) is being 
stored at more than two dozen sites around the United States. In many 
cases, this waste has been stored for decades. By shipping this waste 
to WIPP for disposal, the Department will be able to reduce the number 
of sites where this type of waste is stored, reducing the costs of 
storing this waste and the long-term risks to the public and the 
environment. Opening WIPP for disposal is critical to the closure of 
sites such as Rocky Flats, where the site cleanup plan relies on 
disposal of the transuranic waste.
    Many of the schedules and requirements in the Federal Facility 
Compliance Act orders between the States or EPA, and DOE at the 
transuranic waste sites (e.g., INEEL and Rocky Flats) are based on the 
assumption that WIPP will open and begin accepting waste in the 
immediate future. In May of 1998, EPA certified WIPP for disposal of 
radioactive waste, and the Department declared WIPP ready to begin 
operations. We hope to make our first shipments this year, if pending 
litigation is resolved favorably. The Department is developing the 
necessary transportation capacity to move transuranic waste from sites 
where it is stored to WIPP to meet compliance agreement requirements. 
The Department continues to do everything possible to open WIPP and 
meet its legal obligations. The fiscal year 2000 budget will allow WIPP 
to continue disposal operations. The Department expects to ramp up the 
receipt rate of contact-handled transuranic waste shipments to 14 
shipments per week by the end of fiscal year 2000 and to 17 shipments 
by December 31, 2000.
    The WIPP program also funds a variety of institutional programs 
that provide economic assistance and operational oversight for affected 
governments and stakeholder groups. The funding request for fiscal year 
2000 includes $20.9 million for New Mexico Impact Assistance, as 
required by the WIPP Land Withdrawal Act Amendments of 1996, and 
additional funds for cooperative agreements with New Mexico Emergency 
Response, Indian Tribes, Southern States Energy Board, and others.
    The Department is relying on privatization to obtain the capital 
equipment for transuranic waste transportation to reduce costs. The 
fiscal year 1999 budget included $19,605,000 in the Defense 
Privatization account to transport remote-handled transuranic waste 
from generator sites to WIPP. Because this contract is not expected to 
be awarded until late fiscal year 1999 or early fiscal year 2000, the 
Department is not requesting additional funding in fiscal year 2000.

Los Alamos National Laboratory, New Mexico Fiscal Year 2000 Request

                             [In thousands]

Defense, Post-2006 Completion.................................  $104,834
Non-Defense, Post-2006 Completion.............................     6,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................  110, 834

    Our goal at Los Alamos National Laboratory is to complete cleanup 
work by 2006 except for a few complex contaminated sites and 
disposition of legacy transuranic waste, and to complete all EM cleanup 
projects at Los Alamos by 2015. Through fiscal year 1998, the 
Department completed remediation of 1,395 release sites and 
decommissioning of 41 facilities, out of a total of more than 2,000 
release sites and 130 facilities. We plan to complete 9 additional 
release sites and one facility in fiscal year 1999, and 28 release 
sites and two facilities in fiscal year 2000.
    The fiscal year 2000 EM budget request for Los Alamos of $110 
million is nearly $30 million more than our fiscal year 1999 budget. 
Much of this increase (86 percent) is devoted to environmental 
restoration work, such as drilling new regional ground water wells to 
characterize the hydrogeology and work required to complete cleanup in 
anticipation transferring land to the community. Pursuant to the 
requirements of Public Laws 105-119 and 105-245, DOE has identified ten 
parcels totaling about 4600 acres for potential transfer to the County 
of Los Alamos and the Pueblos, has published a draft Environmental 
Impact Statement on the land transfers and supporting Environmental 
Restoration Report, and will submit a detailed project plan for cleanup 
of a land parcel, referred to as ``TA-21'', to Congress by late March 
1999. DOE intends to follow a phased approach in accomplishing the land 
transfers, starting with the transfer of the relatively simple, 
uncontaminated parcels in 2000 and continuing with the transfer of the 
more complex sites in the outyears.
    Another significant increase in the Los Alamos budget is 
attributable to the need to manage wastes recently-retrieved buried 
transuranic waste and to characterize, certify, and ship the waste to 
WIPP for disposal. Los Alamos was the first site to have waste 
certified by DOE for disposal at WIPP. In fact, the WIPP certification 
rule that EPA promulgated in fiscal year 1998 specifically includes EPA 
approval of the characterization program at Los Alamos for certain 
transuranic wastes.
    The fiscal year 2000 request for EM does not include funds for 
management of on-going waste generation; the Department transferred 
this waste management responsibility at Los Alamos, along with funding 
responsibility, from EM to the Office of Defense Programs in fiscal 
year 1999.
    The Department recently designated Los Alamos as the lead 
laboratory for research and development efforts to support the 
Department's response to Defense Nuclear Facilities Safety Board 
Recommendation 94-1 on nuclear materials safety. In this capacity, Los 
Alamos provides solutions to complex-wide technical and operational 
issues associated with stabilization and storage of plutonium and other 
nuclear materials.

West Valley Demonstration Plant, New York Fiscal Year 2000 Request

                             [In thousands]

Non-Defense, Site Closure Account.............................  $107,353

    Cleanup of the West Valley Demonstration Project (WVDP), located in 
upstate New York less than 40 miles from Buffalo, is being conducted at 
the site of the only nuclear fuel reprocessing facility to operate in 
the U.S. The private company processed commercial spent nuclear fuel to 
extract plutonium and uranium from 1966 to 1972, generating 2,200 cubic 
meters of liquid high-level waste.
    The principal operation at West Valley is the solidification of the 
liquid high-level waste into borosilicate glass using a process called 
vitrification. The primary vitrification campaign began in June 1996 
and was completed ahead of schedule in June 1998. Vitrification of the 
high-level waste tank heels is currently underway and will continue 
through fiscal year 2001.
    Following the vitrification of the high-level waste, the equipment 
and facilities used in carrying out the project will be decontaminated 
and decommissioned, based on the results of an Environmental Impact 
Statement (EIS) and Record of Decision (ROD) for the completion of the 
project. This phase of the cleanup project is expected to begin in late 
fiscal year 2000.
    The New York State Energy Research and Development Authority and 
DOE are working together and with stakeholders, including a Citizens' 
Task Force, to formulate a preferred alternative for closure or long-
term management of the site. Selection of a preferred alternative and 
subsequent ROD will determine the outyear scope of work for the project 
and final disposition of the waste. The EIS and ROD process is 
scheduled to be completed in May 2000. The estimated completion date 
for WVDP may extend through 2015, reflecting the uncertainty related to 
the future EIS ROD.
    Another critical element of the EM program at West Valley is the 
safe management of 125 spent nuclear fuel elements stored at the site. 
EM will continue surveillance and maintenance of the spent fuel 
facility to ensure safe storage until the spent fuel can be shipped to 
the Idaho National Engineering and Environmental Laboratory (currently 
planned for 2001).
    In fiscal year 1999, major activities include continuation of 
vitrification of the HLW tank heels (producing approximately 15 
canisters of solidified HLW), development of an EIS Preferred 
Alternative for project completion, progress towards resolution of 
responsibility issues with the State of New York, and continuation of 
preparations for shipment of spent nuclear fuel.
    In fiscal year 2000, major activities include continuation of 
vitrification of the HLW tank heels (producing approximately 5 
canisters of solidified HLW), issuance of a Final EIS and ROD for 
project completion, and continuation of preparations for shipment of 
spent nuclear fuel.

Miamisburg Environmental Management Project (Mound Site) Fiscal Year 
2000 Request

                             [In thousands]

Defense Site Closure..........................................   $92,353
Non-Defense, Site Closure.....................................     1,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    93,353

    The Miamisburg Environmental Management Project, a 306-acre 
facility near Dayton Ohio used for tritium and plutonium-238 
operations, consists of 416 release sites and 111 facilities. We have a 
goal of completing cleanup of the site by 2005 or earlier. We are 
making good progress--all legacy bulk tritium has been shipped off-
site, and a consolidated treatment processing facility and a 
radioactive wastewater treatment facility have been constructed and are 
in use. In fiscal year 1998, we completed remediation of the Miami-Erie 
Canal, allowing re-establishment of a park for the local community. In 
fiscal year 1998, we demolished or removed 25 buildings out of an 
initial inventory of 106 buildings scheduled for demolition or removal 
and will complete another 5 in fiscal year 1999, adding to the 17 
buildings that had been demolished or removed before fiscal year 1998.
    We have negotiated an agreement to transfer the ownership of the 
site to the Miamisburg Mound Community Improvement Corporation as 
cleanup is completed. Currently 28 private businesses employing more 
than 250 workers are leasing facilities at the Mound Site. Within the 
next few months, we plan to transfer ownership to the community of the 
first parcel of land, consisting of two buildings currently occupied by 
private businesses. This transition process will allow the Department 
to eventually leave the site without creating an economic void in the 
community.

Nevada Test Site and Operations Office, Nevada Fiscal Year 2000 Request

                             [In thousands]

Defense, Post 2006 Completion.................................   $85,307

    The Post-2006 Completion Account includes $85 million for cleanup 
and waste management activities at the Nevada Test Site, as well as 
funds to remediate eight other inactive sites contaminated by past DOE 
nuclear testing in five other states (Alaska, Colorado, Mississippi, 
Nevada, and New Mexico). The Nevada Test Site (NTS) is located 65 miles 
from Las Vegas and encompasses 1,350 square miles, an area roughly the 
size of Rhode Island. In addition to the cleanup of radioactive 
contamination resulting from above- and below-ground testing of nuclear 
weapons and management of its on-site waste, the Nevada Test Site plays 
a crucial role for other DOE sites as one of the major low-level waste 
disposal facilities in the DOE complex. By fiscal year 2006, the 
Department expects to complete restoration of the surface area of off-
site locations and complete shipments of transuranic waste to WIPP, 
while continuing to operate low-level disposal facilities at NTS for 
the DOE complex. institutional controls and to maintain groundwater 
monitoring.
    In fiscal year 1999, the Department expects to meet its commitment 
to dispose of more than 37,000 cubic meters of low-level waste, more 
than half of which is from other DOE sites, and to complete cleanup of 
446, or 32 percent of the contaminated release sites. In fiscal year 
2000, the Department is committing to disposing of 64,000 cubic meters 
of low level radioactive waste at NTS--a 70 percent increase over 
fiscal year 1999. Based on new scientific findings about transport of 
plutonium and other actinides in ground water, the Department is 
increasing it efforts to monitor ground water at NTS to improve our 
understanding of this complex issue. We also plan to continue treating 
transuranic waste in fiscal year 2000 for shipment and disposal WIPP.

Weldon Spring Remedial Action Project, Missouri Fiscal Year 2000 Request

                             [In thousands]

Non-Defense, Site Closure Account.............................   $52,000

    The Weldon Spring Site Remedial Action Project (WSSRAP) in Missouri 
includes a decommissioned uranium processing plant, an abandoned quarry 
used as a dump site, as well as numerous vicinity properties that were 
contaminated by uranium processing operations conducted for nuclear 
weapons support in the 1950's and 1960's, similar to the Fernald Site 
in Ohio. The Oak Ridge Operations Office in Tennessee is managing the 
cleanup, which includes about one million cubic yards of waste at the 
229-acre site.
    Cleanup of the Weldon Spring Site is expected to be completed as 
early as 2002. All contaminated material will be placed in an on-site, 
above-grade cell for permanent disposal. Long-term surveillance and 
monitoring for the disposal facility will be conducted after project 
completion, and the remaining land will be released for unrestricted 
use.
    Our progress in fiscal year 1998 and fiscal year 1999 puts us on 
track for completing cleanup in 2002. Fiscal year 1998 marked the start 
of the waste placement in the 1.4 million cubic yard capacity disposal 
facility, with about 640,000 cubic yards of material being placed in 
the facility in fiscal year 1998. The construction of the Chemical 
Stabilization and Solidification Facility was completed and treatment 
of waste pit sludge begun in fiscal year 1998, with treatment of sludge 
completed in fiscal year 1999. Cleanup of all vicinity properties but 
one were completed. The site Groundwater Record of Decision will be 
signed, and Quarry restoration activities will begin in fiscal year 
1999.
    In fiscal year 2000, the waste placement activity will be nearly 
completed, and the construction of the disposal facility cap will 
begin. Quarry restoration will continue, and the chemical plant site 
restoration and waste pit remediation will begin. Although the fiscal 
year 2000 budget targets $52 million for Weldon Spring, it is the 
intent of the Department to fund this program at a level of $63.5 
million, the level of funding of fiscal year 1999, to ensure the 2002 
completion date can be attained.

Brookhaven National Laboratory, New York Fiscal Year 2000 Request

                             [In thousands]

Non-Defense, Site/Project Completion Account..................   $29,553

    At the Brookhaven National Laboratory, we are treating contaminated 
groundwater at several on-site locations and will start the first off-
site groundwater treatment system by the end of this fiscal year. Over 
1,500 homes have been hooked up to the municipal water supply to ensure 
that the residents' drinking water supply remains unaffected during 
long-term ground-water cleanup. To eliminate sources of potential 
future contamination, we have removed buried waste as well as a number 
of underground storage tanks and cesspools, and have capped on-site 
landfills. In fiscal year 1999, the Department expects the regulatory 
and stakeholder review process for proposed cleanup remedies to be 
completed, and the final remedies to be identified for contaminated 
soils, sediments and groundwater. We will begin implementing the final 
remedies in fiscal year 2000.
    A site-wide review in fiscal year 1997 highlighted concerns with 
the Brookhaven Graphite Research Reactor, due in part to the 
radioactively contaminated water collecting in underground air ducts 
associated with the facility. I am pleased to report substantial 
progress in addressing this concern through the combined efforts of 
this office and the Office of Science. The contaminated water has been 
removed, and sources of potential further water intrusion have been 
sealed off. Moreover, the Offices of Science and Environmental 
Management have reached agreement on managing the remaining 
characterization, stabilization, and decommissioning of the Research 
Reactor, and both offices have committed funding in fiscal year 1999 
and fiscal year 2000 to maintain the momentum on this project. Final 
decommissioning of this facility is scheduled to begin in fiscal year 
2001.
    The EM Program will continue its activities in fiscal year 2000 to 
dispose of legacy wastes and will also continue to compliantly store, 
treat, and dispose of wastes generated by on-going Brookhaven 
operations, with the transfer of waste management responsibilities to 
the generating program expected in fiscal year 2001.

Sites in the State of California Fiscal Year 2000 Request

Defense, Site/Project Completion Account:s]
    Lawrence Livermore National Laboratory....................   $49,891
    Oakland Operations Office.................................       800
Non-Defense, Site/Project Completion Account:
    Energy Engineering Technology Center......................    17,398
    Lawrence Berkeley National Laboratory.....................    11,098
    General Atomics...........................................     1,100
    Laboratory for Energy-Related Health Research.............     3,863
    Stanford Linear Accelerator Center........................     1,400
    General Electric..........................................       500
    Oakland Operations Office.................................       300

    A total fiscal year 2000 request of $86,350,000 supports activities 
at the seven sites in California. The funds will support the 
characterization, remediation, decontamination and decommissioning of 
contaminated release sites and facilities; waste minimization efforts; 
and management of hazardous and radioactive wastes generated at sites. 
We are committed to completing cleanup at all sites by 2006, including 
shipping legacy waste off-site, ending EM responsibilities. For those 
sites with on-going Departmental missions, we plan to transfer 
responsibility for managing newly generated wastes to the waste 
generating programs by fiscal year 2003, and transfer responsibility 
for long-term maintenance of completed remedial actions (e.g., pump and 
treat facilities) and surveillance and monitoring by fiscal year 2006.
    The major accomplishments expected for fiscal year 2000 include:
    Lawrence Livermore National Laboratory.--LLNL consists of two 
sites--the Main site and Site 300. We will complete the Site-Wide 
Proposed Plan for the Interim Record of Decision at Site 300. At the 
Main site, EM will activate and start operational testing of the 
Decontamination and Waste Treatment Facility at the Lawrence Livermore 
National Laboratory Site and complete deployment of electro-osmosis 
innovative technology in source area contaminant remediation, for a 
potential life cycle savings of over $50M and reduction in time for 
cleanup of over 40 years compared to conventional pump and treat 
technology. We plan to complete cleanup at the LLNL sites by 2006.
    General Atomics.--EM will finish all cleanup activities in fiscal 
year 2000 with the completion of decontamination and decommissioning 
activities at the Hot Cell Facility, formerly used by DOE for nuclear 
research and development.
    Laboratory for Energy-Related Health Research.--We will complete 
soil excavation at the western dog pen and Strontium-90/Radium-226 
Areas in fiscal year 2000, keeping us on schedule for completing 
overall site cleanup, including off-site waste disposal, by fiscal year 
2002.
    Energy Technology Engineering Center.--The Department signed a 
contract in December 1998 with Boeing North America, the owner of this 
facility, to complete cleanup by 2006. The contract calls for transfer 
of all facilities and land to the owner, who will take responsibility 
for any long-term stewardship needed for the completed remedies. In 
fiscal year 2000, we will complete the decontamination and 
decommissioning of the SNAP-8 facility and the H-1 Heater Facility.
    Stanford Linear Accelerator Center.--We will complete excavation of 
PCB-contaminated soils in the Lower Salvage Yard. Responsibilities for 
on-going waste management were transferred to the generator in fiscal 
year 1997. We expect to complete EM's cleanup responsibilities by 2002.
    Lawrence Berkeley National Laboratory.--Excavation of contaminated 
soils at several on-site locations at Lawrence Berkeley National 
Laboratory will continue, as will storage, treatment and disposal 
activities to reduce legacy waste, with a goal of completing EM 
responsibilities by 2003.

                      statement of lake h. barrett

    Senator Domenici. We will proceed now with Mr. Barrett, and 
then we will ask questions.
    I note the presence of Senator Wayne Allard, from Colorado. 
Would you like to comment now before we proceed with the 
witness?
    Senator Allard. Well, I have a statement I would like to 
make, if that is okay with the Chairman, if it is appropriate 
for your agenda this morning.
    Senator Domenici. What is your time schedule for this 
morning?
    Senator Allard. Well, I need to preside at 11:00 o'clock, 
and I want to thank the Chairman for letting me sit here on 
your subcommittee.
    Senator Domenici. You are welcome. Let me proceed with the 
witnesses, and I will give you a chance here shortly.
    Senator Allard. Thank you.
    Senator Domenici. Mr. Barrett.
    Mr. Barrett. Thank you very much, Mr. Chairman, and members 
of the committee.

                          viability assessment

    We, in the Civilian Waste Radioactive Waste Management 
Program, have made significant progress in the last year. 
Specifically, we completed the Viability Assessment, which was 
sent to this committee and the President, and the rest of the 
Congress.
    The Viability Assessment found that there were no 
showstoppers and that work should proceed in characterizing the 
Yucca Mountain site. This Administration continues to move 
forward with the scientific characterization of Yucca Mountain, 
progressing toward a national decision whether the site is 
suitable to be a geologic repository. We are now nearing the 
conclusion of our scientific site characterization effort.
    The President's fiscal year 2000 budget request supports 
the Viability Assessment's findings. It is important to note 
that we still have work to do. The budget request, building on 
the scope of work identified in the Viability Assessment, 
spells out what we plan to do in fiscal year 2000 to support 
the decision process in the coming years.

                        yucca mountain schedule

    The overall schedule for the Yucca Mountain activities is 
shown on this chart to your right. We are on target for a 
decision in 2001 whether Yucca Mountain is suitable to be the 
location of a geologic repository, and if the site is suitable, 
to submit a License Application to the Nuclear Regulatory 
Commission in 2002.
    Meeting those milestones will maintain a schedule for the 
start of waste emplacement in 2010, if the site is suitable and 
licensed.
    Your continued support for this program is essential. This 
program is essential to our national policy for the management 
of commercial spent nuclear fuel, the cleanup of our defense 
nuclear facilities, the disposition of our naval nuclear spent 
fuel, and the disposition of surplus plutonium to support the 
nation's nuclear non-proliferation goals in this post-Cold War 
period.

                         recent accomplishments

    Before I discuss the 2000 fiscal year budget request, I 
would like to give you a brief summary of our recent 
accomplishments. We are focusing on the work products to 
support the milestones on this chart.
    They are specifically the Draft Environmental Impact 
Statement in the summer of this year, the Final Environmental 
Impact Statement in 2000, a determination if the site is 
suitable for a recommendation to the President in 2001, and a 
License Application, if the site is suitable in 2002.
    Last year, as I noted, we completed the Viability 
Assessment. That assessment served to identify the critical 
issues that must be addressed before a decision may be made by 
the Secretary whether to recommend the Yucca Mountain site for 
development as the nation's first repository. Our fiscal year 
2000 budget request implements the work plan to address those 
issues to allow a final national decision.
    At Yucca Mountain, we are working to understand the key 
scientific issues, including the flow of water through the 
repository, and the effect of heat from waste packages on the 
geology and the hydrology.
    We are investigating design alternatives to enhance 
performance. Our understanding of those issues will help reduce 
the uncertainties related to the performance of a repository. 
Now I would like to turn specifically to the fiscal year 2000 
budget request.

                    fiscal year 2000 budget request

    We are requesting $370 million in new budget authority and 
the release of $39 million from the funds appropriated in 
fiscal year 1996 in the Defense Nuclear Waste Disposal 
Appropriation, for a total funding of $409 million. We have 
proposed allocating $332 million to continue the scientific and 
engineering work at the Yucca Mountain site characterization 
program, $6 million for waste acceptance, storage, and 
transportation, and $71 million for program management, which 
includes our nuclear quality assurance and regulatory and 
National Environmental Policy Act responsibilities.
    The $332 million devoted to the Yucca Mountain site 
characterization will be used to continue the necessary 
cutting-edge scientific and engineering work to implement the 
characterization of the Yucca Mountain site; to reduce the 
remaining uncertainties about the site's performance, by 
developing models that predict the geophysical and engineering 
performance; to further refine our repository and waste package 
designs; to assist in the assessment of the repository safety 
strategy and total system performance. This includes the 
flexibility to incorporate emerging new technologies, such as 
accelerator transmutation of waste, which could supplement and 
improve the performance of a repository in Yucca Mountain. We 
also are working to finish the environmental impact statements.
    In addition to the hard science and engineering technical 
activities under way at Yucca Mountain, we believe that the 
financial support envisioned by the Nuclear Waste Policy Act to 
the state and units of local government is important in 
enabling these governments and citizens directly adjacent to 
the Yucca Mountain project to remain informed and to 
participate in a meaningful way in the day-to-day program 
actions that may affect them. To that end we seek your approval 
of our request for such funding.
    The budget request for the waste acceptance storage and 
transportation program is $6 million. This request will support 
our continuing long-lead work that must proceed transporting 
spent fuel to a federal receiving facility, and continue 
interactions with the standard contract holders to discuss how 
best to accommodate the delay in the acceptance of spent fuel 
from commercial utilities.
    In the program management area the $71 million requested 
will support the Nuclear Regulatory Commission mandated nuclear 
quality assurance activities, regulatory compliance, program 
control and management activities. The funding requested also 
provides core support for the Nuclear Waste Policy Act mandated 
EIS's, the planning and program management, and the extensive 
records management systems that we must have.

                           concluding remarks

    As I noted in my opening remarks, we have made substantial 
progress and we are appropriately positioned to finish the site 
characterization effort. The Viability Assessment found that 
there were no ``showstoppers'' with respect to the site at 
Yucca Mountain.
    They also identified the necessary remaining scientific and 
technical work we have to complete, and provided the funding 
profile required, which our fiscal year 2000 budget request is 
based upon.
    Funding at our request level will give us the resources 
required to address the last remaining questions about the 
suitability of the Yucca Mountain site. We are committed to 
determining the suitability of the site, and we seek your 
support in our efforts toward moving through this critical 
national decision.

                           prepared statement

    Thank you for your support, and I would like to answer any 
questions that you may have.
    Senator Domenici. Thank you very much.
    [The statement follows:]

                 Prepared Statement of Lake H. Barrett

    Mr. Chairman and members of the Committee, I am Lake H. Barrett, 
Acting Director of the Department of Energy's Office of Civilian 
Radioactive Waste Management. I appreciate the opportunity to present 
our fiscal year 2000 budget request to you and discuss our plans for 
continuing to move forward with the scientific and technical program 
activities at the Yucca Mountain site in Nevada.
    The fiscal year 2000 budget request of $409 million is devoted to 
supporting principally those activities that may lead to a decision to 
recommend the site currently being characterized at Yucca Mountain, 
Nevada for development of a repository for the Nation's spent nuclear 
fuel and high-level radioactive waste.
                               background
    The Civilian Radioactive Waste Management Program and, in 
particular, the Yucca Mountain Site Characterization Project being 
implemented is the cornerstone of the national policy for the 
management of spent nuclear fuel produced by nuclear power reactors for 
the generation of electricity and the clean-up of the high-level 
radioactive waste currently stored at sites that were key facilities of 
the nuclear weapons complex. The Civilian Radioactive Waste Management 
Program also directly supports the requirement to dispose of the 
Department of Energy's spent nuclear fuel including naval nuclear spent 
fuel. The disposition of surplus plutonium and other nuclear weapons 
materials in a permanent geologic repository is a key factor in 
maintaining the United States' international leadership position 
regarding nuclear nonproliferation.
    Since the enactment of the Nuclear Waste Policy Act in 1982, we 
have made significant progress. We have designed and are implementing a 
program that is leading the developed countries in planning for 
geologic disposal of spent nuclear fuel and high level waste. Despite 
the progress made, the implementation of this program continues to be 
one of the most daunting public policy challenges before us. The 
Department, is however, getting closer to being able to make a decision 
regarding the recommendation of the site to the President for 
development as a repository, if it proves to be suitable.
                          viability assessment
    Since I last appeared before you, the Department completed, and 
submitted to the President, the Congress, and the public, the Viability 
Assessment of a Repository at Yucca Mountain and its companion 
documents. The Viability Assessment is comprised of four major 
elements: (1) a preliminary design concept for a repository and waste 
package; (2) a total system performance assessment that describes the 
probable behavior of a repository in the Yucca Mountain geologic 
setting; (3) a plan and cost estimate for the remaining work required 
to complete and submit a License Application to the Nuclear Regulatory 
Commission; and (4) an estimate of the costs to construct and operate a 
repository.
    The Viability Assessment is the compilation of over fifteen years 
of scientific and engineering work at the Yucca Mountain site. It 
provided Congress, the President, and the public with information on 
the progress of the Yucca Mountain Site Characterization Project. The 
Viability Assessment serves as an important management tool for the 
Program to guide the completion of site characterization by identifying 
critical issues that need to be addressed before a decision can be made 
by the Secretary on whether to recommend the Yucca Mountain site for a 
repository.
    The key conclusion of the Viability Assessment is that there are no 
``show stoppers'' with respect to the Yucca Mountain site and that work 
should proceed to support a decision in 2001 on whether to recommend 
the site. The President's fiscal year 2000 budget request supports that 
conclusion and I seek your support as well. It is important to note 
that we still have work to do. The budget request, building off of the 
scope of work identified in the Viability Assessment, spells out, in 
some detail, what we plan to do in fiscal year 2000 to support the 
decision process in the coming years.
    The Civilian Radioactive Waste Management Program, in accordance 
with the guidance provided by the Fiscal Year 1997 Energy and Water 
Development Appropriations Act, applied the majority of our funding and 
two years of focused, concentrated effort to the development of the 
Viability Assessment. The Viability Assessment having been issued only 
three months ago, now provides both the short-term and long-term 
planning basis for the Program. It lays out the scope of work and the 
cost profile for the remaining work that must be accomplished to not 
only reach the decision point regarding the recommendation of the site 
to the President, if the site is found to be suitable, but also the 
work that must be accomplished and costs associated with it to 
construct a repository subsequent to receiving a License from the 
Nuclear Regulatory Commission. It is being used by the Program as a 
point of departure for developing and implementing the planning 
baseline against which Congress and outside observers may measure our 
progress in the future.
    We have also made the Viability Assessment widely available by 
putting it and its companion documents The Analysis of the Total System 
Life Cycle Cost of the Civilian Radioactive Waste Management Program, 
December 1998 (Total System Life Cycle Cost Report) and the statutorily 
required Nuclear Waste Fund Fee Adequacy: An Assessment, December 1998 
(Fee Adequacy Report), and all the supporting technical studies--on our 
Internet home page.
                               litigation
    Before I discuss the fiscal year 2000 budget request and some of 
the accomplishments in fiscal year 1998 and fiscal year 1999, I would 
like to touch briefly on the ongoing litigation with State agencies and 
utilities regarding the Department's delay in accepting commercial 
spent fuel.
    As you know, the Department is in litigation over our inability to 
meet our contractual obligation to accept spent fuel from the nuclear 
utility companies by January 31, 1998. The Court of Appeals for the 
District of Columbia Circuit found that the Department has an 
obligation to commence spent fuel disposal by January 31, 1998. The 
Court denied the utilities' and States' request for a move-fuel order, 
finding that the Standard Disposal Contract provides a potentially 
adequate remedy. The Court stated that the Department may not rely on 
the ``unavoidable delays'' clause to excuse its delay in performance 
and suggested the ``avoidable delays'' clause of the Standard Contract 
as the potentially adequate remedy. This clause provides for an 
equitable adjustment of schedules and contract charges to reflect any 
estimated additional costs incurred by the contract holder.
    Pursuant to the ruling of the Court of Appeals for the District of 
Columbia Circuit, the Department will process claims presented to it 
under the standard disposal contract. Although we have held settlement 
discussions with several utilities, only one utility has proposed a 
bilateral modification and request for equitable adjustment of the 
contract, and no formal claims have been filed.
    To date, ten utilities have filed claims for monetary damages in 
the U.S. Court of Federal Claims. In the first three cases decided by 
the Court, the Department was found to have breached its contracts with 
three utilities, each with only one shutdown reactor, and the 
Department is now engaged in discovery to determine the amount of 
damages the Government must pay these utilities. Other cases, most 
involving utilities with operating reactors paying ongoing fees to the 
Department, are currently pending.
                           quality assurance
    Our Quality Assurance Program, working as it should, has detected 
certain deficiencies in the execution of the Yucca Mountain Site 
Characterization effort, which has resulted in a redirection of work to 
respond to these deficiencies. Corrective Action Plans approved by our 
Office of Quality Assurance are being implemented. Process improvements 
have been identified, procedures have been revised, training is 
underway, and managers have increased their self-assessments. Although 
these efforts are causing us to refocus and redefine some of our 
currently planned work, we anticipate that we can accommodate this 
effort with minimal impact on cost and schedule. We expect some of the 
analyses, however, may have to be based on less data than previously 
planned but we are confident that the analyses will support the Site 
Recommendation Report and License Application.
      payments to the state and affected units of local government
    We believe that the support envisioned by Section 116(c) of the 
Nuclear Waste Policy Act of 1982, as amended, to the State and units of 
local government affected by site characterization activities is 
important in enabling local governments and the citizens most directly 
impacted by the Yucca Mountain Project to remain informed and to 
participate in a meaningful way in the day to day program actions that 
affect them. Financial support is particularly important for the rural 
counties' programs where financial resources are severely limited and I 
would urge that you support the funding requested.
                  summary of fiscal year 2000 request
    With respect to fiscal year 2000, we are requesting $370 million in 
new budget authority and the release of $39 million from funds 
appropriated in fiscal year 1996 in the Defense Nuclear Waste Disposal 
Appropriation (currently in a Congressional Reserve) for total funding 
of $409 million. This request level fully supports the funding profile 
for the scientific and engineering activities planned for the Yucca 
Mountain Project as described in the Viability Assessment.
    We have proposed allocating $332 million to continue the scientific 
and engineering work at the Yucca Mountain Site Characterization 
Office; $6 million for the activities directed by the Office of Waste 
Acceptance, Storage and Transportation; $10 million for the Program's 
Nuclear Quality Assurance program; and $61 million to carry out the 
Program's Management and Integration functions.
    Before I review with you how we are proposing to use the funds 
provided for in the fiscal year 2000 budget request, I would like to 
briefly highlight, in summary fashion, some of the fiscal year 1998 and 
projected fiscal year 1999 accomplishments.
           fiscal year 1998-fiscal year 1999 accomplishments
                             yucca mountain
    At the Yucca Mountain Site Characterization Project Office, we are 
continuing the transition from a project whose principal focus was on 
the collection of scientific data to a project that is increasingly 
focused on activities that support the remaining key near-term 
requirements described in the Nuclear Waste Policy Act of 1982, as 
amended. Those key activities will provide the remaining technical 
documentation (collectively these materials are referred to as the 
``Site Recommendation Report''), to support whether the Secretary 
should recommend to the President the site currently being 
characterized at Yucca Mountain, Nevada, if the site is found to be 
suitable, as a repository for the Nation's spent nuclear fuel and high-
level radioactive waste.
    In fiscal year 1999, the Program applied $282 million to the site 
characterization effort at Yucca Mountain. That was almost 80 percent 
of the Program's total appropriation.
    The Project is focusing their activities on scientific and 
engineering investigations related to the remaining key uncertainties 
about the Yucca Mountain site. Those uncertainties were discussed in 
the Viability Assessment. They include the presence and movement of 
water through the repository block; the effects of water movement on 
the waste package; and the effects of heat from the decay of 
radioactive materials inside the waste packages on the site's geologic 
and hydrologic behavior.
    The focus at Yucca Mountain during fiscal year 1998 was on 
completing the Viability Assessment, completing excavation of, and 
starting testing in, the Exploratory Studies Facility Cross Drift that 
extends to the west side of the repository block, and on starting one 
major thermal test and completing two others.
    Development of the Viability Assessment represented many ``firsts'' 
for us. It was the first time we have articulated our integrated 
understanding about the whole Yucca Mountain Site since the 1986 
Environmental Assessment supporting the decision to carry out site 
characterization. It was the first time an integrated technical review 
of one of our major technical reports included members of the 
Department of Energy complex who currently have responsibility for 
waste forms planned for geologic disposal. It was the first time we 
have used the Internet as an important part of our process for 
distributing major technical reports to the public. Lessons we have 
learned from these activities are being implemented as we start 
developing the Site Recommendation Report and the License Application. 
In addition to the Viability Assessment, we produced key supporting 
documents such as the Total System Performance AssessmentViability 
Assessment Analysis Technical Basis Document and the Yucca Mountain 
Site Description.
    In December 1997, we started excavation of the 16.5-foot diameter 
cross drift in the Exploratory Studies Facility to better understand 
the geologic and hydrologic conditions of the west side of the 
repository block. By the close of fiscal year 1998, we completed 
excavation of over 2578 meters. The remaining 103 meters were completed 
in October 1998. Geologic mapping of the cross drift has been 
completed. Model predictions of the stratigraphy of the cross drift 
were verified to be within a few meters in elevation of the actual 
stratigraphic contacts. The eastern splay of the Solitario Canyon fault 
was mapped, and showed the actual offset to 220 to 230 meters matched 
the predicted offset of 230 meters.
    Long duration tests are providing critical input for validating 
models we use to predict performance of a repository. We designed three 
different thermal tests to evaluate how the high temperatures in a 
repository (from heat generated by radioactive decay of the emplaced 
waste) can affect the natural barriers (i.e., the rock surrounding the 
emplacement drifts) and the engineered barriers (i.e. the waste package 
and the emplacement drift openings). Our thermal testing program is 
well underway.
  --The single heater test, which began in August 1996, was completed 
        in fiscal year 1998. The final results from this test are 
        generally consistent with model predictions of temperature, 
        rock displacement, and moisture movement. Data were obtained on 
        heat transfer, thermal conductivity, thermal expansion, thermal 
        chemistry, air permeability, and hydrology of the heated rock. 
        The test also allowed us to refine the design and 
        instrumentation of the drift scale heater test.
  --The large-block heater test, which began in February 1997 in a 
        fourteen foot high section of an outcrop at Fran Ridge, an area 
        adjacent to Yucca Mountain in a portion of the potential 
        repository host rock exposed at the surface, was completed in 
        fiscal year 1998. The use of an isolated block allowed us to 
        measure the moisture movement caused by heat in a controlled 
        environment. Core samples obtained from the block are now being 
        analyzed to look for changes in rock fractures due to heating.
  --The drift scale heater test is a long-term test to obtain data on 
        the mechanical and thermohydrologic properties of a repository 
        host rock. The test, which began in fiscal year 1998, nearly 
        1000 feet below the surface of Yucca Mountain inside the 
        Exploratory Studies Facility, is in the heat-up cycle. On 
        December 3, 1997, a series of electric heaters were turned on, 
        initiating the flow of heat into a section of the mountain. 
        Designed to simulate the heat from actual waste packages, the 
        drift scale test is the largest of the three heater tests at 
        Yucca Mountain, and for that matter, is the largest underground 
        thermal test ever conducted in the world. During fiscal year 
        1998, we increased the temperature in the test drift from 
        ambient 86 degrees Fahrenheit to 275 degrees Fahrenheit. The 
        goal is to maintain the drift wall rock temperature at 392 
        degrees Fahrenheit for two years before the cool down cycle 
        begins. The total duration of this test will be eight years: 
        four to heat-up and four to cool down.
    Testing in an underground facility at Busted Butte near Yucca 
Mountain began in fiscal year 1998 and is still ongoing. Test results 
in the Calico Hills rock unit will provide an analog to expected 
conditions in the same type of rock that lies below the potential 
repository horizon. Tests are being conducted to validate laboratory 
data and conceptual numerical transport models. These tests are 
intended to reduce uncertainties in assessments of the potential 
transport of key radionuclides from the repository area, through the 
unsaturated zone, and into the water table underlying Yucca Mountain. 
Tests also will address the importance of colloid-facilitated transport 
of radionuclides, especially plutonium. Observations at Busted Butte 
are important to understanding transport in the unsaturated zone, 
beneath the emplacement drifts, because additional sorption of 
radionuclides is expected even in a scenario dominated by fracture 
flow. Future work will quantify the fracture-matrix coupling that will 
be incorporated into the updated site-scale models to support the total 
system performance assessment for the Site Recommendation Report and 
the License Application.
    Under the agreement with Nye County, eight wells have been 
completed along Highway 95 south of Yucca Mountain. We have collected 
cutting samples and are reviewing the geologic logs. We are in the 
process of analyzing water samples from these wells. This data will be 
used in updating the geologic framework model.
    Thus far, our repository performance assessments have shown that 
the rate and amount of seepage of water into the emplacement drifts is 
very important to repository performance. Since the effects of tunnel 
ventilation may well mask the detection of any seepage, in 1998 we 
isolated individual niches in the Exploratory Studies Facility from 
ventilation to see whether any seepage can be detected. To date, no 
seepage has been observed in these test niches.
    One alcove in the Exploratory Studies Facility has been isolated 
from ventilation effects to monitor humidity and seepage during the 
higher rainfall caused by El Nino. This alcove is within the vicinity 
of the potential repository block area near to and within the Ghost 
Dance fault exposure. To date, no seepage has been observed.
    The focus at Yucca Mountain during fiscal year 1999 will be on 
issuing the Draft Environmental Impact Statement; completing the last 
phase of the peer review of the Total System Performance Assessment 
that supported the Viability Assessment; and updating repository and 
waste package designs to support updating the Total System Performance 
Assessment for the Site Recommendation Report. Those activities are 
also the Program's Government Performance and Results Act commitments.
    In fiscal year 1999, to date, we have made the following progress:
  --In support of the Environmental Impact Statement, we began the 
        Department-wide review of the Draft Environmental Impact 
        Statement. We are on schedule for meeting the July 1999 date 
        for publishing the Draft Environmental Impact Statement and 
        starting the public hearings.
  --Completed a topical report on the methods we plan to use to model 
        and evaluate the potential for a nuclear criticality event 
        (sustained chain reaction). The report was transmitted to the 
        NRC in January 1999.
  --Completed License Application Design Selection workshops aimed at 
        assuring validity and transparency of the process for selecting 
        repository designs and options that will be modeled for the 
        Site Recommendation Report and License Application.
  --Completed management plans to guide writing both the Site 
        Recommendation Report and the License Application and began 
        developing the first drafts of both these documents.
  --Completed phase one of the Busted Butte radionuclide transport 
        test. The preliminary results provided significant information 
        on flow partitioning between fracture and matrix of the rocks 
        beneath the potential repository.
  --Continued National Environmental Policy Act consultation and 
        coordination activities with numerous federal, state, and local 
        agencies and Native American tribal organizations. Status 
        briefings on the Environmental Impact Statement's development, 
        as well as coordination of any Environmental Impact Statement 
        data needs, were conducted with the U.S. Nuclear Regulatory 
        Commission, Nuclear Waste Technical Review Board, U.S. Bureau 
        of Land Management, U.S. Air Force, State of Nevada and 
        affected counties, and Native American tribes.
             waste acceptance, storage, and transportation
    The Department's acceptance of commercial spent nuclear fuel 
remains a critical objective of the Program and, in the Office of Waste 
Acceptance, Storage, and Transportation (OWAST) area, that is where we 
focused our efforts. However, in recognition of the hardships 
associated with the Department's delay in waste acceptance, we have 
offered to make equitable adjustments with the contract holders to 
address those issues.
    In fiscal year 1998, we developed a generic, non-site specific 
topical safety analysis report for a centralized interim storage 
facility. The report was submitted to the Nuclear Regulatory Commission 
and contained the required analyses and evaluations necessary to show 
that the operation of such a facility would meet the Commission's 
requirements for the protection of the environment, public safety, and 
health. We have continued interactions with the Commission and expect 
their approval this year.
    In fiscal year 1999, the Program utilized just under $2 million to 
conduct activities that are the responsibility of the Office of Waste 
Acceptance, Storage, and Transportation. Several of the sub-elements of 
the OWAST function were de-emphasized in fiscal year 1998 and fiscal 
year 1999 to apply resources to the Yucca Mountain Site 
Characterization activity rather than on transportation activities.
    We continued to refine a competitive procurement strategy for 
acquiring waste acceptance and transportation services utilizing 
private industry. We issued a revised draft Request for Proposals (RFP) 
in December 1997, that embodies a market-driven approach relying on the 
maximum use of private industry capabilities, expertise and experience 
to acquire contractor services to accept and transport commercial spent 
nuclear fuel to a Federal facility. In September 1998, the draft RFP 
was revised to address public/industry comments, and a Notice of 
Availability was published in the Federal Register. Work on the RFP was 
subsequently deferred until a repository siting decision process is 
completed. When that process is completed, activities related to the 
acquisition of waste acceptance and transportation services will be 
reinitiated.
                   program management and integration
    In fiscal year 1999, we continued to ensure that the integration 
requirements between the various components of the waste management 
system were adequately addressed and alternative system designs and 
proposals were evaluated with careful attention paid to their effects 
on system operations and costs. We completed a Total System Life Cycle 
Cost Report and a statutorily required Fee Adequacy Report. Those two 
documents accompanied the Viability Assessment at the time of its 
issuance.
    The Program also concluded and is implementing Memoranda of 
Agreement's with the Office of Environmental Management and the Naval 
Nuclear Propulsion Program that specify each Office's technical, 
programmatic, and financial responsibilities with respect to spent 
nuclear fuel and high-level radioactive waste.
    In an effort to utilize our resources more efficiently, we 
streamlined our operations. The program reduced headquarters staff in 
1998 through a significant reduction-in-force. With reductions-in-force 
and staff reassignments, the Program reduced Headquarters staffing by 
39 percent. Since fiscal year 1992, the Program has significantly 
shifted the balance of staffing from headquarters to Nevada, with a 
reduction at headquarters of 50 percent and an increase in Nevada of 40 
percent.
    In fiscal year 1999, responding to the Congressional direction 
regarding the use of its support service contractors, the Program 
reduced, by over 10 percent, funding for ``* * * management and 
administrative support service contractors at the Yucca Mountain Site 
Characterization Project Office and Headquarters.'' No reductions were 
made in other support service contracts that provide support for 
Nuclear Regulatory Commission-required quality assurance verification 
and support for preparation and publication of the required 
Environmental Impact Statement.
    The attachment to my statement provides a more detailed treatment 
regarding the objectives of work and progress made in fiscal year 1998 
and fiscal year 1999.
           application of the fiscal year 2000 budget request
                                overview
    The President's fiscal year 2000 Budget Request for the Office of 
Civilian Radioactive Waste Management is consistent with the policy 
direction provided by Congress in the last several Energy and Water 
Development Appropriations Acts. The Program's Budget Request focuses 
principally on the activities being conducted by the Yucca Mountain 
Site Characterization Project. The Budget Request will fund activities 
necessary to complete the final years of the site characterization 
program, including:
  --Completion of the Final Environmental Impact Statement in 2000; and
  --The decision, by the Secretary, whether to recommend the site to 
        the President in 2001 for development of a repository, if the 
        site is found to be suitable.
    Should the President and Congress accept the site recommendation, 
the work to be completed in fiscal year 2000 is critical to the 
development and submission of a License Application for repository 
construction to the Nuclear Regulatory Commission in 2002.
                             yucca mountain
    In fiscal year 2000, the funds that will be allocated to the Yucca 
Mountain Site Characterization Project will be used to move us beyond 
the Viability Assessment, specifically to:
  --Continue the necessary scientific and engineering work to complete 
        the characterization of the Yucca Mountain site;
  --Address the remaining uncertainties about the site's ability to 
        contain and isolate nuclear waste, including completion of some 
        of the design analyses for the engineered barrier that will 
        serve, in part, as the basis for the Site Recommendation Report 
        and License Application (such as structural, shielding, 
        thermal, criticality, cost, and design basis event aspects);
  --Further refine our repository and waste package designs to assist 
        in the assessment of a repository safety strategy and total 
        system performance, including updated reports on waste package 
        materials and waste form characteristics;
  --Continue to strengthen our understanding of the expected 
        performance of the proposed repository's natural and engineered 
        barriers;
  --Evaluate total system performance using updated models to support 
        development of the Site Recommendation Report and License 
        Application;
  --Complete the public hearings on the draft Environmental Impact 
        Statement and develop a Comment Response Document that will be 
        included in the final Environmental Impact Statement;
  --Prepare, and issue, the final Environmental Impact Statement for a 
        Geologic Repository for the Disposal of Spent Nuclear Fuel and 
        High-level Radioactive Waste at Yucca Mountain; Nye, County 
        Nevada. Incorporate public comments, as appropriate, on the 
        draft Environmental Impact Statement; and
  --Continue efforts to support the preparation of a high quality, 
        complete, and defensible Site Recommendation Report and, if the 
        site recommendation is approved, a License Application.
    The plan for fiscal year 2000 and beyond reflects the transition of 
the project activities from scientific investigations to data 
synthesis, model validation, repository and waste package design, and 
safety analysis. Those activities are essential inputs to: (1) the 
decision by the Secretary whether to recommend the site to the 
President, if the site is found to be suitable; and (2) the submission 
of a License Application to the Nuclear Regulatory Commission, if the 
site is approved for repository development. Near-term priorities will 
be on enhanced characterization efforts to develop the remaining 
information required to support the Site Recommendation Report and the 
License Application. Specific activities for fiscal year 2000 will 
focus on:
    Core Science.--Core Science includes collection of site 
characterization and performance confirmation data from the surface and 
subsurface, and testing in the laboratory; environmental data 
collection, monitoring, and requirements compliance; site and materials 
performance testing; scientific test planning and design; formulation 
of scientific hypotheses; modeling and hypothesis testing; development 
of scientific information for technical data bases; and completion of 
models and synthesis reports that serve as the basis for scientific 
descriptions and analyses used in the documentation supporting 
remaining major program milestones, including the Site Recommendation 
Report and License Application.
    Our planned activities in the Core Science area are focused on data 
synthesis and documentation, model updating and validation and 
continuing performance confirmation efforts to advance our overall 
knowledge for the Site Recommendation Report and the License 
Application. Specific activities will focus on testing in the 
Exploratory Studies Facility, including the Cross-Drift and the drift 
scale test; confirmatory field-scale tests; modeling; environmental, 
safety and health compliance; and environmental monitoring and 
mitigation activities.
    Within the Exploratory Studies Facility, we will continue the long-
term drift-scale thermal test that began in December 1997. This test 
will allow us to explore how the rock and fluids in a repository system 
will behave in the long-term presence of heat generated by radioactive 
decay of the emplaced waste. Testing in the Cross-Drift will continue 
to collect data on hydrologic properties of the repository horizon 
(i.e., fracture-matrix interaction, and fracture flow properties, 
particularly of the lower lythopysal unit where approximately 65 
percent of the emplacement drifts are expected to be located).
    We will refine the geologic process models that underlie the total 
system performance assessment models that will support both the Site 
Recommendation Report and License Application. Conceptual and numerical 
models of flow and transport, the near-field environment, and 
repository thermohydrology used in the Viability Assessment will be 
updated to reflect scientific data that have been collected since mid-
1998. Saturated zone and unsaturated zone models for flow and 
radionuclide transport will be validated for use in the Site 
Recommendation Report and License Application. Confirmatory data 
collection and long-duration testing will continue.
    Confirmatory field-scale tests will continue to support refinement 
of near-field environment models. These models involve coupled thermal, 
chemical, mechanical, and hydrologic processes and describe how water 
could enter emplacement drifts, interact with waste packages, and 
transport radionuclides through the engineered barrier system. These 
tests support the evaluation of near-field process models that will 
directly support the total system performance assessment for the Site 
Recommendation Report by reducing and quantifying uncertainty in 
calculations of radionuclide releases from the engineered barrier 
system. These tests will also confirm predictions of coupled process 
behavior in the repository near-field associated with repository 
heating.
    We will continue to monitor transient seismicity and meteorological 
events and moisture movement in the Exploratory Studies Facility and we 
will conduct hydrographic monitoring in boreholes. Meteorological data 
for use in radiological dose assessments and biosphere modeling will be 
collected and airborne transport characteristics monitoring at Yucca 
Mountain will continue.
    The fiscal year 2000 budget includes $10 million for a cooperative 
agreement between the Department and the University and Community 
College System of Nevada (UCCSN). The agreement started in fiscal year 
1999 and will continue into fiscal year 2002. The principal purpose of 
the cooperative agreement is to develop and continue providing the 
public and the Yucca Mountain project with an independently derived 
body of scientific and engineering data concerning the study of Yucca 
Mountain as a potential high level waste repository in support of the 
Site Recommendation Report and License Application. Under this 
agreement, UCCSN will perform scientific or engineering research, and 
develop and foster collaborative working relationships between 
government and academic researchers.
    In fiscal year 2000, work will focus primarily on research and 
evaluation in the areas of seismology and hydrology and improvement of 
data retrieval systems to support Program goals. Geodetic measurements 
and studies with respect to the strain rate of the earth's crust in the 
Yucca Mountain region will be conducted to help determine the 
probability of the occurrence and magnitude of seismic events. The 
UCCSN will conduct studies related to fluid inclusions with respect to 
potential rising of hydrothermal fluids at Yucca Mountain. Under this 
task, UCCSN will collect and analyze data and share the results with 
federal and State of Nevada scientists. Continuing work on improving 
data retrieval systems will explore and enhance record indexing 
techniques to provide a better method of tracking and retrieving data 
in the records management system in support of the licensing support 
system. In addition many smaller tasks will be conducted by UCCSN such 
as saturated zone data analysis, long term performance confirmation 
monitoring, microbiologically influenced corrosion research and 
hydrogen embrittlement testing.
    Nye County is drilling a network of boreholes to be used to monitor 
the movement of groundwater south of the proposed repository, off the 
Nevada Test Site. The county's researchers are establishing the 
conditions that exist before repository construction and will use the 
network as an Early Warning Monitoring System. We are coordinating with 
Nye County to obtain water measurements and water and rock samples from 
their drilling program. Cooperative planning has produced a program of 
scientific activities that complement the Nye County objectives. We 
will conduct chemistry and isotopic analysis of the water; and 
paleohydrologic, Eh/redox potential, rare earth and trace element 
analysis; and geophysical log interpretations.
    Environmental monitoring and compliance activities will continue. 
These activities include monitoring air quality and meteorology, water 
resources studies, archeological and radiological studies, and 
monitoring of ecosystem and socioeconomic indicators. We will maintain 
and acquire requisite permits so that uninterrupted site activities may 
continue, and we will conduct surveillances, audits and assessments of 
site activities to ensure regulatory compliance. Many of these 
activities are regulated by statutes and regulations such as the 
Endangered Species Act, Comprehensive Environmental response, 
Compensation, and Liability Act, and the Clean Water Act.
    Design and Engineering.--The Design and Engineering includes three 
major areas--Waste Package Development, Repository Design, and Systems 
Engineering. Waste Package Development includes two very distinct areas 
of engineering activity--waste package design and waste forms and waste 
package materials testing. Repository design also includes two distinct 
areas--subsurface facilities design and surface facilities design. 
Systems Engineering integrates all aspects of design and ensures that 
the Monitored Geologic Repository can be constructed as designed, and 
will perform safely and efficiently.
    The fiscal year 2000 performance measure, associated with the 
Government Performance and Results Act, involves deciding on the 
reference design that will be presented in the Site Recommendation 
Report and License Application. The License Application Design 
Selection evaluation now underway, will result in technical 
recommendations for repository/waste package designs and options. The 
design will, most likely, result in additional features that will 
require detailed design analyses prior to the design selection in 
fiscal year 2000.
    The reference design for the Site Recommendation Report and License 
Application will be documented. Design documentation will include 
safety and accident analyses and will describe the design in sufficient 
detail to show that a repository can be operated safely during waste 
emplacement at Yucca Mountain and after all waste packages have been 
emplaced (i.e., preclosure period).
    Important areas of ongoing design emphasis include: waste package 
materials; waste form testing and analyses; waste handling system and 
emplacement operations; (i.e., repository concept of operations); a 
demonstration of design compliance with codes, standards, and 
regulatory requirements (i.e., design verification); assurance that the 
technical work being performed within the individual engineering 
specialties is integrated (i.e., interface control); and detailed 
engineering for these elements of a repository system that show no 
similarities to systems licensed previously in commercial nuclear power 
plants.
    Nuclear waste forms that will be placed in a repository include 
spent nuclear fuel from commercial nuclear power plants, spent nuclear 
fuel and high-level waste from the Department of Energy, Naval nuclear 
spent fuel, and immobilized plutonium. A repository will be designed to 
accommodate the varied size, weight, radioactivity, and heat 
characteristics of these materials in the repository. Development of 
repository acceptance criteria (e.g., disposal interface 
specifications) for noncommercial spent fuel will continue.
    Licensing/Suitability/Performance Assessment.--The primary focus in 
fiscal year 2000 is to compile the technical documentation that will 
comprise the Site Recommendation Report. A draft Site Recommendation 
Report will be developed and will be available at the hearings planned 
for early fiscal year 2001 to notify the public that the Secretary of 
Energy is considering whether to recommend the site to the President. 
The final Site Recommendation Report, together with the final 
Environmental Impact Statement, and other information required by the 
Nuclear Waste Policy Act of 1982, as amended, including the views of 
the Nuclear Regulatory Commission, and the State of Nevada, will be 
considered by the Secretary of Energy in deciding, in early fiscal year 
2002, whether to recommend the site to the President.
    Development of the License Application for repository construction, 
which would be submitted to the Nuclear Regulatory Commission by the 
Secretary of Energy, will continue. Before the License Application 
would be submitted, we would continue to work with the Nuclear 
Regulatory Commission to resolve procedural and technical issues. 
Interactions with the Nuclear Waste Technical Review Board, and other 
external organizations will continue.
    The focus of performance assessment activities will be to update 
the total system performance assessment models used in the Viability 
Assessment, and use them to support development of the Site 
Recommendation Report and License Application. The total system 
performance assessment models will be refined based on site 
characterization information, design information, and feedback from 
external organizations (e.g., Nuclear Waste Technical Review Board, 
Nuclear Regulatory Commission, Performance Assessment Peer Review 
Panel) acquired during fiscal year 1998 and 1999.
    All technical data used for a repository and waste package design, 
total system performance assessment, and models for site processes and 
conditions must be traceable and electronically retrievable in 
accordance with 10 CFR Part 2, Subpart J. The latest web-based 
technologies will continue to be utilized to ensure that program data 
and records are quickly and easily retrievable at the time that the 
Secretary of Energy may decide to recommend the site to the President.
    NEPA.--The primary focus will be on National Environmental Policy 
Act compliance. Activities include completing the public hearings on 
the draft Environmental Impact Statement, which will be held 
nationally, completing the final Environmental Impact Statement, 
including the Comment Response Document, and issuing it in August 2000.
    Operations/Construction.--To support collection of scientific data, 
we will construct one large test area (alcove) and one smaller test 
area (niche) in the Cross-Drift tunnel. We will continue to provide 
support services necessary for continued testing in the Exploratory 
Studies Facility, the Cross-Drift, and the Busted Butte Test Facility. 
These services include providing test set-up, training, and test 
facility modification; maintaining and upgrading the ventilation, 
electric, and other utility systems; aligning the underground rail 
system; providing site and underground security; and providing other 
services designed to protect worker health and safety and protect the 
environment. We also will support surface based testing by providing 
any necessary drilling/coring and well work-over. We will continue to 
maintain underground and surface test facilities, vehicles, and 
equipment consistent with programmatic and asset management 
requirements.
    External Oversight and Payments Equal to Taxes (PETT).--We will 
continue to support external oversight activities and payments equal to 
taxes. External oversight activities consist of financial and technical 
assistance to the State of Nevada and affected units of local 
government (i.e., Churchill, Clark, Esmeralda, Eureka, Lander, Lincoln, 
Mineral, Nye, and White Pine Counties in Nevada and Inyo County in 
California). Payments-Equal-to-Taxes are made to the State of Nevada 
and Nye, Clark, and Inyo Counties. Payments-Equal-to-Taxes will 
increase in fiscal year 2000 due to the increased value of facilities 
at the Yucca Mountain site.
    Yucca Mountain Project Management.--We will continue to enhance our 
critical project management and project control activities, including 
planning, budgeting, and scheduling. This will include activities to 
ensure that staff are qualified to perform their approved activities, 
and trained to perform them safely, and that performing organizations 
are provided with the facilities, equipment, information systems, and 
support services needed to perform their approved activities.
    Project management also includes conducting public information and 
outreach programs to ensure open and informative interactions with the 
public, technical review organizations, and other program managers. We 
will maintain records and ensure technical information is broadly 
disseminated to these groups.
    International Conference.--In September 1998, Secretary Richardson 
announced at the International Atomic Energy Agency's General 
Conference that, in 1999, DOE would host a conference on global efforts 
to dispose of nuclear materials in geological repositories. The ``DOE 
International Conference on Geologic Repositories'' will be held 
October 31-November 3, 1999. The purpose is to share results of our 
experience and progress and welcome the input of others. Tours of the 
Yucca Mountain site and the Waste Isolation Pilot Plant (WIPP) in New 
Mexico will be on October 31 and November 3, with the conference taking 
place on November 1 and 2, 1999.
             waste acceptance, storage, and transportation
    In fiscal year 2000, the budget request for the Waste Acceptance, 
Storage, and Transportation program area is $6 million. The request 
will support the following set of functions:
  --Interactions with standard contract holders to discuss how best to 
        accommodate the delay in the acceptance of spent fuel from 
        commercial utilities;
  --Activities related to generic and non-site specific long-lead time 
        activities that must precede the removal of spent nuclear fuel 
        from reactor sites once a federal facility becomes available;
  --Interactions with potentially affected parties to plan for the 
        provision of technical and financial assistance, as required by 
        Section 180(c) of the NWPA, as amended, to States and Indian 
        Tribes for emergency response training for public safety 
        officials through whose jurisdiction shipments of spent nuclear 
        fuel and high-level radioactive waste will be transported; and
  --Preparation of acquisition documents and technical specifications 
        to facilitate issuance of an RFP for acquisition of waste 
        acceptance and transportation services from private industry.
                   program management and integration
    The $71 million that we request will support Nuclear Quality 
Assurance, Regulatory Compliance, Program Control, and Management 
activities.
  --$17 million for Regulatory Compliance related activities that 
        include Nuclear Quality Assurance/Quality Control, the Yucca 
        Mountain Environmental Impact Statement, and independent 
        technical validation and verification;
  --$18 million for Program Control that includes planning, program 
        management and control functions, Total System Life Cycle Cost 
        Report and Fee Adequacy Report preparation, systems engineering 
        and integration; and
  --$36 million for Management functions that include federal salaries, 
        information technology applications, audits, records 
        management, and public information.
    As noted, the budget request of $71 million supports the 
fundamental base program, which support crosscutting programmatic 
activities such as strategic and contingency planning; program 
monitoring and control; quality assurance; technical oversight, systems 
integration; regulatory compliance and integration; human resources and 
administration; information resource management; and federal salaries.
    Nuclear Quality Assurance.--Our Nuclear Quality Assurance 
activities ensure the adequate and appropriate implementation of 
federally-mandated Nuclear Quality Assurance requirements related to 
radiological health and safety and waste isolation. In fiscal year 
2000, we will conduct audits and surveillances on activities performed 
by the Yucca Mountain Site Characterization Project and the Waste 
Acceptance, Storage, and Transportation Program; provide support for 
the disposition of the Department's nuclear materials (including naval 
nuclear spent fuel); and continue to document our compliance with 
quality assurance requirements. These activities will support the 
development and eventual licensing of nuclear waste storage and 
disposal facilities.
    Regulatory Compliance.--The Program's Regulatory Compliance 
activities focus on ensuring that the activities leading to the 
implementation of the waste management system are consistent with the 
regulatory guidance and provisions of the Program's governing 
authorities. In fiscal year 2000, we will continue to interact on a 
proactive basis with the Nuclear Regulatory Commission and the Nuclear 
Waste Technical Review Board to address key technical issues. We will 
continue to transition our focus from the issue of how individual 
features of the site perform in isolation, toward the goal of achieving 
a common understanding of the issues important to overall repository 
performance and the adequacy of proposed methodologies and approaches 
to resolution of important technical issues.
    These activities are critical to the success of the overall program 
as they directly affect the Commission's licensing process. We intend 
to continue our dialogue with the Commission on these issues. Following 
the issuance of the Viability Assessment, we will continue to engage in 
more frequent interactions to address key technical issues.
    Program Control/Systems Engineering.--The overall objective of our 
systems integration effort is to ensure that the various components of 
the federal waste management system (such as transportation services 
and procurement activities, and repository and waste package design 
activities) are integrated into a single system that is safe, 
efficient, reliable, and cost-effective. In fiscal year 2000 we will 
ensure that those integration requirements between the various 
components of the waste management system will be adequately addressed 
and, if necessary, alternative system designs and proposals will be 
evaluated with careful attention paid to their effects on system 
operations and costs. We have just completed a Total System Life Cycle 
Cost Report and Fee Adequacy Report and we will work within the 
Department to address a wide range of issues associated with the 
acceptance of Department-owned spent nuclear fuel, high-level 
radioactive waste, and Naval nuclear spent fuel.
    Program Management.--The program is continuing to implement the 
Civilian Radioactive Waste Management Strategic System Management 
Policy. The policy clarifies accountability, responsibility, and 
authority. It codifies management policies and requirements. Further, 
it provides for a performance-based approach that promotes 
accountability across federal and contractor organizations. The 
implementation will focus management attention on the identification 
and consolidation of overlapping, duplicative, and redundant management 
system requirements, processes, and practices necessary to manage the 
program.
    We will continue to use our information management technology to 
improve the productivity of the Program's human resources, drive 
process improvements, and reduce overall program costs. We are also 
responding to increased demand from Program stakeholders and the public 
for easy and timely access to a wide range of information about the 
Program. As an example, we made available, through our Internet Home 
Page, the Viability Assessment, its companion documents, and all 
relevant technical studies/analyses supporting the Viability 
Assessment. Interest in these documents has been high. We have received 
comments or requests for additional information related to the 
Viability Assessment via e-mail from as far away as Australia, Germany, 
and the Philippines. Internet access will also be provided to program 
documents supporting the Site Recommendation and License Application. 
We expect even greater demands for information systems, support, and 
services as we move to licensing.
                           concluding remarks
    As I noted in my opening remarks, we have made substantial progress 
in the last year and we are appropriately positioned to continue. The 
Viability Assessment, as you know, found that there were no ``show 
stoppers'' with respect to the site at Yucca Mountain. It laid out the 
path forward for the Program. It identified the necessary remaining 
scientific and technical work we have to complete and it laid out the 
funding profile we require.
    We are almost at the end of site characterization. Funding at our 
request level will give us the resources required to address the last 
remaining questions about the suitability of Yucca Mountain on the 
schedule we have laid out. If the site if found suitable, the Secretary 
will be in a position then to make a decision about recommending the 
site to the President for development as the Nation's repository for 
spent nuclear fuel and high-level radioactive waste.
    I urge your favorable consideration of our appropriation request.
    Thank you. I would be pleased to answer any questions you may have.

    Fiscal Year 1998-Fiscal Year 1999 Major Program Accomplishments

                             yucca mountain
    During the past year, the Program focused its efforts on the 
transition from conducting scientific investigations to data synthesis, 
model validation, repository and waste package design, and safety 
analysis necessary to develop the Site Recommendation Report, and 
License Application. Specifically, we focused on: (1) completing the 
Viability Assessment and; (2) completing design and scientific and 
performance assessment models to support development of the draft 
Environmental Impact Statement.
    During the balance of fiscal year 1999, we will see the completion 
of several activities and continuation of longer-term efforts. Our 
major emphasis will continue to be on implementing the Viability 
Assessment Volume 4, License Application Plan and Costs to guide 
technical work that will address the remaining uncertainties in support 
of a site suitability determination, Site Recommendation Report and 
License Application.
    Emphasis will be on completing those activities and analyses that 
contribute to developing the Site Recommendation Report and drafting 
the License Application. These activities and analyses are grouped into 
the broad categories of Core Science, Design and Engineering, 
Suitability/Licensing, Performance Assessment, NEPA, Operations and 
Construction, and the supporting category of Project Management. Each 
of these categories plays an important role in assembling a 
comprehensive picture of the viability of a repository at the Yucca 
Mountain site.
    The Viability Assessment.--The Viability Assessment, completed on 
schedule in fiscal year 1998, was submitted to the President and 
Congress on December 18, 1998. Even before it was released, it was used 
as a management tool to focus future work needed to support the 
decision on a site recommendation.
    Core Science.--The majority of the surface-based testing needed for 
licensing has been completed. With completion of the Cross-Drift in the 
Exploratory Studies Facility, the focus of underground work will shift 
to investigations of the Solitario Canyon fault and to hydrologic and 
thermal studies of the upper and lower portions of the repository rock 
unit. Testing in the cross drift will provide additional insight into 
fracture patterns, potential faults, distinct rock layers, and 
hydrologic characteristics of the repository, and the Solitario Canyon 
fault. This testing will further reduce uncertainties about the site 
and help us better understand processes that are critical to site 
suitability and repository construction.
    Two additional boreholes (SD-6 and WT-24), to the west and north, 
respectively, of the proposed repository block are providing 
information on rock properties, deep stratigraphy, and the saturated 
zone to support three-dimensional geologic and hydrologic modeling 
efforts.
    Three tests using electric heaters to simulate heat generated by 
radioactive decay of the emplaced waste were designed to yield 
important information on how heat affects rock chemistry, rock 
mechanics, and site hydrology--and thus repository performance. The 
first study, a large-scale underground test, used a single heater to 
heat a 25-cubic-meter volume of rock to 212 degrees Fahrenheit (100 
degrees Celsius). The second study involved heating a large, discrete, 
aboveground block of rock that permitted us to more closely control and 
monitor test parameters. The third study approximates an actual waste 
emplacement drift--an underground alcove about 50 meters long--will be 
heated over several years 392 degrees Fahrenheit (200 degrees Celsius).
    In mid-fiscal year 1998, a controlled experiment was initiated to 
determine the infiltration rate and travel time through the Tiva Canyon 
welded tuff. The test involved a surface infiltration network and a 
collection system located in Exploratory Studies Facility Alcove 1 
directly below the surface infiltration plot. Monitoring of this 
experiment is planned to determine the relationship between 
infiltration and drift seepage.
    The drift seepage testing program was expanded during fiscal year 
1998 and 1999. Pre- and post-excavation air permeability tests were 
completed at two niches in the Exploratory Studies Facility. 
Concurrently, 40 liquid-release tests were performed in 16 test 
intervals to determine the drift seepage threshold flux, which is 
defined as the liquid-release rate at or below the level where water 
will no longer seep into the drift. These experiments directly feed the 
unsaturated zone, drift seepage, and near field models, and are a 
critical input to performance assessment simulations.
    Matrix and fault flow tests are underway in the Paintbrush Tuff 
exposed in Exploratory Studies Facility Alcove 4 to determine how the 
presence of a structural break, such as a fault, affects the movement 
of water in this medium. Similarly, pneumatic and liquid-release 
testing of the densely welded repository unit has been conducted in 
support of the Alcove 6 fracture-matrix interaction experiment. Results 
from these two experiments will be incorporated into the unsaturated 
zone process model and used in the performance assessment.
    Hydraulic and transport testing using conservative and reactive 
tracers has been completed in the Prow Pass hydrogeologic unit at the 
C-Hole complex. Test results from this low-flow zone near the water 
table are important because any radionuclides released from a breached 
waste package would first encounter this hydrogeologic unit.
    Sample collection and analysis of the oxidation-reduction potential 
of saturated zone were performed for boreholes WT-17 and WT-3 south and 
east of Yucca Mountain. Measurement of this parameter is important to 
performance assessment because reducing conditions in the saturated 
zone can render radionuclides immobile due to strong sorption 
potential.
    During the remainder of fiscal year 1999, we will continue 
documenting our present understanding of the geologic conditions and 
processes at Yucca Mountain, and completing models of geologic and 
hydrologic processes in the saturated and unsaturated zones, sufficient 
to support the Site Recommendation Report and working draft License 
Application. We will continue with the four-year heat-up phase of the 
drift-scale heater test. We will continue to collect meteorological, 
and other environmental data to support the Environmental Impact 
Statement, Site Recommendation Report, and the License Application.
    Nye County is drilling a network of boreholes to be used to monitor 
the movement of groundwater south of the proposed repository, off the 
Nevada Test Site. They are establishing the conditions that exist 
before repository construction and will use the network as an Early 
Warning Monitoring System. We are coordinating with Nye County to 
obtain water measurements and water and rock samples from their 
drilling program. Cooperative planning has produced a program of 
scientific activities that complement the Nye County objectives. We 
will conduct chemistry and isotopic analysis of the water; and 
paleohydrologic, Eh and redox potential, rare earth and trace element 
analysis; and geophysical log interpretations.
    We implemented a cooperative agreement with the University and 
Community College System of Nevada to perform scientific and 
engineering research, and develop and foster collaborative working 
relationships between the government and academic researchers.
    Design and Engineering.--We continued to develop and refine 
repository design requirements. To this end, several analyses to 
substantiate or resolve assumptions related to requirements and 
criteria were completed or revised.
    A study of design features and design alternatives that will be a 
basis for selecting the License Application reference design will be 
completed. Features are design enhancements that can be easily 
incorporated within multiple alternative designs. Alternatives involve 
significant changes to the fundamental design concepts on which the 
Viability Assessment was based. Each has the potential for improving 
repository performance, simplifying the safety strategy, or both.
    The waste package nondestructive examination and weld development 
program proceeded with demonstrations of remote welding and successful 
nondestructive examinations. A full-diameter mockup of the waste 
package made from alloy C-22 and carbon steel (VA Design) was achieved 
by shrink-fitting the carbonated barrier around the alloy C-22. 
Ultrasonic inspection revealed 100 percent contact between the two 
surfaces.
    Corrosion testing of candidate waste package materials continued. 
Additional specimens were acquired and installed for exposure in the 
large chambers maintained under controlled temperatures and humidity 
levels. The Project initiated an experimental study for measuring the 
composition of the ionic salts as they concentrate on heated metal 
surfaces. Testing started on alloy C-22 and titanium specimens under 
controlled slow-strain rates. Revision 1, Version 1.3, of the Waste 
Form Characteristics Report was completed. This report describes 
preliminary degradation process models for use in the site 
recommendation and license application performance assessments. The 
update for the Engineered Materials Characterization Report was also 
completed. This report documents all of the test results and 
performance models generated in the past two years.
    For the remainder of fiscal year 1999, design and engineering 
activities will include the coordination and planning of waste package 
and repository surface and subsurface designs; the design and 
acquisition of services and equipment for the Cross-Drift in the 
Exploratory Studies Facility; preparation and maintenance of design 
requirements and design control documents; performance testing; and 
development of modeling programs for waste forms and waste packages.
    Suitability/Licensing.--Our investigations of the Yucca Mountain 
Site have resulted in a substantial understanding of the site, a 
preliminary reference repository design, and assessments of the 
performance of a repository system. However, additional work is needed 
to complete the postclosure safety case, support the preclosure safety 
case and support remaining design decisions. The primary focus in 
fiscal year 1999 and fiscal year 2000 is to compile the technical 
documentation that will support the Site Recommendation Report.
    We significantly refined our analysis for a repository safety 
strategy. The strategy relies on engineered barriers, geologic 
features, and natural processes to retard movement and prevent releases 
of radionuclides to the natural environment and to reduce exposure to 
the public.
    We completed management plans for both the Site Recommendation 
Report and License Application. Our focus for the remainder of fiscal 
year 1999 will be to complete development of the working draft License 
Application and start a comprehensive review of the draft. We will also 
develop a draft of the Site Recommendation Report that will be 
available for public review at the consideration hearings. Those 
hearings are planned for early fiscal year 2001.
    Interactions with the Nuclear Regulatory Commission staff will 
continue to focus on two objectives. The first is to reach a common 
understanding regarding the issues that are significant to overall 
repository performance. The second objective is to reach agreement on 
the adequacy of proposed methodologies and approaches to address 
important technical issues, such as criticality control and seismic 
design. The goal is to reach a mutual understanding of a repository 
concept as it develops. This understanding will provide bases for 
Nuclear Regulatory Commission preliminary comments on the sufficiency 
of site characterization and design information for inclusion in a 
License Application.
    Performance Assessment.--During fiscal year 1998, we completed 
development of the Total System Performance Assessment for the 
Viability Assessment's (TSPA-VA) supporting technical volume ``Total 
System Performance Assessment-Viability Assessment Analysis Technical 
Basis Document.'' Site characterization data, design information, 
process level modeling results, and opinions elicited from various 
experts provided the basis for abstracted component models used in 
TSPA-VA. The second and third interim reports from the Performance 
Assessment Peer Review Panel were issued in fiscal year 1999. 
Recommendations from this panel and those from external organizations 
(e.g., the Nuclear Waste Technical Review Board and the Nuclear 
Regulatory Commission) were factored into the development of the TSPA-
VA model.
    The TSPA-VA model is being used in fiscal year 1999 as one of the 
tools to evaluate various design alternatives and options currently 
under consideration. The TSPA-VA model is also being used during the 
remainder of fiscal year 1999 to support development of the draft 
Environmental Impact Statement. Concurrent with this, activities are 
underway to begin refining the abstracted total system performance 
assessment component models that will be used to support the final 
Environmental Impact Statement, Site Recommendation Report, and License 
Application. We have begun to hold a series of workshops where open 
issues are identified, discussed, and prioritized. Specific work 
activities will be defined based on the outcome of these workshops to 
ensure that the issues are addressed in future performance assessment 
analyses.
    Following completion of these workshops, refinement of the total 
system performance assessment abstracted models will commence. The 
Performance Assessment Peer Review Panel issued its final report in 
February of 1999. Their recommendations and those of the Nuclear 
Regulatory Commission, Nuclear Waste Technical Review Board, and other 
external groups will be used in the development of refined total system 
performance assessment models. The methodology and assumptions that 
will be used in future total system performance assessment iterations 
will be documented in a report to be issued in July 1999.
    NEPA.--In fiscal year 1998, in compliance with the National 
Environmental Policy Act, we began to prepare the draft Environmental 
Impact Statement. A management council, which includes representatives 
of the Office of Environmental Management, the Office of Environment, 
Safety and Health, and the Office of General Counsel, is helping us 
provide guidance for developing the draft Environmental Impact 
Statement ensuring coordination within the Department of Energy. A 
preliminary draft Environmental Impact Statement is undergoing 
Departmental review.
    In fiscal year 1999, we will complete and issue the draft 
Environmental Impact Statement and hold hearings across the nation to 
receive public comments.
    Operations and Construction.--In fiscal year 1998, the Busted Butte 
test facility construction was completed. This facility will enable 
scientists to conduct field-scale observations of the Calico Hills 
formation. This is the same rock stratum that is located below the 
repository.
    Also, in early fiscal year 1999, we completed the excavation of the 
Cross-Drift in the Exploratory Studies Facility. This drift will give 
us access to more of the area near the location where waste might be 
emplaced.
    In fiscal year 1999, we will continue to support the operation and 
maintenance of the Exploratory Studies Facility, including test set up 
and training, alcove modification, maintenance and upgrades to 
ventilation, electric, and other utility systems, security, and the 
protection of health, safety, and the environment. We recently 
completed transition to the Integrated Safety Management System. The 
Exploratory Studies Facility continues to be monitored for occupational 
health compliance with ventilation and air quality requirements for 
dust abatement and silica exposure mitigation.
             waste acceptance, storage, and transportation
    In the Waste Acceptance area, we performed fee verification for 
commercial spent nuclear fuel; interacted with other Departmental 
offices, the Nuclear Regulatory Commission, utilities, and others 
concerning nuclear materials safeguards.
    A non-site specific centralized interim storage facility Topical 
Safety Analysis Report was completed and submitted to the Nuclear 
Regulatory Commission in fiscal year 1998. That report is currently 
under staff review. We have continued interactions with the Commission 
staff during the review process. A cold demonstration program of a 
prototype spent fuel dry transfer system was initiated in June 1998. 
This demonstration program is sponsored jointly by the Office of 
Civilian Radioactive Waste Management and the Office of Environmental 
Management with industry participation. This system can be used by 
nuclear utilities with reactors that have limited crane capacities and 
are incapable of handling large storage casks. And, we continue to 
maintain and update our data base on industry development of storage 
and transportation technologies. We continued interaction with the 
Nuclear Regulatory Commission regarding review of the dry transfer 
system topical safety analysis report that had been submitted 
previously for Commission consideration.
    The Program issued a revised draft RFP to obtain additional 
comments on the planned acquisition of waste acceptance and 
transportation services, including canisters, transport casks, and 
storage modules. The RFP, to address the public/industry comments, was 
updated and a notice of availability was published in the Federal 
Register in September 1998.
    In recognition of our obligations under Section 180(c) of the 
Nuclear Waste Policy Act of 1982, as amended, which provides for 
financial and technical assistance to States and Indian Tribes through 
whose jurisdictions the Department plans to ship spent nuclear fuel, 
the Program issued, in April 1998, a Notice of Revised Proposed Policy 
and Procedures in the Federal Register. The Notice reflected our 
consideration of input from the States, local public safety officials 
and other interested parties on the proposed implementation procedures. 
In fiscal year 1998, we also continued to provide funds through 
cooperative agreements to national and regional groups to address 
transportation related issues.
                   program management and integration
    Over the past year the Program Management and Integration area 
continued to support the activities of the two Business Centers--the 
Yucca Mountain Site Characterization Office and the Office of Waste 
Acceptance, Storage, and Transportation.
    Nuclear Quality Assurance.--The Office of Quality Assurance 
completed the transition and consolidation of the Program's quality 
assurance activities in fiscal year 1998. This resulted in more 
effective execution of quality assurance activities and provided cost 
reductions in implementation. The Office of Quality Assurance supported 
the development of the Viability Assessment in fiscal year 1998, and is 
providing assistance to Site Recommendation Report activities in fiscal 
year 1999. The Office of Quality Assurance is continuing to support the 
Civilian Radioactive Waste Management System Management and Operating 
contractor staff in fiscal year 1999 in the Process Validation and Re-
engineering efforts, which will result in procedural enhancements and 
consolidation. The Office of Quality Assurance continues to provide 
quality assurance guidance for the Yucca Mountain Site Characterization 
Project and the Office of Waste Acceptance, Storage and Transportation.
    Program Control/Systems Engineering.--We provided program- and 
project-level systems engineering and integration support for the 
ongoing Yucca Mountain site characterization, waste package, and 
repository design activities and the waste acceptance, storage, and 
transportation efforts. We implemented the Interface Management Process 
to allow the Yucca Mountain Site Characterization Office and the Office 
of Waste Acceptance, Storage and Transportation and their design and 
procurement contractors to effectively control system-level design 
interfaces. We worked extensively with Departmental elements 
responsible for the government's spent fuel and high-level radioactive 
waste to develop waste acceptance criteria that are compatible with the 
radioactive waste management system design requirements. We defined 
roles and responsibilities concerning the acceptance of Department-
owned spent nuclear fuel and high-level radioactive waste and we 
completed Memoranda of Agreements with Office of Environmental 
Management and the Naval Nuclear Propulsion Program. We incorporated 
immobilized plutonium waste forms into the technical baseline.
    We coordinated and integrated the Program's activities with other 
Departmental elements regarding the Department's spent nuclear fuel and 
high-level radioactive waste. We continued to develop and implement an 
integrated schedule for the Monitored Geologic Repository system, the 
Office of Environmental Management, and the Office of Fissile Materials 
Disposition.
    We continued to conduct systems engineering studies and analyses 
and completed a number of studies, including the effects of early 
receipt of spent nuclear fuel on the program; impacts of early reactor 
shutdown, options for the disposal of site-generated wastes; dual 
purpose canister disposability benefit analyses; and the impacts of all 
legal-weight truck transportation. We completed work on analyses for 
the Total System Life Cycle Cost Report as well as the Fee Adequacy 
Report. Those reports were issued as companion documents to the 
Viability Assessment. We completed Revision 1 of the Civilian 
Radioactive Waste Management Total System Description of the waste 
management system as currently envisioned. We have also been actively 
working on developing a cooperative agreement with the Russian 
Federation to work together on geologic repository issues.
    Regulatory Compliance.--We continued to interact regularly with the 
Nuclear Regulatory Commission staff and Commissioners to address 
management and technical issues (e.g., quality assurance, total system 
performance assessment, repository and waste package design) and 
participated in numerous Nuclear Waste Technical Review Board and panel 
meetings. We renegotiated the prelicensing agreement that provides 
guidelines for communications between the staffs and management 
organizations of the Department and the Nuclear Regulatory Commission. 
We supported interagency discussions on the development of the 
Environmental Protection Agency radiation protection standard for Yucca 
Mountain. In addition, we coordinated and integrated program-related 
National Environmental Policy Act, environmental, safety, and health 
activities to ensure compliance with Federal and State requirements and 
Departmental directives.
    Program Management.--We issued Revision 2 of the OCRWM Program Plan 
in July 1998. Revision 2 essentially continues the thrust of the draft 
1996 revised plan, and identifies strategic objectives for fiscal year 
1998--fiscal year 2003, states the assumptions that the plan rests on, 
defines measures of success, and provides for contingency planning. It 
is intended to serve not only as the foundation of program management, 
but as a common framework that all parties can use to evaluate our 
progress and shape their own participation in the Program.
    We continued the development and implementation of a program wide 
information architecture to provide the foundation for the definition, 
development, organization, and management of, and access to, all 
program data, records, and information systems. Regarding our external 
communications, we continued to use our World Wide Web presence to 
distribute a variety of program information to interested stakeholders. 
Our address is http://www.rw.doe.gov/
    Many of the Program's policy and technical documents, including the 
Viability Assessment and all of its relevant companion and supporting 
documents, are available to the public through our electronic 
databases.
    During fiscal year 1998, we continued our Y2K compliance efforts by 
initiating the assessment and testing of all software applications. We 
validated for Y2K compliance and implemented all mission-critical 
systems ahead of the Department's stretch goal of January 31,1999. 
Assessment of non-mission critical systems is in progress, and we 
expect to validate and implement all non-mission critical systems later 
in fiscal year 1999.

                     yucca mountain water migration

    Senator Domenici. Senator Reid, do you have any questions?
    Senator Reid. Yes, Mr. Chairman.
    Mr. Barrett, I have some questions, but because of the 
press of the time of the committee and my time, if you would 
just respond yes or no, that would be appreciated.
    I understand that water poses a risk to long-term 
containment of spent nuclear fuel and other high-level 
radioactive waste. Do you agree?
    Mr. Barrett. Yes.
    Senator Reid. I also understand that early on in the Yucca 
Mountain project it was thought that it would take more than 
1,000 years for surface water to penetrate to repository 
depths, is that right?
    Mr. Barrett. Some theories say that.
    Senator Reid. If no, then how long would those that 
disagree say it would take?
    Mr. Barrett. It is a physical distribution of how the water 
moves, so it is a complex issue. Some of the water can move 
very fast, but the majority of the water moves very slowly.
    Senator Reid. Okay. Do you agree that scientific evidence 
now exists that proves that surface water penetrated to 
repository depths in about 40 years?
    Mr. Barrett. We have indication that some water has.
    Senator Reid. Please, yes or no.
    Mr. Barrett. Yes.
    Senator Reid. Mr. Barrett, I understand that the water 
moves so rapidly to the repository depths, because of what is 
called high-speed pathways, is that correct?
    Mr. Barrett. I have never heard the words high-speed 
pathways.

                             rock fractures

    Senator Reid. Okay. Would you say they are just cracks in 
the rocks then?
    Mr. Barrett. There are natural fractures in all rock, 
including Yucca Mountain, and there are analyses that say water 
has been present in some of those fractures in the last 50 
years.
    Senator Reid. The question is: Why is the rock cracked, and 
what are possible things that could generate cracks in massive 
rock formations?
    Here is the question: Earthquakes are thought to generate 
massive deep fissures in the ground, and I suppose then that it 
is possible that earthquakes could generate cracks in the rock 
around Yucca Mountain. Would you agree to this supposition?
    Mr. Barrett. Most of the cracks----
    Senator Reid. Can you answer that yes or no?
    Mr. Barrett. I cannot, sir.
    Senator Reid. Okay. You cannot. Then you would disagree 
with my supposition that earthquakes generate cracks in rocks 
around Yucca Mountain.
    Mr. Barrett. No, I do not disagree with that.
    Senator Reid. Okay. You are aware that there is evidence 
that the earth around Yucca Mountain is stretching and that the 
program there is funding further study of this area, is that 
true?
    Mr. Barrett. That is true.
    Senator Reid. Could stretching like this also generate 
cracks in the rock around Yucca Mountain?
    Mr. Barrett. Yes.
    Senator Reid. Is it true that earthquakes are normally 
proceeded by stretching and distortion of the earth?
    Mr. Barrett. Yes.

                           earthquake threats

    Senator Reid. Because the Yucca Mountain region experiences 
the third highest frequency of earthquakes in the United 
States, I suppose that it is not surprising to see that 
significant stretching and distortion of the earth is there, 
would you agree, yes or no?
    Mr. Barrett. I cannot. There is some. It is a relative 
thing. Yes, there is stretching at Yucca Mountain----
    Senator Reid. Okay. That is the question.
    Mr. Barrett [continuing]. But we do not believe that 
stretching is causing any of the fractures that have to do with 
the water infiltration.
    Senator Reid. That is your opinion.
    Mr. Barrett. Yes, sir.
    Senator Reid. Okay. So we have agreed on a number of things 
here this morning. What I cannot understand, and what I believe 
you should not tolerate, is the dismissal of the threat of 
earthquakes to the performance of the repository. Water is the 
worst threat to containment.
    It is reaching repository depths many times faster than 
expected, because of cracks in the rock. There may be some 
dispute as to how the cracks got there, but everyone 
acknowledges that water is getting there quicker and quicker.
    Earthquakes and their associated distortion can proliferate 
these cracks, leading to greater amounts of water reaching the 
repository faster. So I would say that the cracks, however they 
get there, would pose a threat to the repository performance, 
is this true or false?
    Mr. Barrett. The way that question was put together, I 
would say that is false.
    Senator Reid. Okay. Can you extend this argument to the 
rate at which uncontained radioactivity reaches the 
groundwater?
    Mr. Barrett. Could you say that again?
    Senator Reid. Yes. If there is an argument that the water 
can reach where the containment is, would you agree that 
radioactivity would follow the path of water?
    Mr. Barrett. Radioactivity will go with the water. There 
are different layers from the surface to the Yucca Mountain 
repository horizon and from that the horizon down to the 
saturated zone below it. There are different scenarios.
    Senator Reid. Thank you, Mr. Chairman.
    Senator Domenici. It seems to me, since I have 20 minutes 
before I have to leave, that I can still yield to you for a 
couple of questions.
    Senator Campbell.

                    storage of waste at rocky flats

    Senator Campbell. Thank you, Mr. Chairman. In my opening 
statement I did mention this rumor I had heard that DOE was 
talking about putting temporary tent storage at Rocky Flats, 
and I appreciated Mr. Owendoff's commitment that we are going 
to finish that up and get it cleaned up by 2006. We have kind 
of pushed that date back a few times, as you know.
    But I also mentioned that our communities are just going to 
rebel at that thought of temporary storage, and I wanted to 
tell you that my reaction will also be somewhat near nuclear. I 
would like your comment on that, if that is true or not, that 
they intend to store any hazardous or radioactive material in 
tents.
    Mr. Owendoff. Senator Campbell, I think your concern and 
your angst are also shared by Secretary Richardson, which he 
has testified on----
    Senator Campbell. He will be testifying before another 
committee this afternoon, Interior Appropriations, and I will--
--
    Mr. Owendoff. So you will hear firsthand----
    Senator Campbell. You bet.

                     plutonium oxide stabilization

    Mr. Owendoff [continuing]. Senator. We are in a box. We 
believe that it is necessary to continue the stabilization of 
the plutonium oxides that are at Rocky Flats. An option for us 
is to not stabilize those oxides that ultimately will go down 
to WIPP.
    So the approach that we are taking is, we want to continue 
the progress on stabilizing those oxides and putting them in 
containers. These are very robust containers that are used to 
transport waste to WIPP. Then what we are looking at are 
options that, if for some reason WIPP does not open in a timely 
fashion this year, that we will have places to put those 
containers.
    Now, one option that we are looking at is putting those 
containers in an existing facility. If we put them in an 
existing facility, then that would delay when we would be able 
to decontaminate and demolish that existing facility.
    Another option would be some temporary storage--I know they 
are referred to as tents, but they are not like the tents my 
boy is in over in Saudi Arabia right now. They are fabric 
structures, with a concrete or paved floor in them.
    We believe that can be an appropriate option, at a very, 
very low-dollar cost. We realize, though, that the message that 
that can send is that we are temporarily storing the waste, but 
it is not concrete structures or long-term storage. In the 
balance, though, Senator, we believe that is an appropriate 
approach.

                   additional workload at rocky flats

    Senator Campbell. Well then, I just have to tell you, Mr. 
Chairman, as a member of this committee or the full committee, 
I intend to try and put language in our appropriations bill 
that prevents that from being stored in anything that I would 
describe as a tent or temporary storage.
    Let me also ask you this, if we are committed to trying to 
get that cleaned up by 2006, why are we adding more work to it? 
It is my understanding that the Department has asked Savannah 
River, as an example, to develop plutonium canisters, and now 
Rocky Flats has been told that they will have to do that.
    If we are going to close it up by 2006, why are we adding 
to the workload, which would tend to push the closure back 
further?
    Mr. Owendoff. I think if we look at the whole picture with 
Rocky Flats, we are asking many of the other sites to accept 
material from Rocky Flats, so we have asked Savannah River to 
accelerate when they would receive these plutonium oxides. 
There are certainly some increased costs that Savannah River 
has experienced as a result.
    Senator Campbell. I know very simply this, that you are 
going to add to the workload. Can we get a commitment that it 
is not going to add to the time frame by which it will be 
closed?
    Mr. Owendoff. That is our commitment, Senator, and what my 
disappointment is, whatever information that your staff may 
have gotten from the contractor was, that they did not relate 
to you the reductions in cost that we have been achieving. So 
all you have been seeing is more and more, but we have been 
receiving significant reductions in costs, which we are going 
to continue some $70 million----
    Senator Campbell. Well, it is not only the money, I am 
concerned about time frame, too.
    Mr. Owendoff. I am going out this evening, Senator 
Campbell, to Rocky Flats to talk about this.

                           transuranic waste

    Senator Campbell. All right. One last question, do you 
agree with New Mexico, there is one type of waste called 
transuranic waste, and it is my understanding that we have 
asked for--the President's budget is a pretty healthy 
commitment, but there is only one place where that waste is 
developed, and that happens to be at Rocky Flats, and there are 
different kinds, some radioactive, some not hazardous, and so 
on, that will eventually go to WIPP, but does that mean that 
there will be any additional parts of that monies that will be 
going to Rocky Flats, since that is the only place where this 
stuff called TRU is developed?
    Mr. Owendoff. Senator, Rocky is not the only place that 
has----
    Senator Campbell. Oh, it is not.
    Mr. Owendoff [continuing]. TRU waste. Los Alamos, Savannah 
River, Hanford, Oak Ridge have TRU waste.

                            lawsuit at wipp

    Senator Campbell. Well, that takes care of that question. 
The last thing is that in the State of New Mexico we have this 
ongoing lawsuit. What is your agency doing to try and help the 
state resolve the outstanding problem so it can be opened?
    Mr. Owendoff. Well, the key date is next Tuesday, when 
Judge Penn here in the District Court is going to rule on the 
injunction, and I believe at that time we will have a clearer 
picture, Senator.
    Senator Campbell. Okay. Thank you, Mr. Chairman, I 
appreciate you allowing me to ask those questions.
    Senator Domenici. Thank you. Senators Murray and Craig, 
could I just impose on you? I have not asked any questions yet, 
and I must go up to the sixth floor and finish the budget 
markup in 15 minutes.
    I would like to ask a few questions, and then if one of you 
want to stay beyond that for your questions, you are free to do 
that.
    Senator Craig, of course, you are on the committee. It 
would be good if you could maintain the committee functioning 
for a while. Senator Murray has to leave when I leave, right?
    Senator Murray. Yes.
    Senator Domenici. So why don't you take a minute or two 
right now. You said you needed two.

                          hanford site budget

    Senator Murray. Just a couple of quick questions, Mr. 
Chairman. Thank you.
    Obviously, the Hanford budget is critical for those of us 
in Washington State, and I was pleased to see the President's 
budget with an additional $100 million. I hope this committee 
can support it. Mr. Owendoff, can you just quickly tell us what 
that additional funding will be for?
    Mr. Owendoff. Yes, ma'am. The portion of that additional 
money going to Hanford will be used to support tank waste 
operations, the Plutonium Finishing Plant operations, and work 
at K Basins.

              tank waste remediation system privatization

    Senator Murray. Now, let me ask you about the TWRS, or the 
tank waste remediation system privatization request. This is 
something I have worked hard on, and Congress has been 
reluctant in the past to fully fund that. Can you tell us what 
will happen if Congress does not fund that?
    Mr. Owendoff. There are two things, Senator Murray. One is 
the $106 million for the 2000 budget request, and the other is 
the funds that we are requesting for the advanced 
appropriation.
    The reason that we are requesting advanced appropriation is 
we believe that that will add to the confidence of the 
commercial lenders, as we go through the next 24 months of 
developing the design and the financing package for TWRS. This 
will give confidence to the lenders that we are serious about 
this project and in support of this project.
    As you well know, in the past our record has been somewhat 
spotty as far as large projects having support, continued 
support, so we use this as a method to get that continued 
support and drive down those costs.

                          hanford site manager

    Senator Murray. Thank you. Finally, we have to get an 
experienced innovative site manager at Hanford. Can you tell me 
when the Department is going to appoint somebody?
    Mr. Owendoff. The Secretary indicated that it was his goal 
to try to get a manager by the end of this month for Hanford. I 
know that is difficult and challenging, but that is----
    Senator Murray. We are waiting for it. Thank you.
    Mr. Owendoff. Thank you, Senator.
    Senator Domenici. Thank you very much. Well, I have a very, 
very long series of questions. I obviously will not get them 
done, but I will submit them to both of you.
    Senator Reid. Mr. Chairman, because of the time I did not 
ask questions of James Owendoff. I would ask permission to be 
able to submit those in writing to him.
    Senator Domenici. Without objection.

                       estimated cost of cleanup

    Senator Domenici. Maybe 2 weeks to respond, is that fair 
enough for you-all? Okay. What is the current estimate, Mr. 
Owendoff, to clean up the waste generated by nuclear weapons 
activities in the past years, and how long will it take to 
complete the cleanup.
    Mr. Owendoff. Our estimate, based on analysis that came in 
last June, Senator, is $147 billion, and that is our projection 
through year 2070. We will have an update to that this summer, 
where we will update those numbers. The good news of that 
effort that we see, is we go down by each site, project by 
project at each site, and understand the scope and the costs.
    Senator Domenici. How does this estimate, even though you 
are going to update it, how does it compare to previous 
estimates, and what is the reason for the difference, if there 
is one?
    Mr. Owendoff. We have had in the past, where the estimates 
have been $200 billion, $300 billion.
    The difference is that I think we have looked at some 
realistic cleanup goals, what needs to be cleaned up, what 
material needs to be disposed of, and what are those 
technologies that do that. So there is a whole series of things 
that we can certainly share for the record on those.
    [The information follows:]

       Comparison of Cost of DOE Cleanup With Previous Estimates

    In 1995 and 1996, as requested by Congress, the Department 
developed its first estimates of life-cycle cost and schedule for the 
remaining EM cleanup effort. These Baseline Environmental Management 
Reports (BEMRs) described the estimated scope of the EM program. The 
1996 report stated that, as a mid-range estimate, the program would 
cost approximately $230 billion (constant 1996 dollars) spent over a 
70-year period, using certain assumptions about funding levels, 
productivity, and land use in developing the estimate.
    The Accelerating Cleanup: Paths to Closure report issued in June 
1998 reported a life-cycle cost estimate of $147 billion. The $147 
billion life-cycle estimate was adjusted to form the basis of EM's 
portion in the Department's fiscal year 1998 Annual Financial Report 
for fiscal year 1998 estimate, which was determined to be about $145 
billion.
    The primary reasons for the difference between BEMR and Paths to 
Closure can be attributed to the fact that BEMR: (1) included costs for 
both ``legacy'' waste associated with historical nuclear weapons 
production and nuclear related activities, and newly generated wastes; 
(2) included costs for the eventual transfer of DOE facilities not 
currently in the Environmental Management program; and (3) in some 
cases, used different end-state assumptions than Paths to Closure. 
    Paths to Closure addresses a somewhat different scope. For example, 
Paths to Closure includes costs for legacy waste cleanup but not newly 
generated wastes, and excludes costs for any facilities not currently 
in the Environmental Management program. Additionally, Paths to Closure 
reflects improved estimates for a number of projects and improvements 
in efficiency in accomplishing the same or comparable activities, 
thereby lowering total life-cycle costs of the program. In addition, 
$145 billion representing EM's portion of the fiscal year 1998 
environmental liability statement reflects future estimated costs 
starting in fiscal year 1999, while the 1996 BEMR estimates costs 
beginning in fiscal year 1996.

                            level of cleanup

    Senator Domenici. All right. What level of cleanup is 
assumed in the 2006 plan? Is the Department assuming a mid-
level cleanup or maximum cleanup in this plan?
    Mr. Owendoff. Mr. Chairman, we look at each site 
individually. The key is what is the land use. In the case of 
the Mound facility in Ohio, we are looking at industrial 
standards. For the Fernald site in Ohio, it is open space. For 
Rocky Flats, it is also open space. So there is a difference 
between the industrial, open space, versus residential 
standards.
    Senator Domenici. Is there any contention by anyone in 
litigation or at the local level that says that approach is not 
valid?
    Mr. Owendoff. I think we will always see some concern and 
some discussion back and forth on what the appropriate future 
land use should be. Certainly, there are local governments and 
communities that are concerned, just as there are on Superfund 
sites, that if you do not clean them up to background levels, 
that that might encumber the use in the future. But we believe 
there is a reasonable tradeoff that needs to be discussed.
    Senator Domenici. Well, I, for one, want to make my 
observations part of the record at this point. I am convinced 
that we are going to have to do some work on better defining 
the risks of radioactive levels, and that we will not be able 
to meet our cleanup goals if we leave the standards as they 
are.
    They are all based on some linear extraction. There is no 
real research, although we just started now with some real 
research on that aspect of the danger of low-level 
radioactivity. I want you to know we will try to support you 
with reference to its different--the standard could be 
different, if you have industrial sites or if you have open 
space, as compared with residential, otherwise, we are never 
going to get some of these sites cleaned up. We will just sit 
there and spend money forever.

                              fusrap sites

    There is a little known program, it has kind of a funny set 
of letters, F-U-S-R-A-P, FUSRAP. Now, Congress gave the program 
to the Corps of Engineers with an assignment to take on a few 
of these cleanup sites and see if they could make better 
progress than we have been doing. Do you have a report or 
something to tell us about how they are doing?
    Mr. Owendoff. The Corps of Engineers, Mr. Chairman, to my 
understanding, has submitted a report. It has not been our 
task, nor has the Congress asked us to oversee the----
    Senator Domenici. No. I am certainly not asking you to do 
that. You have enough to oversee.
    Mr. Owendoff. In answer to your question, Mr. Chairman, I 
do not.
    Senator Domenici. Okay. I would like the committee to know 
that while this is a small program, it very well might point to 
some approaches where the Corps of Engineers might be able to 
come along, and rather than take as long as the Department of 
Energy takes, for some reason, whatever they are, they seem to 
be making some headway and they are happy with their 
assignment. So, we will get a report from the Corps.
    Mr. Owendoff. Mr. Chairman, if I could just comment just on 
that. As we have seen, certainly on Rocky Flats and the others, 
there is a necessary integration across the complex for 
materials, and to make things happen. FUSRAP was very 
straightforward--get material from one place and dispose of it.
    Senator Domenici. Well, nonetheless, it appears that you 
were not able to get it done as quickly as they have.
    Mr. Owendoff. I think we can demonstrate that we are doing 
that.

                       twrs privatization project

    Senator Domenici. Good. I hope so. I understand that the 
requirement for budget authority for the TWRS privatization 
project increases from $106 million this year, to $600 million 
in 2001, and $660 million in 2002. Am I correct, and if so, 
what will the impact be on the project, if the committee is 
unable to provide the additional budget authority? What options 
do you have?
    Mr. Owendoff. I believe, Mr. Chairman, that we will have a 
limited number of options, because trying to stretch this 
project out is really going to be very difficult. We have had 
to make commitments in the past down at Savannah River in 
building a high-level waste vitrification plant, and I believe 
we need to do the same thing in Hanford.
    Let me state, though, Mr. Chairman, quickly, we are looking 
at a range of alternatives of financing and approaches, so we 
will be coming back to the committee over the next 2 years and 
sharing with you that range. So we are not going to give you 
just one price.

               funding requirements for fiscal year 2001

    Senator Domenici. For all the programs, how much is your 
2001 over baseline assumptions?
    Mr. Owendoff. We do have a significant problem. Those 
estimates will be coming in to us in May, Mr. Chairman, but I 
know we have some challenges in 2001.
    Senator Domenici. So, your funding requirement is going to 
be up substantially, right, is that what you are saying?
    Mr. Owendoff. That is what I am hearing from the field, but 
I do not have dollars. I would normally anticipate that that is 
what the field----
    Senator Domenici. I would very much appreciate it if in 
your response to questions you would try to give us a better 
handle on what that might be.
    Mr. Owendoff. I understand.

                        epa groundwater standard

    Senator Domenici. Let me just ask two questions about Yucca 
Mountain, please. As we understand, there is not just one 
standard you are trying to meet, there is an EPA standard for 
Yucca Mountain, and it includes a separate groundwater 
standard, is that not correct, Mr. Barrett?
    Mr. Barrett. EPA is still developing their standard, and 
they have not yet submitted one for agency review, but they are 
considering including a groundwater standard, as well as an all 
pathway standard.
    Senator Domenici. Well, whether it is final or not, you are 
certainly part of the mix that is looking at what standard they 
are thinking of setting, are you not?
    Mr. Barrett. We would have to demonstrate through science 
and technology that we could meet whatever the legally 
promulgated standard would be, and that would be the EPA 
standard which goes to the Nuclear Regulatory Commission, who 
would then oversee us. So yes, we would have to meet whatever 
it is.
    Senator Domenici. Well, are you participants in trying to 
help decide what the right standard is? Does DOE just sit on 
the sideline and watch that occur?
    Mr. Barrett. No, sir. DOE provides technical information on 
what we know about Yucca Mountain. The EPA will do the 
judgment, as to what should be the appropriate environmental 
safety standard for the country under the statute, but we 
provide scientific information on what science can and cannot 
do.
    Senator Domenici. Mr. Barrett, it seems to me when you were 
testifying, although you were not using a lot of words, because 
the questioner wanted you to be brief, you do not have to be 
quite so brief to me when I ask you a question. How could you 
give the estimates that you were giving of the possible success 
of Yucca when you must admit that whether we could meet the 
standards at all will depend upon what standard the EPA 
determines to be the appropriate standard with reference to 
groundwater. They could set a standard, could they not, that 
would make it impossible for Yucca to proceed?
    Mr. Barrett. That is correct, sir.
    Senator Domenici. From what you hear, they are moving in 
the direction that may very well have that standard, is that 
correct?
    Mr. Barrett. I expect that there will be a range of 
requirements for an EPA standard. Some of those may not be 
achievable, some of those may be achievable.

                       groundwater contamination

    Senator Domenici. Now, whether I like the standard or not, 
it just does not make any difference. They are charged with 
doing it, and that then yields to a very serious question, what 
do your models tell you about when and how much radioactive 
material, whatever the contaminant level is, will reach the 
groundwater under Yucca Mountain, and are these levels of 
concern to you?
    Mr. Barrett. In our viability assessment report, which was 
the reference at the time last year, we had estimates to when 
that would be. We did not expect to see any contamination off-
site at Yucca Mountain for several thousand years.
    Nominally, at 10,000 years we expected to see, based on our 
probabilistic projections, around .1 millirem per year to a 
person who drank the water, had a garden, had cows; essentially 
was exposed to all pathways. We believe that that is not an 
unreasonable exposure to the person, and that is what we had 
there.
    Now, we do not know what the standard is. The standard will 
be duly promulgated, and we will compare the performance of 
Yucca Mountain against that standard, and that will be the 
criteria of----
    Senator Domenici. Could you tell us just quickly, how much 
does that .1 millirem--how do you compare that with what an 
average person gets daily in the United States?
    Mr. Barrett. It is a small fraction of the annual 
background. It is a small percentage, very small.
    Senator Domenici. I am going to leave now, but I would like 
to do this, since Senator Allard has been here so long, I would 
like to--Senator Gorton, did you have some comment you would 
like to make?
    Senator Gorton. Could I ask one very brief question----
    Senator Domenici. Yes.

                          hanford site budget

    Senator Gorton. Mr. Owendoff, the Administration, it seems 
to me, has come up with a much better and realistic Hanford 
budget this year. Our note, however, is that even at over a 
billion dollars it is a relatively modest $23 million short of 
the legal requirements of the Tri-Party Agreement. Is that the 
case, in your view, and if so, how do you propose to keep to 
the legal requirements of that agreement?
    Mr. Owendoff. Senator Gorton, certainly, if one looks at 
what the estimated funding needs are for all the various 
projects, there is some dollar amount on some projects, but I 
think, as you pointed out, when one looks at a billion dollars, 
there are some abilities to defer some things. But these we 
need to discuss with the regulators and the stakeholders, 
because everybody is engaged with the budget.
    So, I think there are some things that are not legally 
required that we could defer to accomplish, legally required 
activities. There's also the ability for us to get some prices, 
some lower prices than what we anticipated, so I think as one 
works through the year, that's where these----
    Senator Gorton. But you are committed to meeting all of the 
legal requirements of that agreement.
    Mr. Owendoff. Yes, Senator.
    Senator Gorton. Okay. That is all I have. Thank you very 
much, Mr. Chairman.

                      waste isolation pilot plant

    Senator Domenici. I would like to make one last comment. I 
note the presence of Senator Craig. He has a genuine interest 
in the status of WIPP, because of transuranic waste that is in 
his state.
    I would just say, we have a governor, he is elected by the 
people, he was elected by a very huge majority last time, and 
he is insisting that the environmental department of the State 
of New Mexico issue a permit before any materials are moved to 
our state.
    In addition, New Mexico cannot proceed any faster when 
there is a temporary injunction placed against them by a court, 
so everyone has their version of what they will not do. 
However, I think the reality is that New Mexico and WIPP may 
not be able to be open, because of one or other of these issues 
that I have just raised, I hope not, and I think that everybody 
will have to sit down and talk sensibly about that in the event 
that that is the case.
    I do believe that we are not far away from an opening date, 
but we have said that before; although, this judge is going to 
decide this coming Tuesday. Senator Craig.
    Senator Craig. Mr. Chairman, I hope we are not far away 
from the opening date. There is another date that is important, 
the legal commitment date created by a court between DOE and 
the State of Idaho to begin to move transuranic waste out of 
Idaho. That date is April 30 of this year, so I will be 
pursuing that question in a few moments. There are time lines 
out there, and the governor of the State of Idaho will act, no 
question about it, if that agreement is violated.
    He will have to act, for all the political reasons that 
Senator Reid, and I, and others become so exorcized about 
nuclear materials. The new governor of Idaho will have to 
respond, so I will pursue that question. There are time lines 
out there. The governor of New Mexico has an obligation to his 
people, but so does the governor of Idaho.
    Senator Domenici. I understand. I do not know that anybody 
is going to violate a Federal district court order, that is all 
I am saying. The judge will decide on Tuesday, and I am very 
hopeful that he decides that we have done everything that we 
were supposed to do. I have every reason, having been briefed, 
that that will happen.
    Senator Craig. Good.

                            rocky flats site

    Senator Domenici. My final comment is, Rocky Flats is doing 
so well. I think it would be interesting for you, if you can, 
to do an absolute analysis of what it is doing better than the 
other sites.
    There are certain characteristics about what is going on 
there that seem to me are not going on in some of the other 
sites, both as to local communities efforts and agreements with 
the states, and also with reference to management and the 
company doing the work. I mean everything seems to be just 
perfect. The match seems very, very good. It is not so 
elsewhere.
    Mr. Owendoff. If I could, just as a second, I think if you 
look at Weldon Springs, in Missouri, Fernald, in Ohio, Mound, 
in Ohio, I think you will see that those are preceding Rocky 
Flats, and we are making progress, they are closing.
    If you look at Weldon Springs, all the buildings are down. 
The pads are gone. The disposal cells should be finished up in 
2 years. Mound will be 2 years behind it. We are using those 
experiences to help us with the integration work at Rocky, so I 
believe we are not just waiting for Rocky to happen all at 
once.
    I think we are demonstrating that we are making progress at 
these sites, as well as making progress at the larger sites, 
like I mentioned at Hanford, taking the projects that were 
costing us $20 million down to $1 million by taking out the 
nuclear materials, getting the cost of the monitoring that is 
required down. So I believe, Mr. Chairman, that we are making 
demonstrable progress.
    Senator Domenici. Thank you. Maybe we can spend a little 
less money if you are being so successful.
    Senator Craig.
    Senator Craig [presiding]. Thank you very much, Mr. 
Chairman.
    I will proceed with the hearing, and in doing so, I will 
turn to my colleague from Colorado, who has waited here 
patiently. Do you wish to make any comments or ask questions 
before I make my comments and follow-up with questions?

                          rocky flats funding

    Senator Allard. I again want to thank the chairman of this 
committee for his support in my efforts to get Rocky Flats 
cleaned up as soon as possible. The target date right now is 
2006. I also want to recognize the efforts of your Secretary 
and my secretary for working to make sure that we have extra 
dollars in there, in this year's budget. I do recognize that. I 
personally thank him for that.
    I realize there are a lot of challenges, and I am heartened 
to hear that there is some optimism about the way the project 
is moving along. But there are a few things that I think I must 
raise just as a concern, because this is a number one priority, 
as far as I am concerned, for Colorado.
    I think it has gone on entirely too long, and I know that 
you do have interests in other states that have similar 
concerns, but my bottom line is that we could sure hold this 
out as an example of how sites could be cleaned up, and I think 
really by doing that could help your program and your 
assurances to other Americans who have similar problems that 
these things can happen.
    I do have a couple of follow-up questions that my 
colleague, Senator Ben Campbell, asked you, and I want to 
recognize his efforts and help also in a public way in helping 
to get Rocky Flats cleared up.

                      additional work requirements

    But recently you suggested that the Rocky Flat site team 
might be crying wolf about the effects of added scope 
requirements on its budget, and you further inferred that Rocky 
Flats failed to acknowledge benefits and/or additional funding 
somehow obtained from other sites, and my colleague, Senator 
Campbell, was coming up to that question and did not quite ask 
it directly like I have. I wonder if you might explain where 
these additional funds came from, and if you could be specific, 
I would appreciate it.
    Mr. Owendoff. Let me just take a step back, Senator Allard, 
if I may. If we look at where we were 3 years ago, we were in a 
situation at Rocky where we did not know where much of the 
spent nuclear materials would go--where the plutonium materials 
that were there would go. There was some general ideas, but we 
did not have a pathway.
    Senator Allard. Yes.
    Mr. Owendoff. It was at that time that we said, within the 
Environmental Management budget, let us take on a man-on-the-
moon goal, what can we do in 10 years for the whole complex, 
not just Rocky. I'll get to Rocky specifically, but we said, 
what can we do across the complex.
    We were very sensitive that both the Congress as well as 
the American people are not going to be satisifed with $6 
billion a year for the next 70 years. That just will not 
happen.
    Now, by taking that goal on we could not demonstrate what 
are all the activities that we are going to have to put in 
place to meet the 2006 goal, just like we did in the man-on-
the-moon program, but we said, if we do not challenge ourselves 
there, then for sure we will never get there. Some of the 
things since then that have taken place are, we have moved 
highly enriched uranium to Oak Ridge, we have moved plutonium 
pits, the useable material, to Pantex, and there will be some 
materials that will be utilized at Los Alamos.
    Also, we have accelerated removal of one material which 
will go to Savannah River to be processed, some of the higher-
grade oxides. In fact, we have even modified an existing 
facility. Instead of waiting for a brand new facility, we 
looked and we modified a current facility for the storage of 
those materials that allowed us to have that acceleration.
    Now, when we looked at Rocky Flats, we said the biggest 
thing that is costing us in the way of, let us say steady-state 
expenses, is the amount that it takes to keep it running as 
well as the safeguards and----
    Senator Allard. Securities.
    Mr. Owendoff [continuing]. Securities. Exactly right. So 
the quicker we can get those down, then the greater savings 
that--I mean more money can go into cleanup, the less money has 
to go into the safeguards and securities.
    By the way, I have a very cooperative working relationship 
with Jesse Roberson and with Bob Carr, so we are not in an 
adversarial relationship. In fact, as I mentioned to Senator 
Campbell, I am going out this evening and will spend all day 
tomorrow at Rocky Flats, and one of the things that we are 
looking at is the contractor, Kaiser Hill, who has submitted a 
baseline for closing Rocky in 2010.
    We know that there are opportunities then to then pull that 
closure date to 2006, and what we want to do is to strategize 
to ensure that there are not other opportunities for us to have 
higher confidence to bring those costs down--and bring that 
project in.
    Senator Allard. So your bottom line is, by facilitating the 
disposal of some of the more radioactive material there earlier 
on, that is where the cost savings comes down----
    Mr. Owendoff. Yes.
    Senator Allard [continuing]. And then consequently, you are 
asking for additional responsibilities for Rocky Flats to 
assume. I think my colleague mentioned the containers. So you 
are saying, well, we have that, we expect to absorb those other 
costs, is that what you are saying?
    Mr. Owendoff. Well, let me state this. The one reason that 
Kaiser Hill requested that they be allowed to have the contract 
to purchase the containers is, they were going to be purchased 
by Savannah River, the receiving site----
    Senator Allard. I see.
    Mr. Owendoff [continuing]. But Kaiser Hill said, we believe 
that is an integral part in the mechanics of our business. When 
would Rocky Flats receive them, would the containers be on 
spec, and things like that. So what they have asked is that 
they be able to take over the procurement responsibility.
    Now, I certainly realize that from a funding standpoint, I 
am the one that has to make some balances across the complex 
and to understand where we are. I believe that we held flat 
funding, our request had been $625 million, as you mentioned. 
It was ``plussed up'' within the Congress.
    Even though we had some small increases, we held to that 
amount, and we had some tough choices across the complex. So we 
believe that by requesting at the higher level in the 2000 
budget request, doing that, that we had provided some increases 
from where our plan was last year.
    Senator Allard. There is some disagreement, I think, 
between Kaiser Hill, maybe, on this, and maybe we can get to 
the bottom of that. We will work on that. We will work with you 
and we will work with them and see just exactly what is 
happening there.

                alternatives for storage at rocky flats

    The scope changes have started eating into some of these 
efficiency savings for some money that would be spent on 
accelerated closure into funding. Scope changes, for example, 
the accelerated demolition of buildings 771 and 779 is being 
put in danger, because money for the demolition of these sites 
is instead of being used for the purchase of the--that is what 
we talked about, was the 997--and the building of the tents 
now. Are you aware of how much money would be saved yearly if 
we could get these buildings down?
    Mr. Owendoff. I do not have in my head, Senator Allard----
    Senator Allard. Does $60 million sound okay to you or close 
to range?
    Mr. Owendoff. Well, that is a lot of things. If we look at 
the construction of facilities, we are talking in the $3 
million to $4 million for potentially additional temporary 
storage, but I think what is key there is, how much would we 
build, what would it look like.
    My preference is that we would continue on with the 
demolition of a facility and not try to use it as temporary 
storage, because I believe that the other alternatives are a 
very cheap way to go. The fabric structures are very cheap, 
Senator.

              costs associated with delay in opening wipp

    Senator Allard. Could you tell me the hidden costs of WIPP 
not opening on time, as they would apply to Rocky Flats?
    Mr. Owendoff. We are working on what those costs are. I do 
not believe that they are significant through this year. As 
long as we can get WIPP open within this year, they are not 
significant costs, but once we go beyond this fall, that is 
when we have to start making the commitments on some additional 
temporary storage, because we believe that it is prudent to 
continue stabilizing the oxides, and we need to have some place 
to store those containers.

                    shipping non-mixed waste to wipp

    Senator Allard. Well, I think my colleague shares the 
concern, the Idaho delegation and Colorado delegation have the 
same concern about the WIPP. We spent over $2.1 billion, and 
then we are not putting anything in there. It seems crazy, to 
me, to ask the taxpayers to do that, and I think that it is 
important that we get that open as soon as possible, and try to 
work on this.
    We have reviewed some of the law, and whatnot, and I would 
appreciate a yes or no answer on this. Does DOE have the 
authority to ship straight, non-mixed, that's the transuranic 
waste, to WIPP, without the State of New Mexico approval?
    Mr. Owendoff. Let me submit that, because I want to make 
sure we have the current injunction. You did not refer to the 
injunction----
    Senator Allard. No, I did refer to the----
    Mr. Owendoff [continuing]. You referred to the State of New 
Mexico.
    Senator Allard [continuing]. Because I am going to cite you 
a specific reference in law, that reads like this, and it is my 
reading of RCRA, and as long as you are not mixing stuff with 
it you do not have to go for a RCRA permit. It is 42 USCA, 
6903(27), that states, ``Solid waste does not include special 
nuclear or by-product material, as defined in the Atomic Energy 
Act of 1954.'' If, in fact, the material at Rocky Flats falls 
within the definition of this, then it would not require a 
state RCRA permit, would it not?
    Mr. Owendoff. It should not, if there are not hazardous 
materials.
    Senator Allard. Right. If it is just straight material, it 
goes out. If it is not mixed, it can go right to the State of 
New Mexico, and there should not be any ability for the State 
to prevent it from going there, should there?
    Mr. Owendoff. I am not trying to defend the State, but let 
me tell you that from what the State has said is, we need to 
ensure that that, indeed, is non-mixed, that there are no 
hazardous contaminants in it. So even though we would say it is 
non-mixed, New Mexico has indicated we need to have some 
assurances on why it is non-mixed.
    Senator Reid. Would the gentleman yield?
    Mr. Owendoff. Yes, I would be glad to.
    Senator Reid. If the reasoning of New Mexico is right, 
Nevada ears' should be perked up real loud, because if New 
Mexico can keep it out on that basis, by having the 
environmental agency of the state say it cannot come in, Nevada 
should be able to do the same thing.
    Senator Allard. A reasonable argument.
    Mr. Owendoff. Yes.
    Senator Allard. It just seems to me that we are letting 
some unnecessary delays occur here, and I just wanted to press 
that point in a public way, because I think it is an important 
point.
    Mr. Owendoff. Senator Allard, if I may, I think this is, as 
we were talking about, in general, how do we accelerate things, 
and the ideas--several years ago we would look at and felt we 
were going to have a RCRA permit for WIPP, and that there would 
be no need to have to try to send just non-mixed, or straight 
radioactive material, without any hazardous constituents.
    However, one of the things that we looked at to be able to 
accelerate activities is, let us go through and only ship non-
mixed waste, rather than waiting until we did have the RCRA 
permit, so that we could continue with shipment of the 
material. So we looked at--that was not on our initial 
baseline.
    Senator Allard. My understanding is that we have non-mixed 
waste, and we would like to get it out, get it moving.
    Mr. Owendoff. That is correct. That is correct.
    Senator Allard. I want to thank the committee and the 
chairman for his indulgence. I have some other questions, but I 
would like to submit those to you, and if they would fall under 
the deadline of the committee for response, I would appreciate 
it.
    I wanted to make my major points here, and Mr. Chairman, 
you graciously allowed me to do that, and I thank you very 
much. We continue to look forward to working with you, and we 
are going to continue to push for the closing of 2006. Thank 
you.
    Mr. Owendoff. Thank you, Senator Allard.
    Senator Craig. Senator, thank you very much. We share some 
common interests, and I am pleased you could be here this 
morning to ask those questions. Gentlemen, thank you very much.

               shipment of transuranic waste out of idaho

    Assistant Secretary Owendoff, you heard me lead up to the 
ultimate question that I will ask. Today is March 18. The 
Department of Energy has a deadline of April 30 to begin moving 
transuranic waste out of the State of Idaho.
    When Secretary Richardson appeared before the Senate Energy 
Committee last month he testified that the State of New Mexico 
had repeatedly pushed back the date of issuing the hazardous 
waste permit for WIPP, and as a result he has withdrawn $10 
million from the WIPP budget to provide funding for 
alternatives to WIPP, which will still meet DOE's deadline of 
April 30 to the State of Idaho.
    What alternatives are in the works? Will your plan ``B,'' 
if you have one, still meet the April deadline?
    Mr. Owendoff. Senator Craig, we are looking at 
alternatives. I think as you can appreciate, because that can 
involve other entities, that those can be very sensitive, 
certainly.
    Senator Craig. We are all very sensitive about this issue.
    Mr. Owendoff. I appreciate that. But I want to say that we 
are going to certainly abide by what was in the settlement 
agreement, that indicated if material is not--if TRU waste 
shipments do not start by April 30, then that holds up foreign 
research reactor fuel from coming into the State. Now, we do 
not take that lightly.
    Our commitment is continued, and I can assure you that a 
lot of my time is spent on this issue of looking at a number of 
alternatives which would allow us to begin that shipment. So 
this is not a casual date to us----
    Senator Craig. No. That is what I wanted----
    Mr. Owendoff [continuing]. As the end of March date is for 
the TMI fuel to move out of wet storage. So I have those dates 
right in front of me, Senator Craig.
    Senator Craig. Well, Senator Allard had mentioned the type 
of waste--non-mixed waste--that we think under the law can move 
and should move to WIPP now. I think we have some 50-odd 
barrels of the nearly half-million--let me repeat that--nearly 
half-million drums of mixed transuranic waste in Idaho.
    So we are kind of the waste king when it comes to the 
transuranic materials, but we believe those 50 drums could 
move, should move, and it is important that our country 
demonstrate they will move them, that there is a will to move 
waste, and to handle it appropriately.
    I think it also demonstrates to the states involved that 
they cannot play the politics of waste when there is no science 
to back it up. That is very important.

                             pit-9 at inel

    On Pit-9, when Secretary Richardson appeared before the 
Energy and Natural Resource Committee to testify on the DOE 
budget, I had a series of questions for him regarding DOE's 
intent to proceed on Pit-9.
    Secretary Richardson replied that due to pending 
litigation, Pit-9 was the topic he needed to discuss with me 
privately. We are working to get that meeting together. I have 
been in touch with his office. I hope we can put that together 
right quickly.
    Would you convey to the Secretary my eagerness to discuss 
this issue? I think it is important that it get handled 
appropriately and in a timely fashion. It potentially has 
impact on new contracts, new contractors, as it relates to how 
the site gets managed, and it is just one of those things that 
is incumbent upon all of us that--attorneys love to sue, and 
they love to play legal games, but sometimes we are well ahead 
if we all sit down at a table and resolve issues and do so in a 
straightaway fashion.
    Have you received any new direction from the Secretary 
regarding the use of alternative dispute resolution for Pit-9?
    Mr. Owendoff. I have not, Senator.

                     three mile island fuel storage

    Senator Craig. Okay. Another milestone in the DOE 
settlement agreement with the State of Idaho, calls for moving 
Three-Mile Island fuel stored in Idaho from wet storage to dry, 
as we have discussed, by June 1, 2001. Fuel movement must be 
started by March 31 of this year.
    Mr. Owendoff. That is correct.
    Senator Craig. Is that project on track?
    Mr. Owendoff. It is, Senator Craig. In fact, Warren 
Bergholtz, the acting manager, this morning is with the NRC. We 
should be receiving that license from the NRC. We have some 
other activities that we need to accomplish before the March 31 
date, but we are proceeding with those, and we do anticipate 
that we will be able to start fuel movement. We do not see that 
there is a showstopper problem. It is just working through, as 
you can appreciate----
    Senator Craig. Sure.
    Mr. Owendoff [continuing]. With the events that took place 
last summer. We will probably err on the very cautious side, 
but anyway, we expect to meet that date.

                      spent nuclear fuel programs

    Senator Craig. That is good news. DOE's national spent fuel 
program and its integrated spent fuel program are managed by 
the INEEL. The work is actually carried out at a number of DOE 
labs, including Argonne and Sandia. The programs were funded at 
$35.5 million in fiscal year 1999. In the year 2000, DOE has 
requested $22 million. I find that very disappointing.
    These spent fuel programs are responsible for making sure 
the information is available to include DOE spent nuclear fuel 
in the Yucca Mountain repository environmental impact statement 
and license application, which we all know is a critical last 
step in DOE's cleanup program.
    It is my understanding that DOE is managing about 250 
different spent fuel types, and that the DOE license 
application for Yucca Mountain must include information on the 
specific fuel types to be disposed of in the repository.
    Will the proposed funding level allow DOE to obtain the 
information needed to include all DOE spent fuels in the 
license application?
    Mr. Owendoff. Senator Craig, we believe that the budget is 
sufficient to do that. The folks within Environmental 
Management are working with Lake Barrett's people, we believe 
that we have that appropriate information that is there.
    I must state there are some small amounts of what is often 
referred to as cats and dogs, very unique fuels that we know we 
are going to have to do some additional work on.
    There had been some shifting of activities in looking into 
the out years, based on some near-term things, some other 
things we needed to get done at Idaho, and also in looking at 
the schedule for the repository and the needed information. But 
we believe that the budget is appropriate, Senator Craig.
    Senator Craig. Well, the proposal to reduce spending for 
these programs by nearly 40 percent I think does call into 
question the department's commitment to ship fuel out of Idaho. 
I mean that is how I am looking at it through my glasses at the 
moment.
    Can you explain how such a drastic funding reduction is 
consistent with meeting the commitments DOE has made to the 
people of my state?
    Mr. Owendoff. Senator Craig, let me get an in-depth 
breakdown of those costs and that rationale, but in general, 
let me say that because of our commitment that I think is 
demonstrated, of moving the Three Mile Island fuel into dry 
storage, of the privatization project that we currently have on 
the street to move Peach Bottom fuel into dry storage, I think 
that we are demonstrating that we are taking those preliminary 
steps, demonstrable steps of stabilizing and reducing the costs 
for overseeing the spent fuel, and also putting it into a form 
that we have a confidence will be able to move into the long-
term repository, without repackaging it.
    [The information follows:]

        Idaho National Engineering and Environmental Laboratory

    In its National Spent Nuclear Fuel (SNF) and Integrated SNF 
programs, DOE is focusing the requested funding on activities needed to 
support development of the geologic repository license application, 
while deferring activities that do not have to be completed until later 
in the process of preparing to send DOE's spent fuel to a repository. 
This approach allows us to accomplish those tasks that must be 
completed in the near term to stay on course to fulfill our commitments 
to the State of Idaho. The activities that are being deferred or 
reduced are in PBS ID-SNF-101 and PBS ID-SNF-102, as described below:
  --In fiscal year 1999, funding for repository design support was used 
        for total system performance assessment and criticality 
        analysis. In fiscal year 2000, further analysis of these topics 
        is being delayed since the information provided by this 
        activity is not needed until 2002.
  --In fiscal year 1999, DOE initiated an extensive release rate 
        testing program for DOE spent fuels to demonstrate that DOE 
        spent fuels will not be a major contributor to the repository 
        release rate. Follow-up work on this task is being deferred by 
        one year (to fiscal year 2001), since accomplishing the work on 
        this slightly delayed schedule will still allow the results to 
        be available in time to meet the schedule for potential 
        submittal of the geologic repository license application in 
        2002.
  --In fiscal year 1999, DOE provided significant support to Argonne 
        National Laboratory in development of the electrometallurgical 
        treatment system for sodium-bonded spent nuclear fuel. This 
        effort will be essentially completed prior to fiscal year 2000.
    In fiscal year 1999, funding was required for development and 
procurement of hardware for the Multi-Detector Analysis System (MDAS--
to conduct nondestructive assay and examinations to obtain 
characterization data for spent fuel). In fiscal year 2000, a reduced 
level of funding will be sufficient since the only remaining tasks are 
to demonstrate the MDAS technology.
  --In fiscal year 1999, funding was required to allow completion of a 
        NEPA analysis for a container system to be used in transporting 
        spent fuel from Idaho to an off-site repository. This 
        initiative was required to meet a settlement agreement 
        milestone. The NEPA analysis has been completed.
  --In fiscal year 2000, the level of funding for program support will 
        also be reduced, consistent with the reduced level of effort 
        overall.
    Finally, DOE has also identified emerging issues which must be 
addressed in fiscal year 2000 concerning development of information on 
DOE spent fuel to support geologic repository performance assessment 
for the license application. To ensure that DOE/EM supports preparation 
of the repository license application, DOE is working internally to 
fund these activities within the EM program.

                      defense spent fuel and waste

    Senator Craig. Thank you very much. Mr. Barrett, your 
program is in various stages of preparing both a repository 
environmental impact statement and the repository license 
application.
    In accordance with President Reagan's 1985 decision to 
dispose of defense waste in the civilian repository, will the 
EIS and license application now in preparation for Yucca 
Mountain make provisions for defense-spent fuel and waste?
    Mr. Barrett. Yes, sir.
    Senator Craig. Well, obviously, that is the answer I wanted 
to hear. I do not want us to get down the road aways and say, 
oops, we did not include that. Obviously, that is the mission 
now, and I am glad to hear that that is the case.

                outyear funding requirements for cleanup

    A major issue the Department faces in Idaho and other 
cleanup sites is insufficient funding in the out-year budget 
plans to meet cleanup obligations. How do you expect to meet 
cleanup commitments to the states without significant growth in 
the out-year budgets?
    Mr. Owendoff. Senator Craig, certainly as I mentioned to 
the Chairman earlier, we know that in the out-years we do have 
some significant challenges. One of the ways that we are 
looking at of accommodating that is being able to get finished 
with sites like Weldon Springs, Mound, Fernald, and----
    Senator Craig. So what are we looking for, a renegotiation 
in cleanup schedules? Would that not be a part of it?
    Mr. Owendoff. I do not know that it is, per se--I am not 
going to say to you that we now have to renegotiate everything. 
I think one of the things that we need to continue to do is to 
look at the relative risk of the activities at each 
installation and facility, and to ensure that we have the funds 
going to the highest risk and look at what are the benefits for 
some of the other activities.
    In a balanced budget situation, as you well know, I think 
it is going to be very challenging for us in the out-years to 
have significant increases in the budget amounts, but I think 
at this time last year there were a lot of people crying wolf 
on what will happen on the 2000 budget. I think the Secretary 
demonstrated that he was able to have a hundred-million dollar, 
roughly a hundred-million dollar increase in the 
Administration's budget that came through the Congress. So some 
said at this time last year that it will never happen.
    In fact, the budget request would be reduced, but I think 
the secretary demonstrated that he can get those monies when 
they are necessary.

                utility compensation for on-site storage

    Senator Craig. Okay. When the Secretary was before us on 
February 25, I submitted a series of questions regarding his 
proposal to compensate utilities for the on-site storage of 
their spent nuclear fuel in lieu of DOE's 1998 waste acceptance 
obligation. I had not yet received a reply to my questions. Do 
you have any indication of time when I might expect that 
response?
    Mr. Barrett. I know those are actively being worked on 
within the administration, and I expect they will be sent to 
you soon, sir.

                         on-site storage costs

    Senator Craig. All right. Mr. Barrett, the reason I ask 
that, and I will ask you a similar kind of question, because my 
guess is the Secretary drew upon the analysis done by you and 
your staff regarding the cost, feasibility, and any technical 
or legal pitfalls on such an approach.
    What kind of an analysis have you and your contractor staff 
performed on this subject or these subjects?
    Mr. Barrett. At the Secretary's request we scoped various 
scenarios that could be done. There were tremendous 
uncertainties, because it depends upon what the utilities would 
wish to do to try and implement such a proposal.
    For example, there is a very broad range between a utility 
that, for example, has space in their existing spent fuel pool, 
but may have an allocation, what their situation is. We would 
believe that the costs are very minimal for that additional 
burden resulting from the Department's inability to pick up 
that fuel.
    In the middle would be utilities that have an active power 
production program at their site, but have dry storage. We 
believe it would be best that perhaps we would assume the 
financial aspects of that, but they would do all the active 
management. That is a different situation. Then there are those 
reactor sites where the utility no longer generates 
electricity, and they are in the process of decommissioning 
that site, where the corporate entity would like to be able to 
go away. We have to consider the management of the fuel at 
these sites.
    Senator Craig. I appreciate all those scenarios, Mr. 
Barrett. Did you attempt to estimate the cost of the variations 
or the various proposals versus, let us say, the cost of an 
interim storage facility?
    Mr. Barrett. We have done cost estimates for the various 
situations that we are faced with. We are costing out HR-45, 
and we have information that will be coming for that. We intend 
to do the same for S. 608.
    When the Secretary said the estimated costs would range 
from $2 billion to $3 billion in that hearing, that was based 
upon a mix, as we saw the situation. Basically, we drew on 
generic industry numbers. We believe that to design, license, 
and construct the basic storage facility at a reactor plant 
would cost in the neighborhood of $10 million per site.
    Senator Craig. Now, go back and repeat the $10 million per 
site. How did you come to that figure?
    Mr. Barrett. That is based on our understanding of what the 
costs are in the industry for their sites that have done this.
    Senator Craig. Is that an annualized operation, annualized 
cost?
    Mr. Barrett. No, that is a one-time cost.
    Senator Craig. A one-time cost.
    Mr. Barrett. A one-time cost to go through licensing, 
design, and construction of a simple basic concrete pad. Once 
you go through that process, we assume that nominally costs to 
build storage containers are a million dollars a ton, or a 
hundred dollars a kilogram.
    That is a nominal industry cost today that utilities use. 
We use that number as well. Those costs are for a Nuclear 
Regulatory Commission-certified system.
    So then we looked at the operational costs of a site of 
around $5 million per year. That would be for a site where 
there would be a lot of stand-alone costs. It might be 
considerably less than that.
    So this is a broad range that we used. For example, we 
believe that there is virtually no cost of storing the fuel in 
the pool, if there is room in the pool. There is a very broad 
range of costs and there are many other circumstances that are 
site by site, utility by utility.

                regulatory concerns for on-site storage

    Senator Craig. Does the proposal pose any regulatory 
concern? Did you look at all of the legal and the regulatory 
hurdles, including states and state utility commissions, and 
potential lawsuits? Did you factor in the cost of lawsuits and 
all of that? Did you run a guesstimate?
    Mr. Barrett. No, sir, we did not include costs of 
litigation on this. We did not, at this stage, go into any 
legal analysis concerning individual state laws.
    This was an idea, as the secretary said to you, to explore 
if there was interest, and we need to have dialogue before we 
can really come to any more specificity on----

             nuclear regulatory commission--on-site storage

    Senator Craig. Did you have any dialogue then with the 
Nuclear Regulatory Commission on the proposal?
    Mr. Barrett. Not in any depth, but yes, there has been some 
dialogue between myself and Commission staff, not with any of 
the Commissioners, but with senior Commission staff.
    We looked at the activities in Environmental Management, 
for example, the Three Mile Island fuel, the fuel in Colorado, 
where DOE is becoming the licensee under the Nuclear Regulatory 
Commission. So we looked at those experiences as well.

                                 s-608

    Senator Craig. Okay. You already in your comments, Director 
Barrett, mentioned S-608, so obviously you are well aware of 
what Senator Murkowski and I, and Senators Grams and Crapo have 
done, and that is going to be a point of debate, and probably 
long hours on the floor between Senator Reid and myself in the 
near future.
    I trust by your comments you are generally familiar with 
the provisions of the legislation.
    Mr. Barrett. I am aware of the number. I understand we have 
a hearing on that next week, but I have not read it, sir.
    Senator Craig. Well, basically, in brief terms, what it 
says is an interim storage facility will be constructed in 
Nevada by 2003, and that is the date that I want to discuss 
with you. Your current plans, by this chart, call for a site 
recommendation to the President in 2001, and a repository 
license application by 2002.
    Why is interim storage in Nevada so problematic to DOE, 
since our interim storage facility starts after both of these 
dates in the year 2003?
    Mr. Barrett. As the Secretary stated, the Administration 
opposes designation of interim storage in Nevada, until the 
scientific work on the suitability of the repository is 
completed.
    Senator Craig. Is that a scientific argument or a political 
argument?
    Mr. Barrett. That was the Secretary's position.

                        long-range plan at ineel

    Senator Craig. Okay. And he is sticking to it. All right. 
DOE has made a commitment to Idaho to fund the long-range 
business plan in order to help assure the long-term viability 
of the INEEL. The commitment reached with DOE was $25 million a 
year for 5 years, yet this has somehow settled in at $22.5 
million, and has been difficult to achieve on an annual basis.
    Would you be willing to recommit to the previous level, and 
would you be open to potential increases in the future to 
address these specific needs?
    Mr. Owendoff. Senator Craig, as you mentioned, the specific 
straight funding is $22.5 million; however, there is also the 
lab discretionary research and development fund that pulls 
monies in general from all programs so those come in between $8 
million to $10 million, as well as there is a piece from a 
university consortium that brings some monies in. So Senator 
Craig, I believe we are well above the $25 million----
    Senator Craig. In other words, it is all in how you add it.
    Mr. Owendoff. That is correct.

                    complex-wide integration effort

    Senator Craig. All right. Well, we will sit down with you 
and see how you add it versus how we add it, and see if we can 
understand the differences.
    I understand that the environmental management system 
integration work done at the INEEL may be used as a model for 
DOE complex-wide integration of the cleanup program. This 
integration will be necessary to accomplish cleanup, I think, 
in a cost-effective way.
    Mr. Owendoff, how do you plan to utilize the INEEL systems 
and engineering expertise for complex-wide integration to the 
cleanup program?
    Mr. Owendoff. Senator Craig, I think you can see that 
today, we are using the integration work in the roadmap efforts 
that the INEEL prepared. It is being utilized by all the sites 
in looking at where they are today, what their plans for 
treatment and/or disposal.
    We are also taking those activities and looking at where do 
we have some shortcomings in research and development needs, so 
we are identifying where we have a critical path, and assessing 
how we can accomplish some more focused research and 
development on those key junctures.
    But we are utilizing those integration efforts today, and 
it is not only on the main waste streams of high-level waste, 
low-level waste, and transuranic waste, but there is probably 
over a hundred of individual material dispositions, I mean 
unique type of materials, radioactive materials, that again we 
are using those road maps today across the other programs 
within DOE Headquarters and trying to get to decisions on what 
should the disposition be of those waste streams. So I can 
assure you that that is an integral part of our strategy.

                   jack ass flats radiation exposure

    Senator Craig. One last question, and then I will turn to 
Senator Reid, if he has any more. Director Barrett, if I were a 
DOE employee or military personnel traveling across Jack Ass 
Flats, what kind of radiation might I be exposed to?
    Mr. Barrett. Basically, natural background in the Jack Ass 
Flats area. There is minimal radiation from any DOE activities 
in the Jack Ass Flats area, which is adjacent to Area 25.
    Senator Craig. What are current employees out there exposed 
to?
    Mr. Barrett. The natural background radiation, which should 
be, I do not know in the Jack Ass Flats specifically, nominally 
200 millirem, plus or minus.

                     groundwater potential problems

    Senator Craig. How does that compare with the millirem 
analysis that you gave in relation to groundwater potential 
exposure in the out-years of a Yucca Mountain facility?
    Mr. Barrett. Many orders of magnitude higher.
    Senator Craig. How about three-thousand?
    Mr. Barrett. No argument.
    Senator Craig. It is awfully important that we keep these 
measurements in perspective as to what is normal and what is 
real, and what humans are now currently receiving versus our 
attempted ability to measure out 10,000 years, or a thousand 
years. I think your figure there was, was it not, .1 millirem.
    Mr. Barrett. Ten-thousand years, .1 millirem. Yes, sir.
    Senator Craig. That was at 10,000 years. I think it is 
important that the record show those kinds of comparisons, so 
that there is a little bit of understanding by those of us who 
are novices in this area as to what these figures mean, or do 
not mean, for that matter. I thank you for that.
    It is obvious that we are talking about a minute 
measurement compared to background today, and are levels that 
those at DOE and the Defense Department find acceptable, and 
are based on current medical science, as to what a workforce 
can be exposed to. So I thank you very much for that.
    I turn to my colleague, Senator Reid.

                    costs to set up on-site disposal

    Senator Reid. The figures that we had originally were $5 
million to set up an on-site disposal, but you said $10 
million, so it is within that range, is that right?
    Mr. Barrett. I am sorry. Operating costs versus the capital 
costs to build the pad?
    Senator Reid. It is my understanding that you said that to 
construct an on-site storage facility would cost $10 million.
    Mr. Barrett. Yes, sir. A one-time up-front cost.
    Senator Reid. Some of the arguments we have heard before is 
$5 million, but in the neighborhood of $5 million to $10 
million is what it would cost.
    Mr. Barrett. And some could be $5 million and some could be 
$25 million.

                 total spent at the yucca mountain site

    Senator Reid. Yes. Right. Also, how much have we spent to 
this point in Yucca Mountain?
    Mr. Barrett. Approximately $3 billion.
    Senator Reid. That is construction. That does not count the 
overhead costs.
    Mr. Barrett. Very little of that are actual construction 
costs. Since we started in 1983, most of that has been 
scientific costs. Much of that work had been done in national 
laboratories. That is how much we had spent on the Yucca 
Mountain program. Some of that includes state monies, county 
monies, the whole Yucca Mountain budget allocation.
    Senator Craig. We have appropriated more than that in this 
program since 1982.
    Mr. Barrett. That is correct. For example, the repositories 
that we looked at, potential repository sites in Texas and also 
the monitored retrievable storage facility that we proposed in 
Tennessee. So all of that other work is around $2 billion.
    Senator Craig. In addition to the $3 billion.
    Mr. Barrett. Yes. At a cost of about $5 billion, I believe. 
I can check the numbers, if you want, specifically.

                  maintenance costs of on-site storage

    Senator Craig. It does not have to be exact. That is fine. 
Also, Mr. Barrett, it is my understanding that you had said 
that in addition to the costs of constructing an on-site 
storage facility there would be the costs of maintaining it, 
and they would vary from $1 million to $5 million a year, is 
that what you said?
    Mr. Barrett. Virtually none, zero. I mean if it is just 
additional fuel and--if the site has been decommissioned it is 
$5 million a year. There may be situations that may be more 
than that.
    Senator Reid. But we are in the ball park.
    Mr. Barrett. Yes.

                  costs of transporting nuclear waste

    Senator Reid. We have not at all here today talked about 
the costs of transporting nuclear waste if, in fact, there 
becomes a site available in Nevada, either temporary or 
permanent, is that right?
    Mr. Barrett. We have described those costs in the report we 
released with the viability assessment, which is the Total 
System Life Cycle Cost report. We have those costs, sir.
    Senator Reid. What would you estimate the transportation 
costs to be?
    Mr. Barrett. In the Total System Life Cycle Cost report for 
the 70,000 metric tons considered it is close to $6 billion. 
For the period that we costed to 2010, where we established the 
system, and then put the infrastructure in place to be ready to 
start moving fuel, approximately 17,000 tons of fuel, it is 
around $2 billion.
    Senator Reid. Those are current dollars.
    Mr. Barrett. Yes, sir. Actually, that is budget authority, 
but it is still in that neighborhood.

                     Additional committee questions

    Senator Reid. Mr. Chairman, I have no further questions, 
other than those we are going to submit in writing to Mr. 
Owendoff, which are really not on point at this time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Domenici

             on-site interim storage of spent nuclear fuel
    Question. Mr. Barrett, could you explain the proposal put forth by 
the Secretary to participate in assisting the utilities with on-site 
interim storage of spent nuclear fuel produced by nuclear power 
reactors?
    Answer. The Secretary committed to work with Congress on nuclear 
waste issues. His objective was to begin a constructive dialogue. 
Taking title to utility spent fuel on site at reactors is a promising 
near-term solution that can address our contractual obligation to 
utilities. It is not intended to be a permanent solution or to alter 
the Administration's commitment to permanent geologic disposal. This 
proposal represents an alternative to years and billions of dollars of 
litigation. As the Secretary indicated in his testimony, the 
Department's proposal to take title to spent fuel at utility sites is 
in an early stage of development. We could take title consistent with 
our contract acceptance schedule. We could have utilities manage the 
facility or we could assume responsibility. The Department is exploring 
specific options, based upon individual circumstances at each utility. 
Such options would consider current operating status of a utility, 
availability of on-site dry storage, and utility financial needs. For 
instance, a utility with a permanently shut down reactor and no ongoing 
nuclear operations may want the Department to assume complete 
responsibility for the management of the spent fuel and storage 
facilities, while other utilities with operating reactors may prefer 
the Department only to take financial responsibility. We still have to 
address a range of issues, including liability, financial and 
operational responsibilities. In return for taking title to spent fuel 
the Department would expect the utilities to terminate their litigation 
and claims. We want to hear from the utilities and to work with 
Congress as this dialogue continues.
    Question. What is this program expected to cost, how will it be 
funded, and do OMB budget profiles support this effort over the next 5 
years?
    Answer. The Department's preliminary estimate is that the proposal 
could cost up to $2 to $3 billion through 2010. The Department is 
willing to enter a dialogue with Congress to ensure that the repository 
program continues to be adequately funded, as well as address the 
Secretary's proposal. In exploring any funding alternatives, the 
Department's objectives would be: (1) that the Department impose no 
undue burdens on either utility ratepayers or the taxpayers; and (2) 
that the revenues raised by the nuclear waste fee remain available to 
complete the nuclear waste management system.
               acceleration of yucca mountain milestones
    Question. Mr. Barrett, I am sure that you are aware of the growing 
frustration and dissatisfaction by some regarding the pace at which the 
Department is moving to begin construction of a storage facility for 
spent nuclear fuel. Is there any way that the 2001 date to submit a 
recommendation to the President and the 2002 submission date of a 
license application to the NRC can be accelerated?
    Answer. The Viability Assessment identified the remaining technical 
work which must be accomplished and the schedule that must be met 
before submitting a Site Recommendation and a License Application. 
Provided that we have the funding that meets costs in our ``License 
Application Plan and Costs,'' we believe that we can complete the 
technical work, which includes complicated scientific testing and 
analysis, and evaluation of design alternatives, and accomplish a Site 
Recommendation and a License Application in 2001 and 2002, 
respectively. We believe that accelerating the schedule we proposed in 
the Viability Assessment would not allow us to address the remaining 
uncertainties that exist and must be addressed before a decision to 
recommend the site.
                 alternative options to on-site storage
    Question. Mr. Barrett, is on-site storage of spent nuclear fuel 
viable for the long-term?
    Answer. The U.S. Nuclear Regulatory Commission (NRC), through its 
regulatory and inspection processes, ensures the public health and 
safety for storage of spent fuel. The NRC, in its Waste Confidence 
ruling, 10 CFR 51.23, has indicated that spent fuel can be safely 
stored onsite for at least 30 years after a plant's operating license 
expired.
    Question. What other options is the Department exploring, other 
than on-site storage?
    Answer. The Department is committed to geologic disposal as the 
permanent solution for nuclear waste. The Department continues to 
proceed diligently to determine the suitability of the Yucca Mountain 
site as a permanent geologic repository. If the site is found to be 
suitable, the Secretary will make a decision whether to recommend it to 
the President for development as a repository.
    Question. What are the relative risks to the public associated with 
on-site storage versus storage in a facility such as Yucca Mountain?
    Answer. All commercial storage facilities, regardless of the 
location, are licensed by NRC and meet the appropriate NRC regulations 
to ensure safety to the public and the environment.
             external oversight and payments-equal-to-taxes
    Question. Mr. Barrett, could you explain the reason why the request 
for external oversight and payments-equal-to-taxes doubles from $11.7 
million in fiscal year 1999 to $22.3 million in fiscal year 2000? What 
has changed since last year to require such a large increase in the 
payment to Nye County, Nevada?
    Answer. The increases from fiscal year 1999 to fiscal year 2000 
reflect the following: In fiscal year 1999, only $250,000 was provided 
to the State of Nevada for external oversight. In the fiscal year 2000 
Budget Request, $4.7 million is requested for State external oversight.
    For external oversight for affected counties, we have requested 
$108,000 less than that appropriated in fiscal year 1999.
    We have requested $2.03 million in fiscal year 2000 for the 
potential liabilities associated with the closeout of previous 
contracts for work performed for Yucca Mountain in prior fiscal years. 
This is a $1.84 million increase over fiscal year 1999.
    There is $140,000 requested for School-To-Work in fiscal year 2000. 
There were no funds provided for this purpose in fiscal year 1999.
    We have requested $10 million for Payments Equal To Taxes (PETT) in 
fiscal year 2000. The increase reflects the fact that the current PETT 
agreement with Nye County (FYs 1994-1999) expires on September 30, 
1999. The new agreement will reflect the increased value of facilities 
at the Yucca Mountain site and increases in work activities at the 
site.
    The following table illustrates these changes:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                     Fiscal
                                           Fiscal     year
                                            year      2000    Difference
                                            1999     request
------------------------------------------------------------------------
External Oversight--State of Nevada.....       .25      4.72       4.47
External Oversight--Affected Counties...      5.54      5.43     (.11 M)
Contract Close-out from Previous Fiscal        .19      2.03       1.84
 Year...................................
School-To-Work..........................       .14       .14
PETT....................................      5.72     10.00       4.28
                                         -------------------------------
      Total.............................     11.70     22.32      10.62
------------------------------------------------------------------------

                      cost of doe cleanup program
    Question. What is the current estimate to cleanup the wastes 
generated by nuclear weapons production activities in past years and 
how long will it take to complete this cleanup work?
    Answer. As reported in the Department's Annual Financial Report, 
DOE's fiscal year 1998 environmental liabilities estimate was $186 
billion over the next 70 years to complete the cleanup of wastes 
generated by nuclear weapons production and other government nuclear 
energy programs. Previous analyses (the 1995 Baseline Environmental 
Management Report, and the 1997 Linking Legacies report) indicated that 
about 85 percent of the cleanup work results from nuclear weapons 
production. The EM portion of the Department's fiscal year 1998 
environmental liabilities estimate was based on data used to develop 
the initial Accelerating Cleanup: Paths to Closure report (Paths to 
Closure) issued in June 1998, which reported a life-cycle cost estimate 
of $147 billion. The $147 billion life-cycle estimate was adjusted 
(e.g., removal of fiscal year 1997 and fiscal year 1998 costs and 
various scope adjustments) to form the basis of EM's portion of the 
fiscal year 1998 environmental liability estimate, which was determined 
to be more than $145 billion. The balance of the Department's fiscal 
year 1998 environmental liability was derived from the 1995 and 1996 
Baseline Environmental Management Report.
    EM presently has cleanup responsibility for a total of 113 
geographic sites. At the end of fiscal year 1997, 60 of the 113 
contaminated sites had been cleaned up. In fiscal year 1998, EM cleaned 
up three geographic sites and transferred another two sites to the 
State for cleanup at its request, which leaves EM with 48 sites 
remaining to be cleaned up. By 2006, EM intends to complete cleanup at 
all but 10 of its 48 remaining sites.
    We are currently in the process of updating the life-cycle cost and 
schedule estimate for cleanup of the EM program. This estimate is being 
updated as part of the Paths to Closure planning process and is 
presently scheduled to be released early this summer. This estimate 
will form the basis for determining EM's portion of the Department's 
fiscal year 1999 environmental liability.
    Question. How does this estimate compare to the previous estimate, 
and what is the reason for the difference? How much money has been 
invested to date in the cleanup effort?
    What are the major factors that have contributed to the reduction 
in the estimated cost of the cleanup effort?
    Answer. In 1995 and 1996, as requested by Congress, the Department 
developed its first estimates of life-cycle cost and schedule for the 
remaining EM cleanup effort. These Baseline Environmental Management 
Reports (BEMRs) described the estimated scope of the EM program. The 
1996 report stated that, as a mid-range estimate, the program would 
cost approximately $230 billion (constant 1996 dollars) spent over a 
70-year period, using certain assumptions about funding levels, 
productivity, and land use in developing the estimate.
    The primary reasons for the difference between BEMR and Paths to 
Closure can be attributed to the fact that BEMR: (1) included costs for 
both ``legacy'' waste associated with historical nuclear weapons 
production and nuclear related activities, and newly generated wastes; 
(2) included costs for the eventual transfer of DOE facilities not 
currently in the Environmental Management program; and (3) in some 
cases, used different end-state assumptions than Paths to Closure.
    Paths to Closure addresses a somewhat different scope. For example, 
Paths to Closure includes costs for legacy waste cleanup but not newly 
generated wastes, and excludes costs for any facilities not currently 
in the Environmental Management program. Additionally, Paths to Closure 
reflects improved estimates for a number of projects and improvements 
in efficiency in accomplishing the same or comparable activities, 
thereby lowering total life-cycle costs of the program. In addition, 
$145 billion representing EM's portion of the fiscal year 1998 
environmental liability statement reflects future estimated costs 
starting in fiscal year 1999, while the 1996 BEMR estimates costs 
beginning in fiscal year 1996.
    Since its inception in 1989 through fiscal year 1999, the 
Environmental Management program has received $52.9 billion in funding. 
This funding covers not only ``cleanup'' but also other EM activities 
(e.g., nonproliferation, waste disposal, spent fuel storage, fissile 
material, security, site infrastructure maintenance). The following 
chart for the record displays this funding by fiscal year. (The 
information follows.)

                                                                                    [In millions of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                    Fiscal year
                                                             -------------------------------------------------------------------------------------------------------------------------   Total
                                                               1989 \1\   1990 \1\     1991       1992       1993       1994       1995       1996       1997       1998       1999
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Traditional BA..............................................    1,657.3    2,274.1    3,601.0    4,286.9    5,520.3    6,000.0    5,809.3    6,067.3    5,661.2    5,662.8    5,603.6    52143.8
Privatization...............................................  .........  .........  .........  .........  .........  .........  .........  .........      330.0      200.0      228.4      758.4
                                                             -----------------------------------------------------------------------------------------------------------------------------------
      Total, EM.............................................    1,657.3    2,274.1    3,601.0    4,286.9    5,520.3    6,000.0    5,809.3    6,067.3    5,991.2    5,862.8    5,832.0   52902.2
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Reflects funds managed by the newly-created Office of Environmental Management, which were appropriated under DOE programs to support cleanup work. Funds were appropriated to EM-managed
  accounts beginning in fiscal year 1991.

    Question. What annual funding levels are assumed for the defense 
portion of the cleanup effort over the next 5 year planning period? How 
important is funding stability to the success of the program?
    Answer. The Administration's outyear funding profile is dependent 
upon enactment of Social Security, Medicare, and Universal Savings 
Account proposals. The Defense funding for the Environmental Management 
program for fiscal year 2001 through 2004 would be as shown in the 
following table:

                        [In millions of dollars]
------------------------------------------------------------------------
                                              Fiscal year
                             -------------------------------------------
                                 2001       2002       2003       2004
------------------------------------------------------------------------
Defense Environmental             4,486      4,486      4,486      4,486
 Restoration & Waste Mgmt
 \1\........................
Defense Facilities Closure..      1,054      1,054      1,054      1,054
                             -------------------------------------------
      Subtotal..............      5,540      5,540      5,540      5,540
                             ===========================================
Defense Privatization.......        671        659        633       594
------------------------------------------------------------------------
\1\ Excludes funding for EH Health Studies.

    In developing the report Accelerating Cleanup: Paths to Closure, 
the Department established annual funding targets for the EM Operations 
Offices consistent with a stabilized $5.75 billion funding level for 
the EM program for the immediate future. This funding level includes 
both defense and non-defense appropriations, but does not include 
funding for the privatization account. In a number of instances, EM 
operations offices developed plans that were based on funding levels 
higher than these targets in order to accomplish accelerated closure, 
risk reduction, and other programmatic goals. The report stated that EM 
would address these funding differences by seeking productivity 
improvements, additional funding, as well as reprioritization of 
activities where necessary. The Department will work with our 
regulators, Congress, the Office of Management and Budget, and our 
stakeholders to address these issues.
    The Department recognizes that under current budgetary constraints 
and realities any increases above the current level of funding--which 
has remained approximately stable for the past several years--are not 
likely. However, funding stability is necessary for EM to develop and 
successfully execute a credible plan that will accomplish our 
regulatory requirements and other commitments in a timely manner, 
assist in keeping our projects on schedule and within budget, and 
ultimately reduce the long-term costs of the program. Depending on the 
level, stable funding could provide predictability and sufficient 
funding to accomplish these objectives.
    Question. An important element in meeting cost projections and 
schedules is early determination of the level to which a site is 
cleaned up--the end land use plan. What level of cleanup is assumed in 
the 2006 Plan? Is the Department assuming a mid-level cleanup or a 
maximum cleanup in the Plan? How can DOE provide a credible estimate of 
how much of the cleanup effort will cost if you do not know to what 
level you are cleaning up a site?
    Answer. The cleanup levels identified in Accelerating Cleanup: 
Paths to Closure were determined on a site- by-site basis. The level of 
cleanup for some EM sites has been agreed to by EPA or State regulators 
in conjunction with EM field office personnel at those sites. The laws 
governing these cleanups require that site-specific factors be 
considered in deciding the level of cleanup. The agreed-to levels at 
these sites are reflected in Paths to Closure.
    However, in most cases, particularly at the large sites where 
closure will not occur for decades, agreement has not yet been reached 
with regulators and stakeholders on the cleanup levels and end states. 
Where sites have not reached final agreement, the DOE field staff 
developed planning-basis end states that are being used solely for 
planning purposes. All end state assumptions used in Paths to Closure 
have been shared with stakeholders and regulators and are acceptable to 
them for planning purposes. At these sites where no final agreement has 
been reached, the appropriate review and consultation will occur before 
cleanup levels can be definitively established.
    In developing the life-cycle estimate of $147 billion as reported 
in the June 1998 Paths to Closure, EM did not assume a consistent level 
of cleanup for all sites. As discussed above, the cleanup level agreed 
to, or currently assumed for each site, is unique to that site. It is 
clear, however, that a maximum, or ``green field'' approach is being 
pursued at few, if any, sites. In fact, very few sites are being 
cleaned up to a level allowing unrestricted use for the entire site; 
consequently, EM is examining what long-term stewardship measures will 
be required after cleanup is completed.
    Given the fact that each EM site will not undergo the same level of 
cleanup, EM developed its life-cycle estimate based on the agreed-to, 
or currently assumed cleanup level for each site. EM believes that this 
is the most meaningful and accurate approach to arriving at a credible 
life-cycle estimate.
    Question. How many sites are there to be cleaned up and how many 
approved site cleanup plans are in place? Provide for the record your 
schedule for having an approved site cleanup plan in place for each 
site or major activity requiring a plan.
    Answer. The Environmental Management (EM) program currently has 48 
geographic sites remaining to be cleaned up. In fiscal year 1998, EM 
completed cleanup at three geographic sites and transferred another two 
to the host State (at its request) for cleanup, bringing the total 
completed to 65 of the 113 sites currently under EM's responsibility. 
In fiscal year 1999 and fiscal year 2000, EM plans to complete cleanup 
at three additional geographic sites each year, leaving 42 sites for 
cleanup in fiscal year 2001 and beyond.
    Cleanup plans and site-specific strategies for all remaining EM 
geographic sites are captured in each site's June 1998 Paths to Closure 
report, and are compiled in the June 1998 national Paths to Closure 
report. We are currently updating this information, with release 
expected this summer; and we intend to update it annually. It is 
important to note that while each site has a cleanup strategy in place, 
not all assumed end-states and cleanup levels have undergone the 
appropriate review needed to ensure agreement between regulators and 
the Department. This is an ongoing process without a set schedule. 
Where sites have not reached final agreement, planning-basis end-states 
have been developed and shared with regulators, and have been found 
acceptable for planning purposes. As part of the Paths to Closure 
planning process, EM will provide the status of where each site is in 
the cleanup process, identifying, for example, whether agreements have 
been reached with regulators.
    Question. Are there any site or activities being delayed or slowed 
due to lack of agreement of the end land use or level of cleanup?
    Answer. The Department is working closely with its regulators and 
stakeholders to reach agreement on the eventual end use for its sites. 
Reaching agreement on the end use generally will facilitate agreement 
on required cleanup levels as well as allow for more expeditious 
cleanup. In most cases, general agreement has been reached on the 
desired future land use and resource uses for Department sites, 
including the time frames in which those land uses should be attained. 
The actual land uses ultimately selected, however, will be a risk 
management decision based on the technical feasibility, costs, and 
implementation risks associated with the specific remedial actions 
carried out to achieve a certain level of cleanup. Although future land 
use is always an important consideration, and substantial time may be 
needed for a final decision on end use or level of cleanup, typically 
there are several interim steps that can be taken to reduce risks that 
do not require a final determination on land use, and therefore 
necessary cleanup can proceed while final land use decisions are still 
being discussed. Consequently, activities at the various Department 
sites are not being delayed due to lack of agreement on the eventual 
end use or the level of cleanup required.
    Question. How much additional savings can be obtained or expected 
if site end use land conditions were known?
    Answer. The Department does not have an estimate of total life-
cycle costs if ``site end use land conditions were known.'' We believe 
strongly that substantial cost savings are possible if cleanups are 
performed to make land available for reasonably anticipated future end 
uses, rather than seeking to make all sites clean enough for 
unrestricted use everywhere. That is why we have been working closely 
with EPA and state regulators to negotiate cleanup agreements that 
result in cleanup standards that are based on reasonably anticipated 
future land uses. We also worked with EPA and other agencies in 
developing the Administration's recommendations to reform Superfund, 
including a provision that would make it easier to consider future land 
uses in remedy selection. These reforms have not yet been acted upon by 
Congress. Nonetheless, we believe that the administrative reforms 
adopted by EPA and state agencies have allowed us to negotiate remedies 
that adequately consider future land uses.
    The life cycle costs cited in previous responses include the costs 
for these negotiated remedies where substantial savings were attained 
by considering future land uses. In fact, one of the principal findings 
of the 1995 and 1996 Baseline Environmental Management Reports and the 
1998 Accelerating Cleanup: Paths to Closure report was that, at most 
sites, the contamination and waste is not being moved, but is being 
contained in place, resulting in restricted land uses. There may be 
some instances in which cleanup agreements require cleanup to a level 
not justified by expected future land uses, but we are continuing to 
identify those exceptional circumstances, and do not expect significant 
additional savings by renegotiating cleanup agreements to account for 
future land use. As a result, the Department is now developing a 
program to provide adequate long-term stewardship (e.g., monitoring and 
maintenance) of the residual hazards left after cleanup is completed. 
We have not yet completed a technical or cost estimate for this 
program, but expect that it should be relatively insignificant compared 
to the cleanup program.
    It is important to remember that much of the Department's 
Environmental Management program involves stabilizing extremely 
hazardous nuclear materials, and treatment and disposal of radioactive 
wastes. The costs for these elements of the cleanup program will not 
change based on expected land uses.
 comprehensive environmental response, compensation, and liability act 
                     (cercla) cleanup at doe sites
    Question. What laws set the standards for cleanup or is DOE self 
regulated and able to establish its own standard through negotiations 
with State, local and other interests?
    Answer. The Comprehensive Environmental Response, Compensation, and 
Liability Act (CERCLA) authorizes EPA to require responsible site 
owners, operators, generators and transporters to clean up releases of 
hazardous substances, including radioactive substances. In 1986, CERCLA 
was amended by the Superfund Amendments and Reauthorization Act. Under 
section 120(a) of CERCLA, as amended, all Federal agencies, including 
DOE, are subject to the same procedural and substantive requirements as 
private parties. In addition, section 120 requires each Federal 
facility listed on the National Priorities List (NPL) to enter into an 
interagency agreement with EPA regarding the cleanup of the facility. 
(States are often included as parties as well.)
    DOE has entered into 17 interagency agreements with EPA and 
affected States for 17 of the 18 DOE facilities listed on the NPL. The 
agreement for the remaining facility is under negotiation, and is 
expected to be executed during fiscal year 1999. These agreements 
integrate the requirements of CERCLA with the applicable requirements 
of other laws and regulations such as the Resource Conservation and 
Recovery Act (RCRA). This is done through a process known as 
``ARARs''--applicable or relevant and appropriate requirements--wherein 
EPA establishes a process described in CERCLA section 121(d). 
Primarily, ARARs are requirements established under RCRA which States 
have been authorized by EPA to enforce. Although the ARARs process 
allows DOE to discuss cleanup standards with the regulatory 
authorities, the EPA and state environmental regulators are, in effect, 
the final decision-makers for cleanup work because of their regulatory 
approval roles. DOE's role is to comply with schedules negotiated with 
state and federal regulators for conducting studies, proposing 
recommended courses of action, and implementing actions once regulators 
have made decisions. The Department submits an annual report to 
Congress on our CERCLA cleanups, as required by CERCLA section 120. A 
copy of our 1997 report, the most recent available, is enclosed.
                      cost of doe cleanup program
    Question. What will the 2006 Plan cost on an annual basis? What can 
the committee expect to be completed between now and 2006 with the 
funds appropriated?
    Answer. Based on the June 1998 Paths to Closure report, EM 
projected the cost of cleanup at $147 billion, of which $57 billion 
would be spent between 1997 and 2006, in roughly equal annual 
increments, and $90 billion would be spent after 2006. EM anticipates 
that all but 10 sites would be cleaned up by 2006. This includes 
completion of all cleanup activities at Rocky Flats, Fernald, Mound, 
Weldon Spring, Brookhaven National Laboratory, and Battelle Columbus 
Laboratories. In addition, 80 percent of all release sites, that is, 
specific locations or areas where contaminants may have been released 
to the environment, and stabilization of all nuclear materials and 
spent fuel and completion of all preparations for their ultimate 
disposition will have occurred.
    EM is currently in the process of updating the life-cycle cost and 
schedule estimate for cleanup of the EM program. This estimate is being 
updated as part of the Accelerating Cleanup: Paths to Closure planning 
process and is presently scheduled to be released early this summer.
                            accomplishments
    Question. What major accomplishments or activities were completed 
with the funding provided for fiscal year 1998, and what do you expect 
in fiscal year 1999 and fiscal year 2000?
    Answer. The Environmental Management program has produced 
substantial cleanup results at contaminated nuclear facilities and 
anticipates achieving substantial results with the fiscal year 1999 
appropriation and its fiscal year 2000 budget request.
Fiscal Year 1998 Accomplishments
    With the cleanup of Naturita and Maybell sites in Colorado, we have 
completed surface cleanup of all 22 large uranium mill tailings sites, 
as well as more than 5,300 ``vicinity properties,'' including 
elementary schools and homes. This project included remediation of over 
40 million cubic yards of contaminated soil and material, and 
construction of 19 disposal cells. We are now monitoring low-level 
ground water contamination at some mill tailings sites, with active 
remediation planned at three sites.
    We received certification from the U.S. Environmental Protection 
Agency in May that Waste Isolation Pilot Plant (WIPP) met disposal 
standards, and notification in June from the Defense Nuclear Facilities 
Safety Board that WIPP can be operated safely.
    We completed cleanup of 290 release sites, or local areas where 
hazardous/radioactive releases had occurred, bringing the total number 
of release site cleanups to about 4,100, almost half of our inventory 
of about 9,700 release sites.
    The Department awarded the second part of ``Phase 1'' of a 
``privatization'' contract, covering the extended design of new 
facilities for the treatment of between 6 percent and 13 percent of the 
high-level waste in tanks by mass at the Hanford Site in Washington.
    We closed a second high-level waste tank at Savannah River Site. 
After removing waste, the tank was backfilled using an innovative grout 
to immobilize residual radioactivity.
    We successfully operated two high-level waste vitrification 
facilities in South Carolina and New York, where last year we converted 
nearly 2,500 cubic meters of waste into 331 canisters of ``glass logs'' 
ready for disposal. The first phase of the high-level waste 
vitrification campaign at the West Valley, New York facility was 
completed in fiscal year 1998, under budget and ahead of schedule, and 
we are now vitrifying the tank heels.
    In support of non-proliferation goals, we shipped three shipments 
of spent nuclear fuel from foreign research reactors, bringing the 
total at the end of fiscal year 1998 to eight shipments from fifteen 
countries, including Chile, South Korea, and Colombia. Seven shipments 
have been received at the Savannah River Site in South Carolina and, in 
fiscal year 1998, we completed the first shipment to the Idaho National 
Engineering and Environmental Laboratory.
    We finished connecting community drinking water hookups surrounding 
Brookhaven National Laboratory in New York. We have sponsored more than 
1,500 hookups for off-site residences from fiscal year 1996 through 
fiscal year 1998 to ensure that residents' drinking water supply 
remains unaffected during long-term ground water cleanup.
    To provide for state oversight of our management of low level 
waste, we executed a Joint Federal/State oversight agreement of the 
low-level waste disposal program at the Nevada Test site.
    We disposed of 30,000 cubic meters of low-level waste and 10,000 
cubic meters of mixed low-level waste in fiscal year 1998 alone.
    At Rocky Flats, we stabilized or repackaged about 5,000 kilograms 
of plutonium-bearing residues in fiscal year 1998. In addition, we 
drained acid plutonium liquids from two 2 liquid-piping systems in 
Building 771 and then removed the pipes.
    We completed cleanup of the fourth of eight highly radioactive 
waste storage tanks, called the ``Gunite Tanks,'' at Oak Ridge National 
Laboratory and have started work on the next tank. The cleanup made use 
of several innovative remote access technologies developed through our 
science and technology program (i.e., a robotic arm and vehicle, and a 
waste dislodging and conveyance tool) that provided access to areas of 
tanks which were previously inaccessible.
    EM has verified the first-time use of alternative technologies at a 
site in 108 instances at cleanup projects throughout the DOE complex in 
fiscal year 1998.
    We also began a Technology Deployment Initiative designed to spur 
widespread use of available new technologies. Fourteen competitively 
selected projects were initiated in fiscal year 1998 that resulted in 
13 deployments by the year's end.
    We completed Large Scale Demonstration and Deployment Projects 
(LSDDP) at the Chicago Pile 5 Research Reactor facility at Argonne 
National Laboratory.
    We continue to use pollution prevention techniques to reduce our 
overall costs. In fiscal year 1998 alone, DOE sites completed over 700 
pollution prevention projects, avoiding the generation of 45,000 cubic 
meters and avoiding an estimated $155 million in waste management 
costs.
    We completed deactivation of the N-Reactor complex and the B Plant 
at the Hanford Site, reducing annual surveillance and maintenance costs 
for each of the complex from about $20 million to less than $1 million. 
We also placed C-Reactor at Hanford into safe storage and completed 
deactivation of the ROVER facility at Idaho National Engineering and 
Environmental Laboratory.
Fiscal Year 1999 Commitments
    On March 26, the Waste Isolation Pilot Plant received the first 
shipment of transuranic waste for disposal. We plan to ship wastes to 
WIPP from Los Alamos, Idaho National Environmental and Engineering 
Laboratory, and Rocky Flats.
    We expect to complete cleanup at Ames Laboratory in Iowa, Sandia 
National Laboratory in California, and Princeton Plasma Physics 
Laboratory in New Jersey.
    At INEEL, the new dry storage facility for spent nuclear fuel was 
completed, and we began transferring Three Mile Island spend nuclear 
fuel from wet storage in the Test Area North-607 pool to the new 
facility.
    We will begin interim stabilization of an additional four high-
level waste tanks at the Hanford Site.
    We will continue stabilization of ``at-risk'' nuclear materials, 
such as plutonium-bearing materials at Rocky Flats and Savannah River 
and failed or declad spent nuclear fuel, in the H- and F-Canyons.
    We plan to deactivate about 65 facilities, and decommission 80 
facilities.
    We will begin stabilizing plutonium oxide at the Plutonium 
Finishing Plant at Hanford.
    At Rocky Flats, we will drain and remove 12 liquid systems from 
Building 771 and drain 10 areas in Building 371.
    We will complete the removal of spent nuclear fuel from Facility 
7823 on the Oak Ridge Reservation.
    We plan to demonstrate another 22 innovative technologies that meet 
site-identified needs and make another 40 new technologies ready for 
implementation with cost and performance data. We also plan to use new 
technology in at least 60 instances in cleanup activities.
    Another 32 accelerated site technology deployment projects have 
been initiated in fiscal year 1999.
    Environmental Management Science Program grants will be awarded in 
the areas of biological effects of low doses of ionizing radiation and 
subsurface contamination/vadose zone.
Fiscal Year 2000 Commitments
    We will complete cleanup at 3 sites: Argonne National Laboratory-
West in Idaho, the General Atomics Site in California, and Battelle 
Columbus Laboratory in Ohio, bringing the number of sites completed to 
71.
    We expect to increase the rate of shipments of transuranic waste to 
the Waste Isolation Pilot Plant to about 14 per week, and will be 
disposing of waste from Rocky Flats, INEEL, the Hanford Site, and the 
Savannah River Site.
    We plan to begin shipments of plutonium metals and oxides from the 
Rocky Flats Plant to the Savannah River Site, two years earlier than 
initially planned, to support accelerated closure of Rocky Flats.
    We will continue our efforts to bring down the ``mortgage'' at 
Rocky Flats by demolishing Building 779 and decommissioning Building 
771.
    At Hanford, we will continue efforts at the K Basins to ensure we 
meet the November 2000 milestone to begin moving spent nuclear fuel 
from the basins to safe storage.
    At Hanford, the extended design phase under the privatization 
contract for treatment of tank waste will conclude in August 2000, 
supporting a decision whether to proceed to construction and operation 
of the treatment facilities.
    At INEEL, we will begin construction of the Advanced Mixed Waste 
Treatment Project facility under a privatization approach.
    We will continue vitrification of high level waste at the Defense 
Waste Processing Facility at the Savannah River Site, and will select 
the technology and begin design work on the alternative to the In-Tank 
Precipitation process to pre-treat certain salt wastes.
    Complex-wide we will deactivate about 60 facilities, and 
decommission 110 facilities, bringing the total number of facilities 
decommissioned to more than 600 out of a total inventory of about 3,300 
facilities.
    We will stabilize about 160 liters of plutonium solutions, 38,000 
kilograms of bulk plutonium residues, and 238 containers of plutonium 
metal/oxides.
    We plan to demonstrate another 30 innovative technologies that 
address site-identified needs and make another 30 new technologies 
ready for implementation with cost and performance data. We also plan 
to use new technology in at least 60 instances in cleanup activities.
    At West Valley in New York, we expect to vitrify 50 cubic meters of 
high-level waste, producing 5 canisters and reducing the inventory of 
waste to 32 cubic meters, and will begin shipments of spent nuclear 
fuel to INEEL.
    In addition, EM has established tangible, quantitative measures 
that track cleanup progress at the sites and establish annual goals for 
performance. These measures, found on page 45 of the Environmental 
Management fiscal year 2000 Budget Request, provide additional 
information on our accomplishments and commitments in fiscal year 1998, 
fiscal year 1999, and fiscal year 2000.
      impact of transferring cleanup program to corps of engineers
    Question. Mr. Owendoff, the committee has watched with interest the 
good work that the Corps of Engineers has been doing with the FUSRAP 
program. What would be the impact of transferring parts or the entire 
cleanup program to the Corps to manage?
    Answer. The Department believes that there would be no benefit to 
transferring additional parts of the Environmental Management (EM) 
program, and that there would be significant downsides to such a 
transfer. The Department also believes the EM program has demonstrated 
considerable success since the Formerly Utilized Sites Remedial Action 
Program (FUSRAP) was transferred to the U.S. Army Corps of Engineers by 
the Energy and Water Appropriations Act of 1998. The Department has 
been working closely with the Corps of Engineers to ensure that the 
transfer of the program was successful and that the impacts on the 
various stakeholders was minimal. I believe the Department's past 
efforts and continued support of FUSRAP have contributed to the current 
progress. In the Memorandum of Understanding between the Corps of 
Engineers and the Department of Energy that was signed on March 17, 
1999, this cooperative effort is formalized so that the program may 
continue to make progress.
    At the time of transfer to the Corps of Engineers, the Department 
was completing cleanup at many FUSRAP sites and, at the remaining 
FUSRAP sites, was shifting its efforts from characterization to 
remediation of these sites and the associated vicinity properties. As 
part of this shift, the larger and more complex sites were ready for 
the start of major remediation efforts. DOE had completed cleanup at 25 
of the 46 FUSRAP sites and significant progress had been achieved at 
the other 21 sites prior to their transfer to the Corps of Engineers. I 
had personally spent a lot of time working with Congressional 
delegations, regulators and communities to agree on cleanup levels and 
schedules to complete cleanup. We had also asked Congress in our fiscal 
year 1998 budget request to significantly increase the funding for 
FUSRAP to support a goal of completing the project quickly. At the time 
of transfer, cleanup decisions were in place. In short, I believe the 
Department had positioned the FUSRAP program to successfully move into 
the implementation phase at the large sites, so that either the Corps 
of Engineers or the Department could have made major progress in the 
last 18 months.
    Considerable effort had been made in characterizing the larger 
FUSRAP sites and providing this information to the regulators and local 
communities. By early 1993, however, agreement had not been reached on 
the cleanup levels at these sites, the condition of the sites when the 
cleanup was completed, and the future ownership of many of the sites. 
In late 1995, the Department decided to take a dramatic step and 
embarked on a two-fold strategy: (1) DOE would get consensus from the 
regulators and communities on the cleanup approach for each site; and 
(2) DOE would request a nearly doubling of the FUSRAP budget with the 
commitment or goal of completing the cleanup in five years. This would 
provide incentives for the regulators and communities to reach 
agreement on achievable cleanup approaches, while providing the Office 
of Management and Budget and the Congress with a commitment to get 
cleanup of the FUSRAP sites completed as soon as possible.
    The Department's task for 1996 was to achieve consensus on as many 
of the large sites as possible to provide justification for the budget 
increase. We knew it would be difficult to complete Records of 
Decisions for the cleanup approach since there was not sufficient 
characterization work done to be able to agree on the extent to which 
soil should be removed. Rather than spend more time and money on 
characterization, we recommended to the regulators and communities that 
we proceed with ``removal actions,'' reaching agreement on what the 
level of cleanup would be depending on the extent of contamination and 
agreed-to land use. Where we had a pile of contaminated dirt which had 
been stockpiled as interim storage from the cleanup of vicinity 
properties, we would remove the contaminated dirt which was above 
specific levels of contamination. We would continue the excavation 
until the contamination level was below acceptable levels. This would 
bring the site to the level appropriate to its agreed-to end use. The 
community and property owner could then re-develop their land as a 
residential or industrial site, or as a public area such as a park. In 
some cases, this would be a couple of feet below the surrounding ground 
level; in other cases, the excavation would be more extensive. Based on 
negotiations with the regulators, communities, and Congressional 
delegations during 1996 and the early part of 1997, we believed we had 
a winning strategy and had received support in achieving consensus on 
the cleanup approach and the associated funding needed to proceed.
    This was the case at the Tonawanda disposal sites in New York, the 
Maywood interim disposal site in New Jersey, the Wayne interim disposal 
site in New Jersey, the St. Louis disposal sites near the airport and 
downtown sites in Missouri, the Middlesex interim disposal site in New 
Jersey, and the Colonie disposal site in New York. The Department had 
developed a contracting strategy at the Wayne site where we 
competitively bid the entire job on a fixed-priced basis for the 
removal and disposal of the contaminated interim disposal site with 
several options for the excavation below grade depending on how much 
contamination we found. Since this approach was successful, we were 
preparing contracts for each of the sites. Additionally, the Department 
was developing alternatives for disposal of the waste generated by the 
FUSRAP program. The Department had negotiated for disposal of some of 
the waste in a Resource Conservation and Recovery Act (RCRA) disposal 
site and was investigating other alternatives as well. Further, we were 
aggressively renegotiating our disposal contracts.
    We had also changed the approach from one of doing cleanups on a 
cost basis, to an integrating contractor who issues a number of 
competitive fixed-price contracts and only conducts cleanups where the 
extent of the contamination is extremely difficult to quantify, such as 
contaminated soil along old haul roads. The integrating contractor had 
project managers and a health and safety staff at each site to ensure 
the conditions of the contract were met, and to provide ready 
availability to the local regulators and community. Thus we had taken 
steps to ensure we were integrating the sites efficiently and 
effectively.
    I believe at the time the Congress transferred responsibility to 
the Corps, DOE had: (1) developed consensus on the cleanup strategy 
with the regulators, communities, and congressional delegations, 
including future land-use designations and cleanup levels; (2) prepared 
a contracting strategy that supported competitive fixed-price 
contracts, which would provide safe and cost-effective cleanups; and 
(3) adjusted the management approach which could focus on cleanups in a 
streamlined and efficient manner. We were pleased with the progress we 
had made from late 1995 to October 1997 in getting the FUSRAP onto a 
fast track for cleanup and removal of contamination from urban areas. 
We also believed that the two-fold strategy we embarked upon in late 
1995 was the right approach and had been proven successful.
    With regard to the transfer of other parts of the EM program to the 
Corps, I believe any such transfers would have very serious impacts on 
cleanup progress for several reasons. First, the other EM sites within 
the Department are not independent, but rather have a strong degree of 
interdependence that extends to all aspects of the Department's ongoing 
missions. Even sites within the Closure Fund account, like Rocky Flats, 
rely on other DOE sites with ongoing missions to accept radioactive 
material, whether for storage, re-use, or disposal. Some of these site 
activities are operated and managed by other non-EM Departmental 
offices, with varied missions that may include energy operations, 
research and development, waste management, or environmental 
restoration efforts. This is significantly different from the single 
focus of FUSRAP. The removal of cleanup portions of this matrix would 
interrupt site management and operations at the multi-program sites.
    By contrast, the nature of the sites in the FUSRAP program has 
enabled the Corps to divide responsibility for the sites among its 
numerous and autonomous districts. Although the FUSRAP sites are 
connected historically, they are not interdependent. The sites were 
managed under a single program by DOE in order to avoid redundancy in 
management, even though geographically they could have been separated 
into site groups and been managed without central coordination.
    Second, the material being handled by the FUSRAP program is also 
significantly lower in radioactivity than much of the material that is 
managed at other DOE sites. The safe management of this highly 
radioactive material depends upon the close coordination of the DOE 
management teams at the various Department sites. It is doubtful the 
Corps, without experience in management of significant quantities and 
levels of radioactive material, would enhance the cleanup mission at 
the sites. On the other hand, placing the Corps in charge of site 
cleanups could disrupt the safety and health functions at the sites.
    Third, the Department believes that it has gained significant 
experience in managing cleanup projects and has been able to accelerate 
the progress being achieved at its sites. Our actions have included 
accelerated characterization, aggressive contracting approaches, and 
incorporation of new technologies that have enabled the Department to 
clean up sites more quickly, more efficiently, and more safely. We 
believe that our successes at one site can be applied to other 
Departmental efforts being carried out across the country and that DOE 
is uniquely positioned to build on these successes.
    For example, a major milestone was achieved in fiscal year 1998 by 
the Department, which significantly contributes to the overall EM 
cleanup mission. All Uranium Mill Tailings Remedial Action (UMTRA) 
Surface Project remediation activities were completed. This brings to a 
close one of the Department's longest running and major environmental 
cleanup programs, which was authorized by Congress in 1978 and cost 
approximately $1.5 billion, including $100 million provided by the 
states involved. Under the UMTRA Surface Project, the Department 
completed remedial actions at 22 of the 24 originally designated sites, 
with two sites being delisted and their responsibility transferred to 
the state of North Dakota. The project involved efforts with 11 States, 
2 Indian tribes, and 23 communities. Cleanup was performed at over 
5,300 vicinity properties located near the 22 designated UMTRA sites, 
and over 40 million cubic yards of material were remediated and 
nineteen long-term disposal cells were constructed. The disposal cells 
must be permanently monitored and maintained. At most of these sites, 
groundwater contamination remains and is being addressed by the UMTRA 
Groundwater Project. The completion of the UMTRA Surface Project marks 
a significant milestone in the Department's efforts to remediate the 
environmental legacy from the production of nuclear weapons. Just as 
mining and milling of uranium was the first step towards the production 
of nuclear weapons, the completion of the UMTRA Surface Project 
represents the first step towards ``closing the circle'' of the 
environmental legacy from nuclear weapons production.
    Overall in fiscal year 1998, EM completed cleanup at five 
geographic sites, bringing the total completed to 65 of the 113 sites 
currently under EM's responsibility. Progress was also demonstrated by 
cleaning up portions of the EM geographic sites, referred to as 
``release sites,'' and facilities. Cleaning up these areas ultimately 
leads to the completion of the entire geographic site and in fiscal 
year 1998, cleanup was completed at 290 release sites, and 108 
facilities were decommissioned. This brings the total release sites 
completed to 4,124 of the total 9,700 release site inventory, and 448 
facilities decommissioned out of the 3,354 facility inventory.
    We have also been making significant progress at our major sites. 
For example, at the Savannah River Site (SRS) in South Carolina, DOE 
has made significant strides in groundwater and soils remediation over 
the past several years. Of the 500 acres that require remediation, 
nearly 330 acres have been remediated or are in the process of being 
remediated. Of eleven groundwater contamination areas, six have 
remediation systems in operation and over 3,000 million gallons of 
groundwater has been treated. Innovative technology has played an 
important role in acceleration of remediation at SRS and has helped 
drive down costs. For example, passive technologies have reduced costs 
while achieving excellent pollution removal. A total of 12 innovative 
technology deployments in 1998 will further accelerate our remedial 
activities. Unlike FUSRAP sites, significant work remains at the SRS to 
manage the legacy nuclear materials and wastes requiring stabilization 
and disposition. Additionally, the SRS will be assisting other DOE 
sites, including the Rocky Flats site in Colorado, by accepting certain 
excess nuclear materials. Key to these activities is the complex 
operations in the H and F Canyon processing facilities and the Defense 
Waste Processing Facility. These large facilities require specialized 
management experience in nuclear safety programs, including radiation 
safety and criticality control. DOE has more relevant and significant 
experience in these areas and is better positioned than the Corps to 
assure oversight in these key areas. DOE also has the requisite 
experience to ensure that the waste tank farm operations are conducted 
in a manner that fully supports the waste processing needs of the 
Canyon facilities.
    The Department also is actively engaged in a program to assure the 
return of highly enriched uranium from foreign research reactors in 
support of U.S. nonproliferation efforts. Program management activities 
require extensive exchange with the Department of State, interface and 
technical assistance to foreign research reactor owners, outreach with 
affected States and receipt, transport and storage of spent nuclear 
research reactors fuels at Savannah River and Idaho. Again, the 
Department has significant and relevant experience in these complex 
program areas.
    The Department must manage its facilities in an integrated fashion 
to accelerate cleanup, and more rapidly reduce large mortgage costs at 
its sites. This integration is typified by the current plans to 
accelerate the closure of the Rocky Flats site. The SRS is preparing to 
receive surplus plutonium from Rocky Flats at an accelerated pace by 
modifying the K Area Reactor to permit storage of the Rocky Flats 
plutonium two years earlier than previously planned. This action will 
help support accelerated Rocky Flats closure by fiscal year 2006, with 
an estimated life cycle cost savings of approximately $1.3 billion. 
Significant program integration efforts involving EM Headquarters, the 
Rocky Flats site, Savannah River, the Hanford Site, the DOE Office of 
Fissile Materials Disposition and other contractor and national 
laboratory participants was necessary for providing the needed support. 
In our view, the Department is better able to effectively manage these 
integration efforts because of our extensive experience. In short, the 
programmatic challenges faced at Savannah River require the unique 
experience of the Department for effective, successful management.
    At Rocky Flats, we are aggressively working to accelerate the 
closure of the site, and are developing a revised baseline to achieve 
closure by 2006. Closure of Rocky Flats is absolutely dependent on 
other DOE sites. Waste and material generated during the closure is 
going to a minimum of six other DOE facilities in six states. Material 
from the pits is going to Pantex, highly enriched uranium to Oak Ridge, 
residues to Savannah River, low-level waste to the Nevada Test Site, 
and TRU waste to the Waste Isolation Pilot Plant (WIPP); decisions on 
the disposition of classified parts still categorized as national 
security material are being finalized, with the material likely to go 
to Savannah River Site, the Los Alamos National Laboratory, and/or the 
Lawrence Livermore National Laboratory. Many of these shipments are on-
going. Some of the material being shipped is actually being stored or 
processed in facilities funded and managed by other DOE programs in 
addition to EM. Extensive coordination among DOE federal staff is 
necessary to ensure schedule, cost, and environmental concerns are 
known and are being resolved to allow the shipments to take place.
    At Oak Ridge, Tennessee, the Department has made significant 
progress in the remediation of the first gaseous diffusion plant at the 
K-25 site. This site, now known as the East Tennessee Technology Park 
(ETTP), is a good example of how the Department is working closely with 
the private sector to accelerate cleanup and returning property and 
buildings to productive use. The Department's innovative approach to 
reindustrialization of the site has attracted 20 companies and over 650 
jobs, and has resulted in considerable savings to the government. Major 
remediation projects such as the removal of contaminated sludge from 
highly radioactive storage tanks, called the ``Gunite Tanks'' at Oak 
Ridge National Laboratory and the removal of radioactive deposits from 
old process buildings have reduced the risk of criticality as well as 
health and safety risk to workers and have been completed ahead of 
schedule.
    The Toxic Substance Control Act (TSCA) Incinerator, located at the 
ETTP, is a unique resource used by other DOE programs and sites. This 
facility treats radioactive, TSCA, and RCRA hazardous wastes from 
numerous facilities, allowing them to maintain compliance with their 
Site Treatment Plans required by the Federal Facility Compliance Act. 
The Filter Test Facility (FTF), also located at ETTP, is another 
facility operated by EM that provides a complex-wide service to other 
DOE programs. The FTF tests High Energy Particulate Air Filters that 
are used throughout the complex and are essential to worker safety and 
controlling releases of radioactive constituents. This facility is the 
only one within the DOE complex serving this function. In addition, EM 
has awarded the Broad Spectrum Waste Treatment Contract at Oak Ridge to 
effectively treat mixed hazardous and radioactive wastes to meet 
compliance schedules established by the Site Treatment Plans at other 
DOE sites as well as at Oak Ridge.
    EM has also made considerable progress at Oak Ridge in several 
other areas. Cleanup of Gunite Tanks is well underway using robotic 
technologies, developed by EM's Office of Science and Technology (OST), 
to empty the tanks of the transuranic contaminated sludges. This 
project is attacking problems similar to the tank waste project at 
Hanford, and lessons learned from Oak Ridge activities will be utilized 
at Hanford. Technologies developed by OST at other sites have also been 
instrumental in mitigating releases of contaminants to ground and 
surface waters at the Oak Ridge Reservation, and at the Paducah, 
Kentucky and Portsmouth, Ohio sites. In addition, EM is addressing a 
highly complex problem with the decommissioning of the Molten Salt 
Reactor Experiment at ORNL. EM is in the process of purging radioactive 
gases from the system and is about to tackle the removal of Uranium 
deposits that have migrated into the project's filter system. This is a 
highly complex operation with high levels of radioactive material, and 
EM is drawing on the expertise of DOE's National Laboratories to solve 
the problem. Another technically difficult problem at Oak Ridge is the 
treatment and packaging of TRU waste for eventual disposal at WIPP. Oak 
Ridge currently has most of the DOE complex's remote-handled TRU, as 
well as large amounts of contact-handled transuranic waste in storage 
and has recently issued a fixed price contract to prepare this material 
for shipment to WIPP.
    EM is also a partner with DOE's Office of Nuclear Energy in dealing 
with the United States Enrichment Corporation (USEC) at the Paducah and 
Portsmouth Gaseous Diffusion Plants in Kentucky and Ohio. DOE provides 
landlord services to USEC and obtains services from USEC's operating 
contractor, Lockheed Martin Uranium Services, for maintenance and other 
EM tasks. In addition, if USEC shuts down either of these plants, it 
will be transferred to DOE and become part of EM's responsibilities. 
Funds for this activity have been specifically earmarked by Congress in 
the Uranium Enrichment Decontamination and Decommissioning Fund managed 
by the Department's Oak Ridge Operations Office. Certain United States 
nuclear utilities contribute to this fund based on past operations.
    At the Weldon Spring, Missouri site, the Department is on track to 
complete a complex remediation effort which involves decontamination 
and demolition of dozens of contaminated structures, treatment of 
millions of gallons of contaminated waste waters, hundreds of thousands 
of cubic meters of sludge waste, removal and disposition of hundreds of 
thousands of cubic meters of contaminated soils, and construction of an 
on-site disposal facility that will close one of the first DOE 
complexes used in the development of our nation's nuclear weapons 
program. Working with the site contractor and with the cooperation of 
stakeholders, DOE has been able to reach its remediation goals at 
Weldon Springs within the cost and schedule objectives as originally 
planned.
    At the Fernald, Ohio site, the Department has been working to 
accelerate the cleanup by closely coordinating our plans with the 
regulators and the community. Again, dozens of structures are being 
decontaminated and removed, and the land is being remediated so that it 
can be returned to public use. Our cooperative approach with the 
stakeholders and regulators will enable the Department to close this 
site and return it to public use decades ahead of the original 
schedule.
    At Idaho, DOE has made major strides in meeting the Idaho 
Settlement Agreement commitments for placement of spent nuclear fuel 
(SNF) in dry storage. The new dry storage facility was ready to receive 
its first shipment of SNF in December 1998, and the first transfer of 
Three Mile Island SNF was loaded into the facility in March 1999. In 
January 1999, DOE issued a Request for Proposal for a SNF privatization 
storage project which, when awarded late this year, will be a critical 
facility for providing dry storage capacity for additional SNF at 
Idaho. In addition, DOE will complete moving at-risk SNF from wet 
storage in the CPP-603 facility to safe storage by December 2000. Idaho 
is and will continue to receive and store both domestic and foreign 
research reactor fuel. The success of safely managing the highly 
radioactive SNF has been due to the experienced and highly qualified 
DOE staff at Idaho and Headquarters, and an established working 
relationship with the Nuclear Regulatory Commission and the State of 
Idaho. Idaho also manages the National Spent Nuclear Fuel Program and 
integrates all SNF management and disposition activities across the DOE 
complex, including coordination with the DOE Office of Civilian 
Radioactive Waste Management, which is responsible for ultimate 
disposal.
    The inter-dependence between DOE sites is especially evident at 
Idaho, which depends on other DOE sites, including Argonne National 
Laboratory-West for examination of spent nuclear fuel, Yucca Mountain 
for receipt of high-level waste and spent fuel, the WIPP site for 
receipt of transuranic waste, and the Y-12 Plant in Oak Ridge for 
receipt of highly enriched uranium. Shipments of transuranic waste from 
Idaho to WIPP are being coordinated among EM Headquarters, the Carlsbad 
Area Office, the Idaho Operations Office, and other DOE sites that will 
be shipping to WIPP. Other sites also depend on Idaho, since it 
receives their mixed low-level waste for incineration at Idaho 
facilities.
    At the Hanford, Washington site, the Department faces probably the 
greatest technical challenges as well as the largest inventory of high 
level waste. The cleanup of the K-Basins and the high-level waste tank 
farms are unique missions involving high-level radioactive materials 
which need the specialized expertise the Department has built over many 
years. After about 50 years of producing nuclear materials at Hanford, 
DOE is now cleaning up seriously degraded facilities containing great 
hazards. The background, knowledge, skill and training of the 
contractor and Department personnel are essential to conducting the 
work safely. Many times the experience of the workers and the Federal 
staff are a critical component in determining how to conduct work 
safely in old facilities where existing conditions are uncertain. The 
Defense Nuclear Facilities Safety Board (DNFSB) recognized the critical 
importance of worker qualification and experience in issuing 
Recommendation 93-3 to the Department on this topic, and DOE staff have 
worked diligently over the past six years to reach the DNFSB 
expectations. Furthermore, the DNFSB has issued a number of other 
Hanford-specific recommendations that recognize the difficult challenge 
of characterizing the wastes in the tanks, and highlight safety issues. 
These are topics that demand personnel who are highly specialized and 
trained in the nuclear sciences and engineering--exactly the people 
that the Department and its contractors now have.
    Furthermore, there are many interfaces across the Hanford site 
which led the Department to adopt the Management and Integrating 
contractor concept. We are now realizing the benefits of this 
arrangement through greater cooperation among on-site organizations, 
resulting in improved performance, cost savings and enhanced cleanup 
accomplishments. For example, the groundwater and vadose zone studies 
in the tank areas and in the other parts of the Hanford site are being 
integrated to develop a site-wide picture of subsurface water 
movements. Similarly, integration of work by the various contractors is 
being accomplished through a systems engineering approach, governed by 
Interface Control Documents. This effort is part of DNFSB 
Recommendation 92-4. The integration of the numerous programs and 
contractors enables DOE to manage the whole site, putting limited 
resources on the most important work yet taking into consideration the 
concerns of stakeholders. The Department views the path to success as 
more integration; sharing cleanup with another Federal agency would 
limit the opportunities for integration.
    Progress in 1998 at Hanford included completion of the B-Plant 
deactivation, four years ahead of schedule and at a savings of $100 
million. Annual facility costs have been reduced from $20 million to 
less than $1 million. DOE and its contractors used innovative 
techniques to accelerate the project, including reengineering the 
organization to make it more efficient, forming dedicated project teams 
and using lessons learned from the successful early closure of the 
PUREX Plant. The continuation of expertise from key Federal staff 
involved in the PUREX project played a vital role in the success of the 
B-Plant project. The N-Reactor deactivation project was also completed 
in fiscal year 1998, placing the N-Reactor in a low-cost surveillance 
and maintenance mode pending final disposition. This project included 
the deactivation of 86 facilities, removal of 4,774 cubic feet of 
sediment and 1,140,000 gallons of water, and 350 pounds of fuel from 
the fuel basin. The N-Reactor deactivation project cost $120 million 
over a 6-year period, and resulted in the N-Reactor being placed in a 
safe and stable condition with an annual surveillance and maintenance 
cost of only $350 thousand.
    In light of all the progress EM is making, the Department does not 
believe additional transfers to the Army Corps of Engineers would 
provide any significant benefit. The FUSRAP program was the most 
straightforward of the DOE's cleanup programs. With the exception of 
the wastes stored at the Niagara Falls Storage Site, this program 
involved material with some of the lowest concentrations of any 
material managed by DOE. The inter-site and intra-Department 
integration of radioactive materials at the other DOE sites being 
remediated would be disrupted by other possible transfers of 
responsibilities. The regulatory and safety issues involved with the 
remediation of DOE sites could quickly lead to complications if 
responsibility for cleaning up these sites were transferred to the 
Corps, due to the fact that these other sites generally are 
contaminated with material of significantly greater radioactivity 
levels than the FUSRAP sites, which in many cases cannot be disposed of 
at any facility other than a DOE site under DOE control. Likewise, a 
number of sites contain special nuclear materials often require 
coordination with and the involvement of other DOE sites. The 
Department has extensive expertise in dealing with these waste 
materials, which the Corps does not have.
    For these reasons, I believe that the consequences of transferring 
any additional portions of the Department's cleanup program to the Army 
Corps of Engineers would be to slow down progress and that any such 
transfer would be detrimental to the sites involved, the communities, 
and the Government as a whole.
                   waste isolation pilot plant (wipp)
    Question. How important is the opening of WIPP to DOE's waste 
disposal strategy?
    Answer. The Waste Isolation Pilot Plant is the cornerstone of the 
Department's national strategy for disposal of transuranic waste. 
Numerous legally-binding Consent Orders and Agreements between the 
Department and States are predicated on the disposal of transuranic 
waste at the Waste Isolation Pilot Plant (WIPP). In addition, WIPP is 
critical to achieving the accelerated closure of sites such as Rocky 
Flats.
    Question. Will DOE begin waste shipments to WIPP this year as 
planned? What is your current schedule to make the first shipment? What 
actions could jeopardize the first shipments at this late date?
    Answer. On March 22, 1999, Judge John Garrett Penn concluded that 
the permanent injunction he issued in 1992 does not prevent the 
shipment of waste to WIPP for disposal, and that WIPP has interim 
status under the Resource Conservation and Recovery Act (RCRA). The 
first shipment of waste from Los Alamos occurred on March 26, 1999. DOE 
made its first shipment of waste from the Idaho National Engineering 
and Environmental Laboratory to WIPP on April 27, 1999, and plans to 
begin shipments from the Rocky Flats Environmental Technology Site in 
June or July 1999. There is still the possibility that private 
plaintiffs or the New Mexico Environment Department will seek to block 
shipments to WIPP from DOE sites outside of New Mexico.
    Question. Mr. Owendoff, you know I have been extremely concerned 
about the State of New Mexico's delay in considering a RCRA permit for 
WIPP. Can you tell me where we stand today with respect to the suit 
before Judge Penn and when you expect the New Mexico Environmental 
Department to issue a permit?
    Answer. I am happy to inform you that on Monday, March 22, Judge 
Penn ruled that WIPP has interim status under RCRA and that DOE could 
ship waste to WIPP. On Wednesday, March 24, eight federal judges in 
three separate courts agreed that WIPP's opening should not be delayed. 
The first shipment of waste from the Los Alamos National Laboratory 
arrived at WIPP at about 3:30 am (MST) on Friday, March 26. Over the 
next several months, DOE plans to send additional shipments to WIPP 
from Los Alamos, Idaho and Rocky Flats based on the judge's decision 
that WIPP has interim status and therefore may accept waste while the 
permitting process is completed.
    We do not expect that the Department will be in a position to ship 
waste to WIPP from these three sites pursuant to a final permit until 
late this year or sometime next year. It appears that the New Mexico 
Environmental Department (NMED) will not issue a final permit until 
October or November 1999, and under New Mexico's regulation, the permit 
would not become effective until thirty days after its issuance. In 
addition, the draft permit requires that NMED approve every site before 
it ships mixed waste to WIPP, and NMED has never provided DOE with any 
indication of its schedule for issuing these approvals for Los Alamos, 
Idaho and Rocky Flats.
    The latest draft of the permit issued by NMED also has provisions 
that would require Westinghouse, DOE's contractor at WIPP, to provide 
financial assurances for closure of the facility despite the fact that 
RCRA exempts the federal government from the requirement for financial 
assurances. Westinghouse estimates that, even if it finds an insurance 
or bonding mechanism for providing such assurances, the cost could be 
somewhere between $2-18 million annually. DOE will have to reimburse 
Westinghouse for this expenditure.
    We are also troubled by statements NMED has made during the permit 
hearing and elsewhere that DOE might be: (1) required to submit a new 
RCRA permit application; (2) prohibited from using Panel 1 after the 
permit is issued; or (3) subject to enforcement actions under RCRA if 
DOE ships waste to WIPP before the State issues the permit. We know of 
no legal basis for these assertions, but NMED has been making them even 
after Judge Penn concluded that WIPP has interim status.
    Question. What would be the impact across DOE if WIPP does not open 
as expected?
    Answer. We are pleased to report that WIPP received its first 
shipment of transuranic waste on March 26. We look forward to operating 
WIPP as the integral part of our environmental cleanup program.
    Question. How many State consent orders and agreements would be 
impacted by a delay in WIPP opening?
    Answer. There are sixteen states which have DOE facilities that 
generate or store transuranic (TRU) waste. All of the facilities in 
these states have ``waste disposition maps'' which identify WIPP as the 
disposal facility. Key among the State consent orders and agreements 
are those for Idaho National Engineering and Environmental Laboratory 
(INEEL) and the Rocky Flats Environmental Technology Site (RFETS) which 
are at the critical point for milestone compliance. Several other DOE 
sites may need to negotiate with their host state on transuranic waste 
alternatives if the final resource Conservation and Recovery Act (RCRA) 
WIPP permit is issued beyond the October-November 1999 time frame.
    At INEEL, DOE met the milestone in the Idaho Settlement Agreement 
when the first shipment of TRU waste left the state on April 27, 1999. 
Under the Agreement/court order, DOE must also meet the following TRU 
waste interim deadlines: ship no fewer than 3,100 cubic meters of TRU 
waste out of Idaho by December 31, 2002; after January 1, 2003, ship 
out of the State a running average of no fewer than 2,000 cubic meters 
of TRU waste per year; and ship an estimated 65,000 cubic meters of TRU 
waste out of the State of Idaho by a target date of December 31, 2015, 
but no later than December 31, 2018. If any of these deadlines are not 
met, the DOE must suspend shipments of DOE spent nuclear fuel and 
foreign research reactor spent fuel to INEEL for storage.
    Under the terms of the Rocky Flats Cleanup Agreement, the 
Department committed to ship 375 drums of TRU waste by the end of 
fiscal year 1998. Because WIPP did not open, DOE renegotiated the 
milestone with the regulators to ship 670 cubic meters of TRU waste 
offsite by the end of fiscal year 1999. An inability to ship TRU waste 
offsite for a prolonged period of time would require construction of a 
storage facility for TRU and mixed TRU waste. In addition, DOE is 
strongly committed to accelerated cleanup of Rocky Flats, and shipments 
of transuranic waste should begin this year to support achievement of 
that goal.
    By making the first shipment from the Los Alamos National 
Laboratory, the Department was able to meet a commitment to the State 
of New Mexico and avoid entering into negotiations to identify 
treatment requirements for the transuranic waste in storage at that 
site.
    Question. If WIPP does not open on time will DOE waste movements 
come to a halt? What alternatives is DOE considering to maintain 
schedules and cost savings tied to opening of WIPP?
    Answer. On Monday, March 22, Judge Penn ruled that WIPP has interim 
status and that there is no reason to delay shipments to WIPP any 
longer. On Wednesday, March 24, eight federal judges in three separate 
courts agreed that WIPP's opening should not be delayed. The first 
shipment of waste from the Los Alamos National Laboratory arrived at 
WIPP on Friday, March 26. DOE also made the first shipment to WIPP from 
the Idaho National Engineering and Environmental Laboratory (INEEL) on 
April 27, 1999. Over the next several months, DOE plans to send 
additional shipments to WIPP from Los Alamos, Idaho and Rocky Flats.
              los alamos environmental restoration program
    Question. A few months ago, there were new reports of contamination 
of the groundwater aquifer around the Los Alamos Laboratory from high 
explosive residues. Could you explain the problem and what DOE is doing 
to address the issue?
    Answer. The Department has detected high explosives (HE) residues 
in groundwater beneath the southwest edge of the Los Alamos National 
Laboratory (LANL). This contamination was discovered in the 
characterization well R-25 that is currently being constructed at LANL 
Technical Area 16. The contamination comes from past high explosives 
research, development, and testing activities carried out in this area. 
Prior to operations at the Pantex site, HE components for the nation's 
nuclear stockpile were manufactured at the TA-16 area.
    High explosives and chemicals associated with their breakdown were 
present in most of the samples down to a depth of 1,607 feet. 
Concentrations in most groundwater samples above 1,607 feet exceed the 
EPA health advisory guidance for drinking water.
    Groundwater in the TA-16 area is not used for drinking water. The 
closest water supply well is located 3.5 miles east of the R-25 well. 
The groundwater travel time between the R-25 well and the nearest water 
supply well is probably between 50 and 200 years. Samples from the 
nearest six water supply production wells on the LANL property were 
tested and found to contain no high explosive degradation products.
    Steps have already been taken to reduce the discharge of high 
explosives processing water in the TA-16 area. In the early 1990s, LANL 
recognized that high explosives wastewater discharges at TA-16 would 
not meet State stream standards, and began to reduce discharges and 
improve discharge water quality. These changes were completed in 
September 1997 and included a new high explosives wastewater treatment 
plant. In addition, installation of new vacuum pumps at TA-16 high 
explosives processing facilities improved reuse of wastewater and 
reduced flow to the wastewater treatment plant. Other changes 
eliminated 19 of the 21 high explosive wastewater outfalls. Before 
1997, the Laboratory discharged more than 12 million gallons of HE-
contaminated wastewater a year at TA-16. Since the new treatment plant 
was installed and the wastewater outfalls were eliminated, the 
Laboratory discharges only 120,000 gallons per year, or about 1 percent 
of the amounts previously discharged.
    The R-25 well is the third of 32 planned deep wells that LANL will 
install as part of a seven-year groundwater study. The study, 
documented in the Hydrogeologic Workplan, has been approved by the New 
Mexico Environment Department and is being carried out jointly by the 
Offices of Environmental Management and Defense Programs. The goal is 
to develop better understanding of the geology, groundwater flow, and 
geochemistry beneath the 43 square mile LANL area. The study will also 
assess impacts that prior LANL activities have had on groundwater 
quality in the area.
    The TA-16 area is one of LANL's highest priority cleanup sites. 
Removal of high explosives from contaminated soils near recently 
eliminated wastewater outfalls will begin this year. In particular, 
high explosive contaminated soils in the vicinity of the Building 260 
outfall are scheduled for cleanup this summer. The Department is also 
constructing R-25 as a monitoring well with nine sampling ports 
distributed throughout the upper and lower zones of saturation. Once 
completed, the additional samples will be collected on a periodic basis 
to define the distribution of high explosive concentrations in 
groundwater and to monitor changes in the quality of the groundwater 
over time.
    Question. Are you coordinating your actions with the State of New 
Mexico and do they concur with your actions and plans?
    Answer. The Department and Los Alamos National Laboratory (LANL) 
staff are working closely with regulators in the New Mexico Environment 
Department and Groundwater Bureau to define future planned activities 
as a result of the R-25 findings. State regulators have been briefed on 
the R-25 results throughout the R-25 drilling effort. Results have also 
been discussed with the New Mexico Environment Department at the 
Hydrogeologic Workplan quarterly meeting on February 9, and at a 
meeting with the New Mexico Environment Department and Groundwater 
Bureau held in Santa Fe on March 4.
    LANL staff discussed the R-25 results and future characterization 
plans with State regulators at the March 29-31 Hydrogeologic Workplan 
meeting.
    Question. What are DOE's plans and schedule for installing a new 
regional aquifer to the monitoring well to determine whether 
contaminants have moved away from Technical Area-16?
    Answer. The Department is accelerating the schedule for installing 
a new regional aquifer monitoring well that will be located between the 
characterization well R-25 and the nearest water supply wells as part 
of the Hydrogeologic Workplan. The new well will show whether 
contaminants have moved away from TA-16, and provide information to 
assist LANL efforts to ensure that drinking water supplies are 
protected. Drilling the new well will begin either this year or early 
next year.
    In addition to the regional aquifer well described above, LANL is 
planning additional investigations in the TA-16 area to better 
understand the nature and extent of groundwater contamination 
identified by the R-25 drilling effort. Plans are currently under 
development to determine the size of the contaminant plume that 
contains high explosives components and the direction and velocity of 
groundwater flow. The numbers and locations of any new wells will be 
developed in cooperation with State regulators in the New Mexico 
Environment Department and Groundwater Bureau.
      hanford reprogramming/em program accountability and control
    Question. Now I'd like to talk for a moment about the Hanford Tank 
Operations reprogramming proposal, and the broader, more fundamental 
issue of accountability and control within the Environmental Management 
program.
    First, regarding the reprogramming of $53.3 million for Tank 
Operations at Hanford, I understand that DOE knew as early as May 1998 
that additional ``critical'' work requirements would make it difficult 
to stay within available funding levels. The Department was notified in 
August of 1998 by the M&I contractor that there were increased funding 
needs to address important issues in the tank farm. Yet, there was no 
action taken until mid-February 1999 to alert the committee of a 
potential problem, and it was not until February 24, 1999, that the 
Department formally notified the appropriate Committees of Congress of 
the funding shortfall and the need for the additional $53.3 million. 
This chronology raises serious questions as to how the Department of 
Energy manages its programs and the extent that the Department is able 
to control how appropriated funds are spent.
    Why, based on your own timeline, in May and again in July of 1998 
when additional unscheduled work became known, didn't the Department 
take actions to reorder priorities in an effort to stay within the 
available funding level?
    Answer. In May 1998, although some of the conditions that would 
eventually require this reprogramming were known to exist, the impact 
to fiscal year 1999 planning was not fully apparent. By July, a number 
of events occurred, such as completion of a Process Control Plan for 
tank C-106, the State's notification of its intent to sue related to 
interim stabilization, and a high incidence of reported alarm failures, 
that defined the urgent and emergent safety actions which would need to 
be addressed in fiscal year 1999. However, the full scope, schedule, 
and costs associated with these activities were not defined 
sufficiently to be able to reprioritize work at that time. In 
retrospect, we should have advised the Congress in August 1998 of the 
new requirements and the potential for a reprogramming request. This 
would have provided the Congress the opportunity to decide if the 
fiscal year 1999 appropriation marks should be revised.
    Question. Why in August of 1998 was the committee not informed of 
the additional problems and funding needs as identified by the M&I 
contractor? You'll remember that the Conference on the fiscal year 1999 
Energy and Water Appropriations Bill had not taken place, so the 
committee had the ability and opportunity to address this issue when 
finalizing the fiscal year 1999 Environmental Management budget.
    Answer. While the need was recognized, the information required for 
a formal request was not fully developed. In August 1998, the Richland 
Operations Office was still working on the contractor's multi-year work 
plan. Additionally, the Department was in the midst of negotiations 
with the State of Washington concerning stabilization of the single 
shell-tanks. The full scope of the activities to be required was not 
fully defined at that time. Therefore, the entire scope of the 
additional work was not clearly defined, nor were the associated costs. 
It would have been premature to request Congressional action without 
proper details to support the request. However, in retrospect, had we 
advised the Congress in August 1998 of the new requirement and 
potential for a reprogramming request, it would have provided Congress 
with the opportunity to decide if the fiscal year 1999 appropriation 
marks should be revised.
    Question. Why, knowing of the shortfall in funding, did the 
Department authorize the M&I contractor to proceed with additional work 
prior to notification and approval of a reprogramming by the Committee 
on Appropriations of the House and Senate?
    Answer. The contractor was authorized to proceed to address urgent 
and emergent safety needs, as well as regulatory requirements. At no 
time did Richland intend to exceed available funding limits, or violate 
any fund controls. There had always been a plan in place to reduce 
scope to stay within the limitations. However, this plan involved 
significant impacts to site-wide programs. The need for the 
reprogramming arose because of the requirement for additional operating 
funds in the Post-2006 Completion Fund account. If the reprogramming 
were to be disapproved, all programs under this account (i.e., 
environmental restoration, waste management, and Tank Waste Remediation 
System/privatization support) would have had to absorb reductions to 
allow the tank safety work to continue.
    Question. Why did it take from August of 1998 until February 1999 
for the Department to get a reprogramming request to the committee?
    Answer. Last summer, the Richland Operations Office identified 
several funding needs in the high level tank waste operations program. 
These needs exceeded the identified potential funding sources. 
Therefore, the Richland Office and Headquarters worked together to 
develop the funding priorities to be included in the reprogramming 
request as well as the potential funding sources.
    During this process, additional funding needs arose as a 
consequence of new technical issues with one tank that has posed 
significant health and safety problems in the past, as well as the new 
consent agreement with the State of Washington to resolve compliance 
issues concerning interim stabilization of the single shell tanks.
    To ensure that these new activities were properly priced and to 
avoid the need to submit two reprogramming requests, the Richland 
Office and Headquarters continued to work together to finalize the 
technical approaches and pricing for these new activities before the 
reprogramming request was submitted to Congress.
    The Richland Office submitted its formal reprogramming request to 
Headquarters on December 10, 1998; Headquarters submitted the request 
to OMB on February 4, 1999; and the Department submitted the final 
request to Congress on February 24, 1999.
    In retrospect, we should have advised Congress in August of 1998 of 
the new requirement and potential for a reprogramming request. This 
would have afforded Congress the opportunity to decide if the fiscal 
year 1999 appropriation marks should be revised or wait for a formal 
reprogramming request.
    Question. Finally, can you explain how or why the Department was 
able to assume approval of the reprogramming in the fiscal year 2000 
budget, which the Department prepared last year and submitted to the 
Congress on February 1, 1999, when the requirements of the 
reprogramming request were not fully known and no request had been 
submitted to the committee?
    Answer. The Department intended to present the Congress with a 
request for fiscal year 2000 that was consistent with the reprogramming 
request that would be presented to the Congress at approximately the 
same time. In this manner, the Department would be presenting to the 
Congress a consistent and coherent description of the program that the 
Department was seeking to execute at the Hanford site in fiscal year 
1999 and fiscal year 2000. With respect to the timing of the fiscal 
year 2000 budget submission, the Richland portion of the fiscal year 
2000 budget request was not finalized until late January 1999, so that 
it would accurately reflect the information contained in the soon-to-
be-submitted reprogramming request. At no time did the Department 
assume the reprogramming had been approved. If the reprogramming had 
not been approved, we would have modified our request for fiscal year 
2000 accordingly.
    In retrospect, we should have advised the Congress in August 1998 
of the new requirement and potential for a reprogramming request. This 
would have provided the Congress the opportunity to decide if the 
fiscal year 1999 appropriation marks should be revised.
    Question. Secondly, and probably of more concern, is the total lack 
of ability of DOE to control the waste cleanup program, not just at 
Hanford, but throughout the DOE complex. This reprogramming is just one 
illustration of the issues and problems. It is just a symptom of a 
bigger problem namely, that DOE's cleanup efforts are being driven by 
compliance agreements and state threats of legal action irrespective of 
the actions by Congress in appropriating funds for the Environmental 
Management program.
    Mr. Owendoff, would you care to respond?
    Answer. First, I would like to address the concern regarding the 
extent to which the EM program is ``driven'' by cleanup agreements and 
potential state legal actions.
    The EM budget is driven by a number of factors, including:
    (1) the need to mitigate or control risks to human health and the 
environment posed by the Department's unprecedented inventory of 
nuclear and hazardous wastes and materials;
    (2) legal obligations to perform a variety of activities, and the 
national policy to reduce global nuclear proliferation risks; and
    (3) a strategy to invest in certain activities such as accelerating 
project completion dates that can reduce longer-term program costs.
    The Department's legal obligations arise directly from federal and 
state environmental and public health laws and regulations that apply 
to DOE's activities, and from compliance agreements that the Department 
has entered into pursuant to those laws.
    The Department recognizes the importance of both meeting its legal 
obligations and managing a program within the current budgetary 
constraints. In many instances, state and federal regulators have been 
willing to renegotiate compliance milestones in light of emerging 
technical information and budgetary constraints. However, state and 
federal regulators have recently indicated an increasing reluctance to 
continue to do so.
    Many EM projects involve unique and complex technical and 
managerial challenges. These include unique, high-level liquid 
radioactive waste mixtures in leaking underground tanks, corroding 
spent nuclear fuel in wet storage pools, and waste in burial pits 
containing plutonium and other wastes in unknown concentrations and 
locations. In a number of instances, the cost and schedules of these 
projects have proved difficult to accurately define or project in 
advance. However, the Department has taken a number of steps to improve 
its project management to help ensure that projects can be completed on 
schedule and within current budgets. For example, the Department has 
undertaken a major effort to integrate cleanups between sites to take 
advantage of potential economies of scale and to eliminate duplicate 
facilities. Also, pursuant to Congressional direction, the Department 
has created the Office of River Protection to manage the Hanford tank 
program. EM also is creating the Office of Independent Project Reviews 
to monitor and improve management of major projects. We are continuing 
to improve our contracting methods to provide our contractors with the 
right incentives and penalties for good or poor performances.
    I must respectfully disagree with the suggestion that there is a 
``total lack of ability to control the waste cleanup program.'' The 
Department acknowledges that there have been prominent instances in 
which project cost escalations and/or delays in schedules have led to 
legal issues and budgetary pressures. These projects generally have 
involved the unique technical challenges described above. In these 
cases, the Department has taken steps to improve its management of 
these specific projects as well as other technically challenging 
projects. In fact, the Department has made substantial progress in 
completing cleanup projects. By the end of fiscal year 1999, we expect 
to have completed cleanup or made ``no further action'' determinations 
for nearly half (47 percent) of the approximately 9,300 contaminated 
release sites for which the EM program is responsible. This will result 
in the completion of the active cleanup of 65 of the 113 sites 
originally under the EM program (excluding the FUSRAP sites). We have 
produced 617 canisters of waste vitrified into glass since operations 
began at the Savannah River Site near Aiken, South Carolina, and 237 
canisters at the West Valley Demonstration Project in New York. In 
1998, the Department completed the Uranium Mill Tailings Surface 
Project (cleanup of 22 mill sites and 5,700 vicinity properties); the 
decommissioning of the Hanford-Reactor and B-Plant; the cocooning of 
the Hanford C-Reactor; and the completion of Phase I of the 
vitrification program at West Valley, New York (vitrification of all 
waste except for tank heels.) In addition, the Department is on track 
to complete the closure of the Weldon Spring site by 2002 and the Mound 
site by 2005. We are also on track to complete cleanup at Fernald by 
2006 and continue to refine our project baselines at Rocky Flats in 
order to meet our ambitious goal to clean up Rocky Flats by 2006.
    The Department therefore believes that although there are several 
instances in which project management has been a difficult challenge, 
the program is being managed and we are making the necessary progress.
                         science and technology
    Question. The funding request for fiscal year 2000 for the DOE 
environmental management Science and Technology program is $230.5 
million compared to $243.2 million provided of the current year, a 
reduction of $12.6 million. Within the overall request is funding for 
the Office of Science program which support the efforts of the 
Environmental Management program. This is funded at $47 million in 
fiscal year 1999 and the request for fiscal year 2000 is $32 million, a 
reduction of $15 million from the fiscal year 1999 level.
    Is the continued reduction in the Science and Technology program 
strictly related to budget constraints or is there some other reason 
for the decline?
    Answer. In fiscal year 1999, the Department requested $219.5 
million for the Environmental Management Science and Technology 
program, including $32 million for the Science Program. The Congress 
appropriated $243.5 million for the Science and Technology program, 
including $47 million for the Science program. This represented a $15 
million increase from the request for the Science program and a $14 
million overall increase. The increase provided by Congress in fiscal 
year 1999 for the Science program will enable the Department to 
initiate several new projects in fiscal year 1999 to address scientific 
problems associated with vadose zone, subsurface contamination, and 
groundwater issues at sites such as Hanford and to develop a better 
scientific basis for understanding exposures and risks to humans from 
low dose radiation.
    In fiscal year 2000, the Department is requesting $230.5 million 
for the Science and Technology program, including $32 million for the 
Science program. The requested level for the Science program represents 
the amount that is necessary to continue funding for the projects that 
already have been initiated. The Department intends to assess the 
results from the first round of Science program projects (for which 
fiscal year 1999 is the last year of funding) prior to requesting 
funding for new projects.
    The Science and Technology program budget is developed in 
conjunction with the budget for the other EM sites. The EM budget is 
driven by a number of statutory and regulatory requirements for which 
sufficient funding must be requested. The program's priority is to fund 
these compliance requirements, and other safety-related priorities, 
before it funds other important, but discretionary, items such as 
research that allows the program to address many of the technical 
challenges it faces.
    We are committed to and pleased with the progress of the Science 
and Technology Program, including the Environmental Management Science 
Program, which is co-managed by EM and the Office of Science. We 
continue to believe that a strong Science and Technology Program is 
essential to the success of the EM Program.
    Question. Now several years ago, GAO gave the program poor marks 
for use of funds appropriated for technology development and moving 
that technology into use around the DOE complex. What has DOE done to 
bring about change and to focus the technology development program on 
the areas of critical need?
    Answer. The Environmental Management (EM) program has made 
significant changes in the way our science and technology (S&T) program 
seeks to deploy new technologies. S&T is no longer solely a developer 
of cleanup technologies. S&T now provides the full range of science and 
technology capabilities necessary to deliver and support fully 
developed, deployable solutions to DOE's cleanup problems--from basic 
research through development, demonstration, deployment and technical 
assistance. We have enhanced the ``focus area'' membership--teams that 
address EM's five major problem areas--to serve as centers of expertise 
to provide technical assistance to the sites on technologies through 
all phases of development and deployment. We have also established 
Focus Area User Steering Committees that consist of senior-level user 
and developer representatives who are involved in decisionmaking 
throughout all phases of technology development. This ensures that 
users provide input as technologies evolve so the technologies meet 
sites' needs as they become available for use.
    Also, an EM Research and Development Program Plan has been 
developed that ``maps'' investments in technical solutions to site-
identified needs. This effort ensures that our science and technology 
activities are planned and managed in an interactive, coordinated and 
participatory relationship with EM cleanup project managers and 
stakeholders.
    S&T uses a multi-attribute decision model that defines and 
prioritizes EM's technology needs and drives investments for science 
and technology. The prioritization criteria help ensure we are meeting 
our highest priority needs to solve environmental cleanup problems, as 
well as addressing areas of high technical risks, addressing high cost 
waste streams, and accelerating deployment.
    To spur widespread use of available innovative technologies, EM 
began an accelerated site technology deployment initiative in fiscal 
year 1998. Fourteen projects were competitively selected and initiated 
that resulted in 13 deployments by the year's end. Another 42 
deployment projects were reviewed and approved for possible funding in 
fiscal year 1999, from which 32 have been funded and initiated. The 
cost and performance data from these successful deployments help 
accelerate widespread use by eliminating the perceived business risks 
associated with new technology.
    S&T also helps sponsor the Interstate Technology and Regulatory 
Cooperation Working Group (ITRC), a state and federal partnership for 
streamlining the regulatory approval process. ITRC provides an 
excellent forum for regulators from 26 states to collaborate with 
representatives from federal agencies, industry and stakeholder groups 
to raise the confidence of environmental decision-makers concerning 
deploying new technologies. This collaboration among participating 
states eliminates duplicative verification work, thereby reducing the 
time and cost regulating agencies must spend reviewing and permitting 
new technologies.
    Question. Can you give the committee some idea of how you have been 
able to develop and move technology from the concept stage to use at 
DOE sites?
    Answer. An example of a viable technology that grew from an idea is 
cesium removal using crystalline silicotitanate (CST). Approximately 
100 million gallons of radioactive waste are stored in underground 
storage tanks at Hanford, Idaho, Oak Ridge, and Savannah River. The 
waste contains the radioactive element cesium, which emits penetrating 
radiation that presents health risks to workers and the public if they 
are exposed to the tank waste. Removing the cesium from liquid tank 
waste reduces the volume that must be carefully and expensively handled 
to prevent such exposures.
    To address the cesium removal problem, we began a collaboration 
between Texas A&M University and the Sandia National Laboratory (SNL) 
to improve our understanding of the molecular structure of this type of 
waste. This effort showed promise as an improved method for separating 
radionuclides from high level wastes. These early results led to a 
Cooperative Research and Development Agreement between SNL and a 
private company, UOP Molecular Sieves, to produce CSTs in an engineered 
form. Oak Ridge National Laboratory (ORNL) used their ``hot'' cell 
facilities to perform successful pilot-scale testing (one-liter 
samples). The results of the pilot-scale tests enabled scale-up to a 
size suitable for processing Oak Ridge waste, and 25,000 gallons of 
Melton Valley tank waste were successfully treated using a full-scale 
system built by TTI Engineering under contract with ORNL. Going from 
breakthrough to full-scale deployment took about five years and 
involved one university, two National Laboratories, and two companies.
    Question. One of the tools which has been developed is ``technology 
roadmaps''. Explain the concept of these ``roadmaps'', how DOE plans to 
use them, and how the budget request addresses areas where there are 
significant science and technology issues to be addressed?
    Answer. EM has been playing a lead role in the Department-wide 
effort to use roadmapping techniques to improve the way we develop and 
manage science and technology investments. Roadmapping within EM 
involves an interactive dialogue between the user community responsible 
for the cleanup and the science and technology community developing 
solutions. This dialogue results in a jointly defined set of needs and 
an investment strategy to address them. The success of the DOE 
environmental cleanup program will ultimately depend on whether cleanup 
project managers at DOE sites have the tools and information they need 
to complete their projects on time and within budget.
    EM has approached roadmapping at three levels. In November 1998, EM 
issued the EM Research and Development Program Plan. This Plan outlines 
a five-year investment portfolio for science and technology at the 
program level and is based on data provided by the sites to support 
EM's planning processes. The second level of roadmapping is at the 
environmental problem level (i.e., high level waste, mixed waste, 
deactivation and decommissioning, plutonium stabilization, and 
subsurface contamination). We have developed a set of multi-year 
program plans for each of these major problem areas which are reviewed 
by the site users and ultimately endorsed by the Focus Area User 
Steering Committees--groups established to ensure user and developer 
coordination through all phases of technology development. The third 
tier of roadmapping is at the project level and to date has been 
focused on a limited number of projects (e.g., salt treatment 
alternatives for cesium removal at the Savannah River Site and vadose 
zone activities at Hanford). These roadmapping efforts provide the 
underlying basis for the budget request.
    To ensure the requested budget addresses areas where there are 
significant science and technology issues, S&T uses a multi-attribute 
decision model that defines and prioritizes EM's technology needs and 
drives investments for science and technology. The sites across the DOE 
complex recently reported over 500 environmental problems that require 
technological solutions in order to complete cleanup activities, over 
80 percent of which are categorized as medium and high priority. Also 
86 pathways or events on the critical path to closure were identified 
as having medium to high technological risk, where critical cleanup 
projects may not be completed on time or within budget due to a 
technology deficiency. This prioritization process uses these data to 
ensure that S&T's investments are aimed at meeting the highest priority 
needs, addressing areas of high technical risks, addressing highest-
cost needs, and accelerating deployment.
    Question. How important is the Science Program to the success of 
the environmental management and cleanup program?
    Answer. The Environmental Management Science Program (EMSP), which 
is co-managed by DOE's Offices of Environmental Management (EM) and 
Science (SC), has a significant role in the successful cleanup of the 
DOE weapons complex. The sites have identified a number of significant 
and intractable problems they will face in the long-term, primarily in 
work that needs to be done beyond the 2006 timeframe. The EMSP 
addresses the most challenging, and potentially the most costly, 
technical problems facing DOE related to high-level waste, spent 
nuclear fuel, mixed waste, nuclear materials, remedial action, 
decontamination and decommissioning, and health, ecology and risk.
    Question. Is the $32 million funding level sufficient to carry out 
a credible program? Please explain.
    Answer. We are confident that the requested $32 million is adequate 
to continue the multi-year grants that were awarded in previous years. 
This includes the last year of 66 three-year research projects 
initiated in fiscal year 1997, 33 three-year projects initiated in 
fiscal year 1998 in the areas of radioactive tank waste and 
decontamination and decommissioning, and fiscal year 1999 grants to be 
awarded in September 1999 to address subsurface contamination/vadose 
zone and effects of low dose radiation exposure.
    Question. What, in your judgement, is the minimum credible annual 
funding level?
    Answer. At this time, we believe $32 million is the minimum level 
at which the EMSP program can adequately conduct a research program 
that provides basic scientific knowledge in support of the development 
of ``cutting-edge'' environmental technologies. The requested level for 
the Science program represents the amount necessary to continue funding 
for the projects that already have been initiated. The Department 
intends to assess the results from the first round of Science program 
projects (for which fiscal year 1999 is the last year of funding) prior 
to requesting funding for new projects.
    Question. Can you give the committee some of the accomplishments to 
date as a result of the funding provided for the Science Program?
    Answer. We are pleased with the progress of the Environmental 
Management Science Program (EMSP), which is co-managed by the DOE 
Offices of Environmental Management (EM) and Science. Since its 
beginning in fiscal year 1996 through fiscal year 1999, EMSP has 
invested over $190 million to support 235 research projects--work that 
is already providing useful results. Some selected accomplishments are:
  --We are genetically engineering a natural soil bacterium with high 
        resistance to radiation into a natural detoxifier for complex 
        mixed wastes. These results show the promise of yielding an 
        inexpensive, effective bioremediation of contaminated sites.
  --We have also demonstrated innovative metal contaminant remediation 
        methods using tobacco plants (phytoremediation) to remove 
        methyl mercury from soils.
  --We now have a better understanding of gas bubble-tank waste 
        interactions during barometric pressure changes, which can lead 
        to better methods of measuring and monitoring dangerous gas 
        formation in high-level waste tanks and process streams.
  --We are developing a method that combines seismic reflection and 
        ground-penetrating radar to better map near-surface (2 to 8 
        meters) conditions at waste sites. This non-invasive approach 
        can facilitate retrieval of buried waste at sites with complex 
        geologies.
    At the end of fiscal year 1999, we expect final reports from over 
100 of the research projects awarded in fiscal year 1996, and we expect 
to have many scientific results that will help EM in achieving its 
cleanup mission.
    Question. Has the Department decided whether there is no longer a 
need for a stable Science Program as reflected in the budget request 
for fiscal year 2000?
    Answer. We believe the requested $32 million is appropriate at this 
time to support the multi-year grants that were awarded in previous 
years.
                          rocky flats cleanup
    Question. Last year the Congress funded the cleanup work at Rocky 
Flats in the Closure Account at $657 million. The budget request for 
fiscal year 2000 is level funded at $657 million. The committee has 
been funding the Rocky Flats cleanup effort based on an accelerated 
schedule with closure by 2006. The current plan on which Rocky Flats 
cleanup costs and schedules are based on project closure of the site by 
2010 at a cost of $7.3 billion. DOE's Accelerating Cleanup: Paths to 
Closure also indicates that cleanup will not be completed by the year 
2010.
    Accelerated cleanup of Rocky Flats is a key to DOE's efforts to 
reduce landlord and mortgage costs thereby freeing up resources to be 
applied to other critical cleanup work and sites. If Rocky Flats is not 
accelerated and the resulting savings of an estimated $1.3 billion 
realized, then there will be insufficient funds available to accomplish 
work at other sites across the DOE complex.
    Explain DOE's strategy and approach to cleaning up Rocky Flats. Why 
doesn't DOE's report on Pathways to Closure support closure by 2006?
    Answer. The Department fully supports efforts to clean up and close 
Rocky Flats as soon as possible, including meeting the 2006 goal. The 
strategy for cleanup and closure of Rocky Flats is straightforward, but 
challenging. The nuclear material in the buildings at Rocky Flats needs 
to be stabilized, packaged and sent off-site to a disposition facility 
or for storage in preparation for disposition. Once the materials are 
removed, the buildings will be deactivated and torn down. Waste 
generated by all these activities will also be sent off-site to a 
disposal facility. The soil will then be cleaned up to the agreed-upon 
soil action level and some areas will then be capped. The existing 
baseline and the Accelerating Cleanup: Paths to Closure document show 
this work being completed in 2010. The Department and the Rocky Flats 
contractors have accepted a challenge to accelerate that goal to 2006. 
This goal has not yet been translated into a detailed baseline and 
assumptions necessary to give us confidence that this goal can be 
turned into a plan, but we expect to receive a detailed baseline to 
achieve the 2006 goal from the contractor in May 1999. We plan to 
validate that baseline by the end of this year. Following this, we 
expect that future revisions of Accelerating Cleanup: Paths to Closure 
will reflect the 2006 goal.
                      funding for 2006 completion
    Question. Does the fiscal year 2000 request of $657 million support 
the 2006 date, and if not, why? How much additional funding is needed 
to maintain the 2006 completion schedule?
    Answer. The fiscal year 2000 budget request is based on the current 
baseline for Rocky Flats, which has a 2010 closure date. However, 
activities have already been identified that would help accelerate 
closure to 2006, and these activities are included in the fiscal year 
2000 budget request. Some examples include the ongoing shipment of 
plutonium residues to the Savannah River Site (SRS) for stabilization, 
and accelerating by two years the shipment of metals and oxides to SRS. 
We are expecting the details of a 2006 closure baseline from the 
contractor in May 1999. DOE expects to validate the baseline by the end 
of this year. I am confident at this point that the Department's fiscal 
year 2000 budget request includes adequate funds to support accelerated 
closure.
                              wipp opening
    Question. How important is the opening of the WIPP facility in New 
Mexico to the Rocky Flats accelerated cleanup strategy. What impact 
will a delayed opening of WIPP have on cleanup plan for Rocky Flats?
    Answer. Opening WIPP is extremely important to the overall effort 
to accelerate the closure of Rocky Flats and several other DOE sites. 
We are very pleased that WIPP has begun receiving waste and expect this 
will help clean up and close Rocky Flats. Nonetheless, more on-site 
storage for TRU waste may be needed. The repackaging of plutonium 
residues in fiscal year 1999, when combined with existing and projected 
TRU waste in inventory at Rocky Flats, may result in more TRU waste 
than can currently be stored at Rocky Flats even assuming shipments of 
waste from Rocky Flats to WIPP. Therefore, even after WIPP begins 
receiving Rocky Flats waste this summer, more storage capacity may be 
needed. Rocky Flats is already increasing its storage capacity by 
modifying existing temporary structures and expanding Building 440. If 
Rocky Flats does not begin shipments of waste to WIPP by July 1999, and 
is not able to ship at fairly aggressive rates, the site will need to 
make a decision by the end of fiscal year 1999 on whether to start 
modification or construction of additional storage facilities. We do 
not expect the need for additional storage to impact the 2006 closure 
goal.
                             cleanup budget
    Question. What portion of the $657 million budget request is for 
actual cleanup work and how much goes to other expenses such as 
landlord and management costs?
    Answer. Approximately $245 million (37 percent) of the $657 million 
fiscal year 2000 request is for actual cleanup work, including 
stabilization, packaging, and shipment of special nuclear material, 
storage and shipment of waste, deactivation and decommissioning of 
facilities, and environmental restoration activities. The remaining 
$412 million (63 percent) (commonly referred to as fixed cost) supports 
safeguards and security, surveillance and maintenance of over 600 
facilities, infrastructure and utilities, analytical support, and 
project/program management. The desire to reduce the high ``fixed 
cost'' at Rocky Flats is one of the key reasons that the Department is 
investing cleanup dollars for accelerated closure of the site.
                  mixed low-level and low-level wastes
    Question. What are DOE's plans regarding disposal of mixed low-
level and low-level wastes? Do you have an approved plan, where is the 
waste to go, what is the schedule for having plans approved, and what 
are the major issues or problems associated with providing a path for 
disposal of these wastes?
    Answer. Low-level waste is currently being shipped to the Nevada 
Test Site for disposal. Some mixed low-level waste is currently sent to 
a commercial facility. The wastes now being shipped generally have a 
low radionuclide content.
    Some mixed low-level wastes that will be generated during cleanup 
do not now have an approved disposal pathway. These mixed low-level 
wastes are projected to have radionuclide levels greater than any 
commercial facility is currently authorized to accept; and no DOE 
facility can accept off-site mixed low-level waste, regardless of 
radionuclide content, until DOE issues the Record of Decision for mixed 
low-level waste based on the Waste Management Programmatic 
Environmental Impact Statement. We are pursuing two potential 
disposition paths for this higher radionuclide waste--disposal in a 
commercial facility in Colorado or disposal in a DOE facility. A 
decision on these options is expected in fiscal year 2000.
         idaho national engineering & environmental laboratory
    Question. Briefly explain the strategy and major milestones for 
waste management activities at the Idaho National Engineering and 
Environmental Laboratory (INEEL).
    Answer. The INEEL Waste Management program will safely treat, 
store, and dispose of low-level waste, mixed low-level waste, 
transuranic waste, and high-level waste in compliance with agreements 
(e.g., the 1995 Settlement Agreement among the Department, the State of 
Idaho, and the U.S. Navy), the Federal Facility Compliance Act Site 
Treatment Plan, and other applicable environmental requirements.
    The Department's strategy is to dispose of 6,500 cubic meters of 
stored low-level waste by the end of fiscal year 1999, to treat and 
dispose of backlogged mixed low-level waste (as defined in the Site 
Treatment Plan) by 2003, and to treat and dispose of the retrievably 
stored transuranic waste by 2018. Newly generated low-level, and mixed 
low-level waste will be dispositioned within one year of generation. 
High level waste will be treated and prepared for transport out of 
Idaho by 2035.
    Question. What impact is there on the Idaho Settlement Agreement if 
the WIPP facility does not begin receiving waste this year as planned? 
What alternate or backup plan is there to ensure that the requirements 
of the Settlement Agreement are met?
    Answer. The remedy for failure of DOE to meet the transuranic waste 
shipment milestones outlined in the Idaho Settlement Agreement is the 
suspension of DOE spent nuclear fuel and foreign research reactor 
shipments to the Idaho National Environmental and Engineering 
Laboratory (INEEL). DOE met the first milestone when the first shipment 
left INEEL on April 27, 1999.
    Question. Is there anything other than opening of WIPP which could 
delay shipments of TRU waste out of INEEL in fiscal year 1999?
    Answer. DOE shipped the first shipment of transuranic waste from 
INEEL on April 27, 1999, to the Waste Isolation Pilot Plant in New 
Mexico. Over the next several months, DOE plans to send transuranic 
waste shipments to WIPP from Los Alamos, INEEL, and Rocky Flats.
             advanced mixed waste treatment project (amwtp)
    Question. The fiscal year 2000 Budget Request includes $110 million 
for the Advanced Mixed Waste Treatment Project at the Idaho National 
Engineering and Environmental Laboratory. This project is being carried 
out under the DOE Environmental Management Privatization program.
    Update the Committee on the current status of the Advanced Mixed 
Waste Treatment Project. Is construction of this facility required 
under the Idaho Settlement Agreement?
    Answer. The AMWTP has been proceeding very successfully since the 
contract was awarded in December 1996. The contractor, BNFL Inc., has 
submitted quality Phase I project deliverables on schedule. Examples of 
such deliverables include the DOE Environment, Safety, and Health 
Program Operating Plan; the Resource Conservation and Recovery Act 
permit application; Air Permit to Construct application; and the Toxic 
Substances Control Act permit application. The AMWTP Final 
Environmental Impact Statement was completed and distributed in 
February 1999, and the DOE Record of Decision was signed by the Acting 
Assistant Secretary for Environmental Management on March 22, 1999. In 
the Record of Decision, DOE decided to implement the EIS Preferred 
Alternative, which is to proceed with construction (Phase II) and 
operation (Phase III) of the AMWTP facility, in accordance with the 
Department's contract with BNFL Inc.
    The project is still in Phase I. BNFL is in the process of securing 
the necessary permits and completing needed safety and health documents 
to obtain DOE authorization to proceed. BNFL will begin construction 
after regulator approval is received. The regulators have indicated 
they expect to issue the permit by the end of this year.
    Completing construction of a facility by December 31, 2002, to 
treat INEEL transuranic and alpha-emitting mixed low-level waste is a 
specific requirement of the 1995 Settlement Agreement between the State 
of Idaho, DOE, and the Navy. The AMWTP is on track for meeting this 
construction milestone. Construction of a facility to treat these 
wastes is also required by the INEEL Site Treatment Plan pursuant to 
the Federal Facility Compliance Act, which is enforceable by the State.
    Question. How will the budget of $110 million be used?
    Answer. The $110 million in privatization program funds in the 
fiscal year 2000 Congressional Budget Request will be available, if 
necessary, to cover the costs incurred by the contractor during the 
construction phase (Phase II) of the project if the Government decides 
to terminate the contract for its convenience. When the facility 
becomes operational in 2003, the $110 million will be available to pay 
the contractor for the amortized capital facility costs over the first 
25,000 cubic meters of treated waste, as required by the contract.
    Question. What is the facility expected to cost? How long is the 
facility expected to operate and at what cost?
    Answer. There are two components of the unit price for treated 
waste: an operating cost component and a capital amortization 
component. The privatization funding pays for the capital amortization 
component and the site's operating budget pays for the operating cost 
component.
    The privatization portion of the total project cost is $569.4 
million, which includes the capital facility financing portion of the 
contractor's price, profit, and the cost of financing (i.e., interest). 
The facility is expected to operate until 2015 to complete the 
treatment of 65,000 cubic meters of INEEL waste under Option 1 of the 
contract, at a cost of $546 million, which includes the M&O Contractor 
and other project support costs, as well as decontamination and 
decommissioning costs. Therefore, the total project cost is $1,115.4 
million. If DOE executes Option 2 of the contract, the AMWTP could also 
treat up to 120,000 cubic meters of additional, similar waste from 
INEEL or other DOE sites at a cost (in operating dollars) of $2,596 per 
cubic meter. In this case, the facility could treat up to a total of 
185,000 cubic meters of waste and would operate for its full expected 
design life of 30 years.
    Question. Why has the total project cost been revised from $1.078 
billion to $1.115 billion? I thought that using the privatization 
approach was an effort to control project schedules and costs?
    Answer. The capital portion of the privatization contract is fixed 
and is not subject to either price redetermination or economic price 
adjustment. There has been an adjustment to the facility operating 
costs due to two factors. First, the contract was negotiated with an 
assumed, level production schedule. An updated production schedule has 
been developed and incorporated into the contract which reflects a more 
realistic waste processing schedule having less throughput during the 
early facility startup phase. This adjustment totaled $7.8 million.
    Second, escalation rates in the initial forecast were based on 
rates established by the Office of Management and Budget. However, the 
negotiated contract requires use of a Department of Labor index as the 
basis for change in economic price adjustment. This contract 
requirement resulted in an adjustment to the estimated life cycle cost 
of $28.7 million. It can be expected that downward or upward changes to 
unit prices will occur when the index forecast changes materially. 
Future budget submissions will stay constant unless there is a 
significant increase or decrease in the index. The economic price 
adjustment clause of the contract does not apply to the privatization 
(capital) part of the contract price; the clause applies only to 
facility operating costs.
    Question. Explain the change in the escalation rates from the OMB 
required rates used in the initial estimates to the economic index 
based escalation negotiated in the Advanced Mixed Waste Treatment 
Project contract which has resulted in an increase of $28.7 million in 
the estimated life cycle cost of the project.
    Answer. Escalation rates in the initial forecast were based on OMB 
rates. However, during negotiation of the contract with BNFL, the 
Department and BNFL negotiated the use of a Department of Labor index 
as the basis for change in economic price adjustment. This contract 
requirement resulted in an increase to the estimated life cycle cost of 
$28.7 million. It can be expected that downward or upward changes to 
unit prices will occur when the index forecast changes materially. 
Future budget requests will reflect significant increases or decreases 
in the index through adjustments to the project estimates. The economic 
price adjustment clause of the contract does not apply to the 
privatization (capital) part of the contract price; the clause applies 
only to facility operating costs.
                             pit 9 project
    Question. What is the current status of the impasse related to the 
Pit 9 project at INEEL? What can you report regarding the Secretary's 
commitment to find a path forward to resolve the impasse?
    Answer. There are two matters in litigation regarding the default 
termination of the Pit 9 subcontract with Lockheed Martin Advanced 
Environmental Systems (LMAES) for remediation of Pit 9. First, LMAES 
and Lockheed Martin Corporation have commenced an action in the United 
State Court of Federal Claims against the United States. (Cases in that 
court are filed against the United States rather than against an 
individual department or agency.) Second, Lockheed Martin Idaho 
Technologies Company (LMITCO) commenced an action against LMAES and the 
Lockheed Martin Corporation in the United States District Court for the 
District of Idaho, to which the Department is not a party.
    The United States has filed a motion to dismiss the Court of 
Federal Claims action because (1) there exists no privity of contract 
between the United States and LMAES or the Lockheed Martin Corporation 
upon which to base a direct contract action against the United States, 
and (2) no action undertaken by the United States Government has 
effected a cognizable taking of the property of LMAES or the Lockheed 
Martin Corporation. That motion is pending before the Court.
    With respect to the Idaho litigation, we understand that there have 
been discussions between LMITCO and LMAES and the Lockheed Martin 
Corporation. In addition, LMITCO has been exploring with the Department 
various mechanisms that might be available and appropriate to address 
issues raised by the Pit 9 subcontract dispute. Such an undertaking has 
been impeded, however, by the efforts of LMAES and the Lockheed Martin 
Corporation to have the Idaho litigation stayed (that is, consideration 
of its merits delayed) while they pursue their Court of Federal Claims 
action in Washington.
    The Secretary and the Department remain committed to moving ahead 
expeditiously on cleaning up the Radioactive Waste Management Complex, 
including Pit 9. Working with EPA and the State of Idaho, the 
Department has developed and begun to implement an ``alternative'', 
three stage approach to the Pit 9 cleanup. Stage I focuses on 
subsurface exploration. Stage II focuses on design, construction, and 
operation of robotic and remotely operated retrieval systems and 
confinement systems to demonstrate that remedial action Record of 
Decision objectives are achievable. Stage III will complete the 
remediation of Pit 9.
    Question. What is the current cost to finish the project and how 
does this compare to the original baseline estimate?
    Answer. DOE, EPA, and the State have agreed to complete the 
remediation of Pit 9 under a three-stage project for an estimated cost 
of $200 million, which was the fixed price of the original project 
under the now-terminated sub-contract signed in 1994 with LMAES. A more 
detailed cost estimate will be available at the completion of stage 2 
of the project.
    Question. The budget justification indicates that DOE plans to 
spend $50 million for an Alternate Pit 9 phased alternative approach. 
Explain DOE's plans to proceed with a ``Alternate'' approach at Pit 9. 
Doesn't proceeding with this effort make it more complicated and 
difficult in resolving the current legal and contractual dispute?
    Answer. Because the subcontract for the implementation of the Pit 9 
interim action was terminated and the regulatory agencies are requiring 
DOE to meet the terms of the original 1993 Pit 9 Record of Decision, 
the development of a revised schedule and scope of work were necessary 
to satisfy the requirements under the 1991 Federal Facility Agreement 
and Consent Order to issue a Comprehensive Record of Decision for the 
Radioactive Waste Management Complex in 2002. A three-stage process for 
remediating Pit 9 was jointly developed by the DOE, EPA, and the State 
of Idaho, and the schedule for completing the comprehensive 
investigation of the Radioactive Waste Management Complex was extended. 
The revised effort, referred to as the Operable Unit 7-10 Staged 
Interim Action, will include three stages: Stage I focuses on 
subsurface exploration; Stage II focuses on design, construction, and 
operation of robotic and remotely operated retrieval systems and 
confinement systems to demonstrate that remedial action Record of 
Decision objectives are achievable. Stage III will complete the 
remediation of Pit 9.
    The $50 million requested in the fiscal year 2000 Congressional 
Budget Request will be used for CERCLA work on the entire Radioactive 
Waste Management Complex, which includes Pit 9. The Pit 9 portion of 
these funds will be used to complete Stage I, continue work on Stage I 
activities (including monitoring and waste treatability studies), and 
initiate Stage III remediation.
    The decision to proceed with the Staged Interim Action for Pit 9 
described above does not affect the ability of the management and 
operating contractor (Lockheed Martin Idaho Technologies Company, Inc. 
(LMITCO)) to resolve its dispute with Lockheed Martin Advanced Systems, 
Inc. (LMAES).
                              hanford site
    Question. Explain the overall strategy for cleanup and removal of 
legacy waste from the Hanford Site, particularly as it relates to the 
high level waste tanks and activities associated with the K-Basin.
    Answer. The Hanford Site strategy is to protect the Columbia River 
and to mitigate, to the extent practicable, the greatest hazards by 
2006 while proceeding with the necessary preparations for longer-term 
cleanup. As part of the near-term work, the corroded spent fuel in the 
aging K-Basins is being moved away from the Columbia River into safe, 
dry storage on the central plateau of the 200 Area, where it will 
remain in interim storage awaiting final disposition in a national 
repository. Other near-term actions include completing stabilization of 
plutonium; interim stabilizing the single-shell tanks, some of which 
have leaked, which involves transferring pumpable liquids into double 
shell tanks; and developing a privatized vitrification facility to 
treat and immobilize the high-level wastes in the double shell tanks 
and low-activity wastes at the tank farms. The high-level wastes will 
be placed in an interim storage facility to await final disposition in 
a national repository, and the vitrified low-activity wastes will 
remain in an on-site facility. Transuranic wastes will be shipped to 
the Waste Isolation Pilot Plant beginning in fiscal year 2000, and 
other waste-types will be safely disposed on-site at Hanford.
    The site is remediating contaminated soils, cleaning up facilities 
and buildings through demolition or decontamination, and addressing 
groundwater contamination to reduce risks and reduce surveillance and 
maintenance costs. As agreed to by the regulators, DOE will address the 
decontamination and decommissioning (D&D) of the surplus reactors in 
two phases. Phase I will place the reactors in interim safe storage, 
ensuring that facilities are safe and secure and reducing surveillance 
and maintenance costs. Phase II will involve removal of reactor cores 
to a disposal facility in the 200 area. The overall strategy for 
remediation and D&D activities is to complete cleanup first in areas 
nearest the Columbia River, then move cleanup efforts toward the 200 
area. The majority of contaminated soils and materials will be disposed 
on-site in the Environmental Restoration Disposal Facility in the 200 
area, which has already received over 1.5 million tons of contaminated 
soil.
    Question. How does the Paths to Closure plan support these DOE's 
strategies?
    Answer. The Paths to Closure report focuses on addressing the 
highest risk activities first, along with accelerating project 
completion and site closure. This strategy is reflected in the 
prioritization of activities at the Hanford site, where mitigation of 
the greatest Hanford hazards (e.g., tanks, spent fuel in K-basin, and 
the Plutonium Finishing Plant) are given the highest ranking while 
environmental restoration and deactivation work is executed in a more 
constrained manner. The Paths to Closure analysis indicates that the 
funding profile for a number of sites decreases in the 2006-2010 time 
frame as projects are completed. Several major hazard-reduction 
projects at Hanford should also be completed by this time. We therefore 
anticipate that some additional EM funds will be available for the 
Hanford site for the TWRS project and environmental restoration 
activities.
    Question. What are the areas where the Plan does not meet the 
milestones of the Tri-Party Agreement? What is DOE doing to bring its 
planned work into compliance with the Agreement?
    Answer. Accelerating Cleanup: Paths to Closure is consistent with 
all current milestones in the Tri-Party Agreement (TPA) with the State 
of Washington and the Environmental Protection Agency. However, the 
Richland Operations Office's June 1998 Plan was developed prior to the 
signing of the BNFL contract. DOE is proceeding with negotiations with 
BNFL to determine the full scope and schedule of the privatization 
contract. The Department is also negotiating with the State of 
Washington to revise the current high-level waste milestones in the TPA 
based on the outcome of contract negotiations with BNFL.
    Question. The 2006 Plan and budget realities demand increased 
efficiencies in order to save resources which can then be applied to 
critical cleanup work. What were the results of negotiations between 
DOE, its regulators, and stakeholders to identify and agree upon needed 
efficiencies to cover project compliance shortfalls?
    Answer. The Department is continuing to strive for efficiencies to 
avoid shortfalls. This was the purpose of numerous discussions that 
were held between DOE, the field offices, federal regulators, state 
regulators and stakeholders. At Hanford, these meetings explored 
different means to get more work done given the existing budgets. The 
general areas that were identified as areas of potential savings and 
are currently being pursued are:
    44. Reduce the amount of money going to support activities (e.g. 
safeguards and security, project/program management).
    45. Reduce infrastructure costs and activities.
    46. Examine areas where DOE can improve and possibly reduce the 
requirements to make sure that excessive, low value activities are not 
placed on contractors.
    47. Work closely with regulators to ensure that we are only doing 
what is necessary to fix a problem.
    48. Perform the work that is currently being done in waste 
management and environmental restoration using fewer resources.
    49. Delete unnecessary work, or if it is not a high priority, 
explore the possibility of moving it to the future.
    The regulators and stakeholders actively participated in the fiscal 
year 2000 budget development. They are aware that additional 
efficiencies alone may not be sufficient to solve all future funding 
issues. We will work with the State and local stakeholders to address 
compliance issues that may arise.
    Question. What major cleanup activities remain to be accomplished 
at Hanford other than the tank remediation work?
    Answer. Other than tank remediation work, the other major Hanford 
cleanup projects include:
  --completion of stabilization activities at the Plutonium Finishing 
        Plant;
  --removal of spent fuel from the K-Basins near the Columbia River and 
        placement into the Canister Storage Building on the 200 Area 
        plateau;
  --stewardship of nuclear materials and spent fuel pending final 
        disposition;
  --retrieval, certification and packaging of transuranic wastes for 
        shipment to the Waste Isolation Pilot Plant in New Mexico;
  --remediation of 1,497 contaminated areas (release sites); this will 
        require moving almost 6 million tons of material, much of it 
        from along the Columbia River, to safe disposal in the 
        Environmental Restoration Disposal Facility in the 200 Area;
  --decontamination and decommissioning, and ultimately dismantlement 
        and disposal of 244 structures including final disposition of 
        the seven deactivated reactors in the 100 area;
  --remediation of contaminated ground water to prevent migration 
        towards the Columbia River, including operation of ``pump and 
        treat'' systems to extract contaminants such as chromium, 
        carbon tetrachloride and strontium-90.
                  tank waste remediation system (twrs)
    Question. Explain the TWRS privatization proposal. How much will it 
cost to cleanup the storage tanks at Hanford?
    Answer. Under the privatization approach, the Department has moved 
from a government-owned, contractor-operated facility concept to a 
contractor-owned, contractor-operated facility concept where the 
Department will purchase the necessary Hanford tank waste treatment and 
immobilization services. In July 1998, the Department submitted its 
Report to Congress, Treatment and Immobilization of Hanford Radioactive 
Tank Waste, which details the history and the next steps in the 
privatization of the treatment of tank wastes.
    In February 1996, the Department solicited and awarded contracts 
for Phase I of the privatization contract, Part A, which required the 
contractor teams to demonstrate their technical, operations, 
regulatory, business and financial approach. During 1998, after a 
controlled process that analyzed contractor proposals, the Department 
selected BNFL, Inc., and authorized it to proceed to Part B-1 of the 
contract. We are now in Part B-1, which is a 24-month design period 
that is intended to develop sufficient engineering and financial 
maturity to establish fixed-unit prices and to finalize project 
financing terms, including BNFL's ability to obtain outside financing. 
The design phase ends in August 2000. DOE will then make a decision 
whether to authorize BNFL to construct and operate the facilities as 
proposed.
    If authorized, BNFL would provide both high-level and low-activity 
waste treatment and immobilization services and would be expected to 
process approximately 10 percent of the Hanford tank waste by mass and 
20 to 25 percent by radioactivity. Phase I is scheduled to be completed 
in 2018, with the potential to continue into Phase II with BNFL. The 
Phase II concept for full-scale production facilities to complete the 
tank waste remediation effort will be developed based on Phase I 
experience. Under all scenarios being considered for Phase II, the 
Phase I plant will be expanded and continue to operate in Phase II.
    The tank waste will be processed by using vitrification, a process 
that immobilizes the waste in glass. The less radioactive low-activity 
waste will be permanently and safely stored at the Hanford site. The 
high-level waste will be temporarily stored at Hanford. It will 
eventually be moved to a national repository. Both types of waste will 
be treated in the BNFL facility.
    The design, construction, and operation of the treatment facilities 
for both high-level radioactive wastes and low activity wastes will be 
the responsibility of BNFL. BNFL will commit its own equity to the 
project, augmented with additional financial backing to pay for 
facility construction. The Department will pay fixed-unit prices for 
delivery of the immobilized waste.
    In the fiscal year 2000 Congressional Budget Request, the 
Department estimated the cost of Phase I of the vitrification project 
to be approximately $12.5 billion (current year dollars). This estimate 
includes the cost to construct, operate, and deactivate the privatized 
vitrification facility, as well as BNFL's financing costs and fee. It 
also includes the costs that will be incurred by the Department at the 
Hanford site to support to the operations of the privatized facility, 
including activities to retrieve the waste from the tanks, deliver feed 
to BNFL, accept and store the low-activity and high-level vitrified 
products, and provide other infrastructure support to BNFL
    In the report Accelerating Cleanup: Paths to Closure, released in 
June 1998, the Department estimated the total life-cycle cost of 
cleaning up the 177 underground high-level waste storage tanks at 
Hanford to be approximately $52 billion (current year dollars). This 
estimate included the costs of both Phase I and Phase II. However, this 
estimate was prepared before the Department selected and authorized 
BNFL, Inc., to proceed with the design of the Phase I vitrification 
facility. The Department is currently evaluating several options for 
facility design and operations during Phase I, each of which has an 
impact on total life-cycle costs for the project. The Department will 
update and provide a revised total life-cycle cost estimate for the 
project as Phase I proceeds.
    Question. The budget request for fiscal year 1999 includes $106 
million, a slight increase over the current year level, to continue the 
Hanford TWRS privatization project. What activities were carried out in 
fiscal year 1998, what work is scheduled to be accomplished in fiscal 
year 1999, and what work is planned to be accomplished in fiscal year 
2000?
    Answer. Fiscal year 1998 resulted in the completion of Phase I Part 
A of the TWRS privatization contracts. Part A was a 20-month period to 
establish the technical, operational, regulatory, and financial 
elements required by privatized facilities to provide waste treatment 
services at fixed-unit prices. The 20-month period was divided into a 
16-month period for the contractors to provide Part A deliverables and 
a four-month period during which they were reviewed and DOE determined 
whether to proceed to Phase I Part B. During performance of Part A, the 
contractors developed two parallel solutions for 1) Low Activity Waste 
(LAW) treatment and immobilization services only, and 2) LAW and High-
Level Waste (HLW) services. During fiscal year 1998, the DOE reviewed 
the deliverables from both contractors and negotiated a contract 
modification with BNFL to proceed into Phase I Part B-1.
    Fiscal year 1999 and fiscal year 2000 encompass the time period 
associated with Phase I Part B-1. During this period BNFL will: (1) 
optimize the LAW and HLW treatment and immobilization system, mitigate 
risk, and reduce contingencies in the waste treatment and 
immobilization system defined by BNFL during Part A of the contract; 
(2) revise the technical, operational, regulatory, and financial 
elements of the waste treatment and immobilization system; (3) provide 
firm fixed-unit prices for waste treatment services; and (4) perform 
all contractor activities necessary to reach financial closure for 
privatized facilities. The major decision affecting the TWRS 
privatization project, whether to authorize BNFL to proceed into 
construction and operation of facilities to treat the waste, is 
currently scheduled for August 2000.
    Question. What are the major compliance and other milestones and 
decision points for the remainder of fiscal year 1999 and fiscal year 
2000?
    Answer. Major compliance and other milestones and decision points 
for the Office of River Protection, which manages the Tank Waste 
Remediation System project, include Tri-Party Agreement (TPA) 
milestones, Defense Nuclear Facilities Safety Board recommendations, 
and decisions affecting scheduled for August 2000, whether to authorize 
BNFL to proceed into Phase 1B2 for construction and operation of 
facilities to treat and immobilize the Hanford tank waste. This 
decision will be made based on BNFL's success in completing an 
acceptable 30 percent design by August 2000, committing equity and 
arranging financing for the construction and operations of the 
facilities, and submitting an agreeable fixed unit price for treating 
and immobilizing the tank waste.
    The major TWRS compliance and other milestones for the remainder of 
fiscal year 1999 and fiscal year 2000 are:

------------------------------------------------------------------------
           Milestone                  Description             Date
------------------------------------------------------------------------
TPA M-40-12....................  Resolve nuclear       30 Sep 99
                                  criticality safety
                                  issue.
TPA M-43-12....................  Start construction    30 Jun 99
                                  for upgrades in the
                                  first tank farm.
TPA M-43-13....................  Start construction    30 Jun 00
                                  for upgrades in the
                                  second tank farm.
TPA M-45-08A...................  Complete systems      31 Dec 00
                                  description and
                                  operation strategy
                                  for tank leak
                                  monitoring and
                                  mitigation.
TPA M-41 series (Consent         Initiate pumping for  30 Jul 99
 Decree).                         interim
                                  stabilization of
                                  single shell tanks
                                  S-102, S-103, and S-
                                  106.
TPA M-41 series (Consent         Initiate pumping for  15 Jun 00
 Decree).                         interim
                                  stabilization of
                                  single shell tanks
                                  U-103, U-105, U-
                                  102, and U-109.
TPA M-41 series (Consent         Reduce pumpable       30 Sep 99
 Decree).                         liquid remaining to
                                  be removed from
                                  single shell tanks
                                  to 93 percent of
                                  total liquid.
TPA M-41 series (Consent         Reduce organic        30 Sep 00
 Decree).                         complexed pumpable
                                  liquids remaining
                                  to be removed from
                                  single shell tanks
                                  to 38 percent of
                                  total organic
                                  complexed pumpable
                                  liquids.
DNFSB 93-5.....................  Transmit letter to    31 Dec 99
                                  DNFSB reporting       (originally 31
                                  completion of         May 98)
                                  topical report to
                                  resolve high heat
                                  safety issue.
DNFSB 93-5.....................  Transmit letter to    30 April 00
                                  DNFSB reporting
                                  resolution of
                                  organic complexant
                                  safety issue.
DNFSB 93-5.....................  Complete vapor        31 Dec 00
                                  sampling of all
                                  double shell tanks.
------------------------------------------------------------------------

    Question. How much does it cost annually to monitor and maintain 
the 177 tanks at Hanford? What do you expect these costs to be after 
the waste in the tanks is removed?
    Answer. The highest priority items with the TWRS budget are those 
necessary to maintain a ``minimum-safe'' condition. The current annual 
``minimum-safe'' cost is about $100 million, and it is expected to 
remain at this level until the amount of high level liquid waste is 
substantially reduced.
    In the post-2028 time-frame, when all the liquid wastes in the 
tanks have been removed, treated, and immobilized, the tanks themselves 
will remain, along with some solid waste material in the bottom of the 
tanks. The final disposition for these residuals has not yet been 
determined, but nominal surveillance and maintenance will be continued 
until the tank farm area is completely remediated. The annual cost will 
be a small fraction of the current surveillance and maintenance costs.
    Question. What is the estimated total project cost for Phase I of 
TWRS, how does it compare with the cost estimate reported last year, 
and what accounts for the change?
    Answer. The BNFL contract for Phase I contains target prices for 
treatment and immobilization services during the construction and 
operations phase. These target prices will be refined during the design 
phase, which is August 1998 to August 2000. The current agreement 
negotiated with BNFL establishes a $6.9 billion target price (constant 
fiscal year 1997 dollars) for a 10-year, minimum-order quantity of 
treatment and immobilization services. This minimum-order quantity will 
treat 10 percent of the Hanford tank waste by mass and 20 to 25 percent 
of the radioactivity.
    This target price is higher than the original DOE estimate for 
Phase I. The fiscal year 1999 budget submission as reflected in the 
Construction Project Data Sheet showed an estimated cost of $5.14 
billion. The higher price is due in part to the fact that the hazards 
presented by the operations to be performed under the contract 
necessitated more substantial facilities for processing and confinement 
of the waste. These hazards are principally due to worker radiation 
protection and seismic requirements. These facilities will have a 30-
year design life rather than the original concept of a 5 to 9-year 
demonstration facility. As a by-product of the longer design life, the 
proposed plant has the potential to treat additional waste, to treat 
waste with a broader composition range, and to treat, with limited 
additional investment, more than half of the tank waste by mass and 
approximately 95 percent of the long-lived radionuclides if the plant 
is expanded in a modular approach.
    Question. What is the basis for the $1.45 billion estimated total 
cost of the capital investment required under Phase I, and how 
confident is DOE that the capital investment can be held within this 
estimate?
    Answer. The estimated cost of the capital investment required under 
Phase I is $5.4 billion (current year dollars), as determined at the 
end of Phase I Part A. (The $1.45 billion was a preliminary estimate of 
construction costs developed prior to Phase I Part A.) At that time, 
the design was only about five percent complete; and, as more data and 
information become available, this cost estimate will be refined. 
However, because the construction costs have such a large impact on the 
total costs, DOE is working hard to control and manage these costs. The 
contract with BNFL includes incentives for BNFL to reduce the capital 
cost of the facility as part of the process of establishing ceiling 
prices for waste treatment services. These ceiling prices will be 
established prior to the start of Phase I Part B-2--the construction 
and operations phase of the project. DOE is also negotiating with BNFL 
to include in the contract incentives for BNFL to control and reduce 
these costs during Part B-2. Any cost reductions will result in a 
decrease in the price that DOE pays for waste treatment services.
    Question. Now, I understand that the requirement for Budget 
Authority for the TWRS privatization project increases from around $100 
million this year to about $600 million in 2001 and $660 million in 
fiscal year 2002. Am I correct, and if so, what will be the impact on 
the project if the committee is unable to provide the additional budget 
authority? What options would DOE have available to continue the 
project at that point?
    Answer. The Department identified in the fiscal year 2000 
Congressional Budget Request a target funding level for the TWRS 
privatization project of $606 million in fiscal year 2001 and $659 
million in fiscal year 2002.
    The Department would have several options if the target level of 
funding is not provided. The Department's determination of which of 
these options to proceed with would include a consideration of the 
magnitude of any funding shortfalls and the potential for additional 
funding shortfalls.
    First, the Department could renegotiate the terms of the 
privatization contract with the contractor. However, because the 
current funding targets represent the optimal schedule for the project, 
an extension of the schedule of the contract due to the unavailability 
of sufficient funds would lead to increased project costs. The 
magnitude of the cost increase would depend upon the extent of the 
funding shortfall and the length of the extension of the contract.
    Alternatively, the Department could abandon the privatization 
approach and proceed with a traditional level-of-effort or cost-plus 
contracting approach. Either of these approaches will present less risk 
to the contractor in a budgetary environment, where project funding 
fluctuates from year to year and the government is unable to provide 
any certainty to the contractor regarding future funding levels. 
However, these approaches again put the burden on the government for 
project risks and cost growth. Thus, these options may increase total 
project costs significantly.
    It should be noted that the contractor may not be able to secure 
adequate financing for the project if the government is unable to 
provide a sufficient amount of budget authority. The private sector may 
be unwilling to invest sufficient funds if it believes that the 
government is not strongly committed to the project. In the event of 
funding shortfalls, the contractor may attempt to either increase the 
contract price to cover the increased risk of project termination or 
even terminate the project.
    The Tri-Party Agreement (TPA) establishes enforceable milestones 
for removing and treating the high-level waste from the Hanford tanks. 
The Department is working with the State of Washington and the U.S. 
Environmental Protection Agency to re-negotiate milestones for the 
privatization project to align with the current privatization 
schedules. The Department is also seeking to establish alternative 
milestones in the TPA in the event the Department does not proceed with 
the privatized approach.
    Once the Department proceeds with the privatization approach, and 
is subject to milestones consistent with that approach, a renegotiation 
of the contract schedule or the abandonment of the privatization 
approach and the re-establishment of a traditional contracting approach 
could subject the Department to fines and penalties for non-compliance 
with TPA milestones.
    The Department believes that fully funding the privatization 
approach will provide the most cost-effective option for successfully 
meeting the government's obligation to remove the high-level liquid 
wastes from the Hanford tanks.
    Question. How does the TWRS privatization approach shift sufficient 
risk to the private sector to ensure that hoped for efficiencies and 
cost savings are realized?
    Answer. The most visible way to see the risk shift from the 
government to the contractor is through the payment process. Rather 
than using a ``cost-plus'' type arrangement, DOE is paying BNFL based 
on performance. In a cost-plus type of contract, DOE assumes all the 
risk. However, in a performance or fixed-price type contract, once the 
price is set for a given period, that price will be fixed through that 
period. If BNFL costs go up because of their own actions, differences 
would be absorbed from their funds; and DOE would not be responsible 
for that cost growth. If BNFL can reduce costs, they will benefit from 
the savings.
    It should be noted that DOE will still assume part of the risk 
relative to cost growth. DOE will assume risks from escalation and from 
uncontrollable circumstances. But again, any actions or decisions of 
BNFL that increase costs will be covered by BNFL. This places the 
equity investment of BNFL and its parent company at risk.
    In order to optimize the financing of the project, the Department 
is applying ``financial engineering'' skills to complement physical 
engineering skills. Financial engineering seeks to optimize the 
allocation of risks, rewards and penalties. The balance between public 
and private capital is critical to obtaining the best results. At 
succeeding points in the development of the project, there will be 
varying optimal capital structures. We will continuously review the 
financial structure to minimize the ``life cycle'' cost of the program 
over time.
    Financing for the construction and operations phase will involve 
BNFL equity, loans that are not backed by DOE (non-recourse debt), and 
loans that rely upon some level of credit support from DOE (recourse 
debt). Equity funding represents BNFL's direct corporate investment in 
the success of the project. This investment is in a ``first loss'' 
position and would be at risk if the project should fail because of 
inadequate performance by BNFL. Originally it was hoped that sufficient 
private funding could be secured to fund the entire project. DOE now 
believes it will need to back a significant portion of BNFL's loans to 
enable BNFL to obtain sufficient and affordable private sector 
financing. However, government payment of debt occurs only after BNFL 
and its partners have lost all their equity investment and contingent 
liabilities. Therefore, only under a worse case scenario would the 
government be liable for the payment of the debt.
    By shifting risks that the contractor can control to the contractor 
and by using the right mix of incentives combined with the optimum mix 
of financing type, significant cost savings can be attained. Initial 
estimates indicate that, even with the financing costs associated with 
the BNFL contract, substantial savings can be realized over alternative 
contracting approaches. Private financing will inject powerful 
incentives to contain costs and to ensure project success.
    Question. What can you offer the committee that will assure us that 
this approach is the most effective and cheapest way for the government 
to procure this service?
    Answer. BNFL has provided DOE with a technically robust approach 
that is expected to perform as designed and that may be capable, with 
future capacity expansions, of processing essentially all of the 
Hanford tank waste. Also, one of Congress' concerns is that DOE's 
traditional contracting methods may not result in work being performed 
in an efficient and cost-effective manner. DOE has examined a number of 
different options to process the Hanford waste as quickly and cost 
effectively as possible. Based on the results of these studies and 
investigations, the privatization concept was selected. A summary of 
these comparisons was included in the July 1998 Report to Congress: 
``Treatment and Immobilization of Hanford Radioactive Tank Waste.'' The 
establishment of fixed prices and the risk to the contractor's own 
equity together with incentives for cost reduction will drive the 
contractor to perform work under the contract in an efficient and cost-
effective manner. DOE's evaluation has shown that work will be done 
more efficiently and cost-effectively than under DOE's traditional 
contracting approach.
    Question. Since financing costs are a significant part of the total 
project cost, why is it to the government's advantage to use this 
privatization approach?
    Answer. While the financing costs do represent a significant part 
of the total project cost, the privatization approach offers savings 
that balance these out. In our Report to Congress on the TWRS 
privatization, we provided some detailed information on the financing 
strategy and the benefits to be derived. Most specifically, the 
Department's experience in the traditional cost reimbursement 
contracting approach has been that schedules slip and costs increase. 
The government bears the financial burden associated with these project 
changes. The privatization approach places more responsibility on the 
contractor to control the costs and schedule. Because the contractor 
has a financial stake in the work to be performed, they are more 
motivated to stay within budget and on schedule. Also, the contractor 
assumes a greater share of the risks, particularly those under the 
contractor's control such as technology performance and operating 
efficiency. Private financing is shown to provide built-in incentives 
as the contractor's money is also at risk. Project failure would result 
in loss of equity. The contractor also has the incentive to perform 
more efficiently since this can result in additional profit to the 
company. The advantage to the government is realized through greater 
efficiency during project performance and through achieving project 
completion at cost and within schedule.
    The Department's current plan is to finance the privatization 
through the use of:
  --Equity from BNFL. This is typically the most expensive type of 
        money because BNFL has this whole amount at risk should the 
        project fail and therefore requires a higher return on 
        investment.
  --Non-recourse debt. This money will is backed by the contractor and 
        the projects ability to repay the money. This type of loan is a 
        little more expensive than recourse debt because, if the 
        project failed, the lender and BNFL could lose much of this 
        money.
  --Recourse debt. This type of loan is backed by DOE, meaning that, if 
        the project failed, DOE would ensure that BNFL has the money to 
        repay its loan. This is the least expensive type of money, but 
        it also puts less risk on the contractor and lender and more 
        risk on DOE.
    Each source of money has costs and benefits associated with it. DOE 
is currently studying the mix of the different funding types to 
determine the percentage of each funding source that will be used to 
finance the TWRS Privatization. This study will not just consider the 
costs of the funding types but also the benefits of each. The final 
results of the study should indicate the optimum proportion of the 
different funding types, the associated costs, and the associated 
benefits. DOE is also evaluating other financing options in addition to 
those discussed above. The financing approach will be determined in 
August 2000.
    Question. Under Phase II B of the contract with BNFL, does the 
government have the option of whether or not to proceed with 
construction of waste processing facilities? If you do, when must that 
decision be made?
    Answer. At the end of the 24-month design phase of the contract 
(Phase I Part B-1), DOE will reach closure with BNFL on the cost of the 
project and the firm fixed price the DOE will pay to have the waste 
treated and immobilized. At that point, the contract can be terminated 
if the DOE determines that the price is too high, the technology is not 
satisfactory, or for any other reason which leads the DOE to conclude 
that continuation of the contract is not in the Government's best 
interest. This decision will be made in the summer of 2000.
    Question. What criteria will the Department base its decision on?
    Answer. At the end of the 24-month design phase (Phase I Part B-1), 
DOE will decide whether to proceed with the subsequent construction and 
operations portion or to pursue one of several other approaches to 
process waste. The BNFL authorization to proceed will depend on:
    1. DOE receiving acceptable fixed-unit prices
    2. Acceptance of the BNFL design for nuclear and chemical process 
safety
    3. Adequate assurance of technical success
    4. Assurance that BNFL can successfully manage the project
    5. Substantial equity commitment by BNFL
    6. Other significant financing arranged by BNFL
    7. Assurance that the M & I contractor at Hanford (Project Hanford 
Management Contract) can deliver waste to the facility on schedule
    Question. What impact would a decision not to proceed have on 
current compliance agreements?
    Answer. The schedule proposed by BNFL, Inc., for treatment of tank 
wastes in Phase I, which is required to comply with hazardous waste 
regulations, does not meet the current Tri-Party Agreement (TPA) 
milestones. The current milestones are based on an approach to the 
project that has since changed because of the complexities identified 
in Part A, and are no longer considered feasible. The Department has 
been working with the regulators on a proposed strategy for re-
negotiating new TPA milestones which would align with current DOE/BNFL 
``90 percent confidence level'' privatization schedules. These non-
enforceable target dates would convert to enforceable milestones 
consistent with the Phase I Part B-2 contract including a reasonable 
contingency.
    The Department has proposed July 31, 1999, as the completion date 
for negotiations on TPA milestones for tank waste remediation. If 
negotiations are successful, DOE, Washington State and the EPA will 
have reached agreement on a set of commitments for the privatized 
approach to address the tank farm wastes. These commitments would 
include provisions for an alternative tank waste treatment approach 
should the Department decide not to proceed with the privatization 
approach.
    The milestones in the TPA are subject to enforcement by the State 
of Washington and the EPA. The State has already indicated its intent 
to take appropriate enforcement action for non-performance should we 
fail to successfully renegotiate the existing milestones. A decision 
not to proceed with privatization would be likely to significantly 
delay the development of treatment capability and increase the 
Department's vulnerability under the TPA.
    The capital portion is $5.4 billion from the overall $12.5 billion 
total project cost reflected in the fiscal year 2000 Congressional 
budget submission. The $12.5 billion also includes an estimated $5.1 
billion for facility operations and $2 billion for the Management and 
Integrating contractor support. We are working hard at reducing 
construction costs and considering various financial alternatives to 
understand their impacts on risk allocation between the government and 
BNFL. We will be discussing these alternatives with the Congress prior 
to decision on the next phase, the construction phase.
    Question. Do current OMB budget planning targets support the $600-
$660 million requirement for new budget authority in fiscal year 2001 
and beyond?
    Answer. Yes. The Administration's request for advance 
appropriations is sufficient to cover the new budget authority required 
to support the TWRS Privatization Phase I project in the years fiscal 
year 2001 through fiscal year 2004. The amounts requested are 
sufficient to cover the funding profile for the project as presented in 
the Project Data Sheets in the Congressional Budget Request for fiscal 
year 2000.
    Question. Can you explain for the committee the concepts of loan 
guarantees, lease/purchase, or other arrangements, and how they affect 
the future budget picture for the TWRS project?
    Answer. The Environmental Management privatization approach 
requires the contractor to finance the acquisition of facilities to 
deliver cleanup services. As the contractor begins to provide cleanup 
services, DOE pays for its operating costs and the construction and 
financing costs the contractor incurred. Based on this approach, the 
Office of Management and Budget scores privatization projects (i.e., 
determines when and how much budget authority and outlays will be 
counted against the budget caps) as service contracts, which means that 
only sufficient budget authority is needed each year equal to the 
government's legal obligations under the contract. If services will not 
be delivered until the construction of a facility is complete, outlays 
would not be scored during the construction period.
    If privatization projects were to be scored as the purchase, lease-
purchase, capital lease, or operating lease of an asset, more budget 
authority and outlays would be counted against the caps earlier in the 
period of performance for the contract. For example, budget authority 
for a lease-purchase would be scored in the amount of the estimated net 
present value of the government's total estimated legal liability in 
the year budget authority is first made available. Outlays for a lease-
purchase in which the government assumes substantial risk (e.g., with 
loan guarantees) would be scored across the construction phase of the 
contract.
    The TWRS project will be financed using BNFL equity, non-recourse 
debt, and recourse debt backed by the government. The debt supported by 
the government is not a loan guarantee because DOE is not making a 
commitment to the lenders to pay back the loans. The exact proportion 
of each type of financing has not yet been determined. The financing 
package will be a factor in the 24-month decision point to determine 
whether Phase I Part B-2 can begin. BNFL's equity is at full risk 
should there be a problem with the project. The more the government 
supports the debt (as it does with progress payments), the lower the 
financing cost of the project to the government. However, because the 
government is accepting the added risk, the overall cost of the project 
could rise even though the initial price to the government may fall. As 
the party best able to manage the risk is no longer totally responsible 
for managing its risk, the potential for failure increases and thus the 
potential for increased costs becomes higher. At the end of Phase I 
Part B-1, we will identify the optimum proportion for each type of 
money. For the current estimate, these different types of money have 
been accounted for and are included in the project estimates. Although 
the exact proportions may shift some, at present we believe that they 
will not shift enough to materially impact future budget requirements.
                          savannah river site
    Question. Explain the plan using the F-Canyon to help accelerate 
closure of Rocky Flats.
    Answer. The key to accelerating closure of Rocky Flats is removing 
nuclear materials from the site. Combined with substantial cleanup 
work, moving nuclear materials (e.g., plutonium and uranium) from Rocky 
Flats is the most critical element of our effort to reduce risks and 
costs. The Department has been working to identify receiver sites with 
appropriate facilities to manage the nuclear materials at the lowest 
cost with the greatest safety and security.
    On November 25, 1998, the Department issued the first Record of 
Decision on Management of Certain Plutonium Residues and Scrub Alloy 
Stored at the Rocky Flats Environmental Technology Site (RFETS). This 
Record of Decision announced that the Department had decided to ship 
the following nuclear materials to the Savannah River Site (SRS) for 
stabilization to help accelerate closure of Rocky Flats by 2006:
  --3,377 kg bulk (271 kg Pu) Sand, Slag, and Crucible (SS&C) and 
        Plutonium Fluorides
  --700 kg bulk (200 kg Pu) Scrub Alloy.
    The first shipment of SS&C was received at the SRS from RFETS in 
early December of 1998. All the nuclear materials listed above are 
scheduled to be shipped to the SRS by July of 2001. All of these 
nuclear materials are scheduled for stabilization to metal in F-Canyon/
FB-Line by May of 2002 for safe, interim storage at SRS.
    Question. What are the major elements and milestones for making 
this happen?
    Answer. There is only one major milestone for this stabilization 
effort: by May 2002 the Savannah River Site will convert the above 
Rocky Flats nuclear materials to stable metal and then package them to 
meet the metal and oxide storage standard. The Department committed to 
meeting this milestone in Revision 1 of the Implementation Plan for 
Defense Nuclear Facilities Safety Board Recommendation 94-1, 
Remediation of Nuclear Materials in the Defense Nuclear Facilities 
Complex, dated December 22, 1998. In addition, this stabilization 
effort is a milestone in the fiscal year 1999 Savannah River Site 
Annual Operational Plan/Westinghouse Savannah River Company/F-Area 
Stabilization Project/Summary Task Description Sheet, dated September 
2, 1998.
    The first shipment of SS&C was received at the SRS from RFETS in 
early December 1998. All the nuclear materials listed above are 
scheduled to be shipped to the SRS by July 2001. All of these nuclear 
materials are scheduled for stabilization to metal in F-Canyon/FB-Line 
by May 2002 for safe, interim storage at SRS.
    Question. How important is the opening of the WIPP to the success 
of this effort? What alternative or contingencies exist if WIPP does 
not open as scheduled?
    Answer. Being able to dispose of waste at WIPP is extremely 
important for the overall effort to accelerate closure of Rocky Flats, 
as well as several other DOE sites. The type of waste sent to WIPP, 
however, is transuranic waste that meets the WIPP waste acceptance 
criteria. The material being shipped to SRS for processing in the F-
Canyon does not meet these acceptance criteria and cannot be disposed 
of in WIPP. Hence, the opening of WIPP has no impact on shipment of the 
Rocky Flats materials listed above to the Savannah River Site for 
stabilization and safe, interim storage.
    Question. Has the state of South Carolina approved this approach, 
and if not, what is the schedule for getting State approval?
    Answer. The Department provided copies of the Environmental Impact 
Statement (EIS) on Management of Certain Plutonium Residues and Scrub 
Alloy Stored at the Rocky Flats Environmental Technology Site (DOE/EIS-
0277D and DOE/EIS-0277F) to the State of South Carolina when it was 
issued as a draft for public review and comment, and when it was issued 
as a final document. The Department also provided copies of the first 
and second Records of Decision (ROD) on Management of Certain Plutonium 
Residues and Scrub Alloy Stored at the Rocky Flats Environmental 
Technology Site (63 FR 66136 of December 1, 1998 and 64 FR 8068 of 
February 18, 1999) to the State of South Carolina. As documented in 
Chapter 9 of the final EIS, the various agencies of the State of South 
Carolina that reviewed the draft EIS either had no comment, or 
specified that the ``Project is consistent with our goals and 
objectives.'' The State of South Carolina had no comment on the final 
EIS, as documented in Section V of the first Record of Decision.
                actinide packaging and storage facility
    Question. A key element/component to the Savannah River and DOE 
wide nuclear material storage and handling capability is the Actinide 
Packaging and Storage Facility and modifications to the K-Area 
facilities. How do these facilities fit into DOE's waste management 
strategy?
    Answer. These facilities are expected to be very important for 
secure storage of plutonium. The Actinide Packaging and Storage 
Facility (APSF) is intended to store plutonium from the Savannah River 
Site (SRS) and from the Hanford site near Richland, Washington. The 
Department intends to use SRS K Area facilities to store Rocky Flats 
plutonium. Both facilities will store plutonium until such time as the 
Materials Disposition (MD) facilities that will be used to prepare the 
plutonium for final disposition come on line.
    Question. Explain the major changes which have occurred on the 
Actinide Packaging and Storage Facility project and how the Department 
plans to proceed with this project in the future.
    Answer. There have been changes to the design of the APSF to expand 
storage capacity and reduce life cycle security costs (putting the 
vault underground), implementing International Atomic Energy Agency 
safeguards and security requirements, and reducing personnel exposure 
to existing project limits. A decision has been made to temporarily 
suspend work on the APSF pending a re-evaluation of functional 
requirements. This re-evaluation has become prudent given the 
significant estimated construction cost increases for the APSF 
subproject, coupled with the recent designation of the Savannah River 
Site as the preferred location for the surplus plutonium Pit 
Disassembly and Conversion Facility. We have concluded that it is 
advisable to halt further progress on the APSF to allow time to conduct 
a systems engineering evaluation of plutonium material management 
functions and planned new storage facilities at SRS. This study will 
consider the benefits and efficiencies available through designing and 
constructing storage facilities with an eye towards shared storage, 
economies of scale, and improved safety margins. The plan is to restart 
the APSF project in fiscal year 2001, implementing the results of this 
study.
    Question. How will the funds previously appropriated for this 
project be used?
    Answer. Funds previously approved for this project have been used 
to complete the original design of the facility and a number of other 
development activities that have led to the existing design package. 
The Department also intends to seek a $44 million reprogramming of 
fiscal year 1999 funds from Actinide Packaging and Storage Facility 
(APSF) to critical projects that have budget shortfalls. These include 
(1) upgrades to the ventilation systems in the F and H Canyons that 
address safety and health deficiencies, and (2) funding to support 
operations in the H Canyon facilities for stabilization of plutonium 
solutions.
                  in-tank precipitation project (itp)
    Question. DOE has experienced major problems with the In-Tank 
Precipitation Project which is a key facility in processing waste in 
storage tanks at Savannah River. Describe the problems encountered and 
why they were not foreseen .
    Answer. During the design and construction activities related to 
ITP, several studies and reviews raised questions about the operability 
and efficiency of the ITP process. These concerns dealt with various 
issues, including the generation of benzene, an explosive chemical. 
However, the extent to which very large quantities of benzene would be 
produced was not raised.
    The In-Tank Precipitation (ITP) Facility initiated radioactive 
operations in September 1995 to remove cesium and other radioactive 
components from Tank Farm waste salt solutions. During slurry pump 
operation in December 1995, benzene was generated from the reaction 
tank at higher rates than expected, presenting an explosion risk.
    Subsequent investigations revealed the source of the benzene was 
decomposition of sodium tetraphenylborate (TPB) that was added to 
precipitate cesium from the waste solution. ITP operations were 
suspended in March 1996 to better understand the ITP process chemistry 
and evaluate any impacts on down stream facilities.
    While benzene generation was expected as a result of this process, 
it was not anticipated to be produced at such high rates. Further 
investigations revealed that trace amounts of some elements such as 
paladium found within the waste were acting as catalysts driving the 
chemical reaction and subsequent benzene production to much higher 
levels then originally predicted. The presence of these catalysts was 
not known during the limited testing phase.
    Question. Also explain why the In-Tank Precipitation technology was 
selected.
    Answer. The ITP process was believed to be a cost effective 
alternative for separating high-level radioactive cesium from the other 
materials in the waste. There were several reasons supporting the 
selection of ITP.
    From a technical standpoint, ion-exchange was, and is, the more 
commonly used technology for separation processing. However, that 
technology was not as effective for the very alkaline high-level waste 
at the Savannah River Site. On the other hand, the tests supporting the 
ITP process at that time looked very promising.
    From a cost standpoint, the ion exchange alternative was expected 
to have a life-cycle cost (including capital and operating costs) in 
excess of one billion dollars. The ITP process used existing high-level 
waste storage tanks, which saved the costs of constructing new 
facilities.
    Question. How is the delay impacting waste processing efforts at 
Savannah River, and what is DOE doing to address issues relating to 
ITP?
    Answer. Waste processing and pretreatment activities continue for 
the sludge waste stream feed. Canister production continues at the 
Defense Waste Processing Facility (DWPF) with sludge-only canisters 
being produced. As of March 22, 1999, we have produced over 600 
canisters of the estimated 5,200 total (salt and sludge) canisters, and 
will continue to produce sludge-only canisters until the replacement 
for ITP is operational about fiscal year 2008.
    We originally anticipated that ITP would begin operation in fiscal 
year 1999 to pre-treat (i.e., separate out the highly radioactive 
cesium from the balance of the salt waste) and supply the salt waste 
stream precipitate (i.e., the cesium) for processing at DWPF. Due to 
significant technical and safety issues incurred due to the higher than 
anticipated levels of benzene generation with the ITP process, the 
restart of operations at ITP were suspended in January 1998.
    With the suspension of ITP efforts, we began a systems engineering 
approach in March 1998 to assess all potential alternatives for 
removing cesium from stored high-level waste solutions. This resulted 
in a recommendation to pursue three options with a final selection of a 
process in fiscal year 2000. The three options are: direct disposal as 
grout, small tank in-tank precipitation, and non-elutable ion exchange.
    On February 22, 1999, the Department published a Notice of Intent 
to prepare a Supplemental Environmental Impact Statement (SEIS) for the 
alternatives to the ITP process. As part of this process, two public 
scoping meetings were held in Columbia, S.C. and North Augusta, S.C. on 
March 11 and 18, 1999, respectively.
    In the SEIS, the Department will assess the potential impacts of 
the three ITP replacement processes and a no-action alternative. The 
Department does not have a preferred alternative at this time. However, 
the Department intends to complete this SEIS in the February 2000 time-
frame, and a Record of Decision (ROD) some time after that.
    Question. What impact does this have on the Defense Waste 
Processing Facility operations?
    Answer. The Defense Waste Processing Facility will continue to 
produce sludge-only canisters, and, according to current waste feed 
projections, should be able to maintain production of sludge-only 
canisters until the year 2008 time-frame. At that time, we will need to 
have the alternative salt separation process in place and producing 
waste feed for DWPF.
    Question. How much funding was provided for the operation of the 
ITP facility in fiscal year 1998 and fiscal year 1999, and how have 
these problems affected the use of these funds?
    Answer. The funding for the operation of ITP was $19 million in 
fiscal year 1998 and $12 million in fiscal year 1999. These funds have 
been used to maintain the ITP facilities in a safe condition until 
final determination on the use of these facilities is made as a part of 
the overall Salt Alternative assessment process.
    Question. How will any unobligated balances be used?
    Answer. There were no unobligated balances for the Salt Alternative 
in fiscal year 1998 and we do not expect to have any fiscal year 1999.
    Question. What level of funding is included in the fiscal year 2000 
budget request, and how will those funds be used?
    Answer. The fiscal year 2000 budget request for the High-Level 
Waste Salt Alternative Disposition is $42 million. These funds will be 
used to complete the Supplemental Environmental Impact Statement 
(SEIS), support research and development activities on three 
alternatives to the ITP process, and construct a pilot prototype for 
the preferred alternative.
    Question. What date is assumed for the restart of ITP operations?
    Answer. fiscal year 2008 is the anticipated start of radioactive 
operations for any of the alternatives being evaluated.
    Question. Will DOE have to construct a new facility?
    Answer. Yes, if any of the three alternatives under consideration 
are selected, new facilities would have to be constructed. At this time 
we are also looking very closely at which, if any, existing facilities 
could be utilized.
    Question. Explain technology options being considered and the costs 
associated with each.
    Answer. Three technology alternatives are being evaluated. The 
costs identified below include capital costs and operating costs in 
support of construction for the necessary facilities associated with 
each alternative. They do not include the costs for operation or the 
facilities or for waste disposal. They are:
    Small Tank In-Tank Precipitation.--This alternative would use the 
same chemicals and process as the existing ITP batch process, but would 
use continuous flow, low residence time, and chilled tank processing. 
The high-level liquid waste would be mixed with monosodium titanate and 
filtered to remove adsorbed uranium, plutonium, and strontium. The 
adsorbed solids would be vitrified at DWPF. To capture the cesium, as 
with the larger ITP process, this process would use sodium 
teraphenylborate as the reactant to precipitate cesium out of the 
waste. The precipitate stream would be fed to DWPF to be vitrified. The 
smaller tank process would eliminate the benzene control uncertainties 
associated with the large tank process. Preliminary cost projections 
for construction of new facilities and the support activities necessary 
for implementing this process are $1.1 billion.
    Ion Exchange.--This alternative would use a different ion exchange 
medium from that previously considered. The medium (or resin) being 
proposed is crystalline silicotitanate (CST). The high-level liquid 
waste would be mixed with monosodium titanate and filtered to remove 
adsorbed uranium, plutonium, and strontium. The adsorbed solids would 
be vitrified at DWPF. The CST resin ion exchange columns would be used 
to remove the cesium from the salt solution. The cesium bearing-resins 
would be vitrified in the DWPF. Preliminary cost projections for 
construction of new facilities and the support activities necessary for 
implementing this process are $1.2 billion.
    Direct Disposal as Grout.--In this alternative, the high-level 
liquid waste would be mixed with monosodium titanate and filtered to 
remove adsorbed uranium, plutonium, and strontium. The adsorbed solids 
would be vitrified at DWPF. The filtered salt solution which would 
contain radioactive cesium would be combined with grout in a facility 
that would be constructed under this alternative, and disposed of in 
the SRS saltstone vaults. Preliminary cost projections for construction 
of new facilities and the support activities necessary for implementing 
this process are $900 million.
    Question. Do future OMB budget planning targets have sufficient 
room to accommodate a potential new facility to pre-treat the waste at 
Savannah River?
    Answer. The current OMB outyear targets provide a stable level of 
funding for the Environmental Management program under the assumption 
that the Administration's Social Security reform and other proposals 
are enacted. To accommodate new requirements, such as the salt 
alternative program, within these current targets, the EM program will 
have to become more efficient and/or reprioritize currently planned 
activities. EM intends to work with OMB, regulators, stakeholders, and 
the Congress on such funding and prioritization issues as they arise.
                      canister production at dwpf
    Question. Explain the reason why canister production is falling off 
in fiscal year 2000.
    Answer. The Department's fiscal year 2000 budget request stated 
that it would be necessary to reduce sludge-only canister production 
from its current level of 200 to 100 in fiscal year 2000 to accommodate 
funding for salt alternative work. The reduced canister production, 
accomplished by slowing down the waste removal activities, would then 
provide additional funding for continued study of the high-level waste 
salt alternatives.
    However, subsequent to the fiscal year 2000 budget submission, and 
based on senior level discussions and consideration of all factors 
involved, the Savannah River Site has committed to maximizing canister 
production (about 200 canisters) in fiscal year 2000.
                       processing of heavy water
    Question. Last year Congress provided additional funds for the 
Department to process tritium-contaminated water stored at the Savannah 
River site. Could you update the committee on the current status of 
this program? Has the agreement with Canada been completed and signed? 
If not, why?
    Answer. As currently planned, the heavy water contract with Atomic 
Energy of Canada, Limited (AECL) will be in two parts. We expect to 
sign the first part of the contract at the end of April 1999. Under the 
first part of the contract, AECL will ship 35.5 metric tons (MT) of 
clean heavy water to the National Institute of Standards and Technology 
(NIST) to meet Savannah River Site (SRS) commitments to NIST. SRS will 
then ship 50 MT of tritium-contaminated heavy water to Canada to 
replace the clean heavy water shipped to NIST. By the end of May, we 
expect to sign the second part of the contract. This part of the 
contract will result in shipment of an additional approximately 950 MT 
of tritium-contaminated heavy water to AECL.
    AECL has decided to team with a Canadian partner, who will provide 
the financial support needed for AECL to accomplish their functions 
under the contract, as well as construct and operate a detritiation 
facility in Canada. In addition, the Department has decided to add an 
option to include another 500 metric tons of heavy water in the 
contract, if and when the Accelerator Production of Tritium (APT) 
program determines that it no longer needs or wants the water. This 
heavy water is now being held in reserve for the APT program. When AECL 
has negotiated a contract with their partner, we believe that all 
preparations will be in place for both the Department and AECL to sign 
the second part of the contract. The contract has been delayed until 
now due to the contract changes discussed above and the fact that AECL 
needed to find a funding source for their efforts.
    Question. Does the fiscal year 2000 budget request continue to 
support the program adequately and in accordance with the agreement?
    Answer. Recognizing that the contract has not been finalized, the 
fiscal year 2000 budget request provides sufficient funds for this 
program.
    Question. Does the Department believe the program is cost effective 
and in the U.S. interest.
    Answer. Yes. The Department no longer needs the heavy water. 
Therefore, continuing to store this material is not cost-effective for 
the Department. The revenues from the sale of heavy water will offset 
the cost of cleaning up the former heavy water production and storage 
facilities.
                     oak ridge national laboratory
    Question. The budget request for the Oak Ridge National Laboratory 
proposes to transfer several activities conducted under non-Defense 
environmental management to the Defense Environmental Management 
program for fiscal year 2000. The total amount to be transferred is 
estimated to exceed $60 million.
    Please explain the reasons for proposing the transfer of several 
programs previously conducted under the non-Defense environmental 
program over to the Defense environmental management account for fiscal 
year 2000. What is the total amount proposed to be transferred?
    Specifically, what is the direct link to the Defense work that 
would support the transfer to Defense EM?
    Provide for the record a crosswalk which shows all programs or 
activities being proposed for funding in the fiscal year 2000 budget 
under Defense Environmental Management which were funded outside of the 
Defense EM program last year. The crosswalk should show the amount of 
funding in fiscal year 1999 and where it was provided, the request for 
fiscal year 2000 and where it is requested, along with a brief reason 
for the move, including a brief explanation of the direct link with 
defense activities which would support the Department's proposal.
    Answer. The Oak Ridge National Laboratory is a complex, multi-
funded site, which supported both weapons production (defense) and 
energy research (non-defense) activities through the years. While waste 
generated or shipped to the Bethel Valley and Melton Valley sites was 
from both non-defense and defense funded activities, the majority of 
the waste was produced from defense activities, including early 
prototype reprocessing activities.
    Historically, funding for environmental management activities at 
Bethel Valley and Melton Valley was provided both from the defense and 
non-defense accounts. During the 1980's funding was solely from the 
defense account. Beginning in the early 1990's, funding for these two 
sites was provided from both the defense and non-defense accounts. (In 
fiscal year 1990 through fiscal year 1998 approximately $230 million 
was provided from the defense account and approximately $260 million 
from the non-defense account for environmental restoration activities.)
    In fiscal year 1999, funding for environmental management 
activities at these two sites was exclusively from the non-defense 
account. The reason for this decision was due to budget constraints on 
the defense account. The non-defense account no longer has the 
flexibility to accommodate funding these important activities. For 
example, in fiscal year 1999 Congress increased the defense 
appropriations by about $90 M from the requested level, and decreased 
the non-defense appropriations by about $30 M (out of $462 M) (6 
percent). The Department believes that because the majority of waste at 
the Oak Ridge sites is from defense funded activities, it is 
appropriate that funding be provided from the defense account. This is 
reflected in the fiscal year 2000 budget request. In addition, under 
the new Management and Integration contract for environmental 
management activities at ORNL there will be many more fixed price 
subcontracts than in the past. The administration of these numerous 
subcontracts would be much more difficult to manage if they were funded 
from two different accounts. Thus, in order to streamline the program 
management and administration costs, the decision was made to fund this 
work from one account. The defense account was chosen because, as noted 
above, the majority of waste at these sites is from defense funded 
activities.
    The following four activities at Oak Ridge National Laboratory were 
funded from the Non-Defense Environmental Management Appropriation in 
fiscal year 1999, and now are being requested in the Defense 
Environmental Management and Waste Management Appropriation. The 
crosswalk follows:

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    NON-DEF                              DEFENSE
                                                                    FISCAL                               FISCAL
                 TITLE                         NON-DEF PBS           YEAR           DEFENSE PBS           YEAR
                                                                     1999                                 2000
----------------------------------------------------------------------------------------------------------------
Melton Valley D&D.....................  OR43201..................    33,434  OR43101..................    24,307
Melton Valley RA......................  OR43202..................     2,573  OR43102..................     1,300
Bethel Valley RA......................  OR43203..................    18,473  OR43103..................    28,569
Bethel Valley D&D.....................  OR43204..................     5,197  OR43104..................     3,626
                                                                  ----------                           ---------
      Total...........................                               59,677                               57,802
----------------------------------------------------------------------------------------------------------------

    Question. What is the National Metal Recycle Center which is being 
funded from Oak Ridge Defense Direct Support in fiscal year 2000? What 
level of funding was provided for this Center in fiscal year 1999 and 
previous years? Provide a detailed breakout of the $4.162 million being 
requested for Direct Support-Defense activities compared to the $2.898 
funding level for fiscal year 1999.
    Answer. The National Center of Excellence for Metal Recycle was 
created in October 1997 to facilitate the cost effective recycle of 
clean and decontaminated metals at DOE sites across the country. The 
Center identifies recycling opportunities and provides technical 
assistance to all DOE sites on projects that may be able to realize 
cost reductions through recycling of materials for unrestricted use. 
The Center provides expertise to support the evaluation of cost and 
risk aspects of specific recycling projects to make sure that each 
project is safe and cost effective. The Center's goal is to make 
recycling a well understood and commonplace component of our cleanup 
projects. The Center has already participated in six large projects and 
several smaller actions that resulted in the recycling of 11,000 tons 
of metal, with an estimated savings to the Department of approximately 
$9.9 million.
    The Oak Ridge Operations Office funds the Center, which provides 
technical assistance to any site or recycling project in the DOE 
complex. The Center receives funds from each of the three main Oak 
Ridge appropriations, that is, Post 2006 Completion Defense, Post 2006 
Completion Non-Defense, and the Uranium Enrichment D&D Fund. The total 
funding for the Center in fiscal year 1998 was $700,000 and $900,000 in 
fiscal year 1999. The fiscal year 2000 Congressional Budget Request 
includes $900,000 for this program.
    The requested detailed breakout of the direct support-defense 
activities (PBS OR-48104) is provided below:

                        [In thousands of dollars]
------------------------------------------------------------------------
                                                          Fiscal year
                                                     -------------------
                                                        1999      2000
------------------------------------------------------------------------
Agreements In Principle.............................     1,650     1,225
DOE Direct..........................................     2,000     2,437
Metal Recycle.......................................       100       500
                                                     -------------------
      Total.........................................  \1\ 3,75     4,162
                                                             0
------------------------------------------------------------------------
\1\ The current total fiscal year 1999 is $3.75 million. However, only
  $2.898 million was shown in the fiscal year 2000 budget request due to
  the availability of carryover funds. Therefore, Defense -funded Direct
  Support requirements have really only increased a net of approximately
  $400K.

    DOE Direct funding covers crosscutting program technical 
requirements such as: support to the EM portion of transportation 
activities; technical program support in the areas of independent 
validation; readiness assessments and laboratory audits; and State 
mixed waste fees. This activity also supports corporate and educational 
initiatives such as Historically Black Colleges and Universities/
Minority Educational Initiatives and educational grants to local 
schools. The increase in fiscal year 2000 represents increased funding 
for independent validation of program baselines and increased 
independent audit requirements.
                    environmental management centers
    Question. Regarding special ``Centers'', how many other ``Centers'' 
is DOE funding in the Environmental Management program? Provide for the 
record a list of those ``Centers'' showing where each ``Center'' is 
funded, what funding has been provided each year for the past 4 years, 
the funding profile over the next 5 years, and what the benefit they 
provide to the Defense EM program?
    Answer. The Metal Recycling Center is the only Oak Ridge Center. 
The majority of the Centers of Excellence were established in fiscal 
year 1997, therefore the funding profile will begin with fiscal year 
1997. Attached is a chart depicting where each center is located and 
the funding profile, as well as a brief description of the benefits 
provided to the Environmental Management Program.

                             DEFENSE ENVIRONMENTAL RESTORATION AND WASTE MANAGEMENT
                                            [In thousands of dollars
----------------------------------------------------------------------------------------------------------------
                                                       Fiscal year
      Center of excellence       -------------------------------------------------------  Description/benefit of
                                     1997       1998       1999       2000    2001-2006          centers
----------------------------------------------------------------------------------------------------------------
Albuquerque: LLW/MLLW Center of     ( \1\ )    ( \1\ )    ( \1\ )    ( \1\ )    ( \1\ )  Prepares Federal
 Excellence \1\.                                                                          Facilities Compliance
                                                                                          Act, Chief Financial
                                                                                          Officer Report to
                                                                                          Congress.
Chicago: Risk Management Center       1,103      1,962      2,389      2,415     14,490  Provides technical
 of Excellence.                                                                           expertise and support
                                                                                          to help field offices
                                                                                          implement EM/DOE risk
                                                                                          initiatives; technical
                                                                                          assistance to field on
                                                                                          the Accelerated Paths
                                                                                          to Closure
                                                                                          development.
Idaho: LLW/MLLW Center of Excel-  .........        498        395  .........     13,264  Idaho is the lead for
  lence \1\.                                                                              complex-wide
                                                                                          Environmental
                                                                                          Management integration
                                                                                          efforts for LLW/MLLW
                                                                                          (opportunities for
                                                                                          acceleration of
                                                                                          cleanup, mortgage
                                                                                          reduction, cost
                                                                                          savings).
National Spent Nuclear Fuel Pro-     19,844     21,952     26,092     14,275     82,338  Idaho will provide
  gram \1\.                                                                               overall program
                                                                                          management to safely
                                                                                          and efficiently manage
                                                                                          DOE-owned spent
                                                                                          nuclear fuel and
                                                                                          prepare it for
                                                                                          disposal.
Nevada: LLW/MLLW Center of          ( \1\ )    ( \1\ )    ( \1\ )    ( \1\ )    ( \1\ )  Provides technical
 Excellence \1\.                                                                          assistance to the LLW
                                                                                          Federal Review Group;
                                                                                          completes disposal
                                                                                          facility Performance
                                                                                          Assessments/Composite
                                                                                          Analyses and leads
                                                                                          effort to consolidate
                                                                                          site audits of
                                                                                          treatment, storage and
                                                                                          disposal facilities.
Savannah River:
    National Environmental            1,000      1,600      1,500      1,500      6,000  Coordinates/manages EM-
     Training Office Center of                                                            related technical
     Excellence.                                                                          training and
                                                                                          facilitates increased
                                                                                          standardization of
                                                                                          contractor training.
    National Spent Nuclear Fuel     ( \1\ )    ( \1\ )    ( \1\ )    ( \1\ )    ( \1\ )  Savannah River is the
     Program **.                                                                          lead for aluminum-
                                                                                          based and Foreign
                                                                                          Research Reactor
                                                                                          fuels.
FETC: Center for Acquisition and      2,125      1,275      1,594      1,702     10,841  Serves as a field
 Business Excellence.                                                                     resource in areas such
                                                                                          as research
                                                                                          acquisition plan
                                                                                          development, business
                                                                                          and technical
                                                                                          assistance in
                                                                                          developing procurement
                                                                                          strategy, and
                                                                                          identifying and
                                                                                          promulgating best
                                                                                          practices and lessons
                                                                                          learned.
----------------------------------------------------------------------------------------------------------------
\1\ Funding for both the LLW/MLLW and National Spent Fuel Centers of Excellence are requested under Idaho and
  released to other sites during execution.

                                 ______
                                 

                 Questions Submitted by Senator Cochran

                         science and technology
    Question. Mr. Owendoff, one of the Department of Energy's major 
thrusts has been privatization of its cleanup efforts. One of the 
dangers of privatization is that private companies are selling general 
solutions that are not always tailored to the specific waste site. 
Without proper departmental oversight and necessary tailoring, these 
already expensive solutions can become even more costly.
    How is the Department of Energy using university organizations--
such as DIAL at Mississippi State University--to provide independent 
evaluations of the feasibility of cleanup proposals, such as the $10 
billion cleanup effort at Hanford, Washington?
    Answer. The Department is currently using a number of university 
organizations and faculty--including for example, the Diagnostic 
Instrumentation and Analysis Laboratory (DIAL) facility at Mississippi 
State University; the Hemispheric Center for Environmental Technology 
(HCET) facility at Florida International University; and the Institute 
for Central and Eastern European Cooperative Environmental Research at 
Florida State University--to provide independent evaluations of the 
efficacy of environmental technologies in cleanup proposals. The 
Director of the DIAL facility has, for example, recently been invited 
to participate in an independent assessment of the baseline technology 
proposed by the privatization contractor for the Tank Waste Remediation 
System at Hanford, Washington. In addition, researchers at DIAL are 
currently working on validating a critical thermodynamic equilibrium 
model that will be directly applicable to successful treatment of the 
waste contained in all Hanford tanks, and to the work of the 
privatization contractor.
                   waste isolation pilot plant (wipp)
    Question. Mr Owendoff, the Mississippi Emergency Management Agency 
has been informed that the Waste Isolation Pilot Plant (WIPP) program 
budget has been cut by $513,000. Mississippi and other states, through 
which transuranic waste will ultimately travel to WIPP, have been using 
this money to prepare for the impending shipments and address safety 
concerns associated with them. With reduced funding for WIPP, how will 
states such as Mississippi adequately prepare for the safety concerns 
associated with these transuranic waste shipments?
    Answer. On March 22, 1999, Judge John Garrett Penn concluded that 
the permanent injunction he issued in 1992 does not prevent the 
shipment of waste, and that WIPP has interim status under RCRA. This 
ruling resulted in the Department completing the first shipment of 
transuranic waste to WIPP on March 26, 1999. The Department plans to 
continue shipments of waste to WIPP and to increase the rate of 
shipments to 17 per week.
    Since WIPP did not open when originally planned, the Department had 
withdrawn approximately $13 million from the Carlsbad Area Office 
budget to offset increased waste management costs at the sites where 
transuranic waste is stored. However, now that shipping has begun, we 
have already released funding for the Southern States Energy Board, 
which supports the Mississippi Emergency Management Agency.

                          subcommittee recess

    Senator Craig. Gentlemen, thank you very much for your time 
and your willingness to be forthright in your responses.
    The subcommittee will recess.
    [Whereupon, at 11:06 a.m., Thursday, March 18, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2000

                              ----------                              


                        TUESDAY, APRIL 13, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:42 a.m., in room 138, Dirksen 
Senate Office Building, Hon. Pete Domenici (chairman) 
presiding.
    Present: Senators Domenici, Reid, and Dorgan.

                          DEPARTMENT OF ENERGY

                           Office of Science

STATEMENT OF DR. MARTHA KREBS, DIRECTOR

            Office of Nuclear Energy, Science and Technology

STATEMENT OF BILL MAGWOOD, DIRECTOR

            Office of Energy Efficiency and Renewable Energy

STATEMENT OF DAN REICHER, ASSISTANCE SECRETARY

                 OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. The hearing will please come to order.
    First, I want to welcome my ranking member and indicate to 
him that since he has a time schedule that is difficult, I will 
let you proceed wherever you would like.
    Would you like to make your opening statement?
    Senator Reid. No, I'm okay.
    Senator Domenici. Today, the subcommittee will review the 
Department of Energy's budget request for the Office of 
Science, the Office of Nuclear Energy, and the Office of Energy 
Efficiency and Renewable Energy programs. In that regard, we 
will hear from Dr. Martha Krebs, Director of the Office of 
Science; Mr. Bill Magwood, Director of the Office of Nuclear 
Energy Science and Technology; and Mr. Dan Reicher, Assistant 
Secretary of Energy for Energy Efficiency and Renewables.
    Before we begin, I want to compliment all three witnesses. 
Mr. Magwood assumed his responsibilities after Congress was 
extremely critical of the management of the Office of Nuclear 
Energy Science and Technology and has initiated a number of 
interesting, and worthwhile programs. We thank you for that.
    Dr. Krebs is the first Director of Science at the 
Department of Energy, since we created that office last year in 
this committee. We thought there ought to be one focal point 
for all of science. It was predominantly under you before, but 
now it is unequivocal, in that now there is one office and you 
are in charge.
    Beyond that, obviously, she has other duties. She manages 
some of the Department's most exciting research in the human 
genome, high-energy physics, fusion energy, and other areas, or 
I should say as part of that office. Those are all exciting 
functions for the Department.
    I have a great deal of confidence in Mr. Reicher. The 
programs for which he is responsible within the jurisdiction of 
this subcommittee, if we were able to provide the amount in 
request, would expand 50 percent since 1998. I do not think 
that we are going to be able to do that, however, but I do not 
think the resources are going to be more fully justified.
    But within the request, I do see some changes that I find 
encouraging. I see an effort to move away from short-term 
thinking and deployment toward long-term research. I see an 
effort to choose among technologies and to stop pursuing 
technologies that are not making necessary advances.

                     climate change budget request

    With that said I must point out that, in my opinion, the 
funding is rather lopsided in the President's request in terms 
of dealing with climate change. Within the subcommittee 
jurisdiction, the Administration has requested $436 million for 
research and development related to climate change. Of that, 
$399 million is for solar and renewable energy, $33 million is 
for science, and a paltry $5 million is for nuclear energy.
    I do not know how much longer policy makers are going to be 
able to carry on this kind of a charade by continuing to ignore 
nuclear power as we attempt to address the issue of climate 
change. So I have to wonder if the Administration is serious 
about climate change or is simply using this opportunity to use 
renewable energy as a kind of a bone that they throw money at 
indicating that it will solve the global climate issue.
    I do not believe that is the case, and I do not know how 
much longer we can continue to say to those who know we need 
nuclear energy that this approach and this kind of balance or 
lack of balance is something realistic.
    Having said that, as soon as the distinguished Senator from 
Nevada is finished, we are going to start with you, Dr. Krebs, 
followed by Mr. Magwood, and then Mr. Reicher.
    Senator Reid.

                       STATEMENT OF SENATOR REID

    Senator Reid. Mr. Chairman, thank you very much. Again, I 
apologize to you and the witnesses. I had the morning cleared 
for this hearing, but there was a meeting called at the White 
House and I am obligated to attend, so I am going to have to 
leave here at about 10:15.
    I would ask permission that I be allowed to submit the 
questions that I had prepared to these witnesses and that they 
respond in a reasonable period of time.
    Senator Domenici. That will be the order. The questions and 
the Department's responses will be included at the appropriate 
place in the record.

                     renewable energy technologies

    Senator Reid. First I want to talk about energy efficiency 
and renewable energy.
    Mr. Reicher, energy-efficient advances in building 
insulation, lighting technologies, and many other things have 
saved the country enormous quantities of energy and money, and 
I would like to think that work we have done within this 
committee to direct attention to that has been one of the cost-
saving areas that we have done, and we should be proud of these 
accomplishments.
    Renewable energy sources that do not contribute to 
pollution or global warming can be just as successful if these 
technologies can become cost competitive with proven power 
technologies. Tax incentive is another artificial subsidy 
which, in my opinion, can never replace the effectiveness of 
cost savings, and so competitiveness has to be a primary goal 
in the renewable energy program.
    Mr. Chairman, I just returned from a trip to South America, 
and in Brazil they decided to privatize the power industry. 
They went from 60,000 employees that worked for the Brazilian 
government, now that it's private, to 6,000, and it is much 
more effective and working very well. Can you imagine that, 
60,000 to 6,000?
    So my point here is that tax incentives and artificial 
subsidies can never replace the effectiveness of cost savings. 
Competitiveness has to be the primary goal in renewable energy 
and some of our other programs. I hope that testimony here, Mr. 
Reicher, will demonstrate the Department's commitment to 
developing renewable resources that are market-driven instead 
of policy-driven.
    I am particularly interested in the program, because Nevada 
is a state with significant renewable energy potential, as is I 
think much of the Southwest, which has not been fully 
developed.
    We know that commercial geothermal power production is an 
important resource already in northern Nevada. However, in 
spite of high potential for wind power generation, no wind 
power has been developed in Nevada. I have spoken to you and 
others. There may be some problems with that, because of the 
wind now blowing like it does in some parts of California, but 
it is something I think we need to take a look at. We, in 
Nevada, think the wind blows all the time.
    Finally, Nevada is at the very center of the highest 
quality solar power potential in the country. We have been told 
by experts that there is enough sun generated where the Nevada 
test site is located to supply power for the whole United 
States, and the largest producer of solar power in the country 
is down near Barstow, that is 200-megawatt facility, very small 
compared to the potential available. So I think we need to do a 
better job of solar energy.
    The United States, particularly Nevada, will benefit 
enormously from the development of cost-competitive and 
renewable energy. So I wish you well.

                    science research budget request

    As far as science, Dr. Krebs, the $2.8 billion request for 
science programs competes significantly with other priorities 
in our appropriations bill, such as water projects that are 
important to many western states. Many seem to see science as a 
luxury that can be reduced, later even abandoned. I do not 
agree with that.
    I believe that science provides one of the foundations of 
leadership that the United States clearly must show in its 
economy, its quality of life, and its ability to promote global 
peace and security.
    It is important that you, Dr. Krebs, demonstrate the 
relevance and priority of your programs, because these programs 
are very difficult to sustain given some of the other 
priorities that people have looked to this subcommittee for 
years to fund. One of the projects that I think we have to take 
a close look at, we need to understand the development of 
geologic faults, and their permeability is being reduced, 
because I understand there are some general reductions in geo-
sciences.
    This topic is critical to understanding what is going on in 
the western United States. We had the serious earthquake in 
Northern California and a serious earthquake in Southern 
California.
    Nevada is the second most earthquake-prone state in the 
United States, and with the population growth as it is there, I 
think we need to do a lot better in understanding earthquakes. 
That also, as part of that, is the problems we are having on 
nuclear waste. So I hope that you will all personally within 
your discretion do a good job of promoting science programs, 
because we need help in this subcommittee to do that.

                        nuclear energy programs

    Last, Mr. Chairman, nuclear energy. Last year this 
subcommittee held a hearing on the future of nuclear energy. 
For the past 2 years the Administration has proposed a couple 
of initiatives, the Nuclear Energy Research Institute and the 
Nuclear Energy Plant Optimization. I want to build upon what 
you have just said, Mr. Chairman.
    I am not opposed to nuclear waste, if, in fact, we can show 
that it is safe, but I think we cannot even consider more 
nuclear power production unless we talk about the number one 
problem dealing with nuclear power, and that is what you do 
with the waste. That has taken months of our time here in the 
Senate, what are we going to do with nuclear waste, and I find 
that not addressed.
    We have to do something about that before we can talk about 
developing more nuclear power. Unless we can handle the waste, 
there will never be nuclear power. That is in addition to all 
the safety problems that we have.
    So I hope and I agree with the chairman of the 
subcommittee, that I doubt that geologic disposal will ever be 
found acceptable. If we are going to do more with nuclear power 
generation, we have to be able to answer what we are going to 
do with disposal.
    I compliment and applaud the chairman that he is willing to 
take a look at other methods of disposing of nuclear waste. So, 
Mr. Chairman, thank you very much for your allowing me to go on 
with this extended statement. I look forward to the witnesses' 
testimony.
    Senator Domenici. Thank you very much, Senator.
    Senator Dorgan, do you have some opening remarks?

                      STATEMENT OF SENATOR DORGAN

    Senator Dorgan. Just very briefly, Mr. Chairman.
    The President has a briefing on Kosovo this morning, so I 
regret I will not be able to attend the entire hearing. But I 
did want to comment and indicate that the President's proposed 
increases in both the conservation program and also the request 
for expenditures on renewable fuels, I think, is one of a whole 
series of approaches to deal with climate change; but it also 
represents investments in the right kinds of things.
    I welcome Dr. Magwood and Dr. Krebs. I do not know quite as 
much about your work as I do of Mr. Reicher's, but am 
interested in learning, and have been reading some of the 
statements that you are offering today.
    I want to thank Mr. Reicher, he came to North Dakota and 
pronounced that North Dakota was the Saudi Arabia of wind 
energy. I guess only when I am home he meant that to be the 
case, but that does not mean that is what we are producing from 
wind energy, but the potential in North Dakota is quite 
extraordinary in wind energy, and bio-mass and wind energy 
programs, I think, hold great promise, and I appreciate very 
much the leadership of Mr. Reicher.
    I found out during his visit in North Dakota that he has 
kayaked the Yangtze River, and I wondered whether someone who 
decided they wanted to kayak the entire Yangtze River was fit 
for public service after that, and I discovered he is. He is an 
extraordinary asset to our government. I appreciate all three 
of you being here and presenting testimony today about these 
important areas.
    If we can make the right kinds of investments and make the 
right kinds of choices about our energy future, we can address, 
even as we make those choices, a lot of the significant 
problems that lie ahead of us, and that is part of what the job 
of this subcommittee is about, to help make those choices. The 
President has made recommendations. I think they are sound 
recommendations.
    The proposed increases in areas, solar and wind, $274 
million in the President's request, geothermal, $29 million, 
and so on, represent, in my judgment, good choices, and I am 
pleased to be here to support them, and pleased to welcome the 
panel.
    Mr. Chairman, thank you very much.
    Senator Domenici. Thank you very much, Senator.
    I just wanted to say, particularly to you Senator Reid, 
with reference to the admonishment toward the Science Program. 
Dr. Krebs has a very high post, and of great concern to us, 
because we need clear thinking and as much as we can get with 
reference to science.

                         human genome projects

    I do not know if you know, Dr. Krebs, but one of the 
greatest wellness and health programs, research programs, that 
ever came upon human beings is genome research--it will 
revolutionize how we get well, stay well, and how we get rid of 
hundreds of very, very big diseases that have bothered humanity 
for a long, long time.
    I think when people ask whether the Department of Energy is 
really a science institution, you ought to hold your head up 
proudly and say, ``Well, but for the Department of Energy and 
Dr. Charles DeLisi, who moved to DOE from NIH, we would not 
have the genome project.''
    He was at NIH, and they did not want to start that project, 
so he, in frustration, moved over to your department, and came 
up to see me, and said, ``This is a great thing, we ought to do 
it,'' and as a matter of fact, within 7 or 8 months, Senator 
Lauton Chiles and I started it without any authorization, 
nothing in the President's budget.
    It was developed at NIH, the program was shared by the two 
departments. We get one-third now, and we have for the last 8 
or 9 years. They get two-thirds, but they deal theirs out all 
over the country. One laboratory gets one program, another gets 
another, with reference to chromosomes, and we have made some 
giant strides. I assume you are enthusiastic about the genome 
program, are you not?
    Dr. Krebs. I am very enthusiastic about the genome program. 
I think it is one of the best things that the Department of 
Energy has done over the last 10 to 15 years. Creation of the 
genome program will change the way biology is done in the 
future.
    Senator Domenici. Yes.
    Senator Reid. Mr. Chairman, I had a tour of Lawrence 
Livermore Laboratory, and they had this genome project there. I 
misunderstood, let me make sure, but I had the impression they 
took credit for it, but it was just part they were sharing with 
everybody else.
    Senator Domenici. Yes. They got a chromosome. I do not 
remember which one. They might have two.
    Dr. Krebs. Nineteen, Mr. Chairman.
    Senator Domenici. Which one?
    Dr. Krebs. I think theirs is chromosome 19.
    Senator Domenici. Los Alamos has one, et cetera. It is one 
of many chromosomes, Senator Reid.
    Dr. Krebs. Right.
    Senator Dorgan. Mr. Chairman, this is interesting and a 
history that I was not aware of. I wonder if the staff might be 
able to put together a little briefing memo for us establishing 
the outline of this, because I think you make an excellent 
point. There are a lot of investments we make that people are 
very unaware of, and the origin of these often comes from----
    Senator Domenici. Committees.
    Senator Dorgan [continuing]. Areas of our government, and 
committees, and committee and subcommittee chairs, and so on, 
so that would be very helpful, I think, just to put together a 
briefing.
    Senator Domenici. It will. The staff will combine and get 
it done. Thank you.

                     statement of Dr. Martha Krebs

    Dr. Krebs. May I make a comment before I start my----
    Senator Domenici. Sure. Then you can go to your sermon, 
please?
    Dr. Krebs. Right, my advocacy piece. [Laughter.]
    Actually, the Office of Biological and Environmental 
Research within the Department of Energy has existed for 50 
years, since the time of the Atomic Energy Commission. We have 
a document that celebrates those 50 years that could tell you 
about the work we have done in nuclear medicine, as well as in 
the genome, and I would be happy to provide that in addition to 
whatever the staff might prepare. It is a very exciting story, 
actually.
    [Clerk's note.--The following information ``A Vital 
Legacy,'' Biological and Environmental Research in the Atomic 
Age, by the Office of Biological and Environmental Research, 
U.S. Department of Energy, Internet address is www.er.doe.gov/
production/ober/ can be found in the subcommittee files.]
    Senator Domenici. What happened, Senator, to the 
predecessor agency, before we had Energy. There was the Atomic 
Energy Commission, and then we had the Energy Research and 
Development Agency [ERDA], and now DOE. It was because of the 
development and use of the atomic weapons, the Department of 
Energy and its predecessors became a primary focal point to try 
to determine the health effects of those two first atomic 
bombs. They were required to keep all kinds of data, and became 
the data experts with reference to hundreds of thousands of 
Japanese people. From that developed the expertise in 
biological and environmental impact.
    They have great biologists in the Department of Energy, 
some of the best in the world, working at the laboratories, is 
that not right?
    Dr. Krebs. Working at the laboratories, also universities, 
the positron emission tomography technology, and the research 
that supports it in everything from addiction to brain tumors, 
a lot of things have come out of the Department of Energy's 
Biological and Environmental Research Program.
    Senator Domenici. Please continue.

                            program overview

    Dr. Krebs. Mr. Chairman, Senator Reid, Senator Dorgan, I am 
delighted to be here this morning to describe the fiscal year 
2000 budget for the DOE science programs. It is important to 
keep in mind that in terms of the Federal investment and basic 
and applied research, DOE is second only to the Department of 
Health and Human Services.
    The Office of Science itself is in a class with the 
National Science Foundation. We are the primary funders of 
physical science in this country, at $1.7 billion, and clearly 
out rank organizations like NASA and the National Science 
Foundation.
    We have a principal role in large scientific user 
facilities, the high energy and nuclear physics accelerators, 
at Fermi, at SLAC, at Jefferson Lab, the Cyclotron sources and 
research reactors for material science and chemistry.
    But significantly, as well, we are an integral part of the 
Department of Energy, both carrying out its science and 
technology missions and commitments through the high energy and 
nuclear physics programs, in what we call a theme of exploring 
energy and matter, and not only are we looking at fundamental 
particles, but also, for example, the building blocks of life, 
like the genome.
    We have a critical role in supporting the energy missions 
of the Department of Energy, as well as the environmental 
missions, in terms of both the consequences of the use and 
production of energy, but also in supporting the cleanup 
mission, understanding how to remove the contamination that has 
been induced at our sites, and then as I noted before, we build 
extraordinary tools to carry out extraordinary science, and we 
get results year after year.

                        program accomplishments

    Let me tell you about some of them. We have had new 
findings this year on corrosion resistance, which will enable 
better protective coatings for high-temperature, high-wear 
environments, such as furnaces, turbines, engines. In the 
exploration of the new world of nano-structures, we have 
created small fibers 50 to 100 times more conductive than 
copper, which could have a major impact in energy utilization.
    Again, in the biological area, as a spinoff of the human 
genome we have been using the genomic technologies to explore 
other organisms. One of them is called D. radiodurans, which we 
call ``Conan the Bacterium.'' It is a thousand times more 
resistant to radiation than humans, and we sequenced its genome 
this past year, and now we are engaged in the systematic 
exploration of its properties.
    We believe there may be long-term use of this organism for 
bioremediation at some of our most contaminated sites, and, in 
fact, the environmental molecular science program, which we 
help the Environmental Management Program to manage jointly, is 
exploring more practical applied applications of this 
mechanism.
    As I mentioned before, most recently we have been using the 
positron emission tomography at the Brookhaven Laboratory to 
explore the chemical pathways of addiction, and this year we 
identified an epilepsy drug, GBG, as a treatment to block the 
addictive effects of cocaine and nicotine. Joanna Fowler, who 
leads that group, was recognized this year with the Lawrence 
Award for her activity.
    Science Magazine named the work of a group at the Lawrence-
Berkeley Lab on the accelerating universe as the scientific 
breakthrough of the year. It represents a 10-year campaign that 
indicates that there may be a new force in the universe that 
works against gravity, expanding the universe at a faster and 
faster rate.
    Another advance was the first indications of neutrino mass 
at the facility in Japan, but that was strongly supported by 
the United States high energy physics program, and we supported 
most of the U.S. scientists in that collaboration.

                    fiscal year 2000 budget request

    Let me turn to the budget itself now. In fiscal year 2000 
we are requesting $2.8 billion. It is up about $138 million, or 
5 percent, over 1999, taking into account $46 million of one-
time projects. The overall activity is up about $184 million.
    If you want to think about how we used that additional $184 
million, it was an increase of $84 million for the Spallation 
Neutron Source to keep it on track with the original proposed 
cost profile, $70 million for the Scientific Simulation 
Initiative, part of the President's information technology 
initiative, and a $10 million increase for science education, 
and the remaining is spread in various ways.
    Despite increases for our major initiatives, difficult 
decisions were made within the base program that are 
defensible, but not comfortable. One of them was the example 
that Senator Reid gave of our reductions in geoscience, but 
some accommodations had to be made, given the tight constraints 
that the Administration applied to the budget, and which I know 
you have equally tight constraints as well.
    Within these constraints we have to accommodate new 
projects and new directions, and we have to make sure that we 
balance the operation of existing facilities against that which 
supports the research, and the researchers that use them.
    The budget request has numerous important elements, but in 
the time that remains, I will talk mainly about the two major 
initiatives in the budget, the Spallation Neutron Source and 
the Scientific Simulation Initiative.

                       spallation neutron source

    The Spallation Neutron Source is a $1.36 billion facility, 
expected to be completed in December 2005. It is a five-lab 
collaboration, among Oak Ridge, Argonne, Berkeley, Brookhaven, 
and Los Alamos. It is a high-priority facility for the 
scientific community. It was recommended first in 1984, in the 
National Academy study, and again reconfirmed in the 1999 
material science study by the National Research Council.
    The material impacts are important, but there are also 
other activities that will benefit from this facility. In 
particular, metals, ceramics, polymers, magnetic systems, and 
biological systems as well as molecular structures, and 
understanding the functional properties of biological 
molecules.
    A recent January 1999, review took place that has received 
some fair amount of coverage in the scientific press, but also 
in the House Committee on Science, that made some fairly strong 
criticisms of this project. These criticisms were echoed in 
testimony given by the General Accounting Office, but they only 
confirmed what had been discovered by our review; namely, that 
the technical project director must report to the lab director, 
that the civil construction requires more oversight, and we 
need to prepare a new baseline for the project by July 1999, 
and regain additional cost contingency above what had already 
been regained by the project.
    Within a week of that review, the five lab directors 
identified Dr. David Moncton, from Argonne National Laboratory, 
as the project director. He has been on-site at Oak Ridge and 
working with the technical team for the project, and today they 
are briefing the involved lab directors from the five different 
laboratories on the results of their review, which is 
essentially a stem to stern technical review of the project and 
a commitment to an action plan for the next 6 months to arrive 
at the baseline and to get the project back on track.
    This review will be presented to Under Secretary Moniz 
tomorrow, and we will be presenting it, bringing Dr. Moncton to 
the interested congressional committees and members on Thursday 
and Friday.

                               gao study

    Senator Domenici. Can I interject here? On the spallation 
machine for Oak Ridge, was the GAO study helpful?
    Dr. Krebs. The GAO study in general confirmed the findings 
of our own review. They were present at our review, by our 
invitation. Additional comments made by the GAO about the 
Department's capability to manage large projects are things we 
have heard before.
    Senator Domenici. You have heard that before?
    Dr. Krebs. Yes.
    Senator Domenici. That was not the question. Was it 
relevant?
    Dr. Krebs. Only insofar as they confirmed what we had 
already found out.
    Senator Domenici. Okay.
    Dr. Krebs. They did not provide any new information. It is 
important for me to also say that Dr. Moncton was responsible 
for the on-time and on-budget delivery of the $800 million 
Advanced Photon Source at the Argonne Lab, so I think he is one 
of the best people we could possibly find to deliver this kind 
of a project.
    I think it also demonstrates the effectiveness of our 
construction management review process that has helped the 
Office of Science deliver projects on time and on budget, such 
as the Relativistic Heavy Ion Collider, the Jefferson Lab, the 
Advanced Photon Source, the Advanced Light Source.
    It demonstrates the workability of the collaboration of the 
five lab directors, but we are going to go further, we will 
negotiate stronger memorandums of agreement and clear 
performance measures for all the labs.

                    scientific simulation initiative

    Let me turn quickly now to the Scientific Simulation 
Initiative, DOE's contribution to the President's information 
technology for the 21st Century. This initiative is aimed at 
providing the science base that will build the computer and 
information technology for the second decade of the next 
century. The National Science Foundation and DARPA have the 
primary responsibility for this science base.
    The Department of Energy and other mission agencies, NOAA, 
NASA, and NIH, are investing in the Tera scale computer and 
software infrastructure under development now for specific 
applications.
    DOE has a special role in that effort. In Defense Programs, 
the Advanced Strategic Computing Initiative [ASCI] is 
developing the trillion-operations-per-second machines and 
intermediate software to enable certification of the safety and 
security of the nuclear stockpile in a comprehensive test ban 
regime.
    It is now foreseeable that tens of Teraops will be 
available in the next decade for science, also the next 
century, but we have to start now developing the algorithms, 
building the models, to match both the capability and the 
structure of these new machines.
    In the Department of Energy, we have two primary 
applications to drive the development on these machines for 
science, climate modeling and combustion. The criteria that we 
use to choose these initiatives were, first of all, we needed 
to have complex scientific problems for which an order of 
magnitude increase in computing would transform the 
understanding of the problem.
    We needed a scientific community comfortable and 
sophisticated about large-scale computing, and finally we had 
externalities that justified prompt development and 
exploitation of the coming technologies. In climate models, as 
you have noted, the need to better understand the impact on a 
regional scale of changes resulting from increased carbon 
dioxide in the atmosphere and in the environment generally is 
an increasingly pressing problem in our negotiations and 
discussions with colleagues around the world. In combustion, 
foreseeable emission limitations that may be the discussion of 
regulations for transportation could present a crisis for 
vehicles in the next decade.
    In sum, DOE has critical scientific problems. We are in the 
middle of the technology development, and the interagency 
collaboration will enable us broad access to the scientific 
community. It is very exciting, and it is relevant. We have a 
lot of other activities that I could talk to you about. Our 
scientific facilities are coming along.
    In addition to bringing on RHIC, the B-factory, the 
Combustion Research Facility at Sandia Livermore, we are also 
in the middle of and working well in our upgrades at LANSCE. We 
are making progress on the Large Hadron Collider. The Next 
Generation Internet is moving along, and in the human genome we 
will be dedicating the production sequencing facility that 
matches some of the new investments at NIH.

                           prepared statement

    Let me just say that in closing, this is a good budget. It 
will enable exciting science. We believe we are managing 
effectively in the face of lots of uncertainties. There is room 
for improvement, and we look forward to working with you.
    Senator Domenici. Do you have prepared remarks?
    Dr. Krebs. I do. I would like to submit them for the 
record, sir.
    Senator Domenici. Your full statement will be made part of 
the record.
    [The statement follows:]

                   Prepared Statement of Martha Krebs

    Mr Chairman and Members of the Subcommittee: This is the sixth time 
I have had the honor of testifying before this subcommittee on behalf 
of the budget for the newly renamed Office of Science (SC). The fiscal 
year 2000 budget request for the Office of Science supports: Basic 
Energy Sciences, Fusion Energy Sciences, High Energy Physics, Nuclear 
Physics, Biological and Environmental Research, Computational and 
Technology Research, Energy Research Analyses, Multiprogram Energy 
Laboratories-Facilities Support, and supporting Science Program 
Direction. The Technical Information Management program budget is 
located within the Energy Supply R&D account. Continued leadership in 
science and technology is a cornerstone of the President's and Vice 
President's vision for America. During the past six years, the 
Administration and this committee have provided substantial growth for 
scientific research and enabling technology programs despite tight 
overall fiscal constraints. This budget request builds upon and 
strengthens those vital investments for the Twenty-first Century.
    Scientific research and the knowledge and technologies that follow 
have been credited with about half of the productivity growth of the 
United States' economy in the past fifty years. What growth it has 
been--millions of high-skill, high-wage jobs; the longest life 
expectancy in human history; agricultural output to confound Malthus; 
new means of working and communicating on a global basis; and exciting 
new frontiers to explore. The Department of Energy, and its predecessor 
agencies, have been a proud sponsor of science-driven growth through 
the combined efforts of the National Laboratories, 66 Nobel Laureates 
and thousands of other outstanding university and industry based 
researchers nationwide. As we begin the Twenty-first Century, we 
prepare for the next fifty years with focused investments in science 
and scientific tools for the future.
    The Department of Energy (DOE) budget for fiscal year 2000 plans 
for the next century by providing for a $138 million increase in the 
Office of Science, to invest in thousands of individual research 
projects at hundreds of research facilities across the U.S., primarily 
in our national laboratories and research universities. The fiscal year 
2000 request will allow for continued construction of the Spallation 
Neutron Source, the first world class neutron source built by the U.S. 
in over 30 years; the pursuit of a new Scientific Simulation Initiative 
that will revolutionize our ability to solve scientific problems of 
extraordinary complexity and enable us to apply these new resources 
toward advancing DOE missions; and participation in the Next Generation 
Internet effort with a focus on R&D and implementation of the 
technologies and tools that help meet mission requirements and 
contribute to the Scientific Simulation Initiative.
                       our mission hasn't changed
    As the Office of Science, our mission remains to: produce the 
scientific and technical knowledge needed to develop energy technology 
options; understand the health and environmental implications of energy 
production and use; maintain U.S. leadership in understanding the 
fundamental nature of energy and matter; provide and operate the large-
scale facilities required in the natural sciences; ensure U.S. 
leadership in the search for scientific knowledge; and support the 
availability of scientific talent for the next generation.
    Achieving our mission contributes to the goals of the Department 
and the Administration while advancing science and contributing to U.S. 
economic growth. Our history of success continued in fiscal year 1999 
with the following:
    Hundreds of principal investigators, funded by SC, yearly win 
dozens of major prizes and awards sponsored by the President, the 
Department, the National Academy of Sciences, the National Academy of 
Engineering, and the major professional societies including: the 1997 
Nobel Prize for Chemistry; National Medal of Science; Presidential 
Young Investigator Award; 1998 Fermi and Lawrence awards; National 
Science Foundation Career Award; eight 1998 R&D 100 awards; two 1998 
Discover Awards; 1998 Federal Laboratory Consortium Award; Gordon Bell 
Prizes and Fernbach Award; IBM's Supercomputer Award; and many other 
awards and honors from scientific societies.
    Researchers supported by the Office of Science showed that the 
universe is not only expanding but that the outward motion appears to 
be speeding up, not slowing down. The implication is that Einstein was 
right when he suggested that there is a mysterious energy that fills 
``empty'' space and that most of the energy of the universe is in this 
form. The finding raises profound questions about the nature of space 
and the ultimate fate of the universe including fundamental new 
questions for physics. As a result, Science Magazine named The 
Accelerating Universe ``the 1998 Breakthrough of the Year ''.
    SC also provided support for the $100 million detector, Super-
Kamiokande, operated by a collaboration of 120 physicists from 23 
institutions headed by the University of Tokyo's Institute for Cosmic 
Ray Research (ICRR). This experiment demonstrated that the supposedly 
massless neutrino must, in fact, have a non-zero rest mass. Once 
verified, this discovery will force a revision in the Standard Model, 
which assumes a massless neutrino and may alter our estimates of the 
total mass of the universe, with implications for understanding its 
origin and eventual fate.
    Incredibly light synthetic metals with a potential electrical 
conductivity 50-100 times better than copper per weight are being made 
from carbon nanotubes doped with metals. First discovered in 1991, 
nanotubes are a new class of materials formed from graphite-like sheets 
of carbon rolled into exquisitely small cylinders (one-billionth of a 
meter).
    Microbial genomics, one of today's most exciting and high profile 
fields in biology, was initiated by DOE in 1994. Science Magazine also 
identified microbial genomics as one of the top 10 fields of discovery 
in 1998. Two of the 1997 ``11 hottest papers in biology'' were for 
microbial genomic sequences funded by SC. For example, SC research on 
``Conan the Bacterium''--D. radiodurans R1, has shown extreme 
resistance to genotoxic chemicals, oxidative damage, high levels of 
ionizing and UV radiation, and desiccation. The ability to survive such 
extreme environments is attributed in part to a unique DNA repair 
system in combination with its chromosome copy number and structure. 
The remarkable capabilities of this microbe may enable scientists to 
engineer a form of D. Radiodurans that can help us clean up some of our 
most troublesome waste problems.
    The Human Genome Program was initiated by the Department of Energy 
(DOE) in 1986 to map and determine the complete DNA sequence of the 
human genome. A Memorandum of Understanding was established with the 
National Institutes of Health (NIH) in 1988 to coordinate the U.S. 
Genome Project. The latest joint five-year plan was published in 
Science Magazine in October 1998. This plan calls for determining the 
complete sequence of the human genome by the year 2003, two years ahead 
of the original target date. Recent successes include identifying the 
gene for kidney disease.
    SC has renewed our commitment to forging more effective 
partnerships that leverage our research investments and connect us more 
closely with other federal science programs and the direct 
beneficiaries of our research. We are fostering new kinds of 
partnerships among our national laboratory, university and industry 
based researchers to maximize the effectiveness and impact of research 
activities. In partnership with the Department's applied programs, SC 
is also working to bridge the gap between basic research and 
application through: joint planning of critical long-term research; 
joint solicitations and funding of targeted research efforts; and 
annual integration workshops that bring together program managers and 
researchers from across DOE.
    New scientific research facilities coming on-line include: the 
William R. Wiley Environmental Molecular Sciences Laboratory; the 
Jefferson Lab's Large Acceptance Spectrometer; SLAC's B-Factory, the 
Oak Ridge Free-Air CO2 Enrichment Facility, the JGI Production (DNA) 
Sequencing Facility and the Relativistic Heavy Ion Collider (RHIC). 
Initiation of RHIC operations in fiscal year 2000 opens an exciting new 
era of nuclear physics studies: the behavior of hot, dense nuclear 
matter and an expected new state of matter, the quark-gluon plasma. 
Projects completed on time and budget include: Fermilab's Main 
Injector, and the Combustion Research Facility Phase II.
    Bringing science to the researcher's desktop became a reality as 
over 30,000 technical reports (2 million full-text pages) of DOE's R&D 
results became accessible and searchable over the World Wide Web via 
the Information Bridge (www.doe.gov/bridge). Researchers are regularly 
downloading 4,000 reports per week from this web site.
    The Department of Energy is a science agency because its mission 
and goals require technologies and scientific knowledge far beyond that 
which is currently available. From safeguarding the nuclear stockpile 
to ensuring our nation's energy supply for the next century, DOE 
continues to challenge the frontiers of science and technology.
    The DOE Strategic Plan outlines the vision, goals and strategic 
objectives that will, through leadership in science and technology, 
help the DOE to meet those challenges. In keeping with the Government 
Performance and Results Act (GPRA), the Office of Science fiscal year 
2000 budget request includes program specific goals, strategies, and 
measures that focus our research activities and ensure continuity with 
Departmental plans and national goals.
                  rethinking our goals and strategies
    In the past year, the Department has begun to rethink how we 
characterize our R&D efforts across business lines to assemble the key 
information for improving our analysis and management of these 
investments. The result is a set of R&D Portfolios, scheduled for 
public release this month, that capture the spectrum of DOE R&D efforts 
in each Business Line.
    The basic research of the Office of Science presses forward on the 
frontiers of fundamental understanding but also supports and enables 
the R&D of the other business lines. Thus, a Science Portfolio has been 
developed so as to clarify and improve the integration of our program 
results in the Department. As the Department R&D Portfolios evolve, the 
Office of Science will continue to integrate basic research with the 
applied R&D in the other business lines' Portfolios to ensure strong 
linkages between technology needs and science.
    A revised Strategic Plan of the Office of Science, also scheduled 
for release at the end of the month, will articulate the long-range 
vision, goals, objectives, and strategies for our programs. The Science 
Portfolio complements and supports the Strategic Plan by providing a 
near-term ``snapshot'' of our investments that dovetails with the new 
strategic framework.
    The motivations behind this planning effort are to develop a shared 
long-term focus for SC programs, their scientific communities and 
performers; to describe our present scientific programs and position 
them for the future; to provide a framework for cooperation and risk 
taking; to illustrate the unique and coordinated role of SC programs 
within the DOE and the federal science investment; and to inform and 
inspire our sponsors and the general public.
    The new SC Strategic Plan, and supporting Science Portfolio, is 
structured around five high-level goals with twelve strategic 
objectives, listed in Figure 1. These goals were developed through a 
series of planning activities and workshops that drew on the experience 
and knowledge of our research scientists and stakeholders to capture 
both what is necessary and what is possible for our science as we look 
to the next century.
    The first goal, Fueling the Future, is centered on science for 
affordable and clean energy options for the future. Some of the 
questions that motivate this goal are: How can we tap and harness 
affordable, clean fuels? What clean new electric power systems will 
fuel the future? and How can energy systems be made more efficient and 
environmentally sound?
    Development of this goal has been closely connected with the 
development of the Energy R&D portfolio and the objectives directly map 
onto the energy portfolio.
  --Fueling the future: New fuels; clean and affordable power; and 
        efficient energy use.
  --Protecting our living planet: Sources and fate of energy by-
        products; impacts on people and the environment; and prevention 
        and protection.
  --Exploring energy and matter: Components of matter; origin and fate 
        of the universe; and complex systems.
  --Extraordinary tools for extraordinary science: Instrumentation for 
        the frontiers of science; scientific simulation; and 
        institutional capacity.
  --Enabling world class science.
    The second goal, Protecting our Living Planet, is centered on 
understanding energy impacts on people and the biosphere. Some of the 
questions that motivate this theme are:
  --What are the sources and fate of energy-related by-products?
  --What factors affect global climate and how can they be controlled? 
        and
  --How do complex biological and environmental systems respond to our 
        energy use?
    This goal also contributes to both the Energy R&D portfolio and the 
Environmental R&D portfolio.
    The third goal, Exploring Matter and Energy, is centered on 
discovering the building blocks of atoms and life. Some of the 
questions that motivate this theme are:
  --What are the fundamental components of matter?
  --How can the origin and fate of the Universe reveal the secrets of 
        energy, matter and life? and
  --How do atoms and molecules combine to form complex dynamic systems?
    This goal captures the most fundamental research in the Office of 
Science. The complex systems question links to R&D efforts in all of 
the DOE business lines.
    The fourth goal, Extraordinary Tools for Extraordinary Science, is 
centered on the national assets that DOE provides for forefront, 
multidisciplinary research. This goal builds on the unique role of the 
Office of Science in providing the nation with forefront research 
facilities at our National Laboratories such as research accelerators, 
reactors, computational centers, and other unique instrumentation. In 
addition, the National Laboratories as a system of institutions is 
increasingly becoming an extraordinary tool beyond the set of specific 
facilities located on their sites. The Office of Science will continue 
to ensure that these critical research tools remain accessible to peer 
reviewed researchers from all across the nation and meet the technical 
challenges of forefront scientific investigation. This goal looks to 
the future and to training and educating the next generation of 
scientists and engineers.
    Some of the questions that motivate this goal are:
  --How can we explore the frontiers of the natural sciences?
  --How can we predict the behavior of complex systems? and
  --How can we strengthen the nation's capacity for multidisciplinary 
        science?
    This goal enables research in all of the DOE business lines. By 
organizing future facility needs, as identified by the scientific 
community, this theme ensures that America's research capability will 
remain both accessible and state of the art.
    The fifth goal, Enabling World Class Science, conveys the 
commitment of DOE and National Laboratory staff to continuously improve 
their operational processes. Of paramount importance is the selection 
and conduct of excellent, productive science that is carried out safely 
and with care for the environment and involvement of local communities.
     implementing the strategies--initiatives for fiscal year 2000
    The five goals provide a framework for current programs and a 
platform for future efforts. Fiscal year 2000 initiatives and 
priorities that support these goals include: utilizing the advances in 
computation that are flowing from the Accelerated Strategic Computation 
Initiative (ASCI) to aid scientific research in critical complex areas 
as part of The President's Information Technology for the Twenty-first 
Century (IT<SUP>2</SUP>); continuing progress made toward returning 
U.S. International Leadership in Neutron Science; carefully managing 
our partnership in the Large Hadron Collider; ensuring wide utilization 
of our Scientific User Facilities; developing and applying DOE 
applications and technologies for the Next Generation Internet; 
providing the scientific basis for DOE's Climate Change Technology 
Initiative; and providing unique services in the exploding field of 
Genome Research. Figure 2 depicts the cross-connection between the 
goals above and the priorities in the fiscal year 2000 request.
[GRAPHIC] [TIFF OMITTED] T10AP13.004


    Scientific Simulation Initiative.--It is now possible to obtain 
computational capabilities 100 times faster than currently in common 
use through the application of technologies developed for the 
Accelerated Strategic Computing Initiative (ASCI). Therefore the 
Department of Energy, in coordination with the National Science 
Foundation and other federal science programs, has developed a 
Scientific Simulation Initiative (SSI) in support of the President's 
Information Technology for the Twenty First Century (IT<SUP>2</SUP>) 
Initiative. The purpose of the SSI is to further develop and employ an 
emerging generation of very high performance computers as major tools 
for scientific inquiry. These resources will revolutionize our approach 
to solving complex problems in such areas as energy, the environment, 
and fundamental research. This initiative will require close 
collaboration between scientists in many disciplines: chemistry, fluid 
flow, global systems, mathematics, computer science, etc. However, it 
is important to remember that this is a research program and that even 
the operation of computing facilities at this scale presents 
significant research issues.
    Within the Office of Science, the SSI will be an integrated effort 
with the Computational and Technology Research (CTR) program 
coordinating and overseeing competitive, peer reviewed selections of 
sites for computational centers and basic science applications. In 
addition, CTR will manage the leading edge research programs in 
computer science and enabling technologies which will be required to 
transform the SSI computing and communications facilities into tools 
for science. The element of the program that addresses enabling 
hardware and software will be directed by a joint SC/Defense Programs 
ASCI effort. The management of the research programs required to use 
these facilities for scientific discovery will be led by the 
appropriate programs within the Office of Science: Basic Energy 
Sciences for Combustion; Biological and Environmental Research for 
Global Systems; and the Offices responsible for the scientific 
disciplines selected in the basic science applications competition.
    The first scientific applications to be run on these new massively 
parallel computers have been chosen carefully. Combustion and global 
systems are complex scientific problems for which terascale computing 
will provide a transformation in our level of understanding. The 
scientific communities in these areas are also experienced in using 
computational tools. Finally, these two problems are central to DOE's 
mission.
    Combustion.--Currently, eighty-five percent of U.S. energy use is 
derived from the combustion of fossil fuels and this dependence on 
combustion is not likely to change in the coming decades. Combustion 
remains one of the primary causes of lowered air quality in urban 
environments. At present, engineers have neither sufficient knowledge 
nor the computational tools to understand and predict the chemical 
outcome of combustion processes with any degree of practical 
reliability. Existing models that guide the design process are of very 
limited usefulness because of the extraordinary complexity of the 
combustion process. With very high end computing resources and a 
concerted research program in combustion modeling, we can develop the 
next generation of combustion modeling tools for accelerated design of 
combustion devices meeting national goals of emission reduction and 
energy conservation.
    Global Systems.--Unlike many disciplinary areas of research, the 
complex workings of the global environmental system cannot be studied 
in a laboratory setting. The integration of knowledge from the many 
disciplines that together describe the global system can only be 
performed in computer simulation models. It is only through such 
general circulation models that it is possible to understand current 
climate and climate variability and to predict future climate and 
climate variability, including prediction of the possible effects of 
human activities on the global system. Advances in scientific 
understanding are therefore predicated upon the successful development 
of modeling tools to keep pace with the rapid advances in the quality 
and quantity of data available. These tools will lead to the 
development of detailed fully coupled global system models that 
accurately reproduce, and ultimately predict, the behavior of the 
interacting components of the system, i.e. the global atmosphere, the 
world ocean, the terrestrial land surface and both glacial and sea ice.
    Fundamental Research.--Whereas the scientific accomplishments of 
this century have resulted in seeking and understanding the fundamental 
laws that govern our physical universe, the science of the coming 
century will be characterized by synthesis of this knowledge into 
predictive capabilities for understanding and solving a wide range of 
scientific problems, many with practical consequences. In this 
endeavor, the computer will be a primary instrument of scientific 
discovery. Many areas of scientific inquiry, critical to the 
Department's mission, will be advanced dramatically with access to 
high-end computation--including, but not limited to, materials 
sciences, structural genomics, high energy and nuclear physics, 
subsurface flow, and fusion energy research.
    The Spallation Neutron Source (SNS).--The importance of neutron 
science for fundamental discoveries and technological development has 
been enumerated in all of the major materials science studies over the 
past two decades, including a major study by the National Research 
Council entitled ``Major Facilities for Materials Research and Related 
Disciplines'' (Seitz-Eastman Report).
    As the needs of our high-technology society have changed, so has 
the way in which we conduct the R&D that helps us to meet those needs. 
It has become increasingly important to develop new materials that 
perform under severe conditions and yet are stronger, lighter, and 
cheaper. Major research facilities are used to understand and 
``engineer'' materials at the atomic level so that they have improved 
macroscopic properties and perform better in new, demanding 
applications. The SNS is a next-generation facility for these types of 
applications. Neutron scattering will play a major role in all forms of 
materials design and understanding. This research will lead to the 
development of advances such as: smaller and faster electronic devices; 
lightweight alloys, plastics and polymers for transportation and other 
applications; magnetic materials for more efficient motors and for 
improved magnetic storage capacity; improved understanding of form and 
function in biological structures and the development of new drugs for 
medical care. Upon completion, the SNS will be the world's most 
powerful neutron source, accommodating more than 1,000 researchers and 
30 to 40 special purpose instruments.
    The SNS Total Project Cost (TPC) is estimated to be $1,360 million 
over a 7.25-year schedule. Throughout the life of the project, semi-
annual reviews will track cost and management fiscal year 1999 funding 
provides for the start of Title I design activities, initiation of 
subcontracts and long-lead procurement, and continued R&D to reduce 
technical and schedule risks. The fiscal year 2000 budget request of 
$214 million would support Title II (detailed) design for the technical 
components and control systems. Construction, on some of the 
conventional facilities, is scheduled to begin in fiscal year 2000 
along with the procurement of key technical equipment.
    The SNS project is an example of DOE's commitment to use the DOE 
laboratories as a system. Oak Ridge National Laboratory is responsible 
for the project with participation from Lawrence Berkeley National 
Laboratory, Los Alamos National Laboratory, Brookhaven National 
Laboratory, and Argonne National Laboratory. The laboratories have been 
working together in an increasingly effective manner and R&D is 
proceeding smoothly with no technical barriers in sight.
    In January 1999, an Office of Science construction management 
review of the SNS made recommendations with respect to the project 
director and staff experienced in the oversight and integration of all 
aspects of the large complex project. The Laboratory Director has hired 
a new Associate Laboratory Director for the project and is assembling 
the necessary senior management team. As a first step, I tasked the 
laboratory to undertake a comprehensive assessment of the project. The 
assessment is due to the Department in the first week in April. These 
construction management reviews have been a key tool for keeping SC 
projects on time and on budget. The prompt action in response to the 
review's recommendations will allow us to deliver the SNS as well.
    Scientific Facilities Utilization.--This fiscal year 2000 budget 
request continues to strongly support Scientific Facilities Utilization 
in the following programs: Basic Energy Sciences, High Energy Physics, 
Nuclear Physics, Fusion Energy Sciences, Biological and Environmental 
Research, and Computational and Technology Research. Each year, over 
15,000 university, industry, and government sponsored scientists 
conduct cutting edge experiments at these particle accelerators, high-
flux neutron sources, synchrotron radiation light sources, and other 
specialized facilities, such as the Combustion Research Facility (CRF) 
at Sandia National Laboratories, Livermore, California. The CRF is an 
internationally recognized facility for the study of combustion science 
and technology, which will begin its first year of operation after its 
Phase II development project. The user community continues to be 
pleased with the results of the Science Facilities Initiative as 
evidenced by their many letters of support and by the positive results 
of surveys conducted at the facilities.
    The Large Hadron Collider.--The foremost high energy physics 
research facility of the next decade will be the Large Hadron Collider 
(LHC) at CERN, the European Center for Particle Physics. The primary 
physics goals of the LHC will impact our understanding of the relation 
of mass, fundamental forces, and the structure and origin of the 
universe. U.S. participation in the LHC is required to provide U.S. 
access to the high energy frontier in order to maintain the U.S. as a 
world leader in this fundamental area of science.
    The LHC is an outstanding example of international cooperation in 
large scientific projects, as well as interagency and inter-laboratory 
cooperation. An International Cooperation Agreement has been negotiated 
between CERN, DOE and NSF. The Agreement provides for U.S. 
participation in the construction of the accelerator, and of the two 
very large detectors, ATLAS and CMS. Carefully defined lists of 
deliverables and costs have been agreed upon for each of these areas of 
participation. U.S. costs are capped at $531 million ($450 million DOE 
and $81 million NSF), consistent with Congressional guidance. In 
return, participating U.S. universities and laboratories will join, as 
full partners, in LHC experiments. In addition, a Memorandum of 
Understanding (MOU) has been executed between DOE and NSF that defines 
the relationship between the agencies relative to programmatic 
coordination of U.S. LHC activities including joint oversight and 
execution of the U.S. LHC Construction Program.
    Under the terms of this MOU, Fermilab is the Lead Laboratory for 
the accelerator portion of the program, which it will execute in 
cooperation with Brookhaven (BNL) and Lawrence Berkeley (LBNL) National 
Laboratories. BNL is the host laboratory for the ATLAS portion of the 
program, which also involves Argonne National Laboratory (ANL) and LBNL 
along with 28 university groups. Similarly, Fermilab is the host 
laboratory for the CMS detector portion of the program, along with 33 
university groups. Cost and schedule baselines have been reviewed and 
validated for each of the three programs and management systems are in 
place to monitor progress against baselines.
    The Next Generation Internet (NGI).--The program is creating the 
foundation for more powerful and versatile networks of the Twenty-first 
century, just as previous federal investments in information technology 
R&D created the foundation for today's Internet. This program is 
critical to DOE's science and technology missions because enhancements 
to today's Internet from commercial R&D will not be sufficient to 
enable: effective use of petabyte/year (would fill the hard drives of 
millions of today's desktop PCS) High Energy and Nuclear Physics 
facilities such as the Relativistic Heavy Ion Collider (RHIC); remote 
visualization of terabyte to petabye data sets from computational 
simulation; development of advanced collaboratories; and effective 
remote access to tomorrow's advanced scientific computers.
    For example, typical RHIC experimental collaborations involve 
hundreds of scientists at dozens of institutions across the country and 
the world. Using the current Internet, it would take about 2,500 hours 
to transmit one day's data from RHIC to one remote site for analysis. 
Using NGI it would take 25 hours.
    Thus, DOE's NGI research program is focused on discovering, 
understanding, developing, testing and validating the networking 
technologies needed to enable wide area, data intensive and 
collaborative computing. The DOE applications share two important 
characteristics. They all involve extremely large data sets and they 
all require that scientists be able to interact with the data in 
(nearly) real time. Current network technology limitations 
significantly limit our ability to address these characteristics.
    The DOE program includes research in advanced protocols, special 
operating system services for very high speed, and very advanced 
network control, the components needed to enable wide area, data 
intensive and collaborative computing. In addition the DOE program 
addresses issues that result from the many different kinds of network 
devices, network-attached devices, and services that need to be 
integrated together. Examples of the components and services that need 
to be integrated include: network resources, data archives on tape, 
high performance disk caches, visualization and data analysis servers, 
authentication and security services, and the computer on a scientist's 
desk. This type of integration, as well as the issues of improving the 
performance of the individual components, all require significant 
research because the issues are currently not well understood. Indeed, 
the first identification of many of these issues is the result of 
previous work in collaboratories and visualization supported by DOE.
    Thus, DOE's participation in the NGI builds on previous DOE 
research and its over two decades of success in using advanced networks 
as tools for science. Furthermore, the differences between the 
requirements of commercial networks and networks for scientific 
research require DOE to conduct this research because these tools and 
technologies will not be developed by commercial R&D. However, the 
results and ``spinoffs'' of this research, after testing and 
prototyping by the scientific community, will impact broad commercial 
use of networks. DOE's fiscal year 2000 NGI program will build on the 
results of the competitive research solicitations conducted in fiscal 
year 1999.
    Climate Change Technology Initiative (CCTI).--Eighty-five percent 
of our Nation's energy results from the burning of fossil fuels, a 
process that adds carbon to the atmosphere. Because of the potential 
environmental impacts of increases in atmospheric carbon dioxide, 
carbon management has become an international concern and is a focus of 
the CCTI.
    The Office of Science is well positioned to make significant 
contributions to the many solutions needed to address this problem. SC 
can build on the fundamental discoveries of core research programs in 
carbon and non-carbon energy sources, carbon sequestration, and carbon 
recycling, extending them to the new discoveries needed to make carbon 
management practical and efficient.
    Activities in both Basic Energy Sciences and Biological and 
Environmental Research support the DOE and Administration CCTI efforts 
in: science for efficient technologies; fundamental science 
underpinning advances in all low/no carbon energy source; and 
sequestration science.
    The SC portion of the CCTI leverages the foundation of excellent 
research already underway. The additional SC effort will also have a 
major impact on many scientific disciplines by advancing the state of 
knowledge in such fields as genome science, molecular, cellular and 
structural biology, biochemistry, chemical dynamics, solid state 
chemistry, photochemistry, ecology, nano- and meso-phase materials 
science, condensed matter physics, engineering, theoretical chemistry 
and physics.
    For example, the BER microbial genome program has made significant 
investments in the technology that enables genome sequencing at rates 
previously unattainable. Capitalizing on these investments, the genomes 
of microbes that produce methane and hydrogen from carbonaceous sources 
will be sequenced as part of the first awards under CCTI. This will 
enable identification of key genetic components of the organisms that 
regulate the production of these gases. The carbon sequestration 
research program will focus on understanding the natural terrestrial 
sequestration cycle and the natural oceanic sequestration cycle as part 
of the first awards under the CCTI. The ultimate goal is to enhance the 
natural carbon cycle in both the terrestrial and oceanic systems. The 
search for new fuel sources and carbon sequestration research are key 
elements of the carbon management science program.
    CCTI research and related activities within the Office of Science 
will continue to be coordinated with the Office of Fossil Energy. 
Fiscal year 1999 integration efforts include the coordination of new 
CCTI proposal solicitations and preparation of a detailed carbon 
dioxide sequestration roadmap.
    Genome.--In its first full year of operation, the DOE Joint Genome 
Institute (JGI) became a leading producer of high quality human DNA 
among U.S. sequencing centers. The JGI is scaling up its sequencing 
capacity from 21 million finished bases in fiscal year 1998 to 30 
million finished bases and 40 million high quality draft bases in 
fiscal year 1999. In total, SC will complete sequencing of 50 million 
finished and 70 million high quality draft subunits of human DNA to 
submit to publicly accessible databases in fiscal year 2000. In 
addition, SC will complete the full genetic sequencing of more than 10 
microbes that have significant potential for waste cleanup and energy 
production.
    Improvements in high throughput human DNA sequencing technology and 
sequence data management are needed to complete the first human genome 
by 2003 and to efficiently and cost effectively use that sequence 
information for future medical diagnoses and scientific discovery. The 
Joint Genome Institute, in which the National Laboratories work as a 
system, are primarily focused on high throughput sequencing. Fiscal 
year 2000 is the third year of a major 3-5 year scale-up in DNA 
sequencing capability for this virtual institute. DOE will continue to 
work with the private sector, where appropriate, to accelerate progress 
and reduce cost in the Human Genome project. The SC program is actively 
involved with other federal agencies funding, human, plant and 
microbial research to encourage effective and efficient management of 
the total federal genome research portfolio. Genomics is the foundation 
for future biological research and is the reason that the next century 
has been called ``the century of biology.''
    Program Direction.--The Science Program Direction budget funds the 
staff and related expenses that are necessary to develop, direct and 
administer a complex and broadly diversified program of mission-
oriented basic and applied research. The Office of Science continues to 
achieve technical excellence in its programs despite managing one of 
the largest and most diversified and complex basic research portfolios 
in the Federal Government with a relatively small Federal and support 
contractor staff compared to other programs both within and outside the 
Department and will strive to meet staffing levels as outlined in its 
Workforce Management Plan. Enhanced business processes that are built 
from our Activity Based Management activities and Strategic Information 
Planning will enable the staff to carry out the mission and functions 
of the organization effectively and efficiently. Work will continue on 
piloting the transfer of management responsibility of newly generated 
wastes at SC sites from Environmental Management to the Office of 
Science. I am proud to recognize SC efforts that have resulted in: 
lower prior year uncosted balances; reduced unnecessary duplication 
through external peer review; support for new initiatives, such as the 
Scientific Simulation Initiative (SSI); and more than six years of on-
time, on-budget construction projects due to an effective SC 
construction management review program that has been recognized by both 
the Government Accounting Office (GAO) and the National Association of 
Public Administrators (NAPA).
    The scientific and technological challenges of the Department's 
missions demand an adequate supply of scientists, engineers and 
technicians. For over 50 years, DOE and its predecessor agencies have 
supported science and engineering education programs involving 
university faculty as well as pre-college teachers and students. 
Tapping the significant human and physical resources of the DOE 
National Laboratories is perhaps the most distinguishing feature of the 
agency's contribution to science education. Within the fiscal year 2000 
request for Program Direction is SC's core program for science 
education, supporting such activities as: the Undergraduate Research 
Fellowship Program, the National Science Bowl, and the Albert Einstein 
Distinguished Educator Fellowship. In addition, two new initiatives, 
developed in partnership with NSF, will be supported through the five 
SC scientific programs. The first initiative will be focused on 
providing pre-college science and math teachers with research 
opportunities that will improve their knowledge and skills of 
scientific discovery and enhance their ability to apply them in their 
classrooms. The second initiative will allow university faculty and 
undergraduate student teams to participate in long-term research 
projects at DOE Laboratories. Historically, over two-thirds of 
undergraduates who have participated in DOE programs have gone on to 
graduate school in disciplines directly related to DOE missions. These 
activities will help to fulfill SC's responsibilities in developing the 
next generation of scientists and engineers and to address the daunting 
demographic trends that suggest these new scientists will have to come 
from the ranks of women and minorities, two groups traditionally under-
represented in scientific fields.
                science programs--basic energy sciences
Fiscal Year 1999 Appropriation--$799.5 M; Fiscal Year 2000 Request--
        $888.1 M
    The Basic Energy Sciences (BES) program is one of the Nation's 
primary sponsors of fundamental research in materials sciences, 
chemical sciences, geosciences, plant and microbial sciences, and 
engineering sciences. Performance measurement helps determine the 
distribution of activities supported within BES. All BES research 
programs undergo rigorous peer evaluation through competitive grant 
proposals, program reviews, and advisory panels. The program funds more 
than 2,400 researchers at 200 institutions nationwide. BES-supported 
research also underpins the Department of Energy missions in energy, 
the environment, and national security. Strategic directions are set 
through working relationships with other DOE programs, research 
workshops with public and private scientific communities nationwide, 
and policy directives.
    Within the base research effort in fiscal year 2000, a program in 
Complex and Collective Phenomena will continue to support work at the 
frontiers of basic research that hold the promise of delivering 
revolutionary breakthroughs. This effort is designed to obtain 
fundamental knowledge of increasingly complex systems in order to help 
bridge the gap in our understanding between the atomic and molecular 
properties and the bulk structural and mechanical properties of 
materials, for example. In addition, BES will continue its Partnership 
for Academic-Industrial Research (PAIR) program to facilitate research 
partnerships between academic researchers, their students, and 
industrial researchers.
    In fiscal year 2000, BES also plays a major part in the Climate 
Change Technology Initiative (CCTI) and the Scientific Simulation 
Initiative (SSI). The BES research under CCTI will primarily focus on 
carbon recycling, improved efficiency in the use of fossil carbon 
energy sources, and new and improved non-carbon energy sources. 
Examples of the types of research areas in each of the four BES 
subprograms are: high-temperature materials for more efficient 
combustion; electrochemical energy storage; mechanical stability of 
porous and fractured reservoirs/aquifers; and the biological process of 
photosynthesis. The BES research under SSI includes Combustion Systems 
Integrated Applications, an integrated effort bringing together 
computational and communication resources, focused research in 
scientific disciplines, and research in computer science and other 
enabling technologies to solve the complex problems that characterize 
DOE's scientific research needs.
    In addition to directly supporting research performers, BES is also 
the steward of 17 major national user facilities. Included among these 
facilities are the four major synchrotron radiation light sources, four 
high-flux neutron sources, and a number of specialized facilities for 
electron beam microcharacterization, materials synthesis and 
processing, combustion research, pulsed radiolysis, and ion beam 
studies. The facilities are planned in collaboration with the 
scientific community and permit scientists to carry out forefront 
experiments that cannot be done in any other way. A major part of the 
fiscal year 2000 BES budget request is for the continuation of the 
Spallation Neutron Source project to provide the Nation with a next-
generation short-pulse spallation neutron source for neutron scattering 
and related research in broad areas of the physical, chemical, 
materials, biological, and medical sciences.
    BES scientific user facilities enable researchers to gain the new 
knowledge necessary to achieve the Department's missions and, more 
broadly, to advance the Nation's entire scientific enterprise. The 
number of scientists conducting research at the BES user facilities has 
grown dramatically in recent years. BES user facilities are open to all 
qualified investigators in academia, industry, and government 
laboratories on a no-charge basis to all qualified researchers whose 
intention is to publish in the open literature. Over 6,000 users were 
accommodated at the BES scientific user facilities in fiscal year 1998. 
These facilities have an enormous impact on science and technology, 
ranging from determinations of the structure of superconductors and 
biological molecules to the development of wear-resistant prostheses, 
from atomic-scale characterization of environmental samples to 
elucidation of geological processes, and from the production of unique 
isotopes for cancer therapy to the development of new medical imaging 
technologies.
    Materials Sciences.--The Materials Sciences subprogram supports 
basic research in condensed matter physics, metals and ceramics 
sciences, and materials chemistry. This basic research seeks to 
understand the atomistic basis of materials properties and behavior and 
how to make materials perform better at acceptable cost through new 
methods of synthesis and processing. Basic research is supported in 
corrosion, metals, ceramics, alloys, semiconductors, superconductors, 
polymers, metallic glasses, ceramic matrix composites, catalytic 
materials, non-destructive evaluation, magnetic materials, surface 
science, neutron and x-ray scattering, chemical and physical 
properties, and new instrumentation. Ultimately the research leads to 
the development of materials that improve the efficiency, economy, 
environmental acceptability, and safety in energy generation, 
conversion, transmission, and use. These material studies affect 
developments in numerous areas, such as the efficiency of electric 
motors and generators; solar energy conversion; batteries and fuel 
cells; stronger, lighter materials for vehicles; welding and joining of 
materials; plastics; and petroleum refining.
    Chemical Sciences.--The Chemical Sciences subprogram has two major 
components. The disciplinary areas within each component are connected 
to and address needs of the principal DOE and BES mission goals and 
objectives. One major component is comprised of atomic, molecular and 
optical physics; chemical physics; photochemistry; and radiation 
chemistry. This research provides a foundation for understanding 
fundamental interactions of atoms, molecules, and ions with photons and 
electrons. This work also underpins our fundamental understanding of 
chemical reactivity. This, in turn, enables the production of more 
efficient combustion systems with reduced emissions of pollutants. It 
also increases knowledge of solar photoconversion processes resulting 
in new, improved systems and production methods. The other major 
component of the research program is comprised of inorganic chemistry, 
organic chemistry, analytical chemistry, separations science, heavy 
element chemistry, and aspects of chemical engineering sciences. The 
research supported provides a better molecular level understanding of 
homogeneous and heterogeneous reactions occurring at surfaces, 
interfaces, and in bulk media. This has resulted in improvements to 
known heterogeneous and homogeneous catalytic systems and to new 
catalysts for the production of fuels and chemicals, better analytical 
methods in a wide variety of applications in energy processes and 
environmental sciences, new knowledge of actinide elements and 
separations important for environmental remediation and waste 
management, and better methods for describing turbulent combustion and 
predicting thermophysical properties of multicomponent systems.
    Engineering and Geosciences.--The Engineering and Geosciences 
subprogram conducts research in two disciplinary areas, engineering and 
geosciences. In Engineering Research, the goals are to extend the body 
of knowledge underlying current engineering practice to create new 
options for improving energy efficiency and to broaden the technical 
and conceptual knowledge base for solving the engineering problems of 
energy technologies. In Geosciences Research, the goal is on 
fundamental knowledge of the processes that transport, concentrate, 
emplace, and modify the energy and mineral resources and the byproducts 
of energy production. The research supports existing energy 
technologies and strengthens the foundation for the development of 
future energy technologies. Ultimately the research impacts control of 
industrial processes: to improve efficiency and reduce pollution; to 
increase energy supplies; and to lower cost and increase the 
effectiveness of environmental remediation of polluted sites.
    Energy Biosciences.--The Energy Biosciences subprogram supports 
mechanistic research on fundamental biological processes related to 
capture, transformation, storage and utilization of energy. The 
research focuses on plants and non-medical microorganisms to form a 
broad scientific foundation for support of Department of Energy's goals 
and objectives in energy production, environmental management, and 
energy conservation. Basic research on plants includes photosynthetic 
mechanisms and bioenergetics in algae, higher plants, and 
photosynthetic bacteria; control mechanisms that regulate plant growth 
and development; fundamental aspects of gene structure, function, and 
expression; plant cell wall structure, function and synthesis; and 
mechanisms of transport across membranes. Research supported in these 
areas seeks to define and understand the biological mechanisms that 
effectively transduce light energy into chemical energy, to identify 
the biochemical pathways and genetic regulatory mechanisms that can 
lead to the efficient biosynthesis of potential fuels and petroleum-
replacing compounds, and to elucidate the capacity of plants to 
remediate contaminated environments by transporting and detoxifying 
toxic substances. The research focus in the microbiological sciences 
includes the degradation of biopolymers such as lignin and cellulose, 
anaerobic fermentations, genetic regulation of microbial growth and 
development, thermophily, e.g., bacterial growth under high 
temperature, and other phenomena with the potential to impact 
biological energy production, conversion and conservation. Organisms 
and processes that offer unique possibilities for research at the 
interface of biology and the physical, earth and engineering sciences 
are also studied.
                 biological and environmental research
Fiscal Year 1999 Appropriation--$436.7 M; Fiscal Year 2000 Request--
        $411.2 M
    For over 50 years, the Biological and Environmental Research (BER) 
program has been bringing revolutionary solutions to energy-related 
biological and environmental challenges. Through its support of peer-
reviewed research at the Department's national laboratories, 
universities, and private institutions, the program develops the 
fundamental knowledge needed to identify, understand, and anticipate 
the long-term health and environmental consequences of energy 
production, development, and use. The BER program contributes to a 
healthy citizenry, cleanup of the environment, and understanding global 
environmental change, and operates the world class facilities essential 
to the scientific breakthroughs of the future.
    As part of the President's Scientific Simulation Initiative, the 
BER request includes funding to accelerate the development of advanced 
global climate models with the high regional resolution needed for 
definitive predictions. This fundamental research will support the U.S. 
Global Change Research Program.
    The BER request also includes funding for the President's Climate 
Change Technology Initiative. The BER contribution to the initiative 
includes research to sequence microbes for alternative fuel production 
(methane and hydrogen production) and to develop natural carbon 
sequestration processes in terrestrial and ocean systems.
    Life Sciences.--The Human Genome Program continues to be the 
centerpiece of our Life Sciences Research program, both in terms of its 
contribution to the international effort to sequence the human genome, 
and in terms of the spin-off technologies. Through efforts at the Joint 
Genome Institute and its Production Sequencing Facility, DOE does its 
share of high-throughput human DNA sequencing and develops, validates, 
and integrates new DNA sequencing technologies into the production of 
DNA sequencing. Fiscal year 2000 is the third year of a 3-5 year scale-
up in DNA sequencing capacity for the Joint Genome Institute. The DOE's 
share of the funding for the U.S. Human Genome Program is about 25 
percent of the national effort.
    The field of microbial genomics continues to be one of the most 
exciting and high profile fields in biology today. Initiated by DOE in 
1994, microbial genomics and microbial genomic sequencing were 
identified by Science Magazine as one of the top 10 fields of discovery 
each of the past two years. The broad impacts of this research 
emphasizes a central principle of the BER genome programs--complete 
genomic sequences yield answers to fundamental questions in biology. 
Microbes are being sequenced and characterized in several parts of the 
BER program because of potential impacts across several DOE missions. 
These include the Climate Change Technology Initiative (sequencing 
methane or hydrogen producing microbes or microbes involved in carbon 
dioxide sequestration), environmental cleanup (microbes for 
bioremediation), alternative fuel sources (methane production or energy 
from biomass), industrial processes (industrial useful enzymes), and 
biological nonproliferation (understanding and detecting biowarfare 
agents). The fiscal year 2000 request includes funds for determining 
the DNA sequence of 10 microbes with significant potential for waste 
cleanup, energy production, or carbon sequestration.
    The fiscal year 2000 request provides continuing support for both 
the national user facilities for scientists and the research support 
needed to determine the molecular structure and function of enzymes, 
antibodies, and other important biological molecules. Computational 
structural biology research combines computer science, structural 
biology, and genome research to predict the functions of biological 
molecules. This information will enable the design or more efficient 
use of biological molecules for drugs to control or treat a great 
variety of diseases, environmental cleanup, or energy-production and 
use.
    The low dose radiation research program uses molecular level 
knowledge gained from the Department's human genome and structural 
biology research to determine the human health impacts, all the way 
from effects on single molecules to people, of exposures to low doses 
of energy and defense-related radiation. This information will provide 
an improved scientific basis for remediating contaminated DOE sites and 
achieving acceptable levels of human health protection, both for 
cleanup workers and the public, in a more cost-effective manner that 
could save billions of dollars. A key aspect of this program is the 
regular communication between scientists who propose and conduct the 
research and regulators who develop and implement risk policy.
    Environmental Processes.--The Environmental Processes subprogram 
conducts research on a range of issues related to the mission of the 
U.S. Global Change Research Program (USGCRP). Activities are focused on 
understanding and predicting the potential consequences on climate and 
ecological systems and resources of the emissions of aerosols and trace 
gases, especially carbon dioxide from fossil fuel combustion. 
Additional efforts support the Climate Change Technology Initiative 
(CCTI).
    As the major federal agency supporting research into climate 
predictions on the decade-to-century time scale, the DOE continues an 
integrated observational and modeling program focused on predicting 
climate variability and climate change 10 to 100 years in the future. 
The BER Climate Change Prediction Program will continue to extend its 
modeling breakthrough in ocean simulation to develop a fully coupled 
atmosphere-ocean model useful for climate prediction. Because of the 
limited high-end computational resources, computer-intensive climate 
modeling at regional spatial resolution has been difficult to perform. 
To address this need, BER will support a Scientific Simulation 
Initiative (SSI) in collaboration with other agencies, including the 
National Science Foundation, National Oceanic and Atmospheric 
Administration, and National Aeronautics and Space Administration to 
accelerate the development of advanced global climate change models 
with higher spatial resolution than currently available. The SSI will 
make high-end computational resources more available to the climate 
modeling community than at present, improve climate models capable of 
simulating the principal components of a coupled atmosphere-ocean 
climate system, and increase the availability and usability of climate 
change projections to the broader climate change research and 
assessment communities.
    The BER request includes funding to operate three Atmospheric 
Radiation Measurement sites and eighteen AmeriFlux sites to provide 
data to improve climate models and understand the magnitude and 
variation in carbon sequestration in major terrestrial ecosystems in 
North and Central America. The BER Environmental Processes subprogram 
will also continue to support major experimental studies to develop 
data to improve understanding of the ecological effects of climate and 
atmospheric changes.
    As part of the CCTI, BER will support research to better understand 
the biophysical processes controlling carbon sequestration in 
terrestrial and ocean systems, with the long term objective of both 
developing approaches to manipulate these processes to enhance carbon 
sequestration on land and in the ocean and understand the environmental 
and economic implications of implementing such approaches. These 
studies will complement previously noted efforts to sequence the 
microbial genomes as part of the BER CCTI program.
    The Environmental Processes subprograms provide a scientific basis 
for assessing both the effects of human activities on the Earth's 
climate and the need for action to mitigate any adverse effects. They 
also provide information needed to determine the potential of natural 
processes in terrestrial and ocean systems to help mitigate the 
increase in atmospheric carbon dioxide from fossil fuel combustion. The 
Environmental Processes subprograms are coordinated with other agencies 
through the National Science and Technology Council's Committee on 
Environment and Natural Resources.
    Environmental Remediation.--Research in the Environmental 
Remediation subprogram is focused on understanding the fundamental 
physical, chemical, geological, and biological processes that must be 
marshaled for the development and advancement of new, effective, and 
efficient processes for the remediation and restoration of the Nation's 
nuclear weapons production sites. The two highest priorities of this 
subprogram are bioremediation research and operation of the William R. 
Wiley Environmental Molecular Sciences Laboratory (EMSL) as a national 
scientific user facility to investigate fundamental molecular processes 
and properties that affect the environmental transformation, mobility, 
and biological availability of contaminants. The EMSL focuses on 
molecular-level collaborative research in the environmental sciences, 
and provides support to over 600 users, with over half of those from 
academia. The subprogram also addresses both natural bioremediation, 
which relies on naturally occurring microbial and plant processes, and 
accelerated bioremediation, which seeks to accelerate desirable 
processes through, for example, environmental modifications or the 
addition of amendments to contaminated environments.
    The Environmental Remediation subprogram request also includes the 
infrastructure funding for BER program activities. The funding enables 
minor construction activities associated with upkeep of buildings and 
building systems at these research facilities. It includes such items 
as new roofs and heating, ventilation, and air-conditioning upgrades 
and replacements.
    Medical Applications and Measurement Science.--The Medical 
Applications program fosters research to enable beneficial applications 
of nuclear and other energy-related technologies for medical diagnosis 
and treatment. The program promotes a fertile partnership among the 
sciences, advanced technologies and medicine in three major research 
areas: nuclear medicine; boron neutron capture therapy (BNCT); and 
instrumentation. Research in radiopharmaceutical chemistry and imaging 
techniques and investigation of a broad range of potential diagnostic 
and therapeutic applications provide the scientific and technological 
foundation for the expansion of nuclear medicine as a major medical 
specialty and for the continued vitality of the national industries for 
radiopharmaceutical development and production and medical imaging 
instrumentation. The technologies developed under this program are 
directed at solving major problems in medicine, such as the non-
invasive detection and localization of small malignant lesions in the 
body, the quantitative measurement of dynamic organ function, and the 
treatment of cancers that resist conventional therapies. Nuclear 
medicine at the Department has accelerated with many recent 
contributions in areas as diverse as medical imaging technologies for 
improved diagnostic accuracy and radiopharmaceuticals for the study and 
treatment of substance abuse. Medical Applications research, in 
partnership with the Department's human genome and life sciences 
research, is forging new technologies to find not only where disease-
causing processes take place, but to locate and study the action of 
genes involved in still-mysterious normal functions such as learning 
and memory.
    Our measurement science program focuses on research and development 
of new instrumentation to meet the needs of our environmental and life 
sciences programs for better ways of characterizing samples ranging 
from living cells to subsurface contaminants. The fiscal year 2000 
request provides for a variety of activities, with particular emphasis 
on using the advanced technologies developed in the Department's 
National Laboratories for environmental and biomedical research.
                          high energy physics
Fiscal Year 1999 Appropriation--$695.5 M; Fiscal Year 2000 Request--
        $697.1 M
    High energy physics research seeks to understand the nature of 
matter and energy at the most fundamental level, as well as the basic 
forces which govern all processes in nature. The Department of Energy 
provides more than 90 percent of the Federal support for the Nation's 
high energy physics (also called elementary particle physics) research 
program. The balance is provided by the National Science Foundation 
(NSF). Our knowledge of the universe, the fundamental constituents of 
matter, and the laws of nature that underlie all physical processes 
continues to grow as a result of this research.
    High energy physics research not only helps us learn how the world 
works, it also contributes to the Nation's economic competitiveness in 
the high-technology marketplace. High energy physics research requires 
accelerators and detectors utilizing state-of-the-art technologies in 
many areas, including fast electronics, particle detectors, high speed 
computing, superconducting magnets, and high power radiofrequency 
devices. In these areas, high energy physics research frequently drives 
the technology, which not only contributes to other scientific 
disciplines, but also has led to many practical applications having 
major economic and social impacts. Who could have predicted that 
research that went into the building of accelerators and particle 
detectors and the subsequent technology would contribute so much to 
today's medical imaging capabilities. And who could have predicted that 
particle physicists seeking new ways of communicating and sharing large 
amounts of data would change the way in which the world communicates--
yet that is just what the World Wide Web has done.
    The High Energy Physics program also has a history of attracting 
and training some of the best and brightest young minds. The training 
they receive prepares them for careers not just in high energy physics, 
but also in other disciplines as well, including computer sciences, 
teaching, industrial research. It is the unique problem solving 
abilities learned from this scientific discipline that make them 
attractive. More than half of the Ph.D.'s trained for high energy 
physics find permanent employment outside the field.
    Carrying out high energy physics research effectively depends on 
many elements including the availability of forefront experimental 
capabilities, effective use of specialized facilities, and the 
availability of new and upgraded facilities to take advantage of new 
technologies and research opportunities. The Department supports two 
major high energy physics accelerator centers--the Fermi National 
Accelerator Laboratory (Fermilab) and the Stanford Linear Accelerator 
Center (SLAC). Each of these laboratories provides unique capabilities 
and is operated as a national facility available to qualified 
experimenters around the Nation and abroad on the basis of the 
scientific merit of their research proposals. In addition, the high 
energy physics program makes limited use of the AGS at BNL. (The AGS 
will be transferred to the nuclear physics program, at the end of 
fiscal year 1999, to be operated as an integral part of the RHIC 
facility). Approximately 2,000 U.S. scientists and 200-300 foreign 
scientists work at these facilities at any given time.
    Experimental and theoretical researchers from more than 100 
universities conduct about three fourths of the research, with the 
remainder being done by national laboratory staff. In general, the 
laboratories and universities perform different, but complementary, 
activities. University scientists provide the primary intellectual base 
for the program, performing experimental research at accelerators and 
non-accelerator facilities, technology R&D, and theoretical research. 
University grantees are selected and retained based on the quality, 
appropriateness, and performance of their research activities. All 
research proposals received are subjected to a rigorous multi-stage 
review, especially including peer review by technical experts from the 
high energy physics community.
    National laboratories primarily provide major accelerator 
facilities at which university scientists perform their research. In 
addition, the laboratories provide the related technical and scientific 
expertise, as well as day-to-day liaison between university researchers 
and laboratory experts and management. Responsibility and authority for 
setting the program at a national laboratory and for determining which 
experiments are awarded running time rest primarily with the laboratory 
directorate within the general guidelines provided by the Department. 
Research requiring the use of a facility at one of the laboratories is 
reviewed extensively by the laboratory including by the laboratory's 
Program Advisory Committee (PAC), another form of peer review. The 
Department carries out its oversight responsibilities by conducting 
annual reviews of the laboratories' scientific programs. In addition, 
the Department tracks project progress against budget and schedule 
milestones using semiannual project reviews.
    The Fermi National Accelerator Laboratory (Fermilab) is home to the 
world's highest energy superconducting accelerator, the Tevatron, which 
provides both fixed target and colliding beam research programs. The 
colliding beam research program has two major detector facilities, the 
Collider Detector at Fermilab (CDF) and the D-Zero Detector, which 
complement each other in their different technical capabilities. 
Fermilab completed a very successful fixed target run this past year 
prior to shutting the Tevatron down to bring the Main Injector on line. 
These two collaborations continued to produce new scientific knowledge 
during this run. The CDF collaboration of university and laboratory 
scientists from around the world observed the predicted B meson which 
contains a charm quark; this discovery completes the theoretically 
predicted family of B mesons. In addition, the KTeV experimental 
collaboration of university and laboratory scientists made the first 
observation of the decay of a kaon into two charged pions plus an 
electron-positron pair. This collaboration also made the first 
observation of violation of time-reversal invariance (T-violation), by 
making precise measurements of these decays. T-violation had been 
predicted on the basis of other results, but had never been directly 
observed.
    Construction of the Fermilab Main Injector project was completed on 
schedule and within budget. Commissioning is proceeding very well, and 
the first physics run is expected later in fiscal year 1999. The CDF 
and D-Zero upgrades are progressing well; and the upgraded detectors 
will be moved back into position on the Tevatron beam line and 
commissioning will begin with them late in fiscal year 2000. This 
project will provide a fivefold increase in collider luminosity and a 
doubling of intensity for the fixed target program, as well as allowing 
simultaneous operation of the collider and fixed target programs, a 
capability previously not possible. The Main Injector will greatly 
enhance the physics capabilities of the Tevatron accelerator and its 
detector facilities and increase the likelihood for major new 
scientific developments early in the next century.
    Also at Fermilab, the NuMI/MINOS (Neutrinos at the Main Injector) 
project design got underway in fiscal year 1998. The experiment will 
study the possible oscillations between different types of neutrinos to 
determine if neutrinos have mass. The beam of neutrinos for the project 
will be produced at Fermilab and aimed at two detectors--one on site 
and the other at the Soudan Underground Laboratory in northern 
Minnesota. The project baselines for cost, scope, schedule, and 
management were established in November 1998. Detailed design for the 
NuMI underground enclosure and technical components will be developed 
in 1999, and excavation of the cavern in Minnesota for the MINOS 
detector is also expected to begin later this year.
    In addition, Fermilab continues to play an active role in the Large 
Hadron Collider. Fermilab is the host and center of the U.S. CMS 
detector effort of university and laboratory scientists, and host and 
center of the U.S. LHC accelerator collaboration, with specialized 
expertise in the design and fabrication of superconducting magnets.
    At the Stanford Linear Accelerator Center (SLAC), the Stanford 
Linear Collider (SLC), the world's only high energy linear collider, 
continued during fiscal year 1998 to achieve record high luminosities 
in positron-electron collisions, and the SLD detector reached more than 
20,000 Zo events per week. Researchers from universities and 
laboratories conducting research at SLAC are in the process of 
analyzing the large amounts of data collected. In fiscal year 1999, the 
SLC was shut down to allow for the B-factory to be brought on line. 
Construction of the B-factory PEP-II storage rings was completed in 
fiscal year 1998 on schedule and within budget. Commissioning began in 
mid-May 1998, resulting in first electron-positron collisions in July 
1998. Commissioning has continued to go very well, and substantial 
progress toward achieving design luminosity has already been made. 
Data-taking with the BaBar detector will begin later in fiscal year 
1999, and about 39 weeks of operation is planned for fiscal year 2000. 
The B-factory will provide a high luminosity, asymmetric electron-
positron colliding beam facility to study the preponderance of matter 
over anti-matter in our universe. It will also provide opportunities 
for university and laboratory scientists to pursue a rich program of 
experiments in a large number of other areas of intense interest in 
high energy physics. In addition to all-out running of the B-factory in 
fiscal year 2000, emphasis will continue on R&D in support of a future 
linear collider. Participation with NASA and university scientists in a 
non-accelerator-based experiment, the Gamma-ray Large Area Space 
Telescope (GLAST), is also planned.
    The Alternating Gradient Synchrotron (AGS) at Brookhaven National 
Laboratory (BNL) will be transferred later in fiscal year 1999 to the 
Nuclear Physics program to be operated as the injector for RHIC. 
Operation of the AGS for the high energy physics program in fiscal year 
2000 and beyond will be on an incremental cost basis. Recently, U.S. 
university and laboratory researchers working at the AGS recorded a 
first observed decay of a charged kaon to a pion and two neutrinos, 
first observation of the decay of a neutral kaon to an electron-
positron pair, as well as evidence for the existence of an unusual 
meson. AGS operation for high energy physics in fiscal year 2000 will 
be for the high precision measurement of the anomalous magnetic moment 
of the muon. Brookhaven is also a key participant in the LHC project as 
host and center of the U.S. ATLAS detector collaboration of university 
and laboratory scientists, as well as a participant in the U.S. 
accelerator collaboration. BNL's Accelerator Test Facility (ATF), a 
small, low energy electron linac, has achieved one of the brightest 
electron beams in the world. It is used by universities, national 
laboratory groups, and industry for testing new advanced accelerator 
concepts.
    The Large Hadron Collider (LHC), a machine that will be about seven 
times the energy of the Fermilab Tevatron, is in the process of being 
built at the European Laboratory for Particle Physics (CERN) in Geneva, 
Switzerland. The U.S. and CERN have signed an agreement that provides 
for U.S. support and participation in the project. The LHC will become 
the foremost high energy physics facility in the world around the 
middle of the next decade. With the LHC at the energy frontier, 
American scientific research on the frontier depends on participation 
in the LHC. It will ensure continued world class excellence of our 
university and national laboratory scientists and will provide training 
to many students in leading edge science and technology.
    The Department will provide a total contribution of $450 million 
for the specifically agreed to components of the two detectors and the 
LHC accelerator over the period fiscal year 1996 through fiscal year 
2004. Of the $450 million, $250 million will support U.S. activities on 
the LHC detectors, while $200 million will support U.S. activities 
working on the LHC accelerator. NSF will provide approximately $81 
million for U.S. work on the detectors. Almost all of this funding will 
be spent in the U.S. for in-kind contributions from U.S. laboratories, 
universities, and industry. Funding in the amount of $70 million is 
being requested by the Department in fiscal year 2000.
    During the past year, progress continued to be made on the 
technical components for the LHC and many management details were 
finalized. Technical, cost, and schedule baselines for the three 
subprograms--ATLAS detector, CMS detector, and the accelerator--were 
reviewed and approved; a Memorandum of Understanding between DOE and 
NSF on U.S. participation in the LHC project was negotiated and signed; 
and Project Management Plans were finalized and put in place for the 
accelerator, ATLAS detector, and the CMS detector, as well as the 
overall U.S. LHC Project Execution Plan. In fiscal year 2000, the 
fabrication of components for the LHC continues. The U.S. LHC project 
continues to be on schedule and within budget.
                            nuclear physics
Fiscal Year 1999 Appropriation $334.6 M, Fiscal Year 2000 Request 
        $342.9 M
    The primary goal of nuclear physics research is to understand the 
structure and properties of atomic nuclei and the fundamental forces 
between the constituents that form the nucleus. Nuclear processes 
determine essential physical characteristics of our universe and the 
composition of the matter that forms it.
    Beyond maintaining world leadership in basic research, the Nuclear 
Physics program develops and transfers knowledge to enhance the 
Nation's technological and economic competitiveness in such fields as 
nuclear medicine. The Nuclear Physics program continues to be a vital 
source of trained people for fundamental research and for these applied 
technology areas. The program supports the graduate training of 
approximately 450 students per year, and typically 100 Doctorates in 
nuclear physics are awarded each year in DOE-supported nuclear physics 
programs. A majority of these highly trained researchers will take 
positions in high-technology private industry.
    Many future nuclear physics investigations will study questions 
related to the quark presence in composite nuclei. Until the last few 
years, the fundamental understanding of nuclear properties has been 
based on the idea of a nucleus composed of protons and neutrons that 
interact through a combination of weak, strong, and electromagnetic 
forces. It became clear that achieving a real knowledge of many nuclear 
properties depends on understanding nuclear structure based on quarks, 
and particles called gluons that bind the quarks together. Quarks and 
gluons are the building blocks of protons and neutrons (nucleons). The 
Long Range Plan for the U.S. Nuclear Physics Program, prepared by the 
nuclear physics community every five years, provides the definition of 
the pressing issues in nuclear science and the priorities for pursuing 
important scientific problems in various budget scenarios.
    Studies of nuclear structure require ultra-high resolution 
``microscopes'', accelerators that produce particle beams of various 
energies, depending on the problems to be studied. The request is 
designed to provide the sufficient hours for these facilities, so that 
researchers may take advantage of their unique capabilities.
    Research programs at the Thomas Jefferson National Accelerator 
Facility (TJNAF), formerly CEBAF, are studying effects due to the 
presence of quarks in nucleons in the nucleus. Two principal focuses of 
these studies are to continue to develop an understanding of how the 
``spin'' of a nucleus originates in the quarks, and how the size of a 
quark cluster in a nucleus affects the strength of the interaction of 
that cluster with other nucleons in the nucleus. It is interesting to 
note that no one has ever observed a single free quark; they always 
travel in closely knit groups of threes within nucleons and twos within 
mesons. In fiscal year 2000, TJNAF will operate for 4,500 hours to 
allow several high priority experiments to study the quark presence in 
nuclei. The laboratory is fully operational, and all three experimental 
halls are being utilized for experiments.
    In fiscal year 2000, the new Relativistic Heavy Ion Collider (RHIC) 
at Brookhaven National Laboratory, a second major facility for the 
study of new ``quark-based'' nuclear physics, will be searching for a 
predicted quark-gluon plasma. Construction of RHIC will be complete in 
the third quarter of fiscal year 1999, and the new facility will be 
fully operational in fiscal year 2000. It is predicted that if a 
collection of nucleons could be compressed and heated to a very high 
temperature by collisions of high energy heavy nuclei, there would be a 
phase transition to a new state of nuclear matter in the collision 
region where the quarks are ``freed'' from their nucleon boundaries to 
form a so-called quark-gluon plasma.
    RHIC will be a unique, world-class facility with colliding 
relativistic heavy ion beams that will permit exploration of this hot, 
dense nuclear matter and recreate the transition from quarks to 
nucleons which characterized the early evolution of the universe. 
Studies with colliding heavy ion beams will provide researchers with 
their first laboratory opportunity to explore this new region of 
nuclear matter and nuclear interactions which up to now has only been 
studied theoretically. In fiscal year 2000, RHIC will begin its first 
full year of operations with a 33 week running schedule and a goal of 
22 weeks (3,300 hours) for research and 11 weeks for accelerator 
studies.
    Some of the most critical nuclear reactions in stellar burning 
processes involve nuclei which, because of their short lifetimes, have 
not been available for laboratory studies. Three Nuclear Physics 
facilities will be investigating these reactions by generating 
radioactive beams as new probes of nuclear structure.
    Another new generation facility, the Holifield Radioactive Ion Beam 
Facility (HRIBF) at Oak Ridge National Laboratory is now producing some 
of the previously unavailable nuclear beams so that these important 
stellar processes can be studied in the laboratory. Beams for 
experiments became available in fiscal year 1998 and it is possible for 
the first time to study many processes which are crucial to our 
understanding of how nuclei were synthesized in the Big Bang. In fiscal 
year 2000, the HRIBF will operate for 2,400 hours for studies of these 
processes and for studies of very proton rich nuclei far from 
stability. Radioactive ion beams, in addition to the stable beams 
normally provided, are also being produced at the ATLAS accelerator at 
Argonne National Laboratory and the 88-inch Cyclotron at Lawrence 
Berkeley National Laboratory. These laboratories are pursuing research 
as well as developing new techniques for the generation of radioactive 
beams. The experience gained and ideas generated at all three 
laboratories will provide important input to the design of a proposed 
new Isotope Separator On Line (ISOL) radioactive beam facility 
presently being studied by the Nuclear Physics Program.
    Subsequent to submission of the fiscal year 2000 budget request, 
the Department has determined that the MIT/Bates accelerator will 
continue to operate. The Department will work with the Administration 
to submit a budget amendment and an amended budget request.
    The solar neutrino problem remains one of the great challenges in 
astrophysics. The predicted rate of neutrino production by the sun is 
significantly higher than the observed rate. There are two possible 
explanations for the discrepancy. Either our understanding of solar 
burning is very wrong, or the neutrino has a small mass, in 
contradiction to the long-held belief that it is massless. Construction 
of a third major new facility to study this problem, the Sudbury 
Neutrino Observatory (SNO), 7000 feet below the surface of the earth in 
Canada, was completed in fiscal year 1998. In fiscal year 1999, 
preliminary data is being accumulated as the detector is being filled 
with ``heavy water''. SNO, which will be fully operational in fiscal 
year 2000, is designed to sort out this long standing solar neutrino 
problem. The project involves an international collaboration among the 
U.S., Canada, and the United Kingdom.
                         fusion energy sciences
Fiscal Year 1999 Appropriation--$222.6 M, Fiscal Year 2000 Request--
        $222.6 M
    The fiscal year 2000 budget request for the Fusion Energy Sciences 
program continues a broad-based, fundamental research effort to acquire 
the knowledge base needed for an economically and environmentally 
attractive fusion energy source.
    Fusion research provides two major benefits--in the near term there 
are advances in plasma science and technology spinoffs and in the long 
term there is the basis for development of a new energy source. 
Advances in plasma science have contributed to numerous other areas of 
science. In astrophysics, it has allowed an understanding of the 
behavior of plasma and magnetic fields in the earth's magnetosphere, in 
the sun and other stars and the galaxies. Plasma physics is integral to 
our understanding of magnetic storms, solar flares, shock waves in 
space, magnetic fields, black holes, and star formation. In the area of 
large-scale scientific computing, fusion research pioneered the use of 
supercomputers to solve complex problems. Novel optical and magnetic 
diagnostics have been created to provide access to the extreme 
temperature, density, and magnetic fields prevalent in fusion 
experiments. In addition, fusion and other plasma based research has 
provided a stimulus to the development of large superconducting 
magnets, development of advanced materials, advancement in pulsed-power 
technology, and plasma aided manufacturing processes such as those used 
in semiconductor device fabrication.
    Although there is no schedule for developing and deploying fusion 
energy systems, the availability of fusion, as an option for large 
central station power plants, would be valuable insurance against 
possible environmental concerns about fossil and nuclear energy. As 
fusion is one of the few potential sources capable of providing an 
appropriate energy intensity for urbanized society in an 
environmentally sustainable fashion, development of fusion as a 
practical energy source may be essential for the longer term. In 
addition, there may also be non-electric applications of fusion in the 
transmutation of wastes and isotope production.
    The quality of the research in this program is continuously 
evaluated through the use of merit based peer review and scientific 
advisory committees. In addition, the Department has requested the 
National Academy of Sciences to review the quality of science in the 
fusion program in fiscal year 1999. We will also be carrying out a 
review of fusion energy technologies using the Secretary of Energy 
Advisory Board. The Fusion Energy Sciences Advisory Committee has also 
been asked to assess program restructuring and the overall balance of 
research efforts. A program plan/roadmap for fusion, including both 
magnetic and inertial and based on the above reviews, will be completed 
by the end of 1999.
    As a part of the ongoing restructuring of the program, the major 
U.S. experimental facilities--the DIII-D at General Atomics, the 
Alcator C-Mod at the Massachusetts Institute of Technology, and the new 
National Spherical Torus Experiment (NSTX) at the Princeton Plasma 
Physics Laboratory (PPPL)--are being managed as national resources with 
multi-institutional topical teams addressing the scientific issues and 
coordinating efforts on relevant facilities. The fiscal year 2000 
budget request provides for substantial operation of all three 
facilities, along with modest upgrades.
    The Tokamak Fusion Test Reactor (TFTR) located at PPPL was closed 
down in fiscal year 1997 after 13 years of pioneering experiments 
yielding significant scientific results from producing actual fusion 
power in a laboratory. In fiscal year 2000 we will begin a 3-year 
program to decontaminate and decommission the TFTR facility. This will 
provide for the removal of the TFTR tokamak and activated components 
from the experimental test cell and basement.
    Fabrication of the NSTX, a vital new device of a much smaller scale 
than TFTR, will be completed in April 1999. This proof-of-principle 
facility will provide the scientific basis for an innovative magnetic 
confinement concept that has indicated the potential for reactor-scale 
plasma performance in earlier very small experiments.
    In fiscal year 2000 a conceptual design will be completed for a 
novel compact stellarator-tokamak experiment that combines the best 
features of the two leading magnetic fusion concepts. Critical 
computing codes will be modernized to take full advantage of the 
President's Information Technology Initiative. In addition, three new 
innovative concept exploration experiments will become fully 
operational.
    In accordance with congressional direction and with the cooperation 
of our International Thermonuclear Experimental Reactor (ITER) 
partners, the Department will complete an orderly closeout of our ITER 
activities in fiscal year 1999. The R&D activities to complete the U.S. 
Model Coil and to be involved in its test in Japan are proceeding 
through fiscal year 1999 consistent with congressional direction. The 
Model Coil is part of the largest superconducting magnet ever built to 
operate with a changing magnetic field. It was recently completed and 
is now en route to Japan where the testing will be done.
    The European Union, Japan, and the Russian Federation are 
proceeding with a 3-year extension of the ITER program to complete the 
design of a reduced cost and reduced objectives facility, and to decide 
in 2-3 years whether and where to construct ITER. We will be involved 
only on the periphery of the project consistent with traditional 
exchange of scientific information. If the other Parties decide to 
construct a burning plasma facility like ITER, the United States will 
then consider whether to propose to be involved.
    With the closeout of the ITER activities, we are restructuring the 
fusion technology development activities to focus on our domestic needs 
in advancing the science of fusion. Emphasis will be placed upon R&D 
that will enable existing and near-term U.S. fusion facilities to 
achieve their ultimate performance capability. New methods of modeling 
and predicting the behavior of fusion materials will be investigated. 
R&D will continue on novel methods of enabling the new, innovative U.S. 
fusion concepts to achieve their full performance. This will include 
applied scientific research on issues such as the use of flowing liquid 
walls to handle heat and particle flux in magnetic or inertial systems 
and the study of advanced heating and fueling techniques. Some 
international R&D collaboration will continue at foreign facilities 
that have scientific research capabilities beyond those in the United 
States. Also, as part of the restructuring of this element of the 
fusion program, a Virtual Laboratory for Technology has been 
established to improve the governance of the various, diverse enabling 
R&D elements through improved advocacy, coordination, and 
communication.
    In conclusion, the U.S. Fusion Energy Sciences program has made 
excellent scientific progress and has been responsive to the 
congressional request to restructure the program. Fusion and plasma 
science make a unique contribution to the nation's scientific 
infrastructure in the near-term and provide a vital energy option for 
the future. Europe and Japan are making large investments in this area. 
The challenge to the United States is to continue a strong scientific 
base program, including making effective use of existing facilities, 
and to sustain a meaningful participation in the world program.
                 computational and technology research
Fiscal Year 1999 Appropriation--$157.5 M; Fiscal Year 2000 Request--
        $198.9 M
    Some of the pioneering accomplishments of the Computational and 
Technology Research (CTR) program are: development of the technologies 
to enable remote, interactive access to supercomputers; research and 
development leading to the High Performance Parallel Interface (HiPPI) 
standard; and research leading to the development of the slow start 
algorithm for the Transmission Control Protocol (TCP), which enabled 
the Internet to scale to today's worldwide communications 
infrastructure. This long history of accomplishments in the CTR program 
continued in fiscal year 1999 including: the 1998 Gordon Bell Prize for 
Best Performance of a Supercomputing Application, the 1998 IEEE 
Fernbach Award for outstanding contribution in the application of high 
performance computers using innovative approaches and four R&D 100 
Awards to CTR researchers in areas ranging from parallel numerical 
libraries to near frictionless coatings.
    The CTR program supports advanced computing research--applied 
mathematics, high performance computing, networking, and operates 
supercomputer and associated facilities that are available to 
researchers 24 hours a day, 365 days a year. The combination of support 
for fundamental research, computational and networking tools 
development, and high-performance computing facilities provides 
scientists with the capabilities to analyze, model, simulate, and--most 
importantly--predict complex phenomena of importance to the Office of 
Science and the Department of Energy.
    Experiments at Office of Science facilities may generate millions 
of gigabytes (petabytes) of data per year (which would fill the disk 
drives of millions of today's personal computers) presenting 
significant computational and communications challenges in analyzing 
and extracting information from the data. The wide-area, data-intensive 
collaborations of the Department are the focus of DOE's efforts in the 
Next Generation Internet (NGI) Initiative. CTR is responsible for DOE 
participation in the NGI program to create the foundation for more 
powerful and versatile networks of the Twenty-first century.
    CTR also heads the Department's Scientific Simulation Initiative 
(SSI) as a competitive, peer-reviewed program with the other program 
offices in SC. CTR's role in the SSI includes management of the 
selection process for the two basic science application efforts 
initiated in fiscal year 2000, management of the SSI Advanced Computing 
and Communications Facilities, and management of the Computer Science 
and Enabling Technology component.
    In addition to these computing related activities CTR also manages 
the Laboratory Technology Research (LTR) program for the Office of 
Science. The mission of this program is to support high risk, energy 
related research that advances science and technology to enable 
applications that could significantly impact the Nation's energy 
economy. LTR fosters the production of research results motivated by a 
practical energy payoff through cost-shared collaborations between 
Office of Science laboratories and industry.
                   multi program energy laboratories
                           facilities support
Fiscal Year 1999 Appropriations--$21.3 M; Fiscal Year 2000 Request 
        $21.3 M
    Fulfillment of the DOE's science and technology goals depends 
heavily on the existence and operating efficiency of the five 
multiprogram SC laboratories. The five multiprogram energy laboratories 
are: Argonne National Laboratory-East, Brookhaven National Laboratory, 
Lawrence Berkeley National Laboratory, Oak Ridge National Laboratory, 
and Pacific Northwest National Laboratory. These laboratories have over 
1000 buildings with 14.7 million gross square feet an average age of 35 
years. Their estimated replacement value is over $8.7 billion. All 
facilities at these laboratories are government-owned, contractor-
operated (GOCO). Total operating funding for these laboratories 
including work-for-others is over $3 billion a year.
    Portions of the infrastructure of these laboratories are old, 
deteriorating, and, in some cases, obsolete. Improvements are needed to 
comply fully with the environment, safety and health requirements in 
effect today as well as to meet everyday operational needs.
    The Office of Science established the Multiprogram Energy 
Laboratories-Facilities Support (MEL-FS) program in 1981 to provide a 
systematic approach to its stewardship responsibility for the general 
purpose support infrastructure of these laboratories. The MEL-FS 
program helps to preserve the government's investment in infrastructure 
and to maintain infrastructure integrity in a reasonable and economic 
manner at these laboratories.
    The program supports line item construction projects to refurbish 
and replace inadequate general purpose facilities and infrastructure. 
This budget request provides for continuation of six on-going projects 
and for two new projects. Projects are selected based on the Life Cycle 
Asset Management the Cost-Risk-Impact Scoring Matrix. The new starts 
are:
    Fire Safety Improvements--Phase IV, (ANL-E).--This project will 
bring 30 major facilities into compliance with the Life Safety Code and 
the National Fire Alarm Code. It will significantly improve the fire 
detection, suppression, and reporting capabilities at the lab, thereby 
reducing the possibility and magnitude of personnel or property loss 
during a fire.
    Electrical Systems Upgrade, (ORNL).--This project will upgrade the 
30-50 year-old electrical system to include: replacing overhead 
feeders; installing advanced protective relaying capabilities at major 
substations; and replacing major switchgear and transformers. This 
project will increase system reliability and capacity, while reducing 
the possibility of personnel injury or lost productivity due to system 
failures.
    The program also provides funding for Payments in Lieu of Taxes 
(PILT) as authorized by the Atomic Energy Act of 1954, as amended. 
These discretionary payments are made to state or local governments 
where the Department or its predecessor agencies have acquired property 
previously subject to state or local taxation.
                        energy research analyses
Fiscal Year 1999 Appropriation--$1.0 M; Fiscal Year 2000 Request--$1.0 
        M
    The mission of the Energy Research Analyses (ERA) program is to 
conduct technical assessments of the Department's civilian research and 
development programs and to provide direction to future research and 
development activities. Energy Research Analyses also conducts science 
policy analyses, and coordinates the development of the Office of 
Science Strategic Plan and the DOE Science Portfolio.
    The fiscal year 2000 budget request will provide funding for peer 
reviews of projects in the Office of Science, Fossil Energy, and Energy 
Efficiency to continue to improve the quality and relevance of DOE 
research and development. Other activities will include evaluation of 
critical planning and policy issues of DOE science and technology using 
expert groups at the National Academy of Sciences, the JASON group, 
etc., as appropriate.
                       science program direction
Fiscal Year 1999 Appropriation--$49.8 M; Fiscal Year 2000 Request--
        $52.3 M
    Science Program Direction provides the Federal staffing resources 
and associated costs required to provide overall direction of 
activities carried out under the Office of Science. This program 
supports staff in the High Energy Physics, Nuclear Physics, Biological 
and Environmental Research, Basic Energy Sciences, Fusion Energy 
Sciences, Computational and Technology Research, Multiprogram Energy 
Laboratories-Facilities Support, and Energy Research Analyses programs, 
including management and technical support staff.
    Science Program Direction also supports staff at the Chicago, 
Oakland, and Oak Ridge Operations Offices directly involved in program 
execution. The management and technical support staff includes 
scientific and technical personnel and program management support in 
the areas of budget and finance, general administration, grants and 
contracts, information resource management, policy review and 
coordination, infrastructure management and construction management.
    At the direction of Congress in fiscal year 1999, funds were also 
provided in Science Program Direction for Science Education. These 
funds will support the Undergraduate Laboratory Fellowship, National 
Science Bowl and the Albert Einstein Distinguished Educator Fellowship 
programs. These programs utilize the Department's scientific and 
technical resources to enhance the development of a diverse, well-
educated and scientifically literate workforce.
                           science education
    For fiscal year 2000, DOE proposes new science education activities 
focusing on assets at our laboratories to build a partnership with 
universities and educational institutions. These proposed science 
education activities will allow university faculty and student teams, 
at the undergraduate level, to participate on long term research 
projects at DOE laboratories. In addition, pre-college science and math 
teachers will be provided with laboratory research experience to 
improve their knowledge and skills of scientific discovery and to 
enhance their ability to apply them in a classroom environment. Funds 
for these activities are included in the line program budgets.
    There is a national need to maintain worldwide leadership in 
science and technology and to stay competitive in critical research 
areas such as high energy and nuclear physics, computational science, 
and renewable energy technologies. Our outstanding National 
Laboratories help to drive the progress of science and technology 
development in the United States. To replenish our stocks of scientists 
and engineers for the next century, we must invest in our nation's 
youth to encourage interest in science and scientific careers. A proven 
method to achieve this is by introducing students to the excitement of 
scientific research through exposure to the National Laboratories. 
Historically, over two-thirds of undergraduates who have participated 
in DOE programs have gone on to graduate school in disciplines directly 
related to DOE missions.
    According to the latest research, trends show a declining number of 
graduates in the natural sciences and engineering from the early 
eighties to 1996. This trend is especially true among women, even those 
who have displayed a natural aptitude for science and math on 
standardized test scores. By instituting a program that effectively 
promotes proficiency and inspires students, we can help to ensure our 
future in science to develop the technologies that help us meet our 
mission and contribute to economic growth.
    The proposed science education activities will provide hands-on 
experience to both students and faculty. Working with laboratory 
researchers links this work to real world, mission driven challenges 
while improving communications and connections between Academe and the 
National Laboratories. Undergraduate students and college faculty will 
be able to participate in and contribute to long-term research projects 
at the National Laboratories, providing unique opportunities for hands 
on experience with state-of-the-art equipment. This experience allows 
the student to develop technical skills that build confidence and 
reinforce classroom learning. This, in turn, will support a productive 
relationship between the national laboratory and the participating 
college or university while strengthening the research at both 
institutions. This activity efficiently connects academia and industry 
with the excellent resources of the DOE laboratories and the enormous 
intellectual resources of the nation's universities. $5 million of the 
SC request will provide over 1000 student and 200 faculty with 
fellowships for the Faculty/Student Science Teams during academic year 
2000-2001.
    The second new activity involves the training of pre-college 
teachers as part of a national effort to strengthen K-12 student 
performance in science, mathematics, and technology. The Department of 
Energy has a vested interest and vital role to play if Federal efforts, 
to ensure science literacy for all Americans and to develop future 
generations of scientists, are to be successful. This activity will 
provide high school and pre-college teachers with 8-week appointments 
at DOE's Office of Science Laboratories. In these settings, teachers 
will work in teams with scientists and engineers and will participate 
in and contribute to the ongoing research of the Laboratories. Teachers 
will participate in designing experiments, creating mathematical 
models, and collecting and analyzing data. Experience has shown that 
allowing teachers to experience being treated as research colleagues 
provides a sense of renewal, and increases connection to their field 
and profession. Therefore, this activity includes additional follow-up 
such as remote mentoring and opportunities for teachers to attend and 
make presentations at regional and national meetings of scientific and 
teacher organizations. It also includes loans and grants of equipment 
and materials, assistance in translating their research experience into 
investigations, activities, and demonstrations applicable to their 
classroom settings, and sharing research experiences with their 
colleagues. $5 million of the SC request will reach over 200 teachers 
nationwide annually through this activity.
                       energy supply r&d programs
                    technical information management
Fiscal Year 1999 Appropriation--$8.6 million; Fiscal Year 2000--$9.1 
        million
    The Technical Information Management (TIM) program provides timely, 
accurate technical information to DOE's researchers and the public by 
collecting, preserving, and disseminating scientific and technical 
information, the principal product resulting from DOE's multi-billion 
dollar research and development programs. The TIM program also provides 
worldwide energy scientific and technical information to DOE 
researchers, U.S. industry, academia, and the public through 
interagency and international information exchange agreements and 
coordinates technical information-related activities across DOE and its 
laboratories.
    In fiscal year 2000, TIM will build on the huge success of the 
Information Bridge (www.doe.gov/bridge) and use digital information 
technology to complete a virtual library of energy science and 
technology. Specifically, the Information Bridge, already with over 2 
million pages of searchable full-text R&D information, will be expanded 
to include both the most current research findings as well as historic 
records. To complete the virtual library capability, collaborative 
agreements with U.S. science journal publishers will be forged to 
establish hyper-text linkages between TIM's electronic journal 
citations and the publishers' full-text on-line journal articles. This 
capability will potentially save the Department millions of dollars in 
duplicate paper journal subscriptions.
                                closing
    The significant increase in the fiscal year 2000 budget request for 
the Office of Science recognizes the critical role that fundamental 
knowledge plays in achieving the DOE missions and for the general 
advance of the Nation's economy and the welfare of its citizens. The 
Scientific Simulation Initiative represents a major investment in 
producing the necessary scientific computation and information 
infrastructure for DOE science applications as part of a multi-agency 
initiative. This request will also provide the U.S. scientific 
community with increased research capability and new opportunities at 
the DOE scientific user facilities, including progress on SNS, a new 
forefront neutron source, and upgrades of existing facilities. On 
behalf of the Administration and the Department, I am pleased to 
present this budget for the Office of Science and welcome the challenge 
to deliver results.
    This concludes my statement. I would be happy to answer your 
questions.

                        FISCAL YEAR 2000 CONGRESSIONAL BUDGET REQUEST--OFFICE OF SCIENCE
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal year
                                                               -------------------------------------------------
                            Program                                   1998             1999
                                                                 Appropriation    Appropriation    2000 Request
----------------------------------------------------------------------------------------------------------------
Basic Energy Science..........................................           651.8            799.5            888.1
Biological and Environmental Research.........................           395.7            436.7            411.2
Fusion Energy Sciences........................................           224.2            222.6            222.6
Computational and Technology Research.........................           146.8            157.5            198.9
High Energy Physics...........................................           668.6            695.5            697.1
Nuclear Physics...............................................           314.7            334.6            342.9
Multiprogram Energy Labs-Facilities Support...................            21.3             21.3             21.3
Energy Research Analysis......................................             1.4              1.0              1.0
Sciences Program Direction....................................            37.6             49.8             52.3
SBIR/STTR.....................................................            80.7   ...............  ..............
                                                               =================================================
      Subtotal................................................         2,542.8          2,718.5          2,835.4
General Reduction for Use of Prior Year Balances..............           (15.3)           (13.0)  ..............
Superconducting Super Collider................................           (35.0)            (7.6)  ..............
                                                               -------------------------------------------------
      Total...................................................         2.492.5          2,697.9          2,835.4
                                                               =================================================
Technical Information Management..............................            10.1              8.6              9.1
General Reduction for Use of Prior year Balances..............            (0.1)            (0.2)  ..............
                                                               -------------------------------------------------
      Total...................................................            10.0              8.4              9.1
----------------------------------------------------------------------------------------------------------------

                    statement of william d. magwood

    Senator Domenici. I think what I am going to do, Dr. Krebs, 
is let everyone testify and then ask questions. So let us 
proceed.
    I think Mr. Magwood, you are next. If you have prepared 
remarks that you do not plan to give in their entirety, they 
will be made part of the record.

                 nuclear energy, science and technology

    Mr. Magwood. Thank you, Mr. Chairman. I will try to be 
brief.
    Mr. Chairman, I am Bill Magwood, Director of the Office of 
Nuclear Energy, Science and Technology, at the Department of 
Energy. I am pleased to be here before you today to discuss our 
fiscal year 2000 budget request.
    Over the last year my office has worked very hard to focus 
and prioritize our program activities among two primary goals; 
first, to reassert U.S. leadership, nuclear technology 
nationally, second, to conduct research and other activities 
that we believe are required to prepare the country for the 
next century. I believe we have made considerable progress 
toward both goals.
    Much of our recent progress would not have been possible 
without the leadership demonstrated by this subcommittee in 
advancing nuclear research as part of the Department's 
technology portfolio. We have appreciated the interest and 
support you have shown in nuclear technologies and look forward 
to working closely with you as we continue our efforts to 
maintain a viable nuclear energy future for the nation.
    Before discussing our fiscal year 2000 request, I would 
first like to highlight a few points. I think it is important 
to reflect on some of our past accomplishments to understand 
how the federal nuclear R&D program can best serve the American 
people in the future. The Department of Energy has a rich and 
successful history in development of nuclear technologies, 
dating back to the Manhattan Project and the Atoms for Peace 
Program. Our accomplishments have benefited the nation in many 
ways.
    As we all know, nuclear power technology itself was born in 
federal research programs, but fewer people know that our 
programs have given birth to nuclear medicine, which saves 
lives and reduces health care costs, and further, as shown in 
the first chart, even after nuclear power is launched as a 
commercial business, our past work has resulted in 
accomplishments and improvements to save American rate payers 
millions of dollars every year.

                nuclear energy research and development

    We also are very proud of our work in the advanced light 
water reactor program, which concluded a few years ago. Working 
with industry we helped make a new generation of safe reactors 
available to utilities in the United States and around the 
world. Today, three companies have brought three advanced 
nuclear power plant technologies to the market.
    Any doubt that anyone may have harbored about whether these 
technologies will perform as advertised need only to go to 
Japan or look at my next chart to see the first two advanced 
boiling water reactors in operation at the Kashiwazaki Kariwa 
Nuclear Power Station. This seven-unit facility is, I believe, 
the largest power plant of any type in the world, and it 
supplies 23 percent of Tokyo Electric's capacity.
    These advanced plants can now be routinely built in Japan 
in less than 4 years. A similar U.S. Standard plant will be 
built soon in Taiwan. Many U.S. jobs will be generated by these 
activities and by other advanced nuclear power plant projects 
in Korea and quite likely other nations over the next few 
years.
    These examples demonstrate how our past accomplishments 
have enabled the United States to maintain its leadership role 
in nuclear technology. However, the outlook for the future is 
uncertain. As you can see in this next chart, the U.S. has 
dramatically decreased its funding for nuclear R&D over the 
last 20 years. In fact, an event that reverberated throughout 
the international community, our R&D budget reached essentially 
zero in fiscal year 1998.
    This next chart shows that we have been out of step and 
out-paced by many of our economic competitors. The blame for 
this, I believe, rests largely with us. We did not change with 
the times and we did not plan well for the future, but now I 
believe we are on a positive track. I think we now know what is 
needed and what our role should be in the future.
    While we do not provide Federal research dollars overseas, 
through our research initiative, we are able to show 
considerable leadership in the international community by 
holding various discussions and meetings. Our R&D funding is 
essential in showing that we are serious and credible 
participants in the international exploration of nuclear 
technology.

                   nuclear energy research initiative

    We were very pleased that Congress approved our proposed 
Nuclear Energy Research Initiative for fiscal year 1999. 
Universities, laboratories, industry, and the international 
research community have shown great interest and excitement 
about the NERI program.
    For NERI's first year, we have received over $300 million 
worth of research proposals for work conducted over 3 years, 
and we have found that research organizations are anxious to 
reestablish cooperation with the United States through the NERI 
program. As a matter of fact, Deputy Secretary T.J. Glauthier 
met just last week with a large delegation from Japan who had a 
long list of projects they would like to cooperate with us on 
using the NERI program as the basis.
    For the coming fiscal year we are requesting a modest 
increase for NERI from $19 million in its first year to $25 
million in fiscal year 2000 to continue important work begun 
this year and initiate a modest number of new and innovative 
ideas coming from universities, our national laboratories, and 
industry.
    We are also proposing two new programs. One, the Advanced 
Nuclear Medicine Initiative, is needed to apply the 
Department's unique expertise in isotopes and large inventory 
of alpha-emitting isotopes to fight against cancer, arthritis, 
and many other illnesses.

                   nuclear energy plant optimization

    The other is the Nuclear Energy Plant Optimization [NEPO] 
program. The NEPO program is designed to conduct research and 
develop technologies that will be needed to optimize the 
efficiency and safety of today's nuclear power plants as they 
continue to operate for the long term. NEPO can help assure 
that existing operating nuclear power plants continue to serve 
our national interest by producing electricity in all weather 
conditions, while reducing harmful air emissions.
    As you can see in this chart, efficiency-enhanced nuclear 
power plants comprise the largest contribution to utility plant 
to reductions in CO<INF>2</INF> emissions.
    The next chart demonstrates that the operation of nuclear 
plants----
    Senator Domenici. Can you leave that one up for a moment? 
What is this again?
    Mr. Magwood. This represents the pledges made by the 
utilities in the United States, leading up to the year 2000. I 
think this covered approximately a 10-year period. It shows 
that in efficiency improvements, the existing nuclear power 
plants made up 33 percent of all the pledges that utilities 
made in their reduction of CO<INF>2</INF> emissions, compared 
to fossil plants which only contributed 14 percent, and even 
improvements in energy efficiency, which contributed 18 
percent.
    So even though we are not building nuclear power plants, 
making the existing plants more efficient has proven to be a 
major contributor to reducing offsetting CO<INF>2</INF> 
emissions.
    The next chart shows that the operational nuclear plants 
were essential to states striving to meet the Clean Air Act 
requirements. Increased generation of nuclear plants in these 
states enabled these states to meet 37 percent of the emission 
reduction targets required by the Clean Air Act. Operation 
Nuclear Plants can continue to provide these benefits into the 
middle of the next century.
    While at $5 million, our request for NEPO is very modest, 
we believe that it will enable us to demonstrate the needed 
leadership at a time of great uncertainty in the electric 
utility industry. You need only look at our joint comprehensive 
DOE Electric Power Research Institute Strategic R&D plan to see 
how even the possibility of a new DOE program in this area has 
helped the industry define and organize the long-term research 
needs for existing nuclear power plants.
    Further, industry has committed to match our investments, 
at least on a dollar-for-dollar basis, and we believe this 
effort is a vital component of our effort to maintain nuclear 
power for now and also in the long term. I would also like to 
note that we are relying more than at any other time in our 
history on independent external advice. The best example of 
this was when in October 1998, Secretary Richardson established 
the Nuclear Energy Research Advisory Committee, or NERAC, to 
help us plan for the future.

               nuclear energy research advisory committee

    As you can see in this last chart, we have 28 independent 
prominent individuals on NERAC, including experts in fields 
such as nuclear technology, medicine, education, policy, 
economics, and non-proliferation. NERAC is chaired by Dr. James 
Duderstadt, a former professor and President of the University 
of Michigan.
    This group is working with us to develop a nuclear energy 
R&D long-term plan, a road map on the nation's nuclear science 
and technology infrastructure, and a long-term isotope research 
and production plan. In addition, NERAC has formed a special 
subcommittee to help us guide the NEPO program and plan for the 
long-term technology needs of existing nuclear power plants.
    I think you will probably note that we still have Dr. Glenn 
T. Seaborg listed, although I think we did footnote that he is 
deceased. I could not just bring myself to quite take his name 
off the list at this point, but I guess I will get around to 
that at some point, we will miss his counsel greatly.
    In closing, nuclear power and nuclear technology benefit 
Americans in many ways. U.S. nuclear plants provide a fifth of 
our electricity. Nuclear medicine is a part of every day life, 
with over 40,000 diagnostic imaging procedures performed at 
U.S. hospitals every day.
    We believe that nuclear technology can continue to benefit 
the American people in the future and with your help, support, 
and counsel, the Department will play a role in pointing the 
way.

                           prepared statement

    I know there are many issues that interest the 
subcommittee, ranging from the depleted uranium hexafloride to 
the future of Argonne National Laboratory and the Fast Flux 
test facility, and I look forward to discussing all of these 
issues with you today.
    [The statement follows:]

                Prepared Statement of William D. Magwood

    Mr. Chairman and Members of the Subcommittee, I am William D. 
Magwood, IV, Director of the Department of Energy's Office of Nuclear 
Energy, Science and Technology. I am pleased to have this opportunity 
to present our fiscal year 2000 budget request to you today. As you 
know, this is my first time before this committee as Director and I 
look forward to working with the Committee as you review our priorities 
and allocate resources for the next fiscal year.
    As we stand at the threshold of a new century, the United States 
remains the most powerful force for peace, prosperity, and democracy in 
the world. We remain a nation with abundant resources and capabilities. 
The United States remains at the forefront of technological and 
scientific advancement--ranging from air flight and space exploration, 
harnessing the atom, to medicine and computing. Throughout, government 
has been a partner in developing technology for the American people--
meeting vital national security interests and providing for the well 
being and prosperity of the nation and its people. For the Office of 
Nuclear Energy, these interests are represented by the following 
strategic objectives:
  --providing for energy diversity and security,
  --developing Department of Energy mission critical technologies,
  --maintaining vital nuclear research facilities and supporting a 
        strong knowledge base for nuclear technology in the 21st 
        century, and
  --securing our nation's environmental future.
    This program has a rich history, dating back to the Manhattan 
Project and the Atoms for Peace Program. For over 50 years, we have 
supported research and development that produced the prototypes for 
reactor technologies that are in commercial use throughout the world 
today. Similarly, for over 50 years, the Department, with its 
infrastructure of reactors, accelerators, and hot cells, has developed 
and brought to the American people, vital isotopes used for medicine, 
research and industrial applications. Today, we are working in 
partnership with clinicians, researchers, and industry to respond to 
the needs of the 21st century. For almost 40 years, we have produced 
radioisotopic generators and heat sources for space and for national 
security missions--missions that we expect to continue well into the 
next century. And as leaders in development and operation of nuclear 
reactor technology, for over 50 years we have managed the safe 
operation of nuclear energy's research reactors. Today, we support the 
important work of the Office of Science and others by managing the safe 
operation of all of the Department's research reactors. Finally, we 
take seriously our stewardship responsibilities associated with prior 
missions of Nuclear Energy, Science and Technology and our landlord 
responsibilities at the Test Reactor Area at the Idaho National 
Engineering and Environmental Laboratory and the former government 
gaseous diffusion sites.
    Overarching our strategy for the 21st century is the fundamental 
belief that the United States must retain its leadership position in 
nuclear energy--to be a player in shaping the international landscape 
and advancing the interests of the American people at home and abroad.
                      roadmap for the 21st century
    Our strategic framework, which flows down from the President's 
National Security Strategy for a New Century, October 1998 and the 
Department's Comprehensive National Energy Strategy, April 1998, 
provides the basis for our fiscal year 2000 budget request. In 
addition, the resources applied to implement this strategy are shaped 
in part by the recommendations of the President's Committee of Advisors 
on Science and Technology (PCAST) \1\ and by the response to these 
recommendations provided by the laboratory directors of seven of our 
national laboratories.\2\
---------------------------------------------------------------------------
    \1\ The President's Committee of Advisors on Science and 
Technology, Federal Energy Research and Development Challenges of the 
Twenty-First Century, Report of the Energy Research and Development 
Panel, November 5, 1997.
    \2\ U.S. Department of Energy National Laboratory Directors, 
Recommendations for a Department of Energy R&D Agenda, December 1997.
---------------------------------------------------------------------------
    In 1997, the PCAST panel on Federal Energy Research and Development 
(R&D) identified nuclear energy as one of the technologies that could 
alleviate global climate change and address other energy challenges, 
including reducing dependence on foreign oil, diversifying the U.S. 
domestic electricity supply system, expanding exports of U.S. energy 
technologies, and reducing air and water pollution. PCAST recommended 
that the Department establish nuclear energy R&D programs initially 
funded at $60 million, growing over five years to over $100 million. 
Although our funding levels do not approach the levels recommended by 
PCAST, we are optimistic about the future of our nuclear energy 
research and development activities as we demonstrate the value of this 
work to the Nation. Today, the Office of Nuclear Energy, Science and 
Technology remains focused on its core R&D missions and we are working 
hard to establish meaningful plans and direction for the future.
    This past October, Secretary of Energy Richardson established the 
Nuclear Energy Research Advisory Committee (NERAC) to provide advice to 
the Department on the direction of our nuclear technology and research 
programs in the 21st century. This committee, chaired by Dr. James 
Duderstadt, former President of the University of Michigan, is 
comprised of 28 eminent senior policy, science and technology experts 
from academia, industry, and our national laboratories with expertise 
ranging from reactor operations and nuclear engineering to biological 
sciences and nuclear medicine, to environmental sciences, economics and 
strategic planning. The membership of this committee is diverse, 
including an environmental advocate, senior officials from industry, 
researchers in nuclear medicine, laboratory directors, and a former 
Member of the Senate.
    As their initial charges, I have asked this group to help us 
formulate our Nuclear Science and Technology Infrastructure Roadmap, to 
help us develop long-term plans for our nuclear energy research program 
and our medical isotope production and research programs, and to help 
us identify the technology needs of current U.S. nuclear power plants.
    This spring, the NERAC will complete the Nuclear Science and 
Technology Infrastructure Roadmap, evaluating our present and future 
requirements for neutron generating facilities and assessing the 
viability of our existing infrastructure of hot cells, accelerators, 
and reactors to meet the Nation's needs for basic science research, 
applied technology research, national security, space nuclear power, 
and isotope production and related missions over the next 20 years. 
This roadmap represents the first step in managing our long-term 
nuclear R&D infrastructure and in the short-term, it is an important 
tool in balancing future missions at our nuclear R&D facilities and in 
identifying strengths and weaknesses in our current infrastructure. 
Additionally, Secretary Richardson has tasked NERAC to provide in the 
roadmap, their recommendations on whether the Fast Flux Test Facility 
should be considered to meet the Nation's requirements for isotope 
production or other important and enduring missions of the Department.
    The expertise of NERAC is deep and their mandate broad, ranging 
from helping us to define the direction and character of our future 
programs, to providing independent oversight of our research programs, 
to providing recommendations on our priorities.
              providing for energy diversity and security
    Today, as in the past, our research and development initiatives are 
the centerpiece of our program. Although our focus has changed over 
time, our R&D is based on the fundamental belief that nuclear energy 
and technology is and will remain an important element in our energy 
mix and will continue to provide important technological benefits and 
advancements for the nation. Today, with increasing pressure to reduce 
the discretionary spending and with R&D dollars more constrained in 
both government and industry, we must adopt new approaches to advance 
nuclear technology--through leveraging our federal R&D dollars with 
others and greater collaboration among our universities, our 
laboratories, and the private sector--to get the best return on 
investment for the nation. And to further leverage our investment, I am 
committed to expanding international cooperation.
    Today, 104 reactors are operating to provide about 20 percent of 
the electricity generated for the American people. This is the second 
largest source of electricity behind coal. As we look to the future, 
these plants are critical to maintaining compliance with our existing 
emission laws and to assuring the nation maintains a flexible portfolio 
of energy supply options. By 2010, about 10 percent of plants will 
reach the end of their operating lifetimes, about 50 percent by 2020, 
and the remainder by 2030. Re-licensing and extending operations for 
these plants for another 20 years can have a dramatic impact on 
sustaining generating capacity, with the added benefit of offsetting 
carbon emissions from other sources. Without re-licensing, we face a 
significant decrease in capacity and dramatic increases in emissions in 
the near term. With the right strategies by government and industry, 
these plants can continue to operate safely, reliably, and efficiently 
well into the next century.
    As you know, in the 1980's and 1990's, Congress funded nuclear 
energy research that the Department cost-shared with industry to 
develop the advanced light water reactors, a program established to 
ensure the viability of nuclear energy and to advance energy security 
and diversity in the 21st century. Today, three vendors have brought 
two ``evolutionary'' designs and one ``passive design'' technology to 
commercialization, with the first two advanced boiling water reactors 
in operation today overseas. In November, I visited the Kashiwazaki 
Kariwa Nuclear Power Station, where the first General Electric Advanced 
Boiling Water Reactors are operating. An impressive sight, this is the 
world's largest nuclear power station, with seven units supplying about 
23 percent of Tokyo Electric's total capacity. In addition, the two GE 
boiling water reactors represent today's state-of-the-art technology.
[GRAPHIC] [TIFF OMITTED] T10AP13.001

    Today, with the completion of the advanced reactor design program, 
our R&D initiatives are focused on two primary areas:
  --The Nuclear Energy Research Initiative (NERI), a new program funded 
        in fiscal year 1999 by the Congress at a level of $19 million, 
        aimed at reducing the barriers to the long-term use of nuclear 
        energy at home and abroad. I am pleased to report to you that 
        the response to this program has been exceptional. The 
        Department received 307 proposals for this program, 
        representing over $300 million in potential research. We are 
        not only pleased with the number of proposals, but with the 
        teaming occurring among the laboratories, our universities, and 
        industry and with the innovative ideas coming forward. In 
        fiscal year 2000, we are requesting an increase of this program 
        to $25 million, to continue the important work begun this year 
        and for a modest increase in the number of proposals that can 
        be selected.
  --The Nuclear Energy Plant Optimization (NEPO) program, a new program 
        in fiscal year 2000 to meet our national interest for safe, 
        secure, and reliable access to energy in the 21st century. 
        These plants are significant to our nation's energy portfolio 
        and represent a critical infrastructure that is needed beyond 
        the timeframes under which the existing plants are licensed. 
        This program, aimed at reducing barriers to efficient and safe 
        operation--increasing plant capacity from 71 percent in 1997 to 
        85 percent in 2010 and addressing issues associated with plant 
        aging--would be 50-50 cost-shared with industry through the 
        Electric Power Research Institute, guided by a joint EPRI/DOE 
        strategic plan, and coordinated with the Nuclear Regulatory 
        Commission.
    These initiatives are based on the recognition of a clear 
distinction between the respective roles of government and industry in 
advancing nuclear technology in the 21st century. Industry must 
continue to carry the burden of short term research and they are 
meeting this challenge very well with an investment well in excess of 
$100 million annually. On the other hand, there is a clear role for the 
Department in providing for the longer term research of initiatives 
such as NERI and working with industry to fill the void on intermediate 
term research--research equally needed to protect our critical energy 
supply infrastructure.
                    developing department of energy
                     mission critical technologies
    For well over 50 years, we have been developing, producing, and 
delivering hundreds of types of stable and radioactive isotopes for 
research, industrial applications, and for medicine. The dramatic 
advancements made in nuclear medicine during the second half of this 
century are, in large part, because the Department and its predecessors 
had the foresight to pursue development of isotopes as a mission that 
was ancillary to other historical missions of the Department.
    In medicine alone, the application of stable and radioactive 
isotopes for research, diagnosis, and therapies is an indispensable and 
growing component of our health care. Isotopes reduce health care costs 
and improve the quality of patient care. Each day, 40,000 patients 
benefit from isotope-based medical imaging techniques. In industry, 
isotopes are used for a multitude of applications, ranging from 
radiography, to sterilization of medical instruments, to lasers and 
smoke detectors. The NERAC projects that demand for medical isotopes 
can be expected to increase between 8 and 17 percent per year over the 
next 20 years.
    Today, and in the future, our mission remains focused on bringing 
new and improved isotope applications, products, and services to the 
American people for use in medicine, industry, and research and on 
assuring that a reliable supply of isotopes exists for the nation. This 
program operates with a revolving fund, with about two-thirds derived 
from federal appropriations and one-third from annual sales. It is our 
policy to aggressively pursue opportunities for private sector 
involvement in production, distribution, and sales of isotopes, 
particularly commercial isotopes, and we have successfully privatized 
several key operations, which previously had required a federal 
appropriation. These privatizations allow us to decrease our cost of 
operations while providing a revenue stream from the royalties derived 
from the privatization.
    In the last two years, we completed two important privatizations--
one, of hot cell facilities for production and processing of iridium-
192 and other isotopes in Idaho and another, of a technology developed 
and patented by the Department for production of a promising new cancer 
isotope, yttrium-90, derived from strontium left over from weapons 
production at Hanford. Although each of these privatizations were 
different, both are examples of DOE doing what it does best--developing 
an isotope for treatment of devastating illnesses or for other 
applications--and industry doing what they do best--bringing the 
product to market with no additional cost to the taxpayer.
[GRAPHIC] [TIFF OMITTED] T10AP13.002

    In fiscal year 2000, we are requesting funding to continue the 
construction of the beam spur at the Los Alamos Neutron Science Center 
(LANSCE) facility so that it can be accomplished while the facility is 
in an outage and can come on line in fiscal year 2001 with no 
significant interruption in the supply of isotopes. The beam spur 
enables us to continue to provide vital short lived isotopes that can 
only be produced in an accelerator of this size.
    By the end of this fiscal year, modifications to the Annular Core 
Research Reactor and associated Hot Cell Facilities at Sandia National 
Laboratories will be completed and the facilities will be ready for 
private sector use as a backup source of molybdenum-99, a precursor 
isotope to the most widely used diagnostic imaging isotope, technetium-
99m . With this accomplishment, the goal of achieving the capacity for 
an emergency backup supply will be met and no appropriation in fiscal 
year 2000 is requested.
    Lastly, we propose to launch the Advanced Nuclear Medicine 
Initiative, a new program for fiscal year 2000, to apply the 
Department's unique expertise and capabilities in isotopes to advance 
nuclear medicine technology. This initiative will sponsor nuclear 
medical science through university scholarships and internships in 
nuclear medicine and support peer-reviewed research including use of 
the Department's large inventory of alpha-emitting isotopes available 
from DOE to fight a spectrum of illnesses, including various types of 
cancer. This initiative responds to a need not currently addressed by 
existing Departmental programs.
    Additionally, we will continue to provide safe, proven, reliable, 
maintenance-free radioisotope power systems for use in deep space and 
national security applications as we have for 38 years. In 1997, the 
National Aeronautics and Space Administration (NASA) launched the 
Cassini spacecraft to Saturn using electric power from radioisotope 
thermoelectric generators provided by the Department. Previous NASA 
space exploration missions that have used radioisotope power systems 
include the Apollo lunar module and the Pioneer, Viking, Voyager, 
Galileo and Ulysses, Cassini and Mars Pathfinder spacecrafts.
    Future NASA missions will require even lighter, lower power 
systems, more efficient energy conversion, and new materials. Efforts 
are underway to meet this requirement by developing an Advanced 
Radioisotope Power System that uses a new technology. In fiscal year 
2000, the program will complete fabrication and initiate testing of 
module units of this technology, proceed to design and fabrication of a 
full-scale qualification unit. In fiscal year 2000, we will continue to 
develop the state-of-the-art power supplies that could cover a range of 
power levels required to support future NASA space missions. These 
technologies include advanced conversion concepts, new materials, and 
heat source technologies. Potential new NASA missions over the next six 
to eight years requiring radioisotope power systems include missions to 
Mars, Europa, and Pluto and the Solar Probe mission to the Sun.
    Because our supply of plutonium-238 used in these systems will be 
exhausted in the first half of the next decade, we are conducting an 
environmental impact analysis. The EIS on re-establishing a plutonium-
238 production capability will be completed early in fiscal year 2000. 
Facilities at Oak Ridge, Idaho, and Hanford are currently being 
evaluated and the Department has also sought expressions of interest 
from the private sector for irradiation services. Additionally, we are 
currently evaluating whether assembly and test operations performed at 
the Mound Site should remain at Mound or should be transferred to 
another site.
                    developing department of energy
 maintaining vital nuclear research facilities and supporting a strong 
                       educational infrastructure
    Government, industry, and academia alike face similar challenges 
today as we seek to sustain our critical nuclear science and technology 
infrastructures--our facilities and our human resources. Like much of 
the industrial base which took shape during and in the years following 
World War II, the nuclear industry is a mature industry, comprised of 
scientists and engineers, many of whom are currently retiring or will 
retire over the next decade. Along with this, our nuclear science and 
engineering programs at universities and colleges are challenged by 
declining enrollments and aging facilities. The Department as well 
faces these same challenges to our own workforce and our own 
facilities.
    Inextricably linked with our R&D programs are our initiatives to 
arrest the eroding nuclear energy infrastructure. Opportunities for new 
and exciting R&D serves not just to advance breakthrough technologies 
for the American people, but serves to attract the best and brightest 
to our universities, our laboratories, and our industry in general. To 
strengthen our knowledge base, in fiscal year 2000 we propose to apply 
a total of $11.3 million to enhance nuclear research and education 
programs at universities and colleges across the country. This 
Committee has been a strong proponent for this program and we have seen 
it grow over the last several years. I am pleased to submit it again at 
about the level you appropriated last year. I am also pleased to 
include in it, the Nuclear Engineering Education Research (NEER) 
program, vital to attracting and retaining faculty, at the same level 
as appropriated last year. These initiatives under the university 
programs will help ensure the future ability of the U.S. to continue to 
apply the nuclear sciences to medical research, the development of new 
materials, and future environmental and energy challenges.
    To strengthen the infrastructure at our universities and ensure 
that university research reactors are available into the next decade, 
we are proposing a modest increase in the program in fiscal year 2000 
to assist in the maintenance and modernization of university research 
reactors by replacing outdated equipment and upgrading experimental 
capabilities under the reactor upgrade activity. University research 
reactors are a little-known but essential part of the nation's 
scientific infrastructure. Currently, there are 28 university research 
reactors at 26 universities in 21 states. These research reactors have 
contributed to innumerable important scientific discoveries ranging for 
analysis of moon rocks to dating of dinosaur bones, to new methods of 
targeting and destroying rare brain tumors. Quoting John Bernard from 
the Massachusetts Institute of Technology, ``the public thinks they are 
all producing electricity, but these research reactors are much like a 
microscope. You're producing a beam of neutrons to see the world.''
    In the 1990's the Department concentrated the responsibility for 
management of the Department's reactors in the Office of Nuclear 
Energy, Science and Technology, where the core of the U.S. government's 
expertise in nuclear energy research, technology and engineering 
resides. Among the reactors under our purview are the High Flux Isotope 
Reactor, the High Beam Flux Reactor, our Annular Core Research Reactor, 
the Advanced Test Reactor (ATR), and the Fast Flux Test Facility. We 
also serve as landlord for the Test Reactor Area site at Idaho National 
Engineering and Environmental Laboratory, where the ATR is located, and 
where we are responsible for providing utility services and maintaining 
the site area in a safe and environmentally compliant configuration. As 
many of you know, there was an accident last year at the TRA during a 
maintenance operation at a facility occupied by another DOE program in 
which carbon dioxide inadvertently discharged from a fire suppression 
system. The accident caused one death and several life-threatening 
illnesses. I want to underscore the sincere regret expressed by 
Secretary Richardson when he said, ``our hearts go out to the family 
and friends of Kerry Austin.'' This is an accident that never should 
have happened and I pledge that the Office of Nuclear Energy, Science 
and Technology will work hard to ensure that safety remains at the 
forefront of all of our activities.
[GRAPHIC] [TIFF OMITTED] T10AP13.003

    My office is also responsible for the Fast Flux Test Facility 
(FFTF), the most recently deployed reactor in the Department, operating 
between 1982 and 1992. Today, it is shutdown and maintained in standby 
and this spring Secretary Richardson will decide whether to shut it 
down permanently or pursue civilian missions for the reactor. To 
provide a more informed decision, NERAC will complete this month, the 
Nuclear Science and Technology Infrastructure Roadmap, to assess our 
present and future requirements for neutron generating facilities in 
light of our existing and currently planned infrastructure of hot 
cells, accelerators and reactors. This roadmap will include 
recommendations on whether there is a future need for FFTF to meet 
mission critical requirements.
                   securing our environmental future
    The Department is responsible for safe storage and disposal of 
approximately 8,000 tons of spent nuclear fuel containing about 2,700 
metric tons of uranium and transuranic elements from various civilian 
and defense-related programs. Some of this fuel contains materials that 
are highly reactive or are in a condition that precludes their disposal 
in a geologic repository. A technology which may someday assist the 
Department in dealing with this spent fuel challenge is the 
electrometallurgical treatment technology under development at Argonne 
National Laboratory (ANL). The demonstration of this technology will be 
completed this August on a portion of sodium-bearing spent fuel removed 
from the Experimental Breeder Reactor-II (EBR-II) located at ANLWest in 
Idaho. In fiscal year 2000, we expect to complete an Environmental 
Impact Statement on the use of this technology for the remaining EBR-II 
spent fuel as well as certain other spent fuels. In concert with this, 
we expect the National Research Council to report back to the 
Department in that same time frame with their final assessment of the 
technology. Together, these activities will provide the technical basis 
for a decision on whether to proceed with full scale operations of the 
Fuel Conditioning Facility and treatment of the fuel.
    Additionally, we will complete the processing of the sodium coolant 
from the EBR-II and Fermi-I reactors in fiscal year 2000, enabling us 
to shut down the last of the EBR-II facilities, with the exception of 
the Fuel Conditioning Facility, used for the demonstration project. It 
will be retained in standby pending a decision on treatment of the 
remaining sodium bonded fuel.
    My office is also responsible for important activities related to 
the Federal uranium enrichment program that were not transferred to 
USEC, Inc. when it was privatized in July 1998, including, sale of 
surplus natural assay uranium and management of the about 57,000 14-ton 
depleted uranium hexafluoride cylinders located at the gaseous 
diffusion sites in Paducah, Kentucky; Portsmouth, Ohio; and the Oak 
Ridge Site in Tennessee. For the past several years, we have worked to 
improve storage conditions for the cylinders through inspections, 
maintenance, and monitoring. As required by Public Law 105-204, signed 
by the President last July, the Department is required to prepare a 
plan to begin by January 31, 2004, construction of plants at Portsmouth 
and Paducah to treat and recycle the depleted UF<INF>6</INF> inventory. 
The initial plan was submitted to this Committee on March 12, 1999. The 
final plan will be submitted in May and we are confident it will meet 
the intent expressed by Congress in the enacted legislation.
    Mr. Chairman, Nuclear Energy's fiscal year 2000 funding request is 
outlined in the following table:

                            Budget Authority

                         [Dollars in Thousands]

        Program Element Request                         Fiscal year 2000

Nuclear Energy R&D............................................   $87,345
                    ==============================================================
                    ____________________________________________________
    Advanced Radioisotope Power Systems.......................    37,000
    Test Reactor Area.........................................     9,000
    University Reactor Fuel Assistance and Support............    11,345
    Nuclear Energy Research Initiative........................    25,000
    Nuclear Energy Plant Optimization.........................     5,000
                    --------------------------------------------------------------
                    ____________________________________________________

Isotope Support...............................................    21,000
Termination Costs.............................................    65,000
Fast Flux Test Facility.......................................    30,000
Uranium Programs..............................................    41,000
Program Direction.............................................    24,960
                    --------------------------------------------------------------
                    ____________________________________________________

      Total nuclear energy, science and technology request....  $269,305

    I will now provide the Committee with greater detail regarding the 
importance of our programs and the benefits they provide.
             nuclear energy research and development (r&d)
    The mission of the Nuclear Energy R&D program is to conduct 
advanced research and development in areas such as nuclear power and 
space power systems. In addition, this program supports nuclear 
engineering education and enhancement of the Nation's nuclear science 
infrastructure. It also supports the infrastructure needs for the Test 
Reactor Area at the Idaho National Engineering and Environmental 
Laboratory (INEEL).
                  advanced radioisotope power systems
    The Department of Energy and its predecessor agencies have provided 
radioisotope power systems for use in space and terrestrial 
applications for 38 years. These systems are safe, proven, reliable, 
maintenance-free, and capable of producing either heat or electricity 
for many years under the conditions required for deep space and 
national security missions. The unique characteristics of these systems 
make them especially suited for applications where large arrays of 
solar cells or batteries are not practical, for example, at large 
distances from the sun where there is little sunlight or in harsh 
environments. To date, the Department has provided over 40 radioisotope 
power systems for use on a total of 25 spacecraft. In fiscal year 1998, 
NASA launched the Cassini spacecraft to Saturn, entirely electrically 
powered by three radioisotope thermoelectric generators provided by the 
Department. Critical national security activities and NASA missions to 
explore deep space and the surfaces of planets could not occur without 
these systems.
    In fiscal year 2000, the program will continue developing new, 
state-of-the-art power supplies required to support both future NASA 
space exploration, such as a mission to Jupiter's moon Europa, a 
mission to Pluto, and the Solar Probe mission to the Sun, and national 
security applications. In keeping with NASA's new philosophy of 
smaller, lighter weight and more technologically advanced spacecraft, 
these future NASA missions will require lower power, highly efficient 
lighter radioisotope power systems. In fiscal year 1998, DOE initiated 
the development of the next generation radioisotope power system, using 
a more efficient energy conversion technology to achieve a lighter 
weight, more efficient power system. In fiscal year 2000, the focus 
will be completing the design of the new system and proceeding to 
fabricate a flight qualification unit to more accurately assess its 
performance against NASA needs.
    The outyear planning for future space missions reflects 
arrangements with the national security users and NASA that the 
Department will sustain the facility infrastructure to produce 
radioisotope power systems. This infrastructure represents the sole 
national capability to produce radioisotope systems. In accordance with 
arrangements with our customer agencies, NASA or other users will 
provide funds to the Department to pay for mission-specific costs, 
including mission-specific development, hardware fabrication, and other 
mission support costs.
    A key factor in the ability to provide radioisotope systems for 
future missions is to have an adequate supply of the radioisotope Pu-
238 that is used in all of these systems. It is very important to note 
that Pu-238 is not weapons-grade material and is not usable as an 
explosive in nuclear weapons. The current inventory of this isotope, 
with the exception of approximately nine kilograms that were purchased 
from Russia, was produced in the Savannah River reactors and processed 
in the HB-Line facilities that are shutdown or are in the process of 
being shut down. For the long-term, the Department has initiated an 
environmental analysis to evaluate sites for supporting domestic 
production of Pu-238. Sites to be evaluated include DOE's Hanford Site, 
the INEEL, and the Oak Ridge National Laboratory.
    The Department is currently analyzing whether the assembly and test 
operations performed in Building 50 at Mound should be retained at the 
Mound Site or whether the functions should be moved to another site. As 
you know, this site is being environmentally restored by DOE's Office 
of Environmental Management and they plan to turn the site over to the 
private sector and exit the site in 2005. In general, it is the 
Department's policy to reduce our footprint where it can be 
demonstrated to produce a savings for the taxpayer and we are currently 
reassessing the cost involved in retaining operations at Mound versus 
costs of consolidating at other sites. In the meantime, progress on the 
environmental impact statement, begun this fiscal year, will continue 
at a slower pace until we complete this important assessment.
    The Advanced Radioisotope Power Systems Program is an important 
part of the nuclear energy research and development efforts, and the 
Department will continue to manage this program in an effective and 
cost-efficient manner. We are submitting a report to Congress 
summarizing the status of actions taken to streamline the program. In 
conjunction with the user agencies, the Department will responsibly 
maintain the capability to supply these systems for future missions 
that are important to the exploration of space and vital to U.S. 
national security interests.
                       test reactor area landlord
    The Office of Nuclear Energy, Science and Technology is responsible 
for the landlord program for the Test Reactor Area of the INEEL. The 
TRA Landlord Program provides essential services to the Advanced Test 
Reactor (ATR) and its related facilities, including the ATR Critical 
Facility reactor, the TRA Hot Cells that were recently privatized for 
isotope production, and the INEEL Applied Engineering and Development 
Laboratories, as well as a machine shop that supports the entire site. 
These facilities are operated primarily to support vital nuclear 
reactor testing and materials testing for the Office of Naval Reactors, 
but are also operated for other programs, including our isotope 
program. This area of the site is expected to continue to perform 
national security and civilian missions well into the 21st century. As 
such, we must protect this critical infrastructure--maintaining 
facilities and services at a level that ensures protection of the 
workers and the public, the environment and minimizes programmatic 
disruptions.
    In fiscal year 2000, we are requesting $9 million for the landlord 
program, a $2.3 million increase over last year. Most of the increase 
is directed to ensuring that we meet commitments in managing our legacy 
waste and in continuing the electric utility line item project, which 
will be completed in 2003. The electrical utility project reconfigures 
the 40 year old electrical utility system to meet current needs and 
replace aged switchgear, panels, and transformers for which replacement 
parts are not available or which have reached the end of their useful 
lifetime and are not economical to repair. Additionally, we will 
continue the fire protection upgrade line item in fiscal year 2000, at 
a lower level than previous years, and then with a slightly increased 
level of effort the following year to bring it to completion. The fire 
protection line item was initiated several years ago to retrofit 
existing facilities to meet provisions of the National Fire Protection 
Agency's Life Safety Code and provide an adequate level of protection, 
as needed, for building occupancy. We feel that this project is 
particularly important in light of the suppression system- related 
accident that occurred last year in this area of the site.
                   nuclear energy research initiative
    World leadership in nuclear science and technology is vital to the 
United States from the perspective of national security, international 
influence, and global security. The United States has more nuclear 
power plants in operation today than any other nation in the world and 
most of the world's operating nuclear power plants are based on United 
States technology. Many countries, especially the fast-growing 
economies in Asia and the Pacific Rim, are interested in building new 
plants using our designs. Given the projected growth in global 
electrical energy demand as developing nations industrialize, our vital 
strategic interests in addressing global climate change, nuclear 
nonproliferation, nuclear safety, and economic competitiveness, and our 
need to satisfy the growing domestic needs for energy in an 
environmentally responsible manner, the United States must maintain its 
scientific and technological leadership in nuclear energy.
    Recognizing this need, the PCAST Panel on Federal Energy Research 
and Development recommended in 1997 that the Department establish a new 
nuclear energy research effort to address the key issues affecting 
nuclear energy's potential as a future energy source. The key issues 
affecting nuclear energy's future include disposal of spent fuel, 
concerns about nuclear proliferation, plant safety and uncompetitive 
economics. PCAST recommendations are that the Department competitively 
select, through a peer-review process, proposals from universities, 
national laboratories and industry to conduct scientific and 
engineering research in the areas of proliferation-resistant reactors 
and fuel cycles; new reactor designs with higher efficiency, lower 
cost, and improved safety; lower output reactors for use in the global 
market; and new techniques for the management and storage of nuclear 
waste.
    The Department's Office of Nuclear Energy, Science and Technology 
implemented the PCAST recommendations in fiscal year 1999 by 
establishing the Nuclear Energy Research Initiative (NERI) to fund new 
and innovative scientific and engineering research on these key issues 
and to preserve our nation's nuclear science and technology leadership. 
The initiative has as its primary mission the advancement of nuclear 
science and engineering research over the long-term.
    We are very pleased with the response to the NERI program. The 
Department received 307 final proposals from national laboratories, 
universities, and industry, representing over $300 million in potential 
research. Additionally, a significant fraction of the proposals 
submitted by the national laboratories included teaming with 
universities and others. These individual and collaborative research 
proposals are being peer-reviewed by independent experts for scientific 
and technical merit and will be evaluated for relevance to the 
Department's nuclear energy objectives prior to funding selection. The 
process by which grants are awarded under NERI is modeled after other 
successful investigator-initiated independent peer review processes, 
such as those used by the National Science Foundation and DOE's Office 
of Science. As with all of the nuclear research programs, the NERI will 
receive guidance from the Nuclear Energy Research Advisory Committee.
    The Department strongly supports the continuation of this vital 
scientific and engineering research effort in fiscal year 2000 and we 
request $25 million for this program, an increase of $6 million over 
fiscal year 1999 to continue important research begun this year and to 
award a modest number of new proposals in fiscal year 2000. In doing 
so, we seek to address key obstacles affecting the expanded future use 
of nuclear energy in the U.S.; advance the state of nuclear technology 
to maintain our competitive position in overseas and future domestic 
markets; promote and maintain nuclear science and engineering 
capabilities to meet future technical challenges; and improve the 
performance, efficiency, proliferation resistance, reliability, and 
economics of nuclear energy applications.
               nuclear energy plant optimization program
    Over the last couple of years, there have been significant changes 
in the strategic landscape--a growing recognition of the importance 
that our existing nuclear power plants play in meeting the needs of the 
nation for electricity during the first half of the next century and 
their importance in meeting international commitments on climate 
change. These plants are also critical to helping utilities meet state 
implementation plans and EPA requirements for Clean Air Act compliance.
    Two years ago, with electricity restructuring looming and concerns 
over regulatory uncertainty, the prediction was that the existing 
nuclear plants were doomed--that fewer plants would seek license 
extensions and that many would shut down prematurely. Today, with 
consolidations in ownership occurring and several plants announcing 
their intention to seek license extensions, it is clear that there is a 
future for many of the U.S. nuclear power plants. However, for these 
plants to remain viable beyond 2020, both government and industry must 
take action--government reducing regulatory and other barriers to 
operation and industry, investing capital in the upgrading their 
facilities for the future and investing in short-term R&D. Also, 
together, government and industry should explore intermediate-term 
evolutionary technologies to sustain these plants. For these reasons, 
the Department is resubmitting its proposal for the Nuclear Energy 
Plant Optimization (NEPO) program in fiscal year 2000 to address the 
issues that could prevent continued operation of existing U.S. nuclear 
power plants.
    The DOE Energy Information Administration projects that even with 
aggressive energy efficiency measures, U.S. electricity consumption 
will increase 1.4 percent per year through 2020 the equivalent of seven 
large 1000-megawatt power plants each year. During this same period, 
about 127,000 megawatts of existing electricity generating capacity 
could be retired because of age, competitive pressures, and as part of 
U.S. utility measures to meet clean air standards. In order to meet the 
demand for new baseload capacity, the Energy Information Agency 
estimates that the U.S. would need to build the equivalent of over 
1,000 new fossil plants by 2020. This magnitude of building would 
require a huge economic investment over the next 20 years with the 
potential for significant increases in air emissions.
    However, continued operation of our existing nuclear power plants 
can mitigate this need and dramatically reduce or offset air emissions. 
For example, continued operation of 90 percent of the existing nuclear 
power plants through their current license terms would displace over 
3,950 million metric tons of carbon emissions between 1995 and 2035. 
Extending the licenses of 75 percent of these nuclear plants could 
reduce emissions by 64 million metric tons between 1995 and 2010, 208 
million metric tons by 2015, and 2260 million metric tons by the middle 
of the next century, when the last existing plant would shutdown.
    The Department's Nuclear Energy Plant Optimization (NEPO) program 
is proposed to address issues associated with operating existing 
nuclear power plants, in cost-shared cooperation with the Electric 
Power Research Institute (EPRI) and in coordination with the Nuclear 
Regulatory Commission. As a collaborative program, industry would share 
a minimum of 50 percent of the cost and the program would be guided by 
a joint DOE/EPRI strategic plan. The proposed program would involve the 
nation's national laboratories, universities, and industry and although 
no federal research dollars would be allocated internationally, the 
program would benefit from substantial international collaboration and 
coordination.
    Specifically, we propose the following R&D initiatives:
    Managing the long-term effects of nuclear plant aging.--R&D 
conducted under NEPO would provide a better understanding of material 
degradation mechanisms and how they occur, enabling development of 
cost-effective aging management strategies which will provide 
capabilities to easily prevent, detect, or repair the degradation.
    Improving nuclear power plant capacity factors from 71 percent in 
1997 to 85 percent in 2010.--This initiative focuses on improving the 
long-term economic performance of current plants through development of 
technologies that will improve equipment reliability, lower operating 
costs, and increase power output while maintaining high levels of 
safety.
    Optimizing power generation through efficiency and productivity 
improvements.--Current nuclear plants were designed and are operating 
with technology developed over 25 years ago. As plants age, components 
and parts degrade or become obsolete, introducing inefficiencies, added 
costs, and unreliability. There have been significant technology 
advancements over the last 25 years that are applicable to power 
generation, particularly in computers, communications, materials, 
sensors and digital electronics, and artificial intelligence that 
provide more accurate, reliable and cost-effective technologies; 
however, most of these technologies are not qualified to meet Nuclear 
Regulatory Commission requirements. Further R&D developments will 
produce new technology applications that meet regulatory requirements 
and that will improve plant operation and maintenance, increasing 
overall plant output. This initiative is focused on demonstrations of 
technologies necessary to achieve regulatory acceptance of the new 
technologies.
    Research performed under this program would be prioritized by the 
NERAC subcommittee on operating nuclear power plant research, 
coordination and planning.
             university reactor fuel assistance and support
    The Department of Energy's University Nuclear Science and Reactor 
Support Program conducts the important task of supporting nuclear 
science education and research in the United States. Under this 
program, we work with universities and colleges across the nation, with 
assistance from private industry, to maintain nuclear education 
programs, support outstanding students, undertake innovative nuclear 
engineering research, and continue the operation of research reactors. 
Much of the program funding is used to provide fresh fuel to these 
reactors, to remove spent fuel, and to upgrade the operational 
capabilities at the university research reactors at 26 universities in 
21 states.
    To ensure that these valuable educational tools remain available 
into the next decade, in fiscal year 2000, for the third straight year 
we plan to support U.S. universities and colleges in their efforts to 
modernize reactor safety systems and improve their operational 
capabilities. These reactors are critical and unique assets of the U.S. 
scientific infrastructure. They are used for educational purposes, to 
conduct important medical and materials research, and to make vital 
isotopes. In fiscal year 2000, we will continue to supply fresh fuel 
to, and transport spent fuel from, universities requiring assistance. 
In addition, we will continue converting university reactors that 
currently use highly enriched uranium fuel to low enriched uranium 
fuel, thus advancing our nonproliferation goals. Additionally, through 
our reactor sharing program we will provide a means for students at 
universities without reactors to have access to another university's 
reactor for education, training, and research purposes.
    We will continue the very important and successful Nuclear 
Engineering Education Research grants initiative that provides much 
needed funding to faculty for innovative research at universities at 
the same level of funding you appropriated in fiscal year 1999. This 
program is vital to the research needs of the U.S. universities' 
nuclear engineering departments and, in particular, to attracting and 
retaining faculty.
    We plan to maintain our growing number of partnerships with the 
electric utility industry and other private sector entities by 
providing research grants to universities that receive similar 
commitments from the utilities and private companies. As in the past, 
we intend to provide funding equal to the amount contributed by private 
organizations, to a maximum of $50,000 in Department of Energy grants 
per university. In fiscal year 2000, we expect to fund $800,000 in 
grants to 17 universities that will be matched by participating 
companies.
    We also plan to continue our support of scholarships for 
outstanding students in undergraduate and graduate nuclear engineering 
and health physics programs at our universities and colleges, including 
fellowships for outstanding students at our minority institutions. 
These fellowships and scholarships provide for the education of 
approximately 18 outstanding graduate engineering students across the 
country and approximately 62 undergraduate students. We will continue 
an initiative, begun in fiscal year 1999, which provides practicums at 
national laboratories for 30 undergraduates in their junior or senior 
year, thus giving them valuable real-world experience in nuclear 
engineering. In fiscal year 2000, we will begin an initiative to 
support nuclear engineering recruitment activities in conjunction with 
professional societies to ensure a highly informed group of college 
freshmen enter university nuclear engineering and related scientific 
courses of study. Also, we will continue a radiochemistry initiative 
begun this year to help educate a new generation of radiochemists, 
prepared to address the technical challenges associated with operating 
nuclear plants.
                            isotope support
    Our isotope program develops, produces, sells, leases, and ships 
hundreds of different stable and radioactive isotopes for medical 
applications, scientific research, and commercial use throughout the 
United States and to approximately 25 other countries. Consistent with 
our mandate in the Atomic Energy Act of 1954, it is our longstanding 
policy to produce isotopes when no domestic or private sector 
capability exists; where unique government production facilities are 
needed, such as nuclear reactors and isotope enrichment facilities; or 
where other productive capacity is insufficient to meet the Nation's 
needs. Over the last several years, we have aggressively pursued 
private sector investment in new isotope production ventures and in 
fiscal year 2000, we will complete privatization of our commercial 
isotope production activities, including privatization of our business 
functions. In instances where the private sector can produce isotopes 
more efficiently than the government, we will sell, lease, or license 
existing facilities, technologies and inventories for commercial 
purposes.
    The isotope program operates with a revolving fund and maintains 
financial viability through revenues from sales and annual 
appropriations. We function like a business, and as such, must have 
sufficient operating cash to fill customer orders and maintain solvency 
during market changes. Our fiscal year 2000 budget request, which funds 
about two-thirds of the program, will provide the minimum necessary 
operating cash. The revolving fund is audited annually by an 
independent public accounting firm, KPMG Peat Marwick, and since the 
first audit in 1992, the isotope program has continuously received an 
unqualified opinion which states that the financial statements are 
presented fairly in all material respects. The audited financial 
statements are an essential management tool for the Isotope Program.
    Although we are not obligated to provide all isotopes requested, we 
strive to meet our customers' requests subject to inventory, production 
capability, and financial constraints. This fiscal year, to obtain a 
better understanding of our customers' requirements, a panel of medical 
experts convened to develop a consensus on the growth of demand for 
medical isotopes between now and the year 2020 and to identify future 
support the Department of Energy will need to provide to the nuclear 
medical community. The panel's report has been accepted by NERAC as the 
basis for its development of a long-term isotope research and 
development plan. The report indicates that the need for medical 
isotopes used in diagnostics, therapy, and research will increase 
between 8 and 17 percent per year over the next 20 years. Although the 
cost of meeting this demand is not insignificant, it is a fraction of 
that which would be saved in health care costs by the use of isotopes 
for diagnosis and treatment.
    The isotope program has negotiated a number of cooperative 
arrangements with foreign suppliers, to assure an uninterruptible 
supply of isotopes in the U.S. For example, in 1997 we completed a 
cooperative production agreement with the Institute for Nuclear 
Research (INR) in Troitsk, Russia, for production of strontium-82, 
which was followed by FDA qualification of the Russian strontium-82 in 
1998. This agreement resulted in the supply of material to Los Alamos 
for chemical processing and eventual distribution to hospitals at a 
time in which no large accelerator, necessary for strontium-82 
production, was operating in the U.S. We are making similar cooperative 
efforts for reactor-produced isotopes.
    Because until recently the United States was dependent on a single 
supplier of molybdenum-99, a major initiative of the past several years 
has been to bring our facilities at Sandia National Laboratories--the 
Annular Core Research Reactor (ACRR) and associated Hot Cells to the 
point that emergency production of this important medical isotope could 
be established if needed. molybdenum-99 is a precursor of technetium-
99m, an isotope used for diagnostic imaging, including body organ 
functions, in more than 36,000 medical procedures each day in the 
United States alone. This isotope allows physicians to accurately 
diagnose cancer and other diseases without resorting to exploratory 
surgery. Substantial modifications have been undertaken at these 
facilities to ensure a stable production source that is capable of 
meeting part or all of the U.S. demand is available if needed. 
Modifications will be completed to both the ACRR and Hot Cell Facility 
this year that will place them in a condition where emergency 
production of molybdenum-99 could be constituted if needed. The demand 
for molybdenum-99 continues to grow due to the application of this 
cost-saving diagnostic technique, thus making it attractive to 
privatization. For this reason, we are pursuing privatization of 
molybdenum-99 production and related business activities. A draft 
Request for Proposal (RFP) will be issued this month, followed by the 
final RFP in May 1999, with a contract award anticipated by the end of 
the fiscal year.
    Our fiscal year 2000 request includes funding for relocation of the 
Los Alamos isotope target irradiation station at the Los Alamos Neutron 
Science Center (LANSCE), a facility owned by and operated primarily for 
the Office of Defense Programs. Because of the research community's 
identified year-round need for short-lived radioisotopes that can only 
be produced in a large accelerator, we are continuing the modifications 
to the LANSCE facility to construct a beam spur that can be dedicated 
to isotope production. Without this beam spur, the nation will lose the 
ability to make certain isotopes when LANSCE shuts down later this 
year. The total estimated cost for the relocation of the LANSCE target 
irradiation station is $14 million. Conceptual design and planning 
activities for this project began in fiscal year 1998 to support 
construction of the relocated target station and tie into the 
accelerator beam, scheduled to take place in fiscal year 1999, in a 
time-frame dictated by Defense Programs' accelerator maintenance 
schedule. By the end of fiscal year 2000, construction should be 60 
percent complete and with the additional $8 million requested, the new 
station will be completed and commissioned in fiscal year 2001. The 
fiscal year 2000 funding request is essential to minimizing the time 
that the country is unable to produce these isotopes.
    Additionally, the President's fiscal year 2000 request includes a 
recommendation to establish a new program, the Advanced Nuclear 
Medicine Initiative, initially funded at $2.5 million. This initiative 
will apply the Department's unique expertise and capabilities in 
isotopes to advance nuclear medicine technology in the U.S. Under the 
initiative, the Department will sponsor nuclear medical science using a 
peer-review selection process, encourage the training of individuals in 
nuclear medicine methods by establishing scholarships and fellowships 
for nuclear medicine specialists and by sponsoring summer internships 
at appropriate institutions, and initiate a focused program to apply 
alpha-emitting isotopes to fight a spectrum of malignant diseases 
including most common cancers and infectious diseases such as 
meningitis and AIDS.
                           termination costs
    The termination costs program funds the deactivation of the 
Experimental Breeder ReactorII (EBR-II) facility located at Argonne 
National Laboratory-West (ANL-West) in Idaho. The objective of the 
program is to place the EBR-II facility and other surplus facilities at 
ANL-West in a radiologically and industrially safe shutdown condition, 
for low-cost and long-term surveillance and maintenance, pending final 
decontamination and decommissioning. The principle components of this 
program are completing the electrometallurgical treatment demonstration 
project, which will occur this fiscal year; completing processing of 
the sodium coolant from the shutdown reactor, and closing the last of 
the EBR-II facilities.
    The Department is responsible for the safe storage and disposal of 
approximately 8,000 tons of spent nuclear fuel containing about 2,700 
metric tons of uranium and transuranic elements from various civilian 
and defense-related programs. Some of these spent fuels contain 
materials or are in a condition that may preclude their direct disposal 
in a geologic repository. The electrometallurgical treatment technology 
under development at ANL is a technology that has the potential to 
assist the Department in dealing with this spent fuel challenge, a 
challenge which is unique to the Department.
    In particular, this technology may be the best way to deal with the 
sodium-bearing spent fuel removed from EBR-II. This spent fuel contains 
metallic sodium, a material which can cause an explosion when brought 
into contact with water. This spent fuel must be treated if it is ever 
to be relocated to a geologic repository. Under the Consent Agreement 
between the State of Idaho and the Department (Batt Agreement), this 
spent fuel as well as other sodium bonded fuel onsite must be removed 
from the State by 2035. Consequently, this technology may be crucial to 
the Department's success in meeting those obligations. If this 
technology is not successful, new R&D activities will have to be 
initiated to find other alternatives for treating the Department's 
sodium-bonded fuel.
    The Department will complete the electrometallurgical treatment 
demonstration this fiscal year. In fiscal year 2000, the Department 
will complete an environmental impact statement on using this 
technology. In parallel with this, the National Research Council will 
complete their review of the technology and will issue a final report 
to the Department during the first quarter of fiscal year 2000. 
Together, these activities will form the basis for a decision early in 
fiscal year 2000 on whether to proceed with this technology for 
treatment of the rest of the inventory of EBR-II spent fuel as well as 
certain other spent fuels in the Department's inventory.
    In 1994, the Department began the permanent shutdown of EBR-II and 
associated support facilities at ANL-West. During fiscal year 2000, our 
efforts to place these facilities in a radiologically and industrially 
safe shutdown condition will continue. The Sodium Process Facility, 
designed and constructed to convert the highly reactive sodium coolant 
to an environmentally acceptable form suitable for routine disposal, 
will complete its mission in early fiscal year 2000. The facility will 
be placed in a safe configuration, awaiting further deactivation and 
eventual decontamination and decommissioning. With exception of the 
Fuel Conditioning Facility, used for electrometallurgical treatment, 
all facilities will be in a shutdown configuration by the end of fiscal 
year 2000.
                        fast flux test facility
    Nuclear Energy also provides program management and technical 
direction for the Fast Flux Test Facility (FFTF) located at the Hanford 
Reservation in Washington. FFTF is a 400 megawatt thermal, sodium 
cooled reactor that operated between 1982 and 1992. Originally designed 
to provide irradiation testing of nuclear reactor fuels for the U.S. 
liquid metal reactor program, it operated for materials testing for 
fusion, space reactor, and the international fast reactor programs. In 
1992, the Department shut down the facility and placed it in standby, 
pending a decision on using the facility as a bridge for tritium 
production until an accelerator or a commercial light water reactor 
could come on line to produce tritium. In December 1998, Secretary 
Richardson announced that FFTF is not required for tritium production 
or other defense missions. However, the Secretary indicated that he 
will decide, this spring, whether to begin permanent deactivation of 
FFTF or consider using it for other missions, such as medical isotope 
production, plutonium-238 production for space missions, advanced 
materials research, and nuclear energy R&D. If so, the Department would 
initiate an Environmental Impact Statement on the potential restart of 
the facility.
    To provide a more informed decision, the Nuclear Energy Research 
Advisory Committee will complete their evaluation this spring of the 
Nuclear Energy, Science and Technology Infrastructure Roadmap. This 
road map is important not just to assessing the need for FFTF but for 
assessing the existing facilities and capabilities for neutron science 
and isotope production across the Department as well as the needs of 
the Nation over the next 20 years.
    The funding requested in fiscal year 2000 is the absolute minimum 
level required to continue to maintain the facility in a safe condition 
and in compliance with federal and state safety and environmental 
regulations. Neither the fiscal year 1999 appropriated level nor the 
fiscal year 2000 requested levels are sufficient for either option of 
beginning permanent deactivation or pursuing restart for other 
missions. Responsibility for funding FFTF standby activities 
transferred from the Office of Environmental Management to the Office 
of Nuclear Energy, Science and Technology in fiscal year 1999.
                            uranium programs
    The Office of Nuclear Energy, Science and Technology retains 
important government activities related to the Federal uranium 
enrichment program that were not transferred to the United States 
Enrichment Corporation (USEC Inc.). In particular, this program 
addresses the facility and environmental legacies associated with the 
enrichment program, management of government assets, and associated 
research and development.
    One of the principal missions of Uranium Programs activities is to 
effectively manage the Department's depleted uranium hexafluoride 
(depleted UF<INF>6</INF>) inventories. A key responsibility of the 
Department is to ensure that an estimated 46,400 cylinders of depleted 
UF<INF>6</INF> are maintained in an environmentally responsible manner 
by conducting annual cylinder inspections, and developing and 
implementing options to repair cylinders exhibiting accelerated 
corrosion. The Department is currently evaluating alternative long-term 
management strategies for the material. In December 1997, we issued a 
draft programmatic environmental impact statement (EIS) for public 
comment, and we expect to issue the final programmatic EIS and the 
record of decision shortly.
    Maintaining safe cylinder storage in the interim requires 
substantial work, with costs ranging from $12 to $15 million per year. 
Many of these cylinders date back to the Manhattan Project and have 
been in outside storage for up to 50 years. To improve storage 
conditions, one cylinder yard has been reconstructed, and three new 
cylinder yards have been built to date. A pilot cylinder painting 
program has been completed, and 12,000 cylinders are being painted over 
3 years to reduce accelerated corrosion of the cylinders. We are also 
applying advanced technologies to facilitate inspections, detect leaks, 
and evaluate cylinder wall condition.
    In addition to appropriations received for management of DOE-
generated depleted UF<INF>6</INF>, the Department received $66 million 
in fiscal year 1998 from the United States Enrichment Corporation (USEC 
Inc.) for the management and disposition of about 11,200 additional 
USEC-generated depleted uranium cylinders. In accordance with fiscal 
year 1999 appropriations report language, the Department submitted, on 
December 17, 1998, its initial plan for applying the $66 million 
received from USEC. These funds are administered in accordance with the 
terms of the two Memoranda of Agreement (MOAs) and related 
correspondence for activities required to accept and maintain the USEC 
material. Also, in July 1998, the President signed Public Law 105-204, 
requiring the Department to prepare a plan to begin by January 31, 
2004, construction of plants at Portsmouth and Paducah to treat and 
recycle the depleted UF<SUP>6</SUP> inventory. The initial plan was 
submitted to this Committee on March 12, 1999. The final plan will be 
submitted in May 1999 and we are confident that it will meet the intent 
expressed by Congress in the enacted legislation. The Department's 
fiscal year 2000 budget requests $5 million to be used in addition to 
the MOA funds to begin activities to begin the process of constructing 
depleted UF<INF>6</INF> conversion plants.
    Other Uranium Programs activities at the gaseous diffusion plants 
in Portsmouth, Ohio; Paducah, Kentucky; and Oak Ridge, Tennessee 
include maintenance of facilities and grounds, cleaning legacy spills 
in the leased areas of the diffusion site consistent with the Federal 
Facilities Compliance Act, and guarding and protecting highly enriched 
uranium stored at the Portsmouth site.
    Since the Department shut down highly enriched uranium production 
at the Portsmouth Plant in 1992, we have been removing the highly 
enriched uranium residues and placing the facility in a safe shutdown 
condition. Progress on the removal of highly enriched uranium has been 
substantial, and all highly enriched uranium oxides not planned for 
transfer to USEC will be removed from the site by the end of fiscal 
year 1999.
    More than 70 facilities at the enrichment plants were not leased by 
USEC, Inc. and remain the responsibility of the Department. As 
landlord, my office maintains these facilities and their associated 
permits and is responsible for completing environmental corrective 
actions. We are also responsible for satisfying financial obligations 
associated with enrichment operations before the transition to USEC, 
Inc. Chief among these obligations is payment of post-retirement life 
and medical benefits to the Department's enrichment plant operating and 
power supply contractors and assisting in litigation involving claims 
against the Department for its prior operations. Lastly, after 
assisting in the transfer of regulatory oversight of the leased 
facilities and obtaining an initial certificate of compliance from the 
Nuclear Regulatory Commission, the Department continues to review and 
update safety documentation as necessary, for the non-leased facilities 
and assist the NRC in preparing annual congressional reports on the 
status of the diffusion plants.
    My office is also responsible for the management and disposition of 
the Department's surplus natural uranium inventories. The Department 
currently has an inventory of approximately 24 million pounds of 
natural uranium, with a total value of about $260 million, that may be 
sold in the commercial market. All of the uranium to be sold under this 
program is currently held at the Portsmouth or Paducah gaseous 
diffusion plants. The USEC Privatization Act and the Energy Policy Act 
allow the Department to sell excess uranium stockpiles subject to 
certain conditions. Before the Department sells any of its excess 
natural uranium, the USEC Privatization Act requires the Secretary to 
determine that `` * * * the sale of the material will not have an 
adverse material impact on the domestic mining, conversion, or 
enrichment industry, taking into account the sales of uranium under the 
U.S./Russian Highly Enriched Uranium (HEU) Agreement and the Russian 
Suspension Agreement * * * ''
    Finally, my office is also responsible for administering the $325 
million authorized in Public Law 105-277 for the purchase of natural 
uranium pursuant to 1997 and 1998 deliveries under the U.S./Russian HEU 
Agreement. The purchase of this material is contingent on the Russian 
and Western uranium suppliers reaching a long-term agreement on 
purchases of the natural uranium component of the low enriched uranium 
delivered under the U.S./Russian Highly Enriched Uranium Purchase 
contract. I understand these negotiations are going very well and an 
agreement may be reached soon.
                           program direction
    In fiscal year 2000, we are requesting $25 million for salaries, 
travel, support services, and other administrative expenses for 144 
Headquarters and Operations Office personnel providing technical 
direction to uranium, isotope support, and other nuclear energy 
programs. This budget item includes management and staff support funded 
by other Department of Energy accounts (e.g., technical direction for 
the operation of the Department's research reactors funded by the 
Office of Energy Research); other Federal agencies; and foreign 
governments. It also funds the activities of the Nuclear Energy 
Research Advisory Committee (NERAC).
    Mr. Chairman, this concludes my prepared statement. I will be happy 
to answer any questions. Again, I look forward to working with you and 
the Subcommittee this year as we examine important questions and issues 
concerning the allocation of federal resources to strengthen our 
universities and colleges, protect our critical infrastructures, bring 
vital isotopes and technology to the American people, support deep 
space and related missions, and meet our important stewardship 
responsibilities. 
[GRAPHIC] [TIFF OMITTED] T10AP13.008

[GRAPHIC] [TIFF OMITTED] T10AP13.010

Nuclear Energy: Essential in Reducing CO<INF>2</INF> Emissions

              [Utility pledges to reduce greenhouse gases]

Improvements to nuclear plants....................................    33
Renewable energy..................................................     4
Methane recovery, foresty and fly ash reuse.......................     9
Improvements to fossil plants.....................................    14
Improved energy efficiency........................................    18
Miscellaneous and uncategorized...................................    22

[GRAPHIC] [TIFF OMITTED] T10AP13.009

                      Importance of nuclear power

    Senator Domenici. Thank you very much.
    I might just say here for the record, I do not see how we 
could have a Department of Energy, and have such little 
emphasis on nuclear power. It borders on being a sham, in my 
opinion, not your fault.
    Clearly, when the Administration puts such emphasis, a 
budget emphasis, on climate change technology initiative, 
departmental cross-cut, it is obvious to me that we have a 
department that wants to be for nuclear, but does not want to 
offend those who are against nuclear.
    Even so this document Climate Control Program which did not 
include any of the old programs, said zero for nuclear 
research, and then said this year it is going up 100 percent. 
Kind of interesting. Anybody looking at it who does not like 
nuclear power would love it.
    They would say, ``Look here, solar and renewable, as a 
climate change initiative has $398 million in the President's 
request, and that bad old nuclear stuff, it has $5 million. So 
we are still keeping it under check. The Department put little 
or no emphasis on nuclear power.'' When you put up charts that 
show in controlling the ozone problem, that one of the biggest 
and most significant contributors is nuclear power, and 
probably will be necessary in the future for us to meet our 
treaty obligations, if we ever do validate it in Kyoto.
    So I do not make any bones about it. I have done enough 
research now on nuclear power, traveled the country enough to 
say, and I am for it, and I believe we are going to miss the 
boat as new technologies arrive which are going to permit 
safer, modular, easy-to-build nuclear power plants. A very 
small group of people can contain the Department of Energy, can 
control it, and indicate that so long as we do all these other 
things they will support the Department, but if you do anything 
in nuclear, then that is the end of the game.
    I have also found, and I want this on the record, and I 
would like Dr. Krebs in particular to hear this, but also you 
Mr. Magwood, I have traveled now and delivered two major 
addresses on this subject, one at Harvard and one at MIT. The 
response from across this country has been overwhelmingly 
positive from those who know how we are falling behind in 
technology of this type. Now, you showed on one of your charts, 
that the rest of the world is not falling behind, and they are 
proceeding, using American ingenuity and American talent. You 
just showed us a super plant in Japan--how long did it take to 
build that plant?
    Mr. Magwood. Just about 4 years.
    Senator Domenici. Four years. Incidentally, for those who 
wonder, they have a high safety record, a marvelous safety 
record in Japan. So 4 years to build it and there is no 
indication that they are cutting corners, it is that they have 
accepted nuclear power as something that is necessary and have 
adjusted their regulatory program accordingly.
    I do not know what other things we are going to find in 
other hearings that might be necessary to move ahead in this 
area. But I assure you, we cannot continue with a policy that 
says let us not offend those who are against nuclear power, 
because they have some power base that is important.
    I think what is important is that we do the right thing, 
and I believe we are moving in that direction in our committee. 
I think whether it be this year or next year, but eventually 
within a very short number of years, the administration will 
come to the reality that you have to move ahead with nuclear 
power if you want to have a clean environment and meet some 
obligations with reference to our contribution to that 
pollution.
    Thanks for permitting me to follow-on on your remarks, and 
now we will go quickly to our testimony on the solar and 
renewable program. I have already complimented you, Mr. 
Reicher, and I want to do that again. I think you have found 
that we were pretty concerned about some of the things they use 
solar and renewable money for. It did not seem to some of us to 
be promoting the future, but rather promoting some 
organizations, and I would appreciate it very much if you would 
tell us about that, but also give us your vision and view, a 
realistic one I hope, with reference to these programs.

                        STATEMENT OF DAN REICHER

    Mr. Reicher. Thank you, Mr. Chairman, and first of all I 
want to thank you for the confidence you have expressed in the 
job we have been doing in the Office of Energy Efficiency and 
Renewable Energy. I am pleased to testify on the Energy and 
Water Development subcommittee portion of that budget. As you 
know, the other portion of the budget comes from the Interior 
subcommittee.

                        program accomplishments

    Mr. Chairman, 20 years ago renewable energy was generally 
produced at a very high cost and in a very inefficient manner, 
and advanced power delivery system components and high-
temperature super conductivity did not even exist. Furthermore, 
the alternative transportation fuel sector was very immature. 
We have come a long, long way in the last two decades. In large 
measure, it is as a result of the support of the Congress and 
the work of many national laboratories.
    The cost of electric power from wind turbines in 1980 
ranged from thirty to forty cents a kilowatt hour, and it has 
dropped as a result of aggressive R&D, to between four and six 
cents a kilowatt hour.
    At this price, wind power systems are entering the 
marketplace, expanding from early California sites, to states 
ranging from Vermont to Alaska, and from Wisconsin to Texas. We 
are also working on the next generation of turbines, which 
would bring the cost of wind power to as low as two-and-a-half 
cents a kilowatt hour by 2002. We are close to 20,000 megawatts 
of wind worldwide, and Mr. Chairman, this chart shows why wind 
is now the fastest growing energy source worldwide. Worldwide 
we have installed the equivalent of scores of fossil fuel 
plants, with more than 2,000 megawatts installed in 1998 alone 
across the globe.
    I am pleased to announce today that the New Mexico Energy 
Office, through our broadbased solicitation has been selected 
for negotiation to evaluate four potential wind sites. We 
anticipate that the negotiations will be completed within the 
next few weeks.

                              photovoltaic

    As another example, Mr. Chairman, the first commercially 
available photovoltaic panels in the early 1980s produced power 
at a cost of one dollar per kilowatt hour. By fiscal year 2000, 
these PV systems will be delivering electricity for as low as 
twelve to twenty cents per kilowatt hour, and in the next 
decade it should drop to below a dime, if we continue adequate 
support, particularly the work at the National Renewable Energy 
Laboratory and Sandia National Lab.
    We now have large PV manufacturing plants in states as 
diverse as Virginia, Maryland, California, Michigan, Delaware, 
and Massachusetts. The solar industry is a fast-growing part of 
the U.S. economy; however, while both domestic PV production 
and U.S. product sales are up, we risk losing our world market 
leadership, having dropped from 44 percent in 1996 to 40 
percent in 1997, to 35 percent in 1998. Our potential loss of 
this growing market is exacerbated by a Japanese PV budget, 
which is three times what we spend in the U.S.
    Senator Domenici. Mr. Reicher, I note that I have to make a 
phone call at 10:30. We will come right back to you in about 
two minutes.
    Mr. Reicher. Thank you, Mr. Chairman.
    [A brief recess was taken.]
    Senator Domenici. The hearing will come to order, please.
    Would you continue, Mr. Reicher?

                           biofuels programs

    Mr. Reicher. Production of ethanol is also on track for 
widespread domestic use at very competitive prices. As you 
know, Mr. Chairman, the use of ethanol is a very effective 
means to reduce our dependence on foreign oil. To compete with 
today's inexpensive gasoline, our biofuels program focuses on 
the development of facilities which make ethanol from 
agricultural and forest waste and from dedicated crops.
    Mr. Chairman, Senator Lugar and former CIA director, James 
Woolsey highlighted the phenomenal potential for waste to 
ethanol production in a recent article in foreign affairs. I 
request that it be entered into the record, and you will find 
it a very interesting discussion of how we can cheaply produce 
ethanol from waste materials.
    Senator Domenici. Very good.
    [The information follows:]

                           The New Petroleum

                [Richard G. Lugar and R. James Woolsey]

                              why change?
    Oil is a magnet for conflict. The problem is simple--everyone needs 
energy, but the sources of the world's transportation fuel are 
concentrated in relatively few countries. Well over two-thirds of the 
world's remaining oil reserves lie in the Middle East (including the 
Caspian basin), leaving the rest of the world dependent on the region's 
collection of predators and vulnerable autocrats. This unwelcome 
dependence keeps U.S. military forces tied to the Persian Gulf, forces 
foreign policy compromises, and sinks many developing nations into 
staggering debt as they struggle to pay for expensive dollar-
denominated oil with lower-priced commodities and agricultural 
products. In addition, oil causes environmental conflict. The 
possibility that greenhouse gases will lead to catastrophic climate 
change is substantially increased by the 40 million barrels of oil 
burned every day by vehicles.
    Ethanol has always provided an alternative to gasoline. In terms of 
environmental impact and fuel efficiency, its advantages over gasoline 
substantially outweigh its few disadvantages. But until now it has only 
been practical to produce ethanol from a tiny portion of plant life--
the edible parts of corn or other feed grains. Corn prices have 
fluctuated around $100 a ton in the last few years, ranging from half 
to double that amount. Ethanol has thus been too expensive to represent 
anything but a small, subsidized niche of the transportation fuel 
market. In spite of recent reductions in the expense of ethanol 
processing, the final product still costs roughly a dollar a gallon, or 
about double today's wholesale price of gasoline.
    Recent and prospective breakthroughs in genetic engineering and 
processing, however, are radically changing the viability of ethanol as 
a transportation fuel. New biocatalysts--genetically engineered 
enzymes, yeasts, and bacteria--are making it possible to use visually 
any plant or plant product (known as cellulosic biomass) to produce 
ethanol. This may decisively reduce cost--to the point where petroleum 
products would face vigorous competition.
    The best analogy to this potential cost reduction is the cracking 
of the petroleum molecule in the early twentieth century. This let an 
increasingly large share of petroleum be used in producing high-
performance gasoline, thus reducing waste and lowering cost enough that 
gasoline could fuel this century's automotive revolution. Genetically 
engineered biocatalysts and new processing techniques can similarly 
make it possible to utilize most plant matter, rather than a tiny 
fraction thereof, as fuel. Cellulosic biomass is extremely plentiful. 
As it comes to be used to produce competitively priced ethanol, it will 
democratize the world's fuel market. If the hundreds of billions of 
dollars that now flow into a few corners in a few nations were to flow 
instead to the millions of people who till the world's fields, most 
countries would see substantial national security, economic, and 
environmental benefits.
                           paying for rogues
    Energy is vital to a country's security and material well-being. A 
state unable to provide its people with adequate energy supplies or 
desiring added leverage over other people often resorts to force. 
Consider Saddam Hussein's 1990 invasion of Kuwait, driven by his desire 
to control more of the world's oil reserves, and the international 
response to this threat. The underlying goal of the U.N. force, which 
included 500,000 American troops, was to ensure continued and 
unfettered access to petroleum.
    Oil permeates every aspect of our lives, so even minor price 
increases have devastating impacts. The most difficult challenge for 
planners, policymakers, and alternative-energy advocates is the 
transportation sector, which accounts for over 60 percent of U.S. oil 
demand. The massive infrastructure developed to support gasoline-
powered cars is particularly resistant to modifications. It precludes 
rapid change to alternative transportation systems and makes America 
highly vulnerable to a break in oil supplies. During a war or embargo, 
moving quickly to mass transit or to fuel-cell or battery-powered 
automobiles would be impossible.
    For most countries, excluding only those few that will be the next 
century's oil suppliers, the future portends growing indebtedness, 
driven by increasingly expensive oil imports. New demand for oil will 
be filled largely by the Middle East, meaning a transfer of more than 
$1 trillion over the next 5 years to the unstable states of the Persian 
Gulf alone--on top of the $90 billion they received in 1996.
    Dependence on the Middle East entails the risk of a repeat of the 
international crises of 1973, 1979, and 1990--or worse. This growing 
reliance on Middle Eastern oil not only adds to that region's 
disproportionate leverage but provides the resources with which rogue 
nations support international terrorism and develop weapons of mass 
destruction and the ballistic missiles to carry them. Iraqi vx nerve 
gas and Iranian medium-range missiles show how such regimes can convert 
oil revenues into extensive and sophisticated armament programs.
                          is oil running out?
    Optimists about world oil reserves, such as the Department of 
Energy, are getting increasingly lonely. The International Energy 
Agency now says that world production outside the Middle Eastern 
Organization of Petroleum Exporting Countries (OPEC) will peak in 1999 
and world production overall will peak between 2010 and 2020. This 
projection is supported by influential recent articles in Science and 
Scientific American. Some knowledgeable academic and industry voices 
put the date that world production will peak even sooner within the 
next five or six years.
    The optimists who project large reserve quantities of over one 
trillion barrels tend to base their numbers on one of three things: 
inclusion of heavy oil and tar sands, the exploitation of which will 
entail huge economic and environmental costs; puffery by OPEC nations 
lobbying for higher production quotas within the cartel; or assumptions 
about new drilling technologies that may accelerate production but are 
unlikely to expand reserves.
    Once production peaks, even though exhaustion of world reserves 
will still be many years away, prices will begin to rise sharply. This 
trend will be exacerbated by increased demand in the developing world. 
As Daniel Yergin, Dennis Eklof, and Jefferson Edwards pointed out in 
these pages (``Fueling Asia's Recovery,'' March/April 1998), even 
assuming a substantial recession, increased Asian needs alone will add 
enough demand by 2010 (9 million barrels per day) to more than equal 
Saudi Arabia's current daily production.
    The nations of the Middle East will be ready to exploit the trend 
of rising demand and shrinking supply. The Gulf states control nearly 
two-thirds of the world's reserves; the states bordering the Caspian 
Sea have another several percent. Barring some unforeseen discoveries, 
the Middle East will control something approaching three-quarters of 
the world's oil in the coming century.
                           a whole new world
    If genetically engineered biocatalysts and advanced processing 
technologies can make a transition from fossil fuels to biofuels 
affordable, the world's security picture could be different in many 
ways. It would be impossible to form a cartel that would control the 
production, manufacturing, and marketing of ethanol fuel. U.S. 
diplomacy and policies in the Middle East could be guided more by a 
respect for democracy than by a need to protect oil supplies and 
accommodate oil-producing regimes. Our intrusive military presence in 
the region could be reduced, both ameliorating anti-American tensions 
and making U.S. involvement in a Middle Eastern war less likely. Other 
states would also reap benefits.. Ukraine, rich in fertile land, would 
be less likely to be dominated over time by oil-rich Russia. China 
would feel less pressure to befriend Iran and Iraq or build a big navy 
to secure the oil of the South China Sea. The ability of oil-exporting 
countries to shape events would be increasingly limited.
    The recent report by the President's Committee of Advisers on 
Science and Technology (PCAST) predicted that U.S. oil imports will 
approximately double between 1996 and 2030, from 8.5 million barrels 
per day, at a cost of $64 billion, to nearly 16 million barrels per 
day, at a cost of $120 billion. They estimated, however, that with 
concentrated efforts in fundamental energy research and investment in 
renewable fuel technologies, this could be reduced to 6 million barrels 
per day in 2030. The report concluded,

          A plausible argument can be made that the security of the 
        United States is at least as likely to be imperiled in the 
        first half of the next century by the consequences of 
        inadequacies in the energy options available to the world as by 
        inadequacies in the capabilities of U.S. weapons systems. It is 
        striking that the Federal government spends about 20 times more 
        R&D money on the latter problem than on the former.
                              fuel farmers
    Cellulosic ethanol would radically improve the outlook for rural 
areas all over the world. Farmers could produce a cash crop by simply 
collecting agricultural wastes or harvesting grasses or crops natural 
to their region. Agricultural nations with little to no petroleum 
reserves would begin to see economic stability and prosperity as they 
steadily reduced massive payments for oil imports. Even more striking 
would be the redistribution of resources that would occur if farmers 
and foresters produced much of the world's transportation fuel. We know 
from the positive results of micro-credit institutions and other such 
programs that even small increases in income can be a major boost to a 
subsistence-level family's prospects. If family income is a few hundred 
dollars a year, earning an extra $50-$100 by gathering and selling 
agricultural residues to a cellulosic ethanol plant could mean a much 
improved life. Such added income can buy a few used sewing machines to 
start a business or a few animals to breed and sell. It can begin to 
replace despondency with hope.
    There are likely to be even larger effects on rural development if 
biomass ethanol production can lead a shift toward using plant matter 
for other products as well, such as biochemicals and electrical energy. 
The cleanliness of renewable fuel technologies makes them particularly 
attractive to countries that lack a sophisticated infrastructure or 
network of regulatory controls. At least some facilities that process 
carbohydrates should lend themselves to being simplified and sized to 
meet the needs of remote communities. If such towns can produce their 
own fuel, some of their fertilizers, and electricity, they will be far 
better positioned to make their way out of poverty and to move toward 
democracy and free enterprise. Local economic development can promote 
political stability and security where poverty now produces 
hopelessness and conflict.
    A major strength of the new technologies for fermenting cellulosic 
biomass is the prospect that almost any type of plant, tree, or 
agricultural waste can be used as a source of fuel. This high degree of 
flexibility allows for the use of local crops that will enrich the 
soil, prevent erosion, and improve local environmental conditions.
    Finally, as recession and devaluations overseas move the American 
balance-of-payments deficit from the 1998 level--$1 billion every two 
days--toward nearly $1 billion every day, there will be increased calls 
for protectionism. The best way to avoid the mistakes of the 1930s is 
to have a solid economic reason for increasing U.S. production of 
commodities now bought abroad. The nearly $70 billion spent annually 
for imported oil represents about 40 percent of the current U.S. trade 
deficit, and every $1 billion of oil imports that is replaced by 
domestically produced ethanol creates 10,000-20,000 American jobs.
                            easy being green
    To be politically and economically acceptable, changes in fuel must 
be understood by the American public to be affordable and not 
disruptive. Most other countries require the same tough criteria--U.S. 
difficulties in convincing developing nations to reduce greenhouse gas 
emissions are directly related to the cost and the damage this would 
have on their development plans. But if one of the most effective ways 
to reduce greenhouse emissions also produced an unproved balance-of-
payments deficit and opportunities for rural development, economic 
benefits would suddenly far exceed the costs. The political 
acceptability of reducing emissions changes substantially when the 
economics change. A shift to biomass fuels stands out as an excellent 
way to introduce an environmentally friendly energy technology that has 
a chance of both enjoying widespread political and economic support and 
having a decisive impact on the risk of climate change.
    Renewable fuels produced from plants are an outstanding way to 
substantially reduce greenhouse gases. Although burning ethanol 
releases carbon dioxide into the atmosphere, it is essentially the same 
carbon dioxide that was fixed by photosynthesis when the plants grew. 
Burning fossil fuels, on the other hand, releases carbon dioxide that 
otherwise would have stayed trapped beneath the earth.
    If one looks at the complete life cycle of the production and use 
of ethanol derived from feed grains, the only addition of carbon 
dioxide to the atmosphere results from the use of fossil fuel products 
in planting, chemical fertilizing, harvesting, and processing. But this 
fossil fuel use can be substantial--up to seven gallons of oil may be 
needed to produce eight gallons of ethanol. When ethanol is produced 
from cellulosic biomass, however, relatively little tilling or 
cultivation is required, reducing the energy inputs. It takes only 
about one gallon of oil to produce seven of ethanol. There is a virtual 
consensus among scientists: when considered as part of a complete cycle 
of growth, fermentation, and combustion, the use of cellulosic ethanol 
as a fuel, once optimized, will contribute essentially no net carbon 
dioxide to the atmosphere.
    According to a 1997 study done by five laboratories of the U.S. 
Department of Energy, a vehicle powered by biomass ethanol emits well 
under one percent of the carbon dioxide emitted by one powered by 
gasoline. More surprising, however, is that ethanol produced from 
biomass emits only about one percent of the carbon dioxide emitted by 
battery-powered vehicles, since the electricity for those is commonly 
produced by burning fossil fuels at another location. Although local 
air quality is improved, total carbon dioxide emissions are not 
curtailed; they are merely exported--for example, from Los Angeles to 
the Four Corners. Unless the electricity to charge the car's batteries 
is produced by renewable fuels or nuclear power, electric vehicles are 
only 20 to 40 percent better as carbon dioxide emitters than gasoline-
powered cars. Biomass ethanol beats both by a factor of about 100, 
fundamentally changing the global-warming debate.
                            fringe benefits
    Cellulosic ethanol is the only alternative fuel that requires, at 
most, very modest changes to vehicles and the transportation 
infrastructure. One need not spend money retooling Detroit, nor spend 
years awaiting the gradual replacement of older vehicles by those with 
new technology. Nor does one need to modify or construct pipelines and 
storage tanks to hold hydrogen as an alternate to petroleum. This 
compatibility with today's infrastructure saves billions of dollars and 
not just years, but decades. Moreover, there is nothing incompatible 
between using ethanol now in internal combustion engines and using it 
later in more efficient power systems, such as hybrids or fuel cells.
    Essentially all automobiles currently on the road can use fuel 
containing up to ten percent ethanol. But strict fuel economy standards 
have encouraged the development and production of flexible fuel 
vehicles (FFVs) that can use up to 85 percent ethanol. FFVs are already 
in dealers' showrooms, containing (at no added cost to the consumer) 
the minor engine modifications--a computer chip in the fuel system and 
a fuel line made out of slightly different material--that make large-
scale ethanol use possible. Even pure ethanol vehicles are quite 
practical. Brazil has 3.6 million on the road.
    Corn ethanol will continue to serve an important role as ethanol 
production shifts to cellulosic biomass. Commercialization of corn 
ethanol has provided a base of industrial experience, talented people, 
and infrastructure from which a much larger cellulosic ethanol industry 
may be launched. For corn farmers, biomass is no threat; it will 
probably be a boon. Indeed, there is likely to be a continuing, perhaps 
even an expanding, market for corn ethanol because of the value of its 
byproducts, such as animal feed. In general, the transition from corn 
to cellulosic biomass and from a few producers to many is likely to 
expand opportunities for American farmers.
                           bioengineered bugs
    Ethanol's economic viability depends on making it cheaper to 
produce. This can be achieved by making it out of cellulosic biomass, 
which includes essentially anything that grows or has grown: 
agricultural and forest residues, prairie grass, kudzu, waste wood, 
used paper products, even much of urban waste. Last year, about 95 
percent of the ethanol produced in the United States came from corn. 
But agricultural residues and other wastes have low or even negative 
cost--some you are paid to haul away--while crops like prairie grass 
cost only a few tens of dollars a ton. This represents a substantial 
savings in the raw material used in ethanol and puts it within the 
range of oil, even inexpensive Persian Gulf oil.
    Only recently have scientists developed the means to convert 
cellulosic biomass efficiently into ethanol. The edible portions of 
corn and other grains easily ferment into ethanol because of their 
chemical make-up. Most biomass, however, consists of more recalcitrant 
hemicellulose and cellulose, requiring both the breaking up of these 
two fibers as well as the fermenting of both five- and six-carbon 
sugars. This all happens in nature, but two parts of it--fermenting 
five-carbon sugars and breaking up cellulose quickly--are technically 
challenging. The first is now done by genetically engineered 
microorganisms; this tool and other new techniques are now being 
brought to bear on the second problem.
    How far along are these developments? The current efficiency of 
ethanol processing is somewhat analogous to that of petroleum refining 
in the early 1900s: after the invention of thermal cracking made it 
possible to use a major share of the petroleum molecule for gasoline 
production but before the invention of catalytic cracking opened up an 
even larger share of petroleum to exploitation. In short, we have come 
a long way, but still have some inventing to do. The new, genetically 
engineered microorganisms have already taken us far toward the 
fermentation of ethanol from a wide range of plant material, laying the 
groundwork for reductions in processing costs as well.
    The new microorganisms, combined with other improvements in 
processing, fundamentally change the equation for considering ethanol a 
major transportation fuel. According to a recent study by Dartmouth 
engineering professor Lee Lynd, utilizing only some of the nation's 
agricultural and forest residues, with no additional land use, could 
supply over 15 billion gallons of ethanol a year--more than ten times 
the amount now produced from corn, and enough to replace around eight 
percent of the nation's gasoline. (Not all residues would be used, of 
course, since some must be left for long-term fertility.) Lynd also 
calculated that taking a little over half of the 60 million acres of 
cropland historically idled by federal programs for conservation and 
other purposes, and using for ethanol production the mown grasses with 
which much of this acreage is ordinarily planted, would produce enough 
ethanol to fulfill around 25 percent of the country's annual gasoline 
needs. These calculations use current automobile mileage. Lynd notes 
that, further mileage improvements, achieved through a shift to hybrids 
or fuel cells, could obviate the need for gasoline entirely, without 
taking land from food crops or nonagricultural uses. The coproduction 
of animal feed and biomass residues from alfalfa and switchgrass is 
especially promising. There is, in short, no basis for the argument 
that America does not have the land to produce enough ethanol to make a 
very large dent in U.S. gasoline consumption.
    Biofuels must be produced in ways that enhance overall 
environmental quality. Sound land-use policies certainly must be 
followed, to protect wildlife habitat and address other environmental 
concerns. But professional land-use techniques should readily 
accomplish this. Alternative fuels are often seen as an unpalatable 
necessity representing a retrenched standard of living, forced upon us 
in an age of limits. The opposite may be true. Utilization of renewable 
fuels will make it possible for us to continue enjoying the freedom 
afforded by private cars, even as the production of petroleum begins to 
decline.
                            the right stuff?
    Early this century, Henry Ford expected that ethanol, not gasoline, 
would be the fuel of choice for automobiles. His reasons are evident. 
The two fuels can be compared by examining three basic parameters--
energy content, octane, and vapor pressure. Pure ethanol contains 69 
percent of the energy of gasoline. A lower energy content translates 
into fewer miles to the gallon; in order to travel the same range, 
about a 30 percent larger fuel tank is needed (as is used in Brazil). 
Many scientists believe that optimizing engines for ethanol use will 
largely compensate for this difference, in part because ethanol is a 
simple combination of carbon, hydrogen, and oxygen. It is vastly less 
complex than gasoline, which means that fine-tuning an engine to 
squeeze every last drop of energy from ethanol is potentially easier.
    Octane is the measure of a fuel's ability to oxidize hydrogen and 
carbon molecules within a fraction of a second. When the reaction is 
not simultaneous, ``engine knock'' and inefficient combustion result. 
Ethanol has an octane rating 15 percent higher than gasoline's. In the 
1920s ethanol was briefly considered as a large-scale additive to 
gasoline to stop the knocking of the new higher compression engines. 
However, to the detriment of public health, ethanol lost out to highly 
toxic tetraethyl lead, for three reasons: in contrast to ethanol, only 
a small amount of lead was needed as an additive; some were concerned 
that corn-derived ethanol would compete for land and threaten the feed 
grains market; and since Prohibition was in effect, many were also 
worried about the security problems associated with maintaining large 
volumes of what is essentially 200-proof vodka. Ethanol's ability to be 
an effective fuel, however, was never an issue.
    A third important fuel measurement is vapor pressure, or how 
readily a liquid evaporates. A fuel's vapor pressure is directly linked 
to the quantity of vehicle emissions, since over 40 percent of 
automobile emissions result from evaporation, not tailpipe emissions. 
Substituting ethanol for gasoline in any amount reduces tailpipe 
emissions and thus reduces urban smog. Pure ethanol, and any gasoline-
ethanol mixture that is more than 22 percent ethanol, has a lower vapor 
pressure than gasoline and would therefore reduce the amount of 
evaporative emissions.
    Somewhat confusingly, however, blends of ethanol and current 
gasoline have a slightly higher vapor pressure than pure gasoline when 
the mixture contains less than 22 percent ethanol, because of the 
unique mixing properties of the liquids. Some studies show that low-
level blends of ethanol and gasoline (like gasohol, which is ten 
percent ethanol) can actually worsen local air pollution, especially 
the formation of low-level ozone. Consequently, in cities in the 
Northeast and California, proposals to encourage the use of ethanol 
blends have often fallen on deaf ears. Some environmentalists see them 
as camouflaged subsidies for Midwestern corn growers at the expense of 
the cities.
    But although low-level ethanol blends present complex issues, 
blends with more than 22 percent ethanol--which can be used in FFVs--do 
not have the vaporization problem. Moreover, with different approaches 
to refining and blending gasoline, a solution to the vaporization 
problem may well exist even at mixtures below 22 percent. Finally, 
ETBE--an oxygenate made from ethanol that improves gasoline 
combustion--improves air quality both in tailpipe emissions and 
vaporization, although its use means the fuel contains five to ten 
percent ethanol.
    Choosing to use cellulosic ethanol is not a choice to forsake more 
advanced automobile propulsion technologies, such as hybrids and fuel 
cells. Ethanol is compatible with both. Jeffrey Bentley, vice president 
of Arthur D. Little, Inc., a company recently honored by the U.S. 
government for its novel fuel-cell technology, stated that ``ethanol 
provides higher efficiencies, fewer emissions, and better performance 
than other fuel sources, including gasoline * * *. Where ethanol is 
available, it will be the fuel of choice by consumers.'' As both 
hybrids and fuel cells continue to improve, automobiles powered by them 
may dramatically reduce air pollution. Ethanol's compatibility with 
both makes moving toward cellulosic ethanol as a transportation fuel 
much more desirable.
    If government policies promote FFVs, moreover, a large fleet of 
ethanol-compatible vehicles will be available much earlier than would 
otherwise have been feasible. This is because FFVs can burn gasoline 
now but can use cellulosic ethanol as it becomes available. Introducing 
FFVs into the national fleet differs radically in timing from other 
changes in transportation. Even if an ideal hybrid or fuel-cell vehicle 
came on the market, the slow rate of turnover in the nation's cars 
would mean that it would be many years before its introduction would 
make a dent in overall fuel use. But moving now to substantially 
increase the number of FFVs being produced would create the capability 
to shift to cellulosic ethanol as soon as it is available at attractive 
prices.
    In addition, insofar as U.S. security and environmental concerns 
are more with the consumption of problem-causing petroleum fuel than 
with fuel in general, substituting cellulosic ethanol for gasoline 
improves relevant ``mileage'' radically, even in internal combustion 
engines. For example, an average automobile gets approximately 17 miles 
per gallon and is driven approximately 14,000 miles per year, thus 
using 825 gallons of gasoline annually. Suppose that same automobile 
were an FFV using a mixed fuel containing 85 percent cellulosic 
ethanol. Because of ethanol's lower energy content, it would use about 
1,105 gallons of fuel, but only 165 would be gasoline. Such a vehicle 
could be said to be getting, in a sense, over 80 miles per gallon--of 
national-security-risk-increasing, carbon-dioxide-producing gasoline.
    The one remaining barrier to widespread replacement of gasoline 
with ethanol is production cost. Relying on feed grains makes this cost 
comparatively high and volatile, since corn is subject to the caroming 
behavior of feed markets. In 1995, its price of $100 a ton nearly 
doubled, forcing a sharp curtailment in ethanol production. A partial 
shift to biomass should circumvent such instabilities. Over the past 15 
years, the cost of producing a gallon of ethanol has been cut in half, 
to just over $1 a gallon wholesale. If, as predicted, the new 
biocatalysts, low and steady raw material costs, and improved 
processing let costs fall another 50 percent or so, ethanol could 
compete with gasoline at today's prices. If oil prices rise in the next 
century, gasoline could actually be at a substantial price 
disadvantage.
    Such a reduction of ethanol cost is entirely plausible for two 
reasons. First, a simple comparison of energy content reveals that a 
dry ton of biomass crops--$40 is a reasonable current average cost--is 
comparable to oil at $10-13 a barrel. Agricultural wastes, in many 
cases, are considerably cheaper than either: many are free or have 
negative cost. So the overall costs of cellulosic biomass are likely to 
at least be in the same ballpark as those of crude oil. Second, further 
reductions in the cost of processing seem quite achievable. The current 
cost of processing ethanol is significantly higher than the equivalent 
price per barrel for oil. But this discrepancy reflects the maturity 
and sophistication of the petroleum industry, developed over the past 
century, as compared to the fledgling biofuels effort. Producing 
ethanol is not inherently more complex than refining petroleum--in 
fact, just the contrary. The world has simply invested far more effort 
in the latter.
                               jump-start
    While the private sector will provide the capital, and motivation 
to move toward ethanol, the federal government has a vital role to 
play. Market forces seldom reflect national security risks, 
environmental issues, or other social concerns. The private sector 
often cannot fund long-term research, despite its demonstrated 
potential for dramatic innovation. Hence, the federal government must 
increase its investment in renewable energy research, particularly in 
innovative programs such as genetic engineering of biocatalysts, 
development of dedicated energy crops, and improved processing. The 
very small sums previously invested by the Departments of Energy and 
Agriculture have already spawned dramatic advances. Every effort should 
be made to expand competitive, merit-based, and peers reviewed science 
and to encourage research that cuts across scientific disciplines.
    Research is essential to produce the innovations and technical 
improvements that will lower the production costs of ethanol and other 
renewable fuels and let them compete directly with gasoline. At 
present, the United States is not funding a vigorous program in 
renewable technologies. The Department of Energy spends under two 
percent of its budget on renewable fuels; its overall work on renewable 
technologies is at its lowest level in 30 years. Because private 
investment often follows federal commitment, industrial research and 
development has also reached new lows. These disturbing trends occur at 
a time of national economic prosperity when America has both time and 
resources for investing in biofuels. The United States cannot afford to 
wait for the next energy crisis to marshal its intellectual and 
industrial resources.
    Research alone will not suffice to realize cellulosic ethanol's 
promise. The federal government should also modify the tax code to spur 
private investment. The existing renewable alcohol tax credits have 
recently been extended by Congress through 2007--which will help the 
growth of the new biofuels industry and offer some protection in the 
transition from grain to cellulosic biomass. But the tax credit 
structure should facilitate the gradual adoption of cellulosic 
ethanol--in time, it should not need subsidies. Government incentives 
to produce FFVs should also be increased.
    Finally, there must be a coordinated effort across the many 
different federal agencies that oversee government laboratories and 
regulatory agencies. The analogy to the semiconductor industry is 
instructive. In 1987, Congress authorized the creation of a government-
industry partnership, the Semiconductor Manufacturing Technology 
Association (SEMATECH). Under the direction of the Department of 
Defense's Advanced Research Projects Agency, SEMATECH pursued 
fundamental research in semiconductor components and manufacturing 
processes. Private firms with innovative ideas were encouraged to 
devote research dollars to transform the idea into a commercial 
reality. The few domestic semiconductor manufacturers were brought 
together in forums where the companies could discuss technical hurdles 
without sacrificing competitive advantage. Today, the success of 
SEMATECH is evident, as the high-technology sector demonstrates. 
Biofuels offer a similar opportunity.
    Cellulosic ethanol is a first-class transportation fuel, able to 
power the cars of today as well as tomorrow, use the vast 
infrastructure already built for gasoline, and enter quickly and easily 
into the transportation system. It can be shipped in standard rail cars 
and tank trucks and is easily mixed with gasoline. Although somewhat 
lower in energy content, it has a substantially higher octane rating 
than gasoline, allowing for more efficient combustion. It can radically 
reduce the emission of global warming gases, help reduce the choking 
smog of our cities, and improve air quality. It is far less toxic than 
petroleum, far less likely to explode and burn accidentally, and far 
simpler physically and chemically, making possible simpler refining 
procedures. If a second Exxon Valdez filled with ethanol ran aground 
off Alaska, it would produce a lot of evaporation and some drunk seals.
    Our growing dependence on increasingly scarce Middle Eastern oil is 
a fool's game--there is no way for the rest of the world to win. Our 
losses may come suddenly through war, steadily through price increases, 
agonizingly through developing-nation poverty, relentlessly through 
climate change--or through all of the above. It would be extremely 
short-sighted not to take advantage of the scientific breakthroughs 
that have occurred and that are in the offing, accelerate them, and 
move smartly toward ameliorating all of these risks by beginning to 
substitute carbohydrates for hydrocarbons. If we do, we will make life 
far less dangerous and far more prosperous for future generations. If 
we do not, those generations will look back in angry wonder at the 
remarkable opportunity that we missed.

    Mr. Reicher. As an example, construction recently began in 
Louisiana of a first-of-a-kind production plant, with 80 
percent cost share, that will produce ethanol from sugarcane 
waste. We are also supporting the development of plants in 
California and New York that will use rice draw and even 
municipal solid waste to produce ethanol, again, which can be 
used in automobiles, to reduce our dependence on foreign oil.

                           superconductivity

    A final example of our technological progress involves 
superconductivity. Through our innovative industry-laboratory 
R&D program, superconductivity has rapidly moved from discovery 
to utility-scale prototypes that carry 100 times the current of 
conventional copper cables, and this has occurred in only 10 
years. I am pleased to note that the world's first super-
conducting power line will be installed in Detroit next year.
    While we are making tremendous strides in these 
technologies, we still have much work to do. The competitive 
revolution and power generation has led to drastic decreases in 
the price of electricity. Still, renewable energy is already 
making market in-roads in many states.
    The world's largest wind installation is being developed in 
Iowa. Major new commitments to solar energy in many states, 
ranging from Massachusetts, to Nevada, to New Mexico, biomass 
power plants in states such as New York, Ohio, Minnesota, 
Vermont, and Indiana, and tens of thousands of new geothermal 
heat pumps in homes, businesses, federal installations, and 
schools in states as diverse as Wisconsin, Kentucky, North 
Dakota, and South Carolina.
    We are also aggressively pursuing integration of fossil 
fuel with renewable energy technologies. Projects that combine 
wind with natural gas and co-firing of biomass with coal 
demonstrate the opportunities that exist between renewables and 
fossil fuels.
    Mr. Chairman, I look forward to the opportunity to provide 
a more in-depth discussion of our successes at the upcoming 
subcommittee hearing on the deployment of renewable 
technologies.

                    fiscal year 2000 budget request

    Our fiscal year 2000 budget request would accelerate the 
development and market penetration of renewables and advanced 
power systems. Our request is $325 million, up $53 million, or 
19 percent, from this year's enacted level. I would note that 
this year's request is a small fraction of what Congress 
appropriated for renewables in the early 1980s.
    Let me quickly give you some examples of major program 
activities in fiscal year 2000. The photovoltaic program will 
initiate the development of new high-efficiency, multi-junction 
solar cells to capture and convert one-third of the sun's 
energy to electricity.
    That would be up from 8 to 15 percent conversion today. The 
biopower program will accelerate development of advanced 
conversion systems, such as co-firing biomass with coal. The 
biofuels program will continue its waste ethanol projects and 
advance its core conversion technology research with 
universities and national labs.
    I would also note that biofuels have the potential to 
mitigate major environmental problems in the West. Due to 
suppression of forest fires, large quantities of dead and 
diseased trees and underbrush have accumulated in the forest, 
creating a severe fuel loading problem, which threatens human 
life and property, as well as wildlife and timber resources. 
Working with states, labs, and industrial partners, we are 
evaluating forest thinnings for conversion to ethanol and co-
generation of electricity.
    The wind program will place added emphasis on fuel testing 
small wind turbine prototypes to verify performance for remote 
sites, cold weather, and off-grade energy needs. We will also 
begin testing the next generation of large turbines for major 
on-grid power production as a major step towards producing 
power at two to three cents a kilowatt hour.
    The geothermal program will focus more resources on high-
priority research and technology development for electric power 
applications. The program will accelerate work to produce an 
advanced drilling system capable of economically accessing the 
vast geothermal resources below 10,000 feet. These initiatives 
will enable the program to achieve its goal of producing power 
at three cents a kilowatt hour.
    I also want to stress, Mr. Chairman, that in fiscal year 
2000 we proposed to more than double our hydropower budget to 
help us maintain and enhance our nation's existing 
hydroelectric generation, which today provides 10 percent of 
U.S. electricity.
    With more than 200 hydro facilities up for relicensing in 
the next decade, early indicators suggest than environmental 
concerns may cause regulators to reduce generation capacities 
or relicense facilities unless fish mortality and water quality 
concerns are met. We are developing and completing testing of 
advanced environmentally friendly hydropower turbine prototypes 
that will improve water quality and reduce fish kills.
    In fiscal year 2000, our hydrogen request will continue a 
strong core R&D effort to meet the goals in producing the cost 
of hydrogen production, increasing the energy density and 
efficiency of our storage systems, and developing low-cost 
reliable sensors to detect hydrogen leaks. Hydrogen, Mr. 
Chairman, has a phenomenal potential for clean power production 
and vehicle propulsion.

              sole source vs. competitively awarded grants

    Mr. Chairman, when I became Assistant Secretary about 17 
months ago, I realized that the office faced many management 
challenges, and I made a major commitment to you to fix them. 
We have listened to you, to industry, to our other 
stakeholders, and we have delivered. This committee said we 
were relying too heavily on non-competitive mechanisms to 
disburse funds. We listened and we delivered a dramatic 
reduction in our use of non-competitive funding mechanisms.
    The Office of Power Technologies, which represents the bulk 
of the funding from this subcommittee, has increased its level 
of competition to 93 percent, including congressionally 
directed activities.
    Close to 100 activities previously funded by sole source 
contracts within the Energy and Water Development account in 
fiscal year 1998 will now be competitively awarded. In 1998, we 
competed the $1 billion management and operating contract for 
the National Renewable Energy Lab, the first time it was 
competed in 15 years.
    Across all of our offices we have reduced uncosted balances 
by more than 58 percent since the beginning of fiscal year 
1996. I am very proud of this progress.
    We realize, however, that our work to improve the way we do 
our business is by no means complete, and so we have 
established a new office management improvement team, and we 
are working with the National Academy of Public Administration 
to improve our procurement. The National Academy of Sciences is 
also conducting a broad review of our R&D programs.
    We are also trying to break down the stovepipes that have 
often separated our various offices. Our bioenergy initiative, 
for example, is helping us to better integrate our important 
work in bio-power, biofuels, and bioproducts.

                           prepared statement

    So in conclusion, Mr. Chairman, we have accomplished a 
great deal over the last two decades. We have set aggressive, 
but achievable goals. We have improved our management, and we 
have requested a realistic budget. We hope that in light of our 
success and our commitment we can earn this subcommittee's 
support.
    I am happy to respond to questions. Thank you.
    Senator Domenici. Thank you very much for an excellent 
statement.
    [The statement follows:]

                  Prepared Statement of Dan W. Reicher

    Mr. Chairman and members of the Subcommittee, I am pleased to have 
the opportunity to appear before you today to discuss the Energy and 
Water Development portion of the fiscal year 2000 budget request for 
the Department of Energy's Office of Energy Efficiency and Renewable 
Energy (EERE). I will address three areas related to Solar and 
Renewable Resource Technologies: (1) the tremendous technological 
progress that has been achieved to date; (2) what we will accomplish 
with the resources proposed in the fiscal year 2000 budget; and 3) 
important management improvements we have instituted within EERE.
Technology Progress
    Twenty years ago renewable energy was generally produced at a very 
high cost and in an inefficient manner. Advanced power delivery system 
components and high temperature superconducting materials did not even 
exist, and the alternative transportation fuel sector was very 
immature. We have come a long way.
    For example, the cost of electric power from wind turbines in 1980 
ranged from $0.30-$0.40 per kilowatt-hour (kWh). Through aggressive R&D 
by EERE and its industry partners on wind turbine aerodynamics, 
materials development and computer-aided design, we have been able to 
reduce the costs to between $0.04 and $0.06 per kWh. At this price, 
wind systems are entering the marketplace, expanding from the early 
California windfarms to include States ranging from Vermont to Alaska 
and from Minnesota to Texas. Wind energy systems are also poised to 
expand into other Great Plains and Northeastern locations, such as 
Oklahoma, Wisconsin the Dakotas, Maine, and New York. We are also 
working on Next Generation Turbines to reduce the cost of electricity 
from wind even further--to as low as 2 \1/2\ cents per kWh by 2002. 
This cost will enable wind to compete in many regions of the U.S.
    As another example, the first commercially-available photovoltaic 
(PV) systems in the early 1980s produced power at a cost of more than 
$1.00 per kWh. By fiscal year 2000, PV systems will be delivering 
electricity for as low as $0.12-$0.20 per kWh--depending upon the 
specific technology--making clean, reliable PV systems competitive in 
many remote and on- grid sites here in the U.S. and around the globe. 
By 2010 we project PV-generated electricity will drop to $0.10 per kWh. 
At this price solar would be a competitive power option in many urban 
and suburban areas where transmission and distribution systems are 
constrained and also in rural areas across the entire United States 
where distribution costs are too high. Improved materials manufacturing 
techniques and energy conversion improvements--most supported by DOE 
and its laboratories--have made and will make these cost reductions 
possible and have facilitated the resurgence of the U.S. PV industry as 
the world's leader in this $1.2 billion global industry, which grew 95 
percent between 1995 and 1998. With large manufacturing plants in 
Virginia, Maryland, California, Michigan, Delaware and Massachusetts, 
the solar industry is a growing part of the U.S. economy. However, 
global competition is fierce. While both domestic PV production 
capacity and U.S. product sales are up, the U. S. risks losing its 
world market leadership, having dropped from 44 percent in 1996 to 40 
percent in 1997 to 35 percent in 1998. Our potential loss of this 
growing market is exacerbated by a Japanese PV budget that is three 
times what we spend in the U.S. ($240 million in Japan in fiscal year 
1999 vs. $72 million in the U.S. in 1999).
    Production of ethanol is also on track for widespread vehicle use 
at competitive prices. To compete with today's inexpensive gasoline, 
our biofuels program focuses on the development of facilities that make 
ethanol from agricultural and forest wastes and dedicated crops. 
Construction recently began in Jennings, Louisiana, on a ``first-of-a-
kind'' production plant with 80 percent industry cost-sharing that will 
produce ethanol from sugarcane waste. This 20-million gallon facility 
is scheduled to come on-line in the year 2000 with initial ethanol 
production costs of $1.00 per gallon, putting us well on-track for the 
program's 2010 production cost goal of $0.72 per gallon. We are also 
supporting the development of demonstration plants in California and 
New York that will use rice straw and municipal solid waste to produce 
ethanol. Additionally, we are studying ways to add facilities to 
existing corn-ethanol plants to produce ethanol from corn stalks and 
leaves. R&D on ethanol technology is very important to our future 
energy security. By 2020 net U.S. oil imports, which accounted for 
about 50 percent of domestic petroleum consumption in 1998, will grow 
to 65-70 percent of domestic petroleum consumption--with an annual oil 
bill ranging from $130 billion to more than $180 billion in current 
dollars.
    A final example of technological progress involves 
Superconductivity, a property of certain special materials allowing 
them to carry large electrical currents without resistance energy 
losses. While we have known about superconductivity for nearly a 
century, hurdles such as ultra-low temperature requirements stymied the 
development of commercial applications. Then Nobel prize-winning 
discoveries in the late 1980s opened the possibility for practical uses 
of these technologies to improve the efficiency and performance of the 
electricity sector. Through EERE's innovative industry/laboratory R&D 
program, High-Temperature Superconductivity (HTS) has rapidly moved 
from discovery to utility-scale prototypes that carry 100 times the 
current of conventional cable in only ten years. I am pleased to note 
that the world's first superconducting power line will be installed in 
Detroit in the fall of 2000. Installed more widely, superconducting 
power lines and equipment would increase capacity, efficiency and 
reliability during the crucial period ahead when competition will bring 
new (and unplanned) stresses on our national electrical system.
    While we are making tremendous strides in these technologies, we 
still have much work to do. The competitive revolution in the power 
generation sector has led to drastic decreases in the price of power 
from new sources of generation. For example, natural gas-fired 
combustion turbine technology produces electricity for about $0.03 per 
kWh. Given the low domestic market prices of fossil fuels, market 
penetration of renewable energy technologies is occurring more quickly 
in remote locations domestically and also overseas where the cost of 
electricity is generally much higher than in the U.S. Still, renewable 
energy is already making market inroads in many states: the world's 
largest wind installation in Iowa; major new commitments to solar 
energy in at least 15 states ranging from Massachusetts to Illinois to 
Arizona; biomass power plants in states such as New York, Ohio, 
Minnesota, Vermont and Indiana; and tens of thousands of new geothermal 
heat pumps in homes, businesses, schools and Federal installations in 
states as diverse as Indiana, New Jersey, Kentucky, Nevada and Utah.
    We are also aggressively pursuing integration of fossil fuel with 
renewable energy technologies. Projects such as hybrid wind/natural gas 
and co-firing of biomass with coal demonstrate the opportunities 
between renewables and fossil fuels.
    With this remarkable progress over the past two decades, we have 
established a firm foundation for major market success of renewables 
and advanced power delivery systems in the coming years.
Fiscal Year 2000 Program Focus
    Our fiscal year 2000 budget request of $398.9 million--an 18.7 
percent increase over fiscal year 1999--would help us accelerate the 
market success of renewables and advanced power delivery systems. The 
budget request has three central objectives. First, we will accelerate 
U.S. technological progress by funding, in cooperation with industry 
and other partners, a balanced and integrated portfolio of research and 
development on renewable energy and power delivery technologies capable 
of meeting the diverse needs of the competitive electricity marketplace 
in the 21st Century. Second, we will improve environmental quality 
through increased use of non-polluting renewable energy technologies 
and advanced electric power systems. Third, we will expedite the 
transfer of technology and manufacturing process improvements to U.S. 
industries which will enable them to increase the deployment of their 
energy systems in the United States and to better compete for expanding 
export markets in other countries. The programs will help us achieve 
two important goals for 2010: (1) Tripling the installed U.S. 
electricity generation capacity of geothermal, biomass, wind, and 
solar; and (2) developing ethanol from wastes and dedicated crops as a 
cost competitive (less than $0.75 per gallon) domestically-produced 
blended transportation fuel.
    Some examples of major program activities in fiscal year 2000 that 
will help us achieve these objectives include:
    Photovoltaics.--The photovoltaic program will initiate development 
of new high-efficiency, multi-junction solar cells to capture and 
convert \1/3\ of the sun's energy to electricity (the concentrator cell 
will be 33 and \1/3\ percent efficient). The program will also continue 
efforts to reduce manufacturing costs and increase durability of PV 
systems, extending their lifetimes to greater than 25 years by 2004.
    Biopower/Biofuels.--In fiscal year 2000, the biopower program will 
accelerate development of advanced conversion systems such as co-firing 
with coal that offer economic, near-term reductions in carbon 
emissions. In addition, the program will also continue its three highly 
cost-shared, biomass power projects in Minnesota, Iowa, and New York 
that will confirm the economic feasibility of integrated biomass power 
projects and provide a vital stimulus to rural America.
    The fiscal year 2000 biofuels program will continue its waste-to-
ethanol and corn ethanol projects, and advance its core conversion 
technology research with universities and the national laboratories 
through a highly competitive process. It will also co-fund the regional 
biomass and feedstock development programs essential for 
geographically-appropriate, genetically superior biomass material.
    Wind.--In fiscal year 2000, the Wind program will place added 
emphasis on field testing small wind turbine prototypes to verify 
performance for remote site, cold weather, and off-grid energy needs. 
The first Next Generation Turbine prototypes--large turbines for major 
on-grid power production--will also begin testing, a major step towards 
achieving the market- driven 2002 goal of 2\1/2\ cents per kWh in good 
winds.
    Geothermal.--The Geothermal program will focus more resources on 
high-priority research and technology development for electric power 
applications. In particular, the program will initiate a cost-shared 
enhanced geothermal system (EGS) at an existing geothermal field, 
putting the U.S. at the forefront of global competition to achieve the 
first full-scale EGS capable of sustained operation. Additionally, the 
program will accelerate work to produce an advanced drilling system 
capable of economically accessing the vast geothermal resources below 
10,000 feet. These initiatives will enable the program to achieve its 
long-term strategic goals, including the technology-based cost target 
of $0.03 per kWh.
    Hydropower.--In fiscal year 2000, we are more than doubling our 
hydropower budget request to help us maintain and enhance our Nation's 
existing hydroelectric generation which today provides 10 percent of 
U.S. electricity. With more than 200 hydropower facilities up for 
relicensing in the next decade, early indicators suggest that 
environmental concerns may cause regulators to reduce generation 
capacities for relicensed facilities unless fish mortality and water 
quality concerns are met. EERE is developing and completing testing of 
advanced environmentally-friendly hydropower turbine prototypes that 
will improve water quality and reduce fish kill so that we can retain 
our current hydropower capacity of 75,000 MW.
    Hydrogen.--In fiscal year 2000, our request will continue a strong 
core research and development effort to meet the goals of reducing the 
cost of hydrogen production, increasing the energy density and 
efficiency of solid state storage systems, and developing low-cost, 
reliable sensors to detect hydrogen leaks for a number of applications. 
The program will also support the accelerated development of hydrogen 
vehicle fueling stations in a 50/50 cost-shared venture with industry, 
vehicle mounted storage systems, reversible fuel cells that can be 
integrated with renewable energy systems and small fuel cells for 
remote power applications.
    Superconductivity.--In fiscal year 2000 US leadership in this 
critical 21st Century technology will be visible through several ground 
breaking program successes. In addition to the Detroit cable project 
already mentioned, an advanced and environmentally friendly 10 megavolt 
ampere transformer will be installed in a Milwaukee substation--the 
world's first to supply power to a manufacturing facility. Also, 
testing will continue of the world's largest superconducting motor 
(1000 horsepower--installed fiscal year 1999). Superconducting 
transformers and motors will be half the size of conventional 
alternatives and have only half the energy losses. Another expected 
breakthrough will be the continuous manufacture of an entirely new type 
of superconducting ``tape'' based on discoveries at Los Alamos and Oak 
Ridge National Laboratories. This new ``tape,'' which can now only be 
made in short samples, offers unprecedented performance potential: two 
thin one centimeter-wide metal tapes coated with this new 
superconducting material will be able to carry the same electric load 
as a very large, complex copper cable.
    Competitive Solicitation.--In fiscal year 2000 we propose to create 
an integrated Competitive Solicitation field validation program that 
combines the best elements of the earlier Renewable Indian Energy 
program and the Federal Buildings and Remote Power programs. Highly 
cost-shared, and technologically and regionally-diverse projects under 
this new solicitation will accelerate the development and use of the 
most promising renewable and hybrid renewable/fossil energy systems, 
leveraging as much as $30 million annually in new renewable energy 
projects.
Management Improvements
    When I became Assistant Secretary seventeen months ago, I realized 
that EERE faced many management challenges and committed to fix them. 
This Subcommittee also highlighted several issues. We have listened to 
you--and to industry and other partners--and we have delivered.
    Competition.--This Committee said that EERE was relying too heavily 
on non-competitive mechanisms to disburse funds. We listened and we 
delivered a dramatic reduction in our use of non-competitive funding 
mechanisms. As you can see from the chart below, our use of broad-based 
solicitations, program management directives, and an increased emphasis 
on competition for laboratory subcontracts, has brought our level of 
competitive awards by the Office of Power Technologies (OPT) to 93 
percent (including Congressionally-directed activities). This 
represents a reduction in OPT's discretionary use of sole source 
mechanisms by almost 60 percent in one year. Close to 100 activities 
previously funded by sole-source contracts within EERE's Energy and 
Water account in fiscal year 1998 will be competitively awarded in 
fiscal year 1999. This is a major success.
    In 1998 we also competed the $1 billion management and operating 
contract for the National Renewable Energy Laboratory, the first time 
it has been competed in 15 years. The resulting contract with a 
partnership of three outstanding organizations--the Midwest Research 
Institute, Battelle, and Bechtel--strengthens the laboratory's 
management team and sharpens its mission focus.
    Uncosted Balances.--This Committee also said that EERE's uncosted 
balances were too high. Again, we listened and we delivered. Across all 
of EERE, we have reduced uncosted balances by more than 58 percent 
since the beginning of fiscal year 1996. 
[GRAPHIC] [TIFF OMITTED] T10AP13.005

    Within the Solar and Renewables R&D account we have made even 
greater progress, reducing uncosted balances by 62 percent since fiscal 
year 1996. By the end of fiscal year 1999, we will have reduced these 
balances by more than $175 million versus the beginning of fiscal year 
1996. This Committee also highlighted the use of support service 
contractors. We listened and significantly reduced the proportion of 
funding directed to support service costs and established more 
streamlined procurement and business practices.
    Management Practices.--While we are proud of the progress we have 
made, we realize that our work to improve the management of EERE is by 
no means complete. For example, I have just established a new 
Management Improvement Team composed of senior managers from across the 
various EERE sectors as well as representatives from our National 
Laboratories, the Golden Field Office, and various DOE Offices to 
improve the corporate management processes and procedures. We expect 
recommendations from this team will increase our ability to 
competitively award even more funding in fiscal year 2000 on a 
competitive basis. Also, we are working with the National Academy of 
Public Administration (NAPA) to undertake an independent review of our 
financial management and procurement practices. This review should be 
completed by the end of October 1999.
[GRAPHIC] [TIFF OMITTED] T10AP13.006

    Planning and Evaluation.--We are also developing smarter strategies 
and carefully measuring progress in our core mission. We are developing 
a new office-wide strategic plan and using technology ``roadmaps''--
jointly developed with industry--to ensure we are in step with the 
needs and goals of the marketplace. We are making greater use of the 
Government Performance and Results Act and peer-reviewed measures of 
our technology progress. For example, we have commissioned the National 
Academy of Science to conduct an independent peer review of the Office 
of Power Technologies R&D programs. These tools and practices will help 
provide the data and analysis necessary to help make smart--and 
sometimes difficult--management choices such as our recent decision to 
end work on the solar power tower program in fiscal year 2000. Finally, 
just as any business must do to stay competitive, we are working with 
the Department's Workforce 21 Initiative to ensure we have the right 
training, skills, and human resources available to fulfill our 
challenging missions.
    Program Integration and Expanded Partnerships.--One of our major 
management challenges is breaking through the ``stovepipes'' that often 
separate our various missions. This is important because the solutions 
to many of our renewable energy and energy efficiency challenges cross 
technology and market lines. For example, in the biomass area both the 
private sector industries (i.e., fuels, electric power, and chemical 
products) and our own power, industrial, and transportation programs 
have traditionally operated separately from each other. Leading 
initiatives designed to better integrate our work include those in 
Bioenergy, EnergySmart Schools, and Distributed Power.
    As part of our efforts to integrate our biomass work, we are 
launching a crosscutting Bioenergy Initiative. Biomass represents a 
tremendous, untapped, domestic resource for our energy future, 
particularly as an alternative to imported oil. By investing in a 
bioenergy industry today, we can cultivate and harness renewable 
biomass resources to fuel our cars, power our homes and businesses, and 
supply our chemical needs in the 21st Century. The Department of 
Energy, along with other federal agencies and private partners, is 
launching a national partnership to develop an integrated industry to 
produce power, fuels, and chemicals from crops, trees, and wastes. By 
making a ``ton of biomass'' a viable market competitor to a barrel of 
imported oil, this initiative will help grow the U.S. economy, 
strengthen U.S. energy security, protect the environment, and 
revitalize rural America. This effort will integrate the work from 
existing DOE R&D in transportation biofuels, biomass power and programs 
with the forest products and agriculture industries. It is only through 
the integration of these efforts that biomass will be an effective 
competitor to imported fossil fuels.
    The EnergySmart Schools initiative is an EERE-led partnership that 
brings together public and private sector resources to reduce the $6 
billion in annual energy bills of our Nation's schools and redirect the 
savings to our children's education. EnergySmart Schools will help to 
reduce energy consumption and expand the use of clean energy 
technologies in new and existing schools, improve the learning 
environment, and increase awareness of energy-related issues. It is 
estimated that this initiative--which will coordinate and build on the 
work of existing EERE programs such as Rebuild America, the State 
Energy Program, the Million Solar Roofs Initiative, Clean Cities, 
Energy Star, and the and potential projects under the proposed Solar 
Program Support/Competitive Solicitation program--will help schools 
save up to $1.5 billion in energy costs and lower carbon emissions by 
10 million metric tons by 2010 as they incorporate state-of-the-art 
energy efficiency and renewable energy technologies. Through the 
EnergySmart Schools partnership, we will provide technical assistance, 
demonstrate renewable and energy efficiency technologies, and offer 
guidance on financing and building design.
    EERE is also pursuing a new initiative to encourage the development 
and use of distributed power technologies--i.e., the generation of 
power at or near the point of use. Many technologies can be used in a 
distributed manner, including wind, photovoltaics, combined heat and 
power, concentrating solar power, fuel cells, gas microturbines, 
hydrogen production and storage, battery and flywheel energy storage, 
and hybrid renewable/fossil power systems. The benefits of the 
distributed approach to power generation include reduced consumer costs 
through increased system efficiencies, reduced environmental emissions, 
and increased reliability. Our approach to achieving the benefits is 
three-pronged: (1) R&D to facilitate introduction of distributed power 
applications, such as the development of modular renewable and fossil 
energy systems that can be scaled to need; (2) addressing crosscutting 
regulatory/institutional issues such as our work with the Institute of 
Electrical and Electronics Engineers (IEEE) to develop consensus-based 
interconnection standards; and (3) developing policy options for 
possible inclusion in electricity restructuring legislation.
    Another challenge we are pursuing is to better leverage our 
resources and facilitate technology deployment by expanding 
partnerships with Federal, State, industry, and other entities. These 
partnerships involve other Offices within the Department of Energy 
including the Office of Fossil Energy (FE) and the Office of Science 
(OS) as well as other Federal agencies including the Department of 
Defense, NASA, the U.S. Department of Agriculture, the Department of 
the Interior, and the Environmental Protection Agency. For example, we 
work with FE as we implement our advanced geothermal drilling and 
biomass co-firing with coal programs, and OS is a partner for 
fundamental research on photovoltaic and superconducting materials and 
biomass feedstock genetics.
    At the State and regional level, we have developed closer working 
relationships with State and tribal organizations including the 
Association of State Energy Research and Technology Transfer 
Institutions (ASERTI), the California Energy Commission (CEC), the New 
York State Energy Research and Development Agency (NYSERDA), and the 
Council of Energy Resource Tribes (CERT). For example, the Wind Energy 
program is coordinating R&D with the California Energy Commission and 
an industry partner to develop one of EERE's two Next Generation 
Turbines.
    Of course, in addition to our National Laboratories, our programs 
will continue to tap the innovation and expertise available at the many 
fine universities across the country. We will also continue to leverage 
resources and ensure market acceptance of the technologies we develop 
by pursuing cost-shared partnerships with the Nation's industries, 
utilities and other power providers, and other leaders in the energy 
field. For example, we are working with 18 universities across the U.S. 
to research innovative new photovoltaic conversion technologies and we 
have an extensive research partnership with the Electric Power Research 
Institute (EPRI) to accelerate development of superconducting wire, 
transmission cables, and motors.
overview of the fiscal year 2000 request for solar and renewable energy 
                              technologies
    Our fiscal year 2000 program level for Solar and Renewable Energy 
Technologies is $398.9 million--an increase of $62.9, or 18.7 percent 
million over fiscal year 1999. The bulk of the EERE Energy and Water 
Development Appropriation supports the work of the Office of Power 
Technologies ($325.2 million). This office works with electric service 
providers and related industries to advance clean, competitive and 
reliable power technologies. We develop renewable energy technologies 
that use solar, wind, hydropower, geothermal and biomass energy 
resources and conduct R&D that will enable a hydrogen energy 
infrastructure in the future. Our program also develops advanced 
technologies--including high temperature superconducting materials, 
real-time power system controls, and energy storage--that will improve 
the energy efficiency and cost-effectiveness of the nation's electric 
systems. Finally, the program facilitates the export of renewable 
energy power generation internationally.
    Included in the Energy and Water Development Appropriation is $53.4 
million for the Office of Transportation Technologies to support R&D on 
production of biomass-based transportation fuels. The requested funds 
also include $19.2 million for Program Direction, which provides the 
Federal staffing resources and associated funding to support the 
management and oversight of the Solar and Renewable programs.
    Table 1 on the following page summarizes our total fiscal year 2000 
budget request, together with the appropriations for fiscal year 1999 
and fiscal year 1997. In the following sections, I describe the details 
of the request. For each major line of the budget, I identify changes 
relative to fiscal year 1999 appropriations and describe program 
specifics and reasons for the requested funding change.

                SOLAR AND RENEWABLE RESOURCE TECHNOLOGIES
                        [In millions of dollars]
------------------------------------------------------------------------
                                              Fiscal year
                             -------------------------------------------
                                                       2000    1999-2000
                                 1998       1999     Request     Change
------------------------------------------------------------------------
Solar Building Technology           2.6        3.6        5.5       +1.9
 Research...................
Photovoltaic Energy Systems.       64.7       72.2       93.3      +21.1
Concentrating Solar Power...       16.3       17.0       18.9       +1.9
Biomass/Biofuels Energy            27.8       31.5       39.0       +7.5
 Systems--Power Systems.....
Wind Energy Systems.........       32.1       34.8       45.6      +10.8
Renewable Energy Production         3.0        4.0        1.5       -2.5
 Incentive..................
Solar Program Support \1\...  .........  .........       10.0      +10.0
International Solar Energy          1.4        6.4        6.0       -0.4
 Program \2\................
Geothermal Energy Systems...       28.7       28.5       29.5       +1.0
Hydrogen Research...........       15.8       22.3       28.0       +5.7
Hydropower Development......        0.7        3.3        7.0       +3.7
Renewable Indian Energy             3.9        4.8  .........       -4.8
 Resources \1\..............
Electric Energy Systems and        42.3       40.1       41.0       +0.9
 Storage....................
Federal Buildings/Remote            4.9        4.0  .........       -4.0
 Power Initiative \1\.......
                             -------------------------------------------
      Power Technologies....      245.2      272.3      325.2      +52.9
                             ===========================================
Biomass/Biofuels Energy            30.3       41.8       53.4      +11.6
 Systems--Transportation....
National Renewable Energy           3.2        3.9        1.1       -2.8
 Laboratory.................
Program Direction...........       15.7       18.1       19.2       +1.1
                             -------------------------------------------
      Subtotal, Solar and         294.4      336.0      398.9      +62.9
       Renewable Energy.....
                             -------------------------------------------
Use of Prior Year Balances..      -24.4  .........       -0.8       -0.8
                             -------------------------------------------
      Total, Solar and            269.9      336.0      398.1     +62.1
       Renewable Energy.....
------------------------------------------------------------------------
\1\ The fiscal year 2000 Budget proposes to consolidate the Renewable
  Indian Energy Resources and the Federal Buildings and Remote Power
  programs through a competitive solicitation under Solar Program
  Support ($10.0). This budget line would also include $2M for
  electricity restructuring.
\2\ Excludes funding for international energy efficiency programs under
  Energy Conservation.

                   solar building technology research
    The request for Solar Building Technology Research is $5.50 
million, an increase of $1.90 million from current levels. This funding 
will be used to make solar water heaters an economically attractive 
option for families across the U.S. by 2003. It will enable the 
Department to develop a new generation of solar water heaters that is 
50 percent less expensive than today's technology (from $0.08/kWh to 
$0.04/kWh delivered energy cost). This would enable a family to buy a 
solar water heater for about $1,000 and see their investment returned 
in energy savings within four years. To accomplish this, the program is 
divided into three areas: Technology Development ($4.7 million), Field 
Validation ($0.5 million), and Quality Assurance ($0.3 million).
    Within Technology Development (up $1.2 million), researchers will 
select two of the concepts under study that are most likely to enable 
the program to reach its cost goal. Development of these concepts will 
then become the focus of the program during fiscal year 2000. It is 
likely that one or both of these systems will use polymers, including 
advanced plastics, as a replacement for the steel, glass, and copper 
that make up current solar water heaters. Since polymers are 
inexpensive and light weight, their use will reduce the cost of the 
solar collector and lower the cost of installation. Work will include 
testing to determine performance, ability to withstand freezing and 
overheating, and weather degradation. Materials research will be an 
important aspect of this work as several polymers formulations will be 
tested to see which are best suited to long term exposure to solar 
radiation.
    In Field Validation (up $0.5 million) cooperative projects with 
utilities and builders will address some of the technical barriers that 
limit the use of solar water heaters. A Cooperative Research and 
Development Agreement with the Salt River Project (a utility serving 
the Phoenix region) will be completed that develops a roof integrated 
solar water heater that can provide hot water at a levelized cost of 
$0.06 to $0.07/kWh. This project, as well as projects with the 
Wisconsin Public Service and Lakeland Electric, is driven by 
restructuring of the electric industry as utilities seek to provide 
additional products and services to their customers. In addition, solar 
technical support will be provided to builders such as Pulte Homes, the 
second largest builder of U.S. homes, and CAVCO, one of the largest 
builders of manufactured homes. All efforts in this portion of the 
program are limited to R&D activities that include system evaluation, 
analysis of system performance, and assistance in solving problems such 
as materials degradation and corrosion that industry cannot address by 
itself.
    Quality Assurance (up $0.2 million) funding will be used to address 
the reliability of solar water heaters, a primary customer concern. 
Performance and repair data from hundreds of systems that have operated 
for at least five years will be analyzed to identify the components and 
subsystems most in need of improvement. This data will be used to 
refine computer models that predict the reliability of solar water 
heating systems. This information will help the solar industry improve 
the reliability of its product and provide guidance to the researchers 
developing the new generation of solar water heaters.
                      photovoltaic energy systems
    The request for Photovoltaic Energy Systems is $93.3 million, an 
increase of $21.1 million from fiscal year 1999. The Photovoltaic 
Energy Systems program conducts a balanced portfolio of R&D activities 
that help U.S. industry to develop photovoltaic technology as a clean, 
competitive, reliable energy supply option, and to maintain 
technological leadership over strong international competition. The 
increase in fiscal year 2000 will primarily be used to support basic 
research to dramatically reduce dollar per watt values for 
photovoltaics in the long term, and to support technology development 
and deployment to incrementally reduce costs in the near term. Based on 
a multi-year technology plan that has been developed in close 
partnership with industry, this balanced program focuses on three key 
activities that industry and other stakeholders have cited as the most 
critical to maintaining and advancing our lead in PV technology and 
products: Fundamental Research ($20.3 million), Advanced Materials and 
Devices ($27.0 million), and Collector Research and Systems Development 
($46.0 million).
    The Photovoltaic Energy Systems program is working hard to increase 
competition and reach out to a broader cross section of the industry. 
For example, the Million Solar Roofs Initiative is forming new 
partnerships all across the country with builders, solar equipment 
manufacturers, city planners, financial institutions and utilities. 
Furthermore, the fiscal year 2000 increases for basic research will be 
used to issue competitive solicitations to a larger section of the 
research community seeking new ideas on non-conventional, breakthrough 
technologies.
    Today, the U.S. stands as the world leader in photovoltaic 
technology, with our industry garnering 35 percent of total sales in 
1998. This has not always been the case, however, nor is it guaranteed 
to continue. Leadership in photovoltaic technology was lost in the mid 
1980's because of strong international support for PV development. As a 
result of our expanded support for advanced technology research and 
other DOE-industry partnership programs, the U.S. was able to recapture 
the lead in global market share for photovoltaic modules in 1993. 
However, in the past two years U.S. leadership has eroded, from 44 
percent of total sales in 1996 to 40 percent in 1997 to 35 percent in 
1998.
    The U.S. photovoltaic industry faces intense competition from Japan 
and Europe, which are aggressively researching and marketing their PV 
technology. For example, Japan's fiscal year 1999 budget for 
photovoltaics is 28.54 billion yen (approximately $240 million), which 
is more than three times our funding level. Half of Japan's budget is 
used to subsidize the purchase of residential PV systems. As a result, 
Japan's PV industry sales grew 40 percent in 1998 and are on pace to 
take over world leadership by the end of this year.
    To maintain U.S. leadership--and to penetrate new, larger markets 
such as energy service providers and building applications--the cost of 
PV systems must be more competitive with other sources of electricity. 
Critical improvements in conversion efficiency, manufacturing, 
reliability and system life are essential. The increased funding 
request will enable the PV program, in cooperation with U.S. industry 
partners, to continue the research needed to resolve these technical 
problems.
    Funding for Fundamental Research (up $9.3 million) will continue 
world-class research at national laboratories and universities on 
advanced concepts for improved technology in the post-2000 time frame. 
Activities will include continued research on several photovoltaic 
semiconductor materials to resolve issues that limit current 
technology. This work will advance the understanding of new and 
improved materials, cell structures, layer growth processes, 
semiconductor theory and material characterization methods.
    Starting in fiscal year 2000 we will begin a High Performance PV 
Initiative to support research to substantially increase the efficiency 
of two key technologies: large area, single crystal interconnected thin 
films, and multi junction concentrator cells made from elemental (III-
V-based) materials such as antimony, arsenide, gallium, phosphorous, 
indium, or nitrogen. Fundamental research aimed at major innovations is 
required to essentially double the conversion efficiency of thin films 
from their current 8-10 percent to 15-20 percent, and to increase III-
V-based multi junction cells from 30 percent to 40 percent under 500X 
solar concentration. Successful development of a 40 percent efficient 
four-junction laboratory cell will allow a 33 percent efficient 
concentrating module under a solar concentration of 500X, thereby 
capturing one third of the sun's energy. Both the enhanced thin film 
approach and the multi junction III-V approach will yield dramatically 
reduced dollar per watt values for terrestrial photovoltaics. Also new 
in fiscal year 2000 will be a competitive solicitation on basic R&D for 
breakthrough, non-conventional PV technologies, such as liquid cells, 
polymers, biochemical and biomimetic processes, etc., aimed at dramatic 
cost reductions. Both of these new basic research activities will be 
core program efforts to meet the Program's long term goals of $0.06/kWh 
electricity.
    Advanced Materials and Devices (no change) will continue 
collaborative research with industry to improve device efficiency and 
stability, particularly for large-area, thin-film deposition systems. 
The centerpiece of this activity is the Thin Film Partnership Program, 
a government/industry/university partnership program to accelerate 
development of cost-effective thin film technologies. Photovoltaic 
devices employing thin-film technology significantly reduce the amount 
of semiconductor material required for power generation. Also, because 
such devices are amenable to mass production, they offer significant 
potential for cost reduction--which would make possible widespread use 
of such technologies as PV shingles. Module reliability research will 
continue to support testing of modules to improve operational lifetime 
in the field.
    Collector Research and Systems Development increases (up $11.8 
million) will be used to help reduce manufacturing costs of 
photovoltaics, develop building integrated products, accelerate 
electric utility use of photovoltaics, and expand work in support of 
the million solar roofs initiative. Key to maintaining U.S. 
competitiveness over the next five to ten years, manufacturing process 
research and development under the Photovoltaic Manufacturing 
Technology (PVMaT) partnership will continue cost-shared research with 
industry to reduce module manufacturing costs, improve module 
performance, and stimulate investment in new manufacturing production 
lines. As a result of this cost-shared R&D with industry, average 
manufacturing costs for DOE partners have declined by 50 percent since 
PVMaT began and are expected to decline by another 40 percent by 2004. 
In fiscal year 2000, a PVMaT competitive solicitation to develop new in 
line process diagnostics and state-of-the-art measurement and 
characterization equipment needed for module scale-up will be issued, 
resulting in 5-7 new industry cost-shared contracts. A new solicitation 
will be issued for highly leveraged utility projects designed to 
provide utilities with hands-on experience with PV systems, and 
validate technical and economic performance in specific high-value 
applications such as building integrated applications. A portion of the 
increase will also be used to fully fund Phase 3 building integrated 
contracts under the PV:BONUS program, which supports cost-shared 
efforts with industry and others to develop PV products that can be 
integrated into commercial and residential buildings.
    In addition, a part of the increase in Collector Research and 
Systems Development (up $1.5 million) will be targeted at specific 
activities that support the million solar roofs initiative. An 
important goal of this initiative is to help develop a significant 
domestic market for U.S.-manufactured solar energy systems, to provide 
a firm base for U.S. industry expansion and market competitiveness. 
Without such a base, as is being actively pursued in other countries 
such as Germany and Japan, it is likely that PV systems will become an 
example of technology developed here but exploited abroad.
    In fiscal year 2000, the Million Solar Roofs Initiative will work 
with 25 State and Local Partnerships across the nation which have made 
preliminary commitments to install over 750,000 solar energy systems by 
2010. These Partnerships work to eliminate barriers to the use of solar 
energy and create market demand. The members of the Partnerships often 
include utilities and energy services companies, builders and 
developers, financial institutions, solar equipment manufacturers and 
distributors, local government, state and Federal agencies and other 
solar energy interests. Work will be expanded that includes development 
of additional financing mechanisms, elimination of technical barriers 
like the safe interconnection of photovoltaics to the utility grid, 
technical training and establishment of net metering. Establishment of 
the national Million Solar Roofs registry to track system installations 
will also be fully implemented. Additionally, the Initiative will also 
work to ensure that solar energy systems meet the requirements and 
standards of state and local codes and standards. To ensure that the 
Initiative is responsive to the State and Local Partnerships, the DOE 
Regional Support Offices will coordinate Federal support and provide 
technical assistance. As the largest single user of energy in the U.S., 
the Federal government is committed to installing 20,000 solar energy 
systems on its own facilities by 2010. In fiscal year 2000, the 
Initiative has an interim goal of 2,000 Federal solar energy 
installations.
                   concentrating solar power program
    The fiscal year 2000 funding request for the Concentrating Solar 
Power (CSP) Program (formerly the Solar Thermal Energy Systems program) 
is $18.85 million (up $1.85 million). The CSP Program leads the 
national effort to develop clean, competitive, and reliable power 
options using concentrated sunlight. Ranging in size from several 
kilowatts to multi-megawatt installations, CSP systems can satisfy 
substantial domestic and international energy needs, contributing up to 
20,000 MW by the year 2020. Consequently, CSP systems are also expected 
to make a significant contribution to the U.S. effort to reduce carbon 
emissions in the early part of the 21st Century. An advantage of 
concentrating solar power systems is the capability of being deployed 
as either a distributed power system or as a dispatchable power system 
(when hybridized), or both.
    In response to the changes brought on by utility restructuring and 
the resulting emphasis on competition, the CSP program has revised its 
focus from developing specific technologies to providing technology 
options to U.S. industry that will enable them to compete in near-term 
renewable energy markets and further reduce the costs for long-term 
penetration of broader energy markets. This paradigm shift has led to 
the four new program technology paths described below.
    Under the first path, Distributed Power Systems, ($6.7 million 
requested, up $1.4 million) the CSP Program will work with three 
industry partnerships to develop and demonstrate reliable dish/engine 
systems. Under the Utility Scale Joint Venture Project (USJVP), three 
25 kW systems are undergoing intensive reliability monitoring in fiscal 
year 1999 and fiscal year 2000, with a near-term goal of reaching 1,000 
hours between down times. In order to encourage competition, a second 
solicitation was issued for alternative designs under the Dish/Engine 
Critical Components (DECC) Project in fiscal year 1998. Awards were 
made and operating hours are being accumulated on this system to prove 
reliability. Next-generation improvements are being incorporated in 
fiscal year 1999, with a completely-modernized, full-scale 25 kW 
prototype system to be installed in fiscal year 2000. A third project 
was launched in fiscal year 1999 to field an advanced-technology 10 kW 
solar dish/engine system at a remote site in the Southwestern U.S. In 
fiscal year 2000, the off-grid capability of the system will be 
developed and tested. These systems are equally suited for either 
stand-alone operation or for being hybridized with natural gas or 
diesel fuel.
    The focus of the second path is to reduce the costs of Dispatchable 
Power Systems ($5.34 million, down $0.63 million). Based on the results 
of an industry-led trough technology roadmap, a number of component and 
system improvements were identified as being able to reduce the costs 
of near-term trough plants from the current 10-12 cents/kWh to 6-
8 cents/kWh. To meet this need, the USA Trough Initiative was launched 
in fiscal year 1999. Fiscal year 2000 work will focus on optimization 
of the collector design, improved system integration with conventional 
power plants (e.g., natural gas combined-cycle). This initiative will 
reopen a domestic market for trough systems and provide a leading 
position for U.S. industry in bidding on projects currently before the 
World Bank. Additional activities include a SolMaT effort to develop 
low-cost drives and concentrators.
    Path three, Advanced Components and Systems ($5.96 million 
requested, up $0.97 million), addresses the longer- range R&D required 
for CSP systems to achieve energy costs in the 4 to 6 cents/kWh range, 
thus allowing penetration of broader domestic and international 
markets. In fiscal year 2000, the program will continue current project 
work focused on higher-temperature technologies, the development of 
durable reflective materials, and higher efficiency system designs 
through the improvement of both solar concentrators and receivers.
    The fourth path, Strategic Alliances & Market Awareness ($0.85 
million requested, up $0.11 million), covers technology transfer, 
communications, and technology roadmapping efforts to ensure that the 
CSP program is focused on the needs of industry and the realities of 
the marketplace. Analyses and studies conducted in fiscal year 2000 by 
the world-class researchers at SunLab (a ``virtual'' laboratory 
comprised of the CSP researchers at Sandia National Laboratories and 
the National Renewable Energy Laboratory) are heavily relied upon by 
U.S. industry, Federal and State agencies, and other organizations 
involved in renewable energy development.
                          wind energy systems
    The fiscal year 2000 funding request for the Wind Energy Systems 
program is $45.6 million, an increase of $10.8 million over the fiscal 
year 1999 appropriation. The mission of the Wind Energy Systems program 
is to enable U.S. industry to complete the research, testing, and field 
verification needed to fully develop advanced wind energy technologies 
that lead the world in cost-effectiveness and reliability. Wind energy 
has been the fastest growing source of energy in the world for the last 
decade, with capacity additions worldwide totaling over 2000 MW in 1998 
and industry sales of over $2 billion. Wind power stations in Europe 
and developing countries account for most of the recent capacity 
increases, using wind turbines supplied primarily by European 
companies. While wind power development in the United States is 
beginning to recover from several years of stagnation, prospects for 
sustaining this growth are still highly uncertain as electric power 
markets deregulate and place increased emphasis on low cost of energy 
production. The key to positioning wind as an important U.S. clean 
energy option for new competitive power markets, as well as export 
markets, is the development of innovative, cost-competitive technology 
that is being carried out under the Wind Energy Systems program. The 
program is currently partnering with industry for R&D targeted to 
reduce cost of energy from wind to 2\1/2\  cents/kWh at sites with good 
winds.
    In fiscal year 2000, the Wind Energy Systems program will focus on 
Applied Research ($13.5 million), Turbine Research ($20.2 million), and 
Cooperative Research and Testing ($11.9 million).
    Applied Research (up $2.8 million) addresses fundamental 
engineering and technology issues with a broad range of applications, 
and is carried out at National laboratories and numerous universities. 
The requested increase will support the Wind Partnerships for Advanced 
Component Technologies (WindPACT) project. Under WindPACT, promising 
research ideas and concepts generated in Applied Research will be 
further developed and tested by a joint team of industry and laboratory 
researchers on a component and subsystem basis. WindPACT will develop 
improved wind technology components such as self-protecting rotors, 
passive aerodynamic controls, and new generators that can readily be 
incorporated into new turbine designs beyond those now included in the 
Next Generation Turbine project. This competitive effort is expected to 
attract new players into the wind industry because partnerships between 
new entrants and existing wind companies will be encouraged and 
previous technical experience with wind will not be required.
    Turbine Research (up $3.8 million) is a cost-shared cooperative 
program with industry and utilities that supports competitively-
selected research, testing, and field verification needed for advanced 
technology wind turbines. The requested increase for Turbine Research 
will support continuing partnerships with seven companies, and 
initiation of several new field verification projects that will be 
tailored to satisfy specific regional needs. Two companies are 
designing turbines under the Next Generation Turbine project, which is 
targeted to reduce energy costs from wind systems to 2\1/2\  cents/kWh 
at 15 mph wind sites by 2002. In fiscal year 2000, these companies will 
require increased funding as they enter into a period of peak design 
activity and hardware procurement for their engineering and 
manufacturing development prototype turbines. The Near Term Research 
and Testing project will be completed in fiscal year 2000, yielding 
several technological advancements for a more cost effective 750 kW 
turbine, to help U.S. industry compete in current world markets. 
Testing of prototypes will commence under the Small Wind Turbine 
project, and several new field verification projects using small (up to 
100kW) wind turbines will be in operation. The program will also take 
the lead in completing R&D and field verification for a wind turbine 
intended for use in extreme cold environments, such as Alaska and the 
Antarctic, as the third phase of a Small Business Innovation Research 
project begun by the National Aeronautics and Space Administration and 
the National Science Foundation.
    Cooperative Research and Testing (up $4.2 million) focuses on near-
term R&D and testing at the world-class National Wind Technology Center 
(NWTC) in Colorado, which features a user facility that allows U.S. 
industries to expand testing of new wind energy technologies. The 
requested funding increase will launch a new cooperative effort with 
industry--Hybrid Systems for Village Power--which will build upon the 
experience with ongoing wind hybrid power projects in Alaska and 
provide opportunities for field verification on new wind control 
systems and system integration options. In addition, a new Wind 
Monitoring Network will provide verifiable data on long-term 
performance of several large new wind projects. This information is 
needed for developing strategies to accelerate the use of wind energy 
under the new rules of the emerging competitive power markets. NWTC 
capabilities for providing accredited certification testing services 
will be expanded, and efforts will continue in establishing U.S. 
certification capability for wind turbines in cooperation with 
Underwriter's Laboratories (UL). UL is now offering certification 
services to the wind industry--one wind turbine company has already 
contracted for UL certification--and will begin to work with the NWTC 
staff to define certification procedures. NWTC staff are presently 
developing quality assurance, testing, and design evaluation procedures 
which will be used to test turbines for UL certification.
                           biopower/biofuels
    We are requesting $92.4 million for Biopower/Biofuels programs in 
fiscal year 2000, an increase of 21 percent. This includes $6.0 million 
to support the Bioenergy Initiative described earlier in this 
testimony. The Initiative is an integrated effort spread among three 
sectors within the Office of Energy Efficiency and Renewable Energy in 
partnership with the private sector. The program supports biomass 
energy projects aimed at three principal markets: electric power; 
transportation fuels; and chemicals.
    The following is a brief discussion of the Biopower and the 
Biofuels Programs:
Biopower Program
    The budget requests for the Biopower program with the Office of 
Power Technologies is $38.95 million in fiscal year 2000--an increase 
of $7.5M over fiscal year 1999. The Biopower Program mission is to 
integrate sustainable biomass feedstock production with efficient 
biomass power generation systems that can provide substantial energy, 
economic, and environmental benefits. The program focuses on 
collaborative partnerships between the Department and the private 
sector to conduct critical research, development, and cost-shared 
demonstration activities. Through the introduction of competition to 
the generation market, power producers who can also produce a variety 
of energy related co-products will capture an increasing volume of 
electricity sales. These applications will provide broader based, near 
term markets for advanced biopower systems. The program's goal is the 
establishment of 30,000 MW of renewable biomass capacity installed by 
2020. The request includes $2.7 million for Thermoconversion and $32.15 
million for Systems Development. Also included under collaborative co-
funding with biofuels are $3.1 million for feedstock development and 
$1.0 million for the regional biomass energy program.
    Thermoconversion.--The increase in Thermoconversion (up $1.2 
million) will support basic research in biomass combustion and 
gasification characteristics, especially related to cofiring biomass 
with coal (a major near-term, low-cost market opportunity) and as 
applied to integrated gasification power producing systems.
    Systems Development.--Within the Systems Development activity (up 
$5.8 million), $5.5 million is requested for the Vermont Gasifier 
Project, $17.3 million is requested for the DOE/USDA Biomass Power for 
Rural Development Initiative (an increase of $1.8 million), $5.4 
million is requested for the Co-firing Biomass with Coal Initiative (an 
increase of $2.9 million), and $4 million is requested for Small 
Modular Systems Development.
    The Vermont Gasifier project will demonstrate a pilot-scale state-
of-the-art gasifier combined with an advanced turbine, producing 
approximately 8-12 MW of electricity from wood. In fiscal year 2000, a 
hot-gas clean-up unit will be installed and the integrated combined 
cycle gasification systems will be operated for 1,000 hours at double 
the efficiency of direct- fired biomass units.
    The Biomass Power for Rural Development initiative in fiscal year 
2000 would support three projects: (1) co-firing tests of a 35 MW 
retrofitted plant with switchgrass in Chariton Valley, Iowa project 
will begin and up to 3600 acres of switchgrass will be planted ($1.8 
million); (2) cofiring tests of willow and coal will be conducted along 
with the completion of retrofit of two additional coal plants and up to 
600 acres of willow will be planted as part of the New York Salix 
project ($1.5 million); and (3) construction of the 75 MW Minnesota 
Valley Alfalfa Producers integrated gasification combine cycle power 
plant ($14 million).
    The Co-firing Biomass with Coal initiative, currently conducting 
test runs on the effectiveness of blends of coal and biomass, will 
expand in scope to additional sites to include biomass gasification. 
Sustained operations at selected sites will also be demonstrated. 
Modular systems development is funding feasibility studies, prototype 
demonstrations, and proceeding to full systems integration and 
development of smaller gasification units (5kW to 5MW).
Transportation Biofuels
    The Transportation Biofuels Energy Systems program within the 
Office of Transportation Technologies has a budget request of $53.4 
million in fiscal year 2000--an increase of $11.7 million over fiscal 
year 1999. The mission of this program is to research, develop, and 
demonstrate cost competitive technologies for the production of liquid 
transportation fuels, in collaboration and partnership with industry, 
other government organizations, and academic institutions. In support 
of this mission, the program pursues the development of low-cost 
biomass energy feedstocks and cost competitive conversion technologies 
for liquid fuels production from agricultural residues, forestry 
wastes, and energy crops. The development and deployment of biofuels 
technologies can displace 0.30 quads of primary energy by 2010 and 0.84 
quads by 2020, while promoting rural economic development. Since 
biofuels produce almost no net carbon on a life cycle basis, they are a 
very promising supply side option for reducing carbon emissions in the 
transportation sector.
    The requests of $53.4 million for the Transportation Biofuels 
Energy Systems Program includes $37.4 million for ethanol production, 
$1.0 million for biodiesel production, and $6.0 million for integrated 
bioenergy research and development. The request includes $5.5 million 
for feedstock development and $3.5 million for the regional biomass 
energy program (collaborative co-funding with the Biopower program).
    Ethanol production (up $1.5 million) is a major focus of the 
Transportation Biofuels program, comprising 70 percent of the budget 
request. Currently, ethanol is being used as a blend with gasoline in 
10 percent ethanol/90 percent gasoline mixtures, can be used in 
flexible fueled vehicles (up to 85 percent ethanol blends) and is being 
considered for use in fuel cells.
    We have established three industrial partnerships for the 
construction of ethanol production facilities using waste biomass. 
These highly leveraged partnerships, with DOE providing around 20 
percent of the costs will result in ``first of a kind'' commercial 
technology demonstration plants. We recently attended a ground breaking 
ceremony for the construction of the first partnership project--a 20 
million gallon waste to ethanol facility in Jennings, Louisiana. The 
other two partnerships are to build ethanol production facilities in 
California and New York. We are also working with the existing corn 
(starch based) ethanol industry to demonstrate biomass (cellulose) 
technology as add-on facilities using corn stalks and corn fiber to 
increase production and improve economic viability of the process. At 
least one feasibility study for an add-on facility will be completed in 
fiscal year 1999.
    The program will also continue advanced technology research and 
development at our National Laboratories will improve energy conversion 
and integrated process efficiencies and address key cost factors to 
reach the production cost goal of $0.72 per gallon by 2010.
    The Biodiesel program (up $0.2 million) will continue research and 
development of efficient technologies for the production of biodiesel 
to lower the cost of a biomass-based alternative to diesel fuel. 
Opportunities for converting low- cost waste oils will be explored.
Collaborative Funding by Biopower and Biofuels
    The $8.6 million Biopower/Biofuels request for Feedstock 
Development (up $3.5 million) will expand the research and development 
to increase the number of crop species for regional diversity and the 
increase of the number of yearly harvesting in order to improve the 
economics utilization of feedstock for production. These feedstocks 
will provide a sustainable, reliable supply of biomass which can be 
used for the production of fuels, chemicals and power. The Biopower/
Biofuels request for the Regional Biomass Energy Program of $4.5 
million (up $1 million) will continue regionally focused activities 
with State and local governments to increase the development and use of 
biomass resources for multiple products.
             renewable energy production incentive program
    The request for the Renewable Energy Production Incentive Program 
is $1.5 million, a $2.5 million decrease from fiscal year 2000 funding 
levels. Annual appropriations provide financial production incentives 
to stimulate the construction and operation of new, qualified renewable 
energy facilities owned by state entities, municipal utilities, and 
electric cooperatives that produce and sell electricity. We estimate 
that fiscal year 2000 payments to qualified Tier I facilities--which 
use solar, wind, geothermal or dedicated (closed-loop) biomass 
resources--will require approximately $0.3 million to pay for 
electricity generated and sold. Remaining funds will be applied to 
qualified Tier II facilities, and include non- dedicated (open-loop) 
biomass resources (which would not be eligible for renewable energy tax 
credits if they were owned by private industry).
    A number of very legitimate concerns regarding the proposed cut in 
REPI funding have been raised by the public power community. We are 
carefully revisiting this issue.
                         solar program support
    The fiscal year 2000 request for Solar Program Support is $10 
million, $8 million for a Competitive Solicitation which would combine 
current the current Renewable Indian Energy Resources and Federal 
Buildings/Remote Power programs to encourage innovative applications 
and deployment of renewable electric technologies and would provide $2 
million for Electricity Restructuring.
    The $8 million requested for a Competitive Solicitation (down $0.8 
million from the predecessor programs) will speed early deployment of 
renewable technologies by seeking technology proposals on the best ways 
to use renewable technologies, either singly or in combination with 
other renewable technologies, or in hybrid configurations with fuel 
cells, natural gas or energy storage systems.
    The two primary objectives of the Competitive Solicitation program 
are: (1) to prove the availability of clean, affordable, and reliable 
electric power supply options for the many remote and/or economically 
challenged regions of the Nation; and (2) to obtain essential data on 
operational performance, reliability, and benefits of renewable energy 
and hybrid renewable energy systems in various geographic locations and 
climatic conditions.
    The information and experiences gained through this Competitive 
Solicitation program will also help overcome specific impediments to 
more widespread use of renewable electricity technologies. Currently, 
renewable energy projects are hampered by the uncertainties of electric 
utility restructuring, the current low price and perceived availability 
of natural gas, and improvements in gas turbine technology. The 
increasingly competitive restructured electric environment also favors 
technologies with low capital costs over technologies with higher 
capital costs, but lower life cycle costs. Rather than high project 
technical or financial risk, the major hurdle often facing renewable 
energy projects is identification of project structures in the new 
marketplace that would allow acquisition of long term power purchase 
contracts and project financing. Such new structures include renewable 
energy power marketers, hybrid projects with renewables and natural 
gas, investments in distributed renewable electricity generation, and 
customer choice.
    This six-year, highly-leveraged program would combine two previous 
budget items--the Renewable Indian Energy Resources and Federal 
Buildings/Remote Power programs--into a single, integrated, technology-
focused competitive field validation program. (Compared to the prior 
programs, funding is reduced by $0.8 million.) In keeping with the 
origins of this program, the Solicitation program would designate two 
targeted areas for competitive awards--systems benefitting Native 
Americans and systems addressing the needs of Federal facilities--in 
addition to providing for an ``open'' solicitation for other 
applications of these systems. Remote power needs will continue to be 
addressed as aspects of all three segments of this solicitation. Of the 
$8.0 million proposed for fiscal year 2000, up to $3.0 million of the 
solicitation will be dedicated to projects benefitting Native 
Americans. Native American projects will require a minimum 20 percent 
cost-sharing, and the ``open'' portion of the solicitation will require 
at least 75 percent non-DOE funding. For a number of reasons, there are 
tremendous synergies between renewable energy technologies and the 
energy needs of Native Americans. Renewable resources such as solar and 
wind are often abundant on tribal lands. In addition, Native Americans 
often have substandard or, in some cases, no electricity service. 
Renewable energy technologies can often provide the most cost-effective 
option for providing electricity on tribal lands and can also be a 
source of employment for tribes installing such systems onsite.
    The request for Electricity Restructuring for fiscal year 2000 of 
$2 million represents an increase of $100,000 over fiscal year 1999 
appropriations. The purpose of the Department's electricity 
restructuring activities is to develop a comprehensive understanding of 
emerging electricity competition policies across the country and their 
impacts on renewable energy and energy efficiency products and 
services, and the impacts on various public benefit programs such as 
low-income assistance.
    The program will provide technical assistance and analysis to 
State, Federal and tribal decision makers and others to assist them in 
their efforts to achieve their renewable energy, energy efficiency, and 
consumer protection goals as the industry is changed. This work is 
critical to renewable and energy efficiency technologies because the 
new electricity market and regulatory rules will have a major impact on 
future technology deployment.
    Due to the introduction of competition the electricity sector is 
undergoing the most significant transformation that has occurred in 
over 60 years. Fourteen States have enacted retail competition 
legislation to permit customers to choose their electricity supplier 
and four others have issued comprehensive competition orders. Fourteen 
other States ended their 1998 legislative sessions with comprehensive 
retail competition bills pending.
    The transition to competition is challenging for a number of 
reasons including the technical complexity of the electricity system, 
the intricate web of Federal, State, and local law and regulation, and 
regional differences. As a consequence, policy makers at all levels of 
government need analysis and technical assistance on a portfolio of 
market and policy mechanisms to achieve their restructuring goals. The 
demand for this assistance is very high. For example, as part of the 
recent broad-based solicitation, the Department received far more 
restructuring-related analysis and technical assistance proposals than 
our resources can support.
    Although each State and region face unique electricity policy 
challenges, there are many common issues. Furthermore, many States lack 
the resources and expertise needed to address the complexities of 
electricity restructuring and to keep track of what other States are 
doing. Consequently, it is often more cost-effective and efficient for 
certain technical assistance and analysis to be provided at the federal 
level rather than duplicated on a State-by-State basis. In addition, 
although a plethora of studies and analyses funded by entities with 
economic interests in certain restructuring outcomes exist, user-
friendly information from independent entities on key policy issues is 
often in short supply. The EERE electricity restructuring program works 
to fill this information gap.
    The restructuring program is also important to the development of 
EERE's own research and development agenda. The success of our R&D 
agenda hinges, in part, on assuring that the technologies we help 
develop are compatible with the rapidly evolving electricity market 
structure. Thus, the restructuring program informs our R&D work. For 
example, the introduction of competition is likely to favor modular, 
distributed systems that are less capital intensive than central 
station plants. In response, many of our R&D programs are increasingly 
focused on modular applications.
    In fiscal year 2000, the Department proposes to expand technical 
analyses on the impacts of electricity restructuring on renewable 
technologies and energy efficiency technologies. Analyses on market 
mechanisms such as labeling of electricity products for consumers, 
``green'' certification, and energy services strategies will be 
completed. The program will provide tools and information for policy 
makers to develop legislative and regulatory policies that lead to 
competitive, reliable electricity markets with a range of energy 
options including renewable energy and efficiency technologies. To 
facilitate these efforts, the program will also encourage the States 
and others to form regional information exchange networks to share 
``lessons learned'' about what does and doesn't work.
                  national renewable energy laboratory
    The fiscal year 2000 request of $1.1 million for the National 
Renewable Energy Laboratory (NREL), (down $2.8 million), is to provide 
for maintaining NREL facilities to assure appropriate scientific and 
technical support for Solar and Renewable Energy R&D activities. The 
request will fund infrastructure renovations and upgrades at the NREL 
sites, including minor modifications, road repair, safety fencing, roof 
repairs, and the installation of a 2,000 square foot multi-user 
prefabricated facility for solar radiation research. In addition, the 
request will fund acquisition of a variety of critical multi-program 
laboratory equipment needed to upgrade or replace old equipment, and 
also provide for the upgrading of the laboratory's data system 
infrastructure.
                           geothermal energy
    The Geothermal Energy request for fiscal year 2000 is $29.5 
million, an increase of $1.0 million over fiscal year 1999 levels. The 
Geothermal program in the Office of Geothermal Technologies works in 
partnership with U.S. industry to establish geothermal energy as a 
sustainable, environmentally sound, and economically competitive 
contributor to the U.S. and world energy supply. These joint efforts 
sponsor research and development that leads to advanced technologies to 
improve reliability, reduce environmental impacts, and lower costs of 
geothermal energy systems. The budget request supports the five goals 
of the Geothermal Energy Strategic Plan for 2010 which have been 
endorsed by industry: supplying the electrical power needs of 7 million 
U.S. homes; providing the heating, cooling, and hot water needs of 7 
million U.S. homes; meeting the basic energy needs of 100 million 
people in developing countries; ensuring that the United States 
continues to lead in geothermal technology; and developing new 
technology to meet 10 percent of U.S. non-transportation energy needs. 
In contrast to last year, the budget request is allocated solely for 
Geothermal Electric R&D and Development ($29.5 million). No funds are 
requested for Geothermal Heat Pump Deployment in fiscal year 2000. The 
$29.5 million request is allocated among: reservoir technology, $8.0 
million; exploration, $7.0 million; drilling $7.5 million; and energy 
conversion, $7.0 million.
    The Reservoir Technology program (+$2.5 million) will perform water 
injection tests at a commercial site at Dixie Valley, Nevada, develop a 
suite of chemical tracers for tracing the flow of injected water, and 
use field test data to improve reservoir models. These efforts will 
lead to proper fluid management practices which could enable a 
geothermal field to operate productively for over 100 years. The 
Enhanced Geothermal Systems initiative under the Reservoir Technology 
program will focus on extending the productivity and lifetime of 
geothermal reservoirs through rock fracturing, stimulation, and water 
injection.
    The Exploration program (+$1.5 million) will collaborate with 
industry on 3D-seismic techniques to locate and characterize new 
geothermal fields. Individual geophysical methods will be integrated to 
develop ``smart'' systems which will select more reliable exploration 
targets. Greater effectiveness in locating geothermal resources will 
greatly reduce the number of non-productive wells.
    The Drilling program (+$2.5 million) will complete the testing of 
improved PDC drill bits, unshielded high-temperature logging tools, and 
a high-temperature casing inspection tool. The Geothermal Advanced 
Drilling System will be initiated which will give economic access to 
the extremely large geothermal resources contained in rocks at great 
depth. One element of the Geothermal Advanced Drilling System is a high 
speed data link that will transmit a variety of real-time drilling data 
to the surface for decision making while drilling. About 50 percent of 
the cost of the high speed data link will be provided by major private 
sector partners. In addition, a consortium for high-temperature 
electronics suitable for applications in geothermal wells will be 
formed by the Gas Research Institute, Honeywell, Boeing, other industry 
leaders, and the Drilling program. Finally, the program will transfer 
to industry the technology to acoustically align downhole line shaft 
pumps which will save industry millions of dollars annually.
    In the Energy Conversion program (+$1.0 million), the Kalina Cycle, 
a new plant design for more efficient and cost-effective electricity 
generation, will be tested in partnership with industry. The non-
Federal cost share of this demonstration project is over 60 percent. 
The program will also field test gas monitors and anti-fouling coatings 
for heat exchanger tubes which will reduce geothermal power plant 
operating and maintenance costs. The new Modular Geothermal Power Plant 
initiative under the Energy Conversion program will support the design, 
construction, and testing of a small (300 to 500 kW) power module for 
distributed or off-grid sites. This initiative creates a supply option 
for developers wishing to install small-scale geothermal plants which 
can be used in remote, off-grid, and/or grid-connected locations, 
providing flexibility in adapting to the changing electric power 
industry. This is particularly important because geothermal is emerging 
as an attractive ``green power'' customer choice option as program R&D 
continues to cut power generation costs.
    Competition is key to the cost-effective management of geothermal 
R&D activities. All three geothermal initiatives described above, as 
well as many other research and development activities, will be 
competed through solicitations.
                                hydrogen
    The request for Hydrogen is $28 million, an increase of $5.7 
million from fiscal year 1999. Industry is investing substantially in 
both hydrogen production systems and the development of the Proton 
Exchange Membrane (PEM) fuel cells that require a hydrogen stream to 
operate. Buses powered by fuel cells with onboard hydrogen are being 
tested in metropolitan districts, and residential fuel cell systems are 
entering into pre-commercial testing. These ventures portend commercial 
activities for the distributed production, storage and utilization of 
hydrogen by 2001 to 2003.
    The Hydrogen Program is authorized by the Hydrogen Future Act of 
1996 to fund those projects which are evaluated on a competitive basis. 
In fiscal year 1999, the Department funded 92 percent of the Hydrogen 
Program through four competitive solicitations. The fiscal year 2000 
request will support a balanced program to increase market penetration 
of renewable/hydrogen energy systems and hydrogen-powered vehicles, and 
long-term research and development in the production of hydrogen from 
renewable resources through a similar competitive process. The program 
focuses on three key activities: Core Research and Development ($14.1 
million), Technology Validation ($11.4 million), and Analysis and 
Outreach ($2.5 million).
    Core Research and Development (up $5.0 million) supports R&D on 
hydrogen production, storage and utilization. The increased funding 
will fully fund thermal conversion processes that produce hydrogen from 
natural gas with a 25 to 35 percent decrease in the cost of producing 
hydrogen over conventional processes. Long-term research programs will 
also be enhanced in awarding multiple cooperative agreements for 
photobiological and scaled-up photoelectrochemical processes. These key 
activities, in conjunction with the industrial development of the PEM 
fuel cell, will enhance the ability of the industry to consider low-
cost hydrogen options for power, industry and transportation market 
sectors by 2004.
    Storage R&D is focused on developing and demonstrating hydride and 
carbonaceous materials for the storage of hydrogen at low temperatures 
for power and transportation applications. The increased funding will 
permit the award of one project to characterize a family of new metal 
hydride materials and another award to assemble carbon absorbents into 
a laboratory system.
    Utilization technology is focused on developing and demonstrating 
end-use power systems that are safe, and have near-zero or zero 
emissions with an overall generation efficiency greater than 45 
percent. A newly developed solid state hydrogen leak detector prototype 
design will be fabricated and field tested. A low-cost 25 kWe fuel cell 
will be demonstrated.
    Technology Validation (up $0.4 million) supports 50/50 cost-shared 
ventures with industry on hydrogen vehicle fueling stations, vehicle-
mounted hydrogen storage systems, reversible fuel cells to operate with 
renewable systems, and small hydrogen fuel cell systems for remote 
power applications. The fiscal year 2000 request supports the operation 
of a reversible fuel cell with 60 percent round-trip efficiency; the 
incorporation of high-pressure hydrogen storage on vehicles; 
construction of a quick-fill refueling station to service Las Vegas 
shuttle buses and government vehicles; and the design and construction 
of small-scale fuel cells for remote applications.
    Analysis and Outreach (up $0.3 million) conducts portfolio and 
technology analyses to determine what steps are required to transition 
to a hydrogen energy economy. Technology analyses will periodically 
review specific areas (i.e., thermoconversion, storage, etc.) to ensure 
that research is of high quality and of significance to the overall 
objectives of the program.
                               hydropower
    For fiscal year 2000, the Department is requesting $7.0 million for 
Hydropower Development, an increase of $3.8 million over fiscal year 
1999 funding. With this funding, the program will complete proof-of-
concept testing of an innovative, non-shearing ``fish-friendly'' 
turbine design (competitively selected in earlier activities) and will 
provide for the completion of experiments to develop biological 
performance criteria for advanced turbine design. The program will also 
initiate the competitively selected engineering design of a ``fish-
friendly'' turbine to increase dissolved oxygen.
    Once complete, these new turbines can replace equipment at existing 
facilities where environmental concerns may cause a reduction in 
generation. Hydropower provides approximately 10 percent of the total 
U.S. electricity generation today; diminished power production from 
this clean baseload power resource would have serious environmental and 
economic impacts on our nation. This cost-shared program with industry 
would maximize power generation from hydropower facilities and help 
develop an important export market for U.S. companies.
                  electric energy systems and storage
    $41.0 million is requested for the Electric Energy Systems and 
Storage program in fiscal year 2000, an increase of $0.9 million from 
fiscal year 1999. The program is working with partners to develop 
advanced power systems that will make the delivery of electric power 
more efficient and cost effective, reduce power sector emissions, 
facilitate market penetration of renewables, and enhance U.S. 
industrial competitiveness. The program includes efforts on 
Transmission Reliability Research ($4.0 million), High Temperature 
Superconductivity ($31.0 million), Energy Storage ($6.0 million), and 
Climate Challenge (no funds requested).
    The fiscal year 2000 budget request for Transmission Reliability 
Research is $4.0 million, an increase of $1.0 million from fiscal year 
1999. Before electric restructuring, vertically integrated utilities 
sold electricity and reliability services from central station power 
generators over transmission lines that were constructed to serve 
specific load areas. This system was not designed to allow competitive 
sales of energy and services from any generator to any customer, and 
the resulting constraints to this type of operation must be resolved 
cost effectively to allow full market competition. Transmission 
Reliability provides Federal support to develop technologies and policy 
options that will maintain and improve the reliability of the Nation's 
electricity delivery system during the transition to competitive power 
markets. The program is being implemented through a National 
Laboratory/electricity industry partnership, and is leveraging funds 
from other partners. Transmission Reliability has two key activities: 
Power System Reliability ($3.8 million) and Distributed Power ($0.2 
million).
    Power System Reliability (up $1.3 million) will develop advanced 
computational and information systems to monitor and control the power 
system in real time, and advanced power electronics to accomplish fast, 
high-power switching under real time system control. Reliability 
technologies and policy options are developed in the context of 
competitive markets, and research will account for changes in market 
forces as rules and restructuring legislation are developed and 
implemented. Real-time control of the power system can provide 
information to remove transmission bottlenecks and operate the system 
in a way that can turn ``two-lane roads'' into ``superhighways,'' 
releasing capacity for competitive markets.
    Distributed Power (down $0.3 million) funding will continue 
development of technologies, and removal of technical, regulatory, and 
institutional barriers to enable the integration of distributed 
generation and storage into the electric and natural gas systems. 
Distributed technologies include renewable resources, fuel cells, 
microturbines, battery and flywheel storage, and direct load control. 
Integration of these technologies offers environmental and economic 
benefits and extends competition to the retail customer level.
    It is anticipated that the Transmission Reliability program will 
last approximately five years and will ensure that research and 
development for reliable systems and competitive markets is maintained 
until new market and/or regulatory structures are developed that 
provide the incentives for the private sector to assume this work. The 
program will be reassessed each year to determine the need for Federal 
involvement depending on the nature and implementation needs of new 
regulations, and the impact of market forces.
    The fiscal year 2000 budget request for High Temperature 
Superconductivity is $31 million, a decrease of $1.5 million. The 
funding is divided between the Superconductivity Partnership Initiative 
($14.0 million), Second Generation Wire Initiative ($8.0 million) and 
Strategic Research ($9.0 million). The program is accomplishing two 
major technological goals: solving the difficult problem of 
manufacturing electrical wires from the family of brittle ceramic 
superconducting materials, while, in parallel creating designs of 
super-efficient electrical systems. The products will be resistance-
free electrical wires that carry 100 times the current of conventional 
alternatives and the design of advanced systems that have only half the 
energy losses and are half the size of conventional alternatives of the 
same power rating.
    The Superconductivity Partnership Initiative (down $0.5 million) 
will support six major projects to develop first-of-a-kind electrical 
systems that can provide quantum improvements to the efficiency and 
capacity of the national electrical grid. These include transmission 
cables, transformers, large motors, flywheel energy systems and 
magnetic separation systems that meet required performance goals. The 
revolutionary equipment emerging from the program in the 2005-2010 
timeframe will have a major role in meeting the new demands of a 
competitive electricity industry for increased capacity and 
reliability. Superconducting cables will relieve congestion at critical 
parts of the grid as well as improve delivery efficiency. They will 
also allow load growth in urban areas to be accommodated by repowering 
existing ducts, without the need for acquiring new property. 
Superconducting transformers will accommodate increased demand for 
electricity without the need for construction of new substations and 
will protect against accidental ``fault currents'' that now cause 
serious damage and power outages. The program's past success has 
demonstrated that this extremely ambitious undertaking is possible 
within the funding requested due to careful planning and leveraging of 
resources. Leveraging includes the 50 percent cost share that the 
program has been able to attract, even though the projects are very 
high risk. Additional leveraging occurs through the project teams being 
a vertically integrated consortium of companies containing a future 
user (an electric power company), a manufacturer, and a superconducting 
component supplier. The funding reduction will result in research being 
completed in fiscal year 2001 rather than in fiscal year 2000, but is 
not expected to impact accomplishment of important goals.
    The Second Generation Wire Initiative (no change) is crucial to 
producing superconducting wire that meets the program's performance 
goals. Four industrial consortia will be working with the national 
laboratories to scale up recent discoveries that are the basis for this 
initiative. Private sector participants' 50 percent cost-sharing 
leverages program funds.
    The Strategic Research program element (down $1.0 million from 
fiscal year 1999) is the incubator for discoveries and innovations that 
have characterized this successful program. The activities supported 
include in-house national laboratory research and joint research 
carried out with private companies under 50 percent cost-shared 
agreements. The requested level of funding will adequately support 
multi-disciplinary research teams that have made major breakthroughs in 
the past, and will also support a number of cooperative research 
projects with industry. Important leveraging is obtained through 
integrating research funded by the DOE Office of Science and leveraged 
research at two NIST (National Institute of Science and Technology) 
laboratories where each program dollar is matched by two NIST dollars.
    The $6.0 million request for the Energy Storage Systems program (up 
$1.5 million) will fund focused research on energy storage technologies 
which will reduce the high cost of power outages, improve power 
quality, and enhance technology choices in a competitive utility 
environment. Efficient energy storage is critical for service 
reliability and for the success of distributed power generation. In a 
restructured electricity industry with many independent power 
producers, energy storage will play an increasingly crucial role in 
combining multiple inputs of varying power quality and matching output 
to a changing load. Program emphasis will be placed on battery systems 
integration and on the development and evaluation of advanced storage 
technologies. All projects will be carried out in close cooperation 
with industry.
    No funding is requested for the Climate Challenge program in fiscal 
year 2000 (down $0.1 million).
                   international solar energy program
    The fiscal year 2000 budget request for the International Solar 
Program is $6.0 million, a slight decrease of $350,000 from $6.350 
million in fiscal year 1999. The mission of the International Solar 
Energy Program is to encourage acceptance and use of renewable energy 
technologies by developed and developing countries in support of U.S. 
national interests and policies. With World Bank estimates indicating 
that developing countries alone will require five million megawatts of 
new electricity capacity over the next four decades (the world's total 
installed capacity today is three million megawatts), international 
markets will provide growing opportunities for U.S. sales of advanced 
renewable energy and energy efficient technologies and job creation. 
And it is these same technologies that also hold the greatest potential 
for mitigating global climate change.
    The primary goal of the International Solar Energy Program is to 
support the expansion of U.S. renewable energy and energy efficiency 
technology exports to help meet the energy needs of developed and 
developing countries, reduce the rate of consumption of finite global 
resources, and address local and transnational environmental issues. 
The program has been refocused in response to Congressional direction. 
While the Program will continue to provide support for the U.S. 
Initiative on Joint Implementation, all activities will be refocused 
into three broad program areas: Emerging Global Environmental and 
Energy Issues (USIJI), facilitating Market and Trade Development, and 
advancing U.S. Energy and Environmental Security interests.
    The Emerging Global Environmental and Energy Issues will be 
implemented specifically through and in conjunction with the U.S. 
Initiative on Joint Implementation (USIJI). USIJI is a DOE-led 
interagency program that supports the development of flexibility 
mechanisms under the U.N. Framework Convention on Climate Change (U.N. 
FCCC) such as Joint Implementation (JI), Clean Development Mechanism 
(CDM), and Emissions Trading. This element will also focus on 
encouraging meaningful participation by developing countries in the 
effort to reduce worldwide greenhouse gas emissions.
    The Market and Trade Development element will accelerate reductions 
in U.S. technology production costs and advance deployment of 
technologies through overseas market expansion. Activities will focus 
on stimulating global economic development and regional economic 
stability, and accelerating domestic economic growth, market 
competitiveness, and employment. This element will be implemented in 
key regions through bilateral (e.g., Gore-Mbeki in South Africa) and 
multilateral (e.g., Asia Pacific Economic Cooperation, Hemispheric 
Initiatives and International Energy Agency) technology cooperation 
activities and information exchange and dissemination. Private sector 
technology development will be encouraged while seeking opportunities 
for leveraging U.S. funds and stimulating deployment in strategic and 
emerging markets through project-based activities.
    The Energy and Environmental Security element is designed to 
advance U.S. strategic interests in bilateral and multilateral energy 
and environmental security activities and will provide specialized 
assistance in the utilization of appropriate technologies. This element 
will be implemented in support of existing and emerging bilateral and 
multilateral treaties and agreements (e.g., U.S.-China Energy 
Efficiency and Renewable Energy Protocol). This element will also 
assist the Department in meeting U.S. obligations and commitments to 
provide disaster relief and assistance by facilitating private sector 
technology development and deployment in strategic and emerging 
markets.
                        solar program direction
    The fiscal year 2000 Congressional Request for Solar Program 
Direction is $19.2 million, an increase of $1.1 million. Program 
Direction provides the staffing resources and associated funding to 
support the management and oversight of the Solar and Renewable Energy 
Programs. It also provides funding for all support services, the 
Working Capital Fund, and crosscutting requirements.
    There are two principal changes in Solar Program Direction this 
year. First, funding for electricity restructuring, included under this 
account in fiscal year 1999, is provided for under Solar Program 
Support in fiscal year 2000. Second, the request includes $1.85 million 
to address anticipated staffing adjustments resulting from Workforce 21 
plans.
    Workforce 21 is a Department-wide effort to address unintentional 
negative impacts resulting from aggressive downsizing in recent years. 
While the Department has been able to fill most essential positions 
through intra-agency transfers and a very few replacement hires (even 
as we met or exceeded our reduced workforce targets) some gaps in 
filling critical technical and professional positions still remain. The 
Program Direction request level will enable EERE to fill limited number 
of key technical and professional staff positions at DOE headquarters 
and in the field. Clerical and administrative positions will remain 
essentially level.
                               conclusion
    Thank you once again, Mr. Chairman, and members of the Subcommittee 
for the opportunity to discuss our fiscal year 2000 budget request. I 
hope you agree that the management improvements we have instituted--and 
continue to refine--are enhancing the value received by American 
citizens for their investment. We believe that the technologies our 
programs are now developing will lead to a clean, cost-effective, and 
secure electric power and transportation fuel system for the United 
States. We fully understand that we must set and meet aggressive 
technology research and performance goals so that the new power 
generation, power delivery, and transportation fuel systems we are 
developing can compete in the marketplace. And while the task before us 
is certainly challenging, we are confident that our proven record of 
achievement--combined with hard work, careful planning, and adequate 
financial and workforce resources--will lead to even more success 
ahead, enabling the Nation to respond not only to the important energy 
and environmental challenges but also to the global market 
opportunities of the next century.

                appropriate use of appropriated funding

    Senator Domenici. Let me just ask a couple of questions. 
While you are there, I will go with you first, and if Senator 
Reid has any questions, can you answer them within two weeks?
    Mr. Reicher. Yes, sir.
    Senator Domenici. Last year, we raised concerns about your 
office, and among those were paying for members of industry 
associations to attend national and international conferences, 
publishing magazine articles, writing op ed-style articles in 
magazines, and preparing talking points in support of the 
Department's programs.
    You have told us about your competitiveness initiative, 
which is a great effort. What about this kind of activity, what 
are you doing about these sorts of things?
    Mr. Reicher. Well, Mr. Chairman, as a part of our push to 
increase competition, we have encompassed those kinds of 
activities. What we basically said to groups of all sorts, from 
trade associations, to universities, to others, is that if you 
want to work with us you are going to have to compete for the 
dollars.
    So virtually all that we are now doing, this sort of public 
outreach communications, is now being done on a competitive 
basis, so I think that should very quickly and very much lead 
to the end of those kinds of sole source situations.
    Senator Domenici. Well, I guess what I really need is for 
you to be more specific for a minute. We were paying groups to 
publish magazines about solar energy. Now, does that come 
within the definition that you just described, that you may 
still be doing it, but it is going to be competitive?
    Mr. Reicher. Let me say it this way, Mr. Chairman. We now 
compete the dollars for what we call information dissemination 
and public outreach. Within that, we fund a variety of 
mechanisms for communicating the technology progress of our 
work. So what I want to stress to you is that first, these are 
competitive mechanisms that we are using.
    Second, by virtue of the fact that they are competitive, we 
are looking very carefully to avoid the kind of funding 
situations you are speaking about in the past. So I am quite 
confident that the kinds of problems that you have seen, that 
you have raised, that you have highlighted for us are no longer 
the case with what we are going forward with in terms of our 
work.
    Senator Domenici. Well, I would like you perhaps by the end 
of this fiscal year to give us a report on this new approach 
that you have taken--how it has affected the kind of activity 
that we were complaining about, what is being done in terms of 
industry association members being paid to go to international 
conferences. Do your Requests for Proposals envision that the 
Department pay people to go to international conferences that 
are not part of our government team?
    Mr. Reicher. It does not envision that, Mr. Chairman.
    [The information follows:]

 Report on Information and Dissemination Activities, Office of Energy 
                    Efficiency and Renewable Energy

    The Office of Energy Efficiency and Renewable Energy will provide a 
report to the Subcommittee providing details on how financial 
assistance for Information and Dissemination activities was competed in 
fiscal year 1999. The report will explain the process used to compete 
the financial assistance activities and summarize the types of 
activities that were funded. The report will be provided by September 
30, 1999.

    Senator Domenici. Okay. Talking points in support of the 
Department's programs, you have outside groups preparing those.
    Mr. Reicher. Again, that is not the sort of thing that we 
intend to be----
    Senator Domenici. I know this could be, to some, kind of 
nit-picking, but I do not think it is. I think it is not what 
the Congress of the United States thinks we are doing in this 
area. The committee has an oversight and stewardship 
responsibility to understand if appropriated funds are being 
used wisely, so that we do not end up looking silly about 
funding a program that does not do R&D. We need to bring these 
renewables on board as soon as possible, and make realistic 
choices with reference to their effectiveness.
    That is kind of your job, and, again, I say I think you are 
doing very well at it.

                              kyoto accord

    Do you know very much about the Kyoto Accord in terms of 
what it requires and what its goals are, and the like? Are you 
an expert on that, or do you know something about this area?
    Mr. Reicher. I know something about it.
    Senator Domenici. Okay.
    Mr. Reicher. I do not consider myself an expert.
    Senator Domenici. So might I ask you, is it possible for 
the United States to meet the mission goals of the Kyoto Accord 
on the path we are on now?
    Mr. Reicher. On the current path we are on now, the 
business as usual path, we would not meet those goals.

                            carbon fuel tax

    Senator Domenici. A number of groups indicated in order to 
meet the goals of the Kyoto Accord that we would have to impose 
a substantial tax on carbon fuels, somewhere in the area of $45 
per barrel, if that tax is imposed on oil. Do you anticipate 
that if we did that, that would have an effect on the American 
economy? If you do not think that is what is required, then 
just say I do not think the $45 is what anybody is thinking 
about.
    Mr. Reicher. Let me say it this way, there have been a 
range of projections about what it would take to meet the Kyoto 
goal. The Council of Economic Advisors has done a study that 
suggests that it can be met more cheaply than I believe the 
figures you are suggesting would indicate, a combination of 
international emissions trading and advances in technology to 
bring prices--to bring the cost of technologies and the use of 
clean technologies to market.
    Also, five of the national laboratories produced a study a 
couple of years ago that also suggested that we could meet much 
of the Kyoto goal with only modest increases in terms of the 
cost of fuel and energy.
    Senator Domenici. I think, based on what you read, and you 
have just indicated that you read a myriad and a diversity of 
things, you would easily recognize that, from an economic 
standpoint, one of the things that affects the American economy 
most significantly and most rapidly on the inflation side is 
increased costs of energy to a typical American consumer from 
his automobile, to the energy source that ultimately heats his 
home.
    Mr. Reicher. Absolutely.
    Senator Domenici. If that goes up 15 or 20 percent, it is 
pretty hard to control inflation regardless of the other 
economic curbs that we are permitted with in terms of--and you 
are aware of that.
    Mr. Reicher. Yes. Mr. Chairman, I would just stress that 
the other really two-thirds of the office that I run is devoted 
to, in fact, improving the efficiency of energy use, so that 
interestingly, even if the price of a particular unit of energy 
were to rise, if we can use it more efficiently, that can net 
out at zero or only a modest increase for consumers.
    So one approach is improving the efficiency of energy use, 
the others, as you have heard this morning, is developing a 
very broad and diverse set of energy resources, and the more 
that those are domestic, the better off we will be.
    Senator Domenici. How are we doing with reference to 
efficiency? Are we sliding backwards? We were moving ahead 
rather wonderfully 8 or 10 years ago. I think we kind of lost 
our----
    Mr. Reicher. We, to some extent, have leveled off, in terms 
of the efficiency of use, and that is why, in fact, we feel it 
is so important to continue to make the strong kinds of pushes 
that we have made between industry and government. For example, 
in the area of automobiles, we are at a good path now to be 
producing an affordable 80-mile-per-gallon automobile, U.S. 
built, in the middle of the next decade, and obviously, that 
will have a dramatic impact on fuel use, production, and U.S. 
competitiveness.
    Senator Domenici. Well, let me move to Mr. Magwood for just 
a minute. Do you pay for any magazine articles that promote 
nuclear power?
    Mr. Magwood. Do we pay for any magazines?
    Senator Domenici. Yes.
    Mr. Magwood. I am a member of the American Nuclear----
    Senator Domenici. No, no, no, I mean--you personally do pay 
for them. I'm asking about your program office.
    Mr. Magwood. If you are asking do we fund people to put 
articles in newspapers and magazines, no, we do not do anything 
like that.
    Senator Domenici. Does your office pay for the preparation 
of pamphlets that are put out by pro-nuclear groups?
    Mr. Magwood. No.
    Senator Domenici. Do you pay for editorials to be written 
by somebody in the outside that might be promoting nuclear 
power?
    Mr. Magwood. No.
    Senator Domenici. I raise this, because I actually believe 
that if they did, we would just have one firestorm. It would 
seem to me that those that are anti-nuclear would talk about 
this not being the business of government to be involved in 
promoting nuclear power, and frankly I think that is the case 
for all power.
    We either say get government involved in promoting nuclear, 
based upon its contribution to the American economic system and 
to energy resources in conservation, or we do not do any of it. 
I feel rather strongly about that.
    I would think if you did that with $300,000 of Office of 
Nuclear Energy money it would not take us 1 week from the time 
it hit the marketplace, even if it was authentic and true, but 
just because it was about nuclear, somebody would be camping 
over on the White House steps or over at the Vice President's 
office saying, what is this about using money to promote 
nuclear energy.

                     nuclear powerplant relicensing

    Now, having said that, let me ask you, how are we 
proceeding with reference to expediting in a rational way, in a 
healthy way, relicensing of nuclear powerplants? Can you give 
us your advice and update us on where we are?
    Mr. Magwood. I think the early signs are very good. I have 
met with all of the commissioners at the Nuclear Regulatory 
Commission, I have met with the senior staff, and I have also 
met with the industry to talk about this issue, because I think 
it is so important. I have been extremely pleased with what I 
have heard. I am very encouraged with the attitude and approach 
the NRC has taken toward relicensing.
    They recognize this as an opportunity to show that they can 
provide safe regulation of nuclear powerplants, in a manner 
that is very efficient and fair. They have worked very closely 
with the industry to carry out their duties, doing so in such a 
way that the process does not drag on for a long time.
    Additionally, I met with senior executives from Baltimore 
Gas and Electric, and they tell me that they expect to complete 
their action with NRC to relicense the Calvert Cliffs nuclear 
powerplant about 2 years ahead of schedule.
    Senator Domenici. Excuse me, I need to take a brief recess.
    [A brief recess was taken.]
    Senator Domenici. Please proceed.
    Mr. Magwood. I was just saying that my understanding is 
that the first examples of the license renewal process, 
Baltimore Gas and Electric's application and Duke Power's 
application have both gone very well and are well ahead of 
schedule. It is my understanding that these relicensing actions 
will be completed almost 2 years ahead of schedule. We are very 
pleased with what is going on so far.

               nuclear energy research initiative [neri]

    Senator Domenici. Last year Congress provided you with $19 
million for nuclear energy research initiative. You have 
requested $25 million for fiscal year 2000. How much interest 
have you received from researchers for the $19 million?
    Mr. Magwood. There has been a great deal of interest 
expressed in NERI. I believe we have received about 308 
applications from researchers all over the country, from 
universities, from industry, from national laboratories, and 
combinations, there is a lot of collaboration in that 
community, which we are very pleased to see, and they have 
proposed research over 3 years worth around $300 million for 
the $19 million.
    So the interest has been very high, and in addition to the 
proposals we have received, as I have indicated earlier, the 
international community is also very excited. We have been 
talking with Europeans, Koreans, the Japanese, and they are all 
very interested in working in cooperation with our NERI 
program. So the interest is extremely high.
    Senator Domenici. When are you going to award contracts 
under that program, Mr. Magwood?
    Mr. Magwood. Mid- to late May. We will award the first 
contracts in the middle of May.
    Senator Domenici. The middle of May. Will the $25 million 
simply continue the awards funded in 1999, or will you be able 
to have some new ones?
    Mr. Magwood. Well, the way we have structured this program, 
we allow people to tell us what they think they are going to 
need over a 3-year period. We make no commitment beyond the 
first year. We can only provide them 1 year of money at a time, 
but assuming that we actually award a contract, we would not 
require an awardee to reapply for the money in the following 
year; therefore, a lot of the money that we will use in fiscal 
year 2000, if we get the $25 million, will go to simply 
continue work that is already started.
    I would say probably about $20 million of the $25 million 
would go simply to continue work that has already started.

                            moly-99 program

    Senator Domenici. Mr. Magwood, I understand that when the 
Department submitted its budget for 2000 that the Department 
planned to privatize the Moly-99 program at Sandia by September 
of this year.
    Mr. Magwood. Yes.
    Senator Domenici. I understand that there may be some 
reluctance by the private sector to assume responsibility. Do 
you still plan to privatize this by September?
    Mr. Magwood. We had a conference with the private sector at 
Sandia National Laboratory I believe just last week, and we are 
still having discussions with the industry. It is clear they 
clearly would have liked to have seen us go forward with the 
Food and Drug Administration approval process for Moly-99 
before talking about privatization, but they have not said at 
this point that where we are now is not acceptable. We think 
there is still some room to negotiate, and we are still 
optimistic that we will be able to do this.
    Senator Domenici. State for the record essentially what the 
Moly-99 program is.
    Mr. Magwood. Moly-99 is a precursor to Technetium-99m, 
which is used by U.S. clinicians in diagnosing all sorts of 
illnesses, heart disease, and cancer through imaging processes.
    Senator Domenici. So it is in the medical field.
    Mr. Magwood. Yes. My understanding is that it is used about 
36,000 times a day in the United States.
    Senator Domenici. If you do not get it privatized by 
September as planned, will you need additional funds for the 
privatization effort?
    Mr. Magwood. We have not requested additional funds, 
anticipating privatization. Our budget is rather limited, so we 
really were not able to support both maintaining activities 
such as placing a new isotope reduction facility at the LANSCE 
facility in Los Alamos, while at the same time continuing Moly-
99.
    So we had to make some tough choices, and the choice we 
made was to move forward with the privatization. If we are not 
successful in privatizing we will have to reassess the 
situation, but there is no money in our request to support that 
at this time.

                     fast flux test facility [fftf]

    Senator Domenici. Your budget request assumes that a 
decision to restart, permanently shut down, or maintain the 
FFTF in its current condition will be made this spring.
    Mr. Magwood. That is correct.
    Senator Domenici. Has the decision been made? If the 
decision is made to restart it or permanently shut it down, how 
much additional funds will be necessary?
    Mr. Magwood. Our budget, as you indicated, assumes a 
decision will be made by the end of April, and Secretary 
Richardson told me just yesterday that he fully expects to make 
that commitment and make his decision before the end of April.
    To answer your question about the funding, we currently 
have $30 million requested in the budget. If we continue in 
standby and proceed with an environmental impact statement, we 
will require about an additional $10 million. If the decision 
is to shut it down immediately, it will require I believe about 
an additional $20 million.

                                 ebr-ii

    Senator Domenici. Now, EBR-II reactor for fuel treatment 
program at Argonne, that laboratory is expected to encounter a 
$20 million reduction in this year's budget. Are you going to 
make, at some later date, a decision about whether to use the 
electrometallurgical process technology to treat the EBR-II and 
other fuels?
    Mr. Magwood. Yes. We currently are developing in an 
environmental impact statement regarding the use of 
electrometallurgical technology for treating all of the 
Department's sodium-bonded fuel. This EIS will be completed by 
the end of the year, and also by the end of the year we will 
complete, or rather the National Academy of Sciences National 
Research Council, will complete their review of this 
technology.
    They have had a team that has been looking at this since 
the beginning of our research program. The Secretary will use 
this information in making a decision about whether to go 
forward with the use of this technology on a production scale, 
or whether to shut down the program. I have talked with the 
Deputy Secretary about this several times--if we decide to shut 
it all down, we will not require any new funding, but if we 
decide to move forward we will have to seek some sort of new 
funding, or seek a reprogramming of some sort.

               nuclear energy research advisory committee

    Senator Domenici. I just have two remaining questions. Let 
me ask them now while we have you here, even though I am using 
considerable time. I think it is good that you have created a 
Nuclear Energy Research Advisory Committee. You have indicated 
who they are, a few changes, for obvious reasons.
    Your office uses this group, I assume, to help you with 
reference to the direction and focus of your program. Has that 
committee reviewed your current research program?
    Mr. Magwood. That is ongoing right now. There are actually 
several activities going on within the advisory committee 
review of our research activities. One is being led by Dr. John 
Ahearne, of Sigma Xi, who is conducting a long-term research 
and development strategy, and he has accumulated a large group 
that is going to be studying that over the next several months.
    Dr. Richard Reba, from the University of Chicago, who is an 
expert in nuclear medicine, is analyzing our isotope production 
research plans. Finally, Dr. John Taylor, who is retired from 
Electric Power Research Institute, is leading a group that will 
be assessing the near term needs, when I say near term, within 
10 years, of research for existing nuclear powerplants. So we 
have really tried to cover all the ground in our program, and I 
think that the NERAC has been a very valuable contributor to 
that.
    Senator Domenici. That kind of an approach that you have 
just described and intend to use, would it or could it result 
in an advisory group telling you where the deficiencies in a 
research program are that are imminent or necessary or the 
like?
    Mr. Magwood. Absolutely.

               nuclear energy plant optimization program

    Senator Domenici. Okay. We spoke a little bit about the 
nuclear energy plant optimization program, although we did not 
call it that. You and I discussed where we were on relicensing. 
That is sort of the same thing. Last year we passed the nuclear 
energy plant optimization request in our appropriations and it 
did not get out of the full Congress.
    I think we need an explanation of the significance and 
importance of it, so rather than just answer that for me now, 
would you supply a succinct answer in writing to why we need 
it, you and your experts indicate, so that we can make the case 
both on the floor and in the committee.
    Mr. Magwood. I would be happy to.
    [The information follows:]

        Nuclear Energy Plant Optimization Program Justification

                  how nuclear energy helps our nation
    A reliable and affordable electric power supply is a prerequisite 
for a strong economy and sustained growth. The United States has 
enjoyed such a supply of affordable electricity principally because of 
the diversity in its fuel mix. Nuclear energy is an important part of 
this diversity and since the oil embargo of 1973, it has provided about 
one-half of the electricity needed to meet demand growth. It has proven 
to be an extremely safe and reliable source of electricity supply, 
e.g., in the winter of 1996 when rivers were frozen and coal barges 
could not get to power plants, nuclear power plants continued to 
operate. Not only are the fuel and technology used in the nuclear 
energy completely domestic, but the fuel costs for nuclear are a 
smaller fraction of the production costs and are far more stable when 
compared with the fuel costs for fossil fuels. Therefore, the use of 
nuclear energy tends to insulate the economy from fossil fuel price 
fluctuations.
         how existing nuclear power plants help the environment
    Nuclear energy generates electricity without emitting any 
greenhouse gases or other harmful air pollutants such as sulfur oxide 
and nitrogen oxides. It has played an important role in limiting U.S. 
emissions by avoiding two billion metric tons of carbon emissions since 
1973. The 104 nuclear power plants in the U.S. provide approximately 20 
percent of the electricity generated and avoid more than 150 million 
metric tons of carbon emissions annually. Continued operation of the 
existing nuclear power plants (75 percent) another 20 years beyond 
their current license terms could reduce emissions by 64 million metric 
tons between 1995 and 2010, 208 million metric tons by 2015, and 2260 
million metric tons by the middle of the next century. Also, with new 
requirements for lower emissions of sulfur dioxide and nitrogen oxide 
for fossil plants, particularly in the eastern part of the nation, the 
contribution of existing power plants in avoiding harmful air emissions 
becomes even more important. These plants are critical to achieving our 
international goals on climate change and to meeting current 
requirements under the Clean Air Act.
  why it is important to ensure continued operation of nuclear power 
                                 plants
    In order to ensure a continued high standard of living for the 
American people, we need to maintain a diverse, secure energy portfolio 
of fossil fuels, nuclear energy, and renewables. Currently solar and 
wind energy provide less than one tenth of one percent each of the 
total energy consumption in the United States. Due to inherent 
limitations of energy intensity available for solar and wind power, 
their share is not expected to become significant in the near future. 
The share of electricity generation from non-hydroelectric renewable 
electric generators was 1.21 percent for 1997. Their share including 
co-generation was 2.1 percent in 1997 and Energy Information 
Administration (EIA) projects it to grow to 3.23 percent in 2020 in the 
reference case forecast. However, if a state or federal mandated 
requirement of a renewable portfolio standard (RPS), which specifies 
that 5.5 percent of electricity generated (or sold) in the state must 
be produced by qualifying renewable power plants (these generally 
include all renewable facilities except hydroelectric plants and 
municipal solid waste), is achieved, and if we assume that the yields 
for energy crops grown on pasture and crop land will be nearly 20 
percent higher than expected in the reference case, then by applying 
the most optimistic assumptions for capital costs, operation and 
maintenance expenses, and capacity factors for non-hydroelectric 
renewables, their share of generation is limited to be no more than 
6.22 percent of total electricity generated in the U.S. in 2020.
    Hydroelectric power currently supplies close to 10 percent of U.S. 
electricity needs but its expansion potential very limited due to a 
lack of available new sites, high construction costs, growing 
environmental concerns, and competing uses of water resources. The 
share of hydroelectric generation is projected to decline from 9.96 
percent in 1997 to 6.7 percent in 2020.
    Therefore, despite environmental concerns, use of coal and natural 
gas to generate electricity must continue. Nuclear energy generation 
must continue as well. The EIA projects that even with aggressive 
energy efficiency measures, U.S. electricity consumption will increase 
by 1.4 percent per year through 2020--the equivalent of seven large 
1,000 megawatt power plants each year. During this same period, 127,000 
megawatts of existing electricity generating capacity could be retired 
because of age, competitive pressures, and as part of U.S. utility 
measures to meet clean air standards.
    Continued operation of existing nuclear power plants is an 
important hedge against uncertainties associated with meeting emission 
limitations for fossil plants and is critical to meeting demand in the 
future and sustaining our energy supply infrastructure.
  issues that could impact continued operation of nuclear power plants
    Deregulation of electricity production in the United States has 
increased economic uncertainties in the electricity sector. Existing 
and proposed environmental laws are causing the closure of older 
fossil-fuel plants. Similarly, we are at a critical juncture with 
regard to the continued operation of nuclear power plants in the United 
States. Licenses for U.S. nuclear power plants will begin to expire in 
large numbers in 2010; licenses for 13 plants representing some 11,700 
MWe will expire in 2014 alone. A few utilities have decided to close 
older, less efficient nuclear facilities before their license 
expiration date. Six reactors closed before license expiration with the 
resultant loss of approximately 4,000 megawatts of U.S. generating 
capacity in the past three years.
    However, over the last couple years the strategic landscape has 
started to change. Two years ago, with electricity restructuring 
looming and concerns over regulatory uncertainty, the prediction was 
that existing nuclear generation capacity was doomed--that fewer plants 
would seek license extensions and that many would shut down 
prematurely. Today, with consolidations in ownership occurring and 
several plants proceeding and making good progress with license 
renewal, it is clear that there is a future for the majority of U.S. 
nuclear plants. However, for these plants to remain viable beyond 2020, 
both government and industry must take action--government reducing 
regulatory and other barriers to operation and industry, investing 
capital in upgrading their facilities for the future and investing in 
short-term R&D.
    Industry must continue to carry the burden of short term research 
and they are meeting this challenge very well with an investment 
approaching $100 million annually. Most of this research is aimed at 
enhancing day to day operational performance and to respond to 
regulatory and other relicensing issues. On the other hand, there is a 
clear role for the government in filling the void in intermediate term 
research--research as proposed by the Nuclear Energy Plant Optimization 
(NEPO) program to address plant aging issues and to improve safety and 
reliability of existing nuclear power plants.
                independent advice on nuclear energy r&d
    The President's Committee of Advisors on Science and Technology 
(PCAST) Panel on Federal Energy Research and Development recognized the 
critical role of nuclear power in its report of November 5, 1997. The 
Panel's report recommended that the Department work with its 
laboratories and industry to develop a program jointly funded with 
industry, to address the problems that may prevent the continued 
operation of existing nuclear power plants.
    The nuclear industry has consistently urged DOE to assume this 
important role. A number of letters to the Secretary of Energy from 
Kurt Yeager, CEO of Electric Power Research Institute (EPRI), and from 
EPRI's Nuclear Power Council, comprised of the nuclear utility 
executives who guide the industry's collaborative R&D program, were 
sent to DOE in 1997 and 1998 in support of this role.
          the nuclear energy plant optimization (nepo) program
    Existing nuclear power plants serve the broad national strategic 
interests of expanding the economy, providing for energy security, and 
improving the environment. Recognizing these national interests, and 
consistent with the Comprehensive National Energy Strategy and 
recommendations of PCAST, the Department proposes, the NEPO program, 
beginning in fiscal year 2000. The goal of NEPO is to ensure that 
current nuclear plants can continue to deliver adequate and affordable 
energy supplies up to and beyond their initial 40-year license period 
by resolving open issues related to plant aging, and by applying new 
technologies to improve plant economics, reliability, and availability.
    As a program that addresses higher risk, more long-term R&D than 
that performed by industry, and as a program addressing issues 
associated with existing nuclear power plants, it would be conducted in 
at least 50-50 cost shared collaboration with industry and with close 
coordination with the Nuclear Regulatory Commission.

    Senator Domenici. Did you have anything else you wanted to 
add, sir?
    Mr. Magwood. No. I would just like to say that I appreciate 
your interest in this issue. It has been gratifying to have 
Members of Congress take a leading role and actually pushing us 
along in some areas, perhaps areas that we had not even really 
thought much about, but I appreciate your interest and 
involvement.

                    micro-machines program at sandia

    Senator Domenici. Thank you very much. Dr. Krebs, let me 
ask you about a technology that is not within your 
jurisdiction, but ask if you are familiar and if you know about 
it. Do you visit Sandia National Laboratory very often?
    Dr. Krebs. I have visited Sandia Laboratories several times 
during my time in this job.
    Senator Domenici. Are you aware of a research project they 
have going in terms of nuclear safety, but it has some very 
other significant uses called micro-machines?
    Dr. Krebs. I have seen some of their work in that area and 
some of the--they send me pictures and I have gone through that 
part of the laboratory.
    Senator Domenici. The reason I was asking is because I 
trust your judgment and I was going to ask if you were as 
interested in it as a future technology as I have become, but 
since you are not that familiar you would not have an 
observation on that, would you?
    Dr. Krebs. Not particularly about micro-machines, but as I 
noted in my testimony, we are very engaged in exploring the 
performance of materials on a nano-scale, and the next step 
after that is taking it into technological applications. Now, 
these small machines are not quite at nano-scales yet, but 
nonetheless, you have to start someplace.
    Senator Domenici. Well, there is just a gigantic interest 
in them----
    Dr. Krebs. Right.
    Senator Domenici [continuing]. What they are doing, 
producing machines just like you have your microchip, there are 
machines on it instead of inactive things, and they are so 
small, one-tenth of a hair, a hundredth of a hair, and they 
could end up being put in your blood system, and they could 
attack things like the plaque that makes heart conditions and 
the like. Actually, engineers designed them with micro-
equipment just like you would design a----
    Dr. Krebs. It is very exciting.

                    spallation neutron source [sns]

    Senator Domenici. It is kind of interesting. Are you 
satisfied that when we go to the House and say we want to 
continue the Spallation Neutron Source at Oak Ridge that we are 
going to have enough information within the next month or so 
showing that we have taken care of most of GAO's concerns?
    Dr. Krebs. I do believe that, yes, sir.
    Senator Domenici. I would appreciate your making a note 
that as soon as you have the project in a position where you 
can clearly state we are on course with an appropriate 
management team and it should be built pursuant to specs, and 
if the specs are right, it will work, we would like to have 
that from you.
    Dr. Krebs. I think I can have the first installment of that 
to you on Thursday, with the report from the--the recent report 
that is coming out tomorrow.
    Senator Domenici. If there is a subsequent installment, 
would you get that to us as a matter of course, get it to our 
subcommittee?
    Dr. Krebs. Yes, sir.
    [The information follows:]

  Spallation Neutron Source Project Assessment Report and Action Plan

                           executive summary
    The Spallation Neutron Source (SNS) is a $1.36 B project to build 
what will be the world's most powerful research facility for neutron 
science. As a seven-year construction project supported by the 
Department of Energy (DOE), the SNS is now in its first year of 
congressionally approved line-item funding. In January 1999, the DOE 
reviewed the project's status and recommended that experienced project 
leadership be recruited to strengthen project performance. With the 
support of the DOE and the five national laboratories \1\ participating 
in the project, the new SNS leadership has conducted a thorough project 
assessment and developed a comprehensive course of action for 
completing the project safely, on budget, and on schedule.
---------------------------------------------------------------------------
    \1\ The preferred site for the SNS is at Oak Ridge National 
Laboratory (ORAL) and essential technical expertise is being provided 
by Argonne National Laboratory (ANL), Brookhaven National Laboratory 
(BNL), Lawrence Berkeley National Laboratory (LBNL), and Los Alamos 
National Laboratory (LANL).
---------------------------------------------------------------------------
    The assessment determined that many qualified people and adequate 
management systems are in place throughout the partner laboratories to 
support the current R&D activities of the project. The present 
accelerator concept is sound, uses existing, low-risk technology, and 
is highly likely to achieve the desired performance and reliability. 
High-quality technical work is ongoing. Planning for safe execution of 
the project within the Integrated Safety Management systems of all the 
partner laboratories is advanced. The final Environmental Impact 
Statement has been submitted to DOE and approved, and the Record of 
Decision is expected in May.
    As the project enters the Title I design phase, the primary needs 
identified by the project assessment are to recruit additional 
experienced staff for key positions, optimize and fully integrate the 
technical design, and strengthen the business and project management 
systems to support construction activities. Through prompt 
implementation of the management action plan developed from the 
assessment, the project will establish within the next six months or 
sooner:
    1. An integrated SNS organization with experienced people in key 
roles, fully engaging the expertise available from the partner 
laboratories;
    2. An optimized project baseline, with adequate contingency, that 
delivers maximum scientific output within the $1.36 B budget;
    3. Strengthened Memoranda of Agreement (MOA) that formalize 
accountability for deliverables, ensure project authority over all 
project personnel at partner labs, and cap overhead rates; and
    4. Fully integrated and efficient project and business management 
systems to plan, track and expedite work accomplishment, and 
effectively control the project.
    Completion of the action plan will position the SNS to be 
constructed safely and within budget by fiscal year 2006. In full 
operation the SNS facility will meet or exceed its performance goals 
and deliver pulsed neutron beams of unprecedented power and reliability 
to a world-class instrument suite.
                              introduction
    For 30 years there has not been a major new neutron source 
commissioned in the United States. This situation has led to a serious 
decline in the competitiveness of U.S. researchers compared to their 
European and Japanese colleagues. Lacking new opportunities, successive 
generations of young neutron scientists have migrated into other fields 
of research, significantly depleting the strength of an enterprise in 
which North America played the seminal role as recognized by the 1994 
Nobel Prize in Physics. Although decline within the U.S. neutron 
research community has occurred, global neutron research has expanded 
its unique role in determining the structure of critical materials, 
especially complex magnetic and organic substances which are essential 
to our high-technology economy. Given the growing age of existing U.S. 
facilities and the compelling scientific importance of neutrons, the 
construction of a leading-edge neutron research facility has become an 
urgent national priority.
    The U.S. neutron research community has now focused on 
reestablishing world leadership in this critical field by building the 
Spallation Neutron Source at the preferred site of ORNL. Using advanced 
accelerator technology, and at a cost of $1.36 B, this source will be 
ten times more powerful than any existing facility worldwide when it is 
completed in fiscal year 2006. Including new-generation neutron-source 
technology and instrument design, the SNS will extend its scientific 
advantage to an even greater level. Success in achieving these 
challenging technical goals can only be accomplished through exemplary 
cost, schedule, and safety performance.
    The DOE regularly reviews its major construction projects using a 
comprehensive approach that has an outstanding reputation for depth and 
integrity. During January 26-28, 1999, the DOE conducted such a review 
of the SNS project, which has its first year of construction line-item 
funding. The purpose of this review was to validate the projects 
proposed Level 1 (Office of Science) cost, schedule, and technical 
baseline. The review determined that the project planning was not 
sufficiently mature to support the validation of the necessary baseline 
and recommended that experienced project leadership be recruited to 
ensure the project could be executed successfully. In early March, Dr. 
David Moncton--previously the leader of the recently successful 
Advanced Photon Source project--was appointed. With the support of DOE 
(Appendix A) and the five DOE laboratories participating in the 
project, he has attracted other experienced managers, enlisted 
independent specialists, and conducted a rapid assessment of every 
aspect of the project to determine the assets, status, and the course 
of action necessary to establish the baseline and complete the project 
successfully. Part of this assessment considered whether the project's 
scope was optimized to provide the greatest capability for neutron 
science that could be obtained within the budget of $1.36 B.
    Informed by this assessment, DOE review reports, and its collective 
experience with major scientific projects, the new SNS leadership 
developed the action plan summarized in Section 4 below. This plan 
contains the actions, milestones, and strategies needed for the balance 
of fiscal year 1999 to position the SNS for success in meeting its 
performance objectives.
    The SNS project has a great deal of work to accomplish in a short 
period of time. But there exists within the DOE system, and available 
to the project through the five-lab collaboration, expertise sufficient 
to achieve all the long-range goals of the project and build a facility 
that will revolutionize neutron scattering worldwide. This facility 
will reestablish the U.S. as the premier center for neutron research, 
and its safe construction, on schedule and within budget, will clearly 
demonstrate the commitment and the capacity of the DOE national 
laboratories to achieve world-class management and scientific 
performance.
                project vision and management principles
    The key element in the SNS project planning is the formation of an 
effective multi-laboratory partnership to insure that the best 
scientists/engineers and the optimum technology are employed in the 
design and construction phases with followed by successful 
commissioning and operation. To execute this project effectively, the 
participating laboratories must share a common vision for the facility 
and embrace an active management approach that transcends institutional 
boundaries. Underlying both of these elements must be a strong 
commitment to attract and support people who are highly qualified in 
every aspect of technical and management responsibility.
Vision
    By the year 2006, the SNS will have been completed safely, within 
cost and on schedule by the multi-laboratory partnership. It will be 
positioned to meet or exceed its performance goals within the ensuing 
few years, delivering pulsed neutron beams of unprecedented power 
reliably to instruments with highly advanced designs. Through their 
involvement in these developments, an expanded user community will 
advance the frontiers of knowledge in a broad range of scientific 
fields.
    In these accomplishments, the partner laboratories will have met or 
exceeded their individual goals and enhanced their reputations in areas 
important to their own competencies. But more importantly the people 
involved will have achieved something that none of them alone could 
have done--turning this vision into a reality that will transform many 
fields of science for decades to come.
Management Principles
    Environment, safety and health.--Of overriding importance is the 
safety of our people and the protection of the environment. It is our 
philosophy that accidents and injuries can be prevented, that we must 
rigorously adhere to relevant safety and environmental standards, and 
that no individual working for the SNS project should feel compelled to 
do work he/she believes is not safe. Managers and workers share this 
responsibility, and all must work to continuously improve our 
collective performance.
    High-quality people.--Our next most important principle is that 
optimum results will be achieved on this complex project by the best 
people working in a collaborative and supportive environment.
    Integrated, cross-laboratory teamwork.--A major challenge in this 
project is to manage effective collaboration among the participating 
laboratories. We will need to establish explicit mechanisms to overcome 
institutional, geographic, and communication barriers and build an 
integrated SNS team.
    Project-based thinking to deliver on time and within budget.--It is 
essential to recognize that the SNS is first a major construction 
project with specific deliverables and a firm cost and schedule. A key 
principle for a project of this magnitude and technical complexity is 
the need to optimize globally--that is, over the entire project--rather 
than locally. For every project element, the temptation must be avoided 
to optimize local technology, budget or schedule, whenever doing so 
would not benefit the project overall.
    Active management and clear communication.--Management has a 
fundamental responsibility to make and communicate decisions in an open 
and logical manner, while achieving the highest possible degree of 
consensus. It is essential that project employees and managers respect 
and trust one another, and that the management team act in a way that 
is deserving of that trust.
Collaboration Management
    The most fundamental issue in collaboration management is the 
nature of the ``contract'' between ORNL as the lead lab and the other 
partner laboratories. Because ORNL has the ultimate responsibility for 
delivering the SNS project and operating the completed facility, it is 
imperative that ORNL provide credible technical and project leadership 
on behalf of the collaboration. It is incumbent on ORNL to delegate 
appropriate authority to the partner labs for execution of their work 
consistent with their demonstrated performance and the terms of the 
Memoranda of Agreement. It is equally important that ORNL have full 
ability to track and appropriately manage SNS activities at the partner 
labs. In implementing this trust-but-verify approach, it is desirable 
to have maximally transparent boundaries between the partner labs, 
thereby creating an integrated project team with accountability and 
communication as clear as if the project were executed in the 
traditional single-lab approach.
                              action plan
    Planned actions developed by the new SNS leadership are grouped 
within six principal categories and are summarized below.
People and Organization
    The Project Office will be reorganized by July to establish clear 
responsibility for each technical and administrative area and increase 
the number of project-experienced managers (Fig. 1). An accelerator 
technical staff (led by an experienced Accelerator Systems Division 
Director) will be promptly established at ORNL to lead integration and 
review of component and system designs, prepare for facility 
operations, and guide procurement, fabrication, installation, testing 
and commissioning strategies. An integrated project human resources 
plan will be developed (in phases and completed by October) to guide 
the hiring process. Key staffing needs identified during this project 
assessment will be filled as soon as possible with qualified and 
experienced individuals. The HR plan will include policies and 
mechanisms for ensuring project input into performance appraisals for 
people performing SNS work, position description requirements, staffing 
levels, and strategies to ensure that broad diversity in talent is 
achieved. 
[GRAPHIC] [TIFF OMITTED] T10AP13.007

Technical Concept
    By August 1999, a plan for SNS instrumentation will be developed 
that reflects the need for best-in-class instruments, involves the user 
community, capitalizes on the capabilities of the federally-funded 
laboratories with substantial neutron science experience, and includes 
ongoing instrument development. This plan will propose mechanisms and 
incentives for investment by potential investors, a strategy for 
engaging the scientific community early in the project, and user access 
policies tailored to the needs of the neutron scattering community in 
the U.S. A series of workshops aimed at outreach to new user 
communities (e.g., the biological/biomedical community) will be 
launched. Also, by August 1999, a staffing plan for operations, ongoing 
instrument development, and on-site user activities and support will be 
developed to optimize the design of the conventional facilities. An R&D 
program on a backup solid target will be initiated now.
    The present linac/accumulator ring (LAR) concept will be optimized 
for 2-MW operation by May 1999 and its detailed cost estimate will be 
reviewed and scrubbed by the project management in June. This process 
will strive to identify available funds to increase project contingency 
and to provide additional instruments, targets, and office/laboratory 
space. This 2-MW LAR design will be reviewed by the Accelerator Systems 
Advisory Committee and proposed as the project baseline to DOE in mid-
July. In parallel, a study will be started immediately (provided 
sufficient resources can be identified) to explore modified accelerator 
designs by June. If modifications are shown to have substantial cost 
advantages with no loss of performance or negative impact on the 
project's long-range schedule, then their designs, cost estimates, and 
schedules will be developed by October 1999 and adopted through the 
project's formal change control process.
Conventional Facilities and Site
    Full geotechnical qualification of the preferred ORNL site will be 
pursued aggressively. Innovative technology and a site drilling plan 
will be employed, and the three-season surveys for threatened species 
and endangered plants will be completed by the end of calendar year 
1999. Facilities programming will be initiated now to ensure that 
adequate requirements to support researchers and operations staff are 
identified in the design. Systems requirements documents for all 
facilities will be completed, and the design requirements and site plan 
of the Joint Institute for Neutron Science will be reviewed with the 
University of Tennessee to ensure that the SNS site plan and programmed 
space needs are optimized. Based on the actions above, the final SNS 
site qualification will be completed by September 1999.
Project Management
    The Memorandum of Agreement with each partner laboratory will be 
revised by May 1999 to formalize each laboratory's accountability for 
deliverables, strengthen the authority of the Project Director over 
SNS-assigned personnel at each location, and cap overhead rates applied 
to SNS activities for the duration of the project. The role of the 
project Upper Management Council will be developed to provide 
additional and regular advice and assistance with strategic 
collaboration management issues.
Environment, Safety and Health, and Quality Assurance
    A focused effort on target radiological issues in the preliminary 
safety analysis report (PSAR) will be instituted now to support a 
project decision in June 1999 on target hazard classification and 
potential mitigation proposals. Completion of the draft PSAR will be 
expedited to the first quarter of fiscal year 2000. The project ES&H 
group will issue a draft plan by July 1999 to establish appropriate 
project-wide ES&H standards for engineering design. A quality assurance 
(QA) approach will be developed and a tailored QA plan will be approved 
by September 1999. To facilitate development of this plan and enhance 
cross-project teamwork, a workshop including QA specialists and 
technical managers will be conducted.
Business Systems
    A number of actions are planned to improve the project's management 
support systems, including human resources, finance and accounting, and 
procurement.
    With DOE assistance, policies and plans to better facilitate 
recruitment of experienced personnel will be established to provide 
continuity of service benefits when hiring between DOE laboratories. 
Relocation and family assistance to address recruiting concerns at ORNL 
(including transfer of ORNL personnel hired at partner laboratories) 
will be procured. Routine use of videoconferencing capability available 
to SNS project teams at all partner labs will be implemented by July 
1999 to reduce travel costs and enhance communications.
    By October 1999, methods to automate the integration of financial 
and cost performance reporting system information with project 
schedules will be in place, reducing the manual effort currently 
required to reconcile these data and to provide improved contingency 
control. The project office will conduct a detailed analysis of 
overhead rates at all partner laboratories and verify cost estimates 
during the June cost estimate scrub. This action will support the 
establishment of long-term capped overhead rates as reflected in the 
strengthened MOA. An SNS project financial audit plan will be 
formalized by October 1999, to include plans for regular financial 
reviews and guidance for audit activity at partner laboratories.
    A project-wide procurement strategy will be developed by July; this 
strategy will include advanced procurement planning, guidance for 
acquisition decisions, reporting requirements and formats, approval 
levels, and buyer/technical staff roles and responsibilities. A 
workshop led by ORNL project procurement will be scheduled to help 
develop this strategy, build teamwork, and resolve inefficiencies 
resulting from constraints on procurement organizations in the partner 
laboratories. Based on the project procurement strategy, the 
procurement workload and resulting staffing plan will be developed and 
in place by October 1999.
                              conclusions
    This assessment report and action plan addresses the SNS project's 
organization, technical, and scientific capability, site qualification, 
project management systems, business systems, and human resources. The 
plan focuses on establishing by July 1999:
    1. An integrated SNS organization with experienced key staff in 
place that takes advantage of the capabilities at the partner 
laboratories, while building at ORNL the technical and administrative 
strength to lead the construction effort and operate the completed SNS 
user facility for world-class scientific research;
    2. A validated, self-consistent, and optimized technical, cost, and 
schedule baseline with adequate cost and schedule contingency and 
maximized neutron-science capability within the $1.36 B budget;
    3. Strengthened interlaboratory MOA that formalize accountability 
for deliverables, ensure project authority over all project personnel, 
and cap overhead rates for the life of the project.
    Major objectives to be achieved by October 1999 include:
    4. To complete the geotechnical analysis of the preferred site at 
ORNL to determine that it is acceptable;
    5. To establish a firm hazard category for the target facilities to 
allow optimal design and planning to proceed and ultimately to allow 
safe and cost effective operation;
    6. To implement fully integrated and efficient project management 
systems to plan, track, and expedite work accomplishment, and 
effectively control the project; and
    7. To establish financial, procurement, human resource, and related 
business systems that are tailored to project needs and linked to the 
project management databases.
    The assessment determined that many qualified personnel and 
management systems adequate for the R&D phase are in place throughout 
the partner laboratories. High-quality technical work is ongoing. 
Planning for safe execution of the project within the Integrated Safety 
Management systems of all the laboratories is advanced. The final 
Environmental Impact Statement has been submitted to DOE for approval 
and the Record of Decision is expected in May. The primary project 
needs are to significantly upgrade the capabilities and systems of the 
central project office during the design phase, and to fully optimize 
and integrate the design for construction and operation.
    Project management, reporting, business, and human resource systems 
will also be tailored to execute the project in the multilaboratory 
environment. These systems will become fully mature by October 1999. 
The critically important task of developing a staffing plan and 
attracting highly qualified personnel will proceed concurrently. The 
Upper Management Council, consisting of one senior line manager 
appointed by each partner laboratory director, will be convened on a 
regular basis to assist project management and help refine the 
collaboration management approach. Successful completion of the 
described action plan will position the SNS to be completed safely by 
the multilaboratory partnership within budget and on schedule.

                        DOE Letter of Agreement

                                      Department of Energy,
                                 Washington, DC, February 19, 1999.
Dr. David Moncton,
Associate Laboratory Director for the Advanced Photon Source,
Argonne National Laboratory, Argonne, IL.
    Dear David: Al Trivelpiece told us that the five laboratory 
directors responsible for the construction of the SNS met and that you 
were their enthusiastic and unanimous choice to lead the SNS project. I 
was very pleased to learn that you are seriously considering this 
position and that you already have agreed to undertake a personal 
review of the project. I understand and support your need to review all 
aspects of the project and to discuss your findings and recommendations 
with both the DOE and the five laboratory collaboration.
    We have agreed that you will assemble a Senior Management Team from 
both within and outside the present SNS project. The Senior Management 
Team will conduct a comprehensive month-long asset assessment using a 
set of teams composed of outside experts and internal asset owners. 
Under review will be, among others things, financial resources, human 
resources, project management systems, business management systems, 
physical assets, and the site itself. Importantly, we have agreed that 
your assessment will include the reference design and its associated 
costs and schedules. You will prepare a Project Plan containing 
findings and recommendations by the first week in April and will 
present this plan to DOE, the directors of the SNS partner 
laboratories, and the several SNS advisory committees immediately 
thereafter. A longer-term goal is to have the project ready for a Level 
1 baseline review by July 1999.
    I want to assure you that DOE is open to accepting a wide range of 
recommendations subject only to a very few constraints, which we have 
already discussed. These constraints are the following. (1) The Level 0 
Baselines (cost, scope, and schedule) approved by Secretary Pena in 
December, 1997, and modified only as a result of the fiscal year 1999 
appropriation must be maintained; within the TPC, there must be an 
adequate contingency. (2) The SNS project must continue as a five-
laboratory collaboration with ORNL as the preferred site. (3) In accord 
with the recommendations of the Basic Energy Sciences Advisory 
Committee (BESAC) regarding the technical specifications of the SNS, 
the design must be sufficiently flexible so that the SNS can be 
operated at a significantly higher power in a later stage. Furthermore, 
the upgrade path must minimize downtime for the users. (4) Finally, it 
is very important that the design maximize scientific capability 
through a large and robust initial suite of instruments and through 
other accommodations to the needs of the neutron science user 
community.
    Other recommendations of BESAC were that the design rely on low-
risk technology initially, the linear accelerator design not exclude 
direct injection of long pulses into a spallation target, and the 
source have a predictability and reliability as set forth in the Kohn 
report and be capable of operating at least 240 days annually. You 
should consider these recommendations as you undertake your assessment 
of the project.
    We have also agreed to work with you and the Laboratory to 
accommodate needs related to recruitment and retention incentives for 
the SNS senior management team and other issues. Please let me know if 
there is anything that I can do to expedite your review. I look forward 
to your presentation to me and to the Office of Basic Energy Sciences. 
Again, I want to sincerely welcome you into the SNS collaboration and 
offer my full support and help during the coming weeks.
            Sincerely,
                                           Martha A. Krebs,
                                       Director, Office of Science.

    Senator Domenici. I do not want to burden the record on it, 
but I just want to say it concerns me greatly that we are in 
this position, and it should concern you, concern the 
Department of Energy. The Department of Energy does not have 
the greatest record of getting these kind of major projects 
through completion. I do not care to use statistics, but that 
record is not very good. I would hope that this Spallation 
Neutron Source machine, which everybody thinks is a great tool 
for science, that we do not mess it up in terms of managing its 
construction and early operation.
    Dr. Krebs. I have a great concern for it, too. I consider 
this project to be a critical element of the Department's role 
and the Office of Science's role as a provider of major unique 
scientific user facilities. We have paid a lot of attention to 
the management of the project.
    The difficulties that were discovered were discovered by 
our process, which is an extremely open one, and we took very 
strong, prompt action, and we will continue to do that as the 
project goes along.

                           employment levels

    Senator Domenici. The Office of Science, which you head, 
has one of the lowest ratios of program direction funds to 
program funds. In other words, your office uses very few 
Federal employees to oversee a great deal of research funds. 
Are you able to attract and retain sufficient employees to do 
this kind of work, and/or do you have authority to go outside 
and contract for them?
    Dr. Krebs. This is a hard question to answer. We have some 
very dedicated, extraordinarily bright, committed people who 
work for the Office of Science. About 50 percent of them are 
eligible for retirement, so I have been able to keep them on 
board, because they care a great deal about the programs that 
we support.
    Our headquarter's FTE number has gone down in the last 5 
years from 380 to about 270. So as I look forward in the next 2 
to 5 years, I think the ability to attract, retain, and 
compensate the kind of people we have now is a big concern for 
me.
    Senator Domenici. Are you starting to plan now?
    Dr. Krebs. Sir, the Secretary has engaged in a Workforce-21 
planning exercise, by which he has reviewed the commitments 
that the Department made, I guess now 3 or 4 years ago, I 
cannot remember, and there are adjustments being made, so we 
will be able within the next year to begin to address some of 
these issues.
    Mr. Reicher. Mr. Chairman, if I could make a brief comment.
    Senator Domenici. Please.
    Mr. Reicher. In line with what Dr. Krebs said, under 
Workforce-21 Secretary Richardson has recognized that under the 
Strategic Alignment Initiative, which brought down the FTE 
levels in the Department substantially, we do now face a 
situation where there are some specific technical and other 
personnel needed in the Federal ranks to run our programs. In 
the case of my office, our staff, our Federal staff, is down 
somewhere on the order of 27 percent in the last few years, and 
our budget is up somewhat.
    What we found is that we do not have, in fact, adequate 
federal staff to administer the taxpayers' dollars as well as 
we think we need to, and so part of Workforce-21 is designed to 
address some of those disconnects in the staffing of the 
Department of Energy and a variety of offices. I think all are 
hopeful that in your consideration of the various budget 
requests that these targeted increases in Federal staffing 
would be supported. Thank you.
    Senator Domenici. Thank you. Thanks to both of you. I 
wonder if Workforce-21 also reviews the areas where we are not 
short to see if there is an excess elsewhere.
    Dr. Krebs. I think it looked across all of the 
organizations in the Department, and I cannot tell you whether 
they shifted from one to the other. I do not know that.
    Senator Domenici. Well, we get a constant barrage of 
inquiries about whether or not the OE, in skinning down, 
because of budget restraints, has more people in Washington 
than they need and reduced forces elsewhere, they reduce jobs 
elsewhere. I do not know the answer to that, but----
    Dr. Krebs. May I make a comment?
    Senator Domenici [continuing]. I am concerned that we have 
such a shortage in these areas, and we have to do some 
planning, especially in the one you described, about 50 percent 
being ready to retire. I mean you need corporate memory, but 
you need to have some talented people.
    Dr. Krebs. May I make a comment?
    Senator Domenici. Sure.

                            field structure

    Dr. Krebs. I think that it is important to distinguish the 
way different programs at the Department of Energy use the 
field structure. The Environmental Management Program, for 
example, really operates very strongly in the field and manages 
their programs in the field.
    For a program like the Office of Science, where we reach 
across so many different disciplines in the scientific 
community, it is very difficult to reproduce that capability in 
the field, so that the planning, program execution and 
oversight in large measure stays at headquarters rather than 
being--and some contract management, some project management 
for big facilities like the Spallation Source does take place 
in the field, and so we have a different balance than, for 
example, the Environmental Management Program might have. The 
Office of Energy Efficiency and Renewables, or our Nuclear 
Energy, might be similar in that regard.
    Senator Domenici. Do you wish to comment on that, Mr. 
Reicher?
    Mr. Reicher. Yes. We have a mix of both R&D like the Office 
of Science, and then some deployment-oriented programs, so what 
we are focused on is ensuring we have the core capability at 
headquarters to manage the cross-cutting R&D, but then we also 
have important Federal workers in the field in six different 
cities who help us with the deployment of these technologies.
    So striking that balance has been a part of the Workforce-
21, and I would also add the Secretary's review of the whole 
field structure.
    Senator Domenici. Mr. Magwood, I would assume your portion 
of the Department got so small that you must have a problem 
that everybody is new.
    Mr. Magwood. I think that our situation is similar to Dr. 
Krebs'. In fact, our outlook for retirement is worse than the 
Office of Science. We have one of the older offices in the 
Department, and we have already lost a great deal of important 
talent, partially because of the need to downsize to meet the 
strategic alignment initiatives, but also, quite frankly, 
because there is some exacerbation on the part of some of the 
professionals in Nuclear Energy about the direction of the 
program over the last few years.
    We have reversed that, and a lot of people we think are 
going to hang on for a while. I really am focused now on trying 
to bring some younger people into our office to make sure that 
the expertise we have can perpetuate into the future. We are 
very pleased with the outcome of the Workforce-21 initiative, 
and our program direction request reflects our expectations 
there.

                      low dose radiation research

    Senator Domenici. Dr. Krebs, everywhere we look in terms of 
nuclear waste disposal, any area where we have a potential for 
low-level radiation, we are confronted with the fact that 
almost everybody tells us that we do not know the effects 
properly, and that most of them say we overstated the effect of 
low-level radiation.
    We have finally come to a point at which I am very pleased 
to be part of, where Congress provided $12 million for a 
research program to try to help us understand the health 
effects of low-level ionizing radiation, that is, whether there 
is at very low levels a linear relationship between radiation 
exposure and cancer, which we have all, based on one major 
study, accepted the linear relationship, and even a non-
scientist can look at an explanation of it and have some real 
wonder about whether it truly is scientifically extendable, as 
it has been.
    I understand that in response to that money you have put 
out solicitations for a $7 million proposal, and that you 
received $60 million or $70 million worth of applications.
    Dr. Krebs. Correct.
    Senator Domenici. Are they good institutions and 
partnerships that want to do this research? Are they among the 
best in the country?
    Dr. Krebs. Yes. I think they range across all of our 
laboratories and all of the major research universities, so we 
think that we will be able to run an external peer review 
process that will assure that we have the best and the most 
relevant research to the program plan, within the program plan.
    Senator Domenici. Do you share my enthusiasm that the 
country ought to get this done?
    Dr. Krebs. I think that this is a particularly opportune 
time for the scientific community to take another look at this 
problem. Given the tools that we have developed within the 
genome program, and since the damage that occurs, that induces 
any kind of radiation response arises first at the genetic and 
genomic level, we now have the tools so that we can take a look 
at it, so it is a particularly appropriate time.
    Senator Domenici. Now, the biological and environmental 
research advisory committee has helped you develop the research 
plan for this effort, is that right?
    Dr. Krebs. Correct, sir. I requested last year that they 
provide a plan, they have submitted it. I believe that it has 
been shared with you.
    Senator Domenici. Does your budget for 2000 fully fund the 
program set out by the advisory committee.
    Dr. Krebs. It does not, sir, as far as I understand.
    Senator Domenici. How much are you short?
    Dr. Krebs. I would have to provide you, for the record, but 
my understanding is that we have $10 million in the budget, and 
to completely take advantage of all the opportunities that the 
scientific community has identified would take more than $20 
million.
    [The information follows:]

                  Low Dose Radiation Research Program

    Senate Report 105-206 dated June 5, 1998, directed the Biological 
and Environmental Research (BER) program to provide the Senate Energy 
and Water Subcommittee of the Senate Appropriations Committee a draft 
plan for the Low Dose Radiation Research Program. A draft program plan 
called for the program to spend $3 million in fiscal year 1998, $5 
million in Fiscal year 1999, and $10 million per year in fiscal year 
2000-2007. The fiscal year 1999 Energy and Water Development 
Appropriation provided $8 million for this program ($3 million in the 
BER budget and $5 million in the budget for Environmental Management), 
for a total of $13 million in fiscal year 1999, and called for the 
development of a long range program plan. The Biological and 
Environmental Research Advisory Committee (BERAC) prepared a program 
plan that was delivered to Congress in March 1999. This plan called for 
$22.4 million in fiscal year 2000, in contrast to the fiscal year 2000 
request of $10 million.

    Senator Domenici. More than what?
    Dr. Krebs. $20 million.
    Senator Domenici. Okay. We thought it was about $22 
million, is that about right?
    Dr. Krebs. Yes.
    Senator Domenici. The reason I ask and the reason I will be 
concerned about documentation and what the advisory group said 
is because I do not think you want to do one of these and not 
get it right. You must do the peer review, you have to get the 
right answer so that when we are finished we do not have 
everybody that is anti-nuclear questioning the results. They 
will anyway, therefore, it is critical that we be 
scientifically sound.
    Dr. Krebs. You want to do the right science----
    Senator Domenici. You have it.
    Dr. Krebs [continuing]. The fastest way.

                         high flux beam reactor

    Senator Domenici. Can we talk a minute about the High-Flux 
Beam Reactor?
    Dr. Krebs. Certainly.
    Senator Domenici. The Department intends to decide in June 
whether to re-start the High-Flux Beam Reactor at Brookhaven. 
Would your request provide sufficient funds to re-start the 
reactor or shut it down, depending on the decision?
    Dr. Krebs. Let me provide that for the record. Right now, 
we are about to release in late May or early June the draft 
environmental impact statement for the future of the high-flux 
beam reactor. We can release that draft without a preferred 
alternative.
    If we release the draft that way, then when the final 
report is released come next November or December that would be 
the time when we would have to finally determine a preferred 
alternative.
    The Secretary has indicated that he is willing to consider 
an early decision, but we have not engaged him in the review of 
the issues that would lead to that decision that might lead us 
to have a preferred alternative with the draft. If the decision 
were to restart, we would still have a considerable amount of 
activity to undertake to prepare for actually turning on the 
reactor.
    If the decision were to shut down, we would still need, 
again, approximately the same amount of funding that is in our 
2000 budget request to prepare the facility for a safe 
shutdown. A decision, even an early decision to restart, would 
require some 16 months before we could expect the facility to 
operate again, and the funding in a shutdown case does not 
account for any of the decommissioning and decontamination 
costs.
    [The information follows:]

                     High Flux Beam Reactor Funding

    Yes, the fiscal year 2000 funding request for the High Flux Beam 
Reactor is adequate for restart or shutdown activities.
    During the first quarter of fiscal year 2000, before completion of 
the Environmental Impact Statement (EIS) and the associated Record of 
Decision, activities that are common to all of the EIS alternatives 
will continue. These activities are part of the High Flux Beam Reactor 
(HFBR) Transition Project initiated in 1998. These include the canal 
liner, as well as the seismic upgrades to the operations level crane 
and the control room, the repiping of the stack drains, the 
installation of Suffolk County Article 12 leak detection 
instrumentation, and the Safety Analysis Report (SAR) update 
implementation.
    If the DOE decision is to restart the reactor, restart related 
activities will start when DOE authorization is given. It will take 
about 16 months from the time the decision is made to restart for the 
reactor to start operations. These activities include, the secondary 
water basin, piping, and isolation valve upgrade, canal internals 
fabrication, SAR implementation of corrective actions, Operational 
Readiness Review implementation, and hiring and training of personnel.
    If the DOE decision is to shut down HFBR, activities will start to 
place HFBR in safe shutdown. These activities include draining and 
removal of all radioactive fluids and removal of activated components 
in the pressure vessel. These activities will continue throughout 
fiscal year 2000.

                        bates laboratory funding

    Senator Domenici. Let me just talk a minute about the MIT 
Bates facility. Your budget request includes no funding for the 
continued operation of that facility at MIT.
    Dr. Krebs. Correct.
    Senator Domenici. After the submission of the request I 
understand Secretary Richardson committed to submit a budget 
amendment to provide some continued funding for the Bates 
facility. Can you tell us when we will receive that amendment, 
and what you would propose to do at MIT next year?
    Dr. Krebs. My best understanding at this moment is that an 
amendment was cleared by OMB last night. The details of how 
that facility will operate in fiscal year 2000 I will have to 
provide you for the record. But it would be our intention to 
complete the BLAST detector and to operate the facility through 
the year 2004, to complete the science that can be obtained 
from BLAST. We may be able to operate another detector as well, 
but we need to look at that carefully.
    Senator Domenici. From where are you going to get the 
money? Have you decided that yet?
    Dr. Krebs. Well, I think that is in the budget amendment, 
sir.
    Senator Domenici. Oh, good. We will be interested in it. It 
seems to me that this facility, I have great respect for MIT, 
it seems like it just cannot die. It must have some very 
excellent supporters somewhere. Do you have any idea whom they 
might be?
    Dr. Krebs. Well, sir, what I can tell you--certain kinds of 
support you probably know better than I, but in terms of 
scientific support, I can tell you that last year we asked the 
Nuclear Science Advisory Committee to review the medium energy 
physics program, and they came in very high on the Bates 
facility.
    So to the extent that the Administration has been able to 
find additional funding for this project, it is a good thing to 
do.
    Senator Domenici. That would not be the only scientific 
facility around that there would be great science support for, 
would it? I think that probably you and I could come up with 50 
or 60 before this hearing is over.
    Dr. Krebs. I am sure you could.
    Senator Domenici. In any event, the Secretary made a nice 
turnaround there, and he is entitled to make a few changes, 
just so he cuts the right programs to pay for it. It would be 
all right with me.
    [The information follows:]

                            Nuclear Physics

    The budget amendment will provide sufficient funding to maintain 
support of the staff, operate the accelerator for research, fabricate 
the Bates Large Acceptance Spectrometer Toroid detector (BLAST), and 
develop the capabilities to carry out a research program using BLAST 
when it is completed.
    The Bates Laboratory will operate 2000 hours for research during 
fiscal year 2000. This time will primarily be used to pursue new 
investigations using the recently completed Out-of-Plane Spectrometer 
System (OOPS). OOPS fabrication has been supported by the National 
Science Foundation and the Department of Energy. The OOPS system will 
be used with continuous wave (cw) beams extracted from the new South 
Hall Pulse Stretcher Ring.
    Fabrication of the BLAST detector will continue. BLAST will utilize 
the very high current, cw, polarized electron beams which circulate in 
the new Pulse Stretcher Ring.
    Upon completion of BLAST in fiscal year 2001, the Bates scientific 
program will shift primarily to BLAST, and it is expected that a three-
year program of research will be carried out with that new detector.
    At the end of fiscal year 2004, the Bates Laboratory will begin a 
planned termination of activities, reaching a Decommissioning and 
Decontamination (D&D) level of support in fiscal year 2006.
    MIT plans to provide additional support in fiscal year 2000 and 
fiscal year 2001 for enhanced research operations.

                  climate change technology initiative

    Senator Domenici. With reference to climate change 
technology initiative, I am trying to determine if the climate 
change technology initiative is a new effort or a relabeling of 
the current work. For example, within the geoscience budget, 
the core program would drop $6.9 million under your request, 
but the geoscience climate change technology initiative would 
go up 6.8. Is this new work, or simply relabeling the old 
program?
    Dr. Krebs. There is no question that within the Basic 
Energy Sciences Program and some parts of the Biological and 
Environmental Research Program the climate change technology 
initiative begun last year was essentially an extension and 
expansion of directions that were already being pursued, and it 
simply allowed us to engage more fully in opportunities that we 
had identified.
    This year, in order to accommodate the directions of the 
initiative, we had to make some hard decisions about the 
activities that were not necessarily so clearly connected.
    Senator Domenici. Unless any of you have some comments that 
have been provided by either answers or questions, we have 
completed this round. Yes, Mr. Reicher.
    Mr. Reicher. Just a quick follow-up, Mr. Chairman. On the 
climate change technology initiative, I wanted to echo what Dr. 
Krebs said, and that is that I think there has been something 
of a misunderstanding that the climate change initiative 
represents a whole new category of work, but, in fact, it is 
pulling together a whole host of activities that have been 
undertaken by the Department and other agencies for a long 
period of time that can address climate change as well as a 
host of other challenges we faced, and to that, or added some 
new activities, but the bulk of the work are solid existing 
programs that span all the energy technologies and efficiency 
work that we have been doing for a great deal of time.

                   accelerator transmutation of waste

    Mr. Magwood. Just one thing. I mentioned to you that we met 
with a large contingent from Japan to talk about cooperation, 
and one area that they were very interested in talking to us 
about was the accelerator transmutation of waste, a subject I 
know you are very familiar with.
    We are working closely with the Office of Civilian 
Radioactive Waste Management to move forward with the road map 
to study accelerator transmutation of waste. After listening to 
what the Japanese had to say, I think that there is a very 
significant opportunity to cooperate with them over the long 
term with this program, and we will be looking forward to doing 
that. I just wanted to let you know that that this activity is 
underway.
    Senator Domenici. Thank you very much. We are going to have 
questions that we will send to you that are from Senators Reid, 
Craig, and McConnell. Let us use the 2-week return that we had 
agreed upon with Senator Reid for all three.

                   potential programmic problem areas

    Let me ask each of you, with reference to the things you 
manage and things under your control, I will start with you, 
Dr. Krebs, is there any program activity, construction project, 
or the like, that is in trouble out there that you think a 
subcommittee ought to know about, and if something breaks at 
least we have been informed? It is sort of like asking the 
Corps of Engineers are your dams safe.
    We have given them money to make sure that they are and 
they report every dam is safe. We get surprised frequently on 
things that do not turn out exactly as we would like at the 
Department of Energy, and I am not referring to the spying or 
the espionage issue. Do you understand my question?
    Dr. Krebs. I think I do, sir. It is hard for me, when I 
think about having to answer this, knowing that, in fact, my 
colleagues in the scientific community come in to talk to you 
on, or talk to any number of people here in Washington on a 
regular basis, if you want me to tell you that they have all 
the money they think they need----
    Senator Domenici. Oh, no.
    Dr. Krebs [continuing]. They do not. If on the other hand 
you want to know that within this budget are we operating our 
facilities in an at least optimized way, I think I can say that 
we are. In terms of facilities that are under construction, 
there will be no surprises, because, again, our program reviews 
and our project reviews are very open, and you hear almost as 
soon as we do when there are difficulties, and right now, 
outside of the Spallation source, we anticipate no problems.
    Senator Domenici. You have a lot of nuclear reactors that 
you have responsibility for. Are any of them leaking?
    Dr. Krebs. One is shut down, namely, the High-Flux Beam 
Reactor, and the other is being upgraded, namely, the reactor 
at Oak Ridge.
    Senator Domenici. Are there any projects, major projects, 
that are running over the cost estimates?
    Dr. Krebs. It depends on how you count it, sir. GAO might 
say something differently than we would. But right now, we are 
wrapping up the B factory, the Relativistic Heavy Ion Collider, 
the Fermi Main Injector, and the Combustion Research Facility. 
To my knowledge, they are pretty much on schedule and on cost.
    Senator Domenici. Maybe what you ought to do for the 
record, and just consider this a question to be answered, maybe 
you ought to list all the major projects you have going on, 
what their estimated costs are, where we are in----
    Dr. Krebs. Yes, sir.
    Senator Domenici [continuing]. The construction phasing, 
and where the estimates are.
    Dr. Krebs. Okay.
    [The information follows:]

                                              CONSTRUCTION PROJECTS
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                            Total        Total
                                                                Remaining                   Actual      Actual
  Title, Location and Project Number     TEC    Appropriation    Approp.     Estimated   Obligations   Costs to
                                                   To Date       Needed     Completion   to Date  (4/  Date  (4/
                                                                                            30/99)      30/99)
----------------------------------------------------------------------------------------------------------------
ENERGY SUPPLY--NUCLEAR ENERGY:
    TRA LANDLORD:
        Fire and Life Safety            15,446        11,366        4,080  4th Qtr 2001       11,366       6,559
         Improvements Idaho
         Engineering And
         Environmental Laboratory
         Idaho 95-E-201..............
        Electrical Utility Upgrade       6,700           341        6,359  4th Qtr 2003          341          88
         Idaho Engineering And
         Environmental Laboratory
         Idaho 99-E-200..............
    ISOTOPE SUPPORT: Isotope            14,000         6,000        8,000  3rd Qtr 2001        6,000       1,069
     Production Facility, TA-53 Los
     Alamos, New Mexico 99-E-201.....
----------------------------------------------------------------------------------------------------------------


                                                                  CONSTRUCTION PROJECTS
                                                                [In thousands of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                    Total        Total
                                                                                                        Remaining                   Actual      Actual
                    Title, Location and Project Number                          TEC     Appropriation    Approp.     Estimated   Obligations   Costs to
                                                                                           To Date       Needed     Completion   to Date  (3/  Date  (3/
                                                                                                                                    31/99)      31/99)
--------------------------------------------------------------------------------------------------------------------------------------------------------
BASIC ENERGY SCIENCES: Spallation Neutron Source: Oak Ridge National         1,159,500       101,400    1,058,100  1st Qtr 2006       32,835      18,448
 Laboratory Oak Ridge, Tennessee 99-E-334.................................
HIGH ENERGY PHYSICS:
    Neutrinos at the Main Injector (NuMI) Fermi National Accelerator            76,200        19,800       56,400   2nd Qtr 200       19,800       3,548
     Laboratory Batavia, Illinois 98-G-304................................
    Wilson Hall Safety Improvements Fermi National Accelerator Laboratory       15,600         6,700        8,900  3rd Qtr 2002        6,700          93
     Batavia, Illinois 99-G-306...........................................
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                         OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY--CONSTRUCTION PROJECTS
                                                                [In thousands of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                TEC ($000) \1\                                                      Total        Total
                                                             -------------------                    Remaining                       Actual      Actual
             Title, Location and Project Number                                  Appropriations  Appropriations     Estimated    Obligations   Costs to
                                                                DOE      MNVaP       To Date         Needed      Completion \1\  to Date  (3/  Date  (3/
                                                                                                                                    31/99)      31/99)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Minnesota Alfalfa Project (MAP) Granite Falls, Minnesota DE-   49,821   182,179        11,040         ( \2\ )     1st Qtr 2001        11,040      10,354
 FC36-96GO10147.............................................
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Total Estimated Cost (TEC) and the estimated completion is the original estimated project cost and completion date for the project.
\2\ Due to recent developments, Minnesota Valley Alfalfa Producers have requested the project be restructured as a co-firing project which will reduce
  the TEC by not requiring new construction. DOE participation and costs are yet to be determined.

                     Additional committee questions

    Senator Domenici. Does anybody else have any comments 
there? I think I will ask the same question of each of you. 
That last one should apply to each of you, if you would, and 
also when you leave during the next--in preparing the answers, 
if there is something you think the committee should know about 
that may not go exactly as planned, or there is evidence that 
it might not, I would appreciate you telling me about it in the 
answers that you give us.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator McConnell

                     depleted uranium hexafluoride
    Question. How much appropriated funding has the Department 
requested for the maintenance of depleted uranium hexafluoride 
cylinders stored at Paducah, Portsmouth, and Oak Ridge. Specifically, 
how much has been allocated to each facility for fiscal year 2000?
    Answer. The Department requested fiscal year 2000 appropriations 
totaling $10.9 million for depleted uranium hexafluoride cylinder 
maintenance at the Paducah, Portsmouth, and Oak Ridge sites. Initial 
plans call for about $2.8 million to be allocated to Paducah, $2.7 
million to be allocated to Portsmouth, and about $3.7 million to be 
allocated to Oak Ridge. Approximately $1.2 million will be used in 
managing cylinder maintenance at the three sites in an integrated 
manner. Lastly, about $0.5 million will be used to perform engineering 
development type work necessary to sustain, optimize and enhance the 
cylinder storage system. In addition, the Department will apply funds 
obtained under the Memoranda of Agreement with USEC to conduct cylinder 
maintenance activities and to build storage yards associated with 
accepting USEC-generated DUF<INF>6</INF> cylinders.
    Question. The Department of Energy entered into two Memoranda of 
Agreement with USEC totaling $66 million for the management of 
cylinders transferred from USEC to DOE. How will this money be spent 
and will any of the MOA funds duplicate already appropriated funds or 
requested funds?
    Answer. The Memoranda of Agreement (MOA) funding will not duplicate 
already appropriated funding or requested funding. The Department 
projects the $66 million will be utilized over the fiscal year 1999 
through fiscal year 2009 time frame for cylinder maintenance, yard 
construction, conversion facility preparations, and required near-term 
activities as shown on the attached table. Approximately $24 million of 
the $66 million has been earmarked for additional conversion 
preparation, and required near-term activities with specific yearly 
funding levels predicated upon the Department's evaluation of the 
private sector response to the Expression of Interest (EOI) and the 
need to support the Department's rapid implementation of the program. 
As required under the MOAs, the funds will only be used for purposes 
that are attributable to accepting and managing the cylinders received 
from USEC. However, Memoranda of Agreement funds will be used in 
conjunction with appropriated funds for procurement activities, NEPA 
activities, and other near-term activities associated with the 
DUF<INF>6</INF> program.
    Question. Please outline for the Committee the schedule and key 
milestones DOE has identified for the Depleted Uranium Hexafluoride 
Conversion plan.
    Answer. The Department's current schedule and key milestones are 
attached (see attached table). This is an aggressive schedule that 
should result in the awarding of contracts in 2000 and the initiation 
of construction activities in 2002. This schedule would, therefore 
achieve the goals anticipated in Public Law 105-204 two years earlier 
than required by the law.
    The Department intends to issue a Final Plan for the Conversion of 
Depleted Uranium Hexafluoride by the end of May. The Final Plan will 
reflect the Department's review of the responses to the Expression of 
Interest ideas from affected members of the local communities, Congress 
and other stakeholders. This document will provide a more detailed, 
final schedule for the DUF<INF>6</INF> conversion project.
    Question. Recently the Department issued an Expression of Interest 
on the DUF<INF>6</INF> conversion plan. Please inform the Committee the 
number of responses the Department has received and which organizations 
responded to the Department's request.
    Answer. The Department has convened a Source Evaluation Board (SEB) 
to analyze the responses to the EOI, prepared the draft Request for 
Proposals, and other acquisition responsibilities associated with 
contracting for DUF<INF>6</INF> conversion. The Department was pleased 
with the industry's response to the EOI. The number of respondents to 
the EOI far exceeded our expectations and we have gained important 
insights from the responses. Regarding your specific questions, the SEB 
considers the number of EOI's received and the company names providing 
the EOI's to be Source Selection Sensitive information. Thus, the 
Department cannot release this information at this time. However, the 
Department recognizes Congressional interest in this process and is 
evaluating whether it can release summary, non-proprietary EOI data to 
the Congress and public. A determination from the Office of General 
Counsel is expected soon.
    Question. The Department has proposed to use $5 million associated 
with conversion of depleted uranium cylinders. Please explain for what 
purpose this funding will be spent.
    Answer. The $5 million will be used for site specific National 
Environmental Policy Act (NEPA) activities to enable the Department to 
begin conversion facilities construction and begin acquisition 
activities to meet the schedule anticipated by Public Law 105-204. It 
should be noted that the budget request to Congress specified that some 
of the funds would be used for preparation of a Request for Proposals. 
The Department currently plans to issue the Request for Proposals prior 
to the beginning of fiscal year 2000, enabling remaining funds to be 
used to accelerate required NEPA analysis.

                                            MOA FUNDS BY FISCAL YEAR
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
               Major activities                 1999    2000    2001    2002    2003    2004   2009-09    Total
----------------------------------------------------------------------------------------------------------------
Cylinder Maintenance.........................    6.27    6.98    4.38    1.65    1.85    1.65     4.50     27.28
Yard Construction............................    7.92    3.50  ......  ......  ......  ......  .......     11.42
Conversion Preparation.......................    3.30  ......  ......  ......  ......  ......  .......      3.30
Funds Available for Additional Conversion         TBD     TBD     TBD     TBD     TBD     TBD      TBD     24.00
 Preparation, and Required Near-Term
 Activities..................................
                                                                                                       ---------
      Total..................................  ......  ......  ......  ......  ......  ......  .......     66.00
----------------------------------------------------------------------------------------------------------------


    FULL-SCALE DUF<INF>6</INF> CONVERSION CAPABILITY SCHEDULE AND KEY MILESTONES
------------------------------------------------------------------------
           Approximate Dates                      Key Milestone
------------------------------------------------------------------------
First Quarter 1999.....................  Issue a request for Expressions
                                          of Interest (EOI).
                                         Complete and issue the final
                                          PEIS.
Second Quarter 1999....................  Receive EOI responses.
                                         Issue the PEIS Record of
                                          Decision.
                                         Issue Final Plan.
                                         Issue draft Request for
                                          Proposals (RFP) for conversion
                                          contract.
Third Quarter 1999.....................  Receive comments on draft RFP.
                                         Issue final RFP for conversion
                                          contracts.
Fourth Quarter 1999....................  Receive proposals.
                                         Begin proposal evaluation.
2000...................................  Award DUF<INF>6</INF> conversion
                                          contract(s).
2002...................................  Complete design, and start
                                          construction of full-scale
                                          facilities.
------------------------------------------------------------------------

          armed guards at the paducah gaseous diffusion plant
    Question. In the Energy and Water bill from last year, there was a 
provision to restore arming and arrest authority to the security guards 
located at the Paducah Gaseous Diffusion plant. The legislation, which 
was developed in cooperation with your office and USEC, requires that 
the two parties split the costs appropriately. Nearly eight months 
later, this problem has not been resolved and I am told this problem 
might not be resolved for another eight months. Please explain why this 
problem hasn't been resolved and when you expect the law to be fully 
implemented.
    Answer. As you know, the Department's regulatory oversight over the 
United States Enrichment Corporation (USEC) ended on March 3, 1997, 
when the Nuclear Regulatory Commission assumed oversight authority over 
USEC. With the enactment of the fiscal year 1999 Energy and Water 
Development Appropriations Act, the Department of Energy and the United 
States Enrichment Corporation (USEC) have been working together and 
have now established a process to restore the arming, arrest and use of 
deadly force authority for the guard force at the Paducah Gaseous 
Diffusion Plant consistent with the Act. A conservative estimate of the 
time needed, these authorities should be restored to the entire guard 
force by no later than December 31, 1999. Although the responsibility 
for rearming the guard force largely rests with USEC, the Department 
will take those steps under our control to accelerate this process. We 
believe based on discussions with USEC and a recently completed 
assessment of their program, discussed below, that they are well on the 
way to restoring these authorities and that by the end of August, there 
will be guards at Paducah who have completed the requisite training and 
qualification and who have been issued Weapons Authorization Cards by 
the Department.
    There are two major activities that USEC must complete in order for 
the Department to reissue Weapons Authorization Cards to the guard 
force: one, demonstrating that pertinent federal requirements for 
arming, arrest, and use of deadly force authority have been put into 
place and following this, training and qualifying the guard force to 
meet the regulations. The regulations themselves are extensive, derived 
principally from Titles 10 and 27 of the Code of Federal Regulations 
and addressing a wide range of topics: physical protection of property, 
medical fitness implementation, limited arrest authority, use of force 
by protective officers, and pertinent regulations of the Bureau of 
Alcohol, Tobacco and Firearms. Meeting these requirements demands a 
significant investment of time, resources and infrastructure by USEC 
(e.g., employing firearm safety professionals, medical professionals, 
maintaining a firing range and exercise facilities).
    Based on a recently completed on-site inspection by DOE of Paducah, 
we believe that USEC has made substantial progress in re-establishing 
the supporting program for these authorities and that they should be 
ready to start training and qualifying guards by the end of July 1999. 
To further accelerate this process, DOE will issue Weapons 
Authorization Cards to individual guards as they complete their 
training. Ultimately, the time needed to fully restore these 
authorities is under the control of USEC, who is responsible for 
training and qualification, including the scheduling of training.
                                 ______
                                 

                  Questions Submitted by Senator Burns

                                general
    Question. I noticed in your testimony that you state 85 percent of 
domestic energy use comes from fossil fuels. And of that, almost 30 
percent is from coal. Then you point out that this level of consumption 
will not likely change in the coming decades. My state can help here 
since Montana has the largest coal reserves of any state in the United 
States (120 billion short ton). So what are you doing to promote the 
development of coal within this country?
    Answer. Coal is the most abundant and lowest cost energy form in 
the United States. However, there are challenges to using coal cleanly 
to reduce both traditional pollutants and greenhouse gases. The 
Department of Energy's (DOE) role includes meeting the research and 
development (R&D) challenges of improving the efficiency of the fossil 
energy cycle in a clean, environmentally friendly manner in order to 
continue to benefit the Nation through the economic advantages of coal. 
These challenges include further technological improvements to meet new 
smog and particulate standards and possibly new requirements for air 
toxic emissions. Land constraints will increase the need to reduce 
solid wastes. Also, pressures will increase to find economically 
acceptable ways to reduce both emissions and atmospheric concentrations 
of greenhouse gases.
    DOE's R&D effort is, therefore, aimed at providing a combination of 
ultra-high efficiency technologies and low-cost carbon capture and 
disposal technologies could make it possible to significantly reduce, 
if not eliminate, these environmental concerns over coal and permit the 
Nation to continue to prosper from coal's economic benefits. Technology 
now appears within reach that can double today's power plant 
efficiencies, virtually eliminate air emissions, release no net carbon 
dioxide, and still produce power that is low enough in cost to be 
competitive with the best of today's pulverized coal plants. It may 
also be possible to use coal as a low-cost resource in an integrated 
``energy complex'' to produce high-grade, low-pollution transportation 
fuels that, coupled with improved engine technology, could double fuel 
combustion efficiency and further reduce air emissions from the 
transportation industry.
    While much remains to be done to ensure that coal use remains a 
domestic energy option well into the next century, the DOE has already 
achieved much to enable ``clean'' coal technologies to be a cost 
competitive and environmentally superior option in the near term 
through its successes in the Clean Coal Technology (CCT) Demonstration 
Program. For example, barriers to using the Nation's vast low-sulfur, 
but low-energy-density western coal resources are being addressed 
through two advanced, coal-upgrading projects under this cost-shared 
program. In the ENCOAL project in Campbell County, Wyoming, and Rosebud 
SynCoal Partnership project in Rosebud County, Montana, a stable coal 
product is produced which has a low-moisture content, low-sulfur 
content, and a high heating value (12,000 Btu/lb). Additionally, the 
ENCOAL project produces a liquid product equivalent to No. 6 fuel oil. 
The products from these two projects are being sold to utility and 
industrial consumers.
    Notwithstanding these and many other near-term commercial 
successes, ongoing research activities to provide future opportunities 
for clean coal technologies, advanced power generation systems, and 
advanced clean fuels are being promoted by the Department.
    Advances through clean fuels research will provide, in the longer 
term, for coal-derived substitutes for traditional petroleum products 
that have the potential to provide the secure supply of transportation 
fuels that is needed by major sectors of the Nation's economy. 
Development of such a coal-based fuels industry will positively affect 
our balance of payments, create high-paying jobs, and ensure a stable 
alternative source of supply as increase in demand is expected after 
2015. In addition, these fuels will be more environmentally friendly 
than petroleum-based products, while using the Nation's vast domestic 
coal resources to provide the necessary level of energy security. This 
research is carried out by the Department in partnership with industry, 
academia, and other Government agencies and laboratories at the 
national and state levels.
    Question. I understand, from your testimony, that you are focusing 
on developing modeling tools to evaluate future combustion systems. 
What will these modeling tools do and how will these modeling tools 
consider different combustion sources (coal, gas, and oil)?
    Answer. A Virtual Demonstration Program, which was recently 
initiated in Fossil Energy, will increase the effectiveness of advanced 
power plant designs by providing the modeling tools and computational 
framework necessary to enhance overall predictive capability and 
process understanding. The result will be to reduce the time and costs 
associated with the transition from pilot-to commercial-scale 
development of the next generation of combustion systems. It will also 
help identify the power and fuel system advanced research needs in 
power and fuel system r&d. Those r&d efforts will focus heavily on 
developing the fundamentally-oriented data and integration tools 
required to support fuel-flexible (coal, oil, natural gas, biomass, 
etc.) integrated gasification combined cycle and pulverized coal-based 
technologies, such as Vision 21 high performance power and fuels 
systems.
    The modeling tools to be developed will take advantage of the most 
recent advances in the field of virtual demonstration to include: 3D 
visualization technology, integrated information management, process 
simulation, advanced numerical techniques for control and process 
simulations, and overall model integration.
    Since these models are based on fundamental scientific principles 
(the laws of fluid dynamics, chemical kinetics and thermodynamics, 
structural mechanics, radiation, etc.), their results and their 
applications will not be limited to one fossil fuel feedstock but will 
be applicable to coal, oil and gas as well.
    Question. I noticed your fiscal year 2000 budget request is 
generally increasing. This reassures me that you recognize the 
importance of supporting our domestic energy industries. As you know, 
we are losing much of our domestic production capabilities, such as in 
the oil and gas industries, due to low energy prices. Even though I am 
working to address that problem, development of renewable energy 
sources in the United States is another area that I have much interest. 
However, the fiscal year 2000 budget is tight as you well know. Since 
we probably won't be able to fund all of your requested increase, what 
are your priorities in fiscal year 2000?
    Answer. Increased investments in technology research, development 
and pre-commercial deployment are of critical importance to meeting the 
energy and environmental challenges of our times and of the next 
century. However, we realize the existence of budget constraints and 
will work closely with the Committee to identify priorities.
                     solar and renewable resources
    Question. You may have heard about a proposed ethanol plant to be 
constructed in Great Falls, Montana. This project hasn't yet be 
constructed even though it has all of the necessary permits and plans 
approved. They are having financial troubles. This plant plans to 
convert wheat waste into ethanol. I understand you are developing 
demonstration plants to convert agricultural products into ethanol such 
as:
  --sugarcane wastes in Louisiana;
  --rice straw in California; and
  --solid wastes in New York.
    What are the Department's plans to develop other demonstration 
projects to produce ethanol from other dedicated crops, such as wheat, 
and forest waste?
    Answer. The Department has requested funds to develop partnerships 
for commercial scale technology demonstrations, using agricultural 
residues and forestry wastes, in industry owned plants to produce 
ethanol and co-products. These plants will be ``first-of-a-kind'' waste 
to ethanol facilities in the United States. We believe that these low 
cost cellulosic waste materials offer opportunities to produce ethanol 
at competitive costs in the near term. The Department's major role with 
our partners has been to provide technical and engineering assistance 
in obtaining process data and engineering warranties. Our industrial 
partners will obtain private financing to construct, operate, and own 
these cellulosic-based facilities. The Department's approach in 
developing these new technologies avoids some of the financial 
difficulties that may be experienced when depending on commodity crops 
that also supply higher valued food markets. Our longer term plans call 
for the use of dedicated crops (switchgrass, hybrid poplar, willow) 
which are being developed for high biomass productivity at low cost, in 
the year 2004. Our understanding is that the facility planned for Great 
Falls, Montana will use wheat and barley grain, which employs a starch 
based process that has been used for many years by the corn ethanol 
industry. In most cases, there are few, if any, process and engineering 
technology or warranty issues requiring resolution.
                     solar and renewable resources
    Question. I have a keen interest in your biomass/biofuels program 
given my state produces a fair amount of agricultural products which 
could be converted into producing electric power or transportation 
fuels. I understand that for fiscal year 2000 you will be increasing 
funding for the development of biomass conversions systems for:
  --wood into ethanol in Vermont;
  --alfalfa into ethanol in Minnesota;
  --willow and coal into ethanol in New York; and
  --switchgrass into ethanol in Iowa.
    What other biomass conversion systems, such as wheat into ethanol, 
have you considered? How can we help encourage you to consider such 
conversion systems?
    Answer. The Department shares your interest in converting 
agricultural products into electric power or transportation fuels. We 
have requested additional funds under the Bioenergy Initiative, which 
will integrate activities critical to the future viability of a biomass 
based industry that will produce products such as fuels, power, and 
chemicals. Technologies and systems that are developed and demonstrated 
under the initiative could be applied to a broad range of feedstocks, 
including those that are grown in Montana. The projects in Vermont, 
Minnesota, New York, and Iowa are actually biomass power projects that 
will demonstrate gasification and biomass co-firing options. Results 
from these projects will also apply, in large measure, to Montana. With 
regard to ethanol, the biomass conversion systems that the Department 
is considering will apply to most agricultural residues, including 
wheat straw.
         doe strategy/plans to develop co-firing demonstrations
    Question. Since it has been shown that biomass can replace up to 15 
percent of the fuels used by existing coal power plants, what are your 
strategy and plans to develop cost-sharing demonstrations for such co-
fired (biomass and fossil fuels) plants in fiscal year 2000?
    Answer. DOE's strategy has been to demonstrate co-firing options in 
a broad cross-section of boiler types with a variety of dedicated crops 
and residues in order to expand the base of utilities employing co-
firing in existing generating units. This is being accomplished on a 
cost-shared basis with utilities and other partners.
    To further the commercial application of biomass co-firing, certain 
issues remain that need to be addressed. These include examining 
numerous types of biomass can be used for co-firing including wood, 
energy crops such as switchgrass, and agricultural residues. Similarly, 
coals (which can range from a lignite coal to an anthracite), have 
varying characteristics that can affect the success of co-firing. 
Additional issues that need to be addressed involve materials handling, 
how materials are delivered into the boiler itself, and boiler design 
that can vary from either a stoker design to pulverized coal type. 
Furthermore, utility restructuring is changing the ownership profile of 
utility boilers which will affect the planning and ultimate decision 
making process by the owners of the generating stations.
    With these factors in mind, it is our intent to pursue additional 
partnerships in other areas such as rural electric cooperatives, 
federal facilities, and non-utility generators, including colleges and 
universities where coal is used to either generate heat or power. These 
cost-shared demonstrations are envisioned as part of a new program 
element that will round out the examination of the various options and 
approaches to cofiring in order to resolve any remaining technical 
barriers and identify the characteristics that will lead to viable 
ongoing co-firing operations by the private sector.
                            hydrogen program
    Question. Regarding other renewable resources, such as hydrogen, 
what are the Department's plans and funding requests in fiscal year 
2000 to develop fuel cells from hydrogen?
    Answer. In support of the President's Council of Advisors on 
Science and Technology's report, the Hydrogen Program is collaborating 
with the other fuel cell programs within the Offices of Transportation 
Technologies and Building Technologies. The Hydrogen Program does not 
independently develop fuel cells, but uses the technology developed by 
the other programs to support industry apply the technology for 
electricity generation. In the fiscal year 2000 budget, the Hydrogen 
Program has requested $1.5 million to build prototype 50kW and 25kW 
Proton Exchange Membrane fuels cells for stationary power in remote 
villages and battery replacement applications, respectively.
                               user fees
    Question. I understand that the Basic Energy Sciences Program 
involves the use of major facilities at various national laboratories. 
And I understand that these national laboratories consume much of the 
budget for the Basic Energy Sciences Program. What considerations have 
you made to adopt a user fee concept for these facilities to cover more 
of their increasing costs since other organizations use these national 
labs?
    Answer. The Basic Energy Sciences (BES) facilities are part of the 
Department's system of scientific user facilities, the most 
sophisticated and successful of its kind in the world. These facilities 
enable researchers to gain the new knowledge necessary to achieve the 
Department's missions and, more broadly, to advance the Nation's entire 
scientific enterprise. The magnitude of these user-facility investments 
exceeds the resources of all but the federal government. These 
investments allow the most promising scientific opportunities to be 
addressed and attract the world's brightest scientists to unlock 
nature's most challenging secrets, thus helping the United States 
maintain its industrial and technological competitiveness. Access to 
these extraordinary tools is provided by DOE on a no-charge basis to 
all qualified researchers whose intention it is to publish in the open 
literature.
    The Department's longstanding user fee policy was formulated to 
encourage use of these unique facilities by leading researchers under 
the following philosophy:
  --to promote increased cooperation among Government, industrial, and 
        academic researchers for the benefit of the entire Nation and 
        to enable the United States to maintain its industrial and 
        technological competitiveness in the world,
  --to encourage industry and academia to conduct basic research of 
        direct programmatic interest to DOE,
  --to encourage investment by industry and academia in facilities 
        through the fabrication of instrumentation and beamlines, thus 
        leveraging the Government's investment in its facilities,
  --to make available the instrumentation and beamlines constructed by 
        participating research teams to general users.
    DOE also recognizes that several committees that have considered 
the issue of user fees to supplement the base operating expenses of 
national user facilities have not recommended implementation of user 
fees. These studies include the 1991 ``Report to Congress on the 
Department of Energy's User Fee Assessment and Collection Practices,'' 
the study by the OECD Megascience Forum Working Group on Removing 
Obstacles to International Cooperation (June 1998 report of the 
Subgroup on Access to Large-scale Research Facilities), the November 
1997 report of the Basic Energy Sciences Advisory Committee (BESAC) 
Panel on Synchrotron Radiation Sources and Science, the report by the 
OSTP Interagency Working Group on Structural Biology at Synchrotrons 
(``Synchrotron Radiation for Macromolecular Crystallography,'' January 
1999), and the NAS study ``Developing a Federal Materials Facilities 
Strategy'' supported by the Board on Chemical Sciences and Technology 
of the Commission on Physical Sciences/Mathematics and Applications.
    A few of the reasons that the implementation of a user fee policy 
may adversely impact user facilities are:
    1. A large amount of cost sharing already occurs at BES user 
facilities with respect to beam line construction, instrumentation and 
facility upgrades. Levying user fees upon NSF and NIH researchers to 
supplement operating costs may well reduce these agencies' support of 
instrumentation.
    2. Sharing base operating expenses among offices/agencies that use 
a facility has been shown not to work--such arrangements result in 
unclear ownership responsibilities and increased funding uncertainties.
    3. User fees discourage industrial use of facilities, thus 
decreasing long-term industrial research and technology transfer 
activities.
    4. Fragile international collaborations relating to user facilities 
are all based on DOE's current policy; if this changes, the U.S. could 
be forced to pay user fees at foreign facilities. The adoption of 
policy to charge foreign users a fee to access U.S. facilities would 
open the door for foreign facilities to do likewise. Implications of 
such a change could be enormous. For example, it is estimated that the 
U.S. uses about 25 percent of CERN (the European Laboratory for 
Particle Physics). The annual budget for CERN is approximately $600M, 
so the U.S. could be asked to pay up to $150M for use of this facility 
alone. It should be noted that U.S. activities at CERN and at other 
European laboratories are now largely balanced by foreign usage, and 
in-kind contributions to DOE (i.e., the High Energy Physics facilities 
for this example).
    5. Since most research (over 75 percent) at the BES facilities is 
federally funded, the effect of charging user fees for nonproprietary 
research would be to transfer funds from one agency to another.
    DOE's longstanding user fee policy was developed within the 
framework of OMB Circular A-25 and was implemented in 1979.
                                 ______
                                 

                  Questions Submitted by Senator Craig

   termination and electrometallurgical treatment funding at argonne 
                          national laboratory
    Question. One of my greatest concerns with DOE's fiscal year 2000 
budget request is the $20 million shortfall for Argonne National 
Laboratory-West in the area of electrometallurgical processing. The 
funding request for the Termination account is $20 million lower than 
the fiscal year 1999 appropriation. Finding a remedy for this shortfall 
is one of my highest priorities. A cut this deep would result in 
several hundred layoffs at Argonne National Laboratory. In fact, to 
minimize the overall impact, the layoffs would have to occur just a few 
short months from now. Why aren't these layoffs mentioned in the DOE 
budget request?
    Answer. The Department's fiscal year 2000 request will support the 
continued work of the Laboratory's skilled workforce until a decision 
is made on the future use of the technology. Their work to investigate 
the application of electrometallurgical technology to the Department's 
spent fuel management challenges is essential to enabling the 
Department to make an informed decision on the future use of this 
technology. After the Department completes its Environmental Impact 
Statement on the use of electrometallurgical technology, it will issue 
a formal Record of Decision in January 2000. No lay-offs will occur 
prior to this decision. If the Department decides to proceed with the 
use of this technology, we will seek to reallocate sufficient 
Department funds to implement such a decision; if, instead, the 
Department decides against using electrometallurgical technology, we 
will proceed to terminate program activities.
    Question. I understand that the Department plans to complete early 
next year the environmental impact statement on the treatment of 
sodium-bonded spent fuels. Therefore, assuming a positive outcome to 
the EIS, funding will be required in fiscal year 2000 to initiate full-
scale treatment of sodium bonded fuels. However, the budget that the 
Administration submitted to Congress includes no funding for treatment 
in fiscal year 2000. Does that mean that the Administration is 
anticipating a negative outcome from the EIS process?
    Answer. We remain optimistic about the application of the 
electrometallurgical treatment technology to the Department's inventory 
of sodium bonded spent nuclear fuel. As you know, the demonstration 
project will be completed in fiscal year 1999. Additionally, by the end 
of the calendar year, the National Research Council will complete their 
independent technical review of the electrometallurgical treatment 
technology. Thus far, the National Research Council has indicated that 
there is no other technology sufficiently developed, with the exception 
of the PUREX process, that could be used for treatment of sodium bonded 
fuel. Further, they have indicated that any other technology, including 
PUREX, would require a significant investment of funds and time for 
development and demonstration.
    We are confident that the EIS and the review by the National 
Research Council will provide a strong basis for a decision on whether 
to use this technology for the treatment of the remaining sodium bonded 
fuel. Once a decision is made, the Department will seek appropriate 
adjustments in its fiscal year 2000 budget.
    Question. Is it true that the electrometallurgical technology that 
is being developed by Argonne has potential application in concepts 
such as accelerator transmutation of waste, metal cooled reactor 
systems, and other concepts?
    Answer. Electrometallurgical treatment technology development at 
Argonne National Laboratory is directed only to the Department's 
mission of conversion of spent nuclear fuel into durable high-level 
waste forms which can be qualified for disposal. I understand that 
related, but different, technologies may be applicable to the 
accelerator transmutation of waste concept. This possibility is part of 
a roadmap now being prepared by the Department's Office of Civilian 
radioactive Waste Management.
                   nuclear energy research initiative
    Question. The fiscal year 2000 budget requests only a modest 
increase in DOE's Nuclear Energy Research Initiative--from $19 million 
this year to $25 million in fiscal year 2000. This does not seem to 
demonstrate a very strong commitment on the part of the Administration 
to support nuclear energy R&D.
    The DOE request of $25 million for fiscal year 2000 will allow only 
about $6 million in new awards in fiscal year 2000; the other $19 
million will be required to fund the second year of projects that will 
be initiated in fiscal year 1999. By comparison, for fiscal year 1999 
DOE received $19 million for NERI, and received 307 proposals 
requesting a total of $300 million dollars.
    Do you believe that an increase of $6 million next year is adequate 
to support the large number of worthy new proposals anticipated in the 
next fiscal year?
    Answer. The fiscal year 2000 request of $25 million, a $6 million 
increase over fiscal year 1999, will allow the start of some new 
research efforts in fiscal year 2000 in addition to continuation of the 
second year of research for the awards made in fiscal year 1999. We 
believe the modest funding increase from $19 million in fiscal year 
1999 to $25 million in fiscal year 2000 will allow the Nuclear Energy 
Research Initiative (NERI) program a controlled growth that will assure 
effective program implementation and goal achievement. However, as 
evidenced by the overwhelming response from the nuclear community to 
the fiscal year 1999 NERI solicitation, the number of new proposals 
funded in fiscal year 2000 will likely be significantly smaller than 
number of worthy proposals expected to be received. It is our hope that 
this program will grow as we demonstrate its value to the Nation.
    Question. Given the importance that the Administration has assigned 
to issues of climate change, and given the obvious advantages of 
nuclear power in addressing climate change, I'm puzzled as to why the 
Administration has requested a $270 million increase for conservation 
and renewable energy research programs, but only an $11 million 
increase for nuclear energy research programs. In fact, the 
Administration's request for nuclear energy research is lower than last 
year's request. Can you explain the logic behind the Administration's 
request?
    Answer. The Administration's budget request for fiscal year 2000 
includes $25 million for NERI, an increase of $6 million, and $5 
million for Nuclear Energy Plant Optimization (NEPO), a proposed new 
program. The fiscal year 2000 budget request of $25 million for the 
NERI program builds on the work started in fiscal year 1999 and funded 
by the Congress at $19 million. We believe that the moderate increase 
in funding we have proposed is appropriate and will provide time to 
assure that the program is effectively accomplishing the objectives. It 
is our hope that the program will grow as we demonstrate its value to 
the Nation. With respect to the NEPO Program, we believe that the 
request of $5 million is sufficient to begin to demonstrate the 
benefits of this program. Both the NEPO and NERI programs are essential 
to retain nuclear energy as a viable option and key component of the 
Nation's energy mix.
    Question. With the large number of research proposals that will be 
funded under NERI, how does the Department plan to integrate this 
research into a rational, long-term nuclear energy research and 
development program?
    Answer. The focus of NERI is the resolution of the longer-term 
issues affecting the future use of nuclear energy. These issues, namely 
proliferation, economics and waste generation, were clearly identified 
in the November 1997 Report of the Energy Research and Development 
Panel of the PCAST. The PCAST report also provided recommendations for 
research in certain key areas: proliferation resistant reactor and fuel 
technology, new reactor designs with higher efficiency, lower cost and 
improved safety; low-power reactors; and new techniques for on-site and 
surface storage and permanent disposal of nuclear waste. These 
recommendations are the focus of the Department's long-term R&D program 
and the basis for the fiscal year 1999 and fiscal year 2000 budget 
requests.
    The Department views NERI as a ``birthing place'' where the 
scientific and engineering ideas of our Nation's brightest researchers 
can be developed into more focused and specific projects that will 
provide solutions to the nuclear energy issues. R&D activities under 
NERI will initially be small to moderate in size and scope, and 
typically be conducted over a three-year period. The Department plans 
to monitor the progress and success potential of each R&D effort. The 
R&D conducted during the initial three-year period will identify 
promising scientific and engineering solutions and technological 
advancements that will require specific project efforts to achieve R&D 
objectives necessary to effectively resolve or reduce the effects of 
the nuclear issues.
     The Nuclear Energy Research Advisory Committee (NERAC), 
established by the Department in 1998, will conduct periodic reviews of 
on-going R&D programs and advise the Office of Nuclear Energy, Science 
and Technology on its long range R&D plans, priorities and strategies.
    Question. Will you draw on the facilities and expertise at Idaho's 
laboratories for the integration and conduct of this long-term research 
and development?
    Answer. The Idaho National Engineering & Environmental Laboratory 
(INEEL) and Argonne National Laboratory (ANL-W) represent the 
Department's core nuclear research and development capability. The 
Office of Nuclear Energy, Science and Technology will continue to 
depend on assistance from these Idaho national laboratories in crafting 
our long term nuclear technology research and development strategy, and 
to provide key nuclear research. For example, INEEL and ANL-W were 
among the many organizations that submitted R&D proposals to the 
Nuclear Energy Research Initiative. Both organizations were successful 
in having several proposals selected for funding. The INEEL is a 
participant is five of the proposals that were funded, and ANL is a 
participant in 10 proposals that were funded.
             university reactor fuel assistance and support
    Question. DOE has proposed $11.345 million for university reactor 
fuel assistance and support in fiscal year 2000, a modest $345,000 
increase over fiscal year 1999. This program is essential to ensuring 
an adequate supply of nuclear-trained professionals for the nuclear 
power industry, the national laboratories, the environmental 
restoration industry, and a host of other industries. This program also 
provides funding to support the operation of the 28 university-based 
nuclear research reactors in the U.S. Given the importance of 
university nuclear engineering programs and university research 
reactors to maintaining the viability of nuclear power in the U.S., do 
you believe this funding level is adequate?
    Answer. While the University Reactor Fuel Assistance and Support 
Program has had significant funding increases over the past several 
years, the need to further strengthen the nuclear engineering 
infrastructure remains. Our request of $11.345 million in fiscal year 
2000 will continue a level of effort in important areas such as the 
Nuclear Engineering Education Research (NEER) initiative. However, as 
we enter the next century, there are challenges that must be met to 
strengthen our educational infrastructure and train the next generation 
of nuclear scientists and engineers. Clearly, more resources from the 
Department can help assure that the Nation meets these important 
challenges. But this work will also require a rededication by the 
universities, our national laboratories, and particularly industry to 
modernize research reactors and enhance university nuclear engineering 
programs.
             clean air credits and atlantic council report
    Question. A report by the Atlantic Council recommended that 
governments assure the financial integrity of nuclear power by giving 
credit to nuclear energy for avoided emissions. This is something that 
is not currently done under the Clean Air Act for SO<INF>2</INF>.
    What is DOE's reaction to a proposal such as this in the context of 
the Administrations electricity restructuring bill? Do you see this as 
a viable proposal for acknowledging nuclear's non-emitting contribution 
to our electricity supply?
    Answer. The primary focus of the Administration's bill on 
electricity restructuring is on competition and consistent with that 
focus, the bill does not include significant environmental provisions. 
However, we understand that the type of allocation suggested could be 
accommodated under the existing law. Several utilities have discussed 
this issue with the Department and the Environmental Protection Agency, 
which has the primary jurisdiction in this area. The matter remains 
under consideration. The individual states have considerable discretion 
in how to reach emission levels specified in their State Implementation 
Plants.
    The Department believes that a reliable and affordable electric 
power supply is critical for the U.S. to enjoy a strong economy and 
sustained growth. Such a supply of electricity requires diversity in 
its fuel mix--we need to maintain a diverse, secure energy portfolio of 
fossil fuels, nuclear energy, and renewables. Nuclear energy has been 
an important part of this diversity and generates electricity without 
emitting any greenhouse gases or other harmful air pollutants such as 
sulfur oxides and nitrogen oxides. The 104 nuclear power plants in the 
U.S. provide approximately 20 percent of the electricity generated and 
avoid more than 150 million metric tonnes of carbon emissions annually. 
With new requirements for lower emissions of sulfur dioxide and 
nitrogen oxide for fossil plants, particularly in the eastern part of 
the nation, the contribution of existing nuclear power plants in 
avoiding harmful air emissions becomes even more important.
    We are at a critical juncture with respect to the continued 
operation of nuclear power plants. Many U.S. nuclear plant owners are 
approaching a key decision point as to whether their plants should be 
shutdown at or before their initial license period, or whether they 
should apply for a twenty-year extension on that license. U.S. nuclear 
power plant licenses will begin to expire in large numbers in 2010; 
licenses for 13 plants representing some 11,700 MWe will expire in 2014 
alone. Faced with regulatory and economic uncertainties, some utilities 
already have exercised their option to close nuclear facilities well 
before their initial license expiration date. This trend has resulted 
in the closing of 6 reactors before license expiration, a loss of 
approximately 4,000 megawatts of U.S. generating capacity, in the past 
three years. Critical issues facing the continued operation of existing 
nuclear power plants need to be addressed in the near term so that this 
trend does not continue.
    Production costs (operating and maintenance costs plus fuel costs 
but excluding capital costs) for existing nuclear power plants at 1.91 
cents per kilowatt-hour [kwh] are comparable to those for coal at 1.83 
cents per kwh and are significantly less than those for natural gas at 
3.38 cents per kwh. An appropriate credit for avoided emissions would 
allow existing nuclear plants to better compete in the restructured 
market. Continued operation of existing plants is a prerequisite for 
the Nation to preserve the option of continued and expanded use of 
nuclear energy.
              proposal for on-site storage of utility fuel
    Question. With respect to DOE's proposal to compensate utilities 
for the on-site storage of their spent nuclear fuel in lieu of taking 
possession in response to DOE's 1998 waste acceptance obligation, as 
the Director of the DOE program office which is most familiar with the 
nuclear power industry, do you foresee any concerns about the 
feasibility, safety, licensing or other regulatory issues associated 
with DOE's implementation of this on-site storage proposal?
    Answer. The Department currently is engaged in discussions with 
utilities concerning the feasibility of the Secretary's proposal to 
take title for on-site storage. The feasibility of implementing this 
proposal would depend on the willingness of the utilities to accept 
this proposal and the ability of DOE to fund the costs.
    Implementation of the on-site storage proposal would not be the 
long term permanent solution nor will it alleviate the need for 
additional spent fuel storage capacity required for continued operation 
of existing power plants. Although spent fuel may be safely stored at 
nuclear power plants under Nuclear Regulatory Commission regulations, 
current plants were designed only for short-term storage until spent 
fuel could be moved to the permanent repository being built by the 
Department.
                            renewable energy
    Question. According to DOE's budget there was over $1 billion in 
annual U.S. renewable energy technology sales in 1998. Can you tell us 
how much energy that represented?
    Answer. The reference to annual renewable energy technology sales 
was to the value of equipment sales and related services provided by 
U.S. industry. The $1 billion consists of approximately $100 million in 
sales of wind plants (112 MW), $228 million in sales of photovoltaic 
modules (54 MW), $400 million in sales for geothermal power plants (380 
MW) and $450 million in sales of geothermal heat pumps. These are total 
sales, both domestic and export, for these U.S. renewable energy 
industries. However, if one wanted to look at the sales of electricity 
produced by the installed renewable energy power plants in the U.S., 
the nearly 2,300 megawatts of geothermal power in the states of 
California, Hawaii, Nevada, and Utah alone produces 14-17 billion 
kilowatt-hours per year of electricity, which is worth about $1 billion 
in annual utility sales, according to the geothermal industry.
    Question. It sounds like this is a rather robust market for 
renewable energy. We are also told by the Administration that consumers 
will be willing to pay more for so-called ``green power''. Given this 
robust market, why should the federal government continue to subsidize 
renewable power technologies at $325.2 million for fiscal year 2000?
    Answer. While $1 billion in sales may seem to indicate a ``robust'' 
market for renewable power technologies, such a market size is still 
quite small in comparison to the scale of conventional energy 
technology markets. For example, the U.S. electric power industry as a 
whole has annual sales of about $215 billion. As to the market for 
``green power,'' it is difficult to forecast human behavior in future 
restructured electric markets. It is not plausible at this time to 
assume with any confidence that demand for ``green power'' alone will 
be sufficient to create a large enough demand for renewable energy (and 
a corresponding level of profits for the industry to fully sustain its 
own R&D) so that the Federal Government should reconsider the level of 
R&D commitment to these technologies. In fact, we believe that 
sustained and even increased investments in renewable energy R&D are of 
critical importance to the nation. These technologies will improve 
local environmental quality, improve the diversity and security of our 
energy supply, reduce greenhouse gas emissions, and improve our long-
term economic competitiveness. In part due to the past support of this 
Committee, the U.S. maintains a leadership position in some, but not 
all, renewable energy technologies. However, our economic competitors 
recognize, as we do, that a massive market for clean energy 
technologies, especially in the developing world, is emerging. Many 
studies and industry observers have concluded that developing these 
technologies and successfully competing for the global markets in clean 
energy technologies is of major importance to the U.S. These 
technologies are essential to meeting the energy, environmental, and 
economic challenges as we begin the next century.
           international renewable energy technology programs
    Question. Please describe DOE's international renewable energy 
technology programs.
    Answer. The Solar International Program's mission is to encourage 
greater acceptance and private-sector use of U.S. renewable energy 
technologies in overseas markets in ways that support U.S. national 
interests and policies. The primary goal of the program is to 
facilitate the expansion of U.S. renewable energy and energy efficiency 
technology exports to help meet the energy needs of developed and 
developing countries, reduce the rate of consumption of finite global 
resources, and address local and transnational environmental issues.
    The International Solar Energy Program addresses specific problems 
that slow the acceptance and use of new and existing technologies, and 
speeds the deployment of technologies by targeting distinct market 
barriers. It supports efforts to increase the competitiveness of the 
U.S. renewable energy industry in large and rapidly growing global 
energy markets. These efforts also support the U.S. industry's ability 
to make continuing technological improvements and achieve cost 
reductions that are critical to enhancing the competitiveness and 
market penetration of renewables in the United States. The program 
works cooperatively with the private sector and by increasing the in-
country understanding of local renewable energy potential, and 
promoting dialogue and interaction with U.S. firms.
    The program has been redirected in response to Congressional 
direction to continue support for the U.S. Initiative on Joint 
Implementation but also to refocus activities into three broad program 
areas: Emerging Global Environmental and Energy Issues, Facilitate 
Market and Trade Development, and Advance U.S. Energy and Environmental 
Security Interests.
    The Emerging Global Environmental and Energy Issues will be 
implemented specifically through and in conjunction with the U.S. 
Initiative on Joint Implementation (USIJI). USIJI is a DOE-lead 
interagency program that supports the development of flexibility 
mechanisms under the U.N. Framework Convention on Climate Change (U.N. 
FCCC) such as Joint Implementation (JI), flexibility mechanisms, and 
Emissions Trading. This element will also focus on encouraging 
meaningful participation by developing countries in the U.N. FCCC.
    The Market and Trade Development element will accelerate reductions 
in technology production costs and advance deployment of technologies 
through overseas market expansion. It will stimulate global economic 
development and regional economic stability, and accelerate domestic 
economic growth and employment. This element will be implemented in key 
regions through bilateral (e.g., Gore-Mbeki in South Africa) and 
multilateral (e.g., Asia Pacific Economic Cooperation, Hemispheric 
Initiatives and International Energy Agency) technology cooperation 
activities and information exchange and dissemination. Private sector 
technology development will be encouraged while private sector 
deployment in strategic and emerging markets will be stimulated through 
project based activities.
    The Energy and Environmental Security element is designed to 
advance U.S. strategic interests in bilateral and multilateral energy 
and environmental security activities and will provide specialized 
assistance in the utilization of appropriate technologies. This element 
will be implemented in support of existing and emerging bilateral and 
multilateral treaties and agreements. This element will also assist the 
Department in meeting U.S. obligations and commitments to provide 
disaster relief and assistance by facilitating private sector 
technology development and deployment in strategic and emerging 
markets.
    Question. Are these programs really an export subsidy?
    Answer. The Solar International Program is not an export subsidy 
program. The purpose of the program is to stimulate global economic 
development and regional economic stability, and accelerate domestic 
economic growth and employment. One of the ways this will be 
accomplished is by facilitating international technology cooperation in 
bilateral and multilateral discussions, agreements and treaty 
negotiations. Developing and facilitating the deployment of appropriate 
technologies offers U.S. industries the opportunity to adapt existing 
or emerging technologies to meet unique needs and conditions of 
developing and transition countries. Technologies that may face 
significant commercial barriers domestically may be readily adaptable 
to large and growing markets in the developing world. Thus the program 
facilitates private sector technology development and deployment in 
strategic and emerging markets through project based activities.
    Question. If so, should we be doing the same for export of other 
non-emitting energy technologies such as nuclear and hydropower?
    Answer. Hydropower is a long-standing renewable technology and the 
International Solar Program is encouraging the acceptance and use of 
U.S. hydropower in developing and transition country markets. 
Additionally, the development of environmentally-friendly hydropower 
turbines (to mitigate impacts on fish and water quality) by DOE's 
Hydropower Program will help meet critical domestic and international 
needs at both existing and potential new hydropower sites. With 
adequate Congressional support and funding, research and development on 
these turbines should lead to commercially available products by about 
2010.
    The International Solar Program supports the export of renewable 
energy technologies and nuclear power is not considered a renewable 
technology. Nuclear energy technologies receive Congressional support 
independent of the International Solar Program. Consequently, it is 
inappropriate for this program to encourage acceptance of U.S. nuclear 
power technologies in developing and transition countries.
                             climate change
    Question. Has DOE developed any analysis regarding the ``credit for 
early action'' legislation introduced by Senators Chaffee and 
Lieberman? If so, could you please provide a copy of this analysis for 
the record?
    Answer. In an ongoing effort, DOE, together with other agencies, is 
reviewing the ``early credit'' legislation introduced by Senators 
Chaffee and Lieberman to better understand its provisions. We have 
begun some exploratory work to assess how an early action crediting 
system might affect existing voluntary programs. To date, however, no 
report has been produced to analyze the possible efforts of this 
proposed legislation.
    Question. In 1998, the National Academy of Sciences/National 
Research Council released a report entitled, ``Global Environmental 
Change: Research Pathways for the Next Decade.'' Has DOE factored into 
its budget and programs the recommendations of this report regarding 
climate change research priorities? If not, why not?
    Answer. This important NAS/NRC report contributes to national 
understanding of the climate change issue and increasingly, DOE is 
embracing central themes of the NAS/NRC report.
    The emerging issue of climate change presents a need for more 
comprehensive integration of the efforts and budgets of multiple 
federal agencies. For this crosscutting issue, the existing budget 
process reveals a legacy of funding single issues and single agencies. 
We need to work hard to coordinate formerly independent approaches to 
address the issue of climate change.
    Among its many findings, the report discusses a very important 
national need to ``prepare for surprises.'' To this end, the report 
offers the pathway structure noted above as a way of casting a wide net 
while maintaining selective depth in important focal areas.

          Scientists believe strongly that unfocused research on the 
        complex and varied Earth system is unlikely to be productive. 
        On the other hand, scientists who view the world through 
        pinholes are likely to bump into trees and fall off cliffs. How 
        can needed focus be given to the USGCRP while still casting the 
        research net sufficiently wide to catch the unexpected?

    How to prepare for surprises is a challenge and one of the reasons 
that the DOE Strategic Plan is shaped with a central guiding pathway 
structure:
  --Science and Technology Leadership
  --Energy Resources /Security
  --Environmental Quality
  --National Security
    With limited federal budgets, there is a need to maintain a focus 
on important areas. EERE develops clean and efficient energy 
technology. We help the US economy by reducing its energy intensity, 
often measured as energy consumed normalized by economic activity (E/
GDP). Even conservative estimates place this improvement at about 1 
percent per year. During the decade of oil shocks, energy technologies 
were improving (becoming more efficient) as measured by this ratio at 
an annual rate of about 3 percent or more--which shows the importance 
of an enduring signal in sustaining improvements. DOE was heavily 
involved in this national success, and recently examined only five of 
several hundred technologies for long-term performance. Setting aside 
the considerable environmental benefits of these technologies, DOE 
worked with GAO to establish their cost-effectiveness. That study found 
that these five technologies cumulatively saved more than $28 Billion 
in avoided energy costs during the period 1978-1997. This compares 
quite favorably with the cumulative total investment in the federal 
energy efficiency and renewable energy programs for that same period of 
about $8 billion.
    We will continue to factor into our budget and programs the 
recommendations of the NAS/NRC report.
    Question. How does DOE set its priorities for climate change 
research?
    Answer. Priorities for the DOE energy technology R&D programs are 
set on the basis of projected benefits of these programs in terms of 
the strategic goals of the Department, the expected program costs, and 
likelihood of success. The strategic goals of the Department are:
  --improve the efficiency of the energy system;
  --ensure against energy disruptions;
  --promote energy production and use in ways that respect health and 
        environmental values;
  --expand future energy choices; and
  --cooperate internationally on global issues. In order for a 
        technology program to be funded, it must contribute to multiple 
        DOE goals--not just climate change.
    Question. Has DOE participated in United Nations programs 
associated with the Global Environment Facility? If so, what projects?
    Answer. The Office of Energy Efficiency and Renewable Energy 
(EERE), through the interagency U.S. Country Studies Program (CSP), 
provides technical assistance and guidance to some Global Environmental 
Fund (GEF) funded projects. The intent is to improve the technical 
quality of deliverables and products from GEF funded activities. 
Specifically, U.S. CSP provides some technical assistance to improve 
the quality of country National Communications to the United Nations 
Framework Convention on Climate Change.
    The following countries are currently receiving technical 
assistance: Bangladesh, Bolivia, China, Egypt, Indonesia, Mexico, 
Micronesia, Philippines, Tanzania, Thailand and Uruguay.
                              agriculture
    Question. I appreciate DOE's efforts in implementing the 1995 
Memorandum of Understanding between DOE and the Department of 
Agriculture by adding Agriculture as one of its Industries of the 
Future. As you know, I am a signatory to that MOU and have a long-
standing interest in DOE's agriculture-related activities. The 
Administration's fiscal year 2000 Budget Request for the Industries of 
the Future program includes $4 million for Agriculture. How would this 
money be spent? Would precision agriculture technologies fit into your 
planned activities?
    Answer. We appreciate your support over the years for agriculture-
related research and development at the Department. One of our newest 
efforts to help America's farmers is the Agriculture Team in the 
Industries of the Future program, which received $2 million of funding 
this fiscal year. The Team recently issued its first solicitation for 
projects, targeting two areas of industry's technology roadmap: 
processing and utilization. Product separation and new, more effective 
catalysts are examples of high priority topics in the first category; 
the structure and functionality of different plant parts are such 
examples in the second. The selection of winning proposals for that 
solicitation will occur in June. Those projects will likely require at 
least an equal amount of funds in fiscal year 2000 to complete or 
continue their planned work. Assuming the Agriculture Team receives the 
full funding requested, that would leave $2 million or less for new 
project starts in the Team's request for proposals for the next fiscal 
year, which it now plans to issue in mid-summer.
    The Team has not yet had full discussions with its industry 
partners in the agricultural, chemical and forestry communities to 
learn their views about the focus for the fiscal year 2000 
solicitation. Given the high level of interest in the current 
solicitation topics; the technical hurdles still to be overcome in just 
the processing area, for example, where the Idaho National Engineering 
and Environmental Laboratory has historically shown technical 
expertise; the need to avoid duplicating research work elsewhere, such 
as at the U.S. Department of Agriculture; and, the amount of funding 
that could be applied to new projects by the Agriculture Team next 
year, it seems unlikely that industry leaders would encourage us to 
broaden our focus to the other areas of the roadmap, plant science or 
production, where precision agriculture is included. However, we want 
to emphasize that no decisions have been made yet about the specific 
details of the Team's fiscal year 2000 solicitation.
                         fish friendly turbines
    Question. I am pleased to see that DOE's budget request includes $7 
million for continuation of research into advance--or what are 
sometimes called ``fish-friendly''--turbines. I think this research is 
key to a continued role for emissions-free hydropower as part of our 
electric generation system. Can you describe the status of DOE's work 
on fish-friendly turbines and how fiscal year 2000 funding would be 
utilized?
    Answer. Competitively-selected advanced turbine conceptual designs 
with improved environmental performance were completed by Voith Hydro, 
Inc. and the Alden Research Laboratory in 1997. Features of an advanced 
Kaplan-type turbine design developed by Voith are already being 
incorporated in the rehabilitation of the Bonneville Dam hydropower 
plant. These features include a minimum-gap runner, low flow 
turbulence, improved blade design with thicker entrance edges, smoother 
surfaces, and oil and grease reduction, all of which reduce injury and 
mortality to fish. Voith, teamed with Georgia Tech, will also conduct 
computer analyses to predict fish behavior in turbines. DOE is 
initiating pilot-scale proof-of-concept testing of the innovative Alden 
design in order to verify predicted biological performance. Biological 
studies of shear stresses experienced by fish in the turbine 
environment are being completed by the Pacific Northwest National 
Laboratory (PNNL) and the results will be factored into design criteria 
by the DOE program for both engineering design and prototype 
fabrication.
    In fiscal year 2000, DOE program funding will continue the 
biological studies being conducted by PNNL, specifically addressing the 
issues of turbulence, pressure and gas supersaturation. Proof-of-
concept testing for the Alden design will be completed, and a 
competitive solicitation will be issued to select one or more industry 
partners to develop advanced turbine engineering designs, leading to 
full-scale prototype fabrication and testing at one or more operational 
hydropower sites.
                                 ______
                                 

                  Questions Submitted by Senator Reid

            federal research investment in renewable energy
    Question. After billions of dollars of Federal Research investments 
in renewable energy technologies, these still produce only about 2 
percent of U.S. electricity. Can you tell me why I should continue to 
support the funding requests for renewable technologies?
    Answer. Although most renewable technologies are competitive in 
limited market segments (for example, off-grid photovoltaics; biopower 
where low cost or negative cost waste feedstock is available or where 
cogeneration is appropriate; and geothermal where there are established 
high quality resources), these technologies have not yet reached the 
point where they can capture a large share of the overall electricity 
market. However, significant progress on technology cost, performance, 
and reliability has been made and several technologies are poised to 
make market inroads over the next decade.
    Since the mid-1970s when most of the renewable energy technology 
R&D programs began in earnest, the total investment has in the range of 
$5 to $6 billion (actual dollars). Since then, we have cut costs 
dramatically. For example, the cost of electric power from wind 
turbines which ranged from 30 to 40 cents a kiloWatt hour in 1980 has 
now dropped to between 4 and 6 cents a kiloWatt hour because of 
aggressive R&D. The next generation of turbines now under development 
should bring costs down to as low as 2 and a half cents per kiloWatt 
hour by 2002. Likewise, the first commercially available photovoltaic 
(PV) panels in the 1980s produced power at a cost of $1 per kiloWatt 
hour. Depending upon the materials used and the technology application, 
PV systems will be capable of delivering electricity for as low as 12 
to 20 cents per kiloWatt hour, and in the next decade it should drop to 
below 10 cents through continued R&D by 2010. By this timeframe, the 
price of photovoltaic generated electricity is expected to be 
competitive with conventional sources of power in remote locations, 
rural areas where transmission and distribution costs are high, and 
urban areas where transmission and distribution systems are congested.
    While non-hydropower renewables do only provide about 2 percent of 
our nation's electricity today, continuing reductions in technology 
production and O&M costs--combined with enhanced efficiencies and 
extended system lifetimes--will enable much further domestic market 
penetration of these clean power technologies. Though actual market 
generation rates will be determined by a number of factors such as 
growth in consumer electricity demand, competition from other 
generation technologies (particularly natural gas), and access to 
investment financing, we strongly believe that amount of power 
generated by renewables will at least triple by 2010.
    Finally, as more clean renewable energy technologies enter the 
commercial marketplace here in the U.S. and sales of our advanced 
technologies increase overseas, our economy will be strengthened as 
more jobs are created for the people of this nation. For these reasons, 
I strongly urge your continued support for the research and development 
of these technologies.
         research and development of alternative energy sources
    Question. Isn't it the case that research and development of 
alternative energy sources is essential to maintain access to 
affordable energy for future generations? Can't it be said that we are 
striving to find alternative sources not only because of environmental 
issues but for future access?
    Answer. Certainly part of the rationale for the Department's 
research and development on alternative energy resources is to ensure 
reliable access to affordable energy for future generations. We want to 
make sure that our nation's children--and all those that follow--
continue to have the energy resources available that are essential to a 
strong economy and the American quality of life.
    We also believe, though, that our work on these technologies is 
already making significant impacts. For many U.S. citizens living in 
remote or underdeveloped portions of our country, power supplied by 
renewable resources can make the difference between having electric 
lights, refrigeration, and electronic communications or not. We strive 
to find clean and renewable electric power and transportation fuels for 
a variety of reasons, including: developing a variety of clean, 
domestic energy choices and thereby enhancing our energy security 
access to these energy resources in the future; mitigating 
environmental and human health impacts associated with energy 
production, consumption, and use; and to return economic benefits to 
the American taxpayer through the creation of skilled, high-wage jobs 
domestically and sales of the technologies they produce around the 
world.
                      use of the nevada test site
    Question. Nevada is a prime area for expansion of alternative 
energy resources. The Nevada Test Site is an ideal location for test 
and evaluation of renewable energy and alternative fuel technologies. 
How do you propose to use the Nevada Test Site for future research and 
design efforts?
    Answer. There are a number of hydrogen projects which have been 
discussed with Nevada personnel and which would be complementary to the 
Nevada Test Site. One project which includes a 50kW generation plant 
that can co-produce hydrogen and electricity has already been 
implemented. The Department issued a competitive solicitation in March 
to develop a prototypical hydrogen refueling station in Nevada. This 
fueling station will enable the refueling of either hydrogen or blends 
of natural gas and hydrogen into vehicles. As the number of 
alternatively fueled vehicles increase, a need for additional satellite 
fueling stations are expected. We anticipate the Nevada Test Site will 
be considered as the Department develops this refueling infrastructure 
through the competitive process.
    In the areas of Photovoltaics, concentrating Solar Power and Energy 
Storage, with ample space and excellent solar resources, Nevada is an 
ideal location for the test and evaluation of renewable energy and 
alternative fuel technologies such as storage systems. The Test Site is 
one possible location, but there are also other locations in Nevada 
that might be advantageous. The Nevada Portfolio Standard may provide 
an excellent incentive for commercial solar energy deployment in the 
near-to-mid term if it is implemented.
                          wind energy progress
    Question. What advances have been made regarding wind power? Have 
any strides been made toward getting wind power competitive with other 
technologies?
    Answer. We've made great progress in improving wind power in the 
last ten years. Cost of wind turbine projects has been reduced from 
2,000 to $/kW to less $1,000 while the cost of producing electricity is 
now in the range of 4-6 center per kWh. Additionally, rotor size has 
increased from 15 meters to 40 meters or more, generator size from 100 
kW to 750 kW or larger, and capacity factors from 0.2 to 0.35 to 0.40. 
Total capacity installed in the United States will increase to over 
2,000 MW this year, as the world total increases to over 10,000MW. 
We've also made major strides in understanding the physics of wind 
energy technology. These improvements, together with industry's 
experience in manufacturing and operating new turbines, are being 
applied in design of advanced wind turbines. Within the Next Generation 
Turbine project, seven conceptual designs of advanced turbines have 
been completed, and two projects are moving forward. The Next 
Generation Turbine effort, together with several other ongoing and 
planned joint projects with U.S. manufacturers, should substantially 
upgrade U.S. industry's wind technology capabilities and narrow the gap 
between wind and other competing forms of electric generation. These 
turbines are expected to bring costs down to as low as 2\1/2\ cents/kWh 
in good wind sites.
                        solar cells development
    Question. Solar cells that produce electricity directly from 
sunlight have been under development for a long time. Your program is 
trying to develop a solar cell that is only 40 percent efficient, so 
that's less than half of the solar energy would be converted to 
electricity. Why would such an inefficient power source be valuable?
    Answer. A 40 percent solar cell is not inefficient. Quite the 
contrary, development of a 40 percent solar cell would be a significant 
scientific accomplishment. When solar cells were first developed by RCA 
Bell Laboratory in the 1960s, efficiencies were in the 4 percent to 6 
percent range. The Department of Energy began an earnest R&D program in 
the mid-1970s, and over the past two decades has made dramatic 
improvements in the technology. Today, multijunction cells under 
concentrated sunlight can routinely achieve efficiencies in the 28 
percent to 32 percent range. Efforts to develop a four-junction device 
that could achieve 40 percent efficiency would yield dramatically 
reduced dollar per Watt values (greater than 50 percent) for 
terrestrial photovoltaics. It should be noted that the efficiency of 
the average automobile gasoline engine is less than 25 percent, yet 
everyone values the transportation they provide. Furthermore, coal 
fired plants are less than 40 percent efficient.
    A conservative estimate of the average residential roof size in the 
U.S. is 200 square meters (10 meters by 20 meters). The amount of 
energy in sunlight is 1000 Watts per square meter, which means 200,000 
Watts, or 200 kilowatts, strike the average residential roof in the 
U.S. (enough for 50 homes). Using a solar cell system that is just 10 
percent efficient would produce 20 kiloWatts of electricity, which is 
more than five times the amount of energy the home needs. Therefore, 
typical photovoltaic systems for residential use take up only a 
fraction of the space on the roof, and, at 10 percent, 20 percent or 
someday 40 percent efficiency, add significant value to a home's energy 
needs.
    Photovoltaic technology adds value to the nation's energy mix. 
Photovoltaic solar cells are a versatile electricity technology that 
can be used for any application, from the very small to the very large. 
It is a modular technology that enables electric generating systems to 
be incrementally built to match growing demands. It is a technology in 
which systems are easy to install, maintain, and use. And it is a 
convenient technology that can be used anywhere there is sunshine and 
that can be mounted on almost any surface, from rooftops, to roadsides, 
to mobile units, virtually anywhere there is sunshine.
    Photovoltaics (PV) also offer additional benefits. For example, PV 
presents a domestic reserve of energy that will never be depleted and 
makes the U.S. less vulnerable to international energy politics and 
volatile fossil fuel markets. Photovoltaic solar cells are made from 
materials, such as silicon, which are domestically abundant.
    Finally, PV systems produce no greenhouse gases, so their use can 
help offset carbon dioxide emissions and their possible consequences. 
Consequently, building a photovoltaic infrastructure would provide an 
insurance policy against global warming and climate change.
    With so many positive attributes, photovoltaic energy is clearly a 
valuable natural resource.
    Question. The United States is not alone in solar cell development. 
Can you compare the budgets and progress of our efforts in this country 
with solar cell research and development programs in Europe and Japan?
    Answer. The European and Japanese R&D programs are very strong and 
aggressive, resulting in a recent upsurge of competition to the U.S. 
photovoltaic industry. The Japanese budget alone is over three times 
the U.S. R&D budget in fiscal year 1999 ($230M vs $72.2M). Both the 
Japanese and German governments spend hundreds of millions of dollars 
on subsidies for their residential roof programs, which have 
dramatically increased sales for their industries. For example, 
Japanese PV manufacturers reported shipment increases of 41 percent, 
from 35 megaWatts in 1997 to 49.2 megawatts in 1998. In the same time 
period, U.S. shipments rose only 5 percent, from 51 megaWatts in 1997 
to 53.7 megaWatts in 1998. If this trend continues, Japan may well 
surpass the U.S. next year and become the world leader, a position the 
U.S. has held since 1993. Overall, in both the U.S. and in foreign 
countries, the efficiency of commercial solar cells has increased by 
about 30 percent in the last 20 years. However, production costs have 
steadily fallen I all countries, so that the cost per unit power ($/
Watt) is now about \1/4\ of what it was 20 to 25 years ago.

                1999 PHOTOVOLTAIC R&D BUDGETS BY COUNTRY
                        [In thousands of dollars]
------------------------------------------------------------------------
                                           United
                                           States     Japan     Germany
------------------------------------------------------------------------
Total R&D Program.......................    72,200    230,000    180,000
Million Solar Roofs \1\.................     1,500    130,000    100,000
------------------------------------------------------------------------
\1\ Japan has a residential solar roof program that installs 10,000 PV
  roofs per year which subsidizes one third of the cost of the PV
  system, and Germany just approved a six-year, 100,000 PV roof program
  to be funded at one billion Marks, or $600M.


                    WORLD PV CELL & MODULE SHIPMENTS
                                  [MW]
------------------------------------------------------------------------
                                                          1997     1998
------------------------------------------------------------------------
United States.........................................     51.0     53.7
Japan.................................................     35.0     49.2
Europe................................................     30.4     30.1
Rest of World.........................................      9.4     18.7
                                                       -----------------
      4Total..........................................    125.8    151.7
------------------------------------------------------------------------

                   providing dispatchable solar power
    Question. Solar power is produced only when the ``sun is shining'' 
so that some means of providing power after sunset must be developed. 
What concepts and research efforts are being developed to solve this 
dilemma?
    Answer. Both the Photovoltaic (PV) and Concentrating Solar Power 
(CSP) Programs at the Department are pursuing various methods of 
harnessing the sun's energy for use after sunset. This ability to 
dispatch solar power when it is needed greatly enhances the economic 
value and broadens the application of solar technologies.
    The simplest and most practical approach for PV energy storage is 
by using batteries. The battery of choice is the deep-cycle flooded 
lead-acid battery. Other battery types are being investigated, 
particularly nickel-cadmium batteries for use in inaccessible 
environments (e.g., microwave repeater stations on mountain tops). 
These batteries are more expensive but have a longer lifetime and less 
sensitivity to deep discharge. Most stand-alone PV systems use flooded 
lead-acid batteries for energy storage. R&D is being conducted to 
improve the integration of batteries with PV to optimize system 
performance and battery life. Other storage research is focused on 
improved batteries and advanced storage technologies (e.g. flywheels) 
that are lower cost, longer life, and more robust in the rigorous 
standalone application environment. In longer-term R&D, energy storage 
through the electrolysis of water and subsequent production of hydrogen 
is being investigated. After sunset, the hydrogen can be combined with 
oxygen in the air to yield electric power through a fuel cell.
    Another concept to eliminate the need for storage in some 
photovoltaic applications is to tie the PV system to the utility power 
grid. When the sun is out, the PV system provides power to the 
application, such as a home or business. If there is excess electricity 
being produced by the PV system, the solar system will run the utility 
meter backwards and the user gets credit for the electric power 
delivered to the grid. At night, the home or business is powered by the 
grid, thus eliminating the need for storage batteries. In this sense, 
the utility grid is the storage.
    For CSP technologies--dishes, troughs, and towers--there are 
different approaches depending on the type of system. Because CSP 
systems generate heat to produce power, all three technologies may be 
hybridized with fossil fuels (e.g., diesel fuel for dishes; natural gas 
or coal for troughs and towers). The 354 MW of trough plants operating 
in the California desert are a fine example of a solar/natural gas 
hybrid system. For stand-alone CSP systems, one option under 
investigation is a solar dish/hydrogen fuel cell combination, where the 
high-temperatures generated by solar dish systems produce power during 
the day and electrolyze water to produce hydrogen for use in a fuel 
cell to provide power at night. Like PV, dish systems can also use 
conventional battery storage. While efficient thermal storage is being 
considered for trough technology. This storage mechanism has been 
successfully demonstrated for power tower systems using molten-salt 
technology. In a test last summer, Solar Two produced power for 153 
consecutive hours (over 6 days) using only sun and salt.
                        solar power vs. storage
    Question. Is energy storage technology ahead of solar power 
technology, or is solar power ahead of storage?
    Answer. An argument could be made that solar power systems are more 
commercially developed than efficient storage methods for kW-scale 
power. This is due to the expense and (in the case of lead-acid 
batteries) the relatively short life of deep-cycle batteries. However, 
energy storage in PV systems today makes use of commercially available 
battery technologies that are produced in large-scale for solar and 
many other applications. Both PV and energy storage technologies have 
made significant advances in recent years in terms of cost reduction 
and improved life. Improved durability of batteries continues to be 
researched while large-scale manufacturing processes are being 
developed for PV. Better system integration of these technologies is 
another focus of research that is expected to pay large dividends in 
the coming years.
         locations receiving federal r&d funds for solar power
    Question. Solar power production is more effective in some areas of 
the country than in others. Do you think there is any relationship 
between the areas of most valuable solar resource and locations of 
Federal R&D in solar power?
    Answer. In the case of both solar photovoltaic and concentrating 
solar power, there is a close relationship between areas of high yearly 
insolation and the location of R&D facilities. Although photovoltaic 
systems have been tested in many sites all across the country and under 
almost all environmental conditions, all five research facilities 
within the Photovoltaic Program are located in areas of high 
insolation. The National Renewable Energy Laboratory (NREL) is located 
in Denver, Colorado; Sandia National Laboratories is located in 
Albuquerque, New Mexico; the Southwest Technology Development Institute 
is located in Las Cruces, New Mexico; the Photovoltaics for Utility 
Scale Applications (PVUSA) test site is located in Sacramento, 
California; and the Florida Solar Energy Center is located in Cocoa, 
Florida. The first four facilities are located in dry, very sunny 
areas, and the last facility is located in a sunny, but very humid 
area. The CSP Program uses the labs at Sandia and NREL (combined to 
form ``SunLab'') and has directed most of its R&D efforts in the U.S. 
Southwest where the solar radiation is ideal for CSP systems.
          locating solar r&d in areas of high solar radiation
    Question. Can you make a case for co-location of solar technology 
test and evaluation in areas of maximum solar power potential?
    Answer. As stated above, in the case of both solar photovoltaic and 
concentrating solar power, there is a close relationship between areas 
of high yearly insolation and the location of R&D facilities. Most of 
the R&D funded by both the PV and CSP Programs is conducted in the U.S. 
Southwest. Though more so for CSP than for PV technologies, co-locating 
solar technology test and evaluation in areas of high solar radiation 
allows for optimal test results and more closely emulates the 
environment where these technologies will be used in commercial 
applications.
                            hydrogen program
    Question. What are the expected benefits of systems that are 
powered by hydrogen?
    Answer. There are multiple benefits that are accrued by using 
hydrogen fuel cells. Hydrogen fuel cells are expected to improve the 
efficiency of energy systems by making more productive use of energy 
resources that protect the environment and enhance national security. 
For electric generation systems, the hydrogen fuel cell can be better 
integrated at the site of electric power utilization as a distributed 
system that can provide both electricity and heat, and thereby achieve 
an overall efficiency of 80 percent. For transportation applications in 
non-attainment areas there would be a significant improvement in the 
air quality due to the fuel-cell exhaust being primarily water. Also, 
natural gas or renewable/electrolysis of water can be substituted for 
petroleum as the source of hydrogen, which would decrease global 
warming emissions and decrease the Nation's reliance on imported oil.
    Question. The deployment of a ``hydrogen infrastructure'' is 
frequently referred to as a major obstacle to hydrogen-powered 
vehicles. What is the Federal Government's role in overcoming this 
obstacle? What are your plans and progress for developing a hydrogen 
infrastructure?
    Answer. There are several barriers that need to be overcome in 
order for the public to accept hydrogen-powered vehicles. There is an 
issue associated with the establishment of a sufficient number of 
hydrogen stations that can dispense a fuel at competitive prices to 
today's petroleum-based fuels. There is also the need to provide the 
cost for the infrastructure to support those stations. The Department 
has issued a solicitation for a refueling station in Las Vegas, NV that 
will co-produce electricity from a stationary fuel cell and hydrogen 
for dedicated vehicles. It is expected that this option will lower the 
cost of both producing the electricity and the hydrogen fuel to levels 
that will enhance the commercial deployment. As a distributed system 
that uses natural gas as the feedstock, it is expected to have a lesser 
impact on supporting infrastructure requirements. As advanced reformer 
and fuel cell technology becomes available from 2001 to 2004, future 
refueling stations will be considered as cost-shared joint ventures 
with industry.
    In addition, there is the need to ensure that the public will be 
able to fuel their vehicle safely and in a reasonable amount of time. 
The Department is working with the industry, the National Hydrogen 
Association and the International Safety Organization on the 
development of an appropriate set of codes and standards. The 
Department is also supporting the development of safety plans and 
testing for projects, and the deployment of pre-commercial systems in 
public environments. It is expected that the automobile industry will 
first develop hydrogen fuel cell buses and fleet vehicles for niche 
markets that will facilitate further deployment of these systems in the 
marketplace prior to requiring an infrastructure to support the general 
public's personal vehicles.
    Question. Fiscal year 1999 Appropriations for hydrogen research 
directed completion of a facility in Nevada that would produce and 
store hydrogen and use a path-breaking fuel cell to supply power. What 
is the status of that facility?
    Answer. A solicitation was issued on March 18, 1999 with a closing 
date of May 14, 1999 for a 50/50 cost-shared project to build and 
operate a 50 kW stationary fuel cell electric generation system and 
hydrogen/natural gas quick-fueling station at a site near the Nevada 
Operations Office in northern Las Vegas. It is expected that this 
station will be built and operational by September 30, 2000.
                            nevada test site
    Question. Nevada is primed and ready for implementation of 
alternative energy resource facilities. A majority of the State is 
Federally owned and unsettled. Additionally, the Nevada Test Site is 
available for use. What are your plans for constructing facilities or 
using existing facilities in Nevada?
    Answer. As you have asserted, Nevada is blessed with numerous 
renewable energy resources and is primed for the use of alternative 
energy resources. To facilitate the increased use of solar energy in 
Nevada, the Office of Power Technologies awarded a $183,000 grant to 
the Corporation for Solar Technology and Renewable Resources (CSTRR) 
September 1998. CSTRR joined with Pulte Home Corporation to develop a 
strategy for the wide scale installation of solar water heating systems 
in Nevada and Arizona. To help them, they formed a team which includes 
Nevada Power Company, University of Nevada Las Vegas , University of 
Nevada Reno, and the Nevada State Energy Office. The team augmented the 
DOE grant with $297,000 of its own. Through this grant, they have 
evaluated a number of solar water heaters and selected two systems that 
best fit Pulte's performance and reliability requirements. They have 
been integrated into the design of Pulte's homes and have been 
installed on several model homes in Las Vegas. Educational materials 
are being developed by Pulte, as is a marketing strategy. Las Vegas' 
abundant solar resource and rapidly growing population makes it an 
ideal location to show that solar technology can be an inexpensive 
energy option. The goal of the project is to develop a sustainable 
market that results in solar water heaters on thousands of buildings 
and facilities throughout Nevada and the rest of the Southwest.
    Within the Photovoltaic Program, the State of Nevada is a Million 
Solar Roofs (MSR) partner and has made a commitment to install up to 
10,000 solar roofs. The Photovoltaic Program is also providing 
financial support to several utility companies within the state to 
install grid-tied PV systems. UtiliCorp United and the Nevada Power 
Company are teaming on a project to install kW PV systems on residences 
to examine their contribution to voltage stability, harmonics and power 
quality. Sierra Pacific Power is part of a team led by Central and 
South West Services to purchase in volume and install 180 PV powered 
fluid handling systems. Finally, the Corporation for Solar Technology 
and Renewable Resources (CSTRR) is located in Las Vegas and the Program 
has worked with CSTRR to identify PV projects in Nevada.
    In the area of the Geothermal Energy Program, today there are 14 
power plants in Nevada with a capacity of about 208 MW. Using current 
technology and known resources Nevada has a potential of up to 500 MW, 
although there are no known plans to commercially develop these 
additional resources. Two geothermal power companies, Oxbow Geothermal 
and Ormat are headquartered in Reno and Sparks, respectively. Both 
companies have major projects within Nevada, and the Department has 
partnered with them in developing improved geothermal technology. In 
addition, there are 80 MW thermal installed at 34 sites for direct use 
applications such as space heating and industrial processes. Another 31 
sites have a potential for development of almost 1400 MW thermal, 
mainly for space heating.
    The State of Nevada may also be a candidate for an alternative 
energy test bed to assess various renewable energy and power delivery 
technologies, especially in a distributed power mode. DOE is 
considering development of such a site through a competitive process in 
the fiscal year 2001 time frame.
           ranking the value of major renewable technologies
    Question. Looking into the future, can you rank in order the 
overall value of the major renewable technologies?
    Answer. Unfortunately, there are too many variables to look into 
the future to rank the overall value of the major renewable energy 
technologies in any meaningful way at this time. Factors such as 
domestic market utilization rates, the level of international sales of 
domestically-produced technologies, private sector investment, consumer 
preferences, the value of environmental (e.g., emission) benefits, 
foreign competition, foreign market barriers and subsidies, resource 
availability, and the great variances among emerging State laws and 
regulations make such rankings essentially impossible.
    Certainly, it appears that some technologies will enter the 
marketplace in a substantial manner sooner than others, but this is not 
an accurate indicator of their eventual value ranking. In fact, this 
would merely be an estimate of market penetration and the cumulative 
benefits provided at a given point in time. Other technologies may 
require a somewhat longer research and development process, but may 
eventually be more suitable to wider market penetration and greater 
overseas sales and thus surpass their market entry predecessors. 
Finally, while oftentimes the various renewable technology resources 
complement each other (e.g., when the sun goes down, the wind 
oftentimes increases, yielding opportunities for hybrid renewable 
energy technology supply systems), there may well be some level of 
competition among the technologies in certain geographic regions that 
will be decided by consumers and the marketplace itself.
                 use of hydrogen and hydrogen research
    Question. You say your mission hasn't changed and that it includes 
developing energy technology options. My understanding is that your 
office is pursuing the use of Hydrogen as an optional technology. 
Efficiency requires coordination with the Energy Efficiency and 
Renewable Energy Office. What steps are you taking to ensure that 
appropriate communication is taking place between your staff and Dr. 
Reicher's staff?
    Answer. I agree that coordination between the Office of Science 
(SC) and the Office of Energy Efficiency and Renewable Energy (EE) is 
critical. The largest activity that supports hydrogen research within 
the Office of Science is in the Energy Biosciences subprogram of the 
Basic Energy Sciences program. In addition to one-on-one meetings 
between program managers, there are several other coordination 
activities. For example, one of our program staff has served as a 
reviewer of the EE Hydrogen program; and currently, the Director of our 
Energy Biosciences Division participates in the Office of Energy 
Efficiency and Renewable Energy's Bioenergy Energy weekly staff 
meetings, thus providing both EE and SC with unique perspectives of 
each others problems and opportunities.
    Question. What do you see in the future for Hydrogen Technologies? 
Are we looking at decades of research before this technology becomes 
effective and efficient?
    Answer. Hydrogen can be used by many energy technologies, from 
combustion to fuel cells. The impediments are, however, two fold. The 
first is one of infrastructure. Our fuels infrastructure is based on 
transporting and distributing hydrocarbons. This infrastructure depends 
on pipelines and trucks eventually leading directly to our homes and 
places of work for heat or distribution centers. Much of this 
infrastructure, perhaps even the majority, is not suitable to handle 
hydrogen safely. The second is one of efficiency in production of 
hydrogen. There are current technologies for converting hydrocarbons to 
carbon dioxide and hydrogen. However, they are not yet economically 
competitive. There are some new ideas being developed and explored both 
at university and government laboratories and in industry that have the 
potential to solve this problem. Longer term research is going to be 
needed to enable the splitting of water as a source of hydrogen using 
solar energy, either by artificial or natural photosynthetic processes.
    Question. What amount of the fiscal year 2000 budget request within 
Energy Research will be directed to hydrogen research?
    Answer. The Office of Science is responsible for broad support of 
the science base for all the technology offices within the department. 
The mechanism by which this is accomplished is competitive peer review 
of all applications. In fiscal year 1998, we provided $2.3 million in 
support of meritorious applications for research on hydrogen. In fiscal 
year 1999, we are currently providing $2.2 million and have received 
applications in the Climate Change Technology Initiative (CCTI) that 
are relevant to hydrogen. Because the review of the CCTI applications 
has not been completed, it is not possible to provide an exact number 
for fiscal year 1999. The same is true for fiscal year 2000. There will 
be a solicitation in fiscal year 2000 for the CCTI that will address 
among other relevant issues, hydrogen. In addition, applications 
relevant to hydrogen are submitted to the base programs; and selection 
is done on the basis of peer review. The amount that will be funded in 
fiscal year 2000 will depend on the applications submitted and the 
outcome of the peer review. We anticipate the fiscal year 2000 funding 
will approximate the fiscal year 1999 funding.
                   objectives of strategic plan goals
    Question. I see that the objectives of your ``Fueling the Future'' 
and ``Protecting our Living Planet'' goals are to 1) find energy 
systems that are more efficient and environmentally sound and 2) to 
determine how our energy use affects environmental systems. Will you be 
addressing the environmental issues of nuclear energy, especially waste 
management and disposal, as a part of these?
    Answer. The Office of Science will soon release its new Strategic 
Plan to guide its research through the next 25 years. Much of this 
research, because it is basic, has broad potential applications, some 
presently understood and some not. Having said this, there are areas of 
basic research which will have relevance and benefit for nuclear waste 
management and disposal. For example, programs in materials sciences 
will investigate materials used to contain waste (such as metals, 
glasses, ceramics and polymers), and the corrosion, welding properties, 
fracture behavior, and radiation resistance of such materials. Chemical 
Sciences projects will explore the molecular level reactions of 
actinide compounds necessary for the safe handling, storage, and 
disposal of radioactive wastes. Geoscience investigations will examine 
the transport of contaminants in porous media and the transformation of 
wastes by the subsurface environment. And, programs in plant and 
microbial sciences will study how these biological systems interact 
with nuclear waste products, leading to potentially new or improved 
remediation strategies and technologies.
              nuclear waste projects in the budget request
    Question. The budget request includes $411.2 million for Biological 
and Environmental Research and $342.9 million for Nuclear Physics. Are 
any of these projects focused on storage of nuclear waste?
    Answer. There are no projects in the budget request for either of 
these programs that are focused on storage of nuclear waste.
                accelerator transmutation of waste (atw)
    Question. I understand that there are feasible techniques to reduce 
the hazardous lifetimes of radioactive wastes. Is your Office doing 
research on these techniques ?
    Answer. The Office of Science is not doing research on these 
techniques directly, but accelerator technology developed by the Office 
of Science, et al, is the focus of a $4 million DOE R&D roadmap for one 
of these techniques: the accelerator transmutation of (radioactive) 
waste (ATW). The roadmap is due to be completed and submitted to 
Congress by October 1, 1999. The effort is being led by the DOE Office 
of Civilian Radioactive Waste Management (RW), with participation by 
the DOE Offices of Defense, Nuclear Energy and Science. Four technical 
working groups have been formed, in addition to a group of 
international experts.
          oversight of major construction research facilities
    Question. Isn't the Office of Science responsible for providing 
research and oversight of major construction of research facilities? Do 
you have plans for constructing facilities or using existing facilities 
in Nevada?
    Answer. The Office of Science is only responsible for the 
construction oversight of Office of Science funded research facilities.
    The BER Program is currently supporting a research project that is 
using the Desert Free Air Carbon Dioxide Enrichment (FACE) facility. 
The project, ``Effects of Elevated CO<INF>2</INF> on Root Dynamics and 
Root Function in a Mojave Desert Ecosystem,'' is undergoing peer review 
for continued support. The site is located outside of Las Vegas, 
Nevada, at the Department of Energy's Nevada Test Site.
                    competitiveness of nuclear power
    Question. You say that nuclear energy is essential in reducing 
carbon dioxide emissions. There are many other ``green'' technologies 
that could also reduce carbon dioxide emissions. At this time, these 
other technologies are not competitive on the open market. My 
impression is that nuclear energy is also not competitive on the open 
market. No new reactors have been built in more than 20 years. Many of 
the old reactors are being decommissioned.
    Public distaste for nuclear power incurs hidden costs that can be 
offset only by real reductions in capital and operating expenses for 
nuclear power facilities. Otherwise, the industry will continue to turn 
to other opportunities. How do you plan to decrease the costs 
associated with nuclear energy (including waste disposal) in order to 
make it competitive on the open market and attract industrial power 
advocates?
    Answer. Nuclear power plants are among the most efficient sources 
of baseload electricity available today, with operating costs averaging 
at about 1.9 cents per kilowatt-hour. Rather, the unacceptably high 
costs historically attributed to nuclear power plants are from the high 
costs and long lead times associated with construction and licensing of 
these plants. Since the enactment of the Energy Policy Act of 1992, 
much has changed that would make economics associated with building and 
operating new plants more economic. We believe that nuclear energy is 
and will continue to be an important source of electricity for the 
nation and with the right strategies by industry and government to 
address barriers to use of nuclear energy, both existing and new 
nuclear plants will be competitive with other energy sources in the 
next century.
    A few years ago, with the shut down of several older, smaller 
nuclear power plants, and with electricity restructuring looming, many 
believed that existing nuclear power plants could not compete in the 
electricity supply market. However, this has not proven to be the case. 
Today, the trend is toward consolidation of ownership of nuclear plants 
as states favorably address stranded costs, as we see a growing 
recognition of the importance of nuclear to meeting international 
commitments on climate change, and as we see that these plants can be 
operated efficiently, reliably, and safely. Already, several plants are 
proceeding well ahead of schedule with license extension and others 
have expressed their intent to proceed with license extension. We 
believe that the majority of existing plants will continue to operate 
well into the next century. To support their continued operation, the 
Department is proposing to launch the Nuclear Energy Plant Optimization 
(NEPO) program, in fiscal year 2000. With a modest level of funding, 
leveraged with industry funding, we believe we can begin addressing 
important issues that can remove barriers to extended operation of the 
existing plants. This program conducted in at least 50-50 cost-shared 
cooperation with the Electric Power Research Institute (EPRI) and with 
coordination with the Nuclear Regulatory Commission (NRC), would seek 
to increase plant capacity from 71 percent in 1997 to 85 percent in 
2010 by addressing issues such as materials degradation, plant aging, 
and other issues affecting plant reliability, economics, and safety.
    In the 1980's and mid-1990's the Department and industry funded and 
completed, the Advanced Light Water Reactor (ALWR) program. This 
program is the foundation for restoring favorable economics and 
increased confidence in nuclear power in the United States. Three 
improved, simplified U.S. plant designs were submitted for NRC Design 
Certification in cooperative, cost-shared programs of DOE and the U.S. 
industry: the General Electric Advanced Boiling Water Reactor (ABWR) 
and ABB-Combustion Engineering System 80+ large plants (1350 MWe), and 
the smaller Westinghouse AP-600 (600 MWe) simplified passive plant. The 
ABWR and System 80+ received NRC Design Certification in May 1997. The 
AP600 received NRC Final Design Approval in September 1998, and should 
receive Design Certification in 2000. We believe that design 
certification, coupled with the latest NRC one step licensing process, 
reduces the uncertainty and risk that characterized many nuclear plant 
projects in the 1970's and 1980's. In addition, the significant 
improvements and simplification of these plant designs, will reduce the 
time and cost required to construct nuclear power plants.
    In fiscal year 1999, with advice from the President's Committee of 
Advisors on Science and Technology, the Department proposed and 
Congress funded $19 million for the Nuclear Energy Research Initiative. 
This program is specifically aimed at conducting new and innovative 
research to address barriers to long term use of nuclear energy, such 
as waste, proliferation, and economics. As an investigator-initiated, 
peer reviewed research program, proposals were solicited from 
universities, national laboratories, and industry in the following 
general areas:
  --Proliferation resistant reactor and fuel technology
  --New reactor designs to achieve improved performance, higher 
        efficiency and reduced cost; also, low output power reactors.
  --Advanced nuclear fuels
  --New technologies for nuclear waste management
  --Related fundamental science and technology.
    We received over 300 proposals in response to the solicitation and 
in May 1999, the Department awarded grants to the top 45 research 
projects. The majority of these awards were for collaborative research 
among universities, laboratories, and industry, including significant 
collaboration with international R&D organizations. The NERI program is 
expected to produce significant innovative research and development 
that will contribute to the reduction of nuclear plant costs and 
construction schedules and to improvements in proliferation resistance, 
nuclear waste technology, and other promising areas of nuclear energy 
development.
    In the final analysis, the long-term use of nuclear power in the 
United States will depend on economics. This in turn will depend on the 
efficacy of the R&D that is conducted, on demonstrating the benefits of 
nuclear power, and on restoring and maintaining a sufficient 
infrastructure of the needed technical qualifications in industry, 
universities and laboratories.
     nuclear energy research initiative waste management activities
    Question. It is the focus of Nuclear Energy Research Initiative 
(NERI) to determine how, if possible, nuclear energy can be used over 
the long term as an environmentally responsible and reliable energy 
source. You are requesting an increase of $6 million over fiscal year 
1999 funding to address obstacles affecting the future of nuclear 
energy in the U.S. Do these obstacles include nuclear waste management 
and storage?
    Answer. Yes. Nuclear waste, principally spent fuel is one of the 
five main research areas of the fiscal year 1999 NERI research program. 
The focus of the NERI nuclear waste research is to address issues 
related to the management and interim or onsite storage of commercial 
spent fuel. The fiscal year 1999 NERI research solicitation identified 
waste research needs in the following specific areas: new concepts for 
on-site or interim storage of spent fuel; strategies and technology for 
the reduction of high level waste volume; and fundamental research to 
eliminate storage corrosion processes. The NERI nuclear waste research 
effort is being coordinated with other Department offices including the 
Offices of Civilian Radioactive Waste Management, Science, and 
Environmental Management to avoid duplication of research.
    Question. How will these additional funds be used to address waste 
disposal uncertainties?
    Answer. The Office of Nuclear Energy, Science and Technology plans 
to utilize approximately $19 million of the requested $25 million in 
fiscal year 2000 to fund the second year of the R&D proposals awarded 
in fiscal year 1999. The additional $6 million will be used to fund new 
research in several key areas, including nuclear waste management, 
proliferation resistant reactor and fuel technologies, new reactor 
designs, and advanced nuclear fuels. The Department is seeking new 
alternatives and technological solutions to minimize the impact of 
spent fuel-nuclear waste while maintaining compatibility with the 
policy for ultimate disposal in a geological repository. NE will select 
and fund the best scientific and engineering research proposals 
received from U.S. universities, national laboratories and industry 
based on a competitive, peer reviewed selection process.
             nuclear energy--social acceptability and cost
    Question. How will the Department address what could be the two 
biggest obstacles to nuclear energy--social acceptability and cost?
    Answer. The Department recently completed the Advanced Light Water 
Reactor Program (ALWR) which produced three advanced nuclear power 
plant designs that have been approved by the Nuclear Regulatory 
Commission (NRC). The General Electric Boiling Water Reactor (ABWR) and 
the ABB-Combustion Engineering System 80+ received NRC Design 
Certification in May 1997. Design Certification of the Westinghouse 
AP600 is expected in 2000. These ALWR designs have made significant 
advancements in the already robust safety features and life cycle cost 
aspects of nuclear energy.
    In order to keep the nuclear energy option viable for the United 
States, the Department has proposed in its fiscal year 2000 budget, 
research and development activities under the Nuclear Plant 
Optimization (NEPO) program. NEPO is a new initiative proposed in 
fiscal year 2000, to cooperate with the industry to develop key 
technologies that can help assure the long-term viability of our 
nation's existing nuclear power plants. This initiative is particularly 
important as utilities deal with uncertainties associated with 
electricity restructuring. NEPO seeks to develop and apply new 
technologies to improve plant economics, reliability and availability, 
and resolve issues related to plant aging while maintaining a high 
level of safety.
    The proposed NEPO program would help reduce the production costs of 
existing plants because the R&D conducted: (1) would provide a better 
understanding of material degradation mechanisms and how they occur, 
enabling development of cost-effective aging management strategies 
which will provide capabilities to easily prevent, detect, or repair 
the degradation; (2) would improve equipment reliability, lower 
operating costs, and increase power output while maintaining high level 
of safety; and (3) would optimize power generation through efficiency 
and productivity improvements by making use of technology advancements 
in computers, communications, materials, sensors, digital electronics, 
and artificial intelligence.
    Nuclear energy can become competitive for new capacity additions, 
if its capital costs can be reduced. Reduction in capital costs can be 
achieved through the application of advanced technologies in all phases 
of design, licensing, fabrication, construction and operation; through 
the use of tools such as probabilistic risk assessment to simplify 
designs; and by the application of risk-based regulations as a means to 
streamline the regulatory requirements and process. NERI focuses in 
part on developing technologies which would make the option of nuclear 
energy more competitive in the future.
    The NERI program, which was initiated this year, will address the 
principal obstacles to expanded future use of nuclear energy--
proliferation, economics and nuclear waste management. NERI research is 
focused on improved proliferation-resistant reactor and fuel 
technologies; new reactor designs and technologies to improve 
efficiency, enhance safety and reduce cost; advanced nuclear fuels to 
improve fuel economics and reduce waste by-products; and new 
technologies to manage and temporarily store spent nuclear fuel. NERI 
complements NEPO by addressing our nation's long term nuclear energy 
future by funding investigator initiated research and development at 
universities, national laboratories, and industry to advance nuclear 
power technology.
      nuclear energy research initiative and nuclear energy plant 
                          optimization funding
    Question. I am impressed that NERI and the Nuclear Energy Plant 
Optimization (NEPO) program are so successfully coordinating with 
outside industry, national labs, and universities. Where do the Federal 
dollars allocated to these programs go?
    Answer. There was an overwhelming response by the science and 
technology community to the fiscal year 1999 NERI solicitation; 308 
researcher-initiated R&D proposals were received from 68 different 
institutions including 40 universities, 9 national laboratories and 19 
industry companies totaling over $100 million in first-year funding and 
a total of $353 million for the three-year period. Over 210 of the 
proposals involved collaborations among several R&D institutions, 
particularly with universities, to foster and maintain a nuclear energy 
R&D infrastructure. In May 1999, the Department selected the top 45 
projects for award of fiscal year 1999 funding. The projects selected 
will involve 21 universities, 8 national laboratories, 16 private 
sector organizations and with a substantial level of interest and 
collaboration with international R&D organizations. Funding for NERI is 
used to fund new and innovative research at the universities, national 
laboratories and industry.
    The proposed NEPO program would involve the nation's national 
laboratories, universities, and industry in addressing issues 
associated with operating nuclear power plants in cost-shared 
cooperation with the Electric Power Research Institute (EPRI) and in 
coordination with the Nuclear Regulatory Commission (NRC). The research 
and development program is cost-shared with industry providing a 
minimum of 50 percent of the cost. The Department, national 
laboratories, and EPRI have developed a Joint DOE-EPRI Strategic 
Research and Development Plan to Optimize U.S. Nuclear Power Plants. 
This plan was issued on March 20,1998 and was based on inputs from the 
national laboratories, NRC, universities, and other key stakeholders. 
This plan, which will be updated in fiscal year 1999, identifies 
critical R&D needs which are not currently being addressed or planned 
to be addressed by the industry, NRC, or others. The plan also defines 
a process for selection of the highest priority projects based on 
available funding. Project selection will be guided by the Nuclear 
Energy Research Advisory Committee (NERAC). The federal dollars would 
fund the organizations which are best suited to conduct the research 
and development selected for funding. It is expected that efforts at 
national laboratories, universities, and industry will be funded.
    Question. Are they provided as grants to universities and national 
labs?
    Answer. NERI awards to universities and industry will be in the 
form of grants or cooperative agreements. Funding for the national 
laboratories will be provided using the standard DOE work authorization 
process.
    The proposed NEPO program is a collaborative cost-shared program 
with industry providing a minimum of 50 percent of the cost. The 
government and industry, through EPRI, will identify and prioritize 
work and use an independent peer review process to select performing 
organizations. We expect that universities, national laboratories and 
industrial organizations will all be involved in NEPO R&D activities.
    Question. Are any of these funds provided to Nevada researchers?
    Answer. Selection of proposals for funding was completed and awards 
were announced in May 1999. Although no proposals were submitted from 
researchers in State of Nevada, there is substantial nuclear-related 
expertise in Nevada, at the universities and industry, and we look 
forward to receiving future proposals from your State for participation 
in NERI, and if appropriated by Congress in fiscal year 2000, for 
participation in NEPO.
                                 ______
                                 

                 Questions Submitted by Senator Stevens

                   low income weatherization program
    Question. The Department of Energy's Office of Energy Efficiency 
and Renewable Energy focuses its research, development, and deployment 
efforts on transportation, industry, buildings and the federal 
government. In transportation, DOE focuses on cleaner fuels and great 
fuel efficiencies. It has highlighted nine industries that account for 
more than 75 percent of industrial energy use, including forest 
products, petroleum refining, and mining. For buildings, DOE tries to 
reduce the $220 billion of energy consumed in homes and offices each 
year through R&D in lighting, heating, cooling, and ventilation, as 
well as better construction practices and energy delivery systems. 
Through the Federal Energy Management Program, DOE seeks to reduce the 
$8 billion the federal government spends annually on energy through 
cost-saving incentive programs. The President has proposed a 3.4 
percent reduction from fiscal year 1999 in the energy conservation 
budget.
    The fiscal year 2000 weatherization assistance program will provide 
federal assistance to more than 76,900 low-income homes. There are 
Alaskans living in third world conditions above the Arctic Circle who 
pay more than 50 cents per kilowatt hour for energy. In much of my 
state, more than half of a family's annual income goes to energy in 
much of my State. Is this program scaled towards those poor families 
with the lowest incomes AND with the highest energy costs?
    Answer. The mission of the Department of Energy's Weatherization 
Assistance Program is to reduce the energy costs of low-income 
families, especially those with children, persons with disabilities, 
and the elderly, while ensuring their health and safety. Each state's 
annual Weatherization program plan lays out how priorities will be 
determined by the local agencies which perform the weatherization 
service throughout the state. Energy burden is a factor that is 
considered by weatherization agencies in Alaska, in prioritizing homes 
for Weatherization service.
    In Alaska's case, however, many families living in remote areas 
have homes which need far more assistance than is either allowable or 
affordable within the national Weatherization program's legislative 
constraints. Many rural Alaskan homes need major repair or 
rehabilitation before energy efficiency measures make sense. 
Furthermore, the expense of delivering energy efficiency measures to 
these remote communities is so high that the average cost per home far 
exceeds the maximum average allowable under DOE's program, which in 
1999 is $2,032. As a complement to the DOE Weatherization program, the 
state of Alaska provides for these homes by allocating state funds 
(about $3 million in the current year) that can be used for repair and 
rehabilitation as well as energy efficiency improvements. The cost per 
home averages between $5,000 and $14,000. Unlike the DOE funds, there 
is no cap on the amount of state funds that can be used for each 
residence.
             efficient delivery systems in remote villages
    Question. Your budget proposal includes funding for a number of 
advanced fuel technologies. However, most rural Alaskan communities 
rely on diesel generators for their power. Clean, efficient, modern 
technology is not yet an option for many of these folks. What can your 
agency do to help make the existing energy delivery systems in our 
villages more efficient?
    Answer. Since fiscal year 1996 the Department has been engaged in 
efforts to assist rural Alaskan communities to integrate wind energy 
systems with existing diesel generation units to increase the 
efficiency, and reduce the cost of operating those diesel systems. In 
the village of Kotzebue, for example, approximately $4.5 million of DOE 
funds have been made available to date to install a 1.5 to 2.0 megaWatt 
wind energy system to augment an existing 11.3 megaWatt diesel system. 
When fully operational, the wind energy system at Kotzebue will be able 
to provide as much as 25 percent to 30 percent of annual electricity 
requirements, and reduce diesel fuel costs by a similar 25 percent to 
30 percent figure. The Kotzebue project, with ten 66 kW wind turbines 
currently installed, is serving not only as a model to reduce 
dependence on expensive and difficult to maintain diesel generation 
systems, but also as a ``center of excellence'' to share lessons 
learned with other communities in the state to help them harness wind 
resources available to them. In addition to the Kotzebue project, the 
Department is also supporting a high-penetration 130 kW wind energy 
system at the Village of Wales. This system, to be installed in the 
Summer of 1999, will in periods of high winds have the ability to 
provide all of the electricity required by the village, and will serve 
as a model for wind energy installations in other small villages in the 
state. Further, the Department is working with the Alaska Department of 
Community and Regional Affairs (DCRA) to help the villages of Gambell, 
Mekoryuk, Point Hope, St. Michael, and Unalakleet to perform detailed 
measurements of their wind resources as a first step leading to the 
possible installation of wind energy systems in those communities. In 
support of DCRA the Department also funded a market assessment of the 
potential for wind energy use in approximately 80 rural Alaskan 
communities. DCRA and the Institute for Social and Economic Research at 
the University of Alaska -Anchorage are now analyzing that data to 
determine additional rural communities that might be candidates for 
wind energy installations to augment their existing diesel generation 
systems.
    A multi-year program that was initiated as part of the hydrogen 
program in the fiscal year 1998 budget concerned the development of 3 
to 5 kW fuel cells for residences and buildings that could operate with 
a diesel fuel. The fuel cells can be deployed within or next to the 
building and be used to co-produce heat as well as power. Overall 
efficiencies for these systems are anticipated to be in the 80 to 90 
percent range, and can thereby decrease the fuel requirements by half. 
Also, if several of these systems were to operate in a village 
environment as a distributed network, then it is expected that the 
reserve requirements for backup systems will be less. A demonstration 
of a fuel cell system in an arctic climate is planned to be operated by 
the end of 2000.
    In addition, hybrid systems of diesel generators with batteries 
have been shown to enhance diesel efficiency by as much as 50 percent 
while leveling out fluctuating load patterns. Several such systems are 
being studied along the Alaskan coast in cooperation with Chugach 
Electric and the State of Alaska. Installation and field testing of a 
prototype generator/storage system is scheduled for fiscal year 2001.
    Funded by DOE, a 1.4 MWh energy storage system now operates on the 
remote Metlakatla island in southeastern Alaska. The state-of-the-art 
system is charged by hydropower and is expected to pay for itself 
within three years. The hybrid system eliminates the use of a noisy, 
polluting 3 MW diesel engine and handles large load spikes caused by 
the lumber mill that is also the main employer on the Indian 
reservation. Data collected on the performance of this system could be 
used by other Alaskan sites to improve their power supply and power 
quality situations.
    Finally, in the fiscal year 2000 budget request, the Department has 
asked for funding for a Competitive Solicitation Program (one of the 
two programs in the solar Program Support line item) that could be of 
assistance to communities in Alaska and other states seeking to improve 
their energy delivery systems. (This program is a proposed integration 
of two previous lie items: the Renewable Indian Energy Resources 
Program and the Federal Buildings/Remote Power Program.) Through 
competitive awards, the Department would carry out targeted field 
validation projects that prove the availability of clean, affordable, 
and reliable electric power supply options in remote and/or 
economically challenged areas of our Nation. These projects would not 
only benefit the requirements but also provide essential data on 
operational performance, reliability, and benefits of renewable energy 
and hybrid renewable energy generation/cogeneration systems in various 
geographic locations and climatic conditions.
                                 ______
                                 

                 Questions Submitted by Senator Dorgan

                            renewable energy
    Question. Could you comment on the progress being made to make 
renewables competitive relative to other more established fuels. How 
long is it going to take to get a mature technology? I'm especially 
interested in progress with wind.
    Answer. Research and development has significantly reduced the cost 
of producing electricity from renewable resources over the last twenty 
years. For example, in the early 1980's the cost of producing power 
from the first photovoltaic (PV) systems was more than $1.00 per 
kilowatt-hour (kWh), while today's PV technology can produce 
electricity from sunlight at less than a quarter of that cost. By 
fiscal year 2000 we expect PV systems to be able to deliver electricity 
for as low as $0.12-$0.20 per kWh. The cost of electricity from wind 
turbines in 1980 ranged from $0.30-$0.40 per kWh, while today it is 
between $0.04 and $0.06 per kWh. Although many renewable technologies 
are competitive in limited market segments (for example, off-grid 
photovoltaics, biomass where low cost or negative cost waste feedstock 
is available or where cogeneration is appropriate, geothermal where 
there are established high quality resources), they have not yet 
reached the point where they can capture a large share of the overall 
electricity market. Concurrent with the impressive reductions in the 
cost of producing electricity from renewable resources, for a number of 
reasons (including deregulation of the natural gas and oil industries 
and the railroads) the price of fossil fuels has fallen significantly, 
which, together with improvements in conventional power generation 
technology, has lowered the cost targets at which renewable 
technologies become competitive with conventional fuels in a 
significant portion of electricity markets. Assuming success in meeting 
the technology cost and performance goals for our R&D programs--and we 
believe we will continue to be successful and meet these goals--a 
number of the renewable technologies will become competitive in the 
2010 to 2020 time frame. Wind is expected to achieve costs of between 
$0.025 and $0.03 per kWh by 2010, somewhat lower than today's average 
costs for electricity from fossil plants. The cost of electricity from 
photovoltaic systems is projected to be under $0.10 per kWh in 2010, 
decreasing to about $0.065 per kWh by 2020. This should allow 
photovoltaics to be competitive with electricity delivered from the 
grid in at least some retail commercial and residential markets.
    Both technology improvements and market penetration typically 
follow an ``S'' curve, with slow progress initially, followed by 
accelerated developments for a period of time and then, finally, slow 
progress again when the technology matures. Generally it takes decades 
after a technology is introduced into the market place for the 
technology to mature with respect to technology improvements or market 
penetration; however, we expect the Federal R&D role to be completed 
long before the technologies reach ``full maturity'' and that the 
marketplace will provide most of the incentives for incremental 
technology improvements during this ``full motivation'' phase.
                           prospects for wind
    Question. What are the prospects for wind generally, especially in 
remote locations? Do you see a time when wind could help these areas 
reduce their electricity costs?
    Answer. In remote villages without connection to a central grid and 
where the cost of diesel fuel is often one to two dollars per gallon or 
more, use of wind energy appears very competitive. What is still 
necessary is to develop control strategies and retrofit packages to 
join wind power with existing diesel power systems or other 
technologies such as fuel cells. To that end, the Department is working 
on three projects in Alaska to evaluate the performance of wind/diesel 
hybrid systems and to establish the performance of wind turbines in the 
Arctic climate. Moreover, we are proposing an expansion of this effort 
through the Hybrid Systems for Village Power project in the fiscal year 
2000 request.
    Over 800 MW of wind technology will be installed in 1998 and 1999 
in the United States, largely because of the purchaser's desire for 
clean, green energy and because of the temporary production tax credit. 
The pace of wind development for windfarms thereafter depends on a 
great many factors. The Administration has proposed a five-year 
extension of the temporary production tax credit and that would provide 
a major economic motivation to overcome the initial higher cost of wind 
projects. In addition, we would expect wind energy to capture a 
significant share of a renewable portfolio standard if the Congress 
enacts the Administration's proposal. There is also inherent demand for 
green power although we do not have a good handle on its size. For wind 
farm applications, if environmental and other factors are not included, 
the cost of wind energy is not yet competitive with that from new 
natural gas plants. New wind technologies under development will narrow 
the gap between wind and natural gas technologies.
                     co-firing biomass with lignite
    Question. What are the prospects for co-firing biomass with 
lignite? In other words, could biomass be burned along with liginte to 
improve its efficiency and air quality characteristics?
    Answer. The prospects for co-firing biomass with lignite appear 
promising. An assessment of co-firing alternatives was conducted at the 
coal-fired boilers of Central & South West Utilities. One of the 
conclusions drawn from this assessment is that biomass and lignite are 
very similar, in terms of fuel characteristics. There is very little 
difference between the energy content of biomass and the lignite coal; 
lignite generally has a heating value of 6,400 BTU/lb and biomass fuel 
5,000 BTU/lb. Both can be readily fired in coal-fired boilers with 
minimum modifications.
    Question. If current biomass technologies aren't appropriate, do 
you see some other kind of technology that would be compatible with 
lignite?
    Answer. As stated in the previous question, current biomass 
technologies are appropriate for co-firing biomass with lignite. In 
fact, the differences between biomass and lignite are less than those 
between coal and biomass, due to the high moisture content and low BTU 
of lignite relative to coal. In general, lignite has low BTU content 
and an ash that tends more to slag than coal ash and, therefore, is 
fired in boilers with larger size and larger gas flow passages to 
prevent clogging due to the slag. Hence, in some ways the co-firing 
prospects for lignite seem more promising.
    Question. Could co-firing with lignite be done at EERC?
    Answer. We are aware of the Energy & Environmental Research 
Center's (EERC) capabilities in the field of energy, particularly 
fossil energy. We are also aware of the EERC's experimental capability 
to conduct co-firing tests with lignite.

                          subcommittee recess

    Senator Domenici. We stand in recess. Thank you. The 
subcommittee stands in recess.
    [Whereupon, at 11:32 a.m., Tuesday, April 13, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2000

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2000 
Energy and Water Development Appropriations Act.]
             CALIFORNIA WATER RESOURCE DEVELOPMENT PROJECTS
 Prepared Statement of Michael D. Madigan, Chairman, California Water 
                               Commission
    The California Water Commission is an official agency of the State 
of California. It is composed of nine representative citizens from 
throughout the State. The Commission is charged by statute with 
representing State of California and local interests before your 
Committee. The Commission is coordinating the filing of the statements 
of a number of State and local agencies. On behalf of the California 
Water Commission, I would like to express our sincere appreciation for 
the support this Committee has given California water, fishery and 
flood control appropriations over the years. I am privileged to submit 
to you the official recommendations of the State of California for 
fiscal year 2000 appropriations and request it be included in the 
formal hearing record along with the testimonies listed on the attached 
Statement List.
    The Commission would like you to know that it supports projects as 
shown on the attached document entitled, California Water Commission--
Final Recommendations for fiscal year 2000 Federal Appropriations for 
California Water, Fishery and Flood Control Projects, March 5, 1999. 
That document contains recommendations adopted by the Commission at its 
March 5, 1999 meeting in Sacramento, California, where individuals from 
throughout the State testified on individual projects.
    This year the recommended add-ons to the President's budget for the 
Corps of Engineers are not as extreme as last year. However, the 
proposed amounts in some of the large ongoing flood control 
construction projects are inadequate to maintain the construction 
schedule. Stopping and starting construction projects can significantly 
increase the cost, as well as putting the respective project areas in 
jeopardy of severe damage from flooding of a partially completed 
project. The Commission has supported projects over the years that are 
funded under ``Continuing Authorities'', such as Sections 205, 206, 503 
and 1135. These projects compete for very limited funds. This year the 
Commission voted to request Congress consider increasing the funding in 
these Authorities, so more of the needed projects in these categories 
can be funded.
    The California Water Commission has long recognized water recycling 
as an important element in the management of California's water 
resources. It is the Commission's view that water recycling projects 
should be supported in concert, within the limitations of available 
federal funds, giving due consideration to other potential sources of 
funds that could be available to effect their implementation. The 
Commission agreed to work with USBR on language which will give the 
local sponsor greater assurance of future year support. This will also 
encourage sponsors to go ahead with expanded facilities with greater 
expectation of out-year funding.
                   special recommendations for funds
    The Commission recommends that special consideration be given for 
appropriation of funds for projects of the U.S. Army Corps of Engineers 
and U.S. Bureau of Reclamation as shown in the following table. The 
Commission believes that these projects merit special consideration for 
the reasons set forth in the information shown on the tables on the 
following page.

------------------------------------------------------------------------
                                                             CWC final
                                            Presidents    recommendation
 CWC No.        Project and county         budget fiscal    fiscal year
                                             year 2000         2000
------------------------------------------------------------------------
          U.S. ARMY CORPS OF ENGINEERS
 
      90 Bay-Delta Ecosystem                  $500,000      $1,000,000
          Restoration
     110 Sacramento & San Joaquin            2,000,000       3,000,000
          Rivers Comprehensive Study
     210 American River Watershed            5,000,000       5,000,000
     238 Arroyo Pasajero                       150,000       2,685,000
     302 Sacramento River Restoration        3,000,000       6,000,000
          at Glenn-Colusa Irrigation
          District
     333 Kaweah River (Tulare)          ..............       2,500,000
     381 Los Angeles County Drainage        30,000,000      50,000,000
          Area Project
     382 Santa Ana River Mainstem           20,000,000      28,000,000
     387 Norco Bluffs Bank              ..............       2,200,000
          Stabilization Santa Ana
          River
     400 Flood Control Act of 1948,         26,000,000      50,000,000
          Section 205 Flood Damage
          Prevention
     420 Water Res. Development Act,         4,500,000      10,000,000
          1996, Section 206, Aquatic
          Ecosystem Restoration
     430 Water Res. Development Act,        15,000,000      30,000,000
          1996, Section 503, Watershed
          Mgt. Restoration &
          Development
     440 Water Res. Development Act,         8,500,000      20,000,000
          1986, Section 1135, Project
          Modification for Improvement
          of the Environment Pro-
          gram
 
           U.S. BUREAU OF RECLAMATION
 
     500 Bay-Delta Ecosystem                95,000,000      95,000,000
          Restoration
     612 Coleman National Fish               1,500,000       1,500,000
          Hatchery Modification
     621 Winter-Run Chinook Salmon,            520,000         520,000
          Captive Broodstock Program
     622 Hamilton City Pumping Plant         2,250,000       3,750,000
          Fish Facility
         663
         Arroyo Pasajero Studies        ..............         920,000
          Cantua Creek Strm Group-EIS
     701 Central Valley Project             72,617,000      72,617,000
     900 Public Law 102-575, Title XVI       3,000,000       3,000,000
          and Amended by Public Law
          104-266 (Mid-Pacific Region)
    1000 Public Law 102-575, Title XVI      26,100,000      26,100,000
          and Amended by Public Law
          104-266 (Lower Colorado
          Region)
    1108 Salton Sea Research Project         1,000,000       1,000,000
    1302 Title I Division (Lower            13,092,000      13,092,000
          Colorado)
    1304 Basin-wide Program                 12,300,000      17,500,000
------------------------------------------------------------------------

                      u.s. army corps of engineers
    CWC 90--Bay-Delta Ecosystem Restoration.--The CALFED Bay-Delta 
Program is an open collaborative, state-federal-stakeholder effort 
seeking to develop a comprehensive long-term plan to restore ecosystem 
health and improve water management for beneficial uses of the Bay-
Delta system. The Program is developing a comprehensive package of 
Program elements that, together, must:
  --Improve and increase aquatic and terrestrial habitats and improve 
        ecological functions in the Bay-Delta to support sustainable 
        populations of diverse and valuable plant and animal species.
  --Provide good water quality for all beneficial uses.
  --Reduce the mismatch between Bay-Delta water supplies and current 
        and projected beneficial uses dependent on the Bay-Delta 
        system.
  --Reduce the risk to land use and associated economic activities, 
        water supply infrastructure, and the ecosystem from 
        catastrophic breaching of Delta levees.
    The CALFED Bay-Delta Program is a cooperative effort among State 
and Federal agencies and the general public to ensure a healthy 
ecosystem, reliable water supplies, good water quality, and stable 
levees in California's Bay-Delta. The Corps of Engineers is an official 
part of the ongoing effort and needs to be adequately funded to allow 
the Corps' experts to officially participate in CALFED activities.
    CWC 110--Sacramento and San Joaquin Rivers Comprehensive Study.--In 
January of 1997, the Central Valley of California was confronted with 
the largest and most extensive flood disaster in the State's history. 
The Sacramento River and its tributaries sustained two major levee 
breaks. In the San Joaquin River Basin, extensive damages resulted from 
over two dozen levee breaks, sedimentation, and deposition of sand and 
silt in the fields where flood water poured through the levee breaks. 
As a result, Congress appropriated $3 million in fiscal year 1998 and 
$3.5 million in fiscal year 1999 to initiate a comprehensive flood 
damage reduction and environmental restoration assessment for the 
Sacramento and San Joaquin River Basins.
    The State of California and the Army Corps of Engineers have 
initiated a four year Comprehensive Study. The Comprehensive Study will 
build on existing data outlined in investigations such as the 
Sacramento River Watershed Management Plan, the State's San Joaquin 
River Management Program, the Central Valley Project Improvement Act 
(CVPIA), and integrated with these and other existing programs. The 
first phase of the Comprehensive Study is 18 months long. This interim 
report is nearing completion and will be sent to Congress in April of 
1999.
    Phase II will result in full development and calibration of basin-
wide hydrologic and hydraulic models. Phase II report will include a 
programmatic EIS/EIR which describes a broad range of potential flood 
damage reduction measures and integrated ecosystem restoration 
measures. Some ``early implementation projects'' will be identified, 
developed, and to the extent possible recommended for authorization and 
implementation. Early implementation projects must (1) address 
identifiable flooding problems, (2) be consistent with the strategy, 
(3) be singularly effective in achieving program goals, (4) demonstrate 
broad acceptability, and (5) be readily implementable.
    CWC 210--American River Watershed.--Recently the U. S. Army Corps 
of Engineers said, ``Sacramento has one of the lowest levels of flood 
protection of any U.S. city its size.'' Located at the confluence of 
two major rivers, a large portion of the Sacramento area is threatened 
by flooding from the American River and the Sacramento River. The area 
of risk covers over 100,000 acres and consists of over 160,000 homes 
and structures, 400,000 residents and over $37 billion in developed 
property.
    The Reclamation Board supports at a minimum Congressional 
Authorization of Folsom Dam modifications as part of the Water 
Resources Development Act of 1999. This would increase the level of 
protection from 1 in 77 to about 1 in 110. The Folsom modifications are 
common to all plans currently under consideration by Congress.
    CWC 238--Arroyo Pasajero.--At present, DWR, USBR, and the Corps are 
only a few months away from completion of the Draft Feasibility 
Investigation Report, which will identify two candidate alternatives 
that show a federal interest in a Corps flood control project. The two 
projects, the enlarged Westside Detention Basin and the Pasajero Gap 
Detention Dam, are estimated to cost approximately $260 and $229 
million with benefit cost ratios of roughly 1.7:1 and 1.1:1, 
respectively. While both plans provide significantly improved flood 
protection to the Aqueduct where the overwhelming majority of the flood 
control benefits are accrued, the Gap Dam provides roughly double the 
level of protection to most of the Arroyo Pasajero flood plains that 
cover nearly 100,000 acres within Westlands Water District and the 
Tulare Lake Basin.
    Severe flooding has been experienced five times at the Arroyo 
between 1969 and 1993. On March 10, 1995, during the largest Arroyo 
Pasajero flood on record, a section of Interstate 5 upstream of the 
Canal collapsed when flood flows peaked on the Arroyo. Seven people 
lost their lives and there was substantial local property damage. Flood 
damage claims filed by private landowners adjacent to the Canal have 
exceeded $12 million from this one flood alone.
    CWC 302--Sacramento River Restoration at Glenn-Colusa Irrigation 
District.--Finding a solution to the fish passage problem at Glenn-
Colusa Irrigation District's Pump Station is an important element to 
Central Valley fish restoration. The agencies that have worked 
cooperatively to develop the Glenn-Colusa Irrigation District's Fish 
Screen Improvement Project include Glenn-Colusa Irrigation District, 
the United State Bureau of Reclamation, the United States Army Corps of 
Engineers, the Department of Fish and Game, the National Marine 
Fisheries Service, the United States Fish and Wildlife Service, the 
Department of Water Resources and the Reclamation Board.
    The project consists of two important elements, the fish screen 
facility and the gradient facility. Construction began on the 
approximately 600-foot extension to the existing flat-plate fish screen 
in May of 1998.
    The second critical element of the Fish Screen Improvement Project 
is the design and construction of the gradient facility in the mainstem 
of the Sacramento River. It is designed with the characteristics of a 
natural riffle, providing a ``hard point'' in the river that will 
stabilize the Sacramento River in the project reach, and restore the 
minimum water surface elevations at the fish screen to provide adequate 
water speed for efficient screen and fish bypass performance. 
Construction of the gradient facility is expected to begin subsequent 
to the fish screen construction in 2000 and be completed by 2001.
    CWC 333--Kaweah River (Tulare).--Terminus Dam was authorized by the 
1944 Flood Control Act and was constructed by the U. S. Army Corps of 
Engineers in 1962. Since construction of Terminus Dam, damaging floods 
have occurred in many years. Downstream communities and areas adjacent 
to the flood plain are at risk of future flooding.
    Initially, various alternatives were evaluated, including 
alternative storage sites, detention basins, construction alternatives, 
and nonstructural measures. Based on technical, economical, and 
environmental criteria, the only feasible alternative is to raise and 
widen the spillway at Terminus Dam. The Corps' Authorized Plan includes 
raising the elevation of the existing Terminus Dam spillway. Reservoir 
storage capacity would be increased by 42,600 acre-feet (about 30 
percent). This feature will save an estimated seven million dollars of 
the approximate 40 million dollar Project cost.
    The State of California sponsor is The Reclamation Board and the 
local sponsors of the Project are the Kaweah Delta Water Conservation 
District (lead agency), City of Visalia, Tulare Lake Basin Water 
Storage District, Tulare County, and Kings County.
    CWC 381--Los Angeles County Drainage Area Project (LACDA).--The Los 
Angeles County Drainage Area, current population of over 9 million, is 
partially protected by an urban flood control system which includes 
Corps flood control structures consisting of 5 major reservoirs, 22 
debris basins, and 470 miles of channel improvements. The existing 
system, protecting the second largest urban metropolitan area in the 
United States, has prevented over $3.7 billion in damages since 
construction. However, the flood of 1969 in Los Angeles County caused 
widespread damages of over $12 million, $56.5 million at 1996 prices.
    The LACDA Project involves raising of 21 miles of existing levees 
which were originally built 40-50 years ago and modifying 21 bridge 
crossings. The Project was authorized by Congress in 1992. Construction 
began in February 1996. Six construction contracts which included 4.5 
miles of levee raising and modifications to seven bridges have been 
completed.
    The President's Proposed Budget for fiscal year 2000 includes $30 
million for this Project, and if not increased, would delay the 
completion of the project by at least one to two more years. This will 
prolong the risk of flooding and continue to jeopardize the safety of 
those living in the 75-square-mile overflow area. Such a condition is 
unacceptable.
    CWC 382--Santa Ana River Mainstem (Includes San Timoteo).--The 
project is located along a 75-mile reach of the Santa Ana River in 
Orange, Riverside, and San Bernardino counties southeast of and 
adjacent to metropolitan Los Angeles, California. Construction of this 
project will primarily provide protection to lands and improvements 
within Orange County downstream of Prado Reservoir. A severe flood 
threat exists in this area, which could cause damages in excess of $15 
billion and could endanger and disrupt the lives of over three million 
people living or working in the floodplain.
    The $28 million request includes $20 million dollars to continue 
construction on Seven Oaks Dam and the Lower Santa Ana River plus $8 
million to begin construction (a new start appropriation is required) 
at Prado Dam. Commencement of construction on improvements to Prado Dam 
is very important. This feature of the SAR Project is the key link in 
providing the level of flood protection envisioned by Congress when it 
authorized the SAR Project in 1986.
    CWC 387--Norco Bluffs Bank Stabilization-Santa Ana River.--The 
study area is located approximately 40 miles southeast of Los Angeles 
in the City of Norco along the south bank of the Santa Ana River. Flood 
induced migration of the main channel of the Santa Ana River to the 
base of the bluffs has resulted in undercutting and subsequent bank de-
stabilization which threatens residential development along the edge of 
the bluffs.
    The purpose of this project is to protect a susceptible 65 foot 
high bluff in Norco from further retreat into the residential 
neighborhood. Severe bank sloughing results when flood flows within the 
Santa Ana River attack the toe of the bluffs. Water Resources 
Development Act of 1996, Section 101b(4), provided for the 
authorization of the project based on a Chief's Report dated December 
23, 1996 that recommended the project for construction. Certain 
geotechnical design considerations have resulted in an increased cost 
for the project, and the Commission is therefore seeking supplemental 
funding in the amount of $2,200,000 in fiscal year 2000 for completion 
of construction of the Norco Bluffs Bank Stabilization Project.
    CWC 400--Flood Control Act of 1948, Section 205, Flood Damage 
Prevention.--The California Water Commission heard testimony at its 
March 5, 1999 meeting requesting support on individual projects. Each 
of these projects have merit and are needed to prevent recurring flood 
damages in the local areas. The Commission supports these projects for 
funding from this Continuing Authority for small projects.
    The Commission has witnessed many successful projects in California 
over the years that have been funded from this Authority. However, the 
list of project requests are exceeding the funding level. The 
Commission voted to support a request to Congress to increase the 
nationwide funding level from the present $26,000,000 to $50,000,000.
    CWC 420--Water Resources Development Act, 1996, Section 206, 
Aquatic Ecosystem Restoration.--The California Water Commission heard 
testimony at its March 5, 1999 meeting requesting support on individual 
projects. The Commission supports these projects to improve the quality 
of the environment. Section 206 directs the Secretary of the Army to 
carry out such projects if the Secretary determines that the project 
will improve the quality of the environment and is in the public 
interest; and is cost-effective. The cost-sharing provisions state that 
the nonFederal interests shall provide 35 percent of the cost of the 
construction of any project carried out under this section, including 
provision of all lands, easements, rights-of-way, and necessary 
relocation.
    The Commission voted to support a request to Congress to increase 
the nationwide funding level from the present $4,500,000 to 
$10,000,000.
    CWC 430--Water Resources Development Act, 1996, Section 503, 
Watershed Mgt. Restoration & Development.--The California Water 
Commission heard testimony at its March 5, 1999 meeting requesting 
support on individual projects. The Commission supports fiscal year 
2000 appropriations for the projects. This provision gives the 
Secretary of the Army the authority to have the Corps provide 
technical, planning and design assistance to nonFederal interests for 
carrying out watershed management, restoration and development projects 
at locations listed in Section 503, Water Resources Development Act, 
1996.
    The Commission voted to support a request to Congress to increase 
the nationwide funding level from the present $15,000,000 to 
$30,000,000.
    CWC 440--Water Resources Development Act, 1986, Section 1135, 
Project Modification for Improvement of the Environment Program.--The 
California Water Commission heard testimony at its March 5, 1999 
meeting requesting support on individual projects. The Commission 
supports fiscal year 2000 appropriations for each of these projects. 
Water Resources Development Act of 1986, Section 1135, directs the 
Secretary of the Army to review the operation of water resources 
projects constructed before the date of the Act to determine the need 
for modifications in the structures and operations of such projects for 
the purpose of improving the quality of the environment in the public 
interest. The Commission voted to support a request to Congress to 
increase the nationwide funding level from the present $8,500,000 to 
$20,000,000. Additional funds are needed as this list of important 
projects increase.
                       u.s. bureau of reclamation
    CWC 500--Bay-Delta Ecosystem Restoration.--At the confluence of 
California's two largest rivers, the Sacramento and San Joaquin, the 
San Francisco Bay and adjoining Sacramento-San Joaquin Delta (Bay-
Delta) together form the largest estuary in the western United States. 
The Bay-Delta is a haven for plants and wildlife, supporting over 750 
plant and animal species. The Bay-Delta supplies drinking water for 
two-thirds of California's citizens and irrigation water for over 7 
million acres of the most highly productive agricultural land in the 
world.
    The CALFED Bay-Delta Program is an open collaborative, state-
federal-stakeholder effort seeking to develop a comprehensive long-term 
plan to restore ecosystem health and improve water management for 
beneficial uses of the Bay-Delta system. The Program is fundamentally 
different from previous efforts because it seeks to address ecosystem 
restoration, water quality, water supply reliability, and levee and 
channel integrity as co-equal program purposes.
    On December 18, 1998, CALFED released the Revised Phase II Report 
which outlined the draft preferred alternative for solving the problems 
in the Bay-Delta system. The CALFED Program expects to release a 
Revised Draft EIS/EIR in the spring of 1999. This release will be 
followed by a public comment period and further refinement of the 
proposed plan. The goal is to have a final EIS/EIR certified by 
December 1999 with implementation of the plan to begin in the year 
2000.
    CWC--612--Coleman National Fish Hatchery Modification.--The Coleman 
National Fish Hatchery was built by the U.S. Bureau of Reclamation 
(USBR) on Battle Creek in 1942 to mitigate damages to salmon spawning 
areas in the Sacramento River system caused by the construction of 
Shasta and Keswick Dams. Federal custody and operation were transferred 
to the U.S. Fish and Wildlife Service (USFWS) in 1948. Title 34 of 
Public Law 102-575 (Central Valley Project Improvement Act) specifies 
that USBR provide funding for completion of the rehabilitation of the 
Coleman National Fish Hatchery: 50 percent will be reimbursable from 
water and power users and 50 percent non-reimbursable.
    Remaining rehabilitation facilities are additional water treatment 
facilities which include one sand filter, an air compressor, and one 
ozone contact/stripper capable of treating 15,000 gallons per minute 
and installation of various ozone equipment. Also, installation of a 
54-inch pipeline from the ozone treatment plant to the large raceways. 
The replacement of facilities for administration, the fish health 
laboratory and public contact area will be the final items to complete 
the modifications at Coleman NFH.
    CWC 621--Winter-Run Chinook Salmon, Captive Broodstock Program.--
The captive broodstock program arose from shared concerns for the fate 
of the Sacramento River winter-run chinook salmon. Active participants 
have included representatives of U.S. Fish and Wildlife Service, 
National Marine Fisheries Service, U.S. Bureau of Reclamation, Bodega 
Marine Laboratory of the University of California, Steinhart Aquarium 
of the California Academy of Sciences, California Department of Fish 
and Game, California Department of Water Resources, Pacific Coast 
Federation of Fishermen's Associations, Tyee Club and California Water 
Commission.
    The program has promoted the genetic conservation of winter-run 
chinook salmon. Analyses of the effective size of the winter-run stock 
showed that a properly managed artificial propagation program to which 
the captive broodstock program contributes gametes is not likely to 
have a negative effect and may, instead, be helping to maintain or 
slightly increase the genetic diversity of the stock.
    The captive broodstock program was initiated as a rapid response to 
the endangerment of the Sacramento River winter-run chinook salmon. To 
date, the program has realized many of its objectives. Gametes from 
captively reared broodstock have contributed to artificial propagation 
of the winter-run population. In each year since its inception, the 
program has provided progressively better spawners, gamete quality, 
fertilization and production of juvenile fish. The artificial 
propagation program is actively pursuing improvements to rearing 
facilities and genetics and mating protocols to eliminate concerns 
about hybridizing Spring run. The recently completed Livingston Stone 
NFH below Shasta Dam is expected to successfully imprint the young fry 
on Sacramento River water. Most important, the scientific and technical 
advances by the program will provide an important legacy to salmon 
biology.
    CWC 622--Hamilton City Pumping Plant Fish Facility.--Finding a 
solution to the fish passage problem at Glenn-Colusa Irrigation 
District's Pump Station is an important element to Central Valley fish 
restoration. The agencies that have worked cooperatively to develop the 
Glenn-Colusa Irrigation District's Fish Screen Improvement Project 
include Glenn-Colusa Irrigation District, the United State Bureau of 
Reclamation, the United States Army Corps of Engineers, the Department 
of Fish and Game, the National Marine Fisheries Service, the United 
States Fish and Wildlife Service, the Department of Water Resources and 
the Reclamation Board.
    The project consists of two important elements, the fish screen 
facility and the gradient facility. Construction began on the 
approximately 600-foot extension to the existing flat-plate fish screen 
in May of 1998. Included in the screen structure are three internal 
bypasses that will allow for reduced fish exposure to the screen. The 
bypasses will exit the fish into the lower oxbow channel. Significant 
improvements are being made to the lower oxbow channel and training 
wall to meet hydraulic criteria past the facility. In addition, a water 
control structure (weir) with a removable bridge to allow access to 
Montgomery Island for routine dredging operations has been designed by 
Glenn-Colusa Irrigation District and constructed under Reclamation's 
contract.
    Adequate funding for completion of construction is essential to 
meeting the important goals of a long-term fish passage solution at 
Glenn-Colusa Irrigation District's main pump station and to assist with 
Central Valley fish restoration.
    CWC 663--Arroyo Pasajero Studies--Cantua Creek Strm Group-EIS.--The 
Cantua Creek Stream Group consists of seven western San Joaquin Valley 
ephemeral streams, as well as several smaller unnamed drainages located 
west of the San Luis Canal segment of the California Aqueduct extending 
between 20 and 50 miles north of the Arroyo Pasajero.
    Flood water overtopped the western embankment of the Canal in 1969 
and 1995, causing extensive damage to the concrete lining. Since the 
1960s, over 40,000 acre-feet of Cantua Creek Stream Group flood water 
and an estimated 2.5 million cubic yards of sediment have entered the 
Canal from overtopping or through the drain inlets. These streams have 
also deposited as much as 2.9 million cubic yards of sediment upslope 
of the Canal, eliminating 1,600 acre-feet (about 50 percent) of the 
original impounding capacity. The Cantua Creek Stream Group poses a 
flood risk with a potential to breach the Canal and disrupt water 
service to millions of people in southern California and the southern 
San Joaquin Valley. In addition, the cost associated with the 
degradation to water quality from uncontrolled flood inflow is a 
substantial expense to both the Canal operators and water customers. 
The situation is continually worsening as additional sediment is 
deposited along the west side of the Aqueduct.
    The Department of Water Resources, with cost sharing by USBR, is 
completing a reconnaissance study of these drainage and sedimentation 
problems and will be performing feasibility level investigations during 
fiscal year 2000 to seek solutions. In addition, interim improvements 
to restore diminished impounding capacity and improve sediment 
decanting capabilities for smaller flood flows will extend into fiscal 
year 2000. Under the San Luis Unit Joint-Use Facilities Agreement, USBR 
is responsible for 45 percent of the cost of this work.
    CWC 701--Central Valley Project.--The Nation's public works 
infrastructure is aging. We must ensure that adequate levels of funding 
are provided to protect the public's investment in facilities which we 
rely upon daily to provide water supply, flood protection, public 
safety, and other benefits. California's population of 32 million 
people depends upon a network of local, state, and federal 
infrastructure developed over the past decades. Today, governments at 
all levels are finding it increasingly difficult to find funds to 
properly maintain existing facilities. The competition for funding 
raises important public policy questions about the relationship of 
funding for new projects and programs as opposed to funding to maintain 
and rehabilitate existing infrastructure.
    Too often, the temporary solution used by all levels of government 
to meet budgetary constraints is to defer maintenance funding. However, 
deferred maintenance does not come without a price.
    Given the increasing competition for federal dollars, we must be 
prepared to make the difficult choice of deferring studies and new 
projects until we are assured that existing federal facilities are 
receiving appropriate levels of safety review and maintenance.
    CWC 900--Public Law 102-575, Title XVI and Amended by Public Law 
104-266 (Mid-Pacific Region); CWC 1000--Public Law 102-575, Title XVI 
and Amended by Public Law 104-266 (Lower Colorado Region).--The 
California Water Commission has long recognized water recycling as an 
important element in the management of California's water resources, 
both for cleanup of municipal, industrial and agricultural discharges 
and to improve the quantity and quality of water supplies. The 
Department of Water Resources' Bulletin 160-98, California Water Plan 
Update, January 1998, identifies up to 800,000 acre-feet of total 
potential additional water recycling in California by the year 2020.
    It is the Commission's view that both water recycling programs and 
the other ongoing USBR programs are highly important and that they 
should be supported in concert, within the limitations of available 
federal funds, giving due consideration to other potential sources of 
funds that could be available to effect their implementation. The 
Commission agreed to work with USBR on language which will give the 
local sponsor greater assurance of future year support. This will also 
encourage sponsors to go ahead with expanded facilities with greater 
expectation of out-year funding.
    CWC 1108--Salton Sea Research Project.--Over the last several 
decades there has been concern over the increasing salinity of the 
Salton Sea and the impacts it has had on the Sea's ecology. Increasing 
salinity and other water quality issues are threatening biological 
values and recreational uses of the Sea. An additional concern is the 
rising water surface elevation. The raising water surface has flooded 
much of the developed area and the shoreline wildlife habitat used by a 
number of different bird species. The rising sea also has inundated 
much of the Salton Sea National Wildlife Refuge at the south end of the 
sea. The full impacts of increasing salinity, the decline in other 
water quality attributes, and water surface elevation on endangered 
species that inhabit the sea are unknown, but studies are presently 
ongoing. In order to identify and evaluate possibilities for improving 
the condition of the sea, a program of additional planning, research, 
and environmental impact analysis are needed.
    The objectives of this program are to identify and evaluate 
alternatives to: improve water quality conditions; maintain quality 
habitat for migratory birds and endangered species; enhance the 
fishery; and protect human recreation values in and around the Salton 
Sea. Environmental scoping and scientific research of remediation 
alternatives currently is underway.
    CWC 1300--Colorado River Salinity Control Program; CWC 1302--Title 
I Division (Lower Colorado).--The California Water Commission heard 
testimony at its March 5, 1999 meeting requesting support for federal 
funding levels that are required to meet the numeric criteria and 
standards that have been established for salinity on the Colorado 
River.
    The Commission supports fiscal year 2000 appropriations of 
$13,092,000 for Title I of the Colorado River Basin Salinity Control 
Act, which covers delivery of water to Mexico, pursuant to the 1944 
Mexican Water Treaty and Minute 242 of the International Boundary and 
Water Commission.
    CWC 1304--Basin-wide Program.--The California Water Commission 
heard testimony at its March 5, 1999 meeting requesting support for 
federal funding levels for water quality programs under Title II of the 
Colorado River Basin Salinity Control Act. The Commission voted to 
support a request to Congress to increase the Basin-wide funding level 
from the present $12,300,000 to $17,500,000. The Commission believes 
that this increase is necessary to meet the established numeric 
criteria and standards for salinity in the Colorado River.
[GRAPHIC] [TIFF OMITTED] T10NDP.001

[GRAPHIC] [TIFF OMITTED] T10NDP.002

[GRAPHIC] [TIFF OMITTED] T10NDP.003

[GRAPHIC] [TIFF OMITTED] T10NDP.004

[GRAPHIC] [TIFF OMITTED] T10NDP.005

[GRAPHIC] [TIFF OMITTED] T10NDP.006

[GRAPHIC] [TIFF OMITTED] T10NDP.007

[GRAPHIC] [TIFF OMITTED] T10NDP.008

[GRAPHIC] [TIFF OMITTED] T10NDP.009

[GRAPHIC] [TIFF OMITTED] T10NDP.010

                                 ______
                                 
 Prepared Statement of Barbara LeVake, President, and Peter D. Rabbon, 
General Manager, the Resources Agency and the Reclamation Board, State 
                             of California

  THE RECLAMATION BOARD FINAL RECOMMENDATIONS FOR FEDERAL FLOOD CONTROL
                   PROJECTS--FISCAL YEAR 2000 SUMMARY
                         [Dollars in thousands]
------------------------------------------------------------------------
                                            President's        Board
  Corps of Engineers' projects     Page       budget        recommends
------------------------------------------------------------------------
I. GENERAL INVESTIGATIONS--
 SURVEYS
    Sacramento and San Joaquin         1          $2,000          $3,000
     River Basins Comprehensive
     Study.....................
    Northern California Streams
    --Middle Creek.............        1             150             300
    San Joaquin River Basin....
    --Stockton Metropolitan            1             200             380
     Area (Section 211)........
    --West Stanislaus County...        2             250             400
    Sutter Basin (Sutter)......        1              60             100
PRECONSTRUCTION ENGINEERING AND
 DESIGN
    American River Watershed...        4           5,000           5,000
    Yuba River.................        4             150             700
    South Sacramento County            4             500           4,000
     Streams...................
    San Joaquin River Basin....
    --Tule River...............        4             150             800
    Arroyo Pasajero............        4             150           2,685
    Kaweah River (Tulare)......        4             582             582
III. CONSTRUCTION--GENERAL
    Sacramento River Bank              5           7,000           7,000
     Protection................
    Mid-Valley Area Levee              5           4,000           4,000
     Reconstruction............
    Marysville/Yuba City Levee         5             300             300
     Reconstruction............
    West Sacramento Project....        5           7,700           7,700
    American River Watershed           5          17,000          17,000
     (Common Elements).........
    Kaweah River (Tulare)......        5  ..............           2,500
    Lower Sacramento Area Levee        5           2,317           2,317
     Reconstruction............
    Upper Sacramento Area Levee        5           3,055           3,055
     Reconstruction............
    American River Watershed           5           4,000           7,900
     (Natomas).................
    Merced County Streams......        5             500             500
------------------------------------------------------------------------

                the reclamation board's recommendations
    The Reclamation Board, as the State agency which furnishes required 
local assurances for a majority of the federal flood control projects 
in California's Central Valley, respectfully submits this statement of 
support for U.S Army Corps of Engineers flood control projects.
    The Board in general supports the President's budget for federal 
flood control projects in the California Central Valley. The projects 
described below are of particular importance to the health, safety, and 
well-being of Central Valley residents and are especially important to 
The Reclamation Board that they are started and/or kept on schedule.
                    general investigations--surveys
Sacramento and San Joaquin River Basins Comprehensive Study
    The study area includes the entire Sacramento River Basin and San 
Joaquin River Basin in Northern and Central California, respectively. 
Local, State and federal water resources agencies support a coordinated 
multiobjective investigation to balance flood damage reduction, 
environmental restoration, and other water resources proposed along the 
Rivers. The Feasibility Cost-Sharing Agreement was executed in February 
1998. An interim status report will be released in April 1999. The 
Board recommends funding to continue this study.
Northern California Streams
    This survey, authorized in 1962, is a study of the Sacramento River 
and its tributaries in regard to flood control measures. The following 
is an interim study proposal.
    Middle Creek.-- A reconnaissance study which evaluated several 
alternatives near Middle Creek's confluence with Clear Lake in Lake 
County was completed in 1997. Existing levees which do not provide 
adequate flood protection need to be repaired and upgraded. The Board 
supports funding to continue the feasibility study.
San Joaquin River Basin
    This survey, authorized in 1964, is a study of the San Joaquin 
River and its tributaries in regard to flood control measures. The 
following are interimstudy proposals.
    Stockton Metropolitan Area (Section 211).--Construction to protect 
the urban areas of Stockton has been completed. This feasibility study 
will evaluate alternatives for protecting the rural areas. The Board 
recommends funding to complete this study.
    West Stanislaus County.--A feasibility study is ongoing to evaluate 
flood control alternatives for the westside communities in Stanislaus 
County. The Board recommends funding to complete the feasibility study.
Sutter Basin (Sutter)
    A reconnaissance study is being conducted to evaluate increased 
flood protection for Sutter County which has repeatedly sustained flood 
damage. The Board recommends funding to initiate the feasibility study.
                 preconstruction engineering and design
American River Watershed
    The Sacramento urban area has only a 77-year level of protection 
from flooding by the American River. Although incremental actions have 
occurred, a long-term plan for high levels of protection must be 
developed and implemented. The Board recommends funding to continue 
long-term planning and preconstruction engineering and design.
Yuba River
    The Marysville and Yuba City areas have experienced seven major 
floods. A feasibility study was completed in April 1998. The Board 
recommends funding to continue preconstruction engineering and design.
South Sacramento County Streams
    The completed feasibility report recommends levee and channel 
improvements to protect the urbanized area of south Sacramento. The 
Board recommends funding for continued PED.
San Joaquin River Basin
    Tule River.--The proposed enlargement of Success Dam on the Tule 
River will improve flood protection for the City of Porterville and 
surrounding community. The Board recommends funding to continue PED.
Arroyo Pasajero
    Flood protection is inadequate for the California Aqueduct (a major 
water transfer facility) and two communities located 50 miles southwest 
of the City of Fresno. The Board recommends funding to continue PED.
Kaweah River (Tulare)
    This project would provide flood protection to the communities of 
Visalia, Farmersville, Tulare, Ivanhoe, and Goshen. The project was 
authorized in the Water Resources Development Act of 1996. The Board 
recommends funding to continue PED.
                         construction--general
Sacramento River Bank Protection
    The project, authorized in 1960, is a long-range federal/State 
effort to preserve the existing project levee system along 192 miles of 
the Sacramento River. The Sacramento River Bank Protection Project work 
consists of providing some form of bank stabilization at those points 
which are identified each year as the most critical. The Board 
recommends funding to continue construction.
Mid-Valley Area Levee Reconstruction
    An evaluation of about 240 miles of the Sacramento River Flood 
Control Project levees in the Sacramento Mid-Valley area identified 
about 20 miles of levees that are structurally deficient and require 
reconstruction. The Board recommends funding to continue construction.
Marysville/Yuba City Levee Reconstruction
    This program will reconstruct 44 miles of the 134 miles of 
federally authorized levees which protect the Marysville/Yuba City 
area. The first of three construction contracts was awarded in July 
1995. Flooding in 1997 demonstrated the need to extend the work sites, 
modify the design, and investigate new sites in the project area. The 
Board recommends funding to continue construction.
West Sacramento Project
    The Board is the nonfederal sponsor for the West Sacramento Flood 
Control Project which was authorized for construction by WRDA 1992. The 
Board supports funding to continue construction.
American River Watershed (Common Elements)
    The Common Elements Project was authorized in WRDA 1996. This 
Project consists of features that would be common to any long-term 
project selected for the American River. The Board recommends funding 
to continue construction.
Kaweah River--discussed in PED
    The Board recommends funding to initiate construction.
Lower Sacramento Area Levee Reconstruction
    An evaluation of about 295 miles of the Sacramento River Flood 
Control Project levees in the lower Sacramento Valley area identified 
about 47 miles of levees that are structurally deficient. The project 
includes reconstructing about 2 miles of these levees. The Board 
recommends funding for construction.
Upper Sacramento Area Levee Reconstruction
    Federally authorized flood control levees in the upper Sacramento 
Area were evaluated and 12 miles were determined to be deficient and 
requiring reconstruction. The Board recommends funding for 
construction.
American River Watershed (Natomas)
    The project was authorized but not funded in 1992. The local flood 
control agency proceeded with the work. The Board recommends funding to 
reimburse the federal cost-sharing portion to the nonfederal sponsor.
Merced County Streams
    This project provides increased levels of flood protection to the 
Cities of Merced and Atwater and associated urban areas. First phase of 
construction has been completed. The Board recommends funding to 
continue construction.
                                 ______
                                 
   Prepared Statement of Gaye Lopez, Manager, Colusa Basin Drainage 
                                District
USBR Fiscal Year 2000 Request: $1,000,000
    The Colusa Basin Drainage District requests the Committee's support 
for $1,000,000 for fiscal year 2000. This amount will allow the 
District to begin the final design and preparation of plans and 
specifications for Phase I reservoir projects, the acquisition of 
rights of way, the installation of a water stage and quality monitoring 
system, the clearing of the Colusa Basin Drain, studies of feasibility 
of catchment basins and other innovative facilities and the planning/
implementation of nonstructural flood control and water quality/
environmental measures.
    The Colusa Basin Drainage District appreciates your past support 
for our Integrated Resources Management Plan for water management that 
addresses flooding and that provides opportunities for future 
conjunctive use of water resources to meet the diverse needs of 
agricultural, urban and wildlife interests in the Colusa Basin.
    Each of the three phases of the District's Plan consists of three 
components: structural facilities, improved O&M of existing facilities, 
and new nonstructural and environmental enhancements. Phase I of the 
Program includes 3,000 acres of wetland and streambank restoration.
Background
    The 650,000 acre Colusa Basin Drainage District, located on the 
west side of the Sacramento River, serves a large watershed exceeding 
one million acres. It covers all or part of Glenn, Colusa and northern 
Yolo Counties. It not only is a rich agricultural area, but a rich 
wildlife area as well, including three national wildlife refuges.
    Over the decades, devastating floods have repeatedly struck the 
Colusa Basin resulting in costly damages to public and private property 
and loss of life. In 1995, these three counties suffered an estimated 
$100,000,000 in damages and 1 death due to flooding; in 1998, these 
three counties suffered an estimated $40,000,000 in damages due to 
flooding. In November 1995, a majority of landowners voted to implement 
the District's Integrated Resources Management Plan to address flood 
damage while obtaining the other benefits of increasing groundwater 
supplies, surface water storage, and improved environmental and 
wildlife uses in the watershed.
    Through a stakeholder/local, state and federal agency collaborative 
process, four projects have been initially selected to be developed to 
serve as a demonstration of the integrated resources management 
approach to resolving the Basin's flooding problems. Hydraulic studies 
on proposed facilities were completed in 1998. The preparation of 
Basin-wide programmatic environmental documentation commenced during 
1998 and is scheduled for completion in fiscal year 1999. Project 
specific environmental documentation will begin later this year.
    This request is for an appropriation of $1,000,000 in fiscal year 
2000; however, the District has the capability and need for $2,000,000 
to put this project more on the schedule earlier submitted to your 
Committee. The $2,000,000 would not be used for construction, but we 
believe would be sufficient to complete all necessary pre-construction 
tasks for one or more reservoir projects.
    We believe our Integrated Resource Management approach to solving a 
number of problems across a large area with the same dollar is a wise 
expenditure of public funds.
    Thank you for your continued support.
US Army Corps of Engineers Fiscal Year 2000 Request: $500,000
    The Colusa Basin Drainage District is requesting $500,000 in 
funding for fiscal year 2000 for use by the U.S. Army Corps of 
Engineers to begin the design, planning, and environmental review 
associated with a 3,000 acre wetlands project. The project will be 
located in the southern portion of the Sacramento Valley, California.
    The District--in conjunction with the U.S. Bureau of Reclamation, 
the U.S. Fish and Wildlife Service, the Corps of Engineers and a number 
of state and local agencies--is using the technique of integrated 
resource management in order to provide flood protection and 
environmental restoration to the Colusa Basin, which is located on the 
west side of the Sacramento Valley. The Colusa Basin Watershed Program 
includes structural flood protection measures (small off stream 
detention basins on ephemeral streams that lack anadromous fisheries), 
improved operation and maintenance of existing flood control 
facilities, and nonstructural flood protection measures (creation of 
wetlands, riparian and upland habitats and the introduction of best 
management practices to control erosion and sedimentation). One of the 
goals of the Program is to create 10,000 acres of habitat in the Colusa 
Basin over the next 20 to 30 years. The Program is fully compatible 
with the ecosystem restoration projects being proposed and implemented 
by the CALFED Bay-Delta Program.
    The site of the proposed wetlands will be northern Yolo County and 
southern Colusa County, in the midst of the Pacific Flyway. These lands 
are located adjacent to the Colusa Basin Drain and have regularly been 
flooded in past years. The project would involve constructing one or 
more detention basin(s) that would store floodwaters and so create 
seasonal wetlands. The proposed site of the project also contains 
groundwater wells, which may permit the creation of permanent wetlands 
or other habitat. In order to reduce the costs of operation and 
maintenance, agricultural activities that are consistent with the use 
of the property as habitat may be permitted during the summer months on 
portions of the property.
                                 ______
                                 
     Prepared Statement of Joseph L. Campbell, President, Board of 
                 Directors, Contra Costa Water District
Subject: Contra Costa Canal Fish Screen fiscal year 2000 Appropriation
    The Contra Costa Canal (Rock Slough) intake of the Central Valley 
Project (CVP) is the largest urban water intake in California's 
Sacramento-San Joaquin Delta. The intake is the primary source of water 
for 400,000 people in Central and Eastern Contra Costa County.
    Because this 60-year-old intake is not screened, its impact on the 
aquatic life of the Delta has been a subject of concern for many years 
as local, state and federal interests work together to restore the 
health of Bay-Delta estuary. Under provisions of the Central Valley 
Project Improvement Act [PL 102-575, Sec. 3406 (b) (5)], the Secretary 
of Interior is required to screen the Contra Costa Canal intake, which 
is owned by the US Bureau of Reclamation (USBR).
    Over the past five years, the relevant federal, state and local 
agencies have worked together to develop a plan to screen the intake, 
have completed the permitting, and have completed the design for the 
fish screen that will protect threatened and endangered species in the 
vicinity of the Contra Costa Canal intake. The project went to bid in 
February.
    Appropriations have been requested for the fish screen in each of 
the past four years. In response, the Congress has appropriated 
$4,330,000 to the Department of Interior for the fish screen. A final 
appropriation of $5,000,000 is critical, because construction is 
scheduled to begin this summer. If additional funds are provided by the 
State of California, the level of Congressional appropriation could be 
reduced.
    Completion on the current schedule is critical to the Contra Costa 
Water District's continued ability to draw water for its 400,000 
customers. The US Fish and Wildlife Service (USFWS), requires that the 
Rock Slough screen be completed and provided authority for USFWS to 
shut down all pumping if the screen is not completed in a timely 
manner. Thus, it is essential that the remaining construction funds be 
provided in the fiscal year 2000 appropriation.
    The fish screen is one element of a larger program to mitigate 
fishery impacts in the Delta. The progress to date on the Contra Costa 
Canal Fish Screen is a success story both for this facility and in the 
broader context of the multi-party effort to restore the deteriorated 
Bay-Delta estuary, the largest estuary on the West Coast.
    Your active support for this essential appropriation is 
appreciated. It will complete a congressionally mandated facility, 
protect Delta fisheries, and insure that water supplies for 400,000 
people served by the Contra Costa Water District are not jeopardized.
                                 ______
                                 
Prepared Statement of Carl W. Mosher, Director, Environmental Services 
                Department, City of San Jose, California
    My name is Carl W. Mosher, and I am Director of Environmental 
Services for the City of San Jose, California. I am testifying on 
behalf of the San Jose Water Reclamation and Reuse Program, now known 
as South Bay Water Recycling. San Jose is the lead agency of a joint 
powers authority which owns and operates the San Jose/Santa Clara Water 
Pollution Control Plant, a regional wastewater treatment facility 
serving more than 1,200,000 residents, businesses and industries in 
Silicon Valley. South Bay Water Recycling, which recycles effluent from 
the treatment plant, is the largest urban water recycling project in 
northern California.
    We are requesting your assistance in increasing the Bureau of 
Reclamation (BOR) funding for South Bay Water Recycling from the 
$3,000,000 in the President's budget to $10,000,000. The first phase of 
the program, completed in 1998, will deliver up to 15,000,000 gallons 
of water per day. It was financed by the cities of San Jose, Santa 
Clara and Milpitas and five other agencies, in cooperation with the 
Santa Clara Valley Water District. The City is now planning a second 
phase to double recycled water use at a cost of an additional 
$100,000,000.
    As you know, Title XVI of the CVPIA (Public Law 92-575) authorizes 
the Bureau of Reclamation to contribute up to 25 percent of eligible 
project costs. However, due to competing demands, BOR's Mid-Pacific 
Region has budgeted less than half of the $35,000,000 authorized by 
Congress. The Bureau has indicated that they will be unable to 
participate in future planning or construction until Congress 
appropriates sufficient funds to meet their existing obligations. The 
President's fiscal year 1999/00 Budget includes a request for SBWR for 
$3,000,000. At the current rate of funding, that will not occur until 
2007.
    Through the efforts of San Jose, the Santa Clara Valley Water 
District and other Silicon Valley cities and agencies, our region is 
becoming a leader in sustainable water use, integrating water supply 
and wastewater discharge through innovations in water recycling and 
conservation. Long-term local plans anticipate up to 100,000,000 
gallons of reuse per day by 2020, through projects coordinated with our 
regional effort, the Bay Area Regional Water Recycling Program.
    If sufficient federal funds are not available to leverage local 
funding, Silicon Valley and other California communities will not soon 
achieve sustainable water use. Given the need for water in the 
environment, competing demands of agriculture and cities, and the 
constant threat of drought, water recycling just makes sense. The 
California Department of Water Resources projects a deficit of six 
million acre-feet of water during a critical dry year. During the 
1970's and early 80's, the federal government spent tens of billions of 
dollars to fund facilities so we could stop treating our rivers and 
lakes as sewers and cesspools. Certainly this smaller investment is 
justified to use water more wisely and more often, and restore our 
environment.
    In order to obtain funding authorized by Congress and allow Bureau 
participation in future phases, the City is seeking a write-in 
appropriation for SBWR for $10,000,000 next fiscal year. We appreciate 
your support for this level of funding during upcoming committee 
hearings.
                                 ______
                                 
    Prepared Statement of Donald Bransford, President, Glenn-Colusa 
                          Irrigation District
    Mr. Chairman, Members of the Subcommittee, my name is Don 
Bransford. I am a rice farmer from Colusa County, California, and I am 
President of the Board of Directors of the GlennColusa Irrigation 
District (GCID or District).
    I appreciate the opportunity to provide you this statement 
regarding the federal funding priorities for GCID. I also appreciate 
the Subcommittee's past efforts to address our concerns.
    GCID is the largest and one of the oldest diverters of water from 
the Sacramento River. The District delivers water to approximately 
1,200 families who have about 141,000 acres of land in cultivation in 
Glenn and Colusa Counties. More than $270,000,000 in agricultural 
products are produced annually on GCID farms, helping to sustain an 
estimated 12,000 jobs in the region.
    The District is also the sole source of surface water for three 
wildlife refuges--the Sacramento, Delevan and Colusa National Wildlife 
Refuges--that cover some 20,000 acres in the heart of the Sacramento 
Valley. The District and the United States Bureau of Reclamation have 
negotiated an agreement that provides for long-term conveyance of water 
to these refuges as well as cost sharing. Winter water supplied by GCID 
to thousands of acres of rice land also provides a rich oasis for 
migrating waterfowl.
    The District is firmly committed to obtaining lasting protection of 
the winterrun salmon and other fishery resources at the Hamilton City 
Pump Station. Over the last several years, the District has invested 
over $3,000,000 in the construction of an interim flatplate fish screen 
and other improvements to provide immediate protection to the 
endangered winterrun chinook salmon and other fish species, and on 
biological monitoring. In addition, GCID has deposited $5,500,000 into 
an account to be used solely for the purpose of design and construction 
of the new fish screen extension and gradient facility, known as the 
``long term solution'' for the fish passage problems at the Hamilton 
City Pump Station. Finally, GCID has spent an additional $5,500,000 on 
environmental review, land acquisition, environmental mitigation and 
downstream channel improvements, design and construction of the long 
term fish passage solution.
    While the interim flatplate screen, installed in late 1993, has 
been very effective, it is only an interim solution. In order to 
provide this permanent protection of the fisheries resources, the 
permanent fish screen has been under construction since the spring of 
1998, and completion is anticipated in late 1999. Construction of the 
gradient facility portion of the project is scheduled to begin in 2000 
and be completed in 2001. Until completion of the fish screen 
extension, the gradient facility, and testing of the performance of the 
structures, the District will continue to face restrictions which 
result in pumping only 75 percent of the District's full water 
entitlement.
    Unlike some other projects, the availability of nonfederal 
costsharing is not in doubt at GCID. The District has, in addition to 
the funds already invested in the fish screen project, set aside 
$5,500,000 to date to help pay for the nonfederal, 25 percent costshare 
of a new permanent fish screen. California voters have approved almost 
a billion dollars for projects like the GCID fish screen to help 
restore fisheries throughout the Central Valley. We are ready and able 
to costshare any federal funds provided by this Committee.
    On behalf of GCID, the fishery and all of those whose economic fate 
is tied to the recovery of the winterrun salmon, I respectfully request 
that you provide $3,750,000 for the Bureau of Reclamation in fiscal 
year 2000 to continue work on a permanent new fish screen at the 
Hamilton City Pump Station. The President's Budget includes $2,252,000 
for the fish screen extension portion of the project. GCID urges an 
increase because construction of the fish screen extension is 
approximately one year ahead of schedule, resulting in an accelerated 
schedule of biological and hydrological testing that must occur after 
completion of construction to verify that the structure meets the 
resource agencies' fish screening criteria. Specifically, an allocation 
of $3,750,000 is needed to allow completion of construction and 
initiation of testing of the facility in 2000.
    Without such a commitment of funds, construction may be delayed, 
and testing of the facility will be delayed. That will mean less water 
for the farmers and a less speedy recovery of the fishery. Failure to 
provide the funds necessary to complete the project represents a lose-
lose proposition. It is bad for the farmers and it is bad for the 
fishery resource. Again, I urge you to provide an allocation of 
$3,750,000 to keep the project moving forward on an optimum schedule.
    For the U.S. Army Corps of Engineers, GCID requests the Committee's 
support of an appropriation of $6,000,000 to the Corps of Engineers to 
continue work on the Sacramento River gradient or riffle restoration 
project. Construction of the gradient restoration project will 
stabilize the river elevation and improve the effectiveness of the new 
fish screen built at the District's pumping plant. In addition, the 
gradient facility is critical to ensuring the long-term viability of 
the new fish screen structure under changing river conditions. The 
President's Budget includes $3,000,000 for the gradient facility. GCID 
urges the increase to $6,000,000 because preliminary estimates from the 
Corps indicate that $3,000,000 is far short of what is needed. The 
Corps currently anticipates that the construction of this element of 
the project could begin in 2000 and be completed in 2001. Thus, GCID is 
concerned that the amount presently in the President's Budget will not 
be adequate to allow the Corps to award a construction contract for the 
gradient facility in the fall of 1999, as this low level of funding 
will not allow for completion of the construction in the one year time-
frame.
    In addition to the budget impacts of the short construction 
schedule, GCID is currently requesting that Congress increase the cost 
ceiling for the gradient facility from $20,700,000 to $26,000,000. The 
original cost estimates were based upon a 30 percent basis of design. 
Further design work and other factors indicate that the total cost of 
the gradient facility will exceed the $20,700,000 ceiling. GCID is also 
seeking a post-authorization change to the gradient facility to expand 
the scope of work to include bank stabilization work at approximately 
River Mile 208, north of the fish screen project. Geomorphological 
studies indicate that flood damage at River Mile 208 potentially puts 
the entire project at risk. These post-authorization changes also 
indicate an increase of the fiscal year 2000 budget for this element of 
the project.
    Finally, Mr. Chairman, GCID requests that the Subcommittee earmark, 
from within the funds made available for refuge water supply, 
$2,400,000 for fiscal year 2000 to continue work on the upgrade of GCID 
canal facilities necessary to make refuge deliveries. The President's 
Budget request includes $4,500,000 for all central valley refuge 
conveyance projects, and GCID requests that $2,400,000 be earmarked for 
the District's project designed to expand water service to the 
Sacramento Refuge complex. In addition, GCID requests that the budget 
for all Central Valley refuge supply projects be increased to 
$6,900,000 to assure that the necessary funds will be available for 
completion of the GCID Refuge Conveyance Project. Preliminary estimates 
by Reclamation indicate that the proposed budget of $4,500,000 for 
refuge supply projects is far short of the total amount actually needed 
for completion of the GCID Refuge Conveyance Project and the initiation 
of work on the other supply projects in the Central Valley. A shortfall 
in the refuge supply budget could adversely impact the GCID Refuge 
Conveyance Project by interfering with the completion of construction 
in progress. Thus, GCID urges an increase in the overall budget for 
refuge supply projects, which would assure that the funds earmarked for 
the GCID Refuge Conveyance Project will be available, and may alleviate 
funding problems associated with other Central Valley refuge supply 
projects which are also essential.
    GCID's Refuge Conveyance Project will enable the District to make 
year-around water deliveries to the three National Wildlife Refuges in 
the GCID service territory (the Sacramento, Delevan and Colusa National 
Wildlife Refuges) as well as make Stony Creek available for possible 
fish restoration activities. It will also allow water deliveries during 
the winter for crop diversification and to expand the acreage flooded 
for rice straw decomposition and wildlife habitat. This project is the 
most efficient and least costly way to provide expanded water service 
to the Sacramento Refuge complex, as required by the Central Valley 
Project Improvement Act.
    Mr. Chairman, Members of the Subcommittee, on behalf of GCID, I 
would like to express my appreciation for your past support of our 
efforts to address the fish bypass problem at the Hamilton City Pump 
Station and our refuge water supply project, and I respectfully request 
your support once again in the fiscal year 2000 Energy and Water 
Development Appropriations Act.
    Thank you for your consideration.
                                 ______
                                 
       Prepared Statement of the Coachella Valley Water District
                         whitewater river basin
    The U.S. Army Corps of Engineers, with the Coachella Valley Water 
District as local sponsor, is nearing completion of the feasibility 
study for the Whitewater River Basin flood control project. This 
statement provides a brief status report on this important project.
    The Whitewater River Basin feasibility study is defining a flood 
control project in the northern portion of the Coachella Valley in the 
low desert area of Southern California. This area is subject to 
alluvial fan type flooding originating from sources as far north as 
Joshua Tree National Park. This area has existing businesses and 
residences and is forecast to be a potential growth area.
    The feasibility study is formulating a plan which will have a 
favorable benefit cost ratio for the flood control project. The 
feasibility study is also identifying a major environmental restoration 
component. The study will identify nonstructural flood control 
components which will enhance the Coachella Valley Fringe-Toed Lizard 
Preserve, protecting the endangered Coachella Valley fringe-toed lizard 
as well as providing a multispecies habitat area protected from 
development. Without this flood control project, protecting the sand 
source for the dune environment of the preserve could be very difficult 
to achieve.
    The local community supports the flood protection goals of this 
project and the local environmental community supports the project as 
well.
    Thank you for the continued funding of the feasibility study. The 
project proposed in the feasibility study will be put forward for your 
consideration for the Water Resources Development Act of 2000, if 
possible. Your careful consideration of this important flood control/
environmental enhancement project will be appreciated.
                                 ______
                                 
 Prepared Statement of Ross Rogers, General Manager, Merced Irrigation 
                                District
    Mr. Chairman and Members of the Committee: My name is Ross Rogers, 
General Manager of the Merced Irrigation District. I am respectfully 
submitting this statement on behalf of the County of Merced, the City 
of Merced, and the Merced Irrigation District, which jointly form an 
informal coalition commonly known as the Merced County Streams Group 
for the purpose of performing maintenance functions along portions of 
the Merced County Streams Project. The County of Merced, together with 
the State of California, is the sponsor of the Merced County Streams 
Project. The El Nido Irrigation District and the Le Grand Athlone Water 
District are also concerned in this matter.
    Federal authorization for the project construction was granted as 
part of the Supplemental Appropriations Act of 1985. Authorized 
facilities include constructing dry dams on Canal (Castle Dam) and 
Black Rascal Creeks (Haystack Mountain Dam), enlargement of the 
existing Bear Creek Dam, and modifications of levees and channels along 
more than 25 miles of Fahrens, Black Rascal, Cottonwood, and Bear 
Creeks. The completed project will provide flood protection worth more 
than $10,000,000 per year to 263,000 acres of urban and agricultural 
lands. Total project cost is currently estimated to be $133,000,000 of 
which $40,000,000 or roughly 31 percent will be paid during 
construction by the local beneficiaries.
    When completed, more than 240,000 residents occupying 55,000 
housing units within the greater metropolitan Merced area will live 
with assurance of 125-year flood protection, while the lower rural area 
will receive 25-year protection.
    The first component of the project, Castle Dam, was completed in 
1992. This component was constructed under budget, ahead of schedule, 
and without a lost-time accident. Without Castle Dam during the intense 
storms of January, February, March 1995, January 1997 and January, 
February, March, 1998, the city of Merced would have been partially 
inundated.
    As a result of a request by the County of Merced, the Corps of 
Engineers has reevaluated project components and will extend the 
boundaries of the levee and channel portion of the project to better 
match growth that has taken place in the city of Merced. This 
willingness to remain flexible throughout the lengthy planning and 
design process is also a credit to the Corps and its staff.
    The Merced County Streams Project is a modification and expansion 
of an earlier flood project constructed between 1948 and 1957. It has 
undergone considerable review and modification since first authorized 
as part of the Flood Control Act of 1970. Approximately $18,000,000 has 
been spent to date on the Merced County Streams Project. This has been 
matched with local contributions of approximately $3,000,000. As 
partners in the construction of this project, the local agency sponsors 
have worked closely with the Corps to establish an economic balance 
between costs and benefits. As a result of this combined effort, 
nonessential project components were first scaled back and eventually 
eliminated. This scaling to fit the economic reality resulted in 
substantial federal and local savings.
    On January 15, February 3 and March 25, 1998, due to El Nino-driven 
storms, Bear Creek overtopped its banks in several locations within and 
downstream of the city of Merced, flooding 33 homes, county, city and 
Merced Irrigation District infrastructure, and thousands of acres of 
prime agricultural land, with total damages in the millions of dollars. 
The U. S. Army Corps of Engineers, with input from the National Weather 
Service, estimates that the January 15th and March 25th events were 
both one-in-100 year events, unprecedented for the area. The greatest 
storm intensity in both storms centered in northeastern Merced County 
in and around the watershed of Black Rascal Creek, tributary to Bear 
Creek, upstream of the Merced County Streams Project's proposed 
Haystack Mountain Dam site. According to Corps of Engineer's rating 
tables for the Black Rascal Creek Bypass gaging station, January flows 
reached 4,300 cubic feet per second (cfs) in a channel with a rated 
maximum capacity of 3,000 cfs, 143 percent of channel capacity. March 
flows exceeded 4,700 cfs, or 157 percent of channel capacity. Had the 
Merced County Streams Project's Haystack Mountain Dam been in place, no 
flooding would have occurred along Bear Creek during the January, 
February or March events.
    Due primarily to the New Years, 1997 devastating California flood, 
the U. S. Congress and the California legislature authorized a four 
year study, identified as: ``Sacramento and San Joaquin River Basins 
Comprehensive Study.'' The study was authorized under the Flood Control 
Act of 1962 (Sacramento River) and the 1964 Congressional Resolution 
(San Joaquin River). According to a brochure distributed by The 
Reclamation Board of the State of California and the U. S. Army Corps 
of Engineers, Sacramento District, the study:

          ``. . . will initially identify problems, opportunities, 
        planning objectives, constraints, and measures to address 
        flooding and ecosystem problems in the study area. It will 
        ultimately develop a strategy for flood damage reduction and 
        integrated ecosystem restoration along with identification of 
        projects for early implementation. Solutions will include 
        consideration of both structural and non-structural measures . 
        . .''

    According to the study timeline, in April, 1999, an interim report 
will be presented to Congress. In 2001, a Draft Strategy for Flood 
Management and Related Environmental Restoration will be completed. By 
the Spring of 2002, the final Strategy and EIS/EIR, including an 
implementation plan will be completed.
    There is great concern on the part of the City of Merced, County of 
Merced and the Merced Irrigation District officials that the Merced 
County Streams Project will be ``swallowed up'' by the Comprehensive 
Study, becoming one of many new flood control projects that have not 
yet received Congressional authorization. The Merced County Streams 
Project has been authorized by Congress. This important and urgent 
Project must not lose its priority for Congressional funding or be 
further delayed while the Comprehensive Study is undertaken.
    The project has the support of state and local authorities and 
funding of the non-federal portion has been addressed.
    We request the Committee's support for the inclusion of $500,000 in 
the 1998/99 budget, as recommended by the California Water Commission 
and the Corps of Engineers, for the orderly progress of the Merced 
County Streams Project, which is so vital to the community, state, and 
the nation.
                                 ______
                                 
      Prepared Statement of Milton Losoya, Mayor, City of Woodland
    The City of Woodland requests Congressional support for adding 
$750,000 to the fiscal year 2000 federal budget, to enable the Corps of 
Engineers to begin the Cache Creek Flood Protection Feasibility Study 
in fiscal year 2000. The study, estimated to cost $2,500,000 million 
over a 2-3 year period, will be 50 percent federally funded, 50 percent 
state and local funded. The City Council has approved the City funding 
for the local share.
    FEMA has recently completed a new Flood Insurance Study for the 
Woodland area, showing approximately a 600 percent increase in the area 
of the city in the 100 year flood plain. This creates a significant 
impact to existing residences and businesses, and a virtual building 
moratorium on new industrial development, which is now predominately in 
an unnumbered A zone. This will have major economic impact on the City 
of Woodland if not addressed in an expeditious and proactive manner.
    The Corps of Engineers has completed two Reconnaissance Studies 
(Reconnaissance Report, Westside Tributaries to Yolo Bypass, CA June 
1994, and Northern California Streams Reconnaissance Report, Cache 
Creek Environmental Restoration, California, December 1995) which 
address structural solutions to this problem. The Corps studies show a 
benefit cost ratios of between 1.3 and 1.8 depending on the solution 
selected. Analysis indicates that the flood threat has been intensified 
by the construction of Interstate Highway I-5, which diagonally bisects 
the community. Considering projected damage estimates for the 100 year 
flood, the project shows a 1.8 benefit cost ratio. The annualized cost 
for flood protection is about half the annualized cost of damages from 
a 100 year flood. With the receipt of the proposed revisions to FEMA's 
Flood Insurance Rate Maps, there is clear community support to proceed 
with a structural fix to the flood protection system.
    The next step is completion of a Corps feasibility study to 
determine the optimum solution for the community, so that design can 
begin. Given the impacts to the community, a two year schedule for the 
study is desired so that we may proceed as soon as possible with a 
structural fix (costs of which are estimated by the Corps to range from 
$42,000,000 to $84,000,000).
                                 ______
                                 
 Prepared Statement of the Honorable George Pettygrove, Mayor, City of 
                         Fairfield, California
    Mr. Chairman, Members of the Subcommittee, my name is George 
Pettygrove. I am the Mayor of the City of Fairfield, California. The 
City of Fairfield requests $400,000 in the fiscal year 2000 Energy and 
Water Appropriations bill to continue funding for the Ledgewood Creek 
Section 205 Small Flood Control Project.
    In fiscal year 1999, Congress provided $300,000 to begin study of 
flooding on Ledgewood Creek. The requested appropriation in fiscal year 
2000 will complete the feasibility study necessary to determine 
appropriate flood control measures for this area of the City.
    When the Corps of Engineers studied Ledgewood Creek in preparation 
for the design of the Fairfield Vicinity Streams Project improvements, 
the Corps predicted that Ledgewood Creek, within the unincorporated 
area of Solano County, could bifurcate and flood Interstate Highway 80 
(I-80). On Tuesday, February 3, 1998, the prediction came true. Runoff 
from the Ledgewood Creek drainage basin could not be contained within 
the unimproved creek channel and the creek overflowed. At 7:44 a.m. all 
four westbound lanes of I-80 and three of the four eastbound lanes were 
closed. Within an hour after the closure, the freeway became a giant 
parking lot, spanning nearly 15 miles east to Interstate 505. At its 
worst, 18 inches of water covered four westbound lanes for roughly 600 
feet. Caltrans reopened the freeway at 12:38 p.m., the result of 
naturally receding water, lighter showers, and Caltrans' crews pumping 
water back into the creek. The five hour closure of I-80 caused some 
commuters to be three hours late to work, as well as trucking delays in 
delivery of goods.
    Due to a combination of the construction of the Fairfield Vicinity 
Streams Project and the construction of developer improvements, a 
portion of Ledgewood Creek has been improved to carry a 100-year storm 
water event from the Fairfield City limits to the Suisun Marsh. The 
solution to the flooding problem on I-80 is to extend the 100-year 
improvements to the north to include an upper reach of Ledgewood Creek 
from the Fairfield City limits to Abernathy Lane. If the Abernathy Lane 
crossing and the downstream channel of Ledgewood Creek are improved, 
bifurcation will be eliminated and so will the flooding of I-80. Also, 
the Corps of Engineers could submit their design with calculations to 
FEMA and obtain a letter of map revision to remove all of the 
properties below I-80 that are within the AO flood zone. The benefit to 
the community is not only the prevention of the I-80 flooding, but the 
removal of approximately 300 acres of residential, commercial, and 
industrial property from the FEMA flood zone, thereby eliminating the 
need to buy flood insurance.
    Again, I appreciate the opportunity to testify on behalf of the 
City of Fairfield, and I urge your support for this priority project 
for our region.
                                 ______
                                 
    Prepared Statement Jon D. Mikels, Chairman, Supervisor, Second 
                   District, County of San Bernardino
    The Board of Supervisors of San Bernardino County, State of 
California, appreciates the opportunity to bring the following flood 
control and water conservation projects to your attention for 
consideration in the fiscal year 1999-2000 Federal Budget.

Corps of Engineers:
    Santa Ana River Mainstem--Construction of Seven Oaks 
      Dam, San Timoteo Creek Reach 3B and Lower Santa 
      Ana River Reaches 8 & 9. New construction start 
      for Prado Dam.....................................     $28,000,000
    Upper Santa Ana River Watershed--Reconnaissance 
      Study.............................................         100,000
    Orange County, Santa Ana River Basin--Feasibility 
      Study.............................................         100,000
    Mojave River Forks Dam--Feasibility Study...........         300,000
    San Bernardino County Feasibility Studies--a. Lytle 
      Creek, b. Wilson, Potato and Wildwood Creeks......         100,000
    Mission Zanja Creek--Feasibility Study..............         ( \1\ )
Bureau of Reclamation: San Sevaine Creek Water Project--
    Public Law 84-984 Small Reclamation Projects Act 
    Loan Program........................................      10,180,000

\1\ Support.

    The Board, once again, wishes to express its deep appreciation for 
your past and present support of these priority programs in San 
Bernardino County.
                    santa ana river mainstem project
Project Description
    The Santa Ana River Mainstem Project includes seven interdependent 
features: Mill Creek Levee, Oak Street Drain, San Timoteo Creek, Lower 
Santa Ana River, Seven Oaks Dam, Prado Dam and Santiago Creek. Mill 
Creek Levee, Oak Street Drain, San Timoteo Creek Reaches 1, 2 and 3A 
and the Lower Santa Ana River Reaches 1, 2, 3, 4, 5, 6, 7 and 10 are 
complete. Completion of all of the features will provide (a) the 
necessary flood protection within Orange, Riverside and San Bernardino 
Counties; (b) enhancement and preservation of marshlands and wetlands 
for endangered waterfowl, fish and wildlife species; (c) recreation 
amenities; and (d) floodplain management of the 30 miles of Santa Ana 
River between Seven Oaks Dam and Prado Dam.
San Bernardino County Features Status
    Seven Oaks Dam: Intake structure excavation, abutment stripping and 
outlet works/diversion tunnel contract is complete. Embankment and 
spillway construction contract was awarded in March 1994. Construction 
is progressing satisfactorily and is 91 percent complete as of January 
1999. Construction can be completed in fiscal year 1999/2000.
    San Timoteo Creek: San Timoteo Creek/Reach 1 construction was 
completed in September 1996. Construction on Reaches 2 & 3A was 
completed in April 1998. Overall, construction is approximately 60 
percent complete.
Funding Required
    The funding amount required exceeds the President's proposed budget 
by $3,000,000 due to necessary studies and mitigation for endangered 
species. In addition, $5,000,000 is requested for Design and 
Construction start for Prado Dam. To continue construction of the 
Mainstem Project on schedule in fiscal year 1999/2000, federal funding 
in the amount of $28,000,000 would be required as follows:

Seven Oaks Dam: Construction and Mitigation.............      $3,000,000
Lower Santa Ana River:
    Construct Reaches 8 & 9.............................      13,000,000
    Landscaping and Sediment Removal....................       5,000,000
    Engineering Design..................................       2,000,000
Prado Dam: Design and Construction start................       5,000,000

    PROJECT AUTHORIZED: Public Law 94-587, Section 109, Approved 
October 22, 1976, Public Law 99-662, Water Resources Development Act of 
1986
    TOTAL PROJECT COST: $1,400,000,000--Includes $473,000,000 local 
share

PRESIDENT'S BUDGET FISCAL YEAR 1999/2000................     $20,000,000
FUNDING SHORTFALL FISCAL YEAR 1999/2000.................       8,000,000
REQUIRED FUNDING FISCAL YEAR 1999/2000..................      28,000,000

    REQUESTED ACTION: Approval of $28,000,000 for Santa Ana River 
Mainstem, F.Y. 1999/2000.
                           san timoteo creek
Project Description
    The San Timoteo Creek is a major tributary to the Santa Ana River 
in the east San Bernardino Valley. A large watershed of approximately 
126 square miles drains into the creek which flows through the cities 
of Redlands, Loma Linda and San Bernardino before discharging into the 
Santa Ana River. The existing creek, in all three cities, has an 
earthen bottom and partially improved embankments reinforced with rail 
and wire revetments.
    Major storm flows along the creek in 1938, 1961, 1965, 1969 and 
1978 caused considerable damage to the creek itself as well as 
overtopping the banks and causing loss of life and severe property 
damage.
    The Energy and Water Development Appropriations Act of 1988 
authorized improvement of San Timoteo Creek as part of the Santa Ana 
River Mainstem Project. The improvements include the construction of 
approximately 5.5 miles of concrete-lined channel from the Santa Ana 
River upstream through the cities of San Bernardino, Loma Linda and 
Redlands plus the construction of debris retention facilities at the 
upstream end of the project in the form of in-channel sediment storage 
basins.
Project Status
    Overall project construction is 60 percent complete. An alternative 
has been developed for Reach 3B that will include the construction of 
approximately 1300 feet of improved channel and 18 in-channel 
sedimentation basins. Plans for the final phase will be developed 
during the remaining 1998/1999 fiscal year with completion anticipated 
during the mid 1999/2000 fiscal year.
Completed Phases
    Reach 1: 0.7 Mile of Channel, COMPLETED, September 1996; Waterman 
Avenue Bridge, COMPLETED, September 1996.
    Reach 2: 1.9 Miles of Channel, COMPLETED, December 1997; Redlands 
Boulevard Bridge, COMPLETED, March 1998.
    Reach 3A: 0.8 Mile of Channel, COMPLETED, May 1998.
Remaining Construction and Schedule
    Reach 3B: 0.2 Mile of Channel and 18 Sedimentation Basins along 2.2 
Miles of channel. Plans and Specifications: June 1998-December 1999; 
Right-of-Way Acquisition: April 1999-December 1999; Construction Start: 
April 2000; and Construction Completion: September 2001.
Estimated Project Cost
    The total estimated project cost is approximately $67,000,000 with 
the federal participating cost at 75 percent or $50,250,000 and the 
local participating cost at 25 percent or $16,750,000. The cost of the 
remainder of the project is estimated to be $35,000,000, with the 
Federal share at $26,250,000 and the local share at $8,750,000
    REQUESTED ACTION: Approval of continued funding for the San Timoteo 
Creek Project.
          upper santa ana river watershed reconnaissance study
    The area will focus on the watershed of the Santa Ana River and 
tributaries located above Prado Dam and primarily in San Bernardino 
County. The study is to describe all watershed characteristics and uses 
to define problem areas under present and future conditions and assist 
county and local interests in developing a long term master plan for 
watershed management in the interest of improving specific water 
resource uses including environmental preservation and restoration, 
urbanization water supply and conservation and water-related recreation 
activities.
    The San Bernardino County Flood Control District supports the 
reconnaissance study for management of the upper Santa Ana River 
Watershed.
    REQUESTED ACTION: Approval of $100,000 for upper Santa Ana River 
Watershed, F.Y. 1999/2000.
     orange county, santa ana river basin feasibility study (chino 
                       agriculture preserve area)
    The Chino Dairies are located in a 30 square mile area immediately 
north of Prado Dam reservoir, in the unincorporated portion of San 
Bernardino County, California. The study provides information on the 
following elements: operations of Chino Dairies, water conservation in 
Chino Groundwater Basin, flood control facilities to relieve runoff 
from upstream development in the City of Ontario, water quality 
concerns of Orange County residents and the regulatory enforcement of 
the Chino Dairies. The Chino Dairies provide 25 percent of all the milk 
consumed in California and it is a one billion dollar industry.
    The San Bernardino County Flood Control District supports the 
feasibility study to help with flood control facilities, water 
conservation and keep the dairies maintain their viability.
    REQUESTED ACTION: Approval of $100,000 for Orange County, Santa Ana 
River Basin, F.Y. 1999/2000.
                mojave river forks dam feasibility study
    The Mojave River flows north out of the San Bernardino Mountains 
into the desert communities of Victorville and Barstow. The Mojave 
River Forks Dam (Dam) is an ungated facility designed and constructed 
by the U.S. Army Corps of Engineers to alleviate flooding. Since that 
time, environmental regulations such as the Endangered Species and 
Clean Water Acts and the recent water rights adjudication have changed 
the River's uses. The study will consider factors such as the current 
water rights adjudication while facilitating balance among the River's 
competing uses and diverse interest. Alternatives include modification 
of the Dam's operation and outlet works, construction of a release 
tower and operable gates and construction of one or more off-line 
detention basins.
    The San Bernardino County Flood Control District supports this 
feasibility phase study to evaluate viable water conservation 
alternatives while optimizing the balance between environmental, flood 
control and water supply needs.
    REQUESTED ACTION: Approval of $300,000 for Mojave River Forks Dam, 
F.Y. 1999/2000.
  san bernardino county feasibility studies (lytle creek and wilson, 
                       potato & wildwood creeks)
    The Lytle Creek drainage basin comprises 173 square miles in the 
north-central part of the Santa Ana River Basin, San Bernardino County, 
California. The purpose of the study is to conduct an investigation of 
the Lytle Creek watershed to determine opportunities for water quality/
flood control enhancement, sediment/erosion control and environmental 
restoration. Sand and gravel operations along the Creek have resulted 
in damages to the drainage patterns, sediment movement and the riparian 
habitat. In addition, a high rate of urbanization in the ``Inland 
Empire'' region has led to increased runoff. These factors pose an 
increase flood risk in the basin.
    Wilson, Potato and Wildwood Creeks originate in the San Bernardino 
Mountains and flow in a south and southwesterly direction through the 
city of Yucaipa, San Bernardino County. The study would investigate 
methods to control erosion and reduce the impacts to the downstream 
open space areas, residences and commercial areas within the watershed. 
The runoff creates a large volume of debris and sediment within the 
City of Yucaipa. Flooding along these creeks is threatening to damage 
residential and commercial development and infrastructure facilities.
    The San Bernardino County Flood Control District is requesting 
these feasibility studies to evaluate the systems and determine 
appropriate methods of protection through new facilities and management 
of the existing floodplain.
    REQUESTED ACTION: Approval of $100,000 for San Bernardino County, 
F.Y. 1999/2000.
                 mission zanja creek feasibility study
    The area is located in the City of Redlands, San Bernardino County. 
The Mission Zanja Creek (Creek) project begins at about 2,000 feet east 
of Interstate 10 to the Reservoir Canyon Drain, just west of 8th 
Street. Floods of 1965, 1976 and 1980 caused about $4,300,000 million 
(1988 price level) in damages. Frequent flooding along the Creek is 
caused by inadequate capacity of the existing inlet to the covered 
channel near 9th Street. The U.S. Army Corps of Engineers study 
indicates that expansion of inlet on the Creek will result in a small 
increase in the level of protection, but will increase flooding the 
areas surrounding Reservoir Canyon Drain. Even though, this project 
will cause flooding at the downstream area, but it will be much 
smaller.
    The San Bernardino County Flood Control District supports the 
feasibility study to improve the inlet of Mission Zanja Creek to reduce 
flooding area.
    REQUESTED ACTION: Support of Mission Zanja Creek, F.Y. 1999/2000.
                    san sevaine creek water project
Project Description
    The San Sevaine Creek Water Project includes ten recharge 
facilities, two miles of levees; construction of seven miles of 
drainage ways to convey runoff to the recharge facilities; six miles of 
linear parkways; and the preservation of 137 acres of sensitive 
wildlife habitat. This project will provide water conservation and 
flood protection to a drainage area of approximately 51 square miles 
within the cities of Fontana, Rancho Cucamonga and Ontario as well as 
San Bernardino and Riverside Counties. There will be an average of 
approximately 25,000 acre-feet per year of groundwater recharge from 
the San Sevaine and Etiwanda Creeks' tributaries in the project area.
Project Status
    The Loan Application was signed by the Bureau of Reclamation 
Commissioner Eluid Martinez on April 11, 1996, approved by the 
Secretary of Interior Bruce Babbitt on May 9, 1996. As of July 15, 
1996, the San Sevaine Creek Water Project completed 60-day 
congressional approval process. On December 17, 1996, the project 
Repayment Agreement was approved by the Board of Supervisors of San 
Bernardino County and approved on January 8, 1997 by Robert Johnson, 
Regional Director of the Bureau of Reclamation. The Bureau has 
indicated an eight-year construction schedule with project completion 
by the Year 2006.
    Although considerable levee, channel and interim basin work has 
already been completed at various locations of this major water 
project, continued federal assistance from this Small Reclamation 
Project Act loan and grant are required to complete the project's 
construction. Without these funds it will be decades before local 
interests can accrue sufficient funds to construct this vital water 
project. To date, the Bureau of Reclamation has provided approximately 
$10,500,000 million towards construction of the project.
    The California Water Commission has consistently, since the late 
1980's, supported the construction of this project.
                                                      Public Law 84-984,
        Federal Authority                             as amended in 1956
Bureau of Reclamation grant contribution approximately..     $27,400,000
Bureau of Reclamation loan contribution approximately...      19,200,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total B of R project (not additive) Approximately.      52,900,000
                    ========================================================
                    ____________________________________________________
Total Local Contribution Approximately..................      33,700,000
1997/98 fiscal year Federal Budget (New Project Start)..       1,333,000
1998/99 fiscal year Federal Budget......................       1,177,000
President's Budget fiscal year 1999/2000................      10,180,000

    The District and County have coordinated with the Bureau of 
Reclamation and the National Water Resources Agency in a cooperative 
effort to obtain the continued funding for this project. The District 
and County appreciate the continuing support provided by the Bureau of 
Reclamation towards this project.
    REQUESTED ACTION: Support President's proposed F.Y. 1999/2000 
budget in the amount of $10.18 Million.
                                 ______
                                 
Prepared Statement of Keith E. Beier, Mayor Pro Tem, City of Escondido, 
   California, and Marie Waldron, Council Member, City of Escondido, 
                               California
                san diego area water reclamation program
    Mr. Chairman and members of the subcommittee, for the seventh 
straight year, we are pleased to have the opportunity submit this 
testimony in support of continued funding for the San Diego Area Water 
Reclamation Program, including the Escondido portion. Let us say again 
how much we appreciate what you have done for the people of Escondido.
    Last year, the Congress provided $13,000,000 for this project, as 
requested by the Administration. And, as we reported to you last year, 
with the support we had received through fiscal year 1999 from Congress 
and the Administration, we were able to move the project forward in 
full compliance with our agreement with the Bureau of Reclamation. We 
hope you will be able to provide $10,600,000 for the total project, 
fully funding the President's fiscal year 2000 Budget Request. We know 
that the budget caps and the other priorities in the President's budget 
request place you under enormous fiscal pressure, but we feel confident 
in asking for full funding because the people of Escondido still need 
usable water and it is still a fact that our surrounding area is a 
desert with increasing dependence on reusable water. Let us again point 
out that we will reclaim and reuse a large amount of the wastewater 
that we now pump into the Pacific Ocean at a rate of 14,500,000 gallons 
per day.
                the escondido water reclamation program
    As we must continue to report to you, San Diego County, especially 
the North County where Escondido is located, continues to experience a 
tremendous population influx that has gone on since the early 1960s. 
With the population growth that Escondido continues to experience, has 
come dramatic new economic development, both in the number of new 
businesses and our existing, historical agriculture industry. All place 
new demands on our infrastructure and our water supply--both potable 
and nonpotable. Through local planning and leadership, Escondido 
continues to attempt to meet the challenge of maintaining a high 
quality of life for its people, and, with this subcommittee's continued 
support, can make it a reality.
    While our specific program is important to the citizens of 
Escondido, we remain a key part of the overall water planning effort of 
San Diego County. As part of the San Diego Area Water Reclamation 
Program, we are pleased with the increased amount of water that will be 
made available to the county as a result of this program.
                         cost and funding data
    With respect to the Escondido portion of the project, we are please 
to report that, through fiscal year 1999, Escondido has spent more than 
$14,000,000 on design, preliminary studies, environmental documents, 
right of way purchases and construction of improvements at the Hale 
Avenue Resource Recovery Facility (HARRF) and reclaimed water 
pipelines. With your approval, since fiscal year 1994, Bureau of 
Reclamation funding has reached $3,485,649. Phase I improvements to the 
HARRF construction is well under way, and Phase II, which includes 
completion of the improvements at the HARRF and construction of the 
reclaimed water pipelines, pump stations and reservoir, will commence 
construction in early fiscal year 2000.
    We would be remiss in our stewardship of your support if we did not 
report to you that the cost of the Escondido Regional Water Reclamation 
Program in 1999 dollars has increased to $76,575,000. This is a sharp 
increase in the project costs and is a reflection of a robust 
construction economy in southern California. Region wide construction 
costs have increased by a magnitude of 20 percent in the last two 
years.
    We are pleased that the California Water Commission again has 
supported our program as a recommended program, and continue to be 
thankful for the support of our sister agencies that comprise the San 
Diego Area Water Reclamation Program. This program has been favorably 
reviewed by this subcommittee and your counterpart in the other body, 
the Bureau of Reclamation, the California Water Commission, and 
regional officials back home in San Diego County.
    In closing, we are at the point of making large financial 
commitments to our water reclamation and redistribution program and 
would not be able to do so without the past and present support of the 
Senate and House Appropriations Subcommittees on Energy and Water. And, 
as our fiscal commitments increase, our dependence upon support from 
Congress and the Bureau of Reclamation funding increases. Let us again 
express our thanks and our appreciation for the support you have 
provided. We respectfully request your continued support, and would be 
delighted to respond to any questions the Subcommittee may have.
                                 ______
                                 
  Prepared Statement of the County of San Joaquin and the San Joaquin 
    County Flood Control and Water Conservation District, California
    San Joaquin County, located in the heart of California's central 
valley, has both a vibrant agricultural economic base and a burgeoning 
metropolitan growth. Both of these vital elements are vulnerable to the 
forces of nature. The 1997 flood inundated thousands of acres and 
threatened our major urban areas. The actual economic loss to the 
County in 1997 was staggering ($100+ million) and the potential loss 
due to flooding is enormous. The San Joaquin Area Flood Control Agency 
(SJAFCA) has been formed and construction is nearly complete (a 
$70,000,000 investment) to restore the Stockton Metropolitan Area to a 
100-year level of flood protection. We have aggressively moved ahead 
with this work to protect our people in anticipation that a credit for 
our work would be forthcoming against a Corps-developed project. We are 
anxiously waiting for the Corps' completion of the Section 211 
reimbursement study.
    At the other extreme of the weather spectrum, San Joaquin County is 
very vulnerable to drought-induced water shortages. Due to the export 
of our water by East Bay Municipal Utility District to the Oakland area 
and by the Bureau of Reclamation to the CVP, San Joaquin County is 
deficient of an adequate water supply in quantity and quality. Our 
groundwater levels dramatically drop during a less-than-average water 
year. During these drops, the threat of salt water intrusion in our 
groundwater basin from the Delta is a major concern. Our local water 
district (Stockton-East Water District) has invested $65,000,000 to 
allow transfer of Stanislaus River flows to supplement our water 
supplies, but this project is dependent on the coordinated operation of 
New Melones Reservoir and local storage capability during wet years. We 
need to have the Corps complete the feasibility study of the Farmington 
Dam recharge project in order to increase the yield of the severely 
limited Stanislaus River supply.
    As you can see, we are willing to invest in our future and we will 
continue to do so. The timely funding of these important studies is 
crucial to the economic well-being of San Joaquin County. These 
projects represent studies that need to be conducted in order to 
resolve problems on flood control, water supply, water quality, 
groundwater and the environment in San Joaquin County. We need Federal 
help in several of these projects and we request Federal appropriations 
during fiscal year 2000 for the following Corps of Engineers and Bureau 
of Reclamation projects:

U. S. Army Corps of Engineers--General Investigations-Surveys:
    Sacramento and San Joaquin Rivers Comprehensive Study.....$3,000,000
    Sacramento and San Joaquin Delta Investigations...........   200,000
    San Joaquin River Basin Stockton Metropolitan Area 
      (Section 211) Requesting an Additional $180,000.........   380,000
    San Joaquin River Basin Stockton Metropolitan Area 
      (Farmington Dam)........................................   150,000
    San Joaquin River Basin Cosumnes and Mokelumne Rivers.....    50,000
    Port of Stockton and San Joaquin River Channel Deepening..   150,000
Bureau of Reclamation:
    South Delta Barriers......................................    20,000
    Bay-Delta Ecosystem Restoration--CALFED...................95,000,000
                           detailed comments

U.S. Army Corps of Engineers

Sacramento and San Joaquin Rivers Comprehensive Study.........$3,000,000

    The San Joaquin Rivers Comprehensive Study is an ongoing $9,000,000 
study of the water resources needs of the San Joaquin and Sacramento 
Rivers. Flood control and environmental needs will receive equal 
consideration. We expect setback levees, dredging and re-operation of 
existing reservoirs will receive a careful review in this study. A 
status report to Congress is expected to be released this April, which 
will outline $16,000,000 to $20,000,000 of studies to be performed in 
future years. The President approved $3,500,000 for fiscal year 1999 
and $2,000,000 for fiscal year 2000 for the collective San Joaquin and 
Sacramento River Basin Studies. At this time, we do not know the exact 
allocation between each of the basins, although 50-50 seems likely. The 
State is the cost-sharing partner in these studies.

Sacramento-San Joaquin Delta Investigation....................  $200,000

    This is a special study and a regional planning report which 
addresses multiple resource needs, including flood control, recreation, 
environmental restoration, navigation, water supply, etc. The 
California Department of Water Resources is the cost-sharing partner 
with the CALFED process. To date, field test levee-strengthening 
methods have been pursued and the study provides input to the CALFED 
process. The President's budget for this investigation for fiscal year 
2000 is $200,000.

San Joaquin River Basin Stockton Metropolitan Area............  $380,000

    Before Federal dollars can be appropriated to reimburse the local 
agency (up to 75 percent reimbursement), a Section 211 Report must be 
approved by the Secretary of the Army. The 211 Report should be 
completed later this year or early next year. The President's fiscal 
year 2000 budget of $200,000 is adequate to complete the required 211 
Report, but an additional $180,000 is required to adequately proceed 
with the Feasibility Report addressing rural flood control 
improvements. The Corps' Draft Feasibility Report is due in August 1999 
and the Final Feasibility Report is due in March 2000.

San Joaquin River Basin Stockton Metropolitan Area Farmington 
    Dam.......................................................  $150,000

    The study costs for this investigation will determine if a Federal 
interest may exist for a groundwater recharge project and environmental 
enhancements. The President has included $150,000 in his fiscal year 
2000 budget. The current fiscal year 1999 budget includes $400,000. 
Since this is a feasibility study, all Federal funds must be matched by 
local funds. The local cost-sharing sponsor for this study will be the 
Stockton East Water District.

San Joaquin River Basin Cosumnes and Mokelumne Rivers.........   $50,000

    A Reconnaissance Study of ecological restoration and non-structural 
flood control improvements is being performed on the Mokelumne and 
Cosumnes Rivers. The current fiscal year 1999 funding is $18,000 and 
the President's fiscal year 2000 budget is $50,000. Separate studies 
and reports are being prepared by April 1999 for the Cosumnes River 
(between the Delta and Michigan Bar) and the Mokelumne River (between 
the Delta and Camanche Reservoir).

Port of Stockton and San Joaquin River Channel Deepening......  $150,000

    This is an ongoing feasibility study which is being performed for 
dredging and deepening the San Joaquin River channel through the Delta 
to the port of Stockton to depths of 40 feet. Greater depths will 
enhance navigation through the Delta to and from the Port. A fiscal 
year 2000 budget of $150,000 has been proposed to perform the surveys. 
Please note that this project is not included on the California Water 
Commission's project listing because it is included in the California 
Marine Affairs and Navigation Conference (CMANC) listing of projects.

Bureau of Reclamation

South Delta Barriers..........................................   $20,000

    The project provides temporary barriers in the south Delta to 
improve water quality. The fiscal year 1999 Budget includes funding for 
$200,000 and the President's fiscal year 2000 Budget includes funding 
for $20,000. In order to maintain the temporary program, $20,000 is 
needed and the California Water Commission may be requested to 
recommend an increase in funding.

Bay-Delta Ecosystem Restoration.........................     $95,000,000

    Current year funding is for $143,300,000 and the President's fiscal 
year 2000 Budget has included $95,000,000. Funds for this program have 
been used primarily for acquisition of lands, development of habitat, 
and fishery enhancement/protection improvements. Although we support 
CALFED's assistance with Woodbridge Irrigation District's efforts of 
enhancing the Mokelumne River, we are concerned that the overall CALFED 
program is overlooking the need of surface and groundwater supply 
requirements within the County of San Joaquin. The CALFED program does 
not recognize county area of origin protections; and there are no water 
quality improvement objectives to improve the water quality of San 
Joaquin County water supplies. There is no documentation of the 
benefits that will be derived from the expenditure of funds, 
particularly to displace agricultural lands.
                                 ______
                                 
Prepared Statement of the Santa Clara Valley Water District, San Jose, 
                               California
                        calfed bay-delta program
    Background.--In an average year, half of Santa Clara County's water 
supply is imported from the San Francisco Bay/Sacramento-San Joaquin 
Delta estuary (Bay-Delta) watersheds through three water projects: The 
State Water Project, the federal Central Valley Project, and San 
Francisco's Hetch Hetchy Project. In conjunction with locally-developed 
water, this water supply supports nearly 1,700,000 residents in the 
Santa Clara County, the most important high-tech center in the world. 
In average to wet years, there is enough water to meet the county's 
long-term needs. In dry years, however, the county could face a water 
supply shortage of as much as 100,000 acre-feet per year, or roughly 20 
percent of the expected demand. In addition to shortages due to 
hydrologic variations, the county's imported supplies have been reduced 
due to regulatory restrictions placed on the operation of the state and 
federal water projects.
    There are also water quality problems associated with using Bay-
Delta water as a drinking water supply. Organic materials and 
pollutants discharged into the Delta, together with salt water mixing 
in from San Francisco Bay, have the potential to create disinfection-
by-products that are carcinogenic.
    Santa Clara County's imported supplies are also vulnerable to 
extended outages due to catastrophic failures such as major earthquakes 
and flooding. And as demonstrated by the recent flooding in Central 
Valley, the levee systems can fail and the water quality at the water 
project intakes in the Delta can be degraded to such an extent that the 
projects cannot pump from the Delta. 
    Project Synopsis.--The CALFED Bay-Delta Program is an 
unprecedented, cooperative effort among federal, state, and local 
agencies to restore the Bay-Delta. With input from urban, agricultural, 
environmental, fishing, and business interests, and the general public, 
CALFED is developing a comprehensive, long-term plan to address 
ecosystem and water management issues in the Bay-Delta.
    Restoring the Bay-Delta ecosystem is important not only because of 
its significance as an environmental resource, but also because failing 
to do so will stall efforts to improve water supply reliability for 
millions of Californians and the state's $700,000,000,000 economy and 
job base.
    Although the CALFED Bay-Delta Program is a long-range planning 
process, ecosystem restoration is an immediate priority because of the 
substantial lead time needed to produce ecological benefits. Species in 
the Bay-Delta continue to be proposed for listing under the Endangered 
Species Act. Recovery efforts cannot begin until adequate funding 
becomes available to implement the array of critical ecosystem 
restoration and water quality projects.
    Fiscal Year 1999 Funding.--$75,000,000 was authorized in fiscal 
year 1999 for CALFED Bay-Delta ecosystem restoration.
    Fiscal Year 2000 Funding Recommendation.--It is requested that the 
Congressional Committee support $95,000,000 in the Administration's 
fiscal year 2000 Budget to finance early implementation of ecosystem 
restoration in the Bay-Delta, provide critical improvement in water 
supply and water quality, and the continuance of final programmatic 
EIS/EIR.
                        guadalupe river project
    Background.--The Guadalupe River is a major waterway flowing 
through a highly developed area of San Jose, California. Historically, 
the river has flooded downtown San Jose and Alviso beyond local 
prevention capabilities. According to the 1991 General Design 
Memorandum, estimated damages from a 1 percent flood in the urban 
center of San Jose are over $526,000,000. The Guadalupe River 
overflowed in February 1986, January 1995, and March 1995, damaging 
homes and businesses in the St. John and Pleasant Street areas of 
downtown San Jose. In March 1995, heavy rains resulted in four separate 
breakouts along the river, inundating close to 300 homes and business.
    Project Synopsis.--In 1971, the local community requested that the 
U.S. Army Corps of Engineers (Corps) reactivate its earlier study. 
Since 1972, substantial technical and financial assistance has been 
provided by the local community through the Santa Clara Valley Water 
District in an effort to accelerate the project's completion. To date, 
more than $70,500,000 in local funds have been spent on planning, 
design, land purchases, and construction, and projects in the Corps' 
project reach, as well as in reaches downstream of the Corps' limits, 
have been completed through the local community's efforts.
    The Guadalupe River Project received authorization for construction 
under the Water Resources Development Act of 1986; the final General 
Design Memorandum was completed in 1992; the local cooperative 
agreement was executed in March 1992; construction of the first phase 
of the project was completed in August 1994; construction of the second 
phase was completed in August 1996. Completion of the last phase in 
2002 is dependent on federal funds and mitigation issue resolution.
    To achieve a successful, long-term resolution to the issues of 
flood protection, environmental mitigation, avoidance of environmental 
impacts, and project maintenance cost, a multi-agency ``Guadalupe Flood 
Control Project Collaborative'' was created in 1997. A key outcome of 
the collaborative process was the signing of the Dispute Resolution 
memorandum in 1998, which resolved major mitigation issues and allows 
the project to proceed.
    Fiscal Year 1999 Funding.--$7,000,000 was authorized in fiscal year 
1999 to continue Guadalupe River Project construction.
    Fiscal Year 2000 Funding Recommendation.--Based upon the need to 
continue construction to provide critical flood protection for downtown 
San Jose and the community of Alviso, it is requested that the 
Congressional Committee support $5,000,000 in the Administration's 
fiscal year 2000 budget for the continuance of construction and 
mitigation work on the Guadalupe River Flood Protection Project.
                     upper guadalupe river project
    Background.--The Guadalupe River is one of two major waterways 
flowing through a highly urbanized area of Santa Clara County, 
California. Historically, the river has flooded the central district of 
San Jose and southern areas beyond local prevention capabilities. 
According to U.S. Army Corps of Engineers (Corps) 1998 feasibility 
study, severe flooding in the Upper Guadalupe River's densely populated 
residential floodplain south of Interstate 280 could potentially cause 
$280,000,000 in damages.
    The probability of a large flood occurring before implementation of 
flood prevention measures is high. The Upper Guadalupe River overflowed 
in March 1982, January 1983, February 1986, January 1995, March 1995, 
and February 1998, causing damage to several residences and businesses 
in the Alma Street and Willow Street areas. The 1995 floods in January 
and March, as well as in February 1998, closed Highway 87 and the 
parallel light-rail line, a major commute artery.
    Project Synopsis.--In 1971, the Santa Clara Valley Water District 
requested the Corps to reactivate its earlier study. From 1971 to 1980, 
the Corps established the economic feasibility and federal interest in 
the Guadalupe River only between Interstate 880 and Interstate 280. In 
light of the 1982 and 1983 floods, the Santa Clara Valley Water 
District requested that the Corps reopen its study of the Upper 
Guadalupe River upstream of Interstate 280. The Corps completed a 
reconnaissance study in November 1989, which established an 
economically justifiable solution for flood prevention in this reach. 
The report recommended proceeding to the feasibility study phase, which 
began in 1990. In January 1997, the Corps determined that the National 
Economic Development Plan would be sized to only provide a 2 percent or 
50-year level of flood protection rather than the 1 percent or 100-year 
level. The Santa Clara Valley Water District strongly emphasized 
overriding the development plan's determination, providing compelling 
reasons for the higher 1 percent or 100-year level of protection. In 
1998, the Acting Secretary of the Army did not concur to extend the 
National Economic Development Plan's 50-year plan to 100 years, 
resulting in a project that will provide less flood protection, and 
therefore, be unable to reduce flood insurance requirements and 
reimbursements, as well as eliminate recreational benefits and increase 
environmental impacts. The Santa Clara Valley Water District has 
requested that the costs of providing 50-year and 100-year flood 
protection be analyzed again during the preconstruction /engineering 
design phase and figured into the determination of the National 
Economic Plan.
    Fiscal Year 1999 Funding.--$575,000 was authorized in fiscal year 
1999 for the Upper Guadalupe River Project to proceed with 
preconstruction engineering and design.
    Fiscal Year 2000 Funding Recommendation.--Based upon the high risk 
of flood damage from the Upper Guadalupe River and the need to continue 
preconstruction engineering and design, it is requested that the 
Congressional Committee support $300,000 in the Administration's fiscal 
year 2000 budget for the Upper Guadalupe River Flood Protection 
Project. Statement of
                     upper penitencia creek project
    Background.--The Upper penitencia Creek Watershed is located in 
northeast Santa Clara County, California, near the southern end of the 
San Francisco Bay. In the last two decades, the creek has flooded in 
1980, 1982, 1983, 1986, 1995, and 1998. While the January 1995 flood 
damaged a commercial nursery, a condominium complex, and a business 
park, the February 1998 flood damaged many homes, businesses, and 
surface streets.
    The proposed project on Upper Penitencia Creek, from the Coyote 
Creek confluence to Dorel Drive, will protect portions of the cities of 
San Jose and Milpitas. The watershed is completely urbanized; 
undeveloped land is limited to a few scattered agricultural parcels and 
a corridor along Upper Penitencia Creek. Based on the U.S. Army Corps 
of Engineers' (Corps) 1995 reconnaissance report, 4,300 buildings are 
located in the flood prone area, 1,900 of which will have water 
entering the first floor. The estimated damages from a 1 percent or 
100-year flood exceed $121,000,000.
    Study Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (Public Law 83-566), the National Resource 
Conservation Service (NRCS) completed an economic feasibility study 
(Watershed Plan) for constructing flood damage reduction facilities on 
Upper Penitencia Creek. Following the 1990 U.S. Department of 
Agriculture Farm Bill, the NRCS watershed plan stalled due to the very 
high ratio of urban development compared to agricultural development in 
the project area.
    The Santa Clara Valley Water District requested that the Corps 
proceed with a reconnaissance study in April 1994 while the NRCS plan 
was on hold. Funds were appropriated by Congress for fiscal year 1995 
and the Corps started the reconnaissance study in October 1994. The 
reconnaissance report was completed in July 1995, with the 
recommendation to proceed with the feasibility study phase. The 
feasibility study, initiated in February 1998, is scheduled for 
completion in 2001.
    Fiscal Year 1999 Funding.--$250,000 was authorized in fiscal year 
1999 for the Upper Penitencia Creek Flood Protection Project for 
project investigation.
    Fiscal Year 2000 Funding Recommendation.--Funding Recommendation. 
Based upon the high risk of flood damage from the Upper Penitencia 
Creek and the need to proceed with the feasibility study, it is 
requested that the Congressional Committee support $250,000 in the 
Administration's fiscal year 2000 Budget for the Upper Penitencia Creek 
Flood Protection Project. Statement of
                          llagas creek project
    Background.--The Llagas Creek Watershed is located in southern 
Santa Clara County, California, serving the communities of Gilroy, 
Morgan Hill and San Martin. Historically, Llagas Creek has flooded in 
1937, 1955, 1958, 1962, 1963, 1969, 1982, 1986, 1996, and 1997. The 
January 1997 flood damaged many homes, businesses, and a recreational 
vehicle park located in areas of Morgan Hill and San Martin areas where 
protection is proposed. Overall, the proposed project will protect the 
floodplain from a 1 percent flood affecting more than 1,100 residential 
buildings, 500 commercial buildings, and 1,300 acres of agricultural 
land.
    Project Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (PL 83-566), the National Resource Conservation 
Service (NRCS) completed an economic feasibility study in 1982 for 
constructing flood damage reduction facilities on Llagas Creek. The 
NRCS completed construction of the last segment of the channel for 
Lower Llagas Creek in 1994, providing protection to the project area in 
Gilroy. The Santa Clara Valley Water District is currently updating the 
1982 environmental assessment work and applying for a U.S. Army Corps 
of Engineers (Corps) 404 Permit for the project areas in Morgan Hill 
and San Martin.
    Until recently, the Llagas Creek Project was funded through the 
traditional PL-566 federal project funding agreement with the NRCS 
paying for channel improvements and the Santa Clara Valley Water 
District paying local costs including utility relocation, bridge 
construction, and right of way acquisition. Due to a steady decrease 
since 1985 of annual PL-566 appropriations, the Llagas Creek Project 
has not received adequate funding from U.S. Department of Agriculture 
to complete the PL-566 project. To remedy this situation, the Santa 
Clara Valley Water District has been working with congressional 
representatives to legally transfer the construction authority from the 
Department of Agriculture to the Corps. In order for Congress to 
support this authorization transfer, the Corps must prepare a decision 
documents to accompany the request. Using available fiscal year 1999 
general investigation funds, the Corps will initiate and complete a 
Limited Re-evaluation report, which will function as the decision 
document.
    Fiscal Year 1999 Funding.--No federal appropriation received in 
fiscal year 1999.
    Fiscal Year 2000 Funding Recommendation.--Based upon the high risk 
of flood damage from Llagas Creek, it is requested that the 
Congressional Committee support the addition of $880,000 in the 
Administration's budget to continue construction of the Llagas Creek 
Project.
           santa clara basin watershed management initiative
    Background.--The Santa Clara Basin Watershed Management Initiative 
was spearheaded in 1996 by the U.S. Environmental Protection Agency, 
the State Water Resources Control Board, and the San Francisco Bay 
Regional Water Quality Control Board for the purpose of establishing a 
practical management process to oversee the effort to balance natural 
systems with urban development in the Santa Clara Basin. Recognizing 
the importance of quality of life and diversity, the initiative's goal 
is to establish an on-going process of managing activities and natural 
processes to maximize benefits and minimize adverse environmental 
impacts for the benefit of the community as a whole. The Santa Clara 
Basin Watershed includes areas in northern Santa Clara County which 
drain into San Francisco Bay, and portions of Alameda and San Mateo 
counties.
    The initiative will address the integration of activities within 
the watershed while focusing on water quality protection. Some of the 
specific issues being addressed include land use and development, water 
supply, flood management, environmental restoration, and the regulatory 
process.
    The Santa Clara Valley Water District is one of many stakeholders 
who continue to demonstrate commitment to this multi-year effort by 
providing funds and actively participating with the initiative's Core 
Group and Working Group. Providing the initiative's direction, the Core 
Group includes representatives of the business community, local 
government, environmental groups, agriculture, resource and regulatory 
agencies, and other interested stakeholders.
    The Initiation phase was completed in December 1996, and the 4-year 
planning phase has commenced with a watershed assessment report that 
provides a preliminary assessment of the watershed's condition based on 
available data. The assessment report is scheduled to be completed in 
March 2000. A state of the watershed report describing alternatives to 
managing the watershed is scheduled to be completed in December 2000. 
The final product of the planning phase will be a comprehensive 
watershed management plan, incorporating stakeholder input and 
extensive public outreach, intended to guide watershed activities into 
the next century as the Santa Clara Basin Watershed Management 
Initiative moves into its implementation phase.
    Section 503 of the 1996 Water Resources Development Act, authorizes 
the U.S. Army Corps of Engineers (Corps) to provide technical and 
planning assistance in the development of a watershed plan for the 
Santa Clara Valley. The Watershed Management Initiative has progressed 
to the point where the Corps' participation is now necessary for 
continuing the watershed assessment and addressing pressing regulatory 
issues.
    Fiscal Year 1999 Funding.--No federal appropriation was authorized 
in fiscal year 1999 for the Santa Clara Basin Watershed Management 
Initiative.
    Fiscal Year 2000 Funding Recommendation.--In order to continue the 
initiative's progress to date, it is requested that the Congressional 
Committee support the addition of $300,000 in the Administration's 
fiscal year 2000 budget to cost-share Santa Clara Basin Watershed 
Management Initiative work, including conducting a watershed 
assessment, developing a data management system, identifying project 
alternatives, and directing stakeholder meetings.
                         central valley project
    Background.--The San Luis Unit of the Central Valley Project is 
located near Los Banos on the west side of the San Joaquin Valley in 
Fresno, Kings, and Merced counties. The San Luis Unit is an integral 
part of the Central Valley Project, delivering water and power supplies 
from the American, Shasta and Trinity rivers to users located in the 
service area.
    Specific facilities of the San Luis Unit are owned, operated, and 
maintained jointly with the state of California. These Joint Use 
Facilities consist of O'Neill Dam and Forebay, San Luis Dam and 
Reservoir, San Luis Pumping-Generating Plant, Dos Amigos Pumping Plant, 
Los Banos and Little Panoche reservoirs, and the San Luis Canal. These 
facilities are essential to the State Water Project's ability to serve 
numerous agricultural, municipal, and industrial water users in the San 
Joaquin Valley and Southern California. Funding for the Joint Use 
Facilities are divided to 55 percent state and 45 percent federal, 
under provisions of Federal-State Contract No. 14-06-200-9755, December 
31, 1961.
    Within the Central Valley Project, the Joint Use Facilities of the 
San Luis Unit are an important link to the San Felipe Division, which 
serves as the largest source of water imported into the Santa Clara 
Valley Water District and the San Benito County Water District. All of 
the Central Valley Project water delivered through the San Felipe 
Division must be pumped through O'Neill Dam and Forebay and San Luis 
Dam and Reservoir.
    Project Synopsis.--Annual invoices from the state of California for 
the federal share of operation and maintenance costs average 
approximately $10,000,000. For several years, federal funding was 
inadequate to cover the pro-rated federal share of Joint Use Facility 
costs. The Santa Clara Valley Water District intervened by using the 
contributed Funds Act to direct a $20,000,000 advance payment of its 
Central Valley Project capital costs toward an operations and 
maintenance payment.
    As a contractor of both the Central Valley Project and the State 
Water Project, the Santa Clara Valley Water District hopes to 
expediently resolve the issue of unreimbursed operations and 
maintenance expenses. These expenses are carried by the state without 
interest, seriously impairing the cash flow and financial management of 
the State Water Project.
    In fiscal year 1998, an agreement was reached between the U.S. 
Bureau of Reclamation and project contractors to provide direct funding 
for project conveyance and pumping facilities, reducing annual 
appropriations from approximately $10,000,000 to $3,500,000.
    Fiscal Year 1999 Funding.--$3,500,000 was authorized in fiscal year 
1999 for operations and maintenance of the San Luis Joint Use 
Facilities.
    Fiscal Year 2000 Funding Recommendation.--Based upon past 
expenditures, it is requested that the Congressional Committee support 
$4,525,000 in the Administration's fiscal year 2000 budget to continue 
operations and maintenance of the San Luis Unit Joint Use Facilities.
           san jose area water reclamation and reuse program
    Background.--The San Jose Area Water Reclamation and Reuse Program, 
also known as the South Bay Water Recycling Program, will allow the 
city of San Jose and its tributary agencies of the San Jose /Santa 
Clara Water Pollution Control Plant to protect endangered species 
habitat, meet receiving water quality standards, supplement Santa Clara 
County water supplies, and comply with a mandate from the U.S. 
Environmental Protection Agency and the California Water Resources 
Control Board to reduce wastewater discharges into San Francisco Bay.
    The Santa Clara Valley Water District is participating with the 
city of San Jose in the development of the reclamation and reuse 
program. Toward this end, the Santa Clara Valley Water District is 
assisting the city of San Jose by providing financial support and 
technical assistance, and acting as a liaison for water retailers. The 
design, construction, construction administration, and inspection of 
the program's transmission pipeline and Milpitas 1A Pipeline was 
performed by the Santa Clara Valley Water District under contract to 
the city of San Jose.
    The city of San Jose is the program sponsor for Phase 1, consisting 
of almost 60 miles of transmission and distribution pipelines, pump 
stations, and reservoirs. Completed at a cost of $140,000,000, Phase 1 
is scheduled for full operation in May 1999 with expected deliveries of 
5,000 acre-feet per year of recycled, nonpotable water.
    Phase 2 planning is now underway. A study, to be completed in 1999 
at a cost of approximately $3,500,000, will provide a master plan for 
the years 2005 and 2020. Phase 2's near-term objective is to increase 
deliveries by the year 2005 to 15,000 acre-feet per year.
    In 1992, PL 102-575 authorized the Bureau of Reclamation to work 
with the city of San Jose and the Santa Clara Valley Water District to 
plan, design, and build demonstration and permanent facilities for 
reclaiming and reusing water in the San Jose metropolitan service area. 
The city of San Jose reached an agreement with the Bureau of 
Reclamation to cover 25 percent of Phase 1's costs, or approximately 
$35,000,000; however, federal appropriations have not reached the 
authorized amount.
    Fiscal Year 1999 Funding.--$3,000,000 was authorized in fiscal year 
1999 for project construction.
    Fiscal Year 2000 Funding Recommendation.--It is requested that the 
Congressional Committee support an additional appropriation of 
$7,000,000 to the $3,000,000 included in the Administration's fiscal 
year 2000 budget, for a total of $10,000,000 to fund the Phase 2 study 
and cover congressionally authorized appropriations for Phase 1 work.
                                 ______
                                 
  Prepared Statement of the San Diego, California, Water Reclamation 
                                Program
    The City of San Diego provides water service as well as wastewater 
collection, treatment and disposal service to a growing metropolitan 
area of two million people. The City receives 90 percent of its water 
supply from Colorado River and northern California sources, hundreds of 
miles distant from the City. Located at the tail end of this extensive 
aqueduct supply system, San Diego is most vulnerable to outages or 
reductions in supplies from these sources. In conjunction with its 
wholesale water supplier, the San Diego County Water Authority, the 
City is engaged in a long-term effort to reduce regional reliance on 
imported water supplies. The San Diego Water Reclamation Program is 
critical to the success of this effort.
    The City will have invested over $365,000,000 in water reclamation 
facilities through this fiscal year, and has programmed another 
$70,000,000 in fiscal year 2000 to continue these efforts. Upon 
completion of the water reclamation and recycling projects in the next 
20 years, the City will have well over $1,000,000,000 of capital 
investment in this program. The City's projects include 4 new and one 
expanded water reclamation plants with a combined capacity of 
70,000,000 gallons per day. The 30 mgd North City Water Reclamation 
Plant has been in operation and delivering reclaimed water to customers 
since September 1997, and the 7 mgd first phase of the South Bay Water 
Reclamation Plant is currently under construction. Also included are 
over 125 miles of reclaimed water distribution system pipelines, and a 
groundwater project providing for conjunctive use of reclaimed water 
and other sources of supply.
    Section 1612 of Public Law 102-575, the Central Valley Project 
Improvement Act, authorizes the Secretary of the Department of Interior 
to provide financial support for water reclamation projects in the San 
Diego area. The U.S. Bureau of Reclamation is authorized to participate 
in the planning, design and construction of water reclamation projects 
serving the San Diego area at a federal cost-share of up to 25 percent. 
Based on the criteria established by the Bureau of Reclamation 
regarding funding eligibility, approximately $168,000,000 through this 
fiscal year, and $193,000,000 of the projected expenditures through 
fiscal year 2000 are eligible for federal funding. Nearly half of the 
$1,000,000,000 of projected expenditures over the next 20 years would 
be eligible for the 25 percent federal funding.
    These costs represent a heavy financial burden for the City to bear 
alone. Federal participation will help make this innovative water 
supply program a reality. Therefore, the City of San Diego respectfully 
requests the Committee to recommend appropriating funds in the amount 
of at least $10,600,000 in fiscal year 2000 for the San Diego region 
through the Bureau of Reclamation program.
San Diego Area Water Reclamation Program
    The San Diego Area Water Reclamation Program is an ambitious, long-
term program designed to decrease regional reliance on imported water 
supplies. The Program is a cooperative effort by the cities of San 
Diego, Escondido, and Poway; the Otay Water District; the Padre Dam 
Municipal Water District; the Sweetwater Authority; the Tia Juana 
Valley County Water District; and San Diego County Water Authority. 
Together, these agencies have developed a system of interconnected 
water reclamation projects that will make the best use of existing and 
planned water reclamation facilities and result in a cost effective and 
efficient use of local water resources.
    When completed, the San Diego Area Water Reclamation Program will 
serve an area of more than 700 square miles, from the agricultural 
valleys near the City of Escondido in the north to the expanding 
business centers along the international border with Mexico in the 
south. Ultimately, over 27,000,000,000 gallons (83,000 acre-feet) will 
be added annually to the region's scarce local water supply, more than 
doubling the current average local water supply. Facilities to be 
constructed include up to ten new or expanded water reclamation plants, 
hundreds of miles of reclaimed water delivery pipeline, and a 
groundwater project providing for conjunctive use of reclaimed water 
and other sources of supply.
    Implementation of the San Diego Area Water Reclamation Program will 
produce both economic and environmental benefits. The development of 
local reclaimed water supplies will provide opportunities for 
environmental enhancement projects within San Diego County and reduce 
the demand for imported water from the Sacramento-San Joaquin River 
Delta, an environmentally sensitive water body of national 
significance. The availability of a reliable local water supply is also 
critical to the region's long-term economic health and its ability to 
attract and retain employers. In the near-term, construction of the 
reclamation facilities will stimulate the local economy by creating 
jobs in construction-related industries. After the facilities are 
completed, many high-wage, high-skill jobs will be created in the 
operation and maintenance fields.
    Construction is already under way or completed for a number of 
these reclamation facilities. The City of San Diego has completed the 
construction of its flagship reclamation facility, the 30 mgd North 
City Water Reclamation Plant. Reclaimed water has been delivered to 
numerous customers in the North City area and the City of Poway since 
September 1997. And construction of the City of San Diego's 7 mgd first 
phase of the South Bay Water Reclamation Plant is under way.
    With an annual cost in the range of $900-$1,200 per acre-foot, the 
San Diego Area Reclamation Program is competitive with the development 
of new imported or other local water supplies. However, the level of 
capital investment makes it a heavy financial burden for the local 
agencies. The vast majority of the capital costs would have to be 
funded by local ratepayers. The financial feasibility of this ambitious 
water supply development project, if funded solely with local 
resources, is questionable. Federal participation would provide the 
means to ensure the project is constructed and the benefits realized.
City of San Diego Regional Water Reclamation Project
    The City of San Diego is undertaking a regional water reclamation 
program which will ultimately provide over 19,600,000,000 gallons 
(60,200 acre-feet) of reclaimed water annually to users within the City 
of San Diego and surrounding communities. The proposed regional 
reclamation system will include four new and one expanded water 
reclamation plants: two in northern San Diego, one in central San 
Diego, and two in southern San Diego near the international border with 
Mexico. These water reclamation facilities will serve agricultural, 
commercial, industrial and residential customers through a network of 
over 125 miles of distribution pipeline, as well as a groundwater 
recharge and extraction project providing for conjunctive use of 
reclaimed water and other sources of supply.
Northern/Central Regional Water Reclamation System
    The City of San Diego completed construction of its flagship 
reclamation facility, the 30-million-gallon-per-day (mgd) North City 
Water Reclamation Plant (North City WRP), in April 1997. The North City 
WRP could ultimately provide up to 9,800,000,000 gallons (30,000 acre-
feet) of reclaimed water annually to meet commercial, industrial and 
landscape irrigation demands in northern and central San Diego and the 
southern portions of the neighboring City of Poway. Reclaimed water 
will be delivered to over 750 user sites via an extensive network of 
pump stations and pipelines. The City of Poway has completed a portion 
of its southern reclaimed water distribution system and has been taking 
deliveries from the North City WRP. Initial users in San Diego include 
the internationally known Torrey Pines Golf Course, Marine Corps Air 
Station Miramar, and CalTrans, as well as numerous schools, parks, 
nurseries and residential homeowner associations. The existing North 
City reclaimed water distribution system could be extended to the north 
and the south, and various alternatives are being investigated to 
replace the previously-planned Water Repurification Project, which has 
been discontinued by the City.
    Construction of the North City WRP created badly needed jobs in San 
Diego's construction-related industries. The City estimates that this 
project alone generated 4,400 job-years of work for the local 
community. Construction of the northern/central distribution system is 
expected to generate an additional 4,200 job-years of work. Now that 
the plant is completed, many high-wage, high-skill jobs have also been 
created in the operation and maintenance fields. The development of a 
reliable local water supply will improve the long-term health of the 
San Diego economy by enhancing the region's ability to attract and 
retain employers.
    A future reclamation plant is planned for the commercial center of 
San Diego to supplement reclaimed water from the North City WRP. The 
proposed 8-mgd Mission Valley Water Reclamation Plant (Mission Valley 
WRP) could provide 1,300,000,000 gallons (4,000 acre-feet) of reclaimed 
water annually for the irrigation of schools, parks, commercial and 
tourist facilities, cemeteries, nurseries, golf courses, freeway 
embankments and street medians. This supplemental source of reclaimed 
water would allow the North City WRP to serve new customers in the 
developing communities in northern San Diego.
South Bay Regional Water Reclamation System
    Construction of the North City WRP has been followed by the 
construction of the 7-mgd first phase South Bay Water Reclamation Plant 
(South Bay WRP) near the international border with Mexico. The Phase I 
South Bay WRP will provide almost 2,300,000,000 gallons (7,000 acre-
feet) of reclaimed water annually to commercial, industrial, and 
agricultural users in Southern San Diego County. The South Bay WRP and 
southern distribution system, currently scheduled for completion by 
2001, will complement reclamation projects proposed by Otay Water 
District, the Sweetwater Authority, and the Tia Juana Valley County 
Water District, as well as potentially providing reclaimed water to 
Mexico. A future 8 mgd Phase II of the South Bay WRP could provide an 
additional 2,600,000,000 gallons (8,000 acre-feet) of reclaimed water 
annually.
    A future 12 mgd Otay Valley Water Reclamation Plant is also planned 
to provide additional reclaimed water supplies for the southern service 
area.
San Pasqual Regional Water Reclamation and Groundwater Project
    The City of San Diego recently completed a comprehensive Water 
Resource Management Plan for the San Pasqual Valley. The San Pasqual 
Valley (Valley) is an agricultural preserve located within the 
incorporated limits of the City of San Diego. The majority of the land 
is owned by the City of San Diego and is located between the City of 
Escondido to the north and the community of Rancho Bernardo and City of 
Poway to the south. Based on recommendations resulting from the 
Management Plan, San Diego plans to upgrade the existing 1 mgd San 
Pasqual Reclamation Plant to 5 mgd. The reclaimed water from the 
treatment facility would provide a reliable and noninterruptible water 
supply for agricultural irrigation purposes within the Valley and 
residential and commercial markets within the surrounding community of 
Rancho Bernardo and the northern region of the City of Poway. The 
reclaimed water would also be recharged into the 50,000 acre-foot 
alluvial groundwater basin within the Valley. Groundwater would then be 
extracted and used as peaking water for the reclaimed system in the 
summer months, as well as for domestic potable water supply.
    The expanded San Pasqual Water Reclamation Plant would include 
advanced water treatment in addition to tertiary treatment. Injection 
of the high quality water from the plant would reduce the salinity of 
the groundwater within the basin. This will enhance sensitive 
environmental habitats as well as help farmers reliant on groundwater 
supplies remain economically viable and maintain the San Pasqual 
Valley's agricultural identity. This groundwater/reuse regional project 
will add approximately 2,600,000,000 gallons (8,000 acre-feet) annually 
to local water supplies. Implementation of the project will be subject 
to funds being made available.
    The estimated costs (in 1999 dollars) which are eligible for Bureau 
of Reclamation Title XVI funding for the City of San Diego Water 
Reclamation Program are as follows:

Northern/Central Regional Water Reclamation System:
    North City WRP......................................     $52,379,000
    North City WRP Demineralization Facilities..........      10,500,000
    Mission Valley WRP..................................      25,541,000
    Northern/Central San Diego Distribution System......     233,914,000
                    --------------------------------------------------------
                    ____________________________________________________
        Subtotal Northern/Central Regional System.......     322,334,000
South Bay Regional Water Reclamation System:
    South Bay WRP.......................................      33,990,000
    Southern San Diego Distribution System..............      25,768,000
    Otay Valley WRP.....................................      14,880,000
                    --------------------------------------------------------
                    ____________________________________________________
        Subtotal South Bay Regional System..............      74,638,000
San Pasqual Regional Water Reclamation/Groundwater 
    Project.............................................      63,854,000
                    ========================================================
                    ____________________________________________________
        Total City of San Diego Water Reclamation 
          Program.......................................     460,826,000
                                 ______
                                 
  Prepared Statement of Tib Belza, Chairman, Yuba County Water Agency
Request
    Please appropriate $700,000 for fiscal year 2000 for the U.S. Army 
Corps of Engineers (USACE) for preconstruction engineering and design 
for the Yuba River Basin, California, levee flood protection 
improvements.
Issue
    The USACE has completed the Draft Feasibility Report, Yuba River 
Basin Investigation, California, January 1998. The report identifies 
federal interest in approximately $26,000,000 of improvements to 
existing levees. To keep the effort to provide critically needed higher 
levels of flood protection for the area moving forward, the USACE has 
identified that they need $700,000 of federal funding in fiscal year 
2000. The California State Reclamation Board is on record as supporting 
this levee improvement work, and the Yuba County Water Agency (YCWA) 
Board has committed money that is in hand for the local share of this 
critically needed flood protection work.
Identified Levee Improvements that are Needed
    The USACE recommended plan involves constructing or deepening 6.7 
miles of slurry walls, deepening 9 miles of interior toe drains and 
constructing or modifying 9.5 miles of berms along section of the Yuba 
and Feather Rivers and constructing about 5 miles of slurry walls and 
berms along the ring levee around the City of Marysville. The proposed 
work has an overall benefit-cost ratio of 2.6.
Flood Protection Need
    The City of Marysville is located at the confluence of two major 
California Rivers, the Feather and the Yuba. Historically the area on 
the average has been subject to major floods about every 8.5 years. 
During the the past 50 years, the area has had five major river floods, 
resulting in a total of 43 deaths and an estimated total damage cost of 
$818,000,000 when brought to 1997 dollars. None of these floods have 
been from levee overtopping, all have been the result of levee 
failures. The most recent major Yuba County flood in January 1997, took 
3 lives, destroyed in excess of 800 homes, flooded 16,000 acres and 
resulted in the largest evacuation in California history. An estimated 
100,000 people were evacuated as a result of this flood. The 
environmental damage was enormous, including vast destruction of 
designated habitat for endangered species.
    Yuba County has probably done more to provide flood protection for 
itself than any County in California. Unfortunately Yuba County is 
consistently in the bottom three counties for per capita income in 
California. Substantial efforts are continuously being undertaken to 
bring economic development to the area, but each time progress is being 
made, another flood occurs, scaring away potential investors.
Congressional Support Leading to Where We Are
    In 1988 Congress appropriated $500,000 for a USACE Yuba River Basin 
Flood Control Reconnaissance Study. The Reconnaissance Study identified 
federal interest in levee improvements and recommended a Feasibility 
Study. In 1991 the USACE undertook a $2,100,000 Feasibility Study that 
ultimately cost $2,600,000. Half the cost of the Feasibility Study was 
non-federal. The Feasibility Study has identified federal interest in 
approximately $26,000,000 in levee improvements. The $700,000 being 
requested is part of the federal share of levee improvement work 
identified in the recently completed Feasibility Study that has been 
underway since 1991. Since 1988, $1,800,000 in federal funds and a 
total of $3,100,000 have been spent identifying the problem. It is now 
time to move forward with some fixes on the ground.
    On behalf of the flood devastated people of Yuba County, I urge 
that you find a way to provide the USACE with the $700,000 they have 
identified is needed to keep urgently needed flood protection 
improvements for our County moving forward. We are grateful for the 
financial assistance Congress has provided in the past. Thank you.
                                 ______
                                 
  Prepared Statement on Behalf of the Nuisance Flooding Near the 3B's 
 Portion of the Butte Basin Overflow, Sacramento River, Butte County, 
                               California
    Gentlemen: This project directly affects properties in Butte, Glenn 
and Colusa Counties, as well as the Butte Basin Overflow flood relief 
structure for the Sacramento River.
    Nuisance flooding near the 3B's structure, on the Sacramento River 
north of Ord Ferry Road, has been reported for more than 15 years. 
Butte County has noted a multiplicity of flooding problems in the area, 
bounded by the Sacramento River Big Chico Creek, River Road, Little 
Chico Creek and Ord Ferry Road. Unfortunately, we do not have the 
resources to define the source of all of the problems or to provide 
solutions.
    The most notable and destructive problem is nuisance flooding that 
crosses Ord Ferry and River Roads, when the Ord Ferry Gage on the 
Sacramento River reads between 110, and 114 feet. The Butte Basin flood 
relief facilities are designed to overflow when the Ord Ferry Gage 
exceeds 114 feet. This flooding interrupts interstate commerce closing 
and damaging roads, as well as damaging crops and prohibiting their 
planting/harvesting in all three counties. This also fills the Butte 
Basin Overflow facility, which reduces its flood holding capacity when 
the real flood hits.
    Butte County is requesting a Section 205 Reconnaissance 
Investigation by the Reclamation Board and U.S. Army Corps of Engineers 
to define the problems and solutions.
    If you have any additional questions please contact Stuart Edell, 
Butte County Public Works, 7 County Center Drive, Oroville, CA 95965, 
Telephone (530) 538-7266, FAX (530) 538-7683.
                                 ______
                                 
 Prepared Statement on Behalf of the Cherokee Canal, Sediment Removal 
             and Streambed Alteration Project, Butte County
    Gentlemen: This project affects properties in central Butte County, 
between Highway 70 at Pentz Road and Highway 162 at Butte Creek.
    Changes in environmental policies in the last 10 years have 
severely attenuated the mining practices, which have abated the excess 
sediment transport, which is the source of the problem. The sediment is 
the remains of the hydraulic mining operations by the Cherokee Mine in 
the late 1800's. Winter storms transport this sediment from the 
foothills to the flat valley floor where it is deposited in the 
Cherokee Canal Flood Control Project. The excess sediment fills the 
flood control facilities, which reduces their capacity and endangers 
the lives and properties of the resident of Butte County.
    The potential loss of prime agricultural land combined with the 
loss of the Agricultural Experimental Station (the primary source of 
rice seed in California), and the potential pollution from inundation 
fertilizers is too great of a hazard to ignore.
    Re-institution of environmentally sound mining practices upstream, 
combined with a downstream excess sediment removal program, is a 
potential solution. It should reduce the maintenance costs and resolve 
the downstream problem of repeated disturbances to habitat for excess 
sediment removal.
    Butte County's goal is to request a Reconnaissance Investigation by 
the Reclamation Board and U.S. Army Corps of Engineers, looking toward 
an 1135 study.
    If you have any additional questions please contact Stuart Edell, 
Butte County Public Works, 7 County Center Drive, Oroville, CA 95965, 
Telephone (530) 538-7266, FAX (530) 538-7683.
                                 ______
                                 
 Prepared Statement of the Department of Water and Power, City of Los 
                                Angeles
    The Department of Water and Power of the City of Los Angeles 
(Department) is the largest municipal utility in the United States 
serving a city of 3,700,000. The Department has traditionally relied 
heavily on imported sources of water to meet the City's needs. Imported 
water continues to be a primary supply. However, drought conditions, 
increased environmental concerns, and limitations on the development of 
additional supplies have led Los Angeles and other cities to utilize 
water conservation and water recycling as alternatives to importing 
more water. The Department's goal is to displace up to 10 percent of 
the city's water supply needs with recycled water by 2010.
    In support of this goal the Department respectfully requests the 
subcommittee's approval and support of an appropriation of $7,500,000 
for the Los Angeles Area Water Reclamation Program as contained in the 
President's budget for fiscal year 1999-00. The budgeted amount for the 
city's East Valley Water Recycling Project (reference Grant Agreement 
No. 1425-5-FG-30-00070) and for the Terminal Island (Los Angeles 
Harbor) Water Recycling Project ( reference Draft Cooperative Agreement 
No. 1425-8-FC-30-00031) is $6,580,000. These projects were authorized 
pursuant to Section 1613 of Public Law 102-575, the Reclamation 
Projects Authorization and Adjustment Act of 1992. Included within this 
budget is $920,000 for the West Basin Municipal Water District.
    The East Valley project will utilize recycled water to recharge a 
local groundwater basin to supplement the city's drinking water supply. 
About 10 of the 13 miles of pipe and over 95 percent of the pump 
station have been constructed. Over $47,000,000 of the total estimated 
$55,000,000 have been spent. Construction is scheduled to be completed 
in April 1999. Project commissioning and testing will start at this 
time. This is the city's largest water recycling project and the 
cornerstone of the city's water recycling program.
    The Terminal Island (Los Angeles Harbor) Water Recycling Project 
will provide advanced treatment of tertiary wastewater and a 
distribution system to deliver recycled water for groundwater recharge, 
and to industrial and irrigation customers. The treatment plant has 
been awarded and construction will begin in May 1999. Design of the 
distribution system is nearly complete. Pipeline construction is 
scheduled to start in March 1999. The total project cost is estimated 
to be $52,000,000. The project will begin supplying water to customers 
by February 2001.
    Mr. Chairman, the Department appreciates the opportunity to submit 
this statement. Thank you for your longstanding support of water 
recycling projects in Southern California.
                                 ______
                                 
Prepared Statement of R. L. Schafer, Secretary/Watermaster, Tule River 
                  Association, Porterville, California
    Mr. Chairman and Members of the Committee: The Tule River 
Association hereby request your consideration of an appropriation of 
$800,000 in the fiscal year 2000 Federal budget for the United States 
Army Corps of Engineers for preconstruction engineering and design 
(PED) of the Tule River, Success Reservoir Enlargement Project. The 
President's budget for this line item contains $150,000 which is 
inadequate for an orderly continuation of design of the project.
    The Draft Success Reservoir Enlargement Feasibility Study and EIS/
EIR are complete, in reproduction and will be issued to the public 
later this month, March 1999. A public hearing has been scheduled in 
Porterville, California on April 22, 1999 and a Chief's report to the 
Congress is scheduled in September 1999. The Success Reservoir 
Enlargement Project is simplistic in design involving raising of the 
existing spillway 10 feet and widening the spillway 165 feet.
    The enlargement project would provide 28,000 acre-feet of 
additional storage space in Success Reservoir and increase the flood 
protection from a 1 in 47 year event to a 1 in 100 year event for the 
City of Porterville and downstream agricultural lands.
    The Corps intends to commence PED in June 1999 and the fiscal year 
1999 appropriation bill contains $100,000 for PED. The estimated Corps 
cost for PED is $1,200,000 which is cost shared 75 percent Federal and 
25 percent non-Federal, and results in a Federal cost of $900,000. The 
Corps has the capability, and as the project is readily designed, PED 
could be completed in fiscal year 2000 with adequate funding.
    The Association urges the subcommittee to support an appropriation 
of $800,000 in fiscal year 2000 for Corps preconstruction engineering 
and design of the Success Reservoir Enlargement Project.
                                 ______
                                 
  Prepared Statement of R. L. Schafer, District Engineer Cawelo Water 
                   District, Bakersfield, California
    Mr. Chairman and Members of the Committee: The County of Tulare, 
Cawelo Water District, North Kern Water Storage District and Semitropic 
Water Storage District request your consideration of an appropriation 
of $500,000 in the fiscal year 2000 Federal budget for the United 
States Army Corps of Engineers for feasibility studies for the Poso 
Creek Stream Group (Deer Creek, White River, Rag Gulch and Poso Creek). 
The President's budget for the Poso Creek Stream Group Corps general 
investigation for fiscal year 2000 contains $60,000 which is 
inadequate.
    The Corps of Engineers are currently developing a reconnaissance 
study of the four streams of the Poso Creek Stream Group for flood 
control, and it is the opinion of the local sponsors, identified above, 
that the Corps will determine that at least two of the stream studies 
will indicate a Federal interest for continuation of a 50/50 cost 
sharing feasibility study.
    Poso Creek, White River and Deer Creek are uncontrolled streams 
that continue to devastate agricultural lands and flood the communities 
of Earlimart, McFarland, Alpaugh and Allensworth. The major arterials 
State Route 99 and SR 43 have been closed, resulting in the disruption 
of commerce by time delaying detours for several days, during the past 
two years due to flooding from the streams under investigation by the 
Corps.
    Since the Corps of Engineers typically expend up to $1,000,000 over 
a two year period for a feasibility study, the fiscal year 2000 federal 
appropriation for the Poso Creek Stream Group needs to be $500,000 for 
an orderly continuation of flood control investigations by the Corps.
    The local sponsors urge the subcommittee's appropriation of 
$500,000 in fiscal year 2000 for Poso Creek Stream Group feasibility 
studies by the Corps.
                                 ______
                                 
Prepared Statement of Ed Henderson, Chairman, Napa County Flood Control 
                    and Water Conservation District
                    napa river flood control project
Background
    The Napa River is the main waterway into which all tributaries on 
the Napa Valley flow. The river reaches its highest flow and the main 
point of concentration of storm water in the heart of the downtown city 
of Napa. The original town of Napa was established at the head of the 
navigable Napa River channel in 1848 as its only port for 
transportation and commerce until the railroad extended from Benicia to 
Napa in 1902.
    The project is located in the city and county of Napa, California. 
The population in the city of Napa, approximately 67,000 in 1994, is 
expected to exceed 77,000 by the year 2000. Excluding public 
facilities, the present value of damageable property within the project 
flood plain is well over $500,000,000. The Napa River Basin, comprising 
426 square miles, ranging from tidal marshes to mountainous terrain, is 
subject to severe winter storms and frequent flooding. In the lower 
reaches of the river, flood conditions are aggravated by high tides and 
local runoff. Floods in the Napa area have occurred in 1955, 1958, 
1963, 1965, 1986 (flood of record), 1995 and 1997. Last February, the 
river rose just above flood stage on three occasions, but subsided 
before major property damage occurred.
    Over the years, the community has expressed a strong desire for 
increased flood management. Since 1962, twenty-seven major floods have 
struck the Valley region, exacting a heavy toll in loss of life and 
property. The flood of 1986, for example, killed three people and 
caused more than $100,000,000 in damage. The town of Napa is 
particularly vulnerable to floods: during a typical 100-year flood, 
more than 325,000 gallons of water flow through the downtown river area 
per second, with the potential of inundating 2,000,000 square feet of 
businesses and offices and nearly 3,000 homes.
    Flood damage in downtown Napa has recurred in January 1993, January 
and March 1995, January 1997 and February 1998, resulting in disaster 
declarations and Damage Survey Reports filed with FEMA, reaffirming the 
urgent need to implement the cost-effective project. In March 1995 and 
January of 1997, additional flood disasters occurred and FEMA is 
reviewing the damage claims.
    Damages throughout Napa County totaled about $85,000,000 from the 
January and March 1995 floods. The floods resulted in 27 business and 
843 residences damaged countywide. Almost all of the damages from the 
1986, 1995 and 1997 floods within the project area would have been 
prevented by the project; this was just the latest in a long history of 
flooding disasters. During the past 36 years of flooding, Napa County 
residents have suffered devastating loss of lives and livelihoods, and 
over $542,000,000 in property damage alone. According to the most up-
to-date models, uncontrolled flooding over the next 100 years will 
likely cause $1,600,000,000 worth of property damage.
    Locally developed flood measures currently in place provide minimal 
protection and include levees, floodwalls, pump stations, upstream 
reservoirs, restrictive flood plain management ordinances, and 
designated flood evacuation zones. Vast areas of flood plain are 
restricted to agricultural and open space uses, precluding development 
that would be damaged by flooding. These local measures still leave 
most of the city of Napa vulnerable to frequent damaging floods. 
Congress has authorized flood control projects since 1944, but due to 
their expense, lack of public consensus on the design and concern about 
environmental impacts, a project has never been realized. The most 
recent Corps of Engineers project plan consisted of a deepening and 
channelization project. In mid-1995, federal and state resource 
agencies reviewed the plan and gave notice to the Corps that this plan 
had significant regulatory hurdles to face.
                     revised plan--project overview
    In an effort to identify a meaningful and successful plan, a new 
approach emerged that looked at flood control from a broader, more 
comprehensive perspective. Citizens for Napa River Flood Management was 
formed, bringing together a diverse group of local engineers, 
architects, aquatic ecologists, business and agricultural leaders, 
environmentalists, government officials, homeowners and renters and 
numerous community organizations.
    Through a series of public meetings and intensive debate over every 
aspect of Napa's flooding problems, the Citizens for Napa River Flood 
Management crafted a flood management plan offering a range of benefits 
for the entire Napa region. The Corps of Engineers served as a partner 
and a resource for the group, helping to evaluate their approach to 
flood management. The final plan produced by the Citizens for Napa 
River Flood Management was successfully evaluated through the research, 
experience and state-of-the-art simulation tools developed by the Corps 
and numerous international experts in the field of hydrology and other 
related disciplines. The success of this collaboration serves as a 
model for the nation.
    Acknowledging the river's natural state, the project utilizes a set 
of living river strategies that minimize the disruption and alteration 
of the river habitat, and maximizes the opportunities for environmental 
restoration and enhancement throughout the watershed. This strategy 
replaces the former project and now entails flood plain acquisition and 
restoration, restoration of a geomorphically stable river channel, 
replacement of bridges and environmentally sensitive stream bank 
treatment in the urban reaches of the city of Napa.
    The revised plan, which provides 100-year protection, has been 
developed by the Corps with the assistance of the community and its 
consultants into the Supplemental General Design Memorandum (SGDM) and 
its accompanying draft Environmental Impact Statement/Environmental 
Impact Report (SEIS/EIR). These reports were released for public 
comment in December of 1997 and are now under final review by Corps 
Headquarters. Land acquisition is planned to begin this spring with a 
goal of a new construction start in the summer of 2000.
    The coalition plan now memorialized in the Corps draft SGDM 
includes the following engineered components: lowering of old dikes, 
marsh plain and flood plain terraces, oxbow dry bypass, Napa Creek 
flood plain terrace, upstream and downstream dry culverts along Napa 
Creek, new dikes, levees and flood walls, bank stabilization, pump 
stations and detention facilities, and bridge replacements. The 
benefits the plan will provide include reducing or elimination of loss 
of life, property damage, cleanup costs, community disruption due to 
unemployment and lost business revenue, and the need for flood 
insurance. The plan will protect access to businesses, public services, 
and create opportunities for recreation and downtown development, 
boosting year-round tourism. As a key feature, the plan will improve 
water quality, create urban wetlands and enhance wildlife habitats.
    The plan would protect over 7,000 people and over 3,000 
residential/commercial units from the 100-year flood event on the Napa 
River and its main tributary, the Napa Creek, and the project has a 
positive benefit-to-cost ration under the Corps calculation. One 
billion in damages will be saved over the useful life of the project. 
The Napa County Flood Control District is prepared to meet its local 
cost-sharing responsibilities for the project. A countywide sales tax, 
along with a number of other funding options, was approved last year by 
a two-thirds majority of the county's voters for the local share. Napa 
is California's third highest repetitive loss community. This plan is 
demonstrative of the disaster resistant community initiative, as well 
as the sustainable development initiatives of FEMA and EPA.
                            project synopsis
Fiscal Year 1999 Funding
    The 1999 budget included $744,000 to prepare plans and 
specifications and finalize the Project Cooperation Agreement for the 
project.
Necessary fiscal year 2000 Funding
    Funding for the Napa River Project during 2000 in the amount of 
$6,500,000 is needed to initiate construction of the project.
Recommendation
    Based on continuing high flood risk and severe damage from the Napa 
River, we request that the Committee support $6,5000,000 to initiate 
construction of the Napa River Flood Control Project.
                            project elements
March 1999
    The current plan, which is the result of the Coalition effort in 
concert with the Corps of Engineers, includes land acquisition for 
river widening, levee and flood wall construction, recreational 
facilities, open space and an oxbow dry bypass, among other items. The 
Corps has incorporated the refined design into its key preconstruction 
documents. Design documents are under final review and the construction 
drawings are being prepared. The County is negotiating the Project 
Cooperation Agreement (PCA) with the Corps and is planning to begin 
acquiring lands this spring. The County is working to ensure that 
construction of the project will start in fiscal year 2000.
                           project components
    The following redesigned project components were developed by the 
Community Coalition, incorporated by the Corps and listed here with a 
brief description. These components are included in the Corps' final 
design plan.
Marsh Plain and Flood Plain Terraces
    Providing room for rising floodwaters, terraces are natural 
attributes of all river systems. Two types of terraces are included in 
the project, beginning near Kennedy Park and extending to the southern 
end of the oxbow. Marsh plain terraces are submerged during the twice-
daily high tide cycles, creating a diverse wetland habitat. Elevated 
slightly from the marsh plain terraces, flood plain terraces are 
inundated by floods every several years, providing room for large 
floods.
New and Restored Wetlands
    Through concerted planting efforts and the removal and lowering of 
levees, the project will create over 650 acres of new wetland habitat, 
including emergent marsh, riparian and seasonal wetlands.
Bank Stabilization and Protection
    Bank stabilization techniques combined with native vegetative cover 
in both marsh and flood plains; maintenance of existing trees; planting 
of new trees; the addition of rock bank toe protection and a grade 
control structure are all included in this component.
Napa Creek Conveyance
    Napa Creek conveyance will be increased by the construction of a 
flood terrace on the north bank of the creek, removal of a number of 
bridges and the construction of culvert dry bypasses.
Napa River Dry Bypass
    A dedicated dry bypass allows the safe flow of excess water and 
serves as recreational and open space during normal flows, when the 
river returns to the meandering oxbow.
Napa Creek Bypass Culverts
    Two concrete dry bypass culverts will be constructed, each designed 
to convey 100-year flood flows.
Roadway Bridge Reconstruction
    Overall, a total of seven bridges will be removed and replaced to 
allow the safe passage of water and debris during a 100-year flood.
Pump Stations and Detention Facilities
    During large events, the new floodwalls and levees will trap local 
storm water. The project includes the construction of three pump 
stations to safely return this water through the floodwall into the 
Napa River.
Floodwalls
    Located at the tops of the riverbanks, floodwalls offer substantial 
protection from large floods.
                    napa valley watershed management
Background
    The Napa Valley watershed faces many challenges and stresses to its 
environmental health and flood management abilities. From a healthy 
river point of view, the Napa River has been on a recovery path since 
its low point in the 1960's, when the last of the native salmon were 
taken from the system by severe water pollution and habitat 
destruction. Steelhead trout have survived as a remnant population of 
two hundred that is presently in need of higher quality and more 
extensive spawning areas for recovery to a significant population. 
Beginning populations of fall run Chinook salmon have taken up 
residence in the watershed in those few areas available for spawning. 
While the chemical and wastewater pollution of earlier years has been 
effectively dealt with, excess sediment is still a critical stress on 
the salmon population, as it is to the spawning and rearing areas of 
the river in the estuarine zone upstream of San Pablo Bay, populated by 
delta smelt, splittail, green sturgeon and striped bass.
    The River has been prioritized as an impaired water body by the 
U.S. EPA and Region II Water Quality Control Board because of the 
sediment production. The excess sediment generated in the watershed 
suffocates spawning areas, reduces the stream's flood-carrying ability, 
fills deep pools, increases turbidity in the stream and estuary, 
carries with it nutrients that bring significant algae blooms during 
the summer and fall, and changes the morphological balance of the 
streams and river toward more unstable conditions.
    Over time, both private and public diversions and levees have been 
constructed in a chaotic way. The accumulated encroachment has 
constrained the river and its riparian corridor to approximately one 
third of its optimum morphological width for much of its length. The 
Napa Valley has also been extensively drained in the last century, 
eliminating nearly all of the sloughs and extensive wetlands that once 
covered the valley floor. Combined with increasing agricultural and 
urban development, the narrowed channel and loss of wetlands has 
greatly changed the river and its major tributaries, limiting its flood 
management capabilities. The river now regularly scours extensively on 
both bed and banks, generating large amounts of sediment that settle in 
the lower river and estuary, only to be stirred and moved by the tides 
during the dry season. Loss of tidal wetlands in the lower river due to 
70 years of dike construction has resulted in a much smaller area to 
disperse sediment, exacerbating losses in all types of riverine and 
estuarine-related complex habitats in the system.
    In an effort to address these conditions and to develop local tools 
for improving natural resource management, Napa County Resource 
Conservation District is proceeding with a local effort entitled the 
Napa River Watershed Stewardship program. This project, which has 
recently received funding through the CALFED Category III Program, is 
intended to address a broad range of ecological and biological values 
in the Napa River watershed, including steelhead and salmon 
populations, and improved wetlands and flood plain functions.
    One of the key elements of the program, from the Napa County Flood 
Control District's perspective, is the watershed monitoring and 
computer modeling of watershed functions. Their goal is to use these 
modeling and monitoring efforts to form strategies in developing flood 
management and restoration approaches for the upper Napa Valley 
watershed. The overall project is intended to extend the implementation 
of the recommendations included in the Napa River Watershed Owner's 
Manual, a framework for watershed management for the Napa River basin. 
It will address the issues of habitat and fishery degradation, and will 
enhance and expand riparian, riverine, estuarine, and freshwater 
aquatic habitats for species. It will provide services to the project 
collaborators in the form of training, education, computer-assisted 
design and modeling of enhancement projects, and financial assistance 
for implementation. It will also provide training in specific project 
monitoring, as well as general watershed monitoring, to be included in 
the database and GIS at the Resource Conservation District. Services 
will be delivered through work with existing and new local tributary 
stewardship groups throughout the Napa Valley.
    The approach to implementation is the Stewardship Watershed 
Management, which relies on a large degree of participation by 
landowners and residents of tributary and mainstream regions. The 
stewardship process has been very successful in developing and 
supporting local responsibility for natural resources management, with 
a heavy emphasis on monitoring and adaptive management of the resources 
based on monitoring feedback. Planning is done using interest-based 
consensus, with implementation from a wide variety of partners that may 
vary from one specific project to another. Watershed education exchange 
typically takes place through existing groups. Project implementation 
is commonly done by the landowner, whether public or private with 
support from the District, rather than by the district on behalf of the 
landowner.
                                request
    In an effort to develop a complementary approach to this total 
effort, the Napa County Flood Control District is seeking that the Napa 
Valley Watershed Management Study be continued by the Corps of 
Engineers. The authority for this study is the Northern California 
Streams Study Authority stemming from the Rivers and Harbors Act of 
1962, Public Law 87-874. Specifically, the Napa County Flood Control 
District is beginning to work closely with the Corps in examining the 
watershed management needs, including flood control, environmental 
restoration, storm water retention, storm water runoff management, 
water conservation and supply and wetlands restoration in the Napa 
Valley, including the communities of Yountville, St. Helena and 
Calistoga in Napa County. To ensure maximum utility, the District has 
requested the Corps to work closely in this effort with the Napa County 
Flood Control District, the Natural Resources Conservation Service, the 
Napa County Resource Conservation District, the Napa County Farm 
Bureau, the California Department of Fish and Game, the local 
communities, and the Napa River Watershed Task Force, which was 
recently appointed by the Napa County Board of Supervisors to develop a 
collaborative process to assess the watershed management needs of the 
Napa Valley. In particular, the County is requesting the Corps to 
examine the following issues: Up-Valley communities flood protection 
strategies;Hillside erosion mitigation strategies in conjunction with 
the agricultural industry and Groundwater preservation and water supply 
issues
    The study must be conducted in close coordination with the Napa 
County Resource Conservation District's on-going Napa River Watershed 
Stewardship Program.
                            project synopsis
Fiscal Year 1999 Funding
    Congress appropriated $100,000 to initiate the Napa Valley 
Watershed Management Study.
Necessary Fiscal Year 2000 Funding
    Funding for the Napa Valley Watershed Management Study during 
fiscal year 2000 in the amount of $100,000 is needed to have the Corps 
of Engineers continue the study to examine watershed management needs.
                                 ______
                                 
         Prepared Statement of the City of Stockton, California
    The City of Stockton supports the following Corps of Engineers and 
Bureau of Reclamation water, flood control and fishery projects:

Stockton Metropolitan Area....................................  $200,000
Farmington Dam................................................   150,000
San Joaquin Watershed......................................... 2,000,000
Cosumnes and Mokelumne River..................................    50,000
Water Resources Development Act, 1996, Section 206, Aquatic 
    Ecosystem Restoration, Stockton Waterfront................   ( \1\ )
Port of Stockton and San Joaquin River Channel................   150,000
South Delta Barriers..........................................    20,000

\1\ No additional funds requested.
---------------------------------------------------------------------------
                        u.s. corps of engineers
Stockton Metropolitan Area--$200,000
    This project was analyzed by the United States Army Corps of 
Engineers' (Corps) 1997 Reconnaissance Report, which concluded that 
there was a Federal interest in a flood project for the Stockton area. 
During this same period, a levee project was authorized under Section 
211 of the Water Resources Development Act of 1996 for the San Joaquin 
Area Flood Control Agency (SJAFCA) levee project. Before Federal 
dollars can be appropriated to reimburse SJAFCA (up to 75 percent 
reimbursement), a Section 211 Report must be approved by the Secretary 
of the Army. The requirements of this Report, since the project is 
essentially complete, and the funding of the report (potentially 100 
percent local with reimbursement upon completion), are currently under 
negotiation. The President's budget of $200,000 is adequate to complete 
the required study if it is determined that the study can be cost-
shared. The local view is that the Reconnaissance Report by the Corps 
found the project to be highly beneficial and that additional 
expenditures on studies of nearly constructed projects are unwarranted. 
The United States Army Corps of Engineers proposes $1,000,000 of 
additional studies to secure approval of the existing project and to 
analyze the rural areas for a feasible project. The funding in the 
President's budget is adequate to allow completion of the studies 
required. The San Joaquin Area Flood Control Agency will provide local 
funding for this study. The Corp's draft feasibility report is due in 
August 1999, and the final feasibility report is due in March 2000.
Farmington Dam--$150,000
    The study costs for this investigation will determine if a Federal 
interest may exist for converting Farmington Dam into a multiple 
purpose reservoir inclusive of flood control, water supply, groundwater 
recharge, and environmental enhancement. The President has included 
$150,000 in his fiscal year 2000 budget. The current fiscal year 1999 
budget includes $500,000. Since this is a feasibility study, all 
Federal funds must be matched by local funds. The sponsor for this 
study is the Stockton East Water District.
San Joaquin River Watershed--$2,000,000
    The San Joaquin River Comprehensive Study is an ongoing $9,000,000 
study of the water resource's needs of the San Joaquin and Sacramento 
Rivers. Flood control and environmental needs will receive equal 
consideration. We expect setback levees and reoperation of existing 
reservoirs will receive a careful review in this study. A status report 
to Congress is expected to be released this April, which will outline 
$16,000,000 to $20,000,000 of studies to be performed in future years. 
The President approved $3,500,000 million for fiscal year 1999 and 
$2,000,000 for both the San Joaquin and Sacramento River Basin studies. 
At this time, we do not know the exact allocation between each of the 
basin, although 50-50 seems likely. The State is the cost sharing 
partner in these studies.
Cosumnes and Mokelumne Rivers--$50,000
    A reconnaissance study of ecological restoration and non-structural 
flood control improvements is being performed on the Mokelumne and 
Cosumnes Rivers. The current fiscal year 1999 funding is $18,000, and 
the President's fiscal year 2000 budget is $50,000. Separate studies 
and report are being prepared by April 1999 for the Cosumnes River 
(between the Delta and Michigan Bar) and the Mokelumne River (between 
the Delta and Camanche Reservoir).
Water Resources Development Act, 1996, Section 206, Aquatic Ecosystem 
        Restoration--Stockton Waterfront--No additional funds
    The City of Stockton, CalTrans and the Port of Stockton have 
combined to initiate a study to restore the aquatic ecosystem of the 
Stockton Waterfront. The assistance of the Corps of Engineers to study, 
plan and eventually construct improvements will expedite this 
restoration project. An essential element of the study will be the 
development of a model of the channel to determine the appropriate 
level of oxygen required to restore aquatic life and improve water 
quality conditions in the channel. The channel is currently a dead-end 
slough, contaminated by urban storm runoff and boating discharges. 
Potential solutions include the installation of pumps to create flow 
and/or aeration devices to oxygenate the water. This project will not 
only improve water quality but significantly complement economic 
development in downtown Stockton. Additionally, restoring this segment 
of the lower San Joaquin River is consistent with the objectives of 
American Heritage Rivers program, a designation recently given by the 
President to the lower San Joaquin River.
                         bureau of reclamation
South Delta Barriers--$20,000
    The project provides temporary barriers in the south Delta to 
improve water quality. The fiscal year 1999 budget includes funding for 
$16,000 and the President's fiscal year 2000 budget includes funding 
for $20,000.
    The City of Stockton conditionally supports the following project:
                         bureau of reclamation
Bay-Delta Ecosystem Restoration--$95,000,000
    Current year funding is for $143,000,000 and the President's fiscal 
year 2000 budget has included $95,000,000. Funds for this program have 
been used primarily for acquisition of lands and development of the 
habitat. We are concerned with the loss of agricultural lands and the 
lack of accountability with the funds. No documentation of benefits 
will be derived from expenditure of funds. This program does not help 
with water supply. There are no water quality improvement objectives 
and the program does not recognize area of origin protections.
              Resolution No. 99-0108 Stockton City Council
    WHEREAS, during the week of March 22, 1999, appropriate committees 
of the Congress of the United States will conduct hearings to consider 
federal appropriations for water, flood control, and fishery projects 
for fiscal year 2000; and
    WHEREAS, several projects to be considered at said Congressional 
hearings will directly impact the City of Stockton and its environs; 
and
    WHEREAS, the expeditious construction of said projects is required 
to protect the health, welfare and safety of the residents of this 
area; now, therefore,
    BE IT RESOLVED BY THE COUNCIL OF THE CITY OF STOCKTON AS FOLLOWS:
    1. That the City of Stockton does hereby support the appropriation 
by the Congress of the United States of funds for fiscal year 2000 for 
the planning, continuation and completion of flood control and 
reclamation projects, namely: a. Stockton Metropolitan Area, $200,000; 
b. Farmington Dam, $150,000; c. San Joaquin River Watershed, 
$2,000,000; d. Consumnes and Mokelumne Rivers, $50,000; e. Water 
Resources Development Act, 1996, Section 206, Aquatic Ecosystem 
Restoration-Stockton Waterfront, No additional funds requested; f. Port 
of Stockton and San Joaquin River Channel, $150,000; and g. South Delta 
Barriers, $20,000.
    2. That the City of Stockton does hereby support the appropriation 
by the Congress of the United States of funds for fiscal year 2000, 
with conditions, namely: a. Bay-Delta Ecosystem Restoration, 
$95,000,000.
    (1) The City of Stockton is concerned that the CALFED Program 
continues to overlook the need of surface and groundwater supply 
requirements within the County of San Joaquin.
    (2) The City of Stockton is concerned that the CALFED Program does 
not recognize County area of origin protections and there are no water 
quality improvement objectives to improve the water quality of San 
Joaquin County water supplies.
    (3) The City of Stockton is concerned that the CALFED Program does 
not provide documentation of the benefits that will be derived from the 
expenditure of funds, particularly to displace agricultural lands.
    3. That the Statement by the City of Stockton, California, before 
the Committee on Appropriations, Subcommittee on Energy and Water 
Development of the Senate and House of Representatives, is hereby 
approved as the official Statement of the City Council. A copy of said 
document is attached as Exhibit ``A'' and incorporated by this 
reference.
    4. That the Mayor is hereby directed to forward a copy of said 
Statement to the appropriate Congressional Committees and to the City 
of Stockton's representatives in the Senate and House of 
Representatives, and the City Manager will monitor and initiate proper 
follow-up communication and correspondence to reflect the City 
Council's position.
            PASSED, APPROVED and ADOPTED March 2, 1999.

                                   GARY A. PODESTO,
                             Mayor of the City of Stockton.
ATTEST:
     KATHERINE GONG MEISSNER, City Clerk of the City of Stockton
                                 ______
                                 
  Prepared Statement of Jim Venable, Chairman, Board of Supervisors, 
     Riverside County Flood Control and Water Conservation District
Resolution No. 99-5 Supporting Federal Appropriations for Flood Control 
                     Projects for Fiscal Year 2000
    WHEREAS, the United States House of Representatives Committee on 
Appropriations, Sub-Committee on Energy and Water Development, and the 
United States Senate Committee on Appropriations, Sub-Committee on 
Energy and Water Development are holding hearings to consider 
appropriations for Flood Control and Reclamation Projects for fiscal 
year 2000 and have requested written testimony to be submitted to the 
committees prior to March 31, 1999; and
    WHEREAS, the Riverside County Flood Control and Water Conservation 
District supports the completion of construction for the project to 
reduce flooding and bank destruction along the Santa Ana River at Norco 
Bluffs, California; the completion of a feasibility study and 
initiation of design efforts for a flood control project on Murrieta 
Creek, a sub basin of the Santa Margarita River watershed in Riverside 
and San Diego Counties, California; the initiation of a flood control 
reconnaissance study for the San Jacinto River; the continuation of 
construction of the Santa Ana River Mainstem project; and the 
initiation of construction at Prado Dam; now, therefore,
    BE IT RESOLVED by the Board of Supervisors of the Riverside County 
Flood Control and Water Conservation District in regular session 
assembled on February 16, 1999, that they support appropriations by 
Congress for fiscal year 2000 for the following projects:

U.S. Army Corps of Engineers

Santa Ana River at Norco Bluffs: Construction--General..      $2,200,000
Murrieta Creek:
    Feasibility Study--Flood Control....................         232,000
    Preconstruction Engineering & Design................         100,000
San Jacinto River: Reconnaissance Study--Flood Control & 
    Other Purposes......................................         100,000
Santa Ana River Mainstem: Construction--General.........      23,000,000
Prado Dam: Construction--General........................       5,000,000

    BE IT FURTHER RESOLVED that the General Manager-Chief Engineer is 
directed to distribute certified copies of this resolution to the 
Secretary of the Army, Members of the House of Representatives 
Committee on Appropriations and Sub-Committee on Energy and Water 
Development, the Senate Committee on Appropriations and Sub-Committee 
on Energy and Water Development, and the District's Congressional 
Delegation--Senators Dianne Feinstein and Barbara Boxer, Congressmen 
Ron Packard and Ken Calvert, and Congresswoman Mary Bono.
Santa Ana River at Norco Bluffs
    The Santa Ana River passes along the northerly border of the City 
of Norco. The southerly bank of the river is a bluff varying in height 
from 46 to 96 feet above the streambed, atop which is a residential 
neighborhood. The floods of January and February 1969 caused flow 
impingement on the riverbank, which undermined the toe of the slope, 
causing severe bank sloughing. Although 50 to 60 feet of the bluff 
retreated to the south, and no improvements were lost, the threat to 
improvements from future river actions became apparent. The floods of 
1978 and 1980 impinged further, causing another 30 to 40 feet of bluff 
retreat, and the loss of a single family residence.
    Section 101(b)(4) of the Water Resources Development Act of 1996 
provided for the authorization of the project, dependent upon the 
project receiving a favorable Chief's Report. On December 23, 1996, the 
Corps' Chief of Engineers issued a Chief's Report recommending the 
Norco Bluffs project for construction.
    Design of the project by the Corps is nearly complete, and is fully 
funded. Certain geotechnical design considerations have resulted in an 
increased cost for the project. We, therefore, are now seeking the 
Committee's approval of supplemental funding in the amount of 
$2,200,000 in fiscal year 2000 for completion of construction of the 
Santa Ana River at Norco Bluffs Bank Stabilization Project. The 
Riverside County Flood Control and Water Conservation District is fully 
prepared to meet its cost-sharing obligation.
Santa MargaritA Watershed--Murrieta Creek Feasibility Study
    The Santa Margarita Watershed lies in the south and northwesterly 
areas of Riverside and San Diego Counties, respectively. Murrieta Creek 
passes through the cities of Murrieta and Temecula in Riverside County, 
then confluences with Temecula Creek to form the Santa Margarita River 
which flows into San Diego County, through the Camp Pendleton Marine 
Base, and into the Pacific Ocean.
    Murrieta and Temecula experienced severe flood damage in January 
1993, estimated in excess of $10,000,000, from Murrieta Creek overflow. 
Camp Pendleton also suffered extensive flood damage, estimated at 
$88,000,000, to facilities and aircraft due to overflow of the Santa 
Margarita River. For the past several years, a coalition of local 
citizens, community leaders, environmentalists, and developers have 
worked closely with the District to identify solutions to the flooding 
problems within the Murrieta Valley.
    A U. S. Army Corps of Engineers Feasibility Study addressing flood 
control, environmental enhancement, and recreation for Murrieta Creek 
was initiated in April 1998. We request that the Committee approve 
$232,000 in fiscal year 2000 appropriations to complete the Feasibility 
Study for a flood control project on Murrieta Creek within the Santa 
Margarita Watershed.
Murrieta Creek--Preconstruction Engineering & Design
    The District anticipates the Corps completing the Murrieta Creek 
Feasibility Study in February 2000, and issuing a favorable Chief's 
Report in May 2000. The Corps will then be in a position to initiate 
the detailed engineering design necessary to develop construction plans 
and specifications for a Murrieta Creek Flood Control Project. The 
District respectfully requests that the Committee approve a fiscal year 
2000 appropriation of $100,000 for the Corps to initiate the 
Preconstruction Engineering and Design phase for a Murrieta Creek Flood 
Control Project.
San Jacinto River
    The 730-square mile San Jacinto River watershed drains into Lake 
Elsinore in western Riverside County. The San Jacinto River originates 
in the San Jacinto Mountains and passes through the cities of San 
Jacinto, Perris, Canyon Lake and Lake Elsinore. The only major flood 
control structures on the river are levees in the City of San Jacinto 
built by the Corps of Engineers in the early 1960's. In the 30-mile 
reach of the river between Lake Elsinore and the City of San Jacinto, 
only minor channelization exists as the river is characterized by 
expansive overflow areas, including the Mystic Lake area. The San 
Jacinto River has caused major flooding damage to agricultural areas 
and rendered Interstate 215 and several local arterial transportation 
routes impassable. However, the river is an important resource that 
provides water supply, wildlife habitat, drainage and recreation values 
to the region.
    The District is requesting that the Corps of Engineers conduct a 
reconnaissance study of the San Jacinto River between the City of San 
Jacinto and the City of Lake Elsinore to investigate whether there is a 
Federal interest in flood control, environmental enhancement, water 
conservation and supply, recreation and related purposes.
    We wish to request that the Committee approve $100,000 in fiscal 
year 2000 appropriations to undertake a Reconnaissance Study on the San 
Jacinto River. In fiscal year 1999 the House Committee on 
Transportation and Infrastructure through Docket No. 2588, directed the 
Corps to undertake the study, however, the necessary funding was not 
provided as a part of that Resolution.
Santa ANA River--Mainstem
    The Water Resources Development Act of 1986 (Public Law 99-662) 
authorized the Santa Ana River All River project which includes 
improvements and various mitigation features as set forth in the Chief 
of Engineers' Report to the Secretary of the Army. The Boards of 
Supervisors of Orange, Riverside, and San Bernardino Counties continue 
to support this critical project as stated in past resolutions to 
Congress.
    The Local Cooperation Agreement (LCA) was signed in December 1989 
by the three local sponsors and the Army. The first of five 
construction contracts started on the Seven Oaks Dam feature in the 
Spring of 1990. Significant construction has been completed on the 
lower Santa Ana River Channel and on the San Timoteo Creek Channel. 
Construction activities on Oak Street Drain and the Mill Creek Levee 
have been completed. The Seven Oaks Dam construction effort is over 90 
percent complete, and proceeding on schedule. We anticipate 
construction on Seven Oaks Dam to be completed in August of 1999. For 
fiscal year 2000, an appropriation of $3,000,000 is requested to 
address various endangered species issues, including that of the San 
Bernardino Kangaroo Rat, in the Santa Ana River wash in the vicinity of 
the damsite.
    An appropriation of $8,000,000 is being sought to complete 
construction of ``Reach 8'', the last remaining segment of the lower 
Santa Ana River Channel. An appropriation of $5,000,000 is requested to 
initiate construction of ``Reach 9'' (immediately downstream of Prado 
Dam), a section of streambed to receive some floodwall/slope revetment 
work to protect existing development along its southerly bank. The 
removal of accumulated sediment within an already completed section of 
the Santa Ana River Channel near its outlet to the Pacific Ocean, along 
with much delayed landscaping work, will necessitate a fiscal year 2000 
appropriation of $7,000,000 which includes engineering and project 
management support.
    The Prado Dam feature of the Santa Ana River Mainstem project 
continues to move closer to an eventual construction start. Engineering 
design for the dam embankment and outlet works is approximately 90 
percent complete. Design work has been initiated on the various 
interior dikes included in the project, and additional design contracts 
are ready to be let for the balance of engineering work necessary prior 
to construction. A fiscal year 2000 appropriation of $5,000,000 would 
allow the Corps to complete its design efforts on the Prado Dam 
project, including construction plans and specifications in advance of 
awarding construction contracts.
    We, therefore, respectfully request that the Committee support an 
overall $28,000,000 appropriation of Federal funding for fiscal year 
2000 for the Santa Ana River Mainstem project.
                                 ______
                                 
  Prepared Statement of Carl L. Blum, Deputy Director, Department of 
              Public Works, Los Angeles County, California
Background
    Floods are a part of the history of the Los Angeles area. 
Widespread floods have periodically devastated vast areas of the region 
and were responsible for taking lives, damaging property and 
interrupting commerce and trade.
    The U.S. Army Corps of Engineers and County of Los Angeles, acting 
on behalf of the Los Angeles County Flood Control District, have built 
one of the most extensive flood control systems in the world. 
Construction of the major elements of the system began in the 1920s and 
consisted of 20 major dams, 470 miles of open channels, and many other 
appurtenant facilities. Fifteen of these major dams are owned and/or 
operated by the County while the remaining five dams (Hansen, Lopez, 
Santa Fe, Sepulveda and Whittier-Narrows), are owned and operated by 
the Corps. Since the major segments were completed, it is estimated 
that the system has prevented $3,600,000,000 in potential flood damage.
    Development which occurred after World War II exceeded the 
projections the Corps used in the 1930s and has increased runoff to the 
point where, even in a moderate storm, the runoff could exceed the 
design capacity of portions of the system. For example, the lower Los 
Angeles River in the City of Long Beach came close to overtopping in 
1980 from a 25-year flood. A storm of greater magnitude would have a 
tremendous impact, both personal and economic, on Los Angeles County, 
the nation's second largest metropolitan area.
    At the request of the County of Los Angeles, the Corps analyzed the 
adequacy of the existing major flood control facilities serving the Los 
Angeles basin in the LACDA Review study. In 1990, a project to upsize a 
portion of the LACDA system received Congressional approval subject to 
a favorable report by the Chief of Engineers (received in 1995), and 
signature of the Record of Decision by the Secretary of the Army, which 
was obtained in July 1995.
    The final report by the Corps identified 100-year flood damages 
totaling $2,250,000,000 covering an 82-square-mile area which houses 
over 500,000 people. These damages would occur in the heavily-urbanized 
Los Angeles basin, where adequate protection from a 100-year flood was 
previously provided.
    The LACDA project is a critical modification to existing 
facilities. Obtaining funds to do the modification is critical for two 
reasons: The threat of flooding to over one-half million people and the 
large economic impact FEMA's final Flood Insurance Rate Maps (FIRMs) 
have on the overflow area that became effective July 6, 1998.
    Until the project is completed, any delay in construction will 
cause great financial hardship on thousands of people, who thought the 
existing river provided adequate protection and now need to buy flood 
insurance (an impact as high as $65,000,000 annually).
    This project, currently estimated to cost approximately 
$240,000,000, is scheduled to be completed within the next three years, 
pending adequate funding. The following table shows the history of 
federal funding for the project:

------------------------------------------------------------------------
                                                        Expenditure of
       Federal fiscal year          Federal funding    federal funding
------------------------------------------------------------------------
1994-95..........................          $500,000  Initiation of first
                                                      construction
                                                      contract awarded
                                                      in September 1995
1995-96..........................        11,300,000  Continuation of
                                                      first contract
1996-97..........................        14,400,000  Completion of first
                                                      contract and
                                                      initiation of two
                                                      contracts awarded
                                                      in August and
                                                      September of 1996
1997-98..........................        20,700,000  Completion of
                                                      contracts awarded
                                                      in August and
                                                      September 1996,
                                                      and initiation of
                                                      one contract
                                                      awarded in
                                                      February 1998
1998-99..........................        50,000,000  Completion of
                                                      contract awarded
                                                      in February 1998,
                                                      and initiation of
                                                      two new contracts
                                                      awarded in
                                                      September and
                                                      December 1998
------------------------------------------------------------------------

    Three additional construction contracts will be ready for 
advertising later this fiscal year and design of the entire project 
should be completed by the end of 1999.
    In order to complete the project within an appropriate schedule in 
light of the serious flood threat and the devastating financial impacts 
of the mandatory flood insurance premiums, it is critical to maintain 
the level of construction activity at $50,000,000 this upcoming fiscal 
year. As a result, we strongly support the California Water 
Commission's recommendation for $50,000,000 of Federal funds to 
continue construction of the LACDA Project.
                                 ______
                                 
     Prepared Statement of Dick Lyon, Mayor, City of Oceanside, CA
    The City of Oceanside is pleased to submit this request for 
appropriation for the City's Mission Basin Brackish Groundwater 
Desalting Research and Development Project. We would greatly appreciate 
your assistance in funding this important facility.
    The existing Mission Basin Groundwater Desalting Facility has been 
an unqualified success. Since its completion in 1994, the facility has 
produced 2,000,000 gallons per day of superior-quality water from 
previously unusable brackish groundwater. This represents seven percent 
of the City's daily water supply needs--enough water to serve 4,000 
Oceanside households. As our only water source that does not cross 
major earthquake fault lines, it is also a critically-needed emergency 
water supply.
    The Mission Basin Brackish Groundwater Desalting Research and 
Development Project will be a genuine win-win project. It will expand 
the capacity of the facility to 6,200,000 gallons per day, serving 
twenty-two percent of Oceanside residents. By reducing our dependence 
on imported water from the Colorado River and the Sacramento-San 
Joaquin River Delta, Oceanside will be part of the solution to 
California's water supply dilemma. Closer to home, the project will 
significantly increase the reliability of our water supply--an 
essential ingredient in the long-term health of our regional economy. 
When the facility expansion becomes a demonstrable success, the City 
will explore the use of reclaimed water injected into the groundwater 
basin to increase its capacity to 20,000,000 gallons per day.
    The cost of the expansion is estimated at $11,600,000. The 
authorization for this project recommends funding for twenty-five 
percent of 3,000,000 gallons per day of the 4,300,000 gallon per day 
expansion. It is estimated that the 3,000,000 gallon per day expansion 
will cost $8,100,000. Therefore an appropriation of $2,030,000 for the 
3,000,000 gallons per day authorization from the Bureau of Reclamation 
will enable the City to complete the project while reducing the 
financial impact on rate payers, and will advance the City towards our 
ultimate goal of producing 20,000,000 gallons per day. The funding will 
create a ripple effect in Southern California and beyond by 
demonstrating the efficient use of groundwater desalting technology, 
stimulating other agencies to develop their own projects. Ultimately, 
appropriating funds to the City of Oceanside will provide some much-
needed relief to the water supply crisis affecting the entire 
Southwestern United States. Construction is due to begin in mid-1999, 
and to be complete in 2001.
    The City of Oceanside respectfully requests that you appropriate 
$2,030,000 in the fiscal year 2000 Energy and Water Development 
Appropriation bill for this project.
    The City of Oceanside is requesting appropriations of $2,030,000 in 
the fiscal year 2000 budget for the Mission Basin Brackish Groundwater 
Desalting Research and Development Project.
                       appropriation request 1999
    The City of Oceanside is requesting appropriations of $2,030,000 in 
the Fiscal Year 2000 budget for the Mission Basin Brackish Groundwater 
Desalting Research and Development Project.
    Construction cost estimate is $11,600,000.
    Benefits to the City of Oceanside and the Southern California 
Region include the following:
  --Provides an emergency water supply for the City and the Camp 
        Pendleton Marine Corps Base.
  --Creates a highly reliable water supply, which is critical to the 
        region's long-term economic health and its ability to attract 
        and retain businesses.
  --Provides benefits to California and the rest of the nation by 
        reducing the region's demand for imported water from the 
        Colorado River and the environmentally sensitive Sacramento-San 
        Joaquin River Delta.
    The existing Mission Basin Brackish Groundwater Desalting Facility.
Background
    The City of Oceanside owns and operates a 2,000,000-gallon-per-day 
facility that recovers and desalts brackish Groundwater from the San 
Luis Rey Mission Groundwater Basin. Oceanside proposes to expand this 
facility to 6,300,000 gallons per day.
    Water from the Mission Basin was previously considered unusable as 
a municipal water source due to its high salinity and mineral content.
    The current desalting facility produces 2,200 acre-feet of potable 
water annually--enough water to meet the annual needs of 4,000 
households.
    Oceanside's local water supply development has received support 
from many agencies including the State of California, which loaned the 
City $5,000,000 to build the initial small-scale demonstration project.
     proposed brackish groundwater desalting & development project
    The project will increase production capacity of the existing 
desalting facility to 6,300,000 gallons per day, or 6,400 acre-feet per 
year. This new water supply will be sufficient to meet 22 percent of 
the City's average annual water supply needs.
    The project will benefit Oceanside and the larger San Diego region 
by creating a local, highly reliable water supply. Unlike imported 
water, this local water supply does not cross major earthquake fault 
lines to reach consumers. A reliable water supply is critical to the 
region's long-term economic health, and its ability to attract and 
retain businesses.
    The project will also serve as a model for other groundwater 
desalting projects in San Diego County and elsewhere in Southern 
California. The proposed expansion involves the use of Energy Saving 
Polyamide (ESPA) reverse osmosis membrane elements. The membranes offer 
significant savings in both investment and operation expenses that 
exceed other membrane elements currently on the market.
    The Mission Basin Brackish Groundwater Desalting Research and 
Development Project will use reverse osmosis technology to produce 
potable water of higher quality than the City's imported water supply.
    The reverse osmosis process involves pumping water at high pressure 
through semi-permeable membranes. Membrane pores are large enough to 
let water molecules through, but small enough to remove salts, metals, 
and other dissolved impurities.
  --Groundwater pumped from the basin is treated first with chemicals 
        to optimize membrane operations, then filtered.
  --The pretreated water then is pumped through the reverse osmosis 
        membranes to remove all but the smallest molecular compounds. 
        Dissolved minerals and other impurities removed by the reverse 
        osmosis membranes are discharged to the City's ocean outfall 
        for disposal.
  --The water receives additional chemical treatment to meet drinking 
        water standards before it is added to the City's potable water 
        system.
                                 ______
                                 
Prepared Statement of Donald R. Kendall, Ph.D., P.E., General Manager, 
                   Calleguas Municipal Water District
       calleguas municipal water district recycled water program
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to submit this written testimony on the U.S. Bureau of 
Reclamation appropriations for fiscal year 2000. The Calleguas 
Municipal Water District is listed in the Bureau's budget as a ``new 
start'' for Title XVI water recycling funding ($1,500,000).
                          project description
A. Main Features
    The Calleguas Municipal Water District proposes to implement a 
regional water reuse program. The principal objectives of the proposed 
program are: Increase the reliability of water service within the 
District's service area; Assist in achieving regional solutions to 
meeting wastewater discharge requirements; Provide necessary facilities 
to achieve long-term salt balance in the region; and Implement the 
Calleguas Creek Watershed Plan.
    The program is made up of several water recycling projects which 
include wastewater reclamation and groundwater recovery projects which 
will use reverse osmosis (RO) technology for demineralization. The 
treatment facilities will be connected by a Brine Disposal Pipeline 
designed to collect the concentrated effluent from the various 
demineralization facilities which are planned.
    The source of water for the water recycling projects are eight 
wastewater treatment plants located throughout the District's service 
area. The source water for the RO plants will be local brackish 
groundwater high in total dissolved solids (TDS). Most of the area is 
underlain by two aquifer systems and generally the upper aquifer system 
is high in TDS as a result of over extraction, the concentration 
effects of agricultural use, and discharges from the local publicly 
owned treatment works (POTW) that percolate to the upper aquifer 
system.
    The water which will be developed through this program will provide 
a wide range of beneficial potable and non-potable uses and will 
substantially reduce the region's demand for additional imported water 
supplies. The time frame for project implementation extends through the 
year 2020. The individual projects which make up the program include:
    Simi Valley Wastewater Reclamation Project.--The project will 
construct distribution and related facilities to enable the use of 
recycled water produced at the Simi Valley Water Quality Control Plant. 
Ultimate project yield is 5,000 AF.
    Conejo Creek Diversion Project.--This project will construct 
distribution and related facilities to enable the reuse of secondary 
treated wastewater from the City of Thousand Oaks Hill Canyon 
Wastewater Treatment Plant. The secondary effluent is currently 
discharged into Conejo Creek, a tributary of Calleguas Creek. The 
project will construct a diversion structure on Conejo Creek which will 
be used to diver the treated wastewater for deliveries to Pleasant 
Valley County Water District and Camrosa Water District. The two 
Districts will in turn deliver the reclaimed water to their customers 
for use in agricultural and landscape irrigation applications. The two 
Districts, which produce a good portion of their supply from the 
Pleasant Valley Groundwater Basin, will use the recycled water in-lieu 
of pumped groundwater. In exchange, the groundwater will remain in 
storage. The ultimate yield of the project is 14,000 AFY.
    Camarillo Wastewater Reclamation Project Expansion.--The project 
will expand the reuse of recycled water form the Camarillo Wastewater 
Treatment Plant. Recycled water will be used for agricultural and turf 
irrigation. The ultimate yield of the project is 2,840 AFY.
    Oak Park/North Ranch Wastewater Reclamation System Expansion.--The 
proposed project will expand an existing recycled water distribution 
system to enable the additional use of recycled water produced at the 
Tapia Water Reclamation Facility in Los Angels County. The proposed 
expansion will construct facilities to expan d service to an additional 
200 acres within the North Ranch area of Ventura County and will serve 
recycled water to a 27 hold golf course, two public parks, and about 35 
landscape irrigation customers. The additional amount of recycled water 
which will be used is 750 AFY.
    South Las Posas Brackish Groundwater Recovery Project.--This 
project will construct wells, treatment and distribution facilities to 
enable the recovery and use of groundwater from the south Las Posas 
Groundwater Basin. The project will entail the extraction of 
groundwater, desalination, and the conveyance of the product water to 
the Calleguas MWD potable water distribution system for further deliver 
to Calleguas' retail water customers. The ultimate project yield is 
5,300 AFY,
    West Simi Valley Brackish Groundwater Project.--The project will 
construct facilities to enable the recovery of groundwater from the 
western portion of the Simi valley Basin. The extracted and 
demineralized groundwater will be delivered to Calleguas' potable water 
distribution system for delivery to C alleguas' retail water customers. 
The project will convert five existing wells, drill and equip three new 
wells, construct well collection and transmission pipelines, a reverse 
osmosis treatment facility and related transmission distribution 
facilities. The ultimate project yield is 3,400 AFY.
    Thousand Oaks Brackish Groundwater Recovery Project.--The proposed 
project will construct distribution and related facilities to enable 
the recovery of groundwater from the Thousand Oaks Groundwater basin. 
This groundwater currently cannot be used either for potable or 
agricultural applications due to its poor water quality, mostly due to 
the high mineral content. The project will entail the extraction of 
groundwater, blending the groundwater with imported water which is of 
better quality, and the conveyance of the product water to Calleguas' 
distribution system for further deliver to their retail water 
customers. The ultimate project yield is 900 AFY.
    Regional Brine Line Disposal Facility.--The proposed project will 
construct facilities to dispose of brine which will be generated 
through the demineralization of recycled water and brackish 
groundwater. The proposed pipeline will be a regional facility which 
will collect the brine from six exi sting major wastewater treatment 
plants and two proposed groundwater desalination facilities within the 
Calleguas service area. The brine will be conveyed via the regional 
brine line for disposal to the Pacific Ocean via an ocean outfall.
B. Operational Aspects
    The Calleguas Recycled Water Program is a series of projects 
involving wastewater treatment facilities, recycled and potable water 
distribution facilities, brackish groundwater treatment facilities and 
a regional brine line. All of these agencies are participating in this 
regional program: Ventura County Waterworks District No. 8 and No. 1, 
Southern California Water Company, City of Simi Valley, Metropolitan 
Water District of Southern California, Pleasant Valley County Water 
District, Camrosa Water District, City of Thousand Oaks, City of 
Camarillo, Camarillo Sanitary District, City of Oxnard, Oceanview 
Municipal Water District, United Water conservation District, City of 
Port Hueneme, Ventura County Public works Agency, Construction 
Battalion Center at Port Hueneme, California Water Service Company, Las 
Virgenes Municipal Water district, Triunfo County Sanitation District, 
City of Moorpark, and California American Water Company.
C. Schedule
    The Recycled Water Program is comprised of several projects most of 
which will be implemented in phases. It is anticipated that all or most 
of the projects will be implemented by the year 2010. Three of the 
projects are in the advanced stages of implementation. For these 
project, feasibility studies and CEQA compliance documentation have 
been completed and can, therefore, be implemented in 2000.
D. Project Costs
    The capital costs of the proposed program is estimated at 
$161,350,000 million. Table 1 delineates the program cost by project. A 
summary of the project cost is as follows:

Simi Valley Wastewater Reclamation Project..............     $18,600,000
Conejo Creek Diversion Project..........................      23,900,000
Camarillo Wastewater Reclamation Project................       4,400,000
Oxnard Wastewater Reclamation Project...................      97,700,000
OakPark/North Ranch System Expansion....................       2,200,000
Moorpark Wastewater Reclamation Project.................       2,400,000
South Las Posas Groundwater Recovery Project............       9,100,000
West Simi Valley Groundwater Recovery Project...........       6,900,000
Thousand Oaks Groundwater Recovery Project..............       1,500,000
Regional Brine Line.....................................      24,100,000
E. Sources and Status of Nonfederal Funding
    The potential funding sources which have been identified to finance 
the implementation of the water recycling program include: $20,000,000 
USBR Grant; $20,000,000 Proposition 204 Water Recycling Loan; Recycled 
Water Sales--Wholesale; Metropolitan Local Projects Program 
($35,000,000); Calleguas rates and charges (e.g., connections fees, new 
demand charges); Certificates of Participation or Water Revenue Bonds; 
and POTW's contributed funding to avoid nitrification expenses.
                              water supply
A. Amount of Recycled Water Put to Beneficial Use.
    Total ultimate project yield is 54,000 AFY. The recycled water 
produced from these projects will either be utilized for; agricultural 
purposes, landscape irrigation, groundwater recharge or direct 
consumptive use. The irrigation components of the projects increase the 
overall water supply to the region. In-lieu groundwater replenishment 
components of the projects will serve two purposes. First, the 
replenishment of the groundwater basin will aide in the correction of 
the existing groundwater overdraft problem. Secondly, the groundwater 
placed in storage will be subsequently recovered and used as a potable 
supply. The groundwater recovery projects will be put to beneficial use 
groundwater that would otherwise be unusable due to poor water quality 
and will therefore, increase the availability and reliability of the 
region's sources of supply.
B. Describe and Quantify the Demands That Will Be Met With the Recycled 
        Water.
    Calleguas is primarily dependent upon the Metropolitan Water 
District for its water supply. In fact, the District's entire drinking 
water supply is provided by the California State Water Project.
    Since 1964, the Districts population has quadrupled from 138,000 to 
520,000 in 1996 (roughly 75 percent of Ventura County's population. 
Rapid population and economic growth has placed additional demands on 
the District resulting in an increase in annual deliveries from 9,000 
AF to in excess of 95,000 AF in the same period. The projected demand 
for imported supplies in 202 is 148,000 AFY if no additional recycled 
water projects are implemented and 120,000 AFY if a majority of the 
proposed projects are implemented. If the proposed projects are fully 
implemented then Calleguas MWD does not need any additional imported 
supplies from MWD (e.g., Colorado River and SWP). This is very 
significant given the issues with the California 4.4 Plan and the 
CALFED Bay-Delta Program.
C. How Would the Project Reduce Demand on Existing Federal Water Supply 
        Facilities?
    Calleguas' only other water supply alternative is the Metropolitan 
Water District. Metropolitan has two sources of imported supplies, the 
Colorado River and the Sacramento Bay-Delta. In both watersheds the 
Federal government through the US Bureau of Reclamation is the primary 
stakeholder. To the extent Calleguas can lessen its demand for imported 
water from Metropolitan by developing local supplies, Metropolitan will 
correspondingly reduce is demand for Federal water through the Colorado 
River Aqueduct and the Sacramento Bay-Delta.
D. Regional or Watershed Perspective?
    The program provides the following water supply and management 
benefits:
  --Enhanced Reliability: By enhancing and preserving the local sources 
        of supply, the program will provide an increased measure of 
        water supply reliability in the event of curtailment of 
        imported water deliveries due to drought or earthquake. This 
        reliability will ensure adequate supplies for thousands of area 
        families and that the region will continue to meet the water 
        needs of various industries. Moreover, the program will 
        guarantee a long-term water supply for agricultural operations 
        in the region.
  --Resource Conservation: Groundwater replenishment of the various 
        aquifer systems underlying the Calleguas' service area will 
        alleviate the prevailing overdraft condition and will also aide 
        in the mitigation and prevention of further seawater intrusion.
  --Increased Level Of Independence: Since the early 1960's, much of 
        urbanized Ventura County has become exceedingly reliant upon 
        imported water deliveries. The program will assist the region 
        in maximizing beneficial use of local water resources thereby 
        decreasing the region's precarious dependence on unpredictable, 
        imported water deliveries.
  --Delta Protection: Development of the program will benefit 
        biological resources in the Sacramento bay-Delta due to reduced 
        demands for imported water. To the degree that recycled water 
        is utilized to supplant imported deliveries, an equivalent 
        amount of water could remain in the Delta to aid in sustaining 
        sensitive species and habitat.

    TABLE 1.--CALLEGUAS MUNICIPAL WATER DISTRICT SUMMARY OF WATER RECYCLING PROGRAM, YIELDS AND CAPITAL COSTS
----------------------------------------------------------------------------------------------------------------
                                                                                                     Estimated
                       Project Name/Phase                          Project Code    Project Yield      Project
                                                                                       (AFY)       Capital Costs
----------------------------------------------------------------------------------------------------------------
                     WASTEWATER RECLAMATION
 
Simi Valley Wastewater Reclamation Project:
    Phase I.....................................................        RW.01.01             250      $1,500,000
    Phase II....................................................        RW.01.02           3,250     $15,000,000
    Phase III...................................................        RW.01.03           1,500      $8,500,000
                                                                 -----------------------------------------------
      Subtotal..................................................             N/A           5,080      25,000,000
                                                                 ===============================================
Conejo Diversion Project (Hill Canyon Wastewater Reclamation
 Project):
    Phase I.....................................................        RW.02.01           6,000     $16,500,000
    Phase II....................................................        RW.02.02           8,000      $9,500,000
                                                                 -----------------------------------------------
      Subtotal..................................................             N/A          14,000     $26,000,000
                                                                 ===============================================
Camarillo Wastewater Reclamation Project:
    Phase I.....................................................        RW.03.01           1,710      $1,200,000
    Phase II....................................................        RW.03.02           1,130      $3,000,000
                                                                 -----------------------------------------------
      Subtotal..................................................             N/A           2,840      $4,200,000
                                                                 ===============================================
Oxnard Wastewater Reclamation Project:
    Phase I.....................................................        RW.04.01           5,000     $45,000,000
    Phase II....................................................        RW.04.02           5,000     $10,000,000
    Phase III...................................................        RW.04.03          10,000      $5,000,000
                                                                 -----------------------------------------------
      Subtotal..................................................             N/A          20,000     $60,000,000
                                                                 ===============================================
Oak Park/North Ranch Wastewater Reclamation System Expansion:           RW.05.02             750      $1,750,000
 Phase II.......................................................
                                                                 ===============================================
Moorpark Wastewater Reclamation Project:
    Phase I.....................................................        RW.06.01             757      $3,000,000
    Phase II....................................................        RW.06.02             953      $3,000,000
                                                                 -----------------------------------------------
      Subtotal..................................................             N/A           1,710      $3,000,000
                                                                 ===============================================
      Total Wastewater Reclamation..............................             N/A          44,300    $119,950,000
                                                                 ===============================================
              BRACKISH GROUNDWATER RECOVERY PROJECT
 
South Las Posas Brackish Groundwater Recovery Pro-  ject........        GW.01.01           5,258     $11,500,000
West Simi Valley Brackish Groundwater Recovery Pro-  ject.......        GW.02.01           3,382      $7,100,000
Thousand Oaks Brackish Groundwater Recovery Project.............        GW.03.01             900        $300,000
                                                                 -----------------------------------------------
      Total Brackish Groundwater Recovery Projects..............             N/A           9,540     $18,900,000
                                                                 ===============================================
                     REGIONAL BRINE DISPOSAL
 
Regional Brine Disposal Pipeline:
    Phase I.....................................................        BD.01.01             N/A     $18,250,000
    Phase II....................................................        BD.01.02             N/A      $4,250,000
                                                                 -----------------------------------------------
      Total Regional Brine Disposal Pipeline....................             N/A             N/A     $22,500,000
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
 Prepared Statement of Michael D. Armstrong, General Manager, Monterey 
                 County Water Resources Agency (MCWRA)
    Mr. Chairman, thank you for the opportunity to provide testimony 
for inclusion in the hearing record of the fiscal year 2000 Energy and 
Water Development Appropriations bill. The people of the Salinas Valley 
in California's 17th Congressional District appreciate your willingness 
to accept our statements in support of the Castroville Seawater 
Intrusion Project. I would further like to express our deep 
appreciation for this Subcommittee's efforts on past Energy and Water 
Development Appropriations bills. I am pleased to report that the 
project is complete and operational.
    As with the past five years the Monterey County Water Resources 
Agency has worked diligently to present the Subcommittee with an fiscal 
year 2000 funding request that is supported by the Administration as 
well as all the other Small Reclamation Loan Program participants. 
Through close consultation with the Bureau of Reclamation and other 
Program participants, we have developed the funding plans that were 
included in the President's fiscal year 2000 budget for the Public Law 
84-984 Small Reclamation Loan Program. I therefore respectively request 
that the Subcommittee provide the full Administration request for the 
project of $2,600,000.
    This is the sixth year of an eight year fiscal strategy designed to 
meet the requirements of all the projects in the Program while 
recognizing the fiscal constraints facing all levels of government. 
Originally, the Program was to provide all appropriations ($16,500,000) 
over a three year period. During the past five years this Subcommittee 
provided $9,264,000 for our project. The current appropriation amount 
of $2,600,000, when combined with other federal funding which is 
available from the U.S. Treasury in the amount of $4,550,000 pursuant 
to the Federal Credit Reform Act of 1990, should yield a total loan 
amount of $7,150,000 for fiscal year 2000 that will allow the project 
to proceed on schedule.
    The Monterey County Water Resources Agency (MCWRA) is a local 
government entity formed under the Monterey County Water Resources 
Agency Act. It is an agency with limited jurisdiction involving matters 
related primarily to flood control and water resources conservation, 
management, and development. The Salinas Valley is a productive 
agricultural area that depends primarily on ground water as a water 
supply. The combination of the Valley's rich soils, mild climate, and 
high quality ground water makes this Valley unique among California's 
most fertile agricultural lands and has earned the Valley the 
distinction as the ``Nation's Salad Bowl''. As agricultural activity 
and urban development have increased in the past forty years, ground 
water levels have dropped allowing seawater to intrude the coastal 
ground water aquifers. Seawater intrusion is extensive adjacent to the 
coast near the town of Castroville. The Castroville Seawater Intrusion 
Project will provide 19,500 acre-feet of recycled water annually for 
agricultural irrigation to over 12,000 acres and help solve the 
seawater intrusion problem by greatly reducing groundwater pumping in 
the project area. The Castroville Seawater Intrusion Project is an 
essential component in the MCWRA's plan to deal with basin-wide ground 
water overdraft and seawater intrusion.
    The amount requested in fiscal year 2000, when combined with the 
additional Treasury portion, is intended to fulfill the Bureau's sixth 
year loan commitment for assistance to construct the project. As stated 
above, the funding request that we anticipate is the result of a 
lengthy and complex financial agreement worked out with the other Loan 
Program participants and the Bureau. The agreement recognized the tight 
federal budgetary constraints and represents the absolute minimal 
annual amount necessary to proceed with the project. The MCWRA has been 
extremely accommodating of the Bureau's budgetary constraints and has 
agreed to expend considerable local funds to bridge the federal 
government's budgetary shortfall. Any additional cuts in federal 
funding will jeopardize the complex financing plan for the project.
    In August 1992, the original loan request was submitted to the 
Bureau. Subsequent approval was received from the Secretary of the 
Interior in May 1994. Through extensive discussion and negotiations 
between the MCWRA and the Bureau, a project financing plan was created. 
The Bureau made it quite clear that the original provisions in the loan 
application of full disbursement during the three years of construction 
could not be met due to federal budget shortfalls. As defined in the 
repayment contract, the Bureau will disburse funds to the MCWRA over an 
eight-year period. This means that the MCWRA will receive these funds 
for five years after the project is operational. The fiscal year 1999 
funding provided monies for the second year after completion of the 
project. The MCWRA had to acquire ``bridge financing'' to meet the 
needs of the Castroville Seawater Intrusion Project construction costs. 
Even though the additional private debt service has increased the 
project costs, the critical problem of seawater intrusion demanded that 
the project proceed. The Bureau loan is a crucial link in project 
funding, and it is imperative that the annual appropriations, even at 
the planned reduced rate over eight years, continue. Federal 
appropriations have been received in fiscal years 1995, 1996, 1997, 
1998, and 1999 as shown in the table below and must continue in 
subsequent years in accordance with the negotiated agreement in order 
for the projects to be successful. The federal funds requested under 
the Public Law 84-984 program will be repaid by landowners in the 
Salinas Valley with assessments that are currently in place. The MCWRA 
has spent approximately $36,000,000 of its own funds getting to this 
point.

                                           FEDERAL APPROPRIATIONS \1\
                                              [Millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                      Received   Received   Received   Received   Received  Requested
                                      in 1995    in 1996    in 1997    in 1998    in 1999    for 2000    Total
----------------------------------------------------------------------------------------------------------------
CSIP...............................      1.064        1.5        2.0        2.1        2.6        2.6     11.864
----------------------------------------------------------------------------------------------------------------
\1\ Does not include Treasury portion of $9.092 for CSIP.

    Mr. Chairman, we urge you and the members of the Subcommittee to 
give your continued support to the Small Reclamation Program and we 
urge the inclusion of funds for the Castroville Seawater Intrusion 
Project. Without your continued support, we will not be able to realize 
the benefit of the work completed over the past several years and the 
Salinas ground water basin will continue to deteriorate, creating a 
significant threat to the local and state economies as well as to the 
health and welfare of our citizens.
    Again, thank you for your support and continued assistance.
                                 ______
                                 
Prepared Statement of Keith Israel, General Manager, Monterey Regional 
                Water Pollution Control Agency (MRWPCA)
    Mr. Chairman, thank you for the opportunity today to provide this 
testimony for inclusion in the hearing record on the fiscal year 2000 
Energy and Water Development appropriations bill. But most importantly, 
let me express my sincere appreciation for your continued support for 
the Small Reclamation Projects Loan Program, and specifically, the 
funding for the Salinas Valley Reclamation Project. During the past 
five years, this subcommittee provided $6,500,000 for our project. I am 
pleased to report that the funds appropriated thus far have been well 
spent on our project, which began construction in August 1995. The new 
facility was dedicated in October 1997 with full operation beginning in 
April 1998, and since full operation, the plant has produced somewhat 
over 5,000 acre-feet (AF) of recycled water.
    The project will ultimately provide 19,500 acre-feet of recycled 
water per year to land south and west of Castroville where abandonment 
of wells threatens agricultural production and the loss of a portion of 
rural America. It will also reduce discharge of secondary treated 
wastewater to the recently created Monterey Bay National Marine 
Sanctuary. In addition, the California State Water Resources Control 
Board specifically indicated its strong support for the Salinas Valley 
Reclamation Project in a prior letter to the U.S. Bureau of 
Reclamation.
    The Monterey Regional Water Pollution Control Agency (MRWPCA), a 
joint-powers entity formed under the laws of the State of California, 
was created in 1971 to implement a plan that called for consolidation 
of the Monterey Peninsula and northern Salinas Valley wastewater flows 
through a regional treatment plant and an outfall to central Monterey 
Bay. The plan also required studies to determine the technical 
feasibility of using recycled water for irrigation of fresh vegetable 
food crops (artichokes, celery, broccoli, lettuce, and cauliflower) in 
the Castroville area. These studies were initiated in 1976 and included 
a five-year full-scale demonstration of using recycled wastewater for 
food crop irrigation. California and Monterey County health departments 
concluded in 1988 that the water was safe for food crops that would be 
consumed without cooking. Subsequently, the Salinas Valley Seawater 
Intrusion Committee voted to include recycled water in their plan to 
slow seawater intrusion in the Castroville area.
    In addition, a supplemental water testing program (October 1997 
through March 1998) was initiated to confirm the new plant's removal of 
what are termed ``emerging pathogens.'' These organisms, which include 
Cryptosporidium, Giardia, Cyclospora, and E. Coli, were not evaluated 
in the original five-year field study. The results of the follow-up 
testing program again verified that the water is safe for irrigation of 
food crops.
    As in the past, we have been in close consultation with the Bureau 
of Reclamation and the other Small Reclamation Projects Loan Program 
participants in an attempt to provide the Committee with a consensus 
budget request that has the support of the Administration and the Loan 
Program participants. Based on these discussions, the Administration 
requested, with our support and endorsement, sufficient funding for the 
Salinas Valley Reclamation Project as part of the Bureau of 
Reclamation's Public Law 84-984 Small Reclamation Projects Loan Program 
for continuation of loan obligations. This appropriation amount, 
$1,700,000, when combined with other federal funding which is available 
from the U.S. Treasury pursuant to the Federal Credit Reform Act of 
1990, will yield a total loan amount that we believe will meet the 
federal government's commitment for fiscal year 2000. The amount 
requested, when combined with the additional Treasury portion, is 
intended to fulfill the Bureau's sixth-year loan commitment for 
assistance to construct the project.
    As I indicated, the funding request is the result of a lengthy and 
complex financial agreement worked out with the other Loan Program 
participants and the Bureau. The agreement represents the absolute 
minimum annual amount necessary to continue with the project. The 
MRWPCA worked under the premise of accommodating the Bureau of 
Reclamation's budgetary constraints and is expending considerable local 
funds to bridge the federal government's budgetary shortfall. Any 
additional cuts in federal funding will jeopardize the complex 
financing plan for the project.
    The MRWPCA has received Federal Grant and Loan Funds in Federal 
fiscal year 1995, fiscal year 1996, fiscal year 1997, fiscal year 1998, 
and fiscal year 1999 through February 4, 1999, as follows:

                                           FEDERAL APPROPRIATIONS \1\
                                              [Millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                      Received   Received   Received   Received   Received  Requested
                                      in 1995    in 1996    in 1997    in 1998    in 1999    for 2000    Total
----------------------------------------------------------------------------------------------------------------
SVRP...............................  .........        2.0        1.5        1.3        1.7        1.7        8.2
----------------------------------------------------------------------------------------------------------------
\1\ Does not include Treasury portion of $6,205,000 for SVRP.

    Even though the additional private debt service and bridge 
financing will increase the project costs, the critical problem of 
seawater intrusion demands that the project be continued. The Bureau of 
Reclamation loan is a crucial link in project funding, and it is 
imperative that annual appropriations continue, even at the planned 
reduced rate over eight years. The federal funds requested under the 
Public Law 84-984 program will be repaid by landowners in the Salinas 
Valley with assessments that are currently in place. Local funds 
totaling $21,200,000 have already been spent getting to this point.
    Mr. Chairman, we urge you and the members of the subcommittee to 
give your continued support to the Small Reclamation Projects Loan 
Program, and specifically, funding for the Salinas Valley Reclamation 
Project. Your support and continued assistance for this critical 
project is greatly appreciated.
                                 ______
                                 
    Prepared Statement of Bruce George, Manager, Kaweah Delta Water 
                         Conservation District
    Mr. Chairman and Members of the Subcommittee: My name is Bruce 
George, and I am the Manager of the Kaweah Delta Water Conservation 
District in the eastern San Joaquin Valley of California. Thank you for 
the opportunity to present testimony regarding the fiscal year 2000 
budget for the U.S. Army Corps of Engineers.
    The President's fiscal year 2000 budget request for the Corps of 
Engineers includes $582,000 to complete pre-construction engineering 
and design (PED) of a project to increase the water storage capacity of 
Terminus Dam at Lake Kaweah in California's San Joaquin Valley. The 
project would add approximately 43,000 acre-feet of flood control and 
conservation storage space to Lake Kaweah by raising the Terminus Dam 
spillway by 21 feet. The estimated total first cost of the project is 
$35,000,000.
    The President's budget also provides $1,680,000 for ongoing 
operation and maintenance of Terminus Dam in fiscal year 2000. The 
Kaweah Delta Water Conservation District and its project cosponsors 
support these PED and operation and maintenance requests.
    In addition to the amounts proposed in the President's budget, we 
respectfully request a General Construction appropriation of $2,500,000 
to initiate construction of the Terminus spillway project in fiscal 
year 2000 and keep the project on schedule.
    The Corps of Engineers has been actively studying and planning this 
modest project for more than 10 years. During that time, the Kaweah 
Delta Water Conservation District and other local authorities have 
invested $1,800,000 of their owns funds in the planning and development 
process. The State of California is committed to be the lead non-
federal sponsor of the project. Other local sponsors are the counties 
of Kings and Tulare, the City of Visalia and the Tulare Lake Basin 
Water Storage District.
    Under the Corps' current schedule, pre-construction engineering and 
design will be completed in the spring of 2000. With an additional 
appropriation of $2,500,000, the Corps could begin construction work in 
the early summer. A commitment of construction funding for fiscal year 
2000 would save time and money for all parties by allowing formal cost-
sharing agreements to be signed sooner, clearing the way for the 
expenditure of state and local funds for the acquisition of real estate 
and valuable environmental mitigation lands.
    The California Water Commission supports a $2,500,000 General 
Construction appropriation for the Terminus Project in addition to the 
amounts requested in the President's fiscal year 2000 budget for pre-
construction and operation and maintenance. The State of California has 
already appropriated funds for the purchase of mitigation lands, and 
the state and other non-federal sponsors have budgeted their required 
funds for fiscal year 2000.
                               background
    The Kaweah Delta Water Conservation District was formed in 1927 to 
conserve and protect the surface and groundwater of the Kaweah delta. 
The District serves 337,000 acres, which include the cities of Visalia 
and Tulare and several other incorporated and unincorporated areas in 
Kings and Tulare counties. Those two counties consistently rank among 
the most productive agricultural counties in the nation.
    Terminus Dam and Lake Kaweah, located on the Kaweah River three and 
one-half miles east of the District, was completed in 1962 by the U.S. 
Army Corps of Engineers. The purpose of the project is to provide 
storage space for flood protection and irrigation on the Kaweah River. 
The Conservation District manages the irrigation and flood control 
releases for Lake Kaweah, as well as assisting in the conjunctive use 
of the surface and groundwater of the Kaweah delta.
    Flooding downstream from the dam occurs when flows from individual 
creeks blend together and form a sheet flow through urban and 
agricultural areas. Included in the flooded areas are the communities 
of Visalia, Farmerville, Tulare, Ivanhoe and Goshen. Since construction 
of Terminus Dam, 10 damaging floods have occurred, the most recent in 
1997 and 1998.
    Inadequate flood protection and a long-term groundwater overdraft 
in the region have created a need for greater reservoir storage space 
for flood control and irrigation storage. With a maximum capacity of 
143,000 acre-feet, Lake Kaweah currently provides a less than 50-year 
level of flood protection for communities downstream. Raising the 
spillway at Terminus Dam (by the installation of fuse gates) would 
increase the reservoir storage capacity by 30 percent, thus providing a 
much higher level of flood protection for the region.
    California's growing population will place ever-increasing demands 
on its water supply and flood control infrastructure. Improving 
existing facilities such as Terminus Dam is one of the most economical 
and environmentally sensitive ways to meet those new demands. It is 
important for Congress to encourage such projects.
    We are grateful for the Committee's continued support of the 
Terminus project.
                                 ______
                                 
   Prepared Statement of Michael Di Giorgio, Mayor, City of Novato, 
                               California
    Mr. Chairman and Members of the Subcommittee: My name is Michael Di 
Giorgio, and I am the Mayor of the City of Novato, California, located 
20 miles north of San Francisco. Thank you for the opportunity to 
present testimony regarding the fiscal year 2000 budget for the U. S. 
Army Corps of Engineers.
    The City of Novato requests $600,000 in fiscal year 2000 for Phase 
II of the Novato Urban Flood Control Project, a Section 205 small flood 
control project on Rush Creek. Phase II improvements are necessary to 
maximize the value of the Phase I work, for which Congress earmarked 
$350,000 in fiscal year 1999.
    Once completed, the Rush Creek project will resolve chronic 
flooding in the downtown area of the City of Novato. Flooding has 
occurred on Rush Creek in three of the last four rainy seasons, 
damaging residential and commercial property, local infrastructure, and 
jeopardizing public safety.
    Included in the City's scope of work for Phase II of the Novato 
Urban Flood Control project is a new culvert under Olive Avenue, flood 
flow pipes from Olive Avenue to Golden Gate Place, and earth channel 
dredging from Golden Gate Place to the Caltrans U.S. Highway 101 right-
of-way. The City is prepared to cost share this project consistent with 
the authorization.
    The City is optimistic that only one additional year of funding 
will be necessary, beyond the requested appropriation for fiscal year 
2000, to bring Rush Creek flood flows under control. The total cost for 
this project is estimated at $2,000,000, including the local share.
                               background
    In the past, the City of Novato has spent over $9,000,000, from 
property assessments, to pay for local creek improvements and other 
flood control measures. In 1985, a local election approved benefit 
assessment funds to finance flood control improvements for the City of 
Novato. These funds are completely expended with a portion of the work 
left uncompleted. Until the fiscal year 1999 appropriation, no federal 
funds had been utilized for those channel improvements in the City.
    Currently, the community pays more than $100,000 annually in flood 
insurance, and 2,958 parcels are located within the special flood 
hazard area, based on the flood insurance rate maps prepared by the 
Federal Emergency Management Agency (FEMA). Following completion of the 
Rush Creek improvements, it is expected that a re-mapping of the FEMA 
flood insurance maps would reduce the community outlay for flood 
insurance.
                                 ______
                                 
   Prepared Statement of Joe Serna, Jr., Mayor, City of Sacramento, 
                               California
    On behalf of the City of Sacramento, I would like to thank you for 
the opportunity to provide testimony to the Senate Appropriations 
Subcommittee on Energy and Water Development in support of fiscal year 
2000 funding for flood control protection projects in Sacramento. 
First, I would like to express my appreciation to the Subcommittee for 
its efforts in past years to fund flood protection measures for the 
City. Sacramento, California, continues to face the highest flood risk 
in the nation. During the past several years, the Energy and Water 
Appropriations Subcommittee has recognized the dire need for flood 
protection in and around the Sacramento area and has provided funds for 
a variety of previously authorized projects. In order to continue our 
efforts, we must once again request your support for funding vital 
Sacramento area flood control projects in fiscal year 2000.
    This year, the City of Sacramento is seeking $43,100,000 in federal 
funding through the U.S. Army Corps of Engineers in order to finance 
ongoing projects, which are described below and in the enclosed chart. 
The projects include the so-called ``common elements'' authorized in 
the 1996 Water Resources Development Act as well as other projects 
previously authorized.
    The Clinton Administration's fiscal year 2000 budget provides 
$34,000,000 for these projects, which is $9,100,000 less than the 
City's request. The major difference is that the Corps of Engineers did 
not include construction money for the South Sacramento Stream Group 
Project. If the Congress authorizes a Water Resources Development Act 
(WRDA) this year, construction money could be used for this important 
project in fiscal year 2000. The City urgently needs the Subcommittee's 
leadership and support to obtain our full funding request in order to 
move forward with these previously authorized projects.
    The U.S. Army Corps of Engineers proposed budget for fiscal year 
2000 recently submitted to Congress provides $17,000,000 for 
continuation of construction of the Common Elements Project. This level 
of funding is necessary to keep the project moving forward and we 
support the Administration's request. The Common Elements Project is a 
vital first step in our flood control efforts and full funding to keep 
this project on track is essential.
    The City of Sacramento has been working in cooperation with the 
Sacramento Area Flood Control Agency (SAFCA) on the construction of 
bank protection improvements which are vital to correct harmful erosion 
along the banks of the American River which threatens the integrity of 
our existing levees. Additional improvements will be needed over the 
next several years to prevent erosion at other American River sites. 
This work is already authorized under the Sacramento River Bank 
Protection Project which is used to fund erosion control projects 
throughout the Sacramento River System. The President's budget proposes 
$7,000,000 for the Sacramento River Bank Protection Project, which we 
fully support and urge the Subcommittee to support.
    Due to the significant flood risk along creeks in the South 
Sacramento area, the U.S. Army Corps of Engineers, submitted the South 
Sacramento Streams Group Chief's Report to Congress for inclusion in 
WRDA 1998. We urge the Subcommittee to fund design and construction for 
this project in the fiscal year 2000 Corps of Engineers' budget.
    Under the Corps' Section 205 program, a feasibility study and 
environmental documentation have been completed for a project that 
would provide a high degree of flood protection on Magpie Creek. This 
year the President has requested $26,900,000 for all Section 205 flood 
control projects. We urge the Subcommittee to support Section 205 
funding in the fiscal year 2000 budget and recommend that the Corps of 
Engineers be directed to provide sufficient funds for completion of the 
Magpie Creek project in its distribution of Section 205 funds.
    For the American River Watershed (Natomas) improvements which were 
authorized by Congress in 1992, we are seeking continued construction 
appropriations in the amount of $4,000,000 for reimbursement to SAFCA 
for the Federal share of the flood control improvements, as well as 
$3,900,000 in construction appropriations to complete the Ueda Parkway 
recreation elements of the project.
    The President's Budget for fiscal year 2000 provides for $5,000,000 
in Preconstruction, Engineering and Design (PED) funds for the American 
River Watershed comprehensive plan. The City, SAFCA, and the 
Reclamation Board and members of our congressional delegation are 
working diligently on congressional authorization of additional 
improvements on the American River system as part of the 1999 Water 
Resources Development Act. Once authorized, the Corps of Engineers will 
need significant funds to proceed with meaningful design in 2000 and 
not lose a year in the schedule to implement these improvements. 
Therefore, we urge the Subcommittee to support $5,000,000 in PED funds 
for the American River Watershed comprehensive plan.
    Once again, thank you for the opportunity to submit this statement 
and for your consideration of the funding that the City of Sacramento 
needs to protect its residents. Adequate flood protection is essential 
in this most flood-prone of American cities. We thank you again for the 
Subcommittee's commitment in previous years to providing this vital 
protection, and we ask for your renewed support in assuring its 
continuation.

                                 FISCAL YEAR 2000 SACRAMENTO AREA FLOOD CONTROL
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal year
                            Project                                Fiscal year     2000  city/     Fiscal year
                                                                  1999 enacted   SAFCA  request   admin. request
----------------------------------------------------------------------------------------------------------------
 American River Comprehensive Plan: Funds to continue the                  0.05             5.0             5.0
 planning and design of Sacramento flood protection projects...
American River Common Elements: 24 miles of levee improvements             15.0            17.0            17.0
 along the American River and 12 miles of improvements along
 the Sacramento River levees, flood gauges upstream of Folsom
 Dam, and improvements to the flood warning system along the
 lower American River..........................................
South Sacramento Streams: Prevention of flooding of portions of             0.9         \1\ 4.0             0.5
 Sacramento from the south, where four creeks convey foothill
 runoff through urbanized areas into Beach Lake and the Delta..
Mapgie Creek: Authorized under the Corps' Section 205 program,             1.65             1.7       \2\ (26.9)
 this project will provide a high degree of flood protection on
 Magpie Creek..................................................
Sacramento River Bank Protection: Will correct harmful erosion            10.08             7.0             7.0
 along the banks of the American River which threatens the
 integrity of the existing levees..............................
American River Watershed (Natomas): Reimbursement to SAFCA for              9.0             4.0             4.0
 the Federal share of the flood control improvements undertaken
 by the local project spon-  sor...............................
American River Watershed (Natomas Recreation, Ueda Parkway): A              0.0             3.9             0.0
 waterway, bike and pedestrian path that connects all of
 Sacramento as the recreation component of the recently-
 completed Natomas Flood Control Project (see above)...........
Lower Strong & Chicken Ranch Sloughs (DO5 Pump Station): a                  N/A             0.5             0.5
 feasibility study to restore 100-year level of flood
 protection to Chicken Ranch Slough drainage to the American
 River.........................................................
                                                                ------------------------------------------------
      Total....................................................           36.68            43.1            34.0
----------------------------------------------------------------------------------------------------------------
\1\ Construction funds assume passage of WRDA in 1999.
\2\ Total request for the Corps of Engineers Section 205 programs. No specific earmark is available for Magpie
  Creek. This funding level is therefore not included in the total.

                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California
    Chairman Domenici and members of the subcommittee. The Metropolitan 
Water District of Southern California (MWD) appreciates the opportunity 
to submit testimony regarding the U.S. Bureau of Reclamation's 
(Reclamation) and the Army Corps of Engineers' (Corps) fiscal year 
(fiscal year) 2000 budget, for the Hearing on Energy and Water 
Appropriations. MWD is a public agency created in 1928 to meet the 
supplemental water demands of those people living in what is now 
portions of a six-county region of Southern California. Today, the 
region served by MWD includes 16,000,000 people living on the coastal 
plain between Ventura and the international boundary with Mexico. It is 
an area larger than the State of Connecticut and, if it were a separate 
nation, would rank in the top ten economies of the world.
    Included in our region are more than 225 cities and unincorporated 
areas in the counties of Los Angeles, Orange, San Diego, Riverside, San 
Bernardino, and Ventura. We provide more than half the water consumed 
in our 5,200-square-mile service area. MWD's water supplies come from 
the Colorado River via the district's Colorado River Aqueduct and from 
northern California via the State Water Project's California Aqueduct.
                              introduction
    Our testimony focuses on Reclamation's water resources management 
and ecosystem restoration programs that are of major importance to MWD 
and other Southern California water supply agencies. Specifically, MWD 
strongly recommends your approval of a Reclamation fiscal year 2000 
budget that includes full funding for San Francisco Bay-Sacramento/San 
Joaquin Delta Estuary restoration activities, as requested in the 
President's budget. We also recommend your approval of the full budget 
request for Corps participation in these Delta restoration activities. 
MWD urges your support for adequate federal funding for Reclamation's 
Colorado River Basin Salinity Control Program that will ensure 
protection of water quality for this important source of water supply. 
MWD also urges your support for Reclamation's Endangered Species 
Conservation/Recovery projects that will provide for conservation of 
endangered and threatened species and habitat along the lower Colorado 
River, and provide mitigation for impacts associated with Reclamation's 
projects. Finally, MWD urges your full support for Reclamation programs 
that will help stretch existing water resources, such as water 
reclamation and groundwater recovery projects for Southern California 
agencies. These programs are essential for regional water supply 
reliability.
                   u.s. bureau of reclamation budget
California Bay-Delta Ecosystem Restoration
    In 1996, Congress passed the California Bay-Delta Environmental and 
Water Security Act, which authorized $430,000,000 over three years for 
ecosystem restoration and water management improvements in the San 
Francisco Bay-Delta Estuary. The Bay-Delta serves as the hub of 
California's water system, fueling the State's $750,000,000,000 
economy, supplying more than two-thirds of the State's 33,000,000 
residents with a portion of their drinking water and irrigating 45 
percent of the nation's produce.
    Recognizing the importance of the Bay-Delta to California's 
economic and environmental health, the California voters approved a 
$1,000,000,000 general obligation bond in November 1996, which contains 
$600,000,000 for improvements in the estuary.
    In 1999, $75,000,000 was appropriated for environmental restoration 
activities in the Bay-Delta. The Administration's fiscal year 2000 
budget request of $95,000,000 represents the first year of broad 
program implementation for the CALFED Bay-Delta Program. This federal 
money for the Bay-Delta will fund an array of critical improvements, 
including habitat restoration, watershed protection, fishery 
enhancement, water supply reliability and water quality improvement. 
MWD strongly urges your support for the restoration of one of the 
largest estuaries in the nation by ensuring the appropriation of these 
critically-needed funds.
Colorado River Basin Salinity Control
    The Colorado River is a large component of the regional water 
supply and its relatively high salinity causes significant economic 
impacts on water customers in the MWD's service area, as well as 
throughout the Lower Colorado River Basin. For this reason, MWD and the 
Bureau of Reclamation are currently conducting a Salinity Management 
Study in Southern California. The first phase of the study (completed 
in February 1997) concluded that the high salinity from the Colorado 
River causes significant impacts to residential, industrial and 
agricultural water users. Furthermore, high salinity adversely affects 
the region's progressive water recycling programs, and is contributing 
to an adverse salt buildup through infiltration into Southern 
California's irreplaceable groundwater basins. The second phase of the 
study is scheduled to be completed in July 1999. Based on a 1988 study, 
Reclamation estimated that water users in the Lower Basin were 
experiencing in excess of $750,000,000 in annual impacts from salinity 
levels in the river in 1995, and that impacts would progressively 
increase with continued agricultural and urban development upstream of 
California's points of diversion. As part of the Salinity Management 
Study, the economic impacts have been refined for MWD's service area 
and have been submitted to Reclamation for its use in updating its 
Lower Basin estimate. Droughts will cause spikes in salinity levels 
that will be highly disruptive to Southern California water management 
and commerce. The Salinity Control Program has proven to be a very 
cost-effective approach to help to mitigate the impacts of higher 
salinity. Continued federal funding of the program is essential.
    The Colorado River Basin Salinity Control Forum (Forum), the 
interstate organization responsible for coordinating the Basin states' 
salinity control efforts, issued its 1996 Review, Water Quality 
Standards for Salinity, Colorado River System (1996 Review) in June 
1996. The 1996 Review found that additional salinity control was 
necessary beginning in 1994 to meet the numeric criteria in the water 
quality standards adopted by the seven Colorado River Basin states and 
approved by the U.S. Environmental Protection Agency, with normal water 
supply conditions. For the last four years, federal appropriations for 
Reclamation have not equaled the Forum-identified funding need for the 
portion of the program the Federal Government has the responsibility to 
implement. It is essential that implementation of Reclamation's 
basinwide salinity control program be accelerated to permit the numeric 
criteria to be met again under average annual long-term water supply 
conditions, making up the shortfall. To assist in eliminating the 
shortfall, the Forum once again recommends that Reclamation utilize 
upfront cost sharing from the Basin states to supplement federal 
appropriations. This concept has been embraced by Reclamation and is 
reflected in the President's proposed budget.
    The President's proposed fiscal year 2000 budget contains funding 
of $12,000,000 for implementation of the basinwide program. MWD 
requests that Congress appropriate $17,500,000 for implementation of 
the basinwide program, an increase of $5,500,000 from that proposed by 
the President. This level of funding is necessary to meet the salinity 
control activities schedule in order to maintain the state adopted and 
federally approved water quality standards. The Forum supports this 
level of funding. MWD as well as the Forum supports the level of 
funding proposed by the President for operation and maintenance of the 
salinity control units already constructed, and investigations.
Endangered Species Conservation/Recovery
    MWD is presently engaged in an innovative partnership with 
Reclamation and other Department of the Interior agencies, as well as 
other water, power, and wildlife agencies, environmental organizations, 
and Indian Tribes in the states of Arizona, California, and Nevada, to 
develop a multi-species conservation program for the Lower Colorado 
River. The program will address the conservation, enhancement, and 
recovery needs of a broad suite of more than 70 listed and sensitive 
species and their associated aquatic, wetland, and riparian habitats in 
the three states, while providing long-term regulatory certainty for 
all parties. An effort of this nature can only succeed through the 
development of innovative voluntary public-private partnerships.
    MWD encourages your support for Reclamation's participation in the 
Lower Colorado River Multi-Species Conservation Program. Reclamation's 
participation in this program has been a valuable asset to the 
partnership. Funds provided under this project will in part help fund 
critically needed interim conservation measures for endangered species 
and their habitats, as well as planning under the long-term 
conservation program.
    The President's budget requests $15,118,000 for fiscal year 2000 to 
fund programs under the ``Endangered Species Conservation/Recovery'' 
activity and $13,540,000 to fund programs under the ``Lower Colorado 
River Ops Program'' activity. Included in the former amount are funds 
to support preservation, conservation, and recovery of native and 
endangered, threatened, proposed, and candidate species in the Lower 
Colorado River region. Included in the latter amount are funds to 
implement measures required by the interim biological opinion on 
Reclamation's lower Colorado River operations, and develop the multi-
species conservation program. MWD strongly supports funding at the 
requested levels.
National Fish and Wildlife Foundation
    The National Fish and Wildlife Foundation (Foundation) facilitates 
implementation of fish and wildlife mitigation and enhancement programs 
associated with Reclamation's projects through cost-sharing 
partnerships with local, state, tribal, and/or nongovernmental 
organizations. The Foundation is able to leverage federal dollars on at 
least a 1:1 matching basis.
    The Foundation's support for programs like the Lower Colorado River 
Multi-Species Conservation Program is extremely important to the 
development of comprehensive solutions to these complex endangered 
species issues. An effort of this nature can only succeed through the 
development of innovative voluntary public-private partnerships.
    The President's budget requests $1,300,000 for fiscal year 2000, 
which anticipates a two dollar nonfederal match for each federal 
dollar. MWD strongly supports the President's requested level of 
funding.
Water Recycling and Groundwater Recovery
    Projects funded under Title XVI of the Reclamation Projects 
Authorization and Adjustment Act of 1992 (Public Law 102-575) and the 
Reclamation Recycling and Water Conservation Act of 1996 (Public Law 
104-266) as well as the Bureau's Loan Program will greatly improve 
Southern California's water supply reliability and the environment 
through effective water recycling and recovery of contaminated 
groundwater. Implementation of such projects is difficult without 
combined federal, state and regional assistance for planning, design 
and construction. MWD expects to contribute about $20,600,000 in fiscal 
year 2000 to recycled water and groundwater recovery projects in the 
region, and the State is assisting with low-interest loans. Funding in 
the fiscal year 2000 budget for previously unfunded projects as well as 
the continued support for previously-funded projects is a positive step 
toward realizing regional water supply reliability. MWD urges your full 
support for the $31,514,000 for Title XVI and $12.425 for the Loan 
Program in the President's fiscal year 2000 budget, as well as future 
funding for all Southern California projects that might move forward 
under the jointly-funded Southern California Comprehensive Water 
Reclamation and Reuse Study.
Brackish Water Desalination
    Metropolitan requests for federal funding, appropriations for 
desalination activities aimed at developing new and innovative 
technologies. Technologies to be investigated include innovative 
pretreatment options such as nanofiltration, ultra low pressure reverse 
osmosis membranes, and carbon aerogel capacitive deionization (CDI). 
Brackish water desalination represents a potentially viable alternative 
to reduce reliance on imported water supplies and minimize the economic 
impact associated with high salinity water. Current salinity removal 
technologies are energy-intensive and expensive. Treating Colorado 
River water to the secondary total dissolved solids (TDS) standard, 
using conventional membrane technology, can cost $300 or more per acre-
foot. These high costs have precluded the widespread implementation of 
brackish water desalination technologies, especially for large-scale 
applications. Breakthroughs in desalination technology will offer 
potential benefits to water utilities with sources impaired by high 
salinity levels. It is estimated that $2,000,000 will be required to 
continue this research being sponsored by Metropolitan and its member 
agencies.
                        army corps of engineers
    The Army Corps of Engineers' (Corps) comprehensive civil works 
program has the capability to contribute to the social, economic, and 
environmental well-being of California. MWD is primarily interested in 
the Corps' environmental restoration studies and projects that address 
the needs of the Bay-Delta Estuary.
    The President's proposed fiscal year 2000 budget includes numerous 
programs in the Corps' South Pacific Division, which includes 
California. Several ecosystem restoration studies and projects 
specifically address significant habitat issues at various locations in 
the Bay-Delta watershed. These ecosystem restoration and flood 
prevention programs, and the Corps' full participation in CALFED Bay-
Delta efforts, represent an important opportunity in the process of 
developing and implementing a solution to the water resources and 
environmental problems facing the Bay-Delta Estuary. Corps programs 
that will contribute to the long-term Bay-Delta solution include 
environmental restoration studies in the Sacramento and San Joaquin 
River watersheds, habitat conservation and mitigation elements of flood 
damage prevention projects, and ecosystem restoration programs.
    MWD urges Congress to fully support these Corps programs as the 
fiscal year 2000 federal appropriations process moves forward.
    Thank you for your consideration of our testimony. We believe our 
comments emphasize the importance of continued funding for Reclamation 
and Corps' water resources management and ecosystem restoration 
programs that are critical for water supply reliability in Southern 
California.
                                 ______
                                 
  Letter From Lawrence M. Libeu, President, Western Coalition of Arid 
                                 States
                          Eastern Municipal Water District,
                                        Perris, CA, March 22, 1999.
Hon. Pete V. Domenici,
Chairman Senate Appropriations Subcommittee, on Energy and Water 
        Development, Dirksen Senate Office Building, Washington, DC.
    Dear Chairman Domenici and Members of the Subcommittee: As the 
President of the Western Coalition of Arid States (WESTCAS) and as 
Chairman of the National Water Resources Association's (NWRA) Water 
Resources Management Committee, I am writing to urge your support for 
the $12,425,000 contained in the President's fiscal year 2000 Budget 
Request for the five projects in the Bureau of Reclamation's Small 
Reclamation Loan Program. The funding that would be provided will move 
these projects closer to completion in a timely manner so the Federal 
Government and the local districts can see a return on the investment 
regarding this vital infrastructure program.
    I appreciate that under the Balanced Budget Agreement between the 
Congress and the President that every program and the dollars for those 
programs are looked at with a critical eye in terms of the worthiness 
of the investment. This is why I am concerned with the trends that I 
have seen regarding the overall Bureau of Reclamation budget. I believe 
the Bureau's budget needs to be focused and increased to place a 
greater emphasis on completing the authorized project and programs that 
are already on the books.
    I want to thank your subcommittee for its past support and would 
ask that your subcommittee continue to support this valuable program.
            Sincerely,
                                         Lawrence M. Libeu,
                                                 WESTCAS President.
                                 ______
                                 
 Prepared Statement of Steve Miklos, Mayor, City of Folsom, California
               section 503 watershed restoration project
    Mr. Chairman and Members of the Subcommittee. My name is Steve 
Miklos and I am the Mayor of the City of Folsom, California, located 
approximately 25 miles east of Sacramento. Thank you for the 
opportunity to present testimony regarding the fiscal year 2000 budget 
for the U.S. Army Corps of Engineers.
    The City of Folsom is an historic gold rush town, dating back to 
the mid-1800s. As such, the storm drainage system in the original 
portion of the city is inefficient and unsophisticated at best. The 
untreated storm runoff from this area flows directly into Lake Natoma 
and the American River. To study and address needed water quality-
related improvements and restoration of the City's urban watershed, the 
City of Folsom requests $500,000 in fiscal year 2000 to continue a 
Section 503 Watershed Restoration Project.
    The Section 503 funding is necessary for technical, planning and 
design assistance with the City storm drainage system, which directly 
impacts water quality in the American River and the Sacramento River 
watershed. The Sacramento River watershed is specifically authorized in 
the Water Resources Development Act of 1996 to receive funding under 
this program. Recent hydrology studies suggest that the existing storm 
drainage systems in Folsom should be upgraded to handle heavier and 
sustained water runoff. Left unresolved, these storm drainage problems 
will continue to pose a threat to water quality in the American River 
and the Sacramento River watershed. Analysis of the current drainage 
system will help us determine how to minimize these problems.
    Historic Folsom drains by a system of roadside ditches, swales, 
street culverts, and urban streams that traverse through the area. The 
hills are steep, and the ground is a mixture of gravels, soils, and 
granite outcroppings. One major urban stream system has become so 
interlaced with the above, that it flows under structures, is 
intertwined with pipes and culverts and, under flood conditions, 
impacts several properties. This creates problems during heavy rains 
for numerous residents, businesses, and vehicular traffic, conveying 
sediment into the river, flooding roadways and neighborhoods. This 
system drains into Lake Natoma through the historic Powerhouse State 
Park. Constant erosion has been an ongoing problem in these roadside 
ditches and yards. Another section of Historic Folsom drains overland 
through our City Corporation Yard, which includes a landfill, and into 
Lake Natoma.
    In fiscal year 1999, Congress earmarked $100,000 to initiate a 
Section 503 Watershed Study on these storm drainage problems. Staff has 
met several times with Corps staff to identify the problem and 
investigate solutions. The 905b study is underway and is expected to be 
completed in the summer of 1999.
    The City of Folsom has committed over $2,000,000 in local funds for 
watershed study and storm drainage improvements throughout the 
community. While this work has greatly improved storm drainage in 
certain areas, additional work is still needed to restore the urban 
watershed, so that sediment does not continue to impact the system or 
Lake Natoma, and provide increased security against water quality 
degradation by contamination from urban uses.
    The City proposed that the U.S. Army Corps of Engineers continue 
technical, planning and design assistance on a Section 503 Watershed 
restoration project for the city's storm drainage system for urban 
watershed restoration and water quality-related improvements. The City 
is prepared to cost-share work on this project, consistent with the 
authorization.
                                 ______
                                 
   Prepared Statement of Mayor George Pettygrove, City of Fairfield, 
                               California
                  section 205--ledgewood creek project
    Thank you, Mr. Chairman, and members of the committee for this 
opportunity to speak before you today in support of the City of 
Fairfield's Ledgewood Creek project. The City of Fairfield appreciates 
this committee's continuing support for our flood control efforts over 
the years, and we look forward to working with the committee to 
continue to improve our flood control infrastructure.
    The City requests that this committee provide an earmark of 
$400,000 for the continuation of the Section 205 Ledgewood Creek 
Project. This project received $300,000 in funding for fiscal year 
1999.
    When the U.S. Army Corps of Engineers studied Ledgewood Creek in 
preparation for design of the Fairfield Vicinity Streams Project 
improvements, the Corps predicted that Ledgewood Creek could bifurcate 
and flood Interstate 80 (I-80). On February 3, 1998, the prediction 
came true. Run-off from the Ledgewood Creek drainage basin could not be 
contained within the unimproved creek channel and the creek overflowed. 
From approximately 7:45 a.m. until 12:45 p.m. (roughly five hours), all 
four westbound lanes of I-80 were closed. Within an hour after the 
closure, a logjam of cars backed up over 15 miles. Three of the four 
eastbound lanes were also closed for a portion of the morning due to 
the flooding. In addition to preventing flooding in I-80, the 
improvement of Ledgewood Creek from Abernathy Road to the Fairfield 
city limits will remove approximately 300 acres of residential, 
commercial, and industrial property from the FEMA AO flood zone.
    The City of Fairfield appreciates the committee's continuing 
assistance on the Ledgewood Creek project. As you know, our city is one 
of the fastest growing communities in California. Fairfield's 
population continues to grow rapidly, and we continue to attract major 
corporate and industrial development. Fairfield faces new and difficult 
flood control challenges. Your assistance is greatly appreciated on all 
of these projects. Thank you.
                                 ______
                                 
  Prepared Statement of Mayor Steve Miklos, City of Folsom, California
                 highway 50 pond study and remediation
    Thank you, Mr. Chairman, and members of the committee for this 
opportunity to speak before you today in support of the City of 
Folsom's request for a $100,000 earmark for the Bureau of Reclamation 
to study and remediate the possibly dangerous situation at the Highway 
50 Lake Natoma Pond.
    Lake Natoma, created by Nimbus Dam and a part of the American River 
Watershed, is located at Folsom, California. The southern shoreline of 
the lake crosses beneath Highway 50 and creates a small ``pond'' south 
of the highway. This ``pond'' is actually a relatively still backwater 
of the lake and apparently suffers from very poor circulation. The 
Highway 50 pond is in full view of all traffic on the highway and is an 
unsightly introduction to the Folsom community for residents and 
visitors. Scum, floating trash and other debris are constantly present 
on the surface of the water. Further, the pond's status with respect to 
contaminants, disease, and other water quality threats to both Lake 
Natoma and the American River are unknown at this time.
    This project will provide funding to the Bureau of Reclamation for 
purposes of investigating the current status of the pond area, causes 
of the apparent contamination of the pond, and identifying and 
undertaking remedial work. Without this earmark, it is likely that the 
pond will continue in its current state or further deteriorate, with 
unknown effects on Lake Natoma and the American River. I should also 
point out that the Nimbus Fish Hatchery, the main hatchery on the Lower 
American River, is located less than a half mile downstream from this 
obviously contaminated pond.
    Mr. Chairman, thank you again for the opportunity to testify 
regarding the City of Folsom's three important projects before your 
committee, and I request that the committee view favorably this very 
important project.
                                 ______
                                 
Prepared Statement of Karan Mackey, Chair, Board of Supervisors, County 
                          of Lake, California
    Mr. Chairman and Members of the Subcommittee: My name is Karan 
Mackey, and I am the Chairperson of the Board of Supervisors in Lake 
County, California. I appreciate this opportunity to present to the 
Energy and Water Development Subcommittee an urgent request for federal 
assistance.
    The County of Lake requests $2,000,000 in fiscal year 2000 to 
construct the next phase of the Clear Lake Basin 2000 project, a 
Section 206 Aquatic Ecosystem Restoration project. Clear Lake in Lake 
County experiences serious water quality problems as a result of both 
sewage and sediment discharge directly into the Lake. Phase II of Basin 
2000 will improve the quality of water flowing into Clear Lake, Cache 
Creek-the only outlet for Clear Lake-and, ultimately, the Sacramento 
River and the delicate Bay-Delta ecosystem.
    Lake County has designed and partially implemented the Clear Lake 
Basin 2000 Initiative. Basin 2000 is a multi-phased watershed 
restoration effort that recycles wastewater effluent to create wildlife 
habitat, improve Clear Lake's water quality, and generate geothermal 
power. The initiative's first phase became operational in 1997.
    Lake County has completed has completed a Section 503 Watershed 
study, include all planning and design work for development of a series 
wetland sites that will cleanse the water flowing into Clear lake and 
completely eliminate the discharge of sewage into the Lake. The 
requested $2,000,000 will begin construction of 300 acres of wetlands 
out of the 1,000 acres ultimately planned for the project, a wetlands 
effluent pipeline, and flow control facility to feed water into the 
wetlands.
    With the completion of Phase II, the Clear lake basin 2000 
Initiative offers the following benefits: restores 20 percent of the 
watershed's lost wetlands; eliminates the last potential wastewater 
discharge to the Sacramento River, protects local ratepayers from 
quadrupling of rates that would be needed without wetlands recycling; 
provides multiple environmental and economic benefits from recycling 
that would be lost if traditional disposal methods were used instead; 
and insures compliance with a state-ordered deadline for a new disposal 
method.
    Lake County received funding from the Corps in the last two fiscal 
years to complete a Section 503 Watershed Study and initiate a Section 
206 Aquatic Ecosystem Restoration Project to improve the water quality 
of Clear Lake. The County contributed significantly to this process, 
funding much of the engineering and design work with non-federal 
monies. The Corps of Engineers Preliminary Restoration Plan (PRP) for 
this restoration project will be completed shortly; the final PRP is 
expected to follow approximately two months later. Construction could 
proceed in September 1999 and be in ``full swing'' next Spring.
    The total cost of Phase II is $36,100,000. Seventy-five percent of 
the funding will come from Lake County, State partners and non-
governmental partners. The other 25 percent will come from federal 
funds through EPA and the Corps of Engineers. Lake County urgently 
needs a federal commitment in fiscal year 2000 of $2,000,000.
    Communities in Lake County, represented by Congressman Mike 
Thompson, and communities in Yolo County, represented by Congressman 
Doug Ose, will directly benefit from federal funding for Phase II of 
the Basin 2000 Initiative. Cache Creek is mostly in Yolo County and it 
receives the benefits of treated effluent because situated downstream 
of the constructed pipeline that was the successful result of Phase I.
    I thank the Subcommittee for its attention to this urgent request.
                                 ______
                                 
 Prepared Statement of Tom Hollingsworth, Mayor, City of Rancho Palos 
                           Verdes, California
    As your distinguished Subcommittee writes the fiscal year 2000 
Energy and Water Resources Appropriations bill, I would like to bring a 
very important environmental restoration project to your attention.
    The Corps of Engineers and the City of Rancho Palos Verdes have 
been working on a cost-sharing feasibility study to investigate Federal 
improvements to restore pristine environmental areas along the Pacific 
coastline since 1995. The President's fiscal year 2000 Budget Request 
does not contain enough money to perform both pre-construction design 
and modeling tasks.
    I would like to take this opportunity to request that your 
distinguished Subcommittee include $400,000 in the fiscal year 2000 
Budget Request for the continuation of the pre-construction engineering 
and design. The addition of $200,000 to the proposed budget will allow 
the modeling to take place in conjunction with preliminary engineering. 
The City of Rancho Palos Verdes is prepared to commit their portion of 
the cost-share to complete the study next year.
    The area along the Rancho Palos Verdes coastline that is being 
studied has been severely degraded as a result of landslide movement of 
material and coastal erosion causing sediment and continuous turbidity 
that has buried sensitive habitat. The study involves investigations to 
define landslide and erosion relationships, impacts on the environment 
and potential restoration benefits. This project should be considered 
as essential mitigation for large local port projects.
    Thank you for the opportunity to submit this request.
                                 ______
                                 
   Prepared Statement of Richard Akin, Supervisor, County of Sutter, 
                               California
   fiscal year 2000 energy & water appropriations sutter basin study
    Thank you, Mr. Chairman, and members of the committee for this 
opportunity to speak before you today in support of the Sutter Basin 
Study. The County of Sutter appreciates this committee's continuing 
support for our flood control efforts over the years, and we look 
forward to working with the committee to continue to improve our flood 
control infrastructure.
    The County of Sutter requests a $300,000 earmark in the fiscal year 
2000 Energy & Water Appropriations bill to proceed with the Army Corps 
of Engineer's General Investigation Reconnaissance Study for the Sutter 
Basin in Sutter County, California.
    Between the west bank of the Feather River, the Sutter Bypass, and 
the east bank of the Sacramento River, Sutter County contains 
approximately 220 miles of floodwater retaining levees. The County has 
repeatedly sustained damages due to flooding. This area has a long 
history of flooding which supports the perception that a serious threat 
to lives and property exists. The County's economy is depressed, at 
least party due to the reluctance of businesses to locate in an area 
they perceive to be prone to flooding.
    The US Army Corps of Engineers is currently conducting a General 
Investigation Reconnaissance Study for the Sutter Basin in Sutter 
County, California, for which Congress provided $100,000 in the fiscal 
year 1999 Energy and Water Appropriations bill. Sutter County requests 
an earmark of $300,000 in the fiscal year 2000 Energy & Water 
Appropriations bill to proceed with the Sutter Basin Feasibility Study. 
The Study is required to provide an in-depth evaluation of flood 
control capability and needs, and to identify projects needed to 
achieve a specified level of protection.
    Mr. Chairman, the County of Sutter appreciates the committee's 
continuing assistance related to flood control in our region. Thank you 
for the opportunity to appear before your committee.
                                 ______
                                 
                NATIONWIDE WATER RESOURCE ORGANIZATIONS
         Prepared Statement of the National Waterways Alliance
    As members of the National Waterways Alliance, we appreciate the 
opportunity to submit this statement in support of adequate funding for 
the Army Corps of Engineers' civil works program. The Alliance is a 
coalition of waterway-related associations, industries, and 
organizations in the agricultural, aluminum, building materials, 
chemical, coal, fertilizer, iron and steel, paper and wood products, 
petroleum, and other sectors shipping or receiving products by water 
transportation. It also includes both shallow- and deep-draft ports, 
river valley associations, shippers, flood control interests, water 
recreation and coastal entities, electric utilities, agricultural and 
electric power cooperatives, maritime labor, dredging operators, 
shipyards and repair facilities and other waterways services, all 
serving many millions of producers, customers, and consumers across the 
country.
    As a coalition of waterways interests, we are well aware of the 
Subcommittee's strong commitment to meeting the Nation's water 
resources needs, as evidenced by the level of funding provided for 
civil works programs in the Fiscal Year 1999 Energy and Water 
Development Appropriations Act. Your commitment to a program of 
adequate investment in the waterways infrastructure is deeply 
appreciated, and we urge you to continue to invest the necessary funds 
to sustain waterways programs in a realistic, responsible manner.
    We are concerned, however, with the lack of necessary support for 
civil works evidenced in the President's fiscal year 2000 budget 
request. The great stride forward taken by your Subcommittee last year 
in providing a more reasonable funding level would be erased should the 
fiscal year 2000 budget request be adopted. The proposed level of 
funding of $3.9 billion assumes collection of some $950 million from 
the still-to-be-submitted Harbor Services Fund proposal. This is a 
budgetary gimmick relying upon a legislative measure yet to be 
revealed--a dangerous assumption that poses a substantial threat to 
fulfillment of civil works missions.
             an imbalanced fiscal year 2000 budget request
    Most of the increase in the fiscal year 2000 budget request is 
earmarked for deep-draft port maintenance and construction, which is 
dependent upon revenue to be transferred from the Harbor Maintenance 
Trust Fund, contingent upon enactment of the proposed Harbor Services 
Fee. Other civil works missions, principally inland navigation and 
flood control, are funded at roughly two-thirds of what is needed for 
efficient program operation.
    The level of funding requested for civil works activities would 
endanger our ability to continue an effective waterborne transportation 
system. The construction program, for instance, is funded at $1.239 
billion, which is some $200 million below fiscal year 1999 
appropriations. This downward trend in spending would stretch out 
construction schedules, adding to project costs and delaying the 
realization of project benefits, and also increase the already 
substantial backlog of necessary rehabilitation. Lack of a modern, 
first-class navigation system already places agricultural producers, 
miners, and forestry workers, among others, at risk of losing global 
markets. Although budgeted at a higher level, the operations and 
maintenance program is still underfunded, with a backlog of at least 
$1.5 billion in deferred maintenance. Also, many worthy flood control 
projects would see reductions in funding or simply cease to be funded, 
a dangerous gamble with billions of dollars of potential damages.
    Of additional concern is the general investigations category, the 
vehicle through which new projects are considered and studied. The 
President's budget request reduces this category by $20 million from 
last year's appropriated level and only recommends one new 
reconnaissance study. In testimony before the Senate Appropriations 
Subcommittee on Energy and Water Development, Administration witnesses 
stated that the Army Corps of Engineers had recommended 90 new starts 
in the general investigations category! Without this critical step, 
many meritorious new projects may never be considered.
                     realistic civil works funding
    Waterways-related industries strongly support a more realistic 
funding level of $4.7 billion for civil works activities in fiscal year 
2000. This level would continue the progress made by this Subcommittee 
in its fiscal year 1998 and fiscal year 1999 appropriations and allow 
the Army Corps of Engineers to honor its commitments to local 
communities, ports and harbors, inland navigation and other water 
resources interests. Most of these demands are imposed by legislation 
and by cost-sharing commitments with non-Federal sponsors. Further, a 
$4.7 billion program can be fully justified as a prudent investment in 
helping the Corps of Engineers to maintain navigation, prevent floods, 
ensure dependable water supplies, facilitate water recreation, promote 
environmental restoration and meet other program needs.
    Adequate investment in civil works programs positively impacts the 
country's economic development and global competitiveness. The U.S. 
waterways system includes 1,500 miles of deep-draft channels with 300 
ports capable of handling ocean-going vessels along the Atlantic, Gulf, 
and Pacific Coasts as well as the Great Lakes. In addition, the inland 
waterways consist of 12,000 miles of mainstem navigable waterways. This 
vast network of shallow-and deep-draft navigation channels provides a 
reliable and efficient water transportation system that, in 1997, 
carried 2.3 billion tons of domestic and foreign commerce including 60 
percent of U.S. grain exports, 23 percent of chemical movements, and 20 
percent of coal shipments. These and other commodities that move on the 
waterways are the building blocks of our economy. Water transportation 
supports the economies of many regions of the country and keeps U.S. 
products competitive in international markets.
    Also, in the last half-century, Corps of Engineers' flood control 
projects have prevented nearly $500 billion in river and coastal 
damages. In 1997 alone, these projects saved an estimated $45.2 billion 
in flood damages. The investment made by Congress in these programs has 
been critical in protecting life and property. The civil works program 
also funds over 4,000 water recreation sites as well as coastal 
protection programs, bank stabilization, hydropower, and municipal and 
industrial water supply.
    We respectfully urge you, therefore, to consider the diverse public 
benefits of civil works programs and the tremendous return on Federal 
investments that they provide. We request that you allocate sufficient 
funds to meet civil works needs as we prepare to enter the next 
millennium. In the case of waterways programs, adequate investment now 
will be a much lower price to pay than dealing with the consequences 
later of delaying needed maintenance and modernization.
    We thank the Subcommittee for the opportunity to submit this 
statement, which we hope you will consider in marking up your fiscal 
year 2000 bill.
                                 ______
                                 
       Prepared Statement of the American Farm Bureau Federation
    The American Farm Bureau Federation appreciates the opportunity to 
submit this statement in support of adequate funding for the Army Corps 
of Engineers civil works program. The American Farm Bureau Federation 
is the nation's largest general interest organization for farmers and 
ranchers. American Farm Bureau represents 4.9 million Farm Bureau 
families in all 50 states and Puerto Rico. Farm Bureau's members grow 
all commercially produced agricultural commodities cultivated in the 
United States.
    Farm Bureau compliments the Subcommittee on its strong commitment 
to meeting the nation's water resources needs, as evidenced by the 
level of funding provided for civil works programs in the Fiscal Year 
1999 Energy and Water Development Appropriations Act. Farm Bureau and 
its members appreciate the Subcommittee's commitment to a program of 
adequate investment in the waterway infrastructure. We urge you to 
continue to invest the necessary funds to sustain waterways programs in 
a reasonable manner.
    Farm Bureau is concerned by the lack of commitment to civil works 
demonstrated in the administration's fiscal year 2000 budget request. 
The Subcommittee's effort to provide adequate funding for civil works 
last year would be lost should the fiscal year 2000 budget request be 
adopted. The proposed level of funding of $3.9 billion assumes 
collection of some $950 million from the as yet undefined Harbor 
Services Fund proposal. Relying upon this $950 million assumption is 
dangerous and poses a substantial threat to fulfillment of civil works 
programs.
    Most of the increase in the fiscal year 2000 budget request is 
earmarked for deep-draft port maintenance and construction, which is 
dependent upon revenue to be transferred from the Harbor Maintenance 
Trust Fund which itself is contingent upon enactment of the proposed 
Harbor Services Fund. Other civil works missions, principally inland 
navigation and flood control, are funded at roughly two-thirds of what 
is needed for efficient program operation.
    One of the most important things Congress can do to help farmers is 
to provide a low-cost, efficient transportation infrastructure. An 
important part of that infrastructure was initially created decades ago 
with the inland waterways transportation system, featuring a series of 
locks and dams on the Mississippi between Minneapolis-St. Paul and St. 
Louis.
    The inland waterway system is absolutely critical to American 
agriculture. About \1/3\ of American agricultural production is 
exported; about 60 percent of those exports move down the Mississippi 
River system to our ports on the Gulf of Mexico. As these barges return 
upriver, they often bring agricultural inputs like fertilizers into the 
interior regions of the Midwest. This barge traffic has been estimated 
by Price Waterhouse to support between 300,000 and 450,000 jobs in the 
ten-state region of the Mississippi River Valley. These jobs generate 
about $4 billion in income.
    For farmers in midwestern states, the ability to use the river to 
transport what they produce is critically important. Farmers in 
Minnesota shipped an average of 195 million bushels of corn, 64 million 
bushels of soybeans, and 26 million bushels of wheat on the Minnesota 
and Mississippi Rivers every year during the 1990's. This is equivalent 
to \1/4\ of the total corn crop grown in Minnesota, and these corn 
shipments were worth over $470 million in 1997. In other Midwestern 
states, river transportation is as important as it is to Minnesota, or 
more so. Missouri farmers shipped an average of 52 million bushels of 
corn, 30 million bushels of soybeans, and 42 million bushels of wheat 
annually in the 1990's. Iowa farmers shipped an average of 203 million 
bushels of corn annually, and 66 million bushels of soybeans annually 
on the Mississippi River system in the 1990's. Illinois farmers shipped 
a whopping 591 million bushels of corn (about \1/3\ of the state's 
total corn crop), 170 million bushels of soybeans, and 26 million 
bushels of wheat on the Mississippi and Illinois rivers annually in the 
1990's. Clearly, the Mississippi, Missouri, Minnesota, and Illinois 
Rivers are key transportation arteries that carry the massive 
agricultural production of the Midwestern states to their export 
markets.
    Unfortunately, as the system ages, it is increasingly taxed and is 
less able to meet the demands placed on it. Many of these facilities 
are 60 years old and are inadequate to meet modern navigation needs. 
Many of these locks are only 600 feet long, when the average tow in use 
today is 1,100 feet long, inclusive of barges and towboat. You can 
imagine the back-ups that often occur during peak shipping seasons as 
each tow must stop, be broken into two parts, pushed separately through 
the lock, and reassembled on the other side. This is a process that 
takes about ninety minutes for each tow; this creates delays that cost 
the entire economy money and reduces the per-bushel price farmers earn 
for their produce. This congestion is costing our economy millions of 
dollars annually in lost time and productively that a comparatively 
small federal investment in improved infrastructure could recover.
    River congestion on the Mississippi equals lost income to farmers 
who can't afford to forgo any income with commodity prices so low. 
Inefficient water transportation will result in further lost export 
market share for U.S.-grown grains and less income for farmers. 
Preliminary results from a Texas A&M study indicates that producers 
could lose between $100 million and $150 million a year if bottlenecks 
on the Mississippi continue to reduce the efficiency of our inland 
waterway system.
    At Farm Bureau, we believe that farmers are the first 
environmentalists because we depend on the land to earn a living. There 
will also be environmental benefits to improving the navigation 
infrastructure on the Mississippi and Illinois Rivers. Moving bulk 
freight is the most efficient and safest means available. The movement 
of 100 million tons of bulk commodities on the Mississippi River system 
(an average year's bulk freight on the rivers now) keeps 1 million rail 
cars or 4 million trucks available for other movements of grains or 
other commodities and keeps these rail cars and trucks off the roads 
and away from road crossings in rural communities, according to the 
Iowa Department of Transportation. The U.S. Environmental Protection 
Agency laboratory tells us that towboats emit 35-60 percent fewer 
pollutants than railroad locomotives or trucks. According to the U.S. 
Department of Transportation, a gallon of fuel in a towboat can carry a 
ton of freight 2.5 times farther than rail and 9 times farther than a 
truck. The U.S. Army Corps of Engineers recently suggested that 
anywhere from $100 million to $300 million is saved annually in air 
clean-up costs due to usage of the river system that might otherwise 
have to be spent if river freight had to move on other modes.
    Farm Bureau policy #117 (Waterways), as approved by the AFBF's 
voting delegate body at the Farm Bureau convention in January 1999 
says, in part:

          Public policy should encourage expansion of inland water 
        transportation since it represents the most efficient mode--We 
        encourage a Midwestern, multi-state effort to review results of 
        existing river and related studies and identify impacts of 
        associated state and federal regulation. Based on that review, 
        we will propose a multiple-use strategy for the Upper 
        Mississippi River and its tributaries that serves agriculture, 
        industry, transportation, and the environment--We support the 
        Corps' (of Engineers) efforts in updating locks and dams and 
        cleaning of channels in the Mississippi River system to 
        accommodate new, larger barges.

    Farm Bureau requests that Congress increase the appropriation for 
the Army Corps of Engineers in fiscal year 2000 for improvements for 
the Mississippi River system. This appropriations increase should 
include $9 million in additional funds to conduct pre-engineering and 
design studies for lock chamber extensions and guide wall extensions 
for Locks 25, 24, 22, and 21 on the Mississippi and the LaGrange and 
Peoria locks on the Illinois River; $5 million to meet dredging 
shortfalls on the Upper Mississippi and Illinois Waterways, and $17 
million in funding for major maintenance on the Mississippi River 
system.
    The level of funding requested for civil works activities would 
endanger our ability to continue an effective waterborne transportation 
system. The President's request would fund construction program is 
funded at $1.239 billion, $200 million less than the fiscal year 1999 
appropriations. This downward trend in spending would stretch out 
construction schedules, adding to project costs and delaying the 
realization of project benefits, and also increase the already 
substantial backlog of necessary rehabilitation. Lack of a modern, 
first-class navigation system already places agricultural producers, 
miners, and forestry workers, among others, at risk of losing global 
markets. Also, many worthy flood control projects would see reductions 
in funding or simply cease to be funded, a dangerous gamble with 
billions of dollars of potential damages.
    The waterways industry strongly supports a more realistic funding 
level of $4.7 billion for civil works activities in fiscal year 2000. 
This level would continue the progress made by this Subcommittee in its 
fiscal year 1998 and fiscal year 1999 appropriations and allows the 
Army Corps of Engineers to honor its commitments to local communities, 
ports and harbors, navigation and other water resources interests. Most 
of these demands are imposed by legislation and by cost-sharing 
commitments with non-Federal sponsors. Further, a $4.7 billion program 
can be fully justified as a prudent investment in helping the Corps of 
Engineers to maintain navigation, prevent floods, ensure dependable 
water supplies, facilitate water recreation, promote environmental 
restoration and meet other program needs.
    Adequate investment in civil works programs positively impacts the 
country's economic development and global competitiveness. The U.S. 
inland waterways system includes 1,500 miles of deep-draft channels 
with 300 ports capable of handling ocean-going vessels along the 
Atlantic, Gulf, and Pacific Coasts as well as the Great Lakes. In 
addition, the inland waterway system consists of 12,000 miles of 
mainstem navigable waterways. This vast system provides a reliable and 
efficient water transportation system that, in 1997, carried 2.3 
billion tons of domestic and foreign commerce including 60 percent of 
U.S. grain exports, 23 percent of chemical movements, and 20 percent of 
coal shipments. These and other commodities that move on the waterways 
are the building blocks of our economy. Water transportation keeps U.S. 
products competitive in international markets and supports the 
economies of many regions of the country.
    We respectfully urge you, therefore, to consider the many public 
benefits of civil works programs and the tremendous return on federal 
investments that they provide. We request that you allocate sufficient 
funds to meet civil works needs as we prepare to enter the next 
millennium. In the case of waterways programs, adequate investment now 
will be a much lower price to pay than dealing with the consequences 
later of delaying needed maintenance and modernization.
                                 ______
                                 
  Prepared Statement of W. Ron Allen, President, National Congress of 
                            American Indians
                              introduction
    Chairman Domenici, Vice-Chairman Reid and distinguished members of 
the Appropriations Subcommittee on Energy and Water Development. Thank 
you for the opportunity to present this statement regarding the 
President's Budget Request for fiscal year 2000 Indian programs and 
services specifically in the Department of Energy. My name is W. Ron 
Allen. I am President of the National Congress of American Indians 
(NCAI) and Chairman of the Jamestown S'Klallam Tribe located in 
Washington State.
    NCAI views the fiscal year 2000 federal budget process as an 
opportunity to begin to set a better course for federal Indian 
policymaking in the next century. Tribal governments have found 
themselves in an increasingly defensive posture in the development of 
federal Indian policy over the last four years, and budget cuts and 
budget riders have been the point of attack on tribal self-
determination.
    Tribal leaders have set as an important goal that the tribal budget 
must become a higher priority within the appropriations process. The 
federal government has treaty and trust obligations to support Indian 
tribes that it is simply not meeting. Also, tribal citizens pay federal 
taxes but receive little support from federal funds that go to states. 
Programs serving the American Indian and Alaska Native population have 
rarely received the federal funding required to fulfill even the most 
basic needs and funding for Indian programs has lagged far behind the 
funding of non-Indian programs. Compared to all other sectors of the 
American populace, American Indians and Alaska Natives most often rank 
at or near the bottom or top of most social and economic indicators, 
whichever is worse. Of the 558 federally-recognized Indian tribes, a 
great majority of their populations are characterized by the most 
severe unemployment, poverty rates, ill-health, poor nutrition and sub-
standard housing in the U.S. In an era of federal budget surpluses, 
there are no excuses for failing to meet the federal obligation to 
remedy the human tragedy behind the statistics.
    The solution for the poor conditions in Indian Country must be a 
reinvigorated approach to economic development. The federal budget for 
fiscal year 2000 can do much to build the necessary infrastructure of 
roads, schools, housing, child and elder care, hospitals, clinics, 
technology, law enforcement, courts and other critical elements of any 
functioning economy in the United States. The United States has an 
obligation to help rebuild the shattered infrastructures of Indian 
Nations and create the opportunity for economic prosperity that will 
benefit not only Indian people, but the entire American economy. It 
should also be noted that the conversion of welfare entitlement funds 
into state discretionary funding has added to the urgency felt 
throughout Indian Country to boost economic development.
    Also, the use of appropriations riders to ambush tribal self-
government has become more and more frequent. Tribal self-government is 
recognized in the United States Constitution and hundreds of treaties, 
federal statutes and Supreme Court cases and is deserving of serious 
consideration by the Congress. At the very least, if the federal 
government is going to contemplate legislation affecting tribal self-
government, the legislation should be considered in the authorizing 
Committees, given opportunity for consultation with the affected 
tribes, and taken up as stand-alone legislation where Members of 
Congress can know and understand what they are voting on. We have been 
made aware of the introduction of Senate Resolution 8 by Senators Ted 
Stevens and Robert Byrd. S. Res. 8 would amend the Senate rules to 
reinstate a former rule which prohibited legislative riders on 
appropriations bills and which would require a three-fifths vote to 
waive a point of order under the rule. NCAI would surge the members of 
this Sub-committee to support S. Res. 8.
    As Congress begins to shape the fiscal year 2000 budget, the NCAI 
urges an increased investment in Indian programs and tribal government 
infrastructure. We believe that the President's fiscal year 2000 budget 
request has taken a very positive step in that direction. The following 
testimony is an overview of the recently released President's fiscal 
year 2000 budget request that provides NCAI's viewpoint on sections of 
the budget that are most critical to tribal governments.
                         background information
    Mr. Chairman, I would like to begin my testimony by providing a 
general context regarding federal funding for Indian programs. 
Unfortunately it has been a rare occasion indeed, if ever, that 
programs serving the American Indian and Alaska Native population have 
received the federal funding required to fulfill even the most basic 
needs of tribal members. Of the 558 federally-recognized Indian tribes, 
a great majority of our populations are characterized by severe 
unemployment, high poverty rates, ill-health, poor nutrition and sub-
standard housing. Historically, funding for Indian programs has lagged 
far behind the funding of many non-Indian programs and this gap only 
continues to grow.
    Compared to all other sectors of the American populace, American 
Indians and Alaska Natives most often rank at or near the bottom or top 
of most social and economic indicators, whichever is worse. When 
comparing trends between fiscal year 1975-1999 for the total BIA budget 
and the federal non-defense budget as a whole, federal spending as a 
whole increased at a rate of $41 billion a year, with an average level 
of $669.8 billion, while when corrected for inflation, the BIA budget 
actually declined by $10 million a year, on an average spending level 
of $1.7 billion. Throughout the entire fiscal year 1975-fiscal year 
1999 period, per capita spending on the U.S. population as a whole 
consistently increased, whereas per capita spending on Indians through 
major Indian-related programs began to fall after fiscal year 1979.
    Furthermore, in fiscal year 1996, federal funding for Indian 
programs fell short 13 percent or $581 million from the President's 
budget request for that fiscal year. This was mostly seen in dramatic 
cuts in funding for the BIA ($322 million less), Department of Housing 
and Urban Development (HUD) New Indian Housing ($134 million less), and 
the Indian Health Service (IHS) ($80 million less). In fiscal year 
1997, funding for these programs fell short 4.1 percent or $175 million 
below the President's request. And in fiscal year 1998, there was a 1.2 
percent or $52 million shortfall from what the President requested. In 
fiscal year 1999, this unfortunate trend continued with a $100 million 
shortfall.\1\ Mr. Chairman, in a year when the U.S. economy is booming 
and the federal government is expecting over seventy billion dollars in 
surplus funds, the federal government should not be cutting funds to 
American Indians, this nation's poorest people.
---------------------------------------------------------------------------
    \1\ See generally ``Indian-Related Federal Spending Trends. FY 
1975-1999'', Congressional Research Service (CRS), February 1998.
---------------------------------------------------------------------------
    As you are well aware, in recent years tribes have faced 
extraordinary challenges throughout the appropriations process. 
Unprecedented reductions in federal Indian program funding left many 
tribes facing extreme circumstances. Non-funding ``riders'' attached to 
Interior Appropriations bills reached well past the scope of the 
appropriations process and were interpreted by Indian Country as an 
attempt to diminish tribal sovereignty and change the basic fabric of 
the federal-tribal relationship. While we appreciate the commitment to 
balance the federal budget and reform the welfare system, we maintain 
that such laudable initiatives do not and should not preclude the 
federal government from fulfilling its trust responsibilities to Indian 
tribes throughout this great nation. In short Mr. Chairman, 
extraordinary budget reductions in federal Indian programs have created 
a state of emergency for many tribal governments. NCAI is encouraged, 
however, with the Administration's fiscal year 2000 commitment to begin 
addressing some areas of priority concern to Indian Country.
    As Congress begins the appropriations process for fiscal year 2000, 
NCAI aggressively seeks support from this Subcommittee in reversing the 
decline in funding for federal Indian programs that we have experienced 
since fiscal year 1996. In general, we believe that the President's 
fiscal year 2000 budget request has taken a very positive step in this 
direction. We are concerned, however, that even the Administration's 
request for certain essential tribal programs and services remain 
seriously inadequate. Accordingly, tribal budgets are insufficient to 
meet the most basic needs of tribal populations.
    The following testimony is an overview of the recently released 
President's fiscal year 2000 budget request that provides NCAI's 
viewpoint on sections of the budget under the Department of Agriculture 
that are most critical to tribal governments. As more specific 
information is released from the Administration regarding the details 
of the budget request, NCAI will provide further information regarding 
the priorities of the tribal government members of NCAI.
                          department of energy
    The Department of Energy (DOE) manages programs to mitigate and 
remediate Indian lands including ceded and former Indian lands 
contaminated by the Cold War legacy. Inadequate funding is detrimental 
to programs that institute: tribal involvement in decision-making 
processes; shipping of high and low level radioactive waste through 
Indian Country (whose jurisdictions do not have adequate emergency 
response programs in place to protect people, lands and resources); 
and, the siting of permanent repositories for spent nuclear waste on 
former traditional lands (under an arbitrary policy which inequitably 
supports non-Indian state and county governments for oversight 
activities, but does not involve tribes in geographical proximity and 
indigenous to the area).
    The Nevada Test Site is within the traditional homelands of the 
Shoshone and Paiute peoples whose culture, environment, and health has 
been already impacted by federal government-sponsored atomic testing 
and other activities. The DOE Office of Civilian Radioactive Waste 
Management (OCRWM) has performed scientific and technical studies at 
Yucca Mountain on the Nevada Test Site for a proposed high-level spent 
nuclear fuel and radioactive waste permanent repository. The 16-year 
compilation of the Yucca Mountain study, the Yucca Mountain Viability 
Assessment, was released in December 1998. However, the Indian nations 
indigenous to the area do not have the technical staff to analyze the 
massive data.
    Last year's DOE-OCRWM budget did not provide funding for oversight 
activities for the tribes indigenous to this area. However, $16 million 
was given to the state of Nevada, nine Nevada counties, and one 
California county (designated local units of government under the 
Nuclear Waste Policy Act of 1987, as amended) for oversight activities 
at Yucca Mountain. This year, $10.2 million has been requested for non-
Indian governments. NCAI asks that this committee end the disparate 
treatment of tribal governments by earmarking $5 million for tribal 
involvement in the Yucca Mountain area. By funding the impacted tribes, 
Congress will transform the DOE-OCRWM's arbitrary policy of ignoring 
the tribes who remain in their homelands but are left out of the 
oversight process at Yucca Mountain.
    The NCAI Nuclear Waste Program, funded through a DOE-OCRWM 
cooperative agreement, is a national information dissemination effort 
to provide tribal governments with updates on the implementation of the 
Nuclear Waste Policy Act of 1982, as amended. The long-range issues and 
impacts to Indian Country are significant and national in scope, but 
tribes do not have adequate staff or resources to track this program. 
The current NCAI Nuclear Waste Program year is the second under a 
renewed five-year cooperative agreement period. The Program budget is 
at its lowest funding level since its inception in 1982, and DOE-OCRWM 
did not request funding to continue this highly successful program and 
important link to Indian Country. In order to sustain a viable program 
to provide tribal leaders with relevant and current information and 
assist in the interactive DOE process, the NCAI requests the Congress 
to direct the DOE-OCRWM to provide annual funding to the NCAI 
cooperative agreement in the amount of $300,000 as part of its trust 
responsibility toward keeping tribes informed on programmatic impacts 
and maintaining open dialogue with impacted tribal communities.
    The NCAI is making an effort to inform tribes located near nuclear 
utilities that the DOE Office of Nuclear Energy, Science and Technology 
budget contains $10 million for research and development collaboration 
to refurbish and upgrade those nuclear utilities whose licenses will 
soon expire and will have to apply to the Nuclear Regulatory Commission 
for relicensing. This budget reflects a 44 percent increase in nuclear 
energy research and development. We request the DOE direct a portion of 
this funding to be shared with tribes within the 10-mile Emergency 
Planning Zone and the 50-mile Ingestion Pathway Zone around commercial 
nuclear reactors.
    Under the DOE Office of Environmental Management Office of Public 
Accountability (EM-22), ten tribes have cooperative agreements to 
participate in site cleanup and waste management oversight activities. 
The DOE-EM program fiscal year 2000 budget request does not provide an 
increase for critical tribal program continuity. Adequate tribal 
program funding always has been a problem, despite the fact many 
federal sites slated for cleanup are former tribal lands or ceded 
territory and contain significant cultural sites. DOE-EM officials have 
suggested they are working to avoid negative impacts on tribal budgets, 
however their budget does not reflect this assertion. We request the 
Congress provide increased tribal funding for a total of $6 million for 
the cooperative agreements so as not to undermine tribal cleanup 
programs, and to provide funding for Indian outreach by organizations 
including NCAI.
    Funding for the Waste Isolation Pilot Project comes primarily 
through DOE-EM. We are aware that DOE-EM has lowered funding allocation 
for emergency preparedness, public information, and accident prevention 
activities in the fiscal year 2000 budget. The tribes on the WIPP 
transportation corridor in the designated corridors do not have 
adequate emergency response capability in the event of a radiological 
transportation accident. Emergency response organizations require 
several years to develop. In the interest of protecting tribal 
communities, NCAI requests that the DOE-EM's WIPP emergency 
preparedness funding be increased to $1 million.
    NCAI also supports funding for the following tribal programs: (1) 
Energy Efficiency & Renewable Energy--provides grants and technical 
assistance to tribes for weatherization, wind energy systems, 
hydropower, photovoltaic, and renewable energy technologies, $5 
million; (2) Fossil Energy--supports oil exploration and drilling 
research which is beneficial to tribes, $540,000; (3) Defense 
Programs--educational and scientific outreach by national laboratories, 
$750,000; (4) Economic Impact & Diversity--support for small business 
and educational grants $200,000; and, (5) Bonneville Power 
Administration--cultural resources for Pacific Northwest Tribes, $5 
million.
    Non-Indian organizations are being provided funding to conduct 
forums and policy analysis about tribal government participation and 
impacts. Tribal businesses and Indian organizations are capable of 
doing this work, probably at a more reasonable cost. We reject the 
notion that outside consulting and convener groups like Aspen and 
Keystone are receiving funding to delve into American Indian and Alaska 
Native issues while they remain largely ignorant of tribal sovereignty 
and cultural matters. We believe such funding should be made available 
to tribes and Indian organizations, such as NCAI. A tribal organization 
will also protect tribal integrity, maintain confidentiality, and 
prevent breaches of protocol. NCAI respectfully requests this committee 
recommend to the DOE the need change this outdated and unproductive 
practice of non-Indian intrusion.
                               conclusion
    Mr. Chairman, we urge the Congress to fulfill its fiduciary duty to 
American Indians and Alaska Native people and to uphold the trust 
responsibility as well as preserve the Government-to-Government 
relationship, which includes the fulfillment of health, education and 
welfare needs of all Indian tribes in the United States. This 
responsibility should never be compromised or diminished because of any 
Congressional agenda or party platform. Tribes throughout the nation 
relinquished their lands as well as their rights to liberty and 
property in exchange for this trust responsibility. The President's 
fiscal year 2000 budget request acknowledges the fiduciary duty owed to 
tribes. We ask that Congress maintain the federal trust responsibility 
to Indian Country and continue to aid tribes on our journey toward 
self-sufficiency. This concludes my statement. Thank you for allowing 
me to present for the record, on behalf of our member tribes, the 
National Congress of American Indians' initial comments regarding the 
President's fiscal year 2000 Budget.
                                 ______
                                 
   Prepared Statement of R. Max Peterson, Executive Vice President, 
        International Association of Fish and Wildlife Agencies
                      u.s. army corps of engineers
    The fiscal year 2000 budget proposal for Civil Works Appropriations 
of the U.S. Army Corps of Engineers is $4.2 billion, of which $3.9 
billion is requested in appropriated funds and $0.3 billion would be 
financed through non-Federal funds and trust fund receipts. The budget 
proposal reflects continued commitment to proper management of our 
natural resources, through dedication of $687 million to environmental 
programs (a $56 million increase over fiscal year 1999) and through 
$258 million in contributions to intergovernmental environmental 
programs. The Association appreciates the fact that many of our 
recommendations from recent fiscal years have been maintained by the 
Corps in their succeeding year's budget request.
    We continue to encourage the Corps to expedite design and grant 
administration associated with Section 1135 projects as provided for 
within the Water Resources Development Act of 1986. We urge the Corps 
to continue to take steps to expedite the approval process for those 
projects.
    The Association encourages the Corps to cooperate, coordinate, and 
develop civil works and restoration activities with State fish and 
wildlife agencies. The State fish and wildlife agencies are generally 
aware of where Corps projects could most effectively enhance the status 
of fish and wildlife resources through improvements to habitat. We are 
especially interested in the new ``Challenge 21 Initiative'' which will 
result in development of partnerships to restore riverine ecosystems to 
address flood prevention through non-structural alternatives.
    Our Association particularly appreciates the leadership of Congress 
in providing funding for mitigation projects. We are especially pleased 
that the Corps is requesting, and the Association supports, $100 
million for Columbia River Fish Mitigation in Washington. The 
Association also strongly encourages Congress to appropriate necessary 
funding within the Corps budget to facilitate the mitigation feature of 
the West Tennessee Tributaries Project, which is needed to satisfy 
legal constraints to enable initiation of river restoration work within 
this significant watershed. We recommend that the Congress explore the 
need for generic legislative direction to the Corps to ensure that the 
older projects include the authority for fish, wildlife, water quality, 
and sustained minimum flow mitigation and enhancement, and if 
legislation is necessary, to act on that need. Further, the Association 
recommends that mitigation funding for ongoing projects be listed as a 
separate line item within the Civil Works Appropriations. This action 
would separate the funds from routine operations and maintenance and 
better facilitate the separate states' ability to identify the funds 
and seek support for the projects. The Association urges the Corps to 
work with those States interested in transferring mitigation properties 
in fee simple for management by the state. Such transfers should result 
in an overall savings to the Corps.
    The Association is also generally supportive of the funding 
requested for some of the large river restoration projects. The 
Association supports the fiscal year 2000 request of $39.8 million for 
restoration of meanders and wildlife habitat on the Kissimee River and 
$75 million to restore water flows through the Everglades and other 
areas in Florida. It is in the best interest of the country to restore 
the habitat and hydrologic components of these rivers that have been 
significantly altered under previous Corps projects.
    With regard to the Corps' regulatory authority under the Clean 
Water Act of 1972, we strongly support the request of $117 million for 
implementation of a streamlined program to process, review, issue 
permits and provide an appeals procedure for the committing of 
activities in waters of the United States, including wetlands 
associated permits and jurisdictional determination.
    Furthermore, the Association believes a strong partnership program 
with state agencies affords the best opportunity for balanced 
conservation of aquatic resources.
    The Association recommends that the Corps continue in partnership 
with State fish and wildlife agencies to initiate applicable 
restoration, mitigation and conservation projects. For example, we 
request the Corps continue to participate with State agencies and non-
Federal interests in the North American Waterfowl Management Plan 
through wetlands conservation and wetlands identification.
    The Association is excited by the potential for significant 
environmental accomplishments in restoration, conservation, and 
sustainable management of water, fish, and wildlife resources through 
the Administration's Clean Water Initiative. The Association is 
especially pleased with Federal plans to partner with local, state and 
tribal agencies and with the watershed management emphasis. The States 
are interested in forging a true partnership through sharing ideas, 
plans, design, implementation structure and enforcement in establishing 
a unified, cooperative approach to improving water quality.
                    tennessee valley authority (tva)
    The Association supports the President's budget request for TVA to 
receive $7 million in appropriations to fund operations of Land Between 
the Lakes (LBL) National Recreation Area. The LBL requested 
appropriation is the same level of funding enacted for the area in 
fiscal year 1999. Four million dollars in proceeds are expected from 
user fees and other sources for a total operating budget of 
approximately $11.0 million. LBL's operation is vitally important to 
boating, fishing, hunting, camping, wildlife observation and other 
conservation-oriented activities in the southeastern U.S.
    Other funding for traditional TVA stewardship programs will be 
attained through monies obtained by restructuring of TVA's debt. These 
programs will be paid for with power revenues using the flexibility 
provided by refinancing of the debt. No other appropriations are 
proposed for TVA.
    TVA's new approach to funding of other stewardship programs places 
these programs in a precarious position for future years. The 
Association strongly urges TVA to continue to fund these vital programs 
using power system revenues. TVA has previously utilized appropriated 
dollars to improve the quality of life in the Tennessee Valley. TVA is 
requested to keep the Association and member organizations apprised of 
significant changes in the delivery of these traditional services.
    TVA has established itself as a global leader in tailwater 
restoration and technology and has established the national standard 
for such activity. The Association commends TVA for these efforts. The 
Association also supports TVA's efforts to implement new comprehensive 
shoreline management policies and urges TVA to work closely with member 
states within the Tennessee Valley. Water level management and aquatic 
vegetation management programs remain important issues to the member 
states and we urge TVA to continue to work closely with States on these 
issues.
    The Association is concerned about the status of the navigation 
lock at Chickamauga Dam. TVA is requested to work closely with the U.S. 
Corps of Engineers to determine best construction options and 
strategies for obtaining federal funding. The Association urges 
Congress to appropriate funding to address this critical problem.
    The Association recommends that TVA continue to actively support 
and participate in the States' Clean Streams Initiative with the Office 
of Surface Mining (OSM) to complete projects in the TVA service area. 
These state-Federal-private cooperative projects are engaged in 
restoring fish, aquatic life, recreational and economic opportunity in 
watersheds damaged by acid mine drainage from past coal mining 
activities.
    We are encouraged that TVA has undertaken a serious review of 
public lands along TVA reservoirs and rivers to insure these properties 
are not utilized in such a manner as to exclude reasonable public use. 
Further, we support current and future planning efforts that insure 
conservation and protection of riparian habitat.
              federal energy regulatory commission (ferc)
    The Association recommends Congress appropriate $7.5 million to 
allow FERC to reimburse state fish and wildlife agencies for studies 
and reviews associated with hydropower relicensing activities. Section 
1701 of the Federal Power Act was amended in 1992 specifically to 
authorize reimbursement to states for this work. FERC has never sought 
appropriated funds for this purpose. If appropriated funds cannot be 
provided, FERC should be instructed to require reimbursement for this 
work by the licensee. Otherwise, projects will be proposed for 
relicensing without adequate studies of appropriate fish and wildlife 
licensing requirements. This invites conflict and possibly more 
stringent requirements, including water releases, than would be needed 
if more adequate studies were made.
                      bureau of reclamation (bor)
    Over its 97-year history, the BOR has played a vital role in 
harnessing and managing water resources for a young and growing Western 
United States. The fulfillment of those high national priorities has 
not always been accomplished with a long-term vision for the health of 
fish and wildlife resources within BOR project design, construction and 
operational practices. Thus, the development of high priority public 
services has sometimes proven highly detrimental to other public 
values, including certain fish and wildlife resources. The agency's 
publicly stated policy is to sustain the health and integrity of 
ecosystems and protect the environment as it goes about the important 
work of providing dependable sources of water. The agency has embarked 
upon refreshing new goals that better balance these sometimes competing 
uses of limited natural resources. It is, therefore. eminently 
satisfying to the Association to witness and strongly support BOR's 
efforts to refocus considerable financial resources on ameliorating 
historical water development-related damages to fish and wildlife and 
their habitats.
    California Bay-Delta Ecosystem Restoration.--The BOR seeks $95 
million to continue this work, which has never been funded at the full 
authorization level of $143 million per year. This authorization 
expires in 2000, and the Association supports legislation extending the 
authorization to 2003 to allow for funding the entire $403 million 
authorized program. This program, which responds to Congressional 
direction through the California Bay-Delta Environmental Enhancement 
and Water Security Act, provides vital Federal cost-sharing dollars for 
ecosystem restoration in California's Bay-Delta. This effort is based 
on collaborative efforts among several federal agencies and the State 
of California. Restorative efforts such as fish screening, flood plain 
habitat restoration, instream flow provisions and watershed management, 
typify the work being accomplished. The Bay/Delta system provides 
habitat for 120 fish and wildlife species. The Association fully 
supports BOR's request for $95 million for this work for fiscal year 
2000, and would encourage Congressional extension of the authorization 
until 2003.
    Central Valley Project.--Created by Congress in the Central Valley 
Project Improvement Act, the CVP Restoration Fund is expected to 
collect just over $49 million from rate payers for fish and wildlife 
management and development work in the Central Valley Project area of 
California. The BOR is seeking a Congressional appropriation of $47.3 
million from the Fund to undertake important anadromous fisheries 
habitat work, water acquisition, fish screening and other works that 
are necessary to continue efforts to restore the fish and wildlife-
related damages created by this federal project. The Association 
encourages the Congress to fully fund this work at the requested level 
of $47.3 million, and to make the CV Project Restoration fund a 
Permanent appropriation.
    Endangered Species Recovery Implementation.--The BOR is requesting 
a total of $15 million for endangered species recovery work spread 
among four BOR Regions. This is six percent above the 1998 
appropriation. This represents a modest increase, particularly when 
viewed in the context of the geographical areas affected by prior BOR 
activities and the complex of imperiled fish, wildlife and essential 
habitats that need attention as a consequence of these earlier actions. 
A significant proportion of the BOR's request for work in the Upper 
Colorado Region and Lower Colorado River Region is directed at 
endangered species recovery. As just one example of the important 
projects planned for fiscal year 2000, in this instance in the Upper 
Colorado, is the work on the Platte River. This multi-agency 
cooperative program is essential to restore endangered and threatened 
species and the requested $2.5 million would allow implementation 
activities such as water conservation and critical habitat restoration. 
The request for $15 million for endangered species recovery projects, 
proposed by the BOR for fiscal year 2000, is deemed essential by the 
Association and is strongly supported.
    Pacific Northwest.--As reported by the BOR, ``perhaps the region's 
largest and most visible challenge is the restoration of the anadromous 
fishery.'' The Association concurs with this assessment and strongly 
supports the request of $13.1 million for Pacific salmon recovery.
    Water Reclamation and Reuse.--As the population of the West 
continues to grow at remarkable rates, competition will continue to 
intensify among the many important uses of water. Renewable natural 
resources, including fish and wildlife, are directly dependent upon the 
availability of water. To meet citizens' demands for water and water-
related public services, including healthy natural resources, will 
require intelligent use, conservation and reuse of the limited water 
supplies. The Association is pleased to support efforts designed to 
conserve and reuse water and supports the BOR's fiscal year 1999 
request for $31.5 million for these purposes.
                                 ______
                                 
  Prepared Statement of the Association of State Dam Safety Officials
    The Association of State Dam Safety Officials (ASDSO) strongly 
supports full funding, as authorized in the National Dam Safety Program 
Act of 1996 (Public Law 104-303), for the National Inventory of Non-
Federal Dams in fiscal year 2000. Full funding is $500,000. This 
critical database of state- and federally-regulated dams, administered 
by the U.S. Army Corps of Engineers, has provided vital information on 
dams in the country. The timely information provided by the National 
Inventory of Dams is essential in our ongoing efforts to mitigate dam 
failures.
    ASDSO is a national organization of more than 1,600 state, federal, 
and local dam safety officials and private sector individuals dedicated 
to improving dam safety through research, education, and communication. 
ASDSO is based in Lexington, Kentucky.
    The National Inventory of Dams is one part of a continuing effort 
by federal and state dam safety officials to identify and mitigate the 
risk associated with dams and to preserve the nation's investment in 
its water control infrastructure. It is an essential tracking tool, 
which has revealed pertinent statistics on a national level while, at 
the same time, providing critical data needs to state dam safety 
regulators. The funding provides for updating, transmittal, compilation 
and distribution of information to the national database. The funding 
also gives the Corps the ability to continually upgrade the system to 
maintain its technological validity.
                              the database
    This computer database houses vital information on federally and 
state-regulated dams across the nation. The database tracks information 
about the dam's location, size, use, type, proximity to populations, 
hazard classification, regulatory facts, and other technical data. It 
can be used by the dam safety community to access comprehensive 
statistical information and to integrate effects of dams within 
Geographic Information Systems (GIS), the state-of-the-art technology 
in tracking lifeline systems and responding to emergency events.
    The database can be used by policy makers as a tool when dam safety 
issues are under consideration. For instance, the Federal Emergency 
Management Agency uses the data to determine State Dam Safety 
Assistance Grants awarded annually under the National Dam Safety 
Program. It is essential that the National Inventory data is current to 
make equitable and accurate decisions about these grant determinations. 
Another example: data indicates that a majority of non-federal dams do 
not have emergency action plans in place something important to policy 
officials not only as it concerns dam safety, but also as it affects 
emergency preparedness. The inventory is a critical database for 
emergency managers during severe weather, earthquakes or other natural 
events that threaten dams.
    To date, detailed data on approximately 75,000 dams is housed in 
the inventory. Of this number, about 9,500 dams are termed high-hazard, 
meaning they threaten human life and could cause significant downstream 
damage should they fail. Reports generated from the Inventory have 
highlighted the fact that about 1,800 of these high-hazard structures 
are within one mile of a downstream city a statistic not known before 
the database was in place.
    The National Inventory has determined that dams are built primarily 
for recreation, flood control, irrigation, water supply, fire and farm 
ponds, mine tailings impoundment, and hydroelectric power generation. 
States regulate about 71,000 of these structures; the federal 
government owns or regulates the remaining 4,000.
                       need for continued funding
    An inventorying system, such as this one, was determined by dam 
safety administrators and federal legislators in the 1980's to be one 
of the primary objectives in a national program to improve dam safety 
in this nation. A priority which was paramount on the minds of the 
public after several devastating failures had occurred:
  --The Buffalo Creek Dam failure of 1972 killed 125 in West Virginia.
  --The Teton Dam failure in 1976 caused the deaths of 14 and $400 
        million in property damage.
  --The Laurel Run Dam failure in 1977 killed 40 in Pennsylvania.
  --The Kelly Barnes Dam in Taccoa Falls, Georgia killed 39 and caused 
        $2.5 million in damages in 1977.
    As a result of these disasters and the clear recognition of the 
tremendous potential for more failures, Congress passed the National 
Dam Safety Program Act of 1986 and re-authorized and updated this law 
with the National Dam Safety Program Act of 1996. Through these laws, 
Congress and has been very clear, in recent years, that it recognizes 
the need to mitigate disasters from dam failure. This recognition of 
the need for a national dam safety program, accompanied by funding, 
must continue to advance the programs now in place to reduce risks from 
dam failure.
    Although we have not seen a dam failure to match the ones mentioned 
above, failures and devastation continue to occur and still threaten 
this nation as dams continue to age and deteriorate and as downstream 
populations grow. In the past year alone, approximately 88 documented 
failures have occurred across the nation. A woman was killed in New 
Hampshire two years ago as a direct result of dam failure. Dam and 
downstream repair costs resulting from failures in 23 states reporting 
in a recent year totalled $54.3 million. Failures can affect large 
populations, may flood into neighboring states and may cost millions of 
dollars in federal disaster relief spending.
    Most failures occur at dams that are determined to be deficient or 
unsafe. There are over 1,800 unsafe non-federal dams in the United 
States including: 3 unsafe dams in New Mexico; 8 unsafe dams in Nevada; 
49 unsafe dams in West Virginia; 41 unsafe dams in Utah; and 13 unsafe 
dams in Washington.
    The priority on rehabilitating our aging and deteriorating national 
infrastructure must include dams. Dams provide people with tremendous 
everyday benefits such as drinking water, electricity, protection from 
floods, wetlands areas, recreation and irrigation.
    To measure our progress toward assuring the safety of all dams, a 
centralized, accurate database of information on dams is essential. The 
National Inventory of Dams can supply this necessary statistical data. 
But, this type of data is only as good as its last update. The database 
must be continuously updated and the system upgraded as the vital 
information on dams changes.
                               conclusion
    In summary, the data in the National Inventory of Dams is important 
to federal and state dam regulators to have access to accurate, current 
information on dams that impact the safety of communities, other dams, 
flood prone areas and future projects. In addition, the data is 
essential to managers of the National Dam Safety Program at FEMA, who 
requires the data to make accurate and equitable determinations of 
annual state dam safety assistance grant awards. Emergency managers 
need the data in disaster mitigation and response, as do policy makers 
who constantly need to know the ``state of America's dams.'' Continual 
updating of this data is imperative to the value of the National 
Inventory of Dams.
    ASDSO strongly urges this Subcommittee to continue funding in the 
amount of $500,000 in fiscal year 2000 to the Corps of Engineers for 
the National Inventory of Dams.
                                 ______
                                 
  Prepared of Lisa S. Holland, Chair, Association of State Floodplain 
                             Managers, Inc.
    The Association of State Floodplain Managers appreciates the 
opportunity to express support for fully funding several programs of 
the Army Corps of Engineers which can significantly expand the Corps' 
ability to reduce losses due to flooding. We have found that Planning 
Assistance to States (Section 22) and Flood Plain Management Services 
provide for important elements of effective floodplain management. 
Challenge 21, the proposed Riverine Ecosystem Restoration and Flood 
Hazard Mitigation Initiative, offers new opportunities for use of non-
structural options to achieve flood loss reduction. These are all 
elements of the Corps' activities that are especially helpful to 
communities and states around the country in reducing flood losses.
    The Association of State Floodplain Managers is an association of 
over 3,500 state and local officials and other professionals engaged in 
floodplain management, flood hazard mitigation, flood preparedness, 
warning and recovery and in working with the National Flood Insurance 
Program. Our members have expertise in the fields of engineering, 
planning, community development, hydrologic forecasting, emergency 
response, and water resources.
    The three programs we are discussing, PAS, FPMS and Challenge 21, 
are all programs which directly support the two major themes identified 
by Assistant Secretary Westphal in his testimony before the 
Subcommittee as important to the way the Corps should formulate and 
implement Civil Works policy. He said it should be based on building 
strong partnerships with states and local communities as well as other 
federal agencies. Additionally, he stated that Civil Works policy 
should help economic growth and prosperity by ``combining sound 
infrastructure management and development with environmental protection 
and ecosystem restoration''. We full support these strategies for the 
Corps.
    Under General Investigations, ``Coordination Studies With Other 
Agencies'' includes $6.5 million for Planning Assistance to States in 
the budget request for fiscal year 2000. As you know, the fiscal year 
1999 budget provided $6.3 million for this program. This amount, which 
was 1 million over the budget request, was provided by the Congress to 
help to reduce the work backlog and meet the growing need of localities 
and local and regional governmental entitles for technical assistance 
from the Corps. The Senate provided $7.5 million in recognition of the 
backlog and the $6.3 was agreed to in Conference. The situation has, of 
course, been helped by the Congressional effort this fiscal year, but a 
significant backlog remains. Further, increasing federal efforts to 
encourage cooperation and capability building among federal agencies 
and state and local governments have produced more demand for the 
Corps' guidance and assistance. We hope that the Committee will approve 
funding at least at the budget request and, hopefully, above the budget 
request.
    Also under General Investigations, Flood Plain Management Services, 
$9 million is requested for fiscal year 2000. This is the funding level 
for fiscal year ``99, although last year's budget request sought $9.4 
million. The Floodplain Management Services Program funds specific 
technical assistance requests from states, local governments and 
tribes. Generally, these address needs for identification of flood 
hazards in communities under growth pressure, assessing and taking 
steps to assure the safety of dams and providing the technical 
information to identify appropriate flood mitigation options, 
floodproofing, flood warning and hurricane evacuation studies. Without 
the technical assistance the Corps provides, structures may be built at 
risk, exposing citizens and the nation's taxpayers to future costs. 
Clearly, projects funded under FPMS work tangibly to reduce flood 
losses and costs to the federal government and support the partnership 
and economic growth/infrastructure management strategies above.
    The Corps is requesting $25 million for its Challenge 21 
initiative. While authorization is not yet in place for this promising 
program, the Senate version of this year's Water Resources Development 
Act does including authorizing language. Challenge 21 would provide the 
Corps with a full-range toolbox to help communities and states. It 
offers essential flexibility such as the ability to accommodate smaller 
projects for communities where a traditional structural project might 
not be justified or the ability to mix structural and non-structural 
elements to better design an overall project. The continuing 
authorities nature of the proposed program is important because 
confidence in a sustained federal commitment is important to 
communities for development and implementation of these smaller 
projects. It is probable that hundreds of communities in the nation 
have the potential to benefit substantially from this innovative 
initiative. We hope that the Committee will provide the nation's 
communities with the valuable tools of Challenge 21.
    It is a pleasure to share our views on the effectiveness and 
usefulness of these programs in the achievement of flood loss 
reduction. Thank you for the opportunity to present testimony. We are 
always ready to respond to your questions. Please contact ASFPM 
Executive Director, Larry Larson, at (608) 274-0123 if further 
information is needed.
                                 ______
                                 
            NEW YORK AND NEW JERSEY WATER RESOURCE PROJECTS
  Letter From Philip Beachem, Chairman, New Jersey Maritime Advisory 
                                Council
                                                    March 26, 1999.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development,
U.S. Senate, Washington, DC.
    Dear Mr. Chairman: New Jersey relies heavily on waterfront and 
coastal commerce to maintain its healthy economy. New Jersey's deep 
draft commercial waterways handle in excess of a quarter billion tons 
of cargo a year, producing more than $1 billion in customs revenue for 
the Federal Government. In addition to our ports, New Jersey's $50 
billion maritime industry includes more than $1 billion in commercial 
and recreational fishing activities on our inland waterways and rivers. 
The continued partnership between the Corps of Engineers and the State 
of New Jersey is crucial to our local, regional, and national economy.
    Shore protection and flood control projects are equally important 
to the economy of our State and the health and safety of our citizens. 
These projects protect vital infrastructure and reduce storm damage to 
personal and public property.
    In addition to this testimony on behalf of the sixty-two corporate, 
government, and academic members of the New Jersey Maritime Advisory 
Council, we have also provided technical data for the benefit of the 
members of your Subcommittee.
    We respectfully request your favorable consideration. New Jersey is 
prepared to move resolutely ahead in partnership with the Federal 
Government.
            Respectfully submitted,
                                            Philip Beachem,
                                                          Chairman.

SUMMARY OF THE PORT AUTHORITY OF NEW YORK NEW JERSEY FEDERAL CIVIL WORKS
                    APPROPRIATIONS, FISCAL YEAR 2000
------------------------------------------------------------------------
                                            President's       Sponsor
                                              Budget      Recommendation
------------------------------------------------------------------------
              CONSTRUCTION
 
Kill van Kull--Newark Bay Channels, NY &     $60,000,000     $60,000,000
 NJ.....................................
NY & NJ Channels: Arthur Kill, NY & NJ..  ..............       2,000,000
NY & NJ Channels: Port Jersey, NJ.......       2,000,000       2,000,000
NY Harbor Collection & Removal of Drift,  ..............       1,000,000
 NY & NJ................................
                                         -------------------------------
      Subtotal..........................      62,000,000      65,000,000
                                         ===============================
                 STUDIES
 
Arthur Kill Channel Extension...........         100,000         100,000
NY Harbor & Red Hook Flats Anchorages...         300,000         300,000
NY & NJ Harbor Navigation Study.........         884,000         884,000
NY & NJ Harbor Navigation Study--PED....       2,534,000       2,534,000
NY & NJ Channels: Arthur Kill, NY & NJ..       1,312,000       1,312,000
NY & NJ Estuary Restoration Study.......  ..............         100,000
NY Harbor & Adjacent Channels: Claremont  ..............       1,500,000
 Channel, NJ............................
                                         -------------------------------
      Subtotal..........................       5,130,000       6,730,000
------------------------------------------------------------------------


  SUMMARY OF NEW JERSEY FEDERAL CIVIL WORKS APPROPRIATIONS, FISCAL YEAR
                                  2000
------------------------------------------------------------------------
                                            President's       Sponsor
                                              Budget      Recommendation
------------------------------------------------------------------------
              FLOOD CONTROL
 
Green Brook.............................      $1,000,000      $1,000,000
MillBrook...............................  ..............       2,200,000
Molly Anns Brook........................  ..............       1,000,000
Passaic River Flood Storage.............       1,800,000       1,800,000
Passaic River Minish Park...............  ..............       8,000,000
Poplar Brook............................  ..............         250,000
Ramapo River-Oakland....................       1,300,000       1,300,000
Raritan River-South River...............         569,000         569,000
Upper Passaic-Long Hill.................         200,000         200,000
Upper Rockaway River....................         200,000         200,000
Woodbridge & Railway River..............         100,000         100,000
Shrewsbury River........................  ..............         100,000
                                         -------------------------------
      Subtotal..........................       5,169,000      16,719,000
                                         ===============================
            SHORE PROTECTION
 
Barnegat Bay............................         400,000         400,000
Barnegat Inlet to Little Egg Inlet......  ..............         700,000
Brigantine Inlet-Great Egg Inlet-Absecon  ..............      14,300,000
Brigantine Inlet-Great Egg Inlet-         ..............         337,500
 Brigantine.............................
Cape May Inlet to Lower Township........       1,700,000       2,000,000
Delaware Coastline-New Jersey & Delaware  ..............         850,000
Great Egg Inlet and Peck Beach..........         419,000         419,000
Great Egg Inlet to Townsend Inlet.......  ..............         226,000
Lower Cape May Meadows-Cape May Point...  ..............         523,000
Manasquan Inlet to Barnegat Inlet.......  ..............         300,000
Raritan Bay & Sandy Hook Bay-Cliffwood..  ..............         275,000
Raritan Bay & Sandy Hook Bay-Highlands..  ..............         200,000
Raritan Bay & Sandy Hook Bay-Keyport....  ..............         200,000
Raritan Bay & Sandy Hook Bay-Leonardo...         225,000         225,000
Raritan Bay & Sandy Hook Bay-Port         ..............         400,000
 Monmouth...............................
Raritan Bay & Sandy Hook Bay-Union Beach         320,000         320,000
Raritan Bay & Sandy Hook Bay-Section 934  ..............         200,000
Sandy Hook to Barnegat Inlet............       9,000,000      18,000,000
Townsend Inlet to Cape May Inlet........  ..............       1,250,000
                                         -------------------------------
      Subtotal..........................      12,064,000      41,125,500
                                         ===============================
                DREDGING
 
New Jersey Intracoastal Waterway                 519,000         519,000
 Environmental Restoration..............
New York Collection & Removal of Drift..  ..............       5,500,000
Dredging in Support of OpSail 2000......  ..............       1,000,000
                                         -------------------------------
      Subtotal..........................        519, 000       7,019,000
                                         ===============================
           PLANNING ASSISTANCE
 
Section 22, Public Law 93-251...........  ..............         300,000
                                         ===============================
         OPERATION & MAINTENANCE
 
Barnegat Inlet..........................       1,270,000       1,580,000
Cold SpringInlet........................         545,000         545,000
NJ Intracoastal Waterway................       1,854,000       1,854,000
Salem River.............................  ..............       1,200,000
                                         -------------------------------
      Subtotal..........................       3,669,000       5,179,000
------------------------------------------------------------------------


 SUMMARY OF PHILADELPHIA DISTRICT CORPS OF ENGINEERS FEDERAL CIVIL WORKS
                    APPROPRIATIONS, FISCAL YEAR 2000
------------------------------------------------------------------------
                                            President's       Sponsor
                                              Budget      Recommendation
------------------------------------------------------------------------
                 PROJECT
 
Delaware River, Philadelphia to the Sea       $3,660,000      $4,160,000
 Construction & Maintenance of Disposal
 Areas..................................
------------------------------------------------------------------------

                                 ______
                                 
  Prepared Statement of Hon. Sharpe James, Mayor, City of Newark, New 
                                 Jersey
    Mr. Chairman and members of the Subcommittee, thank you for giving 
me the opportunity to submit testimony about a project under your 
jurisdiction which is very important to the people of Newark, New 
Jersey and the surrounding region. The Passaic River Streambank 
Restoration Project, known as the Joseph G. Minish Passaic River 
Waterfront Park and Historic Area, is an important part of the overall 
economic, land use and transportation development plan of the City of 
Newark.
    The project was authorized at a level of $75 million in the 1996 
Water Resource Development Act, and has been fully planned by the Army 
Corps of Engineers. The streambank restoration and bulkhead 
replacement, which is the first phase of the overall project, is set to 
begin in the summer of 1999 two months utilizing last year's 
appropriation of $3,000,000, which also brought the project to final 
design. Prior appropriated funds have been utilized to fully design the 
bulkhead, a segment of naturalized streambank, and a system of walkways 
and public open spaces. Adjacent, currently dormant, sites will become 
desirable locations for development of commercial properties. However, 
the fiscal year 1999 funding will only take us through the construction 
of five hundred feet of bulkhead and some of the mud flats restoration, 
not to a usable facility.
    A supplemental appropriation of $15 million is requested so that 
this integral element in Newark's revitalization can move from partial 
construction to the beginning of full project build-out. This 
investment in Newark's future will help us to improve the economic 
status of our nation's third oldest major city. The development of the 
riverfront now is a critical element in the overall plan for Newark's 
downtown revitalization. This linear park will serve as a visual and 
physical linkage among several key and exciting development projects. 
It is adjacent to one of the oldest highways in the nation, Route 21, 
which is undergoing a multi-million dollar realignment and enhancement. 
A light rail system, the Newark-Elizabeth Rail Link, which will connect 
Newark's two train stations, and ultimately, Newark International 
Airport and the neighboring City of Elizabeth, will provide users with 
access to mass transportation. Conversely, the riverfront will become a 
destination served by that system, providing an important open space 
and waterfront opportunity for residents of one of the most densely 
populated cities in the nation.
    The environmental benefits of the project include flood control, 
riverbank and wetlands restoration, creation of urban green space, and 
enhancement of water quality in the Passaic River. These improvements 
will allow the Passaic River to be converted from one of the nation's 
most troubled waterways to a cultural and recreational asset. Ongoing 
and planned greenway projects will provide pedestrian and bicycle 
access to the waterfront from Newark's residential neighborhoods as 
well as the City's five major institutions of higher learning.
    The riverfront development will complement and provide a visual and 
physical connection with the new, $170 million New Jersey Performing 
Arts Center, which opened in the Fall of 1997 and has been incredibly 
successful. Further north along the riverfront, also accessible from 
the riverfront walkway when it is fully built, the City of Newark and 
Essex County are constructing a minor league baseball facility along 
Route 21, which will be open for use this July. On the eastern portion 
of Minish Park, residents of a crowded community, Newark's Ironbound, 
will have direct access to the river and its streambank for active and 
passive recreation for the first time. The development of the Passaic 
Riverfront is also a driving consideration in the planned construction 
of a major downtown sports and entertainment venue to house major 
events and competitions.
    The riverfront will be the nexus of these activities, creating a 
vibrant downtown center that will provide economic development 
opportunities for the citizens of Newark and our region. Visitors from 
throughout the nation are expected to come to visit our revitalized 
city, and participate in the exciting growth and development taking 
place. There is tremendous potential for Newark's riverfront to mirror 
the success of other riverfront developments throughout the country, 
and Newark stands ready to accept the challenges such developments 
present.
    The City of Newark currently is conducting a master plan study for 
the entire riverfront area, which will guide us in tying together these 
incredibly exciting, and challenging, projects. We have a once in a 
lifetime opportunity to coordinate several major development activities 
into a virtually seamless development plan. The appropriation of $15 
million which I am requesting will serve to incorporate the Army Corps 
of Engineers' construction into our overall economic development plan 
to reinvigorate Newark. I urge you to support this appropriation 
request.
    In closing, I would like to extend my thanks to the entire New 
Jersey delegation for its ongoing support. The time and attention of 
this subcommittee are deeply appreciated.
                                 ______
                                 
   Prepared Statement of Kevin S. Corbett, Executive Director, Port 
     Authority Affairs State of New York, Empire State Development 
    Corporation; Frank M. McDonough, Executive Director, New Jersey 
  Maritime Resources State of New Jersey, Commerce & Economic Growth 
Commission; and Lillian C. Borrone, Director, Port Commerce Department 
              the Port Authority of New York & New Jersey
    On behalf of the Port of New York and New Jersey, we wish to thank 
you for the support you have shown for the navigation and water 
resources programs in recent years.
    Herein, we offer our comments on the US Army Corps of Engineers' 
fiscal year 2000 budget request. We fully support the proposed funding 
for the construction of the Kill van Kull-Newark Bay Channels to 45 
feet. However, we believe that funding is also required for the 
deepening of the Arthur Kill Channel to 41 feet. In order for the 
benefits of these and other projects to be realized as soon as 
possible, and to avoid unnecessary project cost increases, we request 
that the subcommittee appropriate funds at the levels described in this 
statement. These funds will ensure that essential navigation 
infrastructure will be in place to accommodate post-Panamax ships 
currently deployed in international commerce. Using a conservative 
estimate for future cargo volumes, we believe that our Port will grow 
in excess of three percent per year--which equates to cargo volumes 
doubling by 2015. Accommodating the deep draft vessels that will move 
this cargo is critical to not only the Port's vitality but also to the 
nation's commercial competitiveness. The Administration's proposal, 
enhanced by our requests for additional funds, will keep this critical 
work on track to the benefit of the regional and national businesses 
that utilize the East Coast's largest international gateway.
    Listed below are the projects and appropriation amounts that we 
request for the Port of New York and New Jersey. Those projects 
displayed in bold are our additional requests.

                                                            Port Request
Construction:
    Kill van Kull--Newark Bay Channels, NY & NJ.........     $60,000,000
    NY & NJ Channels: Arthur Kill, NY & NJ..............       2,000,000
    NY & NJ Channels: Port Jersey, NJ...................       2,000,000
    NY Harbor Collection & Removal of Drift, NY & NJ....       1,000,000
Studies:
    Arthur Kill Channel Extension.......................         100,000
    NY Harbor & Red Hook Anchorage......................         300,000
    NY & NJ Harbor Navigation Study.....................         884,000
    NY & NJ Harbor Navigation Study--PED................       2,534,000
    NY & NJ Channels: Arthur Kill, NY & NJ..............       1,312,000
    Flushing Bay and Creek, NY..........................         600,000
    NY & NJ Estuary Restoration Study...................         100,000
    NY Harbor & Adjacent Channels: Claremont Channel, NJ       1,500,000

    A brief description of each of these activities follows.
                              construction
    Kill van Kull--Newark Bay Channels, NY & NJ (Phase II).--The Kill 
van Kull-Newark Bay Channels project--deepening to 45 feet--was 
authorized for construction in the fiscal year 1985 Supplemental 
Appropriations Act (Public Law 99-88) as well as the 1986 Water 
Resources Development Act (WRDA). The channel serves the busiest and 
largest container facilities on the Atlantic seaboard. The terminal 
operators and ocean carriers that call on the Port Newark and Elizabeth 
Marine Terminals, as well as the harbor pilots, have insisted that 
rapid completion of the 45 foot deepening project is essential if the 
port is to efficiently serve major carriers that call in the port. It 
is imperative to the continued navigational safety and economic 
vitality of the port region, and its ability to accommodate projected 
commerce, that the construction to 45 feet below MLW be completed as 
soon as possible. With the funding provided for fiscal year 1999 and 
the proposed funding for fiscal year 2000, the project has been given a 
good start.
    The Corps' current schedule forecasts that the project will be 
finished no earlier than 2005. The Port Authority, as local project 
sponsor, is prepared to provide the non-Federal cost-share, estimated 
at $256 million. The Port Authority is working in cooperation with the 
Corps to accomplish the project several years sooner than originally 
planned and bring the project in under its authorization level by 
providing an optimum dredged material disposal solution. We appreciate 
the Administration's second year budget for fiscal year 2000 of 
$60,000,000.
    NY & NJ Channels: Arthur Kill Channel, NY & NJ.--The Arthur Kill 
Channel, NY & NJ, Howland Hook Marine Terminal (HHMT) project was 
authorized in the 1986, 1992 and 1996 WRDA's. The project's controlling 
depth is currently 35 feet. The proposed channel improvements include: 
(1) deepening the existing 35-foot channel to 41 feet below MLW from 
its confluence with the Kill van Kull Channel to the HHMT; (2) 
deepening to 40 feet below MLW from the HHMT to the Petroport and Tosco 
facilities in New Jersey; and (3) selected widening and realignment of 
the channel to ensure safe navigation. The Port Authority has invested 
$35 million to date to modernize the HHMT and has spent, along with the 
City of New York, approximately $18 million for the berth dredging 
required to return this terminal into active service. The HHMT 
currently employs 275 people on peak days and is expected to increase 
to a range of 650 to 800 employees by the year 2000. In addition, HHMT 
is the Northeast Strategic Port of Embarkation in the event of a 
national emergency. Finally, the City, the State of New Jersey and the 
Port Authority are working to augment operations by re-establishing 
rail service to the terminal in late 1999.
    In addition to the benefits that will accrue to the HHMT and the 
petroleum facilities along the Arthur Kill, implementation of this 
deepening project is vital to the Port's future capacity to grow. The 
HHMT is the largest marine terminal in New York City and has 
significant potential for expansion. The deeper channel will not only 
improve container movement but also will enhance petroleum vessel 
transit in the harbor's waterways, minimizing lightering and reducing 
the chances of oil spills or accidental pollution of the harbor due to 
groundings. We, therefore, respectfully request that the fiscal year 
2000 appropriations include $2,000,000 to initiate channel improvements 
in the Arthur Kill Channel. We would prefer a greater amount to shorten 
the construction time frame for the 41-foot project but recognize the 
budgetary constraints you currently face.
    New York Harbor and Adjacent Channels: Port Jersey, NJ.--The 1986 
WRDA authorized construction of the Port Jersey Channel to 41 feet. The 
Port Jersey Channel, located in Bayonne, NJ, presently serves 
approximately one half dozen shipping lines calling at Global Marine 
Terminal. In addition, the channel provides access for the U.S. 
Military Ocean Terminal (MOTBY) as well as the Port Authority Auto 
Marine Terminal. MOTBY (which will remain in service under Army control 
until mid-1999 and then be turned over to the City of Bayonne except 
for a portion used by the U.S. Coast Guard) has been approved by the 
Local Re-use Authority (LRA) for a number of maritime and commercial 
re-uses, including a 125 acre plus container terminal. As the only 
privately owned terminal in the port, Global pays approximately 
$10,000,000 in Federal, state, and local taxes annually. More than 300 
vessels, carrying approximately 280,000 twenty-foot equivalent units, 
call annually upon the terminal. Well over 600 terminal employees, with 
an annual payroll of $25 million, and 3,000 indirect jobs depend on 
this facility for their livelihood. Recognizing the demand of ocean 
carriers and responding to a critical need to provide deeper water on 
an emergency basis, the State of New Jersey in 1997 constructed a 38-
foot channel leading to Global at a cost of $10,000,000. The Federal 
cost-share for construction of this channel would have been $6,500,000, 
using the standard 65/35-project cost share formula. We support the 
Administration's request of $2,000,000 for fiscal year 2000 to initiate 
construction plans and specifications, and to implement the deepening 
and disposal required to improve the Port Jersey Channel.
    New York Harbor Collection & Removal of Drift, NY & NJ.--The Harbor 
Collection & Removal of Drift Project removes sunken hulls and 
dangerous, decaying shoreline structures, which are sources of drift, 
jeopardize the smooth and safe flow of maritime traffic, and foul the 
region's beaches. The Corps has estimated that nearly 18,000 
commercial, public and recreation vessels collide annually with harbor 
drift, causing damage to propellers, shafts and hulls. The annual 
associated repair costs and other economic losses average greater than 
$53,000,000. Ample opportunities exist for advancing this project, 
particularly within the Arthur Kill (NY/NJ), Shooters Island, NY & NJ, 
and Kill van Kull (NY) reaches. This project was authorized under the 
1988 WRDA with an annual authorization of $6,000,000. Although the 
project's benefits are primarily navigational and safety related, the 
Shooter's Island NY & NJ reach has significant environmental benefits 
for migratory birds as a rookery. We are, therefore, respectfully 
requesting a total of $1,000,000 in the fiscal year 2000 budget to 
complete design and initiate the Shooter's Island Reach.
                                studies
    NY & NJ Channels: Arthur Kill, Extension to Perth Amboy.--The Port 
is the busiest petroleum-handling harbor in the nation. An average of 
30 billion gallons of product is transported annually. Much of this 
activity and chemical shipping activity is centered along the Arthur 
Kill. In order to adequately assess the navigation needs of the 
petroleum industry located on the lower Arthur Kill, an assessment is 
needed to evaluate channel improvements south along the Arthur Kill 
Channel below the current 41-foot project to Howland Hook Marine 
Terminal and Petroport facilities previously discussed. The State of 
New Jersey has indicated that it would support the study and provide 
the non-Federal cost share. We support the Administration's request for 
$100,000 in the fiscal year 2000 budget to complete the study.
    New York Harbor & Red Hook Anchorages, NY.--The Red Hook Anchorage 
is part of the New York Harbor and Adjacent Channels project. The 
anchorage was designed and constructed by the Corps in the early 1960's 
for ocean going cargo ships and tankers averaging 525 feet in overall 
length and with 30-foot drafts. Today, the dimensions of the anchorage 
are inadequate to accommodate modern, ocean-going vessels that are 
1,000 feet long with drafts of 40 feet or greater. Therefore, to ensure 
safe navigation and maintain the Port's capability to accommodate 
current and future vessel needs, we support the Administration's 
request for $300,000 in fiscal year 2000 to initiate a feasibility 
study for the deepening of Red Hook Anchorage. The Corps has the 
authority to undertake this study under a congressional resolution 
adopted by the Senate Committee on Environment and Public Works on 
December 5, 1980. The States of New York and New Jersey support this 
project; and they have agreed to fund the non-Federal cost equally.
    NY & NJ Harbor Navigation Study.--In the reconnaissance study, 
authorized by the 1996 WRDA, the Corps determined that evaluation of 
the channel deepening needs of the NY & NJ Harbor to 50 feet below MLW, 
or greater, is in the national interest. The States of New York and New 
Jersey and the Port Authority are the local sponsors. As part of the 
ongoing $18 million feasibility study, scheduled for completion in 
December 1999, the Corps will make recommendations for future 
navigation infrastructure improvements for the Port, in the context of 
a National Economic Development Plan. These recommendations will 
facilitate the Port's ability to continue to serve the nation's marine 
transportation needs based upon anticipated trade growth demands on 
shipping. The ocean carrier industry has made it clear that their 
future container vessels will require navigation channels dredged to 
depths that exceed the depths found currently in the Port. To complete 
the Feasibility Study, we support the Administration's request to fund 
the remaining Federal share of $884,000. Upon completion of the 
feasibility work, the Corps is prepared to enter the pre-construction 
engineering and design (PED) stage of the project. We support the 
Administration's request for $2,534,000 to initiate these activities.
    NY & NJ Channels: Arthur Kill Channel, NY & NJ.--As we noted 
earlier, the controlling depth for the Arthur Kill is 35 feet. Even as 
construction hopefully will commence in fiscal year 2000 for the 41-
foot project, planning for an ultimate depth of 45 feet should 
continue. The 1996 WRDA authorized the project depth to as much as 45 
feet. Although new congressional authorization is needed to increase 
the Section 902 funding cap, a preconstruction, engineering and design 
effort will be needed for construction of the 45-foot channel. The 
Corps has estimated the cost of this study to be $3 million, with the 
local share provided by the State of New Jersey and Port Authority of 
New York and New Jersey. The Port supports the Administration's request 
for $1,312,000 in fiscal year 2000.
    Flushing Bay and Creek, NY.--The purpose of this study is to 
determine the feasibility of providing environmental restoration to the 
Flushing Bay and Creek project vicinity. The New York City Department 
of Environmental Protection provided a letter of support for this study 
in 1996. Funds will be used to continue the feasibility phase of the 
study that will be shared on a 50-50 percent basis by Federal and non-
Federal interests. We support the budget request of $600,000.
    NY & NJ Estuary Restoration Project.--As part of the Harbor 
Navigation Study, investigations on upland improvements including 
terminal expansion are being conducted by The Port Authority of New 
York and New Jersey in cooperation with the States of New York and New 
Jersey and the Corps of Engineers. These activities have culminated in 
the development of a business investment plan for future port 
development and improvement. Proposed harbor improvements may include 
activities beyond construction of navigation infrastructure. For 
example, the implementation of a restoration and remediation plan for 
the New York/New Jersey Estuary is also a significant part of any 
future strategy for the harbor. To assess Federal participation in such 
a program, it is important for the Corps of Engineers to prepare a 
reconnaissance study to make a determination as to Federal interest in 
such an effort. To that end, we respectfully request that funds in the 
amount of $100,000 be appropriated for the Corps of Engineers to 
conduct the necessary assessment.
    New York Harbor and Adjacent Channels: Claremont Channel, NJ.--
Located on the Hudson River in the State of New Jersey, Claremont 
Channel currently has an average depth of 27 feet below MLW. Section 
202(b) of the 1986 WRDA authorized federalization of the channel to 41 
feet. The State of New Jersey, the Port Authority, and the region's 
pilots have identified optimal designs for the channel, with depths 
ranging from 34 to 38 feet. This deepening project will support current 
shipping activities in the channel. Two scrap metal exporting companies 
and a crushed stone aggregate terminal are the major users of the 
Claremont Channel. Scrap metal exports have averaged over 1.5 million 
long tons per year and are our region's number one export. Meanwhile, 
crushed stone transshipments approach 4 million tons annually. 
Combined, these three firms employ 300 persons directly and provide 
nearly 3,000 indirect jobs through suppliers as well as support to 
longshore services. New Jersey will invest $21,000,000 in construction 
activities in 1999. We respectfully request that $1,500,000 be 
appropriated for fiscal year 2000 to complete the study of this 
currently inadequate channel.
                               conclusion
    For the first time in a while, the budget request comes close to 
resembling the annual funding levels approved by Congress for deep 
draft navigation projects. The fiscal year 2000 budget for ports is of 
marked contrast to those of recent years, especially last year when the 
harbor construction budget totaled $40 million. The difference is 
partly explained by the Administration's proposal that Congress enact a 
new user fee scheme to replace the constitutionally crippled Harbor 
Maintenance Tax. Judging by the controversy surrounding the proposal 
and the difficulty Congress had in enacting the HMT in 1986, there is 
pessimism as to how quickly Congress will be able to come to a decision 
on a new fee. There is sufficient funding available in the Harbor 
Maintenance Trust Fund to support channel maintenance for the next few 
years. We ask that even as the authorizing committees consider this new 
fee proposal, your committee again provide sufficient appropriations to 
meet the needs for the deep draft navigation program. We believe that 
the budget levels proposed by the Administration for the Kill van Kull-
Newark Bay and Port Jersey channels are sufficient to meet the demands 
of current navigation requirements. However, we believe that the Arthur 
Kill Channel to Howland Hook project should be constructed starting no 
later than fiscal year 2000. The Howland Hook Marine Terminal is 
growing rapidly and is key to our Port accommodating projected trade 
growth in the near term; hence, we urgently request that it be 
considered a priority under new starts for construction funding. (We 
also respectfully request that funds be appropriated to complete a 
feasibility study to deepen the Claremont Channel.) Lastly, we 
appreciate the Energy & Water Development Subcommittee's diligence in 
providing for the nation's water resource needs. Thank you, and we hope 
that you will have the opportunity to visit our Port in the very near 
future.
                                 ______
                                 
  Prepared Statement of Vernon A. Noble, Chairman, Green Brook Flood 
                           Control Commission
                                summary
    The Commission requests that the Congress appropriate $1,000,000 
for the Project in fiscal year 2000, to continue construction of the 
Project in 2000.
    Mr. Chairman and Members of the Subcommittee:
    My name is Vernon A. Noble, and I am the Chairman of the Green 
Brook Flood Control Commission. I submit this testimony in support of 
the Raritan River Basin--Green Brook Sub-Basin project, which we 
request be budgeted in fiscal year 2000 for $1,000,000 in construction 
general funds.
    The Commission was established in 1971, pursuant to an Act of the 
New Jersey Legislature, following disastrous flooding which took place 
in the Green Brook Basin in the late Summer of 1971. That flood caused 
$304,000,000 in damages (April 1996 price level) and disrupted the 
lives of thousands of persons.
    In the late Summer of 1973, another very severe storm struck the 
area, and once again thousands of persons were displaced from their 
homes. $482,000,000 damage was done (April 1996 price level) and six 
persons lost their lives.
    Thanks to the efforts of New Jersey's Representatives and Senators 
in Congress, the Corps of Engineers was authorized by Congress in 1986 
to design a solution to this problem of flooding. The floods of 1971 
and 1973 were only the most recent in a long series of severe floods. 
Flooding in this Sub-Basin dates back to the late 1800's when they were 
first recorded, and has become more damaging as the population of the 
area has grown.
    The Green Brook Flood Control Commission is made up of appointed 
representatives from Middlesex, Somerset and Union Counties in New 
Jersey, and from the 13 municipalities within the Basin. This 
represents a combined population of almost one-quarter of a million 
(248,084) people.
    The Members of the Commission are all volunteers, and for 28 years 
have served, without pay, to advance the cause of flood protection for 
the Basin. Throughout this time, the Corps of Engineers, New York 
District, has kept us informed of the progress of the project, and a 
representative from the Corps has been a regular part of our monthly 
public meetings.
    Thanks to the vigorous support of New Jersey's Congressional 
Delegation, the Congress in 1986 authorized a comprehensive flood 
control project for the protection of the entire Green Brook Basin at a 
then established estimated cost, in 1985 dollars, of $203,000.000
    In the Energy and Water Appropriations Act of 1988, Congress 
included a provision making it clear to the Corps of Engineers that 
protection is to be designed for the entire Green Brook Basin, rather 
than only the lower portion of the Basin, as had at one time been 
studied by the Corps of Engineers.
    During 1998, the Congress, with the agreement of the President, 
appropriated $9,900,000 to initiate construction of the project. Final 
preparations are now underway, and it is expected that actual 
construction will begin in Bound Brook Borough and in western Middlesex 
Borough this year.
    We believe that it is essential that the Green Brook Flood Control 
Project be carried forward, and pursued vigorously to achieve 
protection at the earliest possible date. This project is needed to 
prevent loss of life and property, as well as the trauma caused every 
time there is a heavy storm.
    The General Reevaluation Report of the Corps of Engineers dated 
1997 points out some sobering facts. It shows that the damages which 
would occur in a repetition of the flood experienced here in 1973, 
measured in 1996 dollars, would be $582,700,000.
    New Jersey has programed budget money for its share of the project 
for fiscal year 2000.
    Actual construction will begin this year. We believe that your 
decision of last year to authorize the initiation of construction was a 
wise and prudent decision. It is essential that construction be 
continued in fiscal year 2000.
    We urgently request an appropriation for the project in fiscal year 
2000 of $1,000,000, as proposed by the Administration.
    The more quickly the construction of this project is completed, the 
less will be the total cost, and the sooner the project will provide 
protection.
    Economics and costs are of course important, but personal human 
tragedy, and the loss of life, is more important.
    As you may know, in 1998 an independent Task Force, consisting of 
representatives appointed by the affected municipalities and counties, 
examined alternative possibilities for providing flood protection for 
the upper portion of the basin.
    In late 1998, after regular meetings throughout the year, the Task 
Force reached a unanimous conclusion. They recommended that the Corps 
of Engineers study a specific new possible site for a detention basin. 
They also recommended that the Corps of Engineers review another site 
which had been considered some years ago. Both of these sites are in 
the Watchung Mountains, where flood water must be detained to provide 
protection for the densely populated areas at the foot of the 
mountains.
    Actual construction work in the upper-most portion of the Basin 
does not need to begin for a number of years, and accordingly we are 
confident that acceptable and workable project plans can be developed 
in ample time to meet the approximate ten year construction schedule.
    Thank you, Mr. Chairman, and Members of the Subcommittee, for your 
vitally important past support for the Green Brook Flood Control 
Project; and we thank you for the opportunity to submit this testimony 
to you.
                                 ______
                                 

         SOUTHEASTERN U.S. WATER RESOURCE DEVELOPMENT PROJECTS

 Prepared Statement of Sheldon L. Morgan, President, Warrior-Tombigbee 
                          Waterway Association

                               historical
    The Warrior-Tombigbee Waterway Association represents a broad 
cross-section of shippers, carriers, and the general business community 
in the Warrior-Tombigbee basin in Alabama, and users in nine southern 
states. The Association began in 1949 to work for the redevelopment of 
the Warrior-Tombigbee Waterway System. Construction of its original 17 
locks and dams began in the late 1870's, and completed in 1915. The 
navigation system provided by these locks and dams had gradually 
deteriorated and, following World War II, the annual tonnage had 
leveled off at 2.5 million tons, due to the condition and limited 
capacity of the obsolete locks. The Association began in 1950 to work 
with Alabama's Congressional Delegation and the Army Corps of Engineers 
to plan for modernization. Five new locks were built between 1954 and 
1975. The last remaining old structure (Oliver Lock and Dam) was 
replaced in 1992--the first under the Water Resource Development Act of 
1986. The Warrior-Tombigbee Waterway now has modern and standard sized 
locks throughout its length. These six new locks replaced the seventeen 
old, turn-of-the-century locks, and today, this system represents a 
most noteworthy example of the positive impact of the Federal water 
resource development program. The most persuasive evidence of the 
validity of this project and the wisdom of those who made it possible 
comes from the record compiled during and following the investment in 
its redevelopment. During the economic studies which justified these 
investments, it was projected that by 1980, the Waterway would carry 
some eight million tons annually, producing a positive benefit to cost 
ratio. These levels were reached in 1966 and, by 1980, twice the 
projected tonnage was being moved. Traffic has since reached 25 million 
tons annually, a level three times that which had been projected. 
Clearly this has been a valid investment in infrastructure.
    Subsequently, due in large part to the federal investment in this 
waterway, several billion dollars have been invested by industry, 
agriculture and other non-Federal agencies, providing thousands of 
jobs. For example, the Alabama State Docks, as a result of a $300 + 
million expansion program, now offers the most advanced export coal 
handling technology available in this country, along with similar 
improvements for handling grain, bulk materials, steel and forest 
products. It is interesting to note that the investment by this one 
local agency exceeds the total Federal investment in building all the 
locks and dams on the entire waterway, including the new Oliver Lock. 
The Alabama State Docks is once again embarking upon a multi-million 
dollar improvement and expansion program.
                         developments by users
    This Waterway must continue to be efficient and reliable if its 
users are to remain competitive in world markets. Shipments of ore, 
steel, and related products have increased because of the new and 
modern U.S. Steel facilities in Birmingham, and a new British Steel 
mill at Tuscaloosa and Mobile. The efficiency and modernization of the 
waterway have been important factors in U.S. Steel's continuing 
investments to modernize its Fairfield mill. Fairfield is now again one 
of the bright stars in the USX crown. Recent investments substantially 
exceed $1 billion. The new British Steel mill surpassed $100 million in 
initial investment, and an additional $154 million is now underway. 
This mill utilizes the river southbound for export, as well as 
northbound for raw materials and domestic sales of finished product. 
Hence there is a favorable impact on the balance of payments which will 
be further enhanced by the current expansion. British Steel has 
recently completed a $100 million Direct Reduction Iron Plant at Mobile 
to ship production on the Black Warrior-Tombigbee to Tuscaloosa Steel.
    Major facilities for mining interests, forest products and marine 
equipment account for well over another $1.5 billion in recent 
investment. Coal comes out of Kentucky to electric generating plants on 
the BWT. There are new facilities at the Port of Mobile, which handle 
more forest products than the total handled by all other Gulf Coast 
ports. The efficiency and reliability of the waterway are key factors 
in the development and competitiveness of these facilities, upon which 
thousands of jobs depend.
    These are but examples of how this waterway is so central to the 
economy of this entire region, impacting both domestic and 
international markets. Attached with this statement are letters further 
highlighting this importance. These represent a broad cross-section of 
the economic heartbeat of an entire region. Throughout these statements 
you will find repeated references to the importance of confidence in 
the waterway to the willingness of business and industry to continue to 
invest in our area and of their customers to depend on its reliability 
for the movement of their products. Please note the wide range of 
interests represented by these statements: financial institutions; 
public utilities; port facilities; coal mining; manufacturers; 
suppliers; marine interests; petroleum and chemical processors and 
general business.
                            budget requests
    We support the President's recommendation for O&M funds and ask for 
add-ons of $3 million for additional capability be provided for the 
Warrior-Tombigbee Waterway to help catch up on deferred projects. This 
would be realistic funding which we will support as absolutely 
essential to day to day activities of the O&M program, and with good 
management it will allow for the continuation of several on-going 
projects which are near the point of culmination, following several 
years of investigation, design and now beginning the actual work. These 
projects address long-standing problems and have required extensive 
research and coordination and reflect excellent teamwork by the Corps 
and the industry. But for the support of this committee, they would not 
be nearing reality. We wish to emphasize that this level of funding is 
the minimum essential level.
    From this have come both short and long range programs which have 
provided a basis for orderly progress toward keeping the Waterway 
efficient and reliable. The funding requirements to which I have 
referred stem from work we need to continue now under these programs. I 
respectfully repeat that the performance of this waterway in 
successfully handling a level of tonnage some three times the 
projections made during its design, attest to foresight of this 
Committee.
    To summarize, the Warrior-Tombigbee Waterway is a classic example 
of the positive aspects of the Civil Works Program. The Congress has 
seen its potential and has supported its development. And now the 
project continues to demonstrate its worth. Investment and expansion 
continue locally.
    The Warrior-Tombigbee Development Association request for 
Operations & Maintenance funding in fiscal year 1999 for the Black 
Warrior-Tombigbee Waterway in the amount of $16.0 million. This is 
level funding for the normal O&M work, and is the minimum to keep 
navigation capability at a nominal level. However, additional 
capability of the Corps is important to the continuing improvements 
that have been deferred. These include upland disposal sites, mooring 
cells, rock removal, a long range study of future needs and demands and 
other vital improvements totaling $3.0 million. Therefore, our total 
request is for a total of $19,025,000 for fiscal year 2000.
                                 ______
                                 

         Prepared Statement of the U.S. Army Corps of Engineers

    The following is a summary of the funding items for the U.S. Army 
Corps of Engineers for fiscal year 2000 to meet the needs of the 
Warrior-Tombigbee Waterway, and which we ask the Committee to approve:

Warrior-Tombigbee Waterway:
    Operations & Maintenance Funds for Corps' Budget 
      fiscal year 2000 (level funding)..................     $16,000,000
    Funds for Additional Capability not included in 
      Corps' O&M Budget Request \1\.....................       3,000,000
    For General Investigations (Long Range Study).......         250,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total Funds Required..............................      19,250,000

\1\ Funds for Additional Capability items are not included in the Corps' 
Budget request, so it is not likely that the committee has been informed 
of the need of funding for this particular Additional Capability. We are 
requesting the additional funds for continuing projects and emphasize 
the need for additional O&M capability funds if we are to have an 
adequate current year program, and to support on-going projects designed 
to improve safety and efficiency and to reduce future costs to the 
Federal Government. O&M projects to be funded from this request are 
continuing projects under the 20 year long range plan for improving the 
BWT, including remaining vital upland disposal sites and recycling three 
that are filled (these substantially reduce annual dredging costs) rock 
removal and stop log replacement (equipment needed for lock 
maintenance). General Investigations funds would be used to continue 
long range studies for further modernization of the waterway.

    Other needs allied to the Warrior-Tombigbee are:
Mobile Harbor:
    Operations & Maintenance Funds, for Corps' Budget 
      fiscal year 2000 \1\..............................     $20,200,000
    Construction........................................         700,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total Funds Required..............................      20,900,000

\1\ Requested funds for Mobile Harbor are 2.5 million more than the 
President's budget. Historically, this is the level of funding required 
to maintain the harbor.

    Written statements of support are attached.
                                 ______
                                 

Prepared Statement of James A. Vann, Jr., President and Chief Executive 
       Officer, Alabama Electric Cooperative, Inc., Andalusia, AL

    On behalf of Alabama Electric Cooperative, Inc. (AEC) and its 
member owners, I respectfully request your support for the Corps of 
Engineers fiscal year 2000 funding request for the Black Warrior-
Tombigbee Waterway and Mobile Harbor. The enclosed statement explains 
AEC's interest in these projects which are vital to our business. The 
benefits of low-cost coal transportation afforded by these projects are 
enjoyed by our member systems and their individual electrical 
customers' accounts, which number approximately 325,000.
    Please give your support to the Corps of Engineers' budget requests 
for these projects. We sincerely appreciate your continued support in 
this matter and in other issues related to the rural electric program.
                                 ______
                                 

      Prepared Statement of the Alabama Electric Cooperative, Inc.

                         background information
    Alabama Electric Cooperative, Inc. (AEC) is a wholesale power 
supplier for 21 member-owners located in central and south Alabama and 
northwest Florida. The member-owners serve over 325,000 customer-
members. AEC operates the Charles R. Lowman Power Plant, located at 
Milepost 89.5 on the Tombigbee River, a coal-fired power plant which 
burned 1,557,404 tons of coal in 1998. Also, AEC has a site on the 
Black Warrior-Tombigbee River which is a possible location for a future 
base-load fossil fired generating plant.
                   statement of interest and support
    AEC joins the collective effort to improve the efficiency and 
reliability of the Warrior-Tombigbee Waterway because of the lower fuel 
transportation costs which the waterway provides to AEC's Lowman 
electric generating plant. The Black Warrior-Tombigbee Waterway (BWT), 
the Tenn-Tom Waterway, and the Port of Mobile are vital to our delivery 
of coal economically and efficiently to this plant, which is located on 
the Tombigbee River near Jackson, Alabama. During calendar year 1998, 
we received 938,483 tons of coal via the BWT which accounts for over 60 
percent of total coal received.
    Because delivered coal cost is such an important factor in our 
ability to maintain competitive rates to our member systems, AEC 
supports the Black Warrior-Tombigbee project and level funding for the 
Corps of Engineers' fiscal year 2000 budget. In addition, AEC supports 
the critical needs identified by the Corps which have been deferred 
over the past three years.
    In addition to the dependency which AEC has upon the BWT, there are 
benefits to our region and our end-consumers as a direct result of a 
viable BWT waterway and the Port of Mobile. These systems provide an 
invaluable link between our region and the world markets. As such, they 
stimulate the region's economy, provide jobs, and help reduce the trade 
deficit.
  specific benefits of the warrior-tombigbee waterway and the port of 
                             mobile to aec
    The amount of coal moved to AEC's Plant Lowman by barge on the BWT 
for the past six years is as follows:

        Year                                                        Tons
1993..........................................................   866,731
1994.......................................................... 1,077,485
1995..........................................................   874,044
1996.......................................................... 1,103,919
1997.......................................................... 1,052,575
1998..........................................................   938,483
                    --------------------------------------------------------------
                    ____________________________________________________

      Total................................................... 5,913,237

    The savings in transportation costs represented by the above 
tonnage exceeds $30 million compared to AEC's next viable option of 
delivery via rail.
    AEC plans to continue to move the majority of its coal via the BWT 
in 1999 and beyond. We have utilized the Port of Mobile for 
transloading a small test shipment of foreign coal, and have made 
further plans to accept more of this coal for testing in 1999.
             statement with regard to appropriation amounts
    AEC supports near level funding ($16 million) for Operation and 
Maintenance in the Corps of Engineers' Fiscal Year 2000 Budget. We view 
this as a minimum requirement in that this level of O&M funding is 
necessary to cover the minimum expected needs within the Mobile 
District for fiscal year 2000. In addition, there are vital 
improvements which would bring the waterway efficiency to a higher 
level, totaling $3,000,000.
    AEC also supports the appropriation of adequate O&M funds of 
$20,200,000 for Mobile Harbor.
    Lastly, AEC supports an amount of $250,000 for General 
Investigations, as identified by the Corps in cooperation with the 
Warrior-Tombigbee Waterway Association.
                               conclusion
    We appreciate the opportunity to submit a statement on behalf of 
our member owners in central and south Alabama and northwest Florida 
pertaining to the benefits of the BWT waterway and the Port of Mobile. 
AEC and its member-owners fully support the Corps of Engineers' 2000 
budget request for $16 million in operations and maintenance funds for 
the BWT waterway, the appropriation of an additional $3 million in 
funds for deferred projects, as well as $250,000 for General 
Investigations, and $20.2 million for Mobile Harbor O&M. While we are 
well aware of budget constraints, we believe these projects should be 
funded at these levels to assure a viable transportation system. With 
the money that has already been spent in construction of the BWT 
transportation system, proper funding for operations and maintenance 
is, in our view, prudent management of what is undoubtedly a national 
asset.
                                 ______
                                 

   Prepared Statement of Lynn Sherrill, Vice President, Operations, 
                    Crounse Corporation, Paducah, KY

    Maintenance and improvements to the Warrior-Tombigbee Waterways and 
Mobile Harbor are a matter of vital interest to our Company. Crounse 
Corporation has, since 1990, barged approximately one million tons of 
coal per year from the Upper Ohio Valley to locations on the Black 
Warrior River and Mobile, Alabama area.
    We have found the Warrior-Tombigbee Waterway to be our highest cost 
operating area, and can ill afford to have the system deteriorate below 
its present level, because of reduced maintenance funding.
                                 ______
                                 

  Prepared Statement of Charles Story, Vice President Governmental & 
               Public Affairs, Degussa-Huls, Theodore, AL

    Degussa-Huls Corporation is pleased to have the opportunity to 
express our support for the $16 million Corps of Engineers' Operations 
and Maintenance Budget for the Warrior-Tombigbee Waterway and for the 
$3 million additional funding necessary to complete badly needed 
projects which have been delayed due to the lack of funding. The Port 
here in Mobile is very crucial to the economic well being of our entire 
Community, and we also strongly support an appropriation of $20.2 
million for the Mobile Harbor.
    Our Company has invested over $1.5 billion in the Mobile Area, and 
employ over 1500 employees from this area. As such we are one of the 
largest employers in south Alabama. Our Company as well as many other 
companies in the area who are part of the Chemical Industry are heavily 
dependent on the Warrior-Tombigbee Waterway System and the Harbor 
facilities here in Mobile. Our industry each year moves a tremendous 
amount of raw materials and finished products through the Port and the 
Waterway System. The increased efficiency which we would experience as 
a result of these appropriations would directly benefit our Company and 
our industry, and lay the ground work for even more growth in an 
industry which has contributed greatly to the sound economy which we 
enjoy here in south Alabama.
    Degussa-Huls which is German owned selected Mobile 25 years ago 
partly because of the good transportation infrastructure which we have 
here in the Port of Mobile. The Port and the Waterway System are a 
vital link in this infrastructure. We have had a number of expansions 
here in Mobile (in competition with other sites in Europe) which were 
made possible by transportation advantages that we enjoyed in this 
area. Maintaining and improving this infrastructure and its efficiency 
with adequate appropriations will provide significant benefits for the 
entire south Alabama Area.
    We urge you to support these appropriations, and thank you for your 
consideration of our request.
                                 ______
                                 

                     Letter From Joseph H. Langjahr

                                             Foss Maritime,
                                    Seattle, WA, February 18, 1999.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy & Water Development, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici: The purpose of this letter is to express 
our support of the Warrior-Tombigbee Waterway project and, in 
particular, our support of the Corps of Engineers O&M budget of $16.0 
million for this waterway, together with additional critical needs.
    Foss Maritime Company began providing marine transportation 
services in the Pacific Northwest in 1889. During the past 110 years, 
Foss Maritime has developed a complete waterborne tug and barge 
transportation system that currently operates throughout Puget Sound, 
Washington; Alaska; Columbia/Snake Rivers, Oregon; San Francisco and 
Southern California. We deploy over 200 tugs and barges in order to 
perform a multitude of commodity movements, vessel-related harbor 
services and international and coastwise ocean towing. During the past 
decade, Foss Maritime has invested more than $100 million in vessel 
conversions and new construction to rebuild and modernize its fleet of 
marine equipment. We employ about 1,300 people throughout our operating 
area.
    Recently, Foss Maritime was selected by The Boeing Company to 
design, build and operate a roll-on, roll-off ship to transport Boeing-
built Delta IV rocket boosters from Decatur, Alabama, to space vehicle 
launch sites at Cape Canaveral Air Station, Florida, and Vandenberg Air 
Force Base, California. The 310-foot ship, to be owned and operated by 
Foss Maritime or one of its subsidiaries, under Boeing time charter, 
will carry three common booster cores and associated containerized 
cargo. At a light operating draft of eight feet, the ship will be 
capable of navigating the Tennessee-Tombigbee Waterway and Warrior-
Tombigbee Waterway from Boeing's rocket booster factory being built in 
Decatur.
    This Foss Maritime ship is scheduled to enter Boeing service by 
July 1, 2000. We have awarded a contract to Halter Marine, Inc., 
Gulfport, Mississippi, to construct the ship, along with an option for 
a second vessel, and it is being built in Halter Marine's shipyard in 
Pascagoula, Mississippi.
    The primary operating route of this ship will be through the 
Tennessee-Tombigbee Waterway and Warrior-Tombigbee Waterway from 
Decatur to Mobile, Alabama; from Mobile through the Gulf of Mexico and 
the Atlantic to Cape Canaveral; and from Mobile through the Caribbean 
Sea, Panama Canal and the Pacific to Vandenberg. Therefore, maintenance 
of the Warrior-Tombigbee Waterway and strict compliance with regulated 
pool depths is absolutely essential to the success of this entire 
Boeing project.
    Last year the amount appropriated to the Corps of Engineers for 
Warrior-Tombigbee Waterway Operations & Maintenance was $16.0 million. 
The Waterway will need at least level funding for fiscal year 2000. 
However, the Corps has additional capability for certain projects such 
as upland disposal programs, rock removal and stop log replacement. 
These are vital to the continuing improvements year to year which 
ultimately will bring the Waterway efficiency to an expected level. We 
encourage your committee to provide an additional $3.0 million in O&M 
capabilities for these projects.
    Finally, Mobile Harbor is an important component of our project and 
we support the appropriation of funds in an amount of $20.2 million.
    Thank you for the opportunity to present our views and our concerns 
to you and your committee on these vitally important projects.
            Very truly yours,
                                        Joseph H. Langjahr,
                                  Vice President & General Counsel.
                                 ______
                                 

  Prepared Statement of Allen Henry, President, Henry Marine Service, 
                      Inc., Spanish Fort, Alabama

    We join in the collective effort of the Warrior Tombigbee Waterway 
because of lower costs, energy efficiency, all are important to local, 
national, and international commerce.
    Henry Marine Service, Inc. operates out of the Mobile, Alabama area 
offering support services to the larger inland barge lines serving the 
states of Alabama, Mississippi, Florida, and Louisiana. We employ 
approximately 25 employees on a full time basis in the repair service 
for towboats and barges. In addition, I own three towboats providing 
towing in the Mobile harbor for the inland towing companies requiring 
smaller towing vessels to deliver their barges dockside and shipside in 
the Mobile area.
    Additionally, smaller tugboats normally service the barge lines by 
towing their barges to locations in the tri-state area where it is not 
possible to navigate with the larger towboats used by the major barges 
lines. This service requires me to employ about thirty pilots and 
deckhands full time, in addition to my shipyard employees.
    The Warrior Tombigbee Waterway, Tennessee Tombigbee, and Alabama 
River are very important to the viability of my company. Therefore it 
is very important that the Corps of Engineers continue to receive 
maximum funding for the fiscal year 2000.
    We cannot emphasis enough how important it is for the level of 
funding of 16 million dollars, additional O&M capabilities of 3 million 
dollars, and general investigation funding of .25 million dollars be 
approved for fiscal year 2000.
    Also, we strongly endorse and support the appropriation of funding 
for the Mobile harbor in the amount of 20.2 million dollars in fiscal 
year 2000.
    If these annual appropriations for funding of waterway projects do 
not continue, then companies like Henry Marine Service, Inc. will 
disappear
    Thank you very much for your efforts.
                                 ______
                                 

     Prepared Statement of J. Tim Wilk, Hunt Crude Oil Supply Co., 
                             Tuscaloosa, AL

    Hunt Refining Company presently employs approximately 250 residents 
of West Alabama and has been an important participant in the local 
economy since 1946. Curtailment of our use of the Warrior-Tombigbee 
Waterway System (WTWA) would have a long-term impact on employment at 
Hunt Refining Company and ultimately, the surrounding counties.
    The WTWA system and the Port of Mobile are critical to the 
operation of our Refinery in Tuscaloosa, Alabama. We barge over 40 
percent of our crude oil and over 25 percent of our refined products 
using both the Port of Mobile and the WTWA system. We use the Port of 
Mobile as a starting point to pipeline or barge foreign and domestic 
crude north at the rate of approximately 12 million barrels per year.
    Hunt Refining Company supports the Warrior-Tombigbee project and 
joins the collective effort to improve the efficiency and reliability 
of the WTWA system. We are currently limited by draft restrictions most 
of the year, high river the other part of the year, and to a special 
combination of two-barge tows all year. Through improvements, we can 
avoid significant increased costs during periods when the river is 
above flood stage or at very low levels. Increased navigability of the 
waterway, increases our transporter choice, ultimately keeping costs 
competitive.
    The corps of Engineer's 1999 Budget for the BWT Operations and 
Maintenance is $16.0 MM. We believe the BWT needs at least level 
funding to cover the minimum expected needs for fiscal year 2000. The 
Corps has several projects, which have been deferred over the last 
three years that can now get underway. These include the upland 
disposal programs, rock removal and stop log replacement. These 
deferred projects as well as funding for several studies will cost an 
additional $3.25 MM. We are asking for your support for a total of 
$19.25 MM for fiscal year 2000.
    We further support the funds needed for the Mobile Harbor in the 
amount of $20.2 MM.
                                 ______
                                 

Prepared Statement of James M. DeCosmo, Manager of Lands, Research and 
     Procurement, Southeast Timberlands, Kimberly-Clark, Mobile, AL

    Kimberly-Clark (K-C), began operations in Mobile following its 
merger with Scott Paper in December of 1995. Including the acquisition 
cost, K-C has invested over $2 billion in the Mobile Plant and support 
operations. These investments represent an average annual capital 
investment of $50 million in Mobile.
    For the past sixteen years, Kimberly-Clark has continuously 
utilized the Warrior-Tombigbee Waterway, Coosa-Alabama River System, as 
well as the Port of Mobile. In 1983, the first year K-C shifted from 
truck and rail to river transportation, some 1.06 million tons of 
forest products were transported with two tugboats and forty barges. 
Due to the efficiencies and reliability of the Waterways, K-C 
transported in excess of 3.5 million tons of forest products in 1998, 
1.0 million of which was exported to International Markets. To sustain 
marine operations at this level requires over 20 tugboats, 150 barges 
and over 250 jobs directly related to operations and maintenance.
    For K-C to operate on the Waterway requires operating expenses in 
excess of $13.5 million. These operating expenses are required to 
support a $28 million capital investment in wholly owned woodyards and 
joint venture wood processing facilities.
    With this investment in Kimberly Clark's Southern Operations and 
the dependence on the Waterways, it is critical that the river 
channels, locks & dams, bridges, harbors and all other elements of 
navigation be adequately maintained, upgraded and funded to meet the 
existing and future demands of the waterways, particularly the Warrior-
Tombigbee Waterway.
    In consideration of the value of the river system and the 
importance of operational reliability, Kimberly-Clark unanimously 
supports and recommends a minimum of $16.0 Million for the fiscal year 
2000 Operations and Maintenance budget for the Warrior-Tombigbee 
Waterway and $20.20 Million for Mobile Harbor.
    K-C is a multi-billion dollar packaged products company 
strategically focused on diapers, personal care products, consumer 
tissue and away-from-home products. To continue to be the market 
leader, all facilities and operations throughout the world must remain 
competitive, from the procurement and transportation of raw materials 
to the satisfaction of each and every customer.
    The Mobile operation has been and is committed to being a leader in 
World markets. To maintain a position of leadership and a viable 
operation, all facets of manufacturing must continually improve. To 
remain a competitor in a highly competitive industry, it is imperative 
that the waterways continue to be adequately maintained and upgraded to 
meet the challenges tomorrow brings. The Warrior-Tombigbee and Coosa-
Alabama River waterways are the ``Main Artery'' that support the Mobile 
Harbor, Kimberly-Clark's Southern Operations and the thousands of jobs 
directly and indirectly related to its business. These waterways and 
ports will play a significant role in K-C's future success.
    With these considerations in mind, we ask that you give the 
requested budgets and appropriations your full support.
    Thank you for your help, consideration and support in this matter.
                                 ______
                                 

Prepared Statement of John S. McClelland, Jr., Midstream Fuel Service, 
                            Inc., Mobile, AL

    As a member of the Subcommittee on Energy & Water Development, your 
active support is requested for fiscal year 2000 projects designated by 
the Army Corps of Engineers for the Port of Mobile and the Black 
Warrior-Tombigbee Waterway. The crucial projects designated by the Army 
Corps of Engineers for these strategic waterways are necessary to 
sustain normal operations and to provide for regular maintenance.
    The Port of Mobile is a vital link for the Southeast region of our 
nation to trading partners both domestic and foreign. Multiplying the 
effectiveness of the Port of Mobile is the Black Warrior-Tombigbee 
Waterway which links the harbor to 16,000 miles of the inland waterway 
system. The efficiencies of these waterways will continue to enhance 
economic opportunity and prosperity in the Southeast region.
    Our company, Midstream Fuel Service, Inc., with headquarters in 
Mobile, Alabama, is an ardent supporter of the efforts of the Army 
Corps of Engineers to operate and maintain these assets. Growth and 
maintenance of these waterways have allowed our company to grow from a 
one-boat, one-barge harbor operation to a dynamic petroleum supply and 
support company. We operate towboats, tank barges and marine terminals 
which all rely on these waterway systems to service the marine needs of 
our customers. Our service reaches deep into Alabama on the Black 
Warrior-Tombigbee Waterway, allowing our inland customers to ship bulk 
petroleum products in an efficient, cost-effective manner. In the Port 
of Mobile, we supply fuel to ships, tugs and inland vessels that are 
transiting the region. Vessels employed in offshore oil production use 
our Mobile harbor base for support services. The level of our 
commercial success has been and will continue to be highly dependent on 
the efficiency of these waterways.
    For fiscal year 2000, the Army Corps of Engineers will need a level 
funding of $16 million for operation and maintenance of the Black 
Warrior-Tombigbee Waterway. An additional $3.0 million will be 
requested for improvement projects that have been deferred during the 
past three years but are ultimately needed. These projects include 
upland disposal programs, removals and stop log replacement. There is 
also a need for general investigations with required funding of $.25 
million.
    The fiscal year 2000 funding requirement for operation and 
maintenance of the Mobile Harbor is $20.2 million. Continued O&M 
funding for the Mobile Harbor is critical to the Port of Mobile and the 
Black Warrior-Tombigbee Waterway.
    The Warrior-Tombigbee Waterway Association will present statements 
of support for the Army Corps of Engineer's funding proposal to your 
Subcommittee during the first week of March. Midstream Fuel Service, 
Inc. enthusiastically supports their testimony as representative of 
those who depend on the Warrior-Tombigbee Waterway and the Port of 
Mobile for our commercial success.
    Thank you for the work you have done in the past to keep these 
waterways navigable. We look forward to continued successful navigation 
in the Port of Mobile and on the Warrior-Tombigbee Waterway.
                                 ______
                                 

Prepared Statement of George E. Duffy, President, Navios Ship Agencies, 
                            Inc., Mobile, AL

    We request that you support the U.S. Army Corps of Engineers' 
Operations and Maintenance Budget for $19,000,000 and General 
Investigations funding of $.25 million for the Warrior-Tombigbee 
Rivers.
    Our vessels and our principal's vessels carry 3.4 million tons of 
iron ore and 1.8 million tons of furnace coke per year with the 
majority bound for industries in the State of Alabama. The Port's 
ability to maintain its present draft has enabled us to remain 
competitive on the world market. The continued dredging of the Warrior-
Tombigbee allows this cargo to go through the waterway system of the 
Tombigbee. The U.S. Army Corps of Engineers has done an outstanding job 
maintaining this system.
    A large portion of this cargo is for steel operating in the 
Birmingham, Alabama area. These import raw materials enable the steel 
mills to supply steel for various supplies to this nation. Some of 
these cargo products from the steel mills are re-exported through the 
Port of Mobile, which helps to reduce our trade imbalance. The 
efficiency and reliability of waterways commerce is essential for us to 
provide the raw materials necessary for our principals to meet the 
demands of the various markets within the State of Alabama and the 
United States.
    We have been in operation since 1957 utilizing the Port of Mobile, 
the Warrior-Tombigbee and the Black River systems. We realize the 
importance of tight budget control, yet the benefits on industry, 
commerce and trade as well as job return must be recognized. Therefore, 
we solicit your support. We join in the collective efforts of all those 
affiliated companies who realize the importance of maintaining this 
waterway system so that we may continue to bring in the necessary raw 
materials for our manufacturing industries within the State of Alabama. 
For these reasons, we request you to support the $19,000,000 for the 
Operations and Maintenance programs for fiscal year 2000.
                                 ______
                                 

                       Letter From M. Dean White

                       Orsouth Midland Enterprises,
                                     Orsouth Transport Co.,
                                         Mobile, AL, March 1, 1999.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy & Water Development,
U.S. Senate, Washington, DC.
    Dear Senator Domenici: I am writing to express my support for the 
continued maintenance and improvement of the Black Warrior-Tombigbee 
Waterway System.
    Orsouth Transport Co. is one of the largest regional carriers by 
water in the Warrior-Tombigbee System. Last year we transported 
approximately 2.0 million tons of commodities on this waterway, and an 
additional 2.8 million tons through the Port of Mobile, including coal, 
scrap metals, direct-reduced iron, and aggregates. These tonnages are 
significant to the economies of the states in that region, from the 
points of view of both producers and consumers. Barging is a very low-
cost method of transportation, responsible for moving more than 15 
percent of all of the United States total freight for less than 2 
percent of the nations total transportation costs. This translates into 
savings for the consumer, such as lower rates for electricity.
    Another important aspect of the Warrior-Tombigbee System is that it 
provides the only alternative to the Mississippi River to move product 
to the Gulf Coast. This was extremely important during the drought year 
of 1988, when the lower portion of the Ohio River was closed for an 
extended period, and the lower Mississippi River was severely 
restricted for approximately five months. The availability of the 
Warrior-Tombigbee System allowed us to continue to serve utility and 
industrial customers, and keep those customers from having to shut down 
operations because they could not receive raw material.
    Orsouth Transport Co. fully supports and recommends appropriation 
of $16 million for operations and maintenance of the Black Warrior-
Tombigbee System for fiscal year 2000. Furthermore, we recommend 
additional funding to permit the Corps of Engineers to proceed with 
some of the projects that have been deferred over the past three years, 
which total $3 million. These projects include upland disposal 
programs, rock removal, and stop log replacement. Another $.25 million 
is being requested for General Investigations, vital to long-term 
planning. All of these funds are necessary to assure that the Warrior-
Tombigbee System remains an important part of the Inland Waterway 
System. Finally, we support an appropriation of funds in the amount of 
$20,200,000 for Mobile harbor. The Port of Mobile is an integral part 
of the waterway system, especially as an alternative origin to the Port 
of New Orleans. Improvement of the Mobile harbor will increase 
utilization of the Warrior-Tombigbee System overall, and generate 
significant additional monies for the states in this region. We request 
your support in reviewing and approving these project funding limits 
for fiscal year 2000.
            Sincerely,
                                             M. Dean White,
                                                      Port Captain.
                                 ______
                                 

Prepared Statement of Charles A. Haun, Executive Vice President, Parker 
                  Towing Company, Inc., Tuscaloosa, AL

    My name is Charles A. Haun and I am Executive Vice President for 
Parker Towing Company of Tuscaloosa, Alabama.
    We are a full service marine transportation company operating a 
fleet of boats and barges and twelve ports on the southern portion of 
the U.S. Inland Waterways System. We are involved in the transportation 
of all types of commodities including coal, coke, ores, stone, forest 
products, steel, and manufactured products. We have been in operation 
for over fifty years and our approximately 200 employees are entirely 
dependent upon the efficiency of the waterway.
    Parker Towing Company endorses and supports fully the efforts of 
the Warrior-Tombigbee Development Association to improve the overall 
operation of this vital waterway system. The Warrior-Tombigbee System 
and the Port of Mobile are of great importance to our company and the 
industries we serve. Proper and adequate funding of the waterway 
project will ensure that more industries can rely on this energy 
efficient delivery system. The region's employment and economic well-
being could be adversely affected to a great degree should the 
efficiency of the waterway be degraded.
    As a member of the Warrior-Tombigbee Development Association, 
Parker Towing Company emphatically supports an appropriation of $16 
million for the Corps of Engineers for operation and maintenance of the 
Warrior-Tombigbee System for fiscal year 2000, additional capability 
funding of $3.0 million, and general investigations of $0.25 million, 
for a total of $19.25 million. In addition, we support the Corps' 
request for operation and maintenance funds for Mobile Harbor in the 
amount of $20.2 million.
                                 ______
                                 

  Prepared Statement of Lawrence L. Merrihew, Senior Vice President, 
                        Regions Bank, Mobile, AL

    The economies of Alabama and the U.S. Gulf Coast are greatly 
impacted by the Port of Mobile and the inland waterways serving these 
areas. The Black Warrior-Tombigbee Waterway is also a vital factor in 
this respect. It serves manufacturing, mining, and the agricultural 
areas, as well as industrial production facilities in western Alabama. 
The waterway has served as an economic stimulant for over 100 years and 
receives periodic improvement, bringing it to the point today, that it 
is a modern system linking vital areas of the economy.
    There are so many vital materials that are shipped on the Black 
Warrior-Tombigbee Waterway that its overall impact is sometimes not 
adequately considered. For instance, most of the coal exported from 
Mobile is shipped down this very waterway. Therefore, it is important 
that the amount needed, as requested by the Corps of Engineers for 
Operations & Maintenance (O&M) of $16.0 million, be appropriated for 
fiscal year 2000. This level of funding is necessary to support the day 
to day O&M program, and to continue ongoing channel improvement 
projects that will maintain the waterway in its current state. In 
addition, there is a request for $3.0 million to continue projects that 
have been on hold for the past three years (upland disposal programs, 
rock removal, and stop log replacement). We desperately need your 
support for these projects also.
    We also request support of the appropriation of adequate O&M funds 
for the Mobile Harbor in the amount of $20.2 million.
    An efficient and reliable waterway system is important to all of 
us, and most certainly is a justifiable investment by the federal 
government. The cost benefit ration will be matched many times over by 
the local investment.
                                 ______
                                 

                      Letter From Jerry L. Stewart

                               Southern Company Generation,
                                  Birmingham AL, February 19, 1999.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy & Water Development, U.S. Senate, 
        Washington, DC.
    Dear Congressman Domenici: On behalf of Alabama Power Company, Gulf 
Power Company, and Mississippi Power Company, I am writing to express 
our support for the Warrior-Tombigbee Development Association and its 
president in their efforts before your committee. Because of the 
importance of the Warrior-Tombigbee Waterway to local, national, and 
international trade, the Southern electric system joins with the 
Warrior-Tombigbee Development Association in an effort to improve the 
efficiency and reliability of the Warrior-Tombigbee Waterway.
    Alabama Power Company, Gulf Power Company, and Mississippi Power 
Company have used the Warrior-Tombigbee to transport coal to their 
respective electrical generating plants at Demopolis, Alabama, West 
Jefferson, Alabama; Mobile, Alabama; Pensacola, Florida; Sneads, 
Florida and Biloxi, Mississippi. In 1997, through the use of contracted 
barge carriers, these companies moved over 10.3 million tons of coal by 
way of the Warrior-Tombigbee Waterway. All of this coal would have 
required a longer move down the Mississippi River through New Orleans. 
The Warrior-Tombigbee Waterway allows the barges to move down the 
Warrior-Tombigbee River to Mobile and other destinations. The 
significant importance of this capability to our system is obvious from 
a transportation flexibility standpoint. Additionally, the Port of 
Mobile is the hub of the Central Gulf Coast and the continued 
development of its facilities and support services is critical to the 
economy of the tri-state area served by the Southern electric system.
    Alabama Power Company, Gulf Power Company, and Mississippi Power 
Company utilize water transportation because of the economic advantage 
to our millions of customers. Any expenditures for maintenance or 
upgrading which improve the efficiency and reliability of the waterway 
will have a positive impact on our customers. At the same time, higher 
cost resulting from inefficiency or the unreliability of the Warrior-
Tombigbee Waterway will have a direct and adverse effect upon our 
customers.
    It is imperative that there be a continuous program for maintenance 
and upgrading of the Warrior-Tombigbee Waterway channels and locks. We 
support the proposed budget request for $16.0 million in Operations and 
Maintenance funds for the Black Warrior-Tombigbee River for the fiscal 
year 2000. Additionally, we support the earliest completion of the 
capital projects (upland disposal programs, rock removal an stop log 
replacement) that have been deferred over the past three years in the 
amount of $3.25 million, as well as the appropriation of funds for 
Mobile Harbor in the amount of $20.2 million.
    Adequate funding of programs required to maintain the efficiency 
and reliability of our nation's waterways is critical to its superior 
economic health and welfare. I strongly urge and solicit your support.
            Sincerely,
                                          Jerry L. Stewart,
                                      Vice President Fuel Services.
                                 ______
                                 

Prepared Statement of Carlton J. Melton, Regional Vice President, Gulf 
      & Inland Region, Stevedoring Services of America, Mobile, AL

    Stevedoring Services of America (SSA), is a 50 year-old stevedoring 
and marine terminal operating company that utilizes the Warrior-
Tombigbee Waterway and Port of Mobile, AL in our daily operations. We 
handle approximate annual tonnage, via the Tombigbee Waterway and Port 
of Mobile as follows: 1.7 million tons of forest products, 1.5 million 
tons of bulk cargo (coal) through Mobile and 270,000 tons of bulk and 
breakbulk products through the Port of Columbus, MS. This business 
results in direct employment of sixty (60) people and an additional 
300,000 man hours per year for four (4) local International 
Longshoremen Association unions generating an annual total of over 
$12.5 million in wages and benefits.
    SSA fully supports the collective effort to improve the efficiency 
and reliability of the Warrior-Tombigbee Waterway (BWT). The waterway 
is a vital national transportation artery providing access to low cost, 
energy efficient, environmentally safe barge transportation. Moreover 
it is critical to SSA's business, to maintaining international commerce 
at the Port of Mobile and growing our local, state and national 
economy. Maintaining and improving the efficiency and reliability of 
the waterway is essential to protect and grow SSA's business.
    SSA's supports the position that the Corps' submitted budget for 
the BWT should be at least level funding ($16.0 million) for fiscal 
year 2000 and that the Corps has the additional capability ($3.0 
million) for fiscal year 2000 to get underway those projects which have 
been deferred over the past three years (upland disposal programs, rock 
removal and stop log replacement). We also support $0.25 million for 
general investigations.
    Maintaining the Mobile Harbor is critical to our business, and the 
Alabama State Docks. Therefore, we urge your support for appropriation 
of funds ($20,200,000) for maintaining and improving the Mobile Harbor.
    We strongly urge you to support the aforementioned budget request. 
The BWT is an important segment of our national transportation 
infrastructure. After all, our nation's transportation infrastructure 
is what keeps America moving and competitive in the global economy.
    We very respectfully appreciate your consideration of this matter.
                                 ______
                                 

 Prepared Statement of Michael D. Thompson, President, Thompson Power 
                        Systems, Birmingham, AL

    We are pleased to express our support of the Warrior-Tombigbee 
Waterway and the Port of Mobile. These natural resources provide a 
vital economic link for many communities along the Birmingham and 
Mobile corridor. Thompson Power Systems has benefited from the strong 
growth of the Southeast's economy. Our marine business has grown and we 
expect growth to continue. The continued reliability of the Waterway 
and the Port of Mobile are paramount to our company's success and the 
long term expansion of our regional economy.
    The Port of Mobile is the gateway to international markets for many 
U.S. products. Likewise, the Waterway network that serves the inland 
states provides efficient transportation of bulk cargoes that fuel our 
heartland's economy. Thompson Power Systems joins in an industry-wide 
effort to improve the efficiency and maintain the reliability of the 
waterways and ports through which we provide our business. Therefore, 
we support the following appropriation of funds:

Warrior-Tombigbee Operations & Maintenance..............     $16,000,000
Study for General Investigations........................         250,000
Funds for Mobile Harbor.................................      20,200,000
Corp of Engineers Deferred Projects.....................       3,000,000

    As noted, we encourage the Corps of Engineers to commence the 
projects that have been deferred. Projects such as the construction of 
upland disposal dikes and mooring cells are vital to the steady use of 
the waterways systems.
    Thank you for your consideration of this issue which greatly 
impacts our company and region.
                                 ______
                                 

Prepared Statement of Keith H. Jansen, Director, Raw Materials Planning 
     Procurement Distribution and Sales, U.S. Steel, Pittsburgh, PA

    USX Corporation is heavily involved in the transportation of raw 
materials for steel making throughout the United States. Due to the 
fact that transportation rates are such a large part of raw steel 
costs, and, imported steel has been given an unfair advantage, it is 
vital that the Federal Government maintains the transportation 
infrastructure of this country in preserving the ability of the steel 
industry to remain competitive. It is with this in mind, that we 
request the United States Senate fully support the Warrior-Tombigbee 
Waterway System. Water borne transportation is by far the lowest cost 
mode, as it affords USS Fairfield Works in Birmingham Alabama the 
opportunity to move raw materials inbound and steel outbound by water 
at a cost that assists in preserving the economic viability of that 
plant.
    It is for this reason that we offer our support to the Corps of 
Engineers in their request of level funding ($16 million) for fiscal 
year 2000. Additionally we support the Corps for funding ($3.0 million) 
of those projects, which would enhance the present waterways 
capabilities and the maintenance of the Mobile deep water harbor 
($20,200,000). Obviously the Warrior-Tombigbee is essential in the 
continued industrial development of the entire southeastern region and 
remains an integral transportation cog in the wheel of commercial 
success.
    We do appreciate the support that you and your colleagues have 
provided in the past and look forward to your continued support in 
preserving a strong domestic economy.
                                 ______
                                 

  Prepared Statement of T. Keith King, P.E., President and CEO, David 
                 Volkert & Associates, Inc., Mobile, AL

    David Volkert & Associates, Inc. (Volkert) is an engineering/
architectural/planning firm which employs 450 people and maintains 
Alabama offices Birmingham, and Gulf Shores. Volkert strongly supports 
funding for the Warrior-Tombigbee Waterway and the Port of Mobile for 
fiscal year 2000.
    We believe the proposed $16 million for Operations and Maintenance 
funds is justified since this level funding amount is necessary to 
cover the known and reasonably expected needs for fiscal year 2000, 
support the day-to-day O&M program, and continue on-going channel 
improvement projects. In addition, we support an additional $3,000,000 
needed by the Corps to continue on projects which have been deferred 
for the past three years (upland disposal programs, rock removal and 
stop log replacement). We also support appropriating $250,000 for 
general investigative studies, which ultimately will bring the waterway 
efficiency to the expected level.
    Since the City of Mobile's largest industry is her Port and the 
City's present economy and future progress depends upon her Port, 
Volkert also supports the $20.2 million funding for Mobile Harbor.
    Confidence in the Waterway and its efficiency and modernization are 
important in bringing much needed new industry to Mobile and to the 
State of Alabama. Lower operating costs to users of the Waterway and 
Port of Mobile are essential in obtaining a reasonable balance of the 
international export market allowing the U.S. to continue to reduce our 
trade deficit. Increases in shipping and commerce result in 
opportunities for many companies, similar to Volkert, to obtain 
business and offer meaningful employment to citizens of the State of 
Alabama and other parts of the U.S.
    Volkert appreciates this opportunity to express our support of 
Chairman Charles A. Haun and President Sheldon L. Morgan, of the 
Warrior-Tombigbee Waterway Association, and the testimony to be given 
by them before the Appropriations Committee of the Senate and House. We 
are proud to join in the collective effort to improve the efficiency 
and reliability of the Warrior-Tombigbee Waterway and the Port of 
Mobile.
                                 ______
                                 

                     Letter From George R. Richmond

                                Jim Walter Resources, Inc.,
                                  Brookwood, AL, February 26, 1999.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, U.S. Senate, 
        Washington, DC.
    Dear Senator Domenici: I would like to thank you for the 
opportunity to make a statement to your Subcommittee. Please accept 
this letter as my statement.
    Jim Walter Resources, Inc. currently mines 8 million clean tons of 
coal per year. Of that amount, nearly 60 percent of our production is 
exported. All of our export production goes through the Port of Mobile. 
Our payroll for 2,100 employees last year was in excess of $107,000,000 
and taxes withheld and/or paid were in excess of $33,000,000. It is 
obvious from these facts and figures that this Company relies heavily 
on our port facilities and that they are of the utmost importance to 
this Company, its employees and the economy of the State of Alabama.
    I strongly support the Corps of Engineers budget request for $16.0 
Million in Operations and Maintenance funds for the Black Warrior-
Tombigbee for fiscal year 2000, along with the request for $3.0 Million 
for the Corps to undertake projects which have been deferred over the 
past three years and $250,000 for general investigations. I also 
support the appropriation of funds for Mobile Harbor, in the amount of 
$20.2 Million. Our waterways and port facilities provide economic 
prosperity to Alabama that is worthy of your support. Further, I 
support the statements and testimony to be given by Mr. Sheldon L. 
Morgan, President of the Warrior-Tombigbee Waterway Association. I 
believe that the value of improved efficiency and reliability of the 
Warrior-Tombigbee Waterway and Port of Mobile cannot and must not 
underestimated.
    The world coal business is at its most competitive level in 
history. News of any problems, especially transportation and delivery 
problems, is quickly spread by other coal producers around the world to 
the buyers to discourage purchases here. A blemish on our delivery 
record can have devastating, long-term effects from which we might 
never fully recover. Buyers lost today may never return tomorrow. 
important matter.
    Again, thank you for this opportunity to give my comments on this 
very important matter.
            Sincerely,
                                        George R. Richmond,
                             President and Chief Operating Officer.
                                 ______
                                 

Prepared Statement of J. Craig Stepan, General Manager, Warrior & Gulf 
                   Navigation Company, Chickasaw, AL

    I am J. Craig Stepan, General Manager of Warrior & Gulf Navigation 
Company. Our company is an active member of the Warrior-Tombigbee 
Waterway Association and wholly supports the testimony to be presented 
by Mr. Sheldon Morgan as President of the Association. I wish to take 
this opportunity to highlight the impact that the Black Warrior-
Tombigbee Waterway and the Port of Mobile have on the success and 
development of our Company.
    Warrior & Gulf is a barge line and terminal operator headquartered 
in Chickasaw, Alabama, and owns 20 towboats and 240 barges, moving 
approximately 9 million tons of bulk materials on the Black Warrior-
Tombigbee River System. This makes WGN the dominant water carrier 
operating in the region. Additionally, we own and operate two (2) bulk 
and general cargo terminals at Port Birmingham and Mobile, Alabama, 
providing storage, transloading and intermodal services for truck, rail 
and water transportation. Our total employment is 235 people.
    Warrior & Gulf has provided barge transportation on the Black 
Warrior-Tombigbee River Systems since 1940 for export and domestic 
coal, iron ore, coke, import and export steel products, export and 
domestic wood chips, and several other types of bulk commodities. An 
efficient and properly maintained waterway system integrated with the 
Port of Mobile is vital to Warrior & Gulf and its customers. This 
waterway system has made the entire region world competitors through 
the reliable, efficient movement of raw materials and finished products 
both for domestic and overseas consumption. In order to encourage 
continued economic development along this great waterway we must 
continue in our efforts to ensure this viable low cost transportation 
alternative remains in place. The continued efficiency of this waterway 
is extremely critical to the viability of the industries it serves and 
helps to develop. This waterway system and harbor hold great 
opportunity for developing trade initiatives with Mexico, South America 
and the world.
    Historically, our shoaling problems vary greatly from year to year 
dependent upon the length of our high water season (December-April) and 
the amount of flooding that occurs. This winter we have been placed on 
notice by the U.S. Corps of Engineers that normal spring and summer 
river operations will be jeopardized due to severe shoaling at Buena 
Vista, Little McGrews, St. Elmo, Jackson and East Bassetts. The full 
extent of the economic impact of this problem is difficult to estimate, 
but clearly all the river carriers and their customers will suffer a 
negative financial impact.
    We have worked closely with the Corps of Engineers and 
wholeheartedly endorse their budget request of $16.0 million in O&M 
funds for the Black Warrior-Tombigbee system for fiscal year 2000 to 
ensure continued transportation operations.
    An additional $3.0 million is required to fund necessary deferred 
projects including channel rock removal, upland disposal site 
management and stop log replacement. Beyond that $.250 million is 
required to fund a study essential to planning the effective long term 
use of the waterway.
    Lastly, it goes without saying that the maintenance of the Mobile 
harbor is vital to our waterway and the entire southern region. We, 
therefore, support the appropriation of $20.2 million to adequately 
fund Mobile harbor's O&M needs.
    Our company and its employees respectfully request your continued 
support and assistance as your subcommittee considers appropriation of 
funds for these very important issues concerning the Black Warrior-
Tombigbee System, the Port of Mobile and those they serve.
                                 ______
                                 
   Prepared Statement of Jack E. Ravan, Director and Chief Executive 
          Officer, Alabama State Docks Department, Mobile, AL
    The State of Alabama, as a result of the strategic location of the 
Port of Mobile on the Gulf of Mexico and its extensive inland waterway 
system, is one of the major maritime states within the continental 
United States. The State, primarily through the facilities of the 
Alabama State Docks in Mobile, conducts maritime trade with more than 
125 nations worldwide. The Port of Mobile, which consistently ranks in 
the top 15 deep water Ports in the Untied States, annually services an 
equal proportion of domestic and foreign cargoes.
    The Alabama State Docks, a state owned revenue based business, 
serves as the local cost-sharing partner of the Mobile Harbor Federal 
Project. A recent analysis of the impact of the State Docks on the 
State of Alabama identified that every county in the state benefited 
from the services provided by the Port of Mobile. The analysis 
identified approximately 120,000 employees statewide that benefit 
directly and indirectly from the State Docks. Wages received by these 
employees were estimated at over $3 billion. Therefore, it is easily 
understood why full and timely support by the U.S. Army Corps of 
Engineers in its navigation operations and maintenance programs for 
Mobile is critical to the state's economy.
    For the past several years, our communications with your committee 
have portrayed a solid partnership with the Corps in maintaining a 
highly functional project. This has been possible not only because of 
the federal funding provided, but also because of the Port's 
willingness to modify operational procedures when less than full 
project dimensions exist. Our communications have also noted the risk 
of hurricanes to the project. Unfortunately, in the last eighteen (18) 
months, the Port has experienced two hurricanes. When combined with 
less than full dimensions at the time of the most recent storm, severe 
shoaling of the project resulted. The Port has been operating at a 
significantly reduced capacity for the last six months and recovery is 
not anticipated for the next four to six months. The last time such 
conditions existed was in 1979 when a more severe hurricane hit the 
Port. As a matter of history, it only took three months to restore the 
Port to full operation on that occasion.
    The Administration's budget for fiscal year 2000 identifies $17.562 
million for operation and maintenance of the Mobile Harbor Federal 
Project. The average annual expenditure for the past three fiscal years 
has been approximately $20.133 million. The proposed budget will once 
again place the project in a state of risk in the event of another 
hurricane. Therefore, it is requested that $20,812,000 be appropriated 
for the Mobile Harbor Federal Project for fiscal year 2000. This amount 
also includes $750,000 in Construction General funds required to 
evaluate future operational expansion requirements.
    As addressed earlier, approximately one half of the cargo 
transiting the Port of Mobile is domestic. This cargo flows through 
Mobile as a result of the existence of six waterway systems servicing 
Alabama, the southern United States and the states bordering the Gulf 
of Mexico. Again, the economic viability of this region and its ability 
to compete in both the domestic and world market place is dependent 
upon the Corps of Engineers navigation operation and maintenance 
programs. Therefore, we request that your committee support these 
waterway systems at the levels indicated.

Coosa-Alabama...........................................  $31,556,000.00
Tennessee-Cumberland....................................  $38,320,000.00
Tennessee-Tombigbee.....................................  $23,900,000.00
Appalachicola-Chattahoochee-Flint.......................   $7,510,000.00
Black Warrior-Tombigbee.................................  $19,250,000 00
Gulf Intercoastal Waterway..............................         ( \1\ )

\1\ As requested by GICA.

    Your consideration and support is greatly appreciated.
                                 ______
                                 
 Prepared Statements and Letters Supporting Appropriations Request for 
    Fiscal Year 2000 for Projects on the Alabama-Coosa River System
 Prepared Statement of Ralph O. Clemens, Jr., President, Coosa-Alabama 
                  River Improvement Association, Inc.
                                summary
    Mr. Chairman & distinguished Committee members: This statement 
includes the following:
    (A) A plea to recognize and maintain our Nation's inland waterways 
system as a vital part of the national transportation infrastructure;
    (B) A request for support in the following areas:
    (1) O&M funding for federal projects in the Coosa-Alabama Basin as 
well as Mobile Harbor;
    (2) Funding for feasibility phase investigation of alternatives to 
improve the reliability of the navigation channel below Claiborne Dam 
on the Alabama River;
    (3) Reopening the Coosa Navigation Project;
    (4) Resisting any attempt to raise user fuel tax on the Inland 
River navigation industry;
    (5) Supporting the Sturgeon Conservation Plan in the Mobile River 
Basin as developed by the Alabama-Tombigbee River Coalition and the 
Fish and Wildlife Service.
                           expanded statement
    Thank you for the opportunity to present to this Subcommittee my 
perspective on several topics relating to our Nation's waterways system 
in general, and to the Coosa-Alabama River Basin in particular. As 
President of the Coosa-Alabama River Improvement Association, I speak 
for a large and diverse group of private citizens and political and 
industrial organizations that sees the continued development of the 
Coosa-Alabama Waterway as an opportunity for economic growth in our 
region as well as the Nation.
    Our membership reflects a broad range of callings and professions, 
including shippers and tow operators, businessmen, bankers and private 
individuals who have a stake in future economic development for their 
firms and successors to enjoy. Then there is a larger group of elected 
officials and their constituents typical of the twenty-three 
municipalities and nineteen counties along the waterway who are members 
of this association. Spurred by a desire to promote economic growth 
through enhanced waterway transportation, these members work diligently 
to develop our waterway into a productive part of the river 
infrastructure of the State and Nation.
    We are concerned about the deteriorating waterway infrastructure 
throughout the nation. Our inland waterways are vital to this Nation's 
welfare. America's ports, navigable waterways, flood protection, water 
supply, environmental restoration, hydroelectric, and other water 
resources programs enhance economic development, national security, and 
general well being. These programs serve the national interest in 
countless ways, returning far more in public benefits than they cost. A 
top-notch navigation system able to meet the demands of both domestic 
and international commerce is a driving force behind the national 
economy, transporting annually almost 15 percent of the nation's 
commodities, one out of every eight tons. The waterways are vital to 
our export and import capability, linking our producers with consumers 
around the world. It is incumbent upon the Federal Government to 
maintain and improve this system of interstate commerce. Therefore, we 
ask Congress to appropriate enough funds for required maintenance and 
construction to keep the waterways the economic multiplier it is. The 
Civil Works budget in fiscal year 2000 must be approximately $4.7 
billion to maintain the system and allow for modest growth. The Federal 
government must make this commitment to improve the water 
transportation network or risk facing serious economic consequences and 
jeopardizing tremendous public benefits.
    Some think tanks are advocating turning the Corps of Engineers' 
Civil Works Program over to state or private managers. We urge caution 
and due deliberation in such a move. Having one agency responsible for 
maintaining water projects on the Alabama River, for example, provides 
benefits that can't be measured in dollars and cents. Security, 
responsiveness and historical knowledge are incalculable to users of 
the river. The Corps' experience is a public investment. The O&M 
funding appropriated annually is a public investment. Slashing that 
investment does not automatically translate into private prosperity.
    We are concerned that any budget strategy that reduces funding for 
the operations and maintenance of inland and intracoastal waterways 
will have a detrimental effect on the economic growth and development 
of the river system. We cannot allow that to happen. In the Alabama-
Coosa River Basin, we must be able to maintain the existing river 
projects and facilities that support the commercial navigation, 
hydropower and recreational activities so critical to our region's 
economy. The first priority then must be the O&M funding appropriated 
to the Corps of Engineers to maintain those projects. Budget requests 
for the individual projects follow:

------------------------------------------------------------------------
                                            President's    Association's
                 Project                      budget      budget request
------------------------------------------------------------------------
Alabama-Coosa River, AL \1\(AL River          $5,185,000      $5,185,000
 incl Claiborne L&D)....................
Miller's Ferry L&D......................       5,560,000       5,560,000
Robert F. Henry L&D.....................       6,183,000       6,183,000
Lake Allatoona, GA......................       6,328,000       6,328,000
Carters Lake, GA........................       8,150,000       8,150,000
Lower Alabama Navigation Study (AL River         150,000         150,000
 south of Claiborne) feasibility study..
                                         -------------------------------
      Totals............................      31,556,000      31,556,000
------------------------------------------------------------------------
\1\ Includes dredging from the mouth of the Alabama River through
  Claiborne L&D to Miller's Ferry. Coosa River not included.

    We also support funding O&M for Mobile Harbor at $20,200,000, an 
increase of $3,038,000 over the President's Budget amount of 
$17,162,000. The $20.2 million represents an historical average of 
costs just to maintain the Harbor and does not include funding for new 
construction. We cannot allow Mobile Harbor infrastructure to 
deteriorate because not enough funds were appropriated.
    To attract new business into the Alabama River Basin, we must 
improve the infrastructure of the river itself, specifically the 
navigational reliability below Claiborne Dam. Increased reliability is 
the only way prospective investors will entertain establishing an 
industry that uses river transportation. The Corps of Engineers 
currently maintains 65-70 percent reliability through training dikes, 
reservoir management, and dredging. Of these measures, dredging is the 
most effective, but we can do more.
    The most affordable and most environmentally friendly solution to 
increasing navigation reliability on the Lower Alabama River is to 
improve the training dikes. (Training dikes are levees or barriers 
built out from river banks to direct the water flow into the navigation 
channel, thus aiding in scouring the bottom and decreasing dredging 
costs.) Mobile District has begun a feasibility study to determine the 
interest of the Federal Government in such a project. Without an 
improvement in the navigation reliability on the Lower Alabama River, 
we cannot hope to attract new river-related industry into the Basin. We 
ask Congress to appropriate $150,000, as requested, to enable the 
Mobile District to continue the feasibility study already underway.
    A major objective of our association is to complete a navigable 
waterway from Mobile to Rome, Georgia. The history of the Coosa River 
Project is well known by this committee, but the proposal reflects our 
emphasis on infrastructure investment and the creation of jobs and 
economic opportunity throughout our region. The Pre-design Engineering 
Surveys are complete, so one of the most time-consuming requirements of 
the project is done. We are well aware of the restrictive funding for 
such an undertaking in the current environment, but ask the Committee 
to recognize that a Coosa-Alabama waterway would be one of the largest 
and most rapid generators of jobs currently available. We owe it to the 
people of the Coosa-Alabama River Basin, the states of Alabama and 
Georgia, and the entire region to maintain the vision of completing 
this waterway.
    Another mechanism to make the river system attractive to potential 
users is to keep the cost of shipping via waterways down. The 
President's Budget for fiscal year 2000 does not currently include a 
proposal to increase a user's fuel tax, but some in the administration 
think such a tax is a good idea. We have in the past listed some of the 
negative aspects of such a proposal. Suffice it to say here that an 
increase in user fuel tax will have detrimental effect in the short run 
on consumer prices and trade balance, and in the long run on the 
federal-private partnership and maintenance of the waterways system. As 
one of the most efficient modes of transportation this country 
possesses, the waterway system needs more incentives for investment, 
not obstacles and disincentives.
    The last issue I wish to address is a plea based on our experiences 
over the past several years with attempts by the Fish and Wildlife 
Service to list the Alabama Sturgeon as endangered under the Endangered 
Species Act of 1973. As you know, in December of 1994, the Secretary of 
Interior, Mr. Babbitt, decided not to list the Alabama Sturgeon, citing 
a lack of scientific evidence that the fish was a separate and distinct 
species or even currently existed in the habitat scrutinized. Now, the 
Fish and Wildlife Service sees fit to again propose listing the fish, 
despite a clear alternative to saving the fish that has been underway 
for several years now, an alternative outside the confining 
restrictions of the Endangered Species Act.
    The Fish and Wildlife Service, in cooperation with the Alabama-
Tombigbee River Coalition, developed a Sturgeon Conservation Plan that 
has strong potential to propagate the Sturgeon population in the Mobile 
River Basin. The State of Alabama, charged with the execution of the 
Plan, currently has three sturgeons in a hatchery in Marion, Alabama, 
ready for propagation. Congress has appropriated over one million 
dollars to this effort so far. Listing the fish as an endangered 
species under the ESA means the sturgeon would have to compete with 
other listed species for money to complete a recovery plan, 
jeopardizing funding already available as well as the work done on the 
Conservation Plan to this point. We strongly support the Sturgeon 
Conservation Plan as an example of the compromise required in the 
environment-economic debate. We ask the Congress to fully fund and 
support the Sturgeon Conservation Plan as the best way to save sturgeon 
in the Mobile River Basin.
    In summary, we request your support in the following areas:
    (1) Sufficient funding of the US Army Corps of Engineers Civil 
Works budget to maintain and enhance the U.S. inland waterways system;
    (2) O&M funding for the Coosa-Alabama Basins and Mobile Harbor;
    (3) Funding for investigating the feasibility of improving the 
reliability of the navigation channel below Claiborne Dam on the Lower 
Alabama River;
    (4) Reopening the Coosa Navigation Project;
    (5) Resisting any attempt to raise user fuel tax on the Inland 
River navigation industry;
    (6) Supporting the Sturgeon Conservation Plan as developed through 
the cooperative efforts of the Alabama-Tombigbee River Coalition and 
the Fish and Wildlife Service.
    Thank you for allowing us to present our views and for your strong 
support of the Nation's waterways.
                                 ______
                                 

 Prepared Statement of Phillip A Sanguinotti, President, The Anniston 
                           Star, Anniston, AL

    As a part of a collective effort to maintain and extend the Coosa-
Alabama waterway, I wholeheartedly support the Coosa-Alabama River 
Improvement Association's funding request for fiscal year 2000.
    I strongly believe in and support the regional effort to improve 
and extend the Coosa-Alabama Waterway. This would include improving the 
navigational reliability below Claiborne Dam, maintaining and improving 
training works and dredging, which would enhance economic development 
of the river basin between Mobile and Montgomery.
    Also, I believe that lowered freight rates would provide a better 
export market, thus helping the trade business. I also urge the Senate 
to support the Interstate Compacts to resolve the two-basin water 
disputes among Alabama, Georgia and Florida, as well as amend the 
Endangered Species Act to include reasonable, balanced measures between 
environmental concerns and economic development.
    Any support you and your committee can give the Association will be 
greatly appreciated by everyone involved.
                                 ______
                                 

  Prepared Statement of Otha Lee Biggs, Judge of Probate & President, 
               Monroe County Commission, Monroeville, AL

    The Monroe County Commission, Monroe County, Alabama, respectfully 
request support for the President's Budget for funding of River 
Projects in the Alabama-Coosa River Basin for fiscal year 2000, in the 
amount of $31.556 million as well as $20.2 million for Mobile Bay.
    There is great economic need to improve and extend the Coosa-
Alabama Waterway System from Rome, Georgia to the Port of Mobile. 
Included in the funding request is $150,000.00 for the second year of a 
feasibility study of ways to improve the navigational reliability below 
the Claiborne Lock & Dam which is the first Dam along the Alabama-Coosa 
River System and is located in Monroe County, Alabama. Unless 
navigational reliability is stabilized from below the Claiborne Lock & 
Dam to the Port of Mobile, the full and positive economic benefits 
cannot be realized in the Southeastern part of the United States. One 
mile from the Claiborne Lock & Dam is located the largest Pulp and 
Paper complex of its kind in the world and the efforts of your Senate 
Subcommittee on Appropriations for Energy and Water Development in the 
past toward the development of this great waterway system was 
instrumental in bringing this $1.5 billion investment to Monroe County, 
Alabama, as well as other major industries that have located in this 
river basin.
    We again respectfully request approval of the Association's funding 
request for fiscal year 2000.
                                 ______
                                 

Prepared Statement of Sandy Smith, Executive Director, Monroeville Area 
                  Chamber of Commerce, Monroeville, AL

    Our organization is in support of the Coosa-Alabama River 
Improvement Association's request for fiscal year 2000 funding.
    We support the regional effort to improve and extend the Coosa-
Alabama Waterway, and the need to improve the navigational ability 
below the Claiborne Dam.
    Lower freight rates provide a better export market, thus helping 
our area manufacturers. In this regard, we also ask that you provide 
$150,000 in funding for a feasibility study by the Corps of Engineers 
on ways to improve navigation reliability below Claiborne Dam.
    Please support our request! Thank you in advance.
                                 ______
                                 

  Prepared Statement of William F. Joseph, Jr., Chairman, Montgomery 
                   County Commission, Montgomery, AL

    The Montgomery County Commission has a vital interest in the 
development of the Coosa-Alabama River project which was originally 
authorized by the Congress in 1945. The benefits which accrue to the 
citizens of this region, and to the nation, fully justify the complete 
construction and operation of this economical waterway.
    We fully support the testimony provided by the Coosa-Alabama River 
Improvement Association. For many years this group has represented us 
and they accurately reflect our feelings of support for this waterway 
project.
    Of particular interest to us is funding to operate and maintain 
(O&M) water projects in the Alabama-Coosa River Basin.
    Also, we feel that the requested appropriation to fund a 
feasibility study of ways to improve the navigation reliability below 
Claiborne Dam will enhance the economic development of river basin 
between Mobile and Montgomery. Additionally, we believe that the 
requested appropriation to continue the operation and maintenance of 
the entire system directly relates to lowered freight rates and 
improves the export market and creates a positive improvement on our 
nation's trade balance.
    We urge your favorable consideration of the recommended 
appropriations for fiscal year 2000. Adequate funding as requested is 
necessary to insure that progress is made for further development of 
the system and to properly operate and maintain the existing portion. 
Similar information has been sent to Honorable Randall Packard, 
Chairman, House Subcommittee on Appropriations for Energy and Water 
Development, regarding this matter.
                                 ______
                                 

                      Letter From James T. Jordan

                                  J.T. Jordan Cotton, Inc.,
                                        Centre, AL, March 15, 1999.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development,
U.S. Senate, Washington, DC.
    Dear Senator Domenici: This letter is to let you know that I 
strongly support the Coosa-Alabama River Improvement Association's 
funding request for fiscal year 2000.
    I also support the regional effort to improve and extend the Coosa-
Alabama Waterway which needs to be much improved for navigational 
reliability below the Claiborne Dam. There is also a need to maintain 
and improve training works and dredging because the economic 
development of the river basin between Mobile and Montgomery depends on 
these improvements.
    If freight rates are lowered, this will provide a better export 
market, thus helping the trade business.
    I also support funding of $5,185 million for the Alabama-Coosa; 
$6,183 million for RF Henry; and $20.2 million for Mobile Bay.
    Anything you can do to help the above will be very much 
appreciated.
            Sincerely,
                                           James T. Jordan,
                                                   Director, CARIA.
                                 ______
                                 

               Letter From Mayor David D. Whetstone, Jr.

                                        City of Prattville,
                                    Prattville, AL, March 15, 1999.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development,
U.S. Senate, Washington, DC.
    Dear Senator Domenici: I write to support the fiscal year 2000 
budget request for continued improvements to the Alabama-Coosa 
Waterway. I have had the pleasure to serve on the Coosa-Alabama River 
Improvement Association (CARIA) for a number of years and have 
personally seen the progress that has been made on this waterway, 
thanks to the support of your subcommittee and subsequent federal 
funding.
    Based on the past improvement efforts, I would urge you and your 
subcommittee to allow the progress to continue with an appropriate 
allocation for fiscal year 2000. We need to improve the navigational 
reliability below Claiborne Dam and we need to maintain and improve 
training works and dredging.
    As Mayor of one of the fastest-growing cities in Alabama, I know 
firsthand how important this river basin is to the continued economic 
development of our State from Mobile to Montgomery. With our City's 
industrial growth, we too are seeing an increased need for improved 
waterway transportation.
    Thank you for your continued support of CARIA and for your 
subcommittee's consideration of the fiscal year 2000 funding request.
            Sincerely,
                                   David D. Whetstone, Jr.,
                                                             Mayor.
                                 ______
                                 

                         Letter From W.O. Pace

                                 Autauga County Commission,
                                    Prattville, AL, March 15, 1999.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations For Energy and Water Development,
U.S. Senate, Washington, DC.
    Dear Senator Domenici: This letter is to inform you that the 
Autauga County Commission, Autauga County, Alabama, supports the U.S. 
Army Corps of Engineers request for funding fiscal year 2000 to operate 
and maintain water projects in the Alabama-Coosa River Basin. There is 
a definite need to improve navigation reliability on the lower Alabama 
River for economic development reasons, i.e., decreasing tonnage on the 
river because of the meandering of the river, sharp turns and low water 
below Claiborne Dam; also, there has been a dearth of industries 
seeking to relocate within the River Basin. Therefore, we need to 
improve the navigational reliability below Claiborne Dam and maintain 
and improve training works and dredging. Economic development between 
Montgomery and Mobile depends on these improvements. The Corps is able 
to maintain an authorized nine foot channel 65 to 70 percent of the 
time, but major problems occur during July through September.
    Barge costs on the Alabama River are higher than other waterways. 
Shippers use barges in one direction only, but pay for travel both ways 
because there is no backhaul available and there is not enough industry 
in the Basin to warrant two-way shipping. Ninety four percent of tons 
moved on the Alabama River are downbound. For these reasons, shippers 
have found other modes of transportation or left the Basin altogether.
    Adding to the costs the shippers have faced are delays caused by 
the shallow water depth. Also, after 1991, environmental attacks on 
sand and gravel businesses shipping by barge were so costly, a lot of 
these businesses closed. Lowered freight rates provide a better export 
market, thus helping the trade business. Waterways provide efficient 
transportation that tends to lower inflation. Congress must support the 
Interstate Compacts to resolve the two-basin water disputes among 
Alabama, Georgia, and Florida. Also, if Congress would amend the 
Endangered Species Act to include reasonable, balanced measures between 
environmental concerns and economic development instead of such 
stringent regulations, this would greatly improve economic development.
    We would sincerely appreciate your help in this matter that is so 
vital to the State of Alabama.
            Sincerely,
                                                 W.O. Pace,
                               Chairman, Autauga County Commission.
                                 ______
                                 

  Prepared Statement of James D. Wallace, President, Selma and Dallas 
                 County Chamber of Commerce, Selma, AL

    It is my privilege to represent a rural city and county in Alabama 
which has suffered through many economic nightmares not of their own 
making. So, it is incumbent on me to always seek our projects which we 
believe will be helpful in pulling this area out of its economic 
dilemma and into the mainstream of development.
    Our people are a wonderful, dedicated hardworking lot, but they 
need to have the same opportunities as many of the much more developed 
areas of these United States.
    One of our hopeful signs through the years has been the proposed 
development of our waterways not only for industrial tonnage, but also 
for outdoor recreation and the clean economic dollars it brings into a 
community.
    The proposals supported by the Coosa-Alabama River Improvement 
Association are aligned with our thoughts on what will be in the best 
interest of the slow, but continued improvement to our waterways. This 
has been a painfully slow, but ongoing process and we are hopeful that 
Congress will continue to give fiscal support to this area.
    The Coosa-Alabama System forms a corridor from Georgia through 
Alabama, ending up in Mobile Bay. One part of the system is dependent 
on the other so all the pieces of the puzzle are in need of funding 
support.
    We applaud you for supporting us in the past and are hopeful you 
will continue to do so.
                                 ______
                                 

  Prepared Statement of Carl Morgan, President, Economic Development 
                          Authority, Selma, AL

    We at the Selma and Dallas County Economic Development Authority as 
well as representatives from the city of Selma, Alabama, wish to convey 
our support of the funding request for fiscal year 2000. It is 
imperative to the economy of Alabama that every effort is made to 
improve and extend the Coosa-Alabama Waterway. Enhancing the 
navigational reliability of the waterway below the Claiborne Dam and 
maintenance of the training works and dredging is also vital to the 
economic development of the river basin between Mobile and Montgomery.
    Alabama's waterways have always been of the utmost importance. 
Cahaba, the first capital of the state, was located between two rivers 
and as a result industries who enjoyed this advantage thrived. Although 
over one-hundred and fifty years have passed and steamboats no longer 
traverse the rivers as they once did, Alabama's waterways remain 
crucial to economic development today.
    Within the last six months, businesses which could supply more than 
2,500 jobs to the residents of Dallas County have visited the 
community. One major criterion has continued to be river access in 
relation to any sites under consideration. Several of our existing 
industries utilize the Alabama River on a daily basis and would not be 
able to continue to produce without this resource. For this reason, we 
are asking you to help our residents by voting to approve the funds 
requested and as noted below:

Alabama-Coosa.................................................    $5.185
Miller's Ferry................................................     5.560
RF Henry......................................................     6.183
Allatoona.....................................................     6.328
Carter's Lake.................................................     8.150
Feasibility study of Lower AL River...........................     0.150
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    31.556

    In addition, we support funding $20.2 million for Mobile Bay.
    Obviously, increased user fees and taxes stifle waterway commercial 
development. Without a doubt, lowered freight rates provide a better 
export market. Ultimately, well-maintained waterways provide efficient 
transportation which then lowers inflation.
    We need this legislation in order to help the citizens of Alabama 
and especially river towns such as Selma survive.
    Thank you for your attention to this matter.
                                 ______
                                 

   Prepared Statement of Donald G. Waldon, Administrator, Tennessee-
         Tombigbee Waterway Development Authority, Columbus, MS

    We greatly appreciate the opportunity to submit our recommendations 
concerning the funding needs for the Tennessee-Tombigbee Waterway and 
related projects in fiscal year 2000 for your consideration.
    The Tennessee-Tombigbee Waterway Development Authority is an 
interstate compact comprised of the States of Alabama, Kentucky, 
Mississippi, and Tennessee. Governor Paul Patton of Kentucky is 
chairman of the compact, which promotes and markets the waterway and 
it's economic and trade potential to the region and the nation.
                  tennessee-tombigbee waterway funding
    We are very concerned about the continued deterioration of the 
waterway caused by under funding during the past few years. Over $8 
million of essential and critical repairs to the waterway will be 
indefinitely postponed beyond fiscal year 2000 unless the Congress 
restores the cutback in its funding as proposed by the Administration. 
The following table briefly demonstrates the recent decline in funds 
and shows that amount needed to adequately maintain the waterway.
                        tenn-tom funding history
                                                                Millions
1997..........................................................     $22.4
1998..........................................................      19.5
1999..........................................................      20.2
2000 Request..................................................      19.9
2000 Recommendation...........................................      23.9

    The Authority's recommendation of $23.9 million will fund some $4 
million of important O&M work that will not be accomplished if the 
President's budget is approved. It is most imperative that these 
additional funds are provided to ensure the continued safe and 
efficient operation of the project. The requested increase in funds 
will address the following needs:
  --$1,500,000 for additional dredging and spoil containment to ensure 
        unimpeded commercial navigation.
  --$850,000 to help correct a potentially unsafe navigation condition 
        at Bevill Lock.
  --$800,000 of additional funds provided to the Alabama and 
        Mississippi conservation agencies that are needed to better 
        manage some 140,000 acres of federally owned wildlife 
        mitigation lands.
  --$750,000 thousand for urgently needed repairs to structures along 
        the 234-mile waterway.
    The Corps of Engineers has already undertaken measures to reduce 
operating costs of the waterway. For example, some campgrounds and 
other recreation facilities are now closed earlier in the season 
because of lack of operating funds. It is a travesty to curtail public 
access to these waterway attractions. About $50 million have been 
invested in these facilities that are very popular with the public, 
attracting some 6 million visitors annually. The Tenn-Tom is the 4th 
best Corps project in the nation for generating income from 
recreational use and funding cuts are hurting receipts. Regrettably, 
those revenues collected from recreational users are deposited in the 
Treasury and not provided directly to the waterway to help finance its 
operations.
    Unless the Congress addresses this growing problem of indefinitely 
deferred maintenance and repairs of the Tenn-Tom, the physical 
integrity of the waterway will continue to erode and its ability to 
generate expected economic benefits will greatly diminish. The Congress 
has invested nearly $2 billion in the waterway and non-federal 
interests have committed an additional $4 billion in port facilities, 
industries, and other capital investments on the assumption the federal 
government will fulfill its responsibilities to maintain the project. 
It would be ``penny wise and pound foolish'' not to do so.
    The $500-million Boeing rocket plant now under construction at 
Decatur, AL, must have a dependable and adequately maintained 
navigation channel to ship its rockets for launching. Starting in 2000, 
the rockets will be transported on a specially built ship to launching 
sites in Florida and California via the Tenn-Tom. Boeing officials have 
begun to question the reliability of the waterway because of its under 
funding. The plant will employ some 2,000 workers.
    We, therefore, respectfully request that you and your committee 
approve $23.9 million for the operation and maintenance of the 
Tennessee-Tombigbee Waterway, a budget that will help correct the 
malign neglect of the past that has hurt the waterway's performance.
                             kentucky lock
    The Authority recommends that $15 million be appropriated in fiscal 
year 2000 for the continued construction of a new lock at Kentucky Dam 
on the Tennessee River. This project is one of the most critically 
needed improvements to the nation's waterway system. The recommended 
funding is necessary to ensure the new lock's completion by 2008 before 
the existing lock is closed for an extended period and commerce is 
halted.
    The existing 60-year old lock is a bottleneck to commerce, costing 
shippers and industries millions of dollars in additional 
transportation costs. The average delay to transit the antiquated lock 
is more than 6 hours. Over 43 million tons of U.S. products and 
commodities pass through this part of the nation's inland waterway 
system each year. The new lock will return $2.50 in economic benefits 
(mainly savings in transportation costs) for each dollar spent. This is 
an excellent investment for the future economy of the nation.
                            chickamauga lock
    We request that $3 million be provided to the Corps of Engineers to 
continue major repairs to the Chickamauga lock and Dam on the Tennessee 
River near Chattanooga. This project is over 50 years old and has 
serious structural problems. The Corps began repairs to the project 
this year that when completed will extend the physical life of the lock 
and dam to about 2010. Without these repairs, the lock will permanently 
close to traffic due to safety precautions in 2005.
    Permanent closure of the lock to commerce would landlock east 
Tennessee, seriously crippling several major industries that are 
dependent on barge transportation and hurting that region's economy. 
According to the U.S. Department of Energy, closing Chickamauga will 
also have significant adverse impacts on national missions conducted at 
its Oak Ridge, Tn. facilities. These repairs will extend the life of 
the antiquated lock until the Congress can decide whether to replace it 
or close the waterway.
    In that regard, we recommend that the Corps be given the necessary 
funds to expeditiously conduct a study of the feasibility of replacing 
this out-moded structure with a new project.
                             other programs
    In closing, the Authority supports the proposed budget of $7 
million for TVA's management of the Land Between the Lakes recreation 
area. We also support those funds requested for the Appalahian Regional 
Commission, an agency that greatly influences our region's economy and 
quality of life.
    Thank you for your careful consideration of our requests for the 
continued funding of these most important projects and programs.
                                 ______
                                 

    Prepared Statement of James H. Hodges, Governor, State of South 
                         Carolina, Columbia, SC

    Mr. Chairman and distinguished Members of the Committee; on behalf 
of the citizens of the Palmetto State, thank you for the opportunity to 
submit for the record comments regarding the fiscal year 2000 Water and 
Energy Appropriations Bill.
    I'm extremely proud to report to you that the historical, positive 
partnership South Carolina enjoys with the Federal Government and 
particularly the U.S. Army Corps of Engineers (USAGE), is as strong as 
ever, and if possible, growing stronger. We appreciate your support of 
our efforts to maximize the value of South Carolina's natural 
resources, upon which our state's economic well-being is so very 
dependent.
    Our lakes and reservoirs are critical to hydroelectric power 
production; intracoastal waterways and ports are key economic 
development components; and beaches and shoreline essential to 
recreation and tourism. Protection of the natural environment is key to 
South Carolina's varied ecosystems and habitats, and integral to its 
unspoiled beauty.
    At the outset, I wish to express our gratitude for this Committee's 
interest in, and support of, our prior years' testimonies. With your 
help, South Carolina is moving forward on major USACE projects having 
national implications, such as the deepening and widening of Charleston 
Harbor and the protection of our famous Myrtle Beach Grand Strand area, 
one of America's most popular vacation destinations. While there 
certainly remains work to be done, I am enthusiastically encouraged 
with our ``partnership's'' measurable progress and tangible results.
    Sharing in the nation's current economic prosperity, South Carolina 
is moving ahead with progressive economic development, job creation, 
and environmental protection. We are a leader in the South in terms of 
economic growth, and are below the national average in unemployment 
rate. We are, however, a small state and our relative prosperity is 
very dependent upon funding such as this Appropriations Bill. It's 
obvious that its contents, and the actions of this Committee, have 
widespread implications for the state as a whole.
    With regard to the fiscal year 2000 Energy and Water Appropriation 
Bill specifically, I note with pleasure the relative `health' of this 
Bill as compared to recent years' submissions, particularly funding for 
the Corps of Engineers. My comments for the record reflect input from, 
and the concerns of, the principal State Agencies that work most 
closely with the USACE Charleston District Office; namely the SC State 
Ports Authority; the SC Department of Natural Resources; and the SC 
Department of Health and Environmental Control/Office of Ocean and 
Coastal Resource Management. Attached to my testimony as ``Supporting 
Documents'' are individual descriptions of the approved and on-going, 
USACE projects throughout South Carolina.
    In commenting on this legislation, it's my intention to convey to 
this Committee the value of our partnership, and highlight those areas 
both where we can further the Administration's goals, and where we need 
Federal assistance sustaining critical project/program implementation. 
I'm confident through our mutual support South Carolina will 
effectively cross the ``Bridge to the 21st Century''.
                   south carolina's harbors and ports
    Our significant harbor and port assets continue to be the fuel of 
our economic engine. The great Port of Charleston, a national asset, is 
now in the execution phase of a fully funded, $138.7 million deepening 
and widening project; a project whose reality is the product of this 
Committee's commitment and the state of South Carolina's significant 
investment. The benefits to be realized will transcend the obvious as 
creative collateral activities such as using the dredge material to 
build berms for fish habitat, are pursued; a Win-Win for economists and 
environmentalists alike. Likewise, our smaller, but equally important, 
ports of Georgetown and Port Royal are principal players in the 
industrial shipping arena. Dredging and dike maintenance projects are 
critical to the effectiveness of these waterways, and South Carolina 
stands ready to support any project requirements necessary to utilize 
existing USACE capabilities should additional Federal funds be 
identified. I'll elaborate on this area later.
    I would like to comment on the three principle appropriation 
accounts within the USACE (Civil Works) fiscal year 2000 budget 
proposal that have direct impact on South Carolina and its quality of 
life: General Investigations (Studies); Construction General; and 
Operations and Maintenance (O&M).
                                studies
    We are appreciative of budgeting provided for general 
investigations related to Congaree, Santee, Cooper, and Yadkin-Pee Dee 
rivers, which are essential to overall water resources evaluation. 
There are, however, two additional reconnaissance studies in need of 
Committee support: the Broad River Basin, NC & SC; and the Charleston 
Harbor Extension (Please note: the Charleston Harbor Extension study 
will require a Committee Resolution for study authorization). The only 
funding required is $100,000 to initiate each study, and the definitive 
insights gained are certainly worth the minimal cost. Study 
descriptions are provided in the Supporting Documents.
    In a related issue, there are growing concerns with regard to 
contamination of sediments in the greater Charleston Harbor and 
Estuary. In a cooperative effort, the University of South Carolina and 
the SC Department of Natural Resources have approached the USACE 
Charleston District Office about conducting such a study in an effort 
to pro-act to the obvious hazard associated with dredging and spoil 
disposal of contaminated sediments. The SC Legislative Delegation has 
keen interest in this initiative, and I am fully supportive of any 
solution that can be implemented to assist in bringing such a study to 
fruition. Your support would be greatly appreciated.
                          construction general
    As alluded to earlier, we are pleased to finally have our major 
Charleston Harbor Deepening/Widening project funded and underway, and 
to be nearing completion of the Myrtle Beach Storm Damage Reduction 
project. Adequate funding is also in place to carry out USACE 
Continuing Authorities Program (CAP) projects. This essential, cost 
shared program, has been, and continues to be, well managed and 
implemented under USAGE Charleston District Office cognizance, as is 
considered by state planners to be invaluable to effective resource 
planning.
    Also funded within the Construction account is the Aquatic Plant 
Control (APC) Program. Control of noxious aquatic plants continues to 
be a matter of serious concern to South Carolina. Productivity of our 
waterways and hydro-electric dams are essential to our economy. 
Millions of dollars have been spent to date to research, eradicate, and 
control destructive weeds in our lakes and reservoirs, and we have made 
measurable progress. The downside is that in order to secure our gains, 
continued control activities must take place or re-growth will occur 
and we'll be back to ``square one''. Unfortunately, despite this 
Committee's adding funds to the Aquatic Plant Control Program last 
year, all of it was funneled into research and none made available to 
states for control activities. Again this year there are no funds in 
the Administration's budget for APC, and I respectfully request you 
reexamine this ``pay me now or pay me later'' scenario, and specify 
$250,000 for South Carolina in order to keep this serious problem at 
bay. Details can be found in the Supporting Documents.
                     operation & maintenance (o&m)
    Nowhere are there greater implications for funding than in the O&M 
account. Maintenance of the nation's navigable waterways and existing 
infrastructure is critical to the economic viability and safety of both 
the State and its citizens. There are shortfalls in the O&M area that I 
would like to highlight and seek your support in alleviating.
    Dredging and Diking are critical to the overall navigability of our 
waterways. Murrells Inlet is home to an active commercial fishing fleet 
and several marinas housing significant numbers of commercial and 
private recreational vessels. Current navigability is being compromised 
due to shoaling and sediment overflow from the upstream deposition 
basin. Inaccessibility of this channel will result in virtual collapse 
of local economic livelihood. This O&M project calls for maintaining .6 
miles of the entrance channel; three miles of inner channel; one 
turning basin; deposition basin; and two stone jetties, but received 
zero funds this year. There has not been dredging activity since 1988 
and there is an immediate need in order to keep the channel at the 
required depth of 12 feet. USAGE capabilities are consistent with the 
estimated $1.48 million project cost, and can support this critical 
activity.
    While Georgetown Harbor has current maintenance funds allocated, 
additional funds are necessary to control harbor depth, which is not an 
activity currently funded. Passage of larger ships is important to the 
harbor's viability and failing to dredge this year will denigrate this 
harbor's capability to support commercial shipping. An estimated $2.8 
million is necessary to restore Georgetown harbor to navigable depth.
    As mentioned earlier, dikes along the Atlantic Intracoastal 
Waterway are in serious disrepair. Existing O&M funds are inadequate to 
accomplish the needed dike repair necessary to ensure adequate dredge 
disposal areas in the near future. $1.5 million is necessary to execute 
minimum dike repair and undertake systematic erosion control.
    Mr. Chairman, in closing, we in South Carolina recognize that 
despite the current positive economic climate and budget surpluses, 
resources are not unlimited and priorities must be established. But 
South Carolina also occupies a unique position in our national 
interest. Key military installations, coastal geography, interstate 
trade routes, and international commerce are all dynamics at work 
within our boarders. We consider ourselves good stewards of taxpayer 
resources and a responsible partner in the prudent expenditure of 
valuable funds. I urge you to favorably consider our reasonable 
requests for fiscal assistance, and furthermore, to think of your 
commitment as an investment, not an expense.
    We look forward to continuing our partnership in the collective 
pursuit of excellence for our deserving constituents.
                                 ______
                                 
     Prepared Statement of Cyrus M. Jollivette, Vice President for 
               Government Relations, University of Miami
    Mr. Chairman and Members of the Subcommittee: I am privileged to 
have the opportunity to submit this statement on behalf of Rosenstiel 
School of Marine and Atmospheric Science at the University of Miami in 
Coral Gables, Florida.
    Respectfully, the University, joined by the City of Miami Beach, 
Florida seeks your support for the establishment of a demonstration 
project in Miami Beach which could arrest the continuing problem of 
coastal erosion, particularly in the cities of Miami Beach, Surfside, 
and Bal Harbour, Florida. This demonstration project would focus on the 
12 miles of sandy beaches between Bakers Haulover Inlet and Government 
Cut.
    By the mid-seventies, this beach segment had severely eroded, 
leaving only a small area of dry beach during low water. To prevent 
loss of land and to prevent damage to existing structures from storm 
surge, many of the adjacent properties had to be protected by sea walls 
and revetments. Because of the lack of sufficient dry beach, tourism 
declined, which has adverse effects on the economy of the region.
    To remedy some of these problems, in 1975, the U.S. Army Corps of 
Engineers (ACOE), in partnership with Miami-Dade County, initiated the 
Miami-Dade County Beach Erosion Control and Hurricane Surge Project. At 
that time, Miami-Dade County and the ACOE entered into a 50-year 
contract for the joint management of Miami-Dade's sandy beaches. During 
the period 1979-1982, the ACOE constructed a hurricane dune and 
nourished the beaches between Bakers Haulover Inlet and Government Cut. 
A total of 60 million cubic yards of sand was placed on the beach 
thereby increasing its width to 300 feet. The implementation of the 
beach nourishment has had a tremendously positive effect on the economy 
of the region.
    In judging the performance of the project, it should be realized 
that beach nourishment is a repeat process and, based on experience 
with other beaches, should be carried on the average of every 5 years. 
The Miami Beach Nourishment, has a considerable better track record. 
Only after some 15 years were there areas that needed to be 
renourished. However at this time, 20 years after the start of the 
original nourishment, the beach as a whole has eroded to an extent that 
a large scale renourishment seems unavoidable unless a return to the 
situation in the mid 1970s is accepted. The major problem is where to 
find sand in sufficient quantities to re-supply the beaches, as the 
near-shore deposits of sand which have been the source for the 
nourishment project have been exhausted.
    The erosion along the beaches between Bakers Haulover Inlet and 
Government Cut is not uniform. Since the implementation of the 
nourishment during the period 1979-1982, the northern two-third has 
steadily eroded whereas the southern one-third has accreted. 
Furthermore, in the erosional part there are ``hot spots'' where the 
erosion is much more severe than in others. The reason for this 
situation is not directly obvious and has to do with the local off-
shore bathymetry, wave climate, and sediment characteristics. In 
addition, Bakers Haulover Inlet plays an important role in the erosion 
along the beaches of Bal Harbor and Surfside. The present shoreline is 
irregular in plain view--rather than a smooth curve between the two 
inlets--and is characterized by indentations and protrusions.
    Although there is some transfer of sand across the inlets, to a 
first approximation the area between the two inlets can be considered a 
self-contained littoral cell. The seaward boundary of that cell is not 
known and the big question is how much sand is lost to the offshore. 
The remaining sand is redistributed in the cell by waves. From a recent 
study, it is known that sand eroded from the northern two thirds of 
beach can be traced to the southern one-third of the beach. Also, 
bathymetric surveys show that the beach does not conform to the 
straight design slope of 1:40. The actual beach slope is gentler and 
the underwater beach shows a bar. This leads to a loss of dry beach.
    As suggested earlier, the causes of the irregular appearance of the 
shoreline, the presence of erosional ``hot spots'' and the shape of the 
beach profile are related to offshore bathymetry, wave climate, and the 
characteristics of the beach sand. Therefore, to identify the cause(s) 
of erosion, to explain the presence of the erosional ``hot spots'' and 
to predict the anticipated beach profile, information is needed on 
bathymetry, wave climate, and sediment characteristics.
    None of this information is in sufficient detail and will require 
measurements, the results of which would be interpreted using computer 
models. Deep-water waves will be carried inshore to calculate the wave 
characteristics at breaking. From this information, long-shore 
currents, sediment transport and changes in bathymetry, including the 
position of the shoreline will be calculated. The measurements will 
allow construction of an improved sediment budget. For this effort, the 
beach would be divided into compartments, both in the long-shore and 
cross-shore direction. The principle of conservation of sand would be 
applied to each compartment, i.e., the rate of change of the sediment 
volume in each compartment would equal the volume of sediment in minus 
the volume of sediment leaving the compartment. Comparison with 
observed changes in bathymetry, including changes in beach profile, 
should identify the causes of erosion and erosional ``hot spots'' as 
well as the shape of the beach profile.
    The City of Miami Beach remains committed to identifying outside 
sources of sand and expediting the evaluation of the environmental, 
physical and economic viability of the potential sources, to ensure 
that sufficient quantities of beach-quality sand are available to 
fulfill future needs. However it is realized that continuing to pump 
sand to the beaches without addressing the underlying causes of 
erosion, will lead to an endless cycle of needing more, increasingly 
expensive sand.
    Another possible solution is to transfer sand from the southern 
accretional part to the northern erosional part of the beach. Recycling 
will reduce the dependence on outside sources of sand.
    Although presently beach nourishment is the accepted way to combat 
erosion, the lack of sand sources requires us to rethink the process. 
It could well be that for Miami Beach a combination of beach 
nourishment and hard structures (e.g., off-shore breakwaters) is a more 
desirable solution. The hard structures would reduce the sand losses 
and more importantly when located properly, would concentrate the sand 
that has eroded from the beaches in places where it can be retrieved by 
dredges.
    The measurements and subsequent analysis referred to in the 
previous section should help to optimize the use of outside sand 
sources and the recycling technique and provide the necessary knowledge 
to properly design combined measures of nourishment and hard 
structures.
    To arrive at a solution to the erosion problem, the City of Miami 
Beach in cooperation with the University of Miami is suggesting a two-
prong approach consisting of the development of a long-term beach 
management plan and the implementation of two demonstration projects.
    Combating beach erosion takes a regional (the beach area between 
the two inlets) rather than a local (``hot spots'') approach. The first 
order of business in establishing a beach management plan is to 
identify the causes of the beach erosion and to determine whether there 
exists an equilibrium shoreline position and equilibrium beach profile. 
After that the questions of how, where and when to combat erosion can 
be addressed. This includes the question whether hard structures should 
be included. An important item in arriving at answers to these 
questions is the development of an improved sediment budget. In view of 
the necessary field measurements, the development of the beach 
management plan is expected to take 5 years.
    Mr. Chairman, the University of Miami is pleased to be an active 
partner of the City of Miami Beach, Florida in an effort to provide an 
efficient, cost-effective remedy for the continuing coastal erosion 
problems along the southeast Atlantic Coast. We are convinced that the 
results of this proposed demonstration project will make an important 
contribution to gaining a permanent solution to the problem.
    To accomplish this important program the University of Miami seeks 
$2 million from the Energy and Water Development Appropriations 
Subcommittee through the U.S. Army Corps of Engineers. Your support 
would be appreciated, Mr. Chairman. My colleagues and I at the 
University of Miami thank you for the opportunity to present these 
views for your consideration.
                                 ______
                                 
             Prepared Statement of Volusia County, Florida
    On behalf of our citizens and fishermen, Volusia County, Florida, 
is requesting that the Subcommittee appropriate $1,000,000 in fiscal 
year 2000 from the U.S. Army Corps of Engineers (COE) Construction 
account to fund, in part an 1000 foot oceanward extension of the South 
Jetty of the Ponce DeLeon Inlet. This funding is essential to protect 
the Inlet, along with the existing North Jetty and its landward 
extension funded by this committee in fiscal year 1999. A more detailed 
case history and description of the situation and project follow below.
    The Ponce DeLeon Inlet is located on the east coast of Florida, 
about 10 miles south of the City of Daytona Beach in Volusia County. 
The Inlet is a natural harbor connecting the Atlantic Ocean with the 
Halifax River and the Indian River North. The Ponce DeLeon Inlet 
provides the sole ocean access to all of Volusia County. Fishing 
parties and shrimp and commercial fisherman bound for New Smyrna Beach 
or Daytona Beach use the Inlet, as well as others entering for 
anchorage. Nearby fisheries enhanced by the County's artificial reef 
program attract both commercial and sport fisherman. Head boat 
operators also provide trips to view marine life and space shuttle 
launches from Cape Canaveral. In addition, there is a U.S. Coast Guard 
Lifeboat Station on the east shore of the Indian River less than a mile 
south of the Inlet.
    Unfortunately, the Inlet is highly unstable and, despite numerous 
navigation projects, continues to threaten safe passage for the charter 
boat operators and commercial fisherman who rely on the access it 
provides for their livelihood. Recreational boaters and Coast Guard 
operations are also at risk passing through this unstable inlet. The 
shoaling of the channels in the Inlet so restricts dependable 
navigation that the Coast Guard no longer marks the north channel in 
order to discourage its use. The Coast Guard continues to move the 
south and entrance channel markers and provides warnings that local 
knowledge and extreme caution must be used in navigating the inlet. 
More seriously, the Coast Guard search and rescue data for fiscal years 
1981--1995 show that 20 deaths have resulted from vessels capsizing in 
the Inlet, the direct result of the Inlet's instability. 147 vessels 
capsized and 496 vessels ran aground in the Inlet during the same 
period.
    The Federal interest in navigation through the Ponce DeLeon Inlet 
dates back to 1884 and continues to the present. The existing 
navigation project was authorized by the Rivers and Harbors Act of 
1965. The construction authorized by that Act, including ocean jetties 
on the north and south sides of the Inlet, was completed in July 1972. 
It became evident soon after completion of the authorized project that 
the project did not bring stability to the Inlet. A strong northeaster 
in February 1973 created a breach between the western end of the North 
Jetty and the sand spit the Jetty was connected to inside the Inlet. 
The breach allowed schoaling to occur that was serious enough to close 
boat yards and require almost $2 million worth of repairs, including 
extending the western end of the North Jetty.
    Under the existing maintenance agreement entered into upon 
completion of the construction, the COE periodically performs 
maintenance on the Inlet. Maintenance projects have included several 
dredging efforts, adding stone sections to the south side of the north 
jetty, extending the westward end of the North Jetty for the second 
time, and closing the North Jetty weir. The COE's last maintenance was 
dredging, completed on the entrance channel in January, 1990.
    In fiscal year 1998, the COE received a $3,500,000 appropriation 
for emergency maintenance on the North Jetty. Migration of the entrance 
channel undermined the North Jetty, seriously threatening its 
structural integrity. The fiscal year 1998 funds will be used to 
construct a granite rock scour apron for the 500 to 600 feet of where 
the Jetty is undermined.
    In the current fiscal year, the COE received $4,034,000 from the 
Operations and Maintenance account to extend the North Jetty of the 
Inlet landward by 800 feet. This maintenance project is underway and 
intended to be completed as soon as possible to prevent the erosion 
that will cause outflanking of the North Jetty. Continued outflanking 
of the west end of the North Jetty could create a new inlet for the 
Halifax and Indian Rivers resulting in major changes to the Ponce 
DeLeon Inlet. The resultant shoaling of both the north and south 
channels, as well as changes to the entrance channel, would make 
passage through the inlet extremely dangerous and unpredictable.
    Volusia County is requesting that the COE receive the South Jetty 
construction funds in anticipation of the project's authorization in 
the next Water Resources Development Act (WRDA). S. 507, as reported by 
the Senate Environment and Public Works Committee includes a contingent 
authorization for the South Jetty project, estimated to cost 
$5,454,000, of which $2,988,000 allocated to as the federal cost. We 
understand that the South Jetty project is included in the WRDA 
language the House Transportation and Infrastructure Committee is 
currently drafting. We also understand that the Jacksonville District 
Engineer and the Atlanta Division Engineer have forwarded a positive 
recommendation to COE headquarters on the project. The COE anticipates 
that the construction of the jetty extensions will help stabilize the 
Inlet and reduce future maintenance costs.
    The Ponce DeLeon Inlet presents a serious engineering challenge; 
the success of which is measured in terms of human life and vessel 
damage. The existing project has failed to stabilize the Inlet. 
Extending the North Jetty was the first step toward correcting the 
failure and meeting the challenge. Funding the beginning phase of the 
1000 foot oceanward extension of the South Jetty in fiscal year 2000 is 
the next critical step toward providing safe passage for the commercial 
and recreational boaters in Volusia County. In addition, providing 
these funds at this time is likely to prevent the need to a much more 
substantial maintenance project in the near future.
    Thank you for your consideration of this request.
                                 ______
                                 
          Prepared Statement of the Seminole Tribe of Florida
    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the fiscal year 2000 budget for the Army Corps of Engineers 
(COE). The Tribe asks that Congress provide $21.1 million in the COE's 
construction budget for critical projects in the Florida Everglades, as 
authorized in section 528 of the Water Resources Development Act (WRDA) 
of 1996. The Tribe's Everglades restoration project on our Big Cypress 
reservation is a highly ranked critical project that the Tribe and the 
COE have worked cooperatively on for over two years. The Tribe's 
critical project includes a complex water conservation plan and a canal 
that transverses the Reservation. The Tribe has invested a significant 
amount of funds to support the conceptual planning and design of this 
project, as well as for the environmental analysis required by federal 
law. The Tribe firmly believes that the federal government should 
provide the funds authorized by WRDA and relied upon by local sponsors, 
including the Seminole Tribe, for Everglades restoration projects that 
will benefit federal lands and the highly sensitive and nationally-
valued Everglades ecosystem.
    The Tribe's critical project is a part of the Tribe's Everglades 
Restoration Initiative, which includes the design and construction of a 
comprehensive water conservation system. This project is designed to 
improve the water quality and natural hydropatterns in the Big Cypress 
Basin. This project will contribute to the overall success of both the 
federal and the state governments' multi-agency effort to preserve and 
restore the delicate ecosystem of the Florida Everglades. In 
recognition of this contribution, the Seminole Tribe's Restoration 
Initiative has been endorsed by the South Florida Ecosystem Restoration 
Task Force and has been found to be consistent with the recommendations 
of the Governor's Commission for a Sustainable South Florida.
                     the seminole tribe of florida
    The Seminole Tribe lives in the Florida Everglades. The Big Cypress 
Reservation is located in the western basins, directly north of the Big 
Cypress National Preserve. The Everglades provide many Seminole Tribal 
members with their livelihood. Our traditional Seminole cultural, 
religious, and recreational activities, as well as commercial 
endeavors, are dependent on a healthy Everglades ecosystem. In fact, 
the Tribe's identity is so closely linked to the land that Tribal 
members believe that if the land dies, so will the Tribe.
    During the Seminole Wars of the 19th Century, our Tribe found 
protection in the hostile Everglades. But for this harsh environment 
filled with sawgrass and alligators, the Seminole Tribe of Florida 
would not exist today. Once in the Everglades, we learned how to use 
the natural system for support without harm to the environment that 
sustained us. For example, our native dwelling, the chickee, is made of 
cypress logs and palmetto fronds and protects its inhabitants from the 
sun and rain, while allowing maximum circulation for cooling. When a 
chickee has outlived its useful life, the cypress and palmetto return 
to the earth to nourish the soil.
    In response to social challenges within the Tribe, we looked to our 
Tribal elders for guidance. Our elders taught us to look to the land, 
for when the land was ill, the Tribe would soon be ill as well. When we 
looked at the land, we saw the Everglades in decline and recognized 
that we had to help mitigate the impacts of man on this natural system. 
At the same time, we acknowledged that this land must sustain our 
people, and thereby our culture. The clear message we heard from our 
elders and the land was that we must design a way of life to preserve 
the land and the Tribe. Tribal members must be able to work and sustain 
themselves. We need to protect the land and the animals, but we must 
also protect our Tribal farmers and ranchers.
    Recognizing the needs of our land and our people, the Tribe, along 
with our consultants, designed a plan to mitigate the harm to the land 
and water systems within the Reservation while ensuring a sustainable 
future for the Seminole Tribe of Florida. The restoration plan will 
allow Tribal members to continue their farming and ranching activities 
while improving water quality and restoring natural hydroperiod to 
large portions of the native lands on the Reservation and ultimately, 
positively effecting the Big Cypress National Preserve and Everglades 
National Park.
    The Seminole Tribe's project addresses the environmental 
degradation wrought by decades of federal flood control construction 
and polluted urban and agricultural runoff. The interrupted sheet flow 
and hydroperiod have stressed native species and encouraged the spread 
of exotic species. Nutrient-laden runoff has supported the rapid spread 
of cattails, which choke out the periphyton algae mat and sawgrass 
necessary for the success of the wet/dry cycle that supports the 
wildlife of the Everglades.
    The Seminole Tribe designed an Everglades Restoration project to 
allow the Tribe to sustain ourselves while reducing impacts on the 
Everglades. The Seminole Tribe is committed to improving the water 
quality and flows on the Big Cypress Reservation. We have already 
committed significant resources to the design of this project and to 
our water quality data collection and monitoring system. We are willing 
to continue our efforts and to commit more resources, for our cultural 
survival is at stake.
             seminole tribe's big cypress critical project
    The Tribe has developed a conceptual water conservation plan that 
will enable us to meet new water quality standards essential to the 
cleanup of our part of the Everglades ecosystem and to plan for the 
storage and conveyance of our water rights. The Tribe's Everglades 
Restoration Initiative is designed to mitigate the degradation the 
Everglades has suffered through decades of flood control projects and 
urban and agricultural use and ultimately to restore the nation's 
largest wetlands to a healthy state.
    The Seminole Tribe critical project provides for the design and 
construction of water control, management, and treatment facilities on 
the western half of the Big Cypress reservation. The project elements 
include conveyance systems, including major canal bypass structures, 
irrigation storage cells, and water resources areas. This project will 
enable the Tribe to meet proposed numeric target for low phosphorus 
concentrations that is being used for design purposes by state and 
federal authorities, as well as to convey and store irrigation water 
and improve flood control. It will also provide an important public 
benefit: a new system to convey excess water from the western basins to 
the Big Cypress National Preserve, where water is vitally needed for 
rehydration and restoration of lands within the Preserve.
                               conclusion
    Improving the water quality of the basins feeding into the Big 
Cypress National Preserve and the Everglades National Park is vital to 
restoring the Everglades for future generations. By granting this 
appropriation request, the federal government will be taking a 
substantive step towards improving the quality of the surface water 
that flows over the Big Cypress Reservation and on into the delicate 
Everglades ecosystem. Such responsible action with regard to the Big 
Cypress Reservation, which is federal land held in trust for the Tribe, 
will send a clear message that the federal government is committed to 
Everglades restoration.
    The Seminole Tribe is ready, willing, and able to begin work 
immediately. Doing so will require substantial commitments from the 
Tribe, including the dedication of over 2,400 acres of land for water 
management improvements included in the critical project. However, if 
the Tribe is to move forward with its contribution to the restoration 
of the South Florida ecosystem, a substantially higher level of federal 
financial assistance will be needed as well.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the federal 
government to also participate in that effort. This effort benefits not 
just The Seminole Tribe, but all Floridians who depend on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.
                                 ______
                                 
         Prepared Statement of the City of Miami Beach, Florida
    The City of Miami Beach appreciates the opportunity to submit for 
the record (1) testimony on an innovative new beach erosion control 
initiative, and (2) testimony in support of the request by Miami-Dade 
County for beach renourishment funds.
                 coastal erosion prevention initiative
    The City of Miami Beach, Florida, in conjunction with the 
University of Miami seeks your support for the establishment of a 
demonstration project in Miami Beach which could arrest the continuing 
problem of coastal erosion, particularly in the cities of Miami Beach, 
Surfside, and Bal Harbour, Florida. This demonstration project would 
focus on the 12 miles of sandy beaches between Bakers Haulover Inlet 
and Government Cut Inlet.
    By the mid-seventies, this beach segment had severely eroded, 
leaving only a small area of dry beach during low water. To prevent 
loss of land and to prevent damage to existing structures from storm 
surge, many of the adjacent properties had to be protected by sea walls 
and revetments. Because of the lack of sufficient dry beach, tourism 
declined, which has adverse effects on the economy of the region.
    To remedy some of these problems, in 1975, the U.S. Army Corps of 
Engineers (ACOE), in partnership with Miami-Dade County, initiated the 
Miami-Dade County Beach Erosion Control and Hurricane Surge Protection 
Project. At that time, Miami-Dade County and the ACOE entered into a 
50-year contract for the joint management of Miami-Dade's sandy 
beaches. During the period 1979-1982, the ACOE constructed a hurricane 
dune and nourished the beaches between Bakers Haulover Inlet and 
Government Cut. A total of 20 million cubic yards of sand was placed on 
the beach thereby increasing its width to 300 feet. The implementation 
of the beach nourishment has had a tremendously positive effect on the 
economy of the region.
    In judging the performance of the project, it should be realized 
that beach nourishment is a repeat process and, based on experience 
with other beaches, should be carried on the average of every 5 years. 
While Miami Beach has had a better track record, the beach as a whole 
has eroded to an extent that a large scale renourishment seems 
unavoidable, in spite of the completion of three renourishment efforts 
over the past 15 years. The major problem is where to find sand in 
sufficient quantities to re-supply the beaches, as the near-shore 
deposits of sand which have been the source for the nourishment project 
have been exhausted.
    The erosion along the beaches between Bakers Haulover Inlet and 
Government Cut is not uniform. Since the implementation of the 
nourishment during the period 1979-1982, the northern two-third has 
steadily eroded whereas the southern one-third has accreted. 
Furthermore, there are ``hot spot areas'' where the erosion is much 
more severe than in others. The reason for this situation is not 
directly obvious and has to do with the local off-shore bathymetry, 
wave climate, and sediment characteristics. In addition, Bakers 
Haulover Inlet plays an important role in the erosion along the beaches 
of Bal Harbor and Surfside. The present shoreline is irregular in plain 
view--rather than a smooth curve between the two inlets--and is 
characterized by indentations and protrusions.
    Although there is some transfer of sand across the inlets, to a 
first approximation the area between the two inlets can be considered a 
self-contained littoral cell. The seaward boundary of that cell is not 
known and the big question is how much sand is lost to the offshore. 
The remaining sand is redistributed in the cell by waves. From a recent 
study, it is known that sand eroded from the northern two thirds of 
beach can be traced to the southern one-third of the beach. Also, 
bathymetric surveys show that the beach does not conform to the 
straight design slope of 1:40. The actual beach slope is gentler and 
the underwater beach shows a bar. This leads to a loss of dry beach.
    As suggested earlier, the causes of the irregular appearance of the 
shoreline, the presence of erosional ``hot spots'' and the shape of the 
beach profile are related to offshore bathymetry, wave climate, and the 
characteristics of the beach sand. Therefore, to identify the cause(s) 
of erosion, to explain the presence of the erosional ``hot spots'' and 
to predict the anticipated beach profile, information is needed on 
bathymetry, wave climate, and sediment characteristics.
    None of this information is in sufficient detail and will require 
measurements, the results of which would be interpreted using computer 
models. Deep-water waves will be carried inshore to calculate the wave 
characteristics at breaking. From this information, long-shore 
currents, sediment transport and changes in bathymetry, including the 
position of the shoreline will be calculated. The measurements will 
allow construction of an improved sediment budget. For this effort, the 
beach would be divided into compartments, both in the long-shore and 
cross-shore direction. The principle of conservation of sand would be 
applied to each compartment, i.e., the rate of change of the sediment 
volume in each compartment would equal the volume of sediment in minus 
the volume of sediment leaving the compartment. Comparison with 
observed changes in bathymetry, including changes in beach profile, 
should identify the causes of erosion and erosional ``hot spots'' as 
well as the shape of the beach profile.
    To arrive at a solution to the erosion problem, the City of Miami 
Beach in cooperation with the University of Miami is suggesting a two-
prong approach consisting of the development of a long-term beach 
management plan and the implementation of a demonstration project.
    Combating beach erosion takes a regional (the beach area between 
the two inlets) rather than a local approach. The first order of 
business in establishing a beach management plan is to identify the 
causes of the beach erosion and to determine whether there exists an 
equilibrium shoreline position and equilibrium beach profile. After 
that the questions of how, where and when to combat erosion can be 
addressed. This includes the question whether hard structures should be 
included. An important item in arriving at answers to these questions 
is the development of an improved sediment budget. In view of the 
necessary field measurements, the development of the beach management 
plan is expected to take 5 years.
    The City of Miami Beach remains committed to identifying outside 
sources of sand and expediting the evaluation of the environmental, 
physical and economic viability of the potential sources, to ensure 
that sufficient quantities of beach-quality sand are available to 
fulfill future needs. However it is realized that continuing to pump 
sand to the beaches without addressing the underlying causes of 
erosion, will lead to an endless cycle of needing more, increasingly 
expensive sand.
    Another possible solution to be investigated is to transfer sand 
from the southern accretional part to the northern erosional part of 
the beach. Recycling will reduce the dependence on outside sources of 
sand.
    Although presently beach nourishment is the accepted way to combat 
erosion, the lack of sand sources requires us to rethink the process. 
It could well be that for Miami Beach a combination of beach 
nourishment and hard structures (e.g., off-shore breakwaters) is a more 
desirable solution. The hard structures would reduce the sand losses 
and more importantly when located properly, would concentrate the sand 
that has eroded from the beaches in places where it can be retrieved by 
dredges.
    The measurements and subsequent analysis referred to in the 
previous section should help to optimize the use of outside sand 
sources and the recycling technique and provide the necessary knowledge 
to properly design combined measures of nourishment and hard 
structures.
    Mr. Chairman, the City of Miami Beach is pleased to be an active 
partner with the University of Miami in an effort to provide an 
efficient, cost-effective remedy for the continuing coastal erosion 
problems along the southeast Atlantic Coast. We are convinced that the 
results of this proposed demonstration project will make an important 
contribution to gaining a permanent solution to the problem.
    To accomplish this important program the City of Miami Beach seeks 
$2 million from the Energy and Water Development Appropriations 
Subcommittee through the U.S. Army Corps of Engineers.
              support for miami-dade construction request
    The City of Miami Beach would first like to thank the members of 
the subcommittee for all their efforts in the past to provide support 
for the State of Florida's beaches and in particular, those of Miami 
Beach.
    Beaches are Florida's number one tourist ``attraction.'' Last year, 
beach tourism generated more than $16 billion dollars for Florida's 
economy and more tourists visited Miami Beach than visited the three 
largest national parks combined.
    In addition to their vital economic importance, beaches are the 
front line defense for multi-billion dollar coastal infrastructure 
during hurricanes and storms. When beaches are allowed to erode away, 
the likelihood that the Federal government will be stuck with 
astronomical storm recovery costs is significantly increased. The Army 
Corps of Engineers estimated that more than 70 percent of the damage 
caused to upland properties in Panama City Beach by Hurricane Opal 
could have been prevented if their pending beach renourishment project 
had been completed before the storm.
    The Florida Department of Environmental Protection estimates that 
at least 276 miles (35 percent) of Florida's 787 miles of sandy beaches 
are currently at a critical state of erosion. This includes the entire 
six miles of Miami Beach. As a result of the continuing erosion process 
and more dramatically, recent intense storms which have caused 
tremendous damage to almost all of the dry beach and sand dune 
throughout the middle segment of Miami Beach. Two years ago, most of 
the Middle Beach dune cross-overs were declared safety hazards and 
closed, as the footings of the boardwalk itself were in immediate 
jeopardy of being undercut by the encroaching tides. If emergency 
measures, costing approximately $400,000 had not been taken by the 
City, there would have been considerable risk of coastal flooding west 
of the dune line in residential sections of Miami Beach. As you can 
see, this example points to the commitment we as a beach community have 
to our beaches, but federal assistance remains crucial. While we are 
thankful of the substantial commitment made by the subcommittee in the 
fiscal year 1999 Energy and Water Conference Report, there is still 
much work to be done. Our beaches must be maintained not only to ensure 
that our residents and coastal properties are afforded the best storm 
protection possible, but also to ensure that beach tourism, our number 
one industry, is protected and nurtured.
    In 1987, the Army Corps of Engineers and Metropolitan Dade County 
entered into a fifty year agreement to jointly manage restore and 
maintain Dade County's sandy beaches. Since then, Metropolitan Dade 
County has been responsible for coordinating and funding the local 
share of the cost for the periodic renourishment of our beaches.
    In order to ensure that adequate funding will continue to be 
available, the City of Miami Beach supports and endorses the 
legislative priorities and appropriation requests of Metropolitan Dade 
County, as they relate to the restoration and maintenance of Dade 
County's sandy beaches. Specifically, the City respectfully adds their 
strong support for the efforts of Miami-Dade County and wholeheartedly 
supports their fiscal year 2000 request for $7.3 million in beach 
renourishment funds.
    Your support would be appreciated, Mr. Chairman. The City of Miami 
Beach thanks you for the opportunity to present these views for your 
consideration.
                                 ______
                                 
              OHIO RIVER VALLEY INLAND NAVIGATION PROJECTS
   Prepared Statement of R. Barry Palmer, Executive Director, DINAMO
    Mr. Chairman and Members of the Subcommittee: I am Barry Palmer, 
Executive Director of DINAMO, the Association for the Development of 
Inland Navigation in America's Ohio Valley. DINAMO is a multi-state, 
membership based association of business and industry, labor, and state 
government leaders from throughout the Ohio Valley, whose singular 
purpose is to expedite the modernization of the lock and dam 
infrastructure on the Ohio River Navigation System. Largely through the 
leadership of this subcommittee and the professional efforts of the US 
Army Corps of Engineers, we in the Ohio Valley are beginning to see the 
results of 18 years of continuous hard work in improving our river 
infrastructure.
    Lock and dam modernization at Robert C. Byrd Locks and Dam, Grays 
Landing Locks and Dam, Point Marion Locks, and Winfield Locks are 
largely complete. These projects were authorized for construction in 
the Water Resources Development Act of 1986. The immediate problems 
really are focused on completing in a timely manner lock and dam 
modernization projects authorized by the Congress in subsequent water 
resources development acts. Substantial problems remain for adequate 
funding of improvements at the Olmsted Locks and Dams, Ohio River, IL/
KY; Lower Monongahela River Locks and Dams 2, 3 & 4, PA; McAlpine Locks 
and Dam, Ohio River, IN/KY; Marmet Lock, Kanawha River, WV; and for the 
Kentucky Locks, Tennessee River, KY. The construction schedules for all 
of these projects have been severely constrained, and we are requesting 
increased funding for these construction projects at an ``efficient 
construction rate.'' Following is a listing of the projects and an 
efficient funding level determined by the US Army Corps of Engineers to 
advance these projects, in order to complete construction by 2008 or 
earlier:
                  recommendations for fiscal year 1999
    1. For the Robert C. Byrd Locks and Dam modification project, 
formerly the Gallipolis Locks and Dam on the Ohio River, OH/WV, about 
$7,150,000 for continued construction.
    2. For the Winfield Lock Replacement on the Kanawha River, WV, 
$1,400,000 for continued construction of the lock and relocations 
related to environmental mitigation.
    3. For the Olmsted Locks and Dam, replacing Locks and Dams 52 and 
53 on the Lower Ohio River, IL/KY, $56,100,000 for continued 
construction of the twin 110 foot  x  1,200 foot locks and design of 
the new gated dam.
    4. For improvements to Monongahela River Locks and Dams 2, 3 & 4, 
PA, $53,00,000 for continued construction of Dam 2, for relocations 
related to the construction project, and continued design of Lock 4.
    5. For the McAlpine Lock Project on the Ohio River, IN/KY, 
$10,800,000 to continue design of the new 110 foot  x  1,200 foot lock 
addition and for continued construction of the new 110 foot  x  1,200 
foot lock.
    6. For the Marmet Lock Replacement on the Kanawha River, WV, 
$11,350,000 for real estate acquisition and for continuing Plans and 
Specifications on the main construction contracts.
    7. For the Kentucky Lock Addition on the Tennessee River, KY, 
$15,000,000 to continue design on the new highway and bridge work and 
for relocation and construction of the TVA tower.
    8. For the Ohio River Mainstem Study, including studies related to 
modifications of John T. Myers, Greenup, Emsworth, Dashields, and 
Montgomery Locks and Dams, $9,600,000. This level of funding is needed 
to complete for WRDA 2000 and WRDA 2002, respectively, the studies 
leading to interim feasibility reports (construction authorization 
documents) for additional capacity at these five lock and dam 
locations. Also the Corps of Engineers needs additional funding to 
complete the Ohio River Main Stem Study to determine where additional 
improvements may be needed in future years on the Ohio River Navigation 
System.
    For the five projects identified in Points 3-7, the fiscal year 
2000 Civil Works Budget of the US Army Corps of Engineers allocates 
only $70,584,000, when the ``efficient'' construction level for fiscal 
year 2000 identified by the Corps is $146,250,000. This difference is 
that an additional $75 million for these five projects is needed in 
fiscal year 2000. Attached is a chart outlining fiscal year 1998 and 
fiscal year 1999 appropriations, fiscal year 2000 budget requests by 
the Administration, and fiscal year 2000 efficient funding levels for 
Ohio Valley lock and dam modernization projects. The information 
related to efficient funding levels was provided to DINAMO by the 
Commander, Great Lakes and Ohio River Division, US Army Corps of 
Engineers.
    Completion dates for the Lower Mon project have been delayed 7 
years from 2003 to 2010. For McAlpine Lock the completion date has been 
delayed five years from 2002 to 2007. The current completion date for 
the Marmet Lock project is 2009, but this project with adequate funding 
could be completed two years ahead of current schedule and fully 
operational in 2006. For the Kentucky Lock addition, we have seen three 
different construction schedules. Two completion date schedules would 
complete this project in 2012 or in 2017. In fact if the Kentucky Lock 
project was on an ``efficient,'' or ``optimum'' schedule, the project 
could be completed by 2008.
    All of these construction projects, in addition to the Olmsted 
Locks and Dam, could be completed by 2008 or earlier. Also, monies from 
the Inland Waterways Trust Fund could finance 50 percent of the costs 
of these projects while keeping the Trust Fund in the black. 
Additionally it should be noted that there are about $340 million in 
the Inland Waterways Trust Fund. The real challenge then is to complete 
these lock and dam construction projects by 2008 or earlier by putting 
them on an ``efficient'' construction schedule.
    Delaying the construction of these vitally needed infrastructure 
investments is a terribly inefficient practice. Inefficient 
construction schedules cost people a lot of money. A recent study by 
the Institute for Water Resources concluded that $1.02 billion of 
cumulative benefits (transportation savings) for the aforementioned 
five lock and dam modernization projects on the Ohio River Navigation 
System and the Inner Harbor project in New Orleans harbor on the Lower 
Mississippi River have been lost forever. The benefits foregone 
represent the cumulative annual loss of transportation cost savings 
associated with postponing the completion of these projects from their 
``optimum,'' or ``efficient'' schedule. In addition, this study 
concludes that $682 million of future benefits that will be foregone 
based on fiscal year 1999 schedules could be recovered if funding is 
provided to accelerate design and construction activities in accordance 
with ``efficient'' schedules.
    Expenditures for lock and dam modernization are an investment in 
the physical infrastructure of this nation. The Corps of Engineers 
construction budget of $1.24 billion for fiscal year 2000 is about $300 
million less than the $1.52 billion Congress provided for fiscal year 
1999. Mr. Chairman, we have great confidence in the Corps of Engineers 
and urge your support for a funding level more in line with the real 
water resources development needs of the nation. For lock and dam 
modernization on America's inland navigation system, targeted 
construction funding ought to be at a level of about $250-300 million 
annually. Last year Congress provided about $4.1 billion for the Corps 
of Engineers program and about $125 million for lock and dam 
modernization on America's inland navigation system. It is reasonable 
that funding for the Corps program should be increased to levels closer 
to $4.4 billion. With this kind of increased funding, as amply 
supported in both the House and Senate appropriations committee report 
language last year, it is clear that a national lock and dam 
modernization program could be sustained at a level commensurate with 
the needs for improving the nation's inland navigation system.
    We thank you for the opportunity to present this request and our 
thoughts on these matters.

                   FISCAL YEAR 2000 FUNDING OF OHIO VALLEY LOCK AND DAM MODERNIZATION PROJECTS
----------------------------------------------------------------------------------------------------------------
                                                                Fiscal year--
                                             ---------------------------------------------------
                                               1998 Energy &    1999 Energy &                       Funding at
                                                   Water            Water                        Efficient Level
                                                Development      Development      2000 Budget    of Construction
                                               Appropriation    Appropriation       Request
                                                    Act              Act
----------------------------------------------------------------------------------------------------------------
Construction:
    Robert C. Byrd Locks & Dam, Ohio River,        $5,356,000       $8,000,000       $7,150,000       $7,150,000
     OH/WV..................................
    Grays Landing Locks and Dam, Monongahela        2,900,000  ...............  ...............  ...............
     River, PA..............................
    Point Marion Locks & Dam................  ...............  ...............  ...............  ...............
    Winfield Locks & Dam....................        8,500,000        4,500,000        1,400,000        1,400,000
    Olmsted Locks & Dam \1\.................       98,400,000       54,500,000       28,634,000       56,100,000
    Locks & Dams 2, 3, & 4 \1\..............       18,200,000       26,500,000       21,600,000       53,000,000
    McAlpine Locks & Dam, Ohio River,  IN/KY        6,720,000        5,300,000        2,800,000       10,800,000
     \1\....................................
    Marmet Locks & Dam \1\..................        1,830,000        6,500,000        9,800,000       11,350,000
    Kentucky Lock Addition, Tennessee River,        4,000,000        8,500,000        7,750,000       15,000,000
     KY \1\.................................
    London Locks & Dam \2\..................        1,000,000  ...............          600,000          600,000
Surveys: Ohio River Main Stem Study (John T.        8,800,000       10,150,000        7,157,000        9,600,000
 Myers/Newburgh)............................
                                             -------------------------------------------------------------------
      Totals................................      155,746,000      123,950,000       86,891,000      165,000,000
----------------------------------------------------------------------------------------------------------------
\1\ Targeted priorities by DINAMO.
\2\ Major rehabilitation of London L/D would require a ``new construction start,'' included in the fiscal year
  2000 budget.

                                 ______
                                 
Prepared Statement of Joseph E. Lema, Vice President, Manufacturers and 
             Services Division, National Mining Association
    The National Mining Association (NMA) urges inclusion of funding in 
the fiscal year 2000 budget for construction and rehabilitation of 
inland waterways navigation lockage facilities at selected sites on the 
Ohio, Monongahela, Kanawha, and Tennessee Rivers, and for expeditious 
completion of the ongoing Ohio River Main Stem Study being performed by 
the U.S. Army Corps of Engineers.
    NMA member companies produce two-thirds of the coal mined in the 
United States and most of the other nonfuel metallic and nonmetallic 
minerals. Producers of coal and many other nonfuel minerals rely on 
safe, efficient, and competitive inland barge transportation services 
for intermodal rail/barge, truck/barge, and conveyor/barge shipments to 
utility plants, agriculture, construction, and metals production sites, 
and port terminals on the Gulf of Mexico from which mining commodities 
are shipped in coastal commerce and international trade.
                           navigation program
    The Ohio River from Pittsburgh to its juncture with the Mississippi 
River at Cairo, Illinois, and the interconnecting Monongahela, Kanawha, 
and Tennessee Rivers are a major component of the nation's bulk freight 
transportation network which links commercial centers in the east and 
the midwest and, through its connections with the Tennessee River and 
the Mississippi River, most of mid-America from the upper east and 
midwest to the Gulf of Mexico. Added to their proven effectiveness in 
carrying bulk commodities, barge operations are fuel efficient and free 
of conflicts with other ground transportation modes, thereby reducing 
emissions which otherwise would be encountered if trucks were to be 
utilized in place of barges resulting in higher levels of traffic 
congestion. One typical barge tow on the Ohio River can accommodate two 
trainloads of coal, and can handle freight tonnage which would require 
900 truck movements, clearly showing the economic and environmental 
advantages of barges.
    Underscoring the importance of moving forward swiftly with 
construction and rehabilitation projects to replace obsolete facilities 
and to increase lockage capacities on the Ohio, Monongahela, Kanawha, 
and Tennessee Rivers is the breakup of Consolidated Rail Corporation 
(Conrail) in 1999 by the purchase of Conrail's trackage by two mega-
rail-carriers in the east, thereby reducing from three to two the 
number of major, line-haul railroads providing service in the east. 
Railroad restructuring in the east through consolidation of line-haul 
trackage makes the effectiveness of the inland waterways particularly 
strategic and critical as fiscal year 2000 begins.
    From year to year, and currently, NMA has applied a systems 
approach toward analyzing inland waterways problems and needs in our 
appearance before this Subcommittee, NMA's involvement with the Inland 
Waterways Users Board, our communications with representatives of the 
U.S. Army Corps of Engineers, and NMA's participation in meetings with 
shippers, carriers, terminal operators, and others such as the Marine 
Transportation System (MTS) Task Force organized under the leadership 
of the Secretary of Transportation to develop an MTS Strategy for our 
nation. In continuation of NMA's systems approach employed for many 
years of concerted effort in support of assuring the viability of the 
inland waterways system through funding approved by this Subcommittee, 
a process which has demonstrated important benefits by virtue of budget 
approvals by this Subcommittee since the mid-1980's, NMA urges the 
Subcommittee to approve the budget items presented below for funding in 
fiscal year 2000.

------------------------------------------------------------------------
              Budget Item \1\                        Description
------------------------------------------------------------------------
Ohio River Main Stem Systems Study (KY,     Complete feasibility level
 IL, IN, PA, WV and OH), with priorities     engineering designs and
 for John T. Myers, Newburgh, Cannelton,     NEPA studies for priority
 Emsworth, Dashields and Montgomery sites.   lockage improvements, and
                                             expedite similar activity
                                             for other sites.
Marmet Locks and Dam on the Kanawha River   Construction to replace
 (WV).                                       obsolete structure and
                                             increase lockage capacity.
Locks and Dams, 2, 3 and 4 on the           Construction to replace
 Monongahela River  (PA).                    three obsolete L&D's with
                                             two L&D's.
Kentucky Lock and Dam on the Tennessee      Construction to add a 1,200-
 River (KY).                                 ft  x  110-ft lock chamber.
Olmsted Locks and Dam on the Ohio River     Construction to replace
 (IL & KY).                                  obsolete L&D's 52 & 53 at
                                             new L&D site.
McAlpine Locks and Dam on the Ohio River    Construction of a new,
 (IN & KY).                                  second 1,200-ft X 110-ft
                                             lock chamber.
John T. Myers Locks and Dam on the Ohio     Preconstruction engineering
 River (IN & KY).                            and design for addition of
                                             a second 1,200-ft  x  110-
                                             ft lock chamber.
Greenup Locks and Dam on the Ohio River     Preconstruction engineering
 (KY & OH).                                  and design for addition of
                                             a second 1,200-ft  x  110-
                                             ft lock chamber.
London Locks and Dam on the Kanawha River   Major rehabilitation of
 (WV).                                       aging structure.
------------------------------------------------------------------------
\1\ Except for the John T. Myers and the Greenup Locks and Dams, each of
  the budget items presented above presently are authorized. The two
  sites yet to be authorized justifiably warrant addition of second
  1,200-ft  x  110-ft lock chambers to accommodate existing traffic.

    These fiscal year 2000 budget recommendations for navigation 
project construction and rehabilitation arise from a systems approach 
to identification of problems and needs on the Ohio River System 
summarized by the following points:
  --Locks and Dams 2, 3 and 4 on the Monongahela River near Pittsburgh 
        typically are transited by commercial barge tows requiring 
        passage through each of those sites as they navigate that 
        segment of the River, which can be accomplished better by the 
        removal of Lock and Dam 3 and uniformly upgrading obsolete 
        Locks and Dams 2 and 4.
  --The Marmet Locks and Dam on Kanawha River should have a new 800-ft 
        x  110-ft lock to match the new lock built at the Winfield 
        Locks and Dam downstream near Charleston to effectively 
        accommodate barge tows which originate in the Marmet pool and 
        must transit Marmet before arriving at the Winfield site as 
        barge tows flow toward the Ohio River.
  --Locks and Dams on the Lower Ohio River below Huntington should have 
        twin 1,200-ft  x  110-ft locks to accommodate heavy barge 
        traffic characterized by towboats pushing 15 jumbo barges that 
        require such lock chambers to transit sites in a single pass 
        without breaking up the tow. In addition, the second chamber 
        becomes especially critical at times when lock closures are 
        required for repair and maintenance operations, leaving a 
        single lock in service. For the past 10 years, barge tonnage on 
        the Ohio River has increased at an average annual rate of two 
        percent, reflecting a 22 percent increase in 1996 over 1986, a 
        rate which is expected to continue especially in line with 
        growth in the demand for electricity fueled by coal.
  --The Kentucky Lock and Dam should have a new 1,200-ft  x  110-ft 
        lock chamber to handle a modern 15-barge tow from the Lower 
        Ohio River which must transit the site to proceed on the 
        Tennessee River just above Paducah in proximity to the junction 
        of the Lower Ohio River and the Tennessee River, matching Ohio 
        River locks.
  --The first three locks and dams on the Upper Ohio River below 
        Pittsburgh are obsolete, aged and deteriorated, requiring 
        modernization through replacement and/or major rehabilitation.
  --The London Locks and Dam on the Kanawha River above the Marmet 
        Locks and Dam is aged and deteriorated, requiring early major 
        rehabilitation.
  --The Ohio River Main Stem Study underway for several years should be 
        expedited at least to the point where interim reports on 
        engineering feasibility of improvements at key lock and dam 
        sites will be issued in fiscal year 2000, and accompanying 
        preconstruction engineering and design work can be initiated 
        for priority construction and rehabilitation projects during 
        fiscal year 2000 and the years 2000 to 2003.
    The Ohio River System is a principal corridor for distributing coal 
and other commodities via intermodal truck-barge and rail-barge routes 
in eastern and midwestern states. The corridor is especially expansive 
by virtue of the Ohio River's connections with other rivers, in 
particular the Monongahela, Kanawha, Big Sandy, Green, Cumberland, 
Tennessee and Mississippi Rivers, furnishing continuity of barge 
traffic to the southern states and the Gulf of Mexico. Table 1 shows 
how barge freight has been growing on selected rivers in the Ohio River 
System from 1987 to 1996.

                                       TABLE 1.--BARGE FREIGHT TRAFFIC \1\
                                               [Millions of tons]
----------------------------------------------------------------------------------------------------------------
                                                                        Coal                 All Commodities
                            River                            ---------------------------------------------------
                                                                  1987         1996         1987         1996
----------------------------------------------------------------------------------------------------------------
Ohio River Mainstem \2\.....................................          115          134          197          237
Kanawha River...............................................           12           16           19           25
Monongahela River...........................................           29           33           33           37
Tennessee River.............................................           20           18           42           46
----------------------------------------------------------------------------------------------------------------
\1\ Source: Estimated Waterborne Commerce Statistics for Calendar Year 1996, U.S. Army Corps of Engineers,
  October 1997.
\2\ Includes traffic utilizing all, or part, of the Ohio River. Much Ohio River barge freight traffic originates
  or terminates on other rivers in the Ohio River Basin, including those shown.

    The inland waterways, in particular, the Ohio River and its Ohio 
River Basin tributaries and its waterways connections to points outside 
of the Basin, contribute to many key objectives. They:
  --provide that ``shippers and consumers realize over $2.2 billion 
        annually in savings as a result of using the waterways of the 
        Ohio River System over more costly modes of transportation'' 
        Commerce on the Ohio River and Its Tributaries, Ohio River 
        Navigation System Report, 1996, U.S. Army Corps of Engineers;
  --are responsive to energy and environmental goals, e.g., ``as a 
        consequence of being less energy intensive than other modes, on 
        a ton-mile basis water transport also produces less air 
        pollution,--and is usually quieter.'' ``The less energy used, 
        the less air pollution produced.'' Environmental Advantages of 
        Inland Barge Transportation, August 1994, U.S. Department of 
        Transportation, Maritime Administration; and,
  --``enhance our Nation's status in relation to international 
        commerce, i.e., our ability to compete in the global economy is 
        contingent upon our ability to efficiently transport raw and 
        finished products and commodities.'' ``We have the best, most 
        efficient waterways system in the world.'' Inland Waterways 
        Users Board Eleventh Annual Report to the Secretary of the Army 
        and the United States Congress, August 1997.
    The replacement of Locks and Dams 52 and 53 with new twin 1,200 
foot  x  110 foot locks at a new site located between the Ohio River 
junctions with the Mississippi River and the Tennessee River will 
reduce the number of controlling lock and dam sites on the Ohio River 
to 20. This will furnish a significant improvement for barge traffic in 
the river segment just above the mouth of the Ohio River. Barge tows 
utilized for moving Ohio River commerce perform most efficiently when 
they consist of 15 barges lashed together with three-barge widths and 
five-barge lengths in tows pushed by towboats. Lock chambers 1,200 feet 
long by 110 feet wide are required in order to accommodate such barge 
tows, enabling single passes by the barge tows through each of the 
sites.
    Barge traffic passing through eight lock and dam projects between 
Huntington, West Virginia and Paducah, Kentucky is exceptionally heavy. 
Of those eight sites, Smithland now has twin lock chambers which are 
1,200 feet by 110 feet and McAlpine is scheduled for similar locks to 
be built under previous project authorization. It is timely to schedule 
construction projects at the remaining six sites in the Lower Ohio 
River, specifically at the J.T. Myers, Newburgh, Cannelton, Markland, 
Meldahl, and Greenup sites, which each have 1,200-foot main chambers 
and 600-foot auxiliary chambers, whereas twin 1,200-foot by 110-foot 
lock chambers are justified in order to accommodate existing and 
projected barge traffic. NMA urges the Subcommittee to consider these 
needs as high priorities for funding navigation construction in fiscal 
year 2000.
                   environmental restoration program
    The NMA is proud of its leadership in initiatives to restore 
ecosystems degraded by mines abandoned prior to the passage of the 
Surface Mining and Reclamation Act. With respect to hardrock mining, 
NMA recently signed a memorandum of understanding with the Western 
Governors Association for the Abandoned Mine Lands Initiative which 
provides an effective framework for partnership for environmental 
restoration between the industry and the states. NMA is pleased that 
the Corps of Engineers is partnering with the Office of Surface Mining, 
other Federal agencies, state agencies, and universities to restore 
streams that have been impacted by acid drainage from abandoned mines. 
The Corps has responded enthusiastically to this mission with the broad 
authority for aquatic ecosystem restoration granted by Section 206 of 
the Water Resources Development Act of 1996 and other project specific 
authorities. Corps partnerships are already working in the Appalachian 
region and new partnerships are forming with state governments for 
restoration of streams in several western states. In H.R. 4060, the 
fiscal year 1999 Appropriations bill (Public Law 105-245), the 
Subcommittee recognized the expertise and capability of the ``the Corps 
to participate meaningfully in acid drainage remediation efforts.'' 
Further, the Subcommittee directed the Corps of Engineers to assume a 
participatory role in the National Mine Land Reclamation Center . . . 
``using available funds and to the extent authorized by law.'' Since 
the enactment of this funding measure, the Corps has not complied with 
this directive. The NMA urges the Subcommittee to pursue this issue 
with the Corps and request a status report on its effort to participate 
in the Acid Drainage Technology Initiative.
                                 ______
                                 

           MISSISSIPPI AND LOUISIANA WATER RESOURCE PROJECTS

    Prepared Statement of Donald T. Bollinger, Chairman, Louisiana 
               Governor's Task Force on Maritime Industry
    1. Mississippi River Ship Channel, Gulf to Baton Rouge, LA 
(construction general).--Recommend Corps be funded to full capability 
in fiscal year 2000 to perform required work on the saltwater intrusion 
mitigation plan and complete design studies for potential phase III 55-
foot channel.
    2. Mississippi River, Baton Rouge to the Gulf, maintenance 
dredging.--Recommend approval of President's fiscal year 2000 Budget of 
$64,430,000 under O&M General to construct new anchorages and maintain 
new and existing anchorages.
    3. Mississippi River Gulf Outlet (MRGO), LA, maintenance 
dredging.--President's fiscal year 2000 Budget is $14,989,000 under O&M 
General. Recommend that Corps be funded increased capability for bank 
stabilization.
    4. Inner Harbor Navigation Canal (IHNC) Lock, LA.--President's 
fiscal year 2000 Budget only includes $13,000,000 in construction funds 
for the IHNC New Ship Lock. Recommend that Corps be funded to full 
capability to continue lock construction and fully fund the community 
impact mitigation plan.
    5. Mississippi River Outlets at Venice, LA.--Recommend approval of 
the President's fiscal year 2000 Budget of $2,743,000 under O&M 
General.
    6. Intracoastal Waterway Locks, LA.--Recommend approval of the 
President's fiscal year 2000 budget of $700,000 in GI funds to continue 
the feasibility study and to develop plans for replacement of Bayou 
Sorrel Lock on the GIWW, Morgan City-to-Port Allen alternate route.
    7. Gulf Intracoastal Waterway, LA and TX.--President's fiscal year 
2000 budget is $12,506,000 under O&M General. Recommend that Corps be 
funded increased capability for a new crane at the IHNC Lock and the 
construction of two miter gates for the Port Allen lock.
    8. Calcasieu Lock, LA.--Recommend approval of President's fiscal 
year 2000 budget of $541,000 in GI funds to continue the feasibility 
phase of the study to replace Calcasieu Lock on the GIWW.
    9. Calcasieu River and Pass, LA.--President's fiscal year 2000 
Budget is $7,560,000 under O&M General. Recommend the Corps be funded 
increased capability to provide additional advanced dredging 
maintenance; to provide rockwork at Dugas Landing; to fully fund 
contracts to dredge the bar channel and miles 5-14; and to renovate 
disposal areas.
    10. J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
LA.--President's fiscal year 2000 Budget is $21,113,000 in Construction 
General and $8,781,000 for O&M General. Recommend that Corps be funded 
to full capability to complete work already under way.
    As Chairman of the Louisiana Governor's Task Force on Maritime 
Industry, I hereby submit testimony to the Senate Subcommittee on 
Energy and Water Development on behalf of the ports on the lower 
Mississippi River, the J. Bennett Johnston Waterway and the Calcasieu 
River waterway and the maritime interests related thereto of the State 
of Louisiana relative to Congressional appropriations for fiscal year 
2000.
    The U.S. Army Corps of Engineers reports that in 1997 a total of 
420.7 million tons of foreign and domestic waterborne commerce moved 
through the consolidated deepwater ports of Louisiana situated on the 
lower Mississippi River between Baton Rouge and the Gulf of Mexico. The 
deepening of this 232-mile stretch of the River to 45 feet has been a 
major factor in tonnage growth at these ports. Thanks to the efforts of 
Congress and the New Orleans District of the Corps, Louisiana's ports 
and the domestic markets they serve can compete more effectively in an 
increasingly global marketplace. Ninety-one percent of America's 
foreign merchandise trade by volume (two-thirds by value) moves in 
ships, and more than 20 percent of the nation's foreign waterborne 
commerce passes through Louisiana's ports. Given the role foreign trade 
plays in sustaining our nation's growth, maintaining the competitive 
posture of Louisiana's ports is essential to our economic well-being.
    In terms of transportation services and global access, Louisiana 
ports enjoy a distinct competitive advantage. Hundreds of barge lines 
accommodate America's waterborne commerce on the lower Mississippi 
River. The high level of barge traffic on the river is indicated by the 
passage of more than 236,000 barges through the Port of New Orleans 
annually. In 1997, 2,371 ocean-going vessels operated by more than 80 
steamship lines serving U.S. trade with more than 150 countries called 
at the Port of New Orleans. The Port's trading partners include: Latin 
America (34.8 percent); Asia (27.5 percent); Europe (26.6 percent); 
Africa (9.5 percent) and North America (1.6 percent). During the same 
year, more than 5,900 vessels called at Louisiana's lower Mississippi 
River deepwater ports.
    While the foreign markets of Louisiana's lower Mississippi River 
ports are worldwide, their domestic market consists primarily of mid-
America. This heartland region currently produces 60 percent of the 
nation's agricultural products, one half of all of its manufactured 
goods and 90 percent of its machinery and transportation equipment.
    The considerable transportation assets of Louisiana's lower 
Mississippi River ports enable them to play a vital role in the 
international commerce of this nation. In 1997, the region's ports and 
port facilities handled 212 million tons of foreign waterborne 
commerce. Valued at $38.9 billion, this cargo accounted for 18 percent 
of the nation's international waterborne trade and 23.9 percent of all 
U.S. exports. Bulk cargo, primarily consisting of tremendous grain and 
animal feed exports and petroleum imports, made up approximately 92 
percent of this volume. More than 41 million tons of grain from 17 
states, representing 50.9 percent of all U.S. grain exports, accessed 
the world market via the 10 grain elevators and midstream transfer 
capabilities on the lower Mississippi River. This same port complex 
received 82.2 million short tons of petroleum and petroleum products, 
approximately 16 percent of U.S. waterborne imports of petroleum 
products.
    In 1997, public and private facilities located within the 
jurisdiction of the Board of Commissioners of the Port of New Orleans, 
the fourth largest port in the United States, handled a total of 74 
million tons of international cargo worth $18.7 billion (included in 
lower Mississippi River statistics). General cargo totaled 10.3 million 
tons. Although statistically dwarfed by bulk cargo volumes, the 
movement of general cargo is of special significance to the local 
economy because it produces greater benefits. On a per ton basis, 
general cargo generates spending within the community more than three 
times higher than bulk cargo. Major general cargo commodities handled 
at the Port include: iron and steel products; coffee; forest products; 
copper; aluminum products; and natural rubber.
    Fostering the continued growth of lower Mississippi River ports is 
essential to assure the competitiveness of our nation's exports in the 
global marketplace and, consequently, the health of our national 
economy. Assuring deep water access to ports has been a priority of our 
trading partners around the world. Moreover, an evolving maritime 
industry seeking greater economies of scale continues to support 
construction of larger vessels with increased draft requirements. 
Because it facilitated the provision of deepwater port access, passage 
of the Water Resources Development Act of 1986, played a most 
significant role in assuring the competitiveness of ports on the lower 
Mississippi river and throughout the U.S.
    By December, 1994, the Corps completed dredging of the 45-foot 
channel from the Gulf of Mexico to Baton Rouge, LA (Mile 233 AHP). 
Unfortunately, mitigation features associated with the first phase of 
the channel deepening project, completed in 1988, have yet to be 
accomplished. The absence of funding for this vitally important project 
in the President's fiscal year 2000 Budget was most disappointing. We 
urge the inclusion of funding and support for this effort in the 
budget, which will include part of approximately $15 million in 
payments to the State of Louisiana for construction of a pipeline and 
pumping stations to deliver potable fresh water to communities affected 
by saltwater intrusion. We further urge that the Corps be provided 
funding to proceed with design studies for Phase III which will allow 
deepening of the river to the 55-foot authorized depth.
    Along with the Port of New Orleans, the Port of South Louisiana, 
the nation's largest port with 183.6 million tons of foreign and 
domestic cargo in 1997, and the Port of Baton Rouge, the nation's sixth 
largest port with 84 million tons of foreign and domestic cargo in 
1997, and other lower Mississippi River ports are dependent upon timely 
and adequate dredging of Southwest Pass to provide deep draft access to 
the Gulf of Mexico. Based on past experience--spring thaws bringing 
higher river stages and higher siltation rates--we strongly urge full 
funding of the President's fiscal year 2000 Budget amount of 
$64,430,000 under O&M General for maintenance of the 45-foot project 
channel. Funding includes monies for both dredging and repairs to 
foreshore dikes; repairs to lateral dikes; and jetty repairs. Revetment 
construction has reduced the number and size of deep draft anchorages. 
To mitigate this loss, we recommend that the Corps be authorized under 
the O&M General appropriation to construct new anchorages and maintain 
new and existing anchorages to accommodate increased ship traffic.
    Maintenance of adequate depths and channel widths in the 
Mississippi River Gulf Outlet Channel (MRGO) is also of great concern. 
This channel provides deep draft access to the Port of New Orleans' 
principal container terminals and generates an annual economic impact 
of nearly $800 million. In 1997, 530 general cargo vessels calling on 
the MRGO Tidewater facilities accounted for 26.6 percent of the general 
cargo tonnage handled over public facilities at the Port of New Orleans 
and 85.1 percent of Louisiana's containerized cargo.
    Because of the MRGO's demonstrated vulnerability to coastal storm 
activity, annual channel maintenance dredging and bank stabilization 
are essential to assure unimpeded vessel operations. In 1998, heavy 
shoaling related to Hurricane Georges resulted in the imposition of a 
draft restriction from the project depth of 36 feet to 25 feet. The 
President's fiscal year 2000 Budget amount is $14,989,000 under O&M 
General. We, however, strongly recommend that the Corps be funded 
increased capability for north and south bank stabilization projects.
    The Inner Harbor Navigation Canal (IHNC) Lock is a critical link in 
the Gulf Intracoastal Waterway (GIWW), and provides a connection 
between the Port of New Orleans' Mississippi River and IHNC terminals. 
In 1998, the Corps approved a plan for replacement of this obsolete 
facility. The Corps estimates that the lock replacement project will 
have a cost-benefit ratio of 1.7 to one and will provide $110 million 
annually in transportation cost savings. In addition to minimizing 
adverse impacts to adjacent neighborhoods, the project includes a $33 
million Community Impact Mitigation Program. The President's fiscal 
year 2000 Budget amount of $13,000,000 for the IHNC New Ship Lock will 
pay for continued engineering and design work, construction, and 
partial funding of the mitigation program. We, therefore, recommend 
that the Corps be funded to full capability to enable construction and 
mitigation program implementation. In particular, we recommend that the 
mitigation program be fully funded.
    The operation and maintenance of the Mississippi River Outlets at 
Venice, La. are essential to providing safe offshore support access to 
energy-related industries. In 1997, these channels accommodated cargo 
movements exceeding 3.5 million tons. In addition to routine traffic, 
Baptiste Collette Bayou is used by shallow draft vessels as an 
alternate route between the MRGO, GIWW and the Mississippi River. The 
President's fiscal year 2000 Budget amount is $2,743,000 under O&M 
General.
    More than 84.9 million tons of cargo transverse the GIWW in the New 
Orleans District annually. The President's fiscal year 2000 Budget for 
Gulf Intracoastal Waterway, Louisiana and Texas is $12,506,000 under 
O&M General. In addition, we recommend that the Corps be funded 
increased O&M capability for a new crane at the IHNC lock, two miter 
gates at the Port Allen lock and continued maintenance of the Louisiana 
and Texas sections of the GIWW.
    To assure the efficient flow of commerce on the GIWW, approval is 
urged for the President's budget of $700,000 in fiscal year 2000 GI 
funds to continue the feasibility study to develop plans for replacing 
Bayou Sorrel Lock, Morgan City-to-Port Allen alternate route. Also we 
recommend approval of the President's budget of $541,000 in GI funds to 
continue the feasibility phase of the study to replace Calcasieu Lock.
    The Port of Lake Charles, Louisiana, is served by the Calcasieu 
River, which is often below project depth and width. This Port is one 
of Louisiana's major deep-water ports, benefiting the economy of the 
state and the nation. In 1997, the Port handled 33.1 million tons of 
import cargo and 16.7 million tons of export cargo. The Port and 
private facilities along this waterway provide thousands of jobs for 
the Lake Charles area. In 1997, 945 ships and 6,834 barges used the 
Calcasieu River waterway. The Port area's growth and continued success 
depends on the provision of a reliable and safe channel at full project 
dimensions. Project deficiencies necessitate one-way traffic for many 
ships, which results in delays and disrupted cargo operations that are 
costly and inefficient to industry. We request the Corps be funded 
increased capability to provide additional advanced dredging 
maintenance and rockwork at Dugas Landing. In addition, we request full 
funding of contracts to dredge the bar channel, dredge miles 5-14, and 
renovate disposal areas.
    One additional project warrants consideration. The J. Bennett 
Johnston Waterway, Mississippi River to Shreveport, La. Project 
provides 236 miles of navigation improvements, 225 miles of channel 
stabilization works and various recreational facilities. Project 
completion will stimulate economic growth along the Red River Basin and 
increase cargo flows through the deep draft ports on the lower 
Mississippi River. The President's fiscal year 2000 Budget includes 
$21,113,000 in Construction General for substantial project completion 
and $8,781,000 for Operations and Maintenance. We recommend that the 
Corps be funded to full capability for this project.
    The need and impetus to reduce the Federal budget is certainly 
acknowledged; however, reduced funding on any of the above projects 
will result in decreased maintenance levels which will escalate 
deterioration and, ultimately, prevent them from functioning at their 
full authorized purpose. Reduction in the serviceability of these 
projects will cause severe economic impacts not only to this region, 
but to the nation as a whole that will far outweigh savings from 
reduced maintenance expenditures. Therefore, we reiterate our strong 
recommendation that the above projects be funded to their full 
capability.
    Supporting statements from Mr. J. Ron Brinson, President and CEO of 
the Port of New Orleans; Mr. Gary P. LaGrange, Executive Director of 
the Port of South Louisiana, Mr. Roger Richard, Executive Director of 
the Greater Baton Rouge Port Commission, Mr. Glenwood Wiseman, 
Executive Director of the Lake Charles Harbor and Terminal District, 
Mr. Benny Rousselle, President of Plaquemines Parish, Mr. Channing 
Hayden, President of the Steamship Association of Louisiana; Capt. John 
Levine, President of the Associated Branch Pilots and Capt. Mark 
Delesdernier, President of the Crescent River Port Pilots Association 
are attached. Please make these statements along with my statement part 
of the record. Supplemental graphics relating to my statement have been 
furnished separately for staff background use. Thank you for the 
opportunity to comment to the subcommittee on these vital projects.

Congressional Appropriations for Fiscal Year 2000 for Ports on the Lower 
Mississippi River, J. Bennett Johnston Waterway and Calcasieu River 
Waterway

                                                               Amount in
                                                 fiscal year 2000 budget
                                                      President's fiscal
        Project                                         year 2000 budget
Mississippi River Ship Channel Gulf to Baton Rouge, LA. 
    (Construction General)..............................................
Mississippi River, Baton Rouge to the Gulf, Maintenance 
    Dredging, & Stabilization (O&M General).............      64,430,000
Mississippi River-Gulf Outlet (MR-GO), LA. (O&M General)      14,989,000
Inner Harbor Navigation Canal Lock LA. (Construction 
    General)............................................      13,000,000
Mississippi River Outlets at Venice, LA. (O&M General)..       2,743,000
Intracoastal Waterway Locks (GI Funds)..................         700,000
Gulf Intracoastal Waterway LA. & TX. (O&M General)......      12,506,000
Calcasieu Lock, LA. (GI Funds)..........................         541,000
Calcasieu River and Pass, LA. (O&M General).............       7,560,000
J. Bennett Johnston Waterway:
    (Construction General)..............................      21,113,000
    (O&M General).......................................       8,781,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total J. Bennett Johnston Waterway................      29,894,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................     146,363,000

Lower Mississippi River--Foreign Waterborne Commerce

                       [Calendar Years: 1985-1997]

                                                                 Percent
1997..............................................................  18.0
1996..............................................................  16.6
1995..............................................................  18.6
1994..............................................................  17.8
1993..............................................................  18.1
1992..............................................................  18.2
1991..............................................................  16.6
1990..............................................................  17.6
1989..............................................................  16.9
1988..............................................................  15.9
1987..............................................................  18.2
1986..............................................................  15.1
1985..............................................................  14.8

Source: U.S. Department of Commerce.

                       LOWER MISSISSIPPI RIVER \1\
                          [Calendar year 1997]
------------------------------------------------------------------------
                                                         Dollar
                      World Area                         value   Tonnage
------------------------------------------------------------------------
Europe................................................     26.2     20.9
Asia..................................................     31.6     34.8
Africa................................................     10.5     12.4
N. America............................................      0.6      0.7
Latin America.........................................     31.1     31.2
------------------------------------------------------------------------
\1\ Foreign Waterborne Commerce.

Lower Mississippi River

                        [In millions of dollars]

        Principal Countries                                 Dollar value
Japan.........................................................     3,345
Saudi Arabia..................................................     2,852
Venezuela.....................................................     2,429
Mexico........................................................     1,995
Netherlands...................................................     1,640
All others....................................................    26,666
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    38,927
                        [Thousands of short tons]

        Principal countries                                      Tonnage
Saudi Arabia..................................................    23,975
Japan.........................................................    19,951
Venezuela.....................................................    18,380
Mexico........................................................    15,160
Colombia......................................................     8,580
All others....................................................   126,019
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   212,065

 LOWER MISSISSIPPI RIVER \1\--PRINCIPAL COMMODITIES--CALENDAR YEAR 1997

                                [STONS]

Petroleum & Petroleum Products..........................      82,186,500
Iron & Steel............................................       9,594,101
Metalliferous Ores......................................       7,168,299
Fertilizers.............................................       6,648,718
Nonmetallic Mineral Manuf...............................       2,033,539
Coal, Coke & Briquettes.................................       1,518,558
Chemicals...............................................       1,128,575
All Others..............................................       3,572,351
                    --------------------------------------------------------
                    ____________________________________________________
      IMPORTS TOTAL.....................................     113,850,641
                    ========================================================
                    ____________________________________________________
Cereal & Cereal Products................................      41,340,365
Oilseeds & Oleaginous Fruit.............................      20,102,971
Animal Feeds............................................      13,727,175
Coal, Coke & Briquettes.................................       7,820,702
Petroleum & Petroleum Prods.............................       7,019,284
Chemicals...............................................       2,203,473
Vegetable Fats & Oils...................................       1,704,335
All Others..............................................       4,296,467
                    --------------------------------------------------------
                    ____________________________________________________
      EXPORTS TOTAL.....................................      98,214,772

\1\ FOREIGN WATERBORNE COMMERCE.

Source: U.S. Department of Commerce.
---------------------------------------------------------------------------
mississippi river gulf outlet facts and comparisons--calendar year 1997
    Responsible for 2.7 million tons of international general cargo.
    Represents 26.6 percent of general cargo handled over public 
facilities at the Port of New Orleans.
    Responsible for 85.1 percent of all container cargo in the State of 
Louisiana.
    Represents approximately 22.3 percent of the Port of New Orleans' 
vessel calls.
    Cargo handled at public facilities via the MR-GO had an estimated 
economic impact of $793 million to the State of Louisiana.
    The economic activity resulting from the MR-GO supported an 
estimated 12,075 jobs in the New Orleans metropolitan area.
    Sources: Port of New Orleans UNO Economic Impact Study.

        Calendar year                                              STONS
1975.......................................................... 5,386,800
1976.......................................................... 6,970,600
1977.......................................................... 8,780,700
1978.......................................................... 9,411,100
1979.......................................................... 8,227,200
1980.......................................................... 5,541,500
1981.......................................................... 5,794,800
1982.......................................................... 5,571,800
1983.......................................................... 5,435,000
1984.......................................................... 8,034,500
1985.......................................................... 6,916,000
1986.......................................................... 8,145,000
1987.......................................................... 7,703,000
1988.......................................................... 7,687,000
1989.......................................................... 7,289,000
1990.......................................................... 7,059,000
1991.......................................................... 6,094,000
1992.......................................................... 6,444,000
1993.......................................................... 7,160,000
1994.......................................................... 5,586,000
1995.......................................................... 5,700,000
1996.......................................................... 5,042,000
1997.......................................................... 5,253,000
[GRAPHIC] [TIFF OMITTED] T10NDP.011

MISSISSIPPI RIVER GULF OUTLET

                        [1997 Commodity profile]

                                                                 Percent
Food & Farm Prods.................................................  17.2
Petro/Petro Prods.................................................   2.2
Crude Mat'ls......................................................  36.9
Cola..............................................................   0.2
Chemical..........................................................  18.9
All others........................................................   0.2
Primary Mfgr Goods................................................  16.9
Mfr Equipment.....................................................   7.6

Note: Foreign Waterborne Commerce

Source: U.S. Army Corps of Engrs & Port of New Orleans.
---------------------------------------------------------------------------
                                 ______
                                 
  Prepared Statement of Channing F. Hayden, Jr., President, Steamship 
                        Association of Louisiana
    Summary of testimony of Channing F. Hayden, Jr., President of the 
Steamship Association of Louisiana (formerly known as the New Orleans 
Steamship Association), for the record of the Senate Energy and Water 
Development Subcommittee on fiscal year 2000 Appropriations in 
reference to projects of public interest that affect Louisiana's deep-
water ports.
    1. MISSISSIPPI RIVER SHIP CHANNEL. GULF TO BATON ROUGE, LOUISIANA 
(CONSTRUCTION GENERAL).--We recommend continuation of the work on the 
saltwater intrusion mitigation plan and the design studies for Phase 
III of the 55-foot channel. Funding to full capability in fiscal year 
2000 is necessary for this required work.
    2. MAINTENANCE DREDGING OF THE MISSISSIPPI RIVER FROM BATON ROUGE 
TO THE GULF OF MEXICO.--We urge approval of the $64,430,000 in the 
President's fiscal year 2000 budget under O&M General.
    3. MISSISSIPPI RIVER-GULF OUTLET MAINTENANCE DREDGING AND BANK 
STABILIZATION.--In addition to the $14,989,000 in the President's 
fiscal year 2000 budget under O&M General, we urge that the Corps be 
funded an increased capability in fiscal year 2000 to maintain this 
channel, which includes bank stabilization on both banks and jetty 
maintenance.
    4. NEW INNER HARBOR NAVIGATION CANAL SHIP LOCK.--Recognizing that 
only $13,000,000 is included in the President's fiscal year 2000 budget 
for construction funds, we urge that the Corps be funded to full 
capability in fiscal year 2000 for this project, which is essential to 
advance the engineering, design, and construction and to continue the 
community impact mitigation plan.
    5. CALCASIEU RIVER AND PASS. LOUISIANA.--We urge approval of the 
$7,560,000 in the President's fiscal year 2000 budget under O&M General 
and recommend that the Corps be funded an increased capability in 
fiscal year 2000 to provide additional advance maintenance dredging, to 
maintain rock protection at Dugas Landing Embankment, as well as fully 
fund contracts to dredge the bar channel, to dredge Miles 5-14, and to 
renovate disposal areas.
    6. J. BENNETT JOHNSTON WATERWAY, MISSISSIPPI RIVER TO SHREVEPORT, 
LOUISIANA.--Recognizing that $21,113,000 is in the President's fiscal 
year 2000 budget to substantially complete this vital project and 
$8,781,000 for O&M in fiscal year 2000, we urge that the Corps be 
funded to full capability for fiscal year 2000. This project will 
result in stimulating economic growth along the Red River Basin and 
increase cargo movements through Louisiana ports. Funding is essential 
to complete the work already under way.
    7. THE PRESIDENT'S PROPOSED HARBOR SERVICE FEE.--We do not support 
the President's proposed fees to replace the Harbor Maintenance Tax. 
The strength of our nation's transportation system is its foreign and 
domestic waterborne commerce. It benefits the entire nation through the 
revenue and jobs it provides the country. Therefore, the maintenance of 
our nation's ports should be handled through the general fund and not 
by placing another tax burden on this vital industry, which serves the 
country well.
    Testimony of Channing F. Hayden, Jr., President of the Steamship 
Association of Louisiana (formerly known as the New Orleans Steamship 
Association), for the record of Senate Energy and Water Development 
Subcommittee on fiscal year 2000 Appropriations in reference to 
projects of public interest affecting Louisiana's deep-water ports.
    Mr. Chairman: I am President of the Steamship Association of 
Louisiana. Our Association represents ship owners, operators, agents, 
and stevedores that represent the majority of the approximately 9,000 
deep-draft vessels in waterborne commerce that call Louisiana's deep-
water ports each year. We are dedicated to the safe and efficient 
movement of maritime commerce through the state's deep-water ports. We 
endorse the testimony of Mr. Donald T. Bollinger, Chairman of the 
Governor's Task Force on Maritime Industry, and the statements of the 
other organizations attached to his testimony.
    Channel stabilization and maintenance dredging in Southwest Pass 
(SWP) are critical to keep project draft. Project draft ensures the 
Mississippi River's deep-water ports will handle the country's foreign 
and domestic waterborne commerce in the most cost-effective way 
possible.
    For years we have urged this Committee to provide funds to maintain 
project draft at SWP. You have responded, and your wisdom has 
benefitted the entire American heartland served by the Mississippi 
River system. SWP was greatly restricted throughout the 1970s. From 
1970 to 1975, the channel was at less than project draft 46 percent of 
the time. In 1973 and 1974, the channel was below the 40-foot project 
draft 70 percent of the time. During some periods, drafts were limited 
to 31 feet. Fortunately, those conditions heave not recurred because of 
a combination of factors: Your help, and the constant vigilance of the 
Pilots, the Corps, and the maritime community. The years 1990 through 
1997 show a tremendous improvement in channel stability. We have only 
been below project draft 3 percent of the time for vessels under 
100,000 deadweight tons and 8 percent of the time for vessels 100,000 
deadweight tons or greater. The funding you provided was money well 
spent. The repairs to the jetties and dikes and the Corps' ability to 
rapidly respond to shoaling have been instrumental in maintaining 
project dimensions. However, the lack of available hopper dredges is 
jeopardizing the stability of the channel.
    To enhance the safe and efficient movement of ships and cargo, we 
recommend mining sediment from the Pilottown Anchorage to create and 
enhance wetlands. Each 800,000 cubic yards of dredged material creates 
115 acres of wetlands and enhances 256 more. In the process, much-
needed Pilottown Anchorage at fog-prone Head of Passes would be dredged 
to accommodate the increasing number of deeply-ladened ships attracted 
by the 45-foot channel. Dredging Pilottown Anchorage would also 
mitigate anchorage space lost in this area to the proposed 
environmentally beneficial West Bay Diversion Project, which we fully 
support.
    The Pilots have taken advantage of tidal flows and other factors to 
recommend the maximum draft possible consistent with safe navigation. 
This stability represents additional sales and increased 
competitiveness for U.S. products on the world market. Industry's 
partnership with you has kept Mississippi River ports competitive and 
attractive to vessels. Twelve inches to a large vessel with a loading 
capacity of 250 tons per inch is an additional 3,000 tons of cargo. As 
of this writing, freight rates for grain moving from the Mississippi 
River to the Far East and Europe are ranging from $15.30 per ton to 
$10.28 a ton. Using the average, $12.79, each foot of draft represents 
an additional $38,370 in vessel revenue, or $191,850 for the five 
additional feet over the old 40-foot project draft.
    The funds we request for maintenance dredging and other works are 
essential for the Corps to maintain a reliable channel and respond 
rapidly to potential problems. This builds the confidence of the bulk 
trade in a reliable Mississippi River draft, which is critically 
important. Much of Louisiana's bulk trade is export agricultural 
products and coal. These commodities are neither captive to Louisiana 
nor the United States if they can be shipped from competing countries 
at a consistently lower cost.
    The deeper the channel, the more important channel stabilization 
is. Adequate channel stabilization work minimizes the maintenance cost 
of the deeper channel--a cost-effective investment. The faster the 
project is stabilized, the faster and greater the benefits of reduced 
O&M costs will be realized. Also, we recommend that the Corps conduct 
research on prototype dredging techniques. Experimental dredging would 
not replace routine dredging but would permit, for example, testing 
dustpan dredges in SWP and the water injection dredges at the crossings 
above New Orleans.
    Funds are also needed for dustpan dredges to work the crossings 
above New Orleans. These crossings control the draft to eight of our 
ten major grain elevators, plus many mid-stream and other bulk cargo 
facilities. This area caters to the bulk trade and must have a stable 
channel depth consistent with the depth at SWP. Only two dredges in the 
world are available to maintain the deep-draft crossings between New 
Orleans and Baton Rouge. There are times when a high river is followed 
by a rapid drop in the river's stage. In such cases, the dustpan 
dredges may not be available, or both dredges may not be capable of 
restoring the 12 crossings within a reasonable time. When this happens, 
hopper dredges are used to assist in the work.
    The Corps is studying the makeup of their ``minimum fleet''--the 
number of dredges the Corps owns and operates. Corps-owned dredges 
working the lower Mississippi River are the hopper dredges WHEELER, 
MACFARLAND, and ESSAYONS, and the dustpan dredge JADWIN. The WHEELER 
and MACFARLAND, and from time to time the ESSAYONS, provide much-needed 
capacity and immediate response to keep SWP open, especially when the 
river is abnormally high. The action by Congress to reduce the 
government hopper fleet has drastically diminished the Corps' ability 
to maintain reliable project dimensions and adversely affect our 
country's standing in world bulk markets. We urge Congress to 
reconsider its decision to place the WHEELER on stand-by status. Even 
when the WHEELER is available, the combined Corps/private fleet does 
not have enough Mississippi River-qualified hopper dredges to meet peak 
dredging requirements. The Corps' Minimum Dredge Fleet studies, we 
feel, neither justify a reduction in the fleet nor the lay-up/stand-by 
status of the WHEELER or any other Corps-owned dredge. The Corps' 
records show there was a shortage of hopper dredges for the 1997 
highwater season, and this year is no different. Two hoppers were 
needed to begin work in SWP, but none were available. The Corps, 
through a test program, has employed two dustpan dredges to try to keep 
the channel open. This is not efficient because the silt is only moved 
to the edge or side of the channel and can fall back into the waterway. 
In fact, the situation became so difficult that ships were taking about 
eight hours to transit a two-mile reach at the jetty end of SWP. 
Normally it takes about two and one-half hours to transit the entire 20 
miles of the SWP. This serious situation resulted in the WHEELER being 
released from Mobile to work the troubled SWP area. Besides the 
Mississippi River ports, this shortage of dredges also impacts many of 
our nation's deep-draft ports and is particularly disruptive to the 
Port of Lake Charles, Louisiana, where dredging suffers practically 
every year.
    For all of the above reasons, we request full funding for the 
mitigation features of the O&M General, 45-foot Mississippi River 
project.
    In December 1994, the Corps completed the 45-foot deep channel to 
Baton Rouge. Proper maintenance now provides uniform drafts for all the 
ports on the lower Mississippi River. This makes U.S. exports through 
Louisiana more competitive, and adequate federal maintenance funds to 
keep the channel open must be available. In addition, the Corps needs 
authorization to construct and maintain anchorages to improve safety. 
Over the years, revetment work and changes in the river itself have 
caused serious negative impacts on our anchorages. Therefore, we 
encourage full funding capability in fiscal year 2000 to complete the 
reconnaissance study of navigation needs on the Mississippi River and 
its outlets between Baton Rouge and the Gulf.
    We also support Phase III of the Mississippi River channel 
deepening project and urge that the Corps be funded to proceed with 
design studies for the 55-foot channel, Baton Rouge to the Gulf of 
Mexico.
    The growth of the Port of New Orleans depends, in large measure, on 
the Port's container and other facilities on the Mississippi River-Gulf 
Outlet (MR-GO). The funds you provided in past fiscal years have 
allowed the Corps to improve the channel considerably. However, the 
channel width has remained limited primarily because of erosion. For 
safety reasons in this narrow channel, one-way traffic restrictions 
apply to vessels with a draft of 30 feet or more, causing delays to the 
tightly-scheduled container traffic using the MR-GO. These specialty 
vessels serving the Port's facilities are becoming larger. This 
channel, with less than stable full project dimensions, causes problems 
for larger vessels, reducing our ability to grow with the trade. 
Hurricane Georges compounded the MR-GO problems by causing severe 
shoaling in the channel restricting the project depth of 36 feet to as 
low as 25 feet. Restoration has been ongoing for over five months. 
Initially the lack of available hopper dredges curtailed work. The 
highest wages under the International Longshoreman's Association's 
contract ($24 per straight-time hour) is paid for work at the MR-GO 
container facilities. Anything that threatens the MR-GO jeopardizes 
these high-paying jobs, which are held mostly by minority workers.
    To improve safety on the MR-GO and protect Louisiana's container 
trade (and the well-paying, minority employment it produces), we 
request that the Corps be funded to an increased capability for the MR-
GO in fiscal year 2000. This will allow annual maintenance dredging, 
north and south bank stabilization, and jetty maintenance, which is 
essential to provide the stability needed for vessel and port 
operations.
    With facilities located on both the MR-GO and the Mississippi 
River, an adequate route between the two is essential for efficient 
transit between these facilities. The shortest route is the inadequate, 
antiquated Inner Harbor Navigation Canal (IHNC) Lock built in the 1920s 
with a width of 75 feet and limited depth of 30 feet. Its maximum 
capacity has long been exceeded. The average waiting time for passage 
through the Lock has increased from 8\1/2\ hours in 1985 to about 12 
hours at present; however, we understand that waiting time can be more 
than a day in some instances. A much larger ship lock is necessary to 
accommodate today's traffic.
    The replacement project for the IHNC Lock is important to the ports 
on the lower Mississippi River and to the nation's commerce since it is 
on the corridor for east/west barge traffic. The President's fiscal 
year 2000 budget of $13,000,000 is not sufficient. Without full 
funding, the project will be delayed and increase the overall cost of 
the project. We urge Congress to provide the Corps' full fiscal year 
2000 capability for this important project to insure its completion. 
Delays are unthinkable since the new lock is long overdue.
    The Port of Lake Charles, Louisiana, is served by the Calcasieu 
River, which is often below project depth and width. This is another of 
Louisiana's major deep-water ports that benefits the economy of the 
state and the nation. According to the Port's rough figures, their 
import and export tonnage is up from 49.8 million tons in 1997 to over 
50.1 million tons for 1998. The public and private facilities along 
this waterway provide thousands of jobs for the Lake Charles area. In 
1998 there were 1,150 ships and 6,999 barges that used the waterway. 
While cargo tonnage and barge traffic is only up slightly, it should be 
noted that ship traffic up from 945 in 1997 to 1,150 in 1998, a 21.69 
percent increase. Part of this increase in ship traffic is due to ships 
calling with less cargo because of the channel deficiencies. This 
channel, because of its project deficiencies, requires one-way traffic 
for many ships, causing delays that disrupt cargo operations. This is 
costly and inefficient for industry. Last year, because of channel 
deficiencies, we know at least one major tanker service that calls at 
one of the area's major refineries reduced their operating draft by two 
feet in order to meet their company's safety and environmental policy 
requirement. This draft reduction reduces the delivery capacity to the 
facility, causing a less efficient plant operation and increasing the 
operating costs of the ships serving the plant. In just this one 
specific case, over the course of a year, the ship and refinery costs 
will increase by $4.7 million. The added costs have the potential of 
eventually causing a shift of the cargo currently destined for Lake 
Charles to other ports. This will reduce jobs in the area and disrupt 
the economy of the community. The Port area's growth and continued 
success depends on a reliable and safe channel that should be at full 
project. We request funding to the full capability of the Corps to 
maintain this channel at its project dimensions.
    The J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
Louisiana, Project is directly related to our deep-water ports. The 
continuation and completion of this work will stimulate the economy all 
along the Red River Basin with jobs and additional international trade. 
This stimulated trade will service the Port of Shreveport and the ports 
on the lower Mississippi River, providing needed growth and benefitting 
the states of Louisiana, Texas, Oklahoma, and Arkansas, which are 
served through the Shreveport distribution center. Therefore, we 
strongly recommend that the Corps be funded to full capability for 
fiscal year 2000.
    The proposed Harbor Service Fee (HSF) in the President's budget, 
which would replace the Harbor Maintenance Tax, is ill-advised. What it 
fails to recognize is that there is no equitable way in which the cost 
can be spread fairly among the shipping community. Whether the HSF is 
to the cargo or to the ship, the fee will change trade patterns and 
even jeopardize our trading position in the world market. The proposal 
will disrupt jobs and the economies of port areas. It will circumvent 
the normal, healthy competition among U.S. ports. Ships carrying low-
valued cargo, primarily bulk cargoes, operate on a very low profit 
margin; therefore, cargoes like grain and coal can least afford the 
tax. The end result could well be that the U.S. could lose its ability 
to compete in the world market for the export of these cargoes. This 
impact on bulk trade will be particularly detrimental to Louisiana 
because of the high volume of such cargoes that move through our state. 
We encourage Congress to fund the maintenance of our nation's ports 
through the general fund. After all, it is our nation (the people) that 
benefit from a strong U.S. position in world trade, not the shipping 
industry. If our nation is to remain competitive in the world market, 
we must maintain and improve our waterways and deliver U.S. goods at 
the lowest possible price to foreign markets.
    Thank you for allowing the Association to submit testimony on the 
Corps' funding needs.
                                 ______
                                 

  Prepared Statement of J. Ron Brinson, President and Chief Executive 
             Officer, Port of New Orleans, New Orleans, LA

    The Port of New Orleans is located at the terminus of the most 
extensively developed waterway system in the world, the 14,500 mile 
inland waterway system of the United States. The Port, via the 
Mississippi River and the Mississippi River Gulf Outlet, serves as the 
gateway between America's heartland and the global marketplace.
    We fully support the March 26, 1999 statement of the Louisiana 
Governor's Task Force on Maritime Industry on behalf of the ports and 
related maritime interests on the lower Mississippi River, J. Bennett 
Johnston Waterway and the Calcasieu River Waterway.
    We greatly appreciate the outstanding support and cooperation 
received over many years from you and your subcommittee.
                                 ______
                                 

Prepared Statement of Gary P. LaGrange, Executive Director/CEO, Port of 
                      South Louisiana, LaPlace, LA

    The South Louisiana Port Commission very much appreciates being 
given the opportunity to submit this statement and supportive material 
to signify its endorsement of the statement of Mr. Donald T. Bollinger, 
Chairman of the Louisiana Governor's Task Force on Maritime Industry.
    The Port of South Louisiana is comprised of nearly 54 miles of 
Mississippi River north of New Orleans and south of Baton Rouge, with 
more than fifty private and public docks and wharves. The Port of South 
Louisiana is the largest tonnage port in the United States and third 
largest in the world, handling more than 216 million short tons of 
cargo during 1998. Of this total tonnage, more than 100 million tons 
are shipped in international trade by deep water vessel and 116 million 
tons are shipped in domestic trade by vessels and barges. Each year 
more than 100,000 barges transport cargo at the Port of South Louisiana 
and more than 4,000 ships call at the public and private wharves of our 
Port.
    A recent study by Dr. Tim Ryan of the University of New Orleans 
indicates that nearly 20 per cent of the domestic gross product of the 
State of Louisiana is dependent upon the maritime industry and one of 
twelve jobs is created from the economic activity of the maritime 
industry. Attached you will find statistics which have been developed 
from the records of the South Louisiana Port Commission.
    The Port of South Louisiana strongly urges the Congress to fund all 
of the following projects.
    1. Mississippi River Ship Channel, Gulf to Baton Rouge, LA 
(Construction General)
    2. Mississippi River, Baton Rouge to the Gulf, Maintenance Dredging 
and GI Funds For Navigation Study
    3. Mississippi River-Gulf Outlet (MR-GO), LA., Maintenance Dredging
    4. Inner Harbor Navigation Canal (IHNC) Lock, LA
    5. Mississippi River Outlets at Venice, LA
    6. Intracoastal Waterway Locks, LA
    7. Gulf Intracoastal Waterway, LA and TX
    8. Calcasieu Lock, LA
    9. Calcasieu River & Pass, LA
    10. J. Bennett Johnston Waterway, Mississippi River to Shreveport
    The Port of South Louisiana strongly believes that the funding and 
completion of the above maritime projects will enhance the ability of 
the ports in the region to be competitive in the global economy and 
will enhance the ability of domestic industry and agriculture to 
compete in the export of its products.
    If we can provide any further information, please feel free to call 
upon me.
                                 ______
                                 

  Prepared Statement of Roger P. Richard, Executive Director, Port of 
                  Greater Baton Rouge, Port Allen, LA

    The Port of Greater Baton Rouge respectfully requests that your 
committee give favorable consideration to the following projects.
    1. Mississippi River Ship Channel--Gulf to Baton Rouge, 
Louisiana.--We support full funding in fiscal year 1998-99 to the Corps 
of Engineers General Construction Budget. This will allow for the 
completion of the saltwater intrusion mitigation plan and the design 
studies for the fifty-five foot channel.
    2. Mississippi River--Baton Rouge to the Gulf--Maintenance Dredging 
and GI funds for navigation study.--We support maximum funding for 
maintenance dredging on this stretch of the river and for the 
navigation improvement study to reduce long term maintenance cost.
    3. Intracoastal Waterway Locks, LA.--Recommend approval of the 
President's fiscal year 2000 budget of $700,000 in GI funds to continue 
the feasibility study and to develop plans for replacement of Bayou 
Sorrel Lock on the GIWW, Morgan City to Port Allen alternate route.
    As stated in previous correspondence, these two projects are vital 
not only to the Port of Greater Baton Rouge but to the entire nation. 
The great Mississippi River is the premier national waterway, providing 
accessibility to and from foreign countries for the transportation of 
goods and services used by countless numbers of U.S. companies and 
individual citizens. The channel must be properly designed and 
maintained for the benefit of all ports.
    We also earnestly request your support for funding of the other 
projects included in testimony prepared and submitted by Mr. Donald T. 
Bollinger. A summary of Mr. Bollinger's statement is attached. These 
projects are also extremely important to the overall viability of the 
Mississippi River system and its tributaries. We must properly maintain 
our waterway infrastructure if we are to increase trade and have the 
confidence of our trading partners around the world. Your cooperation 
and support of these important projects for the Mississippi River are 
greatly appreciated.
                                 ______
                                 

  Prepared Statement of Glenwood W. Wiseman, Executive Director, Lake 
          Charles Harbor & Terminal District, Lake Charles, LA

    The Lake Charles Harbor and Terminal District respectfully requests 
favorable consideration from you and your committee for the following 
projects.
    1. Calcasieu River and Pass, Louisiana.--The District supports full 
funding for the O&M general and supports additional funding for 
advanced maintenance dredging, disposal area renovations and bank 
stabilizing rock.
    This project is vital not only to the Port of Lake Charles, but to 
many parts of the nation. The Calcasieu River provides a route for oil 
and gas to enter the country's 15th largest port and ultimately be 
distributed to the Midwest and Northeast areas. The Port also provides 
a route for exports such as bagged grains, wood and paper products, dry 
bulk materials and other commodities which originate from as far as the 
Pacific Northwest.
    The District also requests support for funding of the other 
projects included in the testimony of Mr. Donald Bollinger. These 
projects are extremely important to Louisiana ports as well as the 
nation.
    Your assistance with these matters are most appreciated.
                                 ______
                                 

 Prepared Statement of Benny Rousselle, Plaquemines Parish Government, 
                            Belle Chasse, LA

    In my official capacity as Parish President of Plaquemines Parish 
Louisiana, I am herein requesting the following appropriations be made 
for fiscal year 2000:
    1. MISSISSIPPI RIVER SHIP CHANNEL, GULF TO BATON ROUGE, LOUISIANA 
(CONSTRUCTION GENERAL).--We recommend that the Corps be funded to full 
capability in fiscal year 2000 to perform required work on the 
saltwater intrusion mitigation plan.
    2. MISSISSIPPI RIVER, BATON ROUGE TO THE GULF, MAINTENANCE 
DREDGING.--We recommend that approval of the President's fiscal year 
2000 Budget of $64,430,000 under O&M General.
    3. MISSISSIPPI RIVER OUTLETS AT VENICE, LOUISIANA.--The President's 
fiscal year 2000 Budget is $2,743,000 under O&M General. Recommend that 
Corps be funded increased capability for repair of jetty-breakwater at 
Baptiste Collette.
    We would certainly appreciate your consideration and all the 
assistance you can give us in those projects.
                                 ______
                                 

Prepared Statement of John L. Levine, Jr., President, Associated Branch 
                          Pilots, Metairie, LA

    The Associated Branch Pilots is an Association of Pilots that have 
been guiding oceangoing vessels into the entrances of the Mississippi 
River system for over 125 years. We are called Bar Pilots because we 
guide the ships past the constantly shifting and shoaling sand bars in 
the area.
    Southwest Pass of the Mississippi River is the main entrance for 
deep draft oceangoing vessels entering the Lower Mississippi River 
System. It is the shallowest stretch of the Lower Mississippi River 
System and the area that requires the greatest effort by the Corps of 
Engineers to maintain project depth.
    In 1998, the Associated Branch Pilots made 12,697 transits on 
oceangoing vessels through Southwest Pass. Of these ships, 3,252 were 
of 50,000 deadweight tons or greater and 475 had a draft in excess of 
40 feet.
    This number of heavily laden vessels calling on the Lower 
Mississippi River System is a direct result of the completion by the 
Corps of Engineers of the deepening of the channel from 40 feet to 45 
feet.
    This first phase has proven to be extremely well designed and well 
maintained by the fact that the maximum draft recommended by my 
Association for vessels using Southwest Pass has been 45 feet or 
greater, except for periods of extremely high water that caused 
shoaling that overwhelmed the dredging efforts. This is in stark 
contrast to the late 1970's and early 1980's when we often had to 
recommend drafts less than the project depth due to shoaling.
    To the world shipping community, this means that calling at ports 
on the Mississippi River system will be more profitable because larger 
ships can enter and carry greater amounts of cargo.
    This is beneficial to the entire United States because it makes the 
large quantities of petroleum, agricultural, and manufactured products 
shipped from the Mississippi Valley more desirable due to increased 
profitability.
    I would also like to comment briefly on the East-West navigation 
channels near Venice, Louisiana. Tiger Pass and Baptiste Collette 
provide a shorter, more direct route to Breton Sound and the Gulf of 
Mexico for offshore supply boats and small tugs and barges. These 
channels not only represent a savings in time and money for these 
vessels, but reduce the traffic in the main shipping channel, the 
Mississippi River and its passes, which is one of the most congested 
waterways in the country.
    The dredging and maintaining of South Pass would contribute to the 
safety of the overall waterway and, in my opinion, be of greater value 
than the much
    The Associated Branch Pilots also pilot vessels in the Mississippi 
River Gulf Outlet, a man-made tidewater channel 75 miles long, 
stretching from the Gulf of Mexico to an intersection of the 
Intercoastal Waterway in New Orleans.
    This channel leads to the Main Container Terminals for the Port of 
New Orleans, the Roll On, Roll Off Terminal, the Port of New Orleans 
Bulk Handling Plant, and additional General Cargo Docks. For the Port 
of New Orleans to remain competitive in the ever growing container 
trade, the continued maintenance of this channel is crucial. In 1998, 
542 ships called on the port using the Mississippi River Gulf Outlet.
    Much is being said pro and con concerning the Mississippi River 
Gulf Outlet. There is, admittedly, an erosion problem in the 
Mississippi River Gulf Outlet, but any curtailment of shipping traffic 
in the channel without regard to the long term effect upon the Port of 
New Orleans would be disastrous. I strongly support approval of funding 
for both the maintenance dredging/jetty repair project and the erosion/
rip rap study for the Mississippi River Gulf Outlet.
    I would also like to make a brief statement on behalf of the 
Mississippi Valley Coal Export Council. Over 62 million tons of coal 
have been exported using the Mississippi River System during the past 
five years. Coal miners, tugboat captains, barge owners, shippers and 
many other coal related workers have benefited by using the consistent 
and efficient Mississippi River System. This also represents a 
significant contribution towards the trade balance between the United 
States and other industrialized nations.
    Funding of the Corps of Engineers' projects in the Lower 
Mississippi River System has proven to be money well spent. It has 
increased exports and imports that have benefited the entire United 
States. I urge your support of the funding requested to enable the 
Corps to continue to maintain and improve the most efficient and 
productive waterway system in the country.
                                 ______
                                 

Prepared Statement of Capt. Mark Delesdernier, Jr., President, Crescent 
            River Port Pilots' Association, Belle Chasse, LA

    Mr. Chairman: I have served as President of the largest pilot 
association in the United States for the past seventeen (17) years. The 
Crescent River Port Pilots furnish pilots for ships destined to the 
Port of Baton Rouge, Port of South Louisiana, Port of New Orleans, Port 
of St. Bernard, and the Port of Plaquemines.
    The Crescent River Port Pilots piloted and shifted over seventeen 
thousand (17,000) ships during 1998. We pilot deep draft vessels on 
more than one hundred (100) miles on the lower Mississippi River and 
thirty five (35) miles on the Mississippi River Gulf Outlet.
    The lower end of our route on the Mississippi River has a shoaling 
problem starting with the high water season each year. The shoaling 
requires daily attention by the United States Army Corps of Engineers 
to maintain project depth.
    Heavy laden vessels call on the lower Mississippi River system as a 
direct result of the completion by the Corps of Engineers of the 
deepening of the channel from forty feet (40) to forty five (45) feet.
    For several years now, we have had extraordinary success in keeping 
the river dredges to project depth. This success is a direct result of 
an experienced and vigilant Corps of Engineers that, through 
experience, is able to timely bid in dredges to avoid extra dredging 
cost by waiting to long to start maintenance dredging.
    Channel stability sends a positive message to the world's shipping 
community that schedule cargo for deep draft vessels months in advance 
is reliable. This makes the port call on the Mississippi River very 
profitable since the ships can lift greater tonnage.
    Keeping project depth is beneficial to twenty seven states that are 
directly tied to the Mississippi River Port Complex.
    Additionally I would like to comment on the east and west 
navigation channels near Venice, Louisiana. Baptiste Collette and Tiger 
Pass provide a shorter and more direct route to Breton Sound and West 
Delta in the Gulf of Mexico for oil field support vessels.
    The Crescent River Port Pilots also pilot ships in the Mississippi 
River Gulf Outlet. A man-made channel approximately 75 miles long 
starting in Breton Sound in the Gulf of Mexico and ending in New 
Orleans where it intersects with the Intercoastal Waterway.
    The Mississippi River Gulf Outlet feeds the main container 
terminals in the Port of New Orleans. Additional docks such as Bulk 
Terminal and general cargo facilities depend on this channel which 
handled approximately 700 ship calls last year.
    The Mississippi River Gulf Outlet has been a controversial channel 
since its inception, but being an integral part of the Port of New 
Orleans, it would be a disaster if it is not kept at project width and 
depth. The Crescent River Pilots strongly support approval of funding 
for both the maintenance dredging, jetty repair projects.
    Funding of the United States Army Corps of Engineers projects in 
the lower Mississippi River system which includes the Mississippi River 
Gulf Outlet, Tiger Pass, Baptiste Collette and Southwest Pass has 
proven to be money well spent.
    I urge your support of the funding requested to allow the Corps of 
Engineers to continue to maintain and improve the most productive 
waterway system in the world.
    Mr. Chairman, thanks for allowing me the opportunity to submit my 
comments to your subcommittee.
                                 ______
                                 

Prepared Statement of Gov. M.J. ``Mike'' Foster, Jr., on Behalf of the 
   Louisiana Department of Transportation and Development, Office of 
               Public Works and Intermodal Transportation

               mississippi river and tributaries project
    The Louisiana Department of Transportation and Development, Office 
of Public Works and Intermodal Transportation, is the agency designated 
to represent the State of Louisiana in the planning and orderly 
development of its water resources. This statement is presented on 
behalf of the State of Louisiana and contains recommendations for 
fiscal year 2000 appropriations for work in Louisiana under the 
Mississippi River and Tributaries Project.
    Louisiana contains the terminus of the Mississippi River, which has 
the third largest drainage basin in the world, exceeded only by the 
watersheds of the Amazon and Congo Rivers. The Mississippi River drains 
41 percent, or 1\1/4\ million square miles, of the contiguous United 
States and parts of two Canadian provinces. All of the runoff from 
major river basins, such as the Missouri and Upper Mississippi, the 
Ohio including the Tennessee and others, and the Arkansas and White, 
flow into the Lower Mississippi, which empties into the Gulf of Mexico 
through Louisiana.
    The jurisdiction of levee boards in Louisiana includes one-third of 
the State's total area. However, the importance of this one-third of 
the State can be seen by the fact that it contains nearly 75 percent of 
the State's population and about 90 percent of the State's disposable 
personal income. Traditionally, the levee district areas are water rich 
and have fallen heir to industrial development that ranks high in the 
nation. It has been estimated that about 60 percent of the State's 
agricultural products come from levee district areas. So you can see 
why Louisiana and its twenty levee districts are so interested in 
seeing the completion of the Mississippi River and Tributaries Project.
    In making the following recommendations regarding construction, 
studies, and some selected operation and maintenance items, the State 
of Louisiana would hope that Congress and the Administration will honor 
their prior commitments to infrastructure development and fund our 
requests.
    The following Louisiana projects are those for which we are 
requesting an increase to the President's budget request. For those 
Louisiana projects not listed we agree with the President's budget 
request. See the attached ``Summary of Recommended Appropriations'' for 
a complete listing.
        Operation and Maintenance                                Request
Atchafalaya Basin.......................................     $19,125,000
Old River...............................................       8,110,000
Bonnet Carre............................................       1,068,000
Bayou Rapides Drainage Structure and Pumping Plant 
    (Lower Red River, South Bank Levees)................       2,950,000
Atchafalaya Basin Floodway System.......................       1,702,000

    The operation and maintenance of completed works are essential to 
achieving the full benefits of the projects. In times of budget 
constraints it is essential that operation and maintenance not be 
delayed which would hamper the effectiveness of the projects and cause 
more expensive maintenance at a later date. Specifically, there are six 
levee slides at five locations along the West Atchafalaya Basin 
Protection Levee which require immediate attention. We are requesting 
an additional $4.2 million to be designated for this purpose in the 
Atchafalaya Basin O&M account.
    The Bayou Rapides Drainage Structure and Pumping Plant Project is 
authorized under the Lower Red River, South Bank Levees of the 
Mississippi River and Tributaries Project. This project is considered 
major maintenance and additional funds of $2.95 million are urgently 
needed to construct this project. We urge your support for funding and 
request that specific language be included in the appropriations bill 
to earmark the funds and direct the Secretary of the Army to construct 
this project.
    All the above listed projects have reached a point where delayed 
maintenance is now essential and we urge you to fund these projects in 
the amounts requested.
MISSISSIPPI RIVER LEVEES (LA ONLY)--Request: $17,320,000
    The Mississippi River and Tributaries Project above Louisiana is 
about 90 percent complete, but to a much lesser extent in Louisiana. 
Because of the improvements upstream, increased flows are a major 
problem in Louisiana where the project is lagging behind the 
construction in the upper valley. We request funds for levee 
enlargement work within the Fifth Louisiana Levee District where there 
is a deficiency of 4 to 7 feet on mainline Mississippi River levees. It 
is also requested that Federal funds be provided to purchase rights-of-
way for this critical work as the Levee District is in an economically 
depressed area and does not have a tax base capable of producing the 
funds necessary for both maintenance and rights-of-way.
LOUISIANA STATE PENITENTIARY LEVEE--Request: $9,000,000
    The Louisiana State Penitentiary Levee is the only section of 
Mississippi River levee in Louisiana that is not currently constructed 
to Federal standards. It was authorized under the Mississippi River and 
Tributaries Project in 1986 and re-authorized in 1990. We urge your 
support in funding this project and request that specific language be 
included in the appropriations bill to direct the Secretary of the Army 
to construct this project before an emergency situation arises during a 
major river flood. We also request authorization for credit for work 
accomplished by non-Federal interests.
ATCHAFALAYA BASIN--Request: $27,750,000
    This project is a main stem component of the flood control plan for 
the Mississippi River and Tributaries Project. The Mississippi River 
can safely carry only one-half of the project flood, or 1,500,000 cubic 
feet per second, below Old River; the other 1,500,000 cubic feet per 
second must be discharged through the Atchafalaya Basin. The levees 
which must confine this flow to the basin are now deficient because 
they have settled below original design grade due to consolidation of 
the underlying soils, and the design has been revised upward. This 
places the lives and welfare of approximately 650,000 people and their 
property and improvements in 13 parishes in the immediate vicinity of 
the Atchafalaya Floodway in jeopardy each flood year. The tax 
assessment records indicate the value of potential flood losses to be 
approximately $8 billion, not including public improvements. Over the 
past half century, we have supported the Mississippi River and 
Tributaries Project and have agreed that construction of flood 
protection works should start upstream and progress downstream. As a 
result, the Mississippi River and Tributaries Project is now more than 
90 percent complete in sites upstream from Louisiana, while the levees 
in the Atchafalaya Basin can contain approximately only 90 percent of 
the project flood. Work on this project has been underway since 1928 
and isn't scheduled for completion until the year 2031--a date that 
continually keeps moving further into the future. With the reduced 
budgets being enacted, Louisiana may never realize the full benefits of 
this project before the dreaded project flood occurs. We urge your 
support for funding this effort to the full capability of the Corps.
CHANNEL IMPROVEMENT (LA ONLY)--Request: $23,604,000
    Channel improvements and stabilization provide protection of the 
levees and the development behind them, as well as preventing 
unsatisfactory alignment where the river's bank is unstable. We are 
requesting an additional $2,500,000 for the Vicksburg District for 
fiscal year 2000 to keep the program moving forward. The funds we are 
requesting will provide for the dredging and revetment work necessary 
to accommodate increased flows caused by upstream improvements.
TENSAS BASIN, RED RIVER BACKWATER AREA (Sicily Island Area Levee 
        Project)--Request: $9,930,000
    The funds for fiscal year 2000 are to be used to continue 
construction of levee Items 2A and 2B, complete the HaHa Pumping Plant, 
Item 1E, levee Item 3B and Fool River pumping plant. An additional $1 
million is requested to advance the award of Item 1C and 1D and 
acquisition of lands.
ATCHAFALAYA BASIN FLOODWAY SYSTEM--Request: $8,000,000
    The project consists of acquiring real estate interests, excluding 
minerals, in the lower floodway for flood control, environmental 
protection, and public access purposes. The timing of the acquisition 
of land necessitates the increased funding request.
MISSISSIPPI DELTA REGION PROJECT, DAVIS POND--Request: $11,884,000
    Davis Pond Freshwater Diversion Project is necessary to aid in the 
fight against coastal erosion and land loss. The State of Louisiana's 
commitment to this project is demonstrated by our agreement to provide 
25 percent of the cost of construction, as well as operation and 
maintenance, of the Davis Pond structure despite Congressional project 
authorization at 100 percent Federal cost.
           local contributions for flood control improvements
    Historically, Louisiana has always done its part in cooperation 
with the Federal agencies concerned with flood control. The Louisiana 
State Board of Engineers, the forerunner of the Department of 
Transportation and Development, Office of Public Works and Intermodal 
Transportation, was created in 1879, the same year as the Mississippi 
River Commission, to coordinate the planning and construction of the 
required flood control facilities to protect the State. Since that 
time, local expenditures for flood control have exceeded $730,000,000. 
This amount adjusted to 1979 dollars represents expenditures in excess 
of $5.3 billion. Nearly one-half of the potential flooded area of the 
Lower Mississippi River Valley lies in Louisiana. Local expenditures 
for flood control have increased with the growth of the valley. This 
record not only meets, but exceeds any National Water Policy local 
participation requirement ever put into practice.
                               conclusion
    The Mississippi River and Tributaries Project has been underway 
since 1928 and isn't scheduled for completion until the year 2031--a 
date that continually keeps moving further into the future. We 
understand the need for budget constraints, but the President's budget 
request of $280,000,000 for the total MR&T Project is not adequate. We 
endorse the recommendation of the Mississippi Valley Flood Control 
Association in their request for a minimum of $335,000,000 MR&T budget 
for funding to the full capability of the Corps throughout the whole 
valley.
    The State of Louisiana, Department of Transportation and 
Development, Office of Public Works and Intermodal Transportation, in 
particular, wishes to commend the Appropriations Subcommittees on 
Energy and Water Development, and express our appreciation for the 
foresight and understanding exhibited for water resources projects 
which are vital to the national interest. We solicit your further 
consideration of the recommendations presented herein.

 MISSISSIPPI RIVER AND TRIBUTARIES SUMMARY OF RECOMMENDED APPROPRIATIONS
                          FOR FISCAL YEAR 2000
------------------------------------------------------------------------
                                                             Louisiana
           Louisiana projects             Budget request      request
------------------------------------------------------------------------
Operation and Maintenance:
    Mississippi River Levees (LA only)..      $2,092,000      $2,092,000
    Atchafalaya Basin...................      10,560,000      19,125,000
    Channel Improvement (LA only).......      31,291,000      31,291,000
    Old River Control Structure.........       4,027,000       8,110,000
    Bonnet Carre Spillway...............       1,068,000       1,068,000
    Lower Red River, SOL--Bayou Rapides   ..............       2,950,000
     Drainage Structure & Pumping Plant.
    Tensas Basin:
        Boeuf & Tensas Rivers, (LA only)       1,406,000       1,406,000
        Red River Backwater Area........       2,927,000       2,927,000
    Atchafalaya Basin, Floodway System,          644,000       1,702,000
     LA.................................
    Baton Rouge Harbor--Devil Swamp, LA.         157,000         157,000
    Bayou Cocodrie and Tributaries......         101,000         101,000
    Mississippi Delta Region,                    436,000         436,000
     Caernarvon, LA.....................
    Lower Red River--South Bank Levees..          84,000          84,000
Construction:
    Mississippi River Levees (LA only)..      13,020,000      17,320,000
    Louisiana State Penitentiary Levee..       3,000,000       9,000,000
    Atchafalaya Basin...................      19,750,000      23,750,000
    Channel Improvements (LA only)......      21,104,000      23,604,000
    Tensas Basin, Red River Backwater          8,903,000       9,930,000
     Area...............................
     Atchafalaya Basin, Floodway System.       7,500,000       8,000,000
    Mississippi Delta Region, Davis Pond      10,400,000      11,884,000
    Mississippi & Louisiana Estuarine            100,000         100,000
     Area (Bonnet Carre)................
General Investigations:
    Morganza to the Gulf of Mexico......         700,000         700,000
    Alexandria to the Gulf of Mexico....         700,000         700,000
    Donaldsonville to the Gulf of Mexico         250,000         250,000
------------------------------------------------------------------------
NOTE: The projects listed above are only those in Louisiana and directly
  affecting the State. We realize that there are other projects in these
  areas. We endorse the recommendations of the Mississippi Valley Flood
  Control Association.

                                 ______
                                 

    Prepared Statement of M.V. Williams, President, West Tennessee 
    Tributaries Association, Friendship, TN and Chairman, Executive 
        Committee, Mississippi Valley Flood Control Association

    Mr. Chairman and distinguished members of the Committee, my name is 
M.V. Williams and my home is in Friendship, Tennessee between the 
Middle and South Forks of the Forked Deer River. I am the President of 
the West Tennessee Tributaries Association. It is also my pleasure to 
serve as Chairman of the Executive Committee of the Mississippi Valley 
Flood Control Association with headquarters in Memphis, Tennessee. This 
statement on behalf of the Association presents their views on fiscal 
year 2000 Budget for the Mississippi River and Tributaries Project. I 
will present several items of general interest to all our Membership. 
Other Members of the Association will present statements that will 
concern specific items of interest.
    Since there are new members of the Sub-Committee I will briefly 
discuss the Mississippi Valley Flood Control Association which is an 
Agency composed almost entirely of public bodies having local 
responsibility for flood control, drainage, bank stabilization and 
navigation improvements in parts of Iowa, Illinois, Kentucky, 
Mississippi, Tennessee, Arkansas, Missouri and Louisiana. Our members 
are public officials who for the most part are elected by the people. 
The Association represents practically all of the levee and drainage 
districts, municipalities, port and harbor commissions and other state 
agencies in the Mississippi Valley, extending from Burlington, Iowa to 
the Gulf of Mexico. These organizations and agencies are political 
subdivisions of the various states in which they are organized and 
function. We provide an agency through which the people of the 
Mississippi Valley may speak and act jointly on all flood control, 
navigation, bank stabilization and major drainage problems. We have 
appeared before the Sub-Committee and served the people in the 
Mississippi Valley for well over sixty years.
    Our Association is comprised of a very large group of individuals 
who are businessmen, property owners, conservationists, farmers, 
attorneys, doctors, wildlife enthusiasts, engineers, accountants, 
environmentalists, civil servants and elected officials from all 
political parties.
    Our Objectives simply stated are:
    To seek Congressional authorization for, and adequate annual 
appropriations for the early completion of all flood control projects 
necessary for the protection of the Lower Mississippi Valley against 
the maximum probable flood.
    To secure prompt initiation of, and early completion of existing 
project for the stabilization of the banks of the Lower Mississippi 
River, in order to assure the integrity of the Main River Levee System; 
to provide increased flood discharge capacity, permanency of location 
for harbor facilities and industrial sites, and to obtain deeper and 
more reliable navigation channels.
    To support channel and major drainage improvements throughout the 
Lower Mississippi Valley to provide protection against headwater 
flooding, and to provide adequate outlets for local and state drainage 
projects.
    To cooperate in every proper way with the Department of the Army, 
the Chief of Engineers of the United States Army, the Mississippi River 
Commission and other agencies to hasten the accomplishment of flood 
control in the Mississippi Valley.
    We submit this testimony this year in support of the Mississippi 
River and Tributaries Project which was established by the Flood 
Control Act of 1928.
    Our Executive Committee is composed of business and professional 
men. They are men of wide experience in business, professional and 
civic life. They are mature in their judgment and responsible in their 
actions. It, therefore, has been no easy task for that Committee to 
arrive at an asking figure based on urgent needs and yet tempered in 
the light of the grave fiscal problems which face the Federal 
Government. I say these things to emphasize that our asking was not 
arrived at by whim and fancy.
    We have closely examined the President's Budget Request for fiscal 
year 2000 and find that it is completely inadequate for the Mississippi 
River and Tributaries Project. The $280,000,000 that the President has 
requested is the same amount that was requested last year, fortunately 
for the Nation the Congress in it's wisdom increased that amount. We 
request that this Committee strongly consider a minimum appropriation 
for fiscal year 2000 for the Mississippi River and Tributaries Project 
of $335,000,000.
    In requesting that such moneys be appropriated for flood control 
and navigation works of the Lower Mississippi Valley, we are not 
unmindful of the fact that in these critical times our Nation is being 
called upon to rectify an economic condition that needs immediate 
attention. We feel that we are justified in urging appropriations for 
our project for the reason that the assets and resources of this great 
nation must not be neglected during these times. We know of no other 
appropriation which contributes as much to national wealth and 
resources as flood control and navigation for the major rivers of this 
country. Millions of acres which were overflow lands decades ago are 
now highly productive and contributing to our national wealth. These 
lands by reason of their geographic location are the most fertile of 
the nation. They produce an abundance of food and fiber for the general 
welfare and prosperity of the country. The inland waterways of the 
nation provide the cheapest and in some cases the only method to move 
bulk commodities that are also absolutely essential to the general 
welfare and prosperity of the country. Moneys appropriated by Congress 
for flood control and navigation has and will augment our national 
resources and improve our economic well-being. The appropriations made 
by Congress for the Mississippi River and Tributaries project are 
investments in this nation's future.
    In closing let me reemphasize that federal works projects with 
proven merit such as the Mississippi River and Tributaries Project 
represent a sound federal investment which will return to the tax 
payers of this country generous dividends. Such federal investments 
contribute to the economic well being of the Nation by reducing 
unemployment; adding to the stability and economic growth of 
agriculture and industry; and providing a flood free environment for 
the welfare of the people of the Mississippi Valley.
    We reaffirm the position we have always held that the physical 
geography of the Mississippi River is such that flood control interests 
do not stop at the main river but extend upstream along the adjacent 
tributary streams and valleys. The Flood Control plan on the 
Mississippi River therefore cannot be considered adequate or complete 
until the flood control plans for these valleys, authorized as a part 
of the Mississippi River and Tributaries project, are completed.
    Under our Constitutional form of Government the Citizens as the 
final authority and for whose protection and welfare our Government 
exists, are entitled to the best protection from Floods our Nation is 
capable of devising. We would respectfully request that this committee 
consider that during it's deliberations of the Corps of Engineer's 
fiscal year 2000 Appropriations.
    We have attached a sheet to this statement that reflects the 
President's Budget Request and the Mississippi Valley Flood Control 
Association's request for Appropriations for the Mississippi River and 
Tributaries Project for fiscal year 2000.

   MISSISSIPPI VALLEY FLOOD CONTROL ASSOCIATION FISCAL YEAR 2000 CIVIL
      WORKS BUDGET-MISSISSIPPI RIVER AND TRIBUTARIES APPROPRIATIONS
------------------------------------------------------------------------
            Project and State             Budget request   MVFCA request
------------------------------------------------------------------------
Surveys, continuation of planning and
 engineering & advance engineering &
 design:
    Mississippi River, Alexander Co., IL         $30,000         $30,000
     & Scott Co., MO....................
    Memphis Metro Area, TN & MS.........         675,000         675,000
    Reelfoot Lake, TN...................         318,000         318,000
    Wolf River, Memphis, TN.............         525,000         525,000
    Bayou Meto Basin, AR................       1,767,000       1,767,000
    Morganza, LA to the Gulf of Mexico..         700,000         700,000
    Alexandria, LA to the Gulf of Mexico         700,000         700,000
    Donaldsonville LA to the Gulf of             250,000         250,000
     Mexico.............................
    Collection & Study of Basic Data....         365,000         365,000
                                         -------------------------------
      Subtotal--Surveys, continuation of       5,330,000       5,330,000
       planning & engineering & advance
       engineering & design.............
Construction:
    St. John's Bayou-New Madrid                7,800,000       9,800,000
     Floodway, MO.......................
    Eight Mile Creek, AR................         700,000         700,000
    Helena & Vicinity, AR...............       2,190,000       2,190,000
    Grand Prairie Region, AR............      21,900,000      21,900,000
    West Tennessee Tributaries, TN......       2,398,000       2,398,000
    Nonconnah Creek, TN.................       2,500,000       2,500,000
    St. Francis Basin, MO & AR..........       4,350,000       4,350,000
    Yazoo Basin, MS.....................      24,279,000      40,985,000
    Atchafalaya Basin, LA...............      19,750,000      21,750,000
    Atchafalaya Basin Floodway System...       7,500,000       8,000,000
    MS Delta Region, LA.................      10,400,000      10,400,000
    MS & LA Estaurine, Area, MS & LA....         100,000         100,000
    Louisiana State, Penitentiary, LA...       3,000,000       7,400,000
    Tensas Basin, Red River Backwater,         8,930,000       8,930,000
     LA.................................
    Channel Improvements, IL, KY, MO,         37,865,000      43,165,000
     AR, TN, MS & LA....................
    Mississippi River Levees, IL, KY,         23,250,000      32,750,000
     MO, AR, TN, MS & LA................
                                         -------------------------------
      Subtotal--Construction............     176,732,000     217,318,000
      Subtotal--Maintenance.............     117,500,000     131,914,000
                                         -------------------------------
      Subtotal--Mississippi River &          299,652,000     354,562,000
       tributaries......................
      Less reduction for savings &           -19,562,000     -19,562,000
       slippage.........................
                                         -------------------------------
      Grand total--Mississippi River and     280,000,000     335,000,000
       tributaries......................
------------------------------------------------------------------------

                                 ______
                                 

       Prepared Statement of Aubrey Gravois, President, Board of 
      Commissioners, Lafourche Basin Levee District, Vacherie, LA

                        mississippi river levees
    Although there are no current or scheduled contracts within the 
jurisdiction of the Lafourche Basin Levee District for levee 
enlargements and slope paving, we still have a few areas which are 
below grade which needs to be elevated and slope paved. Therefore, we 
are requesting that these small reaches be considered in future 
appropriations.
    The Board of Commissioners of the Lafourche Basin Levee District 
urges the subcommittees to appropriate as much funds as possible for 
the continuation of the levee enlargement and concrete sloped pavements 
through out the State of Louisiana.
                          channel improvements
    The revetment construction program must be funded annually to 
prevent future levee failures, land losses and relocations. The 
Lafourche Basin Levee District has several areas of continued caving 
banks which concern us. Some of these banks are along reaches where 
there are extremely very narrow battures and further these areas are in 
locations where high tourism exist such as Oak Alley and Laura 
Plantations. The Lafourche Basin Levee District urges the committee to 
continue to appropriate as much funding as possible for the 
continuation of strong Channel Improvement Program. If caving banks are 
not controlled, the only answer is ``set back''. There is very little 
room remaining available for levee setbacks in the jurisdiction of the 
Lafourche Basin Levee District.
       donaldsonville to the gulf of mexico reconnaissance study
    The Board of Commissioners of the Lafourche Basin Levee District is 
grateful for the funding already submitted and received towards this 
very important study. For years now we have been deeply concerned with 
the drainage and back water flooding problems that have been and is 
continuing to occur in this basin which covers the jurisdictional 
boundaries of our levee district. The benefits from this study will 
hopefully become a massive project which will be of great benefit and 
assistance to the Lafourche Basin Levee District with regards to flood 
control efforts which will include wetlands hydrology, conservation, 
restoration, and wildlife habitat. The Board of Commissioners of the 
Lafourche Basin Levee District has taking on the responsibility of 
being the Local Sponsor of this subject study and we are urging the 
committee to commit to additional funding to the amount of $500,000 for 
fiscal year 2000. Budget contains $250,000.
                           the levee district
    The Lafourche Basin Levee District extends downstream from the City 
of Donaldsonville to the Jefferson-St. Charles Parish Line area, a 
distance of 63 miles, it includes the west (right descending) bank of 
the Mississippi River, and is comprised of portions of the following 
parishes: Ascension, St. James, St. John the Baptist, St. Charles, 
Lafourche, and Assumption. The Mississippi River westbank levee is 
continuous through out the Parishes of Ascension, St. James, St. John 
the Baptist, and St. Charles Parishes.
    Major industries have developed in the Lafourche Basin Levee 
District. One of the largest is the Nuclear Power Plant or Energy in 
Taft, Louisiana. Others such as ADM/Growmark, Agrico Chemical, CF 
Industries, Monsanto, Occidental Chemical Corp., Shell Chemical Co., 
Triad Chemical, Union Carbide and others all reap the benefits of being 
protected from the flooding of the Mississippi River through the assets 
and contributions received for the MR&T Projects. Along with industrial 
growth, our Levee District is continuing to experience an increase in 
residential and urban expansions. A great portion of the rich land and 
soil in our levee district is used for agricultural purposes.
    Without the protection of the Mississippi River and Tributaries 
Flood Control Project, the continued flood control and maintenance 
improvements of the Lower River Valley Levees would not exist. The 
project is a necessity for us to be able to continue to serve the 
national needs of our economy and continued growth of our areas.
                                comments
    The Lafourche Basin Levee District plans to continue to advise this 
subcommittee of our current and future needs. We understand that all of 
the items of the MR&T Flood Control Project are of extreme importance. 
We also understand that this year we may not be able to submit oral 
testimony before the subcommittees as we have done so in the past. We 
hope that we can return to this type process, so that we can verbally 
voice our concerns in person for the problems which occur in the Lower 
River Valley. Four representatives from the Lafourche Basin Levee 
District are here today desiring to present views to the subcommittee 
and they are President Aubrey Gravois, Commissioner Lloyd Becnel, 
Attorney Joseph C. Wiley, and Administrative Manager, Randy Trosclair.
                               conclusion
    The Board of Commissioners of the Lafourche Basin Levee District 
realizes that the funding being discussed for water resources must be 
increased for the well being of our country. The improvements received 
from the funds for the MR&T Flood Control Projects are the wealth of 
the country, and they pay back their cost several times over and over. 
We must continue to protect our future. We along with many other levee 
districts endorse the recommendations presented by the Association of 
Levee Boards of Louisiana, Louisiana Department of Transportation and 
Development, Mississippi Valley Flood Control Association and the Red 
River Valley Association.
                                 ______
                                 

Prepared Statement of Billy J. Felty, Chief Engineer, St. Francis Levee 
                          District of Arkansas

    My name is Bill Felty. I am Chief Engineer of the St. Francis Levee 
District of Arkansas. I live in West Memphis, Arkansas which is located 
on the West side of the Mississippi River in the St. Francis Basin.
    The St. Francis Basin extends from the foot of Commerce Hills near 
Cape Girardeau, Missouri to the mouth of the St. Francis River seven 
miles above Helena, Arkansas, a distance of 235 miles. It extends to 
the West to the uplands of Bloomfield and Crowley's Ridge, having a 
maximum width of 45 miles. The Basin is comprised of an area of 3,500 
square miles.
    Within the St. Francis Basin and the Lower Mississippi Valley, we 
are witnessing a great industrial expansion and the economy in the area 
is improving rapidly throughout the entire basin especially along the 
Mississippi River. This industrial growth and prosperity could not 
exist without the drainage and flood control protection made possible 
by the appropriations from your Committee for the Mississippi River and 
Tributaries Project (MR&T). Since 1928, the MR&T Project has prevented 
flood damages in the Lower Mississippi Valley totaling $231 billion at 
an investment of $9.9 billion. Additionally the MR&T Project has 
resulted in an annual transportation savings on the Mississippi River 
totaling $1 billion.
    As your Subcommittee reviews the Civil Works Budget for fiscal year 
2000 appropriations for the MR&T Project, please consider the 
importance of this project to the Lower Mississippi Valley and to the 
Nations economy and infrastructure. The amount of $280,000,000 in the 
President's Budget for use in the MR&T Project throughout the Lower 
Mississippi Valley is far below the amount needed to keep vital 
projects on schedule. Considering the impacts that the Lower 
Mississippi Valley has on the nations economy and infrastructure, it is 
essential that we keep this project on track and complete it in a 
timely manner.
    Therefore, we support the amount of $335,000,000 as requested by 
the Mississippi Valley Flood Control Association for the fiscal year 
2000 Civil Works Budget, Mississippi River And Tributaries 
Appropriations as shown on the enclosed Budget Request sheet. This is 
the minimum amount that the Executive Committee of the Association 
feels is necessary to adequately fund the projects and maintain the 
proposed schedules during the coming fiscal year.
    The amount of $4,350,000 included in the President's Budget for 
Construction on the St. Francis River Basin Project in Arkansas and 
Missouri is sufficient to allow for adequate progress on the projects 
within the Basin. However, the amount of $6,300,000 included in the 
President's Budget for Maintenance within the St. Francis Basin is not 
sufficient to adequately maintain the existing projects and keep them 
in a good state of repair. Therefore, I am requesting an additional 
capability in the amount of $3,250,000 be added to the budget to 
provide for a total of $9,550,000 in maintenance funds for the fiscal 
year for use in the St. Francis Basin Project. The amounts requested 
are part of the total Mississippi River and Tributary Appropriations of 
the Civil Works Budget.
    I feel the Subcommittee will give fair consideration to the needs 
of the Mississippi River and Tributaries Appropriations. I appreciate 
the time given and the work you do to advance the development of the 
water resource projects.
    We have a large number of members from the St. Francis Levee 
District here today to attend the Appropriations Hearings. They have 
come to show their support for the St. Francis Basin Project and the 
Mississippi River and Tributaries Projects.
                                 ______
                                 

       Prepared Statement of Wayne Orillion, President, Board of 
    Commissioners, Atchafalaya Basin Levee District, Port Allen, LA

                    atchafalaya basin levee district
    The Atchafalaya Basin Levee District was created in 1890 by the 
Louisiana Legislature and is the largest levee district in the State. 
The flood protection system within the District includes levees on the 
Mississippi River, Atchafalaya River, Morganza Lower Guide and East and 
West Atchafalaya Basin Protection Levees. The District is charged with 
the obligation of securing and clearing interfering facilities for 
rights-of-way for levee and levee drainage purposes, routine levee 
maintenance, borrow pit maintenance, and land management including oil, 
gas, mineral, campsites, hunting, and other leases.
    mississippi river and tributaries atchafalaya basin, la project
    The Atchafalaya River Basin, in south-central Louisiana, originates 
at the confluence of the Mississippi, Red, and Atchafalaya rivers near 
Simmesport. The basin extends in a north-south direction from the 
latitude of Old River and Bayou Des Glaises to the Gulf of Mexico.
    The Atchafalaya River is the largest of all distibutaries of the 
Mississippi. Improvements in the Atchafalaya River Basin have been 
authorized by Congress and constructed primarily under the Mississippi 
River and Tributaries (MR&T) project. Basin flood protection works are 
an integral and extremely important part of the lower Mississippi 
River. The project allows one-half of the project design flood (1.5 
million cubic feet per second) to be introduced into the Atchafalaya 
Basin Floodway while the other half is allowed to continue down the 
main Mississippi River channel. Floodways follow opposite sides of the 
Atchafalaya River to the end of the levee system along the river. There 
they merge into a single broad floodway that discharges into the Gulf 
of Mexico through Wax Lake Outlet and the Lower Atchafalaya River.
    Features of the Atchafalaya Basin, Louisiana project include 
levees, channel dredging, locks, floodgates, control structures, 
Morganza Floodway and Control Structure, pump stations, drainage 
structures, and drainage canals and enlargements.
         levee slides, west atchafalaya basin protection levee
    A levee slide is a partial levee failure brought on by the soil's 
properties of shrinking and swelling. This condition is affected by the 
soil's moisture content and results in a reduced shear strength. As the 
shear strength is reduced, the levee's ability to hold itself up is 
reduced until a portion of the levee breaks off.
    There are currently six levee slides at five locations along the 
West Atchafalaya Basin Protection Levee. Each slide area is shown in 
the table below.

------------------------------------------------------------------------
                                                           Slide length
             Item                    Levee stations            (Ft.)
------------------------------------------------------------------------
W-46.........................         2552+27 to 2573+38           2,111
W-52.........................         2800+00 to 2900+00          10,000
W-58.........................         3047+00 to 3054+00             700
W-64.........................         3416+00 to 3424+00             800
W-64.........................         3499+00 to 3503+00             400
W-74.........................         3923+00 to 3927+00             400
------------------------------------------------------------------------

    These slides are of great concern to the Levee District and are in 
need of immediate attention. Traditionally, the levee district repairs 
minor slides in its normal maintenance program. However, the larger 
failures which involve engineering expertise and funding beyond the 
means of the levee district are the responsibility of the Corp of 
Engineers. In some cases the slides occur partially due to lack of 
proper compaction during the original construction process. The 
estimated cost to repair the slides is $4.2 million.
    The Board of the Atchafalaya Basin Levee District respectfully 
requests that the funds presented in the President's budget for the 
Flood Control, Mississippi River and Tributaries, Atchafalaya Basin, 
Louisiana project, Operation and Maintenance be increased by $4.2 
million and that this $4.2 million be designated for the levee slide 
repairs.
[GRAPHIC] [TIFF OMITTED] T10NDP.012

                                 ______
                                 

     Prepared Statement of Reynold S. Minsky, President, Board of 
      Commissioners, Fifth Louisiana Levee District, Tallulah, LA

    As each spring passes, the people of Louisiana sigh with relief. 
Another ``high River'' season is over and all is well, yet each spring 
draws the region closer to the inevitable, ``Project Flood.'' That 
surge of water flowing south, down the Mississippi River Channel, 
draining 41 percent of the United States at a level not experienced 
since 1927.
    If it were to happen this spring, Louisiana and Mississippi would 
not be prepared. Levees insufficient in height would give way to the 
force beyond their capabilities to constrain. Lives would be lost and 
livelihoods destroyed that would take decades to restore. The cost of 
restoring and rebuilding would be unequaled by any natural disaster 
America has suffered.
    Funding for adequate flood control in the Mississippi Valley now 
will be minimum compared to the potential that exists if flood control 
projects are not completed as currently planned.
    The fiscal year 2000 Civil Works Budget, Mississippi River and 
Tributaries (MR&T) Appropriations includes a total of $23,250,000 for 
``Mississippi River Levees, IL, KY, MO, AR, TN, MS & LA.'' Insufficient 
to divide among seven states and be able to show significant 
improvement in flood control.
    To guarantee that the Vicksburg District, Corp of Engineers is able 
to maintain the level of progress needed to ensure MR&T construction 
schedules are met, it is imperative that an additional $5,500,000 above 
the $9,750,000 proposed budget be allocated for construction in the 
Vicksburg Corp District. Another $400,000 will be necessary for proper 
levee maintenance.
    The Mississippi River Levee System in Louisiana and Mississippi 
must be brought to heights and capabilities equal to that of the levees 
stretching northward; otherwise, upper reaches of the Mississippi River 
Levee System will become a funnel, protecting states to the north while 
directing havoc southward. Increased funding for MR&T levee improvement 
projects in Louisiana and Mississippi is the only means to eliminate 
this possibility.
                                 ______
                                 

     Prepared Statement of Audrey J. LaPlace, President, Board of 
        Commissioners, Pontchartrain Levee District, Lutcher, LA

    These three items are of indispensable importance to the State of 
Louisiana. There are serious project deficiencies in the Pontchartrain 
Levee District. Federal appropriations must continue at adequate levels 
to move forward.
$42,000,000 for Mississippi River levees (Budget contains $23,250,000)
    In the Pontchartrain Levee District several reaches of main line 
levee must be enlarged and slope paved to advance from the current 
status of partial flood protection. During the 1997 high water an 
emergency levee cap was constructed at Marchand to prevent overtopping 
and a possible crevasse. Enlargement and Slope Pavement construction 
for the levee reach Marchand to Darrow is now completed, as are two 
other items, Romeville to Remy and Remy to Garyville; all three items 
accomplished while the Sierra Club's consent decree has been in effect. 
This is a credit to the Corps of Engineers. After slipping out of the 
program for the past two years, funds are now badly needed for 
construction of the levee from Carville to Marchand.
    Future levee enlargements and slope paving are required in the 
Levee District. The Board of Commissioners, Pontchartrain Levee 
District, urges the Subcommittees to appropriate $42,000,000 in fiscal 
year 2000 for Mississippi River levees.
$50,000,000 for channel improvement (Budget contain $37,685,000)
    Main line levees must be protected from caving banks throughout 
this lower river reach where extremely narrow battures are the last 
line of defense against levee crevasses and failures. If caving banks 
are not controlled the only answer is ``setback''. Simply stated there 
is no room remaining for levee setbacks in the Pontchartrain Levee 
District. Revetment construction must be annually funded to prevent 
levee failures, land losses and relocations. This item also benefits 
the 55-foot depth navigation channel. The Pontchartrain Levee District 
recommends at least $50,000,000 be appropriated for fiscal year 2000.
$10,000,000 for Louisiana State Penitentiary (Budget contains 
        $3,000,000)
    Angola, Louisiana's State Penitentiary, has been under River attack 
for more than ten years, lost its front line levee and hundreds of 
acres agricultural areas to caving banks. The Setback levee is 
extremely unstable, likely to fail under stress of the next high water. 
Warden Burl Cain describes the situation as an acute emergency. Inside 
the prison the City of Angola does exist, has its own Post Office, a 
population of 627 tax paying citizens, and 138 residences. With a levee 
failure potential damages amount to $500,000,000. Currently, the only 
alternative is to move the 5,000 maximum security inmates into tents on 
higher ground. It is urgently recommended that $10,000,000 be 
appropriated for fiscal year 2000.
$325,000,000 minimum recommended for all items of the MR&T flood 
        control project
                           the levee district
    The Pontchartrain Levee District extends downstream from the City 
of Baton Rouge to the New Orleans area, a distance of 115 river miles, 
includes the east (left descending) bank of the Mississippi River, and 
is comprised of portions of East Baton Rouge, Iberville, Ascension, St. 
James, St. John the Baptist and St. Charles Parishes. The Mississippi 
River east bank levee is continuous throughout the Levee District, 
including the Bonnet Carre Floodway. We serve as the local sponsor for 
the St. Charles Parish Hurricane Protection Levee, now in the eighth 
year of construction, designed to protect the Parish, a portion of New 
Orleans and its International Airport from hurricane tides. The West 
Shore Hurricane Protection Project, St. John the Baptist Parish, is now 
involved in a Feasibility Study and this Levee District is again 
serving as Local Sponsor.
    Extensive development of major industries has taken place in the 
Pontchartrain Levee District and is continuing. Along with industrial 
growth, our Levee District is experiencing dramatic increase in 
residential and urban expansions. Substantial portions of the Levee 
District area are used for agriculture. Three nationally ranked deep-
water ports are companions to the Pontchartrain Levee District--the 
Baton Rouge Port, South Louisiana Port, and New Orleans Port. A portion 
of the New Orleans International Airport is also located within the 
district.
    All these features and many other improvements along with more than 
one million residents are protected by the Mississippi River and 
Tributaries Flood Control Project in this Levee District. Only through 
continuous, effective flood control improvements and maintenance can 
this area and the Lower River Valley meet requirements to serve 
national needs for its economy and continued growth.
                                comments
    The Pontchartrain Levee District has full realization of the 
necessity of keeping this Subcommittee advised of current and future 
needs for federal monetary support on vital items of the MR&T Flood 
Control Project. In 1995, 1996 and 1997 the Subcommittees refused to 
give audience to the Lower Mississippi Valley Flood Control Association 
seven (7) state delegation. This year we have been advised that no oral 
testimony will be heard. Again, this is a great travesty of justice. 
Such actions seriously erode the partnership that has been built 
between the Corps of Engineers and local sponsors. We trust that this 
pattern will revert back to the sixty-three year practice of hearing 
our delegation. Four representatives from the Pontchartrain Levee 
District are present today desiring to present views to the 
Subcommittees--they are Commissioner Joseph Gautreau, Vice President; 
Commissioner LeVerne B. Brown; Commissioner Michael Reames; and Gerald 
Dyson, Executive Assistant.
              near future is uncertain--its up to congress
    In the search for new ways to accomplish required flood control and 
other water resources projects, Congress must remain mindful not to 
jerk the rug out from under its own feet and our own. Without 
protection there will be few jobs, farms, industries, businesses, 
voters and related activities. Congress should know that we in the 
Lower Mississippi Valley do not have the option to say ``No''. Also it 
stands that Congress should not have the option to reduce, remove or 
stop federal responsibility for controlling national water, whether in 
flood or drought. With respect to Louisiana most of its runoff is 
generated outside the State area for all its main carrier rivers, 
including Mississippi, Red, Ouachita, Black, Atchafalaya Floodway, 
Pearl and Sabine Rivers. In Louisiana we have a comprehensive flood 
control plan sponsored, operated and maintained by some 23 Levee 
Districts to handle and provide for safe passage of almost one half the 
nation's waters. This invokes federal involvement, don't mess up the 
system.
                               conclusion
    The Board of Commissioners, Pontchartrain Levee District, 
compliments the Subcommittee on Energy and Water Development for its 
keen understanding of real needs for the MR&T Flood Control Project and 
efficient, alert actions taken to appropriate funds for its many 
complex requirements. We endorse recommendations presented by the 
Association of Levee Boards of Louisiana, Louisiana Department of 
Transportation and Development, Mississippi Valley Flood Control 
Association and Red River Valley Association.
                                 ______
                                 

Prepared Statement of Aubrey J. LaPlace, President, President, Board of 
        Commissioners, Pontchartrain Levee District, Lutcher, LA

    in support of appropriations for lake pontchartrain & vicinity 
   hurricane protection, louisiana--st. charles parish and west shore
                              the projects
    These recommendations are limited to two separable items under the 
project ``Lake Pontchartrain & Vicinity, Hurricane Protection, 
Louisiana'', (1) St. Charles Parish authorized in 1965 and (2) West 
Shore, St. John the Baptist Parish, authorized in 1974. Federal funding 
is required for construction on (1) St. Charles Parish and Feasibility 
Study on (2) West Shore.

Funding requirements, fiscal year 2000

St. Charles Parish, Construction........................      $6,000,000
West Shore, Feasibility Study...........................         600,000
                               objectives
    St. Charles Parish.--The Accelerated Plan has been developed in 
conjunction with the Corps of Engineers whereby the ten mile levee 
system first lift and drainage structures can be completed in a five 
year period, providing a closed system and protection from hurricane 
tides to elevation 9.0. We are now entering the second year of the five 
year plan. Additional levee lifts will be added to raise the levee 
system to elevation 13.5 as consolidation will allow.
    West Shore.--The Feasibility Study is moving satisfactorily and 
must be completed on schedule, two more years. Local 50 percent funding 
has been deposited in an escrow account, matching federal funds are now 
required.
                          project descriptions
    The St. Charles Parish Hurricane Protection Levee is ten miles in 
length, has five drainage structures, extends from the Bonnet Carre 
Floodway to New Orleans International Airport and is situated about 
four hundred feet north of U.S. Hwy. 61. Construction cost is estimated 
at $99,000,000 financed at 70 percent Federal and 30 percent Local 
(Pontchartrain Levee District). Project is now 30 percent complete. 
Local contributions have been deposited in an escrow account and now 
exceed the 30 percent local funding requirement compared to federal 
funds. When the first lift and structures are completed, immediate 
protection to elevation 9.0 will be in place, whereas now there is 
nothing to prevent extensive, devastating flooding in St. Charles 
Parish, a portion of Jefferson Parish and New Orleans International 
Airport. Then additional lifts will be added to raise the levee to 
elevation 13.5 as consolidation will allow.
    The West Shore Hurricane Protection Levee will provide tidal 
flooding protection to the Town of LaPlace and vicinity, St. John the 
Baptist Parish. Other improvements to be protected are reaches of I-10 
and I-55 along with U.S. Highways 61 and 51, and State Highways. These 
are designated evacuation routes for New Orleans metro area. The 
Benefit/Cost ratio is 2.1, and estimated construction cost is 
$60,000,000. The Pontchartrain Levee District is serving as Local 
Sponsor in partnership with St. John the Baptist Parish Council.
    These are two critical emergency projects, we have local funds now 
available, and the next move is in the hands of Appropriation 
Subcommittees on Energy and Water Development. You must act now.
    Representatives of the Pontchartrain Levee District appeared at the 
Subcommittee Staff Office to submit this statement and answer any 
questions. They are Commissioners Joseph Gautreau, Vice President, 
Commissioner Michael Reames, Commissioner LeVerne B. Brown and Gerald 
Dyson, Executive Assistant. You may call either of them or the 
undersigned at any time for information, (225) 869-9721.
                                 ______
                                 
Prepared Statement of Kenneth L. Weiland, P.E., CEO and Chief Engineer, 
               Yazoo-Mississippi Delta (YMD) Levee Board
    This statement has been prepared by Kenneth L. Weiland, P.E., CEO 
and Chief Engineer for the Yazoo-Mississippi Delta (YMD) Levee Board. 
It is submitted today, March 23, 1999, on behalf of the entire Levee 
Board and the citizens we represent in the Mississippi Delta, which 
includes the Yazoo and Sunflower River Basins. In addition to the 
funding request contained herein, the YMD Levee Board also supports the 
general funding testimony for fiscal year 2000 as submitted by the 
Mississippi Valley Flood Control Association. As members of this 
Association, we join in their praises of your continuing support for 
the important flood control projects within the Mississippi River and 
Tributaries (MR&T) Project.
    We are very concerned about the Administration's continued 
submittal of budgets containing severely inadequate funding levels for 
flood control projects within the MR&T project. Consequently, both 
Levee Boards in Mississippi are making efforts to address these 
concerns with key Administration officials as well as our Congressional 
delegations. It is our desire to facilitate better support and 
understanding of the importance of the MR&T project by policy and 
budget decision makers within the Administration to reduce or eliminate 
the complete Congressional overhauls of the MR&T budget that have been 
required in recent years.
    After careful consultation with U.S. Army Corps of Engineers 
officials, the YMD Levee Board continues our support and request for a 
minimum annual funding level of 335 million dollars for the timely 
completion and maintenance of the MR&T project. Following the 
devastating flood of 1927 on the Mississippi River, the Flood Control 
Act of 1928 verified the national priority placed on the development of 
a comprehensive flood control plan (the MR&T project) to minimize the 
likelihood of such devastation occurring again in the lower Mississippi 
valley. The wisdom of this Act is obvious today, seventy-one years 
later, by the fact that the project has yielded 20 dollars of benefits 
for every dollar invested in the project. Unfortunately, however, a 
substantial amount of work is still uncompleted on the project that 
exposes many areas to the risk of flood devastation. The YMD Levee 
Board makes its most urgent and ardent appeal that proper funding be 
provided by Congress for the MR&T project. Your past support of this 
vital work verifies your recognition of the consequences to the nation 
that would result from allowing the MR&T project to become vulnerable 
to a catastrophic failure of any one of its major components due to 
delays and neglect caused by inadequate funds.
    The following paragraphs identify certain projects within our Levee 
District that merit special mention. For your convenience, we have 
provided a detailed, tabular listing of key components of our funding 
request for fiscal year 2000 at the end of this statement. As you will 
note, the requested funding levels in the table are supported jointly 
by both Levee Boards in Mississippi.
           mississippi river levees and channels maintenance
    As stated above, there can be no question of the importance of the 
continued construction and maintenance of the mainline levee system and 
channel protection on the Lower Mississippi River. The YMD Levee Board 
is proud of our long record of protection of the mainline levee in our 
District and understands that your generous funding to insure adequate 
major maintenance of these features of the project is the key to 
preventing a catastrophic failure of the system. Again we emphasize the 
importance of adequate funding of the MR&T project, especially with 
respect to maintenance of the mainline levees and the Mississippi River 
channel.
                          upper yazoo projects
    Following the destructive flood of 1932, Congress authorized the 
formulation of a plan that would reduce the risk of flooding of the 
Mississippi Delta from the uncontrolled release of headwater out of the 
hills in north central Mississippi. The original plan, released in 
1936, included a system of flood control reservoirs that would 
discharge into a system of channels and levees that could safely convey 
the headwater from the hills to the Mississippi River. In the late 
1980's, this project was forced into reformulation under the guise of 
environmental concern. Reformulation of the Upper Yazoo Project (UYP) 
was completed in late 1993. Construction was immediately resumed on the 
project, and outstanding progress has been made since. The tabular 
funding request attached to the end of this statement reflects a 
request for the funding necessary to assure that progress on the UYP 
continues. The requested funding will support the necessary work to 
complete the UYP to the city of Greenwood, MS, long considered a 
milestone in the overall completion of the project. The YMD Levee Board 
is very appreciative of the Congressional support of this project in 
past appropriations and respectfully requests funding as shown to 
assure that construction on this project can proceed as rapidly as 
possible to completion.
                yazoo headwater flood control reservoirs
    As mentioned above, four major flood control reservoirs exist in 
Mississippi to control the release of headwater into the Yazoo River 
system. These reservoirs are Arkabutla, Sardis, Enid and Grenada. The 
reservoirs have prevented an enormous amount of flood damages by 
allowing drainage from the hills to be released into the Delta at a 
rate that prevents flooding. The proper maintenance and operation of 
these reservoirs is therefore critically important to all citizens 
living downstream of them in the Delta. The YMD Levee Board has 
specified a reasonable request for maintenance funding of the 
infrastructure associated with these reservoirs. Providing the 
requested funding will allow the Corps to make the necessary repairs 
and operational improvements consistent with the critical role these 
reservoirs play in protecting the Mississippi Delta.
              sunflower river channel maintenance project
    Over time, all streams in the Delta lose their capacity to convey 
design discharges due to siltation in the bottom of the streams. In the 
month of July, 1989, sections of the Mississippi Delta along the 
Sunflower River system experienced significant flooding over half grown 
row crops of food and fiber. In response to this devastation, the Board 
of Mississippi Levee Commissioners (MLB), located in Greenville, MS, 
requested a study by the Corps of Engineers (Corps) to determine 
whether the reduction of the Sunflower River system flow capacities had 
contributed to the flooding, and thus, whether the Corps should begin 
its obligatory maintenance of the channels in this system. Subsequent 
surveys by the Corps reflected loss of channel capacity from the 
original design of approximately forty (40) percent. Studies were made 
and plans completed by the Corps for the work necessary to perform this 
major maintenance. The YMD Levee Board, whose District shares in the 
damages resulting from the overflow of the rivers in this area, and the 
MLB serve as the local sponsors of this project and have joined as 
intevenors on behalf of the Corps to defend this work from litigation 
that has been filed to delay this important work. We are very 
optimistic that all legal roadblocks will be removed and urge the 
requested funding levels be provided so that no delays occur once these 
litigation matters have been resolved.
                 demonstration erosion control project
    In past years, Congress has provided funds for the continuation of 
construction of measures to control erosion and sedimentation in 
streams located primarily in the headwater area of the Yazoo Basin. 
Though most of this work is located outside of the physical limits of 
our District, the YMD Levee Board supports your continued funding of 
these projects due to the fact that substantial amounts of the 
sediments controlled by the projects would eventually end up in the 
Coldwater-Tallahatchie-Yazoo River system. Such sedimentation would 
result in significant additional maintenance on this system to prevent 
the loss of capacity of these rivers to carry the design discharges 
from the four major flood control reservoirs. (Arkabutla, Sardis, Enid, 
Grenada)
                        yazoo tributaries study
    The Yazoo Tributaries Study is the last phase of the MR&T project 
in the Yazoo Basin. This study will identify work necessary for proper 
drainage and flood control on the major tributaries to the Yazoo River 
system. Upon completion of the before stated UYP, construction on these 
tributary streams can begin. The YMD Levee Board therefore urges 
Congress to provide adequate funding for the timely completion of this 
study.

----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal year 2000--
                                                                 -----------------------------------------------
                                                                                     MLB Levee
                             Project                                President's     Board, YMD       Requested
                                                                     submitted      Levee Board    congressional
                                                                      budget          funding         add-ons
                                                                                      request
----------------------------------------------------------------------------------------------------------------
                           Yazoo Basin
 
Construction:
    Upper Yazoo Project.........................................     $11,620,000     $13,700,000      $2,080,000
    Upper Steele Bayou..........................................       3,915,000       4,500,000         585,000
    Tributaries.................................................         340,000         340,000  ..............
    Yazoo Backwater.............................................         520,000       1,000,000         480,000
    Reformulation (backwater & tributaries).....................       1,570,000       1,570,000  ..............
    Demonstration Erosion Control...............................       6,294,000      20,000,000      13,706,000
Maintenance:
    Big Sunflower River.........................................         209,000       4,800,000       4,591,000
    Tributaries.................................................       1,269,000       1,300,000          31,000
    Arkabutla...................................................       3,265,000       4,900,000       1,635,000
    Sardis......................................................       4,334,000       7,300,000       2,966,000
    Enid........................................................       3,214,000       4,400,000       1,186,000
    Grenada.....................................................       4,280,000       6,600,000       2,320,000
 
                    Mississippi River Levees
 
Construction:
    MS Valley Division..........................................      23,250,000      35,750,000      12,500,000
        Memphis District........................................       7,500,000      13,500,000       6,000,000
        Vicksburg District......................................       9,750,000      15,300,000       5,550,000
Maintenance:
    MS Valley Division..........................................       3,736,000       4,686,000         950,000
        Memphis District........................................       1,460,000       2,410,000         950,000
        Vicksburg District......................................       1,269,000       1,700,000         431,000
----------------------------------------------------------------------------------------------------------------

    The figures provided in the table above are based on our assessment 
of projected Corps capabilities using the best information available as 
of 17 March, 1999. The YMD Levee Board and the MLB Levee Board support 
funding at the full capability of the Corps in order to complete our 
important flood control projects in a timely and effective manner. 
Please do not hesitate to call us if you have questions or comments 
regarding this information.
                                 ______
                                 
  Prepared Statement of James E. Wanamaker, Cheif Engineer, Board of 
                    Mississippi Levee Commissioners
    Mr. Chairman and members of the committee: I am James E. Wanamaker, 
Chief Engineer for the Board of Mississippi Levee Commissioners, 
Greenville, Mississippi, and I have the privilege of presenting this 
statement on behalf of this Board and the Citizens of the Levee 
District. Our Levee District consists of the counties of Bolivar, 
Issaquena, Sharkey, Washington, and parts of Humphreys and Warren in 
the Lower Yazoo Basin in Mississippi.
    As in past years, we remind you that the Mississippi River and 
Tributaries Project is one of if not the most cost-effective projects 
ever undertaken by the United States. The foresight used by the 
Congress in their authorization of the many features of this project is 
exemplary. Annual funding for this project needs to be $350,000,000 for 
construction to stay on schedule. We continue to be aware of the desire 
of the Congress to balance the Federal budget and appreciate the effort 
made by the Congress to provide the maximum funding available for this 
work. The Congressional adds for fiscal year 1999 have kept 
construction moving in the Basin at an acceptable pace. The Lower 
Mississippi Valley Flood Control Association will be submitting a 
general statement in support of the appropriation of $335,000,000 for 
fiscal year 2000 for the construction, surveys, advanced engineering 
and the operation and maintenance of the Mississippi River and 
Tributaries Project. The Lower Mississippi River receives flood water 
from 41 percent of the continental United States and has experienced 
water levels above flood stage for the past 6 years.
    The President's Budget request again falls far short of the needs 
and capabilities of the Corps of Engineers for the Mississippi River 
and Tributaries Project that includes work on the Mainline Mississippi 
River Levees and the Yazoo Basin Projects. The following table outlines 
what the Congress appropriated last year, the President's Budget 
request and our request for your consideration while deliberating the 
appropriation for this year.

                        YAZOO BASIN FLOOD CONTROL FISCAL YEAR 2000 APPROPRIATIONS SUMMARY
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal year--
                                                                 -----------------------------------------------
                             Project                                                   2000         2000 Levee
                                                                       1999         President's    Board (Local
                                                                  Appropriations  Budget Request     Sponsor)
----------------------------------------------------------------------------------------------------------------
Construction:
    Yazoo Backwater.............................................        $500,000        $520,000      $1,000,000
    Upper Steele Bayou..........................................       4,500,000       3,915,000       4,500,000
    Demonstration Erosion Control...............................      13,500,000       6,294,000      20,000,000
    Tributaries.................................................         200,000         340,000         340,000
    Upper Yazoo Project.........................................      10,000,000      11,620,000      13,700,000
Maintenance:
    Big Sunflower...............................................       2,500,000         209,000       4,800,000
    Arkabutla...................................................       3,700,000       3,265,000       4,800,000
    Enid........................................................       3,270,000       3,214,000       4,400,000
    Grenada.....................................................       4,330,000       4,280,000       6,600,000
    Sardis......................................................       5,300,000       4,334,000       7,300,000
    Tributaries.................................................       1,238,000       1,269,000       1,300,000
                                                                 -----------------------------------------------
      Total.....................................................      49,038,000      39,260,000      68,740,000
 
                    Mississippi River Levees
 
Construction:
    Vicksburg District \1\......................................      14,850,000       9,750,000      15,300,000
    Lower MS River Valley Division \2\..........................      30,750,000      23,250,000      35,750,000
Maintenance:
    Vicksburg District \1\......................................       2,251,000       1,269,000       1,600,000
    Lower MS River Valley Division \2\..........................       6,500,000       3,736,000       4,686,000
----------------------------------------------------------------------------------------------------------------
\1\ Vicksburg District includes portions of the states of Mississippi, Arkansas, and Louisiana.
\2\ Lower MS Valley Division includes portions of the states of Illinois, Missouri, Kentucky, Tennessee,
  Arkansas, Mississippi, and Louisiana.

    It is imperative that the work on the Mainline Mississippi River 
Levee Enlargement Project move forward as fast as funding will allow. 
We are requesting an appropriation for mainline levees of $35.75 
million, which will allow the continuation of two construction 
contracts enlarging 18 miles of the most deficient levee in Mississippi 
near Mayersville. These additional funds will also allow the initiation 
and completion of relief wells on the Magna Vista to Brunswick Item 
protecting our area of greatest underseepage problems during the recent 
high waters.
    The Reformulation of all remaining work in the Yazoo Basin has 
delayed construction for as much as 5 years on the Upper Steele Bayou 
and Upper Yazoo Projects. Our request includes additional funding 
necessary to assure that construction continues on the remaining 
projects in the Yazoo Basin.
    Our request includes $4.5 million for the Upper Steele Bayou 
Project which will allow the Vicksburg District to complete Main Canal 
Item 2 which comes up through the City of Greenville and also Item 2 on 
Black Bayou. This funding increase will also allow for the award of 
Black Bayou Item 3 which also provides drainage to Greenville, 
Mississippi. The Vicksburg District will be able to complete phase 4 on 
Item 66-A at Swan Lake as part of the ongoing work at the Yazoo 
Wildlife Refuge.
    One million dollars is requested for the Vicksburg District to 
initiate the design for the project in anticipation of the completion 
of the Reformulation Report. Preliminary information indicates that 
there will be an alternative with a positive benefit cost ratio. The 
Mississippi Levee Board is currently scheduling meetings with public 
and private environmental groups in an effort to arrive at a plan for 
this project to provide flood protection and environmental benefits to 
the South Delta area.
    We are requesting $4.8 million to initiate construction of Items 2 
and 3 on the Big Sunflower Maintenance Project. The Big Sunflower River 
is the outlet for a major portion of the Mississippi Delta, including 
parts of 10 Counties. This is also the outlet relied upon for 60 
Drainage Districts in the Mississippi Delta. The two Mississippi Levee 
Boards are currently intervenors in both the State and Federal 
litigation involving the work planned for this project. It is our 
opinion that the Corps of Engineers has made a strong argument in both 
cases and with out these funds construction will be delayed at least a 
year with the successful out come of this litigation.
    Our request also includes additional funding for the Upper Yazoo 
Project and maintenance of the Mississippi Reservoirs that provide 
protection to the eastern portion of the Mississippi Delta. The 
increased funding will allow the Upper Yazoo Project to continue 
upstream to Greenwood and the reservoir funding will allow the Corps to 
complete long awaited maintenance on our four lakes and Dams. 
Demonstration Erosion Control and Tributaries features of the Yazoo 
Basin Appropriation will reduce sediment to the Delta streams reducing 
long term maintenance needs.
    We are grateful for the consideration given to us each year by the 
Committee and appreciate the opportunity to present our requests to you 
at this time.
                                 ______
                                 
    Prepared Statement of A. Lynn Lowe, President, Red River Valley 
                              Association
                              introduction
    The Red River Valley Association is a voluntary group of citizens 
banded together to advance the economic development and future well-
being of the citizens of the four state Red River Basin area in 
Arkansas, Louisiana, Oklahoma and Texas.
    For the past 74 years, the Association has done notable work in the 
support and advancement of programs to develop the land and water 
resources of the Valley to the beneficial use of all the people. To 
this end, the Red River Valley Association offers its full support and 
assistance to the various Port Authorities, Chambers of Commerce, 
Economic Development Districts and other local governmental entities in 
developing the area along the Red River.
    The Resolutions contained herein were adopted by the Association 
during its 74th Annual Meeting in Bossier City, Louisiana on February 
18, 1999, and represent the combined concerns of the citizens of the 
Red River Basin area as they pertain to the goals of the Association, 
specifically: Economic and Community Development; Environmental 
Restoration; Flood Control; Bank Stabilization; A Clean Water Supply 
for Residential, Commercial, Industrial and Agriculture Uses; 
Hydroelectric Power Generation; Recreation; and Navigation The.
    Red River Valley Association is aware of the constraints on the 
federal budget, and has kept those restraints in mind as these 
Resolutions were adopted. Therefore, and because of the far-reaching 
regional and national benefits addressed by the various projects 
covered in these Resolutions, we urge the members of Congress to review 
the materials contained herein and give serious consideration to 
funding the projects at the levels requested.
                             rrva testimony
    Mr. Chairman and members of the Committee. I am Lynn Lowe, and I am 
pleased to represent the Red River Valley Association as its President. 
Our organization was founded in 1925 with the express purpose of 
uniting the citizens of Arkansas, Louisiana, Oklahoma and Texas to 
develop the land and water resources of the Red River Basin.
    We appreciate the President's fiscal year 2000 budget submission of 
$3.9 billion from his fiscal year 1999 submission of $3.3 billion (21.5 
percent increase); however, we take exception to the programs earmarked 
for the increase. Most all of it will go to deep-draft ports and 
channels and environmental programs. The traditional programs, inland 
waterways and flood protection remained at the low, unacceptable level 
as last year. These traditional civil work projects are the backbone to 
our nation's infrastructure for waterways, flood control and water 
supply. We remind you that these projects are a true `jobs program' in 
that 100 percent of the construction is contracted to the private 
sector as is much of the architect and engineer work. Not only do these 
funds provide jobs, but provide economic development opportunities for 
our communities to grow and prosper.
    The civil works program is a catalyst that is responsible for the 
great economy we now experience. It would be irresponsible to allow our 
nation's infrastructure to deteriorate, or worse, stop its growth in a 
time when America must be the leader in the world market. Our inland 
waterways is the key to our dominance in world trade. This is a pivotal 
budget year where critical decisions must be made which will determine 
our future economic strength.
    We ask you to correct this imbalance in distribution of funds 
within the Corps and to fund the Corps of Engineers at the level of 
$4.7 billion which will realistically fund the ongoing programs. We 
also request you place in your budget language that recognizes the 
importance of our nation's waterways and the positive economic impact 
civil work activities have to our citizens.
    I would like to comment on our specific requests for the future 
economic well-being of the citizens residing in the four state Red 
River Basin area.
    Navigation.--The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. The average tonnage moved in 
1995 through 1997 was 3.1 million tons and the projected tonnage to 
justify the project is 3.3 million tons. Estimates for 1998 are 3.4 
million tons. We are extremely proud of our public ports, 
municipalities and state agencies who have created this success. New 
facilities opened in 1998 included a fertilizer terminal at Alexandria 
and stone distribution at the Port of Shreveport-Bossier. Liquid 
petroleum shipments increased in 1998 as did commercial stone 
operations. Currently under construction, at our ports, are a wood chip 
barge loading system, new liquid petroleum tank farm, fertilizer 
facility and two general cargo warehouses. You are reminded that the 
Waterway is not complete, ten percent remains, $200 million. We 
appreciate the President's budget level of $21 million; however, we 
respectfully request the expressed Corps capability of $25.1 million. 
In order to keep the waterway safe and reliable we must continue at a 
funding level higher than the President's Budget. The RRVA formed a 
Navigation Committee for industry, the Corps and Coast Guard to partner 
in making our Waterway a success. This effort has reaped many benefits. 
We can not sacrifice what has been accomplished by inadequate funding 
levels.
    In fiscal year 1999 you reprogrammed funds to initiate the 
feasibility study to extend navigation from Shreveport-Bossier City, 
Louisiana into the State of Arkansas. It is imperative that you 
continue funding this important study and reprogram the remaining 
$582,600 from the `Daingerfield Reach' study. Many areas continue to 
suffer major unemployment, and the navigation project, although not the 
total solution, will help revitalize the economy in this region. The 
U.S. Fish and Wildlife Service `Planning Aid Report' indicated minimal 
impact and most probably an enhancement to environmental value. Last 
summer colonies of least terns (an endangered species) were found on 
stabilized sandbars in the Waterway in Louisiana as well as increased 
migratory birds due to the newly formed pools. This will be a 
multipurpose project addressing navigation, hydropower, bank 
stabilization and environmental restoration. I want to stress that the 
local sponsor, the Red River Commission of Arkansas, has available 
their 50 percent cost share for the complete feasibility study. Few 
local sponsors have funds `in the bank' and are also willing to fund 
additional studies to insure a complete analysis is made.
    Bank Stabilization.--One of the most important continuing programs 
on the Red River is bank stabilization in Arkansas and North Louisiana. 
We must stop the loss of valuable farmland that erodes down river and 
interferes with the navigation channel. In addition to the loss of 
farmland is the threat to public utilities such as roads, electric 
power lines and bridges; as well as increased dredging cost in the 
navigable waterway. These revetment projects are compatible with 
subsequent navigation and we urge that they be continued in those 
locations designated by the Corps of Engineers to be the areas of the 
worst erosion. We appreciate Congressional funding in fiscal year 1999 
and request you again fund this project at a level of $17 million.
    It is essential to protect the banks from caving and erosion along 
the Red River below Denison Dam, Texas to Index, Arkansas along the 
Texas/Oklahoma border. The Federal Government constantly encourages its 
farmers to protect their lands against all forms of erosion, so it only 
makes sense to be consistent. An authorized project exists; `Red River 
Waterway, Index, AR to Denison Dam, TX, Bank Stabilization', so the 
issue lies with the benefit/cost ratio. We believe that the authorized, 
on going `Sediment Transport Study' will identify benefits due to 
reduced dredging cost to the navigable Waterway in Louisiana.
    There is a new technique for bank stabilization which could be 
tested as a demonstration project under this authorization. This new 
technique, underwater bendway weirs, has proven to be less expensive 
than conventional methods and more efficient in controlling the energy 
of the river as well as providing environmental benefits. Much prime 
farmland in Oklahoma and Texas is lost each year to river erosion and 
we must investigate all avenues to correct this problem. You funded the 
initiation of this project last year and we request you continue that 
funding this year at a level of $5.8 million, the expressed Corps 
capability.
    Flood Control.--You will recall that in 1990 major areas of 
northeast Texas, Southwest Arkansas and the entire length of the Red 
River in Louisiana were ravaged by the worst flooding to hit the region 
since 1945 and 1957. More than 700,000 acres were flooded with total 
damages estimated at $20.4 million. However, it could have been much 
worse. The Corps of Engineers estimates that without the flood control 
measure authorized by Congress over the past several decades an 
additional 1.3 million acres would have been flooded with an estimated 
$330 million in additional flood damage to agricultural and urban 
developments.
    We continue to consider flood control a major objective and request 
you continue funding the levee rehabilitation projects ongoing in 
Arkansas and Texas. Four of eleven items have been completed and levees 
rehabilitated to meet federal standards. $5 million will construct two 
more items; completing Miller County, AR and starting levees in 
Lafayette County, AR.
    In addition, Bowie County levee, in Texas, is crucial to the 
integrity of the Arkansas levee system. Should the Bowie levee fail 
flood waters will inundate behind the just completed Miller County 
levees in Arkansas. It is important to have this projected funded for 
$900,000, for the `locally preferred' option, according to cost sharing 
under the Flood Control Act of 1946 not withstanding economic 
justification.
    Clean Water.--Nearly 3,500 tons of natural salts, primarily sodium 
chloride, enter the upper reaches of the Red River each day, rendering 
downstream waters unusable for most purposes. The Truscott Brine Lake 
project, which is located on the South Fork of the Wichita River in 
King and Knox Counties, Texas became operational in 1987. An 
independent panel of experts found that the project not only continues 
to perform beyond design expectations in providing cleaner water, but 
has an exceptionally favorable cost benefit ratio. $16 million dollars 
was appropriated in fiscal year 1995, by the Administration, to 
accelerate engineering design, real estate acquisition and initiate 
construction of the Crowell Brine Dam, Area VII and Area IX. Due to a 
conflict over environmental issues, raised by the U.S. Fish and 
Wildlife Service, completion of the SFEIS was delayed pending further 
study to determine the extent of possible impacts to fish and wildlife, 
their habitats and biological communities along the Red River and Lake 
Texoma. In an effort to resolve these issues and insure that no harmful 
impact to the environment or ecosystems would result, a comprehensive 
environmental and ecological monitoring program was implemented. It 
evaluates the actual impacts of reducing chloride concentrations within 
the Red River watershed. This base line data is crucial to 
understanding the ecosystem of the Red River basin west of Lake Texoma 
and funding for this must continue.
    Dr. Westphal, Assistant Secretary of the Army (Civil Works), in 
October 1998 agreed to support a re-evaluation of the Wichita River 
Basin. Completion of this tributary will reclaim Lake Kemp as a usable 
water source for the region. We request the expressed Corps capability 
of $2.1 million to continue this important project.
    Operation & Maintenance.--We appreciate the support of your 
subcommittee to support the completion of navigation to Shreveport/
Bossier City which is now providing an increase to our industrial base, 
creating jobs and providing economic growth. We request that O&M 
funding levels remain at the expressed Corps capability to maintain a 
safe, reliable and efficient transportation system. As experienced this 
past year failure to maintain a revetment for $500,000, when the 
problem was first identified, resulted in a catastrophic failure of the 
revetment and adjacent levee. This led to an emergency repair of $5 
million which could have been prevented. The President's level of $8.8 
million does not address the backlog of maintenance at the five lock 
and dams or deteriorating dikes and revetments. The Corps capability of 
$14 million is required to maintain a safe waterway. Full O&M funding 
levels is not only important for the Waterway Project but for all our 
Corps projects and flood control lakes.
    We are sincerely grateful to you for the past support you have 
given our various projects. We hope that we can count on you again to 
fund our needs and complete the projects started that will help us 
diversify our economy and create the jobs so badly needed by our 
citizens.
    Thank you for the opportunity to present this testimony and project 
details of the Red River Valley Association on behalf of the 
industries, organizations and citizens we represent throughout the four 
state Red River Valley region. We believe that any federal monies spent 
on civil work projects are truly investments in our future and will 
return several times the original investment in benefits that will 
accrue back to the federal government.
    I am always available to provide you and your staff additional 
information or clarification on any issue presented.
                            grant disclosure
    The Red River Valley Association has not received any federal 
grant, subgrant or contract during the current fiscal year or either of 
the two previous fiscal years.
   summary of fiscal year 2000 requests red river valley association
    [Note.--Projects are NOT in any order of priority. Project number 
correspond to the backup information in Section V.]
A. Studies (General Investigations)
    1. Navigation on the Red River in Southwest Arkansas: WRDA 96 
authorized a feasibility study for this project. Funding was 
reprogrammed in fiscal year 1999 to continue the study. The Project 
Study Plan (PSP) is complete and the Feasibility Cost Sharing Agreement 
(FCSA) will be signed in March 99. The study will commence with full 
participation from the communities in the project area which include 
counties and parishes of Arkansas, Louisiana, Texas and Oklahoma. It is 
imperative that this study continue to be funded and the remaining 
funds in the `Daingerfield' study be reprogrammed for this study in 
Bill language.
    [Note.--The local sponsor is prepared to cost share the study, 50 
percent and has funds available.]
    ``Request that the Secretary of the Army is directed to use 
$582,600 of the funds appropriated in Public Law 102-377 for the Red 
River Waterway, Shreveport, Louisiana, to Daingerfield, Texas, project 
for the feasibility phase of the Red River Navigation, Southwest 
Arkansas, study.''
    2. Grassy Lake, AR: Project Modifications for Improvement of the 
Environment (Section 1135). The Secretary of the Army acting through 
the Chief of Engineers is requested to expend, within the funds 
provided for the Section 1135 Program; $300,000 for a feasibility study 
of modifications to restore the environmental quality of Grassy Lake, 
Hempstead County, Arkansas, degraded by the construction of Millwood 
Lake, Arkansas. Fiscal year 2000 Funds Requested: $300,000.
    3. Southwest Arkansas, Arkansas: Provided further, that the 
Secretary of the Army is directed to initiate a reconnaissance study in 
Southwest Arkansas utilizing $300,000 appropriated herein to develop an 
ecosystem restoration plan that integrates flood control, water supply, 
releases for navigation and wildlife habitat. The study will 
investigate adverse results caused by construction of Millwood, 
DeQueen, Dierks, and Gilham Lakes. Navigation has been extended to 
Shreveport/Bossier City, Louisiana, on the Red River, and water 
releases of these four lakes could be used to aid navigation. Flooding 
remains a problem and the lakes' water supply is not being utilized to 
its full benefits. Fiscal year 2000 Funds Requested: $300,000.
B. Construction
    4. Red River Waterway Project, LA:
    a. We support the $21,113,000 included in the President's budget 
and items of work proposed by the Corps.
    b. In addition, to insure that the integrity and safety of the Red 
River navigation channel is maintained for reliable barge 
transportation we request additional funding, at the Corps expressed 
capability, to accelerate construction on Cognac Reinforcement 
($1,250,000) and Poisson ACS ($1,250,000). These sites have been 
identified by industry as problem areas. Fiscal year 2000 Funds 
Requested: $2,500,000.
    c. Mitigation: We support all efforts to meet this obligation of 
the project. Existing funds must be carried forth to continue land 
purchase actions.
    d. Request the Corps cost share in the design and construction of 
boat launch facilities in Pool 3; one at Hampton's Lake Recreation site 
and one at Colfax, LA. There is limited access to the Red River in Pool 
3 and as commercial traffic increases it is imperative that there be 
access for safety. Two important municipal riverfront projects are the 
Teague Parkway Trails in Bossier City and Shreveport riverfront 
development. These sites will be cost shared 50/50 with the Red River 
Waterway Commission who has their funds on hand to participate.

Total Funds Requested...................................      $3,000,000
Fiscal year 2000 Federal Share..........................       1,500,000
Local Sponsor Share.....................................       1,500,000

    e. Following is the total Federal requirement for the Red River 
Waterway Project (a thru d above):

President's Budget......................................     $21,113,000
Navigation Construction Adds............................       2,500,000
Public Recreation Sites.................................       1,500,000
Mitigation..............................................................
                    --------------------------------------------------------
                    ____________________________________________________
      Total Requested for fiscal year 2000..............      25,113,000

    5. Red River Chloride Control Project:
    a. In October 1998 the Assistant Secretary of the Army (Civil 
Works) agreed to support a thorough re-evaluation of the Wichita River 
Basin features. Three out of four options have a positive benefit to 
cost ratio. He reprogrammed funds so that work could continue in fiscal 
year 1999. We are disappointed there were no funds in the President's 
budget.
    b. Many of the features in the Wichita River basin have been 
constructed and completion of this system would reclaim Lake Kemp which 
would become a major water source for the region.
    c. It is extremely important that the ongoing water quality and 
environmental monitoring continue. This is critical to establishing a 
baseline in which to evaluate the effects of the project. Fiscal year 
2000 Funds Requested: $2,100,000.
    6. Red River Below Denison Dam, Arkansas Levees: Continue funding 
levels to fully fund construction and restoration of Levee Item #5 
(Miller County Levee District) and Levee Item #9A (Red River Levee 
District in Lafayette County). This completes all Miller County Levees 
and starts the Lafayette County Levees. Funds are to ``remain available 
until expended''. Fiscal year 2000 Funds Requested: $5,000,000.
    7. Bowie County Levee, TX: The plans and specifications have been 
completed. We request construction funding for the `locally preferred' 
option under the cost sharing requirements of the Flood Control Act of 
1946 not withstanding economic evaluation. Assurances of support and 
maintenance have been obtained from the local sponsor. Fiscal year 2000 
Funds Requested: $200,000.
    8. Red River Emergency; Bank Protection; AR & LA: Fully fund 
construction on Black Lake Phase II ($2.0 mil), Hunters Island 
Revetment ($7.1 mil), Pleasant Valley Revetment ($4.9 mil) and design 
Bois D'Arc Revetment. These are the most critical sites that require 
reinforcements as soon as possible. Funds requested include 
engineering, design and construction management and are to `remain 
available until expended'. Fiscal year 2000 Funds Requested: 
$17,000,000.
    9. Red River Waterway, Index, Arkansas to Denison Dam, Texas (Bank 
Stabilization): We request the following items be funded at full 
federal expense.
    a. Phase II of the Sediment Transport Study will cost $275,000. 
This will determine the quantity and types of sediments entering the 
Red River, along Texas and Oklahoma, that are being deposited in the 
Red River Waterway navigation channel and creating dredging costs.
    b. To initiate construction and a monitoring program for a Bendway 
Weir `demonstration project' located at US Highway 271 bridge between 
Hugo, Oklahoma and Paris, Texas. Fiscal year 2000 Funds Requested for a 
and b: $5,800,000.
    10. Aloha-Rigolette Project, LA: Construction is underway and the 
funding should continue at full Corps capability to complete the 
project in fiscal year 2000.

President's Budget......................................        $581,000
To Complete the Project.................................         519,000
                    --------------------------------------------------------
                    ____________________________________________________
    Total Requested for fiscal year 2000................       1,100,000

    11. McKinney Bayou, AR: The reconnaissance study was completed and 
determined to be economically feasible. This project will go directly 
into PED and cost shared with the local sponsor (Federal--75 percent; 
local sponsor 25 percent) over a three year period; as soon as the 
local sponsor commits to the cost share requirement.
    12. Ogden Levee, Little River County, AR: This levee was authorized 
to be incorporated into the Federal Levee System by the Flood Control 
Act of 1946. The levee is in need of rehabilitation and has yet to be 
incorporated into the Federal Levee System. A reconnaissance report 
completed in November 1991 found that flood control levees along the 
Red River in Little River County were justified and not environmentally 
objectional. The Secretary of the Army acting through the Chief of 
Engineers is directed to perform preconstruction engineering and design 
(PED) for the Ogden Levee. PED costs shall be initially 100 percent 
Federally funded and shared in the same percentage as the project 
purposes. The Ogden Levee is to be designed to the same specifications 
as the opposite bank levees in Bowie and Miller Counties. A sponsor has 
been identified and provided a letter of intent.

Total PED Funds Requested...............................        $400,000
Fiscal year 2000 Funds Requested........................         340,000

    13. Bossier Levee System, LA: Direct the Corps to clear and snag 
the channel of Loggy Bayou from its confluence of the Red River for 7.8 
miles. This channel has a serious impact on flooding in the upstream 
reaches which includes the southern parts of Bossier City. Fiscal year 
2000 Funds Requested: $500,000.
C. Operation and Maintenance
    14. Red River Waterway, O&M:
    a.The President's budget included $8,781,000 for the O&M of this 
project which falls short of capability and needs. Maintaining existing 
navigation structures is crucial to the safety of this new waterway. As 
experienced in 1998 failure to spend $500,000 to maintain the Dismall 
Swamp Revetment, when the problem was first identified, resulted in a 
catastrophic failure of the revetment and adjacent levee which cost 
$5,000,000 in emergency repairs.
    b. WRDA 96 authorized the Corps to insure the oxbows remain 
accessible to the Red River for environmental purposes. The O&M funding 
level must be adequate to address this issue each year.
    c. Currently there appears to be a failure in the Cupples Landing 
Revetment, at the center of the Port of Shreveport-Bossier complex. 
Continued erosion of this revetment will threaten existing port 
structures. The Corps must be directed to investigate this and repair 
the revetment at full federal expense.
    d. Approximately 90 dikes and revetments are in need of repair in 
order to maintain the integrity and safety of the channel. We request 
funds for the Corps expressed capability of $2.5 million to repair 
Cupples and Grand Bend revetments; however, the priority of revetments 
can change due to changing river conditions.
    e. We request the Corps expressed capability of $2.8 million to 
complete the backlog of maintenance at the five locks and dams. If not 
funded this maintenance will cost more in the future or become an 
emergency, shutting down the Waterway.

Fiscal year 2000 President's Budget.....................      $8,781,000
Revetment Repair........................................       2,500,000
L&D Backlog Maintenance.................................       2,800,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total fiscal year 2000 O&M Funds Requested........      14,081,000

    15. Operations & Maintenance at Corps Projects: Request that all 
O&M funded projects be funded at the level of `expressed Corps 
capability'. A serious backlog of maintenance will create more 
expensive problems in the future.
                    backup information for requests
    Following is backup information and a historical perspective on 
each project request. They are numbered to correspond to each numbered 
project in the Summary of Request, Section III.
1. NAVIGATION ON THE RED RIVER IN SOUTHWEST ARKANSAS
    Twenty-one years ago the Arkansas General Assembly created the Red 
River Commission upon the recommendation of Governor Dale Bumpers, now 
the Senior United States Senator for the State of Arkansas. The 
Commission was vested with the authority to furnish the local 
cooperation necessary for the construction and study of projects and to 
coordinate with the Corps of Engineers and the Congress to develop the 
water resources of the Red River in Arkansas. With navigation now a 
reality to Shreveport, Louisiana, we are prepared to extend water 
transportation into Arkansas. Southwest Arkansas and East Texas are 
economic depressed regions. This project would provide multi-purpose 
opportunities for industries and increased employment. A regional 
impact study recently completed clearly demonstrates the benefits this 
project would have in the region. The local sponsor, Red River 
Commission of Arkansas, initiated and fully funded this Regional 
Economic Impact Study which showed benefits greater than 2.0 to 1.
    There is no doubt that this project is feasible and only a full 
feasibility study will prove that. Most importantly, the local cost 
share, 50 percent, is available now for this study. The feasibility 
study was funded in fiscal year 1998 and fiscal year 1999 with 
reprogrammed funds from another Red River Study. It is imperative to 
continue that funding.
2. NO ADDITIONAL INFORMATION
3. NO ADDITIONAL INFORMATION
4. RED RIVER WATERWAY PROJECT; NAVIGATION TO SHREVEPORT-BOSSIER CITY
    The Red River Valley Association and Louisiana delegation are 
appreciative for the completion of Locks and Dams 4 and 5. Navigation 
to Shreveport-Bossier City has significantly boosted the economy 
throughout the river basin.
    There is still work ahead of us to maintain and develop the 
navigation channel. It is also imperative that funds be appropriated to 
continue construction on navigation structures for this waterway to 
insure reliable, safe commercial navigation. This project is NOT 
complete, $200 million, remains to be constructed. The Red River Valley 
Association encourages and supports the continuation of the mitigation 
commitment for the whole project. These are important environmental 
projects for the overall system of the Red River.
    Recognizing that recreation is an integral component of the Red 
River Waterway Project, the Red River Valley Association supports the 
development of recreational facilities as a part of the overall project 
construction. The Master Plan for Recreation has been submitted to the 
Mississippi Valley Division for final review and approval. We support 
approval of this re-evaluation and funding to construct the recommended 
sites.
5. RED RIVER BASIN CHLORIDE CONTROL PROJECT
    Natural mineral pollutants in the upper reaches of the Red River 
Basin are rendering downstream waters unusable for most purposes. The 
primary pollutants are chlorides and sulfates.
    The U.S. Public Health Service initiated a study in 1957 to locate 
the natural pollution areas and determine the contribution of 
pollutants from the individual areas to the Red River. It was 
determined that 10 natural salt source areas located in the basin 
contribute a daily average of about 3,600 tons of salt (as NaC1) to the 
Red River. The U.S. Army Corps of Engineers, Tulsa District, entered 
the study in 1959 to recommend measures to control the natural 
pollution. Structural measures were recommended for 8 of the 10 salt 
source areas.
    An experimental project at Area V near Estelline, Texas was 
authorized by the Flood Control Act of 1962. The project consists of a 
9-foot-high by 340 foot diameter earthen dike encompassing a brine 
spring and a 4-foot-wide concrete outlet flume with stoplogs to control 
flow. With the project in operation since January 1964, surface flow 
from the spring has been suppressed, thus preventing over 240 tons of 
chlorides per day from entering Prairie Dog Town Fork of the Red River.
    Structural measures for chloride control at Areas VII, VIII, and X 
in the Wichita River Basin above Lake Kemp were authorized by the Flood 
Control Act of 1966 (PL 89-789), and structural measures for Areas VI, 
IX, XIII, and XIV were authorized by the Flood Control Act of 1970 (PL 
91-611). Actual construction, however, was not to be initiated until 
approved by the Secretary of the Army and the President. The Flood 
Control Act of 1970 was amended by the Water Resources Development Act 
of 1976 to eliminate the required approval of the President to initiate 
construction.
    The Water Resources Development Act of 1974 (PL 93-251), 
specifically authorized construction of chloride control measures at 
Area VIII, located on the South Fork of the Wichita River in King and 
Knox Counties, Texas. The project includes a low-flow dam with a 
deflatable weir to collect brine flows emitting from the area, Truscott 
Brine Reservoir, located near Truscott, Texas, for brine storage, and a 
pump station and pipeline to deliver the brine to the impoundment. 
Construction began in the fall of 1976 and the project was placed in 
operation in May 1987. Area VIII continues to exceed design 
specifications and currently controls over 168 tons of chlorides daily.
    The Water Resources Development Act of 1986 (PL 99-662) required 
that a special panel evaluate the improvement in water quality 
downstream of Area VIII to determine its consistency with the water 
quality assumed in the development of project benefits. A favorable 
report was submitted to the Assistance Secretary of the Army (Civil 
Works) and the Committee on Environment and Public Works of the Senate 
and the Committee on Public Works and Transportation of the House of 
Representatives in August of 1988. PL 99-662 authorizes 100 percent 
federal funding and construction of the remaining control features 
contingent upon the favorable evaluation of the panel.
    Congress appropriated $5 million in fiscal year 1991, $3 million in 
fiscal year 1992, $6 million in fiscal year 1993, $4 million in fiscal 
year 1994 and $16 million in fiscal year 1995 which was in the 
President's Budget for the first time ever. These funds were to 
continue design and construction of Areas VI, VII, IX and X and the 
Crowell Brine Reservoir. Construction of part of the brine collection 
facilities (pump station and low flow dam) at Area X was initiated in 
September 1991 and is complete. Accelerated design of the remaining 
chloride control features was approved in fiscal year 1994 to permit 
construction as additional funds become available.
    Real estate acquisition for Area VI, VII, IX, and the Crowell Brine 
Reservoir was scheduled to begin in fiscal year 1993, but was postponed 
pending the outcome of the economic re-evaluation report ordered by the 
Assistant Secretary of the Army for Civil Works which was subsequently 
approved in November 1993 and further instructed the Corps of Engineers 
to complete all remaining areas of the project.
    As part of the process to complete a Supplemental Environmental 
Impact Statement (SEIS) USFWS objected to the project in August 1994. 
This was unexpected by the Corps of Engineers since they had been 
coordinating with USFWS since 1991 and there was no indication they 
would deliver a negative opinion. This has stopped all construction 
work and effectively delayed the project.
    The SFEIS was completed in August 1996; however, Dr. Zirschky, 
Acting ASA(CW), directed that a Supplement Assessment Report (SAR) be 
completed by February 1997. The ASA(CW) in November 1997, directed the 
Corps to proceed with the Wichita River Basin features of the project. 
In October 1998, Dr. Westphal, ASA (CW), reprogrammed funds and 
continued support for the Wichita River. Continued funding is needed to 
maintain the environmental monitoring program in place and to initiate 
work on the Wichita River portion of this project.
6. RED RIVER BELOW DENISON DAM, ARKANSAS LEVEES
    The facilities constructed under this authorization are the first 
lines of flood protection for the Red River Valley and its citizens. 
Accelerated and new caving of the river banks of the Red River continue 
to endanger existing flood control structures and levees as well as 
valuable agricultural lands, highways, railroads, utilities, home and 
other valuable resources and improvements within the Red River Valley.
    Following the disastrous flood of May 1990, there can be no doubt 
of the importance of properly maintained levees. All areas not 
protected by properly maintained levees were flooded and the only 
protection from enormous bank caving was where revetment projects had 
been constructed by the Corps.
    The Red River Levees Below Denison Dam Project is the only 
comprehensive flood control program on the Red River containing 
authorization for construction of a variety of flood control measures, 
levees and other flood control works. Some of the projects planned in 
the original authorization project have not been completed and these 
must be constructed in order for the citizens of the Red River to 
derive necessary flood protection. Only minimal funds have been 
appropriated by Congress for the Red River Levees in recent years.
    Another example of flood control work needed is levee 
rehabilitation along the main stem of the Red River in the state of 
Arkansas. Many of these levee sections were severely tested by the May 
1990 flood, and it is apparent that rehabilitation is needed to 
increase their integrity, substantially reduce maintenance costs, and 
provide additional structural strength at appropriate elevations needed 
to protect citizens, agricultural land and transportation systems. The 
Corps has completed an engineering study of the Levees on the Red River 
from Index, AR to the Louisiana State Line to establish and prioritize 
levee locations that have deficient grades, slopes and crown. This 
report included the recommendations with construction costs for all 
identified area. The first item of construction on the Miller County 
Levee System was completed in 1995 and three more items will be 
completed by the end of fiscal year 1998.
    It is imperative that Red River Levees continue as authorized by 
Congress and that adequate funding be appropriated to accomplish the 
construction of this needed protection. There are eleven construction 
items to be constructed with four completed to date.
7. BOWIE COUNTY LEVEE, TX
    Major flooding along the Red River in May 1990 severely tested the 
integrity of the Bowie County Levee located along the right bank of the 
Red River north of Texarkana, Texas. Had it not been for emergency 
measures taken by the U.S. Army Corps of Engineers and local interests, 
the levee would have been destroyed during the flood. It is the opinion 
of the Corps that the levee would fail if subjected to another flood of 
the magnitude encountered in May 1990. Replacement or restoration of 
the levee is necessary to protect approximately 7,000 acres of prime 
agricultural land as well as residential and farm structures.
    Additionally, this levee system protects the land side of the 
Miller County levees in Arkansas. The Arkansas levees are being 
rehabilitated at full federal expense; therefore, a case has been made 
that the Bowie County levee should be funded the same as Arkansas 
levees. Again, the Arkansas levees would not be of any value should the 
Bowie County levee fail.
    In fiscal year 1997 Congress directed the Corps to complete designs 
and specifications for two options; federally preferred and locally 
preferred options. It is our intention to have a fully funded federal 
project for the locally preferred option in accordance with cost 
sharing guidelines in the Flood Control Act of 1946.
8. RED RIVER EMERGENCY BANK PROTECTION; AR & LA
    Although Federal projects have been authorized for flood control 
and navigation, many active caving banks cannot be stabilized because 
they are not yet sufficiently advanced or not included in earlier 
authorizations. The result is continuing, rampant destruction of 
valuable lands, threatening vital flood control facilities and 
endangering high-cost improvements such as bridges, pipelines, 
highways, railroads, utilities, cities and towns.
    It is urgent that adequate funding under the authority ``Emergency 
Bank Protection'' be continued to construct bank stabilization work as 
early as possible in the most critical locations instead of waiting 
several more years and experiencing the loss of land and economic 
benefits due to damages. Further, continued neglect of these caving 
banks will substantially worsen alignment of the River, making future 
navigation realignment and stabilization much more costly and 
difficult. Many caving banks have an existing alignment that is usable 
for the navigation channel and should be preserved now.
9. RED RIVER WATERWAY; INDEX, ARKANSAS TO DENISON DAM
    Widely fluctuating stages and high flows during the past several 
years have caused sharp increases in bank caving along the Red River 
from Index, AR to Denison Dam. This accelerated bank caving has caused 
the loss of valuable, vital improvements and non-replaceable prime 
agricultural lands. Flood control structures and levees which protect 
the Valley from disastrous floods are also endangered. These disastrous 
losses can be stopped by a systematic program of bank stabilization. 
Progressive construction of such a program is absolutely essential to 
the safety growth and well-being of the Red River Valley. To further 
delay this vitally needed protection would be short-sighted.
    In view of the fact that construction of bank stabilization is so 
important to the citizens along the Red River boundary of Oklahoma and 
Texas we strongly recommend allowing the Corps of Engineers to proceed 
with a ``demonstration project.'' There are new techniques which we 
believe are less expensive with better results than the traditional 
methods. One new technique is the underwater bendway weir. This 
demonstration project will be evaluated along with the ongoing 
`sediment transport' study to determine the potential for a large scale 
bank stabilization project.
    A `sediment transport study' completed in 1998 demonstrated that 
1.6 million tons of sand sediments from this stretch of river are 
entering the navigation channel in Louisiana. A second phase of this 
study is required to determine what benefits can be realized from 
reduced dredging costs as well as the quantities of clay, silt and 
sand, NOT considered, in the completed study.
    Funds were appropriated in fiscal year 1999 to complete the design 
of the demonstration project. It is critical to continue this funding 
to construct and monitor the project as well as to continue with the 
`sediment transport study'.
10. ALOHA-RIGOLETTE PROJECT
    This project, initially authorized in 1941 and constructed during 
the 1948-54 period, provides for the protection during high stages of 
the Red River of some 58,000 acres of alluvial land. Drainage from 
340,000 acres that must flow through protected areas during lower river 
stages is disposed of by gravity flow through two 10 foot by 10 foot 
gated concrete drainage structures in the levee at the lower end of the 
project. This protected area has continued to develop agriculturally 
since construction of the project and now additional gates are needed 
to allow adequate gravity drainage during low river stages. As a 
result, local interests requested that additional studies be made of 
the project, paying particular attention to the adequacy of the flood 
gate which has now been determined to be significantly inadequate for 
current conditions.
    A feasibility study was completed by the New Orleans District, 
Corps of Engineers in June 1989. The Red River Valley Association urges 
that Congress appropriate the full capability of the Corps fiscal year 
2000 budget to complete construction activities for the project on the 
Bayou Darrow flood gate, clearing and snagging of channels, the low 
flow structure and mitigation.
11. McKINNEY BAYOU PROJECT, AR
    The Corps of Engineers completed a reconnaissance study of drainage 
in Miller County, Arkansas. The project is known as the McKinney Bayou 
Project as it is the principal drainage ditch in the County. Due to the 
thousand of acres of land cleared in Miller County during the past 25 
years, the ditch is grossly inadequate to handle the drainage after 
heavy rains. The Reconnaissance study had a high B/C ratio and 
therefore was recommended to go directly to Planning, engineering and 
design (PED). A local sponsor has been identified to cost share PED; 
Federal 75 percent/local sponsor 25 percent.
12. NO ADDITIONAL INFORMATION
13. BOSSIER LEVEE DISTRICT, BOSSIER PARISH, LA
    There ia a drainage channel issue which should be the 
responsibility of the Corps of Engineers to maintain. This is Loggy 
Bayou with its confluence on the Red River, river mile 194.1, with the 
channel in question extending approximately 8 miles upstream into Loggy 
Bayou.
    Loggy Bayou is the final and only channel that drains a vast area 
of Northwest Louisiana and part of Arkansas water into the Red River. 
The headwaters start in Columbia County, Arkansas and the drainage area 
includes large parts of Webster, Beinville and Bossier Parishes in 
Louisiana. There are no other diversions for these waters to the Red 
River except through Loggy Bayou.
    In 1943 the Bossier Levee District agreed to maintain the last 7.8 
miles of Loggy Bayou before it enters the Red River. Conditions have 
changed drastically since 1943, to include: the diversion of Coushatta 
Bayou into the Loggy Bayou; the channel is now approximately 20 feet 
deeper due to increased drainage flows and the Red River Waterway 
Project has pooled the water into this section of Loggy Bayou 
permanently raising the water level. The Bossier Levee District does 
not have the equipment, expertise or funding to keep the channel 
maintained so there is now a real threat for increased flooding 
upstream. Since there have been considerable changes to the Loggy Bayou 
Watershed, beyond the control of the Bossier Levee District, and the 
waters drained are multi-state it is requested that the Corps of 
Engineers be directed to maintain the channel in Loggy Bayou, under the 
`Red River Waterway Project', Operations and Maintenance, from its 
confluence with the Red River upstream for approximately 8 miles.
14. NO ADDITIONAL INFORMATION
15. NO ADDITIONAL INFORMATION
       support statement: greater shreveport chamber of commerce
                         transportation--water
           red river waterway project fiscal year 2000 budget
    ISSUE: The Locks and Dams for the Red River Waterway Project have 
been completed from the Mississippi River to Shreveport/Bossier City, 
Louisiana. It is important to know that the project is only 90 percent 
complete with $200 million required in construction appropriations. In 
addition, it will take approximately $14 million per year to operate 
and maintain the system.
    WHY IMPORTANT: For economic development to be fully realized, we 
must operate the Red River in a reliable manner for industry to use it 
as a major transportation system. The navigation channel must be 
maintained at a 9-foot draft for efficient use. If the channel is not 
properly maintained, industry will be reluctant to use the Red River 
since they would not be able to load barges to full capacity making 
other modes of transportation competitive.
    The project Recreational Master Plan has been completed and it is 
important to execute the plan as soon as possible. There is limited 
access to the Red River and these sites are necessary for safety as 
well as the economic benefits of recreation.
    OUR POSITION: We appreciate the allocation in the President's 
fiscal year 2000 budget for $21 million in construction funds, which is 
much higher than was in the budget last year. However, this falls short 
of what we require and includes no funding for recreation. An 
additional $4.5 million is needed for navigation and recreation 
projects. Our total request for Red River Waterway construction is 
$25.5 million.
    Maintaining the infrastructure of this Waterway is extremely 
important. Funding maintenance items sooner always costs less than 
waiting until it becomes an emergency. The President's budget allocated 
$8.8 million while a total of $14 million is required to complete all 
regularly scheduled and backlog items. This includes the five locks and 
dams and repair to dikes and revetments.
                red river basin chloride control project
    ISSUE: The first comprehensive study of the water quality of the 
Red River basin was initiated in 1957 by the U.S. Public Health Service 
under the authorization of the Federal Water Pollution Control Act. It 
was determined that ten natural salt source areas contribute a daily 
average of 3,600 tons of salt per day to the river. This renders 
downstream waters unusable for most purposes. Structural measures to 
help control the chloride pollution at 8 of the 10 sites were developed 
by the Tulsa District, Corps of Engineers. These plans led to 
Congressional authorization in the Flood Control Acts of 1962, 1966 and 
1970. The first structure was completed in January 1964 and the second 
in May 1987. The Water Resources Development Act of 1986 authorized the 
construction of the remaining sites.
    Approximately one-third of the project cost has been expended. The 
total project is expected to cost $303 million.
    The Assistant Secretary of the Army (Civil Works), ASA(CW), Dr. 
Westphal, directed the Tulsa District to conduct a re-evaluation report 
for the Wichita River Basin portion of the project. This is to be 
completed in 1999.
    WHY IMPORTANT: Natural mineral pollutants (primarily chlorides and 
sulfates) in the upper reaches of the Red River Basin are rendering 
downstream waters unusable for most purposes; therefore, the Red River 
Chloride Project is imperative in order to realize full utilization of 
the surface water supplies in Louisiana (as well as Texas, Oklahoma and 
Arkansas). More than 1,000 miles of streams in the river system are 
severely contaminated by naturally occurring brine and is not suitable 
for municipal, industrial or agricultural purposes.
    OUR POSITION: The President did not fund this project in the fiscal 
year 2000 budget, even thought it is supported by the ASA (CW). It is 
imperative that $2.1 million be appropriated so that the re-evaluation 
of the Wichita River can be completed and the next phase of 
construction start in fiscal year 2001. These funds also include the 
environmental monitoring program currently underway to collect valuable 
data on the ecosystem of this region.
                                 ______
                                 

Prepared Statement of the Caddo/Bossier Port Commission, Shreveport, LA

    On behalf of the citizens of Northwest Louisiana, the Caddo-Bossier 
Parishes Port Commission strongly urges the Congress of the United 
States to allocate in fiscal year 2000 the necessary monies to ensure 
safe and reliable inland waterway, and in particular Red River, 
navigation and to carefully consider the numerous new taxes and user 
fees proposed impacting the nation's ports.
    Port's are a vital element of the national economy and national 
security and federal commitment to provide reliable and secure funding 
for our port system is paramount. Yet the waterways are facing once 
again proposals for reduced funding, new user fees and the constant 
call of the ``Green Scissors'' campaign to cut maritime programs to 
pieces.
    The President's budget request appears to shortchange inland 
navigation and flood control while other civil works programs are 
fully-funded. For example, construction and maintenance of projects 
along the nation's inland waterways would be funded at less than half 
the level needed to optimize project schedules while deep draft harbor 
maintenance and construction would be funded at an optimal level. The 
optimal spending would be funded, however, by a new Harbor Services 
User Fee (HSUF), a hastily crafted proposal which leaves open troubling 
and unanswered questions and unfairly places the entire financial 
burden on certain commercial vessel operators. Instead of making 
America's trade gateways safer or more efficient, the HSUF would make 
them more costly and less competitive.
    The Port of Shreveport-Bossier, regularly operating now for two 
years, is a part of this national infrastructure. Maintaining the 
international competitive position of this country's ports is necessary 
in order for the inland ports to operate as much of the cargo carried 
on inland waterways travels through the deepdraft ports.
    The Port of Shreveport-Bossier stands today as a longtime dream 
with a potential proving to exceed even the most optimistic 
projections. With local taxpayer investment guaranteed by a 1993 
property tax in the two parishes of Bossier and Caddo, the Port's 
infrastructure is growing to meet the demands of a rapidly expanding 
customer base. Public investment in the Port complex today stands at 
more than $73,000,000. Businesses located at the complex are Arch 
Chemicals, Oakley Louisiana, Re-Claim Environmental, Red River 
Terminals and Shreveport Fabricators.
                                 ______
                                 

Prepared Statement of the Red River Waterway Commission, Natchitoches, 
                                   LA

    On behalf of the citizens of the Red River Waterway District of 
Louisiana, the Red River Waterway Commission strongly urges the 
Congress of the United States to allocate the funds necessary for 
fiscal year 2000 for Red River Waterway Project. Adequate funding will 
allow continued construction progress toward actual project completion 
and will facilitate totally reliability in operations for continued 
industrial and recreational development. The infrastructure investment 
of $1.8 billion can only be justified if commercial and recreational 
development interests can rely on an efficient, functional and user 
friendly river system.
    Construction on Red River is approximately 90 percent complete, 
however, it is vitally important that we understand the importance of 
steady progress toward project completion with full knowledge of the 
financial constraints this country, the President and the Congress are 
wrestling with during the budget process.
            areas of need for the red river waterway project
    Navigation Structures (Revetments and Dikes).--These structures are 
necessary to maintain the channel alignment so as to provide reliable 
navigation to the users. In addition, the structures help insure that 
barges can be loaded to the maximum depths allowable for profitable 
operation.
    Recreation Development.--Design and Construction in Pools 3, 4 and 
5 should begin immediately. Important projects such as Shreveport 
Riverfront, Teague Parkway Trails, Colfax and Hampton Lake establish an 
excellent recreation foundation.
    Operations & Maintenance Program.--Channel Maintenance (Dredging) 
is critical to the viability of the waterway system. The Corps of 
Engineers needs sufficient resources to adequately maintain the 
navigation channel to provide dependable and reliable depths so that 
barges moving on the system can be loaded to the maximum nine foot 
draft. Reliable conditions will encourage other development on the Red 
River. Maintenance of existing navigation structures at strategic 
locations is vital to the users. The backlog of maintenance items at 
the lock & dam structures could be devastating to the nation's 
investment in the navigation system.
    Construction/Maintenance Program.--The Corps of Engineers needs 
resources available to react quickly to landowner bank caving 
complaints that are a result of the project and are fully justified.
    Aids to Navigation.--As commercial use continues to increase, the 
Coast Guard presence and resources must reflect a similar growth to 
adequately maintain the buoy system on the Red River and stimulate 
confidence in the river system.
    Mitigation and Bendway Dredging.--Continue with land acquisition 
and developmental cost analysis associated with the mitigation portion 
of the project and as soon as practical begin the bendway dredging 
operations to reestablish the connection to the channel of Red River.
                                 ______
                                 

            MIDWEST U.S. WATER RESOURCE DEVELOPMENT PROJECTS

  Prepared Statement of Terrence J. O'Brien, President, Metropolitan 
             Water Reclamation District of Greater Chicago
    On behalf of the Metropolitan Water Reclamation District of Greater 
Chicago (District), I want to thank the Subcommittee for this 
opportunity to present our priorities for fiscal year 2000 and, at the 
same time, express our appreciation for your support of the District's 
projects in the years past. The District is the local sponsor for three 
Corps of Engineers priority projects of the Chicagoland Underflow Plan: 
the O'Hare, McCook and Thornton Reservoirs. We are requesting the 
Subcommittee's full support for McCook and Thornton Reservoirs, as the 
O'Hare Reservoir has recently been completed. Specifically, we request 
the Subcommittee to include a total of $6,000,000 in construction 
funding for the McCook and Thornton Reservoir projects in the bill. The 
following text outlines these projects and the need for the requested 
funding. Also, attached is a booklet indicating the municipalities in 
our area, which benefit from these projects and the need for the 
requested funding. The booklet reviews the history of the issues 
involved, including newspaper articles and pertinent data from the U.S. 
Army Corps of Engineers (Corps) and the Illinois State Water Survey.
                     the chicagoland underflow plan
    The Chicagoland Underflow Plan (CUP) consists of three reservoirs: 
the O'Hare, McCook, and Thornton Reservoirs. The O'Hare Reservoir 
Project was fully authorized for construction in the Water Resources 
Development Act of 1986 (Public Law 99-662) and completed by the Corps 
in fiscal year 1999. This reservoir is connected to the existing O'Hare 
segment of the District's Tunnel and Reservoir Plan (TARP). Adopted in 
1972, TARP was the result of a multi-agency effort, which included 
officials of the State of Illinois, County of Cook, City of Chicago, 
and the District.
    TARP was designed to address the overwhelming water pollution and 
flooding problems of the Chicagoland combined sewer areas. These 
problems stem from the fact that the capacity of the area's waterways 
has been overburdened over the years and has become woefully inadequate 
in both hydraulic and assimilative capacities. These waterways are no 
longer able to carry away the combined sewer overflow discharges nor 
are they able to assimilate the pollution associated with these 
discharges. Severe basement flooding and polluted waterways (including 
Lake Michigan, which is the source of drinking water for millions of 
people) is the inevitable result. We point with pride to the fact that 
TARP was found to be the most cost-effective and socially and 
environmentally acceptable way for reducing these flooding and water 
pollution problems. Experience to date has reinforced such findings 
with respect to economics and efficiency.
    The TARP plan calls for the construction of the new ``underground 
rivers'' beneath the area's waterways. The ``underground rivers'' would 
be tunnels up to 35 feet in diameter and 350 feet below the surface. To 
provide an outlet for these tunnels, reservoirs will be constructed at 
the end of the tunnel system. Approximately 93.4 miles of tunnels have 
been constructed or are under construction at a total cost of $2.1 
billion and are operational. The tunnels capture the majority of the 
pollution load by capturing all of the small storms and the first flush 
of the large storms. Another 15.8 miles of tunnels costing $399 million 
need to be completed. The tunnels connected to the O'Hare Reservoir now 
discharge when they fill up during large rainstorms into the Reservoir 
and this system is working well and providing benefits. Thornton and 
McCook Reservoirs have not been built yet, so significant areas remain 
unprotected. Without these outlets, the local drainage has nowhere to 
go when large storms hit the area. Therefore, the combined stormwater 
and sewage backs up into over 470,000 homes. This is a reduction from 
the 550,000 homes impacted before the tunnels were put on line.
    Since its inception, TARP has not only abated flooding and 
pollution in the Chicagoland area, but has helped to preserve the 
integrity of Lake Michigan. In the years prior to TARP, a major storm 
in the area would cause local sewers and interceptors to surcharge 
resulting in CSO spills into the Chicagoland waterways. Since these 
waterways have a limited capacity, major storms have caused them to 
reach dangerously high levels resulting in massive sewer backups into 
basements and causing multi-million dollar damage to property. To 
relieve the high levels in the waterways during major storms, the gates 
at Wilmette, O'Brien, and the Chicago River would be opened and the 
CSOs would be allowed to backflow into Lake Michigan.
    Since the implementation of TARP, some backflows to Lake Michigan 
have been eliminated. Since implementation of TARP, 358 billion gallons 
of CSOs have been captured by TARP, that otherwise would have reached 
waterways. After the completion of both phases of TARP, 99 percent of 
the CSO pollution will be eliminated. The elimination of CSOs will 
result in less water needed for flushing of Chicago's waterway system, 
making it available as drinking water to communities in Cook, DuPage, 
Lake, and Will counties, which have been on a waiting list. 
Specifically, since 1977, these counties received an increase of 162 
mgd, partially as a result of the reduction in the District's 
discretionary diversion in 1980. Additional allotments of Lake Michigan 
water, beyond 1991, will be made to these communities, as more water 
becomes available from sources like direct diversion.
    With new allocations of lake water, communities that previously did 
not get to share lake water are in the process of building, or have 
already built, water mains to accommodate their new source of drinking 
water. The new source of drinking water will be a substitute for the 
poorer quality well water previously used by these communities. Partly 
due to TARP, it is estimated by IDOT that between 1981 and 2020, 283 
mgd (439 cfs) of Lake Michigan water would be added to domestic 
consumption. This translates into approximately 2 million people that 
previously did not receive lake water, would be able to enjoy it. This 
new source of water supply will not only benefit its immediate 
receivers but will also result in an economic stimulus to the entire 
Chicagoland area, by providing a reliable source of good quality water 
supply.
    the mc cook and thornton reservoirs--chicagoland underflow plan
    The McCook and Thornton Reservoirs of the Chicagoland Underflow 
Plan (CUP) were fully authorized for construction in the Water 
Resources Development Act of 1988 (Public Law 100-676). The CUP, as 
previously discussed, is a flood protection plan that is designed to 
reduce basement and street flooding due to combined sewer back-ups and 
inadequate hydraulic capacity of the urban waterways. These projects 
are the second and third components of CUP, they consist of reservoirs 
to be constructed in west suburban Chicago and Thornton in south 
suburban Chicago.
    These reservoirs will provide a storage capacity of 15.3 billion 
gallons and will produce annual benefits of $104 million. The total 
potential annual benefits of these projects are approximately twice as 
much as their total annual cost. The District, as the local sponsor, is 
actively pursuing land acquisition for these projects, and is prepared 
to meet its cost sharing obligations under Public Law 99-662.
    These projects are a very sound investment with a high rate of 
return. They will enhance the quality of life and the safety and the 
peace of mind of the residents of this region. The State of Illinois 
has endorsed these projects and has urged their implementation. In 
professional circles, these projects are hailed for their 
farsightedness, innovation, and benefits.
    Based on two successive Presidentially-declared flood disasters in 
our area in 1986 and again in 1987 and dramatic flooding in the last 
several years, we believe the probability of this type of flood 
emergency occurring before implementation of the critical flood 
prevention measure is quite high. As the public agency for the greater 
Chicagoland area responsible for water pollution control, and as the 
regional sponsor for flood control, we have an obligation to protect 
the health and safety of our citizens. We are asking your support in 
helping us achieve this necessary and important goal of construction 
completion.
    We have been very pleased that over the years, the Subcommittee has 
seen fit to include critical levels of funds for these important 
projects. We were delighted to see the $3,250,000 in construction funds 
included in the Energy and Water Development Appropriations bill for 
fiscal year 1999. However, it is important that we receive a total of 
$6,000,000 in construction funds in fiscal year 2000 to maintain the 
commitment and accelerate these projects. This funding is critical to 
accelerate the detailed design, plans and specifications and initiate 
construction of the McCook Reservoir. The community has waited long 
enough for protection and we need these funds now to move the project 
into construction. We respectfully request your consideration of our 
request.
                                summary
    Our most significant recent flooding occurred on February 20, 1997, 
when almost four inches of rain fell on the greater Chicagoland area. 
Due to the frozen ground, almost all of the rainfall entered our 
combined sewers, causing sewerage back-ups throughout the area. When 
the existing TARP tunnels filled with approximately 1.2 billion gallons 
of sewage and runoff, the only remaining outlets for the sewers were 
our waterways. Between 9:00 p.m. and 3:00 a.m., the Chicago and Calumet 
Rivers rose six feet. For the first time since 1981 we had to open the 
locks at all three of the waterway control points; these include 
Wilmette, downtown Chicago, and Calumet. Approximately 4.2 billion 
gallons of combined sewage and stormwater had to be released directly 
into Lake Michigan.
    Given our large regional jurisdiction and the severity of flooding 
in our area, the Corps was compelled to develop a plan that would 
complete the uniqueness of TARP and be large enough to accommodate the 
area we serve. With a combined sewer area of 375 square miles, 
consisting of the city of Chicago and 51 contiguous suburbs, there are 
550,000 homes within our jurisdiction, which are subject to flooding at 
any time. The annual damages sustained exceed $150 million. If these 
projects were in place, these damages could be eliminated. We must 
consider the safety and peace of mind of the 2 million people who are 
affected as well as the disaster relief funds that will be saved when 
these projects are in place. As the public agency in the greater 
Chicagoland area responsible for water pollution control, and as the 
regional sponsor for flood control, we have an obligation to protect 
the health and safety of our citizens. We are asking your support in 
helping us achieve this necessary and important goal. It is absolutely 
critical that the Corps' work, which has been proceeding for a number 
of years, now proceed into construction.
    Therefore, we urgently request that a total of $6,000,000 in 
construction funds be made available in the fiscal year 2000 Energy and 
Water Development Appropriations Act to advance construction of the 
McCook and Thornton Reservoir Project.
    Again, we thank the Subcommittee for its support of our project 
over the years and we thank you in advance for your consideration of 
our request this year.
                                 ______
                                 
  Prepared Statement of the Arkansas River Basin Interstate Committee
    Mr. Chairman and members of this distinguished Committee, my name 
is Wallace Gieringer. I am retired as Executive Director of the Pine 
Bluff-Jefferson County (Arkansas) Port Authority. It is my honor to 
serve as Chairman of the Arkansas River Basin Interstate Committee, 
members of which have been appointed by the governors of the great 
states of Arkansas, Colorado, Kansas, Missouri, and Oklahoma.
    As Chairman, I present this summary testimony as a compilation of 
the most important projects from each of the member states. Each of the 
states unanimously supports these projects without reservation. I 
request that the copies of each state's individual statement be made a 
part of the record, along with this testimony.
    Mr. Chairman, the members of the Interstate Committee have again 
identified as our top priority a project vital to the five-state area 
and beyond--the urgently needed Montgomery Point Lock and Dam at the 
confluence of the McClellan-Kerr Arkansas River Navigation System and 
the Mississippi River.
    Continuing problems caused by sediment and lowering of the 
Mississippi River plague McClellan-Kerr entrance channel users. 
Construction of Montgomery Point must continue as rapidly as possible 
before limited dredge disposal areas become inadequate. During times of 
low water on the Mississippi River the entrance channel is drained of 
navigable water depth. As the Mississippi River bottom continues to 
lower, the McClellan-Kerr moves toward total shutdown.
    Thus, the entire Arkansas River Navigation System is at risk, and 
its long term-viability is threatened without Montgomery Point. Some $5 
billion in federal and private investments, thousands of jobs, growing 
exports in world trade and future economic development are endangered.
    The good news is that you, your associates, the Congress and the 
Administration have all recognized the urgency of constructing 
Montgomery Point!
    The Corps of Engineers awarded a $186 million construction contract 
on July 19, 1997. Last year Congress appropriated $44 million to begin 
construction of the lock and dam. Work is progressing.
    Mr. Chairman and Members of the Committee, continuing Congressional 
support is essential at this crucial time in the history of the 
project. An appropriation of $44 million is needed for fiscal year 2000 
to insure that Montgomery Point is in operation as soon as possible at 
the lowest possible cost.
    The Interstate Committee also respectfully recommends the following 
as important priorities:
    Providing $500,000 for the continuation of the Arkansas River, Fort 
Smith Study. While navigation is the primary purpose of the McClellan-
Kerr, navigation needs and flood control are closely related. Sustained 
high flows result in difficult navigation conditions and continued 
flooding in the vicinity of Fort Smith, Arkansas. Flood control 
features of the Navigation System in that area are based on the Van 
Buren, Arkansas, gage, thus the flooding concerns and navigation 
problems are interrelated. Accordingly, this study would address the 
Navigation System Operating Plan to improve navigation conditions on 
the river, as well as the performance of flood control measures, 
especially in the Fort Smith reach.
    The Interstate Committee supports funding for the Upper Colorado 
River Endangered Fish Recovery Program. For fiscal year 2000 we request 
$6.25 million for the U.S. Bureau Reclamation (``Upper Co region 
Endangered Species Recovery Programs'') and (Activities), and U.S. Fish 
and Wildlife Service $1.2 million (``Resources Management Funds''), 
``Section Six Funds'', and ``RWS Budget Base Funds--Fisheries Activity; 
Hatchery O&M, sub-activity, to operate the Endangered Fish Propagation 
Facilities at Ouray National Wildlife Refuge, Utah.''
    The Interstate Committee also requests funding in the amount of 
$500,000 for the continuation of the Equus Beds Groundwater Recharge 
Demonstration Project--a City of Wichita, Groundwater Management 
District No. 2 and State of Kansas project to demonstrate the 
feasibility of recharging a major groundwater resource supplying water 
to 500,000 municipal, industrial and irrigation users and will also 
reduce potential degradation of the existing groundwater quality by 
minimizing migration of saline water.
    Mr. Chairman, we strongly urge the Committee to provide funding in 
the amount of $1.5 million to initiate the installation of tow haulage 
equipment on the McClellan-Kerr Arkansas River Navigation System at 
designated locks in Oklahoma.
    Mr. Chairman, Members of this Committee, we respectfully request 
that you and members of your staff review and respond in a positive way 
to the attached individual statements from each of our states which set 
forth specific requests pertaining to those states.
    We sincerely appreciate your consideration and assistance. Thank 
you very much for the foresight, wisdom and resourcefulness you and 
your colleagues demonstrate each and every year in providing solutions 
to our nation's water resource problems.
                                 ______
                                 
  Prepared Statement of Wallace A. Gieringer, Chairman for Arkansas, 
               Arkansas River Basin Interstate Committee
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to present testimony to this most important committee. I am 
retired as Executive Director of the Pine Bluff-Jefferson County Port 
Authority and serve as Arkansas Chairman for the Interstate Committee. 
Other committee members representing Arkansas, in whose behalf this 
statement is made, are Messrs. Wayne Bennett, soybean and rice farmer 
from Lonoke; Colonel Charles D. Maynard, U.S. Army, retired, from 
Little Rock; Barry McKuin, a Director of the Morrilton Port Authority 
at Morrilton; and N. M. ``Buck'' Shell, transportation specialist of 
Fort Smith and Van Buren.
    1998 was a memorable year in the history of the McClellan-Kerr 
Arkansas River Navigation System--and you helped make it so! Last year 
Congress continued to recognize the urgent need for Montgomery Point 
Lock and Dam by appropriating $44 million. This much needed facility is 
under construction near the confluence of the McClellan-Kerr System and 
the Mississippi River. To each of you, your staff and the Congress--our 
most heartfelt thanks!
    The Corps of Engineers awarded a $186 million contract for 
construction of the lock and dam proper on July 19, 1997 and work is 
progressing. When completed, Montgomery Point will protect over $5 
billion in public and private investments, thousands of jobs and world 
trade created as a result of the McClellan-Kerr Arkansas River 
Navigation System. Without Montgomery Point Lock and Dam the future of 
our wonderful navigation system remains threatened. Time is of the 
essence.
    The absence of Montgomery Point Lock and Dam continues to deter 
economic growth along the entire McClellan-Kerr and the project is 
certainly time sensitive! As the Mississippi River bottom continues to 
lower, the McClellan-Kerr moves toward total shutdown. Existing dredge 
disposal areas are virtually full. Ongoing dredging and disposal of 
material can mean environmental damage. Construction must continue as 
rapidly as possible if the project is to be in place before disposal 
areas become inadequate.
    During construction, and use of a temporary by-pass channel, 
navigation hazards will increase making it imperative that work on the 
lock and dam be completed as quickly and as safely as possible.
    We are very grateful that you, your associates, the Congress, and 
the Administration have all recognized the urgency of constructing 
Montgomery Point. Appropriations of $107.3 million have been made to 
date for engineering, site acquisition and construction for this 
project which should be completed in 2003 according to the Corps' 
optimum construction funding schedule.
    Mr. Chairman and Members of the Committee, continuing Congressional 
support is essential at this crucial time in the history of the 
project. We respectfully request and urge the Congress to appropriate 
$44 million for use in fiscal year 2000 to continue construction. 
Adequate funding will insure that the urgently needed facility is in 
operation as soon as possible at the lowest possible cost.
    On another matter, we wish to express thanks, Mr. Chairman, for the 
Committee's support of funding for the Morgan Bendway Environmental 
Restoration Project. The groundbreaking ceremony was held in January in 
Dumas, Arkansas. The state of Arkansas provided one-fourth of the cost 
for this $3.3 million project which includes a 1,000 acre lake and 
wetland restoration measures. This project adds to the many widespread 
public benefits associated with the McClellan-Kerr Arkansas River 
Navigation System.
    Other projects are vital to the environment, social and economic 
well-being of our region and our nation. We recognize the importance of 
continued construction of needed features to the McClellan-Kerr 
Arkansas River Navigation System and strongly recommend that you 
favorably consider the following in your deliberations:
    Provide $500,000 for the Arkansas River, Fort Smith Study. While 
navigation is the primary purpose of the McClellan-Kerr Arkansas River 
Navigation System, navigation needs and flood control are closely 
related. Sustained high flows result in difficult navigation conditions 
and continued flooding in the vicinity of Fort Smith, Arkansas. As the 
operation of the flood control features of the Navigation System in 
that area are based on the Van Buren, Arkansas gage, the flooding 
concerns and navigation problems are interrelated. Accordingly, this 
study would address the Navigation System Operating Plan to improve 
navigation conditions on the river, as well as the performance of flood 
control measures, especially in the Fort Smith reach.
    Support continued funding for the construction, operation and 
maintenance of the McClellan-Kerr Arkansas River Navigation System.
    Continue construction authority for the McClellan-Kerr Arkansas 
River Navigation Project until remaining channel stabilization problems 
identified by the Little Rock District Corps of Engineers have been 
resolved. It is vitally important that the Corps continue engineering 
studies to develop a permanent solution to the threat of cutoffs 
developing in the lower reaches of the navigation system; and for the 
Corps to construct these measures under the existing construction 
authority.
    Provide funding and direct the Corps to complete installation of 
tow haulage equipment for all the locks and dams on the McClellan-Kerr 
Arkansas River Navigation System. This efficiency feature will reduce 
lockage time by as much as 50 percent while permitting tonnage to 
double in each tow with only a minor increase in operating cost.
    Provide funds and direct the Corps of Engineers to begin 
construction of the Arkansas River Levees Project as authorized by 
Section 110 of the Water Resource Development Act of 1990. Continuing 
engineering and design is needed for these levees which have been 
previously studied in the cost-shared Arkansas River Arkansas and 
Oklahoma Feasibility Study.
    $1.0 million needs be specifically provided and the Corps directed 
to begin rehabilitation construction on the Plum Bayou Levee.
    Fund completion of the repair and rehabilitation of the power units 
at the Dardanelle Lock and Dam which first went into operation in 1965. 
After this work is completed, power output will be increased by 13 
percent and thus increase income to the Federal Treasury.
    Funds for repair and rehabilitation of the power units at the 
Ozark-Jeta Taylor Lock and Dam Powerhouse which first went into 
operation in 1970. This project is vitally needed to correct problems 
which have plagued the slant axis turbines since they were first put in 
operation and to continue the reliable production of power from this 
facility.
    We also urge the Congress to continue to encourage the Military 
Traffic Management Command to identify opportunities to accelerate use 
of the nation's navigable waterways to move military cargoes, thereby 
helping contain the nation's defense costs.
    In conclusion, Mr. Chairman, please help prevent a crisis for the 
Arkansas River Navigation System and the multi-state region it serves 
by appropriating $44 million for use in fiscal year 2000 for Montgomery 
Point Lock and Dam.
    The entire Arkansas River Navigation System is at risk, and its 
long-term viability is threatened. The System remains at risk until 
Montgomery Point is constructed. Some $5 billion in federal and private 
investments and thousands of jobs and growing exports are endangered.
    We fully endorse the statement presented to you today by the 
Chairman of the Arkansas River Basin Interstate Committee. We 
appreciate the opportunity to provide testimony to your most important 
subcommittee and urge you to favorably consider our request for needed 
infrastructure investments in the natural and transportation resources 
of our nation.
                                 ______
                                 
   Prepared Statement of Steve Arveschoug, District General Manager, 
            Southeastern Colorado Water Conservancy District
    Mr. Chairman and Members of the Appropriation Subcommittee on 
Energy and Water Development, thank you for the opportunity to present 
these comments and requests on behalf of Colorado as a participant in 
the Arkansas River Basin Interstate Committee.
    Let me first voice my support for the Interstate Committee's 
priority funding requests for the fiscal year 2000 budget--the 
Montgomery Point Lock and Dam project and the other priority projects 
as listed by the Arkansas River Basin Interstate Committee member 
states.
    Mr. Chairman, Members of the Committee, we respectfully request 
funding for the following: Upper Colorado River Endangered Fish 
Recovery Program--Fiscal Year 2000 Request--United States Bureau of 
Reclamation, $6.25 million (Upper CO Region Endangered Species Recovery 
Programs) and (Activities), and U.S. Fish and Wildlife Service, $1.2 
million (Resources Management Funds, Section Six Funds, and FWS Budget 
Base Funds--Fisheries Activity; Hatchery O&M, sub-activity, to operate 
the Endangered Fish Propagation Facilities at Ouray National Wildlife 
refuge, Utah)
    Reduction of Bureau of Reclamation Overhead Charges: we would like 
to make this Committee aware of what we consider to be excessive 
overhead costs on Safety of Dams projects and project O&M. Bureau 
charges are adding 50 percent to 60 percent to the cost of O&M and 
repair projects. Of that added cost, almost half comes from the 
application of the Bureau's overhead surcharge. Congress should hold 
the Bureau accountable for these costs by requiring the Bureau to study 
less costly alternatives for the delivery of these basic services.
    Mr. Chairman, I would like to give you an example of these 
excessive charges on a project that we are involved with.
    Introduction.--The Southeastern Colorado Water Conservancy District 
is the local public-agency sponsor of the Fryingpan-Arkansas Project. 
The multipurpose Fry-Ark Project annually delivers approximately 70,000 
acre-feet of trans-mountain water to eastern Colorado cities and farms, 
serving a population of 620,000 and irrigating over 200,000 acres. 
Authorized in 1962, the Fry-Ark Project was built and is today operated 
and maintained by the Bureau of Reclamation. The Southeastern District 
has the financial responsibility for the reimbursable construction 
costs and annual operation and maintenance costs of the Project. That 
obligation is met through the assessment of a tax on all real and 
taxable personal property within the nine-county service-area of the 
District, and through direct water and storage charges. In 1999 the 
Southeastern District and our constituents will send the Bureau over 
$5.7 million. For the most part we consider it an investment in much 
needed water for our local communities.
    In 1997 the Bureau of Reclamation determined that major ``Safety of 
Dams'' (SOD) repairs were needed at the Pueblo Reservoir Dam, the 
largest storage facility in the Fry-Ark Project system. Initial cost 
estimates for the repairs were over $28 million. The costs would be 
over and above the annual repayment and O&M costs, and would be shared 
between the federal government and the Southeastern District. Under the 
federal Safety of Dams Act of 1978 and 1984, the Bureau (federal 
taxpayers) would pay for 85 percent of the costs while local sponsors 
pay for 15 percent of the costs. That means that the Southeastern 
District would pay about $4 million, which is about 60 percent of the 
District's $6.3 million total annual budget. The District has committed 
reserve funds and assessed additional user fees in order to meet this 
additional financial obligation.
    Because the District's financial obligations for the Fry-Ark 
Project are substantial, and growing, we take a keen interest in how 
the Bureau of Reclamation spends our constituents' dollars.
    Excessive Administrative Costs.--The Safety of Dams (SOD) project 
at Pueblo Dam has again raised concerns regarding the cost of the 
Bureau of Reclamation's administration of project operations and 
repairs (work began in 1997 and will be complete Spring 2001). As 
documented in our Cost Comparison Report, the Bureau of Reclamation's 
administration, or ``non-construction'' costs, of the SOD repair 
project (design, engineering, oversight, construction management, 
contract administration, etc.) Adds 48 percent to 58 percent to cost of 
the construction project, private-sector industry standards suggest the 
15 percent to 25 percent is a reasonable factor to administer a 
construction project of this type.
    The Bureau of Reclamation did not give the District the option to 
administer the SOD repair project ourselves (such authority may not 
exist). However, in a side-by-side comparison of the Bureau's estimated 
administrative costs and the cost to administer the project at a local 
level, we believe we could save at least $5 million. That would save 
the federal taxpayers $4.25 million and the District $750,000, which is 
a lot of money to us. It's simple to understand where the savings come 
from when you compare the organizational chart for the Bureau's 
administration with the organizational chart for our local option.
    The Added Cost of Overhead Surcharge.--All Bureau of Reclamation 
(BOR) direct labor costs charged to the Safety of Dams Project at 
Pueblo pay for the Bureau's administrative functions for the Project. 
In addition, the Bureau applies a surcharge to these direct labor costs 
to cover general BOR overhead. Based upon Bureau accounting of the 
total expenditures to date on this project ($5.2 million since fiscal 
year 1997), nearly $1.5 million is to pay for these overhead 
surcharges. To put that in perspective, the cost of direct labor for 
Bureau personnel to work on this project has cost $1.8 million to date. 
These overhead surcharges nearly double the administrative costs on 
this SOD project. In many cases the same is true for normal operation 
and maintenance on Bureau Projects. Because the Bureau of Reclamation 
handles the O&M for the Fry-Ark Project and assess a surcharge on every 
direct labor hour, a sizable portion of the District's annual payment's 
for O&M never benefit the Project. While these dollars are being 
siphoned off for general Bureau administration, we fall further and 
further behind in addressing critical repair and maintenance on Project 
facilities.
    Bureau Response to Date.--Bureau decision makers on the Pueblo Dam 
SOD Project have responded to the District's request to re-evaluate 
their non-construction costs. As we were negotiating a repayment 
contract for our share of these repair costs, we asked the Bureau to 
re-think their estimated costs for ``construction management.'' 
Original estimates had this line item at $7.6 million just to manage 
the day-to-day work of the on-site contractor who actually does the 
repair work. With some repeated encouragement from the District, the 
Bureau did lower the estimated cost for construction management down to 
$4.3 million. The actual numbers will not be known for several months. 
Even with this adjustment in estimated costs, the Bureau's 
administration of this SOD Project nearly exceeds the actual bid price 
for the major construction component of the Project (contract for RCC 
placement--$8.9 million; Bureau non-construction costs--$8.3 million).
    Conclusions and Recommendations.--The Southeastern District is 
proud to be the local sponsor for the Fryingpan-Arkansas Project and 
has considered itself a willing partner with the Bureau of Reclamation 
on the development and operation of the Project since Congress 
authorized the Project in 1962. However, the present-day cost of doing 
business with the Bureau of Reclamation makes it more and more 
difficult for the District to afford the partnership. The excessive 
administrative charges and surcharges on the Pueblo Dam SOD Project are 
just one example of just how costly it is to do business with the 
Bureau. We have similar concerns with the Bureau's operation and 
maintenance of the Fry-Ark Project. It is difficult for us to 
repeatedly go back to our constituents to ask them for more money to 
keep pace with the Bureau's costly business practices.
    We offer the following recommendations as an alternative to the 
status quo:
    1. Allow for local administration of Safety of Dams projects and 
O&M on Bureau facilities to reduce costs to local beneficiaries and the 
federal taxpayer.
    2. Reduce the Bureau's administrative structure so that the 
fundamental services of the Bureau can be delivered at less cost--this 
would allow for a reduction in the overhead surcharge rates now being 
applied to maintain the current Bureau administrative structure.
    3. Totally eliminate or substantially reduce the overhead 
surcharges on all SOD projects--the general administrative functions of 
the Bureau should already be covered by the current surcharges on 
Project O&M and other direct charges.
    4. Review and audit the Bureau's application of their ``cost 
recovery objectives and policies'', and ``contracts and repayment 
policy''--local water users cannot even discuss their future water 
management objectives with the Bureau without being charged--where does 
this money go?
    Mr. Chairman and Members, your time and interest in these matters 
is greatly appreciated. As I present these issues and requests to you, 
I recognize the difficulty you have in meeting these needs along with 
the many others you have been presented. Of course, like the others, 
the requests of the Arkansas River Basin Interstate Committee are 
important to us and our constituents. Your fair consideration of the 
needs of the member states of the Interstate Committee is all that I 
can ask.
    Thank you for your commitment to the water resource needs of our 
citizens.
                                 ______
                                 
 Prepared Statement of Gerald H. Holman, Chairman for Kansas, Arkansas 
                    River Basin Interstate Committee
    Mr. Chairman and members of the committee, I am Gerald H. Holman, 
Senior Vice President of the Wichita Area Chamber of Commerce, Wichita, 
Kansas and Chairman of the Kansas Interstate Committee for the Arkansas 
Basin Development Association. This statement is submitted on behalf of 
the entire Kansas Delegation.
    We are honored to join with our colleagues from the states of 
Oklahoma, Arkansas, Colorado, and Missouri to form the five (5) state 
Arkansas River Basin Interstate Committee. We are unified as a region 
and fully endorse the statement of the Arkansas River Basin Interstate 
Committee.
    In addition to the important projects listed below, we state our 
unanimous support for the continued construction of the authorized 
Montgomery Point Lock and Dam Project to maintain viable navigation for 
commerce on the McClellan-Kerr Navigation System. This inland waterway 
is vital to the economic health of our area. Your support is vital to 
maintain its future viability. Construction is well underway and 
continued funding authorization is needed. We state our unanimous 
support for the $44 million needed by the Corps of Engineers to 
maintain the most economical and cost efficient construction schedule.
    The water resources projects in the Kansas portion of the Arkansas 
River Basin have been carefully reviewed by the Kansas delegation and 
reflect accurately the need. Many of the projects are safety, 
environmental and conservation oriented. We are grateful for your past 
commitment and respectfully request your continued commitment.
    We ask for your continued support for these important Bureau of 
Reclamation projects on behalf of the Wichita/South Central Kansas 
area:
    1. Equus Beds Groundwater Recharge Demonstration Project.--This is 
the continuation of a Bureau of Reclamation project jointly endorsed by 
the City of Wichita, Groundwater Management District No. 2 and the 
State of Kansas. This model technology is demonstrating the feasibility 
of recharging a major groundwater resource supplying water to nearly 
one-half million irrigation, municipal and industrial users. The full 
scale project, when implemented, will capture flood flows from the 
Little Arkansas River providing water for use during times of low 
rainfall or dry conditions and will also reduce on-going degradation of 
the existing groundwater quality by minimizing migration of saline 
water. The Bureau of Reclamation pilot project is fully operational. 
Data positively supports predictions that the full scale project can be 
successful and is capable of meeting the increasing water resource 
needs of the area to the mid 21st century. The pilot project is 
scheduled for an additional two years to confirm early findings.
    The Equus Beds provides approximately half of the Wichita area 
regional municipal water supply. This recharge project is vital to the 
future of the metropolitan Wichita area and surrounding farming 
communities. Governor Graves supports this much needed project as a 
benefit to 20 percent of the state's population. We are grateful for 
your consistent funding support since fiscal year 1995 which totals $3 
million as a compliment to cost share funds provided by the City of 
Wichita.
    We request continued funding in the amount of $500,000 for fiscal 
year 2000.
    For fiscal year 1998, the Conference Committee also approved the 
following report language: ``The conferees direct the Bureau of 
Reclamation to notify the Committees on Appropriations of the House and 
the Senate before reprogramming any funds from the Equus Beds 
Groundwater Recharge Demonstration Project in Kansas.'' This or similar 
language was also approved in fiscal year 1999. We request this or 
similar language remain for fiscal year 2000.
    2. Cheney Reservoir.--The reservoir provides greater than 50 
percent of Wichita's regional water supply. Two environmental problems 
threaten the water quality and longevity of the reservoir. One is 
sedimentation from soil erosion and the other is non-point source 
pollution, particularly the amount of phosphates entering the reservoir 
resulting in offensive taste and odor problems. A partnership between 
farmers, ranchers and the City of Wichita has proven beneficial in 
implementing soil conservation practices and to better manage and/or 
eliminate non-point source pollution. This partnership must continue 
indefinitely to protect the reservoir and the Wichita water supply and 
therefore, on-going funding will also be important. The City of Wichita 
is providing funding for this critical, nationally acclaimed model 
project. We request continued funding in the amount of $125,000 for 
fiscal year 2000. As the funding from Section 319 of the Clean Water 
Act is phased out, we request another source to maintain funding at a 
total of $125,000.
    Recently, the Bureau of Reclamation completed a Comprehensive 
Facility Review for the Cheney Dam. The Review concluded that 
significant damage exists in the soil-cement slope of the dam, which 
must be fully determined, and needed repairs completed. Present plans 
are to lower the reservoir during the winter of 1999/2000 to accurately 
determine needed repairs and then complete those repairs. Lowering the 
reservoir the necessary 4 feet will reduce available water supply by 24 
percent. Repairs must be completed at the time the reservoir is 
lowered. We request funding support in the amount of $500,000 to 
accomplish the work required by the Bureau of Reclamation.
    3. Arkansas River Mineral Intrusion Study.--A critically important 
research is the Mineral Intrusion Study in the Equus Beds Aquifer along 
the Arkansas River between the cities of Nickerson and Hutchinson. 
Ground water pumping in the aquifer is inducing saltwater from the 
river into the freshwater supplies of the Equus Beds. The State of 
Kansas has supported this project with cost share monies and now the 
Bureau of Reclamation is funding completion of the modeling. Data 
collection was complete at year end 1998 and the report could be 
published by year end 1999. Special funding for this project is not 
needed in fiscal year 2000. However, following analysis of the study 
results, follow-on projects might be warranted along with federal 
funding.
    Many of our agricultural communities have historically experienced 
major flood disasters, some of which have resulted in multi-state 
hardships involving portions of the state of Oklahoma. The flood of 
1998 emphasized again the need to rapidly move needed projects to 
completion. Approximately 1,600 homes were damaged or destroyed with 
damage totaling approximately $38 million. Most of the damage occurred 
in Sedgwick, Butler and Cowley counties. Our small communities do not 
have the necessary funds or engineering expertise. Federal support is 
needed. Projects in addition to local protection are also important. 
This Committee has given its previous support to Kansas Corps of 
Engineers projects. We request your continued support for the projects 
listed below.
    1. Arkansas City, Kansas Flood Protection.--Unfortunately, this 
project was not completed prior to the flood of 1998. The flood 
demonstrated again the critical need to protect the environment, homes 
and businesses from catastrophic damages from either Walnut River or 
Arkansas River flooding. When the project is complete, damage in a 
multi-county area will be eliminated and benefits to the state of 
Oklahoma just a few miles south will also result. The Secretary of the 
Army was authorized to construct the project in fiscal year 1997. We 
request your continued support in the amount of $4.3 million for fiscal 
year 2000.
    2. Winfield, Kansas Flood Protection.--This project is scheduled 
for completion in June 1999. However, project closeout work will 
continue into fiscal year 2000. We greatly appreciate the support to 
complete the much needed project as was again demonstrated by the flood 
of 1998. We request continued funding at the level needed by the Corps 
of Engineers to closeout the project.
    3. Walnut and Whitewater River Watersheds, Kansas, Reconnaissance 
Study.--A reconnaissance study of the water resource problems in this 
watershed is critical. The devastating flood of 1998 left more than 600 
homes and businesses damaged in and around the city of Augusta. In 
addition, local officials are concerned about the economic future of 
the area due to water supply and infrastructure constraints. A study 
would evaluate the basin needs and would include a reevaluation of the 
proposed Douglass Lake project. We request funding in the amount of 
$100,000 to conduct the reconnaissance study.
    4. John Redmond Reservoir Reallocation Study.--John Redmond 
Reservoir remains a primary source of water supply for many small 
communities in Kansas. It is suffering loss of capacity ahead of its 
design rate because of excessive deposits within the conservation pool. 
The flood pool remains above its design capacity. A study would 
ascertain the equitable distribution of sediment storage between 
conservation and flood control storages and also evaluate the 
environmental impact of the appropriate reallocation. Funding 
requirements for the Corps of Engineers study is $550,000. We request 
your support.
    5. Upper Arkansas River Watershed, Kansas, Reconnaissance Study.--A 
reconnaissance study of the high flow carrying capacity of the Arkansas 
River from the Colorado State Line to the vicinity of Great Bend is 
important to western Kansas. This study would compliment the research 
accomplished on the Colorado portion of the river below the federally-
constructed John Martin Dam. Lack of flows over the past two decades 
has allowed vegetation to encroach into the river channel, thereby 
restricting its ability to convey flood flows during runoff periods. 
Additionally, the delineation of the Ordinary High Water Mark 
separating the river channel property between the public trust and 
private lands has become muddled because of the lack of definition of a 
permanent channel in the Western Kansas reach. The study will evaluate 
the watershed changes to determine if flood damage prevention, 
watershed and ecosystem restoration or other solutions to water 
resource problems in the basin are warranted. We request this project 
be funded in the amount of $100,000 to complete the necessary research.
    6. Grand Lake Feasibility Study.--The Grand-Neosho River Committee 
was formed at the request of the Kansas and Oklahoma congressional 
delegations to evaluate water resource problems associated with the 
adequacy of existing real estate easements necessary for flood control 
operations which affect both Kansas and Oklahoma. A study authorized by 
the Water Resources Development Act of 1996 was completed in September 
of 1998 and determined that if the project were constructed based on 
current criteria, additional easements would be acquired. A Feasibility 
study is now required to determine the most cost-effective solution to 
the real estate inadequacies. Changes in the operations of the project 
or other upstream changes could have a significant impact on flood 
control, hydropower, and navigation operations in the Grand (Neosho) 
River system and on the Arkansas River Basin system, as well. We 
request funding in the amount of $3 million in fiscal year 2000 to 
fully fund Feasibility studies for this project.
    7. Grand (Neosho) Basin Watershed Reconnaissance Study.--A need 
exists for a basin wide water resource planning effort in the Grand-
Neosho River basin, apart from the issues associated with Grand Lake, 
Oklahoma. The reconnaissance study would focus on the evaluation of 
institutional measures which could assist communities, landowners, and 
other interests in southeastern Kansas and northeastern Oklahoma in the 
development of non-structural measures to reduce flood damages. We 
request funding in the amount of $100,000 in fiscal year 2000 to 
conduct the study.
    8. Continuing Authorities Program.--We support funding for this 
program including the Small Flood Control Projects Program (Section 205 
of the 1948 Flood Control Act, as amended) as well as the Emergency 
Streambank Stabilization Program (Section 14 of the 1946 Flood Control 
Act, as amended). Smaller communities in Kansas (Iola, Liberal, 
Medicine Lodge, Iola, McPherson, Augusta, Parsons, Altoona and 
Coffeyville) have requested assistance from the Corps of Engineers and 
are currently on the waiting list. We urge you to support these 
programs to the $40 million programmatic limit for the Small Flood 
Control Projects Program and $15 million for the Emergency Streambank 
Stabilization Program.
    9. Operation, Maintenance and Planning Assistance Budgets.--To 
effectively manage water resources in the state, continued funding for 
the Corps of Engineers for planning assistance, operation and 
maintenance is needed, specifically for Water Control. Of particular 
interest at this time is on-going stream gaging support to help plan 
and develop solutions to potential flooding so the devastating effects 
of the flood of 1998 will not happen in the future. Continued funding 
at the programmatic limits, specifically for Water Control, is 
requested.
    Your continued support of a most important U.S. Department of 
Interior, Fish & Wildlife Service project is very much appreciated:
    1. Quivira National Wildlife Refuge.--This is a joint project 
involving the U.S. Fish & Wildlife Service--Region 6, the State of 
Kansas, the local Groundwater Management District and the Water 
Protection Association of Central Kansas. Quivira provides a resting 
area for waterfowl and endangered species during their annual 
migrations in the Central Flyway. The Refuge is comprised of a series 
of shallow pools totaling about 6,500 surface acre-feet and is part of 
the Rattlesnake Creek basin. The Rattlesnake Creek basin has 
experienced groundwater and streamflow declines due to climatic 
conditions as well as expansion of irrigated agriculture. An 
engineering feasibility study is nearing completion which will identify 
the watershed-based options available for producing the most efficient 
and effective use of the water resources in the Rattlesnake Creek basin 
to protect the Wildlife Refuge as well as the agriculture economy of 
the area. We appreciate your previous funding in fiscal year 1996 and 
fiscal year 1997. Federal funds along with cost share funds from the 
State of Kansas and area businesses/organizations were sufficient to 
complete the study. No funding was requested for fiscal year 1998 or 
fiscal year 1999 and none is requested for fiscal year 2000. However, 
future funding requests may be made.
    Finally, we are most concerned with any proposal to limit 
participation of both the Corps of Engineers and Bureau of Reclamation 
in development and protection of water resources infrastructure. It is 
essential to have the integrity and continuity these agencies provide 
on major public projects. Your continued support of these vital 
agencies, including funding, will be greatly appreciated. Our 
infrastructure must be maintained and where needed, enhanced for the 
future.
    Mr. Chairman and Members of this Committee, we thank you for the 
dedicated manner in which you and your colleagues have dealt with the 
Water Resources Programs and for allowing us to present our views and 
recommendations. We look forward with great expectations and hope for 
the future of water resource development in Kansas and the entire 
Arkansas River Basin.
                                 ______
                                 
  Prepared Statement of James M. Hewgley, Jr., Chairman for Oklahoma 
               Arkansas River Basin Interstate Committee
    Mr. Chairman and members of the committee, I am James M. Hewgley, 
Jr., Oklahoma Chairman of the Arkansas River Basin Interstate 
Committee, from Tulsa, Oklahoma.
    It is my privilege to present this statement on behalf of the 
Oklahoma Members of our committee in support of adequate funding for 
water resource development projects in our area of the Arkansas River 
Basin. Other members of the Committee are: Mr. Ted Coombes, Tulsa; Mr. 
Edwin L. Gage, Muskogee; and Mr. Terry McDonald, Tulsa; Mr. Lew 
Meibergen, Enid.
    Together with representatives of the other Arkansas River Basin 
states, we fully endorse the statement presented to you by the Chairman 
of the Arkansas River Basin Interstate Committee. We appreciate the 
opportunity to present our views of the special needs of our State 
concerning several studies, projects and programs.
    As we have testified in the past, serious problems exist at the 
waterway entrance to the McClellan-Kerr Arkansas River Navigation 
System. Extensive modeling and testing has proven that construction of 
Montgomery Point Lock and Dam is the only acceptable means to correct 
the problem. The project is well underway and adequate funding must 
follow to keep the project on its construction schedule.
    Your recognition, as well as that of the Administration, of the 
importance of constructing Montgomery Point Lock and Dam is very 
gratifying. To date, you and your colleagues have appropriated $107,3 
million for engineering, site acquisition and construction. This action 
is very much appreciated.
    We are grateful that the Congress, in Public Law 102-580, directed 
that ``The Secretary shall proceed expeditiously with design, land 
acquisition and construction of the Montgomery Point Lock and Dam on 
the White River, Arkansas, authorized as part of the McClellan-Kerr 
Waterway by section 1 of the River and Harbor Act of July 24, 1946 (60 
State. 635-363).''
    We respectfully request the Congress to appropriate $44 million in 
the fiscal year 2000 budget cycle to continue construction of the 
authorized project. This is the amount the Corps of Engineers has 
indicated is necessary to keep the project on schedule. This will help 
insure the project is completed and in operation as soon as possible at 
the lowest possible cost.
    Mr. Chairman, members of this distinguished Committee, we 
respectfully remind each of you this navigation system has brought low 
cost water transportation to Oklahoma, Arkansas and surrounding states. 
There has been in excess of $5 billion invested in the construction and 
development of the McClellan-Kerr Arkansas River Navigation System by 
the Federal Government and the public and private sector. There have 
been more than 50,000 jobs created as a result of the partnered 
investment.
    Tow Haulage Equipment, Oklahoma.--We strongly urge the Committee to 
provide funding in the amount of $1.5 million to initiate the 
installation of tow haulage equipment on the McClellan-Kerr Arkansas 
River Navigation System at designated locks in Oklahoma. This project 
would involve installation of tow haulage equipment on W.D. Mayo Lock 
and Dam #14, Robert S. Kerr Lock and dam #15, and Webbers Falls Lock 
and Dam #16, on the Oklahoma portion of the waterway. The tow haulage 
equipment is needed to make transportation of barges more economical by 
allowing less time for tows to pass through the various locks.
    We are particularly pleased that the President's budget includes 
funds to advance work for Flood control in Oklahoma. Of special 
interest to our committee is funding for the Skiatook and Tenkiller 
Ferry Lakes, Dam Safety Assurance Project in Oklahoma. We are pleased 
that construction funding has been provided for these important 
projects.
    We support funding for the Grand Lake and Arkansas River System 
Operations Feasibility Studies. We also support funding for 
reconnaissance studies of watershed development needs for the Cimarron 
River Basin, the Illinois River Basin, the Grand (Neosho) Basin 
Watershed, and the Upper Arkansas River Basin.
    Grand Lake Feasibility Study.--We support the ongoing effort to 
evaluate water resource problems in the Grand-Neosho River basin in 
Kansas and Oklahoma and request funding to initiate a comprehensive 
Feasibility study. We support the continued funding of studies to 
evaluate solutions to upstream flooding problems associated with the 
adequacy of existing real estate easements necessary for flood control 
operation of Grand Lake Oklahoma. A study, authorized by the Water 
Resources Development Act of 1996 was completed in September of 1998 
and determined that if the project were constructed based on current 
criteria, additional easements would be acquired. A Feasibility study 
is now required to determine the most cost effective solution to the 
real estate inadequacies. Changes in the operations of the project or 
other upstream changes could have a significant impact on flood 
control, hydropower, and navigation operations in the Grand (Neosho) 
River system and on the Arkansas River basin system, as well; we urge 
you to provide $3 million to fully fund Feasibility studies for this 
important project in fiscal year 2000.
    Cimarron River Basin reconnaissance Study.--We request funding in 
the amount of $100,000 to conduct a reconnaissance study of the 
Cimarron River Basin. Studies conducted by the Tulsa district in the 
1970's identified the potential for flood damage reduction measures in 
the Cimarron River Basin. Several potential multiple purpose reservoirs 
were considered for development in response to needs for flood control, 
water supply, fish and wildlife, and recreation. Development and 
operation of these projects in conjunction with the existing system of 
reservoirs in the Arkansas River Basin would provide for flood damage 
reduction along the Cimarron River downstream as well as along the 
Arkansas River from Keystone Dam near Tulsa to Fort Smith, Arkansas. 
These projects would also offer the potential for development of 
hydropower and navigation benefits along the McClellan-Kerr Arkansas 
River Navigation System. Additional water resource development, 
including restoration of habitat lost as a result of Federal 
construction and rehabilitation of Federally constructed watershed 
projects require further evaluation within the basin.
    Illinois River Watershed Reconnaissance Study.--We request funding 
in the amount of $100,000 to conduct a reconnaissance study of the 
water resource problems of the Illinois River Basin. The Illinois River 
watershed is experiencing continued water resource development needs 
and is the focus of ongoing Corps and other agency investigations. 
However, there are increasing watershed influences upstream of Lake 
Tenkiller which impact on the quality of water available for fish and 
wildlife, municipal and industrial water supply users, and recreation 
users of the Lake Tenkiller and Illinois river waters. The committee 
requests funding to initiate reconnaissance studies for the Illinois 
River Watershed in fiscal year 2000.
    Grand (Neosho) Basin Watershed Reconnaissance Study.--We request 
funding in the amount of $100,000 to conduct a reconnaissance study of 
the water resource problems in the Grand (Neosho) Basin in Oklahoma and 
Kansas. There is a need for a basin-wide water resource planning effort 
in the Grand-Neosho River basin, apart from the issues associated with 
Grand Lake, Oklahoma. The reconnaissance study would focus on the 
evaluation of institutional measures which could assist communities, 
landowners, and other interests in northeastern Oklahoma and 
southeastern Kansas in the development of non-structural measures to 
reduce flood damages in the basin. The committee requests funding to 
initiate reconnaissance studies in fiscal year 2000.
    Arkansas River System Operations Feasibility Study, Arkansas and 
Oklahoma.--We also request funding for a Feasibility study of the 
optimization of the Arkansas River system in Arkansas and Oklahoma. The 
system of multipurpose lakes in Arkansas and Oklahoma on the Arkansas 
River and its tributaries supports the McClellan-Kerr Navigation 
System, which was opened for navigation to the Port of Catoosa at 
Tulsa, Oklahoma, in 1970. The navigation system consists of 445 miles 
of waterway that winds through the states of Oklahoma and Arkansas. 
This study would optimize the reservoirs in Oklahoma and Arkansas that 
provide flows into the river with a view toward improving the number of 
days per year that the navigation system would accommodate tows. The 
committee requests funding of approximately $500,000 to initiate 
feasibility studies in fiscal year 2000.
    We also request funding for reallocation studies for John Redmond 
Reservoir in Kansas, Broken Bow, Wister and Tenkiller Lakes in 
Oklahoma.
    John Redmond Reservoir Reallocation Study.--We request funding of 
approximately $550,000 to conduct a reallocation study of the water 
storage of John Redmond Reservoir, Kansas. A reallocation study is 
needed at John Redmond Reservoir to insure an equitable distribution of 
sediment storage between conservation and flood control storage's. This 
study will help insure the project can continue to provide for both 
important water resource purposes.
    Broken Bow Lake Reallocation Study.--Public Law 102-580, PP 102(V) 
provided for the reallocation of a sufficient amount of existing water 
supply storage space to support the Mountain Fork Trout Fishery. 
Releases of water for the fishery is to be undertaken under terms and 
conditions acceptable to the Secretary of the Army.
    The Corps has been cooperating with the state of Oklahoma to make 
releases for the trout fishery in a series of demonstration programs 
since 1989. There is a Federal interest in the reallocation of storage 
from one project purpose if it achieves an increase in the net National 
Economic Development benefits and has no significant environmental 
impacts. However, recreation is a low priority for Army Civil Works 
funding and the Federal government is limited to no net out-of-pocket 
expense. A re-allocation study must be conducted to determine the 
amount of storage needed to support the fishery, costs, benefits, and a 
National Environmental Policy Act evaluation for impacts to existing 
project purposes and downstream environments. The results of this re-
allocation study will be documented in a report to be used by the 
Assistant Secretary of the Army. The report will provide 
recommendations for future interim use arrangements. Mr. Chairman, we 
support funding in the amount of $170,000 for this study.
    Wister Lake Reallocation Study.--We request funding of 
approximately $450,000 to conduct a reallocation study of the water 
storage of Wister Lake, Oklahoma. Wister Lake is located on the Poteau 
River near Wister, Oklahoma. The lake was completed in 1949 for flood 
control, water supply, water conservation and sediment control. Wister 
Lake is the primary water resource development project in the Poteau 
River Basin. It provides substantial flood control, municipal and 
industrial water supply, and recreation benefits for residents of 
LeFlore County, Oklahoma, and the southeastern Oklahoma region. 
Originally constructed for flood control and water conservation, 
seasonal pool manipulation was initiated in 1974 to improve the 
project's water supply and recreation resources. The conservation pool 
level was permanently raised in the Water Resources Development Act of 
1996. A reallocation study, which would include National Environmental 
Policy Act (NEPA) coordination, is required. NEPA and other resource 
evaluation and coordination would include the assessment of cultural 
and fish and wildlife impacts, potential mitigation measures, and 
reallocation studies.
    Lake Tenkiller Reallocation Study.--We request funding of 
approximately $500,000 to conduct a reallocation study of the water 
storage of Tenkiller Ferry Lake, Oklahoma. Tenkiller Ferry Lake is 
located on the Illinois River approximately 7 miles northeast of Gore, 
Oklahoma, and 22 miles southeast of Muskogee, Oklahoma. Construction of 
the existing project began in June 1947 and the dam was completed in 
May 1952. The proposed study would involve reallocation of the 
authorized project purposes among competing users of the project's 
flood control, hydropower and water supply resources.
    We also support funding for the Continuing Authorities Program 
including the Small Flood Control Projects Program, (Section 205 of the 
1948 Flood Control Act, as amended) and the Emergency Streambank 
Stabilization Program, (Section 14 of the 1946 Flood Control Act, as 
Amended). We want to express our appreciation for your continued 
support of those programs.
    We request your support of the Planning Assistance to States 
Program (Section 22 of the 1974 Water Resources Development Act) which 
authorizes the Corps of Engineers to use its technical expertise in 
water and related land resource management to help States and Indian 
Tribes solve their water resource problems. The program is used by many 
states to support their State Water Plans. As natural resources 
diminish, the need to manage those resources becomes more critical. We 
urge your continued support of this important program as it supports 
States and Native American Tribes in developing resource management 
plans which will benefit citizens for years to come. The program is 
very valuable and effective, matching Federal and non-Federal funds to 
provide cost effective engineering expertise and support to assist 
communities, states and tribes in the development of plans for the 
management, optimization, and preservation of basin, watershed, and 
ecosystem resources. The Water resources Development Act of 1996 
increased the annual program limit from $6 million to $10 million and 
we urge this program be fully funded to the programmatic limit of $10 
million.
    Section 205. Although the small Flood control Projects Program 
addresses flood problems which generally impact smaller communities and 
rural areas and would appear to benefit only those communities, the 
impact of those projects on economic development crosses county, 
regional, and sometimes state boundaries. The communities served by the 
program frequently do not have the funds or engineering expertise 
necessary to provide adequate flood damage reduction measures for their 
citizens. Continued flooding can have a devastating impact on community 
development, so much so, in fact, that there is currently a backlog of 
requests from communities who have requested assistance under this 
program. Oklahoma communities that have requested assistance from the 
Corps of Engineers under the Section 205 authority and are currently on 
a waiting list include Cherokee, Sayre, Dewey, McAlester, Claremore, 
and Warr Acres. Additionally, the Pawnee Indian Tribe has requested the 
Corps' assistance with flooding problems. We urge this program be fully 
funded to the programmatic limit of $40 million.
    Section 14. Likewise, the Emergency Streambank Stabilization 
Program provides quick response engineering design and construction to 
protect important local utilities, roads, and other public facilities 
in smaller urban and rural settings from damage due to streambank 
erosion. The protection afforded by this program helps insure that 
important roads, bridges, utilities, and other public structures remain 
safe and useful. By providing small, affordable, and relatively quickly 
constructed projects, these two programs enhance the lives of many by 
providing safe and stable living environments. There is also a backlog 
of requests under this program; counties in Oklahoma that have 
requested assistance under the Section 14 authority and are on a 
waiting list include Blain, Wood, Kiowa, and Kingfisher. The city of 
Clinton, Oklahoma, and Waurika Master Conservancy District have also 
requested assistance. We urge this program be funded to the 
programmatic limit of $15 million.
    Sections 1135 and 206. We also request your continued support of 
and funding for the Ecosystem restoration Programs (Section 1135 of the 
Water Resources Development Act of 1986 and Section 206 of the Water 
Resources Development Act of 1996). The Ecosystem restoration Programs 
are relatively new programs which offer the Corps of Engineers a unique 
opportunity to work to restore valuable habitat, wetlands, and other 
important environmental features which previously could not be 
considered. Local interest has been expressed for potential ecosystem 
restoration projects located at Great Salt Plains Reservoir, the 
Mountain Fork River, Meadow Lake, and the North Canadian River in 
Oklahoma. The Section 1135 Program is already providing significant 
benefits to the states of Kansas and Oklahoma. A Section 1135 project 
is complete at Arcadia Lake in Oklahoma. A Section 1135 project is 
underway at the Sequoyah National Wildlife Refuge. We urge that these 
programs be fully funded to programmatic limit of $25 million each.
    We also request your continued support of the Flood Plain 
Management Services Program (Section 206 of the 1960 Flood Control Act) 
which authorizes the Corps of Engineers to use its technical expertise 
to provide guidance in flood plain management matters to all private, 
local, state, and Federal entities. The objective of the program is to 
support comprehensive flood plain management planning. The program is 
one of the most beneficial programs available for reducing flood losses 
and provides assistance to officials from cities, counties, state, and 
Indian Tribes to ensure that new facilities are not built in areas 
prone to floods. Assistance includes flood warning, flood proofing, and 
other flood damage reduction measures, and critical flood plain 
information is provided on a cost reimbursable basis to home owners, 
mortgage companies, realtor's and others for use in flood plain 
awareness and flood insurance requirements.
    We also request your support and funding for the Challenge 21 
Program. The Challenge 21 Program is in support of the Clean Water 
Action Plan and would provide opportunity for the Corps of Engineers to 
work closely with other Federal, State, and Local land and water 
resource agencies to develop comprehensive solutions to reduce flood 
damages and improve quality of life. The program would focus on 
watershed-based solutions that could also include the restoration of 
riparian and wetland ecosystems. Although the construction of dams and 
levees has prevented billions of dollars in flood damages, many 
communities still experience disastrous flood events. Some of that 
flooding can be attributed to over development in and around the flood 
plain. The Challenge 21 program will focus on opportunities to move 
homes and businesses from harms way through structural and non-
structural measures and through comprehensive watershed planning 
efforts. We support funding of this important initiative.
    On a related matter, we would share with you that we are greatly 
concerned that the Administration has not requested sufficient funds to 
meet the increasing infrastructure needs of our nation. The 
Administration's request for $3.9 billion will not keep projects moving 
at the optimum level to complete them on a cost effective basis. Moving 
the completion dates out is an unacceptable exercise since 50 percent 
of the funds come from the Waterways Trust Fund. This will not only 
waste federal funds but, those from the trust fund as well.
    The Administration's proposal to use the money from the not-yet-
enacted Harbor Services Fund, is akin to counting your chickens before 
they hatch. Mr. Chairman, this committee finds that proposal 
unacceptable. We strongly urge the Appropriations Committee to raise 
the Corps of Engineers budget to $4.7 billion so that the Corps can 
meet the obligations of the Federal Government to people of this great 
country.
    Concerning another related matter, we have deep concerns about the 
attempt to re-authorize the Endangered Species Act without significant 
beneficial reforms. If a bill is passed through without reforms, it 
will be devastating to industry and the country as a whole. We strongly 
urge you to take a hard look at any bill concerning this re-
authorization and insure that it contains reasonable and meaningful 
reforms.
    The Tenkiller Utilities Authority.--The Tenkiller Utilities 
Authority (TUA) was established October 19, 1998 as a Public Trust 
under Oklahoma Law. TUA is comprised of twenty-nine (29) rural water 
districts, rural towns, and Native American Governments. TUA's main 
purpose is the production of safe drinking water on a wholesale basis 
distributed through our Authority members to about 60,000 retail 
customers. About 12,000 of that number are not presently serviced at 
all. Current providers are individually struggling to meet increasingly 
stringent drinking water standards and some are operating with outdated 
equipment. By coming together under a single Authority, providers can 
gain economies of scale and provide uniform, high quality water at 
consistent prices.
    TUA has been working closely with the Oklahoma water resources 
board, the U.S. Army Corps of Engineers, Eastern Oklahoma Development 
district, Cherokee Hills Resource Conservation and Development Project, 
and the Cherokee Nation. The cooperation and partnering among these 
groups has been outstanding. The TUA has been successful in bringing 
together, in a single regional entity, varied interests who share a 
common goal: Improving the health and quality of life for all citizens 
in the Lake Tenkiller region. The great challenge now before the TUA is 
to finalize the plan and build the system. The members of the TUA 
believe they can make it happen.
    Mr. Chairman, we include the section on The Tenkiller Utilities 
Authority to show that the studies and projects that are supported by 
the Arkansas River Basin Interstate Committee, are necessary and 
essential to the further development of rural utilities and compliance 
with mandated government regulations as they relate to water resources.
    Mr. Chairman, we appreciate this opportunity to present our views 
on these subjects.
                                 ______
                                 
 Prepared Statement of Christopher J. Brescia, President, Midwest Area 
                          River Coalition 2000
    Mr. Chairman and Members of the Committee, I am Christopher J. 
Brescia, President of the Midwest Area River Coalition 2000 (MARC 
2000). Thank you for the opportunity to submit our coalition's views on 
the needs of the Mississippi Valley.
    I would like to structure this testimony to address:
  --The shortcomings in the President's fiscal year 2000 Budget for the 
        Mississippi Valley Corps of Engineers programs;
  --Specific Upper Mississippi/Illinois Waterway fiscal year 2000 
        appropriations need; and
  --Specific concerns with the Upper Mississippi/Illinois Waterway 
        Navigation Feasibility Study.
                               background
    Over 60 percent of the U. S. grain exports reach world markets by 
transiting the Upper Mississippi River system to our Gulf ports. 
Returning traffic often brings agricultural inputs, petroleum, coal, 
steel, cement and other materials into the inner reaches of the 
Midwest. These exports contribute, on average, $18 Billion per year to 
our balance of trade and are fundamental to supporting farmer incomes.
    According to the independent accounting firm Price Waterhouse, 
barge traffic originating and terminating on the Upper Mississippi and 
Illinois Rivers has been estimated to support over 153,000 full-time 
equivalents (FTEs) or between 306,000 to 459,000 full and part-time 
jobs in the 10-state Mississippi River Valley. These jobs are estimated 
to generate $4 Billion in income and between $11-15 Billion in business 
revenue. This data reinforces other data establishing the strong 
linkage between the Upper Mississippi and Lower Mississippi Valleys.
    Our sixty-year-old lock and dam system on the Upper Mississippi and 
Illinois Rivers has provided reliable, environmentally friendly and 
cost-effective barge transportation which currently provides net 
transportation savings of $1.5 Billion per year to the U. S. economy, 
including $671 million in savings to farmers. However, in order to 
continue these benefits, certain lock chambers need to lengthened to 
accommodate modern tows (Tow boat with 15 barges).
    While the 35 dam locations are structurally sound, traffic volume 
has grown from 2 million tons to over 100 million tons of cargo, 
creating congestion choke points at the lower portion of the system 
(five locations on the Upper Mississippi River and two on the Illinois 
River). This congestion is costing our economy millions of dollars per 
year and is expected to grow exponentially as traffic increases by 63 
to 100 percent over the next 30 years. River congestion, contributing 
to transportation cost inefficiencies, is a key determining factor that 
leads to reduced farmer income for those grains exported and in 
relation to the overall price of corn, soybean and wheat in the 
heartland. Without efficient water transportation U.S. exports will 
continue to decline and farmer income will suffer needlessly. 
Preliminary results from a Texas A&M study identify a potential loss of 
between $100-$150 million per year to agricultural producers if 
congestion choke points limit our capacity to process traffic 
efficiently.
        fiscal year 2000 mississippi valley appropriations needs
    The Mississippi Valley's civil works needs are under funded by 
approximately $190 million. The total requested level of $685 million 
needs to be raised to $875 million in order for key projects to be 
completed at optimum levels. The President's budget shorts the 
Mississippi Valley construction program by over $100 million resulting 
in inefficient time lines, extended schedules, delayed projects, broken 
commitments to the local sponsors and loss of benefits to the nation.
    The President's budget continues to place a strain on the operation 
and maintenance of the system. It does not even provide sufficient 
funds to cover ``non-deferrable'' maintenance and operations services, 
the bare essentials. An additional $108 million would be needed to take 
care of these problems.
    The perils of flooding that led to the creation of the Mississippi 
Rivers and Tributaries project are at a higher risk with the 
President's budget. This integrated project protecting the populations 
of seven states is quickly eroding in credibility. Levees in place are 
as much as six feet below grade in height, in other areas below grade 
in sections. The risk of not providing sufficient funding for this 
program of national significance is unsupportable. Approximately $70 
million in additional funds are needed for the 20+ projects within the 
scope of this program and for general maintenance.
    specific upper mississippi fiscal year 2000 appropriation needs
    Within the Mississippi Valley's needs, there are approximately 
$40.5 million additional dollars necessary in the Upper Mississippi, 
Illinois and Missouri Rivers programs. We would urge the following 
funds be made available accordingly:

                        [In millions of dollars]
------------------------------------------------------------------------
                                           Budget    What we
                                          request      want     Variance
------------------------------------------------------------------------
General Investigations:
    Upper Miss Nav Study...............      6.700     15.700       9.00
    Upper Miss Flow Frequency..........      2.100      2.100  .........
    Comprehensive Plan Study...........  .........      2.000       2.00
                                        --------------------------------
      Subtotal.........................  .........  .........      11.00
Construction General:
    L&D 24 Part 1 Rehab................      3.844      3.844  .........
    L&D 24 Part 2 Rehab................      1.200      1.200  .........
    L&D 25 Rehab.......................      4.560      4.560  .........
    Mel Price..........................      2.900      3.900       1.00
    EMP................................     18.955     18.955  .........
    L&D 12 Rehab.......................      2.600    ( \1\ )    ( \1\ )
    L&D 14 Rehab.......................      4.092    ( \1\ )    ( \1\ )
    Missouri River Mitigation..........      5.000     10.000       5.00
    L&D 3 Rehab........................      3.200      3.200    ( \1\ )
    MS River (MO-OH)...................      3.000      4.500       1.50
                                        --------------------------------
      Subtotal.........................  .........  .........       7.50
Operation & Maintenance:
    MS River, MN-MO....................    103.547    108.547       5.00
    MS River (MO-OH)...................     13.544  .........  .........
    Illinois Waterway..................     25.368  .........  .........
    Kaskaskia River Nav................      1.588  .........  .........
    Missouri River.....................      7.812  .........  .........
    Major Maintenance..................  .........      17.00      17.00
                                        --------------------------------
      Subtotal.........................  .........  .........      22.00
                                        --------------------------------
      Total............................  .........  .........      40.50
------------------------------------------------------------------------
\1\ Major maintenance.

    Additional funds are needed to implement an expedited pre-
construction and design initiative for seven locks extensions on the 
Upper Mississippi River and Illinois Waterway. Addressing these 
function now, during the study phase lowers our competitive risk and 
prepares for whenever Congress authorizes construction, rather than 
waiting until the full study is completed. In addition, additional 
funds are needed to initiate a comprehensive study for an integrated 
flood control system in the Upper Mississippi Basin.
    Funding from the construction account in the Upper Mississippi 
Basin is close to capability levels, except for two categories and the 
Missouri mitigation program. It is important that additional funding be 
provided for these accounts to meet efficient time lines and to create 
additional opportunities for finding creative ways of enhancing the 
habitat restoration on the Missouri River. Those projects with an 
asterisk have Major Maintenance counterparts to the Major Rehab 
projects underway.
    One of the most vexing problems has been the lack of operation and 
maintenance funds to sufficiently address dredging needs, major 
maintenance needs at key locks and some key safety concerns. An 
additional $5 million is needed for dredging alone. In many cases the 
least cost alternative may not be the environmentally preferred 
alternative needing additional funds. In addition, at L&D #3, there is 
a clear safety concern requiring extension of the Guardwall Major 
Maintenance Project ($13.3 M) for which no funds are available. At L&D 
12 & 14 there are over $40 million in Major Maintenance project needs 
that should be expedited. In addition, L&D 27 requires an additional 
$1.1 M in major maintenance repairs. All these facilities have exceeded 
their design life and are critical to the functioning of the system. 
For example, in 1997 L&D 27 was closed for 50 days to replace parts on 
the miter gates. The estimated cost to navigation for tows waiting was 
estimated to be $17.5 million that year.
   concerns with the upper mississippi/lllinois waterway navigation 
                           feasibility study
    Mr. Chairman, we have lost confidence in the Upper Mississippi 
River/Illinois Waterway Feasibility process. We recommend that this 
Committee review the process and methodology and take whatever steps 
are necessary to direct the Corps of Engineers to provide Congress with 
an Interim Feasibility report by June 2000. The competitive position of 
our nation is at stake and we must be prepared to have Congress 
informed sufficiently to make important authorization decisions in a 
WRDA 2000. An independent economic critique will be provided the 
Committee within the next six weeks to help clarify technical and 
theoretical flaws in the approach chosen by the Corps of Engineers. 
MARC 2000 is also prepared to make technical experts available for a 
briefing of Committee Members and staff as might be deemed appropriate.
    MARC 2000 has been part of this study process, working with the 
Corps of Engineer, other federal agencies and State government 
representatives for the last six years. Although we can point to some 
positive outcomes to this process, we are dismayed by the ``new'' and 
improved economic model used for calculating benefits and cost. Let's 
examine some of the assumptions that are embedded in this thinking:
    (1) While barge rates will increase due to congestion on the river, 
rail rates will not increase over the next 50 years and rail will be 
able to absorb any movements of commodities leaving the river.
    Mr. Chairman, we spent two days at Secretary Glickman and Slater's 
Transportation Summit last year and heard testimony from rail 
representatives indicating the lack of any additional capacity to move 
grain. In addition, when coming to this conclusion the Corps 
acknowledged that they did not consider the increased costs to rail 
that would have to be borne to increase terminal and switching 
capacity. And, in interviews with grain companies who use both rail and 
water, they indicate that the evolving patterns of grain movement, due 
to global competition are moving in the exact opposite direction 
required by the rail companies--that is movements over part of the year 
instead of the whole year. Anyone with any common sense understands the 
irrational logic behind this assumption, if not the skepticism we hold.
    (2) In accepting traffic forecasts, the Corps of Engineers accepted 
growth lines that do not take into consideration the major impact 
biotechnology will have in increasing corn and soybean yields or 
developing specialty grains for export customers.
    Despite considerable documentation provided by leading biotech 
companies and commodity groups, the Corps refuses to accept this 
possibility in determining the National Economic Development Plan. Many 
experts agree we are on the threshold of major potential in this field. 
If the Corps is charged to think on a 50-year time line, then they must 
incorporate this information accordingly.
    (3) Because the Corps is unable to empirically prove the 
relationship between barge freight increases and whether grain will 
stay or not stay on the river, they have qualitatively determined 
``barge freight demand curves.''
    I won't go into details about this here, our economic paper will, 
but consider the following. This model assumption claims that 
relatively small increases in barge rates will lead to major diversion 
of grain to other uses and conversely, lowering of barge rates 
sufficiently will lead to major exports of U. S. grain. This assumption 
is held without regard to knowing the demand capacity of other uses.
    Think about that, we are asked to have faith in a model that not 
only predicts that under certain conditions we will export the total 
production of the nation, but also predicts that we will export the 
entire production of the world. What are we going to do, import grain 
from South America and then export it down the Mississippi River for 
export to Asia? Our experts have evaluated this model, taken it apart 
and had discussions with lead economists in the Corps and are aghast at 
the lack of understanding of basic economic principles and market 
functions.
    (4) This model does not take into account the strategic decisions 
of competing nations in meeting global customer needs.
    This study is supposed to be evaluating the cost and benefits of 
investing in infrastructure improvements for the future. This cannot be 
done in isolation of global actions. When strategic investments are 
considered in many other areas of this country's functioning, 
countering foreign competition is an integral determinant for timing 
investment decisions. We do this in business all the time. Not 
factoring in the competition's capabilities into our strategy to 
overcome the competition, is selling our country short.
    (5) When calculating benefits of the waterway system, the non 
water-based environmental benefits are not included.
    There is strong documentation attesting to lower fuel consumption, 
lower air emissions and much lower accident rates for barge 
transportation over other modes. Over the next 50 years the Corps 
conservatively estimates a 63-100 percent increase in traffic. No 
societal benefits are attributed to foregone emission clean up costs, 
energy consumption, fewer fatalities and reduced congestion in our 
communities. Everywhere in the world societies understand the benefits 
of moving bulk commodities on the river system, to keep congestion out 
of cities and volumes off roads, except in the Upper Mississippi 
Valley. There are no benefits provided for the savings in road repairs 
that 100 million more tons would cause if truck became the next 
alternative.
    (6) Finally, we are asked to accept a model output that recommends 
an investment schedule based on average growth as it occurs, rather 
than anticipating growth.
    Grain markets, especially, do not grow systematically. They react 
to many factors in the production process, ocean-going freight rates, 
weather around the globe and economic growth cycles of many customers. 
Therefore, they have many peaks and valleys. If we don't build the 
infrastructure that will allow the U.S. to grow into market demand, we 
will lose out further to the competition. If we wait for the congestion 
on the river to choke us, and try to implement band-aid small-scale 
investment ideas in key congestion areas, then we will lose. If we had 
built our highway system to carry existing traffic levels without 
consideration for growth, we would not have the productivity gains that 
have permitted our nation's economy to excel. The same principles apply 
to the waterways.
    Thank you for your consideration.
                                 ______
                                 
    Prepared Statement of George E. Wolf, Jr., P.E., Assistant City 
        Manager/Director of Public Works, Kansas City, Missouri
    The City of Kansas City, Missouri welcomes the opportunity to 
provide written testimony to the Subcommittee on Energy and Water 
Development regarding appropriations for fiscal year 2000. Herein we 
discuss our concerns with the President's recommended fiscal year 2000 
budget as it relates to flood control projects in the Kansas City area 
dependent on annual federal funding. All of these projects are 
essential to the sustainment and revitalization of prominent and long-
standing commercial, business and industrial communities in this 
region, and when complete will provide substantially increased levels 
of flood protection. Some of these projects are located on urban 
streams subject to severe flash flooding, which run along major 
roadways, resulting in an extremely hazardous threat to public safety.
    The enclosed attachment shows our fiscal year 2000 funding request 
made to the Office of Management and Budget last October. Our 
presentation to OMB was made the morning after yet another terrible 
flood event ravaged Kansas City taking the lives of eleven people in 
our community. The most devastating floods were along Turkey Creek and 
Brush Creek, a tributary of the Blue River. Seven of the fatalities 
occurred on a bridge crossing Brush Creek just upstream of the Blue 
River. The small waterway opening at this location restricts the flow 
in Brush Creek and acts as a dam, backing up floodwater to dangerous 
depths prior to it overtopping the bridge. The City plans to replace 
the bridge as soon as possible however, the unimproved Blue River 
Channel is inadequate to convey the unrestricted flows from upstream.
    The Blue River Channel project, currently under construction, 
represents our most pressing need and for fiscal year 2000 we are 
requesting that this project be appropriated $25,000,000. This will 
allow the Corps to make significant progress on the next phase of the 
Blue River project which reaches upstream to Brush Creek. Work in that 
reach could then be completed in the fall of 2001, construction of the 
final phase begun at that same time and the entire project completed in 
2003, overall a twenty year construction project. Construction began in 
1983 and was originally scheduled for completion in 1998; that has been 
continually extended due to federal funding constraints.
    The Blue River Channel project when complete will significantly 
reduce the flood threat to inhabitants of the Blue Valley. 
Additionally, the river winds through a long-standing business district 
that, after much severe flooding, has now been partially abandoned. The 
channel improvement will bring many of those sites out of the 
floodplain and will reduce flooding depths by six to eight feet. This 
will serve as a means to help reclaim those Brownfield sites in the 
valley for redevelopment, and to once again build a thriving Blue 
Valley community.
    Kansas City, Missouri appreciates the past assistance we have 
received with local flood control projects. We are prepared to provide 
our share of funding in the future, and respectfully request that 
federal funding adequate to keep these very important projects moving 
toward the soonest possible completion be appropriated in the upcoming 
year.
         fiscal year 2000 appropriations flood control projects
    The City of Kansas City, Missouri, in cooperation with the Corps of 
Engineers, presently have five major flood damage reduction projects 
underway. These consist of the Blue River Channel, Blue River Basin, 
(also known as Dodson Industrial District), and Swope Park Industrial 
Area, all along the Blue River in Kansas City, Missouri; and, the 
Turkey Creek Basin and Kansas Citys, (the study of seven Missouri River 
levees), both in Missouri and Kansas.
    Kansas City fully recognizes the importance of flood control to our 
community. Over the past several years we have spent nearly $65 million 
on major flood control projects being done in cooperation with the 
Corps of Engineers. We appreciate the past assistance we have received 
with these projects, and are prepared to provide our share of funding 
in the future.
    Our fiscal year 2000 federal appropriations request for the flood 
control projects is presented in the following table, together with the 
activity to be performed with those funds by the Corps of Engineers.

------------------------------------------------------------------------
                                            Fiscal year     President's
            Project/Activity               2000 request       budget
------------------------------------------------------------------------
Blue River Channel, Kansas City,             $25,000,000     $13,700,000
 Missouri: Continue Construction........
Blue River Basin (Dodson Industrial              500,000         377,000
 Dist.), Kansas City, Missouri: Complete
 Plans,Engineering & Design.............
Turkey Creek Basin, Kansas and Missouri:         300,000         266,000
 Continue Plans, Engineering & Design...
Swope Park Industrial Area, Kansas City,          60,000          58,000
 Missouri: Complete Feasibility Study...
Kansas Citys (7 River Levees), Kansas            350,000         315,000
 and Missouri: Begin Feasibility Study..
------------------------------------------------------------------------

    The City of Kansas City, Missouri, also requests that the several 
key programs which provide federal assistance for flood mitigation 
continue to be made available to local communities and that they be 
generously supported with annual appropriations. Among these: Small 
Flood Control Authority, Section 205 of the 1948 Flood Control Act as 
amended; Flood Plain Management Services, Section 206 of the 1960 Flood 
Control Act; Planning Assistance to States, Public Law 93-251; and 
Emergency Bank Stabilization, Section 14 of the 1946 Flood Control Act 
as amended. We have made use of these programs in the past and will 
continue to seek out beneficial uses for them in the future.
                                 ______
                                 
Prepared Statement of Fred Thomas, Sr., Chairman, Pikitanoi Rural Water 
                     Supply System, Kickapoo Tribe
                fiscal year 2000 appropriations request
    The Kickapoo Tribe of Kansas joins with the State of Kansas and 
rural water districts in 19 counties in the northeastern corner of the 
state to seek funds for a ``special study'' of drinking water needs in 
the region as a continuation and expansion of planning for the 
Pikitanoi Rural Water System, Kansas. The amount requested is $500,000. 
The ``special study'' has a total estimated cost of $1,000,000 and 
contemplates two years of effort with funding of $500,000 in fiscal 
year 2000 and $500,000 in fiscal year 2001.
    Planning of the project by the Kickapoo Tribe, coordinating with 
the State of Kansas, began in 1996 and has proceeded to the point that 
federal funds are needed for continuation. All funds for the project to 
date have been furnished by the Kickapoo Tribe from its private, non-
federal resources. The Kickapoo Tribe requests that funds appropriated 
for the project will be included in the Corps of Engineers' budget for 
Water Development.
                        significant developments
    As will be related in the discussion of the history section of this 
testimony, there have been significant developments in the project. As 
originally planned by the Kickapoo Tribe, the project involved a seven 
county area. Interest in the project has grown to the point that as 
many as 19 counties are now seeking participation in the planning 
process. The primary reason for interest is the shortage of high-
quality water in this part of Kansas.
    The State of Kansas supports the planning effort based on recent 
agreements in concept for the ``special study.'' The key to the 
investigation is the study of alternatives to determine if a single 
system to serve the project area is most appropriate from a financial 
standpoint. The development of a single system will be compared with 
the costs of developing several smaller and separate systems. More than 
one source of water may be involved. While the Missouri River was 
identified as the best source of water for the seven county area, the 
``special study'' will address sources of water at existing reservoirs 
on streams tributary to the Missouri River and groundwater potential, 
even though both potentials may be at some distance from the point of 
demand. In summary, a comprehensive investigation of water source and 
configuration alternatives will be undertaken in the ``special study.''
    Finally, while the Corps of Engineers is neither an advocate nor 
supporter of the project, there has been an effort with the Kansas City 
District to identify the scope and magnitude of the ``special study.'' 
If asked, we believe the Corps of Engineers will confirm that the 
request for appropriations for the ``special study '' is reasonable 
given the level of effort required to develop sound cost estimates of 
alternatives to arrive at the best plan for the region.
                           history of project
    The need for funds for the ``special study'' is long standing. 
Several investigations have been undertaken of northeastern Kansas for 
the purpose of arriving at a solution to a growing shortage of quality 
water.
    The Corps of Engineers studied needs of the area as early as 1993 
in Partners for Environmental Progress, Type I Feasibility Study, 
Northeast Kansas Water Supply. Costs of alternative projects in the 
1993 report ranged from $38.0 to $128.4 million, depending on demand 
assumptions.
    The Department of Agriculture developed the Upper Delaware and 
Tributaries Watershed Plan in 1994. This project studied the water 
needs of the Kickapoo Nation and other water needs of the region. The 
primary supply for the regional project was Perry Reservoir. The 
project contemplated the development of a small reservoir on the 
Kickapoo Indian Reservation to supply drinking water to the Tribe.
    The Kickapoo Tribe completed a needs assessment of its present and 
future population and associated water requirements within the 
boundaries of the Kickapoo Indian Reservation as part of the Pikitanoi 
Project planning. The needs assessment also included submissions from 
10 rural water districts and 11 communities within the original study 
area, which included parts of Doniphan, Brown, Nemaha, Pottawatomie, 
Jefferson, Jackson and Atchison Counties.
    The Kickapoo Tribe planned a wholesale water supply system to serve 
the area, including the Reservation. The preliminary cost estimate, 
based on the system shown in Figure 1 for a system diverting from the 
Missouri River near Atchison, was $127 million. See Table 1 for a 
statistic summary of the original project. The project would include 
304 miles of pipeline from 4'' to 24'' in diameter and 15 pumping 
stations of 1,300 horsepower or less. At the original level of 
interest, the treatment plant and transmission lines would be sized for 
a demand of 11.6 million gallons per day or 9,669 gallons per minute. 
The system configuration and the cost estimate were expected to change 
as more rural water districts joined in the feasibility analysis.
    Since completion of the Kickapoo investigation in 1997, other 
systems in the original seven county area have expressed interest in 
the project and are supplying information on future needs and points of 
interconnection to the Pikitanoi Rural Water System. Additionally, the 
cities of Hays and Russell have expressed interest in the project. 
Their needs and needs of their region expand the area of interest in 
the project to an additional twelve counties west of the original 
project on both sides on Interstate 70. New counties in the project 
include Leavenworth, Marshall, Riley, Geary, Shawnee, Dickinson, 
Ottawa, Saline, Lincoln, Ellsworth, Russell and Ellis, bringing the 
total to 19 counties. Figure 1 distinguishes between the original and 
the expanded areas, including the cities of Hays and Russell.
    The Kickapoo Tribe and other entities are coordinating with the 
State of Kansas and the Kansas Rural Water Association. The funds 
requested for fiscal year 2000 will be used to continue investigations 
by the Kickapoo Tribe, rural water districts and communities in the 
northeast corner of Kansas. The work will be conducted by non-federal 
entities with oversight by the Corps of Engineers.
       alternatives for water supply are subject of special study
    The need for drinking water in northeast Kansas is acute. Local 
surface water and groundwater sources are highly developed. When a 
request of the Kickapoo Tribe for additional water from its current 
emergency supplier, the City of Horton, was made, it became clear that 
the City was without options to increase deliveries to the Reservation. 
The Tribe now relies on the flows of the Delaware River at a diversion 
point constructed by the Corps of Engineers. The flows of the stream at 
the point of diversion are not dependable and will fall to zero (no 
flow) during times of drought. The lack of adequate water supply to 
meet the needs of other water systems included in the original service 
area is common throughout northeastern Kansas, as evidenced by the 
considerable interest of rural water districts and communities in this 
project.
    Project participants are examining a number of alternatives for 
water source, transmission and distribution. The original project 
examined Perry Lake and Tuttle Creek Lake, projects owned by the State 
of Kansas as water supply sources . The Kickapoo Tribe has received 
authorization for construction of a reservoir on the Delaware River 
within the Reservation, and the applicability of this project to the 
overall regional system will be evaluated. The Missouri River forms the 
eastern boundary of the project area and constitutes an unlimited high-
quality supply of water. Groundwater is a good source in some areas and 
is poor in others. All alternative water sources will be investigated 
for the development of a single regional rural water project or 
multiple projects.
                              organization
    It is contemplated that the Corps of Engineers will provide 
planning oversight for the ``special study.'' The participating non 
federal entities in the planning process will include the Kickapoo 
Tribe, a new entity formed by the water user districts and communities, 
and the State of Kansas.
    Federal procurement procedures will be followed to allocate funds 
for the project to the entities involved in the planning process. For 
those project tasks to be undertaken by the Kickapoo Tribe, a 
cooperative agreement based on PL 93-638 contract principles between 
the Corps and the Tribe will govern. It is anticipated that cooperative 
agreements between the Corps and other non-federal entities will be 
formulated and that those cooperative agreements will specify the scope 
of work to be undertaken by those entities and the procurement 
practices to be applied.

     TABLE 1.--STATISTICAL SUMMARY PIKITANOI REGIONAL WATER PROJECT
------------------------------------------------------------------------
                                                                 2020
                   Statistic                    1990 Census   Projected
------------------------------------------------------------------------
Kickapoo R. Population........................          477        1,490
Counties Population...........................       90,198       89,462
Median Age:
    Kickapoo..................................         25.5  ...........
    Kansas....................................         36.7  ...........
Kickapoo School Enrollment:
    Pre-Primary...............................           23  ...........
    Elementary or High........................           80  ...........
    College...................................           15  ...........
                                               -------------------------
      Total...................................          118  ...........
Housing:
    Housing Units.............................          139          527
    Persons per House.........................         3.44         2.83
                                               -------------------------
                                                   Kickapoo       Kansas
                                               -------------------------
1990 Household Income.........................      $14,464      $27,291
1990 Family Income............................      $16,250      $32,966
1990 Per Capita Income........................       $4,831      $13,300
Percent Families Below Poverty Level..........         31.3          8.3
1990 Labor Force..............................          126      765,003
Unemployed....................................           18       13,419
Percent in Labor Force........................         34.2         48.7
Percent Unemployed............................         14.3          3.6
------------------------------------------------------------------------

                                                                   Value
Average Annual Water Availability, af:
    Missouri River Streamflows, Rulo, af/year...........      29,701,000
    Big Blue River Near Mahattan, af/year, Tuttle.......       1,664,232
    Delaware River Valley Falls, ay/year, Perry.........         280,785
    Groundwater.........................................    Good to Poor
2,020 Design Needs, gallons per capita per average day:
    In-Residence........................................              81
    Water Conservation..................................             -12
    Lawns and Gardens...................................              66
    School Enrollment...................................             3.0
    Labor Force.........................................             3.0
    Commercial and Industrial...........................             8.0
    System Losses.......................................              22
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................             171
2,020 Design Needs, Kickapoo and Region:
    Average Day, gallons................................       4,479,755
    Maximum Day, gallons................................      11,602,565
    Maximum Day, gpm....................................           9,669
    Annual, af..........................................           5,086

                           CONSTRUCTION COSTS
                            [In 1998 dollars]
------------------------------------------------------------------------
                                          Missouri Alt A    Perry Alt C
------------------------------------------------------------------------
Intake..................................      $4,000,000      $4,000,000
Treatment Plant.........................      13,978,000      13,978,000
Pipelines...............................      49,394,000      49,519,000
Pumping Stations........................       8,203,000      10,090,000
Meters..................................         686,000         686,000
Reservoirs..............................       3,875,000       3,875,000
SCADA...................................       3,000,000       3,000,000
O and M Building........................       1,500,000       1,500,000
O and M Equipment.......................       1,500,000       1,500,000
Easements...............................         321,000         315,000
Mitigation..............................         500,000         500,000
Non-Contract............................      35,123,000      35,933,000
Cost Indexing to fiscal year 1996 to           5,471,000       5,598,000
 1998...................................
                                         -------------------------------
      Total.............................     127,551,000     130,494,000
------------------------------------------------------------------------


    TABLE 1-1.--STATISTICAL SUMMARY PIKITANOI REGIONAL WATER PROJECT
------------------------------------------------------------------------
                Statistic
------------------------------------------------------------------------
Pipelines, feet:
    24 inch diameter....................          34,975         236,167
    20 inch diameter....................         294,228          93,203
    18 inch diameter....................          47,234  ..............
    16 inch diameter....................          52,619          52,618
    14 inch diameter....................  ..............          15,615
    12 inch diameter....................         489,510         493,887
    10 inch diameter....................         147,369         150,407
     8 inch diameter....................         172,773         283,661
     6 inch diameter....................          66,607          17,120
     4 inch diameter....................         229,042         195,196
     2 inch diameter....................          71,520          37,267
                                         -------------------------------
      Total.............................       1,605,877       1,575,141
      Miles.............................           304.1           298.3
Pumping Stations:
    Number..............................              15              16
    Maximum Horsepower..................           1,300           1,350
------------------------------------------------------------------------

                                 ______
                                 
  Prepared Statement of the Upper Mississippi River Basin Association

                          [Millions of dollars]
------------------------------------------------------------------------
                                            President's        UMRBA
                                              Request     Recommendation
------------------------------------------------------------------------
Construction General:
    Upper Mississippi River System                18.955          19.455
     Environmental Management Pro-  gram
    Major Rehabilitation of Locks and             19.392          21.392
     Dams...............................
Operation and Maintenance: O&M of the            142.459         157.459
 UMR Navigation System..................
General Investigations:
    Upper Mississippi and Illinois                   6.7             6.7
     Navigation Study...................
    Upper Mississippi River System Flow              2.1             2.1
     Frequency Study....................
    Land Management System (Research &         3 (of 27)       3 (of 27)
     Development).......................
------------------------------------------------------------------------

                               background
    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created 18 years ago by the Governors of the states of 
Illinois, Iowa, Minnesota, Missouri, and Wisconsin to serve as a forum 
for coordinating river-related state programs and policies and for 
collaborating with federal agencies on regional issues. As such, the 
UMRBA works closely with the Corps of Engineers on a variety of 
programs for which they have responsibility. Of particular interest to 
the basin states are the following Corps programs:
                    environmental management program
    The Upper Mississippi River System Environmental Management Program 
(EMP) was authorized in the 1986 Water Resources Development Act in 
response to the need for both restoring lost and degraded habitat and 
improving scientific understanding of the river system. What was at 
first a novel approach to interagency environmental management, has now 
become a widely recognized and respected regional program.
    The EMP consists of two primary components: the construction of 
individual projects to rehabilitate or enhance critical habitat areas 
and a long term monitoring program to track the environmental health of 
the system. The habitat projects, which vary in size and range in cost 
from about $200,000 to over $10 million, employ different types of 
techniques, including such measures as island creation, water level 
control features, side channel closures or openings, and selective 
dredging to remove sediment. The long term monitoring program uses six 
field stations throughout the river system which routinely collect 
standardized data on water, sediment, fish, and vegetation at over 150 
sites. In addition, the monitoring program headquarters at the Upper 
Midwest Environmental Sciences Center is home to a multi-disciplinary 
team of scientists who are interpreting and displaying the data in ways 
that will be useful for management decisions.
    The unique character of the EMP is, in part, a function of its 
partnership design. While the Corps of Engineers is the lead agency, 
the U.S. Fish and Wildlife Service, U.S. Geological Survey, and five 
basin states all have specific roles to play in planning, designing, 
evaluating, and operating and maintaining the habitat projects, as well 
as conducting the data collection and analysis that is part of the long 
term monitoring program.
    Fiscal year 2000 marks the fourth year in a row that the 
President's budget request includes less than the full authorized 
funding of $19.455 million for the EMP. Last year, the Administration 
recommended $18.355 million and Congress increased the funding level to 
$18.9 million. Although the Administration's request is higher this 
year ($18.955 million), it still falls $500,000 short of full funding. 
The five basin states are hopeful that Congress will again affirm its 
support for this important program by providing full funding for the 
EMP in fiscal year 2000.
    Funding shortfalls are of concern to the basin states for the 
following reasons:
  --The Congress is currently considering reauthorizing the EMP as part 
        of the 1999 Water Resources Development Act. The proposals 
        under consideration vary with regard to some provisions, but 
        all include an increase in the annual authorized funding level 
        to approximately $33 million. It would be particularly 
        unfortunate and ironic if the EMP were to face funding cutbacks 
        at the same time that Congress is poised to authorize future 
        funding increases. If the program is weakened by insufficient 
        funding in fiscal year 2000, it will be difficult to rebuild 
        the program to the enhanced levels envisioned by Congress in 
        pending reauthorization bills.
  --Unlike most other Corps projects, the EMP is currently ``capped'' 
        by its Congressional authorization both in terms of annual 
        appropriations and overall time frame. Therefore annual funding 
        decisions have a far greater impact on whether the program is 
        ultimately able to accomplish its goals. No other Corps program 
        or project of which we are aware is constrained by this unique 
        combination of time and financial limitations.
    Funding shortfalls in the early years of EMP (FY 1988-91) and in 
        more recent years (FY 1997-1999) total nearly $37 million below 
        authorized levels. The annual cap on appropriations makes it 
        impossible to ``recapture'' this shortfall.
  --Unless and until the EMP is reauthorized, funding shortfalls in the 
        closing few years of the current EMP authorization period will 
        have a particularly debilitating effect on the program. Some 
        habitat projects for which planning and design have been 
        initiated will not be able to proceed to construction, thus 
        negating the investment which has already been made in these 
        projects. The fiscal year 2000 budget will support the 
        continuing construction of 7 projects, the completion of 5 
        projects, and continuing planning and design work on 16 
        projects. A number of these projects have already been delayed 
        due to funding constraints. Unless the program is reauthorized, 
        some of these projects may need to be abandoned entirely if 
        sufficient funds are not provided prior to expiration of the 
        authorization in 2002.
  --The success of the Long Term Resource Monitoring (LTRM) component 
        of the EMP is dependent, in part, upon relatively reliable and 
        constant funding levels. As a non-construction element of the 
        EMP which supports teams of scientific and field personnel, the 
        LTRM is particularly sensitive to annual funding variances. In 
        this regard, the LTRM is unique within the Corps' construction 
        general account, where there is typically more flexibility to 
        respond to annual budgetary fluctuations.
    Efforts are underway to restructure the monitoring program so that 
        it will be more flexible and effectively positioned to 
        accommodate the future data and information needs in the 
        ``second generation'' EMP. During this difficult transition 
        period, it will be particularly important to provide a minimum, 
        stable funding level for the LTRM, which has already suffered 
        from the effects of inflation on its fixed appropriations 
        authorization.
  --The economic and ecological health of the Upper Mississippi River 
        are inexorably linked. Congress recognized this fact when, in 
        1986, it declared this river system to be ``a nationally 
        significant ecosystem and a nationally significant commercial 
        navigation system.'' Yet EMP funding cuts in the past few years 
        are widening the already large discrepancy between federal 
        investment in these two major river purposes. In fiscal year 
        2000, the Corps of Engineers will invest over $140 million in 
        operation and maintenance of the Upper Mississippi River System 
        for commercial navigation purposes. Another $20 million is 
        scheduled for major rehabilitation of aging locks and dams. 
        Though some of these investments have incidental environmental 
        benefits, full funding ($19.455 million) for the EMP is 
        critical if the federal commitment to multi-purpose management 
        is to be maintained.
                 major rehabilitation of locks and dams
    Given that most of the locks and dams on the Upper Mississippi 
River System are over 60 years old, they are in serious need of repair 
and rehabilitation. For the past 13 years, the Corps has been 
undertaking major rehabilitation of individual facilities throughout 
the system in an effort to extend their useful life.
    The UMRBA supports the Corps' fiscal year 2000 budget request of 
approximately $19.4 million for major rehabilitation work at 5 locks 
and dams on the Upper Mississippi River. Half of this amount is to be 
provided by the Inland Waterways Trust Fund and will support work at 
Locks and Dams 3, 12, 14, 24, and 25. These funds will be used for lock 
rehabilitation, auxiliary lock closure rehabilitation, miter gate 
installation, electrical and mechanical rehabilitation, scour 
protection, rehabilitation of embankment systems that are subject to 
overtopping during flood events, and work on outdraft bendway weirs and 
wall openings. An additional $2,000,000 could be used in fiscal year 
2000 to advance completion of work on embankment systems vital to 
navigation and environmental interests.
  operation and maintenance of the upper mississippi river navigation 
                                 system
    The Corps of Engineers is responsible for operating and maintaining 
the Upper Mississippi River for navigation. This includes channel 
maintenance dredging, placement and repair of channel training 
structures, water level regulation, and the daily operation of 29 locks 
and dams on the Mississippi River and 7 locks and dams on the Illinois 
River. The fiscal year 2000 budget includes slightly over $142 million 
for O&M of this river system, including $103.5 million for the 
Mississippi River between Minneapolis and the Missouri River, $13.5 
million for the Mississippi River between the Missouri River and Ohio 
River, and $25.4 million for the Illinois Waterway.
    These funds are critical to the Corps' ability to maintain a safe 
and reliable commercial navigation system. The efficiency of this 
system is vital to the agricultural economy of the five states. In 
addition, these funds support a variety of activities that ensure the 
navigation system is maintained while protecting and enhancing the 
river's environmental values. For example, O&M funds support innovative 
environmental engineering techniques in the open river reaches such as 
bendway weirs, chevrons, and notched dikes that maintain the navigation 
channel in an environmentally sensitive manner. In addition, studies of 
water level management options in a number of pools in the impounded 
portion of the river are underway as part of the on-going navigation 
O&M program. Pool level management is a promising new approach for 
enhancing aquatic plant growth and overwintering conditions for fish 
without adversely affecting navigation.
    While the funds that the Corps has requested for fiscal year 2000 
are expected to be adequate to meet basic O&M requirements, the UMRBA 
supports additional funding of $15 million which could be effectively 
utilized in fiscal year 2000 for critical needs such as electrical 
repairs, bulkhead repairs, repairs to cracks and spalls on lockwalls, 
concrete repairs, repairs to liftgates, revetment and dike repairs, and 
replacement of roller gate chains at various lock locations on the 
upper river.
                            navigation study
    In 1993 the Corps of Engineers initiated a feasibility study of 
navigation capacity expansion on the Upper Mississippi River and 
Illinois Waterway, a transportation system that is vitally important to 
the Midwest and the nation in linking agricultural commodities to 
international markets. The states in the region have been providing 
advice and counsel to the Corps throughout the study via a special 
Governors Liaison Committee comprised of gubernatorial appointees from 
each of the five basin states. The results of this study will be 
critical to our ability to make reasoned decisions about the future of 
the Upper Mississippi navigation system. Given that the merits of 
future multi-billion dollar federal investments will be judged based 
upon this study, the states of the basin are keenly interested in both 
the analysis and the alternatives under consideration.
    During the past year, the study experienced delays associated with 
the need to more carefully review and verify the economic models and 
some of the model inputs including traffic projections and demand 
curves. As a result, the study completion date has been postponed by 
one year to December 2000. Thus, much of the work necessary to bring 
the study to a close will now be done in fiscal year 2000.
    The five basin states support the President's request for $6.7 
million in fiscal year 2000 for the navigation study. Those funds will 
be used to continue the feasibility study, complete the plan 
formulation process, complete the draft feasibility report and draft 
Environmental Impact Statement, conduct internal and public review, 
hold public meetings, and complete a site-specific report with a 
baseline cost estimate. It is essential that the Corps has sufficient 
funds to complete these important tasks and produce a sound economic 
and environmental assessment of navigation capacity expansion needs.
          upper mississippi river system flow frequency study
    Flow frequencies for the Upper Mississippi River System badly need 
revision. The flood profiles currently in use were developed in 1979 by 
an interagency task force and replaced profiles previously adopted in 
1966. A variety of factors suggests that the 1979 profiles need to be 
updated:
  --The 1979 flood profiles are generally lower than the earlier 1966 
        profiles. In the southern reaches of the Rock Island District, 
        the difference is as much as five feet. For example, the 1979 
        flood frequencies show that in the short time frame of 29 
        years, a ``100 year'' flood, a ``200 year'' flood, and a ``500 
        year'' flood have occurred in the city of Hannibal, Missouri. 
        This has caused many communities along the Upper Mississippi 
        River to question whether the 1979 methodology and resulting 
        profiles are accurate.
  --There are now nearly 20 years of additional data available, 
        including flow records from several high water events including 
        the Great Flood of 1993. In addition, new methodologies have 
        enhanced the Corps' ability to model the complex hydraulics of 
        the Upper Mississippi River. In particular, following the 1993 
        floods, the Corps developed a new mathematical hydraulic model 
        (UNET) to answer ``what if'' questions such as the impact of 
        levee failures or reservoir operations on stages of the 
        Mississippi River. That model is now essentially complete and 
        will enhance computation of water surface profiles.
  --Flood elevation profiles have a variety of uses including flood 
        insurance; floodplain management; and the study, design, and 
        construction of flood control projects. The need for updated 
        math models and flood profiles has been widely recognized, 
        especially since the Great Flood of 1993. The ``Galloway 
        Report,'' which the Clinton Administration commissioned 
        following the 1993 Midwest floods, recommended that the 
        methodology used for flow-frequency analysis be reassessed. 
        Similarly, the Flood Plain Management Assessment published by 
        the Corps in June 1995 recommended that hydrology and 
        hydraulics data be updated, including water surface profiles. 
        The five states of the Upper Mississippi River Basin have been 
        strong supporters of these recommendations.
    The UMRBA supports the Corps' fiscal year 2000 budget request of 
$2.1 million for the Flow Frequency Study. These funds will be used for 
UNET modeling and initiating work on generating flood profiles.
                         land management system
    The Corps of Engineers' Research and Development (R&D) budget for 
fiscal year 2000 includes $27 million, $3 million of which it is hoped 
will be used to support development of a Land Management System (LMS) 
demonstration project on the Upper Mississippi River System. Despite 
the fact that the LMS project could have utilized $4 million this year, 
only $800,000 has been made available in fiscal year 1999 for the 
demonstration sites on the Upper Mississippi River System.
    The basin states support the LMS initiative, which is designed to 
meet the increasing need for integrated approaches to natural resources 
management. In particular, LMS will rely heavily on modeling tools that 
can assess cumulative effects and forecast future conditions in a 
quantitative framework. We are fortunate in the Upper Mississippi River 
Basin to be chosen for the initial demonstration of these techniques. 
The Waterways Experiment Station (WES) in Vicksburg, Mississippi is 
leading the effort, which focuses on three specific locations in the 
basin: Peoria Lake on the Illinois River, the Minnesota River, and Pool 
8 on the Mississippi River. Problems such as backwater filling, poor 
water quality, and habitat loss are common to all these locations and 
are related to sediment transport and deposition. Evaluation of the 
ecological consequences of hydrologic and sediment dynamics at these 
sites within the Upper Mississippi River System will enhance LMS 
applications to other large river systems.
                                 ______
                                 
   Prepared Statement of Dr. Sam M. Hunter, President, Little River 
                           Drainage District
    My name is Dr. Sam Hunter, DVM of Sikeston, Missouri. I am a 
veterinarian, landowner, farmer, and resident of Southeast Missouri.
    I am the President of the Little River Drainage District, the 
largest such entity in the nation. Our District serves as an outlet 
drainage and flood control District to parts of seven (7) counties in 
Southeast Missouri. We provide flood control protection to a sizable 
area of Northeast Arkansas as well. Our District is solely tax 
supported by more than 3,500 private landowners in Southeast Missouri.
    Our District as well as other Drainage and Levee Districts in 
Missouri and Arkansas is located within the St. Francis River Basin. 
This is a project item of the Mississippi River and Tributaries 
Project.
    The St. Francis Basin Project was authorized by Congress in 1928 
for improvements by the U. S. Army Corps of Engineers. The initial 
authorization was justified by a projected benefit cost ratio of 2.4:1. 
Today this ratio is 3.6:1 and the project is only 91 percent completed. 
As you can see this has been a wise investment of our federal tax 
dollars. Few projects or ventures with funding levels provided by the 
Federal Government return more than they cost. This one does and we 
need to complete it in a timely fashion.
    Local interests have done their part in providing rights of way, 
roads, utilities and the like. Our government now needs to fulfill 
their part of the project and bring it to completion as quickly as 
possible.
    The St. Francis Basin project has had a base funding level of 
approximately $10,000,000 over the past several years. Our last five 
(5) year average has been $9.9 million. That baseline funding level 
does not need to be diminished. The President's budget request of 
$4,350,000 is not acceptable. The amount requested by OMB will not 
provide sufficient funding levels for the Corps to maintain what they 
have built and/or improved. If these funding figures are accepted and 
not increased to $10,000,000 for fiscal year 2000 and succeeding years 
then we have digressed and not progressed.
    Since the initiation of the project for improvements we have seen 
many positive changes occur such as:
    (1) Many miles of all weather roads have been constructed and are 
usable almost daily each year.
    (2) Better flood control and drainage.
    (3) Development of one of the most fertile and diversified valleys 
in the world.
    (4) Growth of towns, schools, churches, industry, commerce, and 
etc.
    (5) Improvement of our environment: malaria, typhoid and other such 
diseases are no longer the norm but the rarity.
    (6) A future for our young people to have a desire to remain in the 
area.
    (7) Production of a variety of food and fiber products.
    As you can see many changes have occurred and we who live there 
welcome them fully. We, local interests, in Southeast Missouri and 
Northeast Arkansas want this project brought to completion and 
adequately maintained. We have waited over seventy (70) years and we 
believe it is now time to complete a wise investment for our nation.
    Our request to you today is to approve funding for the St. Francis 
Basin at $10,000,000 for fiscal year 2000 and succeeding years to 
ensure completion of the project.
    Further, we are here as a member of the Mississippi Valley Flood 
Control Association which represents similar interests as our District 
from the Gulf of Mexico upstream to the headwaters of the Mississippi 
River.
    The MR&T Project has only $280,000,000 in the President's budget. 
The Corps of Engineers has the capability of $355,000,000 and the need 
for a minimum of $335,000,000. We ask you to give consideration to 
provide funding levels at $335,000,000 for this project for fiscal year 
2000. This will provide some new construction but it will also provide 
the necessary maintenance monies needed each year.
    Thank you very much for your kind attention and the favorable way 
this committee has responded to our needs in the past.
   condensed information of the little river drainage district, st. 
                 francis basin project and mr&t project
Little River Drainage District
    (1) Circuit Court Drainage District of Missouri.
    (2) Serves parts of seven (7) counties.
    (3) Fully funded by special tax on landowners within Little River 
Drainage District.
    (4) Provides flood control and drainage to more than 3500 private 
landowners.
    (5) Located within St. Francis Basin.
    (6) Large, diversified, and highly productive area for food and 
fiber.
    (7) Has functioned since 1907.
    (8) Major contributor to St. Francis Basin (1,200,000 acres of 
runoff annually).
    (9) Member of Mississippi Valley Flood Control Association.
St. Francis Basin Project
    (1) Authorized in 1928.
    (2) Justified with 2.4:1 benefit-cost ratio.
    (3) Presently providing a 3.6:1 benefit-cost ratio.
    (4) Needs a minimum annual funding of $10 million.
    (5) President's budget is $4,350,000. (This is simply inadequate to 
maintain prior constructed features and initiate any new authorized 
work).
    (6) Project has baseline funding of $9.9 million annually for past 
several years.
    (7) Local interest wants and needs this project completed. We have 
waited over seventy (70) years.
    (8) Project 91 percent completed.
    (9) Now projected for completion in 2007.
Mississippi River and Tributaries Project
    (1) Authorized in 1928. Protects 30,000 square miles at times. 
Protects 20,550 square miles at all times.
    (2) Congress viewed project as a national problem at time of 
authorization.
    (3) Mississippi River drains forty-three percent (43 percent) of 
Continental United States and some of Canada.
    (4) Mississippi River is vital to production of food, industry, 
commerce, transportation, our nations defense, environment, health, 
etc.
    (5) Annual funding levels of $335,000,000 needed to maintain and 
continue construction.
    (6) President's fiscal year 2000 budget amount of $280,000,000 is 
inadequate.
    (7) Project is now 57 percent completed. (Fiscally).
        (a) Authorized levees are 92 percent completed. Projected year 
            to complete is 2009.
        (b) Authorized channels are 93 percent completed.
    (8) Local interest wants and needs this project completed. We have 
waited over seventy (70) years.
    (9) Corps has capability of $355,000,000.
    (10) Finished portion yielding 7.9:1 benefit-cost ratio.
    (11) Unfinished portion projected to yield 36:1 benefit-cost ratio.
    (12) Entire project when completed will yield 20:1 benefit-cost 
return.
    (13) Project projected for completion in 2031.
                                 ______
                                 
    Prepared Statement of James S. Anderson, President, Blue Valley 
                              Association
    The Blue Valley Association has represented businesses and the 
community in the Blue River valley since 1920. One of the major 
concerns of the association throughout its existence has been flooding 
in the valley.
    In order to provide some relief to the area, the Big Blue River 
Rechannalization Project was approved by Congress in 1970. Construction 
on the project began in 1983 and was scheduled for completion in 1998. 
The project was to be constructed in three stages. Stages 1 and 2 are 
complete. Construction on Stage 3 began in 1997. Our understanding is 
that the project is now targeted to be completed by 2003, provided the 
requested funding is approved. Reduced funding would continue to delay 
the project by an additional three to five years.
    The progress that has been made to date has provided environmental 
cleanup, new jobs in the community, and flood relief to the landowners 
in the lower portions of the Blue River Valley. Several of our members 
have reported lower river stages after recent heavy rains.
    However, there is much work remaining to be done before the project 
is complete. We are concerned that the potential for flooding is still 
a serious threat to the properties upstream from the completed channel 
improvements. In addition, we are concerned that upstream development 
along the Blue River and its tributaries may actually increase the risk 
of flooding in some areas. If continued improvements upstream increase 
the threat, then obviously it is important to complete this project at 
the earliest date possible.
    For these reasons, we ask your consideration in approving funding 
for the projects and appropriations listed on the attached sheet for 
the fiscal year 2000 budget.

                Requested Fiscal Year 2000 Appropriation

Blue River Channel, Kansas City Missouri:Continued 
    Construction of Stage 3. Completion--2003...........     $25,000,000
Turkey Creek, Kansas City Kansas and Missouri: Complete 
    design for construction start.......................         300,000
Missouri River Levee System:
    Restudy Seven Levees--Begin feasibility study.......         350,000
    Unit L-385--Complete revised plans. ROW being 
      acquired. Unit L-142--Complete design for new 
      start.............................................         550,000
Upper Blue River, Kansas and Missouri: Complete Final 
    Plans and Specifications this year for construction 
    in 2000. ROW to be acquired in 1999.................         500,000
Swope Park Industrial Area, Kansas City, Missouri: 
    Complete feasibility study..........................          60,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................      26,900,000
                                 ______
                                 
 Prepared Statement of J. M. Peterson, President, and Darrel G. Curry, 
  Vice President of the Missouri River Bank Stabilization Association
    The Missouri River Bank Stabilization Association, its members and 
its officers thank you for the opportunity to present this statement 
and request relating to the budget for fiscal year 2000.
    This statement and the request contained herein relate to the 
Missouri National Recreational River project which was authorized by 
the Congress in 1978 per Section 707 of Public Law 95-625. The 
Association's request for fiscal year 2000 is $250,000.00 for operation 
and maintenance of structures built prior to 1978 pursuant to Section 
32 of the Streambank Erosion Control and Demonstration Act. Additional 
funding is needed for:
    1. Providing for replacement of flood-destroyed facilities which 
afforded access to the river in the project's lower reaches;
    2. The acquisition of shoreline easements to increase wildlife 
habitat and to improve and restore the scenic characteristics of the 
river;
    3. Provide streambank protection where and as needed;
    4. Meet such other needs as may be required to achieve the 
completion of the project.
    This project seeks to preserve and protect the fifty-nine mile 
segment of the Missouri River extending downstream from near Yankton, 
South Dakota, circa mile 811, to the Ponca State Park, circa mile 752, 
near Ponca, Nebraska. This reach of river is the only portion of the 
Missouri lying downstream of the ``main stem'' dams which is still in a 
relatively natural state. Here, the river is neither channelized nor 
are its banks protected by other than isolated stabilization 
structures. The entire shoreline is under relentless attack by the 
voracious Missouri, including even those areas which have been afforded 
some degree of bank protection. Three years of much higher than normal 
flows have wrought havoc along this reach of river. Erosion is, of 
course, a natural process; indeed, the Missouri is notorious for its 
appetite for its shoreline. The problem here, however, is that in this 
reach of the river the ``main stem'' dams have eliminated the annual 
flooding which once characterized the river. Thus, while the erosion 
continues, there is no offset in the nature of the natural and historic 
``build-back'' (accretion) from flooding. To exacerbate the problem, 
the water discharged from the dam near Yankton is relatively free of 
sediment. Thus, it has a greater capacity to erode the downstream 
shorelines than did the muddy waters of old. The cleaner water can 
carry a greater sediment load, and it continues to utilize this 
increased capacity to the fullest. Evidence of the increased erosion is 
documented by Corps of Engineers' reports that this reach of river is 
over sixty percent wider now than when Gavins Point Dam, near Yankton, 
was completed in the mid-fifties.
    While $21 million was authorized for this project, only some $2 
million has been spent. The original management plan, will soon be 
supplanted by a new management plan developed by the National Park 
Service and Corps of Engineers. The proposed plan details a number of 
desirable proposals for a variety of efforts designed not only to 
increase public knowledge, accessibility and enjoyment of this historic 
reach of the Missouri, but to preserve and protect those 
characteristics which constitute its identity. Those very 
characteristics made it worthy of its designation as a Recreational 
River under the Wild and Scenic Rivers Act.
    A significant factor underlying this request is the impending 
national celebration of the bicentennial of the Lewis and Clark 
Expedition. Interest in this momentous event is accelerating 
dramatically, and one of the focal points of that interest is this 
segment of the Missouri. As the only remnant of a relatively natural 
river lying downstream of the Missouri's dams, it affords a dramatic 
glimpse of the Missouri which faced the Corps Discovery. Improved 
access, signage, preservation of extant timber, islands, bars and 
wildlife habitat will help ensure the continued existence of the 
characteristics which impelled the Congress to include in the Wild and 
Scenic Rivers Act, this unique segment of the Missouri.
    The Association is truly appreciative of the previous support and 
assistance the Congress has provided, and we thank you for that on-
going concern. Joining in our extension of thanks are the numerous 
individual outdoorsmen, landowners, hunters, fishermen, 
environmentalists and others who love, respect and enjoy this national 
treasure and wish to preserve and protect it. Again, our thanks!
                                 ______
                                 
                      UPPER MIDWEST WATER PROJECTS
    Prepared Statement of Norman Haak, Chairman, Garrison Diversion 
                          Conservancy District
    Chairman Domenici and Honorable Members of the Subcommittee: On 
behalf of the Garrison Diversion Conservancy District Board of 
Directors, thank you for your past support of the Garrison Diversion 
Project. Previous Garrison Diversion Unit appropriations have been used 
to deliver reliable, high quality water supplies to residents in rural 
communities across North Dakota, along with maintenance of 120 miles of 
canals and pumping plants already constructed across the state.
    The Garrison Diversion Project continues to be the backbone of all 
water projects in North Dakota. Completing Garrison Diversion will 
assure our citizens affordable access to an adequate quantity and 
quality water supply for municipal, rural and industrial systems. 
Garrison Diversion is the key for future economic development, 
recreation, tourism and wildlife enhancement in our state.
    This year's budget includes $24.5 million for the Garrison 
Diversion Unit. Additional appropriations will continue development of 
rural water supply systems across the state, providing a dependable 
water supply to North Dakota residents, who now in many cases are 
hauling water due to inadequate supplies. The funding received, or not 
received, impacts the lives of families and business owners across the 
state who are working toward finding solutions to meet their water 
needs.
    Meeting the Indian MR&I needs also concerns North Dakotans. 
Existing ceilings are exhausted and the unmet needs on the reservations 
are growing. Additional appropriations and an appropriate ceiling will 
allow tribal leaders to continue working on their most critical water 
needs.
    A greater concern is the overall Bureau of Reclamation budget. 
Current trends show this budget number shrinking on an annual basis. 
Although the president's current budget request is an increase over 
last year's appropriation, additional funding is definitely needed. The 
Bureau budget needs to reflect a greater commitment to completing 
currently authorized water projects. Although water conservation, water 
reuse and restoring fish and wildlife resources are important, the 
Bureau's budget needs to be refocused and increased to place more 
emphasis on completing the authorized projects already on the books.
    To this end, we fully expect the Dakota Water Resources Act to be 
reintroduced in the very near future. This bill reduces the cost of the 
project currently authorized and directs the funding to meet the 
highest priority needs of the state. The state, under the terms of this 
bill, will repay, with interest, major portions of the costs while 
matching federal dollars with substantial nonfederal dollars in other 
areas.
    Mr. Chairman, North Dakotans from cities, farms and businesses are 
committed to the Garrison Diversion Project. Although the project will 
never be built as originally planned in 1944, it is still the most 
important water project in our state. I want to thank your committee 
for past support, and it is my hope your support will continue for this 
fiscal year.
                                 ______
                                 
 Prepared Statement of Kurt Pfeifle, General Manager, Mid-Dakota Rural 
                   Water Project (Public Law 102-575)
                    fiscal year 2000 funding request
    First let me thank the Subcommittee for the opportunity to testify 
in support of the fiscal year 2000 appropriations for the Mid-Dakota 
Rural Water Project and for the Subcommittee's support.
    The Mid-Dakota Project is requesting $28 million in federal 
appropriations for fiscal year 2000. This request anticipates $27 
million for Project construction and $1 million for the authorized 
``wetland'' component. As with our past submissions to this 
subcommittee, Mid-Dakota's fiscal year 2000 request is based on a 
detailed analysis of our ability to proceed with construction during 
the fiscal year. In all previous years, Mid-Dakota has fully obligated 
its appropriated funds, including federal, state, and local, and could 
have obligated significantly more were they available.
    This year (FY 2000) the project is seeking additional funds above 
the President's budget recommendation in the amount of $23 million. 
Mid-Dakota understands and appreciates pressures on Congress to pass 
and maintain a balanced and seemingly an austere budget and in that 
respect we understand the difficulties before congressional 
appropriators to find additional funds to supplement the President's 
budget request. However, we request and strongly urge Congress to 
appropriate the full amount of Mid-Dakota's request.
                       history of project funding
    The Project was authorized by Congress and signed into law by 
President George W. Bush in October 1992. The federal authorization for 
the project totaled $100 million (1989 $s) in a combination of federal 
grant and loan funds (grant funds may not exceed 85 percent of federal 
contribution). The State authorization was for $8.4 million (1989 $s). 
The total authorized indexed cost of the project now stands at $142.163 
million. All federal funding considered, the Government has provided 43 
percent of its commitment (56.546 million of $132.493 million) to 
provide construction funding for the Project. In the 1998 Legislative 
session the South Dakota Legislature appropriated $1.3 million 
completing the State's authorized commitment to Mid-Dakota. When 
considering the federal and state combined awards, the project is 
approximately 47 percent complete, in terms of financial commitments.
    Mid-Dakota wishes to thank this committee for its support over the 
past six years. Within the limited monetary parameters of current 
federal awards and funds appropriated by the State of South Dakota, we 
have been able to put those scarce resources to good work, making 
exceptional progress on project construction, albeit not nearly as fast 
as is needed or as we had initially envisioned.

                                                            SUMMARIZATION OF FEDERAL FUNDING
                                                                      [In millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                              Total fed.
                                                          Mid-      Pres.                              Conf.       Award Level    Additional     Funds
                   Fed. Fiscal Year                      Dakota     Budget     House      Senate      Enacted   (Underfinancing)     Funds     provided
                                                        Request                                       Levels         Applied                   Mid-Dak.
--------------------------------------------------------------------------------------------------------------------------------------------------------
1994.................................................      7.991  .........  .........       2.000       2.000          1.500     ..........       1.500
1995.................................................     22.367  .........  .........       8.000       4.000          3.600     ..........       3.600
1996.................................................     23.394      2.500     12.500      10.500      11.500         10.902          2.323      13.225
1997.................................................     29.686      2.500     11.500      12.500      10.000          9.400          1.500      10.900
1998.................................................     29.836     10.000     12.000      13.000      13.000         12.221          1.000      13.221
1999.................................................     32.150     10.000     10.000      20.000      15.000         14.100     ..........      14.100
2000.................................................     28.800      5.000  .........  ..........  ..........  ................  ..........  ..........
                                                      --------------------------------------------------------------------------------------------------
      Totals.........................................  .........     30.000     46.000      66.000      55.500         51.723          4.823      56.546
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Additionally, the State of South Dakota has contributed $9.67 
million in grants to the Mid-Dakota Project, in previous years. The 
State of South Dakota completed its initial authorized financial 
obligation to the Mid-Dakota Project in the 1998 Legislative Session.
    The $15 million funding provided by the Subcommittee in fiscal year 
1999 provided Mid-Dakota with the opportunity to achieve very 
significant and exciting accomplishments for the fiscal year. These are 
later summarized in the section titled ``Construction in Progress.'' 
Mid-Dakota will continue to deliver quality drinking water to five 
community systems and approximately 600 rural customers. Mid-Dakota 
estimates that an additional 550 rural customers along with six more 
community systems will be receiving project water at the close of 
contracts awarded in fiscal year 1999. The generosity of the 
subcommittee has already had a deep and favorable effect on the lives 
of nearly 10,000 South Dakotans.
              president's fiscal year 2000 budget request
    In February the President's Budget recommendations to Congress were 
released. Mid-Dakota Rural Water was included in the proposed budget at 
a level of $5 million for fiscal year 2000. This represents a 50 
percent decrease in the President's funding recommendation and a 67 
percent decrease from what Congress appropriated in fiscal year 1999. 
It is the only time the President has lowered his recommendation from 
one year to the next. The Mid-Dakota Project will not be able to make 
any significant progress in fiscal year 2000 at this level of funding. 
In fact, it would not be an overstatement to say that Mid-Dakota may 
have to suspend construction activities for fiscal year 2000, if the $5 
million is not significantly increased.
    As in previous years, Mid-Dakota is in ``catch-up'' mode, due to 
lower than expected appropriations in prior years. The $28 million 
request for fiscal year 2000 will help the project maintain an 
acceptable construction schedule. The $5 million budget request by 
President Clinton would have profound and devastating effects, pushing 
the completion of the Project to the year 2015. Under the Clinton 
Administration's proposal, thousands of South Dakota citizens will be 
forced to wait an estimated 13 years until they can be connected to the 
Mid-Dakota Project. The President's budget, if ultimately implemented 
will provide an extended delay of Project benefits.
    The following table demonstrates the effect of the President's 
budget request for the Mid-Dakota Project as compared to other larger 
appropriation levels. The table also demonstrates the significant cost 
increases expected (using a conservative two-percent inflation 
(indexing) factor):

                       MID-DAKOTA RURAL WATER PROJECT COST AND TIMELINE TO COMPLETION \1\
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                           Cost
               Fiscal Year                00  01  02  03  04  05  06  07  08  09  10  11  12  13  14  15    to
                                                                                                          Finish
----------------------------------------------------------------------------------------------------------------
Approp. $5..............................   5   5   5   5   5   5   5   5   5   5   5   5   5   5   5   3      78
Approp. $10.............................  10  10  10  10  10  10  10   2  ..  ..  ..  ..  ..  ..  ..  ..      72
Approp. $15.............................  15  15  15  15  10  ..  ..  ..  ..  ..  ..  ..  ..  ..  ..  ..      70
Approp. $20.............................  20  20  20   9  ..  ..  ..  ..  ..  ..  ..  ..  ..  ..  ..  ..      69
Approp. $25.............................  28  25  15  ..  ..  ..  ..  ..  ..  ..  ..  ..  ..  ..  ..  ..     68
----------------------------------------------------------------------------------------------------------------
\1\ Data in table is based upon various leveled annual appropriations, an estimated $67.17 million authorized
  unappropriated federal funds and two-percent inflationary indexing.

    As is evident by the foregoing table, the President's budget 
recommendation will have an effect of significantly delaying water 
service to those who need it most.
    By its actions the Administration raises the potential of 
increasing the total cost of the Mid-Dakota Project by more than $10 
million. The federal government would not be alone in absorbing 
negative impacts of funding shortfalls. In addition to making the Mid-
Dakota Project more expensive to the federal government, the resulting 
delays would also have a direct and proportional effect on the rate of 
debt service to be paid by the Project and ultimately the water users. 
The repayment agreement entered into by Mid-Dakota and the federal 
government (the Bureau of Reclamation acting on the Government's 
behalf), demands that Mid-Dakota's ``minimum bill'' increase 
proportionally with the indexing applied to the Project. This is done 
by establishing the ratio of the federal authorization at the time Mid-
Dakota submitted its Final Engineering Report (FER) in 1994, compared 
to the authorized ceiling today with indexing applied. This same ratio 
is then applied to Mid-Dakota's ``minimum bill'' as was identified at 
the time of execution of the repayment agreement. The following table 
is offered as an example:

Mid-Dakota's ``minimum bill'' rate at the time of signing the repayment 
    agreement = $32.50
Leveled annual appropriations of $5 million--estimated increase to 
    minimum bill: 21 percent
Leveled annual appropriations of $10 million--estimated increase to 
    minimum bill: 16 percent
Leveled annual appropriations of $15 million--estimated increase to 
    minimum bill: 15 percent
Leveled annual appropriations of $20 million--estimated increase to 
    minimum bill: 14 percent
Leveled annual appropriations of $25 million--estimated increase to 
    minimum bill: 13 percent

    By the Bureau of Reclamation's own design, slowing down the 
development of the Mid-Dakota Project will ultimately make the Project 
more expensive, in terms of; rates paid by water users construction 
costs, total debt of the Project and Reclamation's oversight costs.
                            impacts of award
    The most obvious impact of any significant reduction from Mid-
Dakota's request will be the delay of construction of one or more 
Project components. The $28 million dollar request will allow the 
Project to proceed with construction of multiple contracts summarized 
later in this testimony. An award of less than our request will result 
in the deletion or reconfiguration of one or more of these contracts 
from the fiscal year 2000 construction schedule. Further, reduced 
appropriations have the effect of adding more cost to the amount needed 
for completion of the Project.
    Mid-Dakota has consistently informed members of Congress and 
appropriate federal agencies, about the detrimental effects 
insufficient funding has on the Project and ultimately the people who 
are to receive the water. In previous years Mid-Dakota and the public, 
which we will serve, have been able to make the most of the resources 
provided the Project. However, failure to provide full funding has had 
profound consequences.
                        construction in progress
    Mid-Dakota began construction in September of 1994, with the 
construction of its Water Intake and Pump Station. Since that eventful 
day of first construction start, we have bid, awarded, and completed 
seven \2\ project components and are into construction on two other 
major Project components. The following table provides a synopsis of 
each major construction contract:
---------------------------------------------------------------------------
    \2\ Contract 4-1A/B (schedules 1-5) should be complete in May, 
1999.

----------------------------------------------------------------------------------------------------------------
                                                                                                        Percent
                                                         Cont.     Cont. Bid     Final       Over        over
                Cont. No./Description                 budget \3\     Award       Cont.      (under)     (under)
                                                                                 Price      Budget      budget
----------------------------------------------------------------------------------------------------------------
1-1, Oahe Water Intake and Pump Station.............       4.662       3.959       3.945     (0.717)        (15)
2-1, Oahe Water Treatment Plant.....................      13.361       9.920      10.278     (3.083)        (23)
3-1A, Raw Water Pipeline............................       1.352       1.738       1.719      0.367          27
3-1B, Main Pipeline to Blunt, SD....................       7.823       6.916       7.024     (0.799)        (10)
3-1C, Main Pipeline to Highmore, SD.................       5.439       4.791       4.798     (0.641)        (12)
3-2A, Main Pipeline to Ree Hights, SD...............       3.261       3.155       3.155     (0.106)         (4)
3-2B, Main Pipeline to St. Lawrence, SD.............       3.691       3.349       3.349     (0.342)         (9)
4-1A/B (1-5), Rural Service Area Contract...........       9.169       9.983      10.601  \4\ 1.432          16
5-1, Highmore Water Storage Tank....................       1.545       1.434       1.433     (0.108)         (7)
5-1A, Onida Water Storage Tank......................       0.471       0.395       0.395     (0.075)        (16)
                                                     -----------------------------------------------------------
      Totals........................................      50.774      45.640      46.697     (4.077)         (8)
----------------------------------------------------------------------------------------------------------------
\3\ Contract budget is determined by Mid-Dakota's estimate for the contract at the time of bidding.
\4\ A significant portion of cost increases are attributable to the placement of additional users as
  construction proceeds.

    As is evident by the foregoing table, Mid-Dakota has been very 
successful in containing Project costs. Currently the construction of 
major Project components are approximately 8 percent under budget , 
providing an estimated saving of over $4 million. The savings are an 
example of sound engineering, good management and advantageous bid 
lettings. While we can't guarantee future contract bid lettings will 
continue to provide the level of savings currently experienced, we do 
think it speaks well of the Mid-Dakota Project and how we've managed 
Project funding to date.
    Mid-Dakota also provided the solution to a number of emergency 
situations in fiscal year 1998. The ``rescue'' effort to the City of 
Gettysburg, SD provided the town with a dependable, quality water 
supply (Mid-Dakota) just as they were about to lose their existing 
water intake, due to sluffing of the hillside at that location. The 
town of Virgil, SD will have a new distribution system for the town, 
replacing the old one that was in disrepair and draining the town 
coffers to keep it running and supply drinking water to Virgil 
residents. Mid-Dakota has verbally agreed to take-over the operations 
of the Southern Spink and Northern Beadle Rural Water System (SSNB). 
SSNB is a small community water supply system that lacks the necessary 
resources to properly operate a potable water supply system. Mid-Dakota 
replaced approximately eight miles of pipeline along U.S. Highway 212. 
The Highway is scheduled for improvements in the Spring of 1999. A 
water pipeline located in the Highway right-of-way would have to be 
relocated increasing the cost of the Highway improvement. Mid-Dakota 
instead placed its pipeline (that would have been constructed in the 
future) out of the way of the Highway improvement. This lessened the 
cost of the Highway project and provided for an uninterrupted supply of 
water to people along the pipeline route.
          tentative fiscal year 2000 construction schedule \5\
---------------------------------------------------------------------------
    \5\ Project features listed in table are subject to rescheduling 
based upon funding provided and readiness to proceed and other factors. 
Actual construction activities, therefore, may not coincide exactly 
with schedule presented here.
---------------------------------------------------------------------------
    Mid-Dakota has developed an aggressive construction schedule for 
fiscal year 2000, with plans to install nearly 900 miles of pipeline to 
serve an estimated 3,250 more people than are currently receiving or 
scheduled to receive Project drinking water. Our construction schedule 
will also provide the necessary main pipeline infrastructure to move 
forward with many more rural and community connections in the future. 
Federal funding allocated in any given fiscal year is always the 
limiting factor that drives Mid-Dakota's construction schedule.

                 CONSTRUCTION SCHEDULE, FISCAL YEAR 2000
------------------------------------------------------------------------
                                                 Estimated    Estimated
                                    Estimated    number of    population
         Project Feature               Cost        meters       to be
                                                 connected      served
------------------------------------------------------------------------
Gettysburg Service Area & Tower          1.500          300        1,600
 \6\.............................
Highmore Central Service Area....        3.575          180          500
Mac's Corner Service Area & Tower        3.210          110          350
Rezac Lake Service Area & Tower..        2.767           60          175
Collin's Slough Service Area &           1.958           60          175
 Tower...........................
Cottonwood Lake Service Area &           3.203          155          450
 Tower...........................
Main Pipeline to St. Lawrence, SD        2.187  ...........  ...........
 \6\.............................
Administration...................         .460  ...........  ...........
Engineering & Legal..............        2.116  ...........  ...........
Inspection.......................        1.135  ...........  ...........
Bureau of Reclamation oversight..         .460  ...........  ...........
Other costs......................        2.760  ...........  ...........
Wetland component................        1.000  ...........  ...........
                                  --------------------------------------
      Totals.....................   \7\ 26.331          865        3,250
------------------------------------------------------------------------
\6\ Project components footnoted are part of fiscal year 1999
  construction schedule. Costs shown in the table are needed to complete
  construction of that particular component.
\7\ Mid-Dakota's request of $28 million anticipates that 6 percent of
  any appropriation will be deemed unavailable by the Bureau of
  Reclamation by application of ``under-financing.'' This level of
  ``under-financing'' would effectively reduce a $28 million
  appropriation to $26.4 million.

                                closing
    Mid-Dakota is intensely aware of the difficult funding decisions 
that face the Energy and Water Appropriations Subcommittee and we do 
not envy the difficult job that lies ahead. We strongly urge, the 
Subcommittee to look closely at the Mid-Dakota Project and recognize 
the dire need that exists. Consider the exceptionally high level of 
local and state support. And lastly our readiness, our credibility and 
our ability, to proceed.
    Again, we thank the Subcommittee for its strong support in the 
past.
                                 ______
                                 
              Prepared Statement of the Mni Wiconi Project
              fiscal year 2000 construction budget request
    The Mni Wiconi Project beneficiaries (as listed below) respectfully 
request appropriations for construction in fiscal year 2000 for the 
project in the amount of $34,144,000 as follows:

Oglala Sioux Rural Water Supply System:
    Core Facilities (Treatment Plant, Pipelines)........     $11,895,000
    Distribution System on Pine Ridge...................       6,138,000
West River/Lyman-Jones Rural Water Systems..............       9,916,000
Rosebud Sioux Rural Water System........................       3,762,000
Lower Brule Sioux Rural Water System....................       2,433,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total Mni Wiconi Project..........................      34,144,000

    The Oglala, Lower Brule and Rosebud Sioux Tribes were consulted as 
required by the Indian Self-Determination Act (Public Law 93-638, as 
amended) when the Administration arrived at its fiscal year 2000 
construction budget of $23.9 million for the Mni Wiconi Project. This 
budget, however, does not address the needs of the project in fiscal 
year 2000 or in fiscal year 2001, a major target year for the project.
    The principle element in the budget for fiscal year 2000 is $11.895 
million for the Oglala Sioux Rural Water Supply System (OSRWSS) core. 
The OSRWSS core system funds are needed to complete the project to 
Murdo by fiscal year 2001, where water can be delivered to the largest 
areas of demand in the West River/Lyman-Jones service area and all of 
the Rosebud service area. By completing the project to Murdo, all of 
the interconnection points for the Lower Brule Sioux Tribe will also be 
provided. Only the Pine Ridge Indian Reservation and parts of West 
River/Lyman-Jones will be without points of interconnection to the 
OSRWSS core. This landmark in progress on the project by the end of 
fiscal year 2001 is the most significant event in the project to date. 
The requested funding level is needed for the next two years to achieve 
the objective.
    Important to note is the fact that in fiscal year 1999 the intake 
and treatment plant on the Missouri River will be concluded. Completion 
of the OSRWSS core pipeline system to Murdo is necessary to utilize, to 
any significant degree, those completed facilities. Also, noteworthy is 
the fact that major segments, but not all segments, of the core 
pipeline will be completed in fiscal year 1999 between the treatment 
plant and Murdo. The funding request for fiscal year 2000 will continue 
the core pipeline construction, and the funding request in fiscal year 
2001 will permit us to conclude the necessary construction to Murdo, 
thereby providing interconnection to a population of 26,000, 50 percent 
of the project population. Absent sufficient funds in fiscal year 2000 
and fiscal year 2001, only 8,000 persons will be provided with 
interconnection to the OSRWSS core to receive water from the Missouri 
River.
    All proposed sponsor construction activity will build pipelines 
that will provide project water immediately to beneficiaries. In many 
cases, construction is ongoing, and fiscal year 2000 funds are required 
to complete those projects. In the absence of fiscal year 2000 funds 
requested for the distribution systems, it will be necessary to 
discontinue some on-going construction contracts and reinitiate them at 
a later time. This will raise project costs. It will also lower faith 
of contractors in the project, which will affect future bid prices.
    Funding for OSRWSS core and distribution facilities are necessary 
to bring the benefits of the Empowerment Zone designation to the Pine 
Ridge Indian Reservation, one of five rural designations across the 
Nation. There is great anticipation on the Pine Ridge Indian 
Reservation. The federal projection that as much as $.5 to $1.0 billion 
in economic activity can be generated, however, is largely dependent on 
the timely completion of a water system, which depends on 
appropriations for this project.
                      unique needs of this project
    Your consideration in this most important project, a project that 
brings hope, dignity and a spirit of cooperation between Indian and 
non-Indians, will be greatly appreciated. This subcommittee has 
provided us with considerable support for which we are grateful. This 
year the Administration has provided a decreased and inadequate budget. 
It is necessary for the project to petition the subcommittee for the 
appropriate level of funding to build the OSRWSS core to Murdo by year 
2001, a major accomplishment that will provide interconnections from 
the core system to nearly 50 percent of the project population or about 
26,000 persons.
    The possibility of a lower level of appropriations in fiscal year 
2000 would be hurtful. Each year our testimony addresses the fact that 
the project beneficiaries, particularly the three Indian Reservations, 
have the lowest income levels in the Nation. The health risks to our 
people drinking unsafe water are compounded by reductions in health 
programs. We respectfully submit that our project is unique and that no 
other project in the Nation has greater human needs. Poverty in our 
service areas is consistently deeper than elsewhere in the Nation. 
Health effects of water borne diseases are consistently more prevalent 
than elsewhere in the Nation, due in part to (1) lack of adequate water 
in the home and (2) poor water quality where water is available. Higher 
incidences of impetigo, gastroenteritis, shigellosis, scabies and 
hepatitis-A are well documented on the Indian reservations of the Mni 
Wiconi Project area. At the close of the 20th century one cannot find a 
region in which social and economic conditions are as deplorable. These 
circumstances are summarized in Table 1. Mni Wiconi builds the dignity 
of many, not only through improvement of drinking water, but through 
employment and increased earnings during planning, construction, 
operation and maintenance.

           TABLE 1.--1990 BUREAU OF CENSUS ECONOMIC STATISTICS
------------------------------------------------------------------------
                                                 Families
                                                  Below
    Indian Reservation/State       Per Capita    Poverty    Unemployment
                                     Income       Level       (percent)
                                                (percent)
------------------------------------------------------------------------
Pine Ridge (Shannon County).....       $3,029         59.6          32.7
Rosebud (Todd County)...........        4,005         54.4          27.3
Lower Brule (Lyman County)......        4,679         45.0          15.7
State of South Dakota...........       10,661         11.6           4.2
National........................       14,420         10.0           6.3
------------------------------------------------------------------------

    Financial support for the Indian membership has already been 
subjected to drastic cuts in funding programs through the Bureau of 
Indian Affairs and through Welfare Reform. This project, progressing 
through the budget fighting efforts at the National level, was a source 
of strong hope that would off-set the loss of employment and income in 
other programs and provide for a healthier environment. Tribal leaders 
anticipate that Welfare Reform legislation and other budget cuts 
nation-wide will create a crisis for tribal government when tribal 
members move back to the reservations in order to survive. This 
movement has already started. Recent Census Bureau data indicate that 
the population of Shannon County (Pine Ridge Indian Reservation) 
increased over 21 percent between 1990 and 1997. The population of Todd 
County (Rosebud Indian Reservation) has increased over 11 percent in 
the same time period. Those population increases are greater than 
anticipated and will create water needs that will more than utilize the 
benefits of the Mni Wiconi Project Act. Public policy has resulted in 
accelerated population growth on the reservations. The Act mandates 
that:

        . . . the United States has a trust responsibility to ensure 
        that adequate and safe water supplies are available to meet the 
        economic, environmental, water supply and public health needs 
        of the Pine Ridge, Rosebud and Lower Brule Indian Reservations 
        . . .

    Indian support for this project has not come easily because of the 
historical experience of broken commitments to the Indian people by the 
Federal Government. The argument was that there is no hope and the 
Sioux Tribes would be used to build the non-Indian segments of the 
project and the Indian segments would linger to completion. These 
arguments have been overcome by better planning, an amended 
authorization and hard fought agreements among the parties. The 
Subcommittee is respectfully requested to take the steps necessary the 
complete the critical elements of the project proposed for fiscal year 
2000.
    The following sections describe the construction activity in each 
of the rural water systems.
          oglala sioux rural water supply system--distribution
    Attachment A summarizes the status of the Oglala Sioux distribution 
system on the Pine Ridge Indian Reservation. All projects rely on 
groundwater. Pine Ridge and parts of West River will be the last 
project sponsors to interconnect with the OSRWSS core to receive 
Missouri River water. With projects now designed and proceeding under 
construction award there are 932 services and 402.2 miles of 
distribution and service pipelines, down from earlier projections due 
to the pace of funding. We continue to extent the start of new 
projects. Two projects were bid in 1998 and will require 2000 funds for 
continuation. The Manderson Loop has been under construction since 
fiscal year 1996, and the fifth of five phases will be scheduled for 
completed with fiscal year 2000 funds. The Red Shirt Project in the 
northwest corner of the Reservation will be started in fiscal year 
1999, and is scheduled for completion in fiscal year 2000. Parts of the 
project have been deferred due to shortage of funds and higher costs 
than anticipated on other project segments. Of special importance to 
the Oglala Sioux Tribe is the start of the main transmission system 
from the northeast corner of the Reservation to Kyle in the central 
part of the Reservation. This transmission line is needed to 
interconnect the OSRWSS core system with the distribution system within 
the Reservation in order to deliver Missouri River water to the 
populous portions of the Reservation. If adequate funds were available, 
this segment of the project would be initiated in fiscal year 2000. 
However, this critical component of the Oglala system has been deferred 
to later years.
        west river/lyman-jones rural water system--distribution
    Appropriations received by WR/LJ have been applied to five service 
area construction projects that now serve a significant percentage of 
our membership. A summary of project status, members services and miles 
of pipeline is provided in Attachment A. Construction funds obtained 
from the fiscal year 2000 appropriation will be used to construct those 
projects on which design is on going.
    WR/LJ priorities in fiscal year 2000 are for construction of 
distribution facilities that will receive project water delivered by 
OSRWSS and LB core pipeline and treatment projects now under 
construction and completed portions of the RST core pipeline. These 
projects will bring needed water to the Ft. Pierre area of Stanley 
County, rural users and the City of Presho in Lyman County and rural 
residents of eastern Mellette County.
    The project in eastern Mellette County is a joint undertaking with 
the RST. The water source is the RST core pipeline. Distribution 
pipeline constructed by WR/LJ will serve their membership and have 
capacity for and deliver water to RST tribal members. A similar project 
is now under construction to serve WR/LJ and RST members in western 
Mellette County.
                       rosebud rural water system
    Fiscal year 2000 is turning point for the Sicangu Mni Wiconi. The 
work proposed will build on the projects completed or initiated in 1998 
and 1999 and prepare for the OSRWSS reaching Murdo in 2001.
    The improvements to the community system at St. Francis initiated 
in 1999, will be used to distribute water to rural homes in the 
surrounding area. The rural distribution project will connect numerous 
additional rural residences to previously constructed distribution 
pipelines. The work planned in the Mission/Antelope area will further 
improve the reliability of the water supply to the area.
    Fiscal year 2000 will also be a year of preparation for the 
construction of the Rosebud core line to Murdo in fiscal year 2001. 
Pre-construction work in design and right-of-way acquisition is needed 
to insure timely and efficient construction of this major transmission 
pipeline in the following year. After the Rosebud core pipeline is 
constructed to White River, high quality water will be available for 
both Indian and non-Indians in Mellette County and Northern Todd County 
where the water is needed most.
              lower brule rural water system--distribution
    The core system pipeline from West Brule to Reliance has been 
installed and tested, using the systems West Brule booster station, 
which has also been completed. The new water treatment plant is under 
construction, using a combination of funding from numerous sources. 
These include HUD/IHS, EPA, USDA-RD, Mni Wiconi/LBRWS, and Tribal. A 
second 300-gpm treatment unit has been ordered, giving the new plant 
two-microfiltration units with a total winter capacity of 600 gpm. Of 
the total $1,800,000 funding, $145,000 will come from tribal funds and 
the Rural Development funds are a $150,950 grant and a $145,238 loan, 
to be repaid from the rural water system operating revenues. The 
balance of the funds is all grant funds, with $250,000 of those funds 
anticipated to be Mni Wiconi/LBRWS funds. The second water treatment 
unit will allow LBRWS to provide water to their members in the 
communities of Lower Brule and West Brule, and until the Lower Brule 
core system is completed from Vivian to Reliance, services will be 
provided to West River/Lyman Jones Rural Water System for their members 
in the Reliance North, Reliance South and town of Reliance sub-systems. 
LBRWS also has under construction the reservoir located just North of 
Medicine Butte as a part of this West Brule to Reliance core system.
    Fiscal year 1999 funds will also be used, as set forth in that 
fiscal year budget, to construct the Fort George Butte/County Road core 
pipeline, and to design and construct a new administration building. 
The pipeline project will provide water to approximately twenty-four 
WR/LJ members along that route and, ultimately, to the LBRWS Fort 
George Butte distribution sub-system, although those sub-system funds 
have not been budgeted at this time.
    Budgeted fiscal year 1999 funds will also be used to complete 
design for the Vivian to Presho segment of the Vivian to Reliance to 
West Brule LBRWS core system.
    LBRWS requests fiscal year 2000 funding in the amount of 
$2,433,000. These funds will be used for the following projects:
    A. for purchase and installation of the second water treatment 
unit.
    B. for completion of the administration building.
    C. for construction, including related engineering services, for 
construction of the Vivian to Presho LBRWS core pipeline.
    As shown above, LBRWS is continuing its obligation to complete the 
basis core pipeline from Vivian to Reliance and from Kennebec North to 
the reservation boundary by the legislatively mandated year 2003. In 
order to accomplish that goal, appropriations to LBRWS must be adequate 
to plan and construct, with all related costs, at least one major core 
pipeline project each year. Funding at a level inadequate to accomplish 
that will cost an additional $340,000 in administrative cost for each 
year of inadequate funding, thus removing those funds from our total 
authorized expenditure and, very possibly, depleting authorized funding 
available for construction to a level which will not allow full 
completion of the LBRWS core pipeline.

        ATTACHMENT A.--PROGRESS ON MNI WICONI DISTRIBUTION SYSTEM
------------------------------------------------------------------------
                                                   Rural
                                                Residential  Constructed
                Project/Status                   Population    Pipeline
                                                  (number)     (miles)
------------------------------------------------------------------------
OSRWSS:
    White Clay/Wakpamni, Operating............          991           65
    Slim Buttes, Operating....................          403           42
    Kyle North, Operating.....................          408           28
    Kyle to Sharps Corner, Operating..........          583           44
    West Boundary, Operating..................           16           10
    Manderson Loop I, Operating...............          562           42
    Manderson Loop II, Operating..............          292           31
    Manderson Loop III, Operating.............          530           24
    Manderson Loop IV, Construction Awarded...          530           32
    Manderson Loop V, Design OnGoing..........          398           27
    Rockyford to Redshirt, Construction                 228           57
     Awarded..................................
                                               -------------------------
      Subtotal................................        4,940          402
                                               =========================
WR/LJ:
    Creighton Area, Operating.................          238          179
    Elbon Area, Operating.....................          363          274
    Kaodaka Area, Operating...................          318          247
    Grindstone South, Operating...............          195          128
    Reliance Area, Operating..................          267          115
    Vivian North, Construction Awarded........          240          135
    Mellette County West, Construction Awarded          214          171
    Draper City Distr, Bid....................          152            3
    Ft. Pierre West, Design OnGoing...........          246          115
    Mellette County East, Design OnGoing......          147          103
    Presho, Design OnGoing....................          240          100
                                               -------------------------
      Subtotal................................        2,619        1,570
                                               =========================
RS RWS:
    He Dog/Upper Cut Meat, Operating..........          450           35
    Soldier Creek/Ring Thunder, Operating.....          215           18
    Phase III, Operating......................          510           27
    Phase IV, Under Construction..............           20           21
    N Parmalee/Black Pipe, Design OnGoing.....           40           12
    Mission/Antelope/Ring Thund, Design                 125            6
     OnGoing..................................
    St. Francis, Design OnGoing...............        1,200           15
    Rural Distribution, Design OnGoing........          250           15
                                               -------------------------
      Subtotal................................        2,810          149
                                               =========================
LB RWS:
    West Brule to Reliance, Operating.........  ...........           14
    County Line Road Pipeline, Bidding........  ...........           14
    Vivian to Presho, Design OnGoing..........  ...........           11
    Presho to Kennebec, Design OnGoing........  ...........            9
                                               -------------------------
      Subtotal................................  ...........           48
                                               =========================
      Totals..................................       10,369        2,169
------------------------------------------------------------------------

                                 ______
                                 
  Prepared Statement of Robert J. Byrnes, Mayor, City of Marshall, MN
    Chairman Domenici and Members of the Appropriations Subcommittee, I 
appreciate the opportunity to submit this testimony on behalf of the 
City Council and the citizens of Marshall. Minnesota. We are requesting 
$2.275 million in Federal funds for the construction of Stage II of the 
flood control project authorized in the Water Resources Development Act 
of 1986. This is the funding level that the U.S. Army Corps of 
Engineers has determined is essential for Stage 2 work on the Marshall, 
Minnesota Flood Control Project in fiscal year 2000. The Assistant 
Secretary of the Army (Civil Works) has ask Congress to provide $2.275 
million for the Marshall project in his Budget Request for the U.S. 
Army Corps of Engineers for fiscal year 2000.
    The Conference Committee designated $1.5 million for the Marshall 
project in the fiscal year 1999 Appropriations Bill. These funds were 
augmented by $700,000 transferred to the project by the Corps of 
Engineers, and $750,000 appropriated by the Minnesota State Legislature 
in 1998. In addition, the City of Marshall has allocated cash funds of 
nearly $1 million to the project, financed the dredging and 
reconstruction work required on the diversion channel at a cost of 
$350,000, and purchased property and easements at a cost of about $1 
million.
    The plans and specifications for the construction work have been 
completed, and the project advertised for construction bids. All the 
necessary property and easements have been purchased by the City. The 
preparation work in Stage 1 of the project has been completed including 
the dredging and enlargement of the diversion channel and the repair or 
replacement of gates. The Ditch 62 project has been completed which 
provides for the storm water collection system for about 60 percent of 
the City. Bids for Stage 2 construction are scheduled to be opened 
today, March 24, 1999, with construction scheduled to begin in April, 
1999.
                    project location and description
    The project is located in Lyon County in the Southwest corner of 
the State of Minnesota, about 145 miles southwest of St. Paul. It is 
near the center of the Redwood River basin. Southwest State University, 
the business district, and most of the homes of the nearly 13,000 
citizens are located in the floodplain of the Redwood River. Marshall 
serves as the county seat of Lyon County, and is the commercial and 
agricultural center for the region.
    The Redwood River, a tributary of the Mississippi, enters the 
southwest corner of the City, winds its way through the City, exiting 
at the northeast boundary near the University campus. The Redwood River 
basin serves an elongated drainage area of approximately 743 miles. The 
river's elevation drops at the significant rate of 19 feet per mile 
until it reaches the City. There the river slope flattens out to an 
average of about 4 feet per mile. The lack of a confining valley, and 
the reduction in grade on the plain, contributes significantly to 
overland flooding in the Marshall area.
    The geological decline in the elevation in the 50 miles from the 
watershed area to the City of Marshall is greater than the Mississippi 
River elevation decline from Minneapolis to New Orleans.
    A federally constructed flood control project was completed in 
1963. While it is successful in protecting much of the City during 
frequent, smaller floods, the upstream and downstream channels were not 
effective during major flood events. At those times, the Redwood River 
overflows a county highway, bypasses the diversion control structure, 
and floods the inter city area.
    The project is designed to protect the City of Marshall from major 
flood events. Briefly, the authorized plan calls for channel 
improvements, drainage facilities, the construction of 4.7 miles of 
additional levees, 3.8 miles of bank protection, 0.3 miles of new high-
flow diversion channel, an inter basin overflow structure, 
modifications to the existing diversion channel and drop structures, 
and limited recreation trails, picnic and rest area facilities.
                 project authority, funding, and status
    The Marshall Flood Control Project was authorized in the Water 
Resources Development Act of 1986, and reauthorized in the Water 
Resources Act of 1988. Funds were allocated in fiscal year 1984 to 
initiate preconstruction engineering and design work. The total project 
is estimated to cost $10.75 million of which Federal costs are 
estimated to be $7.85 million, and non-Federal costs of $2 million. The 
non-Federal costs have been provided through the State flood mitigation 
grant program, and by bonding by the City of Marshall. The Design 
Memorandum and Environmental Assessment were completed and approved in 
1987.

Summarized Federal Financial Data

Estimated Federal Cost..................................      $7,850,000
Estimated non-Federal Cost..............................       2,900,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total Project Cost................................      10,750,000
                    ========================================================
                    ____________________________________________________
Federal Allocations to Date.............................       4,397,000
Balance of Federal funds to Complete Project............       3,453,000
Benefit-cost Ratio (8 percent)..........................            1.10
                         flow agreement signed
    A major issue to be resolved in the Marshall Flood Control Project 
was the flow rate of the Redwood River during major flood conditions.
    A portion of the Redwood River basin waters are diverted into the 
Cottonwood River basin. The project will require that historic 
overflows are maintained between the two watershed districts. After 
numerous public meetings, a flow distribution agreement was executed on 
February 22, 1998, by the City of Marshall, Lyon County, the State of 
Minnesota, and the Corps of Engineers.
                           project background
    Water and land related problems in the Minnesota River basin were 
first investigated by the St. Paul District Engineer in 1934, but his 
study did not address the flooding and related problems in Marshall. In 
1960, after the severe floods of 1957, improvements were recommended by 
the Corps which included the construction of levees and a floodwater 
diversion channel.
    This flood control project was completed in 1963, by the U.S. Army 
Corps of Engineers to, ``provide protection for the people and property 
of Marshall from the frequent flood risks.'' The major feature of the 
project was a 2.4 mile diversion channel around the west and north 
sides of the City, a 1,840 foot levee at the upstream end of the 
project, and other features. The channel was designed to handle a 6,500 
CFS flow. The overflow, then, would move naturally into the Cottonwood 
River Watershed south of Marshall.
    In 1969, a flood of 8,090 CFS was experienced in Marshall. The 
river channel both upstream and downstream from Marshall was inadequate 
to convey the 1963 design flows either to or from the diversion 
channel. At flows greater than 3,500 CFS, floodwaters bypass the 
diversion channel and flood the inner City of Marshall.
    As a result of the failure of the 1963 flood control project to 
protect the City, other studies were conducted by a private engineering 
firm under the direction of the Corps in 1974. The Corps completed a 
flood control report in 1976, and a feasibility study in 1979. This 
report was updated by a reevaluation of the problems in 1984. The 
current project was then authorized in the 1986 Water Resources 
Development Act. It is important to note that the project as 
constructed in 1963, has worsened the potential of flooding for the 
City. The rate of flow is not adequate to move the flood waters through 
the diversion channel, and other problems.
    The three ``Holiday Floods of 1993'' (Mother's Day, Father's Day 
and Independence Day) occurred at both ends of the diversion channel, 
causing hundreds of thousands of dollars in damages to homes, 
businesses, and the City's infrastructure. As the water levels remained 
at flood stage throughout the summer, it created an atmosphere of fear 
and unrest among the citizens of Marshall.
    In 1995, the Redwood River was again flowing at capacity, and the 
City of Marshall narrowly avoided a disaster worse than the floods of 
either 1969 or 1993. From 9 to 15 inches of rain fell near Montevideo, 
Minnesota, less than 40 miles from the Redwood Watershed District.
    If the storm had moved only a few miles to the southwest, the flood 
waters would have engulfed the City at a rate of 8,000 to 12,000 cubic 
feet of water per second. This is a much greater water overflow than 
that which occurred in the disastrous flooding of 1969, and as much as 
three times greater than the 1993 floods.
    The District Office of the Corps of Engineers provided estimates 
stating that the City would have incurred millions in property damage, 
and that flash flooding of this nature could well have resulted in the 
loss of lives. Corps officials stated that flash flooding of this 
magnitude would have made most emergency measures futile. As a result 
of the flat terrain in and around the City, and much of the Marshall 
community would have been under water.

                           STAGE 2--CORPS SCHEDULE FOR MARSHALL FLOOD CONTROL PROJECT
----------------------------------------------------------------------------------------------------------------
                       Activity                               Beginning date               Completion date
----------------------------------------------------------------------------------------------------------------
Plans & Specs Initiated..............................  2/28/96.....................  Complete
Plans and Specs Submitted............................  2/28/98.....................  Complete
Plans & Specs Approved...............................  3/31/98.....................  Complete
Real Estate. Acquisition.............................  12/31/98....................  Complete
Certification of Real Estate.........................  1/15/99.....................  Complete
Construction Contract Advertised.....................  2/24/99.....................  Complete
Construction Contract Awarded........................  3/24/99.....................  3/24/99
Construction Contract Completion.....................  3/24/99.....................  4/6/99
Construction Stage 2 Completion......................  4/25/99.....................  11/30/01
----------------------------------------------------------------------------------------------------------------

                  county ditch no. 62 drainage system
    In addition to the Marshall Flood Control Project, the overall 
protection of the City required the reconstruction and modification of 
the storm sewer drainage system. The examination of the drainage 
problems was acknowledged in the General Design Memorandum developed by 
the Corps for Marshall, but is not included, nor is it a part of the 
funding of this project.
    County Ditch No. 62 serves as the storm sewer drainage system for 
about 60 percent of the City's corporate limits. The Ditch extends 
along the northeast part of the City, in close proximity to the levee 
construction required for the Corps flood control project, and feeds 
into the Redwood River. With the growth of the community, and the 
development of property and the University campus, since the 
construction of the Ditch in 1958-9, the flooding problems in the City 
have been exacerbated by the lack of drainage and poor water movement 
in a system that is no longer adequate for the community. Construction 
was completed in 1998.
    The City of Marshall, in cooperation with Lyon County and the State 
of Minnesota, a comprehensive storm water system was planned, designed, 
and jointly funded by FEMA, the State of Minnesota, Lyon County and the 
City governments at a total cost of slightly more than $3 million. 
There are elements of the Storm Sewer/Ditch Project that are closely 
associated with the Flood Control Project.
                stage 2--construction and funding needs
    The Corps of Engineers has accepted bids for construction work that 
spans both fiscal year 1999 and fiscal year 2000. The Congressional 
appropriation for fiscal year 1999, Non-Federal funds, and fund 
transfers by the Corps have, in combination, provided sufficient 
dollars to move ahead aggressively on Stage 2 construction this Spring. 
An appropriation of the $2.275 requested by both the Corps and City is 
critical to the project.
    Without full funding by Congress this Session for fiscal year 2000, 
construction work will come to a halt in October, 1999, causing delays 
that will substantially increase the cost of the project. Of even 
greater importance is the risk of severe flooding that will confront 
the citizens of Marshall another year. A half completed construction 
project will provide very little protection for the City.
    It has been noted by City officials that as soon as construction 
work begins, some citizens are lulled into a sense of false security. A 
number of homeowners have called the City asking to drop their costly 
flood insurance, assuming their homes are protected by the unfinished 
flood control project. Delays in the completion of the project results 
in a lack of preparation and a state of readiness by some citizens. It 
is these precautions and preparations that have prevented major 
disasters in past flood events.
    For these reasons, we respectfully request this Subcommittee to 
appropriate $2.275 million of Federal funds in the fiscal year 2000 
Appropriations Act to continue the work required under Stage 11 of the 
Marshall Flood Control Project. This action will prevent further delays 
in the completion of the project, and avoid the over budget costs that 
inevitably occur when construction is stopped in the middle of a 
project.
    Thank you for the opportunity to bring this critical matter to your 
attention through this statement. I will be delighted to respond to any 
questions you may have about the project.
                                 ______
                                 
 Prepared Statement Chairman Harold Miller, Chairman, Crow Creek Sioux 
                                 Tribe
    The Crow Creek Sioux Tribe respectfully requests funds in fiscal 
year 2000 to complete the feasibility study and for predesign 
activities for the Crow Creek Sioux Rural Water System, in the amount 
of $235,000. The funds requested will complete the feasibility study 
currently underway, including the preparation of an Environmental 
Assessment and Class I Archaeological survey, and provide for the 
purchase of Geographic Information System (GIS) hardware to enable the 
Tribe to plan for the development of a Municipal, Rural and Industrial 
Water System for the Crow Creek Indian Reservation.
               background--completion of needs assessment
    The Crow Creek Sioux Tribe resides on the Crow Creek Indian 
Reservation in central South Dakota on the eastern bank of the Missouri 
River, a virtually unlimited water supply (Figure 1). Table 1 presents 
the findings of our investigations of water needs to date.
    Crow Creek has completed a Needs Assessment Report for the 
Municipal, Rural and Industrial Water System. The report addresses 
needs of a water project throughout the Crow Creek Indian Reservation 
with a total cost of $24,750,000. The system would be designed to serve 
a future population of 2,843 persons, primarily members of the Crow 
Creek Sioux Tribe. Because the Crow Creek Sioux Tribe is youthful, with 
median age of 18.9 years, the population is growing at a moderately 
high rate, and the need for drinking water facilities will grow as time 
passes.
    Existing facilities include the Fort Thompson, Crow Creek, Big Bend 
and Stephan public water systems, which serve an estimated population 
of 1,520. Distribution facilities in the public water system would be 
incorporated into the new project and improved upon where necessary. 
The existing intake and treatment plant with 450 gpm capacity at Fort 
Thompson would likewise be retained. Existing storage facilities with 
241,000 gallons of capacity would be incorporated.
    Quality of water in the public drinking water systems ranges from 
good to poor. The Fort Thompson and Crow Creek systems, for example, 
have total dissolved solids (TDS) within the range of acceptable 
limits, but the Stephan and Big Bend water systems have total dissolved 
solids that exceed suggested limits of acceptability, (Table 1). Some 
of the individual rural wells, not connected to public water systems, 
have acceptable water quality, but the majority of individual wells has 
poor water quality with total dissolved solids ranging as high as 4,440 
milligrams per liter.
    The Missouri River is a source of dependable water supply for a 
municipal, rural and industrial water project on the Crow Creek Indian 
Reservation. The average annual streamflow at Fort Randall Dam is 
18,214,000 acre feet. Streams crossing the Crow Creek Indian 
Reservation, such as Campbell Creek, Elm Creek and Crow Creek, are not 
dependable supplies of water.
    Groundwater may be a reliable source of supply in the southeast 
corner of the Crow Creek Indian Reservation. Sufficient exploration of 
the terrace gravels at these locations has not been undertaken to 
determine the long-term availability of water and its quality.
    Need for a municipal, rural and industrial water project on the 
Crow Creek Indian Reservation averages 262 gallons per capita per day, 
including 48 gallons per capita per day for heavy water using industry, 
such as a meat packing plant. The average need reflects system losses 
of 38 gallons per capita per day, 15 percent of demand, an acceptable 
level of leakage in transmission, distribution and in-house fixtures. 
The average 262 gallons per capita per day reflects water uses for full 
employment, commercial and industrial development of the Reservation, 
provisions for livestock and moderate water conservation practices, the 
latter reflecting a future plumbing code requiring the use of water 
conserving fixtures in the home. Provision is also made for lawns and 
gardens surrounding each of the 978 households projected for the 
Reservation in year 2020 (Table 1).
    The average future water need is 743,748 gallons per day. On days 
of the year when maximum water use is approached, needs will rise to 
1,926,000 gallons, approximately 2.59 times the average day requirement 
. These values are equivalent to a maximum day flow of 1,338 gpm, of 
which 450 gpm will be provided from the existing system at Fort 
Thompson.
    Construction costs of the water project are estimated at 
$24,750,000. Twenty nine (29) pumping stations would be required 
throughout the system with a total of 463 horsepower. Electrical costs, 
based on 1996 dollars, would average $58,430 annually. Operation and 
maintenance costs of the pumping stations have been estimated at 
$17,000 annually, (Table 1-1). The project will require 181 miles of 
pipeline (985,000 feet).
                      status of feasibility study
    The Crow Creek Sioux Tribe obtained language in the fiscal year 
1998 budget as follows:

          . . . the Secretary of the Interior may use $185,000 of the 
        funding appropriated herein for a feasibility study of the 
        alternatives for the Crow Creek Rural Water Supply System to 
        meet the drinking water needs on the Crow Creek Indian 
        Reservation.

105th Cong., 1st Sess., Amendment No. 872, Congressional Record, p. 
S7506 (July 15, 1997).
    The Tribe entered a Cooperative Agreement with Reclamation on 
September 28, 1998 for the preparation of a Special Study of 
Feasibility Considerations for the Crow Creek MR & I Water System. This 
requires compliance with the National Environmental Policy Act (NEPA), 
National Historic Preservation Act, section 404 of the Clean Water Act 
for wetlands protection, and a detailed demonstration of the 
construction and operational costs. Rights of way, easements, licenses 
and other required permits shall be addressed.
    The Bureau of Reclamation retained $20,000 of the $185,000 provided 
in fiscal year 1999 for federal administrative expenses associated with 
the Special Study. Reclamation's detailed review and comments shall 
extend the originally contemplated period of time to complete the 
Study. Consequently, an additional $75,000 is required to complete the 
Feasibility Study.
    In addition, the sum of $85,000 is required for the acquisition of 
Geographical Information System (GIS) computer hardware, and $60,000 is 
required for two full time employees (FTE), a Project Coordinator and a 
GIS Technican. The sum of $15,000 is needed for training the GIS 
Technician.
    The sum of $235,000 is required in fiscal year 2000 for the Crow 
Creek MR & I Water System.
                               conclusion
    The project as proposed will provide safe and adequate drinking 
water to the Crow Creek Indian Reservation for the projected 
population, the development of commercial and business activities, 
development of a heavy-water using industry and the support of all 
livestock within the Reservation. The sum of $235,000 is required in 
fiscal year 2000 to complete the Feasibility Study and enable the Crow 
Creek Sioux Rural Water System to acquire the GIS computer hardware 
needed for predesign activities.

  TABLE 1-1.--STATISTICAL SUMMARY CROW CREEK SIOUX MUNICIPAL, RURAL AND
                        INDUSTRIAL WATER PROJECT
------------------------------------------------------------------------
                                                                 2020
                                                1990 Census   Projected
------------------------------------------------------------------------
Crow Creek Population.........................        1,756        2,843
    Indian....................................        1,532        2,775
    Non-Indian................................          224           68
Median Age:
    Crow Creek................................         18.9  ...........
    South Dakota..............................         32.6  ...........
Crow Creek School Enrollment:
    Ages 3 and 4..............................           40           73
    Ages 5 to 14..............................          416          765
    Ages 15 to 17.............................           97          179
    Ages 18 to 19.............................           17           58
    Over 20...................................           42          122
                                               -------------------------
      Total...................................          612        1,197
Housing:
    Households................................          434          948
    Persons per Household.....................         4.05         3.00
------------------------------------------------------------------------


------------------------------------------------------------------------
                                                                South
                                                 Crow Creek     Dakota
------------------------------------------------------------------------
1990 Household Income.........................      $12,673      $22,503
1990 Family Income............................       13,125       27,602
1990 Per Capita Income........................        3,717       10,661
Percent Families Below Poverty Level..........         49.5         11.6
1990 Labor Force..............................          480      342,112
Unemployed....................................          139       13,938
Percent in Labor Force........................         55.7         74.3
Percent Unemployed............................         29.0          4.1
------------------------------------------------------------------------

                                                                   Value
Existing Public Water Systems:
    Population Served...................................           1,520
    Service Connections.................................             305
    Flow Capacity, gpm..................................             535
    Storage Capacity, gallons...........................         241,000
General Water Quality, TDS, mg/l:
    Secondary Suggested Limit...........................             500
    Fort Thompson.......................................             479
    Crow Creek..........................................             706
    Stephan.............................................           1,500
    Big Bend............................................           1,928
    Rural Wells:
        Maximum Observed................................           4,440
        Average Observed................................             702
Water Availability:
    Missouri River Streamflows, af/year.................      18,214,000
    Campbell Creek Streamflows, af/year.................           2,669
    Elm Creek Streamflows, af/year......................           5,169
    Crow Creek Streamflows, af/year.....................          13,749
    Missouri River Monthly Minimum, af/month............         260,668
    Tributary Monthly Minimum, af/month.................................
    Groundwater.........................................    Goof to Poor
Design Needs, gallons per capita per average day:
    In-Residence........................................              81
    Lawns and Gardens...................................              62
    School Enrollment...................................               7
    Labor Force.........................................              11
    Commercial and Industrial...........................              13
    Heavy Industry......................................              48
    Livestock...........................................              14
    System Losses.......................................              38
    Water Conservation..................................             -12
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................             262
Design Needs:
    Average Day, gallons................................         743,748
    Maximum Day, gallons................................       1,926,308
    Maximum Day, gpm....................................           1,338
    Annual, af..........................................             833
                                 ______
                                 
   Prepared Statement of Jay L. Kimble, Mayor, City of Stillwater, MN
    Chairman Domenici and Members of the Appropriations Subcommittee, I 
thank you for the opportunity to submit this testimony requesting the 
remaining $1.2 million needed to complete Stage 2 of the Stillwater, 
Minnesota flood control project. Construction of Stage 2 extension of 
the levee system will commence in late June or early July of 1999, and 
is scheduled for completion by November 30, 2000, river levels 
permitting.
    The project was delayed first by the floods of 1997, and secondly, 
the soil beneath the planned levee extension was very unstable, 
requiring a revision of plans and the addition of another stage in the 
construction process.
    The flood waters of the St. Croix River did.not recede until August 
of 1997. The construction area remained under water preventing 
construction work to proceed as scheduled. Work on Stage 1 was 
completed in late Summer of 1997, and additional soil borings were 
taken for Stage 2. The soil was found to be very unstable, and unable 
to support the levee system designed for Stage 2 of the project. The 
construction of Stage 2 is requiring remedial action, and has been 
designated as Stage 2S.
    Phase I, the repair and reconstruction of the old levee wall was 
completed in the Summer of 1998. A contract was awarded for Phase 2S in 
November, 1998, and is expected to be completed in June, 1999. Phase 2 
will begin the latter part of June or early July of this year, and will 
be completed in fiscal year 2000. Stage 3 is scheduled for completion 
in fiscal year 2002.
                the addition of stage 2s to the project
    Nine sawmills dotted the St. Croix River waterfront at Stillwater 
during the lumbering days in the 1st half of the 19th Century. Billions 
of feet of lumber were processed and shipped all over the growing 
Midwestern part of the U.S. The current levee wall system was 
constructed in 1938, in anticipation of the backup of the St. Croix 
when Lock and Dam #2 was completed on the Mississippi. This Corps 
project resulted in the widening of the River at Stillwater, covering 
the sawdust and wood debris created by the sawmills a half Century 
earlier.
    U.S. Army Corps of Engineers reports prior to the authorization of 
this project stated, ``. . . Subsurface soils investigations along the 
waterfront in Stillwater identified pieces of glass, wood and/or layers 
of sawdust to depths of more than twenty feet below the ground surface 
as remnants of the early logging and sawmill activities.''
    Another Corps report stated, ``. . . The extent of the wood and 
sawdust precludes the economics of excavating to remove these materials 
and backfilling with satisfactory soil.''
    Additional soil borings taken during and after Stage 1 to depths of 
70 feet without finding stable soil conditions. To construct a new 
cement levee wall system on an unstable base would result in a degree 
of settling of the structure that would result in cracking and breaking 
of the levee wall. To establish a firm base for the structure is 
economically unfeasible feasible since the depths of such a base would 
have to be more than 70 feet. How much deeper is unknown.
    The third option was to pre-load the construction site with a soft, 
organic silt material equal to, or greater than the weight of the levee 
wall system. This process, over a period of time, will compact the 
unstable soil, and allow the construction of the levee wall after the 
soil has been compacted.
    The surcharge embankment (see Figure 1) was constructed between 
October and December of 1998. The Corps used 25,000 cubic yards of 
granular fill the City of Stillwater had saved from the temporary levee 
constructed during the floods of 1997. The surcharge embankment extends 
about 1,100 feet, and is between 10-15 feet in height. Settlement 
plates and vibrating-wire piezometers were installed in order to 
monitor the settlement of the subsurface soils. The engineers predict 
the settling process of the riverfront will take about six months.
                            project overview
    The purpose of the Stillwater project is to provide flood control 
and protection to the City of Stillwater, Minnesota's oldest city. The 
project is divided into three stages. Stage 1 is the repair and 
reconstruction of the existing floodwall (about 1,000 feet in length.) 
Stage 2 will extend the floodwall North of the existing wall 1,100 feet 
to prevent the annual flooding that occurs in that area. Stage 3 
includes the expansion of the flood wall protection along the West side 
of Lowell Park
                     stage 1 construction complete
    Stage 1 included the repair and reconstruction of the existing 
1,000 foot levee wall system where severe deterioration of the lower 
wall has occurred, the development of the plans and specifications for 
Phase I, the preliminary design work for Phases II and III, and a rip 
rap treatment of the South end of the levee. The rise in elevation to 
the South of the old levee permits rip rap to be used rather than 
extending the levee wall system.
    The original levee wall was constructed in 1938, under the auspices 
of the Public Works Administration (WPA), and is on the register of the 
U.S. Department of Interior's list of National Historic Sites.
    The community is delighted with the Corps' work in the restoration, 
repair and reconstruction of the old levee wall system.
    But even more important, the erosion of the water front underneath 
the structure has been halted. This levee not only protects the water 
front, but a major trunk sewer line that carries 3 million gallons of 
raw sewage each day to the Stillwater water treatment plant. The 
engineers have warned that extensive, long-term flooding would result 
in the rupturing of the trunk sewer line, and release of raw sewage 
into the St. Croix River, one of the Nation's ``Wild and Scenic 
Rivers'' designated by Congress.
    While the repair and reconstruction work in Phase I of the project 
substantially reduces the risk of a failure of the wall, it can not be 
eliminated until the levee is extended and the annual flooding of the 
area diminished.
                          stage 2 construction
    Bids for Stage 2 construction, the extension of the levee wall 
system, are expected to be awarded in July, 1999. This is an area North 
of the reconstructed levee wall in Stage 1 of the project. The Stage 2 
area is always the first area to flood, and where the most severe 
flooding occurs during Spring run offs and heavy rains. Flooding occurs 
annually at this location causing the emergency roadway adjacent to the 
levee to become impassable for 4-6 weeks each Spring.
    The Army Corps of Engineers has projected that $1.2 million will be 
required to complete the work on the Stage 2 floodwall extension. These 
funds will be needed in the Spring of fiscal year 2000, to avoid the 
stoppage of construction work in the middle of Stage 2. Without funding 
at the appropriate time, contractors would remove their equipment, 
including barges used for heavy equipment, and reassign personal, thus, 
increasing the cost of the project to both the City and the Federal 
government. The United States Congress appropriated $2 million in 
fiscal year 1999 to initiate work on Stage 2.
                          stage 2s in process
    Stage 2S (``S'' for surcharge) was commenced in October, 1998 and 
the surcharge placement was completed in December, 1998. It is 
anticipated that the surcharge will need to be in place for 
approximately six months, and that the process will compress the 
subsoil from 18-24 inches. This will enable construction of the flood 
wall to begin in mid Summer, and continue in the early Spring of 2000. 
The cost of the placement of the surcharge was $255,000. Additional 
costs will be incurred with the monitoring and removable of the 
surcharge embankment in the Summer of 1999.
                                stage 3
    Stage 3 consists of the construction of a secondary flood wall 125 
feet inland from the existing levee. The wall will extend about two 
feet above the ground. Sheet piling will be driven 15 to 20 feet below 
the surface to prevent the seepage through the porous soil that occurs 
during flood conditions. The secondary flood wall will provide the City 
with a 50-year flood protection plan, and with the use of sandbags, a 
100 year protection program. The seepage which now occurs with 
sandbagging during flood events will be resolved by the deployment of 
the sheet piling as a part of the flood wall.
    The U.S. Army Corps of Engineers is preparing a decision document 
to validate the economic feasibility of the construction of the low 
floodwall along the Western side of Lowell Park. The cost estimate for 
Stage 3 is $4.25 million.
                            protect schedule
    Stage 1--Construction Completed--October, 1997.
    Stage 2--Project design, plans and specifications--Complete.
    Stage 2S--In process. Completion date--July 1999.
    Stage 2--Award bid for construction--July 1999.
    Stage 2--Construction complete on Stage 2--October 2001
    Stage 3--Study on for flood wall economics on October 1999.
    Stage 3--Construction--April 2001.
                          legislative history
    This project was authorized for $3.2 million in the Water Resources 
Development Act of 1992. Both the House and the Senate Energy and Water 
Development Appropriations Subcommittee designated $2.4 million in 
Federal funds for the purpose of designing, repairing, extending, and 
expanding the levee wall system in the fiscal year 1994 Appropriations 
Act. Additional Congressional appropriations were made for fiscal year 
1997, fiscal year 1998, and fiscal year 1999 totaling $4.2 million.
    The Minnesota Legislature has provided half of the required non-
Federal matching funds totaling $1.525 million for all three stages of 
the project. The City of Stillwater has contributed $950,000 in project 
funds, and has set aside the remaining funds required for Stages 1, 2, 
and 3. To date, all non-Federal matching funds for all Stages of the 
project are either in the escrow account, or available for transfer to 
the escrow fund from the State account.
    Recognition that additional funds would be required to complete the 
project, the U.S. Congress amended the authorization in the Water 
Resources Development Act of 1997, and increased the project's 
authorization to $11.6 million. This level of funding will permit the 
reconstruction of the existing levee, the extension of the levee to the 
North, and the expansion of the levee wall by the construction of a 
flood wall. The completion of Stage 3 is contingent on the decision 
document in preparation by the Corps.

Summarized Financial Data \1\

Federal Cost..................................................$6,670,000
Non-Federal Cost.............................................. 2,670,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total Project Cost...................................... 8,893,000

Allocations to Date........................................... 5,652,000
Balance to Complete.....................................       1,118,000

\1\ Does not include costs for Stage 3.
---------------------------------------------------------------------------
                 historical significance of the project
    The historic implications of the retaining wall system, and its' 
solution, are extremely important to the entire State. In recognition 
of the historic significance of Stillwater as the ``Birthplace of 
Minnesota,'' the U.S. Army Corps of Engineer conducted an excellent 
study completed in July, 1985, entitled, ``Historical Reconstruction of 
the Riverfront: Stillwater, Minnesota.''
    The purpose of the study was to provide the Corps of Engineers with 
information to be used in the review of options for flood control of 
the downtown area of the City. The research identified 117 sites in the 
floodplain as being significant to the entire State. Twenty-three of 
these sites are listed on the ``National Register of Historic Places'' 
by the U.S. Department of Interior. All are threatened by the lack of 
an effective flood control system for the community.
    The U.S. Army Corps of Engineers is obligated to protect the 
cultural or man made environment according to the Corps 1985 study. The 
obligation is embodied in these laws that set forth Federal leadership 
in locating, inventorying, and protecting such sites. The proposed 
reconstruction and extension of the retaining wall system does not 
threaten, damage, nor destroy any of the identified historical sites in 
the area.
    The project as authorized in 1992 and 1996 in the Water Resources 
Development Acts provide the protection necessary to preserve these 
historic structures for future generations.
                            action requested
    Based on the information and data from the ``Design Memorandum'' 
and information prepared by the U.S. Army Corps of Engineers, $1.2 
million in Federal support will be needed in fiscal year 2000, and is 
requested from this Committee. In recognition of the urgent need for 
the completion of this project, Congress increased the authorization in 
the Water Resources Development Act of 1996 to provide for the 
completion of Phase II, and the opportunity to provide flood control 
measures in Phase lilt
    The project is in full compliance with the National Environmental 
Protection Act, the National Historic Preservation Act (16 U.S.C. 470 
(f) and Section 110 (f), 16 U.S.C. 470h-2 (f), the Minnesota State 
Historic Preservation Office, and have met the special provisions and 
requirements of Federal and State laws that protect the wild and scenic 
rivers, and other State and Federal laws enacted to protect the 
environment and historic sites. We have been working with these 
agencies for many years in anticipation of the construction and 
extension of the levee system, and have a summary listing of their 
letters of support for the project.
    For these reasons we respectfully request that this Subcommittee 
appropriate the sum of $1.2 million for the completion of Phase II 
construction in the Energy and Water Development Appropriations Bill 
for fiscal year 2000. Thank you for the opportunity to bring this 
critical matter to your attention through this statement. We would be 
pleased to respond to any questions the Members of this Committee may 
have.
                                 ______
                                 
 Prepared Statement of the Minnesota-Wisconsin Boundary Area Commission
            corps of engineers--construction general budget
    The Minnesota-Wisconsin Boundary Area Commission operates under 
interstate compact to assist its sponsor states in coordinating public 
policies and programs on the Mississippi and St. Croix Rivers, which 
together comprise 265 miles of their bi-state boundary. One of its 
tasks is to assist in the participation by the two states in federal 
programs which relate to the protection, use and development of the 
waters, lands and river valleys.
    The Commission has ten citizen commissioners, five from each state, 
appointed by their respective governor. The Commission has long been a 
champion of the Upper Mississippi River Environmental Management 
Program (EMP) and urged and assisted Congress to create it the Water 
Resources Development Act of 1968. Because the Upper Mississippi River 
has such complex ecological and economic resources under the 
jurisdiction of many agencies and units of government, our Commission 
has fostered and been a part of numerous partnership efforts on the 
river in its 33 years of service.
    The Commission recommends appropriation of the full amount 
recommended in the President's Budget [$18,995,000] for the Upper 
Mississippi River EMP in fiscal year 2000.
    The Upper Mississippi River System EMP has become the primary means 
by which the federal agencies and states are working together to 
restore habitat, to gain a better understanding of how the Upper 
Mississippi River System functions as an ecosystem, and how it would be 
likely to respond in future management scenarios.
    The EMP's habitat rehabilitation and enhancement and long term 
resource monitoring programs cover the entire 1,300 miles of the Upper 
Mississippi River and Illinois River/Waterway from the Twin Cities and 
Chicago, respectively, down to the confluence with the Ohio River. This 
is the only inland river in the Nation designated by Congress as both a 
major national wildlife refuge system and a major commercial navigation 
system. Through more than two decades of cooperative partnership work 
among the five basin states and the Corps of Engineers and Department 
of the Interior, co-managers of federal river missions here, a 
management strategy where the ecosystem and navigation purposes 
complement one another has been worked out and implemented. This 
success story needs to be continued without interruption. We 
respectfully urge the Congress to again support this appropriation as 
being in the national interest on ``The Nation's River.''
                                 ______
                                 
           SOUTHWEST U.S. WATER RESOURCE DEVELOPMENT PROJECTS
Prepared Statement of William D. Hodges, President, Board of Directors, 
                    Trinity River Authority of Texas
    Thank you for this opportunity to submit testimony for 
consideration in regard to fiscal year 2000 budget preparation. The 
Trinity River Authority of Texas requests that this letter and the 
requests included herein be included in the formal record for the 
fiscal year 2000 budget hearings.
    Federal participation in Trinity River watershed water resource 
projects has contributed substantially to Texas' economic development 
and represent some of the soundest investments ever made with federal 
funds. We respectfully request your committee's continuing support on 
the following projects within the Trinity River basin:
    Wallisville Lake, Texas.--After decades of delay, this most 
important project at the mouth of the Trinity River is nearing 
completion. The Galveston District of the U.S. Army Corps of Engineers 
has expressed the capability of beneficially spending $4,756 million 
that will complete this project. The need for completion has been more 
pronounced because of the drought conditions experienced in 1997 and 
1998. The operation of Wallisville will eliminate the need to release 
fresh water from Lake Livingston to keep saltwater out of the rice 
fields of the lower Trinity River valley. Enough water to supply 
approximately 40 percent of Houston's needs was released for the past 
two years. The President's budget message did not contain any funds for 
this activity, but we ask that you take all actions necessary to have 
this level of funding added to the final fiscal year 2000 budget.
    Upper Trinity River Basin, Texas.--The North Central Texas Council 
of Government is the sponsor of this project. With the assistance of 
nine cities, two counties and one special purpose district the NCTCOG 
is contributing matching funds for this widely supported study. TRA 
strongly supports the recommended appropriation of $720,000 included in 
the President's budget message. If funded by Congress, these funds will 
be used to design necessary improvements to the existing Dallas 
Floodway.
    Dallas Floodway Extension.--The City of Dallas is the local sponsor 
of this project. In the past year the city has passed a major bond 
issue intended to pay the local share of development costs. This 
project will extend the existing floodway approximately eight miles 
downstream and provide flood protection to a large flood-prone section 
of the city. The area within the levees will be available as a linear 
greenbelt that will be subject to extensive recreational use by the 
public. The President's budget message for fiscal year 2000 includes 
$1.553 million to continue pre-construction and design activities. TRA 
encourages your support for this appropriation.
    Navigation to Liberty.--The City of Liberty and the Chambers-
Liberty Counties Navigation District are the local sponsors of an 
existing six-foot federal channel to the Port of Liberty at river mile 
45. This channel is in need of maintenance dredging, but no funds have 
been included in the President's budget message. The Corps of Engineers 
estimates that an additional $900,000 will be necessary to complete the 
channel to Smith Point which was funded this year. The Corps estimates 
that an additional $1.5 million would be necessary to maintain the 
channel to Liberty. We request that your committee include a total of 
$2.4 million in the fiscal year 2000 budget for these purposes and 
direct the Corps of Engineers to complete this work.
    Operations and Maintenance.--Other funds are included in the 
President's budget for operations and maintenance for a series of 
federal Trinity River watershed lakes for which TRA serves as local 
sponsor. These projects include Lakes Bardwell, Navarro Mills, Joe Pool 
and Wallisville.
    I would like to express our appreciation for this committee's 
historic support for water resource development in the Trinity River 
watershed. I can assure you that it is money well spent.
                                 ______
                                 
Prepared Statement of Richard Castro, Chairman, El Paso Water Utilities 
                          Public Service Board
    Mr. Chairman, thank you for the opportunity to testify before this 
committee in support of the one million dollar appropriation request 
for the El Paso Wastewater Reclamation program. My name is Richard 
Castro. I am Chairman of the El Paso Water Utilities Public Service 
Board which is responsible for developing and operating the wastewater 
and water supply system in the City of El Paso.
    The City of El Paso, Texas is located in the desert at the junction 
of the Texas, New Mexico and Mexican borders. It is Texas' fourth 
largest city, and the third fastest growing metropolitan area in the 
United States. The El Paso, Texas and Ciuadad Juarez, Mexico, area 
forms the largest international border community in the world with 
shared water supply sources.
    El Paso faces a serious future water supply shortage with its arid 
climate and depleting underground aquifers, and water conservation is 
essential to preserving the City's future. Since 1991, when a water 
conservation ordinance was adopted by the City, year-round conservation 
measures have been strictly enforced, including restrictions on 
residential watering, non-commercial car washing, and incentives to 
prevent water flowing into streets and leaks. Over the past eight years 
this conservation program has reduced the per capita use of water from 
203 gallons per day to 162 gallons per day. Despite this success, the 
City of El Paso and Ciuadad Juarez, Mexico, will deplete their 
groundwater supplies within the next 25 years.
    The El Paso Reclaimed Water Project will serve the central El Paso 
area and will provide reclaimed water to serve a variety of needs. 
These include several large turf areas, including the Ascarate 
Municipal Golf Course, the Chamizal National Park, local schools and 
cemeteries, and City parks. Government users include the El Paso 
Community College and a Juvenile Detention Center located in the 
central part of El Paso. The project will also serve the Chevron 
refinery, which is expected to be the largest reclaimed water customer 
in El Paso, requiring one million gallons a day.
    Given the density of the potential customers within the project 
area, the project is the most cost-effective reclaimed water 
distribution system within the City of El Paso. Three different 
alternatives for delivering reclaimed water have been developed and are 
being analyzed using a hydraulic computer model. Each alternative 
includes in its schematic a single distribution system, dual 
independent systems, and a single system constructed in two phases.
    The proposal was authorized under Public Law 104-266 in 1996 and 
received $750,000 for the cost of initial planning and design in the 
fiscal year 1999 Bureau of Reclamation budget. The one million dollars 
requested for fiscal year 2000 will allow for construction to begin on 
the project. As with other Title XVI projects, 75 percent of the 
project funding will be provided by our local government.
    The past support of this Committee and the U.S. Bureau of 
Reclamation has allowed the City to initiate the largest and most 
efficient water reuse project in the state of Texas. Additional funding 
and other support have been given to the project by the state, the 
North American Development Bank and the Border Environment Cooperation 
Commission. However, the City is to the point where expansion of water 
reuse is now needed on an even larger scale. Reclaimed wastewater is 
the essential element and is at the core of our long term water 
conservation and water supply plans and programs. Only with your help 
will we be able to move forward in a timely manner. We greatly 
appreciate the assistance provided by this Committee in the past and we 
respectfully urge your support and assistance in allocating one million 
dollars in fiscal year 2000 for the El Paso Reclaimed Water Project.
                                 ______
                                 
 Prepared Statement of H. Thomas Kornegay, Executive Director, Port of 
                           Houston Authority
    On behalf of the Port of Houston Authority (PHA) and the over 
204,000 Americans whose jobs depend upon activity at the Port of 
Houston, we extend gratitude to Chairman Domenici, and members of the 
subcommittee for the opportunity to submit testimony in support of 
several important navigation projects included in the U.S. Army Corps 
of Engineers Civil Works budget for fiscal year 2000.
    For many years, the Port of Houston Authority has provided 
testimony to this subcommittee expressing appreciation for providing 
the funds necessary for the Houston Ship Channel (HSC) to remain fully 
functional by maintaining proper dredge depths and dewatering of dredge 
disposal sites. Most importantly, we are grateful for this 
subcommittee's support through the funding request for the required 
studies prior to the authorization of the improvement project to deepen 
and widen the Houston Ship Channel. We are deeply grateful for this 
support and are particularly excited about the partnership of this 
subcommittee, the Army Corps of Engineers and the Port Authority in 
marching forward with an insightful view of the future of one of our 
Nation's busiest ports in foreign commerce.
    We express full support of the fiscal year 2000 Corps of Engineers' 
budget request in the following amounts:

Houston Ship Channel (O&M)..............................     $13,011,000
Houston-Galveston Navigation Channels (Construction)....      60,000,000

    Each of these funding requests is important to ensure the 
continuous flow of commerce through this very busy waterway.
         the port of houston--one of the nation's busiest ports
    Port of Houston commerce generates over $7.7 billion annually to 
the Nation's economy and over 204,000 people work in jobs that are 
directly related to the Port of Houston's activity. Moreover, the port 
generates nearly $500 million in customs fees and over $525 million 
annually in state and local taxes.
    It is no exaggeration to say that the Houston Ship Channel is one 
of the most important economic lifelines between our Nation and the 
world. Houston's favorable geographic location provides easy access to 
the entire world business community through key ocean, land, and air 
routes. More than 100 shipping lines connect Houston with more than 700 
world ports and 200 countries. Three major railroads provide cargo 
distribution throughout the United States with the intermodal link of 
more than 160 trucking lines. The Port of Houston forms the core of the 
Houston international community which includes more than 350 U.S. 
companies with global operations and Houston offices for more than 45 
of the world's largest non-U.S. companies. In addition, Houston is the 
home of one of the largest consular corps in the Nation, with over 70 
foreign governments represented. These factors have made the Port of 
Houston a preferred gathering and distribution point for shippers 
transporting goods to and from the Midwestern and Western United 
States.
               the port of houston--protecting our nation
    During the Desert Shield/Desert Storm operation, the U.S. 
government deployed 106 vessels carrying 458,342 tons of government 
cargo and military supplies from the Fentress Bracewell Barbours Cut 
Terminal at the Port of Houston. In fact, between August of 1990 and 
October of 1991, the Port of Houston was the second busiest port in the 
Nation in support of our troops. We are proud that the strategic 
location of the Port of Houston allows us to play such an important 
role in the defense of our Nation and the world.
        modernization & the environment--successful partnership
    The Houston Ship Channel, which opened in 1914, is believed to be 
the result of the first-ever federal/local cost-sharing agreement. At 
that time, the channel was 18\1/2\ feet deep. It was subsequently 
deepened to its current depth of 40 feet with a width of 400 feet. This 
last improvement was completed in 1996. While Houston is one of our 
Nation's busiest ports, it is also one of the narrowest deep draft 
channels. As you can imagine, ships and shipping patterns have 
dramatically changed to meet the demands of world trade over the last 
30 years. Yet, this busy waterway has not been widened or deepened to 
accommodate these changes. As the local sponsor for the Houston Ship 
Channel, the Port Authority began its quest to improve the channel in 
1967. For reasons of safety, environment, and economics, the Houston 
Ship Channel is long over-due to be improved. The Port of Houston, and 
its partner in maintaining this federal waterway--the Corps of 
Engineers--are leading the way to a unique approach to addressing the 
environmental interests in the improvement of the Houston Ship Channel. 
In the late 1980's, the Port Authority and the Corps of Engineers 
joined with federal and state agencies to form an Interagency 
Coordination Team (ICT) in a cooperative effort to address 
environmental concerns with the project--a process advocated by 
environmental groups and various resource agencies. The ICT included: 
the U.S. Army Corps of Engineers (USACE), the U.S. Fish and Wildlife 
Service (USFWS), the U.S. Natural Resources Conservation Service 
(USNRC), the U.S. Environmental Protection Agency (EPA), the Texas 
General Land Office (GLO), Texas Parks and Wildlife (TPWD), the Texas 
Natural Resources Conservation Commission (TNRCC), the Texas Water 
Development Board (TWDB), the Galveston Bay National Estuary Program 
(GBNEP), National Marine Fisheries Service (NMFS), the Port of 
Galveston, and the Port of Houston Authority. Several committees were 
established by the ICT. One of the most important committees 
established was the Beneficial Uses Group (BUG). The BUG, chaired by 
the Port, was charged with developing a disposal plan to utilize 
dredged material in an environmentally sound and economically 
acceptable manner that also incorporated other public benefits into its 
design. Most important was the Port Authority's committed objective 
that the final plan would have a net positive environmental effect over 
the life of the project.
    We are pleased to report that the ICT unanimously approved the 
beneficial use plan for disposal of dredged material from the HSC 
project as one that will have a net positive environmental effect on 
Galveston Bay, while significantly increasing the net economic benefits 
to the region and to our Nation. Three basic principles guided the BUG 
in their efforts: dredged material should be considered a potentially 
valuable resource; development of an environmentally acceptable 
disposal plan is intrinsic to the approval of the project; and, the 
adopted disposal plan must have long term environmental benefits for 
the Galveston Bay system. The approach utilized by the BUG for 
Galveston Bay made this effort unique and precedent setting. What was 
attempted had never been done before. The BUG developed a preferred 
disposal plan rather than reviewing a proposal in a regulatory setting. 
The BUG also addressed one of the largest navigation projects in recent 
years (approximately 62 Million Cubic Yards (MCY) of new work material 
and an estimated 200 MCY of maintenance material over the next 50 
years. Most importantly, the BUG actively solicited beneficial use 
suggestions from environmental interests and bay user groups whose 
collective ideas were given full consideration during the development 
of the recommended plan. In fact, the community identified more 
beneficial uses than the material available from the project plus 50 
years of maintenance dredging. The result was the identification of 
beneficial uses for the material to be dredged from the improvement 
project. The final plan includes the creation of 4,250 acres of marsh--
a bird island, boater destination, restorations of two islands lost 
over the years due to erosion, and subsidence. In addition, an 
underwater berm will be constructed to provide storm-surge protection 
and habitat.
               port of houston--looking toward the future
    The voters of Harris County in 1989 committed significant local 
funding to support these improvements. By a 2 to 1 vote, citizens 
approved a measure that will provide the local funding ($130,000,000) 
to deepen the channel to 45 feet and widen it to 530 feet. The Corps of 
Engineers and resource agencies involved in the ICT and BUG process 
have worked diligently to address all concerns and to develop a truly 
unique approach. The Port Authority heartily commends the cooperation 
and hard work of the Corps of Engineers and the state and federal 
agencies who have participated in the process that has this project 
being applauded across maritime and environmental communities. This 
project is the first in history to have netted no negative comments 
during the public review phase of the Supplemental Impact Statement 
(SIS).
          houston-galveston navigation channels (construction)
    From fiscal year 1990 through fiscal year 1999, Congress has 
appropriated nearly $93,000,000 toward the project to deepen and widen 
the Houston Ship Channel. The Port Authority has also contributed 
substantially to support this effort.
    Based on our cooperative and productive discussions with the Corps 
of Engineers, we are convinced that the optimal timeline for completing 
the navigation portion of this project is four years. A four year 
schedule will accelerate the benefits of the project and reduce its 
costs. Each year in reduction construction time adds more than $81 
million in benefits, reduces escalation costs by $4.562 million and 
drives down investment costs by more than $17 million. This 
subcommittee has agreed that this fiscally sound reasoning is good 
public policy and accordingly has provided the necessary funding to 
keep this project at the optimum schedule.
    This year, the Administration has included in the Corps of 
Engineers' construction budget the $60 million request needed to keep 
this project on the optimum schedule for completion of the navigational 
portion of the project. We understand that the budget allocations are 
predicated on anticipated revenue from the Administration's Harbor 
Services Fund proposal which includes controversial user fees. We fully 
recognize the challenges of this subcommittee in being responsible to 
the fiscal needs of the Nation and yet trying to satisfy the many 
demands on the budget for critically needed water improvement projects. 
In a recent study conducted by the Texas Transportation Institute, the 
Port of Houston was evaluated as a prototypical next generation 
megaport. The port identified channel and berth depths as a major 
impediment to accommodating ships of the future. Further, in this era 
of environmental sensitivity, the Houston Ship Channel improvement 
project is a beacon of light. The improvements to the environment that 
will be reaped from this project cannot be ignored. The Port of Houston 
Authority's Demonstration Marsh, utilizing dredged material for 
beneficial uses, has been included in the Audubon Society's Christmas 
Bird Count. Over 155 species of birds have been identified on this 
marsh built entirely with material dredged from the Houston Ship 
Channel.
    The Port Authority has a responsibility to the citizens of Harris 
County to operate the port in a cost-effective and efficient manner. We 
would not be fiscally responsible if we did not strive to realize the 
benefits of the project as soon as humanly feasible and at a most-
efficient cost to the partners involved. We urge the members of this 
subcommittee to fully fund this important project. In doing so and in 
reaffirming the subcommittee's commitment to our Nation's port system, 
we urge the subcommittee to include the $60 million necessary to keep 
the Houston Ship Channel project on its current optimal, cost-effective 
schedule. We look forward to your leadership on this vitally important 
matter.
             houston ship channel--operations & maintenance
    The Corps' fiscal year 2000 request for operations and maintenance 
funding includes $13,011,000 for maintenance dredging of key stretches 
of the channel, mosquito spraying, protection of various disposal 
areas, and dewatering of dredge disposal sites. These include the 
critical maintenance of channel depths at the Bayport flare--essential 
to safety; removal of existing shoaled material in the Upper Bay; 
dredging of Boggy Bayou to Greens Bayou; and dewatering of east and 
west Jones disposal area.
                               conclusion
    We greatly appreciate your support in past years and urge you to 
include the funds requested to fully support these projects in this 
busy federal waterway. These maintenance projects, and particularly the 
funds necessary to continue construction of the HSC improvement project 
at an optimal schedule are vital, not only to the Port of Houston's 
continued ability to move the Nation's commerce in a safe, efficient, 
and economical manner, but also to ensure the competitiveness of this 
waterway in the world marketplace--an absolute necessity in this global 
economy.
                                 ______
                                 
  Prepared Statement of Frederick A. Perrenot, P.E., General Manager, 
                            City of Houston
                 wallisville saltwater barrier project
    We would like to express our appreciation and thank the Chairman 
and this Subcommittee for their longstanding support for funding for 
the Wallisville project. This request is for the final appropriation 
necessary to complete the project.
    The Wallisville project represents the culmination of 40 years of 
cooperative efforts by the City of Houston, the Trinity River 
Authority, the Chambers Liberty Counties Navigation District and the 
U.S. Army Corps of Engineers (Corps). The Corps currently estimates 
that it will take approximately $5,000,000 to complete the project. If 
appropriated, that amount will be spent to rehabilitate the locks at 
the saltwater barrier, complete construction of the upstream overflow 
barrier (``Control Structure A''), breach an old unused dam and 
construct certain environmental enhancements to the project site.
    With the Wallisville Saltwater Barrier in place, up to 260 million 
gallons per day of freshwater held in the Lake Livingston reservoir, 
becomes available as part of the drink water supply to address the 
needs of about four million Texas Gulf Coast residents. Houston serves 
as the regional supplier of surface water to meet the needs of 
Pasadena, Baytown, Friendswood, Webster, South Houston, La Porte, Clear 
Lake and Galveston, Texas, among others, as well as several hundred 
municipal utility districts and industries.
    When completed, the water users in the greater Houston area will 
have provided a local share of approximately 66 percent of the total 
costs of the co-dependent and interrelated Wallisville Saltwater 
Barrier and Lake Livingston Reservoir projects. We urge you to closely 
consider this final appropriation request of $5,000,000 in fiscal year 
2000 so that the Wallisville project can be completed.
    Again, we want to thank this Subcommittee for its support for 
funding this project and request that this letter become part of the 
record of testimony before the Subcommittee.
                                 ______
                                 
 Prepared Statement of Douglass W. Svendson, Jr., Executive Director, 
                  Gulf Intracoastal Canal Association
    This testimony for the record, March 26, 1999, before House and 
Senate Energy and Water Development Appropriations Subcommittees is 
submitted by Douglass W. Svendson, Jr., Executive Director of the Gulf 
Intracoastal Canal Association. Ours is the oldest of the regional 
waterway associations, having been established in Victoria, Texas in 
1905. The Gulf Intracoastal Waterway transports 121 million tons of 
freight annually, the third highest volume among our inland and coastal 
waterways after the Mississippi and Ohio Rivers.
    GICA's membership includes both shallow draft and deep draft ports, 
port commissions and navigation districts, barge and towing companies, 
petroleum refineries, chemical manufacturers, shipyards, marine 
fabricators, fuel terminal facilities, and individuals whose businesses 
are waterway related and dependent. We have 180 members in the five 
states of Texas, Louisiana, Mississippi, Alabama, and Florida served by 
the Gulf Intracoastal Waterway. In addition, the GIWW is the link that 
binds the North-South rivers to the canal, the coastal ports, and 
ultimately the heartland of America. The Mississippi River intersects 
the GIWW at New Orleans, one of our busiest ports, and the Tennessee-
Tombigbee Waterway intersects the GIWW at Mobile.
             the overall civil works budget of $4.2 billion
    During at least the last 4 years as the Administration has proposed 
smaller Civil Works budgets, most organizations who file testimony with 
your subcommittee, including ours, have expressed very strong concern 
about these reductions, whether in flood control, operations and 
maintenance, construction, or other. We were heartened when the final 
appropriated level for fiscal 1999 was approved at $1.653 billion for 
operations and maintenance.
    Because the fiscal year 2000 operations and maintenance budget 
allowance consolidates $692 million in port O&M with O&M, General, 
expenditures for the preservation, operation, and maintenance and care 
of existing river and harbor, flood control, and related works may 
actually receive less than the recommended $1.835 billion in the 
President's year 2000 budget.
    This same concern applies to funds for construction in the year 
2000 budget. If we underfund normal construction schedules that are 
obviously within the U.S. Army Corps of Engineers' capabilities, we (a) 
deny our nation the timely use of more modern locks, affecting our 
international competitiveness, and (b) add to the ultimate cost of 
construction.
                 the port fee and harbor services fund
    The combination user fee and Harbor Services Trust Fund for port 
maintenance proposed by the administration in its budget raises several 
very serious issues for waterborne transportation, our domestic 
economy, and international trade.
    Whatever the constitutional infirmities of the previous harbor 
maintenance tax, it was spread over a large base of commerce. This fact 
alone helped mitigate a potentially harsh economic impact which might 
otherwise have been injurious to many of our ports, our trade, and our 
economic jobs base.
    The proposed fee will be based on volume or tonnage, not value. 
Those most injured will be our ports that ship large volumes of 
commodities. This negative impact will ultimately fall on farmers, mine 
operators, chemical and petroleum sectors, and all commodities 
producers. Farmers and other producers have historically benefited 
economically by retaining more of the ultimate sales price in their own 
pockets, as a result of water transportation efficiencies.
    A user fee, as proposed, is much more likely, we believe, to be 
port and/or vessel specific, thus location dependent, and harm many but 
the very largest ports. Even large ports stand to lose as a result of 
the fees that could be levied on many bulk commodities which are 
routinely traded on world markets. For commodities, successful trades 
often are determined by pennies per unit of measure, or less. Margins 
are exceedingly thin and relatively large fees will easily disrupt 
normal buyer-seller patterns. Our commodities producers such as coal, 
chemicals, and agricultural products stand to lose sales and market 
share.
    A related problem involves the nature of our ports in the overall 
economy. Ports generate jobs themselves and also provide the impetus 
for related industries to establish themselves adjacent or nearby. 
Benefits of port spending are therefore quite broad in terms of 
regional and national economies. Port related growth is not 
characterized by only a few, specific identifiable beneficiaries we 
usually associate with the obligation to pay user fees. Port 
beneficiaries, including jobs creation and revenue enhancement, are the 
thousands of citizens in the affected locale or region. The numbers 
involved are broad and diverse--just such a class of people we usually 
call the general population. General revenues are employed to fund 
programs for this large a segment of the population
    Thus, the national benefits and economic significance associated 
with the sum total of port activities places these entities in a 
category which is easily able to justify the use of general revenues in 
support of broad, general economic benefits. Our association recommends 
that the Congress look seriously at funding port activities from 
general revenues, as was done prior to WRDA 1986.
             specific budget requests for fiscal year 2000
    The Gulf Intracoastal Canal Association supports the 
Administration's budget request of $60 million for deepening and 
widening the Houston--Galveston Ship Channel. This project has enormous 
favorable economic implications for the regional and national economy. 
It also offers an opportunity to increase deep draft/shallow draft 
navigation safety.
    Approximately 100,000 barge tows and 20,000 ships transit the 
Houston Ship Channel each year. In response to the last major barge and 
ship collision causing a serious oil spill in 1992, the Houston 
Galveston Area Navigation Safety Committee (HOGANSAC) began studying 
how to prevent ship/barge collisions on the Channel. With the work of a 
broad coalition of deep and shallow draft mariners, shippers, the 
Houston Pilots, environmental groups, the Corps and the Coast Guard a 
solution was developed. The plan was to move the beacons to a straight 
line 500 feet either side of the centerline of the channel between 
Bolivar and Morgans Point and dredge the area between the beacons and 
the deep draft channel to a depth of 12 feet to allow barge tows to 
operate outside the deep draft channel.
    We also support funding for the GIWW Section 216 Studies in the 
President's budget, identified as RCP, Review of Completed Projects. 
They are Brazos River to Port O'Connor, Texas, High Island to Brazos 
River, Texas, and Port O'Connor to Corpus Christi, Texas. Within the 
Brazos River to Port O'Connor study, we urge the committee to 
specifically direct the secretary to re-route the GIWW across Matagorda 
Bay.
    Besides increasing safety, re-routing the GIWW across Matagorda Bay 
will save substantial federal outlays. The re-route would enable barge 
traffic to cross Matagorda Bay farther north than the existing 
alignment. The existing channel is much closer to the Gulf, which 
subjects our vessels to serious shoaling and very dangerous currents. 
The Corps of Engineers recommended plan is not scheduled for 
implementation until 2003 to 2005. At least $7 million (and possibly as 
much as $9 million) will be spent during that time period compared to 
$2 million to establish the re-route across Matagorda Bay now.
    These two improvements will constitute the most significant 
physical and environmental safety enhancements along the Texas coast in 
years, and are supported by the environmental community. They will also 
save scarce federal dollars.
    Our association also endorses the President's budget request of 
$8.7 million for construction of the channel to Victoria, Texas. This 
project was delayed in last year's budget because of funding levels and 
we urge the committee to provide funds for completion as soon as 
possible, consistent with the Corps' full capability.
    We support surveys funding in the President's budget for Calcasieu 
Lock, Louisiana ($691,000), and Intracoastal Waterway Locks Study, 
Louisiana ($700,000).
    We support funding for the replacement of the Inner Harbor 
Navigation Canal Lock to the extent of the Corps' full capability. We 
encourage the committee to make certain this project is expedited, 
rather than stretched out.
    The Gulf Intracoastal Canal Association also supports the 
operations and maintenance funding request for Tri Rivers Waterway 
Development Association. We support sound economic development efforts 
to improve the ACF waterway as a vital link for southeast Alabama, 
southwest Georgia, and northwest Florida to export goods to other 
national and international markets via the Gulf Intracoastal Waterway.
    We support inland waterway navigation as an environmentally sound 
and cost effective transportation mode in the Gulf South region, 
helping to reduce freight rates and promoting trade and development.
    In addition, we support the President's budget request for 
Pascagoula, Mississippi harbor project ($7,792,000) and Mobile, Alabama 
harbor project ($700,000).
    This concludes our prepared testimony. We appreciate the 
opportunity to provide this statement for the record.
                                 ______
                                 
   Prepared Statement of Ernie Zieschang, President, Port of Liberty 
                               Commission
    Thank you for the opportunity to submit testimony for consideration 
in regard to fiscal year 2000 budget preparation. The Port of Liberty 
Commission requests that this letter and the appropriation requests 
included herein be included in the formal record for the fiscal year 
2000 budget hearings.
    The Port of Liberty, Texas is located at river mile 45 on the lower 
Trinity River. Navigation to the Port of Liberty is ``run of the 
river'' and can be very difficult during low flow conditions. At the 
present time, because maintenance dredging has not been completed in 
the wake of a series of high flow events, navigation is impossible. We, 
the people of the lower Trinity River valley, have a compelling 
economic need to have our lifeline to the industrial complex on the 
upper Gulf Coast of Texas reopened.
    There are no funds earmarked in the President's budget message for 
fiscal year 2000 for maintenance dredging of the federal government's 
channel to the Port of Liberty. The Corps of Engineers has estimated 
that it will cost $1.5 million to open this channel. The Corps has also 
estimated that an additional $900,000 will be required to finish 
dredging the channel to Smith Point in Chambers County. We request that 
this committee include funds in fiscal year 2000 budget in the amount 
of $2.4 million for these purposes.
    The Port of Liberty Commission also supports an appropriation of 
$4.756 million for the completion of the Wallisville Saltwater Barrier. 
The Wallisville project includes among its facilities a navigation lock 
that will facilitate navigation on the lower river during low flow 
conditions.
    We appreciate all of the fine work this committee has done for 
interests in the lower Trinity River area over the years, and request 
your support for federal maintenance and construction projects in our 
area.
                                 ______
                                 
Prepared Statement of Gale Wm. Fraser, II, P.E., General Manager/Chief 
         Engineer, Clark County Regional Flood Control District
    Presented herewith is testimony in support of a $35,000,000 
construction appropriation necessary for the U.S. Army Corps of 
Engineers to continue the Tropicana/Flamingo Washes flood control 
project and testimony to support $2,105,250 reimbursement to the non-
federal sponsors, Clark County and the Clark County Regional Flood 
Control District, for work performed in advance of the federal project 
pursuant to Section 211 of the Water Resources Development Act (WRDA) 
of 1996. This project is located in the rapidly growing Las Vegas 
Valley in Southern Nevada.
    The Las Vegas Valley has experienced unprecedented growth over the 
past twenty-five years and all signs indicate that this growth will 
continue for several more years. People have moved into the area from 
all parts of the nation to seek employment, provide necessary services, 
and become part of this dynamic community. It is estimated that 5,000 
people relocate to the Las Vegas Valley every month of the year. 
Currently the population is over 1.2 million. The latest statistics 
show that nearly 30,000 residential units are built annually. Once all 
these factors are combined, the result is that the Las Vegas Valley is 
one of the fastest growing areas in the nation.
    The Federal project proposed by the Corps of Engineers (Corps) is 
designed to collect flood flows from a 160 square mile contributing 
drainage area. The plan identified in the Corps' Feasibility Study for 
the Tropicana and Flamingo Washes Project includes four debris basins, 
four detention basins, 28 miles of primary channels, and a network of 
lateral collector channels. The debris basins are designed to collect 
flood flows from undeveloped areas at the headwaters of the alluvial 
fans and trap large bedload debris before it enters the channels and 
causes erosion damage. The detention basins will function to greatly 
reduce the magnitude of the flood flows so that the flows can be safely 
released through the developed urbanized area at non-damaging rates. 
The outflow from the debris basins and the reduced flows from the 
detention basins will be contained in the primary channel system which 
will also serve as outfalls for the lateral collector channels. While 
this latter element is considered to be a non-federal element of the 
entire plan, it is a necessary element for the plan to function 
properly. Because flow over the alluvial fans which ring the Las Vegas 
Valley is so unpredictable in terms of the direction it will take 
during any given flood, all of the components of the Corps' plan are 
critical.
    The Feasibility Report for this project was completed in October 
1991, and Congressional authorization was obtained in the WRDA of 1992. 
The first federal appropriations to initiate construction of the 
project became available through the Energy and Water Resources 
Development Appropriations Bill signed into law by the President in 
October 1993. The Project Cooperation Agreement was fully executed in 
February 1995. Appropriations to date have totaled $71,045,000, which 
has allowed for the continued implementation of the project. The total 
cost of the project is now estimated at $266,000,000, primarily due to 
the delay in anticipated federal appropriations.
    Certain elements of the Corps' plan have already been constructed 
by the local community but require modifications in order to fit into 
the Corps' plan and fulfill the need for a ``total fan approach'' to 
the flooding problems of the Las Vegas Valley. The Red Rock Detention 
Basin was constructed by Clark County in 1985 and modifications by the 
U.S. Army Corps of Engineers were recently completed in December 1996. 
The release from the basin has been reduced and its capacity to hold 
flood waters were enhanced, thereby increasing the level of downstream 
protection provided by this feature. Although this was the first 
feature completed, the immediate benefit realized was the removal of 
approximately five square miles and 4,754 parcels from the alluvial fan 
flood zones.
    The non-federal sponsors also constructed the Upper Flamingo 
Detention Basin. This facility was completed in February 1992, and is 
one of the main components of the program. Under the Corps' plan, the 
releases from this feature will also be reduced and its storage 
capacity increased. We have been working with the local development 
community in an effort to have them remove the excess sand and gravel 
from the impoundment area of this facility. Our goal is to have local 
contractors remove this surplus material for their own use at no cost 
to either the federal or local governments, thus providing a 
significant cost savings to the total project as well as maintaining 
the construction schedule.
    As local sponsors for this important flood control project, both 
the Clark County Regional Flood Control District and the Clark County 
Public Works Department anxiously anticipate the construction start of 
each feature of this project.
    Details of the Administration's fiscal year 2000 Civil Works Budget 
Request indicate that $20,100,000 is proposed for the continued 
construction of this project. The Los Angeles District of the U.S. Army 
Corps of Engineers informs us that their capability for fiscal year 
2000 is $40,000,000. Funding at the $35,000,000 level will allow the 
project to begin to return to the schedule as originally envisioned 
when the Project Cooperation Agreement was executed. Furthermore, 
funding at this level will allow: completion of construction of the 
Tropicana Outlet Channel, Lower Red Rock Complex, Las Vegas Beltway 
Channel (Section 10A), Blue Diamond Detention Basin; and the start of 
construction for the Flamingo Diversion Channel and R-4 Debris Basin 
and Channel. The non-federal sponsors are anxious to see these flood 
control facilities installed. Any further delays places portions of the 
federal project, and non-federal projects, both at risk.
    In 1996, the Regional Flood Control District was notified by the 
District Engineer of the Los Angeles District, U.S. Army Corps of 
Engineers, that due to reduced federal budget expenditures, expected 
and subsequent years of anticipated federal funding would be greatly 
reduced. The delay in funding, in the fastest growing community in the 
nation, will mean increased costs due to lost opportunities and 
inflation. The net result of the reduction in funding is currently 
expected to delay the completion of the project from year 2001 to year 
2006, a five-year delay.
    In order to provide the required flood protection in a timely 
fashion, the non-federal sponsors are implementing certain features in 
advance of the federal government by pursuing the provisions of Section 
211 of the WRDA 1996. An amendment to the Project Cooperation Agreement 
to implement Section 211 of the WRDA 1996 is in its final review 
stages. It is anticipated that the amendment will be approved within 
the next two months. Further, Section 211(f) of the WRDA 1996 
identifies this project as one of eight projects in the nation, to 
demonstrate the potential advantages and effectiveness of non-federal 
implementation of federal flood control projects. To date the non-
federal sponsors have designed and constructed features at Russell 
Road, Valley View Boulevard, Dewey Drive, and Decatur Boulevard; and 
designed the Las Vegas Beltway (Section 7A), which the federal 
government has constructed, and Las Vegas Beltway (Section 7B, 8 and 
9). The work performed pursuant to Section 211 of the WRDA 1996 totals 
approximately $2,807,000. Therefore, the reimbursement for the federal 
share is estimated at $2,105,250. The non-federal sponsors are 
continuing to pursue the design and construction of additional features 
with the primary purpose of providing flood protection in as timely a 
fashion as possible at an estimated additional cost of $28,000,000. 
While the non-federal sponsors are not asking to be reimbursed the 
federal proportionate share at this time, the non-federal sponsors ask 
that the committee support the execution of the amendment to the 
Project Cooperation Agreement that institutes the language in Section 
211 of the WRDA 1996 for this project.
    This is an important public safety project designed to provide 
flood protection for one of the fastest growing urban areas in the 
nation. We ask that the committee provide the Secretary of the Army 
with $35,000,000, the Corps of Engineers' capability in fiscal year 
2000, in order to allow the U.S. Army Corps of Engineers to continue 
the design and construction of additional phases of this desperately 
needed flood control project.
    As the committee is aware, proactive flood control is the 
investment required to prevent loss of life and damages. Flood control 
is a wise investment that will, in the long run, pay for itself by 
preserving life and property and reducing the probability of repeatedly 
asking the federal government for disaster assistance. Therefore, when 
balancing the federal budget, a thorough analysis should prove that 
there will be substantial future federal savings in disaster assistance 
that will warrant the continued level of funding through Civil Works 
Budget appropriations.
                                 ______
                                 
  Prepared Statement of George Renner, President, Board of Directors, 
              Central Arizona Water Conservation District
    The Central Arizona Water Conservation District (CAWCD) is pleased 
to offer the following testimony regarding the fiscal year 2000 Energy 
and Water Development Appropriations Bill.
    The Central Arizona Project or ``CAP'' was authorized by the 90th 
Congress of the United States under the Colorado River Basin Project 
Act of 1968. We thank the Committee for its continuing support of the 
CAP. The CAP is a multi-purpose water resource development project 
consisting of a series of canals, tunnels, dams, and pumping plants 
which lift water nearly 3,000 feet over a distance of 336 miles from 
Lake Havasu on the Colorado River to the Tucson area. The project was 
designed to deliver the remainder of Arizona's entitlement of Colorado 
River water into the central and southern portions of the state for 
municipal and industrial, agricultural, and Indian uses. The Bureau of 
Reclamation (Reclamation) initiated project construction in 1973, and 
the first water was delivered into the Phoenix metropolitan area in 
1985. The CAP delivered over 1 million acre-feet of water to project 
water users in 1998 and anticipates delivering 1.4 million acre-feet in 
1999.
    CAWCD was created in 1971 for the specific purpose of contracting 
with the United States to repay the reimbursable construction costs of 
the CAP that are properly allocable to CAWCD, primarily water supply 
and power costs. In 1983, CAWCD was also given authority to operate and 
maintain completed project features. Its service area is comprised of 
Maricopa, Pima, and Pinal counties. CAWCD is a tax-levying public 
improvement district, a political subdivision, and a municipal 
corporation, and represents roughly 80 percent of the water users and 
property taxpayers of the state of Arizona. CAWCD is governed by an 
elected 15 member Board of Directors from each of the three counties it 
serves. CAWCD's Board members are public officers who serve without 
pay.
    Project repayment is provided for through a 1988 Master Repayment 
Contract between CAWCD and the United States. Reclamation declared the 
CAP water supply system (Stage 1) substantially complete in 1993, and 
declared the regulatory storage stage, or Plan 6 (Stage 2), complete in 
1996. No other stages are currently under construction. Project 
repayment began in 1994 for Stage 1 and in 1997 for Stage 2. To date, 
more than $489 million of CAP construction costs have been repaid to 
the United States.
    CAWCD and Reclamation disagree about the amount of CAWCD's 
repayment obligation for CAP construction costs. This dispute is the 
subject of ongoing litigation in United States District Court in 
Arizona. In Phase One of the litigation, which was completed in 1998, 
the District court ruled that CAWCD's construction cost repayment 
obligation for CAP Stages 1 and 2 under the 1988 Master Repayment 
Contract was limited to no more than $1.781 billion. In addition, the 
court prohibited Reclamation from denying CAWCD the use of project 
facilities. Phase Two of the litigation addressed Reclamation's cost 
allocation procedures for CAP. Trial of Phase Two was completed in 
December 1998, but the court has not yet issued a ruling.
    In its fiscal year 2000 budget request, Reclamation is requesting 
$27,326,000 for the CAP. Of this amount, $11,153,000 is requested for 
the construction of Indian distribution systems, and $2,220,000 is 
requested for completion of construction of sulfur dioxide scrubbers at 
the Navajo Generating Station (NGS). The balance, $13,953,000, is 
sought for other CAP activities, many of which would be partially 
reimbursable by CAWCD if the repayment ceiling had not been exceeded. 
Reclamation estimates that $8,810,000 of the $27,326,000 would be 
subject to partial reimbursement resulting in a $6 million increase in 
total reimbursable costs.
    Reclamation's Project Repayment Appendix to the fiscal year 2000 
budget justification documents indicates that a ``residual'' amount of 
$401,535,392 is currently not covered under the repayment contract as 
ruled by the court in Phase One of the CAP repayment litigation and may 
not be repaid to the Federal Treasury. While CAWCD has challenged the 
adequacy of Reclamation's cost allocation procedure from which this 
residual amount was derived, we are concerned that Reclamation's budget 
request would result in an additional $6 million of reimbursable costs 
for which no repayment contract presently exists. In addition, CAWCD 
questions Reclamation's authority to spend CAP appropriations in the 
absence of an amendatory contract to cover repayment of the 
reimbursable portion. CAWCD has met with Reclamation and has offered to 
amend its repayment contract to cover an appropriate share of 
Reclamation's cost overruns, provided that CAWCD's repayment obligation 
is reduced by an appropriate amount to reflect the value of CAP water 
which has been transferred from non-Federal to Federal uses since the 
1988 Master Repayment Contract was signed. Reclamation has rejected 
these offers. Thus, CAWCD believes it has no repayment responsibility 
for any further funds Congress may provide that would otherwise have 
been characterized as reimbursable.
    Of the total $27,326,000 requested, $3,237,000 is earmarked to fund 
activities associated with implementation of a 1994 biological opinion 
of the U.S. Fish and Wildlife Service (FWS) pertaining to delivery of 
CAP water to the Gila River Basin. These funds are requested for 
construction of fish barriers ($2,612,000), payments to FWS for non-
native fish eradication and native fish conservation ($500,000), 
Reclamation's non-contract costs ($100,000), and public information 
program ($25,000). Litigation brought by a local environmental 
organization remains unresolved, and it is likely that it will be at 
issue for some time. CAWCD continues to believe that Reclamation should 
cease spending in this area until the pertinent issues are resolved. 
For the past three fiscal years, Congress has cut all funding for these 
activities; however, Reclamation continues to spend other CAP 
appropriations for these purposes. In fact, language in the Conference 
Report regarding the fiscal year 1999 Energy and Water Development 
Appropriations Bill provided specific direction to the Secretary of the 
Interior not to spend any current or previously appropriated funds for 
this program. Yet, Reclamation's spending continues. As in prior years, 
CAWCD recommends that Congress not appropriate funds in fiscal year 
2000 to support any Reclamation activities under the 1994 Gila River 
Biological Opinion issued by the FWS.
    CAWCD continues to support appropriations necessary to ensure 
timely completion of all CAP Indian distribution systems. However, 
Reclamation's fiscal year 2000 budget request of $11,153,000 for CAP 
Indian distribution systems is less than half of the FY1999 
appropriation for this item. Reclamation has indicated to CAWCD that 
the fiscal year 2000 funding request will be sufficient to maintain 
current development schedules, but CAWCD is concerned that the reduced 
funding request is an indication that Indian distribution systems are 
being delayed.
    CAWCD also supports the continuation of funding for the Tucson 
Reliability Division. The requested $150,000 will allow planning work 
to continue and will assist Tucson in developing and implementing a 
plan including adequate reliability for putting its CAP water 
allocation to use.
    Finally, CAWCD supports increased funding for Reclamation's West 
Salt River Valley Water Management Study. Reclamation's South/Central 
Arizona Investigations Program includes a $200,000 line item to support 
a continuing planning effort to study the integration and management of 
water resources in the West Salt River Valley, including the use of CAP 
water. CAWCD supports increasing this line item to $400,000 for fiscal 
year 2000.
    CAWCD welcomes this opportunity to share its views with the 
Committee, and would be pleased to respond to any questions or 
observations occasioned by this written testimony.
                                 ______
                                 
       Prepared Statement of George Miller, Mayor, City of Tucson
    The people of Tucson greatly appreciate the funding support your 
Committee has given over the years to the Central Arizona Project. A 
crucial element of Tucson's planning for long-term reliance on CAP 
water has been the provision of delivery reliability for Southern 
Arizona through the construction of a storage reservoir and related 
facilities as part of the Project. This feature of the Project is 
commonly known as Terminal Storage. In the past five years, quality 
problems with CAP water have caused the City to suspend direct delivery 
of the water to customers. However, the City is taking steps to resolve 
those problems. Until these problems are resolved, the City will be 
storing CAP water underground and recovering it for delivery to 
customers in lieu of direct delivery. Even after the problems with the 
treatment and direct delivery of CAP water are resolved, the City will 
not be able to shift to direct deliveries unless it is assured that 
delivery of CAP water will be reliable.
    I am writing to urge that the Bureau's ongoing environmental, 
design and planning work for Terminal Storage be continued--so that the 
City can be assured of CAP delivery reliability to assist the City in 
maintaining direct delivery of CAP water as a future option. The Bureau 
has requested that $150,000 be appropriated for the Bureau's ongoing 
environmental and planning work for Terminal Storage. The City supports 
the Bureau's request and urges that the requested funds be included in 
the fiscal year 2000 appropriation so that our City can be assured of 
CAP delivery reliability as the City works to shift its water supply 
from groundwater to CAP water. We understand that the Central Arizona 
Water Conservation District has no objection to this request because 
Terminal Storage repayment is not included in the current contract 
repayment ceiling of $1.781 million.
                      background re cap in tucson
    Until the arrival of Colorado River water through the CAP aqueduct 
in late 1992, Tucson was one of the largest metropolitan areas in the 
United States wholly dependent upon groundwater. Since the early 1900s, 
Tucson has been forced to mine groundwater--withdraw more groundwater 
than is naturally replenished to the basin--to provide water to its 
growing population. Recognizing the finite nature of the groundwater 
resource, Tucson committed in the 1970s to a strong conservation ethic. 
Over the years this has resulted in significant reductions in per 
capita groundwater use. Nonetheless, current demands for water in this 
basin exceed renewable supplies by a ratio of nearly two to one.
    For many decades, Tucson has been a major supporter of the Central 
Arizona Project to import Colorado River water to the metropolitan 
areas of the state. Tucson recognizes that CAP water will be the most 
viable long-term water source to sustain Tucson's economic and 
population growth, meet the Arizona groundwater code requirements, and 
conserve and preserve the City's groundwater resource for the future. 
In 1988, the City entered into a subcontract for 148,420 acre feet of 
CAP Municipal and Industrial water, the largest CAP M&I subcontract in 
the state.\1\ Tucson is paying the annual capital charges on this water 
and in 1999 will pay nearly $7 million to the Central Arizona Water 
Conservation District in capital charges.
---------------------------------------------------------------------------
    \1\ In recent years the Town of Oro Valley and the Metropolitan 
Domestic Water Improvement District (MDWID) have become water 
providers. The service areas of both entities were included in Tucson's 
service area when CAP allocations were made, since the City, in the 
Northwest Area Agreements, had contracted to provide CAP water for 
these service areas. Recently the City, as part of a settlement of 
litigation over MDWID's obligations under the Northwest Area 
Agreements, transferred to MDWID 9,500 acre feet of the City's CAP 
entitlement. An additional amount of CAP entitlement may in the future 
be transferred to the Town of Oro Valley in connection with the 
settlement of the obligations of Oro Valley and the City under the 
Northwest Area Agreements. Consequently, both MDWID and Oro Valley also 
have concerns over the long-term reliability of CAP deliveries in 
Southern Arizona.
---------------------------------------------------------------------------
    In 1989, after a lengthy process of study and public input, Tucson 
adopted a long range Water Resources Plan. As part of that Plan, Tucson 
made a policy decision of rapid transition from mined groundwater to 
surface water, much earlier than required by Arizona's Groundwater 
Management Code. In preparing for the use of CAP water, Tucson shifted 
its economic resources from drilling new wells and maintaining the well 
fields, to reorienting the water delivery system, and to the 
construction of a large treatment plant capable of delivering 
sufficient treated CAP water to substitute renewable water for nearly 
all of the groundwater the City was delivering. Tucson invested over 
$160 million in the facilities required for reliance on CAP water.
    Unfortunately, when Central Arizona Project water arrived in the 
Tucson area, the interaction between treated surface water and old 
galvanized steel pipes in some portions of the city resulted in the 
delivery of discolored water to seven percent of our customers who 
received the water. Although major efforts were undertaken to correct 
the problem, progress was slow. In November 1995, the city's voters 
passed an initiative measure, Proposition 200, which bars Tucson Water 
from making direct delivery of CAP water unless it receives enhanced 
treatment to substantially reduce the total dissolved solids in the 
water. In 1997, a privately sponsored initiative attempted prematurely 
to convince the people of Tucson to allow resumption of direct delivery 
and was defeated at the polls.
    Consequently, Tucson is planning to recharge and recover a 
significant portion of its CAP water until the problems associated with 
direct delivery have been resolved. Because the direct delivery of CAP 
water has been delayed, questions have been raised concerning the need 
for Terminal Storage. A purpose of my testimony today is to assure you 
that Tucson plans to solve the water quality problems and in the long 
term to resume direct delivery of CAP water. Tucson needs Terminal 
Storage.
    Growth projections put the Tucson area's population at 1.2 million 
by 2025, and at 2.5 million 100 years from now. Tucson Water delivered 
approximately 115,000 acre-feet of water in 1997. Tucson Water's 
service area is projected to need approximately 170,000 acre-feet in 
2025, and nearly 250,000 acre-feet in the year 2100. Regional needs are 
even greater. Tucson's subcontract for CAP water is 138,920 acre feet. 
An additional 25,000 acre feet is allocated to private water companies 
and state land in the area. It appears that this area's current CAP 
allocations will be totally utilized by the year 2025.
    Tucson is, and must remain, committed to the Central Arizona 
Project to support the City's existing population as well as its future 
growth. I assure this Committee that Tucson's long-term commitment to 
the CAP remains intact, despite the water quality problems experienced 
by the City when it directly delivered CAP water to its customers. 
After describing these problems, I will address our support for 
$150,000 of the proposed appropriations for the Tucson Reliability 
Division of the CAP for fiscal year 1999.
            technical cap implementation problems in tucson
    Conversion of Tucson Water's service area population of nearly 
600,000 people from groundwater to surface water has been a significant 
challenge for the City. In order to comply with anticipated new 
stringent EPA requirements, Tucson constructed a state-of-the-art water 
treatment plant. We operated a pilot plant in Phoenix to identify and 
deal with the problems that could be encountered when CAP water was 
introduced in Tucson. A major public relations campaign was implemented 
to prepare our customers for the changes they might encounter when CAP 
water arrived. When the first 84,000 customers were transferred from 
groundwater to CAP water in early 1993, 7 percent of those customers 
experienced problems on a scale that had not been anticipated. The 
surface water caused encrusted materials in old galvanized steel pipe 
to break loose and resulted in the delivery of discolored water to 
approximately 6,000 customers. The City established a special office to 
deal with customer complaints and employed nationally recognized 
experts to help solve the problem. However, a quick solution could not 
be achieved, so the areas experiencing major quality were returned to 
groundwater deliveries.
    During 1994, the City continued to deliver treated CAP water to 
customers in areas with newer pipelines. However, after the CAP 
aqueduct was closed down in November and December, 1994 for siphon 
repair, the Mayor and Council decided that deliveries of treated CAP 
water would not be resumed to any customers until the problems with 
direct delivery were fully resolved.
    To assure that direct delivery of CAP water would not resume until 
the quality of the water improved, the voters of the city approved a 
citizens' initiative known as Proposition 200 in November 1995. It 
provides that CAP water cannot be directly delivered to Tucson Water 
customers unless the quality is equivalent to high quality groundwater 
in Avra Valley west of Tucson. Enhanced treatment will be needed if CAP 
water quality is to be improved to Avra Valley standards.
    In 1996 the City contracted with the Bureau of Reclamation to 
conduct pilot plant tests of enhanced treatment techniques and estimate 
costs. This study is not yet complete. Meanwhile the City is developing 
ways to continue to purchase CAP water and store it for future use. The 
Mayor and Council have been clear and united in continuing their 
commitment to taking substantial quantities of CAP water each year. 
However, the City must deal with the quality issues which have arisen 
because of the interaction between CAP water and the City's older pipe 
system. Economic consequences will include pipeline repair and 
accelerated replacement, costs for homeowner damages, and, as described 
above, the possible construction of a new enhanced treatment plant.
    We will preserve our basic conservation ethic, and our long-term 
need for CAP water to meet the needs of Tucson's growing population 
will continue. The CAP Use Study for Quality Water by Dames & Moore, 
completed in the Fall of 1996, reported on alternatives for utilization 
of the City's CAP allocation. Its long-term recommendation included 
direct delivery of substantial quantities of treated CAP water. 
Terminal Storage is critically necessary for such direct delivery.
    To address its problem with corroded pipes, the City is 
accelerating its main replacement program. More than half of the 200 
miles of old galvanized water pipes have been replaced. The City is 
also conducting a major new program to determine the level of water 
quality acceptable to our water customers and the methods for assuring 
that this level is maintained. A pilot program to deliver blended CAP 
and groundwater to volunteer neighborhoods is under way.
                            terminal storage
    The problems Tucson has had switching from groundwater to CAP water 
highlight the need for a storage facility near the terminus of the 
aqueduct--Terminal Storage, as the final element of the Central Arizona 
Project in Southern Arizona. A reliable supply of CAP water is very 
important to Tucson. It is also quite important to the Tohono O'odham 
Nation. The Nation has a contract for 37,800 acre feet of CAP water, 
and is to receive an additional 28,200 acre feet of water under the 
terms of the Southern Arizona Water Rights Settlement Act of 1982. This 
may also be CAP water. The Nation has urged that Terminal Storage be 
provided as part of the Central Arizona Project so that a reliable 
supply of water will be provided to the Nation and its people.
    The Bureau has been doing detailed planning and continuing the NEPA 
processes on a terminal storage proposal that has been approved by the 
City and the CAWCD board. The principal elements of the proposal are as 
follows:
    1. A 15,000 acre foot surface storage reservoir with 350 cfs 
gravity flow to the Tucson Water Treatment plant;
    2. Joint CAP recharge facilities with the CAWCD;
    3. Recovery of recharged water from: a. Two of Tucson Water's 
existing exterior wellfields, Avra Valley and Santa Cruz, with the 
flexibility to introduce flows either at the treatment plant or into 
the surface reservoir; and b. A new Central Avra Valley wellfield, 
located on City-owned property with the pumped supply introduced 
directly into the CAP canal on the discharge side of the Brawley 
Pumping Plant.
    4. Operation of the Tucson wellfields to be turned over to the 
CAWCD, under a cooperative agreement, during any CAP outages.
    The estimated cost of the federal portion of this project is $70 
million for the storage facility; the cost of the local portion is 
approximately $50 million for existing and new wellfields and 
pipelines. The draft Environmental Impact Statement for Terminal 
Storage was completed in April 1995. The final EIS was completed last 
year.
    We have urged the Bureau to continue the environmental work and 
planning for Terminal Storage and the Bureau plans to do so, albeit at 
a reduced level. Its appropriation request seeks $.12 million for work 
in fiscal year 2000 related to Terminal Storage. The City respectfully 
asks that this request be approved so that Terminal Storage can remain 
alive while Tucson resolves its CAP problems and develops its long term 
programs to return to direct delivery of CAP water.
                                 ______
                                 
 Prepared Statement of Bernadine Boyd, President, Fort McDowell Tribal 
                Council, Fort McDowell Indian Community
    On behalf of the Fort McDowell Indian Community [Community], I 
request that the sub-committee appropriate a supplement to the fiscal 
year 2000 budget for the Bureau of Reclamation in the amount of $3.2 
million, representing the cost of environmental mitigation associated 
with a loan pursuant to the Small Reclamation Projects Act, 43 U.S.C. 
Sec. 422a [small project loan], authorized and funded as part of the 
Community's 1990 water settlement.
                   the fort mcdowell water settlement
    As part of the Community's 1990 water settlement, Congress directed 
that the Secretary provide the Community a $13 million small project 
loan, to be repaid at no interest over a fifty year period. Id., 
Sec. 408(e). The Congress further provided that, ``The Secretary [of 
Interior] is directed to carry out all necessary environmental 
compliance . . .'' and further ``authorized to be appropriated such 
sums as may be necessary to carry out all necessary environmental 
compliance associated with this settlement, including mitigation 
measures adopted by the Secretary.'' Id., Sec. 410 (a) & (b). To date, 
the environmental mitigation required by the Secretary as part of the 
small project loan has been undertaken largely by and at the expense of 
the Community. The Congress has not appropriated funds necessary to 
allow the Secretary to assume these burdens. That is the purpose of 
this request.
    During the negotiations leading to the 1990 water settlement, the 
Community made it clear that it required wet water, not simply a paper 
water right: that is, the practical ability to deliver the necessary 
water for full development of the reservation. The Community's water 
budget was based on this principle. Most importantly for present 
purposes, the federal cost sharing in the settlement was as well. In 
correspondence between the Community and the Department, the Community 
laid out its proposal regarding federal cost sharing as follows: the 
Community required sufficient funding to enable it to beneficially use 
its entire water budget; the Community determined those costs to be 
approximately $38 million, in consultation with its engineer and 
agricultural economists; the Community agreed to the $13 million small 
loan for its agricultural development and agreed to apply that amount 
against development costs, resulting in the Community's proposed 
development fund of $25 million. In the final settlement, the State of 
Arizona contributed $2 million to the development fund and the United 
States contributed $23 million. Id., Sec. 408.
    Clearly, the development anticipated through the small project loan 
at the time of the settlement was a key component of the overall 
settlement. As stated in the Community's testimony in support of the 
bill, the small project loan was expected to develop approximately 
1,600 acres of the reservation. Once finalized, the loan application 
showed development of 1,584 acres, with state of the art drip 
irrigation for permanent crops.
        environmental mitigation costs of the small loan project
    At the time of the settlement, the parties anticipated little, if 
any, environmental mitigation would be required as part of the small 
project loan. The Secretary was directed to undertake any required 
environmental mitigation and the Congress authorized appropriations to 
pay for such. However, these costs were not appropriated at the time 
since the nature and extent of environmental mitigation, if any, were 
unknown.
    As the project progressed, the Fish and Wildlife Service and Bureau 
of Reclamation [Bureau] required substantial environmental mitigation. 
Two of these mitigation requirements imposed obligations with 
significant negative economic impacts on the Community.
    First, before land clearing for the project began, six significant 
cultural (archaeological) sites were identified by the Bureau 
archaeologists. These sites could have been cleared for development 
through excavation recovery. To avoid the substantial delay in the 
project this would cause and the substantial cost of excavation to the 
Bureau, the Bureau proposed and the Community agreed to simply avoid 
these sites. These six sites are now fenced off and are surrounded by 
developed fields. The irrigation system is built around these sites but 
does not include them. Principally because these sites were excluded, 
the total acreage developed by the project is 1,357, rather than the 
1,584 expected at the time of the settlement.
    At the time the cultural sites were fenced, it was estimated that 
mitigation of the sites by excavation would have cost approximately $3 
million. Recently, the Community obtained an estimate from 
Archaeological Consulting Services, Ltd., for the excavation and 
recovery of these cultural sites. Their more current estimate shows 
that the cost could now exceed $9 million. The Secretary saved 
literally millions by avoiding the sites rather than excavating them. 
However, the effect of this approach was to impose mitigation related 
costs on the Community. Even if the Secretary were to undertake the 
excavation of these sites now, the cost to place those sites into 
development would be prohibitive. It would require redesign of the 
entire project and the extension of laterals within these isolated 
pockets. For all practical development purposes, these sites are now 
isolated and forever lost to the Community.
    Second, for the project to move forward, the Bureau and Fish and 
Wildlife Service required biological or habitat mitigation. Because it 
simply took the project lands out of desert habitat, the Community was 
obliged to set aside other land as desert habitat. The Bureau could 
have set aside land off reservation for this purpose. Instead, the 
Bureau required that the Community set aside 330 acres of Verde River 
front property on the reservation as permanent desert habitat in 1992. 
This 330 acres cannot be developed or even used by Community members. 
The Community recently obtained an appraisal of these 330 acres, which 
showed a market value of $4.9 million.
    Apart from the obvious costs to the Community summarized above, 
these steps for environmental mitigation have affected overall value of 
the project to the Community as well. As a result of the environmental 
mitigation, the project is reduced in size from 1,584 acres to 1,357 
acres. The Bureau has worked with the Community to identify additional 
reservation land that can be developed to make up for this acreage 
shortfall. However, these replacement lands are class III lands, much 
lower quality and productivity than the class I lands that were 
withdrawn from the project for environmental mitigation purposes. In 
addition, these substitute class III lands have higher development 
costs. An additional $1.9 million, over and above the original $13 
million loan, will now be required to place these substitute lands into 
development.
    Even more disturbing is the reduction in the expected economic 
benefits from the project. Under the project as originally approved in 
1990 (1,584 acres in development with no environmental mitigation costs 
imposed on the Community), the Community expected an internal rate of 
return of 6.6 percent. As the project now stands, there are 1,357 acres 
developed, with $4.9 million in costs for habitat mitigation, resulting 
in an internal rate of return of less than 2 percent.
    Clearly, this is not the bargain struck by the Community in the 
1990 water settlement. By reducing the developed acreage, the Community 
has fallen short of the full development goal upon which the settlement 
was premised. By imposing the environmental mitigation burden on the 
Community rather than the Secretary, the economic value to be derived 
from the developed acreage is dramatically reduced. In fact, the 
combined environmental mitigation costs and obligations imposed on the 
Community may actually exceed the present value of the loan.
              the appropriation proposed by the community
    As the project neared completion last February, the Community 
presented this problem to the Department of the Interior. The Community 
made a proposal to the Department that, in its view, would place the 
Community roughly in the position contemplated at the time of the water 
settlement. Specifically, the Community proposed that the Department 
forgive repayment of the small project loan. This would, in turn, have 
released an escrow account of $1 million, plus interest, that was set 
aside by the Community in 1990 to guarantee repayment of the loan. The 
Community proposed to complete the project to the full 1,584 acres with 
its own funds, a cost now estimated at $1.9 million. Finally, the 
Community proposed that restrictions on the 330 acre habitat mitigation 
area be lifted, in favor of regulation by Community under its own land 
use plan that restricts development on a much larger part of the 
reservation. Significantly from the Community's point of view, the 
Community land use plan does not restrict members' use of the area, as 
does the present restriction.
    The Department studied the Community's proposal for months and 
informally decided that, for technical budgetary reasons, it could not 
solve the problem administratively. Although the Department 
acknowledges its responsibility for environmental mitigation under the 
water settlement act, Congress must appropriate the funds authorized by 
the act so that the Department can fulfill its responsibility.
    The Community proposes that its original proposal to the Department 
be implemented through an appropriation for the environmental 
mitigation costs already authorized in the water settlement. The 
Community believes these costs can be calculated as follows:
  --$3.2 million is a conservative estimate of the direct costs to the 
        Community of environmental mitigation: the Community proposes 
        to pay the $1.9 million necessary to complete the project to 
        1,584 acres; the Community will also suffer a long term 
        reduction in the value of the project because of the 
        substitution of class III for class I lands, estimated at $1.3 
        million (calculated by subtracting present value of project as 
        originally approved from present value of project as completed 
        with substitute lands, or $8.735 million minus $7.474 million 
        calculated at 6 percent interest; these calculations reflect a 
        delay in achieving full benefits as well as a reduction in 
        annual crop benefits);
  --$3.2 million also approximates the present value of the $13 million 
        small loan repayment, using an interest rate of 6 percent;
  --Congress should appropriate $3.2 million to the Bureau of 
        Reclamation, as representing the reasonable costs of 
        environmental mitigation, with direction that the Bureau use 
        the appropriation to close out the Community's small loan and 
        forgive repayment, thereby lifting all Bureau restrictions and 
        responsibility for the project, subject of course to full 
        payment of any unused portion of the original $13 million to 
        the Community for use in completing the project;
  --with the small loan closed out, the escrow account held by the 
        Community to guarantee repayment will be closed, which funds 
        can be dedicated, along with other necessary Community funds, 
        to complete the project to the originally contemplated 1,584 
        acres;
  --with the small loan closed out, all restrictions imposed on 
        reservation land by the Department as part of the loan must be 
        lifted, with the 330 acre habitat mitigation area reverting to 
        the Community's land use plan.
    These steps will place the Community in the same approximate 
position as that anticipated at the time of the settlement--sufficient 
funding to apply its full water budget to beneficial use. The 
circumstances here arguably support direct monetary compensation to the 
Community, in light of the Department of the Interior's failure to 
comply with its obligation to assume responsibility for all 
environmental mitigation under the water settlement. However, the 
Community does not propose that here. Rather, the Community proposes 
that funding representing the Community's costs of environmental 
mitigation be appropriated for the Bureau so that the Bureau can close 
out the loan. Done any other way, the United States' costs will be much 
higher and the final completion of the project, up to the anticipated 
1,584 acres, will be greatly delayed.
    The Fort McDowell water settlement was a turning point for the 
Community. The irrigation project funded by the small project loan has 
been constructed and 86,000 pecan and citrus trees have been planted. 
The reservation has literally begun to bloom as these permanent crops 
reach fruition. By any measure, the water settlement in general and the 
small project loan in particular are successful. With this 
appropriation, the final touches will be put on the settlement and the 
United States and the Community can be proud of the result. As always, 
the Community appreciates your support and wishes to thank the Arizona 
congressional delegation in particular for its efforts on the 
Community's behalf.
                                 ______
                                 
    Prepared Statement of Carol W. West, Executive Director, Tucson 
                         Regional Water Council
    The Tucson Regional Water Council (TRWC) thanks you for the 
opportunity to provide testimony concerning the Bureau of Reclamation's 
fiscal year 2000 budget request. TRWC is a non-profit organization in 
Tucson, Arizona whose members are water providers, business and 
professional people, and concerned citizens dedicated to ensuring a 
long-term stable, quality water supply for Tucson and the surrounding 
region. Our members appreciate the Committee's long support of the 
Central Arizona Project (CAP), and we owe a debt of gratitude to you 
and your colleagues for your years of dedication to this project.
    TRWC wishes to address the specific Bureau of Reclamation budget 
line item: Tucson Reliability Division, which refers to system 
reliability to utilize CAP water. In view of the importance to the 
Tohono O'odham Nation, the towns of Marana and Oro Valley, Metropolitan 
Domestic Water Improvement District, and the City of Tucson, TRWC 
requests that the Committee support the Bureau's small request for 
funding ($150,000) in the fiscal year 2000 bill.
    There is widespread recognition among regional water providers that 
the Tucson area will eventually find it necessary to directly utilize 
CAP water for municipal purposes. The present move to recharge much of 
the CAP water has been in response to customer dissatisfaction with the 
initial treatment and delivery provided by Tucson Water. However, 
recharging all the CAP water will not efficiently supply municipal 
needs for the long-term.
    Extensive testing conducted over the past five years shows that the 
problems experienced by water users in 1992-94 can be avoided with the 
proper pH adjustment and the addition of the corrosion inhibitor 
polyphosphate. A voluntary neighborhood demonstration project sponsored 
by the City of Tucson will be implemented shortly to show that a blend 
of groundwater and recharged CAP water can produce water of acceptable 
quality. The next logical step is to demonstrate to the community that 
a blend of groundwater and properly treated CAP water is also an 
acceptable, and more affordable option.
    TRWC believes that providing reliability for the Tucson region is 
critical to completing the Central Arizona Project and reducing 
reliance on our dwindling groundwater supplies. Unless this region has 
system reliability, it cannot achieve the most efficient uses of its 
CAP allocations . . . not for municipal uses or other uses such as 
mining. Direct utilization requires a stable and sure supply, and 
funding the Bureau of Reclamation's request will enable the agency to 
continue efforts to provide our region with the reliability that will 
be vitally needed.
    TRWC respectfully requests that this specific Bureau of Reclamation 
budget line item Tucson Reliability Division be approved. Thank you for 
your serious consideration of this request.
                                 ______
                                 
       Prepared Statement of Skip Rimsza, Mayor, City of Phoenix
    On behalf of the City Council and the residents of Phoenix, the 
sixth largest city in the country, I would like to present the 
following testimony. I am pleased to present this testimony in support 
of appropriations to help our city and region continue to foster a 
partnership with the federal government to achieve our shared 
objectives. We have been working with our delegation, this Committee, 
the Corps of Engineers, the Bureau of Reclamation, and other federal 
agencies to promote environmental restoration and flood control needs 
in the most effective and economical way. We sincerely appreciate the 
past support of this Committee and trust we will continue our 
partnership to see several critical projects through to a successful 
conclusion.
    There are three initiatives under way which this Committee has 
supported in the past and are included in the President's Budget. 
Continued support is essential to achieve the public benefits for which 
the projects are being designed.
                   rio salado and rio salado phase ii
    We have been working for nearly five years with the Corps of 
Engineers in a cost-shared partnership to study a project to restore 
riparian wetlands along the Salt River in downtown Phoenix and Tempe. 
The wetlands were lost over many years as a result of diversion of Salt 
River flows for irrigation of the surrounding region.
    In cooperation, the Corps, the City of Tempe, and we have developed 
a cost-effective plan called Rio Salado to restore about seven miles of 
the lost riparian wetlands. The plan has been approved by the Secretary 
of the Army and the Administration and was included for authorization 
in the Senate passed Water Resources Development Act of 1998. Even 
though the House did not act on the bill, we are hopeful that Congress 
will pass a WRDA 99 that will include authorization for the Rio Salado 
project. In the meanwhile, preconstruction engineering and design is 
continuing.
    The Rio Salado project is the centerpiece of our efforts to 
revitalize the environment and the economy of a part of our city that 
has not enjoyed the fruits of progress as have other parts of the city. 
The President's budget request is both sufficient and essential to keep 
this project on schedule. We urge you to support the appropriation of 
$1,545,000 for design of the Phoenix section of the project and the 
$100,000 for the Tempe section. We also seek $100,000 to begin Rio 
Salado construction subject to WRDA 1999 authorization. This funding is 
critical if the Corps is to accelerate its schedule and begin to 
contract construction in late fiscal year 2000.
    The Rio Salado Phase II portion of this environmental restoration 
project was included in the Corps of Engineers Reconnaissance Study in 
1996 which led to the Rio Salado project. It is essentially a 
continuation of the Rio Salado project and would connect the Rio Salado 
project either to Tempe or to Tres Rios. We are seeking $200,000 for 
the Corps to begin the feasibility study of this portion of the project 
which will determine if the project moves upstream or downtstream in 
the next phase. Completion of the study and construction of the project 
would make much of the corridor whole. We strongly urge your support 
for this appropriation.
                               tres rios
    This is a truly unique project the outcome of which holds promise 
to benefit the entire nation as well as the Phoenix region in 
particular. The Bureau of Reclamation has constructed a demonstration 
project, which uses wastewater from the regional wastewater treatment 
plant to create wetlands near the discharge location. The Corps of 
Engineers is studying expansion of those wetlands and the Bureau is 
looking at ways to reuse the wastewater once again for groundwater 
recharge in the Agua Fria River after it has flowed through the 
wetlands. The demonstration project to date has exceeded all 
expectations.
    It is critical that we continue this project at full pace. The 
President's Budget includes $486,000 for the Corps to complete its 
feasibility study to expand the demonstration project and $50,000 to 
begin preconstruction engineering and design. We believe this is 
sufficient for the Corps.
    The Bureau's budget contains $400,000 for its share of the effort, 
which we support. We are seeking an additional $200,000 to allow the 
Bureau to begin studies on the Agua Fria River groundwater recharge 
portion of the project. This work should be undertaken under the 
separate authority for a Metropolitan Phoenix Water Reclamation and 
Reuse project under section 1608 of the Bureau's Title XVI Reclamation 
and Reuse Program. It is important to have that portion of the study 
completed in about the same time frame as the rest of the study and 
design work to avoid losing the water coming from the wetlands 
restoration project.
                  gila river, northeast drainage area
    This is another innovative study designed to anticipate potential 
flood control problems from the rapidly expanding development on the 
alluvial plains in the Northeast section of the greater Phoenix area. 
The results of the study will allow local jurisdictions to plan and 
regulate development in a coordinated way throughout the region to 
avoid creating flooding problems as has happened in many other rapidly 
growing areas in the nation. We believe that spending a little time and 
planning effort now will reap large savings in flood control costs and 
flood damages in the future. The Corps budget contains $342,000 for 
this study that we believe is enough to keep it on schedule.
                                summary
    All three projects, Rio Salado with its Rio Salado Phase II 
extension, Tres Rios, and the Gila River, will act in synergy to 
restore lost environmental quality and provide for creative management, 
conservation, and reuse of scarce water quantities in the Phoenix 
metropolitan area. In summary, we are requesting that you retain 
$1,645,000 for the Rio Salado project ($1,545,000 for the Phoenix reach 
and $100,000 for the Tempe reach), add $100,000 in construction funds 
for Rio Salado, include $200,000 to extend the Rio Salado study to 
Phase II, that you retain the $486,000 for the Corps of Engineers 
feasibility study of the Tres Rios project and $50,000 for Corps 
preconstruction engineering and design, that you include $400,000 for 
the Bureau's portion of Tres Rios, and that you include $200,000 for 
the Bureau to proceed with the groundwater recharge study at the Agua 
Fria.
    We sincerely appreciate the opportunity to present this request and 
thank you very much for your courtesy and consideration. We would be 
pleased to provide any additional information you may need.
                                 ______
                                 
  Prepared Statement of Jack A. Barnett, Executive Director, Colorado 
                   River Basin Salinity Control Forum
                colorado river salinity control program
    This testimony is in support of funding for the Colorado River 
Basin salinity control program. Congress has designated the Department 
of the Interior, Bureau of Reclamation (Reclamation), to be the lead 
agency for salinity control in the Colorado River Basin. This role and 
the authorized program were refined and confirmed by the Congress when 
Public Law 104-20 was enacted into law. A total of $17,500,000 is 
requested for fiscal year 2000 to implement the needed and authorized 
program. Failure to appropriate these funds will result in significant 
economic damage in the United States and Mexico and threaten compliance 
with adopted basin-wide water quality standards in the future. The 
President's request of $12.3 million is a level funding request and the 
Forum appreciates this Administration's support of the program. 
Nonetheless, studies have shown that implementation of the program has 
fallen behind the needed pace to prevent salinity concentrations from 
exceeding numeric criteria adopted in connection with water quality 
standards for the River Basin while the Basin states continue to 
develop their Compact apportioned waters of the Colorado River. 
Concentrations of salts in the water above the criteria would cause 
hundreds of millions of dollars in damage in the United States and 
result in poorer quality water being delivered by the United States to 
Mexico. For every 30 mg/l increase in salinity concentrations, there is 
$100 million in additional damages in the United States. The Forum, 
therefore, believes a rate of implementation of the program beyond that 
requested by the President is necessary.
    The program authorized by the Congress in 1995 has proven to be 
very successful and very cost effective. Proposals from the public and 
private sector to implement salinity control strategies have far 
exceeded the available funding. Hence, Reclamation has a backlog of 
proposals and is able to select the best and most cost-effective 
proposals. Funds are available for the Colorado River Basin states' 
cost sharing at the level requested by the Forum. Water quality 
improvements accomplished under Title II of the Colorado River Basin 
Salinity Control Act also benefit the quality of water delivered to 
Mexico. Although the United States has always met the commitments of 
the International Boundary & Water Commission's (Commission) Minute 242 
to Mexico with respect to water quality, the United States Section of 
the Commission is currently addressing Mexico's request for better 
water quality at the Southerly International Boundary. Consideration of 
all of this argues for a higher level of funding than requested by the 
President.
                                overview
    The Colorado River Basin Salinity Control Program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
made, through Minute 242, to Mexico concerning the quality of water 
being delivered to Mexico below Imperial Dam. Title II of the Act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly legislated Clean Water Act. Initially, the Secretary 
of the Interior and the Bureau of Reclamation were given the lead 
federal role by the Congress. This testimony is in support of funding 
for the Title II program.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. Congress revised the Act in 1984. That revision, while keeping 
the Secretary of the Interior as lead coordinator for Colorado River 
Basin salinity control efforts, also gave new salinity control 
responsibilities to the Department of Agriculture, and to a sister 
agency of the Bureau of Reclamation--the Bureau of Land Management. 
Congress has charged the Administration with implementing the most 
cost-effective program practicable (measured in dollars per ton of salt 
removed). The Basin states are strongly supportive of that concept as 
the Basin states consider cost sharing 30 percent of federal 
expenditures up-front for the salinity control program, in addition to 
proceeding to implement their own salinity control efforts in the 
Colorado River Basin.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of Gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the seven-state 
coordinating body for interfacing with federal agencies and Congress to 
support the implementation of a program necessary to control the 
salinity of the river system. In close cooperation with the 
Environmental Protection Agency (EPA) and under requirements of the 
Clean Water Act, every three years the Forum prepares a formal report 
analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program necessary to keep the salinities at or below 
the levels measured in the river system in 1972.
    In setting water quality standards for the Colorado River system, 
the salinity levels measured at Imperial, and below Parker, and Hoover 
Dams in 1972 have been identified as the numeric criteria. The plan 
necessary for controlling salinity has been captioned the ``plan of 
implementation.'' The 1996 Review of water quality standards includes 
an updated plan of implementation. The level of appropriation requested 
in this testimony is in keeping with the agreed upon plan. If adequate 
funds are not appropriated, state and federal agencies involved are in 
agreement that the numeric criteria will be exceeded and damage from 
the high salt levels in the water will be widespread in the United 
States as well as Mexico and will be very significant.
                             justification
    The $17,500,000 requested by the Forum on behalf of the seven 
Colorado River Basin states is the level of funding necessary to 
proceed with Reclamation's portion of the plan of implementation. This 
funding level is appropriate if salinity in the Colorado River is to be 
controlled so as not to exceed the established numeric criteria and 
threaten the associated water quality standards. In July of 1995, 
Congress amended the Colorado River Basin Salinity Control Act. The 
amended Act gives Reclamation new latitude and flexibility in seeking 
the most cost-effective salinity control opportunities, and it provides 
for proposals and more involvement from the private as well as the 
public sector. Early results are indicating that salt loading is being 
prevented at costs often less than half the cost under the previous 
program. Congress's recent review of the program and the amendments it 
authorized have made the program more effective in removing salt from 
the Colorado River in a most cost-effective manner.
    The Basin states have agreed to cost sharing on an annual basis, 
which adds 43 cents for every federal dollar appropriated. The Colorado 
River Basin Salinity Control Forum, working with EPA, has agreed upon a 
plan of implementation for salinity control, and that plan justifies 
the level of funding herein supported by the Forum to maintain the 
water quality standards for salinity adopted by the Basin states. The 
federally chartered Colorado River Basin Salinity Control Advisory 
Council, created by the Congress in the Salinity Control Act, has met 
and formally supports the requested level of funding. The Basin states 
urge the Subcommittee to support the funding as set forth in this 
testimony.
                     additional support of funding
    In addition to the dollars identified above for the implementation 
of the newly authorized program, the Salinity Control Forum urges the 
Congress to appropriate necessary funds, as identified in the 
President's budget, to continue to maintain and operate salinity 
control facilities as they are completed and placed into long-term 
operation. Reclamation has completed the Paradox Valley unit which 
involves the collection of brines in the Paradox Valley of Colorado and 
the injection of those brines into a deep aquifer through an injection 
well. The continued operation of the project and other completed 
projects will be funded through Operation and Maintenance funds.
    In addition, the Forum supports necessary funding, as identified in 
the President's budget, to allow for continued general investigation of 
the salinity control program. It is important that Reclamation have 
planning staff in place, properly funded, so that the progress of the 
program can be analyzed, coordination between various federal and state 
agencies can be accomplished, and future projects and opportunities to 
control salinity can be properly planned to maintain the water quality 
standards for salinity so that the Basin states can continue to develop 
the Compact apportioned waters of the Colorado River.
                                 ______
                                 
Prepared Statement of Larry Libeu, President, Western Coalition of Arid 
                            States (WESTCAS)
    The Western Coalition of Arid States (WESTCAS) is pleased to submit 
comments for the record, regarding programs contained in the U.S. 
Bureau of Reclamation's (Reclamation) fiscal year 2000 budget, for the 
hearing on Energy and Water Appropriations. WESTCAS is an organization 
of cities, towns, water and wastewater districts and associate agencies 
from the states of Arizona, California, Colorado, Idaho, Nevada, New 
Mexico, Oregon, and Texas and who are dedicated to environmentally 
conscientious planning of water resources and development of water 
quality standards for the unique ecosystems of the arid West. Of 
particular interest to WESTCAS and its member agencies are the federal 
programs that can further our goals through partnerships and 
scientifically sound regulation and guidance concerning our most 
precious resource--water.
             colorado river basin salinity control program
    Since 1974, federal agencies and the seven basin states have been 
working together to maintain the Colorado River's salinity levels 
within a range which does not limit the economic, recreational, and 
environmental uses of the river. The Colorado River is a major source 
of water supply for the urban and agricultural regions of Utah, Nevada, 
Arizona, and Southern California. It is important that Congress 
continue to fund the federal portions of this successful program. With 
continued development of water sources in the Upper Colorado Basin and 
continued shortfalls in salinity control funding, the salinity levels 
will continue to increase in the Lower Colorado River Basin. The 
increased salinity in the Lower Colorado River Basin will have a long-
term detrimental financial impact on agricultural and urban activities 
in the areas dependent on the Lower Colorado River water.
    The Colorado River Basin Salinity Control Forum (Forum), the 
interstate organization responsible for coordinating the Basin states' 
salinity control efforts, issued its 1996 Review, Water Quality 
Standards for Salinity, Colorado River System (1996 Review) in June 
1996. The 1996 Review found that additional salinity control was 
necessary beginning in 1994 to meet the numeric criteria in the water 
quality standards adopted by the seven Colorado River Basin states and 
approved by the U.S. Environmental Protection Agency, with normal water 
supply conditions. For the last four years, federal appropriations for 
Reclamation have not equaled the Forum-identified funding need for the 
portion of the program the Federal Government has the responsibility to 
implement. It is essential that implementation of Reclamation's 
basinwide salinity control program be accelerated to permit the numeric 
criteria to be met again under average annual long-term water supply 
conditions, making up the shortfall. To assist in eliminating the 
shortfall, the Forum once again recommends that Reclamation utilize up 
front cost sharing from the Basin states to supplement federal 
appropriations. This concept has been embraced by Reclamation and is 
reflected in the President's proposed budget.
    The President's proposed fiscal year 2000 budget contains funding 
of $12 million for implementation of the basin-wide program. WESTCAS 
requests that Congress appropriate $17.5 million for implementation of 
the basin-wide program, an increase of $5.5 million from that proposed 
by the President. This level of funding is necessary to meet the 
salinity control activities schedule in order to maintain the state 
adopted and federally approved water quality standards.
                water recycling and groundwater recovery
    Projects funded under Title XVI of the Reclamation Projects 
Authorization and Adjustment Act of 1992 (Public Law 102-575) will 
greatly improve water supply reliability and the environment. Title XVI 
projects authorized by the Reclamation Recycling and Water Conservation 
Act of 1996 (Public Law 104-266), but not included in the President's 
proposed fiscal year 2000 budget for the U.S. Bureau of Reclamation, 
are considered to be equally important. Implementation of such projects 
is difficult without combined federal, state and regional assistance.. 
These authorized projects will greatly improve water supply reliability 
and the environment through effective water recycling and recovery of 
contaminated groundwater in the arid west. WESTCAS strongly requests 
that Congress increase the appropriation level for Reclamation's Title 
XVI program from $31,514 million to $100 million in order to proper 
fund all of these authorized projects.
    WESTCAS supports the funding in the President's proposed fiscal 
year 2000 Budget for the following programs which are important to 
ongoing activities in our region:
                     efficiency incentives program
    Reclamation is encouraging innovation in water resources management 
to help meet the water conservation objectives of the Reclamation 
Reform Act of 1982. The program provides partnership capability for 
Reclamation and its customers, in cooperation with States and other 
entities, in seeking solutions to water use efficiency and 
conservation. The program supports technical assistance to districts in 
planning, evaluating, and implementing efficiency measures. Activities 
are located within all Federal water projects in the 17 Western States.
               endangered species recovery implementation
    Reclamation is designated as a cooperative participant in recovery 
measures to minimize the potential effects of Reclamation actions upon 
listed or candidate species and reduce the potential for more stringent 
requirements being imposed upon Reclamation projects as a result of 
formal consultation pursuant to Section 7(a)(2) of the Endangered 
Species Act. Activities are located throughout the region including the 
Upper and Lower Colorado River basins.
                 national fish and wildlife foundation
    This program operates under a delegated grant of authority for fish 
and wildlife assistance programs from the Secretary to the Commissioner 
of the Bureau of Reclamation. Reclamation's funds are used for fish and 
wildlife restoration projects in partnership with local, state, tribal, 
and/or nongovernmental organizations. Funding for the Foundation, and 
the Foundation's support for programs like the Lower Colorado River 
Multi-Species Conservation Program, are extremely important to the 
development of comprehensive solutions to the complex endangered 
species issues.
               desalination research development program
    This program addressees problems and technology needs for water 
supply augmentation, water quality improvement and protection. Studies 
are directed at reducing costs and minimizing environmental impacts 
from salt removal, developing commercially attractive technologies, 
improving surface and groundwater quality, and facilitating cost-
effective conversion of previously unusable water resources to usable 
water supplies.
                 water management conservation program
    This program provides for a water quality monitoring program in 
cooperation with state and local entities. Funding requests provide for 
the coordination of water management and conservation efforts with the 
water users and other non-Federal entities. It also provides for water 
conservation centers and training, improvements in water measurement 
and accounting.
                      wetlands development program
    The Wetlands Development Program allows for the development of 
design criteria, strategies, and implementation of wetland enhancement 
projects which provide for water quality, wildlife habitat, and 
aesthetic purposes. Projects are located throughout the 17 Western 
States and include demonstration projects using reclaimed wastewater 
from existing treatment facilities in Arizona and wetlands and wildlife 
habitat in Nevada.
               california bay-delta ecosystem restoration
    The Bay-Delta system provides habitat for fish and wildlife and is 
also critical to California's economy serving as the hub of 
California's water system, supplying more than two-thirds of the 
State's 32 million residents with a portion of their drinking water and 
irrigating 45 percent of the nation's produce. In September 1996, the 
President signed the California Bay-Delta Environmental Enhancement Act 
which authorizes $143.3 million per year in Federal funding for Bay-
Delta ecosystem restoration activities in 1998, 1999, and 2000. Federal 
money for the Bay-Delta will fund an array of critical ecological 
improvements, including habitat restoration, watershed protection, 
fishery enhancement and water quality improvement.
    Recently your Subcommittee was provided with a report by the Bureau 
of Reclamation ``Annual Costs of Bureau of Reclamation Project 
Operation and Maintenance for Fiscal years 1993-97''. WESTCAS has not 
had the time to adequately review the report, however, several of our 
members have raised the issue for our Budget Committee to review the 
report because of the tight budget constraints their district's are 
confronted with and the possibility of having inappropriate costs being 
passed on in their own operating budgets. We will forward our comments 
on to your subcommittee in the near future and would ask that your 
subcommittee look further into the details contained in the report.
                               conclusion
    Thank you for your consideration of our testimony. We believe our 
comments emphasize the importance of continued funding for Reclamation 
water resources management and ecosystem restoration programs that are 
critical for water supply reliability in the arid West.
                                 ______
                                 
               PACIFIC NORTHWEST WATER RESOURCE PROJECTS
       Prepared Statement of the Northwest Power Planning Council
    The Northwest Power Planning Council appreciates the opportunity to 
submit written testimony in support of the Clinton Administration's 
fiscal year 2000 budget request for programs under the jurisdiction of 
the Energy and Water Development Subcommittee.
    The Council was established by Congress in 1980, and created as an 
interstate compact by the states of Idaho, Montana, Oregon and 
Washington. Its purpose is to develop a 20-year regional electric power 
plan to assure for the Pacific Northwest an adequate supply of power at 
the lowest possible cost, and to develop a major program to protect and 
rebuild fish and wildlife resources harmed by hydroelectric development 
in the Columbia River Basin. The Council carries out its 
responsibilities under the Pacific Northwest Electric Power Planning 
and Conservation Act of 1980 (Northwest Power Act), Public Law 96-501.
    Three federal agencies under the jurisdiction of the Subcommittee, 
the U.S. Army Corps of Engineers, Bureau of Reclamation, and the 
Bonneville Power Administration, administer programs critical to the 
Columbia River Basin. The Council works closely with all three agencies 
in fulfilling its statutory responsibilities.
                      u.s. army corps of engineers
Columbia River Fish Mitigation Program
    The Council continues to support the Corps' Columbia River Fish 
Mitigation Program. The focus of the program is to reduce the mortality 
of both juvenile and adult salmon and steelhead during their migration 
through the projects and reservoirs comprising the Federal Columbia 
River Power System. The Corps' fiscal year 2000 budget proposal for the 
program is $100 million, and includes funding for several critical 
studies and activities that are crucial to recovering, rebuilding and 
maintaining the anadromous fish runs in the Columbia River Basin. The 
Council supports the Corps' full $100 million budget request.
    Significant amounts have been appropriated for the program for more 
than a decade, and a recent study by the National Marine Fisheries 
Service suggests that juvenile salmon survival through the four lower 
Snake River hydro projects and reservoirs has improved. Although the 
data has not been independently verified, NMFS scientists believe that 
survival conditions may have improved over pre-project conditions. 
While it remains unclear whether increases in juvenile survival through 
the Snake River projects leads to increases in adult returns, it is 
reasonable to assume that the installation and improvement of fish 
passage at the projects under the Corps' Columbia River Fish Mitigation 
Program will make the federal hydroelectric system less lethal. 
Accordingly, it is critical that the Corps' Columbia River Fish 
Mitigation Program be fully funded in fiscal year 2000 to ensure that 
the effort continues to make the mainstem Columbia and Snake rivers 
safer for juvenile and adult salmon.
Council Review of the Columbia River Fish Mitigation Program
    In the Subcommittee's fiscal year 1998 Conference Report, a 
provision in the Joint Explanatory Statement was included directing the 
Council, with assistance from the Independent Scientific Advisory Board 
(ISAB), to conduct a review of the Corps' Columbia River Fish 
Mitigation Program. Given the magnitude of the task, the Council agreed 
with the ISAB's recommendation to conduct the review in three phases, 
including an overview of the entire Columbia River Fish Mitigation 
Program.
    The first phase dealt with the proposed installation of extended 
length bar screens at John Day Dam and the construction of a new 
juvenile bypass outfall at Bonneville Dam. The scientists believed that 
the small increases in survival to specific species from installation 
of the screens were not justified. The ISAB felt that limited funds 
should be used for ``pursuing existing surface spill alternatives and 
funding research toward possible deployment of a surface-flow bypass 
system'' at the dam instead of installing screens. Given the 
uncertainty identified by the ISAB on the benefits of screens, the 
Council has called for further research and testing of screen 
prototypes that take into consideration the scientists' concerns, prior 
to recommending any further major investments in screen installation at 
John Day Dam.
    In addition, at Bonneville Dam, the ISAB stated ``the high 
mortality inflicted upon juvenile salmon by predators at the present 
bypass outfall locations justifies relocation of the outfalls to 
locations and habitats where predation rates are expected to be 
significantly reduced.'' In addition to relocating the bypass outfalls, 
the scientists encouraged ``integrated, long-term planning and study of 
other planned alterations'' at Bonneville Dam. The Council transmitted 
the ISAB's report to the Subcommittee on July 1, 1998.
    In the ISAB's second phase report, the scientists reviewed the 
development and testing of surface bypass systems and the dissolved gas 
abatement program. The ISAB concluded that over 20 years of work to 
improve turbine intake screen technology has yet to result in a turbine 
intake screen that can achieve the 80 percent fish passage efficiency 
standard for all species and stocks. Therefore, efforts to develop 
other juvenile fish bypass alternatives that can achieve the 80 percent 
goal for all species and stocks should be pursued. Surface collection 
and bypass continue to show promise; however, the scientists caution 
that substantial uncertainties remain regarding the level and changes 
in survival of juvenile salmon that can be provided by surface bypass 
facilities. Given the uncertainty, the ISAB recommended that all 
juvenile passage alternatives be evaluated against the baseline of 
spill, since spill more closely mimics natural processes than any other 
bypass alternative. Spill should be considered the alternative when 
improvements anticipated from other bypass technologies do not meet 
passage goals. The Council continues to support the federal spill 
program for juvenile passage through the federal hydropower system.
    In its report on dissolved gas abatement, the scientific board 
concluded that the Corps' program is important for rectifying 
supersaturation of waters of the Snake and Columbia rivers, and that it 
should continue with high priority. Attainment of the Clean Water Act 
total dissolved gas standard of 110 percent throughout the hydropower 
system will be difficult under involuntary spill conditions with the 
majority of dams in place. The current program of modifications of dams 
to reduce gas supersaturation should have benefits to salmon and other 
components of the ecosystem, the scientists said. The Council 
transmitted the ISAB's second report to the Subcommittee on January 11, 
1999.
    The third phase of the ISAB's review addressed adult fish passage 
at the dams and also included an overview of the entire Columbia River 
Fish Mitigation Program. On March 2, 1999, the Council released the 
report to the public for review and comment. In this report, the ISAB 
concluded that the subject of adult passage at Columbia and Snake River 
dams has not been adequately dealt with, that returning adults to 
spawning grounds may be more important than juvenile survival, and that 
the Corps' planned site-specific measures may be supportable but 
probably are not sufficient to ensure that adult spawning migrations 
are unimpeded. The ISAB recommended that additional evaluation, field 
research, and capital projects will be needed to address the adult 
passage issues.
    Next month, the Council will review the comments submitted by the 
public and finalize a comprehensive report to Congress that will 
include not only the ISAB's findings, but also the Council's final 
recommendations to Congress on the program. We intend to transmit the 
final report to the Subcommittee no later than early May 1999.
    The Council has learned a great deal during this review process, 
both about the current configuration of the fish passage facilities at 
the federal dams on the Columbia and Snake rivers, and with regard to 
new principles and guidelines that should be considered by the Corps in 
planning additional passage improvements. Developing fish passage 
systems is not an exact science, but one that is continually evolving. 
As we increase our knowledge of the behavior patterns of anadromous 
fish, and river processes, and improve our understanding of the need to 
protect biodiversity, we will develop more effective fish passage 
alternatives. These alternatives likely will be implemented to benefit 
the range of species and stocks in the river, and may result in 
providing multiple passage solutions at individual projects. They also 
will reflect that the best passage solutions are those that take into 
account and work with the behavior and ecology of the species using the 
river system.
    The Council realizes that the Columbia River Fish Mitigation 
Program has enjoyed high funding levels for several years. Continuation 
of the program at its full capability is necessary to ensure that 
critical improvements to the system are implemented, and important 
studies and tests completed so that fish survival through the dams can 
continue to improve.
Willamette River Temperature Control, Oregon
    The Willamette River Basin is located in northwestern Oregon. 
During the last 40 years, 13 Corps of Engineers reservoirs have been 
constructed in the basin to control floods, generate electricity and 
provide water for navigation, irrigation, improved water quality, 
recreation, and fish and wildlife. Studies over the last 15 years have 
demonstrated that the temperature at which water is released from these 
reservoirs is a key limiting factor for survival of anadromous and 
resident fish in the Willamette basin. Local, state and federal 
agencies, including the Council, have been seeking modification of 
water temperature in the McKenzie River downstream from Blue River and 
Cougar reservoirs to achieve more beneficial temperatures for wild 
spring chinook salmon, bull trout and rainbow trout. The Corps' 
feasibility study for the project was completed in 1995. An 
Environmental Impact Statement was completed, and a Finding of No 
Significant Impact was signed by the Division Commander on April 24, 
1996. In March of this year, Willamette spring chinook and winter 
steelhead were listed as threatened by the National Marine Fisheries 
Service under the Endangered Species Act; the last significant wild 
stock of spring chinook in the Willamette is in the McKenzie River. The 
current estimated cost to install multi-level intake towers at the two 
projects is $70.6 million.
    Due to cost limitations associated with the project's 
authorization, the Corps' current focus is on the Cougar Lake reservoir 
intake tower, which has a total estimated cost (including future 
inflation) of $50.077 million. In its fiscal year 2000 budget, the 
Corps is proposing Cougar Lake for a new construction start, and has 
requested $1.7 million in funding. The Council supports this project 
and the requested funding level, and urges the Subcommittee to include 
it in its fiscal year 2000 funding recommendations.
                         bureau of reclamation
    The Bureau is proposing to spend $11.734 million in fiscal year 
2000 on the Yakima River Basin Water Enhancement Project. The Council 
supports this project, which will employ structural and non-structural 
water conservation measures to increase the reliability of the 
irrigation supply and enhance streamflows in the Yakima River. In 
addition, Yakama tribal water supply facilities will be improved and 
tribal economic development, fish and wildlife, and cultural programs 
will be enhanced.
    The Council also strongly supports the Columbia and Snake River 
Salmon Recovery Project, which the Bureau is proposing to fund at 
$13.122 million for fiscal year 2000. The funds are used for important 
purposes in the Snake River Basin, such as acquiring water through 
leasing or on a willing-seller basis for flow augmentation to aid 
migrating salmon and steelhead, and to address Endangered Species Act 
requirements.
                    bonneville power administration
    The Bonneville Power Administration is the primary implementor of 
the Council's fish and wildlife program. In the fall of 1995, the 
Administration and Congress agreed on a fixed budget for Bonneville's 
fish and wildlife recovery efforts in the Columbia River Basin. Under 
the terms of that agreement, which was further defined and formalized 
in September 1997 in a memorandum of agreement signed by the 
secretaries of the Army, Interior, Commerce and Energy, Bonneville will 
incur costs, on average, of $435 million per year for five years on 
fish and wildlife activities. These funds fall under a number of 
different categories, including direct expenditures on fish and 
wildlife projects, power purchases, reimbursements of appropriated 
funds to the Corps of Engineers and the Bureau of Reclamation, capital 
repayment and foregone revenues. For fiscal year 2000, Bonneville 
estimates that its total fish and wildlife budget will be $403.6 
million.
    In the Energy and Water Development Appropriations Act for fiscal 
year 1997, the Committee added a new section, 4(h)(10)(D), to the 
Northwest Power Act, which requires the Council to appoint an 11-member 
Independent Scientific Review Panel (ISRP) to review fish and wildlife 
projects proposed to be funded through Bonneville's direct program. For 
fiscal year 2000, Bonneville expects to commit $100 million to its 
direct program, and use up to $27 million of its borrowing authority.
    The Council shares the Committee's objective that all fish and 
wildlife funds be spent judiciously after thorough independent 
scientific review. We are continuing to work with the region to fully 
and fairly implement the requirements of section 4(h)(10)(D), which 
will help ensure that Bonneville's ratepayers' funds are spent on 
projects that have the greatest value in recovering and providing 
mitigation for the Columbia River Basin's fish and wildlife 
populations.
    Thank you for this opportunity to share our views with you. We 
sincerely appreciate the thorough consideration that this subcommittee 
has given to the needs of the Pacific Northwest over the years.
                                 ______
                                 
   Prepared Statement of Glenn Vanselow, Executive Director, Pacific 
                    Northwest Waterways Association
    Mr. Chairman and members of the Subcommittee: My name is Glenn 
Vanselow. I am Executive Director of the Pacific Northwest Waterways 
Association. We appreciate the opportunity to present our views on 
appropriations issues to the Committee. The PNWA membership includes 
nearly 120 organizations and individuals in Washington, Oregon and 
Idaho. PNWA represents public port authorities on the Pacific Coast, 
Puget Sound, and Columbia/Snake River System; public utility districts, 
investor-owned utilities, electric cooperatives and direct service 
industries; irrigation districts, grain growers and upriver and export 
elevator companies; major manufacturers in the Pacific Northwest; 
forest products industry manufacturers and shippers; and tug and barge 
operators, steamship operators, consulting engineers, and others 
involved in economic development throughout the Pacific Northwest.
    PNWA has a long history of working with the Committee and the U.S. 
Army Corps of Engineers (Corps) on projects of regional and national 
importance, sharing the challenge to maintain and develop our 
transportation infrastructure. Our members wish to thank the Committee 
for its support of Pacific Northwest transportation, hydropower and 
salmon enhancement programs and projects.
                         appropriations request
    Fiscal year 2000 Civil Works Budget.--The maintenance of channels 
and harbors serving all currently authorized Pacific Northwest deep 
draft and coastal ports is a top priority for PNWA. We urge Congress to 
provide sufficient funding to meet national needs for both operations 
and maintenance (O&M) and new construction. The Administration's fiscal 
year 2000 budget request for navigation O&M in Idaho, Oregon and 
Washington and the request for preconstruction, engineering and design 
for the Columbia River Channel Deepening appear to be adequate, but the 
request for new construction is not sufficient. We oppose the overall 
level of the request for civil works because it is provides inadequate 
funding for crucial Corps waterways programs nationwide. While the 
request of $3.9 billion for the Corps is on par with fiscal year 1999 
appropriated levels, the proposal would only fund inland navigation and 
flood control construction projects at about 50 percent of their 
optimal schedule. We believe that a level of funding closer to $4.7 
billion is needed to maintain the integrity of the civil works program. 
We strongly oppose the Administration's proposed Harbor Services Fund 
proposal. We believe Congressionally appropriated funding from the 
general treasury is the best and most appropriate way to meet both 
routine maintenance and unexpected dredging needs. We also oppose new 
taxes on National Oceanic and Atmospheric Administration services and 
plans for taxes to recover the cost of Coast Guard navigation services.
    We support continued federal funding for operations and maintenance 
to present authorized depths of federally authorized navigation 
channels at shallow coastal harbors in Oregon and Washington. We 
support the current method of funding new project starts.
    Regional Navigation Operations and Maintenance.--We would like to 
thank the Committee for its previous support of navigation O&M 
(operations and maintenance) in the region's shallow, deep draft and 
inland navigation system.
    Navigation is the least cost, most fuel efficient and least 
polluting mode of transportation. Navigation is the critical link that 
keeps the Northwest and the nation competitive in domestic and 
international trade and supports the commercial and recreational 
fishing industry. It provides significant numbers of jobs and other 
economic benefits both within the region and nationally. We support 
maintaining a strong federal role in planning, construction, operation, 
maintenance and funding of navigation on the inland waterways, deep 
draft ports and shallow draft ports. We ask the Committee for full 
funding for ongoing operations and maintenance (O&M) of the federally 
authorized navigation channels in the Columbia/Snake river system, the 
Oregon and Washington coastal ports and Puget Sound. Maximizing O&M is 
a cost-efficient means of fully utilizing the federal government's 
investment in channel operations.
    Some 20 percent of the employment in the Northwest states is 
directly related to international trade. Navigation projects are among 
the few federal programs that are analyzed to ensure that economic 
benefits exceed the costs. Eliminating these programs would not be 
cost-effective.
    Navigation Feasibility Studies and Construction.--We wish to thank 
the Committee for appropriating funds last year for feasibility studies 
on the Columbia River and in Puget Sound. We are opposed to the 
downward trend in funding included in the President's fiscal year 2000 
budget request.
    The Columbia River deep draft channel is the lifeblood of the 
Columbia/Snake River System, which serves shippers from more than 40 
states. To protect future growth and development of the River System, 
we ask the Committee to fund the requested $892,000 preconstruction 
engineering and design for the lower Columbia River Navigation Channel 
Deepening. This funding would pay for the federal government's share of 
work necessary to investigate improving the existing 40-foot navigation 
channel by increasing the channel depth to 43 feet. We support 
completing the feasibility study for channel improvements of the Blair 
Waterway Navigation Channel at Tacoma. We also support the 
Administration's $3.4 million request to complete construction of the 
East Waterway Channel Deepening at Seattle, which is proposed to be 
carried out during O&M dredging.
    Lower Columbia River Ecosystem Restoration.--PNWA encourages the 
Committee to appropriate $100,000 to begin a study that would focus on 
ecosystem restoration opportunities within the Lower Columbia River. 
The study is strongly supported by the Lower Columbia River Estuary 
Program, and the States of Oregon and Washington have jointly agreed to 
non-Federal sponsorship of the study.
    Portland Harbor Environmental Dredging Project.--PNWA encourages 
the Committee to appropriate $100,000 for the Corps to undertake a 
reconnaissance study for an environmental dredging project at Portland 
Harbor.
    Minimum Dredge Fleet.--We encourage the Committee to maintain the 
currently active hopper dredges operated by the US Army Corps of 
Engineers and to reject any additional future set-aside for private 
dredges. We oppose legislation that places artificial limits on the 
federal hopper dredges by directing increasing amounts of maintenance 
dredging to private dredges. Federal hopper dredge costs are 
artificially higher than necessary because of that set aside. We 
believe that Congress should reduce or eliminate the set aside to 
increase the efficiency of the Corps hopper dredges. We also encourage 
the Committee to find ways to make the Corps dredges less expensive to 
operate by examining recent increases in depreciation and plant 
increment payments.
    We believe that the presence of the federal dredges keeps bids for 
dredging work competitive and lower in cost. We are concerned that the 
low number of private industry bids for work in our region could force 
dredging costs higher were it not for the availability of the federal 
dredges.
    Operations and Maintenance of the Region's Hydropower System and 
the John Day Drawdown study.--We are concerned that the President's 
fiscal year 2000 Budget request for construction on the Bonneville Dam 
powerhouse phase II and The Dalles powerhouse is insufficient. We 
encourage the Committee to increase funding for the Bonneville 
powerhouse construction to $16.3 million. We also encourage the 
Committee to increase funding for The Dalles powerhouse construction to 
approximately $3.3 million. We support the President's requests for 
Operations and Maintenance at these and other regional projects.
    We have testified in previous years that we do not believe there is 
biological justification for drawdowns. Just this year, the National 
Marine Fisheries Service testified before the Northwest Power Planning 
Council that salmon smolt survival through the four dams on the lower 
Snake River (Ice Harbor, Little Goose, Lower Monumental and Lower 
Granite) is as high or higher than it was before those dams were built. 
It is also clear that drawdown would have serious economic impacts on 
the region and the nation. Drawdown would eliminate important 
authorized purposes on the system, including navigation, hydropower 
production and irrigated agricultural production. The committee also 
should be aware that we believe that drawdown would reduce the 
Bonneville Power Administration's revenue generating capacity and 
jeopardize BPA's ability to repay its debt to the US treasury after the 
next subscription process expires. The four lower Snake dams and John 
Day provide 20 to 25 percent of BPA's total energy production.
    Salmon Recovery Decision Authority and Funding.--First, we support 
efforts to establish priorities for funding and implementation of fish 
and wildlife recovery projects in the Columbia River Basin Fish and 
Wildlife Program. Second, we support selected salmon recovery actions 
such as improved and enhanced smolt transportation, surface collection 
and other smolt by-pass facilities, fish-friendly turbine programs and 
habitat restoration and protection. Third, we oppose funding to carry 
out Phase II of the John Day drawdown study, and we do not support 
funding to study drawdown of McNary. These programs and others are 
included in the Administration's $100 million budget request for 
Columbia River Fish Mitigation. We encourage the Committee to redirect 
the $5.5 million proposed for these studies toward fish recovery 
programs for which there is broad regional support.
    We support the Senator Slade Gorton's 1996 amendment to the 
Northwest Power Act, approved during consideration of the fiscal year 
1997 Energy and Water Appropriations bill, which establishes a panel of 
scientists to establish priorities for funding and implementation of 
fish and wildlife recovery projects in the Columbia River Basin Fish 
and Wildlife Program. We hope that this, with the Independent Economic 
Analysis Board, will result in programs that will provide maximum 
biological benefits to listed salmon stocks and are more cost-
effective.
    Regional Governance.--The discussion about regional cooperation in 
developing salmon recovery objectives and programs in the Columbia 
Basin has been expanded significantly through the establishment of the 
Columbia Basin Forum, formerly known as the Three Sovereigns Forum. A 
memorandum of agreement establishing this new body was recently signed 
by the federal agencies, tribes and states. This process was created 
without consulting affected stakeholders, and the participants do not 
intend to include stakeholders in the consensus process. PNWA believes 
that effective fish and wildlife programs can be implemented without a 
new governance body. If a new management structure is necessary for 
addressing the Endangered Species Act, the Northwest Power Planning 
Council offers an appropriate model. Federal, state and tribal agencies 
and regional stakeholders should work cooperatively to develop 
solutions that maintain Congressional authority over navigation and the 
other authorized purposes of the federal projects and state authority 
over water and land use. If PNWA urges the Committee to support 
collaboration in the Columbia Basin within the existing authorities of 
the federal agencies, states and tribes, and, in the strongest terms 
possible, we urge Congress to retain exclusive authority over the 
authorized purposes of the federal projects within the Columbia Basin.
    Demolition of the former U.S. Army Corps of Engineers' Complex at 
Walla Walla.--We ask the Committee to appropriate $4.7 million to 
remove asbestos and lead paint and to tear down the former Corps 
complex at the Walla Walla Regional Airport, Washington.
    Columbia River Channel Designation, Interstate 5 Bridge between 
Vancouver and Portland.--We ask the Committee to appropriate $50,000 to 
designate a new navigation channel under the high span of the I-5 
bridge. We hope that this action will be authorized in the Water 
Resources Development Act of 1999. This new channel will connect to the 
existing channel upstream of the bridge, allowing for more efficient 
use of the Columbia River and the I-5 bridge for navigation and surface 
transportation.
    Hanford Cleanup.--We ask the Committee to continue to adequately 
fund the Department of Energy cleanup of 45 years of accumulated 
defense waste currently stored at the Hanford site. We recognize that 
defense waste cleanup is a long-term project that will be most cost 
effective and most rigorously pursued if Hanford is a viable, operating 
site. Therefore, we strongly urge the Committee to support a complete, 
ongoing Hanford scientifically and technologically based research and 
operations program in order to ensure long-term funding for waste 
cleanup. PNWA also supports a complete and ongoing scientifically and 
technologically based research and operations program, including the 
restart of the Fast Flux Test Facility for the joint missions of 
national defense and medical research and isotope production to meet 
the demands for more effective cancer treatments.
    Conclusion.--On behalf of nearly 120 members from throughout the 
Pacific Northwest, we thank the Committee for giving us this 
opportunity to review a number of issues important to the environmental 
and economic prosperity of our region.
                                 ______
                                 
  Prepared Statement of Merv George, Jr., Chairman, Hoopa Valley Tribe
    On behalf of the Hoopa Valley Tribe of California, I express our 
appreciation for the opportunity to submit testimony regarding the 
fiscal year 2000 Bureau of Reclamation (BOR) budget. A summary of our 
fiscal year 2000 funding request follows:
    1.Support Administration's position that existing laws provide 
authority to support Trinity River Division fish and wildlife 
management and restoration activities. Further, the Hoopa Valley Tribe 
supports the Administration's position that Central Valley Project 
Improvement Act (CVPIA) funds are authorized for expenditure in the 
Trinity River Basin.
    2. Request that $13,000,000 be provided for Trinity River fishery 
management requirements within the Trinity River Division of the 
Central Valley Project for continuing fish and wildlife management 
programs of tribal, state, federal and local entities and for the 
Comprehensive Co-Management Agreement between Hoopa Valley Tribe and 
BOR.
    3. Support proposed funding increase for the Klamath Project and 
request an additional $750,000 for the Karuk and Klamath Tribes.
    4. Request $150,000 from the General Activities Planning budget for 
a feasibility study for upgrading the Lewiston generator, and for 
Trinity River green sturgeon and Pacific Lamprey population studies.
    5. Support the Native American Affairs proposed budget and request 
an increase of $1,000,000 for additional assistance to Indian tribes.
                               background
    The Trinity River in northern California is the largest tributary 
to the Klamath River, the second largest river system in California. 
Since time immemorial, the Klamath Basin provided sustenance to Native 
Americans of the region. The Klamath River Basin is the aboriginal 
territory of Hoopa Valley, Karuk, Klamath, and Yurok Tribes. Moreover, 
utilization of fishery resources of the Klamath River has been 
fundamental to the economic health of northern California providing 
viable recreational and commercial salmon fisheries. In 1963, BOR 
completed construction of the Trinity River Division of the Central 
Valley Project (CVP). The Trinity River Division currently provides an 
estimated fourteen percent of the total water yielded by the CVP.
    Shortly after completion of the Trinity Dam, and subsequent 
diversion of up to 90 percent of the stream flows at the diversion 
point (near Lewiston, California) from the Trinity River, the fishery 
began to decline. Through the 1980's, corresponding declines of up to 
80 percent of the salmon and steelhead populations occurred. In 
response to declines in Trinity fish stocks, the Secretary of Interior 
approved development of a flow evaluation study in 1981 to determine 
stream flow needs for fish restoration. Further, Congress recognized 
the seriousness of the problem, and enacted the Trinity River 
Restoration Act (Public Law 98-541, 1984) which, with subsequent 
amendments, authorized approximately $70,000,000 in an attempt to 
reverse the decline of the fishery resources within the Trinity River 
Basin. However, the downward trend in Trinity fish populations has 
continued as reflected by listing of coho salmon under the Endangered 
Species Act (ESA) (6 May, 1997) and proposed listings of steelhead and 
chinook fish stocks of the Klamath/Trinity Rivers.
    While much work has been accomplished to date, it is recognized 
that continued monitoring and research will be necessary to provide 
insight on status of resources, evaluation of restorative measures, and 
effective management recommendations for further restoration. Primary 
among the scientific achievements to date has been the development of 
in-stream flow criteria that quantify the benefits to salmonids of 
retained flows in the Trinity Basin. These criteria, developed over the 
entire course of the Restoration Program, provide a basis for the 
Secretary's flow decision, due in fiscal year 2000. The Secretary's 
Trinity River Flow Evaluation Study Report is now ready for printing, 
and the Environmental Impact Statement (EIS) is scheduled for 
completion by April, 2000.
    In spite of many years of research into Trinity River ecosystem 
processes, considerable uncertainty persists in regard to downstream 
impacts of water releases from Lewiston Dam. These uncertainties are to 
be addressed via an Adaptive Management Plan (AMP) under the direction 
of the Interior Secretary. Long-term monitoring and research are 
essential to the AMP: hypotheses underlying the Trinity River Flow 
Evaluation Study recommendations will be tested through research; and 
monitoring data will be used to measure how well river ecosystem health 
objectives are met.
              narrative justification and funding requests
    1. The Tribe is in agreement with the Administration's legal 
conclusions contained in the fiscal year 2000 Budget Justification and 
Annual Performance Plan--Trinity River Division--that existing 
authorities provide ample justification for expenditures on fish and 
wildlife restoration within the Trinity River. The 1955 Act creating 
the Trinity River Division, Trinity River Fish and Wildlife Restoration 
Act as amended, and the Central Valley Project Improvement Act (CVPIA) 
mandate that the Department of the Interior restore and maintain fish 
and wildlife populations with CVP funds. Furthermore, Congress 
acknowledged the reserved fishing rights of the Hoopa Valley Tribe in 
the CVPIA.
    2. Funding Request for Fish and Wildlife Management--In January 
1998, agencies responsible for managing the Trinity River fishery 
resources determined that $13,000,000 was needed annually to fund 
comprehensive management within the Trinity River Basin in order to 
restore the fishery resources to pre-dam levels. The Hoopa Valley Tribe 
participated in the development of this management plan.
    Therefore, the Tribe requests that the Committee provide 
$13,000,000 for Fish and Wildlife Management and Development within the 
Trinity River Division budget.
    Further, the Tribe requests that the Committee continue support for 
the Co-Management Agreement between the Tribe and BOR at a level of 
$2,500,000 for implementation in fiscal year 2000. The requested 
funding would ensure the Tribe's involvement in water project 
operations planning, environmental impact analysis, hatchery 
investigations, fisheries management, and would accelerate resource 
restoration through unified, inter-governmental management actions.
    In its seventh year, the Co-Management Agreement between Hoopa and 
BOR has contributed not only to the fulfillment of the Federal trust 
responsibilities to Native Americans, but has also served to bring 
Federal, State, Tribal and local management agencies together into a 
constructive and cooperative forum for managing fishery and water 
resources within the Trinity River Basin.
    3. Support proposed funding increase for the Klamath Project and 
request an additional $750,000 for the Karuk and Klamath Tribes. Both 
Tribes are involved with the restoration and protection of Trust 
resources in the Klamath River including active technical and policy 
involvement in water quality and quantity studies designed to improve 
the health of the upper Klamath Basin ecosystem. Endemic suckers listed 
under the ESA in Upper Klamath Lake, as well as salmon and steelhead 
living in downstream areas would benefit from increased Tribal 
involvement.
    4. Request $150,000 from the General Activities Planning budget for 
a feasibility study for upgrading the Lewiston Hydro-power generator, 
green sturgeon and Pacific Lamprey studies. It is expected that the 
Interior Secretary's Trinity River permanent fishery flow decision will 
result in reduced diversions of Trinity River flows into California's 
Central Valley. While being greatly beneficial to Trinity River fishery 
resources and upholding the federal trust obligations to Indian tribes, 
the decision will likely reduce the amount of electricity generated 
from diverted flows. To compensate for this situation, the Tribe 
requests that $100,000 be provided from Reclamation's General 
Activities Planning budget for determining the feasibility of 
increasing the capacity of the Lewiston Powerhouse generators in 
anticipation of the increased releases to the Trinity River. An 
expected benefit of increased generation of electricity from the 
Lewiston powerhouse is the possibility of using its revenues to pay for 
future fish and wildlife restoration activities within the Trinity 
River Basin, thereby reducing long-term costs to the Federal 
Government.
    In addition, the Tribe requests that $50,000 be provided for 
conducting population and fish health studies for Trinity River green 
sturgeon and Pacific Lamprey, both of which are important species to 
the Klamath and Trinity River Indian tribes and have been negatively 
impacted by the construction and management of the Trinity River 
Division.
    5. Support the Native American Affairs proposed budget request and 
an increase of $1,000,000 for additional assistance to Indian tribes. 
The Reclamation Native American Affairs program has proven to be very 
beneficial to both the Federal Government and Indian tribes while 
trying to resolve inter-governmental water and fishery management 
issues. Without a doubt, the Native American Affairs Program has been 
instrumental in reducing the possibility of costly litigation and 
disputes between Reclamation and Indian tribes.
                          results anticipated
    Trinity Restoration Program: Effective restoration of fisheries, 
critical to the Hoopa Valley and Yurok tribes and the economic 
stability of the fishery dependent communities of northern California 
and southern Oregon, would be promoted through collective actions of 
the Trinity Restoration Program. Identification and implementation of 
specific remedies and monitoring of fishery trends are expected results 
of Restoration Program.
    While many on-the-ground achievements have already been realized, 
many critical elements have yet to be completed. Among the expected 
outcomes of the Program for 1999 is the completion of the Environmental 
Impact Statement to assist the Secretary with implementation of in-
river flows required for full restoration of salmonid populations in 
the Trinity River as mandated under Public Law 102-575. The Secretary's 
fishery flow allocation decision, originally mandated for fiscal year 
1997, was delayed due to incomplete environmental documentation. It is 
now anticipated that completed environmental documentation shall be 
available to support the Secretary's Decision expected in fiscal year 
2000.
    Tribal/Reclamation Co-Management Agreements and Native American 
Affairs Program: The Co-Management Agreements will continue to assist 
in the coordination of Federal, State, Tribal and local activities 
(management and research) impacting salmon fisheries and salmon 
habitats of the Klamath and Trinity rivers. Accomplishments under this 
agreement in fiscal year 1997 included maintenance of data collection 
and analysis programs critical to the integrated management of the 
Klamath and Trinity fishery resources. Both Reclamation and the Tribe 
agree that a wise investment has been made in developing a 
comprehensive foundation for fishery restoration. This foundation 
includes on-the-ground restoration work, assembly of scientific data on 
fisheries and habitat, and the coordination across multiple 
jurisdictions affecting salmon survival. It is now important to insure 
that this investment provides the desired results of a fully restored 
Trinity River Basin.
    The General Activities Planning budget request will assist the 
Tribes, agencies and private interests to develop opportunities for 
compensating for the loss of electricity caused by increased Trinity 
River flows. The Green Sturgeon and Pacific Lamprey population and 
survival studies will provide basic information for development of 
long-term management programs for these species. While green sturgeon 
and Pacific Lamprey are important species to Indian tribes, and their 
maintenance is part of the Federal Government's trust obligations, lack 
of funding has prevented the development of management programs for 
these species.
                               conclusion
    The Hoopa Valley Tribe's relationship with BOR has improved 
significantly in recent years; however, it is clear that the fishery 
management problems associated with the Central Valley Project and 
Klamath Project operations still persist. Resolution of these issues 
may only be assured through the continued commitment by the Tribe and 
BOR to ongoing co-management of these important resources.
    Again, I appreciate the opportunity to submit testimony regarding 
BOR's fiscal year 2000 budget. I am available to discuss these matters 
with you in more detail at your convenience. Thank you.
                                 ______
                                 
  Prepared Statement of William A. Brakken, Community Liaison/Central 
             Oregon Team Leader, Northwest Area Foundation
                 deschutes basin resources conservancy
    I understand that the Senate Appropriations Subcommittee on Energy 
and Water Development has an upcoming hearing pertaining to the 
Deschutes Basin Resources Conservancy (DRC) in Central Oregon. This 
seemed an appropriate time to share some information with you regarding 
the Northwest Area Foundation's past experience with the DRC, as well 
as our potential future relationship.
    As you may be aware, the DRC grew out of a collaborative planning 
effort initiated in 1992 by the Confederated Tribes of the Warm Springs 
Reservation and Environmental Defense Fund to improve instream flows 
and water quality in the Deschutes River. Ultimately, that initiative 
attracted the support of a large and diverse number of organizations 
and individuals throughout Central Oregon--many of whom are now 
represented on the DRC Board. The Northwest Area Foundation provided 
the bulk of financial support--$300,000 over three years--for this 
planning effort. We consider it to be among the most successful of our 
recent watershed planning and management grants.
    Recently the Foundation shifted the focus of our mission from 
short-term grantmaking to individual nonprofit organizations to working 
with entire communities in long-term partnerships of approximately 10 
years. We anticipate committing $150 million to only a dozen or so 
community partnerships in our eight-state region over the next decade. 
One of the first places we are exploring for a possible partnership is 
the regional community of Central Oregon. We were drawn to this region 
for a number of reasons. But one of the most significant was the 
promising model for regional collaboration that is currently being 
demonstrated by the DRC.
    We are particularly impressed with the quality and diversity of 
individuals that DRC has attracted to serve on its board of directors. 
During the past six months members of the Foundation's Central Oregon 
Team have met individually with more than 150 citizens of the region--
most all of them identified through personal referrals. Judging from 
the number of referrals we received of people serving on the DRC board, 
and our meetings with many of those individuals, we can attest to the 
high caliber of the board, as well as its action-orientation. In fact, 
we are hopeful we can attract a similar caliber of individuals to a 
steering committee we will soon convene to help design our prospective 
partnership with the community.
    The specific goal of our community partnerships is to reduce 
poverty by encouraging better integration of the social, economic, and 
environmental facets of a community's development. To effectively 
accomplish this goal, we will need to work closely with local 
organizations focused on similar objectives, such as the Deschutes 
Basin Resources Conservancy. We commend their efforts to you, and hope 
you will support them in whatever way possible. That, in turn, will 
help us better leverage our potential investment in Central Oregon.
    Thank you for your consideration. Please feel free to contact me 
with any questions.
                                 ______
                                 
 Prepared Statement of Ron Nelson, Chairman, Deschutes Basin Resources 
                              Conservancy
                                summary
    The Deschutes Basin Working Group, dba the Deschutes Basin 
Resources Conservancy (DRC), is a non-profit, private corporation 
established in Oregon in 1996. In September 1996, Congress enacted and 
the President signed Public Law 104-208, which included S.1662, the 
Oregon Resources Conservation Act. Section 301(h) (Division B, Title 
III) of Public Law 104-208 authorizes $1.0 million per year through 
2001. The DRC is limited to spending 5 percent of any appropriation on 
administration.
    In 1999, Congress appropriated $500,000 to the Bureau of 
Reclamation to support the DRC. The DRC is using these funds to 
implement projects to improve water quality and quantity in the 
Deschutes Basin. Water projects are crucial in the Deschutes Basin 
where steelhead and bull trout are listed as threatened and Fall 
Chinook are proposed for listing under the Federal Endangered Species 
Act.
    The DRC has supported eight demonstration projects in the Basin. 
From October 1998 to March 1999 the DRC has leveraged $272,180 of its 
funds to complete $777,680 in on-the-ground restoration projects. These 
projects include: piping irrigation district delivery systems to 
prevent water losses; securing instream water rights to restore flows 
to Squaw Creek; providing riparian fences to protect riverbanks; 
working with private timberland owners to restore riparian and wetland 
areas; and seeking donated water rights to enhance instream flows in 
the Deschutes Basin.
    The DRC is governed by a diverse group of directors from private 
and public interests from the region. It is a community-based, 
cooperative endeavor that believes economic progress and natural 
resource conservation need to work together to achieve success. The DRC 
seeks voluntary actions based upon contracts and compensation for 
property and services. The DRC does not seek, nor is it authorized, to 
impose regulatory mandates through legal or political action.
                           1999 drc projects
    Annual Water Leasing Program.--The DRC is working with water users 
in targeted areas for water rights donations or sales to improve 
instream flows. The program began November 1998 by meeting with each 
irrigation district manager to introduce the leasing program and the 
process for transfers. In early 1999 water rights holders were 
contacted requesting the user's water donation. This program enables 
water right holder to protect their water rights by leasing and 
improves Deschutes flows.
    Central Oregon Irrigation District Piping.--For the most part the 
irrigation canals in the Upper Deschutes Basin are unlined and have 
been dug in porous, volcanic soils, so water losses through percolation 
can be quite high over the long distances that irrigation water must 
travel from the point of diversion to the farms. The DRC and Central 
Oregon Irrigation District propose to install roughly 3,960 feet of 
pipe, an inlet structure, an outlet structure, four clean-outs and four 
diversion structures. COID figures to conserve .29 cfs or .57 an ac/ft. 
Projected over a 180 day period, this calculates to 102.6 ac/ft water 
conserved. One half of the conserved water from this project will be 
returned to instream flows in the Deschutes River. This project is an 
important demonstration of how water can be conserved to benefit both 
the irrigation district and its water users and the Deschutes 
ecosystem.
    Confederated Tribes of Warm Springs Riparian Fencing.--The DRC and 
the Confederated Tribes of the Warm Springs Indian Reservation of 
Oregon are partners on a project to protect riparian areas in the 
Deschutes Basin's Eagle Creek, Skookum Creek and the mainstem river. 
The project constructs fence for livestock exclosures, places cattle 
guards at road crossings and installs solar pumps to provide animals 
water away from the riverbank. One of the DRC's primary goals is to 
improve water quality. Healthy, functioning riparian areas are critical 
to improving water quality in the basin. Riparian vegetation provides 
fish and aquatic habitat, stream shading to reduce water temperatures, 
bank stability and a filter for nutrients and sediments entering the 
water. This project is especially important for the habitat of Bull 
Trout that are listed as threatened and Fall Chinook and steelhead that 
are pending listing under the Federal Endangered Species Act. This 
project involves voluntary cooperation by the tribal grazing group 
allottees. The Warm Springs Tribes are involved in various other 
projects to improve stream conditions both on and off the reservation. 
This project is a part of a larger effort to improve flows and water 
quality for fish and wildlife.
    North Unit Irrigation District Piping.--The DRC, North Unit 
Irrigation District, Bureau of Reclamation and Natural Resource 
Conservation Service are partners in a Water Conservation Grant Program 
project for the Deschutes Basin. These groups are providing funds to 
replace an open irrigation lateral with buried pipe. The project 
consists of installing approximately 20,235 feet of plastic pipe, with 
19 turnouts and related appurtenances. The delivered water will be 
pressurized due to the elevation difference between the inlet at the 
main canal and landowner outlets. This pipeline will provide irrigation 
for approximately 445 acres. This project will save water, improve 
energy efficiency and reduce operation and maintenance expenses. The 
project will annually save about 600 acre feet of water. The majority 
of the conserved water comes from eliminating seepage from the open 
lateral. Water will also be saved by reducing system management losses 
(carry water) and improving delivery to small land parcels. Standard 
measuring devices, flow meters or flow regulators will be utilized at 
all outlets. Use of flow meters on the larger outlets will improve on-
farm irrigation water management because landowners can readily verify 
how much water they are currently using or have used to date. One half 
of the conserved water from the project will be returned to instream 
flows in the Deschutes River. This project is an important 
demonstration of how water can be conserved to benefit both the 
irrigation district and its water users and the Deschutes ecosystem. 
The pressurized system will reduce the pumping requirements for 
sprinkler irrigation systems to save energy. Most of the irrigated land 
served by this lateral is currently being sprinkler irrigated.
    Foley Creek Riparian Areas, Wetlands and Forest.--Foley Creek is 
one of the most significant steelhead spawning and rearing areas in the 
Deschutes Basin. The DRC, EDF and landowners, Ochoco Lumber, are 
working together to develop a forest management plan to improve 
riparian areas and wetlands in Upper Foley Creek. The project also 
includes an intensive timber vegetation inventory. This inventory will 
provide the foundation to construct a carbon assessment that meets 
Environmental Protection Agency criteria. This may result in carbon 
contracts and other types of commodity contracts for the landowner to 
protect this habitat and benefit financially. This project is a 
demonstration of how private sector market solutions can improve the 
Deschutes ecosystem.
                               background
    In 1989, the Environmental Defense Fund (EDF) and the Confederated 
Tribes of the Warm Springs Reservation began a cooperative project to 
reconcile on-reservation ecological and economic conflicts. In late 
1992, the Tribes and EDF expanded the scope of the project to include 
the entire Deschutes Basin. It was agreed that the initial focus would 
be on river flows and water pollution. Flow-deficient stream reaches 
and excessive water pollutant loads could only be mitigated by 
identifying and reducing existing water diversions and pollution 
discharges. At the same time, a high value was placed on being ``good 
neighbors'' to other landowners and resources users within the Basin. 
Positive incentives for changes in resource uses were emphasized 
instead of costly and divisive political and legal conflicts. Solutions 
employing economic incentives, such as water rights and pollution 
allowance marketing, were introduced and experiences elsewhere in the 
West were reviewed.
    A key forum for this community dialogue, the ``Ad Hoc Deschutes 
Group'', was formed. The 14 member Ad Hoc Group had representatives of 
all economic sectors in the Basin. The irrigation community holds the 
most water rights and reservoir storage and therefore has the greatest 
impact among resource users on the pattern and amount of river flows. 
At the same time, water quality degradation stems from a diverse set of 
land uses driving non-point water pollution. An important part of the 
project was to assure that the federal interests in the Basin were 
addressed along with those of the tribes, resource users, and local and 
state governments.
    The Ad Hoc Group recognized the need for a private organization 
with ecosystem-determined goals and methods based on positive 
incentives, consensus, and local governance. Since approximately half 
of the Basin's land area is managed by federal agencies it was clear 
that such a private organization would need the capacity to partner on 
projects with the federal agencies to be truly ecosystem and basinwide 
in scope. In March, 1996, Senator Hatfield introduced S. 1662 
authorizing federal agencies to work with this private organization, 
known as the Deschutes Basin Working Group. Title III of the Oregon 
Resource Conservation Act of 1996, signed by the President in 
September, 1996, authorizes the following:
  --Federal agencies to work with the private Deschutes Basin Working 
        Group, dba Deschutes Basin Resources Conservancy (DRC)
  --Secretaries of Interior & Agriculture to appoint DRC board members 
        for 3 year terms
  --Federal participation with DRC in ecological restoration projects 
        on federal and non-federal land and water with 50-50 cost share
  --Five year startup authorization of $1.0 Million a year federal 
        fund; 50/50 cost share with DRC
  --Emphasize voluntary market-based economic incentives
    The Deschutes Basin Working Group, later to adopt an operating name 
of the Deschutes Basin Resources Conservancy (DRC), has the goal of 
implementing on-the-ground projects that enhance the quality of the 
region's natural resources and add value to its economy.
    Its board consists of nine members from the Basin's private sector; 
hydropower, livestock grazing, recreation/tourism, timber, land 
development, irrigation (2), environmental (2), and two members from 
the Confederated Tribes of the Warm Springs Reservation. In addition to 
the private board members there are two board members appointed from 
the Departments of Interior and Agriculture, two board members 
representing the State of Oregon, and four members representing local 
governments within the Deschutes Basin.
    The DRC will receive funds through tax exempt donations from 
individuals, businesses, and corporations, including philanthropic 
foundations, and from government agencies seeking project development 
assistance or collaboration. It will seek to develop income from direct 
sources such as fee-for-service.
 federal appropriations in fiscal year 2000 for the drc--an investment 
in central oregon, in federal agencies' future role and in river basin 
                               management
    The DRC has a foundation enabling it to make a substantial 
contribution toward meeting the region's economic and ecological 
challenges. The potential for the DRC to marshal significant and 
ongoing resources and cooperation is great. The engagement of private 
sector interests in the design, funding, and implementation of 
ecological restoration efforts is an important precedent to help 
relieve federal budgetary requirements under a variety of programs and 
responsibilities. The DRC's combination of private and local interests 
with those of the federal agencies provides an opportunity to explore 
the cooperative sharing of authorities and responsibilities. The DRC 
represents a new institutional approach to river basin management that 
will be applicable to other river basins throughout the nation, 
particularly in the western regions.
                                 ______
                                 
    Prepared Statement of Jan Lee, Executive Director, Oregon Water 
                           Resources Congress
    Chairman Domenici and Members of the Subcommittee: Mr. Chairman, 
members of the subcommittee, I am Jan Lee, executive director of the 
Oregon Water Resources Congress (OWRC). The OWRC represents irrigation, 
water control, drainage and water improvement districts, private ditch 
and irrigation corporations, cities and counties, individual farmers 
and ranchers statewide as well as having agribusiness associates as 
members.
    I am writing to urge your support for the $18,366,000 included in 
the President's fiscal year 2000 Budget for the Bureau of Reclamation 
projects in the State of Oregon. The funding for these projects 
represents a valuable commitment to meeting the needs of our member 
organizations at a time when many are confronted with the problem of 
how to meet water delivery needs for their district populations while 
at the same time addressing environmental and Native American 
requirements. There are particular projects like the Deschutes 
Ecosystem Restoration program and the Klamath project in Southern 
Oregon that typify this balance.
    OWRC has a larger concern that the overall funding for the Bureau 
of Reclamation the past several years has not been adequate to address 
the backlog of projects in their program. We were greatly surprised 
that Congress cut the Bureau's Budget by 11 percent for fiscal year 
1999. The cuts in the Oregon Water management and Technical Assistance 
program, Efficiency Incentives program, Water Management Conservation 
Program and the Title XVI make it difficult for water users in the 
state to address the combination of water/environmental/Native American 
water resource issues.
    In addition to the proposed funding for Oregon projects in the 
fiscal year 2000 Budget, we would ask the Subcommittee to consider 
funding to move forward the Willow Lake Natural Treatment System Title 
XVI project in Salem, Oregon, a project that we support because of the 
agricultural component associated with the proposal. We would also ask 
that additional funding be included in the Efficiency Incentives 
Program for the Bend Feeder Canal in Bend, Oregon.
    I would also ask that the Subcommittee continue to look into the 
issues surrounding the report to the Subcommittee that the Bureau of 
Reclamation provided concerning annual costs associated with operation 
and maintenance for fiscal years 1993-1997. Our district's already have 
very tight budget constraints and are concerned with possibilities of 
having increased costs passed on that may have nothing to do with their 
projects.
    Thank you for considering our requests and we look forward to 
favorable action by the subcommittee.
                                 ______
                                 
          Prepared Statement of the McKenzie Watershed Council
    The McKenzie Watershed Council is an advisory body established in 
1993 with the purpose of helping to address management issues in 
Oregon's McKenzie River watershed and to provide a framework for 
coordination and cooperation among key interests. The mission of the 
20-member council is to foster stewardship of McKenzie Watershed 
resources, deal with issues in advance of resource degradation, and 
ensure sustainable watershed health, function, and uses.
    In March 1995, the Council, which includes a representative from 
the U.S. Army Corps of Engineers, agreed by consensus to support 
federal implementation of the Willamette River Temperature Control 
project. The U.S. Army Corps of Engineers has been authorized to 
evaluate and plan for the installation of temperature control 
structures in the McKenzie Watershed on the Cougar and Blue River 
projects. The recommended plan is to modify the projects by adding one 
multi-level, ported intake structure at each project. These structures 
will permit selective withdrawal of water from different elevations 
within the reservoirs to achieve preferred downstream water 
temperatures for anadromous and native fish species. The Cougar and 
Blue River projects are only a few miles above their respective river's 
confluence with the McKenzie River, so their influence on the McKenzie 
temperature regime is significant. The recommended plan is expected to 
produce an additional 16,700 spring chinook salmon annually in the 
McKenzie River watershed.
    Implementation of the Willamette River Temperature Control project 
takes on extra significance with the expected federal threatened 
species listing of the Upper Willamette spring chinook salmon. The 
McKenzie Watershed contains the last self-sustaining population of 
native spring chinook salmon in the Willamette system. Historically the 
McKenzie Watershed was the destination for 40 percent of the native 
spring chinook salmon passing above Willamette Falls. Obviously, the 
McKenzie Watershed will play a major role in the restoration of 
Willamette spring chinook salmon.
    Alterations to the water temperature regime of the McKenzie River 
have been cited by the Oregon Department of Fish and Wildlife as a key 
limiting factor for the production of spring chinook salmon. In 
addition to spring chinook, bull trout are listed as ``threatened'' 
under the federal Endangered Species Act, and their status would be 
improved with a modified temperature regime.
    The McKenzie Watershed Council commends the Clinton 
Administration's funding request for construction of this critical 
temperature control device. However, this funding request does not do 
enough to protect the McKenzie River's spring chinook salmon. The 
Council supports increasing fiscal year 2000 construction funding to $5 
million, which will accelerate completion of this critical project. In 
addition, this funding level will provide the scheduling flexibility 
necessary to accommodate spring chinook salmon migration and spawning 
cycles. It is essential that construction activities be managed in a 
manner that will minimize impacts on salmon.
    Adequate funding for this project, which will assure timely 
initiation and proper management, will accelerate the recovery of the 
McKenzie spring chinook salmon population. In comparison to other 
recovery options such as aquatic habitat enhancement, temperature 
control is the most effective and least costly alternative for 
restoring fish populations. Implementation of temperature control 
structures on the Cougar and Blue River projects will complement other 
critical restoration efforts being completed by public and private 
stakeholders in the McKenzie Watershed and throughout the Willamette 
Basin.
                                 ______
                                 
   Prepared Statement of William Martin, Chairman, Tumalo Irrigation 
                                District
    Chairman Domenici and Members of the Subcommittee: Tumalo 
Irrigation District (TID) is writing to urge your support for their 
request of $2,000,000 in the Bureau of Reclamation's fiscal year 2000 
budget. This money would be used for the piping of the Bend Feed Canal. 
This work would be undertaken through the Bureau of Reclamation's 
Efficiency Incentives Program.
    TID is located in Bend, Oregon and diverts its water from the 
Deschutes River and from Tumalo Creek. The water diverted from the 
Deschutes River is transported through a rapidly urbanizing area in an 
open canal which is made of porous volcanic materials. A portion of the 
canal is already piped and TID proposes using this funding for piping 
the balance of the canal including the flume over Tumalo Creek.
    The piping of the Bend Feed Canal will cost approximately 
$4,000,000, half of which will be paid for by the Tumalo Irrigation 
District. This piping will save a minimum of 20 cubic feet per second 
(cfs). From this savings, TID proposes targeting a 5 cfs flow for the 
Tumalo Creek, which currently is dried up in low water years The 
remaining 15 cfs of old rights will be exchanged for TID's 1961 rights 
which will be put in stream. The piping project will not expand TID's 
irrigated acreage.
    This project will help reestablish Tumalo Creek as a spawning area 
for fish and contribute flow to the Deschutes River. These flows will 
help in meeting the water needs of the northwest fish on the threatened 
or endangered species list.
    Although TID is experiencing an abundant snow pack this year, 
district users remember the drought years. The water savings will help 
insure a more reliable delivery of water in years of short supply.
    This project is a continuation of TID's conservation plan. Over the 
last four years TID has spent approximately $2,500,000 on piping its 
canals, laterals and ditches. In addition to the $2,000,000 that will 
be provided under the cost-sharing for this project, TID will spend 
approximately $800,000 to replace two flumes and approximately $250,000 
to install a fish screen in the next year.
    TID is a small irrigation district and needs federal assistance for 
the completion of the effort to pipe the Bend Feed Canal. As population 
in the Bend urban area is occurring at a rapid pace, enclosing the 
canal with pipe will reduce the drowning risk of children, pets and 
wildlife. TID believes the project is beneficial to the public with its 
water savings and safety features, and will provide increased 
reliability to its users.
    The Tumalo Irrigation District appreciates the Subcommittee's 
consideration of this request for the Bureau of Reclamation's fiscal 
year 2000 budget.
                                 ______
                                 
   Prepared Statement of Mayor Donna Evans, City of West Jordan, Utah
    Mr. Chairman, thank you for providing the opportunity to testify 
before your Committee. My name is Donna Evans, and I am the Mayor of 
West Jordan, Utah. The purpose of my testimony is to request $1.65 
millionfor the federal share of the construction for the West Jordan, 
Utah Water Reuse Project and $700,000 to complete the feasibility study 
and the planning and design for the Jordan River Meander project to be 
constructed by the U.S. Army Corps of Engineers.
    The Water Reuse project has been authorized as part of Public Law 
104-266 amending the Reclamation Wastewater and Groundwater Facilities 
Act (Title XVI of the Reclamation Projects Authorization and Adjustment 
Act of 1992). The City has committed the 75 percent local share for the 
project and is prepared to proceed. The Corps of Engineers expects to 
finish the feasibility study in fiscal year 2000 and complete the plans 
and specifications for the project in the next fiscal year.
                    west jordan water reuse project
    This project is located in the City of West Jordan, Utah, with a 
current population of over 52,000 people. As a suburb of Salt Lake 
City, the City of West Jordan is experiencing rapid growth. Since 1986 
the water use in the City has increased over 55 percent to over 13,000 
acre feet per year. During the summer months, water use increases 
mostly as a result of lawn watering and other outdoor irrigation 
activities. Records indicate that the average daily flow may increase 
as much as 77 percent over average annual flow to a maximum daily water 
use rate of almost 20 million gallons a day.
    This project would consist of the construction of the facilities to 
treat and distribute reclaimed water for the irrigation of public and, 
possible, private properties. The reclaimed water would be obtained 
from the effluent of South Valley water reclamation facility, located 
in the City of West Jordan. Up to 7000 acre feet per year of water 
would be available to reduce the peak loading of the culinary water 
delivery system and supplies. The water would receive tertiary 
treatment and disinfection prior to distribution.
    Due to the rapid growth of not only the City of West Jordan, but 
also the entire Salt Lake Valley, water resources are now being taxed 
to their limits. Salt Lake County Water Conservancy District (SLCWCD), 
which wholesales water to over twenty different entities in the valley, 
is projecting reaching their current peak flow capacity in three years 
or less. West Jordan currently purchases forty to fifty percent of 
their water supplies from SLCWCD, most of which is during peak demand 
of summer. Reducing the peak loading of West Jordan would not only 
benefit the residents of the City, but also the rest of the customers 
of SLCWCD by delaying or reducing the costly upgrades to the wholesale 
delivery system of SLCWCD.
    Although such water reuse is already being accomplished in other 
areas of the country, it is a relatively new approach to water 
conservation in Utah. The State of Utah has recently passed regulations 
on the use of effluent from treatment facilities. All current discharge 
parameters of South Valley Reclamation Facility meet the State 
regulations for Type I uses. Type I use is that which ``where human 
exposure is likely.'' Additionally, the State Division of Water Rights 
has recently issued their opinion on how the rights to the effluent 
would be distributed. Although there is not yet an official ruling, the 
City has been assured by the State Engineer that whatever water the 
City contributes to the treatment plant and has the original water 
rights for, the City has a right to reuse that quantity of effluent.
    Following the initial feasibility study, the City would proceed 
with detailed plans and specifications for the required facilities. 
These facilities would include, but not be limited to the following: 
Diversion structure with sand and/or activated carbon filter beds; 
lined holding pond or reservoir; pumping facility with chlorination or 
other disinfection capabilities; booster pump station(s); distribution 
system; and metering and billing capability.
    For the most part, all facilities would be constructed on City 
property or right of ways. Some land may have to be shared with or 
purchased from South Valley Reclamation Facility. Disturbance of any of 
the properties would be minimal. The impact would be no greater than, 
and possibly less, than the installation of necessary utilities to 
serve the growing population.
    Initially, it is projected that the project would be delivering up 
to 1000 acre feet of water to over 300 acres of City parks, cemeteries, 
and athletic complexes. As the system is expanded, it could serve a 
number of commercial landscapes and eventually private properties. As 
aforementioned, the City could divert up to 7000 acre feet of water, 
with current water rights.
    With the continuing growth of the Salt Lake Valley and particularly 
that of the City of West Jordan, new water supply sources are being 
exhausted physically and financially. Over one third of all water 
consumed is for irrigation of developed landscapes. This project would 
put to beneficial use water which is now discharging directly into the 
Great Salt Lake. Additionally, the project would reduce the use of 
drinking quality water for irrigation purposes, making more available 
where potable water is more critical. The $1.65 million would be the 
full federal share for the entire project.
                      jordan river meander project
    The Corps and the City of West Jordan are working on an 
environmental enhancement project to restore the River's meander 
through the City to reduce the River's current scouring impacts caused 
by man-made changes to the River's channel. The project will restore 
the River to its natural meandering path through a 1.7 mile corridor in 
the City and relocate 48'' and 56'' sewer lines to an alignment further 
west of the River.
    The Salt Lake District Office of the Corps of Engineers reports 
that with the funding they hope to complete the feasibility study in 
early fiscal year 2000 and initiate the planning and design phases of 
the project next fiscal year. The Corps will need $700,000 in fiscal 
year 2000 ($130,000 to complete feasibility and $570,00 to begin 
planning and design). The total Jordan River Meander project, including 
construction, is $6.8 million.
    Thank you very much for your kind consideration of our requests. 
Water supply is essential to the quality of life in West Jordan, Utah 
as it is in most western cities. The Reuse project redirects and 
strengthens the City's new strategy in water conservation and long term 
water supply. The Jordan River is the historic and ecological center of 
our city and having it restored to a more meandering course will 
enhance the quality of life for our citizens and improve the natural 
environment for our wildlife. In both cases the help from you and your 
committee will have a major positive impact on the quality of life in 
our city for our citizens. Thank you for your help.
                                 ______
                                 
           Prepared Statement of The Dry Prairie Rural Water
    Dry Prairie Rural Water (DPRW) joins the Fort Peck Tribes in the 
request for funds to continue the planning of the Fort Peck Reservation 
Rural Water System in the amount of $447,000 from the Burec General 
Investigations Account. DPRW serves the off reservation portion of 
Roosevelt, Sheridan, Daniels and portions of Valley county. The funds 
requested to address pre-authorization planning of the DPRW system are 
$193,000.
    With the funds from fiscal year 1999 appropriations, DPRW 
accomplished a tremendous amount towards the advancement of the 
project. The coordination and education of the public, Environmental 
analysis and pre-construction engineering are progressing very well. 
The state has also recognized the need for this system and have passed 
through committee an $82,000 Renewable Resource grant and a $100,000 
appropriation through the Joint Committee on Resources. These funds 
will be for fiscal year 1999 and 2000.
    With the funds from this request and the state and local funds, we 
hope to able to complete the environmental assessment and final 
engineering work. In the event the project is authorized this year, we 
will be ready to begin design level investigations.
    With the help from the previously allocated funds, DPRW has been 
able to secure a strong public participation in this project. All or 
100 percent of the cities have passed resolutions to participate in the 
system. They have paid or budgeted $5 per water service. The rural 
drive is going equally as well. From the rural sector we ask a $100 fee 
to be included in the planning of the system. Over 50 percent have sent 
in their fee with about 20 per week coming in at this time. The rural 
membership drive was started in December of 1998.
    One of the benefits that has already been realized from this effort 
is the trust and friendship building between the on and off-Reservation 
people. The joint effort to solve this common problem has made us aware 
of the different problems each of us face on both sides of the 
reservation borders. The problems will be easier to solve together.
    The water quality problems in the DPRW service area are similar to 
the problems on the Fort Peck Reservation. DPRW has one city with a 
condemned water system with two more operating at the edge of 
compliance. The quality of the ground water we are presently using has 
deteriorated quickly in recent years. Several cities have recently 
built treatment facilities only to find that they do not adequately 
purify the water. The excessive amounts of iron, sodium, nitrates, and 
sulfates are very expensive and difficult to filter out.
    We strongly believe that the only permanent and most economically 
feasible solution to the water problems in North East Montana is a 
regional water system using Missouri River water. With out this type of 
system, we will be forever struggling to find ways to make useless 
water usable. The health and economical welfare of this area depends on 
the success of this project.
    The Montana delegation introduced S 841 and H 2306 to the 105th 
Congress. These bills have been reintroduced this year. With strong 
state and local involvement we hope to be more successful in our bid 
for authorization.
                                 ______
                                 
       Prepared Statement of the Fort Peck Assiniboine and Sioux
    The Fort Peck Assiniboine and Sioux Tribes respectfully request 
funds to continue planning of the Fort Peck Reservation RWS, Montana, 
in the amount of $447,000. The Tribes are joined in fiscal year 2000 by 
the Dry Prairie Water System, a part of the Fort Peck Assiniboine and 
Sioux Rural Water System, that is planning water service to all or 
parts of Roosevelt, Sheridan, Daniels and Valley counties outside the 
Fort Peck Indian Reservation. The request for funds is for continued 
pre-authorization work on the Fort Peck Indian Reservation ($254,000) 
and within Dry Prairie Water System ($193,000).
    The Tribes are highly appreciative of the work by this Subcommittee 
on the project previously. In fiscal year 1993 and fiscal year 1994, 
$350,000 were appropriated, and in fiscal year 1997 through fiscal year 
1999, $810,000 were appropriated.
   accomplishments with prior appropriations and proposed activities
    The work products completed to date by the Bureau of Reclamation 
include a Needs Assessment and Feasibility Report within the boundaries 
of the Fort Peck Indian Reservation. The Fort Peck Assiniboine and 
Sioux Tribes have continued to work with the Bureau of Reclamation and 
the Tribes' engineer to improve upon and update the cost estimates for 
a regional project. The Final Engineering Report is in progress and 
will be completed in fiscal year 1999, incorporating the cost of 
expanding facilities on the Fort Peck Indian Reservation to serve the 
Dry Prairie Water System outside the Fort Peck Indian Reservation. The 
State of Montana, by action of its legislature, appropriated $62,000 in 
fiscal year 1997 to provide for a Needs Assessment and cost estimate of 
facilities outside the Reservation. The 1999 Montana Legislature is 
currently considering $182,000 in planning funds. The needs and 
facility costs determined for the Dry Prairie Water System are being 
incorporated into the Final Engineering Report.
    Based on the considerable pre-authorization work that has been 
completed fiscal year 2000 funding will provide for conclusion of the 
environmental assessment and value engineering concepts in the Final 
Engineering Report. In the event the project is authorized in fiscal 
year 1999, the fiscal year 2000 appropriations will be used to complete 
NEPA compliance requirements and to begin design level investigations.
         progress of the fort peck assiniboine and sioux tribes
    Through the efforts of this Subcommittee, planning for the project 
has been adequately advanced and we are hopeful that the project will 
be authorized this year. Specific technical objectives with the fiscal 
year 2000 funds include continued public involvement and coordination 
with off-Reservation interests in the Dry Prairie Water System by the 
Fort Peck Assiniboine and Sioux Tribes, continued work with the Bureau 
of Reclamation on NEPA and ways of reducing project costs while 
delivering necessary water requirements.
    The Tribes are extremely pleased with progress on the project to 
date. fiscal year 1997 through fiscal year 1999 focused on public 
involvement within the Fort Peck Indian Reservation and outside it. The 
Tribes held numerous public meetings to acquaint residents within the 
boundaries of this regional project with capital costs, operation and 
maintenance costs, planning for the establishment of an operation and 
maintenance entity and the potential impact on environmental resources. 
The Tribes have planned the use of water from the Missouri River on the 
basis of their Compact with the State of Montana which assures a 
dependable supply of project water without shortage. The efforts of the 
Tribes have involved members of the Tribal Council, Water Resources 
staff, the Tribes' Water Commission, members of the Fort Peck 
Assiniboine and Sioux Tribes and other residents of the Fort Peck 
Indian Reservation.
    Detailed cost estimates have been refined and expanded off the 
Reservation by the Fort Peck Assiniboine and Sioux Tribes and Counties 
Water System to assist water users and communities in an evaluation of 
the costs of participating in the project and improving drinking 
quality.
    The total project cost within the Reservation, sized to carry off-
Reservation water demands, is $103 million. The cost of enlarging the 
facilities to carry water to meet off-Reservation municipal, rural and 
industrial demands is $26 million (included in the $103 million). The 
cost of facilities outside the reservation is $76 million. Therefore, 
total project costs are $179 million. Assuming a cost share of 76 
percent federal and 24 percent local, consistent with the Safe Drinking 
Water Act, as amended, and comparable projects funded by the 
Subcommittee, the non-federal cost share would be $16.0 million. The 
Tribes recognize that the cost share details necessarily require 
Congressional concurrence and authorization.
    The cost of annual operation and maintenance of Fort Peck and Dry 
Prairie facilities is estimated at $2.57 per thousand gallons. Off-
Reservation users will have additional costs to operate and maintain 
off-Reservation transmission and distribution facilities and to retire 
debt. The Dry Prairie monthly cost of water at $40.00 is near the edge 
of the ability to pay.
                  dry prairie water system activities
    Part of the effort of the Fort Peck Assiniboine and Sioux Tribes 
during fiscal year 1997 and 1998 was to work with the off-Reservation, 
Dry Prairie, interests in the project to assist them with organization 
and an improved understanding of the project. This resulted in the 
formation of a Steering Committee for the Dry Prairie System, which 
then evolved to the formation of a conservation district under Montana 
law or a non-federal entity with a board of directors to plan and 
design the Dry Prairie system.
    The board has undertaken a fund drive for both communities and 
rural residences. One hundred percent (100 percent) of the communities 
have indicated their support of the project by contributing $5.00 per 
service connection, and as much as 75 percent participation from rural 
farmers and ranchers is expected with a $100.00 sign up requirement to 
evidence the support of the individual to the project. The degree of 
support for the project exceeds most other rural water projects in the 
northern great plains and indicates the severity of the water problem 
in the region. Improvement in the source and quality of water are 
considered essential to stabilizing the population of the area and 
attracting new industry.
      water quality of existing drinking water supplies and needs
    The geologic setting of the Fort Peck Indian Reservation and the 
counties outside the Reservation is comparable to the rest of eastern 
Montana, North Dakota and South Dakota. With the exception of the 
Missouri River, which is a high quality water source, the groundwater 
supplies of the region are of poor quality, derived from shales 
deposited in ancient seas. Some of the worst water on the North 
American Continent lies below the Fort Peck Indian Reservation in the 
Madison Formation. This water is not used for human or livestock 
consumption. It is a brine several times more concentrated than sea 
water. Above this unsuitable aquifer are lesser aquifers that have been 
subjected to oil and gas development and have been contaminated, in 
part, by those activities. Other near-surface aquifers are subject to 
growing nitrogen contamination from agricultural activities within the 
area.
    The Poplar River, which flows through the central portions of the 
Fort Peck Indian Reservation and the region is the subject of an 
Apportionment Agreement between Canada and the United States. Half of 
the water supply is available for Canada as measured at the 
International Boundary, and the balance is available for use in the 
United States. Depletion of this resource by agricultural and coal-
fired power generation on the Canadian side increases the 
concentrations of chemicals and contaminants in the supply for the 
United States. The Poplar River and its principle tributaries are 
neither dependable supplies of water nor are they of suitable quality 
for this project. Thus, the Fort Peck Tribes and the Counties Water 
System are seeking a regional water project, comparable to Garrison, 
WEB, Mni Wiconi and Mid-Dakota that rely on the high quality waters of 
the Mainstem Missouri River.
    The feature of this project that makes it more cost effective than 
similar projects is its proximity to the Missouri River. The southern 
boundary of the Fort Peck Indian Reservation is formed by the Missouri 
River for a distance of more than 60 miles. Many of the towns in this 
regional project are located two to three miles from the river, 
including Nashua, Frazer, Oswego, Wolf Point, Poplar, Brockton, 
Culbertson, and Bainville. As shown on the enclosed project map, a 
looping transmission system outside the Fort Peck Indian Reservation 
will deliver water 30 to 40 miles north of the Missouri River. 
Therefore, the distances from the Missouri River to all points in the 
main transmission system are shorter than in other projects of this 
nature in the Northern Great Plains.
    For comparison of water quality of this project with other regional 
projects, please refer to Tables 1 and 2.
            project authorization sought in fiscal year 1999
    In the first session of the 105th Congress, the Montana delegation 
introduced S. 841 and H.R. 2306, comparable bills in both houses of 
Congress for authorization of the Fort Peck Assiniboine and Sioux Rural 
Water Project. A hearing was held on the proposed legislation by the 
Senate Water and Power Subcommittee in fall 1997. A hearing before the 
House Water and Power Subcommittee was held in summer 1998. Means of 
financing the project within the Reclamation budget were discussed in 
the context of the GAO Report on this project and Lewis and Clark.
    The Montana delegation is working with the Tribes and the Dry 
Prairie Rural Water to re-introduce authorizing bills early in this 
session. The project is building good relationships throughout the 
region as we determine the interests of those outside the Reservation 
in participating in this most important project. The community-building 
aspects of the project have been considerable over a short period of 
time.
    We have worked with the Bureau of Reclamation to address its 
concerns related to federal and non-federal cost share, among other 
matters. Many of the initial issues have been clarified to the mutual 
satisfaction of the sponsors and Reclamation. There has also been good 
coordination with the Western Area Power Administration on the power 
provisions of the <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a1813161609543a">[email&#160;protected]</a>

Table 1.--Comparison of Fort Peck Total Dissolved Solid Levels With 
Comparable Projects

                                                  Total dissolved solids
                                                       project community
        Project/community                                          (mgl)

Fort Peck--Fort Kipp.............................................. 2,730
Lewis and Clark--Upper Limit...................................... 2,600
Mni Wiconi--Red Shirt............................................. 2,332
Mni Wiconi--Reliance.............................................. 2,056
Mni Wiconi--Murdo................................................. 1,761
Mni Wiconi--Kennebec.............................................. 1,740
Mni Wiconi--Presho................................................ 1,398
Fort Peck--Poplar................................................. 1,380
Fort Peck--Frazer................................................. 1,180
Lewis and Clark--Lower Limit...................................... 1,179
Mni Wiconi--Wakpamni Lake......................................... 1,125
Mni Wiconi--Horse Creek...........................................   869
Fort Peck--Brockton...............................................   748
Mni Wiconi--Pine Ridge Village....................................   416

Table 2.--Comparison of Fort Peck Sulfate Levels With Comparable 
Projects

        Project/Community                                  Sulfate (mgl)

Lewis and Clark--Upper Limit...................................... 1,500
Mni Wiconi--Reliance.............................................. 1,139
Fort Peck--Fort Kipp.............................................. 1,120
Mni Wiconi--Red Shirt............................................. 1,080
Mni Wiconi--Murdo................................................. 1,042
Mni Wiconi--Kennebec..............................................   984
Mni Wiconi--Presho................................................   644
Lewis and Clark--Lower Limit......................................   538
Fort Peck--Frazer.................................................   498
Mni Wiconi--Horse Creek...........................................   410
Mni Wiconi--Wakpamni Lake.........................................   398
Fort Peck--Brockton...............................................   212
Fort Peck--Poplar.................................................   103
Mni Wiconi--Pine Ridge Village....................................    70

  Prepared Statement of Hon. Jim Geringer, Governor, State of Wyoming
    This testimony supports the appropriation in fiscal year 2000 of 
$17,500,000 for the Bureau of Reclamation's basin-wide Colorado River 
Basin Salinity Control Program. This testimony is submitted in support 
of a fiscal year 2000 appropriation of $17,500,000 for the Bureau of 
Reclamation's Colorado River Salinity Control Program. Testimony was 
recently submitted to this Subcommittee by the Colorado River Basin 
Salinity Control Forum (Forum), a seven-state organization created by 
the Governors of the Colorado River Basin States, by the Forum's 
Executive Director, Jack Barnett. The State of Wyoming, a member state 
of the Forum, concurs in the Forum's testimony. While the President's 
recommended budget line-item for the basin-wide Colorado River Basin 
Salinity Control Program is $12,300,000, the State of Wyoming and the 
Forum urge the Congress to increase the appropriation for this Program 
by $5,200,000. The implementation of the Program has fallen behind the 
needed pace to prevent salinity concentration levels from exceeding 
specified numeric criteria in the water quality standards for the 
Colorado River. In addition to considerations of complying with this 
basin-wide water quality standard, the United States has committed to 
the Republic of Mexico, pursuant to Minute 242 of the 1944 ``Treaty 
Between the United States and Mexico, Relating to Waters of the 
Colorado and Tijuana River and of the Rio Grande,'' to managing the 
salinity concentrations of water deliveries to Mexico.
    The State of Wyoming is one of the seven member states represented 
on the Forum and the Colorado River Basin Salinity Control Advisory 
Council (Council). The Council was created by Section 204 of the 1974 
Colorado River Basin Salinity Control Act (Public Law 93-320). Like the 
Forum, the Council is composed of gubernatorial representatives of the 
seven Colorado River Basin states. Both the Council and Forum serve 
important liaison roles among the seven states, the Secretaries of the 
Interior and Agriculture and the Administrator of the Environmental 
Protection Agency (EPA). The Council is directed by statute to advise 
these federal officials on the progress of the federal/state cost-
shared, basin-wide salinity control programs, and annually recommends 
to the Federal agencies what level of funding it believes is required 
to meet the objective of assuring continuing compliance with the basin-
wide water quality standards.
    The Council last met in October 1998 and developed funding 
recommendations for fiscal years 2000 and 2001 based on the progress 
the Bureau of Reclamation, the U.S. Department of Agriculture, the 
Bureau of Land Management and the seven states are making in 
implementing their programs for managing and reducing the salt loading 
into the Colorado River System. The Council's funding recommendations 
further heeded analyzes made by the Bureau of Reclamation and the 
Forum. Every three years the Forum updates the plan of implementation 
for maintaining the Colorado River water quality standards for salinity 
in accordance with Section 303 of the Clean Water Act. The 1996 
triennial review of the standards identified the need for the Bureau of 
Reclamation to expend $17,500,000 per year in order to carry out its 
portion of the plan of implementation. The plan is devised to assure 
that the salinity concentrations of Colorado River water do not exceed 
the numeric criteria set forth in the standards. Based on its own 
review of the facts, the Council recommended that a minimum of 
$17,500,000 needs to be expended by the Bureau of Reclamation during 
fiscal year 2000 to accomplish needed salinity control activities.
    This funding level is appropriate if the salinity of Colorado River 
waters is to be controlled so as not to exceed the numeric salinity 
concentration criteria contained within the water quality standards for 
the Colorado River. Without the necessary levels of funding, there is 
an increased probability that the numeric criteria will be exceeded 
resulting in violations of the basin-wide water quality standards. 
Without the necessary levels of funding, there is an increased 
probability that the numeric criteria will be exceeded resulting in 
violations of the basin-wide water quality standards. Failure to 
maintain the standards' numeric criteria could result in the imposition 
of state-line water quality standards (as opposed to the successful 
basin-wide approach that has been in place since 1975) and impair 
Wyoming's ability to develop our Compact-apportioned water supplies. 
The present basin-wide salinity control program and its funding 
arrangements appropriately reflects that the primary beneficiaries of 
the basin-wide salinity control program are in the Lower Basin while 
the most cost-effective opportunities to reduce salt loading are 
upstream in the Upper Basin. Failure to maintain the standards' numeric 
criteria could result in the imposition of state-line water quality 
standards (as opposed to the successful basin-wide approach that has 
been in place since 1975) and impair the states' ability to develop its 
Compact-apportioned water supplies. Delaying or deferring adequate 
funding will create the need for a much more expensive salinity control 
effort in the future to assure that the Colorado River Basin states are 
able to comply with the water quality standards. ``Catch-up'' funding 
in the future will require the expenditure of greater sums of money, 
increase the likelihood that the numeric criteria for Colorado River 
water quality are exceeded, and create undue burdens and difficulties 
for one of the most successful Federal/State cooperative non-point 
source pollution control programs in the United States.
    In July, 1995, Congress amended the Colorado River Basin Salinity 
Control Act. The amended Act provided Reclamation with additional 
authorities that have improved upon the cost-effectiveness of 
Reclamation's salinity control program, in large part because it 
provided for proposals and greater involvement from the private sector. 
Submitted proposals have far exceeded the available funding, while at 
the same time overall progress in accomplishing the rate of salinity 
control determined to be needed and as set forth in the Plan of 
Implementation continues to fall behind the scheduled rate.
    We urge this Subcommittee to fund the level for the Colorado River 
Basin Salinity Control Program line-item in Reclamation's budget at 
$17,500,000. In addition to the funding needs identified for the basin-
wide Colorado River Basin Salinity Control Program, the State of 
Wyoming supports the appropriation of Operation and Maintenance funds 
for completed Reclamation salinity control projects, including the 
Paradox Valley Unit. The State of Wyoming understands that a portion of 
the General Investigation Funds included in the President's budget are 
intended for salinity control activities. Wyoming supports the 
appropriation of funds to accomplish these necessary planning and 
investigation activities.
    Thank you for the opportunity to submit this testimony. I request, 
in addition to your consideration of its contents, that you make it a 
part of the formal hearing record concerning fiscal year 2000 
appropriations for the Bureau of Reclamation.
                                 ______
                                 
              DEPARTMENT OF ENERGY PROGRAMS AND ACTIVITIES
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), the largest single 
life science organization in the world, comprised of more than 43,000 
members, appreciates the opportunity to provide written testimony on 
the fiscal year 2000 budget for the Department of Energy's (DOE) 
research programs.
    The ASM represents scientists who work throughout academic, 
governmental and industrial institutions worldwide. Microbiologists are 
involved in research to improve human health and the environment. The 
ASM's mission is to enhance the science of microbiology, to gain a 
better understanding of basic life processes, and to promote the 
application of this knowledge for improved health, and for economic and 
environmental well being.
    The ASM strongly supports the inclusion of basic science programs 
within the DOE. While relatively small in terms of the overall DOE 
appropriation, these programs provide important fundamental discoveries 
that establish the foundation for subsequent developments in 
biotechnology related to energy and the environment. It is imperative 
for the United States to maintain a strong science budget that supports 
basic research.
    Along with enhanced appropriations to fund specific program areas, 
it is important that the DOE receive increases in administrative 
budgets to properly staff and manage fundamental science programs. 
Investments in well-managed basic and applied science programs can 
produce long term benefits. Over the past decade, scientific research 
has become more interdisciplinary. It is essential that DOE have the 
resources necessary to adapt to these changes in science and to hire 
the necessary experts to manage programs effectively. This will allow 
the Agency to make educated program and funding decisions based on 
cross-disciplinary scientific expertise.
    Many DOE scientific research programs share the common goal of 
producing and conserving energy in environmentally responsible ways. 
Areas of research include basic research projects in microbiology, as 
well as, extensive development of biotechnological systems to produce 
alternative fuels and chemicals, to recover fossil fuels, to improve 
the refinement process of fossil fuels, to remediate environmental 
problems, and to reduce wastes and pollution.
    In 1997, the United States signed the Kyoto Protocol and committed 
to reduce the nation's carbon dioxide emissions to eight percent below 
1990 levels. The Administration proposed a government-wide Climate 
Change Technology Initiative (CCTI) to implement this commitment and to 
find solutions to problems associated with greenhouse gasses. The 
President's budget for DOE proposes $437 million for this initiative. 
These funds will be allocated throughout the Agency's programs 
including the Office of Science (SC). Biological research is slated to 
receive a significant boost from this initiative. As part of the CCTI, 
DOE will support microbiological research on carbon management science 
including basic studies on microorganisms that consume carbon, and on 
other microbes that assist in the development of carbon free energy 
sources. Combating global warming is critical and these programs will 
make significant contributions to the long-term battle to maintain the 
quality of our atmosphere.
    The ASM is encouraged by the President's budget request for DOE's 
science programs. The Administration's proposed budget for fiscal year 
2000 requests $17.8 billion for the DOE overall. Included in that 
request is $2.8 billion for programs supported by the Office of 
Science. The following comments focus on research supported by the 
Biological and Environmental Research (BER) and Basic Energy Sciences 
(BES) programs and make recommendations related to carbon management, 
genomics, bioremediation, ocean science, and basic energy science. 
Federal investment in these programs today will help to ensure 
fundamental research to find solutions to future environmental and 
energy problems while maintaining U.S. scientific leadership worldwide.
                       carbon management science
    An important component of the CCTI program in BER addresses the 
basic phenomena and strategies for managing the carbon budget of our 
terrestrial and ocean systems. Biological sequestration of carbon, both 
its capture and stability of the biologically produced carbon forms, 
has major effects on the global CO<INF>2</INF> and methane 
concentrations. Furthermore, stored carbon such as soil carbon, has 
beneficial effects on plant growth, water retention in soil, and soil 
structure.
    The President's budget proposes an increase from $5.5 million in 
fiscal year 1999 to $13.0 million in fiscal year 2000 for the carbon 
management research program. Approximately $5.8 million of this budget 
would be devoted to genome sequencing of microorganisms important to 
carbon sequestion and hydrogen production. ASM strongly supports this 
enhanced effort and believes that new understanding will be derived 
that will aid decisions about management of the global carbon cycle, 
and new biotechnologies discovered that can reduce CO<INF>2</INF>, 
convert carbon to useful products and stabilize fixed carbon.
                                genomics
    DOE supports the Microbial Genome Program (MGP) within the Office 
of Biological and Environmental Research . The program, developed in 
1994 as a compliment to the Human Genome Program, already provides 
complete genome sequence information on important microorganisms. The 
Administration has proposed $10 million for fiscal year 2000, about $1 
million more than last year.
    Genome sequencing has revolutionized the scientific approach to 
understanding biology and is providing a depth of insight not 
previously possible. DOE's MGP has led the way in this new biological 
era, completing full genome sequences of several microorganisms 
important in energy and environmental processes. Now, however, other 
nations have seen the promise of this field of research and have 
mounted significant programs. Continued growth in the DOE MGP is 
critical to maintaining U.S. leadership in this important field. This 
research should include not only the genome sequencing but the 
functional analysis of those genomes, the associated software and 
databases to fully and efficiently analyze the information, and 
development of new technologies to help characterize the genes of 
unculturable microbes in nature.
    In view of the tremendous potential to be derived form microbial 
genome sequencing, ASM recommends that Congress provide $15 million for 
the MGP. A base funding level of $10 million to sequence critical 
organisms within the scope of DOE's mission should be provided to the 
MGP. Funding from the CCTI should serve as an add-on to the program for 
specialized sequences of organisms related to the mission of the CCTI.
    Researchers supported by the MGP have already sequenced several 
complete microbial genomes, including ones from methanogens living in 
deep-sea thermal vent regions, and a bacterium that is extremely 
resistant to radiation, Deinococcus radiodurans. This sequence 
information provides clues into how we can design biotechnological 
processes that will function in extreme conditions, including ones that 
will generate fuels and help clean up the environment. With each new 
genome that is sequenced we gain a greater understanding of microbial 
evolution and diversity. Also, each sequenced genome has revealed how 
much more science needs to learn. Thirty percent of each genome has no 
known function. This presents a great challenge for scientists to 
unravel the genomes' significance for understanding microbial evolution 
and the potential for biotechnological developments.
    The DOE has established the necessary peer review and advisory 
program to the MGP to ensure that the microorganisms selected for 
sequencing will yield the greatest scientific informational benefits 
and that the research is of the highest quality. Important new 
knowledge has been gained from each and every genome sequenced. The ASM 
believes that even greater benefits would be achieved if the program 
were funded at the level of $15 million and strongly urges this 
Subcommittee to consider adding these funds to the Microbial Genome 
Program for support of competitive research.
    The DOE has expanded its research into microbial diversity, and has 
begun sequencing the genomes of bioremediative microorganisms. Due to a 
scientific approach called sequence leveraging, a practice of using 
previously sequenced microbes to build the sequences of similar non-
sequenced microbes in a more cost-effective manner. The results of 
these initiatives will be readily available to other scientists, 
through the use of on-line databases. All genome sequences supported by 
the MGP are available to the public and as such contribute to further 
scientific exploration. The public disclosure of genomic data will aid 
scientists in their research into new biotechnologies such as 
bioremediation, a technology that is proving to be a practical and a 
cost-effective way of eliminating pollutants.
                             bioremediation
    The MGP's research into bioremediative microorganisms compliments 
the research supported by the DOE's Natural and Accelerated 
Bioremediation Program (NABIR) and other DOE bioremediation research 
initiatives. The NABIR program is level funded from fiscal year 1998 
with a request for fiscal year 2000 of $19.1 million. The ASM supports 
the Administration's request for bioremediation research. However, the 
ASM believes that greater benefits will be achieved if the NABIR 
program is increased to $30 million, which is more consistent with the 
original $40 million plan for the program.
    Bioremediation scientists are searching for cost-effective 
technologies to improve current remediation methods to clean up DOE's 
contaminated sites. This research will lead to new discoveries into 
reliable methods of bioremediation of metals and radionuclides as well 
as organic pollutants in soils and groundwater. The NABIR program 
supports the basic research that is needed to understand this 
technology to more reliably develop the practical applications for 
cost-effective cleanup of pollutants at DOE sites. The ASM strongly 
recommends that additional funding be allocated to balance the program 
elements and pollutants studied as originally envisioned when the NABIR 
Program was designed.
                             ocean science
    Other exciting new microbiological research supported by BER is in 
the Ocean Sciences Program. The Administration's budget request 
includes $6.9 million for this program in fiscal year 2000. 
Microbiological research supported by the Ocean Sciences Program 
investigates the effects global change has on marine microbes. The 
findings from this program will be crucial to understanding the 
responses of marine biological systems to changes in their 
environments. The ASM fully supports the Administration's request for 
this program.
                         basic energy sciences
    The Administration's requested funding level for the Office of 
Basic Energy Sciences is $888.1 million for fiscal year 2000. This 
funding level is an $88.6 million increase over last year. BES funds 
important microbiological basic research programs through the Energy 
Biosciences Division. In fact, about one fifth of all BES funds go 
directly to support research at academic institutions across the 
nation.
    This program focuses on research in both microbiological and plant 
sciences that will lead to new discoveries in producing energy without 
risk to the environment and finding effective methods of cleaning up 
existing contamination. The CCTI effort of BES is proposed to increase 
from $8.0 million to $20.0 million in fiscal year 2000. Research on the 
microbial role in the carbon cycle is an important part of this 
program.
    Other microbiological research supported by this program includes 
biotechnology related to energy, biofuel production, and technologies 
to aid in the restoration of contaminated environmental sites. More 
basic research on hydrogen, methane, and ethanol production is needed 
if we are to meet future energy needs and to have fuels that will 
minimize environmental pollution. The ASM supports the proposed funding 
level for this program and urges Congress to allocate these funds for 
the Energy Biosciences.
                               conclusion
    DOE's research programs help to keep the United States at the 
forefront of scientific discovery and competitive in the world 
marketplace. The ASM encourages Congress to maintain its commitment to 
the Department of Energy research programs to maintain the United 
States' leadership in these vital industries and continue our 
commitment to a strong basic science program.
    The debate over the effect of greenhouse gasses on the environment 
is complex. While some may disagree about the severity of the 
greenhouse problem, most will agree that the reduction of industrial 
gasses emitted into the atmosphere will provide more long term 
environmental benefits than continuing to increase the rate these 
gasses enter our atmosphere. In Kyoto, the United States committed to 
significantly reduce carbon dioxide emissions into the atmosphere. 
DOE's basic research programs support research that investigates 
solutions to existing and future environmental and energy problems. 
Through the leadership of DOE's basic research science in clean fuels, 
and environmental processes, new technologies will be developed to 
enable the U.S. to be better prepared to meet environmental problems 
and the economic challenges associated with them.
    In summary, the ASM makes the following recommendations:
  --The ASM believes that it is imperative for the United States to 
        maintain a strong science budget that supports basic research.
  --It is essential that the DOE receive sufficient increases in 
        administrative budgets to properly staff and manage biological 
        science programs.
  --The ASM recommends that Congress provide $15 million, $6 million 
        more than fiscal year 1999 funding, for the Microbial Genome 
        Program. The MGP should have a base funding level of $10 
        million to sequence critical organisms within the scope of 
        DOE's mission. Funding from the Climate Change Technology 
        Initiative should serve as an add-on to the program for 
        specialized sequences of organisms related to the mission of 
        the CCTI.
  --The ASM recommends that the CCTI programs in BER and BES receive 
        the $33.0 million proposed for fiscal year 2000, and that $5.8 
        million of this be devoted to genome sequencing of 
        microorganisms important to global carbon management.
  --The ASM recommends $30 million be appropriated for the NABIR 
        program to provide the funds necessary to sustain a balanced 
        program of bioremediation research on chemicals important to 
        DOE site cleanup.
  --The ASM fully supports the Administration's request for $6.9 
        million for the Ocean Sciences Program.
    Thank you for the opportunity to provide testimony in support of 
the DOE basic life sciences programs. The ASM hopes that its 
recommendations will be useful to the Subcommittee. We would be pleased 
to respond to any questions.
                                 ______
                                 
 Prepared Statement of Dr. Ellen Futter, President, American Museum of 
                            Natural History
    Founded in 1869, the American Museum of Natural History is one of 
the nation's pre-eminent scientific and educational institutions. For 
over 129 years, the Museum has pursued a mission of examining critical 
scientific issues and increasing public knowledge about them. 
Throughout the Museum's history, its explorers and scientists have 
pioneered discoveries that have offered us new ways of looking at 
nature and human civilization. The Museum has sponsored thousands of 
expeditions, sending scientists and explorers to every continent. This 
rich scientific legacy includes an irreplaceable record of life on 
earth in collections of some 32 million natural specimens and cultural 
artifacts that are an extraordinary research tool and represent the 
focus of science at the Museum. The Museum's power to interpret wide-
ranging scientific discoveries and convey them imaginatively has 
inspired generations of visitors to its grand exhibition halls and 
educated millions about the marvels of the natural world and the 
vitality of human culture. With four million visitors annually (of whom 
half are schoolchildren), the largest unified natural history library 
in the Western Hemisphere, a staff of dedicated educators who seek to 
inspire curiosity and a desire to learn in both children and adults, 
the Museum is known as one of the nation's preeminent scientific and 
educational institutions.
    More than 200 active research scientists with internationally 
recognized expertise conduct more than 150 field projects each year. 
Museum scientists in the ten scientific departments are retracing the 
evolutionary tree, documenting changes in the environment, and 
describing the achievements of human culture affecting the public's 
understanding of where we come from and where we may be headed.
    The Museum's ongoing research provides the foundation for its 
educational mission. The goals of its educational programs include 
increasing scientific literacy among both adults and children 
nationwide addressing issues that affect our daily lives and the future 
of the planet and its inhabitants, and providing a forum for exploring 
world cultures. The recent Museum's launching of the National Center 
for Science Literacy, Education, and Technology in partnership with 
NASA helps to further these goals. In creating the National Center, 
AMNH and NASA recognized an opportunity to combine and leverage their 
incomparable resources. The National Center creates materials and 
programs that reach beyond our institutional walls into homes, schools, 
museums, and community organizations around the nation.
    The Museum actively continues a tradition of creating some of the 
greatest scientific exhibitions in the world. Early in the year 2000, 
the Museum will open the new Rose Center for Earth and Space, in one of 
the most exciting chapters in the Museum's long and distinguished 
history of science and education. The Rose Center includes a newly 
rebuilt and updated Hayden Planetarium and will allow visitors to 
journey among the stars and planets in our own galaxy as well as those 
of other galaxies; the Lewis B. and Dorothy Cullman Hall of the 
Universe, where interactive technology and participatory displays will 
elucidate important principles of astronomy and astrophysics; and the 
adjoining Gottesman Hall of Planet Earth (opening in 1999). The new 
Hall of Planet Earth will explore key questions such as: how has the 
Earth changed though time; why do ocean basins continents and mountains 
exist; what causes climate change; and why is the Earth habitable. As 
part of the exhibition the question of natural resources will be 
explored: what are they; what resources are necessary to generate 
energy (oil, coal, goethermal); where are they located; and how are 
they formed. The Rose Center for Earth and Space will enable the Museum 
to join science and education to provide a seamless educational journey 
taking visitors from the beginnings of the universe, to the formation 
and processes of Earth to the extraordinary and irreplaceable diversity 
of life and cultures on our planet.
    One of the strategic goals of the Department of Energy is to 
utilize its assets to advance the nation's science literacy. In 
addition to our mutual commitment to science literacy, the American 
Museum and DOE share several other joint goals, including: making 
science/scientific enterprise more accessible to a large and diverse 
audience; harnessing the power of technology to support science, 
exhibition, and education; and enhancing the diversity of the science 
workforce working with schools, parents, and the community. The DOE has 
enormous resources that can support the activities of the American 
Museum's science, exhibition, and education programs. In partnership 
with DOE, the Museum would significantly advance the public's access to 
the expertise, data and technology that has been developed by DOE.
    The Department of Energy has traditionally been one of the major 
sources of support for research and laboratory instrumentation 
equipment. The types of laboratories and instrumentation that the 
American Museum seeks are indeed consistent with the DOE's mission. The 
Molecular Systematics Lab is a critical tool to basic energy research, 
the human genome project, and the Department's biological and 
environmental research function (the BER account).
    Technology is rapidly changing the way we perceive nature. With the 
advent of DNA sequencing, museum collections have become critical 
baseline resources for the assessment of the genetic diversity of 
natural populations. Genomes, especially those of the simplest 
organisms, provide a window onto the fundamental mechanics of life. One 
of the goals of the DOE sponsored Human Genome Program is to learn 
about the DNA of nonhuman organisms. This, the sponsors of the research 
say, can lead to an understanding of their natural capabilities that 
can be applied toward solving challenges in health care, energy 
sources, and environmental cleanup. We believe that the Museum's 
accomplishments in this area support and complement the Department of 
Energy's goals in this area.
    The American Museum has a history of being at the forefront of 
conservation activities. In addition, the molecular systematics 
programs at the Museum are on the cutting edge in the use of DNA 
sequences in conservation and evolutionary research. The Museum houses 
two molecular laboratories that are directed by four curators from the 
Museum and one from The New York Botanical Garden. Current studies 
focus on a variety of endangered species representing diverse 
geographic and taxonomic scope, including: tiger beetles and moths of 
the Atlantic coast of North America, sturgeon of the Caspian Sea, 
muntjacs (small deer) recently discovered in Southeast Asia, lemurs and 
whales of Madagascar, spotted owls of the Pacific Northwest, tiger 
populations throughout Asia, and right whales around the world. Ancient 
DNA, essential for historical study of changes in genetic markers in 
endangered species, has been recovered from museum specimens of rare or 
extinct animals, as well as 25-million-year-old termites fossilized in 
amber.
    As more species become threatened and extinct, it is more critical 
than ever to catalogue and store the variety of life's natural genetic 
diversity so that it will be available far into the future. For these 
reasons, the Museum has launched a new effort to create a super-cold 
storage facility. Located in a new, state-of-the-art collections and 
laboratory building, this new storage facility will enable Museum 
scientists and researchers from around the world to perform unique and 
vital DNA research. This new storage facility will multiply the 
possibilities for DNA research exponentially.
    Molecular techniques have revolutionized the study of biology, 
including conservation, evolution, and medicine. As part of our ongoing 
mission in collections-based research we propose expanding activities 
in the preservation of biological tissues and molecular libraries in 
super-cold storage for current and future genetic research. This 
collection is unique and valuable for research in several fields, 
including:
  --Conservation genetics.--The practice of systematics and the 
        management of endangered species rely on collections to provide 
        data on the natural distribution of populations on the planet 
        over time. Accurately identified specimens accompanied by data 
        such as date and locality of their collection are essential for 
        the design of field projects. With the advent of DNA 
        sequencing, museum collections have become valuable resources 
        for recognizing species and assessing changes in the genetic 
        diversity of natural populations throughout periods of 
        ecological change.
  --Systematics.--Natural history collections are critical resources 
        for the creation of phylogenetic trees (branching diagrams 
        representing evolutionary relationships), as many species that 
        are pivotal to the reconstruction of a full evolutionary 
        history of a group are known only from museum material. The 
        American Museum frozen-tissue program provides a means to 
        appropriately store rare organisms for molecular work. This 
        collection serves as a permanent library of the molecular 
        structure of organisms and is an important source of loans to 
        investigators from around the world.
  --Medicine.--Better understanding of the natural arrangements of 
        genomes and interactions among genes is driving, and will 
        continue to drive, the development of novel therapies for 
        disease. It is also clear that many genes of significant 
        scientific and medical importance are found only in a few 
        organisms. Such natural products are useful in ways we are only 
        beginning to understand. Tissue collections such as the one we 
        propose expanding at the Museum will preserve genetic material 
        and gene products from rare and endangered organisms that may 
        go extinct before science fully exploits their potential.
    The super-cold natural history collection is a permanent world wide 
resource for storage, conservation of genetic resources, and loans to 
the scientific community. Most biological material in natural history 
collections is dried or formalin fixed. While these methods preserve 
anatomy, they do not preserve nucleic acids and proteins in workable 
quantities. A super-cold natural history collection of vast biological 
diversity is underway at the Museum.
    Now in operation for eight years, the Musuem's molecular 
laboratories have accrued tens of thousands of specimens. We will 
create a database not only for record keeping, but also to make this 
collection easily searched via the Internet and accessible for loans by 
scientists outside the Museum. We foresee increased loan activity as 
the fields of molecular systematics and comparative genomics continue 
to grow. Because tissues could be easily depleted by several requests, 
molecular libraries (DNA in fragments multiplied and stored in easily 
workable vectors) are or will be constructed for many of these 
specimens. Many of the tissues and molecular libraries in the Museum=s 
frozen collection come from long-term field projects with extensively 
detailed data.
    We also suggest establishing a geographically based, publicly 
accessible Web site that enables users anywhere to access the available 
information. Projects of this type are critical to fostering a public 
understanding of human genomics and the fundamental building blocks of 
life, and are in keeping with the DOE's own stated goals.
    Molecular information is important for understanding the history of 
life. The phylogenetic trees constructed from DNA sequence data have 
changed how biologists think about ecology, evolution, conservation, 
development, and behavior. The phylogenetic approach relies heavily on 
primary DNA sequences. However, many lineages of organisms have only 
been sampled in a very cursory manner or not at all.
    In the past, the time and expense of DNA sequencing forced 
systematists to collect sequences from only one gene per species. A 
single set of character information is inadequate to represent the 
complexity of the organisms and their history. Fortunately, with 
support of the Department of Energy's Human Genome Program, DNA 
sequencing technology has improved rapidly in the past five years 
(bases sequenced per unit time has increased at least tenfold). This 
improvement has allowed the Museum's molecular labs to address gaps in 
knowledge of biodiversity by sequencing DNA from rare, endangered, and 
understudied organisms. Concomitantly, Museum scientists are working to 
improve the theory and implementation of phylogenetic analysis of vast 
data sets of DNA sequences and other forms of biological information 
such as the anatomy of extant and extinct organisms.
    Currently, the Museum has one old and one new sequencer, both of 
which are operated on a 24 hour/day, 7 day/week schedule. Museum 
researchers bring a great deal of knowledge of the natural world and a 
staggering diversity of organisms into the lab. Our students and 
scientists are not typically molecular biologists but rather 
zoologists, botanists, and resource managers who are trained at the 
Museum to collect raw sequence data from the organisms in which they 
specialize and analyze the data for evolutionary and conservation 
studies. Sequence data are shared worldwide on NIH's Genbank database 
and via original scientific research disseminated in theses and peer 
reviewed publications.
    Given that DNA sequencing technology has improved vastly in 
rapidity and cost effectiveness in the past five years, and given the 
Department of Energy's increased pace for the Human Genome Program, we 
seek in FY00 the addition of upgrade sequencing and computational 
equipment to the Museum's molecular laboratories. These upgrades will 
allow us to fully benefit from the intellectual resources represented 
by our students and scientists and the physical resources contained in 
our new super-cold storage facility. In addition, the Hall of Human 
Biology and Evolution at the Museum is a major resource for the public 
and especially students. The Human Genome Program of the DOE is an 
important endeavor. We propose to assist the DOE to translate its 
findings to the public through a AGenetics Bulletin, a set of 
continually updated interactive media kiosks that display research 
findings in the exhibition hall and can be made available 
internationally via public web sites.
    Despite empirical advances, no amount of sampling of DNA of extant 
animals will help researchers overcome the gaps in evolutionary history 
that are left by extinction events. As a result, analytical approaches 
that combine DNA sequence with other types of information such as the 
anatomy of living and fossil species are proving very informative. 
However, because of the mathematical difficulty inherent in calculating 
phylogenetic trees, our ability to understand data lags far behind our 
ability to produce raw data.
    A common theoretical problem in biology is the accommodation of 
diverse kinds of information and their ability to jointly support 
notions of evolutionary relationships. For example, several studies 
focus on the integration of data from adult anatomy with molecular 
information. How are such diverse kinds of information combined? 
Furthermore, how can the information presented by the fossil record 
help distinguish among hypotheses derived from molecular evidence? We 
have addressed these issues through new ways of describing characters 
(DNA or any feature of an organism) mathematically and linking them 
through novel means of phylogenetic-tree reconstruction. These methods 
are general and useful, but require immense computational attention, 
necessitating the development of new parallel algorithms in order to 
examine these procedures and questions.
    In addition to building biological expertise at the level of the 
molecule and organism, researchers at the Museum have been studying the 
mathematical and algorithmic complexities of phylogenetic analysis in 
great depth over the last 20 years. By expanding the parallel-
processing cluster, we plan to develop and explore new approaches to 
making sense of the large and diverse datasets necessary to appreciate 
organismal diversity. The Museum has made software available to the 
research community free of charge and will continue to do so. 
Furthermore the Museum serves as a center for training and symposia on 
evolutionary theory.
    We are seeking, therefore, a fiscal year 2000 DOE investment of $2 
million to support genomic research and related facility and 
instrumentation needs including a super cold storage facility, DNA 
sequencing and computational equipment, and related educational 
materials.
                                 ______
                                 
Prepared Statement of Joe L. Mauderly, Senior Scientist and Director of 
     External Affairs, The Lovelace Respiratory Research Institute
    It is proposed that the Department of Energy negotiate with the 
Lovelace Respiratory Research Institute to establish a long-term 
agreement for operation of the privatized, government-owned Inhalation 
Toxicology Research Institute facility on Kirtland AFB in Albuquerque, 
NM.
                           executive summary
    Beginning in fiscal year 1997, the Lovelace Respiratory Research 
Institute joined DOE in a pioneering effort to privatize the operation 
of a small DOE research laboratory, the Inhalation Toxicology Research 
Institute in Albuquerque, NM. The facility was leased to Lovelace for a 
five-year period, allowing Lovelace to diversify and build federal and 
non-federal support for research in the facility, thereby preserving it 
as a national research resource, offsetting the economic impact of 
declining DOE funding and potential closure, and mitigating DOE's 
liability for decommissioning the facility. Lovelace continues DOE work 
under a cooperative agreement, and pays use fees for non-DOE work at 
the facility.
    Lovelace committed its resources to the success of the venture. It 
focused its corporate mission, out-placed peripheral activities, 
reorganized and consolidated its administrative and scientific 
activities, renovated portions of the facility at its own expense, 
developed an aggressive marketing program, diversified its customer 
base, and spearheaded a community technology incubator program which 
uses a portion of the facility.
    The privatization has been successful.--Research support for 
activities in the facility has increased. Research support has been 
diversified, and major new programs have been initiated for both 
federal and non-federal customers. To date, $359 thousand in use fees 
were collected. Many companies have been served by the incubator. 
Hundreds of direct jobs have been saved and many more indirect jobs are 
supported by the effort.
    The privatization is at a critical point, and the future 
disposition of the facility must be resolved quickly or the effort will 
fail.--Now, in the third year of the initial five-year agreement and 
with no resolution of longer-term use, Lovelace is prevented from 
establishing long-term research agreements for either federal or non-
federal clients. DOE's Albuquerque Operations Office recently provided 
Lovelace with a draft agreement which would extend the lease for a 
total of up to 10 years. Lovelace urgently seeks an arrangement that 
provides a longer-term operating horizon and allows use fees to be used 
for facility maintenance.
                    background of the privatization
    The Lovelace Respiratory Research Institute (LRRI) is an 
independent, non-profit biomedical research organization located in 
Albuquerque, NM and dedicated to the prevention, treatment, and cure of 
respiratory disease. LRRI conducts basic and applied research for 
government, industry, health advocacy organizations, and the public. 
Beginning with a 1960 contract with the Atomic Energy Commission, 
Lovelace developed and managed the government-owned laboratory which 
became the DOE-owned Inhalation Toxicology Research Institute (ITRI), a 
one-of-a-kind international center of excellence for basic and applied 
research on respiratory disease, respiratory toxicology and 
environmental lung health risks. DOE work at ITRI was funded primarily 
by the Office of Energy Research (ER), with lesser levels of funding 
from the Offices of Defense Programs and Environment, Safety, and 
Health.
    During the late 1980s and early 1990s, the decline in DOE/ER 
priorities for research on health outcomes resulted in the closure of 
many of the Agency's laboratory-based biology programs, with the 
exception of those closely related to the human genome and nuclear 
medicine. Declining funding threatened the continued existence of the 
ITRI facility, and its operation as a special purpose DOE laboratory 
prevented Lovelace from replacing declining DOE funds by responding to 
other federal and non-federal research customers in a competitive 
manner. Recognizing the value of ITRI as a national research resource, 
Lovelace negotiated an agreement with DOE to privatize the facility on 
a five-year trial basis.
    LRRI leases the ITRI facility from the government through DOE as 
the landlord agency. The term of the present lease is five years, the 
first year being fiscal year 1997. The lease allows use and sublease of 
the facility for purposes generally consistent with past uses. Under 
the lease payment is made to the U.S. Treasury at the rate of 3.53 
percent of gross revenues from non-DOE sources, excluding support from 
LRRI's own endowment. Under the cooperative agreement, a fee of 3.45 
percent of the total value of grants and contracts is assessed for use 
of government-owned equipment in work for non-federal customers. 
Equipment fee revenues may be used at ITRI as DOE program funds as 
specified in 10 CFR 600. The lease clauses included DOE support for 
facility repair or replacement costs over $25,000. To terminate work 
under the previous Management and Operating contract, DOE agreed to pay 
costs incurred by reductions in workforce necessitated by the loss of 
DOE funding and not offset by new business.
    Upon privatization, DOE work by Lovelace in the leased ITRI 
facility continued under a five-year cooperative agreement, with total 
funding projected to decline progressively from approximately $13 
million in fiscal year 1997 to $4 million in fiscal year 2001. LRRI 
accepted the considerable challenge of developing new research and 
business activities that, at minimum, must offset the progressive loss 
of DOE support.
Lovelace committed its organization to the privatization effort
    Enabled by the privatization of the ITRI facility, LRRI 
consolidated its multiple research and administrative operations into a 
single organization. The Institute then embarked on a rapid 
transformation that purposefully linked the future of the organization 
to its success in privatizing the ITRI facility. It recruited a new 
President/CEO oriented toward development of research business, 
narrowed its scientific focus to respiratory disease, out-placed 
research programs not aligned with this focus, combined and reduced the 
total size of administrative functions, shifted from a local to a 
national Board of Directors, implemented a multifaceted marketing 
program, consolidated its laboratory staff in the ITRI facility, 
undertook (at its own expense) several facility renovations, and 
subleased excess portions of both LRRI-owned and ITRI facilities.
             the privatization has clearly been successful
The research conducted in the facility has grown and diversified
    From fiscal year 1996 to fiscal year 1999 (to date), LRRI has 
increased its annual non-clinical research business from approximately 
$17 million to approximately $21 million. This increase has been 
attended by a considerable diversification of funding for work in the 
ITRI facility. In fiscal year 1996, before privatization, 71 percent of 
the work in the facility was supported by DOE, 12 percent by NIH, 9 
percent by other federal agencies, and 8 percent by non-federal 
customers. In fiscal year 1999 (to date), only 31 percent of the work 
in the facility is funded by DOE, 16 percent by EPA, 10 percent by NIH, 
10 percent by DOD, and 33 percent by non-federal sources. A total of 
$359 thousand in facility and equipment use fees has been collected 
from non-DOE clients to date.
    LRRI's success has supported the local economy through the 
retention of approximately 200 jobs directly within the Institute, 
which translates into approximately 1000 total jobs, most of which are 
in the local community.
    new federal research initiatives depend on continued use of the 
                                facility
DOE has a continuing need for the facility
    It is clear that DOE itself has continuing need for the 
capabilities offered by LRRI and the ITRI facility. During fiscal year 
1999, DOE is funding approximately $700 thousand in new work obtained 
through competitive grants programs from various offices, and this work 
is intended to continue in future years. The Office of Heavy Vehicle 
Technologies has established a growing environment, safety, and health 
program concerning engine emissions, and LRRI is a major participant in 
this program. Indeed, the funding for LRRI work on engine emissions, 
made possible by the unique ITRI facility, nearly tripled from fiscal 
year 1998 to fiscal year 1999, and is envisioned to continue for 
several years.
   the environmental protection agency has a continuing need for the 
                                facility
    In fiscal year 1998, congress established the National 
Environmental Respiratory Center through the EPA appropriation as a 
multi-year research program to address the growing crisis of 
apportioning adverse health effects of environmental air pollution 
among the many constituents of air pollution mixtures. This program, 
developed by LRRI at the ITRI facility and unlike any other air 
pollution research effort in the nation, is essential to providing a 
foundation for the air pollution regulatory framework of the future. 
The work was made possible by the unique capabilities of the ITRI 
facility for creating in the laboratory complex mixtures of man-made 
and natural air contaminants, and conducting laboratory assays of the 
health effects of the mixtures. This body of research will be jointly 
funded by EPA, other federal agencies, states, and industry, and is 
intended to continue at a level of approximately $4 million/yr for at 
least six more years. In addition to the Center, EPA has funded several 
new projects at LRRI in response to competitive solicitations for work 
on airborne toxic materials and environmental lung disease.
The Department of Defense has a continuing need for the facility
    As described above, research funding from DOD has grown, and the 
Agency clearly has a continuing need for the capabilities Lovelace 
offers at the ITRI facility. Recent examples are studies to resolve 
Gulf War Illness issues, the cancer hazards of depleted uranium 
fragments retained deep in tissue, and the detection of airborne 
biological agents.
    The ITRI facility is slated to play an increasing role in the 
development of new technologies to detect and mitigate chemical, 
biological, and radiological threats of both military and domestic 
importance. Based in part on the unique capabilities of the ITRI 
facility for working safely with very hazardous agents and creating 
atmospheres of airborne agents, a new working alliance has formed among 
LRRI, Sandia National Laboratories, Los Alamos National Laboratories, 
and the University of New Mexico. This new Research Alliance for Health 
and National Security will pool intellectual and technical resources to 
develop new technologies to detect and reduce threats, protect 
personnel, and stage and treat victims. Although each member 
organization brings special capabilities to the Alliance, the continued 
existence of LRRI's capabilities at the ITRI facility are central to 
the work plan.
The National Institutes of Health has a continuing need for the 
        facility
    NIH (NHLBI, NIEHS, NCI) continues to fund research utilizing the 
ITRI facility. One example is the multi-year Special Center of Research 
Excellence (SCORE) grant awarded jointly to the University of New 
Mexico and LRRI to conduct research on the causes of the continual 
increase in childhood asthma. Part of this work requires the 
specialized capabilities of ITRI to generate atmospheres of tobacco 
smoke and other air pollutant mixtures to determine their role in the 
development of asthma. NIEHS recently awarded a developmental center 
grant to the University of New Mexico, and a portion of the research 
requires the environmental research capabilities of the ITRI facility. 
There have been discussions with the Director of NIEHS regarding the 
potential use of the ITRI facility in a more direct manner to support 
the Agency's inhalation toxicology needs.
The facility is also being used to support a growing technology 
        business incubator
    LRRI is playing a key role in an effort involving other community 
groups to develop a technology business incubator program. The Business 
Technology Group (BTG) was formed in the fall of 1997 by LRRI, Sandia 
National Laboratories, the Albuquerque and Hispano Chambers of 
Commerce, the Albuquerque Department of Economic Development, 
Technology Ventures Corporation, the Center for Entrepreneurship, the 
University of New Mexico, and several private companies. Local 
incubator space was consolidated under the BTG, an Executive Committee 
was formed to direct operations, and an Evaluation Committee was formed 
to evaluate potential incubatees. LRRI provides a portion of the 
incubator space through subleases of the ITRI facility, and provides a 
wide range of administrative, scientific, and technical support 
services to the occupants.
    After only one year of operation, 41 new companies have already 
been served by this incubator, providing numerous jobs in the 
community, and several additional companies are either in negotiations 
with BTG or have expressed interest.
There is an urgent need to resolve the long-term future of the facility
    Both DOE and LRRI can take satisfaction in the clear success of the 
exploratory privatization effort to date. The success of this effort 
provides a unique demonstration that it is possible to privatize 
government-owned research facilities and at the same time enhance their 
value as a national resource.
    It is now critical to build on this success by developing a long-
term plan for the use and maintenance of the facility. LRRI and the DOE 
Albuquerque Operations Office are currently negotiating an extension of 
the lease, but this is not an adequate long-term solution. For example, 
even a revolving five-year lease would only permit LRRI to compete for 
multi-year projects during the first two of each five years, an 
arrangement which would ensure failure. It is important to note that 
this limitation is troublesome for both federal and non-federal 
customers, who have demonstrated their interest in maintaining programs 
in the facility, as well as for LRRI, which has structured its 
organization around the effort.
    There are several alternative possibilities for resolving this 
issue. For example, a longer-term (eg, 10 year) agreement with 
negotiation on future use beginning at the mid-point (eg, at five 
years) would be a step in the right direction. On the other end of the 
spectrum, it may be possible to convey ownership of the facility to 
LRRI or a community group. LRRI is open to discussing any possibility, 
including those that might require a legislative mandate.
    It is important to recognize that a long-term use arrangement can 
not succeed without provision for investment in the maintenance of the 
structures, heating and cooling equipment, etc. that are essential to 
the usefulness of the facility. The Agency would incur a considerable 
cost to decommission the facility if it were abandoned. It may be cost-
effective for the Agency to mitigate or delay this cost may be offset 
by a modest investment in the facility. At a minimum, the use fees 
collected from non-DOE research sponsors should be used for this 
purpose.
                                 ______
                                 
  Prepared Statement of Dr. David E. Baldwin, Senior Vice President, 
                        General Atomics, et al.
    Chairman Domenici, Senator Reid and Members of the Subcommittee, we 
are very pleased to submit this statement on the status of the fusion 
energy sciences program. We each believe that the nation's fusion 
research program is experiencing the most exciting and important new 
developments in a long time. We want to tell you about some of those 
changes and our developing plan for the future of fusion energy 
research.
    Fusion is a scientific and technological grand challenge. It has 
required the development of the entire field of high-temperature plasma 
physics, a field of science that contributes to the description of some 
99 percent of the visible universe. Plasma physics also provides cross-
cutting insights to related fields such as nonlinear mechanics, atomic 
physics, and fluid turbulence. Quality science has always been the key 
to optimizing fusion systems. Throughout the history of fusion energy 
research, the combination of exciting, challenging science and the 
lofty energy goal has attracted gifted young people into fusion 
research, many of whom have gone on to make important contributions in 
related scientific fields and in the commercial technology arena.
    The DOE Fusion Energy Sciences program is exploring multiple paths 
for optimizing the fusion systems, taking advantage of both the strong 
international program in magnetic fusion energy and the strong DOE 
Defense Programs effort in inertial confinement fusion. As in other 
fields, the advancement of plasma science and technology requires 
facilities in a range of sizes, from the largest devices that press the 
frontier of high-temperature plasmas to smaller experiments suitable to 
begin the exploration of innovative ideas for fusion optimization. The 
very largest facilities may require international collaboration while 
the smallest are natural for university-scale investigation. Specific 
questions of plasma science and fusion technology set both the required 
number and the required scale of the experimental facilities in the 
program.
                      fusion approaches and issues
    There are two principal approaches to creating practical fusion 
energy: magnetic fusion energy (MFE) and inertial fusion energy (IFE). 
Scientific progress in both of areas has been profound over the past 
decade. For both MFE and IFE, there is little question that the 
generation of copious fusion energy in the laboratory is scientifically 
and technically achievable. Fusion energy production of over 20 MJ per 
pulse has already been achieved in MFE and is anticipated for IFE in 
NIF in 2008. The challenge to fusion researchers now is to make fusion 
power practical, affordable, and attractive. Each approach to fusion 
has a different mix of technical attributes. As it is presently unclear 
which approach will ultimately prove the most meritorious, a prudent 
fusion development strategy is one which retains breadth and well as 
depth in its scope and has a process for advancement of the most 
attractive concepts and elimination of noncompetitive approaches.
    Issues unique to MFE include (1) maximizing the pressure of the 
plasma that can be held by the confining magnetic field; (2) minimizing 
the transport loss of heat from the plasma; (3) achieving stable, 
steady-state operation in self-heated, burning plasmas; and (4) 
controlling of the plasma edge including exhaust of the fusion ash, 
which is helium. Issues unique to IFE include (1) completing the target 
physics program as part of the DOE DP Stockpile Stewardship Program; 
(2) developing an efficient, rep-rated driver for target compression; 
(3) developing low-cost methods for target fabrication, injection and 
tracking; and (4) developing chamber concepts capable of containing 
repeated micro-explosions over long periods. Issues in common include 
production of the tritium fuel, reduction of activation of the 
confining structure, and efficient conversion of neutron energy 
produced to electricity.
                 recent changes in u.s. fusion research
    As Members of this Subcommittee are well aware, the fusion energy 
sciences program has been through a number of very significant changes 
over the past few years. These changes have included substantial cuts 
to the program budget (nearly 40 percent between fiscal year 1996 and 
today) and the resulting termination of one major and several minor 
experiments, an increased emphasis on scientific understanding and 
innovative alternative approaches to fusion energy development, and the 
withdrawal of U.S. participation in the design of a major international 
fusion collaboration.
    One of the more significant recent developments to occur in the 
fusion program has been the closer alliance between inertial 
confinement fusion scientists and magnetic fusion energy scientists. As 
you are aware, the development of inertial confinement fusion has been 
pursued primarily as a means of providing insight into the physics of 
nuclear weapons and for maintaining the reliability of our nuclear 
weapons stockpile. While some work on inertial fusion energy 
development is funded through the fusion energy sciences budget, most 
of that budget is focused on the development of magnetic fusion energy 
and science.
    Recently however, scientific and technological progress in inertial 
fusion has led to increased confidence that inertial confinement may 
present another potentially attractive path to fusion energy. So, 
somewhat over a year ago, in response to this progress and to guidance 
from your Subcommittee, intensive discussions began between the 
leadership of the magnetic and inertial confinement fusion communities.
    Those discussions and the strengthening bond between the magnetic 
and inertial fusion communities has resulted in a new proposal or 
roadmap for the management of our nation's fusion energy research.
            a portfolio-based roadmap for fusion energy r&d
    The ultimate goal of fusion research is the creation of a nearly 
ideal energy source for future generations: one that is safe, 
inexhaustible, without harmful atmospheric emissions, and that has a 
fuel source readily available to all nations. After decades of R&D and 
many advances, the promise of fusion energy remains bright. Significant 
challenges, however, remain to fulfill this promise. In the nearer 
term, fusion research yields rich benefits in fundamental science and 
practical technology.
    Within the fusion community, we are in the process of developing a 
portfolio-based roadmap for the future of U.S. fusion research that we 
believe to be responsive to this subcommittee's directions.
    The central element of the roadmap is the exploration of a 
portfolio of promising ideas for improved fusion concepts, including 
improvements to the leading tokamak concept. This effort builds on the 
major advances in the knowledge of fusion physics, gained particularly 
over the last decade, coupled with greatly improved methods for 
measurement of critically important local plasma parameters. Promising 
ideas can be more readily identified in both MFE and IFE based on new 
understanding in areas like plasma turbulence, nonlinear instabilities, 
particle and radiation transport, MHD stability, wave-particle 
interactions, and the plasma/material interface. This naturally leads 
to the use of a ``portfolio'' approach. In order to provide a framework 
to assess the relative level of development among the different fusion 
concepts being pursued within MFE and IFE and to permit the application 
of appropriate objectives and criteria for success within the fusion 
portfolio, concepts are expected to advance through a series of 
distinct stages of experimental development. The lowest stage is 
identified as ``Concept Exploration'', then ``Proof of Principle'', 
followed by ``Performance Extension.'' Success in these stages then 
should lead to the technical and scientific basis for making a decision 
to advance the concept to a stage of ``Fusion Energy Development,'' and 
ultimately to a fusion demonstration power plant.
    This development roadmap is optimized to provide the most cost-
effective route to the knowledge base for practical fusion power. At 
all times it balances the risk of innovative new ideas, pursued 
initially at low cost, with the scientific productivity of well 
established concepts, pursued in more powerful and expensive devices. 
An important aspect of this portfolio-management approach is that there 
is strong scientific synergy across the elements of the portfolio, and 
indeed scientific advances made in one concept are readily translated 
to others. The breadth of the portfolio assures that attractive 
opportunities are not missed, and roadblocks are not likely to span all 
approaches. It also broadens the arena of spin-offs from fusion 
research to other areas of U.S. science and technology.
                          fusion funding needs
    In developing this plan or roadmap for fusion research, we are 
trying to be responsive to both Congress's expressed concerns and to 
the long-term energy needs of the nation. The program seeks to broaden 
fusion research with a central theme of optimizing the fusion power 
source through application of the underlying science. However, this is 
necessarily a broader fusion program whose goals cannot be met at the 
current level of funding ($223 million in fiscal year 1999), and the 
fusion budget must be increased to $300 million per year in the near 
term. While still well below the funding of only a few years ago, this 
funding level will support a considerably broadened program in both MFE 
and IFE, enable initiatives like the new laser fusion initiative, allow 
for greater utilization of existing experimental facilities, ensure 
that potentially viable paths to fusion are not overlooked, and ensure 
continued measurable and substantial progress towards the ultimate goal 
of practical fusion energy.
  --Within MFE, there are today compelling and peer-reviewed near-term 
        opportunities for investment in innovative confinement 
        experiments (at a range of scales), new tools for the U.S. 
        tokamak facilities to address advanced-tokamak issues and 
        collaboration on the most powerful experimental facilities 
        overseas. These investments will enable a broad, coordinated 
        attack on key scientific and technical issues associated with 
        the optimization of magnetic confinement systems and the 
        achievement of the most attractive power plant concept.
  --Within IFE, exciting opportunities exist in parallel with the 
        construction and operation of NIF, to demonstrate the 
        principles for a range of potentially attractive drivers for 
        repetitively imploding fusion targets (including both ion beams 
        and lasers), to address associated fusion target chamber 
        technologies, and to examine techniques for the mass 
        manufacture of precision targets. New innovative driver and 
        target concepts are also being developed, providing 
        opportunities for new science and a potentially more attractive 
        ultimate power plant.
  --In support of both areas there are opportunities in technology 
        development, advanced simulation, and basic plasma science and 
        technology.
    We recognize, however, that funding increases this year may be 
heavily constrained. In this event, to begin to broaden the fusion 
research agenda in fiscal year 2000, an appropriate level of support 
for the Fusion Energy Sciences program would be $260 million, including 
the $10 million needed to begin decommissioning of the DOE TFTR device 
at Princeton. This level would permit a start on the expanded IFE 
program and on important MFE opportunities which cannot be addressed at 
the current level.
    Thank you for the opportunity to submit this statement.
                                 ______
                                 
 Prepared Statement of Lynne P. Brown, Ph.D., Associate Vice President 
for Government and Community Relations, Center for Cognition, Learning, 
                Emotion and Memory, New York University
    Research into cognition, learning, emotion, and memory can help 
educators, physicians, and other health care givers, policymakers, and 
the general public by enhancing our understanding of normal brain 
development as well as the many disabilities, disorders, and diseases 
that erode our ability to learn and think, to remember, and to emote 
appropriately.
    New York University is seeking $10.5 million over five years to 
establish at its Washington Square campus a Center for Cognition, 
Learning, Emotion and Memory. The program will draw on existing 
research strengths in the fields of neural science, biology and 
chemistry, psychology, computer science, and linguistics to push the 
frontiers of our understanding of how the brain functions, and how we 
learn.
    Such exploration into the fundamental neurobiological mechanisms of 
the nervous system has broad implications for human behavior and 
decision making as well as direct applicability to early childhood 
development, language acquisition, teaching methods, computer science 
and technology development for education, the diagnosis and treatment 
of mental and memory disorders, and specialized training for stressful 
occupation.
     cognition, learning, emotion and memory studies at nyu (clem)
    New York University is poised to become a premier center for 
biological studies of the acquisition, storage, processing and 
retrieval of information in the nervous system.
    To be housed at NYU's Washington Square Campus within the Center 
for Neural Science, the new Center will capitalize on the university's 
expertise in a wide range of related fields that encompass our computer 
scientists who use MRI imaging for research into normal and 
pathological mental processes in humans, our vision scientists who are 
exploring the input of vision to learning and memory, our physical 
scientists producing magnetic measurements of brain function with a 
focus on the decay of memories, our linguists studying the relation of 
language and the mind, and our psychiatrists conducting clinical 
studies of patients with nervous system disorders.
    The New York University Program in Cognition, Learning, Emotion and 
Memory (CLEM) focuses on research and training in the fundamental 
neurobiological mechanisms that underlie learning and memory--the 
acquisition and storage of information in the nervous system. Current 
studies by the faculty at NYU are determining why fear can facilitate 
memory; how memory can be enhanced; what conditions facilitate long-
term and short-term memory; and where in the brain all these memories 
are processed and stored. The research capacity of this Center 
capitalizes on our expertise in physiology, neuroanatomy, and 
behavioral studies, and builds on active studies that range from the 
mental coding and representation of memory to the molecular foundations 
of the neural processes underlying emotional memories. Our faculty use 
electrophysiological and neuroanatomical techniques to study the 
organization of memory in the medial temporal lobe. Together these 
researchers bring substantial strength in psychological testing, 
computational sophistication, advanced tissues staining and electrical 
probes, and humane animal conditioning.
    These core faculty are well recognized by their peers and have a 
solid track record of sustained research funding from federal agencies 
and private foundations: total costs awarded and committed for their 
research for full project periods from all sources presently total $7 
million. Additional faculty are being recruited in areas of 
specialization that include: the cellular and molecular mechanisms 
operative in neural systems that make emotional memory possible, 
neurophysiological studies of memory in non-human primates, 
computational modeling of memory, and neuropsychological and imaging 
research on normal and pathological human memory.
    Colleagues in the Biology Department are doing related work in the 
molecular basis of development and learning. Given the important input 
of vision to learning and memory, the Center has strong links with the 
many vision scientists based in the Psychology Department who work on 
directly related topics that include form, color, and depth perception, 
memory and psycholinguistics. Colleagues in behavioral science study 
learning and motivation, memory and aging. Physical scientists explore 
the magnetic measurement of brain function, with a focus on the decay 
of memories. CLEM also shares research interests with colleagues in the 
Linguistics Department, who study the relation of language and the 
mind.
    Research linkages extend to computational vision studies, now 
centered in NYU's Sloan Program in Theoretical Neurobiology. The Sloan 
Program works closely with computer scientists at our Courant Institute 
on Mathematical Science, with colleagues at the Medical Center in 
Psychiatry, who use MRI imaging for research into normal and 
pathological mental processes in humans, and in Neurobiology, who are 
conducting clinical studies of patients with nervous disorders, 
especially memory disorders.
    What is unique and exciting about the establishment of such a 
comprehensive center at NYU is the opportunity to tap into and 
coordinate this rich multidisciplinary array of talent to conduct 
pioneering research into how the brain works. In this, the ``Decade of 
the Brain,'' NYU is strategically positioned to be a leader.
                     early childhood and education
    Research into the learning process as it relates to attention and 
retention clearly holds important implications for early childhood 
development. Although most of a person's brain development is completed 
by birth, the first few years of life are critically important in 
spurring intellectual development. For example, research has already 
shown that in their early years, children need human stimulation, such 
as playing and talking, to develop the ability to learn.
    With more immigrant children in schools, language development is 
another crucial area of study. If a child's brain were more receptive 
to acquiring sounds during the first few months of life, and language 
in the first few years of life, then students may learn a second 
language more quickly if taught in the lower grades instead of waiting 
for high school.
    In the midst of a national debate on education reform, thousands of 
education innovations are being considered without the advantage of a 
fundamental understanding of the learning process. CLEM researchers, 
coupled with educational psychologists, can contribute to a better 
understanding of how parents can stimulate their children's cognitive 
growth, how children learn at different stages and use different 
styles, how educators can accommodate those styles, and how educational 
technology can be harnessed to increase retention and memory.
    At NYU, these efforts will be enhanced by our scholars and research 
conducted in our School of Education and our New York State-supported 
Center for Advanced Technology.
              computer science and technology development
    As we refine our knowledge of how the brain acquires, processes, 
retains and retrieves information and images, we will also be able to 
improve the design, development and utilization of computer science and 
technology. As we reach a better understanding of how children learn, 
we can more effectively harness computer technology in the service of 
education.
    At NYU, this effort is enhanced by the presence of our New York 
State-supported Center for Digital Multimedia, Publishing and 
Education, which brings together educators, laboratory scientists and 
software designers who explore how interactive multimedia technologies 
enhance learning and develop prototype teaching models.
                          specialized training
    Research into how cognition and emotion interact can have 
applicability to other diverse areas of interest including retraining 
of adult workers, job performance and specialized training for high 
risk or stressful jobs such as military service and emergency rescue 
work.
    Accordingly, we believe that the work of this Center is an 
appropriate focus for the Department of Energy, given the Department's 
long-term involvement and investment in computer science technology 
through its Basic Energy Sciences program. The focus of the NYU Center 
for Cognition, Learning, Emotion and Memory is entirely consistent with 
the Department's commitment both to the Basic Energy Sciences, 
including computer science, and to its commitment to Biological and 
Environmental Research. We have demonstrated how scientists from a 
broad range of biological sciences are working together with leading 
mathematics and computer science researchers to achieve a better 
understanding of how the brain functions and how we learn. The 
Department's commitment to education and to science will be well served 
through this partnership.
                                 ______
                                 
     Prepared Statement of Kerry L. Sublette, Sarkeys Professor of 
             Environmental Engineering, University of Tulsa
    It is proposed that the U.S. Department of Energy support a 
focused, university-based program, the Integrated Public/Private Energy 
& Environmental Consortium (IPEC), with the goal of increasing the 
competitiveness of the domestic energy industry through a reduction in 
the cost of compliance with U.S. environmental regulations. Federal 
support is specifically requested as part of the fiscal year 2000 
appropriation for the Department of Energy through the Biological and 
Environmental Research account or other source the Subcommittee may 
determine to be appropriate.
    Last year the Congress provided $1.5 million in funding for the 
Integrated Public/Private Energy & Environmental Consortium (IPEC) 
(formerly the Integrated Petroleum Environmental Consortium) in the 
fiscal year 1999 appropriations bill for the Environmental Protection 
Agency (EPA). Specially this funding was provided for the development 
of cost-effective environmental technology, improved business 
practices, and technology transfer for the domestic energy industry. 
With initial funding under the Science and Technology account of EPA, 
IPEC will implement a comprehensive mechanism (Center) to advance the 
consortium's research expertise in environmental technology. The 
consortium includes the University of Tulsa, the University of 
Oklahoma, Oklahoma State University, and the University of Arkansas.
    IPEC's operating practices and linkages to the independent sector 
will ensure that real problems in the domestic energy industry are 
addressed with real, workable solutions. Indeed this Subcommittee 
highlighted and supported these efforts by including strong support 
language in the committee report. We thank you for your support and 
would also like to express our appreciation to those members and their 
staff who provided valuable advice and guidance during the last session 
of Congress. As envisioned and proposed by the consortium, State-level 
matching funds have been pledged to support IPEC, creating a true 
Federal-State partnership in this critical area.
    IPEC officers have met with the Director of the Environmental 
Engineering Research Division of the EPA National Center for 
Environmental Research and Quality Assurance. The Consortium is working 
with EPA to ensure that we meet the agency's requirements for funding 
as a research center and the successful funding of IPEC.
    IPEC is proceeding in its solicitation and review process so that 
we will be in a position to fund projects as soon as possible. The IPEC 
Industrial Advisory Board (IAB) has been formed and met for the first 
time on January 20, 1998. This twenty-member Board is composed of 
environmental professionals from the domestic energy industry and is 
dominated by representatives of independent producers. We are pleased 
to report that IPEC's Industrial Advisory Board has approved five 
programs for funding and more are expected in the coming months. These 
five projects include the following:
    (1) Intrinsic bioremediation of whole gasoline.--This project seeks 
to develop a scientific basis for a risked-based approach to management 
of sites contaminated with gasoline. The project will investigate the 
mechanism and rate of the natural attenuation of gasoline via 
biodegradation by microorganisms which occur naturally in soil (termed 
intrinsic bioremediation). If all of the regulated components of 
gasoline can be naturally biodegraded, then contaminated sites which 
pose no immediate threat to human health or environmental receptors can 
be given a low priority for active intervention freeing precious 
resources to be allocated to sites where the threat is more acute.
    (2) Microflora involved in phytoremediation of polyaromatic 
hydrocarbons.--Phytoremediation is the term applied to the use of 
plants and microorganisms that thrive in the plant's root zone to 
biodegrade soil pollutants such as polyaromatic hydrocarbons (PAHs). 
PAHs are a major class of recalcitrant pollutants and are a significant 
byproduct of petroleum processing and refining. PAHs are concentrated 
in food chains, are toxic, and some are recognized mutagens and 
carcinogens. This project will determine the feasibility of using 
plants to degrade these PAHs in contaminated soil by creating a 
``living cap'' of plants and associated microorganisms over 
contaminated sites. The costs of such waste treatment are far below 
those required for conventional treatment such as excavation and 
incineration of contaminated soil.
    (3) Passive sampling devices (PSDs) for bioavailability screening 
of soils containing petrochemicals.--The concept of a risk-based 
corrective action applied to the management of contaminated soil or 
groundwater requires that a regulator assess human risk. Soil 
contaminants can be detected by chemical analysis, but this provides 
little information on the actual hazard presented to ecological and 
human receptors. In some cases, contaminant levels above current soil 
quality guideline levels exists, but not toxicity. In other cases, 
chemical levels are below soil quality guidelines, yet toxicity 
persists. This project seeks to develop a rapid, cost effective 
screening tool or passive sampling device (PSD) to determine the actual 
toxicity of contaminants in soil and their bioremediation potential. 
Use of such a device to determine the actual risks to human health 
presented by a site and its amenability to bioremediation would allow 
regulators to better prioritize contaminated sites needing immediate 
remedial action.
    (4) Using plants to remediate petroleum-contaminated soil.--This 
project also proposes to use plants and associated microorganisms in 
the plants root zone to effect the remediation of soil contaminants. 
This project specifically seeks to conduct field studies to develop 
protocols suitable for phytoremediation of petroleum-contaminated 
secondary containment berms. These earthen berms are designed to 
contain fluids in the event of a major spill or leak in a tank. Many of 
these berms become contaminated with oil through leaks, spills, and 
normal transfer operations. This project envisions the continuous 
cultivation of suitable plants on these berms to keep oil contamination 
under control.
    (5) Probabilistic risk assessment of petroleum contamination using 
detailed physical models.--Like all human endeavors the exploration and 
production (E&P) of oil and gas has associated with it some risk of 
damage to human or environmental health. Response to this risk can be 
reactive or proactive. The latter is of course preferred since 
proactive management prevents environmental damage and injury and is 
less costly. This project will develop a proactive risk management 
program for E&P operations to minimize the potential for environmental 
damage. This risk-based approach makes resource allocation more 
effective based on the probability that a scenario will occur and the 
potential severity of the associated damage. Proactive risk management 
in the domestic petroleum industry has the potential for both 
significant cost savings and enhanced environmental protection.
    The use of the Industrial Advisory Board to measure the relevancy 
of research within the Consortium is truly unique and ensures that the 
Consortium is meeting the needs of the domestic energy industry. IPEC 
has secured significant matching funds from industry for these first 
five programs. The combined funding request for these five projects is 
$492,000; however, the investigators have secured another $502,000 in 
matching funds from industry for these projects from individual 
companies and industry organizations such as the Gas Research 
Institute, the American Petroleum Institute and the Petroleum 
Environmental Research Forum. IPEC is well on its way to becoming a 
true public/private partnership.
    As we have previously testified, the ability of small and medium 
sized producers to compete in a global market is complicated by two 
factors: the cost of regulatory compliance and the declining cost of 
crude oil. With your help IPEC is developing cost-effective solutions 
for the environmental problems that represent the greatest challenge to 
the competitiveness of the domestic energy industry. However, the 
fiscal year 1999 appropriation is only a beginning. For example, the 
IPEC Industrial Advisory Board has identified 26 critical research 
needs. With the current funding we can begin to address only a fraction 
of these needs. There is much work to be done and we respectfully 
request that the Subcommittee provide $4 million in funding for IPEC in 
fiscal year 2000.
         the continuing crises in the domestic energy industry
    The crisis in the domestic energy industry that we described in 
testimony in the last session of Congress has only gotten worse as the 
price of crude oil continues to fall to below $13 per barrel. The 
independent producers are producing from mature fields left behind by 
the majors. Although there is a significant resource base in the fields 
this is the most difficult and the most costly oil to produce. The 
independent producer has only one source of revenue--the sale of oil 
and gas. There is no vertical depth to his business. With the price of 
oil this low the independent producer is extremely vulnerable to the 
costs of environmental compliance. This latest drop in oil prices will 
no doubt result in another wave of business closures, plugged and 
abandoned wells, and reduced new well completions. The problem is so 
acute that the Governor of Oklahoma has recently formed an emergency 
task force to determine what the state can do to help Oklahoma 
producers survive the current plunge in prices. A similar price crash 
in the 1980s triggered a prolonged statewide recession. Clearly this 
trend is not in the best interest of the U.S. in terms of energy self-
sufficiency or national security. We are turning over control of our 
cost of production in terms of energy costs to foreign interests. If 
domestic exploration and production and refining are to continue to 
play a strategic role in meeting U.S. energy needs, the domestic 
petroleum producer will continue to require access to cost-effective 
technology for pollution prevention, waste treatment and remediation in 
exploration and production (E&P) and refining.
               ipec's response to critical research needs
    IPEC will continue to work with the domestic energy industry to 
provide solutions to those environmental problems that represent the 
greatest challenge to the competitiveness of the industry. Specifically 
in fiscal year 2000 IPEC will continue to work with our Industrial 
Advisory Board to address the remaining critical research needs they 
have identified as well as address new needs that develop. These 
research needs include the following:
    (1) Bioremediation and other remediation technologies.--Reducing 
toxicity of hydrocarbon-contaminated soils; development of rapid, on-
site remediation technologies; control of salt migration in the 
subsurface; developing methodologies for phytoremediation.
    (2) Risk Assessment.--Development of cost-effective ecological risk 
assessment methods for petroleum impacted sites; development of cost-
effective and relevant terrestrial (animal/plant) bioassays for use in 
ecological risk/impact assessment; development of field methods for 
ecological risk assessment; development of methods to evaluate actual 
and future environmental risk of petroleum impacted soils; determining 
the correlation between ecological risk assessment and human health 
risk assessment; determining the impact of intrinsic bioremediation on 
risk-based closures; development of risk-based guidelines for handling, 
disposal and storage of NORM-contaminated solids, pipe, and equipment.
    (3) Measurement Technology.--Development of cost-effective methods 
(direct and indirect) for measuring the amount and extent of petroleum 
hydrocarbon sources in unsaturated and saturated soils; development of 
useful and easy to implement field and analytical methods and protocols 
for demonstrating intrinsic bioremediation; validating current models 
for predicting flash emissions of hydrocarbons in E&P operations.
    (4) Process Technologies.--Control or treatment of flash gas 
emissions from stock tanks; use, treatment or disposal of oil tank 
bottoms; development of cost-effective methods for capture, recycling/
destruction of volatile organic compound emissions from hydrocarbon 
processing and storage tanks; development of improved water treatment 
methods--particularly those methods; development of methods to for 
treatment of hydrogen sulfide in the reservoir.
    (5) Management and Decision Tools.--Development of methods to 
predict plume migration of salt water from pits; development of methods 
to calculate the full life cycle cost of material and waste handling in 
the petroleum industry; development of proper pit closure methods using 
a clay or compacted soil cap; development of improved methods for 
disposal of drilling wastes; development of methods to distinguish 
between historical oil field pollution and recent, current and/or 
ongoing pollution.
    In addition to working with our Industrial Advisory Board, IPEC 
will continue in fiscal year 2000 to build linkages with organizations 
which provide services to the domestic energy industry. As IPEC begins 
to fund technology development projects the Directors will work with 
the leadership of these organizations to develop a synergy between 
their efforts and those of IPEC. These organizations form the IPEC 
Affiliates Group and include the National Petroleum Technology Office 
(NPTO) of the U.S. Department of Energy, the Interstate Oil and Gas 
Compact Commission (IOGCC), the Petroleum Environmental Research Forum 
(PERF) the Oklahoma Energy Resources Board (OERB), the Oklahoma 
Independent Petroleum Association (OIPA), the Gas Research Institute 
(GRI), the Office of the Oklahoma Secretary of Energy, the Osage Agency 
of the Bureau of Indian Affairs and the Oil Producers of Arkansas 
(OPA). Recently, Governor Frank Keating of Oklahoma named the IPEC 
Director to the Environmental and Safety Committee of the IOGCC.
how ipec's objectives are consistent with the mission of the biological 
                   and environmental research program
    Although IPEC's close ties to the independent sector of the 
domestic energy industry have resulted in a strong working relationship 
with the National Petroleum Technology Office in the Office of Fossil 
Energy, IPEC continues to have broad applicability across the 
Department of Energy. Biological treatment of waste materials and 
bioremediation of contaminated media such as water, air and soil are 
widely recognized as potentially the most cost effective treatment 
methodologies available for many types of wastes. Petroleum 
hydrocarbons are both the most widely distributed class of 
environmental pollutants and the most amenable to biological treatment. 
These facts have certainly been recognized by the IPEC Industrial 
Advisory Board in that of the five research projects approved thus far 
by the IAB as relevant to IPEC's mission, four concern the use of 
plants and microbes to treat contaminated soils. Further, of the 
critical research needs identified by IPEC's Industrial Advisory Board 
fully half concern bioremediation, phytoremediation, ecological risk 
assessment, and toxicity issues. These topics are clearly within the 
mission of the DOE BER Program.
    The mission of the Biological and Environmental Research (BER) 
Program under Environment, Safety and Health is to ``develop the 
knowledge needed to mitigate or correct the consequences of energy use 
while contributing to the education and training of the scientific work 
force''. This is identically the mission of IPEC when applied to the 
domestic energy industry. IPEC will use academic scientists and 
engineers in partnership with industry to develop new, cost-effective 
technology to solve environmental problems which are having a major 
economic impact on the domestic energy industry. These academic 
investigators will utilize undergraduate and graduate students in the 
sciences and engineering in these projects resulting in the training of 
new environmental professionals.
    An example of an innovative petroleum environmental technology 
which fulfills the mission of the BER Program is intrinsic 
bioremediation of petroleum hydrocarbons. Intrinsic bioremediation is 
the application of indigenous microorganism to the attenuation of 
hydrocarbons which contaminate soil and groundwater. It has recently 
been shown that many petroleum hydrocarbons will be biologically 
degraded in soil and groundwater even in the absence of oxygen and 
without active intervention. These observations suggest that if no 
environmental receptor (drinking water aquifer, stream or lake) is 
immediately threatened, no intervention may be necessary to remediate 
certain spills. This conserves financial resources for application to 
other problems where the actual risks to public health are significant. 
However, intrinsic bioremediation is not sufficiently well understood 
at present to safely make these types of judgments. A better 
understanding of the rate and extent of natural attenuation of 
petroleum hydrocarbons in the subsurface will require a multi-
disciplinary approach analogous to the BER subsurface science program. 
The response of ``biological systems to local disturbances resulting 
from energy-related activities'' is a key element of both the BER 
Program and IPEC's investigations of intrinsic bioremediation.
    IPEC is in the second year of a major three-year effort to address 
an important problem in the exploration and production of petroleum and 
natural gas: the remediation of hydrocarbon-impacted soil and 
groundwater. The project is funded by the Biological and Environmental 
Research (BER) Program of DOE ($973,000) with cost share from Amoco 
Production Co. Specifically this research is investigating the 
mechanisms of the natural biodegradation or intrinsic bioremediation of 
hydrocarbons in the subsurface with the goal of providing a sound 
scientific basis to support risk-based regulatory decisions at 
hydrocarbon-contaminated sites.
                            funding of ipec
    IPEC is seeking appropriations of $4 million for fiscal year 2000 
and the succeeding fiscal years 2001, 2002, and 2003 through the 
Department of Energy. The consortium will be responsible for at least a 
50 percent match of federal appropriations with private sector and 
state support over a four year period. The Consortium will be subject 
to annual review to ensure the effective production of data, regulatory 
assessments, and technology development meeting the stated goals of the 
Consortium.
                                 ______
                                 
   Prepared Statement of Robert L. McCrory, Professor and Director, 
        Laboratory for Laser Energetics, University of Rochester
                      summary and requested action
    The inertial confinement fusion (ICF) program is a key element in 
the Department of Energy's (DOE) Stockpile Stewardship Program (SSP) to 
ensure the reliability and credibility of the U. S. nuclear weapons 
stockpile. The ICF program provides access to high-energy-density 
physics data important in nuclear weapon design and understanding. In 
fiscal year 2000 the program will be focused on the use of available 
unique laboratory facilities: OMEGA at the University of Rochester's 
Laboratory for Laser Energetics (LLE), Z at Sandia National 
Laboratories (SNL), and the Nike laser at the Naval Research Laboratory 
(NRL). Significantly, the discontinuation of a major, older facility, 
the Nova laser at Lawrence Livermore National Laboratory (LLNL) in 
fiscal year 1999, requires the shift of many experiments conducted by 
the weapons laboratories to the OMEGA facility at LLE. Experiments on 
ICF facilities support the demonstration of thermonuclear ignition and 
gain on the National Ignition Facility (NIF) now under construction at 
LLNL. The facilities also provide data in support of the nuclear 
weapons science-based stewardship activities of the Nation.
    LLE, a major participant in ICF research since the 1970s, is the 
only ICF program that has been jointly supported by the Federal 
government, State government, industry, utilities, and a university. At 
relatively small comparative cost, LLE makes fundamental scientific 
contributions to the National program and the Laboratory makes 
available technology to the public and private sectors through 
interactions with industry and other Federal laboratories. In addition, 
the Laboratory trains graduate students with the unique facility. 
Finally, the Laboratory serves as a National laser users' facility 
benefiting scientists throughout the country. The OMEGA laser, the 
highest power ultraviolet fusion laser in the world, will be the 
principal laser facility for SSP activities for DOE in fiscal year 
2000.
    The Laboratory's primary ICF mission is to validate the direct-
drive option for ICF. OMEGA is also required to meet mission-critical 
requirements for the indirect-drive ignition plan developed by DOE for 
the NIF. Without LLE, the DOE schedule to demonstrate ignition and gain 
in the laboratory, the objective of the NIF program, cannot be 
realized. OMEGA with its 60 beams is also used for indirect-drive 
experiments in collaboration with the National laboratories for SSP 
experiments, including classified experiments.
    OMEGA is the only facility that can demonstrate the scientific 
potential of direct drive to provide a modest-to high-gain energy 
option for the Nation. ICFAC1 emphasized the priority of conducting 
cryogenic experiments on OMEGA beginning in fiscal year 1999. OMEGA is, 
and will continue to be, the principal facility in the National program 
for ICF-based stockpile stewardship experiments until the NIF is 
completed in fiscal year 2004. Beyond 2004, OMEGA will continue to be 
used when full NIF energy or capability is not required, particularly 
since the cost per shot on OMEGA is considerably less costly than a NIF 
shot. Additionally, the repetition rate of OMEGA (one shot per hour) is 
substantially higher than that planned for NIF (several shots per day).
    To provide the operations support for program deliverables and 
operation of OMEGA (for both cryogenic and SSP experiments), and 
maintain the training programs at Rochester, a total authorization and 
appropriation of $30,500,000 is requested for the University of 
Rochester for fiscal year 2000, as contained in the Administration's 
budget request for DOE.
                               background
    Thermonuclear fusion is the process by which nuclei of low atomic 
weights, such as hydrogen, combine to form higher atomic weight nuclei 
such as helium. In this process some of the mass of the original nuclei 
is lost and transformed to energy in the form of high-energy particles. 
Energy from fusion reactions is the most basic form of energy in the 
universe; our sun and other stars produce energy by thermonuclear 
fusion reactions occurring in their interior. Fusion is also the 
process that provides the vast destructive power of thermonuclear 
weapons.
    To initiate fusion reactions, the fuel must be heated to tens of 
millions of degrees. In ICF the heating and compression of fusion fuel 
occurs by the action of intense laser or particle beam drivers. There 
are two approaches to ICF, direct and indirect drive: indirect drive 
involves the conversion of beam energy to x rays to compress a fuel 
capsule in an enclosure called a hohlraum; direct drive involves the 
direct irradiation of a spherical fuel capsule by energy from a laser 
and may be more efficient energetically than indirect drive. In either 
approach, if very extreme density and temperature conditions are 
produced, it is possible to produce many times more energy in these 
fusion reactions than the energy provided by the drivers.
               inertial confinement fusion program focus
    DOE has accepted the recommendations of independent reviews,\1\ \2\ 
and construction of the NIF is in progress. The purpose of the NIF, in 
its SSP mission, includes the demonstration of ignition, propagating 
burn, and modest gain in the laboratory. The NIF project completion is 
projected to be 2004. Beginning in fiscal year 2000, while NIF is under 
construction, OMEGA will be the principal ICF facility used for nuclear 
weapons stewardship experiments by LLNL and LANL, and for direct-and 
indirect-drive ICF experiments.
    LLE is the primary focus in the U. S. for the direct-drive approach 
to ICF. Direct drive may ultimately prove to be the best approach to 
ICF and provide the most efficient path to a laboratory-scale 
thermonuclear capability for both energy research and defense 
technology needs. OMEGA is the only facility that can demonstrate the 
scientific potential of direct drive to provide modest to high gain on 
the NIF.
    In addition to the ICF experimental program, LLE is a major 
participant in NIF design and construction. At present, LLE is 
fabricating the large polarizers and transport mirrors for the NIF, and 
LLNL has also recently decided to have LLE coat, assemble, and test the 
NIF deformable mirrors. LLE is the lead laboratory working with DOE and 
the other participants to formulate the plan for the direct-drive 
ignition campaign on the NIF. In collaboration with the other ICF 
laboratories, LLE is also developing several advanced diagnostics 
required for NIF experiments (see below).
    An extensive collaborative program between LLNL, LANL, and LLE has 
provided data on basic physics, beam smoothing, and unstable 
hydrodynamics using available lasers. This collaboration on OMEGA 
includes both nuclear weapons physics experiments and ICF experiments. 
Physics issues for both ICF and weapons issues for the SSP fall into 
five broad categories: irradiation uniformity, laser energy coupling 
and transport, laser-plasma interaction physics, hydrodynamic 
stability, and hot-spot and main-fuel-layer physics. The OMEGA and NIF 
programs are complementary. Figure 1 illustrates the schedule for the 
glass laser facilities to be used in the National program plan for 
inertial fusion and shows the phased availability plan for the NIF.
[GRAPHIC] [TIFF OMITTED] T10NDP.013

    The figure illustrates how the National program has been structured 
to provide a full complement of mature experimental facilities from the 
present to the future. With the termination of Nova laser operations in 
fiscal year 1999, OMEGA becomes the Nation's principal facility to 
continue experimental work during NIF construction. Both LANL and LLNL 
will continue to use OMEGA for indirect-drive experiments for ICF and 
SSP experiments for the foreseeable future. Because of the high 
interest and utility of the OMEGA facility to the weapons laboratories, 
DOE's budget request includes funds for extended operations on OMEGA 
for SSP experiments. With its lower per-shot cost compared to NIF, as 
well as the higher shot-repetition rate, OMEGA will be a very important 
supporting facility for experiments and diagnostic development for the 
NIF after it's completion in 2004 (see Fig. 1).
           the lle direct-drive program for fiscal year 2000
    The goal of the glass-laser direct-drive target physics program is 
to evaluate the performance of fuel capsules near ignition conditions. 
OMEGA is also the first facility to attempt the fielding of high-fill-
pressure cryogenic DT capsules, the basis for the principal capsule 
design to be used in the NIF indirect-drive ignition demonstration. In 
addition to providing data for the NIF, these experiments are required 
to validate the direct-drive configuration on the NIF that could result 
in two to three times higher fusion gains (gain > 50) than those 
available with the baseline (indirect-drive) NIF design.
    An important element of the direct-drive program on OMEGA is to 
demonstrate on-target irradiation uniformity of 98 percent to 99 
percent. The realization of this goal is a principal objective for 
fiscal year 2000. OMEGA is also being used to develop and test 
diagnostics for NIF. Cryogenic fueling and target experiments on OMEGA 
are necessary to demonstrate the likelihood of success of the direct-
drive option of NIF. Additionally, the OMEGA cryogenic system serves as 
an engineering test-bed to support NIF cryogenic development. In 
collaboration with LANL and General Atomics, the cryogenic capability 
will be completed in fiscal year 1999 with the first fully cryogenic 
capsule experiments planned for OMEGA in fiscal year 2000. The ICFAC 
\1\ recommended in their final report: ``The committee believes that 
experiments are essential to assessing real target performance and 
benchmarking code calculations. The first opportunity to do such 
experiments on cryogenic targets approaching NIF size will be on OMEGA 
. . . It is very important that this effort be kept on track with 
proper priority and not delayed further.'' \1\ A cryogenic capability, 
advanced diagnostics development (including fusion-product charged-
particle diagnostics, <greek-g>-ray detection, and high-dynamic-range 
optical and x-ray streak cameras), and beam smoothing are all required 
for the NIF. LLE is the principal National facility to develop these 
technologies for the program. LLE's design and testing of two-
dimensional smoothing by spectral dispersion and fabrication 
capabilities for the large polarizers, transport optics, and deformable 
mirrors for the NIF are essential to its completion and success.
    LLE provides education and training in the field of ICF and related 
areas for personnel with expertise in areas of critical National needs. 
These include theoretical and experimental plasma physics, laser-matter 
interaction physics, high-energy-density physics, x-ray and atomic 
physics, ultrafast optoelectronics, high-power laser development and 
applications, nonlinear optics, optical materials, and optical 
fabrication technology. One hundred eighteen University of Rochester 
students have earned Ph.D. degrees at LLE since its founding. Forty-
eight graduate students from other universities were funded by NLUF 
grants. A total of 34 graduate students and 14 faculty members of the 
University of Rochester are currently involved in the unique research 
environment provided at LLE and represent many departments within the 
University, including Mechanical Engineering, The Institute of Optics, 
Physics and Astronomy, Electrical Engineering, and Chemical 
Engineering. Beyond this, more than 50 undergraduate students receive 
research experience annually at LLE. Additionally, a high-school summer 
science program exposes ten talented students each year to the research 
environment and encourages them to consider careers in science and 
engineering. Many LLE graduates have made important scientific 
contributions in National laboratories, universities, and industrial 
research centers.
                               references
    \1\ Inertial Confinement Fusion Advisory Committee Report to 
Assistant Secretary Reis (February 21, 1996).
    \2\ ``Science Based Stockpile Stewardship,'' JASON Report JSR-94-
345 (The MITRE Corporation, McLean, VA, November 1994).
                                 ______
                                 
 Prepared Statement of the University of Medicine and Dentistry of New 
                                 Jersey
    The following is the testimony of the University of Medicine and 
Dentistry of New Jersey (UMDNJ), the largest public health sciences 
university in the nation. The UMDNJ statewide system is located on five 
academic campuses and consists of 3 medical schools, and schools of 
dentistry, nursing, health related professions, public health and 
graduate biomedical sciences. UMDNJ also comprises a University-owned 
acute care hospital, three core teaching hospitals, an integrated 
behavioral health care delivery system, a statewide system for managed 
care and affiliations with more than 100 health care and educational 
institutions statewide. No other institution in the nation possesses 
the resources which match our scope in higher education, health care 
delivery, research and community service initiatives with state, 
federal and local entities.
    We appreciate this opportunity to bring to your attention the 
priority projects of UMDNJ that are consistent with the biomedical 
research mission of the Department of Energy and Water. These include 
the Child Health Institute of New Jersey, the Neurological Institute of 
New Jersey, efforts to combat infectious disease and chemical and 
biological terrorism, and our collaboration with the Department of 
Energy on its environmental clean-up efforts.
    Our first priority is the Child Health Institute of New Jersey at 
the UMDNJ-Robert Wood Johnson Medical School (RWJMS) in New Brunswick, 
New Jersey. As part of the state's public higher education system, the 
medical school's 2,500 full-time and volunteer faculty train about 
1,500 students in medicine, public health and graduate programs and 
ranks in the top one-third of the country with regard to the percentage 
of its students who practice in primary care specialties after 
completing their residency training. The School ranks in the top one-
third in the nation in terms of grant support per faculty member. RWJMS 
is also home to The Cancer Institute of New Jersey, the only NCI-
designated clinical cancer center in New Jersey; The Center for 
Advanced Biotechnology and Medicine; the Environmental and Occupational 
Health Sciences Institute, the largest environmental institute in the 
world; and the Child Health Institute of New Jersey.
    The Child Health Institute is a comprehensive biomedical research 
center focused on the health and wellness of children. In this program, 
medical researchers direct efforts toward the prevention and cure of 
environmental, genetic and cellular diseases of infants and children. 
The Institute is integral to the long-term plan for the enhancement of 
research at the medical school in developmental genetics, particularly 
as it relates to disorders that affect a child's development and 
growth, both physically and cognetively.
    The program will enable the medical school to expand and strengthen 
basic research efforts with clinical departments at the Robert Wood 
Johnson University Hospital and with the new Children's Hospital in the 
areas of Obstetrics, Pediatrics, Neurology, Surgery and Psychiatry. The 
Child Health Institute will fill a critical gap in services through the 
recruitment of an intellectual base upon which basic molecular programs 
in child development will build.
    The Child Health Institute will focus research on the molecular and 
genetic mechanisms which direct the development of human form, 
subsequent growth, and acquisition of function. Broadly, faculty and 
students will investigate disorders that occur during the process of 
development to discover and study the genes contributing to 
developmental disabilities and childhood diseases; to determine how 
genes and the environment interact to cause childhood diseases; and to 
identify the causes and possible avenues of treatment of cognitive 
disorders broadly found among conditions such as mental retardation, 
autism and related neurological disorders.
    Normal child development is a water dependent process, reflecting 
water quality, quantity and its 19management' by cells and tissues. 
Access to uncontaminated water is at the base of the tree of life. 
Pollution of aquatic ecosystems poses a serious threat to the entire 
ecosystem and studying how a toxin affects embryonic development is 
central to understanding the risks pollutants represent, whether 
derived from pesticides, industrial run-off, acid rain or landfills. In 
multiple ways, the embryo is a sentinel for environmental toxins. 
Research at the Child Health Institute will focus on molecular 
mechanisms of early embryonic development, a natural, but vulnerable 
water-based environment. Sixty percent of the weight of the average 
human is contributed by water. The average 150 lb man contains about 40 
to 45 quarts of waters, approximately 6 quarts of which is circulating 
in the blood, and 39 quarts are within and between the cells of each 
and every organ. The embryo is even more highly hydrated than the 
adult. During development the embryo undergoes rapid changes in size 
and shape requiring rapid changes in the structures and cells present 
in any one tissue. In order to accommodate these rapid and essential 
changes, the embryo is rich in molecules which have a very high water 
binding capacity. After birth, the water in tissues allows cells to 
continue to move about within the embryo with ease and also promote 
fluid movement in blood vessels, the gastrointestinal tract and the 
airways. For example, cystic fibrosis (CF) is an inherited disorder 
which afflicts millions of children world-wide. The genetic defect in 
CF has been identified and involves a pump which, in effect, moves salt 
and water into and out of cells. Children with CF insufficiently pump 
water into the secretions of their pancreas and lungs and the dryness 
of these secretions leads to obstruction of those organs and subsequent 
infection and/or obstruction.
    The CHI will address genetic disorders that lead to a much broader 
array of disorders such as heart defects, autism, diabetes, muscular 
dystrophy to name a few. The Institute will grow on a current funding 
base at RWJMS of approximately $50 million, $17 million of which has 
development as a theme. The CHI builds on existing significant 
strengths within RWJMS and our associated joint research institutes 
with Rutgers University.
    The CHI will act as a magnet for additional growth in research and 
health care program development in New Jersey. The Institute will 
encompass 83,000 gross square feet and will house more than 40 research 
laboratories and associated support facilities. Fourteen senior faculty 
will direct teams of M.D. and Ph.D. researchers, visiting scientists, 
postdoctoral fellows, graduate students and technicians for a full 
complement of some 130 employees. At maturity, the Institute is 
expected to attract $7 to $9 million dollars of new research funding 
annually. The Institute's total annual operating budget is projected to 
be $10 to $12 million: applying a standard economic multiplier of 5, 
the total impact on the New Brunswick area is estimated to be $50 to 
$60 million per year. Construction costs for the Institute are 
estimated at $27 million, with approximately half of that figure 
associated with local employment.
    We respectfully seek $10 million from the Department of Energy and 
Water to further advance the construction and development of the Child 
Health Institute of New Jersey.
    Our second priority is the Neurological Institute of New Jersey at 
UMDNJ-New Jersey Medical School (NJMS) and UMDNJ-University Hospital 
(UH) in Newark, New Jersey. The Institute was created as a center of 
excellence in the neurosciences in recognition of the fact that 
neurological diseases are a leading cause of death and disability and, 
of the widespread expertise that exists in this discipline on our 
Newark campus.
    University Hospital is the major provider of tertiary neurological 
and neurosurgical services to the State of New Jersey, including 
patient care, education and research. The NJMS-Department of 
Neurosciences is ranked sixth nationally in research funding, with $4.1 
million annually. NJMS offers the only fully accredited neurosurgical 
residency program in the state. The Neurological Institute will serve 
as an umbrella under which clinical, research and educational efforts 
in the neurosciences would be focused to support a higher level of 
achievement and expertise than currently exists in New Jersey.
    The Neurological Institute will enable UMDNJ to further advance its 
cutting-edge work in neurological disorders including stroke, multiple 
sclerosis and Alzheimer's disease. About 50 million Americans are 
affected by these diseases annually. Neurological diseases account for 
some $400 billion annually in health care costs and lost productivity. 
While neurological diseases and injuries are devastating, there are 
breakthroughs in treatment with new drugs and/or surgical techniques, 
which require research and testing, significant financial support and a 
concentration of clinical expertise and potential research subjects in 
a controlled environment. The Neurological Institute will provide such 
a setting and will place New Jersey in the forefront of research and 
treatment of neurological diseases.
    The employment of new MRI-technology can aid in the diagnosis and 
treatment of neurological diseases. We are working on the newest 
treatments available, and an investment in the work of the Neurological 
Institute is critical to advance our work in these diseases.
    UMDNJ seeks a major step forward in the research arena with the 
acquisition and placement of a state-of-the-art Magnetic Resonance 
Imaging (MRI) instrument for the Neurological Institute. This MRI, with 
a rated field strength of 3-4 Tesla, is expected to provide spatial 
resolution in the millimeter range and temporal resolution of less than 
one second--both carrying great significance at physiological levels. 
Areas of research will include language, learning, memory, visual 
processing and spatial representation. Clinical applications will 
include Alzheimer's disease, multiple sclerosis, tumor characterization 
and epilepsy where brain dysfunction is clearly established. UMDNJ 
would collaborate with its research partners, the Veterans 
Administration Medical Center, Rutgers University and the New Jersey 
Institute of Technology in the development of a neuroimaging 
laboratory.
    We respectfully seek $1.5 million from the Department of Energy and 
Water toward the capital and instrumentation costs of a neuroimaging 
laboratory for the Neurological Institute of New Jersey.
    Our next priority project is our initiatives aimed at responding to 
threats of emerging infectious diseases, and chemical and biological 
terrorism.
    UMDNJ is home to the International Center for Public Health, a 
strategic initiative that will create a world-class infectious disease 
research and treatment complex at University Heights Science Park in 
Newark, New Jersey. We are also home to the New Jersey Medical School 
National Tuberculosis Center, one of only three model Tuberculosis 
Prevention and Control Centers in the United States funded by the 
Centers of Disease Control (CDC).
    In our complex world of instant communication and ease of global 
transportation, disaffected individuals or political groups have access 
to highly destructive weapons of terror. With our open society the 
United States is particularly at risk to individuals, ideologically 
motivated fanatics, or to nations seeking revenge. The possibility of 
the employment of weapons of mass destruction on an innocent population 
has already become a reality with the Sarin nerve gas attack in the 
subways of Tokyo.
    State and local governments and health organizations need reliable 
information upon which to develop and coordinate response plans for 
contingencies due to weapons of mass destruction. They need programs to 
educate planners and response teams on the public health aspects of 
these threats and how to recognize and respond to them. In addition, 
they need to understand both the short and long term implications for 
human and ecologic health. Such a plan requires a broad base of 
scientific and educational expertise which has an international scope 
in order to devise approaches for the early detection and treatment of 
biological and chemical weapons of terror. As citizens of the nation's 
most densely populated state, we in New Jersey have a particular 
concern about being targets of biological and chemical terrorist 
activities. Our communities abut each other and our traffic patterns 
are statewide making us especially vulnerable to infectious disease. 
There are no obvious geographical boundaries to readily institute a 
quarantine. Our central location as a transportation hub for the 
populous Northeast also makes us a prime target.
    Terrorists have three types of weapons available to them. For the 
first, explosive devices, although increasingly deadly, we have 
developed responses and have become all too familiar with this form of 
terror and chaos. The other two types of terrorist weapons are 
relatively new and present particular challenges to our normal response 
processes. These are chemical weapons of terror, such as nerve gas, and 
biological weapons of terror, such as anthrax. Chemical and biological 
weapons differ dramatically from explosions in that for these newer 
threats early recognition and diagnosis is crucial for both those 
initially affected and for others who might yet be affected through 
spread of infection or contact with the chemical. Education of 
emergency responders to correctly identify these threats, whether they 
occur here or abroad, is crucial to minimize the impact of biological 
and chemical weapons, as well as to protecting the emergency responders 
themselves. Compounding our problems is the need for a better 
understanding of the effects of likely chemical and biological agents 
of terrorism, development of the means to prevent their spread, and to 
rapidly treat their victims.
    The nation's foremost program in education and training concerning 
chemical and physical threats is headed by a UMDNJ faculty member who 
is currently President of the American Public Health Association. Among 
her programs is the Center for Education and Training which provides 
training concerning chemical and physical agents to more than 160,000 
police, firefighters, municipal and state employees, as well as to 
physicians, nurses and industrial hygienists. Because of its scientific 
expertise, UMDNJ is uniquely qualified to develop a program to educate 
state and municipal governments, emergency responders and health and 
hospital professionals on planning for the response to terrorism and 
training personnel to deal with threats of terrorism and how they 
affect public health.
    We respectfully seek $1.5 million through the Department of Energy 
and Water to expand our research, education and training programs in 
response to threats of chemical and biological terrorism.
    Our final priority is to seek continued funding for the Consortium 
for Risk Evaluation with Stakeholder Participation (CRESP), which is in 
its fourth year of funding from the DOE's Office of Environmental 
Management (EM). CRESP has become an integral part of the technical 
dialogue between DOE EM sites and their regulators on major issues. At 
both the Savannah River and Hanford, regulators are taking our results 
and using them to facilitate better remedial options to expedite or 
validate decisions that bring cleanup to closure.
    By focusing its scientific efforts on issues which are arising at 
various points of regulatory interface, and providing data accepted by 
all parties as sound and credible, CRESP believes its work is not only 
proving valuable on specific issues, but is providing a basis for more 
extensive, complex wide replication and application. The pace of 
requests that CRESP scientists are involved in has expanded 
dramatically. We believe that we are more than a source of new 
information and methods. A mechanism such as CRESP is fundamental to 
bringing resolution to the regulatory process that would otherwise not 
be resolved.
    The Administration's budget calls for CRESP to receive $3 million 
for fiscal year 2000. However, to maintain our current level of 
activity, we respectfully request an investment of $4 million. If CRESP 
is going to expand to respond to new requests, it will require at least 
that amount.
    Thank you for the opportunity to submit testimony on behalf of the 
University of Medicine and Dentistry of New Jersey (UMDNJ). We are 
grateful to this committee for its past support of our initiatives and 
for your leadership in advancing biomedical and environmental research.
                                 ______
                                 
  Prepared Statement of Joe F. Colvin, President and Chief Executive 
                   Officer, Nuclear Energy Institute
    On behalf of the Nuclear Energy Institute, I would like to commend 
you, Chairman Domenici, Ranking Member Reid and the members of this 
subcommittee for focusing your attention on the value of nuclear-
related programs contained in the Energy Department and Nuclear 
Regulatory Commission budget proposals for fiscal year 2000.
    Before I proceed, let me say a word about the Nuclear Energy 
Institute. NEI sets policy for the U.S. nuclear energy industry and 
represents over 275 members with a broad spectrum of interests, 
including every U.S. utility that operates a nuclear power plant. NEI's 
members also include nuclear fuel cycle companies, suppliers, 
engineering firms, research laboratories, radiopharmaceutical 
companies, universities, labor unions and law firms.
    In large measure, your continued support of nuclear-related 
programs will ensure a strong legacy of nuclear energy, science and 
security for our children and for generations to come. The programs 
outlined in my testimony will further U.S. advances in nuclear medicine 
and technology; help guard against international threats to our energy 
security and nuclear safety; and encourage growth of the nation's 
largest source of emission-free electricity.
    Today, nuclear energy generates 20 percent of the nation's 
electricity--enough for 65 million homes. More than 100 nuclear units 
contribute to the stability of the nation's power grid and are the 
greatest source of emission-free energy in the country. Policymakers 
who recognize the nexus between energy and environmental policy cannot 
ignore nuclear energy's unique value in mitigating emissions to meet 
U.S. clear air regulations and international carbon abatement goals. To 
capitalize on these benefits, comprehensive reform of the nuclear 
regulatory process must be a priority in fiscal year 2000 
appropriations legislation.
                     nuclear regulatory commission
    Safety is the nuclear energy industry's top priority, and we 
recognize the unique responsibility that the Nuclear Regulatory 
Commission has to assure adequate protection of public health and 
safety. The NRC's $465.4 million funding request should be devoted to 
implementing regulations that have a direct bearing on safety. One of 
the single most important challenges facing the nuclear energy industry 
is a regulatory process that consumes licensee and NRC resources on 
issues that have little or no safety significance, and that produce 
inconsistency in assessment and enforcement.
    Mr. Chairman, I cannot overstate the importance of this 
subcommittee's role, which has been instrumental in encouraging the NRC 
commissioners and staff to complete work on many long-standing reform 
issues. The NRC has a number of promising regulatory reform initiatives 
underway. However, Congress should continue to guide regulatory reform.
    The Omnibus Budget and Reconciliation Act of 1990, as amended, 
requires that the agency recover approximately 100 percent of its 
budget authority by assessing licensees annual fees consistent with the 
regulatory benefits derived. Most of those fees are collected as a 
generic assessment levied on NRC licensees, creating, in effect, a 
``miscellaneous'' category to encompass nearly 80 percent of its 
budget. This practice is contrary to sound and accountable budgeting. 
The industry supports legislation to modify the fee structure so that 
licensees are assessed only for NRC programs necessary to regulate 
them. Unrelated agency expenditures, such as international activities 
and regulatory support to agreement states or other federal agencies, 
should not be included in nuclear plant licensee user fees, but should 
be included in a specific line item on the NRC's budget, subject to the 
authorization and appropriations process. Additionally, the agency's 
ability to collect user fees should be authorized annually by Congress 
until the commission completes its regulatory reform initiatives.
    We strongly urge the subcommittee to reaffirm its recommendation 
last year to eliminate agency expenditures in fiscal year 2000 that do 
not benefit licensees so that user fees are fairly and equitably 
assessed.
    In the area of reform, the subcommittee should encourage the NRC to 
develop and implement a long-term strategic plan as well as to focus on 
activities that can be completed in the near term. The NRC's long-range 
strategy should include these principles: A safety-focused regulatory 
framework that incorporates risk insights; a more efficient and 
accountable regulator; an integrated NRC strategy for achieving the 
objectives of regulatory reform; and a specific timetable and 
milestones to ensure the NRC's long-range plan is implemented on 
schedule; and staff resources and a fully accountable budget that 
supports fundamental NRC reform.
    The nuclear energy industry believes that rather than increase the 
NRC budget--and user fees--the commission can better focus its programs 
and regulations on safety-based performance standards. Such an emphasis 
on performance standards would free NRC resources for license renewal 
of nuclear power plants and other discrete licensing actions without 
increasing the agency's overall budget.
    The nuclear energy industry fully supports approval of the funding 
requested by NRC from the Nuclear Waste Fund. These funds will allow 
the NRC to continue its oversight of the Yucca Mountain project as the 
Department of Energy prepares its license application for the 
repository. The NRC's oversight activities are a crucial step toward 
timely implementation of the integrated used fuel management program.
    On another front, this subcommittee can help resolve the long-
standing impasse regarding overlapping regulatory authority between the 
NRC and the Environmental Protection Agency. This overlap authority 
exists in many areas, but is most immediately apparent in establishing 
radiation standards for a national repository for used nuclear fuel. As 
the subcommittee with jurisdiction over the Energy Department, the 
industry respectfully urges you to clarify the matter of setting 
radiation standards for Yucca Mountain. The NRC's regulations have 
proven effective in protecting public health and safety as well as 
worker safety at nuclear facilities. Conversely, EPA has little direct 
experience in regulating the use of radioactive materials and relies on 
a regulatory philosophy that lacks a scientific underpinning. The 
industry encourages this subcommittee to take actions necessary to 
eliminate dual regulation of nuclear facilities. For the reasons 
stated, EPA's standard setting authority should be ceded to the NRC, an 
independent agency with scientific and technical expertise.
                nuclear energy research and development
    Mr. Chairman, continued investment in nuclear energy research and 
development will ensure the U.S. position as a world leader in nuclear 
safety and technology. Through its fiscal year 2000 recommendations, 
this subcommittee also can continue to capitalize on nuclear energy's 
ability to avoid atmospheric emissions amid stronger Clean Air Act 
controls and international air quality goals. In fact, DOE states that 
without nuclear generation, the resulting increase in carbon emissions 
would be five times greater than utility reduction goals for 2000 under 
the agency's Climate Challenge Program.
    A comparison of electricity generating sources reveals that nuclear 
energy is the most economical federal research and development 
investment. For example, in 1997, the federal government spent 5 cents 
for every kilowatt hour generated at nuclear power plants. The cost per 
kilowatt-hour of research and development in wind energy for that 
period was $4,769; for photovoltaics, $17,006; for natural gas, 41 
cents and for coal, 5 cents.
    The nuclear energy industry encourages the subcommittee to support 
a $40 million appropriation for the Nuclear Energy Research Initiative, 
which funds research and development at universities, national 
laboratories and industry to advance nuclear power technology, pave the 
way for the expanded use of emission-free nuclear energy and maintain 
U.S. leadership in nuclear technology and safety abroad. During its 
first year, NERI's review board received an impressive 300 grant 
applications. In light of this enthusiastic commitment, the proposed 
$40 million would permit NERI to grow yet remain manageable. The Energy 
Department's $25 million request would support continuation of first-
year projects, but permit little, if any, expansion.
    In addition to NERI, DOE's request for the Nuclear Energy Plant 
Optimization program would allocate $5 million to research and 
development projects that enhance the efficiency and reliability of our 
103 nuclear power plants. The industry strongly supports a $10 million 
program in keeping with recommendations of the President's Committee of 
Advisors on Science and Technology. This initiative is particularly 
important as utilities deal with uncertainties associated with electric 
industry restructuring. NEPO seeks to work with industry to improve 
plant economics, reliability, availability and plant aging while 
maintaining a high level of safety.
    Finally, the industry recommends $17 million for University 
Supportprograms at universities and colleges to enhance research and 
education in nuclear sciences by helping to sustain university reactor 
and engineering programs. While DOE requested $11.3 million, the 
nuclear energy industry believes additional funds are needed to expand 
the Nuclear Energy Education Research initiative and recruitment of 
future nuclear engineers and scientists.
    In addition to these efforts, the industry strongly encourages the 
subcommittee to restore $20 million for electrometallurgical research 
at Argonne National Laboratories. This research would focus on devising 
technology to treat used fuel that powered the Argonne reactor, EBR-II. 
Research on the treatment of this metal fuel's unique composition could 
be applied to the treatment and disposal of other reactor fuels with 
unique characteristics.
           federal storage and disposal of used nuclear fuel
    A key component that ensures the continued benefits of nuclear 
energy is the federal acceptance and disposal of used nuclear fuel. 
Since 1982, the Energy Department has been siting and developing a deep 
geologic repository for the disposal of used nuclear fuel. In recent 
years, however, the agency has failed to advance an important aspect of 
the program--the acceptance and removal of used fuel. A little more 
than a year ago, the Energy Department was scheduled to start accepting 
used fuel from national laboratories, nuclear power plants and defense 
facilities at more than 100 locations in 40 states. The agency missed 
its deadline in violation of its clear statutory duty under the Nuclear 
Waste Policy Act of 1982. The law requires disposal at a single, 
federally monitored location.
    The Energy Department in December 1998 released a report ordered by 
Congress supporting the continued scientific study of Yucca Mountain, 
Nevada, as the site for a permanent repository for used nuclear fuel.
    The report concluded that ``DOE believes that Yucca Mountain 
remains a promising site for a geologic repository.'' Despite the sound 
scientific basis for the viability assessment, the Administration still 
refuses to move used nuclear fuel. A recent plan from Energy Secretary 
Bill Richardson to take title of used nuclear fuel would leave used 
fuel where it is today and would pay for the program through the 
Nuclear Waste Fund. Although this proposal does not work as a stand-
alone concept, the industry recognizes the valuable opportunity that 
Secretary Richardson has posed to industry stakeholders through the 
promise of continued dialogue focused on immediate receipt of used 
nuclear fuel. The industry welcomes that opportunity.
    However, this country needs an immediate solution to central 
storage and disposal of its used nuclear fuel. The industry urges the 
subcommittee to support the Nuclear Waste Policy Act of 1999, S. 608, 
which would ensure funding for central storage and a geologic 
repository by altering the funding mechanism of the program. Without 
the budget modification in S. 608, DOE would fall short of funding 
needs now that it appears that a more realistic date for the agency to 
open a repository may be 2020, not 2010.
    Despite the Energy Department's default, scientific and technical 
activities must continue if the agency is to able to determine if the 
permanent repository site is suitable. The agency's $409 million fiscal 
year 2000 request for the Office of Civilian Radioactive Waste 
Management is necessary to ensure the office continues to meet 
deadlines for data collection and study at the proposed Yucca Mountain, 
Nev., repository. All of these projects further DOE's effort to prepare 
a draft environmental impact statement and license application for the 
repository. From the industry's perspective, the fiscal year 2000 
request assures timely scientific study and analysis at Yucca Mountain.
    The administration's budget for Yucca Mountain activities includes 
$39 million from funds previously appropriated in 1996 for interim 
storage. Congress set those funds aside for an interim storage facility 
and an associated transportation framework pending passage of an 
authorization bill. This subcommittee should prevent the diversion of 
previously appropriated funds so that the money can be held for its 
intended purpose. However, as stated above, the agency's $409 million 
request is necessary to ensure the agency continues to meet its 
deadlines.
    The nuclear energy industry believes that Nevada's use of federal 
grants by the state university system and counties has been wise and 
has resulted in useful contributions to the repository project. These 
efforts should continue to be funded. However, the nuclear energy 
industry continues to support strong oversight of all expenditure for 
the federal used nuclear fuel management program. Through this 
subcommittee's vigilance, recent appropriations acts have precluded 
Nevada from using grant funds for lobbying, litigation and certain 
multistate activities . Until the subcommittee is satisfied that DOE-
administered funds provided to the state are properly spent, any 
further funds should be withheld from grant recipients shown to have 
misspent past federal grant money.
    Several other programs warrant industry support at the recommended 
funding:
    Low-Dose Radiation Research.--The nuclear energy industry supports 
the Energy Department's request of $10 million to study how cells react 
to low radiation doses and to better understand biological responses to 
radiation that would further enhance occupational radiation protection. 
This research has garnered the support of the Health Physics Society, 
as the attached Health Physics Society policy statement notes.
    Uranium Decontamination and Decommissioning.--The industry believes 
the federal government has a responsibility for site cleanup and 
decommissioning. DOE's fiscal year 2000 request for appropriations from 
the fund includes $242 million for activities at the government-owned 
gaseous diffusion plants and $35 million for uranium/thorium tailings 
cleanup.
    Surplus Weapons Material Disposition.--The nuclear energy industry 
supports the Energy Department's $200 million request for the disposal 
of surplus weapons fissile materials so that the United States and 
Russia can continue a parallel path to dispose of excess weapons-grade 
material. The nuclear energy industry and federal agencies also must 
continue efforts to use mixed oxide fuel at U.S. reactors.
    International Nuclear Safety Program and Nuclear Energy Agency.--
DOE's International Nuclear Safety Program is essential to improving 
operational safety at Soviet-designed nuclear power plants. Potential 
weaknesses in reactor safety abroad may pose threats to public health 
and the environment and erode public confidence in the entire industry. 
The Institute also supports continued funding for U.S. membership in 
OECD's Nuclear Energy Agency. The industry also supports expansion of 
DOE's nuclear nonproliferation program, including the nuclear cities 
initiative with Russia.
    Medical Isotopes.--The industry supports DOE' radioisotope program 
and encourages the enhanced and continued supply of isotopes for the 
purpose of medical research. Such isotopes are not readily available in 
the commercial sector and the Energy Department has a historical 
mandate from the Atomic Energy Act of 1954 to provide medical isotopes.
    DOE Radiation Standards.--An area of major concern to the industry 
is overlapping authority on development of radiation standards for safe 
cleanup and restoration of DOE's decommissioned facilities. We urge the 
subcommittee to support the Energy Department in finalizing standards 
in order to enhance a safe, economic and timely conclusion to the 
agency's extensive environmental restoration program. Close involvement 
between DOE and the NRC ensures early identification of potential 
concerns that otherwise would require more costly long-term review.
                               conclusion
    By funding the Energy Department's nuclear energy research and 
development initiatives, the subcommittee would reaffirm nuclear 
energy's valuable contribution toward achieving clean air compliance 
and continue research to further enhance productivity of U.S. nuclear 
power plants. As the nation's second largest electricity source, 
nuclear energy is well-positioned to meet future energy demand in a 
manner that preserves and improves our air quality.
    The nuclear energy industry urges the subcommittee to consider the 
equity of the Nuclear Regulatory Commission's user fee. Licensees 
should not be assessed 100 percent user fees for commission activities 
that do not affect the regulation of licensees, but that have broader, 
national or international application.
    Finally, although the Department of Energy has failed to meet 
statutory and court-affirmed deadlines for disposal of used nuclear 
fuel, Congress should support the agency's continued scientific and 
technical work at the proposed Yucca Mountain repository to avoid 
further delays. Even as Congress considers separate legislation to 
reform the federal nuclear waste management program, the subcommittee 
must ensure that activities progress to support the repository project. 
I would like to thank the subcommittee for the opportunity to share the 
industry's perspective on issues vital to the nuclear energy industry.
                                 ______
                                 
   Prepared Statement of the Business Council For Sustainable Energy
                              introduction
    The Council is pleased to offer testimony to the Energy and Water 
Subcommittee of the Senate Appropriations Committee on the proper role 
for government in promoting energy research and development, as it 
relates to renewable energy programs at the Department of Energy (DOE).
    The Council was formed in 1992 and is comprised of businesses and 
industry trade associations which share a commitment to realize our 
nation's economic, environmental and national security goals through 
the rapid deployment of clean and efficient natural gas, energy 
efficiency, and renewable energy technologies. Our members range in 
size from Fortune 500 enterprises to small entrepreneurial companies, 
to national trade associations.
    Few activities have a greater impact on our nation's economy, 
environment, and national security than the production and use of 
energy. Our economic well-being depends on energy expenditures, which 
account for approximately 7 to 8 percent of the nation's gross domestic 
product and a similar fraction of U.S. and world trade. Energy 
production and use also account for a large share of environmental 
problems, such as regional smog, acid rain, and the accumulation of 
greenhouse gases in the atmosphere. Our national security is 
increasingly linked to energy production and use, given our nation's 
increasing dependence on foreign oil sources, including those from the 
politically unstable Middle East. Expanded reliance on natural gas, 
energy efficiency, and renewable energy are the three pillars of a more 
secure and sustainable energy strategy that will help strengthen the 
U.S. economy and clean up the environment.
         federal programs to promote renewable energy resources
    The Council recognizes that it is the suppliers and users of 
energy--not the federal government--that ultimately will decide which 
energy sources will meet our future energy needs. However, the federal 
government does play an important role in helping the private sector 
share the risk of investing in deployment of clean technologies that, 
while at or near economical viability, face financial, informational, 
or institutional obstacles to their wide market availability. The 
Council would like to describe the following programs, which can 
strengthen the nation's portfolio of energy generation technologies.
                                  wind
    World markets for utility-scale wind energy are growing at an 
unprecedented rate. Figures for 1998 indicate that total worldwide 
installed wind capacity stands at 9,600 megawatts (MW), up 19 percent 
from a year earlier. This figure includes approximately 2,000 MW 
installed in 1998. The Council supports DOE's total request of $45.6 
million for wind energy research and development in fiscal year 2000 to 
fund projects in turbine research ($20.2 million), cooperative research 
($11.9 million) and applied research ($13.5 million). This level of 
funding is particularly important to continue developing next 
generation wind turbine technologies needed to keep the U.S. industry 
competitive in restructured domestic markets and in the fast growing, 
highly competitive international markets.
    Total U.S. wind capacity grew by 235 MW in 1998, a significant 
change from the previous three years when U.S. markets for wind energy 
had slowed to 11 MW in 1997, 10 MW in 1996, and 41 MW in 1995. 
Preliminary projections indicate that 600 MW of new wind generating 
capacity will be developed in 1999 and that 120 to 250 MW of wind 
capacity will be added through ``repowering'' development at several 
older wind farms in California. Repowering involves the replacement of 
older wind turbines with newer, more efficient models. While the long-
term future of wind technologies is uncertain in an increasingly 
deregulated electricity market, cost-shared DOE/wind industry efforts 
have the potential to develop the next generation of wind technologies 
to deliver electricity in the range of 2.5 cents/kilowatt-hour.
    The Council supports DOE's programs focusing on small wind turbines 
which generate up to 50 kilowatts, including the cost-shared Advanced 
Small Wind turbine project. Small wind turbines are used for smaller 
on-and off-grid applications where the value of the energy is high. 
Presently, U.S. small wind turbine manufacturers are the world's 
leading suppliers but they must rely on exports for approximately 
three-quarters of their business. The small size of the domestic market 
makes this industry vulnerable to foreign competition, particularly 
from countries with more developed markets. For this reason, the 
Council is encouraging DOE to expand its small wind turbine market 
development programs by creating initiatives similar to PV-COMPACT, PV-
BONUS, and the Million Solar Roofs program. Such initiatives would 
lower the costs of small wind turbines, create many new jobs, and give 
more opportunities for the marketplace to choose the most competitive 
small-scale renewable energy technologies.
    DOE has also been effective in helping U.S. small wind turbine 
companies overcome barriers to important international markets. While 
DOE expenditures in this area have been very modest, support by the 
National Renewable Energy Laboratory in the areas of wind resource 
studies, economic analyses, and pilot projects has created substantial 
new markets in South America, Asia, and Russia. Throughout the world, 
rural villages are being electrified or provided with clean water by 
small wind turbines exported from the U.S., at costs that are lower 
than the conventional alternatives of extending the grid or running 
diesel generators.
    Funding for Cooperative Research and Testing will provide support 
for industry testing at the National Wind Technology Center (NWTC) in 
Rocky Flats, Colorado. This will allow for continued development of a 
U.S.-based certification capability for wind energy technologies. 
Ultimately, streamlined certification criteria will make it easier for 
U.S. businesses to market and sell American-made wind turbine 
technologies in international markets.
    The main focus of the applied research program is development of 
models to better understand aerodynamics (through wind tunnel tests), 
fatigue damage prediction and structural reliability capabilities. 
Modeling and code design work is underway at both the National 
Renewable Energy Laboratory (located in Golden, Colorado) and the 
Sandia National Laboratory (New Mexico).
    More and more electric utilities are becoming interested in 
generating power from large-scale wind power plants. The global market 
for wind power is expected to further grow over the next few years. New 
wind power markets are driven in part by the fact that at least one-
third of the world's population--over 2 billion people--do not have 
access to reliable energy. Maintaining an U.S. presence in this growing 
industry is a valuable investment of federal resources--one that will 
pay off many times in the next several decades.
    The global wind energy market has been growing at a remarkable rate 
over the last several years and is the world's fastest growing energy 
technology. The growth of the market offers significant export 
opportunities for U.S. wind turbine and component manufacturers. The 
World Energy Council has estimated that new wind capacity worldwide 
will amount to $150 billion to $400 billion worth of new business over 
the next twenty years. Experts estimate that U.S. companies can sell 
over $1 billion of wind energy each year if U.S. industry can capture 
25 percent of the worldwide wind energy market over the next five 
years.
                              solar energy
    The United States currently leads the world in the diverse 
portfolio of solar technologies: photovoltaics (PV) for manufacturing; 
thin films and energy services; solar thermal power in advanced 
concentrations (solar power towers, parabolic troughs, and dish-
engines); and solar buildings in integrated systems and energy services 
delivery. However, our international competitors are positioning 
themselves to take market share from the United States in vast, 
multibillion dollar world markets, as a result of strong support 
provided by their respective governments--especially in Japan and 
Germany--through a variety of aggressive development and deployment 
programs. Maintaining our lead will require strong and focused U.S. 
government action, not only to support international activities but 
also to secure a position in growing domestic markets.
    Solar technologies available today include PV, solar water and pool 
heating, solar process heating, and solar thermal power technologies. 
Faster integration of solar energy systems in both supply-and demand-
side applications in our domestic economy, combined with support for 
increased exports of U.S. solar technologies, will have the parallel 
benefits of creating thousands of new high-technology manufacturing 
jobs while improving our environment. The Council supports the trend 
toward market-driven, industry cost-shared programs designed to 
leverage federal dollars with private sector participation to enhance 
private sector understanding and use of these technologies.
    Improving conversion efficiency of solar panels and reducing 
manufacturing costs will play a key role in sustaining U.S. dominance 
in the area of PV. The Council supports DOE's photovoltaic system 
program. PV programs are among the best leveraged (the PV COMPACT 
program, for example, leverages $4 and $5 for every federal dollar 
expended) in DOE. Our two most formidable competitors, Japan and 
Germany, are outspending DOE's investment in PV research and 
development and PV commercialization programs. While U.S. industry is 
exporting a significant amount of its products to these countries, most 
expect this surge in demand to rapidly diminish as in-country 
manufacturing capabilities are increased. As an example, the Japanese 
Ministry of International Trade and Industry has set a domestic 
deployment goal of 400 megawatts of PV by next year and its 
manufacturers have responded to the challenge.
    Japanese manufacturers are expected to expand their annual 
production capacity four-fold to 80 megawatts over the next three 
years. Not only will this expansion allow the Japanese industry to meet 
much of its domestic demand for PV; it will enable Japan to overtake 
the U.S. in terms of global market share. The Council also supports the 
Administration's Million Solar Roofs (MSR) Initiative.
    The Council supports DOE cost-shared initiatives in R&D (thin-films 
and other advanced materials, manufacturing and other solar initiatives 
which address these issues). Equally important is the concept of 
building integrated PV programs where PV manufacturers, systems 
integrators and utilities are working together to reduce the cost of PV 
generated electricity. The Council also supports the Department's PV 
COMPACT program. PV COMPACT is a collaborative effort involving more 
than 80 electric utilities (representing over half the electricity 
produced in the U.S.) and other interested organizations to garner the 
economic, commercial, and environmental benefits of PV technologies.
    PV and other solar technologies offer the U.S. environmentally 
benign and cost-effective energy supply options in a variety of market 
applications. The market viability of these technologies is 
demonstrated in growing private sector interest in developing new 
manufacturing facilities related to solar industries. In the area of PV 
production alone, the last four years have witnessed six U.S. companies 
announce plans to construct new photovoltaic plants. This activity is a 
unique example of DOE funding encouraging significant private-sector 
investment that creates new jobs. The Council strongly urges Congress 
to continue its support of public/private partnerships that help ensure 
that U.S. companies can compete effectively in rapidly emerging world 
renewable energy markets.
    BCSE is highly supportive of non-conventional PV programs within 
DOE's Office of Power Technologies. The Council specifically supports 
the non-conventional PV request of $4.3 million and specifically 
requests the Committee to instruct DOE to dedicate $2 million for 
Thermo Photovoltaic (TPV) research.
    The Council also supports PV programs within DOE's Office of Energy 
Efficiency and Renewable Energy, specifically DOE's Solar Thermal 
Buildings program, a research and development program focusing on 
materials and components for solar water and space heating technologies 
for building applications. Based at the National Renewable Energy 
Laboratory and the Florida Solar Energy Center, the program also has a 
strong technology standard and certification component. Activities in 
fiscal year 2000 should include the completion of collaborative 
projects with utilities and builders to assess their impact on 
improving solar water heating technology and the completion of a 
cooperative research and development agreement with the Salt River 
Agricultural Improvement and Power District to develop a solar water 
heater that could provide hot water at a cost of 6 to 7 cents per 
kilowatt-hour.
    The Council supports the Solar Thermal Electric and Process Heat 
programs, an R&D program on materials and components with a heavily 
cost-shared technology validation component. Over the past six years, 
the primary program focus has been in collaboration with industry to 
develop advanced solar thermal electric technologies to the point of 
commercial readiness.
                         distributed generation
    Utilities throughout the nation are reorganizing to meet the many 
challenges associated with electric utility restructuring. Accordingly, 
power providers are developing state of the art technologies aimed at 
providing customers with the cleanest, most reliable, and cheapest 
power possible. Combined heat and power (CHP) and distributed 
generation technologies provide reliable on-site power generation with 
dramatically improved efficiencies and cleaner fuels such as natural 
gas and biomass gas. BCSE strongly supports $8 million for development 
and deployment of CHP and related distributed generation systems, 
managed by the Office of Industrial Technologies, which showcase novel 
integrated schemes or hybrid system demonstrations.
                 renewable energy production incentive
    As part of the Energy Policy Act of 1992 (Sec. 1212), Congress 
passed the Renewable Energy Production Incentive (REPI) to encourage 
the development of renewable energy projects in tax-exempt municipal 
utilities. This program has been succcessful in helping municipal 
utilities such as the Sacramento Municipal Utility District develops 
wind and solar generating facilities. We believe the Administration's 
request is insufficient to meet the requirements of this program, and 
request the Committee increase to $20 million the funding for the REPI.
                        international activities
    Finally, the Council would like to offer its support of federal 
programs designed to help open important international markets for 
renewable energy technologies. The Council is extremely supportive of 
the fiscal year 2000 increases in funding for international energy 
programs such as the International Solar Energy Program.
    The developing world--Eastern and Central Europe, the former Soviet 
Union, Asia, Africa, and Latin America--presents tremendous 
opportunities for the deployment of renewable energy technologies. 
Renewables offer great flexibility to developing countries looking for 
economically viable, reliable, and clean energy supply options that can 
be used to serve growing metropolitan areas and remote rural regions 
where power is otherwise unavailable. Renewables can also help support 
the development of commercial activities such as agriculture and 
telecommunications through remote power source applications. 
Competition in rapidly growing developing country markets is intense; 
U.S. renewables manufacturers face the dual obstacles of competition 
from conventional energy sources and foreign renewables manufacturers 
buoyed by government assistance.
    In this regard, it is important to note that major U.S. competitors 
are now making aggressive moves into the renewables market. When 
measured against the relative size of their economies, Japan, Germany, 
and Sweden are each now making larger government R&D investments in 
renewables than is the U.S. In fact, the U.S. taxpayer spends a lower 
portion of his R&D budget on energy than any other taxpayer in an 
industrialized, market-based economy.
    U.S. government assistance in identifying market opportunities, 
providing education and training for energy decision-makers in the 
developing world, and supporting demonstrations of renewable 
technologies in overseas applications promises to help ensure that U.S. 
renewables manufacturers will be successful in capturing market share 
throughout the expanding global market for clean energy technologies 
and services.
                               conclusion
    Some have suggested that a technology should have a minimum market 
share before federal support is provided for R&D. We believe that the 
role of the federal government should in fact decrease as new 
technologies successfully penetrate the market and increase their 
ability to support robust R&D programs on their own. Promoting 
research, development and validation of emerging renewable energy 
technologies will result in the near-term creation of thousands of new 
jobs, a stronger economy, enhanced export opportunities for domestic 
manufacturers, and a cleaner environment. DOE's budget request 
continues federal emphasis on developing low-and non-polluting energy 
technologies and services as a means of achieving these goals. It 
utilizes cost-shared collaboratives with industry to leverage limited 
federal funds in recognition that cooperation with industry is vital 
for addressing market imperfections impeding the widespread use of 
renewables. The Council strongly supports this approach, and urges 
Congress to continue its support of federal research, development and 
validation programs for renewable energy technologies.
                                 ______
                                 
          Prepared Statement of the American Chemical Society
    The American Chemical Society (ACS) strongly supports increasing 
the federal investment in research conducted by the Department of 
Energy's Office of Science (SC).
    As part of our commitment to sustained research funding, ACS 
supports doubling total federal spending on research within a decade, 
fiscal year 1999-fiscal year 2009. This requires an average increase of 
7 percent per year for each of the federal government's basic research 
programs. For that reason, ACS applauds Congress' recognition of the 
importance of energy-related research and for providing SC with an 
increase of greater than 9 percent in fiscal year 1999. This is an 
important first step.
    ACS urges Congress to further strengthen the national investment in 
research supported by the Department of Energy's Office of Science by 
providing it with at least a 7 percent increase in fiscal year 2000. 
The nearly 5 percent increase proposed in the fiscal year 2000 
Administration budget request for SC is insufficient to meet the 
energy-related research needs of our nation. Moreover, while the 
Society is pleased with the strong funding levels for proposed research 
initiatives such as the Scientific Simulation Initiative and the 
Climate Change Technology Initiative, ACS is concerned about the 
decrease in funding for ongoing basic research programs. For example, 
the Society is distressed with the proposed 2.3 percent decrease in 
funding for Chemical Science within the Basic Energy Sciences program.
    The ACS supports programs within SC for the following reasons:
  --The United States has a dynamic, comprehensive, interconnected 
        research system that has enabled us to assume global 
        leadership, enjoy a high standard of living, and ensure our 
        nation's security. Maintaining those benefits requires 
        continual renewal of investment in R&D, including research 
        sponsored by SC, which is an integral part of the federal 
        research enterprise.
  --SC-supported research is advancing our national goals of reducing 
        energy consumption, harnessing new energy sources, and reducing 
        our dependence on imported oil and improving the quality of the 
        environment. Better understanding of combustion at a 
        fundamental level, improved hazardous waste storage, and the 
        development of new superconducting materials are some of the 
        areas of discovery SC supports. SC research also plays a key 
        role in efforts to understand global climate change.
  --SC programs include a broad array of research activities that 
        advance the fundamental scientific knowledge base and train 
        future scientists in areas of great importance to our nation. 
        They are also the principal source of support for the non-
        defense R&D carried out at DOE's nine multipurpose national 
        laboratories.
    The American Chemical Society appreciates Congress' continued focus 
on the nation's energy research needs, but also recognizes the 
difficulty in achieving the goal of doubling research support within a 
ten-year period. A national commitment to double federal support for 
research will require additional resources. ACS encourages Congress to 
work in a bipartisan manner with the Administration to identify and 
employ the necessary resources. The Society looks forward to working 
with Congress this year to strengthen the national investment in DOE 
basic research.
 chemistry: fundamental to meeting energy and environmental challenges
    Most chemistry research at DOE is supported through two programs 
within the Office of Science: Basic Energy Sciences (BES) and 
Biological and Environmental Research (BER). These two programs support 
the fundamental research that provides the discoveries, knowledge base, 
and the experienced scientists and engineers needed to address the 
environmental impacts of energy production and use. This research is 
also essential for control and clean-up of radioactive and hazardous 
wastes at DOE sites, particularly those sites involved in past nuclear 
weapons production.
  --Basic Energy Sciences is the most diverse research program within 
        DOE. This program supports scientific research related to 
        energy technology development, which consists of a wide range 
        of basic research activities in chemistry, as well as 
        materials, engineering, earth sciences, and energy biosciences. 
        Basic Energy Sciences is also the program through which major 
        research facilities are developed and maintained. The major 
        user facilities operated by BES at the DOE laboratories are 
        used extensively by industry, universities, and government on a 
        cost-shared basis.
  --Biological and Environmental Research is focused on basic research 
        in the biomedical and environmental sciences to further 
        understanding of potential long-term health and environmental 
        effects of energy productions and use that includes research on 
        global climate change and the human genome project. The program 
        also supports the Environmental Molecular Sciences Laboratory 
        for bioremediation research.
    Investments in fundamental research have already paid off, as 
documented in past DOE reports. Examples of promising work include the 
following:
  --BES-supported researchers have synthesized and tested an ion 
        exchange resin that removes a variety of metal contaminants 
        from groundwater and mixed wastes.
  --Radioactive sludge intake wastes present clogging problems. Surface 
        chemistry information being produced through SC-supported 
        research is helping to control this situation.
  --In other SC-funded work, scientists have decomposed dioxins in soil 
        using methods that are technically and economically feasible.
  --BES-supported research is combining models of turbulent combustion 
        with realistic chemical kinetics to reduce the emission of 
        pollutants from internal combustion engines.
    As the world's population grows, the energy and environmental 
challenges confronting us will become more complex and difficult for us 
to solve. The fundamental chemistry-related research supported by the 
Office of Science will be essential to our efforts to meet these 
challenges.
                                 ______
                                 
Prepared Statement of Jaime Steve, Legislative Director, American Wind 
                           Energy Association
                         wind power is working
    Cost-Shared R&D + Existing Tax Credit = New Jobs & Competitively 
Priced, Pollution-Free Power
    Over 230 Megawatts of New Domestic Wind Power Came On-Line in 1998.
    Utility-Scale Wind Power Expands Throughout the U.S.
    The American Wind Energy Association \1\ appreciates this 
opportunity to provide testimony for the record on the Department of 
Energy's Fiscal 2000 wind energy program budget before the Senate 
Appropriations Subcommittee on Energy and Water Development.
---------------------------------------------------------------------------
    \1\ The American Wind Energy Association, or AWEA, was formed in 
1974. The organization represents virtually every facet of the wind 
industry, including turbine and component manufacturers, project 
developers, utilities, academicians, and interested individuals.
---------------------------------------------------------------------------
    Our testimony addresses the following issues:
    (1) The need for increased appropriations for cost-shared DOE/
industry R&D partnerships aimed at further driving down the cost of 
wind power to a level approaching 2.5 cents per kilowatt-hour.
    (2) Wind power is working throughout much of the U.S.--Alaska, 
California, Colorado, Hawaii, Iowa, Kansas, Massachusetts, Michigan, 
Minnesota, Nebraska, New Mexico, New York, Oregon, Texas, Washington, 
Wisconsin, Vermont, and Wyoming. Cost-shared R&D--which has already 
slashed the cost of wind power by more than 80 percent since the early 
1980's--coupled with the existing wind energy production tax credit is 
currently producing competitively-priced, pollution-free electricity.
    (3) Renewable Energy Production Incentive (REPI). This program 
would be significantly underfunded by the Clinton Administration budget 
proposal. But even more importantly, AWEA suggests that Congress work 
with the Department of Energy (DOE) to develop long-range alternatives 
to unpredictable annual funding of this program. For this 
appropriations cycle, AWEA recommends funding of $8 million--$12 
million below the $20 million need identified by DOE in its fiscal year 
1999 appropriations testimony.
                    a growing domestic wind industry
    Utility-Scale Wind Development.--Total U.S. wind capacity grew by 
235 megawatts (MW) in 1998, with major new wind plants being built in 
states outside California, traditionally the nation's leading wind 
energy producer. The states of Minnesota, Oregon, Wyoming, and Iowa 
account for most of the new development.
    This impressive growth exhibits a significant change from the 
previous three years when U.S. markets for wind energy had slowed to 
only 11 MW of new capacity installed in 1997, 10 MW installed in 1996, 
and 41 MW installed in 1995.
    This surge in U.S. wind energy capacity is due to two main factors:
    (1) Cost-shared DOE/industry R&D partnerships which have reduced 
the cost of wind energy by more than 80 percent since the early 1980's.
    (2) The impending expiration (on June 30, 1999) of the Wind Energy 
Production Tax Credit (PTC)which provides an incentive to produce 
electricity with non-polluting wind resources. While developers are 
moving quickly to erect new wind farms before the credit expires, AWEA 
remains hopeful that the incentive will be extended and continue to 
encourage additional projects in the future.
    For 1999, AWEA is preliminarily projecting 600 MW of new wind 
energy capacity, and between 120 and 250 MW of ``repowering'' 
development at several older wind farms in California. The term 
repowering means removing older wind turbines and replacing them with 
new, more efficient turbines. At some sites in California one new wind 
machine can replace up to twelve turbines in operation since the early 
1980's while generating more electricity at a significantly lower cost.
    On the international front, wind power has been the fastest growing 
energy source in the world in the 1990's--with global installed 
generating capacity estimated to have grown by 25.7 percent annually 
since 1990. Worldwide, the wind industry doubled the amount of capacity 
in place three years ago, adding 2,100 megawatts (MW) to reach a total 
of 9,600 MW at the end of 1998. That amount of capacity is sufficient 
to generate approximately 21 billion kilowatt-hours of electricity, or 
enough power for 3.5 million suburban homes. Through this type of 
growth, wind power has become one of the most rapidly expanding 
industries, with worldwide equipment sales reaching roughly $2 billion 
in 1998.
    Small Wind Systems (i.e., 50 kW or less).--Although the worldwide 
market for small wind turbines (with a capacity of less than 50 
kilowatts per turbine) has not received as much attention, there is a 
growing recognition that the market for small wind turbines is becoming 
increasingly attractive. Small wind turbine markets are diverse, and 
include many applications both on-grid and off-grid. One market 
projection anticipates a five-fold increase in the small turbine market 
by 2005.
    Small turbines can provide electricity where none is available from 
conventional sources or where fuel costs are prohibitively high, such 
as diesel generators in Alaska. Currently, more than 2 billion people 
around the globe are not connected to an electric power grid and that 
number is growing. Small wind turbine manufacturers from Flagstaff, 
Arizona to Norman, Oklahoma, to Norwich, Vermont are working to capture 
this emerging market for U.S.-made goods and services.
    One or more small turbines can power a cabin, telecommunications 
relay, business, school, community center, clinic, or an entire 
village. Farmers can use small turbines to power their homes and other 
buildings or pump water for livestock or irrigation. In some cases, 
utilities may erect a cluster of turbines at the end of a distribution 
line instead of building a more expensive power plant or transmission 
line.
                 wind program fiscal year 2000 request
    AWEA supports DOE's fiscal 2000 wind program request of $45.6 
million. A strong Department of Energy research and development effort, 
aimed at achieving even further cost reductions, is a crucial component 
in continuing to grow the U.S. wind industry and build on the successes 
of 1998 outlined below.
    Applied Research.--About $13.5 million of the overall Wind program 
request would fund Applied Research containing core research efforts 
involving universities and private entities. Work focuses on advancing 
the U.S. wind energy technology base through research, testing, and 
analysis of complex interactions between wind turbine structures and 
materials. Efforts also examine how all parts of wind energy systems--
blades, drivetrains, generators, power converters, control systems, and 
towers--can be optimized to increase reliability and further reduce 
costs.
    AWEA's member companies rely on these cost-shared efforts with DOE 
and its laboratories for this type of research because most individual 
companies are under-capitalized. Even larger corporations have limited 
capability to carry out basic research efforts without specialized 
assistance.
    Activities under the core research component of Applied Research 
are consistent with the recommendations of the President's Committee of 
Advisors on Science and Technology (PCAST) report on energy research 
and development to support research on computational fluid dynamics, 
light weight adaptive structures, advanced control systems, and 
variable speed and direct drive generators.
    The additional $2.8 million requested above fiscal year 1999 
funding would be applied to a new program--Wind Partnerships for 
Advanced Component Technologies (Wind PACT)--to establish industry-
government teams to test promising new component parts. Under this 
effort, two to three R&D subcontracts would be competitively selected 
to explore potential concepts such as light-weight and direct-drive 
generators, flexible and articulated rotors, feedback controls for load 
alleviation, and high efficiency power converters.
    Applied Research also includes R&D for technologies that enable 
wind to be used in stand-alone, remote, or hybrid power systems. The 
combined use of wind turbines with diesel generators and other 
renewables and storage systems is a potentially large market for U.S.-
made technologies. The key research issue in this area is designing a 
control system that allows diesel generators to be turned off, when 
intermittent wind power is being produced, thus reducing overall 
consumption of high-cost diesel fuel. In addition to laboratory R&D on 
control systems, this program supports ``real world'' control system 
field verification projects in Alaska. Approximately 60 percent of 
field verification costs are met by private industry.
    Ultimately, WindPACT and other Applied Research efforts are aimed 
at moving new technologies from the laboratories to the marketplace 
where they will directly benefit American consumers and taxpayers by 
spurring new job growth, cutting electricity generation costs, and 
reducing overall emissions of harmful air pollutants.
    Turbine Research.--About $20.2 million of the overall Wind program 
request would be invested in DOE's cost-shared Turbine Research program 
aimed at further reducing the cost of utility-scale wind power to a 
price approaching 2.5 cents per kilowatt-hour at 15 mph wind sites. The 
bulk of this effort is focused on completing research and development 
with two industry partners leading to state-of-the-art utility scale 
(500 kW--2 MW) wind turbines. These projects currently call for a 20--
75 percent industry cost-share.
    The requested funding would support design review, analysis, and 
testing services needed for several new and on-going Turbine Research 
subcontracts with AWEA member companies. In addition, field 
verification projects would be initiated that would be tailored to 
satisfy specific regional needs. In addition, technical and data 
analyses support would be continued for ongoing utility-scale Turbine 
Verification Program projects.
    Another important component of this program would direct $1.3 
million in cost-shared R&D efforts to research, testing, and field 
verification of smaller wind turbines. This effort is aimed at 
assisting U.S. manufacturers capture a significant portion of the 
growing international market for small, distributed electricity 
generation throughout the developing world. Another component of the 
$20.4 million Turbine Research effort would provide $1.8 million for 
projects aimed at developing distributed (or, off-grid) wind resources 
on Native American Lands. The additional $4.8 million requested above 
fiscal year 1999 funding would be used for several field verification 
efforts aimed at moving new turbine designs from the laboratory to the 
marketplace.
    Cooperative Research & Testing Program.--About $11.9 million of the 
overall Wind program request would fund Cooperative Research and 
Testing efforts conducted at the National Wind Technology Center 
(NWTC), located new Rocky Flats, Colorado. The goal of this work is to 
resolve near-term technical questions and provide technical support 
thus allowing U.S. companies to better compete in world markets.
    The additional $3.2 million requested above fiscal year 1999 
funding would be used exclusively for field verification projects under 
the Hybrid Systems for Village Power program and wind monitoring/
performance measurement at existing wind farms. This key efforts would 
build off of hybrid field verification work in Alaska and provide 
additional opportunities for field verification of new hybrid power 
systems developed in the area of Applied Research. In essence, this 
project would verify--through ``real world testing''--smaller wind 
systems at existing stand-alone diesel power sites in Alaska and other 
states, U.S. territories, Native American communities, and other 
remote, off-grid locations.
    A separate, but related, effort funded under Cooperative Research 
and Testing would support continued development of international 
consensus standards for wind turbine design, and establishment of wind 
turbine certification capability in the U.S. Both of these activities 
are essential to maximizing industry prospects for international sales 
of U.S. wind energy products and services.
                 wind power is working in these states
    Once based almost solely in California, the domestic wind energy 
industry now features utility-scale projects in 18 states. This 
economic expansion into the nation's heartland is directly tied to 
dramatic cost reductions and reliability improvements stemming from 
industry cost-shared partnerships with the Department of Energy 
laboratories. Below are some of the state success stories of the last 
year.
    Colorado.--New Belgium Brewing Company, of Fort Collins, CO,--
makers of ``Fat Tire Amber Ale'' and other microbrews--said February 25 
that it will soon become the largest private consumer of wind power in 
the U.S. The decision has been put to a vote of the company's 70 
employees, who unanimously OK'd the switch to wind power even though 
the slightly increased cost cut into their bonuses, which are paid on a 
cost-per-barrel basis.
    By substituting 100 percent wind power for more conventional 
sources of electricity, the brewery will reduce the amount of coal 
burned by 980 tons per year and eliminate more than 4 million pounds of 
carbon dioxide emissions annually. The power will be supplied by Fort 
Collins Utilities (FCU), the city's municipal utility. A 660-kW wind 
turbine will be built next fall at the Platte River Power Authority's 
wind site near Medicine Bow, Wyoming, to support New Belgium's 
subscription to FCU's wind power program. The new turbine will produce 
about 1.8 million kilowatt-hours of electricity per year, which is 
about the amount of electricity that New Belgium will consume over 12 
months.
    Two 600-kW turbines have operated at the Medicine Bow site since 
April, 1998, producing power for 12 other Fort Collins businesses and 
approximately 520 residents who have subscribed to the utility's wind 
program.
    Iowa.--Enron Corp. is erecting 250 high-tech wind turbines near 
Alta and Storm Lake and will sell power to MidAmerican Energy. FPL 
Energy, Inc. (a subsidiary of Florida Power & Light) is building 56 
turbines at Clear Lake and selling power to Alliant Energy. When these 
new wind turbines go on line, Iowa will be the third-largest wind 
energy producing state in the nation, behind California and Minnesota.
    Illinois.--The initial startup of a new 60,000-square-foot wind 
turbine assembly plant in Champaign, IL has created 60 new jobs 
building 22 story-tall wind machines each weighing 23 tons. Workers 
have already built and shipped 56 turbines to a wind farm in Iowa and 
recently finished the first of four of 47 turbines headed for Texas. 
Owners, NEG Micon USA, Inc. (based in Rolling Meadows, IL) expect to 
assemble and deliver 250 wind turbines across the U.S. in 1999. When 
operating at full speed, the facility is capable of assembling more 
than 400 wind turbines per year.
    Minnesota.--Northern States Power Co. is building 425 MW of wind 
capacity by 2002. When complete, these wind farms will be producing 
enough energy to power the equivalent of 200,000 Minnesota households.
    New Mexico.--In April, Southwest Public Service Co. starts 
purchasing wind power from the brand new .7 MW Llano Estacado Wind 
Ranch located halfway between Clovis, NM and Farwell, TX. The one test-
turbine is owned and maintained by Cielo Wind Power of Austin, TX. The 
Llano Estacado generator will be mounted on a 230-foot tubular steel 
tower and will be turned by three 80-foot long blades. Power is 
produced when wind velocity reaches eight to 60 miles-per-hour, 
although 25 MPH wind would be the most efficient. The generator will 
turn off when the wind velocity is more than 60 MPH.
    New Mexico is ranked #12 on a DOE list of the top 20 states for 
wind energy development potential--even higher than California which is 
ranked #17. With more turbines, New Mexico winds could produce 435 
billion kilowatt-hours annually, the wind energy could create 130,000 
jobs, and it has an economic potential of $10.9 billion.
    North Dakota.--Grand Forks, ND gained 130 new high-tech jobs 
earlier this year when LM Glasfiber, Inc., a wind turbine blade 
manufacturer based in Denmark, opened a new $5.8 million production 
facility in the town's new industrial park. More jobs will be added 
when the company soon adds a sales and service department.
    Oregon.--FPL Energy's new Vansycle wind farm, near the town of 
Pendleton, went on line in December of 1998. The project's 38 high-tech 
turbines are now producing about 25 MW of power--enough electricity to 
meet the needs of about 60,000 people--for customers of Portland 
General Electric.
    Texas.--(A) The largest wind turbines ever erected in North America 
were dedicated December 2, 1998 in Big Spring, Texas. Upon completion, 
the project's 46 wind turbines will produce about 117 million kilowatt-
hours per year--enough electricity to serve the needs of 7,300 homes.
    (B) Reliant Energy HL&P, a major utility based in Houston, TX., 
plans to offer its customers non-polluting electricity from the wind 
this summer. HL&P will be buying the power generated by 22.5 MW of wind 
capacity to be installed in the Delaware Mountain Wind Farm, which is 
now under construction in rural Culberson County in west Texas. The 
amount of electricity from the wind farm will be equivalent to the 
power needs of more than 4,000 homes. American National Wind Power 
(ANWP), a Houston-based wind farm developer, is scheduled to complete 
the wind plant's first phase, which will total 30 MW in capacity, 
before the end of June. ANWP hopes to ultimately expand the Delaware 
Mountain Wind Farm to 250 MW, which would make it the largest U.S. wind 
plant.
    Wyoming.--The Foote Creek wind farm will soon have the capacity to 
produce over 40 MW of power. Electricity generated at the site will be 
purchased by Pacificorp, the Bonneville Power Administration, and the 
Eugene (Oregon) Water & Electric Board.
              renewable energy production incentive (repi)
    Year-to-year uncertainty regarding funding levels for the Renewable 
Energy Production Incentive (REPI) play havoc with the long-term 
planning needs of running a municipally-owned utility. For this reason, 
AWEA suggests the Congress work with the Department of Energy (DOE) to 
develop long-range alternatives to annual funding of this program.
    Assuming that significant changes in program funding and 
distribution are unlikely to occur this year, AWEA recommends fiscal 
year 2000 REPI funding of $8 million--$12 million below the $20 million 
need identified by DOE (in its fiscal year 1999 appropriations 
testimony) and by the American Public Power Association.
    AWEA's recommendation differs markedly from the Administration's 
proposed reduction to $1.5 million from current spending of $4 million 
(fiscal year 1999 level). AWEA's $8 million recommendation is the same 
funding level suggested in our fiscal year 1999 testimony.
    The REPI program, authorized by the Energy Policy Act of 1992, 
encourages municipally-owned utilities to invest in renewable energy 
technologies including wind energy systems. REPI permits DOE to make 
direct payments to publicly and cooperatively owned utilities at the 
rate of 1.5 cent per kilowatt-hour for electricity generated from wind, 
solar, geothermal, and biomass projects. Because wind energy projects 
require a two to three year lead time for permitting and construction, 
it is very important that stable and predictable funding be provided.
    REPI was established to ensure equity between investor-owned 
utilities--that utilize production tax credits--and publicly and 
cooperatively owned electric utilities that are unable to do so. REPI 
is particularly important in helping the following publicly owned 
utilities develop wind energy projects: Bonneville Power Administration 
(Washington, Oregon, Idaho, Montana); Cedar Falls Utilities (Iowa); 
City of Brownfield (Texas); Eugene Water & Electric Board (Oregon); 
Fort Collins Light & Power (Colorado); Lincoln Electric (Nebraska); 
Lower Colorado River Authority (Texas); Marshall Utilities (Minnesota); 
Moorhead Public Service (Minnesota); Nebraska Public Power District 
(Nebraska); Platte River Power Authority (Colorado); Princeton 
Municipal Light Dept. (Massachusetts); Sacramento Municipal Utility 
District (California); Traverse City Light & Power (Michigan); and 
Waverly Light & Power (Iowa).
                               conclusion
    Smart investments in wind energy R&D have delivered--and are 
delivering--value for taxpayers by developing a clean domestic energy 
source providing significant economic, public health, and environmental 
benefits. Working with DOE, the wind industry has cut the per kilowatt-
hour cost of wind power by more than 80 percent since the early 1980's 
thus allowing utility-scale wind development in 18 states and 
generating electricity equivalent to the residential electric needs of 
over one million Americans.
    As the cost of conventional electricity sources also continues to 
decline, a strong DOE wind energy research and development effort 
funded at $45.6 million is one crucial component of growing this 
industry.
    On behalf of the members and board of the American Wind Energy 
Association, I thank you for the chance to share our views on these 
important programs.
                                 ______
                                 
   Prepared Statement of the American Society of Mechanical Engineers
    Mr. Chairman and Members of the Subcommittee: The Energy Committee 
of the Council on Engineering of the American Society of Mechanical 
Engineers (ASME) is pleased to provide testimony on the fiscal year 
2000 budget request for the Department of Energy (DOE). Our testimony 
is directed to DOE's research and development (R&D) programs related to 
the use of renewable and nuclear energy and fundamental energy 
research.
              introduction to the energy committee of asme
    The 125,000-member ASME is a worldwide engineering society focused 
on technical, educational, and research issues. It conducts one of the 
world's largest technical publishing operations, holds some 30 
technical conferences and 200 professional development courses each 
year, and sets many industrial and manufacturing standards. This 
testimony represents the considered judgment of the Energy Committee 
and is not necessarily a position of ASME as a whole. The Energy 
Committee consists primarily of members representing the eight 
technical divisions that address energy technologies and resources.
    Energy R&D was identified in a recent survey of ASME members as one 
of the most important public policy issues. Energy Committee members 
recommend that an energy policy:
  --maintain U.S. competitiveness in the international marketplace;
  --protect our national energy security;
  --seek technological solutions to concerns about global climate 
        change and emissions of associated pollutants; and,
  --protect the environment in all phases of the energy cycle, from the 
        extraction of fuels to the ultimate disposal of the byproducts.
                           role of technology
    Increased national and international concerns about the environment 
are placing higher demands on the performance of our energy systems. As 
engineers, we cannot emphasize strongly enough that investments in 
science, engineering, and technology are essential for enabling our 
nation to meet its needs for inexpensive energy that is produced and 
consumed in an environmentally friendly manner.
    Meeting our future energy needs in a manner consistent with 
national and global environmental well-being will require development 
of a broad suite of technologies ranging from renewables to nuclear 
energy. Fossil fuels, which are presently the worldwide predominant 
energy source, will remain the primary fuel for provision of energy for 
a number of years to come, both here and abroad. Therefore, efforts to 
improve the efficiency and environmental friendliness of their use will 
have a larger impact than might be true of other sources, particularly 
in the next 20 years. Those efforts must be complemented by R&D 
investments in a broad range of energy production technologies.
    The Energy Committee believes that immediate priority for increased 
funding for research programs should be given to:
  --programs that maintain or even increase the use of nuclear energy,
  --programs that develop renewable sources as viable energy options 
        for both domestic and foreign implementation, and
  --programs that provide for basic research, which stimulates the 
        development of innovative technologies, addresses major science 
        and technology challenges, and maintains our educational 
        pipeline to ensure the supply of human capital.
                programs in the office of nuclear energy
    The Energy Committee supports the responsible use of all energy 
resources for generating electricity, transportation fuels, and use in 
the industrial, commercial, and residential sectors. Our assessment of 
energy use projections, such as presented in the EIA Annual Energy 
Outlook for 1998, lead to the conclusion that the United States must 
continue to maintain a diverse mix of energy supplies. The U.S. 
pioneered the safe utilization of atomic energy for commercial power 
production. Technology developed in the U.S. is now employed world-wide 
for nuclear power generation. For over two decades, no new nuclear 
power plants have been approved for construction in the U.S. Abroad, 
many countries are taking advantage of this clean, safe, and relatively 
inexpensive power source. The U.S. has the opportunity to renew its 
option on the effective use of nuclear power, which many believe will 
be a vital part of a future where carbon emissions may be severely 
curtailed. However, this will not be possible without significant, 
sustained, national investment, coupled with the re-licensing of 
existing U.S. nuclear plants.
Nuclear energy plant optimization
    The Energy Committee is particularly supportive of efforts to 
address extending the life and improve the effectiveness of 
conventional nuclear power plants. The Nuclear Energy Plant 
Optimization (NEPO) program marks the beginning of efforts to enable 
maximum use of our existing nuclear generation capacity. Major advances 
in science and technology offer the potential to substantially increase 
the productive life of nuclear plants with improved safety and economic 
performance. Given the potential benefits offered by the NEPO program, 
the Energy Committee encourages consideration of additional funding, 
above the $5 million proposed by the Administration for fiscal year 
2000 to $10 million, with appropriate and justified increases in future 
years.
Nuclear energy research initiative (NERI)
    Renewal of efforts to develop fundamental new technology for future 
nuclear power generation was supported by the Energy Committee last 
year, and we continue to endorse investment in this young program. 
Increased understanding of nuclear power technology, advances in 
materials science, and improvements in many related sciences and 
technology offer the potential to reduce plant construction and 
operation costs and waste management requirements, and improve plant 
operability, reliability, lifespan, and safety. A substantial fraction 
of this initiative will go toward nurturing university research and 
education in nuclear science and engineering, through direct funding 
and reinforcing linkages between the nuclear technical community in 
industry and our national laboratories. It will help ensure the 
availability of an improved nuclear power option for the future, which 
will benefit the U.S. by enhancing power production in this country and 
enabling U.S. industry to compete effectively in the global energy 
markets. The Energy Committee supports the increase in funding proposed 
for this program.
Other nuclear programs
    Consistent with support of the NERI program, the Energy Committee 
supports continued investment in the University Reactor Fuel Assistance 
and Support (URFAS) efforts. It is reasonable to believe that increased 
investment in NERI and NEPO will require greater utilization of our 
university reactors, therefore, the Energy Committee recommends a 
modest increase to $13 million for fiscal year 2000.
    The Energy Committee supports continuation of the Advanced 
Radioisotope Program at the level proposed by the Administration (no 
change from fiscal year 1999). The Energy Committee also supports 
continued efforts to support establishment of a commercial application 
for the Fast Flux Test Facility (FFTF) at the level ($30 million) 
proposed by the Administration. This effort is particularly prudent 
considering the Administration-proposed establishment of an Advanced 
Nuclear Medicine Initiative that would augment the commercial mission 
envisioned for FFTF of medical isotope production.
         programs in solar and renewable resources technologies
    The development of technologies that enable use of solar and 
renewable resources are of significant strategic importance to the U.S. 
Development of competitive renewable options provides insurance for 
potential energy security and global climate change impacts on our 
energy future. They will enable the U.S. to achieve a more sustainable 
energy economy.
    The development of solar and renewable resource technologies 
provides one of the greatest challenges to modern science and 
engineering. Consistent with the magnitude of the challenge, it will be 
necessary to sustain investment over long periods of time to enable 
substantial progress in this arena. The Administration has proposed 
substantial increases in funding for solar and renewable programs, 
largely because of their potential to contribute to reduction of global 
climate change emissions. It is likely, however, that efforts to 
improve efficiency and reduce carbon emissions of fossil energy 
technologies could have a larger near-term impact on global climate 
change emissions than comparable investments in solar and renewable 
technology.
Solar/renewable energy programs
    The Energy Committee strongly encourages continued support of 
fundamental science and engineering to facilitate discovery and 
development of breakthrough technologies in all solar and renewable 
resource applications. A key aspect of R&D should focus on the 
development of innovative concepts at universities to complement the 
work being pursued by the national laboratories. Demonstration programs 
are an essential element to both evaluate technologies and to address 
the many challenging operations and integration issues, and should be 
focused on resolving performance uncertainties, examining systemic and 
integration issues, and reducing cost and risk for commercial 
development and deployment. Such programs should not attempt to create 
a market for these technologies, which properly remains the 
responsibility of industry.
    The Solar Buildings and Hydropower programs are very small, with 
small dollar increases. Both of these programs favorably impact the use 
of renewable energy, at good cost/benefit ratios. The larger programs, 
Concentrating Solar and Geothermal Energy, are slated for modest 
increases (11 percent and 4 percent, respectively), which appear 
appropriate considering their contributions.
    The substantial increase (over 25 percent) in the hydrogen program 
does not seem justified. Careful consideration of the rationale for 
aggressive development of ``pure'' hydrogen technology systems should 
be undertaken in light of the potential for on-board and on-site 
conversion of hydrocarbon fuels to hydrogen offered by several 
developing technologies. Furthermore, the time scale for implementation 
of the ``hydrogen economy,'' should it become necessary and 
economically feasible, is sufficiently long that urgent development is 
not now required. The $7.5 million (24 percent) increase in the Biomass 
program also does not seem to be merited in terms of its near-term 
contribution to the nation's energy needs, unless the ``co-firing with 
coal'' project can be shown to significantly reduce greenhouse gas 
emissions.
    The major program dollar and percentage increases (about 30 percent 
each) are in the two biggest programs: Wind and Photovoltaics (PV). 
Both of these technologies have viable industries and are in a 
``globally competitive'' mode, with research and development 
investments driving down the delivered energy price of each. It is to 
the advantage of the United States to be pre-eminent in both of these 
technologies because of the value of their export markets and also 
because of the energy security and emission-reduction objectives 
offered by both technologies. The PV program represents the renewable 
technology with the greatest overall energy/power potential, and also 
has been a program with steadily increasing efficiency and reduced 
energy/power costs. Both programs should continue to be examined for 
benefits versus costs, especially with large program funding increases.
                   programs in the office of science
    The bulk of funding allocated for programs in the Office of Science 
support efforts along four themes, (1) the physics of matter, (2) 
global climate change research, (3) fundamental transport and 
conversion processes, and (4) advanced computation and information 
technologies. The scientific merits of the majority of these programs 
have been well documented and have earned the support of the Energy 
Committee. The most substantial changes proposed for fiscal year 2000 
relate to (1) the continued construction of the Spallation Neutron 
Source ($84 million), which the Energy Committee generally supports, 
and (2) initiation of the DOE elements of the Administration's 
Information Technology for the Twenty-First Century initiative (IT\2\) 
($68.5 million).
    The Energy Committee strongly endorses the DOE efforts under the 
IT\2\ with certain reservations. We applaud the inclusion of combustion 
processes as a major computation challenge of which the Scientific 
Simulation Initiative is a small portion ($7 million) of the proposed 
funding. However, there are a great many additional challenges that 
defy present engineering simulation (such as on-line simulation of 
power grid dynamics, or composite material behavior) that would be 
worthy research areas for advanced simulation. The development of 
engineering simulation approaches has been less well represented in DOE 
efforts than scientific computing, yet investments in engineering 
simulation can often result in rapid translation into domestic economic 
growth. We therefore support increased funding for the Simulation 
Initiative to enable establishment of a more substantial programmatic 
effort in engineering simulation as part of this new initiative.
    Lastly, the Energy Committee is concerned that the Science 
Education budget remains under funded, at $4.5 million. ASME has long 
championed increased attention to science, mathematics and technical 
education at all levels, but particularly in grades K-12. Considering 
that almost $3 billion is budgeted for the DOE Office of Science, it 
seems only reasonable that efforts to translate the scientific and 
engineering experience of the present generation to those who will be 
responsible for our future should be of paramount importance. We 
therefore recommend a budget of $6 million for Science Education as the 
first step toward increasing the interest and enthusiasm of our youth 
for science and engineering.
    Thank you for the opportunity to offer testimony regarding the 
renewable, nuclear, and science budgets proposed for the Department of 
Energy. ASME's Energy Committee will be pleased to respond to requests 
for additional information or perspectives on other aspects of our 
nation's energy program.
                                 ______
                                 
 Prepared Statement of Chester A. Farris, III, Chairman, Photovoltaics 
          Division, Solar Energy Industries Association (SEIA)
    The Solar Energy Industries Association (SEIA) is the national 
industry association of the solar electric and solar thermal companies 
in the United States. The Photovoltaics Division represents those 
industry members who manufacture, distribute, and install solar 
electric technologies known as photovoltaics (PV).
    The Division strongly supports the Administration's fiscal year 
2000 recommendation for $93 million in research and development funding 
for photovoltaic technology. Over the last several years, federally-
supported photovoltaic research at the National Renewable Energy 
Laboratory, Sandia National Laboratories, universities, and the private 
sector has yielded stunning results, enabling the U.S. to retain its 
worldwide technological leadership position.
    The industry respectfully solicits the Subcommittee to fund 
critical cost-shared programs at the level of the Administration's 
request. In order of priority, these programs are:
    1. Thin Film Partnership
    2. PV Manufacturing Technology R&D (PV MaT)
    3. Million Solar Roofs and Building-integrated PV R&D
    4. System Engineering and Reliability
    5. High Performance R&D
                          the industry request
    The Photovoltaics RD&D Program administered by the U.S. Department 
of Energy has consistently achieved its long-and short-term goals and 
objectives.
    The primary goal of the Program is to conduct pure and applied 
research on new materials and processes to lower the cost of 
photovoltaics and boost user confidence in the application of this 
innovative technology. The governments of Germany and Japan have 
initiatives far more ambitious than those outlined by the fiscal year 
2000 recommendation.
    The US photovoltaics industry is comprised of over 20 US-based 
manufacturers, 100 distribution and system integration firms, and over 
100 solar electric installation companies. The US industry leads the 
world technologically and has a dominant market share of over 40 
percent. The ability to maintain America's leadership position can only 
be sustained by leveling the playing field by fully funding the 
programs proposed in the Administration's budget. Funding in Japan's 
photovoltaics program now exceeds US $250 million per year. Germany has 
launched a program to install 100,000 rooftop systems that would 
increase the country's PV market requirement by an order of magnitude.
    To date, the DOE Photovoltaics Program has been very effective in 
directing the resources of the National Renewable Energy Laboratory 
(NREL) and Sandia National Laboratories, which are jointly known as the 
National Center for Photovoltaics (NCPV). The Labs' technical 
competency and analytical capabilities have resulted in significant 
improvements in the cost, reliability, and performance of photovoltaic 
cells, modules, and systems. Research areas of particular note include 
new substrate materials (high-strength glass and plastics), process 
technology, building-integrated photovoltaics, and system measurement 
and performance.
    At the Subcommittee's request, the DOE Photovoltaics Program has 
dramatically reduced ``uncosted'' balances, becoming the leading 
renewable energy program to do so. The DOE Photovoltaics Program awards 
funding almost entirely on a competitive bid basis and is well managed 
and directed.
    The Thin Film R&D and PV Manufacturing Technology programs have 
resulted in a reduction in photovoltaic cell and panel manufacturing 
costs from $50 per watt in 1976 to below $5 per watt today, a ten-fold 
decrease. To reach parity with conventional power generation 
technologies, our industry must continue to drive this cost down 
further. This goal can only be achieved through aggressive R&D and 
manufacturing technology programs such as the Thin Film Partnership and 
the PV MaT Program. The current cost-sharing methodology used by the 
Department ensures that participating companies must fully commit their 
own dollars towards this goal, as well.
    The Million Solar Roofs Initiative, announced by the Administration 
in 1997, has encouraged several state agencies, local governments, and 
electric utilities to establish promotion and technical assistance 
programs for photovoltaics. However, the Million Solar Roofs Program 
requires additional funding in order to ensure the long-term viability 
of the US industry which is continually threatened by foreign 
government subsidy programs.
    Historically, it has taken considerable courage and foresight from 
our elected officials to put in place infrastructure programs that have 
long-term benefits to this country. America's highways, electricity 
generation and distribution systems, aviation management systems, and 
state and national parks were championed at times when such spending 
was criticized.
    The future economic strength of any nation is highly dependent on 
readily available, reliable, affordable, and clean energy. To ensure 
our nation's long-term energy security, independence, and 
sustainability, the government's support is absolutely crucial. Without 
question, this will be a daunting task. Photovoltaics have been and 
will continue to be a pivotal technology to achieve these goals in the 
new millenium.
    The US photovoltaics industry urges you to support the 
Administration's fiscal year 2000 recommendation of $93 million, which 
includes explicit specific language supporting pure and applied 
research, technology improvement and validation, and commercialization 
technical assistance. Thank you.
                                 ______
                                 
 Prepared Statement of Les Nelson, Chairman, Solar Thermal & Building 
     Products Division, Solar Energy Industries Association (SEIA)
                           executive summary
    The Solar Energy Industries Association (SEIA) is the national 
industry association of the photovoltaics and solar thermal equipment 
manufacturers, component suppliers, distributors, and installers (via 
our affiliated state and regional chapters). The Solar Thermal and 
Building Products Division represents the section of SEIA's members who 
are involved in solar water heating and solar space heating 
technologies primarily for buildings, but also for commercial and 
industrial processes and facilities.
    The Division strongly supports the Administration's fiscal year 
2000 recommendation for $5.5 million in funding a focused set of 
research activities primarily at the National Renewable Energy 
Laboratory and Sandia National Labs and select Universities. However, 
to insure that the funding in research has a pathway towards the 
private sector, the industry respectfully requests the Subcommittee to 
endorse a limited set of technology validation activities to promote 
new efficiencies in technology, greater utility of use by emerging 
markets, and analysis for barrier reduction in regard to pollution 
prevention, electricity displacement and load shifting, and building 
integration.
                          the industry request
    The Solar Buildings RD&D program administered by the U.S. 
Department of Energy has been one of the under-appreciated RD&D 
programs.
    The goal of the program is to significantly reduce solar system 
installed costs and operation and maintenance costs, largely through 
research on technical innovations and lower cost materials, while 
providing technical assistance to energy service companies, solar 
companies and utilities on effective utilization of solar for load 
shifting, demand management, pollution prevention, and emerging energy 
service businesses.
    The solar thermal industry is comprised entirely of small 
businesses with nearly 400 US-based companies involved in the 
manufacturing, distribution and installation of solar thermal systems.
    The program has been extremely effective in directing the resources 
of the National Renewable Energy Laboratory, Sandia National 
Laboratory, the Florida Solar Energy Center and others in developing 
their technical competency to drive whole new areas of RD&D that can be 
transferred to the U.S. industry. Computer modeling of system 
performance, evolution of new concepts, and provision of technical 
assistance to emerging endusers are all quantifiable results of this 
program.
    The Subcommittee has explicitly endorsed RD&D and commercialization 
efforts for other building-based technologies such as geothermal heat 
pumps. The solar thermal technologies are as deserving, not only 
because solar is a viable, clean, cost-effective option, but because 
the U.S. solar industry has a clear record of cost-shared RD&D tied to 
a willing utility and consumer base.
    The Million Solar Roofs initiative, announced by The Administration 
in 1997, has leveraged several local governments, utilities and states 
to establish an aggressive promotion and technical assistance efforts 
for solar thermal. The emerging technologies that DOE has worked so 
ardently with industry to develop, should be allowed to penetrate this 
evolving market.
    The U.S. Department of Energy along with its national laboratories 
and university partners are essential for the growth of this industry. 
There is an established need by state air quality offices to be 
provided analytical tools to quantify solar water heating pollution 
prevention benefits. Similarly, the utility industry wants quantifiable 
analysis on the demand reduction profiles of solar, while the new home 
construction market demands products which can be integrated with 
existing construction practices and products.
    The research base is in place, the U.S. solar industry has shown to 
be a reliable and willing partner, and the market is on the cusp of 
growing with the appropriate and focused technical assistance.
    The solar building industries urge you to support the fiscal year 
2000 level of $5.5 million which includes specific language supporting 
pure and applied research, technology validation, and commercialization 
technical assistance. Thank you.
                                 ______
                                 
 Prepared Statement of Lennart Johansson, Chairman, Solar Thermalpower 
          Division, Solar Energy Industries Association (SEIA)
                           executive summary
    The Solar Energy Industries Association (SEIA) is the national 
industry association of the photovoltaics and solar thermal equipment 
manufacturers, component suppliers, distributors, and installers (via 
our affiliated state and regional chapters). The Solar Thermal Power 
Division represents the section of SEIA's members who are involved in 
concentrating solar energy technologies primarily for electricity 
generation, but also for thermal energy commercial and industrial 
processes and facilities.
    The Division strongly supports the Administration's fiscal year 
2000 recommendation for $18.7 million in funding a focused set of 
research activities primarily at the National Renewable Energy 
Laboratory and Sandia National Laboratories. However, to insure that 
the funding in research has a pathway towards the private sector, the 
industry respectfully requests the Subcommittee to endorse a limited 
set of technology validation activities to validate system performance 
from the combined set of components created through joint collaboration 
of US industry and the national laboratories via DOE.
                          the industry request
    The Concentrating Solar Power RD&D program administered by the U.S. 
Department of Energy has been one of the DOE programs that have been on 
time, on budget, and shown proven merits.
    The goal of the program is to increase the efficiency of a variety 
of promising solar thermal technologies; to perform research on 
optimizing solar thermal operations for solar troughs; to undertake 
systems validations and lend competent technical assistance for solar 
driven engine systems, to hone performance tools and to provide 
technical assistance to energy service providers, solar-energy-related 
companies and utilities on the effective utilization of solar for load 
shifting, demand management, pollution prevention and the development 
of emerging energy service businesses.
    The concentrating solar thermal industry currently holds global 
technical leadership with nearly 40 US-based companies involved in the 
manufacturing, distribution and installation of concentrating solar 
thermal systems.
    To date, the DOE RD&D program for Concentrating Solar Power has 
been extremely effective. Solar Dish engines systems were installed at 
The Pentagon, at the National Renewable Energy Laboratory in Colorado 
and in Arizona in 1998. These systems needs continued validation and 
expansion to other sites.
    The solar trough systems are going through another year of new 
technical O&M approaches in California where over 350 megawatts of 
power are being produced. Over the last decade, the cost per kWh has 
dropped from approximately 25 cents down to the 8- to 9-cent range with 
further improvements expected for new projects with the assistance of a 
continued and well-focussed RD&D program.
    Largely due to the success of the program, international interest 
has increased with potential trough projects under discussion in 
Australia, Brazil, China, Egypt, Greece, Mexico, Morocco and Spain. 
With the increasing international interest, U.S. industries could be 
poised on the cusp of a potential new wave of technology export 
opportunities. Without a continued strong commitment by the USDOE to 
support the solar thermal RD&D program, US industry alone may not be 
able to maintain it's position of leadership in the face of the high 
level of support being lent similar programs by the European Union and 
other countries.
    The Department of Energy has not been clear, however, on the 
direction of this emerging technology program even though the costs of 
the technology and the actual performance of solar concentrating 
technologies have far exceeded several other major programs in their 
energy R&D portfolio. This RD&D program typifies the need for federal 
involvement, pre-commercial, non-incremental improvement and a solid 
R&D basis--the epitome of what the Subcommittee has expressed in 
earlier hearings.
    The utilization of solar concentrating technologies has a pragmatic 
path to the marketplace if the pure and applied RD&D are sustained. 
Arizona Public Service, Public Service of New Mexico, and other 
utilities have shown a solid commitment and excitement on the prospects 
of this emerging technology. Aside from displacing the need for 
conventional fossil-fuel combustion when the sun is shining, the vast 
potential for utilizing clean-burning natural gas as a solar-hybrid-
generator to make solar thermal electric generation fully dispatchable 
is a big plus. The hybrid solar/natural gas approach is used with great 
success today in the solar trough plants in California. The modularity 
of the technology also situates it as useful during a restructured era 
in the electric utility where incremental generation and investment 
provides far more flexibility than traditional large-scale baseload 
electric generation units.
    The concentrating solar thermal industries urge you to support the 
fiscal year 2000 level of $18.5 million which includes specific 
language supporting pure and applied research, technology validation, 
and commercialization technical assistance. Thank you.
                                 ______
                                 
 Prepared Statement of Dr. Donald L. Klass, President, Biomass Energy 
                          Research Association
    This testimony pertains to the fiscal year 2000 appropriations for 
mission-oriented, biomass energy and fuels research, development, and 
deployment (RD&D) programs carried out by DOE's Office of Energy 
Efficiency and Renewable Energy (EERE). The Biomass Energy Research 
Association (BERA) is a non-profit association in Washington, DC. BERA 
was founded in 1982 by researchers and private organizations that are 
conducting biofuels research. Our objectives are to promote education 
and research on renewable biomass energy and waste-to-energy systems 
that can be economically utilized by the public, and to serve as a 
source of information on biomass policies and programs.
    I would like to thank you, Mr. Chairman, on behalf of BERA's 
members for the opportunity to present our position on the federal 
funding of mission-oriented biomass RD&D. Continued support of this 
effort is essential to provide the stimulus to develop environmentally 
clean, indigenous energy resources that can displace fossil fuels, 
stimulate regional and national economic development and employment, 
reduce our dependence on imported oil, improve our energy security, and 
help to eliminate adverse climate and environmental changes.
    I have examined EERE's appropriations request for biomass energy 
and fuels RD&D in fiscall year 2000, and would like to offer a few 
comments about our Board's concerns before presenting BERA's 
recommendations. DOE continues to over-emphasize scale-up projects, the 
budgets for which are large and which adversely impact the research 
budgets. DOE has therefore been required to terminate research in 
several microbial and thermochemical conversion areas. We feel that a 
balanced research program should be sustained and protected, so BERA 
continues to recommend both a diversified portfolio of research and an 
appropriate amount of funding for scale-up without diminishing either 
EERE's research or scale-up programs. Also, DOE's research on biomass 
energy outside of EERE by the Office of Science (OS, former Office of 
Energy Research), which supports basic academic research, and by the 
EERE's Office of Industrial Technologies (OIT) on chemicals from 
biomass, complements EERE's biomass energy and fuels RD&D. All biomass 
programs should be internally coordinated and jointly managed at DOE 
Headquarters. Note that for fiscal year 2000, EERE's biomass-based 
research under the title Hydrogen Research in the funding request is 
included in BERA's recommendations, but our recommendations for OIT's 
Agriculture Vision chemicals-from-biomass program are presented in a 
separate BERA statement for the Interior and Related Agencies Bill.
    EERE's appropriations request for biomass energy and fuels RD&D in 
fiscal year 2000 includes details that have normally not been presented 
in the past. We commend EERE for updating their biomass RD&D plan so 
that it is now reasonably clear which projects have been completed, 
terminated, or are new starts. Specifically, BERA recommends that 
$113.7 million be appropriated for biomass energy and fuels RD&D in 
fiscal year 2000. The highlights are:
  --A total of $61.2 million for research and $52.5 million for 
        industry cost-shared scale-up.
  --$31.2 million for research and $28 million for industry cost-shared 
        scale-up projects for Power Systems. The scale-up projects 
        include the integrated biomass production-conversion and 
        Vermont gasification projects.
  --$25.5 million for research and $24 million for industry cost-shared 
        scale-up projects for Transportation. The scale-up projects 
        include the NREL ethanol pilot plant in Colorado, and 
        commercial ethanol plants in Alaska, California, New York, and 
        Louisiana.
  --$4 million for biomass-based hydrogen research.
  --$1 million for internal coordination and joint management of all 
        DOE biomass programs.
            allocation of appropriation recommended by bera
    BERA recommends that the appropriation for fiscal year 2000 be 
allocated as shown in the table. BERA's recommendations are generally 
listed in the same order as DOE's request for fiscal year 2000, except 
we include several research areas that are either new or that BERA's 
Board recommends be restored to sustain a balanced program of research 
and scale-up. Note that the recommended budget for each scale-up 
category does not include industry cost-sharing, which is required to 
be a minimum of 50 percent of the total budget for each project.

            OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY
------------------------------------------------------------------------
                                                Recommended budget
              Program area               -------------------------------
                                           For research    For scale-up
------------------------------------------------------------------------
              Power Systems
Thermochemical Conversion:
    Advanced Combustion.................      $2,000,000  ..............
    Advanced Gasification...............       2,500,000  ..............
    Advanced Pyrolysis..................       2,000,000  ..............
    Advanced Stationary Fuel Cells......       2,000,000  ..............
    Improved Emission Control...........       2,000,000  ..............
    Wastewater Treatment................       1,500,000  ..............
    Ash Disposal and New Uses...........       1,500,000  ..............
    Hot-Gas Clean-Up....................       2,000,000  ..............
    Advanced Materials..................         700,000  ..............
Microbial Conversion: Advanced Anaerobic       2,000,000  ..............
 Digestion..............................
Systems Development:
    Vermont Gasifier....................  ..............      $6,000,000
    Integrated Production-Conversion....  ..............      19,000,000
    Advanced Cofiring with Coal.........       2,000,000  ..............
    Small Modular Systems...............       2,500,000  ..............
Municipal Solid Waste...................       3,500,000  ..............
Pelletized Biomass Fuel Systems.........         500,000  ..............
Feedstock Production....................       2,000,000       2,000,000
Regional Biomass Energy Program.........       2,500,000       1,000,000
                                         -------------------------------
      Subtotal..........................      31,200,000      28,000,000
 
             Transportation
Fermentation Ethanol:
    Advanced Organisms..................       3,000,000  ..............
    Advanced Enzymes....................       3,000,000  ..............
    Advanced Pretreatment...............       2,000,000  ..............
    NREL Pretreatment Pilot Reactor.....  ..............       3,000,000
    NREL Fermentation Pilot Plant.......  ..............       5,000,000
Commercial Ethanol Plants by Company and
 Location:
    BCI International, Gridley, CA \2\..  ..............       5,000,000
    Massada Resources, NY \3\ and         ..............   \7\ 7,000,000
     Sealaska, AK \4\...................
    Arkenol, Rio Linda, CA \5\..........  ..............         ( \8\ )
    BCI International, Jenninqs, LA \6\.  ..............         ( \9\ )
Advanced Mobile Fuel Cells..............       3,000,000  ..............
Biodiesel...............................       1,000,000  ..............
Feedstock Production....................       2,000,000       3,000,000
Thermochemical Conversion:
    Ethanol Production..................       3,000,000  ..............
    Mixed Alcohols Production...........       3,000,000  ..............
    Oxygenates from Biomass.............       3,000,000  ..............
Regional Biomass Energy Program.........       2,500,000       1,000,000
                                         -------------------------------
      Subtotal..........................      25,500,000      24,000,000
 
          Hydrogen Research \1\
 
Advanced Thermal Processes..............       2,000,000  ..............
Advanced Photolytic Processes...........       2,000,000  ..............
                                         -------------------------------
      Subtotal..........................       4,000,000  ..............
 
        Integrated Bioenergy RD&D
 
Coordination and Integration............         500,000         500,000
                                         -------------------------------
      Total.............................      61,200,000      52,500,000
                                         -------------------------------
      Grand Total.......................           113,700,000
------------------------------------------------------------------------
\1\ BERA's recommendations pertain only to the biomass-based portion of
  Hydrogen Research.
\2\ Rice straw, dilute acid.
\3\ Refuse-derived fuel, concentrated acid.
\4\ Waste softwoods.
\5\ Rice straw, concentrated acid.
\6\ Bagasse, dilute acid.
\7\ For Masada and Sealaska plants, and initiation of corn-enzyme
  hydrolysis and fossil-derived syngas-microbial ethanol production
  plants.
\8\ DOE's share of funding completed.
\9\ DOE supplied $4,000,000 in fiscal year 1999.

   bera recommends $61.2 million for research and $52.5 million for 
      industry cost-shared, scale-up projects for fiscal year 2000
    BERA's recommendations consist of a balanced program of mission-
oriented RD&D on feedstock production and conversion research and 
technology transfer to the private sector. Advanced power generation 
technologies and alternative liquid transportation fuels are 
emphasized.
    In addition, BERA strongly urges that at least 50 percent of the 
federal funds for biomass research, excluding the funds for scale-up 
projects, are used to sustain a national biomass science and technology 
base via subcontractors outside DOE's national laboratories. While it 
is desirable for the national laboratories to monitor this research, 
increased support for US scientists and engineers in industry, academe, 
and research institutes that are unable to fund biomass research will 
encourage commercialization of emerging technologies and serious 
consideration of new ideas. It will also help to expand the 
professional development and expertise of diverse researchers committed 
to the advancement of biomass technologies.
    BERA's specific recommendations for research, the industry cost-
shared scale-up projects, and the dollar allocations are listed in the 
table (page 2). Additional commentary on each program area is presented 
below in the same order as in the table.
                             power systems
    Thermochemical Conversion.--Currently, there is over 8,000 MW of 
electric power capacity fueled by biomass in the United States. 
Municipal solid wastes, forest and wood processing residues and pulping 
liquors are the primary fuels. Continued research to develop advanced 
biomass combustion, gasification, and pyrolysis methods could have 
environmental and economic benefits that can lead to significant growth 
in biomass power generation. Much of this research has been phased out 
by DOE. Research (not scale-up) should be initiated or re-stored with 
the goal of developing the next generation of thermochemical biomass 
conversion processes for power generation. Stationary, integrated 
biomass gasifier-fuel cell systems should be developed as potential, 
high-efficiency power generation systems. New fuel cells that can 
tolerate the sulfur levels found in certain biomass-derived fuel gases 
without sacrificing system affordability and the testing of integrated 
advanced fuel cell systems should be included in this work. In addition 
to the restoration of this important research, priority should also be 
given to the development of innovative enabling technologies consisting 
of advanced emission control systems, improved ash disposal methods and 
new ash uses, low-cost, hot-gas clean-up methods, and advanced 
materials that eliminate corrosion and erosion problems for 
thermochemical reactors and turbines. The status of these technologies 
is far from what is needed, yet they are essential for practical, low-
cost thermochemical conversion of biomass.
    Microbial Conversion.--Microbiological gasification by anaerobic 
digestion is unique in that it produces methane directly, the major 
component in natural gas, as a primary product from a full range of 
virgin and waste biomass feedstocks. However, DOE has terminated most 
of the research needed to develop advanced systems that yield low-cost 
methane by reducing capital and operating costs. This research can lead 
to the alleviation of numerous environmental problems encountered 
during waste treatment and disposal, and should be restored.
    Systems Development.--The scale-up of biomass gasification for 
medium-Btu gas and power generation in Vermont continued in fiscal year 
1999. This project should be funded in fiscal year 2000 to enable 
testing of an advanced turbine system for the generation of 8-12 MW 
from wood. The testing in Hawaii of the hot gas clean-up system, which 
was shown in the preliminary work to be effective, was not completed 
because the gasifier was shut down. This work should be completed, at 
another site if necessary, to perfect the technology. The integrated 
biomass production-power generation projects chosen by DOE for scale-up 
in Minnesota (alfalfa), New York (willow-coal cofiring), and Iowa 
(switchgrass-coal cofiring) as well as DOE's initiative to expand 
biomass-coal cofiring at additional sites should be continued. Plans 
should also be made to fund scale-up of the Whole Tree Energy system as 
part of this effort. Research on the development of advanced biomass-
coal cofiring systems and small modular direct biomass combustion 
turbines should be sustained to develop advanced designs for small 
modular systems, and advanced combined cycle systems that can supply 
cogenerated power.
    Municipal Solid Waste.--MSW disposal is a continuing national 
problem, which when combined with energy recovery, offers major 
opportunities for power generation and recycling. Advanced MSW 
disposal-energy recovery systems are needed for municipalities; there 
is also a need for small, low-cost systems. Research in each of these 
areas should be restored.
    Pelletized Biomass Fuel Systems.--Research is needed to develop 
low-cost, high-productivity biomass pelletizing and supply systems, and 
automated residential and commercial heating units designed for these 
fuels. The unavailability of such systems has been a large barrier to 
the growth and expansion of residential and commercial biomass fuel 
markets.
    Feedstock Production.--See Feedstock Production in next section.
    Regional Biomass Energy Program.--The Regional Biomass Energy 
Program (RBEP), established by Congress in 1983, to take advantage of 
the regional differences in biomass resources and energy needs, are 
implemented through five separate regions located in the Southeast, 
Northwest, West, Great Lakes, and Northeast. The RBEP has been 
important in establishing individual state biomass programs, and in 
stimulating technology transfer and the development and 
commercialization of biomass energy in the private sector. RBEP 
activities have created awareness and a positive image for biomass 
energy while providing significant environmental enhancement and 
creating new jobs, especially in rural areas. The private sector and 
the states have been highly supportive of the RBEP and typically 
provide 2 to 4 times the federal investment as cost sharing. In fiscal 
year 2000, the RBEP will conduct activities to develop and encourage 
the commercialization of technologies for power generation with 
biomass, biomass-coal cofiring, small-scale distributed generation 
systems, and biogas systems. These activities may include several 
state-level, one-day workshops to educate stakeholders and to 
facilitate the addition of new generating capacity based on biomass 
fuels. Development of integrated disposal-biogas recovery systems will 
be continued because the disposal of large quantities of animal manures 
continues to be a major national problem.
                             transportation
    Fermentation Ethanol.--Research on the conversion of low-cost 
lignocellulosics to fermentation ethanol should be continued. The 
targets should include the development of: genetically engineered 
organisms that can simultaneously ferment all the C5/C6 sugars in 
biomass; low-cost cellulase production for simultaneous 
saccharification-fermentation; and advanced pretreatment of low-cost 
biomass feedstocks, including the testing of the counter-current 
pretreatment pilot plant reactor recently installed at NREL. This 
research should focus on the development of accurate bases from which 
advanced technologies can be scaled-up for commercial use with 
confidence, and on advanced technologies that significantly reduce 
processing costs. NREL's ethanol pilot plant should be operated on an 
as-needed, cost-shared basis with DOE's industrial partners to support 
the commercial ethanol plant program
    Commercial Ethanol Plants.--Several fermentation plants are being 
cost-shared by DOE in fiscal year 2000 as shown in the table on page 2. 
The processes used are conventional and advanced technologies, such as 
the microbial conversion of synthesis gas. The preliminary planning 
work for other plants should continue, but BERA recommends that the 
existing projects should produce operating data that confirm the 
technologies before new scale-up projects are started.
    Advanced Mobile Fuel Cells.--Research should be initiated to design 
and perfect vehicular fuel cell systems equipped with on-board 
reforming units for biomass-based liquids. The goal should be the 
production of low-cost fuel gases suitable for direct use as motor 
fuels and as fuels for on-board fuel cells.
    Biodiesel.--Research should be focused on increasing natural 
triglyceride yields to permit low-cost biodiesel production. Advanced 
transesterification processes are already available, and engine and 
emissions tests have been or are being performed by the engine 
manufacturers.
    Feedstock Production.--Land-based biomass grown as energy crops can 
supply large amounts of fossil fuel substitutes. Considerable progress 
has been made on the efficient production of short-rotation woody 
crops, and on the growth of herbaceous species. In addition, research 
on tissue culture techniques and on the application of genetic 
engineering methods for low-cost energy crop production have shown 
promise. This research should be continued to develop advanced biomass 
production methods that can meet the anticipated feedstock demand. BERA 
also recommends that industry cost-shared, scale-up projects chosen by 
DOE of at least 1,000 acres in size be continued to develop large-
scale, commercial energy plantations in which dedicated energy crops 
are grown and harvested for use as biomass resources. These projects 
should be strategically located and should utilize the advanced biomass 
production methods developed in the research programs. Successful 
completion of this work will help biomass energy attain its potential 
by providing the data and information needed to design, construct, and 
operate new biomass production systems that can supply low-cost 
feedstock for conversion to transportation fuels and electric power.
    Thermochemical Conversion.--Almost all of DOE's RD&D on liquid 
transportation fuels from biomass emphasizes fermentation ethanol. 
Thermochemical conversion research should be started that targets 
liquid motor fuel production at costs competitive with those of 
gasolines and diesel fuels in the near-to-mid term. Research on the 
thermochemical conversion of low-grade biomass for use as motor fuels 
shows great promise. Preliminary research on the non-microbial 
conversion of synthesis gas illustrates the potential of producing 
ethanol, mixed alcohols and oxygenates, ethers, and coproducts at costs 
that are much less than the corresponding costs of liquids produced by 
microbial and fermentation processes. Some analysts project that fuel 
ethanol from low-grade biomass by thermochemical processes may be able 
to attain production costs in the same range as thermochemical methanol 
from natural gas feedstocks. Each of these areas should be added to 
DOE's program.
    Regional Biomass Energy Program.--In fiscal year 2000, the RBEP 
will conduct cooperative projects with state and local governments on 
resource assessments, the selection of suitable sites for biomass-based 
transportation fuel production and distribution facilities, and multi-
product biomass plants. Specifically, the RBEP will conduct a number of 
technology transfer activities related to the production of fuel 
ethanol from cellulosic raw materials. The activities will include 
several state-level, one-day workshops to educate stakeholders about 
fuel ethanol technologies, and the opportunities available in various 
regions to develop new fuel ethanol production capacity with low-grade 
biomass feedstocks. In conjunction with this work, the RBEP will 
complete several publications that address the educational needs 
related to the production of fuel ethanol. The RBEP will continue to 
provide national leadership in the development of biodiesel fuels with 
several engine testing programs, and will also work with the National 
Park Service to increase the use of biofuels in selected national parks 
that are encountering air quality problems.
                           hydrogen research
    Innovative research on the thermal reforming of biomass in a 
supercritical fluid reactor and in an advanced-design plasma reformer, 
and on water splitting with algae, which is the equivalent of 
photolysis, should be continued. Detailed study of each of these 
advanced conversion methods may lead to practical processes for the 
low-cost production of hydrogen.
                       integrated bioenergy rd&d
    As mentioned on page 1, all of the biomass-related RD&D funded by 
EERE and OS should be coordinated internally and jointly managed at DOE 
Headquarters. The program managers at DOE Headquarters should be 
heavily involved in this activity. The organizational phase should be 
completed as soon as possible, after which the assigned management 
responsibilities should continue. This will significantly enhance the 
value of the total program for DOE and its industrial partners and 
stakeholders.
                                 ______
                                 
             Prepared Statement of the City of Gridley, CA
    Chairman Domenici and Ranking Member Reid: My name is Tom Sanford, 
and I am the Mayor Pro Tem of the City of Gridley, California. I also 
serve as Gridley's commissioner on the governing board of the Northern 
California Power Agency.
    Thank you for the opportunity to submit this testimony to the 
Subcommittee regarding the progress that the City of Gridley has made 
in developing a biomass facility fueled by rice straw. I want to begin 
by thanking the Subcommittee for the past support it has provided for 
the Gridley Rice Straw Project. The federal funds which have been 
provided since fiscal year 1996 have been matched dollar for dollar and 
have brought about the completion of permitting and environmental 
assessments for the site of the facility so that construction can begin 
this year.
    This will be the last time the City will request funds for 
development of this project. With this last installment of funds, the 
City will be able to secure the completion of a cost-effective, 
subsidy-independent, renewable source of liquid fuel for both 
transportation and power production purposes. In securing a final 
federal appropriation of $5 million in fiscal year 2000, the City of 
Gridley and its partners can ensure that the Gridley plant will be 
fully operational to use rice straw harvested during the year 2000.
    In the Department of Energy's fiscal year 2000 budget request, 
there is $10 million in the biomass/biofuels account to support ongoing 
projects, and the Department has indicated its support of the Gridley 
project and has indicated its intention that $5 million for the Gridley 
project be provided within this amount of funds.
    The City of Gridley, which operates its own utility, is involved in 
the development of this technology for a number of reasons. The City of 
Gridley is a rural community situated in the rice-growing region of the 
Sacramento Valley in Northern California. Our community and region are 
dependent upon an agricultural economy largely based upon rice 
production. Thousands of jobs and more than $500 million annually of 
the Sacramento Valley's economy are directly dependent upon the rice 
industry.
    The rice industry, however, is coming under tremendous pressure 
because of new mandates to reduce air pollution and end open field 
burning of rice acreage. Currently, the State of California has 
statutorily reduced the burning of rice straw. By the year 2001, the 
automatic right to burn rice straw will be eliminated. Given that there 
are insufficient cost-effective mechanisms to remove rice straw from 
the fields, we are greatly concerned that the restrictions will lead to 
a reduction in rice acreage in production. A substantial portion of the 
rice grown in the Sacramento Valley is grown on land with very heavy 
clay soil types that are suitable for very little other than rice. The 
elimination of burning as a means of dealing with the very tough rice 
straw is having significant impact upon the economics of rice growing 
in the Valley.
    Since fiscal year 1996, the Subcommittee has shown its support for 
the development of a biomass facility that will effectively utilize 
rice straw in order to produce ethanol. Unlike the facilities of the 
Midwest, the Gridley rice straw project will be able to use multiple 
feedstocks to keep the plant operating year-round. The construction of 
the Gridley plant will develop the technologies and processes necessary 
for the cost-effective use of forest and timber industry byproducts as 
well as agricultural waste products. Clearly, this plant will expand 
biomass opportunities to a broad array of industries and agricultural 
commodities, which will be beneficial to other parts of the state as 
well as other regions of the country.
    The Gridley Rice Straw Project will help the State of California 
meet the important air quality goal of ending open field burning, while 
at the same time provide rice farmers with an alternative rice disposal 
method that could generate an additional source of revenues for the 
grower. The Project will also create hundreds of direct and indirect 
jobs in Northern California communities with high levels of 
unemployment.
    I appreciate the opportunity to submit this testimony and want to 
thank the Subcommittee again on behalf of the City of Gridley and 
communities in the Sacramento Valley and Northern California for its 
support in ensuring a federal partner for the Gridley Rice Straw 
Project, thus making this project a reality in the near future.
                                 ______
                                 
   Prepared Statement of Prof. David K. Wehe, University of Michigan
    The U.S. Department of Energy (DOE) has provided support to the DOE 
University Research Program in Robotics to pursue long range research 
leading to the: ``development and deployment of advanced robotic 
systems capable of reducing human exposure to hazardous environments, 
and of performing a broad spectrum of tasks more efficiently and 
effectively than utilizing humans.''
    The DOE University Research Program in Robotics (URPR) has proven 
highly effective in technology innovation, education, and DOE mission 
support. The URPR incorporates mission-oriented university research 
into DOE EM's Office of Science and Technology (OST) and, through close 
collaboration with the DOE national laboratories, provides an avenue 
for applying innovative solutions to problems of vital importance to 
DOE.
    The URPR would like to thank the Committee members for their 
historically strong support of this successful program and is pleased 
that the URPR is included in the DOE Budget Request for fiscal year 
2000 at $4.0M. The URPR is requesting the Committee consider augmenting 
this amount to $4.35M to compensate for DOE's expansion of the 
Consortium to include the University of New Mexico.
                       request for the committee
    We request the Committee include explicit language directing $4.35M 
of ER&WM (EM-50) research funds to the University Research Program in 
Robotics (URPR) for development of safer, less expensive, and more 
effective robotic technology for environmental restoration and waste 
management solutions.
          developing advanced robotics for doe and the nation
Develop robotic solutions for work in hazardous environments and 
        facilitate cleanup operations
    The goal of this program is to advance and utilize state-of-the-art 
robotic technology in order to remove humans from potentially hazardous 
environments and expedite remediation efforts now considered essential. 
Established by DOE in fiscal year 1987 to support advanced nuclear 
reactor concepts, the project was relocated to EM to support higher 
priority needs in environmental restoration. The project has produced 
an impressive array of technological innovations which have been 
incorporated into robotic solutions being employed across federal and 
commercial sectors. This successful program demonstrates efficient 
technology innovation while educating tomorrow's technologists, 
inventing our country's intelligent machine systems technology of the 
next century, and meeting today's technology needs for DOE.
Robotics: A Strategic National Technology
    R&D funding is the most effective use of federal funds to promote 
the nation's well-being according to a 1997 published poll of respected 
academic economists. And, as documented in previous testimonies, key 
national studies (by the Council on Competitiveness, DOD, and former 
OTA technology assessment reports) consistently list robotics and 
advanced manufacturing among the five most vital strategic technologies 
for government support. During the past year, reports from NSF, the 
OSTP report on critical technologies, and the report from the 
President's Advisory Committee on Information Technology suggests that 
the areas of greatest concern to the nation are: the economy, 
education, health care, and the environment. The URPR is making 
technology contributions affecting each of these key areas. 
Furthermore, the reports note key technology areas include information 
technology and nanotechnology, and key enabling technologies include 
manufacturing and materials. The URPR actively participates in 
advancing these fields. The national need for an investment in the 
development of intelligent machines which can interact with their 
environment has been universally recognized for over a decade.
Intelligent Machines: Grand Challenge for the Next Millennium
    Significant advances in computing power, sensor development and 
platform architectures (e.g., unmanned airborne vehicles) have opened 
new opportunities in intelligent machine technology. The long-range 
implications of intelligent mobile and dextrous machines which can 
assist humans to perform life tasks are clearly significant and 
represent one of technology's Grand Challenges for the next millennium. 
We can expect to see intelligent prosthetic devices, smart transport 
vehicles, and mobile devices capable of assisting or replacing the 
human, not only in potentially hazardous situations, but in daily life.
          urpr: innovation, education, and doe mission support
URPR: Refining the Right Paradigm
    The URPR instantiates the new paradigm recommended for Federal 
investment in national S&T by the National Science Board (3/6/98) that 
emphasizes the integration of long-range research and education. The 
URPR's strategic mission is to make significant advances in our 
nation's intelligent machine and manufacturing technology base while 
emphasizing: education, technology innovation through basic R&D, and 
DOE mission support. Furthermore, the Consortium of Universities 
(Universities of Florida, Michigan, Tennessee, Texas, and New Mexico) 
are united as a powerful technology team, governed by a national Board 
of Directors, advised by a Technical Advisory Committee, and managed by 
a group of DOE and national laboratory officials. During fiscal year 
1999, the Consortium has worked through 8-10 levels of DOE bureaucratic 
control, an unfortunate side effect of the current DOE structure which 
governs the URPR. It is only because of the Committee's explicit 
appropriations language that any funding has managed to pass through 
this system.
    The URPR has demonstrated in earlier years that the advantages of 
operating as a consortium are significant. The institutions of the URPR 
partitioned the technical development into manageable sections which 
allowed each to concentrate within their area of expertise (efficiently 
maintaining world-class levels of excellence) while relying on their 
partners to supply supporting concentrations. With full cooperation of 
the host universities, this effort naturally generated the in-depth 
human and equipment capital required by the EM community. Practically, 
the long-term distributed interaction and planning among these 
universities in concert with the DOE labs and associated industry 
allows for effective technology development (with software and 
equipment compatibility and portability), for a vigorous and full 
response to application requirements (component technologies, system 
technologies, deployment issues, etc.), and for the supported 
application of the technology. Considering the remarkable achievements 
of URPR over its history and the enlightened commitment of EM-50 to 
this technology development, the URPR is now poised to enhance its 
prominent role in education, technology innovation, and DOE mission 
support.
Educating the New Millenium's Technologists
    The URPR has already educated about 450 advanced degree students in 
the critical engineering fields, including many with earned doctoral 
degrees. These students have entered the work force, and lead an 
industrial resurgence based on intelligent machines, advanced 
manufacturing technology, and related fields. Graduates from this 
project have built successful startup companies and made industrial 
technology transfers in computer vision and robotic technology (MI, TN, 
TX) and medical imaging (MI), video databases (CA), and intelligent 
manufacturing (MI, FL, TX). We have historically seen a strong demand 
for graduates educated through this project, even during the leanest of 
times.
DOE Mission Contribution--Environmental Cleanup
    Since its inception, EM has recognized robotics as an essential 
technology to accomplish its mission. The motives for undertaking a 
comprehensive R&D effort in the application of advanced robotics to EM 
tasks in hazardous environments reflect both economic considerations, 
efficiency, effectiveness, and health and safety concerns. The RBX is a 
national laboratory program which primarily applies commercially 
available technology to current problems. In contrast, the URPR 
supports needs-driven applied research to develop innovative and 
synergistic technologies in support of EM focus areas.
    URPR progress is annually evaluated by a thorough review of 
technical accomplishments, and then anticipated DOE technology needs 
are used to set the program's directions. The URPR has consistently 
received high rankings for providing both outstanding technical 
contributions and value. Future success of this program is expected to 
continue based upon the Consortium's productive history.
    Over the past few years, the URPR projects successfully supported 
the following EM projects:
    1. deployment and testing of SWAMI, an autonomous inspection robot 
for Fernald stored waste drums;
    2. design, construction and testing of a robot to precisely map 
large DOE facilities, such as K-25 and K-27 in Oak Ridge, in 
preparation for decontamination and decommissioning (D&D);
    3. delivery of a robotic handling system for an automated chemical 
and radiological analysis system to Los Alamos;
    4. remote radiation mapping of the MSRE facility at ORNL during D&D 
operations;
    5. design and implementation of a real-time controller for use at 
Hanford in support of the tank waste retrieval project; and
    6. design and fabrication of a prototype Soil Sample Preparation 
Module in support of the Contaminant Analysis Automation project.
    During fiscal year 1999, the URPR achievements have included:
  --1998 Discover Magazine Award for Technological Innovation: 
        Robotics. Personally presented by the Secretary of Energy.
  --Invention of the room-temperature semiconductor radiation sensor 
        that holds the world's record for energy resolution.
  --Development of a mutisensor visualization platform to aid operators 
        during D&D operations.
  --Transfer of an inductive, radiation-resistant, high resolution 
        position sensor to a commercial vendor.
  --Development of a system to reduce the time between a site-defined 
        need and a site-delivered implementation of the robotic and/or 
        automation hardware using simulation of components.
  --Codified algorithms for assembly of standardized modules to produce 
        the complex manipulators needed for a wide range of hazardous 
        tasks.
    As shown above, these efforts are directly linked to cleanup 
operations in the DOE complex. During fiscal year 2000, the URPR plans 
to continue its focussed efforts on DOE field cleanup applications, 
while maintaining our commitment to research and education.
Innovation--the seed of future technology
    The URPR has produced prodigious levels of innovation in research 
and development. While recent demonstrations reveal next-generation 
technologies, even more advanced capabilities are emerging from the 
laboratories. These include new types of locomotion, navigation 
techniques, sensing modalities (radiation cameras and laser imaging 
devices), environmentally hardened components, and dextrous open 
architecture manipulators. These devices will evolve and inspire the 
intelligent machines of the future, including smart automobiles, 
obstacle avoidance aids for the disabled, and agile manufacturing cells 
capable of being rapidly reconfigured.
    This level of innovation can also be seen in the following 
statistics:
  --Approximately 15 patents awarded or pending.
  --Over 700 technical papers published in technical journals and 
        conferences.
  --The standard technical books for vision, radiation detection and 
        imaging, and robotics are authored by researchers who have 
        worked with this project. Faculty and senior scientists 
        dedicated to this project are internationally renowned 
        technologists of their fields.
  --A suite of world-class robots (including CARMEL, winner of the AAAI 
        Mobile Robot Competition) serve as the research testbeds for 
        this project.
                            program request
    During fiscal year 1999, the URPR provided vital contributions to 
education and research while meeting DOE technology needs. The 
motivation for this project remains steadfast--removing humans from 
hazardous environments while enhancing safety, reducing costs, and 
increasing cleanup task productivity. EM-50 has recognized the URPR's 
role and mission and has requested $4M for the URPR in fiscal year 
2000. We are requesting an additional $350K to fund the University of 
New Mexico, added by DOE to the Consortium in fiscal year 1998, at a 
level comparable to the other consortium members.
                       request for the committee
    To continue this vital program, we request that the Committee 
include the following language into the fiscal year 2000 Energy and 
Water Appropriations Bill: For development of safer, less expensive, 
and more effective robotic technology for environmental restoration and 
waste management solutions, $4.35M of ER&WM (EM-50) funds are provided 
to the University Research Program in Robotics (URPR).
                                 ______
                                 
            Prepared Statement of The REPI Action Coalition
    The undersigned members of the REPI Action Coalition request that 
the Renewable Energy Production Incentive (REPI) program be funded at a 
level sufficient to cover payments for eligible projects. $20 million 
is needed in fiscal year 2000 to make full incentive payments for 
electricity produced by all qualified facilities through the end of 
fiscal year 1999. The current funding level of $4 million provides full 
incentive payments for only a few projects and insufficient revenues 
for the majority of projects.
    Our coalition, which represents the interests of national consumer, 
business, environmental, energy and industry organizations, is 
incredulous that the Administration's fiscal year 2000 Budget Request 
of $1.5 million for REPI represents a 62.5 percent reduction from the 
existing funding level. At this level, most projects eligible for REPI 
funding--including projects receiving funds in the prior fiscal year--
will not receive payments. This will cause irreparable damage to the 
incentive value of a program designed to encourage public power to 
reduce greenhouse gas emissions through a variety of projects including 
landfill gas-to-energy projects.
    Created by the Energy Policy Act of 1992, REPI authorizes the 
Department of Energy to make payments of 1.5 cents per kWh of energy 
produced from eligible renewable energy sources to consumer-owned 
electric utilities. Unlike the tax credits awarded to investor-owned 
utilities, the public power REPI program is inherently uncertain 
because payments are dependent on the availability of annual 
appropriations. In funding shortfall years, projects in Tier 1 (solar, 
wind, geothermal and closed-loop biomass) are granted full payments. 
Inadequate leftover revenues are then dispersed on a pro rata basis to 
Tier 2 (landfill gas-to-energy) projects. Electricity for which payment 
is not made may then be added to the next fiscal year's electricity 
production and submitted by the qualifying facility for payment 
consideration.
    Congress established REPI in large part to provide benefits 
commensurate with those available to investor-owned utilities through 
the renewable electricity production tax credit in Section 45 and the 
investment tax credit in Section 48 of the Internal Revenue Code. In 
the years since REPI incentives have been in place, private entities 
have enjoyed full access to their economic incentives while consumer-
owned electric utilities have received only partial appropriations 
since 1996.
    Since the program's inception, nearly $8.4 million in incentive 
payments have been made to the owners of qualifying facilities. The 
number of projects receiving REPI awards has increased from 6 projects 
in 1995 producing 43 million kWh of electricity to 16 projects in 1998 
producing 549 million kWh of electricity. Due to inadequate 
appropriations, full payments for all eligible projects were last made 
in 1996. Every year since then, the majority of eligible projects have 
received only partial payment. Projects most impacted by the funding 
deficit have been landfill gas-to-energy projects.
    Despite this shortcoming, REPI is the most significant incentive 
available to locally owned, not-for-profit electric utilities to make 
new investments in renewable energy projects. These projects provide 
important economic and environmental benefits to the communities served 
by the municipal utility. Along with significant air quality benefits 
resulting from the accelerated use of emissions-free energy sources, 
new jobs are created each time these technologies are deployed.
    An important and unique feature of the REPI program is its 
potential to assist municipalities, and the communities they serve, in 
reducing significant levels of greenhouse gases (ghg) through landfill 
gas-to-energy projects. Landfill gas is about 50 percent methane and 
methane is a potent ghg that is over 20 times more potent than carbon 
dioxide in contributing to climate change. There is potential to reduce 
over 2.3 million metric tons of carbon equivalent of ghg by deploying 
these projects on existing untapped landfills. The comparative 
economics of landfill-gas projects makes these facilities one of the 
most promising near-term renewable resources.
    Despite the funding shortfalls and the volatility of the 
appropriations process, REPI is considered a true incentive among 
potential project owners. For example, a feasibility study for the 
construction of a municipally-owned wind farm in Iowa showed that REPI 
assistance made an impressive difference in the cost of the project.
    The REPI program increases in importance as new air quality 
regulations and renewable energy mandates are imposed. Public power 
systems will be at a disadvantage under the currently structured REPI 
if renewable portfolio standards are included in electricity 
restructuring proposals. Unlike the certainty of the tax credits and 
incentives available to private entities, REPI funding is erratic and 
insufficient to offset the higher costs of using alternative energy 
resources.
    In conclusion, REPI is an important tool in promoting renewable 
energy resources by consumer-owned utilities which could be greatly 
improved by program reform that addresses insufficient and uncertain 
appropriations. We strongly encourage your help this year in saving 
REPI by agreeing to restore funds at a level sufficient to cover on-
going and future payments.
    Thank you.
                    The American Public Power Association, The Large 
                            Public Power Council, City of Glendale, 
                            California, PACE Energy Project, Minnesota 
                            Municipal Utility Association, SUN DAY 
                            Campaign, American Wind Energy Association, 
                            Omaha Public Power District, American 
                            Bioenergy Association, Klickitat Public 
                            Utility District (Washington), Los Angeles 
                            Department of Water & Power, Global Bio 
                            Refineries Inc., University of California, 
                            Los Angeles, American Green Network, 
                            Business Council for Sustainable Energy, 
                            Solar Energy Industries Association, Bio 
                            Energy Industries Association, Bob Lawrence 
                            & Associates, Public Citizen, Monterey 
                            Regional Waste Management District 
                            (California), Solid Waste Association of 
                            North America, Board of Public Works, City 
                            of Auburn, Nebraska, Salt River Project 
                            (Arizona), Union of Concerned Scientists, 
                            Lincoln Electric Service (Nebraska), 
                            Friends of the Earth, Pacific Northwest 
                            Generating Cooperative, City of 
                            Tallahassee, Florida, Clean Fuels 
                            Foundation, American Solar Energy Society, 
                            International Brotherhood of Electrical 
                            Workers, Emerald Peoples' Utility District 
                            (Oregon), Austin Energy (Texas), Waverly 
                            Light and Power (Iowa), Nebraska Public 
                            Power District, Environmental and Energy 
                            Study Institute, New York Power Authority, 
                            JEA (Florida), Moorhead Public Service 
                            (MN), Geothermal Energy Association, 
                            Lycoming County Resource Management 
                            Services (PA), Potomac Resources, Windrush, 
                            Inc., Consumer Federation of America, City 
                            of Seattle, Traverse City Light & Power 
                            Department (Michigan), Michigan Public 
                            Power Agency, and Michigan Municipal 
                            Electric Association.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other state and locally owned utilities throughout the United 
States. Collectively, public power utilities deliver electric energy to 
one of every seven U.S. electric consumers (about 40 million people), 
serving some of the nation's largest cities. The majority of APPA's 
member systems are located in small and medium-sized communities in 
every state except Hawaii.
    We appreciate the opportunity to submit this testimony outlining 
our fiscal year 2000 appropriations priorities within your 
Subcommittee's jurisdiction.
                       renewable energy programs
    APPA believes it is important to continue development and 
commercialization of clean, renewable energy resources as we face the 
prospect of increased competition in the electricity marketplace. Two 
of the most significant barriers to greater renewable energy use are 
cost and lack of demonstrated experience. Because of the requirement to 
supply electricity to customers on demand, with high reliability at a 
reasonable cost, electric utilities often are conservative when 
evaluating new technologies. Evolving deregulation, coupled with stable 
fuel prices, now adds a further challenge to greater adoption of 
relatively unproved renewable technologies.
    We applaud the Administration's emphasis on DOE energy efficiency 
and renewable programs and ask that this Subcommittee work to ensure 
that renewable energy remains part of the full range of resource 
options available to our nation's electric utilities. APPA supports a 
minimum of $399 million for renewable energy technologies in fiscal 
year 2000. This funding level will go a long way in furthering the call 
for significant expansion of renewable energy R&D programs in order to 
meet the energy challenges and opportunities of the 21st century.
          renewable energy production incentive program (repi)
    APPA urges this subcommittee's continued support for REPI, the 
renewable energy production incentive program authorized by the Energy 
Policy Act of 1992. Current funding is $4 million, but according to 
DOE's Golden Fields Laboratory estimates, which are based on incentive 
payments requested from qualified facilities, $20 million is needed to 
fully fund all eligible projects. At a funding level of $20 million, 
REPI will help the nation's locally owned, not-for-profit electric 
utilities spur renewable energy use and development. This benefits the 
environment because of the greater use of emissions-free energy 
sources, and the economy because of the job creation potential that is 
tied to the deployment of new technologies.
    REPI permits DOE to make direct payments to publicly owned electric 
utilities at the rate of up to 1.5 cents/kWh of electricity generated 
from solar, wind, certain geothermal and biomass electric projects. 
Because projects of this nature often require a long lead-time for 
planning and construction, it is imperative that stable and predictable 
funding be provided.
    REPI was established to ensure equity between investor-owned 
utilities that utilize renewable energy tax credit and production 
payments and not for profit electric utilities that are unable to do 
so. Several electric utility restructuring bills introduced in the 
105th Congress, and bills in state legislatures, mandate use of 
renewable energy sources. REPI payments provide the singular financial 
incentive for publicly owned utilities to meet these increasing 
demands. In addition, production payments to utilities are an excellent 
market-based method to spur greater interest in renewables. They fit 
well with DOE's emphasis on market-led commercialization. APPA urges 
this subcommittee's support of REPI at $20 million to fully fund all 
eligible projects.
                  storage for high-level nuclear waste
    We support the Administration's budget request of $409 million for 
DOE's Office of Civilian Radioactive Waste Management. These funds will 
enable DOE to continue preparations to accept spent fuel as well as to 
continue scientific studies at Yucca Mountain leading to a second 
viability assessment to compliment the completion of the first 
assessment in late1998.
                  advanced hydropower turbine program
    The Advanced Hydropower Turbine Program is a joint industry/
government cost-share effort to develop a new, improved hydroelectric 
turbine superior in its ability to protect fish and aquatic habitat and 
operate efficiently over a wide range of flow levels. We support 
funding this program at $7 million in fiscal year 2000.
    During the next 15 years, 220 hydroelectric projects will seek new 
licenses from the Federal Energy Regulatory Commission (FERC). Publicly 
owned projects constitute 50 percent of the total capacity that will be 
up for renewal. Many of these projects were originally licensed over 50 
years ago. Newly imposed licensing conditions can cost hydro project 
owners 10 to 15 percent of power generation. A new, improved turbine 
could help assure any environmental conditions imposed at relicensing 
in the form of new conditioning, fish passages or reduced flows are not 
accomplished at the expense of energy production. This is particularly 
important due to the increasingly competitive electric market in which 
utilities operate today. Flow levels will affect the economics of each 
of these projects and many will be unable to compete if the current 
trend toward flow reductions continues.
    The Advanced Hydropower Turbine Program is planned in three phases: 
(1) design development; (2) model design and testing, and (3) 
development of the final prototype. It is important that the prototype 
be in place in order to accommodate the many hydroelectric projects 
that will be up for relicensing after the year 2000.
             federal power marketing administrations (pmas)
    APPA has consistently supported increased efficiency in PMA 
operations. However, Congress must recognize that federal power sales 
revenues cover all PMA operating expenses plus all Corps of Engineers 
and Bureau of Reclamation operations, maintenance, replacement and 
rehabilitation expenses for hydropower, and repayment of the federal 
investment in the construction of the projects plus interest. Power 
sales also support many nonpower-related expenses associated with these 
projects. Budget ``scoring'' rules aside, because the PMAs charge cost-
based rates, reducing discretionary appropriations to PMAs actually 
costs the government nothing. As appropriations are lowered, power 
rates fall accordingly thus reducing mandatory receipts on the other 
side of the ledger. APPA urges members of the subcommittee to reassess 
the Department of Energy's policy change whereby the federal power 
marketing administrations would no longer purchase power. Customers of 
three of the federal power marketing administrations would have to make 
there own power purchase and transmission agreements directly with 
suppliers. It is essential that the PMAs be able to purchase power 
because it is used to firm up their hydro capacity, allowing them to 
meet their contractual agreements.
              corps of engineers and bureau of reclamation
    APPA supports the Administration's fiscal year 2000 Budget Request 
of $4,293 million for the Corp of Engineers and $857 million for the 
Bureau of Reclamation.
    More than 500 public power systems purchase power generated at U.S. 
Army Corps of Engineers and Bureau of Reclamation dams and marketed by 
the four PMAs. APPA asks this subcommittee's support in assuring 
adequate appropriations are provided to the Corps and Bureau for 
operation, maintenance, major rehabilitation, upgrading and replacement 
of the equipment needed at the powerhouses. The Administration has 
requested reductions in several of these accounts for fiscal year 1999. 
Unfortunately, budget realities in the past often have required the 
Corps and Bureau to defer upgrades and maintenance resulting in 
efficiency losses affecting hydropower production.
    Discussions are continuing in various project areas between 
customers and the operating agencies seeking alternatives to relieve 
the stress caused by the spiraling effects of deferred maintenance. We 
will keep this subcommittee apprised of our progress in this regard and 
look forward to working with you and the authorizing committees in 
seeking remedies to increase efficiencies and deal with ongoing 
maintenance problems.
              federal energy regulatory commission (ferc)
    APPA supports the Administration's budget request of $180 million 
in fiscal year 2000 for the Federal Energy Regulatory Commission 
(FERC), an increase of nearly eight-percent over last year. Adequate 
funding for the agency is particularly necessary at this time in order 
to provide the resources needed to continue implementation of electric 
utility industry restructuring and to address major issues such as 
open-access and stranded costs.
    The FERC is charged with regulating certain interstate aspects of 
the natural gas, oil pipeline, hydropower, and electric industries. 
Such regulation includes issuing licenses and certificates for 
construction of facilities, approving rates, inspecting dams, 
implementing compliance and enforcement activities, and providing other 
services to regulated businesses. These businesses will pay fees and 
charges sufficient to recover the Government's full cost of operations.
                        climate change programs
    APPA generally supports the fiscal year 2000 Budget Request of $4 
million to fund the Climate Change Technology Initiative. The 
initiative consists of a package of tax incentives and investments in 
research and development to stimulate increased energy efficiency and 
to encourage greater use of renewable energy sources. APPA is an 
aggressive advocate of federal support for energy research and 
development. While these programs do not directly provide benefits or 
incentives to public power systems, APPA supports them nevertheless 
because they will result in substantial improvements to the 
environment.
    U.S. DOE programs under the Climate Change Initiative include a mix 
of tax credits and federal-spending programs designed to increase 
efficiency and greater use of renewable energy resources. Important 
elements of the initiative include support for the deployment of clean 
technologies for buildings, transportation industry and electricity. 
The request includes $122 million for DOE research on next-generation 
coal combustion technologies, including integrated gasification 
combined cycle and pressurized fluidized bed combustion.
                                 ______
                                 
  Prepared Statement of Dwane Milnes, Executive Director, San Joaquin 
Area Flood Control Agency and City Manager City of Stockton, California
 subject: san joaquin river basin, stockton metropolitan area (section 
211) increase fiscal year 2000 president's coe budget from $200,000 to 
 $380,000 and include $10 million of the expected $45 million federal 
                             reimbursement
    Mr. Chairman and Members of the Subcommittee: My name is Dwane 
Milnes, Executive Director of the San Joaquin Area Flood Control Agency 
and the City Manager of the City of Stockton, California, located forty 
five miles south of Sacramento. Thank you for the opportunity to 
present testimony for the fiscal year 2000 budget for the U.S. Army 
Corps of Engineers.
    The San Joaquin Area Flood Control Agency (SJAFCA) is a Joint 
Powers Authority (JPA) of the City of Stockton, California and San 
Joaquin County. SJAFCA was created to finance, design and construct a 
$70 million dollar Flood Protection Restoration Project (FPRP). The 
FPRP provides a 100 year level of flood protection for the City of 
Stockton and surrounding areas of San Joaquin County. The project was 
undertaken in response to a Federal Emergency Management Agency (FEMA) 
restudy of the area which identified a large new floodplain. The FPRP 
protects a population of approximately 300,000 and removed severe 
economic impacts to the region associated with floodplain designation 
by FEMA. Construction of the FPRP was completed in November 1998.
    The Corps of Engineers (COE) completed a Reconnaissance study of 
the project area in 1997 and found a Federal interest. The COE is 
continuing with a Federal study to establish the amount of Federal 
reimbursement for the FPRP provided for in Section 211 of the Water 
Resource Development Act of 1996 (WRDA 96) as one of eight specifically 
named demonstration projects and a Feasibility Study to identify any 
additional flood protection improvements. The COE report is scheduled 
for completion in 1999.
    The FPRP was initially financed completely with local funds 
collected through the formation of an assessment district. The 
assessment district provided $70 million dollars and was financed 
through the sale of bonds. Annual interest payments on the outstanding 
bonds are approximately $2.5 million. Therefore, it is important to 
receive Federal reimbursement as soon as possible so that these 
interest costs will cease. It should be noted that SJAFCA has already 
received reimbursement from the State of California in the amount of 
$12.6 million as the estimated state share of the FPRP costs.
    The fiscal year 2000 President's Budget is currently programmed to 
fund the current companion COE studies (San Joaquin River Basin, 
Stockton Metropolitan Area (Section 211) for $200,000. The COE has a 
capability of performing $380,000 of work on these studies. Therefore, 
we are requesting an increase of $180,000 so that the COE can fully 
staff both studies and accomplish them on the current schedule. In 
anticipation of this report we also request that at least $10 million 
dollars of the expected $45 million of Federal reimbursement be 
included in fiscal year 2000 budget.
                                 ______
                                 
     Prepared Statement of the Sacramento Area Flood Control Agency
    Dear Mr. Chairman and Members of the Subcommittee: We appreciate 
the opportunity to provide testimony to this Subcommittee, and extend 
our sincere appreciation for your past support of this community's 
efforts to protect the citizens and properties in the capital city of 
California. In our continuing efforts to protect the Sacramento 
metropolitan area, the Sacramento Area Flood Control Agency (SAFCA), 
and its member agencies, support the following Federal appropriations 
for fiscal year 2000:

                                              [Millions of dollars]
----------------------------------------------------------------------------------------------------------------
               Project                        Funding type          President's budget     Recommended funding
----------------------------------------------------------------------------------------------------------------
American River--Common Elements......  Construction.............  17.0.................  17.0
American River--Comprehensive Plan...  PED......................  5.0..................  5.0
American River-North Area Project....  Construction.............  4.0..................  4.0
                                       (Reimbursement)
Sacramento River Bank Protection.....  Construction.............  7.0..................  7.0
South Sacramento Streams Group.......  Construction.............  0.5..................  4.0 Construction \1\
Section 205 Continuing Authorities     Construction.............  26.9.................  Support
 (Magpie  Creek).                                                 (Total Program)
Lower Strong & Chicken Ranch Sloughs   Feasibility Study........  0.5..................  0.5
Ueda Parkway Recreational              Construction.............  .....................  Support City of
 Improvements.                                                                            Sacramento
----------------------------------------------------------------------------------------------------------------
\1\ Construction funds in fiscal year 2000 contingent upon authorization in 1999 WRDA.

    Sacramento has the dubious distinction of being the urban area with 
the worst flood risk in the nation according to the U.S. Army Corps of 
Engineers. Addressing this problem is our region's most critical 
infrastructure issue as evidenced by the formation of a joint powers 
agency, the Sacramento Area Flood Control Agency (SAFCA) to solve the 
problem and the millions of dollars spent over the past ten years on 
improvements and countless engineering studies. A major flood on the 
American River, would cause between $7 and $16 billion in damage and 
likely result in lives being lost. The floodplain is home to over 
400,000 residents, 150,000 homes, 5,000 businesses, the State Capitol, 
and 1,300 government facilities.
    Sacramento's existing level of flood protection has been a moving 
target over the past year. Quantifying flood risk has been difficult 
for engineers to explain, frustrating for policy makers who must make 
decisions and virtually impossible for the general public to 
understand. However, all interests from engineers to environmentalists; 
corporations to small businesses; community activists to the local 
homeowner all agree Sacramento needs more flood protection and we need 
it now. The five largest floods on the American river this century have 
all occurred after 1950, including the two largest floods within the 
last eleven years (1986 and 1997). It is unclear if this signals a 
shift in our meteorologic climate, but it is clear the flood risk is 
much greater than was thought 50 years ago when the original flood 
control system was built. In fact, our existing system of Folsom Dam 
and the downstream levees, which was designed to protect Sacramento 
from a 250-300 year flood, now provides less than 100-year flood 
protection. This means there is a 25 to 30 percent chance over the next 
30 years of having the worst flood disaster in this nation's history 
occur in Sacramento.
    Sacramento has not been sitting idly since our near disaster in 
1986. Over $80 million in local funds have been spent on flood control 
improvements, engineering studies, public education and other 
activities to further our region's flood control objectives. We have 
been a very pro-active and innovative community. Accomplishments to 
date include strengthening levees along the Sacramento River; raising 
and constructing new levees in North Sacramento and Natomas; raising 
levees protecting the Regional Wastewater Treatment Plant; negotiating 
an agreement for more flood space at Folsom; restoring bank erosion 
sites along the Lower American River; and development of a flood 
management plan including evacuation plans and development guidelines. 
The flood control improvements to our system played an important role 
in avoiding the devastating flood damages experienced by our neighbors 
to the north and south during the past few years. In addition, we have 
systematically re-evaluated the flood control system protecting this 
region and identified the projects necessary to significantly reduce 
our chances of a catastrophic flood. In order to advance these efforts, 
SAFCA supports fiscal year 2000 Federal appropriations for the 
following flood control projects in the metropolitan Sacramento area.
                         american river project
    When Folsom Dam was completed along the American River in 1955, 
Sacramento was thought to have a very high level of flood protection 
(250 to 300-year) consistent with other urban areas in the nation. 
However, as described above, the five largest floods of this century on 
the American River have all occurred in the last 50 years which has led 
to a reduction in our credited flood protection to less than 100-year. 
This is significantly less than the authorized project in the 1950's 
and substantially less than other similarly situated major urban areas 
around the nation including St. Louis, Kansas City, Dallas, Omaha, 
Minneapolis, and Pittsburgh.
    Following an exhaustive feasibility study by the Corps looking at 
all the flood control alternatives, Sacramento unsuccessfully sought 
Congressional authorization of a comprehensive flood control project on 
the American River in 1992, 1996, and again in 1998. Sacramento is 
continuing efforts to gain authorization of a project as part of a 1999 
WRDA. As part of the fiscal year 2000 Federal budget, we are seeking 
$5.0 million to move forward with Preconstruction, Engineering and 
Design of the one flood control improvement all parties to the debate 
support which is increasing the outlet capacity of Folsom Dam. The 
funds requested would also allow the Corps to provide more detailed 
information about flood control options in the event Congress fails to 
enact authorizing legislation this year.
    Common Elements.--As part of the 1996 WRDA, Congress authorized 
flood control features which were common to all the long term 
alternatives being considered for Sacramento. These included 26 miles 
of levee stabilization along the lower American River, raising and 
strengthening 12 miles of the east levee of the Sacramento River south 
from the Natomas Cross Canal, three new telemetered gauges and other 
early flood warning improvements along the American River. As the 
recent floods in Northern California have demonstrated, we must 
continue to rehabilitate our existing system of levees to carry even 
their intended design flows. The levee modifications authorized under 
this project complement work done by the Corps in the early 1990's 
along the Sacramento River and will complete the job of stabilizing the 
existing levees protecting this community. The first contract was 
awarded on this project in 1998 to complete a two-mile stretch of the 
American River north levee. The Corps has an ambitious schedule to push 
forward with this project in 1999 and will require continuing 
appropriations in fiscal year 2000 so as not to delay the project. We 
support the Administration's budget request of $17.0 million in fiscal 
year 2000 to allow completion of the project on an efficient 
construction schedule and request this Committee's support.
    North Area (Natomas) Levee Improvements.--In 1992, the recommended 
plan for the American River was construction of a flood detention dam 
at Auburn and levee improvements around Natomas and lower Dry and 
Arcade Creeks. Congress did not include this project in the WRDA for 
that year, but in subsequent legislation did authorize the levee 
improvements around the Natomas basin and North Sacramento. The 
authorizing legislation included provisions to reimburse the local 
agency for constructing levee improvements which were consistent with 
the Federal project. With over 75,000 residents at risk, subject to 
life threatening flood depths of 20 feet in some areas, SAFCA decided 
to initiate construction of the project using local funds with the 
potential for future Federal reimbursement. By borrowing heavily from 
other sources and debt financing through a capital assessment district, 
SAFCA proceeded with construction of the authorized project and has 
rapidly completed $60 million in flood control improvements. These 
improvements were instrumental in preventing flooding in recent years. 
However, the borrowing of funds, coupled with additional future flood 
control obligations, has severely strained SAFCA's financing capability 
to the point we are now seeking reimbursement as provided under the 
authorizing legislation. The Assistant Secretary of the Army has 
directed the Corps to negotiate and execute a crediting/reimbursement 
agreement with SAFCA. This agreement, which will be ready for execution 
later this year, provide's the basis for reimbursement of not less than 
$21 million agreed to by the Corps, and a future reimbursement as 
appropriate based on the final cost accounting for the project and 
further negotiations with the Corps. Congress included $9 million in 
fiscal year 1998 and $10 million in fiscal year 1999 which the Corps 
indicates is available to reimburse SAFCA once the agreement is 
executed. SAFCA supports the President's request of $4.0 million in 
fiscal year 2000. Two million completes the Federal share for the 
initial $21 million reimbursement the other $2.0 million is for 
additional constructed features, which SAFCA believes are consistent 
with the authorized project, and are the subject of future negotiations 
with the Corps. These funds can be used to stabilize SAFCA's financing 
capability so that additional flood control improvements could be 
planned and constructed.
    In addition, SAFCA supports the City of Sacramento's efforts to 
obtain construction funds for implementation of the recreational 
improvements along the City's Ueda Parkway which were included as part 
of the federally authorized project described above. The recreational 
components are an integral part of creating a parkway which serves both 
as an open space corridor and a floodway. By maintaining the open 
space, we can insure channel capacity is maintained in the future.
       sacramento bank protection project (american river levees)
    SAFCA, the State of California and the Corps have found that bank 
protection improvements are needed to stop erosion which threatens 
urban levees along the lower American River. Over the last four years 
SAFCA has led a collaborative process through which flood control, 
environmental and neighborhood interests have reached agreement on how 
to complete this work in a manner which protects the sensitive 
environmental and aesthetic values of the American River in addition to 
improving the reliability of the levee system. As a result, a bank 
protection program to be implemented over the next several years has 
been established to address the most critical reaches of the river 
system. Construction on this project commenced in 1996. The President's 
proposed budget includes $7.0 million in Construction funds for several 
American River sites in fiscal year 2000. SAFCA supports this funding 
which provides for an efficient construction schedule on the lower 
American River sites.
                    south sacramento streams project
    In 1995, homes in the South Sacramento area were threatened by rain 
swollen creeks which reached to within a foot, and in some areas less, 
of overtopping the levees and channels and flooding adjacent 
residential subdivisions. The recently completed Feasibility Study by 
the Corps shows much of the urban area of South Sacramento has less 
than 50-year flood protection from these urban streams. There are over 
100,000 people and 41,000 structures in the floodplain of Morrison, 
Unionhouse, Florin and Elder Creeks which make up the study area. 
Because of the significant flood risk, SAFCA constructed a portion of 
the levee improvements using local funds in 1996 under the U.S. Army 
Corps of Engineers Section 104 crediting provisions. In its Chief's 
Report, the Corps has recommended an NED project which provides the 
entire area with a consistent 500-year level of flood protection. We 
are seeking authorization of this project as part of the 1999 WRDA. We 
therefore request your committee's support for $4.0 million in new 
start Construction in fiscal year 2000 contingent upon obtaining 
Congressional authorization. The Corps has indicated they are on 
schedule to deliver the first construction contract in early 2000 and 
would have a capability of spending at least $4.0 million on 
construction during that fiscal year. If funding is not provided, 
construction would be unnecessarily delayed for a year. The President's 
proposed budget includes only $500,000 to complete PED which would 
appropriate if there was not WRDA until 2000.
       magpie creek (section 205 continuing authorities program)
    The Magpie Creek Diversion Project, constructed by the Corps in the 
1950's as an extension of the Sacramento River Flood Control Project, 
is inadequate for even the 100-year flood event using new hydrologic 
data. The resulting floodplain encompasses residential and commercial 
developments downstream and would close Interstate 80, the major east-
west transportation route through Sacramento. These improvements have a 
benefit to cost ratio of 2.5 to 1 and not only protect existing urban 
development but are essential to provide capacity for future 
improvements on McClellen Air Force Base to allow for orderly 
redevelopment activities as part of the base conversion process. 
Congress earmarked funds in last year's Energy and Water Appropriations 
bill to initiate work on this project, but construction has been 
delayed. SAFCA supports the Administration's proposed fiscal year 2000 
budget for the Section 205 Program and requests the Corps be directed 
to initiate construction of the Magpie Creek Diversion Project within 
these available funds.
                 lower strong and chicken ranch sloughs
    SAFCA, in cooperation with Sacramento County, support the 
President's proposed budget of $500,000 in fiscal year 2000 for a 
Feasibility Study of the Lower Strong and Chicken Ranch Sloughs. 
Floodwaters from these urban streams are collected at the base of the 
American River levees and pumped into the river. In 1986 and again in 
1997, the limited channel and pumping capacity led to significant flood 
damages to a number of residential and commercial structures. Most of 
the flooding occurs when the American River is at a high stage due to 
releases from Folsom Dam. The original pump station was built by the 
Corps as part of the American River and Folsom project in the 1950's 
but has proven inadequate with the revised hydrologies. The Corps is 
currently conducting a Reconnaissance level study as directed by your 
Committee last year. They anticipate finding a Federal interest in 
pursuing a Feasibility level study to identify potential solutions and 
to determine if the originally authorized Federal project is deficient.
                                 ______
                                 
               CALIFORNIA NAVIGATION AND RELATED PROJECTS
 Prepared Statement of Theodore Stein, Jr., Commission President, Port 
              of Los Angeles Board of Harbor Commissioners
    Mr. Chairman and Members of the Subcommittee: I am Ted Stein, 
President of the City of Los Angeles Board of Harbor Commissioners 
which oversees the activities of the Port of Los Angeles. My testimony, 
for the City of Los Angeles and its Board of Harbor Commissioners, 
speaks in support of continuation of the Federal role in the 
implementation of the major navigation improvements underway at the San 
Pedro Bay, California. Specifically, I am speaking of the Pier 400 
Dredging and Landfill Navigation Project and its funding in fiscal year 
2000. I am also presenting testimony on our project to deepen the Main 
Channel which is presently under study. At the outset, let me say that 
we sincerely appreciate the support of the Committee, over the past 
three years, in providing funds that have kept construction of the Pier 
400 Project--a vital and urgently needed project at the Port of Los 
Angeles--on schedule.
        pier 400 implementation under the 2020 development plan
    The San Pedro Bay ports of Los Angeles and Long Beach, and the U.S. 
Army Corps of Engineers, acknowledged years ago, that a dramatic 
increase in Pacific Rim trade volumes would likely take place over the 
next several decades. To meet the anticipated burgeoning international 
trade needs of the region and the Nation, the Port of Los Angeles 
engaged in a long-term, cooperative planning effort with the Corps of 
Engineers known as the 2020 Development Plan. The 2020 Plan accurately 
predicted the phenomenal growth of trade through the San Pedro Bay 
ports, and is a blueprint for the ports' infrastructure development 
that will accommodate the projected growth well into the 21st century. 
While the Port of Long Beach has since withdrawn from this 
collaboration, the Port of Los Angeles has moved forward with its 
implementation of the 2020 Plan.
    Divided into phases, Stage 2 of the 2020 Plan is a Federal deep-
draft navigation project--known as the Pier 400 Dredging and Landfill 
Navigation Project--which is currently under construction. The 
Commissioners, management and staff at the Port of Los Angeles have 
been working with the Corps of Engineers since 1985 toward the 
implementation of the 2020 Plan which was authorized in the Water 
Resources Development Act of 1986 (WRDA) (Public Law99-662), and 
further sanctioned in WRDA 1988 (Public Law100-371) and WRDA 1990 
(Public Law101-640).
    The contracts for Stage 1 construction were completed by the Port 
in 1997 and we received a credit of $63.8 million toward our share of 
Stage 2 construction. Stage 1 included the dredging of new Federal 
deep-draft navigation channels that abut existing land at Pier 300 and 
the reclamation of 265 acres of new land at Pier 400. Stage 2 includes 
the dredging of new and deeper channels to Pier 300 and Pier 400, and 
the creation of an additional 315 acres of new land at Pier 400 upon 
which new state-of-the-art marine terminals will be built.
                          stage 2 construction
    I am pleased to inform the Subcommittee that, based on funds 
increased by this panel and Congress in fiscal year 1999, Stage 2 
construction is on schedule with completion expected in January 2000. 
The President's Budget for fiscal year 2000 includes $9.7 million to 
complete Stage 2 construction. We support this amount.
                     main channel deepening project
    The Port of Los Angeles also requests that your Subcommittee 
include $750,000 for the Federal share of the Preconstruction, 
Engineering and Design (PE&D) phase of the project to deepen the Main 
Channel. Although part of the Pier 400 Project includes deepening of 
some of the channels for safer and more efficient container ship 
navigation, the Main Channel's current depth is inadequate to 
accommodate the new state-of-the-art container vessels that carry more 
than 6,000 TEU's. These vessels are longer and wider than most of the 
current vessels, and most significantly, now draft up to 46 feet in 
depth. Presently, five of the major container shippers in the San Pedro 
Bay have vessels that draft 46 feet. Another 50 of this new generation 
of vessels is either under construction or on order, and they will meet 
the competitive requirements for shipping efficiencies in the 21st 
century.
    To accommodate the industry's shift to larger container vessels, 
the Port must deepen existing deep-draft navigation channels by at 
least an additional five feet, from the present depth of 45 feet Mean 
Lower Low Water (MLLW) to a minimum of 50 feet, to allow for safe 
shipping operation. This depth will accommodate the new generation 
vessels at 46-foot drafts plus an allowance for tides and under-keel 
clearance. The Main Channel project includes dredging approximately 4.5 
million cubic yards of sediment not only from the Main Channel, but 
also from the Turning Basin, the West and East Basins, and the East 
Basin Channel. The estimated cost for the project is approximately $40 
million.
    Typically, the Corps of Engineers, in initiating a Federal project, 
would perform preliminary studies. Based on favorable findings in these 
studies, the Port would then seek a Congressional appropriation to fund 
the feasibility study and other related studies. These steps can take 
more than two years to complete before the feasibility study is begun. 
To expedite this process, Section 203 of WRDA 1986 allows the local 
project sponsor to pay the full cost of the feasibility study. If the 
study shows a Federal interest, Section 203 further allows Federal 
reimbursement to the local sponsor in an amount equal to 50 percent of 
the costs. The Port of Los Angeles has undertaken a Section 203 Study 
of the Main Channel's dredging needs and has signed a Memorandum of 
Agreement (MOA) with the Los Angeles District Corps of Engineers. The 
MOA provides the framework under which the study will be completed and 
details the responsibilities of both the Port and the Corps of 
Engineers. The MOA also provides that support agreements are prepared 
for the Port to have the Corps of Engineers complete and pay for the 
work required for the studies.
    The Port anticipates that the Section 203 Report will be completed 
in less than a year. Ultimately, the Secretary of the Army will 
transmit to Congress his recommendations in time for authorization in 
the WRDA 2000 legislation. Consistent with the Corps of Engineers' 
seamless funding, once the Section 203 Report is sent to Washington for 
review by the Secretary, the PE&D phase can be undertaken by the Corps 
of Engineers early in fiscal year 2000.
    ongoing maintenance of existing federal channels and the harbor 
                               breakwater
    Related to the efficient operation of the completed Pier 400 
Project is the required ongoing maintenance of the existing Federal 
navigation channels at the Port of Los Angeles. The Port requests your 
Subcommittee to support an appropriation of $350,000 for ongoing 
maintenance of the existing navigation channels and the harbor 
breakwater. Specifically, $150,000 is needed for the Corps to perform 
engineering design for the maintenance dredging of the West Basin; 
$100,000 would enable the Corps of Engineers to continue their 
condition survey of the Federal channels; and, an additional $100,000 
would fund the continued rehabilitation of the harbor breakwater. This 
work is critical. Ongoing maintenance of the navigation channels will 
ensure that they remain at depths in which fully loaded container ships 
can safely navigate and guarantee the stability of the breakwater 
during severe storms.
    I might add, Mr. Chairman, that the Port of Los Angeles has been a 
``donor port,'' under the Harbor Maintenance Tax (HMT) program, 
contributing approximately $70 million per year in HMT revenues since 
the inception of the fee in 1986. In contrast, the Port has been 
allocated only about $700,000 in Operation and Maintenance dollars 
because our maintenance dredging needs have been minimal. Consequently, 
we urge your support for the full appropriation of $350,000 to pay for 
the ongoing maintenance dredging of the Federal navigation channels at 
the Port, and the other ongoing channel and breakwater maintenance 
needs.
           continued funding of the los angeles harbor model
    The Port of Los Angeles further requests your Subcommittee to 
provide an appropriation of $165,000 for ongoing maintenance of the 
Port's harbor model at the Corps of Engineers' Waterways Experiment 
Station (WES) at Vicksburg, Mississippi. In addition, $355,000 is 
required for continued wave data collection. This information is 
necessary to validate the numerical and physical models used for 
ongoing project designs. During the state-of-the-art design phase for 
the Pier 400 Project land reclamation, eight separate, but related, 
models, were used and maintained by the scientists and engineers at WES 
and were, likewise, used by the engineers at the Port of Los Angeles 
and the Corps' Los Angeles District personnel.
    Maintenance of the hydraulic and physical models at WES, and their 
prototype data acquisition facilities, remains an essential resource 
for the Corps' Los Angeles District and for the Port of Los Angeles.
                economic impact of the pier 400 project
    The Port of Los Angeles has testified in previous years on the 
economic impact its operations have on the Nation's economy; it cannot 
be over emphasized. Cargo throughput for the San Pedro Bay continues to 
grow and is estimated to more than triple in the next two decades. 
Actual growth in cargo handling, from 1990 through 1998, has already 
exceeded the forecast growth for that period. The trend is only upward. 
The ability of the Port to meet the continued demand of this phenomenal 
growth is dependent upon sufficiently deep water channels (such as 
those being constructed under the Pier 400 Project and planned for the 
Main Channel) that can accommodate the largest state-of-the-art deep-
draft cargo vessels that are now on line in the world fleet of 
container ships. These new vessels provide greater efficiencies in 
cargo transportation, thereby offering consumers lower prices on 
imported goods, as well as more competitive exports from the United 
States to foreign markets.
    The Pier 400 Project is clearly a project of national significance, 
providing such economic benefits to the United States as: more than one 
million permanent well-paying jobs across the country; more than one 
billion dollars in wages and salaries; and, sales and income tax 
revenues, including increased U.S. Customs Service revenues. The return 
on the Federal investment is real and quantifiable, and is expected to 
surpass the cost-benefit ratio as determined by the Corps of Engineers' 
project feasibility study. The Federal investment in the Pier 400 
Project has, and we hope will continue, to ensure that the Nation's 
busiest container port remains competitive well into the 21st century.
                               in summary
    Mr. Chairman, the Port of Los Angeles respectfully urges your 
Subcommittee to include in the Corps of Engineers' fiscal year 2000 
appropriation, the following funds to support the Corps of Engineers' 
work on behalf of the Port of Los Angeles:
  --$9.7 million for the Pier 400 Dredging and Landfill Navigation 
        Project;
  --$750,000 to fund the Preconstruction, Engineering and Design phase 
        of the Main Channel Deepening Project;
  --$350,000 for ongoing maintenance dredging, breakwater 
        rehabilitation and condition survey;
  --$165,000 for ongoing maintenance of the Los Angeles Harbor Models 
        at WES; and,
  --$355,000 for continued collection of wave data on the San Pedro Bay 
        and Port of Los Angeles channels.
    The Port of Los Angeles has long valued your Subcommittee's 
demonstrated support for and understanding of the importance of the 
port industry to the economic vitality of the United States, and, in 
particular, of the Port's role in contributing to this country's 
economic vigor. This understanding has been evidenced by the 
appropriation of scarce Federal dollars for harbor and navigation 
projects such as our Pier 400 Project.
    Thank you, Mr. Chairman, for the opportunity to submit this 
testimony in support of continued funding for the Federal navigation 
activities at the Port of Los Angeles.
                                 ______
                                 
  Prepared Statement of Don Knabe, Chairman of the Board, Supervisor, 
                 Fourth District, County of Los Angeles
    Los Angeles County respectfully requests that the Congress of the 
United States include funds in the fiscal year 2000 Energy and Water 
appropriations bill for the following projects, which are urgently 
required to preserve public safety in Marina del Rey and to begin the 
process of planned shoreline protection in Los Angeles County.
Marina del Rey Entrance Channel Dredging ($6,500,000)
    The U. S. Army Corps of Engineers is responsible for maintenance 
dredging of the Marina del Rey's entrances and main channel, pursuant 
to a perpetual right of way and easement agreement with the County. The 
last design-depth dredging of Marina del Rey occurred in 1969. Since 
then, contaminants in some of the Marina's sediments have prevented 
thorough dredging. While small, clean-sediment dredging projects were 
conducted in 1987, 1994, 1996, and 1998, the south entrance to the 
Marina is nearly closed. This situation jeopardizes the safety of 
thousands of boaters who use our harbor, and it precludes prompt 
response by the Coast Guard and others to air-sea disasters off of LAX 
and other ocean emergencies.
    This year, the Port of Long Beach is constructing a new terminal by 
filling in a large slip. This project provides a unique opportunity, 
which will not be duplicated in the foreseeable future, to remove and 
safely dispose of 300,000 cubic meters of contaminated sediment from 
Marina del Rey. The Port's project schedule calls for acceptance of the 
Marina's sediments between October 1 and December 31, 1999, requiring 
funding in fiscal year 2000. If implemented as planned, this project 
will result in eliminating the need to dredge in Marina del Rey for 
many years. It will also remove contaminants from the Santa Monica Bay, 
provide clean material for beach replenishment, and greatly improve 
boating safety.
    It is critical that we take full advantage of this extraordinary 
opportunity to dispose of contaminated sediments in an environmentally 
safe and economical manner. The President's fiscal year 2000 budget 
does not include any funds to perform maintenance dredging at Marina 
del Rey. We are, therefore, requesting your support for an 
appropriation of $6.5 million to remove the 300,000 cubic meters of 
contaminated sediment, and as much clean sediment as is possible for 
beach replenishment. Without a thorough dredging in 1999, the Marina's 
entrances will continue to close, which could threaten the ability of 
the U. S. Coast Guard, the County Sheriff's Harbor Patrol, the County 
Lifeguards and the City and County Fire Departments to respond to 
emergencies. As these agencies are the critical core of the LAX Air-Sea 
Disaster Response Team, it is imperative that the Marina's entrances 
remain open and safely navigable.
Marina del Rey and Ballona Creek Feasibility Study ($100,000)
    Some of the sediments creating navigational hazards in Marina del 
Rey's entrances contain contaminants that make dredging and disposal 
difficult and costly. The U. S. Army Corps of Engineers completed a 
reconnaissance study in 1996, which established that there is a Federal 
interest in solving this problem.
    The study is focused on economical and environmentally safe 
disposal options for the contaminated sediments, as well as on actions 
that can be taken in the Ballona Creek watershed that will eliminate or 
reduce the flow of contaminated sediments into Marina del Rey's 
entrance. Dedicated staff from the County, the Corps, the City of Los 
Angeles, the Santa Monica Bay Restoration Project, Heal the Bay, and 
other environmental and regulatory agencies have worked to limit the 
scope, time, and cost of this study. Based on the approved plan, the 
study was expected to require three years to complete, at a total cost 
of $2.7 million. The study has been ongoing for two years and is 
progressing on schedule toward completion next year. As the Los Angeles 
County Board of Supervisors has agreed to pay 50 percent of the study's 
costs, we are pleased that there are funds in the President's fiscal 
year 2000 budget for completion of this study. We, therefore, ask your 
support of the President's budget request of $100,000, for the Federal 
share of the cost in fiscal year 2000.
Regional Dredged Material Management Plan Feasibility Study ($400,000)
    It is estimated that approximately 2.5 million cubic yards of 
contaminated marine sediments will need to be dredged from the harbor 
waters of Los Angels County over the next five years. Unfortunately, 
permanent sites for the disposal of these sediments are not available. 
As a result, routine maintenance dredging and port expansion activities 
have been critically hampered, impeding both navigation safety and the 
livelihood of the area's economy. In addition, the continuous buildup 
of contaminated sediments within the Los Angeles Region's coastal 
waterways raises concerns with respect to potential impacts to public 
health and the health of the marine environment.
    A multi-agency Contaminated Sediments Task Force has been formed to 
address these concerns and to try to solve the problems associated with 
the dredging and disposal of contaminated sediments. This Task Force is 
comprised of representatives from Federal and State regulatory and 
resource agencies, ports and harbors, local agencies, research 
institutions, and local environmental groups.
    Recognizing the fact that contaminated sediments are a serious 
problem for the Los Angeles Region, the State of California has 
committed $1 million over a five-year period to fund the administrative 
cost (staff time and coordination efforts) of the Task Force. Its 
objective is to develop a management strategy to control and dispose 
contaminated dredged material. However, the Task Force quickly 
discovered that these funds are not sufficient to acquire the necessary 
data, investigate disposal site alternatives, and initiate pilot 
projects to analyze promising new technologies. These efforts need to 
be accomplished to support development of regional management strategy 
for contaminated sediments.
    This letter is, therefore, to request your support for $400,000 in 
Federal funds in fiscal year 2000 to prepare a Feasibility Project 
Study Plan (PSP), negotiate and sign a Feasibility Cost Sharing 
Agreement (FCSA) between the Federal government and non-federal 
interests, and to initiate the feasibility study following the 
execution of the FCSA. The feasibility study will develop a regional 
dredged material management plan for the ports, harbors, and marinas 
within the coastal waters of Los Angeles County. The study plan will 
include: (1) gathering data; (2) investigating sediment threshold 
levels for the disposal of contaminated dredged sediments; (3) 
analyzing potential regional disposal site alternatives having economic 
and environmental viability; and (4) preparing a framework to analyze 
innovative dredged material treatment technologies through a series of 
pilot projects.
    It is understood that, as non-federal stakeholders, the Task Force 
members will need to cost share the regional dredged material 
management plan feasibility study with the Federal government, and we 
are committed to work with the other members to secure funding for this 
very important study.
Coast of California Study--Los Angeles County ($400,000)
    Los Angeles County is famous for its beautiful, sandy beaches that 
attract over 50 million visitors each year. What is little known is 
that these beaches are not naturally sandy. Since the 1930's, over 35 
million cubic yards of sand have been removed from various public works 
projects and used to widen the beaches. Unfortunately, there has been 
no planned approach to protecting and maintaining these beaches, which 
are important parts of our infrastructure and a major economic engine 
for the region. In fact, our beaches protect critical highways, 
utilities, public beach facilities, as well as homes and businesses. 
Based on data from a university study, the Economic Development 
Corporation of Los Angeles has estimated that the annual economic value 
of Los Angeles County's beaches is $20.7 billion.
    The El Nino storms of 1998 caused severe erosion of some of our 
beaches, resulting in the creation of a Los Angeles County Beach 
Replenishment Task Force, which is intended to develop a long-term 
management plan for our beaches, as well as to seek out funding sources 
for beach restoration projects. The Task Force has determined that the 
County's beaches have not been regularly surveyed since the early 
1970's, or studied at all since the early 1990's. Effective beach 
managmenet requires a thorough baseline study and annual surveys for 
monitoring erosion and acretion.
    The Coast of California Study, as authorized by the Water Resources 
Development Act, is an ideal starting point for development of a long-
term beach management plan. Based on studies already completed for San 
Diego and Orange Counties, your support for an fiscal year 2000 
appropriation of $400,000 for a Los Angeles County--Coast of California 
Study is requested.
                                 ______
                                 
  Prepared Statement of Richard W. Parsons, Dredging Program Manager, 
                         Ventura Port District
    The Ventura Port District respectfully requests that the Congress:
    1. Include $3,500,000 in the fiscal year 2000 Energy and Water 
Development Appropriations Bill for the U.S. Army Corps of Engineers 
maintenance dredging of the Ventura Harbor federal channel and sand 
traps and repair of a groin.
    2. Include $300,000 in the fiscal year 2000 Energy and Water 
Development Appropriations Bill to continue a cost shared Feasibility 
Study to determine the advisability of modifying the existing Federal 
navigation project at Ventura Harbor to include a sand bypass system.
                               background
    Ventura Harbor, homeport to 1,500 vessels, is located along the 
Southern California coastline in the City of San Buenaventura, 
approximately 60 miles northwest of the City of Los Angeles. The harbor 
opened in 1963. Annual dredging of the harbor entrance area is usually 
necessary in order to assure a navigationally adequate channel. In 
1968, the 90th Congress made the harbor a Federal project and committed 
the U. S. Army Corps of Engineers to provide for the maintenance of the 
entrance structures and the dredging of the entrance channel and sand 
traps.
    The harbor presently generates more than $40 million in gross 
receipts annually. That, of course, translates into thousands of both 
direct and indirect jobs. A significant portion of those jobs are 
associated with the commercial fishing industry (over 30 million pounds 
of fish products were landed in 1996), and with vessels serving the 
offshore oil industry. Additionally, the headquarters for the Channel 
Islands National Park is located within the harbor, and the commercial 
vessels transporting the nearly 100,000 visitors per year to and from 
the Park islands offshore, operate out of the harbor. All of the 
operations of the harbor, particularly those related to commercial 
fishing, the support boats for the oil industry, and the visitor 
transport vessels for the Channel Islands National Park are highly 
dependent upon a navigationally adequate entrance to the harbor.
                     operations & maintenance needs
Dredging
    The Corps of Engineers has determined that $2,875,000 will be 
required to perform routine maintenance dredging of the harbor's 
entrance channel and sand traps during fiscal year 1999. This dredging 
work is absolutely essential to the continued operation of the harbor.
Groin Repairs
    It is estimated that $625,000 will be required during fiscal year 
2000 for the Corps of Engineers to repair extensive El Nino related 
storm damage to the South Beach Groin. This structure is an important 
component of the harbor's entrance system and its repair must be 
accomplished expeditiously in order to assure the maintenance of a 
navigationally adequate entrance channel. Additionally, it should be 
noted that the failure to repair this structure will result in 
increased maintenance dredging costs in subsequent years.
                              study needs
    The Corps of Engineers has asked that $100,000 be provided in 
fiscal year 2000 to continue a cost shared Feasibility Study to 
determine the advisability of modifying the existing Federal navigation 
project at Ventura Harbor to include a sand bypass system. Given the 
continuing need for maintenance dredging, it is respectfully requested 
that the funding be increased to $300,000 in order to expedite this 
effort to determine if a sand bypass system or other measures can 
accomplish the maintenance of the harbor in a manner that is more 
efficient and cost effective than the current contract dredging 
approach.
                                 ______
                                 
  Prepared Statement of Alexander Krygsman, Director, Port of Stockton
    Mr. Chairman: I am Alexander Krygsman, Port Director of the Port of 
Stockton in Stockton, California.
    The San Francisco Bay to Stockton Ship Channels Project is an 
authorized project.
    The Port of Stockton is primarily a bulk port that serves industry 
and agriculture in the San Joaquin Valley in California, and the bulk 
imports and exports of the Western States.
    The Port of Stockton recognized as far back as 1952 that deeper 
channels would be needed for the movements of bulk cargoes and 
requested the Corps of Engineers to deepen the channel in 1952. Coal, 
grain, fertilizers and many other bulk materials require deeper 
channels to serve the larger bulk carriers.
    The Nation needs ports that can handle larger, more economical and 
more fuel-efficient vessels close to the production areas, both 
agricultural and industrial.
    The Port of Stockton is such a port.
    The dredging of the Stockton Channel portion of the project to 
thirty-five (35) feet was completed in 1987. A copy of the Port of 
Stockton's most recent annual report is attached. Cargo volume has 
increased since the dredging of the Stockton Channel was completed; and 
the project is certainly paying off.
    Therefore, we requested the Corps of Engineers for a new navigation 
study (reconnaissance study) to deepen the Channel further, to forty 
(40) feet or more, if economically feasible. The funding for this study 
was appropriated in fiscal year 1998. The reconnaissance study 
determined that there is a Federal interest in further deepening the 
Channel.
    For the 2000 fiscal year, we are requesting three-hundred-thousand 
dollars ($300,000) for the feasibility study. Because this study has to 
be coordinated for proper timing with the U.S. Navy's project to deepen 
the Channels to the Concord Weapons Station, this study needs to be 
done now. The feasibility study is fifty percent (50 percent) cost-
shared.
    The President's proposed 2000 budget only contains one-hundred-
fifty-thousand dollars ($150,000) for the feasibility study, but the 
feasibility study and the eventual construction, needs to be closely 
tied to the deepening of the Channel through San Pablo Bay, and this 
project needs to be timed appropriately with that construction. 
Deferring one-hundred-fifty-thousand dollars ($150,000) now could cost 
millions in extra cost later.
    The President's proposed 2000 budget includes one-million-six-
hundred-sixty-two-thousand dollars ($1,662,000) for maintenance. This 
is insufficient. Every time insufficient funds are provided for 
complete maintenance, and the maintenance dredging, therefore, cannot 
be completed at one time, an additional mobilization and de-
mobilization cost of between five-hundred-thousand dollars ($500,000) 
and one-million dollars ($1,000,000) is incurred when it is completed. 
Three-million dollars ($3,000,000) is required for an average, complete 
maintenance dredging job. Appropriating less than three-million dollars 
($3,000,000) results in extra mobilization and de-mobilization cost 
between five-hundred-thousand dollars ($500,000) and one-million 
dollars ($1,000,000) United States Senate Energy and Water Development 
Appropriations Sub-Committee of the Senate Appropriations Committee 
Page three each time each additional maintenance job, which increases 
the cost by thirty percent (30 percent) to sixty percent (60 percent), 
not counting staff time, testing cost, permitting cost, et cetera. It 
could very well double the actual cost.
    We urge you to appropriate three-hundred-thousand dollars 
($300,000) for the Stockton Deep Water Channel Feasibility Study. We 
also strongly urge that three-million dollars ($3,000,000) be 
appropriated to maintain the Channels so that the present benefits also 
may continue to accrue, and to avoid the additional cost incurred when 
insufficient funds are provided to complete the required maintenance at 
one time.
                                 ______
                                 
     Prepared Statement of Mayor Rodger Anderson, City of Morro Bay
    During World War II the Army Corps of Engineers (ACOE) designed and 
constructed a new harbor entrance at Morro Bay with two rock 
breakwaters. Since the initial construction, over 50 years ago, the 
Federal government has maintained the harbor entrance, breakwaters and 
navigational channels.
    In fiscal year 1995 the ACOE completed the Morro Bay Harbor 
entrance improvement project to improve safety for commercial fishing 
and navigation. The City of Morro Bay was the local sponsor and 
contributed over $900,000 in cash and in-kind services. Morro Bay is a 
small city of 10,000 with very limited resources but made this project 
one of its highest priorities for almost 10 years because of the 
regional importance of the harbor. Without continued Federal 
maintenance, all of the past local and federal investment will be lost.
    Morro Bay Harbor is the only all-weather harbor of refuge between 
Santa Barbara and Monterey on the West Coast. Our Harbor directly 
supports almost 250 home-ported fishing vessels and marine dependent 
businesses. We provide irreplaceable maritime facilities for both 
recreational and commercial interests. Businesses that depend on the 
harbor generate $53,500,000 annually and employ over 700 people. The 
United States Coast Guard (USCG) maintains a 15 person search and 
rescue station at Morro Bay Harbor to provide the Coast Guard services 
for the entire Central California Coast.
    Exposure to the open ocean and strong winter currents carrying 
sediment into the harbor create the need for a routine maintenance 
schedule to insure that the harbor entrance and federally designated 
navigation channels remain safe and navigable. It is imperative that 
the federally constructed navigation channels and protective jetties be 
maintained to insure safe commerce and navigation on a 300 mile stretch 
of the California Coast.
    This year, the President's budget recommend $2.5 million to 
maintain our harbor in the fiscal year 2000 budget. We are requesting 
your distinguished Subcommittee approve the funding as recommended in 
the President's budget. This funding will be utilized for maintenance 
of the federally designated navigation channels. It is estimated that 
an additional $5.2 million in fiscal year 2001 will be required to 
complete this crucial maintenance project, including maintenance of the 
entrance area and the south jetty.
    In addition to being home port to over 250 commercial fishing 
vessels, Morro Bay Harbor is part of the federally designated National 
Estuary Program. The Morro Bay Estuary was the subject of an ACOE 
reconnaissance study (funded by Congress in 1998) of potential projects 
to and restore sensitive habitat through improving tidal circulation. 
The Bay Foundation, a local non-profit conservation group, has put 
together a coalition to act as local sponsor for the Feasibility Phase 
of the Ecosystem Rehabilitation Project. We also request you approve 
the President's recommendation for $100,000 to initiate a feasibility 
study for this project in fiscal year 2000.
    Our thanks again for your actions and continued support. I am 
grateful for the opportunity to present these requests to your 
Subcommittee on behalf of the citizens of the City of Morro Bay.
                                 ______
                                 
  Prepared Statement of Peter Green, Mayor, City of Huntington Beach, 
                               California
    Mr. Chairman and Members of the Subcommittee: My name is Peter 
Green, and I am the Mayor of Huntington Beach, California. Thank you 
for the opportunity to present testimony regarding the fiscal year 2000 
budget for the U.S. Army Corps of Engineers.
    The City of Huntington Beach requests $300,000 for a feasibility 
study for the continuing Huntington Beach Coastal Bluff Restoration 
Project at Blufftop Park. Although the Corps completed an initial 
reconnaissance study in March of 1995, finding that the erosion of the 
cliffs has been and will be gradual and attributable to normal wind and 
wave erosion, in fiscal year 1999, Congress appropriated $100,000 to 
amend the Corps initial reconnaissance study to include storm damage as 
an accelerator to the normal bluff erosion. Several major Pacific 
storms in the past ten years have caused major damage to these cliffs, 
and it is anticipated that the amended reconnaissance Study will find 
Federal interest in restoration of our coastal bluffs.
    In February of 1995, while the Corps was performing its 
measurements for the initial Reconnaissance study, a major Pacific 
storm struck. Damage from this storm resulted in a state and Federal 
disaster being declared. The Corps took cliff face measurements before 
and after the storm event. This one storm event, it was discovered, had 
created eight new embayments, causing the cliff face to retreat between 
6 and 15 feet, over only a two-day period. With only a few more storms 
such as this one, not only would Blufftop Park be gone, but Pacific 
Coast Highway would also be threatened.
    The initial study defined an 8,000 feet stretch of coastal bluffs 
extending from the southern boundary of Bolsa Chica State Beach to 17th 
Street. The ``Central Reach'' runs northward from the vicinity of 
Goldenwest Street for approximately 4,600 feet. This portion of cliff-
face rises 30 to 40 feet above the Pacific Ocean. These cliffs consist 
of poorly consolidated alluvium and marine terrace deposits. They are 
subject to erosion from wave action, wind and storm damage. The slope 
of the cliff-face is relatively steep. In the central and southeastern 
portions of this reach, the beach berm is absent and wave run-up 
routinely reaches the cliff base at high tide. Most of the cliff base 
and portions of the cliff face have been protected by a non-engineered 
revetment consisting of concrete rubble and quarrystone. Erosion 
embayments exist in the cliff base and cliff face where revetment 
coverage is sparse or absent.
    This ``Central Reach'' contains the highest concentration of park 
facilities along the cliff top, including safety railing, security 
lights, pedestrian walkway, bicycle path, irrigated landscaping, picnic 
tables, benches, bicycle racks, drinking fountains, metered parking 
lots and a paved ramp leading from the cliff top to the beach at each 
end of the reach. Records indicate that the pedestrian walkway and the 
bicycle path are used by over 700,000 people annually. A closure would 
cause an estimated annual recreational loss of $238,200. Seaward of the 
northern parking lot, the bluffs are approaching failure in four large 
embayments (total length of about 700 feet). The City has closed the 
most seaward of the two trails. Four measures were considered for 
reducing or eliminating loss under the assumption that the cliff will 
retreat 8 feet in the next 25 years and 25 feet in the next 50 years. 
The four measures include simply relocating park facilities and three 
alternative methods of constructing engineered revetment. Three of the 
four measured display a positive benefit to cost ratio.
                                 ______
                                 
       Prepared Statement of Dick Lyon, Mayor, City of Oceanside
      oceanside harbor maintenance and operation dredging program
    The City of Oceanside and the Oceanside Harbor District request 
your support of $1,170,000 in the fiscal year 2000 budget for the 
Oceanside Harbor Maintenance Dredging Program.
    In 1960, Congress authorized full federal funding for maintenance 
of the Oceanside Harbor entrance (House Document 456, 86th Congress, 
2nd Session, Public law 85-500.) in recognition of the fact that the 
Harbor entrance was constructed as an emergency wartime measure in 
1942. To this day, the Oceanside Harbor entrance continues to serve the 
vital military installation of Camp Pendleton Harbor. In 1992, the 
Harbor District partnered with the federal government in a local cost 
share agreement to modify the harbor entrance and the authorized 
channel depth to reduce storm damage, provide surge protection to the 
harbor's infrastructure and provide significant reduction of 
navigational hazards that have produced 11 deaths, 49 serious injuries, 
134 boating accidents and $1,500,000 of damage to vessels in the harbor 
entrance.
    Oceanside Harbor would experience severe negative impacts should 
the dredging project not be funded. Such action would prevent access to 
the Pacific Ocean to the United States Navy and Marine Corps as joint 
users of the entrance channel, as well as the U.S. Coast Guard Cutter 
Point Hobart, which is also based in Oceanside. The economic impact 
upon the local fishing fleet, the commercial sportfishing fleet and the 
1,000 recreational vessels berthed here, as well as the businesses 
supported by the harbor, would be critically impacted.
    The maintenance program is essential for the safe navigation into 
Oceanside Harbor and the U.S. Marine Corps Base Camp Pendleton Harbor. 
The program also provides beach sand restoration, shoreline protection, 
recreational and commerce benefits.
    Thank you for the opportunity to provide this testimony and for 
your consideration of the request.
               san diego county regional shoreline study
    The City of Oceanside is seeking $1,500,000 as an addition to the 
fiscal year 2000 budget for a San Diego County Regional Shoreline 
Study. The funds for this project are not included in the 
Administration budget.
    Oceanside has a 57-year history of beach erosion resulting from the 
Camp Pendleton Harbor construction that began in 1942. The federal 
government acknowledged its responsibility for Oceanside's beach 
erosion in 1953. A letter report to the U.S. Navy from the Army Corps 
of Engineers noted that the construction of the Camp Pendleton jetties 
had compartmentalized the littoral cell and resulted in the loss of 1.5 
million cubic yards of sand in Oceanside during 1950-1952. An 
additional U.S. Army Corps of Engineers report to Congress in 1956 
concluded that only restoration of the protective beach at Oceanside 
would protect the upland area and restore and maintain a satisfactory 
recreational beach. In 1958, the Navy extended the north harbor jetty 
to reduce the entrance channel maintenance problems. This action 
further aggravated the erosion of the beaches.
    In 1967, congress authorized a review study of beach erosion at 
Oceanside resulting in the Office of the Chief of Engineers confirming 
100 percent federal responsibility.
    Despite numerous and significant efforts in placing sand on the 
beach, periodic nourishment of the beach from maintenance dredging of 
the harbor entrance and sand bypassing project, no permanent solution 
to the massive erosion problem has yet to be achieved.
    The 1994 U.S. Army Corps of Engineers Reconnaissance Report on the 
Oceanside Shoreline concluded that there is a federal interest in 
maintaining the Oceanside beach and suggested several planned 
alternatives, including a beach fill, a groin system with beach fill, 
and a submerged breakwater system. However, federal cost-sharing law 
provides that non-federal interests (the City) pay 35 percent of the 
project construction costs and annual maintenance. The federal rules 
also require a 50 percent cost-sharing for the feasibility phase of the 
project study. The City of Oceanside has been advised that Congress can 
only provide special 100 percent funding for a beach restoration 
project if there is a study that would quantitatively justify a larger 
federal cost-share based on the project being required to ``mitigate'' 
a federal action (i.e. the federal construction of the Camp Pendleton 
Harbor). If the study documents that the erosion is 100 percent the 
result of the federal construction of the harbor, full federal funding 
would be justified on a future project. The City of Oceanside is 
seeking $1.5 million to conduct the study to justify special federal 
cost-sharing.
    The language for the study is as follows:
    SAN DIEGO COUNTY REGIONAL SHORELINE STUDY. In recognition of the 
findings of past studies by the U.S. Army Corps of Engineers as 
published in House Document 456, 86th Congress, 2nd session and other 
related reports which conclude that the erosion of Oceanside Beach and 
other downcoast beaches has been caused by the construction of Camp 
Pendleton Harbor as a wartime measure, without provision for bypassing 
material to the downcoast beaches; and in equity restoration and 
maintenance of downcoast beach conditions that would be existing today 
if adequate bypassing was provided as part of harbor construction 
should be a Federal responsibility; therefore the Secretary, acting 
through the U.S. Army Corps of Engineers is directed to conduct a study 
to determine the extent of the erosion impact caused by Camp Pendleton 
Harbor, and to develop plans to mitigate these impacts. The cost of the 
study should be 100 percent Federal cost and not exceed $1.5 million.
    Thank you for the opportunity to provide this testimony and for 
your consideration of the request.
                                 ______
                                 
  Prepared Statement of Brian E. Foss, Port Director, Santa Cruz Port 
                          District Commission
    Santa Cruz Harbor is an active small craft harbor at the north 
section of Monterey Bay, California. It was authorized as a federal 
navigation project in 1958, constructed in 1964, and expanded in 1972. 
A 1986 joint-venture between the U.S. Army Corps of Engineers and the 
Santa Cruz Port District provided for a permanent sand bypass system to 
solve the ocean-driven shoaling problem at its entrance. The Port 
District has successfully operated that system for the past thirteen 
winters. However, the Port District has been unable to solve the 
siltation problem emanating from the three-square mile watershed which 
terminates at the north end of Santa Cruz Harbor.
    Silt from Arana Gulch fills berths, fairways, and channels in the 
harbor, making them hazardous and unusable. At this time, the siltation 
is not solvable by the existing sand bypass system. The soil 
characteristics of the watershed make beach disposal impractical at 
this time. Arana Gulch sediment must either be taken upland or 
delivered by barge offshore--both of these disposal options are quite 
wasteful. They are also extremely expensive and cost the Port District 
hundreds of thousands of dollars each year. Additionally, the 1998 El 
Nino storms brought 15,000 cubic yards of material into the north 
harbor alone from Arana Gulch. The event was declared a federal 
disaster, and FEMA and the State of California are spending in excess 
of $400,000 to return the harbor to charted depths.
    On June 25, 1998, the House Committee on Transportation and 
Infrastructure passed Resolution Docket 2565 authorizing the Secretary 
of the Army to review the Arana Gulch watershed siltation problem.
    The Port District respectfully requests that $100,000 be 
appropriated for the Arana Gulch reconnaissance study for fiscal year 
2000.
                                 ______
                                 
 Prepared Statement of Jimmy Smith, Commission President, Humboldt Bay 
    Harbor, Recreation and Conservation District, Eureka, California
    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity for me, Jimmy Smith, as Commission Chairman of the Humboldt 
Bay Harbor, Recreation and Conservation District in Eureka, California 
to submit prepared remarks to you for the record in support of the 
Fiscal Year 2000 Energy and Water regular appropriations measure to 
fund the U.S. Army Corps of Engineers into the new millennium. 
Commissioner Roy Curless and Chief Executive Officer David Hull will 
represent the Commission and District in meetings with subcommittee 
staff and agency representatives and respond to any project-related 
questions that arise during those meetings and appearances.
    The Commission recognizes and expresses its debt of gratitude to 
our retired Congressman Frank Riggs and retired Congressman Fazio (both 
former members of this subcommittee), our new Congressman (and former 
State senator) Mike Thompson, Subcommittee Chairman Packard from 
California, and the other members of this subcommittee and staff for 
their continuing efforts in funding the Humboldt Harbor and Bay 
Navigation Project. This project is of critical importance to the 
future development of Humboldt Bay and county, and the entire north 
coast region of the State of California.
    With your support, the conference report on fiscal year 1999 
appropriations contained six million dollars for our project as a new 
construction start we support the President's budget request in the 
amount of $3.2 million in the construction general account to complete 
project construction in fiscal year 2000.
    We are likewise grateful to the subcommittee for including $3.910 
million in the operations and maintenance general account for fiscal 
year 1999. We support the President's budget request for an additional 
$4.189 million in the operations and maintenance general account for 
fiscal year 2000 and request the subcommittee increase this amount to 
$5.689 million dollars.
    The increased budget request from fiscal year 1999 is derived from 
three sources. $300,000 is attributable to annualized cost increases 
and additional survey work to monitor the new hydrodynamics of the 
channel after completion of project construction. A second element of 
the additional request above the President's budget will permit the 
Corps to extend their survey south of the navigation channel to 
determine how the sand accumulation is impacting the main channel 
saving additional money over the long term. This survey effort will 
cost an estimated $150,000. The last element included in the request is 
for an additional $1.35 million to be appropriated to dredge this same 
area.
    Although the exact quantities to be dredged will not be determined 
until the survey is complete, our estimates and the emergency nature of 
this request accounts for the additional $1.5 million sought over the 
President's budget request for the operations and maintenance general 
account.
    Completion of the long sought new construction project (the harbor 
deepening project) will vastly improve the safety of navigation in 
Humboldt Bay and help us begin to diversify our maritime economy. For 
those unfamiliar with the geography, Humboldt Bay is the only deep-
draft natural harbor strategically situated along five hundred miles of 
Pacific coastline between San Francisco and Coos Bay, Oregon. Extreme 
winter storm conditions at the Humboldt Bay and entrance have posed 
extreme navigation safety hazards, resulting in loss of life and 
significant property damage over the years.
    To us, regular maintenance dredging can be a life and death, as 
well as economic, survival matter. For example, in a commendable effort 
to save Federal and local sponsor financial resources, the Corps' San 
Francisco District previously scheduled combined operations/maintenance 
and construction dredging for this spring. An unanticipated delay in 
final approval of our project cooperation agreement has resulted in 
dangerous shoaling of portions of the bar and entrance channel being 
allowed to persist for more than four months. Deep draft vessels and 
commercial fishermen have encountered shoaling conditions currently at 
18' in places where normally it would be 40' deep. This shoaling poses 
additional safety risks of ship grounding over and beyond those 
inherently unsafe seasonal conditions intended to be remedied by the 
channel improvement project itself.
    Recently a Corps hopper dredge itself was damaged by high wave 
action while attempting to undertake emergency maintenance dredging of 
the shoals. Indicative of adverse economic impacts, a vessel calling at 
a Louisiana-Pacific Corporation facility was delayed by shoaling 
conditions resulting in $1.5 million in delay penalties and lost sales. 
This furthers the perception of an unreliable harbor entrance and could 
have significant adverse impacts to the wood chip export market. 
Completion of the construction will substantially alleviate these 
conditions.
    Project completion will provide unique economic development 
opportunities for the North coast region. These capitalize upon our 
natural resources base enabling us to ship our commodities to world 
markets at competitive freight rates, and ship more of our imports and 
exports by water rather than transship them long distances by road or 
rail to market. At the same time, it will permit us to diversify our 
economic base by improving our transportation infrastructure and 
attracting new industrial activity to an area largely dependent upon 
the economic well-being of the forest products industry. We are 
currently suffering from closure of major facilities and continuing 
uncertainty surrounding the industry's future as a major contributor to 
our long term economic base.
    With the support of then Congressman Riggs, Congress authorized the 
Humboldt Harbor and Bay 38 foot deep draft navigation project in 
section 101 of the Water Resources Development Act of 1996 (WRDA 1996) 
(Public Law 104-303) at an estimated total construction cost of 
$15,178,000 with a required local contribution of $5,180,000 and a 
first Federal cost of $10,000,000. The project has a 1.9 to 1 favorable 
benefit cost ratio. It has no significant environmental impacts and 
enjoys the consensus support of Federal, State, regional and local 
agencies.
    In June 1998, with the support of the California Maritime 
Infrastructure Authority in the first of its kind issuance of revenue 
bonds to finance a Federal navigation project, we were able to raise 
$3.9 million matched by an additional $1.0 million in local 
redevelopment agency funds from the city of Eureka to meet our required 
local contribution to the project construction cost. Since then, we 
have been waiting for a final approved project cooperation agreement 
and commencement of construction. The Harbor District Board of 
Commissioners voted unanimously to authorize execution of the final 
agreement on March 16, 1999.
    In order to provide an additional revenue stream from which to 
service the debt incurred in meeting its financial obligations, the 
district has implemented the first of its kind harbor user fee under 
section 208 of WRDA 1986 so that vessels and cargo benefitting from the 
navigation improvements will share in the cost of providing them.
    Thanks to an accelerated final review by Secretary Westphal's 
staff, we anticipate his approval of the agreement this week with 
advertisement and contract award to follow soon in the second quarter 
this fiscal year and completion of construction on schedule next fiscal 
year.
    On behalf of the members of the commission and district, we 
appreciate those prior occasions in which we have had the opportunity 
to appear before the subcommittee and look forward to appearing before 
this subcommittee on future occasions to provide progress reports 
concerning the successful completion of this project. We are prepared 
to supplement our prepared remarks for the record in response to any 
questions that the Chair, subcommittee members or staff may wish to 
have us answer.
    Thank you Mr. Chairman and members of the subcommittee. This 
concludes my prepared remarks.
                                 ______
                                 
 Prepared Statement of E.D. Allen, Chief Harbor Engineer, Port of Long 
                                 Beach
    I am E. D. Allen, Chief Harbor Engineer for the Port of Long Beach, 
California. The Port of Long Beach is this nation's largest container 
port. I have been authorized by the Board of Harbor Commissioners of 
the City of Long Beach to represent the Port of Long Beach in regard to 
appropriations for the Los Angeles and Long Beach Harbors Model Study 
and Wave Data Collection Program; construction of the Queen's Gate 
Deepening Project as part of our on-going 2020 Plan; Los Angeles River 
maintenance dredging; Feasibility Studies for beach erosion; and 
Reconnaissance and Feasibility Studies for Contaminated Sediment 
Disposal.
    In addition to the following specific project appropriation 
requests, I am recommending the committee recognize the need for a 
standby Corps dredging capability to supplement private contractors in 
the event of emergencies.. I specifically recommend a standby dredging 
and personnel training capability be funded without a minimum dredge 
quantity per year. This will allow:
    (1) private contractors to benefit from receiving previous Corps 
annual dredging quantities and
    (2) Corps of Engineers equipment to be used in emergencies without 
a project funding appropriation.
    As a result, minor maintenance dredging could be undertaken at the 
Corps' discretion for training purposes which would provide a 
tremendous benefit to the smaller ports and harbors. Many of the needs 
of the smaller ports have not been met due to the lack of a program 
such as this.
    My more specific requests follow for listed projects.
      harbors model maintenance (civil works budget category--o&m)
    The Water Resources Development Act of 1976, Section 123, 
authorized the Chief of Engineers to operate and maintain the Los 
Angeles-Long Beach Harbor Hydraulic Model at the U.S. Army Corps of 
Engineers Waterways Experiment Station in Vicksburg, Mississippi as 
part of the Los Angeles and Long Beach Harbors Model Study. This model 
encompasses both port complexes in San Pedro Bay, which, as the third 
largest container port complex in the world, are ports of national 
strategic and defense significance. The hydraulic model, along with 
several numeric models, provide state-of-the-art methodology that can 
be used to provide operational improvements to the San Pedro Bay ports 
and many other harbor complexes. In addition, the Port, as the local 
agency, is assisting in the Corps effort to provide collection of 
continuous wave-gauge data by providing necessary support personnel and 
equipment for the maintenance of portions of the systems located at the 
Port.
    In fiscal year 1999, $165,000 was appropriated for maintenance of 
the physical model of San Pedro Bay. During this time, the Port also 
used the model to analyze necessary navigation-related modifications to 
our upcoming expansion within the Navy Basin and validate numerical 
model results. This effort is being funded by the Port and is on-going. 
It is necessary that the model remain ready for service such as this. 
Funding in fiscal year 2000, in the amount of $165,000, would continue 
annual maintenance on the model. Additionally, we are requesting 
$335,000 in continued funding for the wave gage (prototype) data 
acquisition and analysis program. The wave data gathering program is 
essential as it provides real-world information to compare to model 
performance. The wave data acquisition program began in 1987 to provide 
validation of the design of the 2020 Plan, our Master Plan for port 
expansion and navigation improvements. This program has now evolved to 
construction monitoring and model verification which needs to continue 
to confirm expected levels of impacts of the expansion plans. The 
shipping industry's increasingly larger vessel size continues to 
challenge port engineers. The need for modeling and wave gage data 
acquisition continues to be a critical tool supporting the ports 
ability to create facilities compatible with changing trade conditions 
and operations. Therefore, Congress is respectfully requested to 
appropriate $500,000 for fiscal year 2000 to perform this work.
     port of long beach deepening, queens gate (civil works budget 
                        category--construction)
    The Port of Long Beach developed a long-range master plan, referred 
to as the 2020 Plan, which demonstrates the need for deeper navigation 
channels at the Queens Gate entrance to San Pedro Bay and additional 
landfill development through the year 2020.
    Section 201(b) of the Water Resources Development Act of 1986 
authorized construction of the 2020 Plan upon recommendations of a 
feasibility report and completion of a favorable Chief of Engineers 
Report. The Chief's Report was issued July 26, 1996 and the Office of 
Management of Budget has approved the Report. The first phase of the 
Plan deepens the Long Beach Main Channel to a depth of 76 feet. This 
project is known as the Port of Long Beach Deepening. Together with the 
approach channel deepening outside the federal breakwater, the dredging 
was evaluated for Federal interest in the feasibility study because it 
permits deeper draft crude petroleum vessels to call at the Port of 
Long Beach.
    This project was funded in 1998 and 1999 and is on-going. We fully 
anticipate that the Corps will provide sufficient programmed funds to 
complete this project with no additional funding appropriations. I am 
pleased to note that the Corps specified the work in such a manner that 
we can achieve a measurable benefit from the project as each foot of 
depth is dredged.
 los angeles river maintenance dredging (civil works budget category--
                                  o&m)
    The Port of Long Beach also concurs with and supports the 
recommendation of C-MANC and the City of Long Beach to federal fund 
remedial maintenance dredging to remove accumulated flood-deposited 
silt in the mouth of the Los Angeles River. During the storms of 1995, 
flood-deposited silt closed the mouth of the Los Angeles River to 
navigation. This restricted regularly scheduled water route 
transportation between the cities of Long Beach and Avalon, creating an 
economic emergency. Reacting to this, the U. S. Army Corps of Engineers 
removed 300,000 cubic yards from the channel which allowed for minimal 
resumption of navigation.
    On a yearly basis substantial quantities of silt remain in the 
channel. These silt deposits create the likelihood of future serious 
restrictions and safety hazards to commercial and recreational boating 
activity in, and adjacent to, the Long Beach Harbor District and the 
associated businesses in Long Beach. Such restrictions and hazards have 
resulted in accidents and litigation.
    The Port supports the City in recommending that these silt deposits 
be removed on an annual basis as a scheduled work item. In the draft of 
``Project Plan for Los Angeles River Estuary Maintenance Dredging, Long 
Beach, CA, October 1994'' (Draft Project Plan-1994), the Corps of 
Engineers estimated an average annual deposit of silt in the estuary of 
485,000 cubic yards. The rate of such deposits is influenced by 
operational decisions at the Corps of Engineers' dams located at the 
headwaters of the river. It is imperative for our current operations, 
that a long range remedy be found for the Los Angeles River mouth, if 
navigational utility and effective flood control capability is to be 
maintained.
    It is estimated by the Corps of Engineers, that maintenance 
dredging of the channel to a minimum usable width requires removal of 
approximately 185,000 cubic yards at an annual cost of over $2,000,000. 
Congress is requested therefore, to appropriate $2,000,000 for annual 
silt removal. This work is included in the line item known as Los 
Angeles Long Beach Harbors in the Civil Works Budget. Please note, if 
there was a standby/training budget for Corps dredges that I earlier 
proposed, it is possible that this type of work could be more easily 
scheduled at Corps' discretion rather than via emergency provisions.
 contaminated sediment disposal (civil works budget category--general 
                            investigations)
    The Contaminated Sediment Task Force, of which the Los Angeles 
District of the US Army Corps of Engineers is a key member, is charged 
with investigating the major issues involved in formulating and 
implementing a regional contaminated sediment management strategy 
including four major issues:
    1. Upland Disposal.--Blending of contaminated sediments with clean 
sediment to make structural fill as a promising disposal option. 
However, there is no quantitative data on proportions, handling 
methods, and desired end products that would support management 
decisions on disposal/reuse options. There is great need to undertake a 
pilot handling project to collect that information.
    2. Screening Guidelines.--Quantitative sediment chemistry 
guidelines are required to screen sediments for aquatic disposal and 
necessitate gathering historical regional data on sediment chemistry, 
toxicity, and bio-accumulation to be analyzed for region-specific 
relationships between sediment chemistry and toxicity.
    3. Watershed Management.--Control of future contamination via land 
runoff as a key management issue. Field and modeling study of sediment 
and contaminant transport in the Los Angeles region are required both 
to build on existing watershed efforts and to acquire specific data on 
the movement of contaminants into harbors.
    4. Aquatic Disposal.--A regional confined aquatic disposal facility 
is a promising management tool which provides a multi-user site active 
over a period of many years. The approach requires an engineering 
feasibility study of such issues as: quantifying the containment 
disposal capability, the interface chemistry between sediments of 
multiple users, and determining best management practices.
    The program would be managed by the Los Angeles District and 
requires $400,000 in Federal funding; substantial additional funding 
would come from State and local sources. Congress is therefore 
requested to appropriate $400,000 in fiscal year 2000 to support the 
Contaminated Sediment Task Force in their effort to initiate a Regional 
Contaminated Sediment Disposal Planning Study.
 feasibility study beach erosion (civil works budget category--general 
                            investigations)
    The Port of Long Beach also supports C-MANC and the City of Long 
Beach on their request for federal funding to initiate a Corps of 
Engineers feasibility study on beach erosion. This beach erosion 
problem is directly related to the focusing affect the federal 
breakwater has on our large commercial harbor complex and surrounding 
beaches. In southeastern Long Beach, east of the Port's land and 
channels, and directly opposite the federal breakwater, a beach and 
seawall protects approximately $200,000,000 worth of homes based on the 
1990 US census. We expect the current home value to be significantly 
higher. Steady erosion has reduced the beach from an optimum of 175 
feet to 50 feet prior to City's efforts in late 1994 to rebuild the 
beach. Winter storms continue to reduce the beach width.
    The City has also experienced erosion in the west beach area. 
Although homes are not endangered, public improvements, including 
lifeguard stations, public restrooms, a bicycle and pedestrian trail, 
and a parking lot, are at risk. The cause of the new problem is 
unclear, indicating the need for a thorough study of the beach erosion 
problem inside the federal breakwater.
    The primary method of protecting the homes has been annual 
rebuilding of sand berms during high tides or expected storms. The City 
has invested over $5,500,000 in capital improvement projects, annual 
beach rebuilding, and storm protection to control the beach erosion 
over the past 17 years. Despite this effort, in 1989 and 1993, storm 
waves eroded the beach and breached the protective seawall, causing 
damage to homes. The City is also defending itself against a lawsuit by 
one of the homeowners who is claiming that the City failed to halt 
erosion that narrowed the beaches in front of his home to less than the 
desired width adopted in the 1980 Local Coastal Plan.
    In fiscal year 1997, $252,000 was appropriated to complete the 
reconnaissance study of the beach erosion problem within the City of 
Long Beach. It is now requested that Congress appropriate $500,000 in 
fiscal year 2000 to initiate the feasibility study.
    Attached hereto is a Resolution to be adopted by the Board of 
Harbor Commissioners of the City of Long Beach on March 22, 1998, which 
contains data relating to the background of the Los Angeles and Long 
Beach Harbors Model Study, the 2020 Plan implementation, the Los 
Angeles River dredging, the Contaminated Sediment Task Force, the beach 
erosion problem in Long Beach, and other related navigation and 
economic matters. The resolution stresses the need for federal 
assistance in developing economic, technical and environmental 
background information essential to the design and permitting of Port 
facilities vital to regional and national interests. The Port of Long 
Beach is the largest container port in the United States and is the 
economic engine bringing $3.7 billion in customs receipts from both Los 
Angeles and Long Beach ports and jobs for 500,000 people. We are truly 
a port and harbor of national significance.
    We kindly ask that Congress continue its support of these projects 
in fiscal year 2000 by appropriating the requested funds.
    Thank you for permitting me the privilege of this testimony.
                         Resolution No. HD-1958
    A resolution of the Board of Harbor Commissioners of the city of 
Long Beach, California, requesting the Congress of the United States to 
appropriate funds to the United States Army Corps of Engineers in order 
to continue planning, engineering and design for the San Pedro Bay 2020 
Plan, to continue the Los Angeles and Long Beach Harbors model study 
relating to improvements in San Pedro Bay, to conduct maintenance 
dredging at the mouth of the Los Angeles River, to conduct feasibility 
studies of beach erosion, and to develop a regional contaminated 
sediment management strategy
    WHEREAS, the Ports of Long Beach and Los Angeles in San Pedro Bay, 
California, are two of a limited number of sites on the West Coast of 
the United States which possess the potential for deep water port 
facilities as recommended in the West Coast Deep Water Port Facility 
Study conducted by the United States Army Corps of Engineers; and 
WHEREAS, the Ports of Long Beach and Los Angeles have a record of both 
physical and fiscal growth to the extent that together the two ports 
are presently handling over 185.9 million metric revenue tons including 
7.23 million twenty-foot equivalent units of container cargo annually 
(fiscal year 1998), and the international cargo handled is valued at 
over $159 billion annually (calendar year 1997); and
    WHEREAS, the growth and activity of the Ports of Long Beach and Los 
Angeles have a significant regional and national economic effect; and
    WHEREAS, in 1998 the Los Angeles Customs District remained the 
Nation's top entry and exit point for international cargo, valued at 
over $181 billion, generating approximately $3.7 billion in Federal 
revenues collected as United States Customs duties, approximately 85 
percent of which is generated by the Long Beach and Los Angeles Ports; 
and
    WHEREAS, both Ports are now, and are increasingly becoming, hard-
pressed to provide facilities to meet the needs of the shipping 
industry, and to that end are conducting extensive studies, in 
conjunction with federal studies, to determine navigational, 
transportation, and environmental requirements necessary to provide 
economic and adequate surge-free berthing and cargo handling 
facilities; and
    WHEREAS, all existing land in the Port of Long Beach which can be 
developed for shipping operations has been utilized or is in the 
process of being developed and, in order to meet the needs of the 
following decade, the design, permitting and construction of new lands 
must continue; and
    WHEREAS, continuation of the studies currently underway by the 
United States Army Corps of Engineers, consisting of the Los Angeles 
and Long Beach Harbors Model Study, including maintenance and operation 
of the San Pedro Bay Hydraulic Model at Vicksburg, Mississippi, as 
authorized by Section 123 of the Water Resources Development Act of 
1976, is needed for use in the design and permitting processes for 
future landfills for port development; and
    WHEREAS, the Port of Long Beach handled over 27 million metric tons 
of liquid bulk cargo (fiscal year 1998). Because of economies of scale, 
liquid bulk cargo brought in by deeper draft vessels will have lower 
transportation costs and environmental benefits in the form of less 
vessel traffic. However, the existing navigation channel depths leading 
to the Port limit the size of calling vessels until such time as the 
Long Beach Deepening Project is complete; and
    WHEREAS, the Los Angeles River is the largest of numerous flood-
control channels constructed and maintained jointly by the Los Angeles 
County Flood Control District and the United States Army Corps of 
Engineers, and silt deposit from storm runoff accumulating in the mouth 
of the Los Angeles River in the City of Long Beach constitutes a 
restriction and hazard to both commercial and recreational boating; and
    WHEREAS, the Southern California region has a significant volume of 
contaminated sediments from area runoff and other activities and the 
Los Angeles District of the US Army Corps of Engineers is a key member 
of a Task Force charged with the investigation of major issues involved 
in formulating and implementing a regional contaminated sediment 
management strategy; and
    WHEREAS, the Board of Harbor Commissioners of the City of Long 
Beach, as a properly constituted and financially responsible local 
agency, by its Resolution No. HD-890, adopted August 3, 1965, expressed 
its intent to enter into such agreements as may be reasonably required 
to further federal projects for the development and improvement of Long 
Beach and Los Angeles Harbors; and
    WHEREAS, at southeastern Long Beach in front of Alamitos Bay a 
beach and seawall protects $200 million worth of homes (1990 US census 
data). The primary method of protecting the homes has been annual beach 
rebuilding and sand berms during storms. Steady erosion has reduced the 
beach from optimum width of 175 feet to 50 feet and continues to reduce 
beach width despite rebuilding efforts in 1994. The City has invested 
over $5.5 million in capital improvement projects, annual beach 
rebuilding, and storm protection to control the beach erosion over the 
past 17 years. Despite this effort, in 1989 and 1993, storm waves 
eroded the beach and breached the protective seawall causing damage to 
homes.
    NOW, THEREFORE, the Board of Harbor Commissioners of the City of 
Long Beach resolves as follows:
    Section 1. That the Congress of the United States be, and is 
hereby, respectfully requested to appropriate simultaneously the funds 
necessary for the Chief of Engineers, United States Army Corps of 
Engineers, to maintain the San Pedro Bay Hydraulic Model at the 
Waterways Experiment Station at Vicksburg, Mississippi, as part of the 
Los Angeles and Long Beach Harbors Model Study.
    Sec. 2. That the Congress of the United States be, and is hereby, 
respectfully requested to appropriate simultaneously the funds 
necessary for the Chief of Engineers, United States Army Corps of 
Engineers, to continue the existing wave gauge (prototype) data 
acquisition and analysis program.
    Sec. 3. That the Congress of the United States be, and is hereby, 
respectfully requested to support the Chief of Engineers, United States 
Army Corps of Engineers, to complete construction of dredging deeper 
navigation channels to the Port of Long Beach to the full project 
depth.
    Sec. 4. That the Congress of the United States be, and is hereby, 
respectfully requested to appropriate simultaneously the funds 
necessary for the Chief of Engineers, United States Army Corps of 
Engineers, in conjunction with the Los Angeles County Flood Control 
District, to engage in the necessary maintenance dredging at the mouth 
of the Los Angeles River to remove silt deposits which have accumulated 
at that location.
    Sec. 5. That the Congress of the United States be, and is hereby, 
respectfully requested to appropriate simultaneously the funds 
necessary for the Chief of Engineers, United States Army Corps of 
Engineers, to complete feasibility studies to develop protective 
measures to prevent beach erosion within the City of Long Beach.
    Sec. 6. That the Congress of the United States be, and is hereby, 
respectfully requested to appropriate simultaneously the funds 
necessary for the Chief of Engineers, United States Army Corps of 
Engineers, to complete feasibility studies to develop and implement a 
regional contaminated sediment management strategy for Southern 
California.
    Sec. 7. That the Executive Director of the Long Beach Harbor 
Department be, and he is hereby, directed to send copies of this 
resolution to the United States Senators and to Members of the House of 
Representatives from California, with a letter requesting their 
assistance in presenting this resolution before the proper 
Congressional committees.
    Sec. 8. That the Executive Director of the Long Beach Harbor 
Department be, and he is hereby, further directed to send copies of 
this resolution to the President of the United States; the Director, 
Office of Management and Budget; the Secretary of the Army; the Chief 
of Engineers, the Director, Directorate of Civil Works, the Division 
Engineer-South Pacific Division and the District Engineer-Los Angeles, 
all of the United States Army Corps of Engineers; and to such other 
interested persons as he may deem appropriate.
    The Secretary of the Board shall certify to the passage of this 
resolution by the Board of Harbor Commissioners of the City of Long 
Beach, shall cause the same to be posted in three (3) conspicuous 
places in the City of Long Beach, and shall cause a certified copy of 
this resolution to be filed forthwith with the City Clerk of the City 
of Long Beach and it shall thereupon take effect.
                                 ______
                                 
Prepared Statement of John Bridley, Waterfront Director, City of Santa 
                          Barbara, California
                  operations and maintenance dredging
    As your distinguished Subcommittee writes the fiscal year 2000 
Energy and Water Resources Appropriations Bill, I would like to bring a 
very important Corps of Engineers project to your attention.
    About 400,000 cubic yards of sand piles up every winter at Santa 
Barbara Harbor, and in years of severe storms, the accumulated sand can 
close the channel bringing local fishing and other businesses in the 
Harbor to a standstill.
    There is an important Federal interest in maintaining dredging at 
the Harbor. It provides slips and moorings for over 1,100 commercial, 
emergency and recreational boats. It is also an important part of Coast 
Guard operations on California's central coast.
    The President's fiscal year 2000 Budget Request includes $1,646,000 
for operations and maintenance for Santa Barbara Harbor. I respectfully 
request that the U.S. Senate, through your Subcommittee, maintain that 
level of funding.
              new construction project--dredge acquisition
    The President's fiscal year 2000 Budget recommendation also 
includes project funding for a potential new construction project in 
Santa Barbara. The City of Santa Barbara and the Corps of Engineers 
have pursued a proposal to design and construct a dredge for annual 
operation and maintenance dredging of our Harbor. Under this proposal, 
the City of Santa Barbara would contribute 20 percent funding 
(approximately $1.6 million) with the Corps of Engineers funding 
$4,960,000 for the acquisition of the dredge. The City would then take 
over the annual costs to operate the dredge, which are estimated to be 
$750,000-$1 million.
    Unfortunately, the recommendation to proceed with funding of this 
project cannot come at a worse time for the City. During the past year, 
the City suffered severe damage from El Nino storms causing over $1 
million in damage to the Harbor and Stearns Wharf. In November 1998, 
Stearns Wharf was hit with a catastrophic fire causing over $10 million 
in damage destroying a portion of the wharf and closing five 
businesses. The financial impacts of these natural disasters have 
severely impacted the City's ability to proceed with the dredge 
procurement and operations at this time.
    Although the City remains interested and committed to the dredge 
acquisition in the future, due to the financial hardships of the fire 
and winter storms last year, I respectfully request that the U. S. 
Senate through your Subcommittee defer funding of this project.
    Thank you for the opportunity to submit this statement.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Akin, Richard, Supervisor, County of Sutter, California, prepared 
  statement......................................................   598
Alabama Electric Cooperative, Inc., prepared statement...........   622
Allen, E.D., Chief Harbor Engineer, Port of Long Beach, prepared 
  statement......................................................   861
Allen, W. Ron, President, National Congress of American Indians, 
  prepared statement.............................................   603
American Chemical Society, prepared statement....................   821
American Farm Bureau Federation, prepared statement..............   600
American Public Power Association, prepared statement............   843
American Society for Microbiology, prepared statement............   790
American Society of Mechanical Engineers, prepared statement.....   827
Anderson, James S., President, Blue Valley Association, prepared 
  statement......................................................   727
Anderson, Mayor Rodger, City of Morro Bay, prepared statement....   856
Arkansas River Basin Interstate Committee, prepared statement....   701
Armstrong, Michael D., General Manager, Monterey County Water 
  Resources Agency (MCWRA), prepared statement...................   585
Arveschoug, Steve, District General Manager, Southeastern 
  Colorado Water Conservancy District, prepared statement........   704
Association of State Dam Safety Officials, prepared statement....   609
Audrey J. LaPlace, President, Board of Commissioners, 
  Pontchartrain Levee District, Lutcher, LA, prepared statement..   681

Baldwin, Dr. David E., Senior Vice President, General Atomics, et 
  al., prepared statement........................................   799
Ballard, Lt. Gen. Joe N., Chief of Engineers, Corps of 
  Engineers--Civil, Department of the Army, Department of 
  Defense--Civil.................................................    63
    Prepared statement...........................................    82
    Statement of.................................................    79
Barnett, Jack A., Executive Director, Colorado River Basin 
  Salinity Control Forum, prepared statement.....................   766
Barrett, Lake H., Acting Director, Office of Civilian Radioactive 
  Waste Management, Environmental Management and Civilian Waste 
  Management Programs, Department of Energy......................   269
    Prepared statement...........................................   297
    Statement of.................................................   294
Beachem, Philip, Chairman, New Jersey Maritime Advisory Council, 
  letter from....................................................   612
Beier, Keith E., Mayor Pro Tem, City of Escondido, California, 
  prepared statement.............................................   556
Belza, Tib, Chairman, Yuba County Water Agency, prepared 
  statement......................................................   567
Beneke, Patricia, Assistant Secretary of the Interior, Water and 
  Science, Bureau of Reclamation, Department of the Interior.....     1
    Prepared statement...........................................     5
    Statement of.................................................     3
Bennett, Hon. Robert F., U.S. Senator from Utah:
    Questions submitted by.......................................   168
    Statement of.................................................    15
Biggs, Otha Lee, Judge of Probate & President, Monroe County 
  Commission, Monroeville, AL, prepared statement................   637
Blum, Carl L., Deputy Director, Department of Public Works, Los 
  Angeles County, California, prepared statement.................   579
Bollinger, Donald T., Chairman, Louisiana Governor's Task Force 
  on Maritime Industry, prepared statement.......................   656
Borrone, Lillian C., Director, Port Commerce Department of the 
  Port Authority of New York & New Jersey, prepared statement....   615
Boyd, Bernadine, President, Fort McDowell Tribal Council, Fort 
  McDowell Indian Community, prepared statement..................   761
Brakken, William A., Community Liaison/Central Oregon Team 
  Leader, Northwest Area Foundation, prepared statement..........   778
Bransford, Donald, President, Glenn-Colusa Irrigation District, 
  prepared statement,............................................   547
Brescia, Christopher J., President, Midwest Area River Coalition 
  2000, prepared statement.......................................   713
Bridley, John, Waterfront Director, City of Santa Barbara, 
  California, prepared statement.................................   865
Brinson, J. Ron, President and Chief Executive Officer, Port of 
  New Orleans, New Orleans, LA, prepared statement...............   667
Brown, Lynne P., Ph.D., Associate Vice President for Government 
  and Community Relations, Center for Cognition, Learning, 
  Emotion and Memory, New York University, prepared statement....   802
Burns, Hon. Conrad, U.S. Senator from Montana:
    Questions submitted by 

631____________________________________________________________________

Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar Energy 
Industries Association (SEIA), prepared statement

832____________________________________________________________________

Jollivette, Cyrus M., Vice President for Government Relations, University 
of Miami, prepared statement

644____________________________________________________________________

Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from

638____________________________________________________________________

Joseph, William F., Jr., Chairman, Montgomery County Commission, 
Montgomery, AL, prepared statement

637____________________________________________________________________

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas Municipal Water 
District, prepared statement

581____________________________________________________________________

Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement

744____________________________________________________________________

King, T. Keith, P.E., President and CEO, David Volkert & Associates, Inc., 
Mobile, AL, prepared statement

631____________________________________________________________________

Klass, Dr. Donald L., President, Biomass Energy Research Association, 
prepared statement

833____________________________________________________________________

Knabe, Don, Chairman of the Board, Supervisor<bullet><SUP><INF>n and Sales, 
U.S. Steel, Pittsburgh, PA, prepared statement

631____________________________________________________________________

Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar Energy 
Industries Association (SEIA), prepared statement

832____________________________________________________________________

Jollivette, Cyrus M., Vice President for Government Relations, University 
of Miami, prepared statement

644____________________________________________________________________

Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from

638____________________________________________________________________

Joseph, William F., Jr., Chairman, Montgomery County Commission, 
Montgomery, AL, prepared statement

637____________________________________________________________________

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas Municipal Water 
District, prepared statement

581____________________________________________________________________

Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement

744____________________________________________________________________

King, T. Keith, P.E., President and CEO, David Volkert & Associates, Inc., 
Mobile, AL, prepared statement

631____________________________________________________________________

Klass, Dr. Donald L., President, Biomass Energy Research Association, 
prepared statement

833____________________________________________________________________

Knabe, Don, Chairman of the Board, Supervisor<bullet><SUP>repared statement

614____________________________________________________________________

Jansen, Keith H., Director, Raw Materials Planning Procurement Distribution 
and Sales, U.S. Steel, Pittsburgh, PA, prepared statement

631____________________________________________________________________

Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar Energy 
Industries Association (SEIA), prepared statement

832____________________________________________________________________

Jollivette, Cyrus M., Vice President for Government Relations, University 
of Miami, prepared statement

644____________________________________________________________________

Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from

638____________________________________________________________________

Joseph, William F., Jr., Chairman, Montgomery County Commission, 
Montgomery, AL, prepared statement

637____________________________________________________________________

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas Municipal Water 
District, prepared statement

581____________________________________________________________________

Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement

744____________________________________________________________________

King, T. Keith, P.E., President and CEO, David Volkert & Associates, Inc., 
Mobile, AL, prepared statement

631____________________________________________________________________

Klass, Dr. Donald L., President, Biomass Energy Research Association, 
prepared statement

833____________________________________________________________________

Knabe, Don, Chairman of the Board, Supervisor<bullet>ional Water Pollution 
Control Agency (MRWPCA), prepared statement

587____________________________________________________________________

James, Hon. Sharpe, Mayor, City of Newark, New Jersey, prepared statement

614____________________________________________________________________

Jansen, Keith H., Director, Raw Materials Planning Procurement Distribution 
and Sales, U.S. Steel, Pittsburgh, PA, prepared statement

631____________________________________________________________________

Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar Energy 
Industries Association (SEIA), prepared statement

832____________________________________________________________________

Jollivette, Cyrus M., Vice President for Government Relations, University 
of Miami, prepared statement

644____________________________________________________________________

Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from

638____________________________________________________________________

Joseph, William F., Jr., Chairman, Montgomery County Commission, 
Montgomery, AL, prepared statement

637____________________________________________________________________

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas Municipal Water 
District, prepared statement

581____________________________________________________________________

Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement

744____________________________________________________________________

King, T. Keith, P.E., President and CEO, David Volkert & Associates, Inc., 
Mobile, AL, prepared statement

631____________________________________________________________________

Klass, Dr. Donald L., President, Biomass Energy Research Association, 
prepared statement

833____________________________________________________________________

Knabe, Don, Chairman of the Board, Supervisor<bullet><SUP><INF>, Raw 
Materials Planning Procurement Distribution and Sales, U.S. Steel, 
Pittsburgh, PA, prepared statement

631____________________________________________________________________

Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar Energy 
Industries Association (SEIA), prepared statement

832____________________________________________________________________

Jollivette, Cyrus M., Vice President for Government Relations, University 
of Miami, prepared statement

644____________________________________________________________________

Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from

638____________________________________________________________________

Joseph, William F., Jr., Chairman, Montgomery County Commission, 
Montgomery, AL, prepared statement

637____________________________________________________________________

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas Municipal Water 
District, prepared statement

581____________________________________________________________________

Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement

744____________________________________________________________________

King, T. Keith, P.E., President and CEO, David Volkert & Associates, Inc., 
Mobile, AL, prepared statement

631____________________________________________________________________

Klass, Dr. Donald L., President, Biomass Energy Research Association, 
prepared statement

833____________________________________________________________________

Knabe, Don, Chairman of the Board, Supervisor<bullet><SUP><INF>d statement

631____________________________________________________________________

Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar Energy 
Industries Association (SEIA), prepared statement

832____________________________________________________________________

Jollivette, Cyrus M., Vice President for Government Relations, University 
of Miami, prepared statement

644____________________________________________________________________

Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from

638____________________________________________________________________

Joseph, William F., Jr., Chairman, Montgomery County Commission, 
Montgomery, AL, prepared statement

637____________________________________________________________________

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas Municipal Water 
District, prepared statement

581____________________________________________________________________

Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement

744____________________________________________________________________

King, T. Keith, P.E., President and CEO, David Volkert & Associates, Inc., 
Mobile, AL, prepared statement

631____________________________________________________________________

Klass, Dr. Donald L., President, Biomass Energy Research Association, 
prepared statement

833____________________________________________________________________

Knabe, Don, Chairman of the Board, Supervisor<bullet><INF>ith H., Director, 
Raw Materials Planning Procurement Distribution and Sales, U.S. Steel, 
Pittsburgh, PA, prepared statement

631____________________________________________________________________

Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar Energy 
Industries Association (SEIA), prepared statement

832____________________________________________________________________

Jollivette, Cyrus M., Vice President for Government Relations, University 
of Miami, prepared statement

644____________________________________________________________________

Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from

638____________________________________________________________________

Joseph, William F., Jr., Chairman, Montgomery County Commission, 
Montgomery, AL, prepared statement

637____________________________________________________________________

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas Municipal Water 
District, prepared statement

581____________________________________________________________________

Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement

744____________________________________________________________________

King, T. Keith, P.E., President and CEO, David Volkert & Associates, Inc., 
Mobile, AL, prepared statement

631____________________________________________________________________

Klass, Dr. Donald L., President, Biomass Energy Research Association, 
prepared statement

833____________________________________________________________________

Knabe, Don, Chairman of the Board, Supervisor<bullet><SUP>repared statement

614____________________________________________________________________

Jansen, Keith H., Director, Raw Materials Planning Procurement Distribution 
and Sales, U.S. Steel, Pittsburgh, PA, prepared statement

631____________________________________________________________________

Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar Energy 
Industries Association (SEIA), prepared statement

832____________________________________________________________________

Jollivette, Cyrus M., Vice President for Government Relations, University 
of Miami, prepared statement

644____________________________________________________________________

Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from

638____________________________________________________________________

Joseph, William F., Jr., Chairman, Montgomery County Commission, 
Montgomery, AL, prepared statement

637____________________________________________________________________

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas Municipal Water 
District, prepared statement

581____________________________________________________________________

Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement

744____________________________________________________________________

King, T. Keith, P.E., President and CEO, David Volkert & Associates, Inc., 
Mobile, AL, prepared statement

631____________________________________________________________________

Klass, Dr. Donald L., President, Biomass Energy Research Association, 
prepared statement

833____________________________________________________________________

Knabe, Don, Chairman of the Board, Supervisor<bullet>ional Water Pollution 
Control Agency (MRWPCA), prepared statement

587____________________________________________________________________

James, Hon. Sharpe, Mayor, City of Newark, New Jersey, prepared statement

614____________________________________________________________________

Jansen, Keith H., Director, Raw Materials Planning Procurement Distribution 
and Sales, U.S. Steel, Pittsburgh, PA, prepared statement

631____________________________________________________________________

Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar Energy 
Industries Association (SEIA), prepared statement

832____________________________________________________________________

Jollivette, Cyrus M., Vice President for Government Relations, University 
of Miami, prepared statement

644____________________________________________________________________

Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from

638____________________________________________________________________

Joseph, William F., Jr., Chairman, Montgomery County Commission, 
Montgomery, AL, prepared statement

637____________________________________________________________________

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas Municipal Water 
District, prepared statement

581____________________________________________________________________

Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement

744____________________________________________________________________

King, T. Keith, P.E., President and CEO, David Volkert & Associates, Inc., 
Mobile, AL, prepared statement

631____________________________________________________________________

Klass, Dr. Donald L., President, Biomass Energy Research Association, 
prepared statement

833____________________________________________________________________

Knabe, Don, Chairman of the Board, Supervisor<bullet><SUP><INF>n and Sales, 
U.S. Steel, Pittsburgh, PA, prepared statement

631____________________________________________________________________

Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar Energy 
Industries Association (SEIA), prepared statement

832____________________________________________________________________

Jollivette, Cyrus M., Vice President for Government Relations, University 
of Miami, prepared statement

644____________________________________________________________________

Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from

638____________________________________________________________________

Joseph, William F., Jr., Chairman, Montgomery County Commission, 
Montgomery, AL, prepared statement

637____________________________________________________________________

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas Municipal Water 
District, prepared statement

581____________________________________________________________________

Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement

744____________________________________________________________________

King, T. Keith, P.E., President and CEO, David Volkert & Associates, Inc., 
Mobile, AL, prepared statement

631____________________________________________________________________

Klass, Dr. Donald L., President, Biomass Energy Research Association, 
prepared statement

833____________________________________________________________________

Knabe, Don, Chairman of the Board, Supervisor<bullet>

Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar Energy 
Industries Association (SEIA), prepared statement

832____________________________________________________________________

Jollivette, Cyrus M., Vice President for Government Relations, University 
of Miami, prepared statement

644____________________________________________________________________

Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from

638____________________________________________________________________

Joseph, William F., Jr., Chairman, Montgomery County Commission, 
Montgomery, AL, prepared statement

637____________________________________________________________________

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas Municipal Water 
District, prepared statement

581____________________________________________________________________

Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement

744____________________________________________________________________

King, T. Keith, P.E., President and CEO, David Volkert & Associates, Inc., 
Mobile, AL, prepared statement

631____________________________________________________________________

Klass, Dr. Donald L., President, Biomass Energy Research Association, 
prepared statement

833____________________________________________________________________

Knabe, Don, Chairman of the Board, Supervisor<bullet><SUP><INF>d statement

631____________________________________________________________________

Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar Energy 
Industries Association (SEIA), prepared statement

832____________________________________________________________________

Jollivette, Cyrus M., Vice President for Government Relations, University 
of Miami, prepared statement

644____________________________________________________________________

Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from

638____________________________________________________________________

Joseph, William F., Jr., Chairman, Montgomery County Commission, 
Montgomery, AL, prepared statement

637____________________________________________________________________

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas Municipal Water 
District, prepared statement

581____________________________________________________________________

Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement

744____________________________________________________________________

King, T. Keith, P.E., President and CEO, David Volkert & Associates, Inc., 
Mobile, AL, prepared statement

631____________________________________________________________________

Klass, Dr. Donald L., President, Biomass Energy Research Association, 
prepared statement

833____________________________________________________________________

Knabe, Don, Chairman of the Board, Supervisor<bullet>

    Statement of.................................................    29
Business Council For Sustainable Energy, prepared statement......   817
Byrd, Hon. Robert C., U.S. Senator from West Virginia, questions 
  submitted by...................................................   178
Byrnes, Robert J., Mayor, City of Marshall, MN, prepared 
  statement......................................................   738

Caddo/Bossier Port Commission, Shreveport, LA, prepared statement   698
Campbell, Joseph L., President, Board of Directors, Contra Costa 
  Water District, prepared statement,............................   546
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
  statement of...................................................   270
Castro, Richard, Chairman, El Paso Water Utilities Public Service 
  Board, prepared statement......................................   748
Cherokee Canal, Sediment Removal and Streambed Alteration 
  Project, Butte County, prepared statement,.....................   568
City of Gridley, CA, prepared statement..........................   838
City of Miami Beach, Florida, prepared statement.................   649
City of Stockton, California, prepared statement.................   574
Clemens, Ralph O., Jr., President, Coosa-Alabama River 
  Improvement Association, Inc., prepared statement..............   634
Coachella Valley Water District, prepared statement..............   549
Cochran, Hon. Thad, U.S. Senator from Mississippi, questions 
  submitted by.................................................165, 381
Colvin, Joe F., President and Chief Executive Officer, Nuclear 
  Energy Institute, prepared statement...........................   814
Corbett, Kevin S., Executive Director, Port Authority Affairs, 
  State of New York, Empire State Development Corporation, 
  prepared statement.............................................   615
County of San Joaquin and the San Joaquin County Flood Control 
  and Water Conservation District, California, prepared statement   557
Craig, Hon. Larry, U.S. Senator from Utah, questions sub, 173, 265, 501
Curry, Darrel G., Vice President, Missouri River Bank 
  Stabilization Association, prepared statement..................   728

DeCosmo, James M., Manager of Lands, Research and Procurement, 
  Southeast Timberlands, Kimberly-Clark, Mobile, AL, prepared 
  statement......................................................   626
Delesdernier, Capt. Mark, Jr., President, Crescent River Port 
  Pilots' Association, Belle Chasse, LA, prepared statement......   670
Department of Water and Power, City of Los Angeles, prepared 
  statement......................................................   568
DiGiorgio, Michael, Mayor, City of Novato, California, prepared 
  statement......................................................   589
Domenici, Hon. Pete V., U.S. Senator from New Mexico:
    Opening statement............................................   383
    Questions submitted by............................35, 117, 246, 337
Dorgan, Hon. Byron L., U.S. Senator from North Dakota:
    Questions submitted by..................................., 190, 521
    Statement of.................................................   387
Dry Prairie Rural Water, prepared statement......................   785
Duffy, George E., President, Navios Ship Agencies, Inc., Mobile, 
  AL, prepared statement.........................................   627

Evans, Mayor Donna, City of West Jordan, Utah, prepared statement   783

Farris, Chester A., III, Chairman, Photovoltaics Division, Solar 
  Energy Industries Association (SEIA), prepared statement.......   830
Felty, Billy J., Chief Engineer, St. Francis Levee District of 
  Arkansas, prepared statement...................................   677
Fort Peck Assiniboine and Sioux, prepared statement..............   785
Foss, Brian E., Port Director, Santa Cruz Port District 
  Commission, prepared statement.................................   859
Foster, Gov. M.J., Jr., on Behalf of the Louisiana Department of 
  Transportation and Development, Office of Public Works and 
  Intermodal Transportation, prepared statement..................   671
Fraser, Gale Wm., II, P.E., General Manager/Chief Engineer, Clark 
  County Regional Flood Control District, prepared statement.....   755
Fuhrman, Maj. Gen. Russell L., Director of Civil Works, Corps of 
  Engineers--Civil, Department of the Army, Department of 
  Defense--Civil.................................................    63
Futter, Dr. Ellen, President, American Museum of Natural History, 
  prepared statement.............................................   793

George, Bruce, Manager, Kaweah Delta Water Conservation District, 
  prepared statement.............................................   588
George, Merv, Jr., Chairman, Hoopa Valley Tribe, prepared 
  statement......................................................   775
Geringer, Hon. Jim, Governor, State of Wyoming, prepared 
  statement......................................................   788
Gieringer, Wallace A., Chairman for Arkansas, Arkansas River 
  Basin Interstate Committee, prepared statement.................   702
Gottemoeller, Rose E., Director, Office of Nonproliferation and 
  National Security, Atomic Energy Defense and Nonproliferation 
  Programs, Department of Energy.................................   193
    Prepared statement...........................................   210
    Statement of.................................................   207
Gravois, Aubrey, President, Board of Commissioners, Lafourche 
  Basin Levee District, Vacherie, LA, prepared statement.........   676
Green, Peter, Mayor, City of Huntington Beach, California, 
  prepared statement.............................................   857

Haak, Norman, Chairman, Garrison Diversion Conservancy District, 
  prepared statement.............................................   729
Haun, Charles A., Executive Vice President, Parker Towing 
  Company, Inc., Tuscaloosa, AL, prepared statement..............   628
Hayden, Channing F., Jr., President, Steamship Association of 
  Louisiana, prepared statement..................................   663
Henderson, Ed, Chairman, Napa County Flood Control and Water 
  Conservation District, prepared statement......................   570
Henry, Allen, President, Henry Marine Service, Inc., Spanish 
  Fort, Alabama, prepared statement..............................   625
Hewgley, James M., Jr., Chairman for Oklahoma Arkansas River 
  Basin Interstate Committee, prepared statement.................   709
Hodges, James H., Governor, State of South Carolina, Columbia, 
  SC, prepared statement.........................................   642
Hodges, William D., President, Board of Directors, Trinity River 
  Authority of Texas, prepared statement.........................   748
Holgate, Laura S.H., Director, Office of Fissile Materials 
  Disposition, Atomic Energy Defense and Nonproliferation 
  Programs, Department of Energy.................................   193
    Prepared statement...........................................   217
    Statement of.................................................   214
Holland, Lisa S., Chair, Association of State Floodplain 
  Managers, Inc., prepared statement.............................   611
Hollingsworth, Tom, Mayor, City of Rancho Palos Verdes, 
  California, prepared statement.................................   598
Holman, Gerald H., Chairman for Kansas, Arkansas River Basin 
  Interstate Committee, prepared statement.......................   706
Hunter, Dr. Sam M., President, Little River Drainage District, 
  prepared statement.............................................   725

Israel, Keith, General Manager, Monterey Regional Water Pollution 
  Control Agency (MRWPCA), prepared statement....................   587

James, Hon. Sharpe, Mayor, City of Newark, New Jersey, prepared 
  statement......................................................   614
Jansen, Keith H., Director, Raw Materials Planning Procurement 
  Distribution and Sales, U.S. Steel, Pittsburgh, PA, prepared 
  statement......................................................   631
Johansson, Lennart, Chairman, Solar Thermalpower Division, Solar 
  Energy Industries Association (SEIA), prepared statement.......   832
Jollivette, Cyrus M., Vice President for Government Relations, 
  University of Miami, prepared statement........................   644
Jordan, James T., Director, J.T. Jordan Cotton, Inc., letter from   638
Joseph, William F., Jr., Chairman, Montgomery County Commission, 
  Montgomery, AL, prepared statement.............................   637

Kendall, Donald R., Ph.D., P.E., General Manager, Calleguas 
  Municipal Water District, prepared statement...................   581
Kimble, Jay L., Mayor, City of Stillwater, MN, prepared statement   744
King, T. Keith, P.E., President and CEO, David Volkert & 
  Associates, Inc., Mobile, AL, prepared statement...............   631
Klass, Dr. Donald L., President, Biomass Energy Research 
  Association, prepared statement................................   833
Knabe, Don, Chairman of the Board, Supervisor, Fourth District, 
  County of Los Angeles, prepared statement......................   852
Kornegay, H. Thomas, Executive Director, Port of Houston 
  Authority, prepared statement..................................   749
Krebs, Dr. Martha, Director, Office of Science, Department of 
  Energy.........................................................   383
    Prepared statement...........................................   393
    Statement of.................................................   388
Krygsman, Alexander, Director, Port of Stockton, prepared 
  statement......................................................   855

LaGrange, Gary P., Executive Director/CEO, Port of South 
  Louisiana, LaPlace, LA, prepared statement.....................   667
Langjahr, Joseph H., Vice President and General Counsel, Foss 
  Maritime, letter from..........................................   624
LaPlace, Aubrey J., President, Board of Commissioners, 
  Pontchartrain Levee District, Lutcher, LA, prepared statement..   683
Lee, Jan, Executive Director, Oregon Water Resources Congress, 
  prepared statement.............................................   781
Lema, Joseph E., Vice President, Manufacturers and Services 
  Division, National Mining Association, prepared statement......   653
LeVake, Barbara, President, the Resources Agency and the 
  Reclamation Board, State of California, prepared statement,....   542
Levine, John L., Jr., President, Associated Branch Pilots, 
  Metairie, LA, prepared statement...............................   669
Libeu, Larry, President, Western Coalition of Arid States 
  (WESTCAS):
    Letter from..................................................   595
    Prepared statement...........................................   768
Lopez, Gaye, Manager, Colusa Basin Drainage District, prepared 
  statement......................................................   545
Losoya, Milton, Mayor, City of Woodland, prepared statement......   551
Lowe, A. Lynn, President, Red River Valley Association, prepared 
  statement......................................................   688
Lyon, Dick, Mayor, City of Oceanside, CA, prepared statements..580, 857

Mackey, Karan, Chair, Board of Supervisors, County of Lake, 
  California, prepared statement.................................   597
Madigan, Michael D., Chairman, California Water Commission, 
  prepared statement.............................................   525
Magwood, Bill, Director, Office of Nuclear Energy, Science and 
  Technology, Department of Energy...............................   383
    Prepared statement...........................................   419
    Statement of.................................................   415
Martin, William, Chairman, Tumalo Irrigation District, prepared 
  statement......................................................   783
Martinez, Eluid, Commissioner, Bureau of Reclamation, Bureau of 
  Reclamation, Department of the Interior........................     1
    Prepared statement...........................................     8
    Statement of.................................................     7
Mauderly, Joe L., Senior Scientist and Director of External 
  Affairs, The Lovelace Respiratory Research Institute, prepared 
  statement......................................................   796
McClelland, John S., Jr., Midstream Fuel Service, Inc., Mobile, 
  AL, prepared statement.........................................   626
McConnell, Hon. Mitch, U.S. Senator from Kentucky, questions 
  submitted by...................................................   495
McCrory, Robert L., Professor and Director, Laboratory for Laser 
  Energetics, University of Rochester, prepared statement........   807
McDonough, Frank M., Executive Director, New Jersey Maritime 
  Resources, State of New Jersey, Commerce & Economic Growth 
  Commission, prepared statement.................................   615
McKenzie Watershed Council, prepared statement...................   782
Melton, Carlton J., Regional Vice President, Gulf & Inland 
  Region, Stevedoring Services of America, Mobile, AL, prepared 
  statement......................................................   630
Merrihew, Lawrence L., Senior Vice President, Regions Bank, 
  Mobile, AL, prepared statement.................................   629
Metropolitan Water District of Southern California, prepared 
  statement......................................................   592
Mikels, Jon D., Chairman, Supervisor, Second District, County of 
  San Bernardino, prepared statement.............................   552
Miklos, Mayor Steve, City of Folsom, California, prepared 
  statements...................................................595, 597
Miller, Chairman Harold, Chairman, Crow Creek Sioux Tribe, 
  prepared statement.............................................   741
Miller, George, Mayor, City of Tucson, prepared statement........   758
Milnes, Dwane, Executive Director, San Joaquin Area Flood Control 
  Agency and City Manager, City of Stockton, California, prepared 
  statement......................................................   846
Minnesota-Wisconsin Boundary Area Commission, prepared statement.   747
Minsky, Reynold S., President, Board of Commissioners, Fifth 
  Louisiana Levee District, Tallulah, LA, prepared statement.....   680
Mni Wiconi Project, prepared statement...........................   733
Morgan, Carl, President, Economic Development Authority, Selma, 
  AL, prepared statement.........................................   640
Morgan, Sheldon L., President, Warrior-Tombigbee Waterway 
  Association, prepared statement................................   620
Mosher, Carl W., Director, Environmental Services Department, 
  City of San Jose, California, prepared statement...............   547
Murray, Hon. Patty, U.S. Senator from Washington, questions 
  submitted by...................................................   188

National Waterways Alliance, prepared statement..................   599
Nelson, Les, Chairman, Solar Thermal & Building Products 
  Division, Solar Energy Industries Association (SEIA), prepared 
  statement......................................................   831
Nelson, Ron, Chairman, Deschutes Basin Resources Conservancy, 
  prepared statement.............................................   779
Noble, Vernon A., Chairman, Green Brook Flood Control Commission, 
  prepared statement.............................................   619
Northwest Power Planning Council, prepared statement.............   770
Nuisance Flooding Near the 3B's Portion of the Butte Basin 
  Overflow, Sacramento River, Butte County, California, prepared 
  statement......................................................   568

O'Brien, Terrence J. President, Metropolitan Water Reclamation 
  District of Greater Chicago, prepared statement................   699
Orillion, Wayne, President, Board of Commissioners, Atchafalaya 
  Basin Levee District, Port Allen, LA, prepared statement.......   678
Owendoff, James M., Acting Assistant Secretary for Environmental 
  Management, Environmental Management and Civilian Waste 
  Management Programs, Department of Energy......................   269
    Prepared statement...........................................   273
    Statement of.................................................   271

Pace, W.O., Chairman, Autauga County Commission, letter from.....   639
Palmer, R. Barry, Executive Director, DINAMO, prepared statement.   651
Parsons, Richard W., Dredging Program Manager, Ventura Port 
  District, prepared statement...................................   854
Perrenot, Frederick A., P.E., General Manager, City of Houston, 
  prepared statement.............................................   752
Peterson, J. M., President, Missouri River Bank Stabilization 
  Association, prepared statement................................   728
Peterson, R. Max, Executive Vice President, International 
  Association of Fish and Wildlife Agencies, prepared statement..   606
Pettygrove, Hon. George, Mayor, City of Fairfield, California, 
  prepared statements..........................................551, 596
Pfeifle, Kurt, General Manager, Mid-Dakota Rural Water Project 
  (Public Law 102-575), prepared statement.......................   729

Rabbon, Peter D., General Manager, the Resources Agency and the 
  Reclamation Board, State of California, prepared statement.....   542
Ravan, Jack E., Director and Chief Executive Officer, Alabama 
  State Docks Department, Mobile, AL, prepared statement.........   633
Red River Waterway Commission, Natchitoches, LA, prepared 
  statement......................................................   698
Reicher, Dan, Assistance Secretary, Office of Energy Efficiency 
  and Renewable Energy, Department of Energy:
    Prepared statement...........................................   449
    Statements of..............................................383, 438
Reid, Hon. Harry, U.S. Senator from Nevada:
    Prepared statement...........................................     3
    Questions submitted by.....................................176, 509
    Statements of...........................................2, 194, 384
Reis, Dr. Victor H., Assistant Secretary, Office of Defense 
  Programs, Atomic Energy Defense and Nonproliferation Programs, 
  Department of Energy...........................................   193
    Prepared statement...........................................   198
    Statement of.................................................   195
Renner, George, President, Board of Directors, Central Arizona 
  Water Conservation District, prepared statement................   757
REPI Action Coalition, prepared statement........................   842
Richard, Roger P., Executive Director, Port of Greater Baton 
  Rouge, Port Allen, LA, prepared statement......................   668
Richmond, George R., President and Chief Operating Officer, Jim 
  Walter Resources, Inc., letter from,...........................   632
Rimsza, Skip, Mayor, City of Phoenix, prepared statement.........   764
Rogers, Ross, General Manager, Merced Irrigation District, 
  prepared statement.............................................   550
Rousselle, Benny, Plaquemines Parish Government, Belle Chasse, 
  LA, prepared statement.........................................   669

Sacramento Area Flood Control Agency, prepared statement.........   846
San Diego, California, Water Reclamation Program, prepared 
  statement......................................................   564
Sanguinotti, Phillip A., President, The Anniston Star, Anniston, 
  AL, prepared statement.........................................   636
Santa Clara Valley Water District, San Jose, California, prepared 
  statement......................................................   559
Schafer, R. L., District Engineer, Cawelo Water District, 
  Bakersfield, California, prepared statement....................   569
Schafer, R. L., Secretary/Watermaster, Tule River Association, 
  Porterville, California, prepared statement....................   569
Seminole Tribe of Florida, prepared statement....................   647
Serna, Joe, Jr., Mayor, City of Sacramento, California, prepared 
  statement......................................................   590
Sherrill, Lynn, Vice President, Operations, Crounse Corporation, 
  Paducah, KY, prepared statement................................   623
Smith, Jimmy, Commission President, Humboldt Bay Harbor, 
  Recreation and Conservation District, Eureka, California, 
  prepared statement.............................................   859
Smith, Sandy, Executive Director, Monroeville Area Chamber of 
  Commerce, Monroeville, AL, prepared statement..................   637
Stein, Theodore, Jr., Commission President, Port of Los Angeles 
  Board of Harbor Commissioners, prepared statement..............   850
Stepan, J. Craig, General Manager, Warrior & Gulf Navigation 
  Company, Chickasaw, AL, prepared statement.....................   632
Steve, Jaime, Legislative Director, American Wind Energy 
  Association, prepared statement................................   822
Stevens, Hon. Ted, U.S. Senator from Alaska:
    Questions submitted by.......................................   520
    Statement of.................................................    63
Stewart, Jerry L., Vice President Fuel Services, Southern Company 
  Generation, letter from........................................   629
Story, Charles, Vice President Governmental & Public Affairs, 
  Degussa-Huls, Theodore, AL, prepared statement.................   624
Sublette, Kerry L., Sarkeys Professor of Environmental 
  Engineering, University of Tulsa, prepared statement...........   804
Svendson, Douglass W., Jr., Executive Director, Gulf Intracoastal 
  Canal Association, prepared statement..........................   752

Thomas, Fred, Sr., Chairman, Pikitanoi Rural Water Supply System, 
  Kickapoo Tribe, prepared statement.............................   718
Thompson, Michael D., President, Thompson Power Systems, 
  Birmingham, AL, prepared statement.............................   630

U.S. Army Corps of Engineers, prepared statement.................   621
University of Medicine and Dentistry of New Jersey, prepared 
  statement......................................................   810
Upper Mississippi River Basin Association, prepared statement....   722

Vann, James A., Jr., President and Chief Executive Officer, 
  Alabama Electric Cooperative, Inc., Andalusia, AL, prepared 
  statement......................................................   622
Vanselow, Glenn, Executive Director, Pacific Northwest Waterways 
  Association, prepared statement................................   773
Venable, Jim, Chairman, Board of Supervisors, Riverside County 
  Flood Control and Water Conservation District, prepared 
  statement......................................................   576
Volusia County, Florida, prepared statement......................   646

Waldon, Donald G., Administrator, Tennessee-Tombigbee Waterway 
  Development Authority, Columbus, MS, prepared statement........   640
Waldron, Marie, Council Member, City of Escondido, California, 
  prepared statement.............................................   556
Wallace, James D., President, Selma and Dallas County Chamber of 
  Commerce, Selma, AL, prepared statement........................   639
Wanamaker, James E., Chief Engineer, Board of Mississippi Levee 
  Commissioners, prepared statement..............................   686
Wehe, Prof. David K., University of Michigan, prepared statement.   839
Weiland, Kenneth L., P.E., CEO and Chief Engineer, Yazoo-
  Mississippi Delta (YMD) Levee Board, prepared statement........   683
West, Carol W., Executive Director, Tucson Regional Water 
  Council, prepared statement....................................   764
Westphal, Dr. Joseph W., Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil:
    Prepared statement...........................................    68
    Statements of................................................63, 65
Whetstone, Mayor David D., Jr., letter from......................   638
White, M. Dean, Port Captain, Orsouth Midland Enterprises, 
  Orsouth Transport Co., letter from.............................   628
Wilk, J. Tim, Hunt Crude Oil Supply Co., Tuscaloosa, AL, prepared 
  statement......................................................   625
Williams, M.V., President, West Tennessee Tributaries 
  Association, Friendship, TN and Chairman, Executive Committee, 
  Mississippi Valley Flood Control Association, prepared 
  statement......................................................   674
Wiseman, Glenwood W., Executive Director, Lake Charles Harbor & 
  Terminal District, Lake Charles, LA, prepared statement........   668
Wolf, George E., Jr., P.E., Assistant City Manager/Director of 
  Public Works, Kansas City, Missouri, prepared statement........   717

Zieschang, Ernie, President, Port of Liberty Commission, prepared 
  state- 
  ment...........................................................   754


                             SUBJECT INDEX

                              ----------                              

                          DEPARTMENT OF ENERGY

          Atomic Energy Defense and Nonproliferation Programs

                                                                   Page
Advanced driver development......................................   250
Aging nuclear scientists of concern..............................   235
BN-600 reactor...................................................   266
Budget request, sufficiency of...................................   234
Canadian reactors................................................   265
Chemical and biological:
    Threats......................................................   212
    Weapons......................................................   209
Chemistry and Metallurgical Research (CMR) building upgrade......   255
Chiles Commission Report.........................................   246
    Recommendations..............................................   223
Chinese nuclear weapons..........................................   245
Comprehensive Test Ban Treaty....................................   234
Contamination:
    Explosive testing............................................   226
    Resulting from explosive testing.............................   226
Core technologies and NEPA compliance............................   221
Critical needs not addressed in budget...........................   223
Declassification initiative......................................   213
Domestic security..............................................209, 244
Emergency management.............................................   210
Emergency response...............................................   213
    Capability...................................................   228
Environmental Safety Center......................................   232
Environmental Surety Program.....................................   231
Experimental facilities, progress on major.......................   204
Experimental programs............................................   202
50 Tons, Definition of...........................................   263
Fiscal year:
    1999 emergency supplemental appropriation....................   216
    2000 budget request........................................210, 214
Fissile material storage, surplus................................   221
GAS U.S.-Russian reactor technology development..................   216
Idaho Operations Office..........................................   256
Immobilization...................................................   218
Independent project review.......................................   254
Initiatives for Proliferation Prevention (IPP), GAO Report on..241, 260
International nuclear safety.....................................   208
    Cooperation..................................................   212
Kazakhstan BN-350 activities.....................................   266
Manufacturing capabilities.......................................   200
Material Protection, Control and Accounting [MPC&A].......207, 211, 259
Mixed oxide fuel fabrication and irradiation services............   219
MOX vs. Vitrification............................................   264
National Ignition Facility.......................................   249
National security challenges.....................................   212
New construction projects........................................   243
New weapons, production of.......................................   240
Nonproliferation technology......................................   265
Nuclear Cities Initiatives (NCI)..........................243, 262, 266
Nuclear:
    Emergency Response and Technology Partnerships programs......   205
    Emergency Response Program...................................   228
    Power plant in Cuba, status of...............................   237
    Smuggling....................................................   229
    Weapons stockpile, condition of the..........................   246
        Russia's production of...................................   242
Office of Counterintelligence fiscal year 2000 budget request....   257
Parallel U.S. and Russia Programs................................   263
Pit:
    Disassembly and conversion...................................   218
    Production, reestablishing.................................241, 252
Plutonium disposition:
    Activities, budget request summary for.......................   220
    Progress with Russia on......................................   239
Presidential Initiative..........................................   258
Prior year balances, use of......................................   257
Production plants and labs funding, balance of...................   223
Program:
    Direction....................................................   222
    Integration..................................................   206
Proliferation prevention and nuclear cities initiative (IPP), 
  initiatives for....................................208, 212, 229, 261
RBMK reactors....................................................   224
Research and development.........................................   213
Russia:
    Cooperative efforts with.....................................   237
    Nuclear power plants in......................................   224
    Work with....................................................   220
Russian:
    Assistance to Iran, concern about............................   235
    Breeder reactors.............................................   233
    Naval fuel assistance........................................   232
    Navy Fleet...................................................   266
    Plutonium disposition......................................219, 239
    Talks, status of.............................................   262
Schedule.........................................................   265
Simulation and computation.......................................   204
Skilled workers, attract and maintain............................   227
START II.........................................................   236
Stewardship:
    Lab missions flow from.......................................   196
    Production complex response to...............................   197
Stockpile:
    Life extension and surveillance..............................   200
    Management, Funding for......................................   251
    Safety reliability and security..............................   222
    Stewardship..................................................   247
        Challenge, meeting the...................................   195
        Interagency coordination.................................   198
        Is working, how..........................................   199
    Y2K concerns.................................................   225
Surplus:
    Nuclear materials threat.....................................   222
    Plutonium disposition summary................................   217
Test readiness, maintaining......................................   226
Tritium..........................................................   202
    Production............................................197, 237, 252
U.S.-Russia plutonium agreement................................215, 225
Uranium disposition, highly enriched.............................   221
Weapons activities, funding for..................................   246
Y2K impact on Chernobyl-type reactors............................   224

    Environmental Management and Civilian Waste Management Programs

Accomplishments..................................................   345
    Fiscal year 1998-fiscal year 1999............................   299
        Major program............................................   308
    Progress--cleaning up and closing sites......................   274
Actinide packaging and storage facility..........................   374
Advanced mixed waste treatment project (AMWTP)...................   363
Cleanup:
    Budget.......................................................   362
    Complex-wide integration to support..........................   279
    Estimated cost of............................................   318
    Level of.....................................................   319
    Outyear funding requirements for.............................   331
    Program to Corps of Engineers, impact of transferring........   347
    Progress toward completing...................................   277
Comprehensive Environmental Response, Compensation, and Liability 
  Act (CERCLA) Cleanup at DOE Sites..............................   344
Defense spent fuel and waste.....................................   331
DOE:
    Cleanup Program, cost of...................................339, 344
    Cleanup with previous estimates, comparison of cost of.......   318
DWPF, canister production at.....................................   377
Earthquake threats...............................................   314
EM Program, the fiscal year 2000 request reflects the evolution 
  of the.........................................................   275
Environmental legacy, meeting the challenge of the...............   274
Environmental Management Centers.................................   379
EPA groundwater standard.........................................   320
External oversight and payments-equal-to-taxes...................   339
Fiscal year:
    2000 budget request........................................272, 296
        Application of the.......................................   302
        Summary of the.........................................280, 299
    2001, funding requirements for...............................   320
FUSRAP sites.....................................................   319
Groundwater:
    Contamination................................................   321
    Potential problems...........................................   336
Hanford:
    Activities...................................................   272
    Reprogramming/EM Program accountability and control..........   355
    Site.........................................................   365
        Budget.................................................317, 322
        Manager..................................................   317
Heavy water, processing of.......................................   377
Idaho National Engineering & Environmental Laboratory..........330, 362
    Long-range plan at...........................................   334
Idaho, shipment of transuranic waste out of......................   328
In-tank precipitation project (ITP)..............................   375
Integration effort, complex-wide.................................   335
Jack Ass Flats radiation exposure................................   335
Litigation.......................................................   298
Local government, payments to the State and affected units of....   299
Los Alamos Environmental Restoration Program.....................   354
Management reforms...............................................   276
Nuclear waste, costs of transporting.............................   337
Oak Ridge National Laboratory....................................   377
On-site:
    Disposal, costs to set up....................................   336
    Storage costs................................................   332
        Alternative options to...................................   338
        Maintenance costs of.....................................   337
        Nuclear regulatory commission............................   334
        Regulatory concerns for..................................   333
        Utility compensation for.................................   332
Pit 9:
    At Inel......................................................   329
    Project......................................................   364
Plutonium oxide stabilization....................................   315
Program goals and progress.......................................   271
Program management and integration........................302, 306, 311
Quality assurance................................................   299
Recent accomplishments...........................................   295
Rock fractures...................................................   313
Rocky Flats:
    Additional workload at.......................................   315
    Alternatives for storage at..................................   326
    Cleanup......................................................   361
    Funding......................................................   324
    Site.........................................................   323
    Storage of waste at..........................................   315
S-608............................................................   334
Savannah River site..............................................   373
Science and technology....................................278, 358, 381
Spent Nuclear Fuel:
    On-site interim storage of...................................   337
    Programs.....................................................   329
Tank waste remediation system (TWRS).............................   367
    Privatization................................................   317
        Project..................................................   320
Three Mile Island fuel storage...................................   329
Transuranic waste................................................   316
2006 completion, funding for.....................................   361
Viability assessment...........................................295, 297
Waste acceptance, storage, and transportation.............301, 306, 311
Waste Isolation Pilot Plant (WIPP)........................322, 352, 381
    Costs associated with delay in opening.......................   326
    Lawsuit at...................................................   316
    Opening......................................................   362
    Project......................................................   272
    Shipping non-mixed waste to..................................   326
Work requirements, additional....................................   324
Yucca Mountain............................................299, 302, 308
    Milestones, acceleration of..................................   338
    Schedule.....................................................   295
    Site, total spent at the.....................................   336
    Water migration..............................................   312

            Office of Energy Efficiency and Renewable Energy

Appropriated funding, appropriate use of.........................   469
Biofuels programs................................................   440
Biopower/biofuels................................................   461
Carbon fuel tax..................................................   471
Electric energy systems and storage..............................   467
Fiscal year 2000 budget request..................................   447
Geothermal energy................................................   465
Hydrogen.........................................................   466
Hydropower.......................................................   466
International Solar Energy Program...............................   468
Kyoto accord.....................................................   471
National Renewable Energy Laboratory.............................   464
Photovoltaic.....................................................   439
    Energy systems...............................................   457
Program accomplishments..........................................   439
Renewable Energy Production Incentive Program....................   463
Renewable energy technologies....................................   385
Solar and renewable energy technologies, overview of the fiscal 
  year 2000 request for..........................................   455
Solar building technology research...............................   456
Solar Power Program:
    Concentrating................................................   459
    Direction....................................................   469
    Support......................................................   463
Sole source vs. competitively awarded grants.....................   448
Superconductivity................................................   447
Wind energy systems..............................................   460

            Office of Nuclear Energy, Science and Technology

Accelerator transmutation of waste...............................   492
Advanced radioisotope power systems..............................   427
Department of Energy, developing...............................422, 424
EBR-II...........................................................   475
Energy diversity and security, providing for.....................   420
Environmental future, securing our...............................   426
Fast flux test facility [FFTF].................................433, 475
Isotope support..................................................   431
Maintaining vital nuclear research facilities and supporting a 
  strong educational infrastructure..............................   424
Mission critical technologies....................................   422
Moly-99 program..................................................   474
Nuclear energy plant optimization................................   417
    Advisory committee...........................................   418
    Program....................................................429, 476
Nuclear energy research:
    Advisory committee...........................................   475
    And development (R&D)......................................416, 427
Nuclear Energy Research Initiative [NERI].................417, 429, 473
Nuclear energy, science and technology...........................   415
Nuclear power, importance of.....................................   437
Nuclear powerplant relicensing...................................   473
Program direction................................................   435
Roadmap for the 21st century.....................................   420
Termination costs................................................   433
Test reactor area landlord.......................................   428
University reactor fuel assistance and support...................   430
Uranium programs.................................................   434

                           Office of Science

Bates Laboratory funding.........................................   491
Biological and environmental research............................   404
Climate change:
    Budget request...............................................   384
    Technology initiative........................................   492
Computational and technology research............................   411
Employment levels................................................   486
Energy research analyses.........................................   413
Energy supply R&D programs.......................................   414
Facilities support...............................................   412
Field structure..................................................   487
Fiscal year 2000 budget request..................................   390
Fusion energy sciences...........................................   410
GAO study........................................................   392
Goals and strategies, rethinking our.............................   395
High energy physics..............................................   406
High flux beam reactor...........................................   490
Human genome projects............................................   387
Low dose radiation research......................................   488
Multi program energy laboratories................................   412
Nuclear energy programs..........................................   386
Nuclear physics..................................................   409
Our mission hasn't changed.......................................   394
Potential programmic problem areas...............................   493
Program accomplishments..........................................   390
Program overview.................................................   389
Sandia, micro-machines program at................................   478
Science education................................................   413
Science program:
    Basic energy sciences........................................   402
    Direction....................................................   413
Science research budget request..................................   386
Scientific simulation initiative.................................   392
Spallation neutron source [SNS]................................391, 479
Strategies--initiatives for fiscal year 2000, implementing the...   397
Technical information management.................................   414

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

                                                                      1
Animas-La Plata..................................................    38
Bay-Delta:
    Ecosystem funding............................................    25
    Funding by agency............................................    26
Budget:
    Priorities, stakeholders' input into.........................    29
    Request......................................................     2
Bureau of Reclamation............................................     6
Bureauwide operation and maintenance costs.......................    28
California Bay-Delta Ecosystem Restoration (CALFED).............. 5, 41
    Appropriations and expenditures..............................    26
    Expenditures.................................................    27
    Program......................................................     4
    Status of spending on........................................    31
Central Arizona project..........................................    49
Central Utah project............................................. 5, 15
Central Utah Project Completion Act..............................     6
Competing water demands, managing................................    42
Cost Overruns....................................................    56
CVP, American River Division.....................................    49
Dakota Resources Act.............................................    17
Dam Safety Program...............................................20, 45
Dams:
    Corrective actions, initiate safety of.......................    45
    Initiate safety of...........................................    45
    Safety evaluation of existing................................    45
Desalination.....................................................11, 21
    Funding in Federal Government Agencies.......................22, 23
    Reclamation's Future Focus...................................    12
        Role in..................................................    11
Drought:
    Assistance...................................................    20
    Funding......................................................    21
Emergency planning and disaster response program.................    52
Garrison diversion unit..........................................    60
Glendive, Montana................................................    31
Indian water settlements.........................................    25
Lake Powell draining.............................................    16
Land management and fish & wildlife activities...................    60
Long Beach water reclamation and reuse...........................    51
Lower Yellowstone title transfer--intake diversionary dam........    55
Montana safety of dams projects..................................    54
MR&I needs of Indian tribes......................................    18
New Mexico drought conditions....................................    34
Nimbus fish hatchery interpretive facility.......................    49
O&M activities, staffing levels for..............................    29
Operation and maintenance costs..................................    42
Overall Program Goals............................................    13
Pueblo Dam.......................................................    46
Reclamation:
    Grazing permits..............................................    30
    Recreation Management Program--Title XXVIII..................    38
Red Butte Dam....................................................    15
Red River Valley Water Need Studies..............................    19
Safety of dams...................................................    19
    Program......................................................     7
Salinity control program.........................................    15
Salton Sea, California research project..........................    39
San Juan Gallup--Navajo water supply study.......................    36
San Juan River project...........................................    24
    Gallup, Mount Taylor pipeline................................    35
Snake River plain aquifer........................................    60
Taos Indian water rights settlement..............................    36
Technical/Emphasis Areas.........................................    13
Title XVI water reclamation and reuse program....................    54
    Water reuse program..........................................    16
Truckee River Operating Agreement................................    10
Upper Rio Grande basin water management..........................    37
Ute Reservoir pipeline project, Curry and Roosevelt Counties, NM.    37
Year 2000 compliance.............................................    47
Yellowstone River flooding conditions............................    30
Yellowtail Dam & Bighorn Lake operations.........................    58
Yuma:
    Area projects................................................    52
    Desalting plant..............................................    50

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

Acequias irrigation system, New Mexico.........................116, 163
Administrative appeals...........................................   112
Bluestone:
    Dam safety project...........................................   186
    Drift and debris.............................................   185
Bonneville and the Dalles powerhouse:
    Projects replace generating units............................   189
    Rehabilitation...............................................   102
Bonneville powerhouse phase II, Oregon and Washington (major 
  rehabilitation)................................................   103
Budget:
    Overview.....................................................    66
    Themes.......................................................    65
Business operations, improvement in..............................    88
Caspian tern.....................................................    96
Challenge 21 program.............................................   176
Civil Works program:
    Budget, fiscal year 2000.....................................    69
    Performance..................................................    69
Clarkston and Lewiston, ports of.................................    96
Coastal environmental impact study, Mississippi..................   167
Columbia and Snake Rivers........................................   101
Columbia River fish mitigation project...........................   188
Construction:
    Capabilities, fiscal year 2000...............................   120
    General......................................................71, 85
        Continuing authorities...................................   176
Cooperative agreements...........................................   187
Corps of Engineers:
    Dam Safety Program...........................................   115
    Financial management system..................................    89
    Vision.......................................................    90
Credits and reimbursements.......................................   104
Dam safety.......................................................   115
Devils Lake:
    Dikes........................................................   190
    North Dakota.................................................    97
    Outlet.......................................................    98
Divisions........................................................    87
Drawdown studies.................................................   103
Economy and the environment......................................    70
Efficiency and responsive measures...............................    79
Emergency operations organization................................    87
Environmental:
    Programs.....................................................    67
    Projects and aquatic ecosystems..............................   179
Erosion control, demonstration...................................   167
Fiscal year 2000:
    Civil Works program budget...................................    82
    Continuing program, highlights of the........................    71
FUSRAP program...................................................    80
General expenses.................................................    86
    Account......................................................    81
    Appropriation request........................................   146
General investigations...........................................    85
Government performance and results...............................    89
Grand Forks:
    Dikes........................................................   191
    North Dakota.................................................    98
Greenbrier basin flood protection................................   181
Harbor service:
    Fee, support for the.........................................   111
    Fund..............................................67, 109, 118, 176
        Proposal.................................................    69
Headquarters.....................................................    87
    And division offices, restructuring of.......................   177
Investigations, general..........................................    72
Island Creek at Logan............................................   186
Jackson County, Mississippi......................................   166
John Day Dam drawdown study......................................   102
Lafarge Lake, WI.................................................    99
Level deferred maintenance.......................................   113
Libby Dam, MT....................................................   175
London lock and Dam..............................................   187
Lower Las Vegas wash wetlands....................................   177
Lower Mud River..................................................   187
Marmet locks and Dam.............................................   180
Milo Creek.......................................................   174
Mississippi River and tributaries..............................149, 165
    Budget request...............................................   100
Mississippi River levees.........................................   166
Natchez, Mississippi.............................................   166
New funding......................................................    83
New investments..................................................    71
New study starts.................................................   105
O&M increase.....................................................   179
Operation and maintenance:
    Budget request...............................................   160
    General......................................................71, 85
    Program......................................................    81
Program execution...............................................80, 161
    Outlook......................................................    84
Project:
    Conditions...................................................   114
    Cost sharing problems........................................    64
    Management...................................................79, 88
Projects budgeted for fiscal year 2000, fully funded.............   120
Regulatory administrative appeals process........................    99
Regulatory appeals process.......................................   177
Regulatory program..................................67, 73, 81, 93, 170
    Administrative appeal.................................147, 168, 173
Reimbursed program...............................................    84
Reimbursements and credits.......................................   146
Remedial Action Program, formerly utilized sites................85, 160
Restructuring....................................................    86
Robert C. Byrd locks and Dam.....................................   184
Santa Ynez, CA study.............................................   109
Small Business Program...........................................    89
Snake River Dam removal..........................................    93
South Pacific division...........................................   163
Staffing.........................................................    84
Strategic planning...............................................    88
Technical centers of expertise...................................   163
2000 funding level, impact of....................................   180
Upper Jordan River restoration project, section 206..............    91
Upper Rio Grande water operation model, New Mexico.............116, 163
Water resource development process...............................    66
Water Resources Development Acts of 1999 and 2000................    69
West Virginia:
    Statewide flood protection plan..............................   184
    Tug Fork flood protection projects...........................   182
Wheeling riverfront..............................................   183
Winfield lock & Dam..............................................   185
Yellowtail Dam, MT...............................................    98

                                   - 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
